<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-701, Part 1]
[From the U.S. Government Publishing Office]


                                                 S. Hrg. 111-701, Pt. 1
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3454

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2011 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               ----------                              

                                 PART 1

MILITARY POSTURE AND TO RECEIVE TESTIMONY RELATING TO THE ``DON'T ASK, 
                          DON'T TELL'' POLICY
                         DEPARTMENT OF THE ARMY
                         DEPARTMENT OF THE NAVY
                      DEPARTMENT OF THE AIR FORCE
   U.S. EUROPEAN COMMAND, U.S. AFRICA COMMAND, AND U.S. JOINT FORCES 
                                COMMAND
            U.S. NORTHERN COMMAND AND U.S. SOUTHERN COMMAND
        U.S. SPECIAL OPERATIONS COMMAND AND U.S. CENTRAL COMMAND
  U.S. PACIFIC COMMAND, U.S. STRATEGIC COMMAND, AND U.S. FORCES KOREA
            BALLISTIC MISSILE DEFENSE POLICIES AND PROGRAMS
                    LITTORAL COMBAT SHIP ACQUISITION

                               ----------                              

FEBRUARY 2, 23, 25; MARCH 4, 9, 11, 16, 26; APRIL 20; DECEMBER 14, 2010




         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                              2011--Part 1

MILITARY POSTURE AND TO RECEIVE TESTIMONY RELATING TO THE ``DON'T ASK, 
DON'T TELL'' POLICY  b   DEPARTMENT OF THE ARMY  b   DEPARTMENT OF THE 
NAVY  b   DEPARTMENT OF THE AIR FORCE  b   U.S. EUROPEAN COMMAND, U.S. 
   AFRICA COMMAND, AND U.S. JOINT FORCES COMMAND  b   U.S. NORTHERN 
COMMAND AND U.S. SOUTHERN COMMAND  b   U.S. SPECIAL OPERATIONS COMMAND 
  AND U.S. CENTRAL COMMAND  b   U.S. PACIFIC COMMAND, U.S. STRATEGIC 
COMMAND, AND U.S. FORCES KOREA  b   BALLISTIC MISSILE DEFENSE POLICIES 
           AND PROGRAMS  b   LITTORAL COMBAT SHIP ACQUISITION


For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0f687f604f6c7a7c7b676a637f216c606221">[email&#160;protected]</a>  


62-155 PDF

                                 ______

2011

                                                 S. Hrg. 111-701, Pt. 1

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3454

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2011 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               __________

                                 PART 1

MILITARY POSTURE AND TO RECEIVE TESTIMONY RELATING TO THE ``DON'T ASK, 
                          DON'T TELL'' POLICY
                         DEPARTMENT OF THE ARMY
                         DEPARTMENT OF THE NAVY
                      DEPARTMENT OF THE AIR FORCE
   U.S. EUROPEAN COMMAND, U.S. AFRICA COMMAND, AND U.S. JOINT FORCES 
                                COMMAND
            U.S. NORTHERN COMMAND AND U.S. SOUTHERN COMMAND
        U.S. SPECIAL OPERATIONS COMMAND AND U.S. CENTRAL COMMAND
  U.S. PACIFIC COMMAND, U.S. STRATEGIC COMMAND, AND U.S. FORCES KOREA
            BALLISTIC MISSILE DEFENSE POLICIES AND PROGRAMS
                    LITTORAL COMBAT SHIP ACQUISITION

                               __________

FEBRUARY 2, 23, 25; MARCH 4, 9, 11, 16, 26; APRIL 20; DECEMBER 14, 2010

                               __________

         Printed for the use of the Committee on Armed Services


        Available via the World Wide Web: http://www.fdsys.gov/
?

  

                      COMMITTEE ON ARMED SERVICES

                         (Before July 22, 2010)

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                                 ______

                      COMMITTEE ON ARMED SERVICES

                         (After July 22, 2010)

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY GRAHAM, South Carolina
EVAN BAYH, Indiana                   JOHN THUNE, South Dakota
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           GEORGE S. LeMIEUX, Florida
MARK UDALL, Colorado                 SCOTT P. BROWN, Massachusetts
KAY R. HAGAN, North Carolina         RICHARD BURR, North Carolina
MARK BEGICH, Alaska                  DAVID VITTER, Louisiana
ROLAND W. BURRIS, Illinois           SUSAN M. COLLINS, Maine
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware
CARTE P. GOODWIN, West Virginia

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
Military Posture and to Receive Testimony Relating to the ``Don't Ask, 
                          Don't Tell'' Policy
                            february 2, 2010

                                                                   Page

Gates, Hon. Robert M., Secretary of Defense......................    11
Mullen, ADM Michael G., USN, Chairman, Joint Chiefs of Staff.....    21

                         Department of the Army
                           february 23, 2010

McHugh, John M., Secretary of the Army...........................   180
Casey, GEN George W., Jr., USA, Chief of Staff of the Army.......   228

                         Department of the Navy
                           february 25, 2010

Mabus, Hon. Raymond E., Jr., Secretary of the Navy...............   316
Roughead, ADM Gary, USN, Chief of Naval Operations...............   324
Conway, Gen. James T., USMC, Commandant of the Marine Corps......   342

                      Department of the Air Force
                             march 4, 2010

Donley, Hon. Michael B., Secretary of the Air Force..............   453
Schwartz, Gen. Norton A., USAF, Chief of Staff of the Air Force..   464

   U.S. European Command, U.S. Africa Command, and U.S. Joint Forces 
                                Command
                             march 9, 2010

Stavridis, ADM James G., USN, Commander, U.S. European Command...   538
Ward, GEN William E., USA, Commander, U.S. Africa Command........   576
Mattis, Gen. James N., USMC, Commander, U.S. Joint Forces Command   595

            U.S. Northern Command and U.S. Southern Command
                             march 11, 2010

Renuart, Gen. Victor E., Jr., USAF, Commander, U.S. Northern 
  Command, and Commander, North American Aerospace Defense 
  Command........................................................   655
Fraser, Gen. Douglas M., USAF, Commander, U.S. Southern Command..   672

        U.S. Special Operations Command and U.S. Central Command
                             march 16, 2010

Olson, ADM T., USN, Commander, U.S. Special Operations Command...   735
Petraeus, GEN David H., USA, Commander, U.S. Central Command.....   742

  U.S. Pacific Command, U.S. Strategic Command, and U.S. Forces Korea
                             march 26, 2010

Chilton, Gen. Kevin P., USAF, Commander, U.S. Strategic Command..   839
Willard, ADM Robert F., USN, Commander, U.S. Pacific Command.....   851
Sharp, GEN Walter L., USA, Commander, United Nations Command, 
  Combined Forces Command, U.S. Forces-Korea.....................   867

            Ballistic Missile Defense Policies and Programs
                             april 20, 2010

Miller, Hon. James N., Principal Deputy Under Secretary of 
  Defense for Policy.............................................   919
Gilmore, Hon. J. Michael, Director, Operational Test and 
  Evaluation, Department of Defense..............................   929
O'Reilly, LTG Patrick J., USA, Director, Missile Defense Agency..   933
Macy, RADM Archer M., Jr., USN, Director, Joint Integrated Air 
  and Missile Defense Organization, and Deputy Director for Force 
  Protection, J-8, The Joint Staff...............................   942

                    Littoral Combat Ship Acquisition
                           december 14, 2010

Mabus, Hon. Raymond E. Jr., Secretary of the Navy................  1018
Roughead, ADM Gary, USN, Chief of Naval Operations...............  1020
Stackley, Hon. Sean J., Assistant Secretary of the Navy for 
  Research, Development, and Acquisition.........................  1021
Pandolfe, RADM Frank C., USN, Director, Surface Warfare Division 
  OPNAV N86......................................................  1023
Labs, Eric J., Ph.D., Senior Analyst for Naval Forces and 
  Weapons, Congressional Budget Office...........................  1023
O'Rourke, Ronald, Specialist in Naval Affairs, Congressional 
  Research Service...............................................  1032
Francis, Paul L., Managing Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................  1042


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                       TUESDAY, FEBRUARY 2, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

MILITARY POSTURE AND TO RECEIVE TESTIMONY RELATING TO THE ``DON'T ASK, 
                          DON'T TELL'' POLICY

    The committee met, pursuant to notice, at 9:05 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman), presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, Bayh, Webb, McCaskill, 
Udall, Hagan, Begich, Burris, McCain, Inhofe, Sessions, 
Chambliss, Graham, Thune, Wicker, LeMieux, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Madelyn R. Creedon, counsel; Gabriella Eisen, counsel; Richard 
W. Fieldhouse, professional staff member; Creighton Greene, 
professional staff member; Jessica L. Kingston, research 
assistant; Michael J. Kuiken, professional staff member; Gerard 
J. Leeling, counsel; Peter K. Levine, general counsel; Jason W. 
Maroney, counsel; William G.P. Monahan, counsel; Michael J. 
Noblet, professional staff member; Roy F. Phillips, 
professional staff member; John H. Quirk V, professional staff 
member; and William K. Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, professional staff member; 
Christian D. Brose, professional staff member; Pablo E. 
Carrillo, minority investigative counsel; Paul C. Hutton IV, 
professional staff member; Michael V. Kostiw, professional 
staff member; Daniel A. Lerner, professional staff member; 
David M. Morriss, minority counsel; Lucian L. Niemeyer, 
professional staff member; Christopher J. Paul, professional 
staff member; Diana G. Tabler, professional staff member; 
Richard F. Walsh, minority counsel; and Dana W. White, 
professional staff member.
    Staff assistants present: Kevin A. Cronin, Jennifer R. 
Knowles, Christine G. Lang, and Breon N. Wells.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Christopher Griffin, assistant to 
Senator Lieberman; Carolyn A. Chuhta, assistant to Senator 
Reed; Nick Ikeda, assistant to Senator Akaka; Christopher 
Caple, assistant to Senator Bill Nelson; Ann Premer, assistant 
to Senator Ben Nelson; Patrick Hayes, assistant to Senator 
Bayh; Gordon I. Peterson, assistant to Senator Webb; Tressa 
Steffen Guenov, assistant to Senator McCaskill; Jennifer 
Barrett, assistant to Senator Udall; Lindsay Kavanaugh, 
assistant to Senator Begich; Roosevelt Barfield, assistant to 
Senator Burris; Anthony J. Lazarski, assistant to Senator 
Inhofe; Lenwood Landrum and Sandra Luff, assistants to Senator 
Sessions; Clyde A. Taylor IV, assistant to Senator Chambliss; 
Adam G. Brake, assistant to Senator Graham; Jason Van Beek, 
assistant to Senator Thune; Erskine W. Wells III, assistant to 
Senator Wicker; Brian Walsh, assistant to Senator LeMieux; and 
Chip Kennett, assistant to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning everybody. The committee this 
morning welcomes Secretary of Defense Robert Gates and Chairman 
of the Joint Chiefs of Staff (JCS) Admiral Michael Mullen for 
our hearing on the Department of Defense (DOD) fiscal year 2011 
budget request and the associated Future Years Defense Program 
(FYDP), the 2010 Quadrennial Defense Review (QDR), and the 2010 
Ballistic Missile Defense Review (BMDR).
    Gentlemen, as always we are thankful to you and to your 
families for your dedicated service to our Nation, to the 
soldiers, sailors, airmen, and marines at home, and in harm's 
way around the globe, and to their families. Your commitment to 
the welfare of our troops and their families shines through all 
that you do. The American people are grateful for that and we 
are grateful and eager to help whenever we can.
    The fiscal year 2011 budget request includes $549 billion 
for the base budget and $159 billion for the ongoing wars in 
Iraq and Afghanistan. On top of this $708 billion request for 
2011, the administration has included a 2010 supplemental 
request of $33 billion to fund the additional 30,000 troops to 
support the President's Afghanistan policy announced last 
December.
    The budget request continues the defense reforms begun last 
year to rebalance the force toward the military capabilities 
necessary to prevail in today's conflicts, to buy weapons that 
are relevant and affordable, and to assure that tax dollars are 
used wisely.
    The long-anticipated 2009 QDR report was also submitted on 
Monday with the Department's 2011 budget. This is, and the 
report is explicit, a wartime QDR. The Department's analysis 
and decisions place the focus and priority on policies, 
programs, and initiatives that support the current fight in 
Afghanistan and Iraq and against al Qaeda. The QDR makes and 
justifies tough choices and indicates that more tradeoffs will 
be necessary in the future.
    I'll note that along with the budget request the 
administration submitted the BMDR. This review was required by 
the National Defense Authorization Act (NDAA) for Fiscal Year 
2009. This is the first comprehensive policy and strategy 
framework for missile defense and it is long overdue.
    Secretary Gates' cover memo to the report notes that ``I 
have made defending against near-term regional threats a top 
priority of our missile defense plans, programs, and 
capabilities,'' and that statement is consistent with what 
Congress has been urging for many years.
    The report also says that before new missile defense 
programs will be deployed, they must first be tested 
realistically to demonstrate that they are effective and 
reliable. It also states that our missile defense programs must 
be fiscally sustainable over the long term, and emphasizes 
international cooperation with our allies and partners, and 
expresses an interest in cooperation with Russia. Those are all 
important elements of a sound missile defense policy.
    Consistent with the reform goals set out by Secretary Gates 
and the results of the QDR, a top priority for DOD must be the 
critical requirements for the ongoing conflicts in Afghanistan 
and Iraq. This committee has sought to ensure that our 
combatant commanders have what they need to succeed in those 
conflicts, including technologies to counter improvised 
explosive devices (IEDs); mine resistant ambush protected 
(MRAP) all-terrain vehicles (ATVs); intelligence, surveillance, 
and reconnaissance (ISR) assets; and additional helicopters. 
This committee will continue to support the needs of our men 
and women who are in those conflicts.
    I have long argued that the principal mission in 
Afghanistan should be training the Afghan security forces so 
that they can take responsibility for the security of their 
country. What we heard during our recent visit to Afghanistan 
was that President Obama's speech at West Point in December had 
a tangible, positive effect on the recruitment of Afghan 
security forces. Lieutenant General Bill Caldwell, the head of 
NATO training mission in Afghanistan, told us that President 
Obama's setting of the July 2011 date for the beginning of U.S. 
troop reductions in Afghanistan energized Afghanistan's 
leadership, made clear to them that President Obama means 
business when he says our commitment is not open-ended, and got 
them to focus on planning for the shift in responsibility for 
Afghan security that is highlighted by that 2011 July date.
    Even more than a pay raise, General Caldwell told us, the 
July 2011 date increased recruiting of Afghan soldiers because 
Afghan leaders called for and reached out to local leaders to 
produce new recruits across the country. The number of Afghan 
recruits in training has jumped from 3,000 in November to over 
11,000 as of last month.
    Key to the success of the mission of strengthening the 
Afghan Army will be the partnering of coalition and Afghan 
units together on a one-to-one unit basis and for Afghans to 
take the lead in operations. The budget the President sent over 
yesterday includes significant resources for the training and 
partnering mission, including increased funding for the Afghan 
Security Forces Fund in both the 2010 supplemental and the 2011 
request. The fully-integrated partnering of coalition and 
Afghan units, living together and integrating their lives 
daily, is at the heart of our troops' mission.
    Lieutenant General David Rodriguez, the Commander of the 
International Security Assistance Force (ISAF) Joint Command in 
Afghanistan, has promised to get us data, indicated on a chart 
that I have up behind me and a handout which is circulated, on 
the number of Afghan units fully-integrated with coalition 
forces and how many of those Afghan units are in the lead-in 
operations. This effort is key to the transition to an Afghan 
lead-in providing for the Nation's security and we will track 
this data very closely.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. While I'm pleased with the increased 
partnering in the field, we were disappointed with the 
shortfall in trainers for the initial training needed for the 
Afghan Army and police. General Caldwell told us that he had 
only 37 percent of the required U.S. and NATO trainers on hand 
and NATO countries were about 90 percent short of meeting their 
commitment to provide about 2,000 non-U.S. trainers. That's 
simply inexcusable and our NATO allies must do more to close 
the gap in trainers.
    In the area of personnel, I am pleased that this budget 
request provides increased funding for military personnel and 
for the defense health program. The budget request includes 
funding to support the care and treatment of wounded warriors, 
including $1.1 billion for the treatment, care, and research of 
traumatic brain injuries (TBIs) and psychological health. The 
budget would also increase funding for family support programs 
by $500 million over last year's levels and include the funding 
necessary to support the temporary increase to the Army's 
active duty end strength to 569,400, which will help improve 
dwell time and reduce stress on the force.
    The catastrophic January 12 earthquake that struck Haiti 
reminded all of us just how indiscriminate natural disasters 
can be and renewed America's commitment to Haiti. DOD has 
mobilized resources and manpower to aid in the relief effort in 
support of the Department of State and the U.S. Agency for 
International Development (USAID).
    Just last week, the committee approved a $400 million 
reprogramming to ensure that DOD was adequately resourced for 
that important support mission. We are prepared to continue to 
work with Secretary Gates and Admiral Mullen to ensure DOD is 
able to continue providing support to this critical 
humanitarian disaster response effort in the weeks and months 
ahead, and we all greatly appreciate the skill shown by U.S. 
Service personnel in response to the Haiti disaster.
    Now, following this hearing, as previously announced, at 
around noon we're going to turn to the issue of Don't Ask, 
Don't Tell (DADT). I would appreciate questions on that subject 
being asked after Secretary Gates' statement on the subject at 
that time.
    Secretary Gates, Admiral Mullen, we look forward to your 
testimony, and now I turn to Senator McCain for any opening 
remarks that he may have.
    [The prepared statement by Senator Levin follows:]
                Prepared Statement by Senator Carl Levin
    This morning, the committee welcomes Secretary of Defense Robert 
Gates and Chairman of the Joint Chiefs of Staff, Admiral Michael 
Mullen, for our hearing on the Department of Defense's (DOD) fiscal 
year 2011 budget request and the associated Future Years Defense 
Program, the 2010 Quadrennial Defense Review (QDR), and the 2010 
Ballistic Missile Defense Review.
    Gentlemen, as always we are thankful to you and your families for 
your dedicated service to the Nation and to the soldiers, sailors, 
airmen, and marines at home and in harm's way around the globe and to 
their families. Your personal commitment to the welfare of our troops 
and their families shines through all that you do. The American people 
are grateful for that and we are grateful and eager to help wherever we 
can.
    The fiscal year 2011 budget request for the Department of Defense 
includes $549 billion for the base budget and $159 billion for the 
ongoing wars in Iraq and Afghanistan. On top of the $708 billion 
request for 2011 the administration has included a 2010 supplemental 
request of $33 billion to fund the additional 30,000 troops to support 
the President's Afghanistan policy announced last December. The budget 
request continues the defense reforms begun last year to rebalance the 
force toward the military capabilities necessary to prevail in today's 
conflicts, to buy weapons that are relevant and affordable, and ensure 
that tax dollars are used wisely.
    The long anticipated 2009 QDR Report was also submitted on Monday 
with the Department's fiscal year 2011 budget submission. This is, and 
the report is explicit, a wartime QDR. The Department's analysis and 
decisions places the focus and priority on policies, programs, and 
initiatives that support the current fight in Afghanistan and Iraq, and 
against al Qaeda. The QDR makes and justifies tough choices--and 
indicates that more tradeoffs will be necessary in the future.
    It is also worth noting that this QDR's force sizing framework is 
no longer based on a combination of simultaneous or sequential major 
regional conflicts, as it has in the past, such as the ability to fight 
and prevail in two major wars. Instead, the analysis used a series of 
wargames through a range of plausible strategic scenarios to inform 
decisions on force structure and capability or capacity adjustments. 
The QDR assumes that our security challenges and the operational 
environment will be as taxing into the future as it is today. 
Therefore, the emphasis remains on appropriately sufficient force 
capability and capacity to support current operations and ensuring the 
sustainability of the All-Volunteer Force through the rotational 
demands that appear likely over the next several years. As we all hope, 
over time, forces no longer needed to support operations in Iraq and 
Afghanistan, will shift their focus to preparing for and deterring 
future adversaries--in other words, rebuilding our military strategic 
depth, which is critically important for long-term security of our 
Nation.
    I would note that, along with the budget request, the 
administration submitted the Ballistic Missile Defense Review (BMDR). 
This review was required by the National Defense Authorization Act for 
Fiscal Year 2009. This is the first comprehensive policy and strategy 
framework for missile defense, and it is long overdue. Secretary Gates' 
cover memo to the report notes, ``I have made defending against near-
term regional threats a top priority of our missile defense plans, 
programs, and capabilities.'' This is consistent with what Congress has 
been urging for several years.
    In addition to outlining our national priorities for defending the 
homeland against missile threats from nations like North Korea and 
Iran, and for flexible and adaptable regional missile defense, the 
review describes several important policies. For example, it says that 
before new missile defense systems will be deployed, they must first be 
tested realistically and demonstrate that they are effective and 
reliable. It also states that our missile defense programs must be 
fiscally sustainable over the long term. It emphasizes international 
cooperation with our allies and partners, and expresses an interest in 
cooperation with Russia. I believe these are all important elements of 
a sound missile defense policy.
    Consistent with the reform goals set out by Secretary Gates and the 
results of the Quadrennial Defense Review, a top priority for the 
Department must be the critical requirements for the ongoing conflicts 
in Afghanistan and Iraq. This committee has sought to ensure that our 
combatant commanders have what they need to succeed in those conflicts, 
including technologies to counter improvised explosive devices; MRAP-
All Terrain Vehicles; intelligence, surveillance and reconnaissance 
assets; and additional helicopters. I am confident that this committee 
will continue to support the needs of our men and women who are in 
these conflicts.
    The next 12-18 months will be critical in Afghanistan. Based on 
what I saw and heard during my visit to Afghanistan in January, I am 
somewhat more optimistic than I was after my last visit in September 
that the fully-resourced, counterinsurgency strategy announced by 
President Obama is the right strategy and is starting to take hold. 
This strategy focuses on the security of the Afghan people. Our troops 
understand and embrace this people-centered approach.
    I have long argued that our principal mission in Afghanistan should 
be training the Afghan security forces so they can take responsibility 
for the security of their country. What we heard during our visit to 
Afghanistan was that President Obama's speech at West Point in December 
had a tangible, positive impact on the recruitment of the Afghan 
security forces. Lieutenant General Bill Caldwell, the head of the NATO 
Training Mission in Afghanistan, told us that President Obama's setting 
of the July 2011 date for the beginning of U.S. troop reductions in 
Afghanistan energized Afghanistan's leadership, made clear to them that 
President Obama means business when he says our commitment is not open-
ended, and got them to focus on planning for the shift in 
responsibility for Afghanistan's security that is highlighted by that 
July 2011 date. Even more than the pay raise, General Caldwell told us 
the July 2011 date has increased recruiting because Afghan leaders 
called for and reached out to local leaders to produce new recruits 
across the country. As a result, the number of Afghan recruits in 
training jumped from 3,000 in November to over 11,000 as of last month.
    Key to the success of the mission of strengthening the Afghan Army 
will be the partnering of coalition and Afghan units together, on a one 
unit-to-one unit basis, and for Afghans to take the lead in operations. 
The budget the President sent over yesterday includes significant 
resources for the training and partnering missions, including increased 
funding for the Afghan Security Forces Fund in both the fiscal year 
2010 Supplemental and the fiscal year 2011 request.
    The fully integrated partnering of coalition and Afghan units--
living together and integrating their lives daily--is at the heart of 
our troop's mission. Lieutenant General David Rodriguez, the commander 
of the ISAF Joint Command in Afghanistan, has promised to get me data, 
indicated on the chart behind me and the handout that was circulated, 
on the number of Afghan units fully integrated with coalition forces 
and how many of those Afghan units are in the lead in operations. This 
effort is key to the transition to an Afghan lead in providing for 
their nation's security. Accordingly, I intend to track the data on 
this chart very closely.
    While I am pleased with the increased partnering in the field, I am 
disappointed with the shortfall in trainers for initial training needed 
for the Afghan Army and police. Lieutenant General Caldwell told us he 
had only 37 percent of the required U.S. and NATO trainers on hand, and 
NATO countries were about 90 percent short of meeting NATO's commitment 
to provide about 2,000 non-U.S. trainers. This is simply inexcusable, 
and our NATO allies must do more to close the gap in trainers.
    Other areas where progress appears to be happening are in equipping 
the Afghan security forces, including with equipment coming out of Iraq 
as U.S. forces draw down there, and in putting in place a plan for 
reintegrating lower-level Taliban fighters willing to lay down their 
arms and abide by the Afghan Constitution. In both of these areas, U.S. 
efforts in Afghanistan have been aided by authorities provided by 
Congress in last year's National Defense Authorization Act.
    Also challenging over the coming months will be maintaining 
security and stability in Iraq. Following Iraq's national elections, 
the posture and mission of U.S. forces in Iraq will change 
significantly, as they draw down from over 100,000 to under 50,000 
soldiers, and the U.S. combat mission comes to an end in August of this 
year, as called for by President Obama. The U.S.-Iraq status of forces 
agreement sets a December 2011 deadline for the withdrawal of all U.S. 
forces from Iraq.
    Even as operations continue in Iraq and Afghanistan, we also must 
continue to bring the fight to al Qaeda and its affiliates as they look 
for new operational hubs. We have already seen al Qaeda's interest in 
places like Yemen and Somalia, but we must attempt to ensure we are a 
step ahead of al Qaeda in places like West Africa and the South 
Pacific. Assisting our allies and partners in these regions is critical 
and DOD's focus on building the capacity of our allies and partners is 
welcome.
    Turning to the readiness of our Armed Forces, the fiscal year 2011 
budget request provides adequate levels of funding including support 
for ongoing operations in Iraq and Afghanistan. The war funding request 
includes $21.3 billion for repairing and replacing equipment and $2.8 
billion in the base budget to reset and reconstitute equipment. This 
committee has long advocated for the Department to shift funding for 
reset and reconstitution from the war budget into the base budget and 
it appears they have finally begun to do so in this year's budget 
request. We must recognize however that the $2.8 billion is a modest 
down payment against our long term reset and reconstitution 
requirements and this level of funding will need to be sustained 
several years after forces have withdrawn from Iraq and Afghanistan.
    Readiness funding in this year's budget request increases by 8.5 
percent to account for additional costs associated with depot 
maintenance, flying hours, steaming days, training, force growth, and 
other increases in operational tempo. It is imperative these vital 
readiness accounts are protected and fully funded. However, while our 
deployed forces remain ready as they go into combat, until there is a 
decrease in operational tempo, force readiness for non-deployed units 
will continue to suffer historical lows, which poses significant risk 
and adverse impacts to our National Military Strategy.
    In the area of personnel, I am pleased that this budget request 
provides increased funding for military personnel and the Defense 
Health Program. The budget request includes funding to support the care 
and treatment of Wounded Warriors, including $1.1 billion for the 
treatment, care, and research of traumatic brain injuries (TBI) and 
psychological health. The budget would also increase funding for family 
support programs by $500 million over last year's levels and include 
the funding necessary to support the temporary increase of the Army's 
active-duty end strength to 569,400, which will help improve dwell time 
and reduce stress on the force.
    I am disappointed, Secretary Gates, that you have announced that 
you will recommend a veto if the Defense bills include funding for the 
F136 alternate engine. Apart from the attributes afforded by 
competition in improving technology and ensuring better contractor 
performance, I believe that the business case today may be different 
than the one the Department faced 4 years ago when the Department made 
the original termination decision. Based on the information that I have 
been provided, it would appear to me that the additional investment 
that Congress has made in the program since that original decision 
would change the business case for going forward with this program. At 
the time of the original decision, the Institute for Defense Analyses 
(IDA) assessed that the F136 alternate engine would have to achieve 
savings of roughly 18 percent to make economic sense, a figure in 
excess of the historical averages achieved in previous procurement 
programs, which IDA assessed as being 14.6 percent. With the additional 
investment that we have made since that time, it would appear that the 
required savings threshold would now be closer to 13 percent, or a 
figure below the average that procurement competitions have yielded in 
the past.
    The catastrophic January 12 earthquake that struck Haiti reminded 
all of us just how indiscriminate natural disasters can be and renewed 
America's commitment to Haiti. DOD has mobilized resources and manpower 
to aid in the relief effort in support of the Department of State and 
U.S. Agency for International Development. Just last week, the 
committee approved a $400 million reprogramming to ensure DOD was 
adequately resourced for this important support mission, and we are 
prepared to continue to work with the Secretary and Admiral Mullen to 
ensure DOD is able to continue to provide support to this critical 
humanitarian disaster response effort in the weeks and months ahead. We 
appreciate the skill shown by U.S. Service personnel in response to the 
Haiti disaster.
    Following this hearing, as previously announced, at around noon, we 
will turn to the issue of ``Don't Ask, Don't Tell.'' I would appreciate 
questions on that subject being asked after Secretary Gates' statement 
on the subject.
    Secretary Gates, Admiral Mullen, we look forward to your testimony. 
Now I will turn to Senator McCain for any opening remarks he may have.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you very much, Mr. Chairman, and I 
join you in welcoming the witnesses to discuss the President's 
budget request for fiscal year 2011 and the 2010 QDR and its 
impact on the FYDP for DOD.
    Secretary Gates, I greatly appreciate that you continue to 
place the highest priority of the Department on supporting the 
men and women of the Armed Forces. I am consistently amazed and 
heartened by the courage, commitment, and dedication of the 
brave men and women who choose to answer the call to defend the 
Nation. We all know they endure long, hard work under very 
demanding conditions and in some cases making the ultimate 
sacrifice. They in turn ask their families to endure unwelcome 
separations and the burden of managing the homefront. Your 
country's volunteer force and their families are a national 
asset and they deserve our steadfast and united support.
    Informed by the 2010 QDR, your 2011 base budget request of 
$549 billion builds upon the substantial changes you outlined 
in last year's budget by establishing strategic priorities and 
identifying where DOD needs to spend scarce resources. 
Secretary Gates, last year I supported your view that winning 
the wars of today, while deterring and preparing for the 
conflicts of tomorrow required a balancing of risks. I look 
forward to your assessment of why this year's budget and the 
QDR that it's based on entail an acceptable amount of risk 
between our present and future priorities.
    The 2011 overseas contingency operations (OCO) request of 
$159 billion and 2010 supplemental request of $33 billion 
support our men and women in Iraq and Afghanistan, and I fully 
support your efforts to use OCO and supplemental funding to 
address many operational shortfalls in Afghanistan through 
increased funding for ISR assets, electronic warfare 
capabilities, and increasing the end strength of our Special 
Operations Forces (SOF).
    Your request includes significant funding for building the 
Afghan security forces. I remain very concerned that we're not 
on pace to achieve the end strength of 400,000 by 2013 as 
recommended by General McChrystal. I'm eager to hear whether 
you think your funding request will enable us to achieve that 
goal.
    On the issue of a 2011 withdrawal, from speaking with the 
President of Pakistan to the tribal leader in Kandahar who 
fought against the Russians, there's great uncertainty out 
there because of the President's statement. There's great 
uncertainty whether we're going to stay, and it was raised to 
me by every leader that I met with, including the tribal chief 
who had fought against the Russians, who looked at me and said: 
``Are you going to stay or are you going to leave like you did 
last time?''
    Our allies and friends in the region need to be reassured 
that 2011 is not the date for withdrawal and, although your 
words and that of the Secretary of State have been excellent, 
the President has not made that statement in a way that would 
be reassuring to our allies as well as to our enemies.
    Because we ask our men and women in uniform and their 
families to sacrifice so much, both Congress and the 
administration must be ready to make some tough funding 
decisions, something we've failed miserably at in previous 
years. Despite numerous calls last year for earmark reform, the 
fiscal year 2010 defense appropriations bill signed into law a 
bill that contained over $4 billion in earmarks and $3 billion 
in unrequested and unwanted funding for C-17s and the 
alternative engine for the Joint Strike Fighter (JSF). That's 
$7 billion that the Department had to eat in programs that it 
didn't request or need.
    This business as usual spending that we've come to accept 
is unnecessary, wasteful, and it diverts precious funding from 
other, more pressing military priorities.
    Secretary Gates, I was encouraged in your rollout of the 
budget yesterday that you laid an early marker with Congress by 
indicating that if we added funds to continue the C-17 and 
alternate engine for the JSF in 2011 you would recommend that 
the President veto the bill. I strongly support such a 
recommendation, but feel it may fall on deaf ears up here 
unless that veto threat comes early, consistently, and directly 
from the President.
    We cannot continue to condone spending billions of dollars 
on programs that the Department doesn't want or need. If the 
President is really serious, if he's really serious about not 
wasting billions of dollars more of the taxpayers' money, he 
should also say that he will veto any appropriations bill that 
comes across his desk with earmarks and pork barrel spending on 
it. It has to stop.
    On the F-35 JSF program, I appreciate the management 
decisions you announced yesterday to replace the program 
executive officer and withhold more than $600 million where 
accountability required that those changes be made. As you 
appropriately stated yesterday during your press conference: 
``When things go wrong, people will be held accountable.'' I'd 
like to see that happen in some other areas of government.
    I am nonetheless concerned about your comment during the 
press conference that it was clear there were more problems 
with the F-35 than you were aware of when you visited the Fort 
Worth plant last August. With your recently announced 
management decisions, I hope the process by which you get 
reliable, up to date information about important aspects of the 
program when you need it has improved.
    However, I am still concerned about whether the Services 
will get sufficiently capable JSFs when they need them. Just a 
few weeks ago, the Director of Operational Test and Evaluation 
found that continued production concurrent with the slow 
increase in flight testing over the next 2 years will commit 
DOD and the Services to test, training, and deploy plans with 
substantial risk. Naval Air Systems Command (NAVAIR) recently 
determined that the Marine Corps and the Navy's version of the 
JSF may end up being too expensive to operate, with each flight 
hour flown costing about $31,000 compared with around $19,000 
per flight hour for the Services' current F/A-18 Hornets and 
AV-8B Harriers. I'd appreciate if you could comment on these 
and potentially other issues you see facing this program.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Mr. Chairman, thank you. I join you in welcoming Secretary Gates 
and Chairman Mullen today to discuss the President's budget request for 
fiscal year 2011, the 2010 Quadrennial Defense Review (QDR), and its 
impact on Future Years Defense Programs for the Department of Defense.
    Secretary Gates, I greatly appreciate that you continue to place 
the highest priority of the Department on supporting the men and women 
of the U.S. Armed Forces. I am consistently amazed and heartened by the 
courage, commitment, and dedication of the brave men and women who 
choose to answer the call to defend our Nation. They endure long hard 
work under very demanding conditions, and in some cases making the 
ultimate sacrifice. They, in turn ask their families to endure 
unwelcome separations and the burden of managing the homefront. Our 
country's volunteer force and their families are a national asset. They 
deserve our steadfast and united support.
    Informed by the 2010 QDR, your 2011 base budget request of $549 
billion builds upon the substantial changes you outlined in last year's 
budget by establishing strategic priorities and identifying where the 
Department needs to spend scarce resources. Secretary Gates, last year 
I supported your view that winning the wars of today while deterring 
and preparing for the conflicts of tomorrow required a balancing of 
risk. I look forward to your assessment of why this year's budget, and 
the QDR that it is based on, entail an acceptable amount of risk 
between our present and future priorities.
    Your 2011 Overseas Contingency Operations (OCO) request of $159 
billion and 2010 supplemental request of $33 billion supports our men 
and women in Iraq and Afghanistan. I fully support your efforts to use 
OCO and supplemental funding to address many operational shortfalls in 
Afghanistan through increased funding for intelligence, surveillance 
and reconnaissance (ISR) assets, Electronic Warfare (EW) capabilities 
and increasing the end strength of our Special Operations Forces. Your 
request includes significant funding for building the Afghan security 
forces. I remain concerned that we are not on pace to achieve the end 
strength of 400,000 by 2013, as recommended by General McChrystal. I am 
eager to hear whether you think your funding request will enable us to 
achieve that goal.
    Because we ask our men and women in uniform and their families to 
sacrifice so much, both Congress and the administration must be ready 
to make some tough funding decisions--something that we have failed 
miserably at in previous years. Despite numerous calls last year for 
earmark reform, the fiscal year 2010 Defense Appropriations Bill signed 
into law contained over $4 billion in earmarks and $3 billion in 
unrequested and unwanted funding for C-17s and the alternative engine 
for the Joint Strike Fighter. That's $7 billion that the Department had 
to eat in programs that it didn't request or need. This business-as-
usual spending that we have come to accept is unnecessary, wasteful and 
it diverts precious funding from other more pressing military 
priorities. Secretary Gates, I was encouraged in your rollout of the 
budget yesterday that you laid an early marker with Congress by 
indicating that if we added funds to continue the C-17 and alternate 
engine for the Joint Strike Fighter in 2011, you would recommend that 
the President veto the bill. I strongly support such a recommendation, 
but feel it may fall on deaf ears up here unless that veto threat comes 
early, consistently and directly from the President. We cannot continue 
to condone spending billions of dollars on programs that the Department 
doesn't want or need. If the President is serious about not wasting 
billions of dollars of the taxpayers' money, then he should use every 
opportunity this year to vow to veto any appropriations bill that that 
is laden with pork barrel spending.
    Mr. Secretary, on the F-35 Joint Strike Fighter Program, I 
appreciate the management decisions you announced yesterday--to replace 
the program executive officer and withhold more than $600 million--
where accountability required that those changes be made. As you 
appropriately stated yesterday during your press conference, `When 
things go wrong, people will be held accountable.' I am, nonetheless, 
concerned about your comment during the press conference that it was 
clear there were more problems with the F-35 than you were aware of 
when you visited the Fort Worth plant last August. With your recently 
announced management decisions, I hope the process by which you get 
reliable, up-to-date information about important aspects of the Program 
when you need it, has improved.
    However, I am still concerned about whether the Services will get 
sufficiently capable Joint Strike Fighters when they need them. Just a 
few weeks ago, the Director, Operational Testing and Evaluation found 
that continued production concurrent with the slow increase in flight 
testing over the next 2 years will commit the Department and Services 
to test, training, and deployment plans with substantial risk. NAVAIR 
recently determined that the Marine Corps and the Navy's version of the 
Joint Strike Fighter may end up being too expensive to operate, with 
each flight hour flown costing about $31,000, compared with around 
$19,000 per flight hour for the Services' current F/A-18 Hornets and 
AV-8B Harriers. I would appreciate it if you could comment on these and 
potentially other issues you see facing this program.
    Thank you Chairman Levin.

    Chairman Levin. Thank you, Senator McCain.
    I will put the balance of my statement in the record and if 
there's part of your statement that you didn't give, of course, 
that will be made part of the record, too, if you wish.
    Secretary Gates, we welcome you, Admiral Mullen, and Mr. 
Hale. Please proceed.

    STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE

    Secretary Gates. Mr. Chairman, members of the committee: 
Thank you for the opportunity to appear before you to discuss 
the President's budget request for fiscal year 2011.
    I first want to thank you for your support of the men and 
women of the United States military these many years. These 
troops are part of an extraordinary generation of young 
Americans who have answered their country's call. They have 
fought our wars, protected our interests and allies around the 
globe, and, as we have seen recently in Haiti, they have also 
demonstrated compassion and decency in the face of 
incomprehensible loss.
    I have a brief opening statement to provide an overview of 
the budget request. My submitted statement includes many more 
details that I know are of interest to the committee.
    Chairman Levin. Mr. Secretary, I'm going to interrupt you 
at this time and do something which I know you would love us to 
do, which is to approve a number of nominations. We have a 
quorum present and we should take advantage of that. Forgive 
the interruption. I will ask the committee now to consider 5 
civilian nominations and 1,802 pending military nominations.
    First, the civilian nominations of Douglas Wilson to be 
Assistant Secretary of Defense for Public Affairs; Malcolm Ross 
O'Neil to be Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology; Mary Sally Matiella to be Assistant 
Secretary of the Army for Financial Management and Comptroller; 
Paul Luis Oostburg Sanz to be General Counsel of the Department 
of the Navy; and Jacqueline Pfannenstiel to be Assistant 
Secretary of the Navy for Installations and Environment.
    Is there a motion to report these nominations?
    Senator McCain. So moved.
    Chairman Levin. Second?
    Senator Inhofe. Second.
    Chairman Levin. All in favor say aye. [Chorus of ayes.]
    That is approved.
    Finally, I'll ask the committee to consider the 1,802 
pending military nominations. They've been before the committee 
the required length of time. Is there a motion?
    Senator McCain. So moved.
    Chairman Levin. Second?
    Senator Inhofe. Second.
    Chairman Levin. Second. All in favor say aye. [Chorus of 
ayes.]
    Opposed, nay. [No response.]
    The motion carries. Thank you.
    Mr. Secretary.
    Secretary Gates. A most worthwhile interruption.
    The budget requests being presented today include $549 
billion for a base budget, a 3.4 percent increase over last 
year, or 1.8 percent real increase after adjusting for 
inflation, reflecting the administration's commitment to 
modest, steady, and sustainable real growth in defense 
spending. We're also requesting $159 billion in fiscal year 
2011 to support OCOs, primarily in Afghanistan and Iraq, plus 
$33 billion for the remainder of this fiscal year to support 
the added financial costs of the President's new approach in 
Afghanistan.
    The base budget request reflects these major institutional 
priorities: first, reaffirming and strengthening the Nation's 
commitment to care for the All-Volunteer Force, our greatest 
strategic asset; second, rebalancing America's defense posture 
by emphasizing capabilities needed to prevail in current 
conflicts while enhancing capabilities that may be needed in 
the future; and third, continuing the Department's commitment 
to reform how DOD does business, especially in the area of 
acquisitions. Finally, the commitments made and the programs 
funded in the OCO and supplemental requests demonstrate the 
administration's determination to support our troops and 
commanders in combat so they can accomplish their critical 
missions and come home safely.
    The budget continues the Department's policy of shifting 
money to the base budget for enduring programs that directly 
support warfighters and their families, whether on the 
battlefield, recovering from wounds, or on the homefront, to 
ensure that they have steady, long-term funding and 
institutional support.
    The base budget request was accompanied and informed by the 
2010 QDR, which establishes strategic priorities and identifies 
key areas for needed investment. The 2010 QDR and fiscal year 
2011 budget build upon the substantial changes that the 
President made in the fiscal year 2010 budget request to 
allocate defense dollars more wisely and reform the 
Department's processes.
    The fiscal year 2010 budget proposals cut, curtailed, or 
ended a number of programs that were either performing poorly 
or in excess of real world needs. Conversely, future-oriented 
programs where the United States was relatively underinvested 
were accelerated or received more funding.
    The fiscal year 2011 budget submissions and QDR are 
suffused with two major themes. The first is continued reform, 
fundamentally changing the way this Department does business, 
the priorities we set, the programs we fund, the weapons we 
buy, and how we buy them. Building on the reforms of last 
year's budget, the fiscal year 2011 request two additional 
steps aimed at programs that were excess or performing poorly. 
They include terminating the Navy EPX intelligence aircraft, 
ending the Third Generation Infrastructure Surveillance 
Program, cancelling the Next Generation CGX Cruiser, 
terminating the Net-Enabled Command and Control Program, ending 
the Defense Integrated Military Human Resources System (DIMHRS) 
due to cost overruns and performance concerns, completing the 
C-17 program and closing the production line, as multiple 
studies in recent years show that the Air Force already has 
more of these aircraft than it needs, and ending the alternate 
engine for the F-35 JSF, as whatever benefits might accrue are 
more than offset by excess costs, complexity, and associated 
risks.
    I am fully aware of the political pressure to continue 
building the C-17 and proceed with an alternate engine for the 
F-35. So let me be very clear: I will strongly recommend that 
the President veto any legislation that sustains the 
unnecessary continuation of these two programs.
    The budget and reviews are also shaped by a bracing dose of 
realism, with regard to risk, and with regard to resources. We 
have in a sober and clear-eyed way assessed risks, set 
priorities, made tradeoffs, and identified requirements based 
on plausible real-world threats, scenarios, and potential 
adversaries.
    Just one example. For years, U.S. defense planning and 
requirements were based on preparing to fight two major 
conventional wars at the same time, a force-sizing construct 
that persisted long after it was overtaken by events. The 
Department's leadership now recognizes that we must prepare for 
a much broader range of security challenges on the horizon. 
They range from the use of sophisticated new technologies to 
deny our forces access to the global commons of sea, air, 
space, and cyberspace to the threat posed by non-state groups 
delivering more cunning and destructive means to attack and 
terrorize, scenarios that transcend the familiar contingencies 
that dominated U.S. planning after the Cold War.
    We have learned through painful experience that the wars we 
fight are seldom the wars that we planned. As a result, the 
United States needs a broad portfolio of military capabilities 
with maximum versatility across the widest possible spectrum of 
conflict. This strategic reality shaped the QDR's analysis and 
subsequent conclusions, which directly informed the program 
decisions contained in the budget.
    Before closing, I would like to offer two thoughts to 
consider when assessing the U.S. investment in national 
defense. First, the requests submitted this week total more 
than $700 billion, a massive number to be sure. But at 4.7 
percent of gross national product, it represents a 
significantly smaller portion of national wealth going to 
defense than was spent during most of America's previous major 
wars, and the base budget represents 3.5 percent of GDP.
    Second, the President recently exempted the defense budget 
from spending freezes being applied to other parts of the 
government. It is important to remember, however, that, as I 
mentioned earlier, this Department undertook a painstaking 
review of our priorities last year and as a result cut or 
curtailed a number of major programs. These programs had they 
been pursued to completion would have cost the American 
taxpayer about $330 billion.
    In closing, Mr. Chairman, my thanks to you and members of 
this committee again for all you have done to support our 
troops and their families in light of the unprecedented demands 
that have been placed upon them. I believe the choices made and 
the priorities set in these budget requests reflect America's 
commitment to see that our forces have the tools they need to 
prevail in the wars we are in, while making the investments 
necessary to prepare for threats on or beyond the horizon.
    Thank you.
    [The prepared statement of Secretary Gates follows:]
               Prepared Statement by Hon. Robert M. Gates
    Mr. Chairman, members of the committee:
    Thank you for the opportunity to appear before you to discuss the 
President's budget requests for fiscal year 2011. I first want to thank 
you for your support of the men and women of the U.S. military these 
many years. I know they will be uppermost in your thoughts as you 
deliberate on these budget requests. Our troops are part of an 
extraordinary generation of young Americans who have answered their 
country's call. They have fought this country's wars, protected our 
interests and allies around the globe, and, as we've seen recently in 
Haiti, they have also demonstrated compassion and decency in the face 
of incomprehensible loss.
    The budget requests being presented today include $549 billion for 
the base budget--a 3.4 percent increase over last year, or 1.8 percent 
real growth after adjusting for inflation, reflecting this 
administration's commitment to modest, steady, and sustainable real 
growth in defense spending. We are also requesting $159 billion in 
fiscal year 2011 to support Overseas Contingency Operations (OCO), 
primarily in Afghanistan and Iraq, plus $33 billion for the remainder 
of this fiscal year to support the added financial costs of the 
President's new approach in Afghanistan.
    The base budget request was accompanied and informed by the 2010 
Quadrennial Defense Review (QDR), which establishes strategic 
priorities and identifies key areas for needed investment. The 2010 QDR 
and fiscal year 2011 budget build upon the substantial changes that the 
President made in the fiscal year 2010 budget request to allocate 
defense dollars more wisely and reform the department's processes.
    The base budget request reflects these major institutional 
priorities:

        <bullet> First, reaffirming and strengthening the Nation's 
        commitment to care for the All-Volunteer Force, our greatest 
        strategic asset;
        <bullet> Second, rebalancing America's defense posture by 
        emphasizing capabilities needed to prevail in current 
        conflicts, while enhancing capabilities that may be needed in 
        the future; and
        <bullet> Third, continuing the department's commitment to 
        reform how the Department of Defense (DOD) does business, 
        especially in the area of acquisitions.

    Finally, the commitments made and programs funded in the OCO and 
supplemental requests demonstrate this administration's determination 
to support our troops and commanders in Afghanistan and Iraq so they 
can accomplish their critical missions and return home safely.
    At this point, I would like to offer two thoughts to consider when 
assessing the U.S. investment in national defense:
    First, the requests submitted this week total more than $700 
billion--a massive number, to be sure. But, at 4.7 percent of gross 
national product, it represents a significantly smaller portion of 
national wealth going to defense than was spent during America's 
previous major wars.
    Second, the President recently exempted the defense budget from 
spending freezes being applied to other parts of the government. It is 
important to remember, however, that this department already undertook 
a painstaking review of our programs and priorities last year, and 
proposed to cut, curtail, or end a number of programs. These programs, 
had they been pursued to completion, would have cost the American 
taxpayer about $330 billion.
                    care for our all-volunteer force
    The fiscal year 2011 budget request includes $138.5 billion for 
military pay and allowances, an increase of $3.6 billion--or 2.6 
percent--over last year. This includes an increase of 1.4 percent for 
military basic pay, which will keep military pay increases in line with 
those in the private sector. This amount funds bonuses and other 
incentives to meet recruiting and retention quality and quantity 
goals--especially for our most critical skills and experience levels. 
The military deserves generous pay because of the stress and danger 
these jobs entail. In recent years, Congress has added 0.5 percent to 
the administration's requested military pay raise--an action that adds 
about $500 million a year to our budget now and in future years, and 
reduces the funds available for training and equipping the force. In 
this time of strong recruiting and retention, I urge Congress to 
approve the full requested amount for the fiscal year 2011 military pay 
raise but not to add to the request.
Wounded, Ill, and Injured
    This budget supports the department's intense focus on care for our 
wounded, ill, and injured military members. As I've said before, aside 
from winning the wars themselves, this is my highest priority. Key 
initiatives include:

        <bullet> Achieving a seamless transition to veteran status for 
        members leaving the military and increased cooperation between 
        the Departments of Defense and Veterans Affairs;
        <bullet> Ensuring a high standard at facilities caring for 
        wounded warriors, including first-rate hospitals and the Army's 
        Warrior Transition Units;
        <bullet> Enhancing case management of individuals transitioning 
        to civilian life--especially those needing long-term care;
        <bullet> Establishing a better Disability Evaluation System--to 
        create a simpler, faster, more consistent process for 
        determining which members may continue their military service 
        and helping them become as independent and self-supporting as 
        possible; and
        <bullet> Working with the VA to create Virtual Lifetime 
        Electronic Records to improve veteran care and services by 
        improving the availability of administrative and health 
        information.

    The fiscal year 2011 budget request includes $2.2 billion for 
enduring programs for our wounded, ill, and injured. It also includes 
$300 million to complete the Army's Warrior Transition complexes and 
new medical facilities in the Washington, DC, capital region. The $2.2 
billion for these programs is $100 million more than the fiscal year 
2010 enacted amount and is more than double the fiscal year 2008 level 
of $1 billion.
Military Health System
    The fiscal year 2011 budget includes $50.7 billion for the Unified 
Medical Budget to support the Military Health System that serves 9.5 
million eligible beneficiaries. Over the past decade, U.S. health-care 
costs have grown substantially, and defense health costs have been no 
exception, more than doubling between fiscal year 2001 ($19 billion) 
and fiscal year 2010 ($49 billion). These costs are expected to grow 
from 6 percent of the department's total budget in fiscal year 2001 to 
more than 10 percent in fiscal year 2015.
Military Family Support Programs
    The department remains fully committed to providing assistance to 
our troops and their families in light of the unprecedented demands 
that have been placed on them. As the President stated in the State of 
the Union Address last week, our men and women in uniform and their 
families have our respect, our gratitude, and our full support. The 
budget reflects the department's policy of shifting money to the base 
budget for enduring programs so that they will not disappear as war 
funding declines. The fiscal year 2011 base budget includes $8.1 
billion for a variety of family-support programs vital to the morale 
and well-being of our military members and their families--an increase 
of $450 million over last year. The OCO request includes $700 million 
for family support--bringing the total to $8.8 billion.
Build and Sustain Facilities
    The fiscal year 2011 budget includes $18.7 billion to fund critical 
military-construction and family-housing requirements, including 
substantial funding to recapitalize many department schools for 
children of servicemembers.
    The fiscal year 2011 Base Realignment and Closure (BRAC) investment 
funding of $2.4 billion is less than prior years because most of the 
funding needed to implement the 2005 round of BRAC decisions has 
already been appropriated for 24 major realignments, 24 base closures, 
and 765 lesser actions--all of which must be completed by September 15, 
2011, in accordance with statute.
    We have requested $14.2 billion to modernize the department's 
facilities; to support the recently completed growth in the Army and 
Marine Corps; to support the relocation of 8,000 marines from Okinawa 
to Guam; and to recapitalize medical facilities and schools for 
servicemembers' children.
               rebalancing the force--the wars we are in
    Achieving our objectives in Afghanistan and Iraq has moved to the 
top of the institutional military's budgeting, policy, and program 
priorities. We now recognize that America's ability to deal with 
threats for years to come will largely depend on our performance in the 
current conflicts. The fiscal year 2011 budget request took a number of 
additional steps aimed at filling persistent shortfalls that have 
plagued recent military efforts, especially in Afghanistan.
Rotary-Wing Aircraft
    To increase these capabilities, this request includes more than 
$9.6 billion for the acquisition of a variety of modern rotary-wing 
aircraft, including the creation of two Army combat aviation brigades 
by fiscal year 2014. The goal is to train 1,500 new Army helicopter 
pilots per year by 2012.
Intelligence, Surveillance, and Reconnaissance (ISR)
    The fiscal year 2011 budget request continues efforts to increase 
ISR support for our fighting forces. The ISR Task Force was formed in 
April 2008 to generate critical operational ISR capacity--primarily in 
Afghanistan and Iraq. Since then, the department has worked to secure 
substantial funding to field and sustain ISR capabilities. In the 
fiscal year 2011 budget, that includes:

        <bullet> $2.2 billion for procurement of Predator-class 
        aircraft to increase the Combat Air Patrols (CAPs) available to 
        deployed forces from 37 to 65 by 2013; and
        <bullet> Doubling procurement of the MQ-9 Reaper over the next 
        few years.
Electronic Warfare (EW)
    The fiscal year 2011 budget request supports the QDR's call for 
better EW capabilities for today's warfighters. The Navy procurement 
budget includes $1.1 billion in fiscal year 2011 and $2.3 billion in 
fiscal year 2012 for the addition of 36 EA-18G aircraft, with 12 
procured in fiscal year 2011 and 24 in fiscal year 2012. These 
resources and capabilities will help fill an imminent EW shortfall that 
has been consistently highlighted by the combatant commanders as one of 
their highest priorities.
Special Operations Forces (SOF)
    The fiscal year 2011 budget requests $6.3 billion for USSOCOM--
nearly 6 percent higher than in fiscal year 2010. The department plans 
to call for SOF funding to increase sharply over the next several 
years, including an increase of about 2,800 personnel in fiscal year 
2011.
            rebalancing the force--preparing for the future
    The fiscal year 2011 budget includes $189 billion for total 
procurement, research, and development. This investment reflects the 
fact that the United States needs a broad portfolio of military 
capabilities with maximum versatility across the widest possible 
spectrum of conflict, including conventional conflict with the 
technologically advanced military forces of other countries. To meet 
the potential threats to our military's ability to project power, deter 
aggression, and come to the aid of allies and partners in environments 
where access to our forces may be denied, this budget request includes 
substantial funds for conventional and strategic modernization.
Tactical Aircraft
    The fiscal year 2011 budget funds programs to develop and buy 
superior aircraft to guarantee continued air dominance over current and 
future battlefields, most importantly the F-35 Joint Strike Fighter 
(JSF). The fiscal year 2011 base budget includes $10.7 billion for 
continued development of the F-35, and for procurement of 42 aircraft. 
An additional JSF is purchased in the OCO budget. This budget reflects 
a restructuring of the JSF program to stabilize its schedule and cost. 
The department has also adjusted F-35 procurement quantities based on 
new data on likely orders from our foreign partners and realigned 
development and test schedules.
Mobility and Tanker Aircraft
    The fiscal year 2011 budget continues to support development of a 
new aerial refueling tanker. The KC-X, the first phase of KC-135 
recapitalization, will procure 179 commercial derivative tanker 
aircraft to replace roughly one-third of the current aerial refueling 
tanker fleet at an estimated cost of $35 billion. Contract award is 
expected in the summer of 2010 and procurement should begin in fiscal 
year 2013. To support this long-range effort, $864 million has been 
requested for research into the next-generation tanker.
    The fiscal year 2011 budget ends production of the C-17, supports 
shutdown activities for production of new aircraft, and continues the 
modification of existing C-17s. With the completion of the program, the 
United States will have 223 of these aircraft, more than enough to meet 
current and projected requirements.
Shipbuilding
    The fiscal year 2011 budget reflects the department's formulation 
of a realistic, executable shipbuilding plan through the Future Years 
Defense Program. Overall, the fiscal year 2011 budget includes $25.1 
billion for fiscal year 2011 procurement of new ships, equipment and 
research and development into future construction--including $15.7 
billion for Navy shipbuilding and conversion activities. It reinforces 
the ongoing transition to a naval force that can meet the needs of 
today's warfighters and reduce reliance on very costly and increasingly 
vulnerable large surface combatants in the future. The fiscal year 2011 
request and planned out-year funding would allow the department to:

        <bullet> Build a new aircraft carrier every 5 years;
        <bullet> Shift large-deck amphibious ship production to a 5-
        year build cycle to maintain a long-term force structure of 
        nine large-deck aviation ships to support amphibious 
        operations;
        <bullet> Stabilize near-term production quantities for the 
        Littoral Combat Ship and the Joint High Speed Vessel to support 
        irregular warfare operations;
        <bullet> Produce two attack submarines per year beginning in 
        fiscal year 2011 and continue development of a new strategic 
        deterrent submarine; and
        <bullet> Build three Mobile Landing Platform ships--one ship 
        per year in fiscal year 2011, fiscal year 2013, and fiscal year 
        2015.
Ground Forces Modernization
    The fiscal year 2011 budget advances restructuring of the Army's 
Future Combat Systems, principally through Brigade Combat Team (BCT) 
modernization. The fiscal year 2011 request for BCTs is $3.2 billion, 
mostly for research and development.
    The fiscal year 2011 budget also supports the development of a new 
ground-vehicle program to replace aging systems. The new program will 
take into account the hard battlefield lessons of recent years, 
especially with respect to threats posed by improvised explosive 
devices (IEDs), and will include a role for the MRAP and M-ATV vehicles 
that have been so important in Afghanistan and Iraq.
Space and Cyber Capabilities
    Just about all of our military forces--land, sea, and air--now 
depend on digital communications and the satellites and data networks 
that support them. The role of space and satellites has never been more 
crucial to military operations--from GPS-guided munitions and 
navigation to missile defense and communications. The fiscal year 2011 
budget continues to strengthen U.S. capabilities in space, with $599 
million allocated to procure Advanced Extremely High Frequency 
satellites instead of the Transformational Satellite, which was 
cancelled in the fiscal year 2010 budget.
    With cheap technology and minimal investment, adversaries operating 
in cyberspace can potentially inflict serious damage on our command and 
control, ISR, and precision strike capabilities. The fiscal year 2011 
budget continues to fund the recruiting and training of new experts in 
cyber warfare begun in fiscal year 2010, and supports the stand up of a 
new U.S. Cyber Command.
Ballistic Missile Defense
    DOD continues to pursue missile-defense systems that can provide 
real capability as soon as possible while taking maximum advantage of 
new technologies. In accordance with the 2010 Ballistic Missile Defense 
Review, our goal is a missile-defense program that balances 
capabilities and risks in order to deter aggression; project power and 
protect U.S. and allied interests; and respond to warfighter 
requirements.
    This year's base budget request includes $9.9 billion total for 
missile defense--almost $700 million more than last year, mostly for 
the Missile Defense Agency.
    This includes funding for:

        <bullet> Enhanced missile defenses for deployed forces, allies, 
        and partners to defend against regional threats--including 
        THAAD battery ground components and interceptors, as well as 
        the conversion of additional Aegis ships.
        <bullet> The ``Phased Adaptive Approach'' for missile defense: 
        a flexible, scalable system to respond to developing threats. 
        This has particular applicability to Europe, where the new 
        approach allows us to adapt our systems more rapidly as new 
        threats develop and old ones recede. In the short-term, we will 
        be able to provide immediate coverage and protection by 
        deploying current and proven systems such as the Aegis and SM-
        3.
        <bullet> A viable homeland defense against rogue threats--
        including ground-based interceptors at Fort Greely, AK, and 
        Vandenberg Air Force Base, CA.
        <bullet> Expansion of the flight-test program to test 
        capabilities against medium-, intermediate-, and long-range 
        threats.
        <bullet> Investments in break-through technologies to improve 
        our ability to counter threats during the boost phase while 
        focusing on the most promising new technologies.
Nuclear Weapons
    The Nuclear Posture Review (NPR) being released in March will 
outline the policy framework for achieving the President's objectives 
to reduce nuclear weapons with a long-term goal of elimination; and 
maintain a safe, secure, and effective arsenal as long as these weapons 
exist. It will also provide steps to strengthen deterrence while 
reducing the role of nuclear weapons. While the NPR conclusions are 
still being developed, the President's budget requests for the Defense 
and Energy departments reflect several priorities already established 
in our review:

        <bullet> Funding to sustain a nuclear triad of ICBMs, SLBMs, 
        and heavy bombers under the New START Treaty; and
        <bullet> Increased National Nuclear Security Administration 
        funding for infrastructure, warhead life extension, and science 
        and technology.

    Details of these and other elements of our nuclear posture will be 
presented in the final NPR report in March.
Building Partner Capacity
    In a world where arguably the most likely and lethal threats will 
emanate from failed and fractured states, building the security 
capacity of partners has emerged as a key capability--one that reduces 
the need for direct U.S. military intervention, with all of its 
attendant political, financial, and human costs. To provide more 
resources, predictability, and agility to this important mission, the 
department will seek an increase in Global Train and Equip authority in 
the fiscal year 2011 budget to $500 million--authority that includes 
coalition activities to support current operations.
         reforming how the department of defense does business
    President Obama is committed to ending unneeded and troubled 
programs and achieving a better balance between capabilities needed to 
succeed in current conflicts and capabilities needed to prepare for the 
conflicts we are most likely to see in the future.
    The fiscal year 2011 budget request builds on the reforms of last 
year by ending a number of unneeded or troubled programs:

        <bullet> Next Generation Cruiser CG(X): Cancelled due to 
        concerns about costs and utility in future combat scenarios. 
        Any resulting capability gap will be filled by an enhanced Navy 
        destroyer program.
        <bullet> Navy Intelligence Aircraft EP(X): This Navy-planned 
        EP-3 replacement was cancelled because of cost and its 
        redundancy with other technologies and systems.
        <bullet> Third Generation Infrared Surveillance: This sensor 
        system was cancelled because there are better alternatives.
        <bullet> The Defense Integrated Military Human Resources System 
        (DIMHRS): DIMHRS has been in development for over 10 years and 
        cost $500 million--with little to show and limited prospects.
        <bullet> Net Enabled Command and Control: This joint program 
        has had cost overruns and performance shortfalls.
JSF Alternate Engine
    One of the tougher decisions we faced during this budget process 
was whether or not to formally add the alternate engine to the Joint 
Strike Fighter program. It has been the position of this department 
since 2007 that adding a second JSF engine was unnecessary and too 
costly.
    Over the past year, as part of our thorough review of the overall 
JSF program, we took a fresh look to determine whether the second 
engine option had reached a point in funding and development that 
supported a different conclusion. We considered all aspects of this 
question and, in the end, concluded that the facts and analysis simply 
do not support the case for adding an alternate engine program. There 
are several rationales for this conclusion:
    First, even after factoring in Congress' additional funding, the 
engine would still require a further investment of $2.5 billion over 
the next 5 years.
    Second, the additional costs are not offset by potential savings 
generated through competition. Even optimistic analytical models 
produce essentially a break-even scenario.
    Third, the solution to understandable concern over the performance 
of the Pratt & Whitney program is not to spend yet more money to add a 
second engine. The answer is to get the first engine on track. Further, 
the alternate engine program is 3 to 4 years behind in development 
compared to the current program, and there is no guarantee that a 
second program would not face the same challenges as the current 
effort.
    Fourth, split or shared buys of items, particularly from only two 
sources, do not historically produce competitive behavior since both 
vendors are assured some share of the purchase. Another reality is that 
the JSF is designed to support a wide diversity of military customers, 
including the Navy, Marine Corps, and overseas buyers, many of whom are 
unable or unwilling to purchase from two engine manufacturers.
    For all these reasons, we are firm in our view that the interests 
of the taxpayers, our military, our partner nations, and the integrity 
of the JSF program are best served by not pursuing a second engine.
    I believe most proponents of this program are motivated by the 
genuine belief that a second engine is the right thing to do. I look 
forward to engaging Congress in this discussion and sharing with them 
our facts and analysis. However, we have reached a critical point in 
this debate where spending more money on a second engine for the JSF is 
unnecessary, wasteful, and simply diverts precious modernization funds 
from other more pressing priorities. Accordingly, should Congress add 
more funds to continue this unneeded program, I will strongly recommend 
that the President veto such legislation.
C-17
    The fiscal year 2011 request completes the C-17 program and begins 
shutting down the production line. At present, we have 194 C-17s (plus 
111 C-5s) in our strategic airlift fleet. By the end of this fiscal 
year, the department will have procured 223.
    Three department studies completed over the past 5 years have 
concluded that the U.S. military has more than enough strategic airlift 
capacity, and that additional C-17s are not required. Some factors to 
consider:

        <bullet> In 2004, the Air Force Fleet Viability board 
        determined that the fleet of C-5As--the oldest variant--will 
        remain viable until at least 2025. The Air Force and the 
        manufacturer believe that the C-5 fleet will remain viable 
        until 2040. Ongoing modernization and refurbishment efforts are 
        intended to increase the reliability, availability, and 
        maintainability of the C-5 fleet;
        <bullet> Despite the demands of the current military campaigns, 
        the existing C-17 fleet is not being ``burned up.'' With the 
        exception of 2003--when there were only 111 aircraft in the 
        fleet that were being surged to begin the Iraq war--the annual 
        use of the C-17 inventory has been within program limits; and
        <bullet> While it is true that the C-17 can land places where 
        the C-5 cannot, of the 200,000 landings made by C-17s since 
        1997, less than 4 percent were in places that were not 
        accessible to the C-5. In summary, for these and other reasons, 
        the department has concluded that the current C-17 is more than 
        sufficient to meet the military's airlift needs. Should 
        Congress add funds to continue this program, I will strongly 
        recommend a presidential veto.
Acquisitions
    The department is implementing initiatives that will increase the 
numbers and capabilities of the acquisition workforce, improve funding 
stability, enhance the source-selection process, and improve contract 
execution. Our intent is to provide the warfighter with world-class 
capability while being good stewards of taxpayer dollars.
    To operate effectively, the acquisition system must be supported by 
an appropriately-sized cadre of acquisition professionals with the 
right skills and training to perform their jobs. To address these 
personnel deficiencies, DOD will increase the number of acquisition 
personnel by 20,000 positions--from about 127,000 in fiscal year 2010 
to about 147,000 by fiscal year 2015. We will be making significant 
increases in training and retention programs in order to bolster the 
capability and size of the acquisition workforce.
Civilian Workforce
    The fiscal year 2011 budget funds a pay raise of 1.4 percent for 
DOD civilians--the same as the military pay raise. The request includes 
funding to transition out of the National Security Personnel System 
(NSPS)--as directed by the National Defense Authorization Act for 
Fiscal Year 2010.
    About 225,000 DOD employees are covered by NSPS. These employees 
must convert to a successor statutory personnel system. The fiscal year 
2011 budget includes $23 million to implement NSPS transition and $239 
million for estimated higher civilian pay for employees transitioning 
out of NSPS.
    The request supports the DOD plan, announced last year, to grow its 
civilian workforce by in-sourcing--replacing contractors with DOD 
civilian employees. DOD is on track to reduce the number of support 
service contractors from the current 39 percent of our workforce to the 
pre-2001 level of 26 percent, and replace them with full-time 
government employees. DOD will hire as many as 13,400 new civil 
servants in fiscal year 2010, and another 6,000 in fiscal year 2011, to 
replace contractors and up to 33,400 new civil servants in place of 
contractors over the next 5 years. This includes 2,500 acquisition 
personnel in fiscal year 2010 and 10,000 through fiscal year 2014.
                 fiscal year 2010 supplemental request
    As the President stated, the goal of the United States in 
Afghanistan and Pakistan is to disrupt, dismantle, and defeat Al Qaeda 
and to prevent its resurgence in both countries. The international 
military effort to stabilize Afghanistan is necessary to achieve this 
overarching goal. Rolling back the Taliban is now necessary, even if 
not sufficient, to the ultimate defeat of al Qaeda and its affiliates 
operating along the Afghanistan-Pakistan border. I believe the strategy 
announced by the President represents our best opportunity to achieve 
our objectives in a part of the world so critical to America's 
security.
    The fiscal year 2010 supplemental requests $33.0 billion to support 
the President's buildup of U.S. troops in Afghanistan for the rest of 
this fiscal year and fund other related requirements, including $1 
billion for Iraqi security forces. DOD urges Congress to approve this 
supplemental by the spring to prevent disruption of funding for our 
troops in the field.
    The fiscal year 2010 supplemental includes $19.0 billion to support 
an average troop level in Afghanistan of 84,000 U.S. troops--16,000 
higher than the 68,000 assumed in the enacted fiscal year 2010 budget. 
Troop levels are expected to reach 98,000 by September 30, 2010. The 
additional troops will consist of:

        <bullet> Two Army counterinsurgency BCTs;
        <bullet> An Army Training BCT;
        <bullet> A USMC Regimental Combat Team; and
        <bullet> Enablers such as Explosive Ordnance Disposal teams.

    The supplemental also includes $1.1 billion--on top of the $11.3 
billion already enacted--to field and sustain critically important 
lifesaving MRAPs and M-ATVs for troops already there and for the 
additional forces being deployed this fiscal year.
            fiscal year 2011 overseas contingency operations
    To fund military operations in Afghanistan and Iraq in fiscal year 
2011, we are requesting $159.3 billion, comprised of these major 
categories:

        <bullet> Operations ($89.4 billion): Incremental pay for 
        deployed troops, subsistence, cost of mobilizing Reserve 
        Component personnel, and temporary wartime end-strength 
        allowances.
        <bullet> Force Protection ($12.0 billion): Body armor, 
        protection equipment, and armored vehicles to protect forces--
        including the rapid deployment and sustainment of MRAPs and M-
        ATVs.
        <bullet> IED Defeat ($3.3 billion): To develop, procure, and 
        field measures to defeat improvised explosive devices 
        threatening U.S. and coalition forces.
        <bullet> Military Intelligence ($7.0 billion): To enhance U.S. 
        intelligence capabilities and operations including ISR.
        <bullet> Afghan Security Forces ($11.6 billion): To build and 
        support military and police forces capable of conducting 
        independent operations and providing for Afghanistan's long-
        term security.
        <bullet> Iraqi Security Forces ($2.0 billion): To continue 
        building and sustaining Iraq's efforts to defend its people and 
        protect its institutions as the United States removes troops by 
        the end of 2011.
        <bullet> Coalition Support ($2.0 billion): Reimbursements and 
        logistical sustainment for key cooperating nations supporting 
        U.S. military operations.
        <bullet> Commander's Emergency Response Program (CERP) ($1.3 
        billion): To provide flexible funds for commanders in the field 
        to finance urgent humanitarian and reconstruction needs.
        <bullet> Reconstitution/Reset ($21.3 billion): To fund the 
        replenishment, replacement, and repair of equipment and 
        munitions that have been consumed, destroyed, or damaged due to 
        ongoing combat operations. This request includes funding to 
        procure one Joint Strike Fighter aircraft to replace the combat 
        loss of an F-15.
        <bullet> Military Construction ($1.2 billion): To expand the 
        logistical backbone and operational foundation for our fighting 
        forces.
        <bullet> Temporary Military End Strength ($2.6 billion): To 
        support temporary end-strength increases in the Army and Navy 
        for ongoing military operations.
        <bullet> Non-DOD Classified Programs ($5.6 billion): To fund 
        non-DOD classified activities that support ongoing military 
        operations--the President's counterterrorism strategy in 
        Afghanistan and Pakistan, and the drawdown of U.S. forces in 
        Iraq.
Iraq Force Levels
    This request supports the President's goal of a responsible 
drawdown of U.S. forces and transfer to full Iraqi responsibility and 
control. Troop levels in Iraq are projected to decrease to 50,000 by 
August 31, 2010. Further reductions will occur in accordance with the 
U.S.-Iraq Security Agreement. The projected forces levels would be:

        <bullet> Six Advisory and Assistance Brigades (AABs) by August 
        31, 2010.
        <bullet> Six AABs for the first part of fiscal year 2011, 
        decreasing to approximately four AABs (approximately 35,000 
        personnel) in Iraq by the end of fiscal year 2011.
                               conclusion
    Mr. Chairman, my thanks to you and members of this committee for 
all that you have done to support our troops and their families. I 
believe the choices made and priorities set in these budget requests 
reflect America's commitment to see that our forces have the tools they 
need to prevail in the wars we are in while making the investments 
necessary to prepare for threats on or beyond the horizon.
    Thank you.

    Chairman Levin. Thank you very much, Mr. Secretary.
    Admiral Mullen.

STATEMENT OF ADM MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    Admiral Mullen. Mr. Chairman, Senator McCain, distinguished 
members of this committee: Thank you for the chance to appear 
before you and discuss the state of our military as well as the 
President's fiscal year 2011 defense budget submission. I also 
thank you all for the extraordinary support you provide each 
and every day to our men and women in uniform as well as their 
families. That they are well equipped, well trained, well paid, 
and enjoy the finest medical care anywhere in the world is 
testament in no small part to your dedication and stewardship.
    I've seen many of you in the war zone, in hospitals, and at 
bases all over this country. So have our troops. They know you 
care. Just as critically, they know their fellow citizens care. 
All they want right now is guidance on the mission before them 
and the tools to accomplish it. That's why I'm here today to 
speak on their behalf about the guidance they are getting from 
this Department and to secure your continued support for the 
tools we want to give them.
    Secretary Gates has already walked you through the major 
components of the QDR and the President's fiscal year 2011 
defense budget submission, both of which, when combined with 
the new BMDR and our OCOs fund request, build upon the reform 
effort of last year and represent as comprehensive a look at 
the state of our military as I have seen in my experience.
    I will not endeavor to repeat his excellent summation and I 
would ask you to accept without further comment my endorsement 
of the findings contained in each of these documents. Let me 
leave you rather with three overarching things to consider as 
you prepare to discuss these issues today and as you prepare to 
debate this budget request in the future.
    First, there is a real sense of urgency here. We have well 
over 200,000 troops deployed in harm's way right now and that 
number includes only those in Operations Iraqi Freedom and 
Enduring Freedom. Tens of thousands more are meeting our 
security commitments elsewhere around the globe and many of 
those missions are no less dangerous, certainly no less 
significant.
    I am sure you have stayed abreast of our relief efforts in 
Haiti, where more than 20,000 of your soldiers, sailors, 
marines, airmen, and coastguardsmen are pitching in feverishly 
to help alleviate the suffering of the Haitian people. It is 
truly an interagency and international mission and these troops 
are blending in beautifully, doing what is required, where and 
when it is required, to support the Government of Haiti, USAID, 
and the U.N. mission there.
    We also continue to do what is required to win the wars we 
fight, and the one that needs fighting the most right now is in 
Afghanistan. You've seen the reports and you know the 
situation. The Taliban have a growing influence in most of 
Afghanistan's provinces and the border area between that 
country and Pakistan remains the epicenter of global terrorism. 
You no doubt followed with great interest the development of 
the President's strategy to deal with this threat, a strategy 
that in my view rightly makes the Afghan people the center of 
gravity and the defeat of al Qaeda the primary goal.
    We have already moved over 4,500 troops to Afghanistan and 
expect that about 18,000 of the President's December 1st 
commitment will be there by late spring. The remainder of the 
30,000 will arrive as rapidly as possible over the summer and 
early fall, making a major contribution to reversing the 
Taliban momentum in 2010. Indeed, by the middle of this year 
Afghanistan will surpass Iraq for the first time since 2003 as 
the location with the most deployed American forces.
    Right now, the Taliban believe they're willing. Eighteen 
months from now, if we've executed our strategy, we'll know 
they aren't, and they'll know that they can't.
    Getting there will demand discipline and hard work. It will 
require ever more cooperation with Pakistan, and it will most 
assuredly demand more sacrifice and more bloodshed. But the 
stakes are far too high for failure. That's why we're asking 
you to fully fund our fiscal year 2010 supplemental and the 
fiscal year 2011 OCOs request. It's why we want a 6 percent 
increase for Special Operations Command. It's why we need your 
support to develop and field a Next Generation Ground Combat 
Vehicle, to allow us to grow two more Army combat aviation 
brigades, and to continue rotary wing production, including 
nearly $3 billion for the V-22 Osprey program.
    In keeping with the Secretary's strong emphasis on ISR, an 
emphasis more than justified by our long experience in Iraq and 
Afghanistan, we are asking for more capability in unmanned 
aircraft and ground-based collection systems, including nearly 
$3 billion to double the procurement rate of the MQ-9 Reaper by 
fiscal year 2012.
    Our future security is greatly imperiled if we do not win 
the wars we are in. As the QDR makes clear, the outcome of 
today's conflicts will shape the global security environment 
for decades to come. I'm very comfortable that we can and will 
finish well in Iraq, remaining on pace, despite a spate of 
recent violence to draw down American forces to roughly 50,000, 
ending our combat mission there, and transitioning to an advise 
and assist role.
    But without your continued support, we will not be able to 
show the meaningful progress in Afghanistan that the Commander 
in Chief has ordered, the American people expect, and the 
Afghan people so desperately need. This is no mission of mercy. 
This is the place from which we were attacked in 2001, the 
place from which all--from which al Qaeda still plots and 
plans. The security of a great nation, ours and theirs, rests 
not on sentiment or good intentions, but on what ought to be a 
cold and unfeeling appraisal of self-interest and an equally 
cold and unfeeling pursuit of the tools to protect that 
interest, ours and theirs.
    That leads me to the second thing I'd like to consider: 
proper balance. Winning our current wars means investment in 
our hard-won irregular warfare expertise, a core competency 
that should be institutionalized and supported in the coming 
years, and we are certainly moving in that direction. But we 
must also maintain conventional advantages. We still face 
traditional threats from regional powers who possess robust 
regular and in some cases nuclear capabilities. These cannot be 
ignored. The freedom to conduct operations in support of joint, 
allied, and coalition efforts, assuring access and projecting 
combat power, can only be preserved through enduring 
warfighting competencies.
    In the air, this means sufficient strike aircraft and 
munitions capable of assuring air superiority. At sea, it means 
having enough ships and enough sailors to stay engaged globally 
and keep the sea lanes open. On the ground, it means 
accelerating the modernization of our combat brigades and 
regiments. On the whole, it means never having to fight a fair 
fight.
    Thus, the President's budget request will buy us another 42 
F-35s. It will maintain a healthy bomber industrial base and it 
will fund development of a prompt global strike system, as well 
as efforts to upgrade our B-2s and B-52s.
    For ship construction, the spending plan totals some $18 
billion, procuring 10 new ships in 2011, including 2 Arleigh 
Burke destroyers, 2 Virginia-class submarines, 2 Littoral 
Combat Ships (LCSs), and a brand-new Amphibious Assault Ship. 
It puts the Navy on track to maintain aircraft carrier 
production on a 5-year build cycle, resulting in a long-term 
force structure of 10 carriers by 2040.
    Our budget request also seeks $10 billion for ballistic 
missile defense programs, including $8.4 billion for the 
Missile Defense Agency, and it develops ample resources to 
improving our cyber defense capabilities. Again, it's about 
balance, it's about deterring and winning the big and the small 
wars, the conventional and the unconventional--two challenges, 
one military.
    But where balance is probably most needed is in the 
programs and policies concerning our most important resource, 
our people. That's my final point. This QDR and this budget 
builds upon superb support you and DOD have provided our troops 
and their families for much of the last 8 years. Stretched and 
strained by nearly constant combat, many of them on their 
fifth, sixth, and seventh deployments, our men and women are 
without question, and almost inexplicably, the most resilient 
and battle-ready in our history.
    On the one hand, we keep turning away potential recruits, 
so good is our retention and so attractive our career 
opportunities. On the other hand, we keep seeing an alarming 
rise in suicides, mental problems, prescription drug 
addictions, and mental health problems. Deborah and I meet 
regularly with young troops and their spouses and, though proud 
of the difference they know they are making, they are tired. 
Quite frankly, many of them are worried about their futures, 
their children.
    So you will see in this budget nearly $9 billion for family 
support and advocacy programs. You will see child care and 
youth programs increased by $87 million over last year, and you 
will see a boost in warfighter and family services, to include 
counseling, to the tune of $37 million. Military spouse 
employment will get a $2 million plus-up and we will increase 
the budget to $2.2 billion for wounded, ill, and injured 
members. In fact, the health care funding level for fiscal year 
2011 is projected to provide high-quality care for 9.5 million 
eligible beneficiaries.
    Lastly, we are pushing to dramatically increase the number 
of mental health professionals on staff and advance our 
research in TBIs and post-traumatic stress. We know the strain 
of frequent deployments causes many problems, but we won't yet 
fully understand how--we don't yet fully understand how or to 
what extent.
    So even as we work hard to increase dwell time, aided in 
part by the additional temporary end strength you approved last 
year for the Army, we will work equally hard to decrease the 
stress of modern military service. Indeed, I believe over time 
when these wars are behind us we will need to look closely at 
the competing fiscal pressures that will dominate discussions 
of proper end strength and weapons systems. A force well suited 
for long-term challenges and not necessarily married to any 
current force planning construct will be vital to our national 
security.
    Mr. Chairman and members of this committee, thank you again 
for your time and for the longstanding support of this 
committee to the men and women of the U.S. Armed Forces. They 
and their families are the best I have ever seen. On their 
behalf, I stand ready to answer your questions.
    [The prepared statement of Admiral Mullen follows:]
            Prepared Statement by ADM Michael G. Mullen, USN
    Chairman Levin, Senator McCain, distinguished members of the 
committee; it is my privilege to report on the posture of the U.S. 
Armed Forces.
    I begin by thanking you for your support of our service men and 
women, their families, and the communities that do so much to help 
them. We can never repay them for their sacrifices, but we can support 
their efforts. As leaders, we necessarily debate the best course of 
action to secure our Nation in a dangerous world. But our service men 
and women do not hesitate. When the decision is made, they go where 
they are needed most, where dangers must be confronted and adversaries 
defeated. I'm humbled as I visit them around the world, defending our 
Nation in very trying conditions. They care deeply for this country, 
and they care most that they have the Nation's clear backing. The 
support of Congress and the American people remain essential to their 
strength and resolve. I am grateful for your unwavering recognition of 
the service of our forces and their families.
    Today's Armed Forces are battle-hardened, capable, and ready to 
accomplish the Nation's missions. They are the most combat experienced 
yet most compassionate force we have ever fielded, and continue to 
learn and adapt in ways that are truly remarkable. They are the best I 
have ever seen. I thank the committee for taking the time to understand 
the stresses, strains and concerns of our servicemembers. Your 
continuing legislative support of our Armed Forces makes all the 
difference.
                            key developments
    Over this past year, our wartime focus has shifted to Afghanistan 
and Pakistan. As I have testified before Congress on many occasions, 
the threats to our national security from al Qaeda and affiliated 
movements based in the Afghanistan-Pakistan region remain real and 
persistent. We require a stable and reasonably secure Afghanistan and 
Pakistan--inhospitable to al Qaeda's senior leadership, capable of self 
defense against internal extremist threats, and contributors to 
regional stability.
    Our increasing focus on Afghanistan and Pakistan confirmed the 
border region to be al Qaeda's center of gravity. It also showed the 
situation to be more dire than previously understood. The Afghan-
Taliban's post-2005 resurgence produced a widespread paramilitary, 
shadow government and extra-judicial presence in a majority of 
Afghanistan's 34 provinces. The Tehrik-i-Taliban Pakistan (the Pakistan 
Taliban) showed itself to be a bold and audacious enemy of the 
Pakistani people, ruthlessly seizing control of Swat in late spring. 
Nine Pakistani military operations against the Taliban that began last 
March have reversed their territorial gains. Throughout this year, we 
have constantly and carefully reviewed our objectives for the region. I 
concur completely with the President's strategy, and believe we have 
now matched the right strategy with the required resources. The 
decision to authorize an additional 21,500 American forces into 
Afghanistan in early 2009, followed by the President's commitment of 
additional forces in December set conditions to reverse Afghan-Taliban 
gains. It will also enable the Government of Afghanistan to build the 
security and governance necessary to eliminate the insurgency as a 
threat. Setbacks marked much of 2009, but with a new leadership team, 
appropriate resources, improved organization, and a better strategy, we 
are confident of success against al Qaeda and the Taliban. Success will 
not come easily or swiftly, but we will succeed. The hardest work to 
achieve our regional aims remains ahead of us, especially in 2010-2011.
    Al Qaeda's central leadership has suffered significant losses over 
the past several years. Though its operational capacity has declined, 
al Qaeda's senior leaders remain committed to catastrophic terrorist 
attacks against the United States and our allies. Actions in the 
Pakistan-Afghanistan border area, in Iraq, and elsewhere have met with 
marked success. That said, al Qaeda successfully sought new approaches 
to plot attacks. The disrupted terrorist plot against New York City was 
planned in al Qaeda's Pakistani safe haven and intercepted in Denver. 
The failed Christmas Day bombing attempt over Detroit was crafted by 
and ordered from those in Yemen's growing safe havens. Both incidents 
demonstrate the resolve of al Qaeda and its ever-evolving strategy. 
While the danger remains real, like-minded governments and people 
around the world--especially those in the Muslim community--
increasingly reject al Qaeda, its affiliates and what they stand for. 
Most want a brighter future for their children and grandchildren, not 
al Qaeda's endless war and intolerance. They see daily evidence that al 
Qaeda and its affiliates deliberately target and kill thousands of 
innocent Muslims in cold blood. They know al Qaeda continues a ruthless 
and deadly campaign against the people of Islam in Iraq, Pakistan, 
Afghanistan, Saudi Arabia, Kenya, Indonesia, Turkey, and elsewhere. 
Continued progress against violent extremism will require enhanced, but 
prudent, partnerships with key governments and movements, including 
consistent efforts to counter al Qaeda's bankrupt message.
    The behavior of the Iranian Government is of grave and growing 
concern. Tehran's leadership remains on a trajectory to acquire a 
nuclear capability, in defiance of international demands and despite 
widespread condemnation. Iran's government continues to support 
international terrorist organizations, and pursues a coercive and 
confrontational foreign policy. These efforts exist alongside some of 
the greatest internal unrest Iran has faced since the Islamic 
Revolution in 1979. These events and conditions risk further 
destabilizing an already unstable region.
    The unpredictable has also galvanized our military, requiring a 
significant force commitment in Haiti, making it one of our most 
significant humanitarian missions in history. As of January 31, nearly 
20,000 American troops are in direct support of the Government of 
Haiti, the United Nations, USAID and supporting American and 
international aid agencies. From port openings, to security and 
distribution of supplies, U.S. Southern Command's military Joint Task 
Force has delivered over 1.6 million bottles of water, 67,000 meals and 
56,000 pieces of medical supplies to Haiti's earthquake survivors. 
Military medical teams also supplement the U.S. Health and Human 
Services, and have already have seen over 2,800 patients and performed 
nearly 100 surgeries. We are committed to this assistance until the 
situation on the ground stabilizes.
    Several policy initiatives over the past year have provided the 
military with new direction. President Obama's June speech in Cairo set 
the stage for a new relationship between the United States and more 
than a billion people across the Muslim world. Throughout 2009, this 
Congress supported the rapid and necessary deployment of more forces to 
Afghanistan. We also began negotiations with Russia for a Strategic 
Arms Reduction Treaty follow-on treaty, which will reduce nuclear 
weapons stockpiles while maintaining U.S. deterrence. As mandated by 
Congress, we have reviewed current and future threats and developed 
appropriate strategies in the Quadrennial Defense Review. We look 
forward to working with Congress to forge a common understanding of the 
threats our Nation faces, and how best to counter them.
    Key alliances continue to matter greatly in our global security 
efforts. Our North American Treaty Organization (NATO) allies and other 
non-NATO partners expanded support in Afghanistan over the past year. 
We now work there with 43 countries and nearly 40,000 international 
troops. Although the world avoided a widespread economic depression in 
2009, many of our partners were financially challenged and may spend 
less on combined security and stabilization efforts. Other critical 
allies faced internal considerations that could adversely affect U.S. 
and regional security interests if not managed closely. Our close 
alliance with Japan, in particular, suffered strain around basing 
rights in Okinawa. I am confident we will work through these and other 
issues, but it is a reminder that even our strongest allies cannot be 
taken for granted.
    Against this backdrop, the strategic priorities for the military 
remain unchanged from my last annual testimony before Congress: 
defending our interests in the broader Middle East and South/Central 
Asia; ensuring the health of the Force, and balancing global strategic 
risk. With your ongoing help and support, we continue to address each 
of these priorities.
 defend our interests in the broader middle east and south/central asia
    The Broader Middle East and South/Central Asia, remains the most 
dangerous region of the world.
    Our main effort within the region has changed. The Government of 
Iraq is taking firm control of its own security. We have shifted our 
priority to Afghanistan and Pakistan, long under-resourced in many 
ways. That shift in focus will take the movement of some quarter of a 
million troops and their equipment in and out of the Central Command 
theater over the next several months. This is a herculean logistics 
effort. By the middle of 2010, Afghanistan will surpass Iraq for the 
first time since 2003 as our location with the most deployed American 
forces.
    Despite this surge, the security situation in both Afghanistan and 
Pakistan remains serious. The Afghan-Taliban have established shadow 
governments--featuring parallel judicial, taxation and local security/
intimidation systems--in a clear majority of Afghanistan's 34 
provinces. Attacks by the Taliban have become far more numerous and 
more sophisticated. We are now establishing conditions--with military 
forces and expanded civilian agency presence--to reverse the Taliban's 
momentum. Yet we face both a resilient Taliban insurgency and an Afghan 
public skeptical of their government's good will, capacity, and 
capability.
    As of late January 2010, we have already moved nearly 4,500 troops, 
and expect that 18,000 of the President's December 1st commitment will 
be in country by late spring. The remainder of the 30,000 will arrive 
as rapidly as possible over the summer and early fall, making a major 
contribution to reversing Taliban momentum in 2010.
    These forces are joining some 68,000 U.S. forces and more than 
30,000 coalition forces already in Afghanistan--all of which have 
undertaken a fundamental shift in how they are being employed across 
the country. Our troops are now focused on protecting key population 
centers--separating them from the intimidation and influence of the 
Taliban. Simultaneously, they are training and partnering with Afghan 
security forces to enable Afghans to assume lead security for their own 
country as soon as possible. The next 12-18 months must be the time to 
reverse insurgent momentum and assess partnership progress.
    The brave men and women we charge to implement this fundamental 
shift in Afghanistan security strategy need the strong support of this 
Congress. We need your assistance in key areas like funding for Afghan 
National Security Forces, who will ultimately bring about success and 
security. In the short term, the Commander's Emergency Response Program 
is needed to adequately protect the population, and enhanced special 
construction authorities and equipment procurement accounts will be 
critical to putting enough force on the ground to make a difference.
    The border area between Pakistan and Afghanistan is the epicenter 
of global terrorism. This is where al Qaeda plans terrorist attacks 
against the United States and our partners--and from where the Taliban 
leadership targets coalition troops in Afghanistan. Pakistan's ongoing 
military operations against extremists in these areas are critical to 
preventing al Qaeda and associated groups from gaining ground.
    In Pakistan, the extremist threat, a fractious political system, 
economic weakness and longstanding tensions with India continue to 
threaten stability. We are working to rebuild our relationship with 
Pakistan and re-establish trust lost between our two countries. We aim 
to demonstrate to Pakistan--in both our words and our actions--that we 
desire a long-term relationship. Our recent concerns with Pakistan's 
approach to U.S. visa requests is further testimony to the challenges 
of the relationship; and, it will affect increased capacity for 
counterterrorism and counterinsurgency, to include support for 
development projects. Nevertheless, the Pakistani Counterinsurgency 
Fund and the Coalition Support Funds earmarked for Pakistan remain 
essential components of our support to this critical ally. I urge you 
to continue them. Enhanced contact and engagement between Pakistan and 
the United States is a critical component of a maturing, long-term 
partnership. Thus, we are focusing on expanded military education 
exchange programs, joint training opportunities and especially Foreign 
Military Sales and Financing. The budget before you requests additional 
funds for these critical partnership endeavors.
    South Asian security tensions and political dynamics significantly 
impact our objectives in Afghanistan and Pakistan. The longstanding 
animosity and mistrust between Pakistan and India complicates regional 
efforts. Yet India and Pakistan must both be our partners for the long 
term. Bilateral military relationships are an essential component in a 
wide array of cooperative activities. We must recognize this and 
address it as part of our policy. While we acknowledge the sovereign 
right of India and Pakistan to pursue their own foreign policies, we 
must demonstrate our desire for continued and long-term partnership 
with each, and offer our help to improve confidence and understanding 
between them in a manner that builds long-term stability across the 
wider region of South Asia. As part of our long-term regional approach, 
we should welcome all steps these important nations take to regenerate 
their `back channel' process on Kashmir.
    While Afghanistan and Pakistan remain the critical terrain, we must 
remain vigilant in denying al Qaeda unfettered physical safe havens 
elsewhere across the Broader Middle East and South Asia, including 
Northern and Eastern Africa. These efforts will not require tens of 
thousands of American troops. Instead, we can work quietly and 
persistently with regional allies and Coalition partners to deny al 
Qaeda territory from which to plot, train, and project global terror 
operations. Similarly, we continue to undertake collaborative, 
supporting efforts with like-minded governments across the broader 
Middle East. We now work to help the Yemeni government build the 
information base and the military capacity necessary to combat the al 
Qaeda threat within its borders. We applaud Yemeni efforts to confront 
al Qaeda operatives, and continue to offer Sana'a the support necessary 
to achieve this aim. We have worked with the concerned neighbors of 
Somalia to contain the worst aims and objectives of the Islamic Courts 
Union and al Shabaab. This must continue. In these areas--as well as 
others including Indonesia and the Philippines--our military engages 
with willing partners in a manner detrimental to al Qaeda's 
aspirations. We undertake these partnerships in conjunction with those 
from American intelligence, diplomatic and economic organizations. I 
must stress that in today's environment, training and equipping partner 
security forces to defend and protect their own territory and coastal 
waters is a core military mission. We appreciate Congress' continuing 
support for these important undertakings.
    The Iranian Government continues to be a destabilizing force in the 
region. The government's strategic intent appears unchanged--its 
leaders continue on a course to eventually develop and deploy nuclear 
weapons. This outcome could spark a regional arms race or worse. It 
will be profoundly destabilizing to the region, with far-ranging 
consequences that we cannot fully predict. Tehran also continues to 
provide a range of support to militant proxy organizations, including 
Hamas and Hezbollah, fomenting instability outside its borders. Its 
increasingly reckless nuclear and foreign policy agenda is now playing 
out against the backdrop of a shrinking economy and a growing rift 
between the Iranian Government and its people. I remain convinced that 
exhaustive--and if necessary coercive--diplomacy with Iran remains the 
preferred path to prevent these grave outcomes. To this extent, the 
Joint Chiefs, combatant commanders, and I support all efforts to steer 
the Government of Iran off of its hazardous course. However, as with 
any potential threats to our national security, we will have military 
options ready for the President, should he call for them.
    Iraq continues to progress, although more is needed. U.S. 
partnership with Iraqi security forces has been fundamental to this 
progress since 2005. Last year's level of violence was the lowest since 
2003, testifying to the success of our approach. Al Qaeda is still 
present and has carried out a few large-scale attacks. But, Iraqi 
Security Forces and government leaders responded to them in a 
restrained, professional, and relatively apolitical manner. Upcoming 
elections will not be free from tension. However, I believe Iraqis are 
now more concerned about economic growth than domestic security 
threats. Credible elections are important. Foreign direct investment 
and expanded political engagement by other regional powers are also 
important as more diplomatic and economic progress will spotlight 
Iraq's return to the world stage as a sovereign nation.
    U.S. Forces-Iraq (USF-I) remains on track to draw down American 
forces to roughly 50,000 and end our combat mission by August 31, 2010. 
Our security partnership will then shift to training, advising, and 
supporting Iraqi security forces. More broadly, the U.S. military will 
transition from a supported to a supporting effort in Iraq as we 
normalize relations. The State Department will increasingly be the face 
of U.S. efforts in Iraq. The U.S. military will strongly support their 
leadership. We request continuing congressional support for the Iraqi 
Forces Fund and for the Equipment Transfer Provision of the National 
Defense Authorization Act for Fiscal Year 2010. These transfers are a 
critical component America's transition to a limited, but reliable 
partner in Iraq's assumption of a responsible and Baghdad-led security 
future.
                          health of the force
    Our Nation's security is founded upon a well-trained, well-equipped 
All-Volunteer Force. We must care for our people and their families, 
reset and reconstitute our weapon systems, and take on new initiatives 
that increase wartime effectiveness. Care for our People
    Our service men and women, their families, and their communities 
are the bedrock of our Armed Forces. Their health, resilience, and 
well-being are at the heart of every decision I make. Frankly, 
investing in our people remains the single greatest guarantee of a 
strong military. Competitive pay, selective bonuses, expanded access to 
mental health care, continued health benefits for tens of thousands of 
our Wounded Warriors--those with seen and unseen wounds--and their 
families are critical to this investment.
    Our military families and communities continue to play a unique and 
growing role in our national security fabric, one not seen in more than 
a generation. They support us and sustain us in ways we do not yet 
fully understand. They deserve the admiration and support of a grateful 
nation. I applaud the efforts of this body's Military Family Caucus, 
and encourage significant attention and funding for their programs of 
greatest concern. My conversations with spouses and children around the 
world tell me these concerns center on caring for those affected by 
these wars, child care, education, health and deployment issues.
    We remain competitive in attracting the country's best talent. For 
the first time in the history of the All-Volunteer Force, the Active 
Duty, Guard, and Reserve components all exceeded annual recruiting 
goals for 2009. This success was reflected in the quality of our 
recruits as well as their numbers. Ninety-six percent of our accessions 
earned a high school diploma or better. Each Service also met or 
exceeded its 2009 retention goals. Our ability to recruit and retain 
underscores the fact that this is the best military I have seen in my 
42-year career. While competitive pay is a critical factor in this 
success, it does not stand alone. Other critical `people' programs 
supported by Congress--like the new GI Bill, adequate housing, access 
to quality schooling for military children, and attractive family 
support centers--come together to make the harsh burdens of military 
life acceptable.
    We must not forget the challenges that this excellent All-Volunteer 
Force faces every day. More than 8 years of wartime operations have 
come at a cost. Most Army brigade combat teams are preparing for their 
fourth major deployment since September 11, with some of them preparing 
for their fifth--unprecedented in our history. The Marines Corps is in 
the same boat--their deployments are shorter but more frequent, and 
their pace is grueling. Our people spend less time at home, and this 
shorter dwell time between deployments does not allow for respite or 
for training along the entire spectrum of military operations. Our 
irregular warfare expertise--hard won over the last 8 years--has come 
at a price. Conventional warfighting skills have atrophied and will 
require attention. Yet this overdue attention will have to wait. The 
gains we anticipate from the coming draw-down in Iraq will be absorbed 
by our necessary efforts in Afghanistan for at least 2 more years. 
Resetting the force requires significant effort and sustained 
commitment now and post-conflict. We will continue to rely heavily on 
our Navy and our Air Force.
    Dwell time--the ratio of time deployed to time home--remains a 
concern, and one we must manage closely this year and into 2011. Dwell 
time for the Army is at 1:1.2 and the Marine Corps is slightly better 
at 1:1.5. We will not see significant dwell time improvements across 
all Services until 2012. Deployment rates for Special Operations Forces 
(SOF) and other low-density, high-demand specialties also remain very 
high. While our force is strong and resilient, these trends cannot 
continue indefinitely.
    The challenges remain significant, but are manageable thanks to the 
support of Congress for increased end-strengths in the Army and Marine 
Corps. We are only now starting to feel the positive impact from these 
2007-authorized increases in the baseline force--stabilizing deployment 
rates and dwell times. Coupled with the additional temporary increase 
of 22,000 troops within the Army, Congressional support for our wartime 
military manning needs has been critical.
    The stresses of protracted war extend beyond the deployments 
themselves. Our number of dead and wounded continues to rise, as does 
the strain on their families and their communities. Other social costs 
of war--divorce, domestic violence, depression, and post-traumatic 
stress syndrome--are unacceptably high and continue to increase. We 
have much more to do.
    Suicide deserves special attention. Despite our best efforts, 2009 
witnessed a record level of suicides, with increases in both the Active 
and Reserve components. We have not begun to study suicides among 
family members and dependents. While there is not one cause for 
increased servicemember suicides, we know enough to be certain that 
better prevention training programs for leadership, for at-risk 
servicemembers, and robust funding and attention toward sober study of 
the problem are absolutely necessary.
    We should provide a lifetime of support to our veterans. I urge you 
to continue funding the programs supporting those that have sacrificed 
so much, including those aimed to reduce veteran homelessness and that 
focus on rural health care options. The demands on our active and 
veterans care services will continue to grow, and require the attention 
found in this budget. Yet we must conceive of Wounded Warrior Support 
in a manner that goes beyond the traditional institutions. Public, 
private, and individual sources of help represent a ``sea of goodwill'' 
towards our veterans. Our focus must be more on commitment than 
compensation; and more attuned to transition and ability than upon 
disability. Our veterans want the opportunity to continue to serve, and 
we should enable that opportunity.
Reset and Reconstitute
    My concerns about the health of our force go beyond our people. Our 
systems and capabilities are under extraordinary stress as well. The 
high pace of operations is consuming our capital equipment much faster 
than programmed. The Air Force and Navy have been essentially 
performing non-stop, global operations for 19 years, since Operation 
Desert Storm. The Army and Marine Corps have had the majority of their 
combat forces and equipment in the combat theater of operations for 
nearly 6 years. The unforgiving terrain of Afghanistan and Iraq causes 
extensive wear and tear, especially on our ground vehicles, 
helicopters, and supporting gear.
    The demands of the current fight mean we must increase capacity in 
several areas, including rotary wing, ISR, electronic warfare and SOF. 
We sustain necessary rotary wing capacity through the addition of two 
active Army Combat Aviation Brigades, continued production of the tilt-
rotor V-22, as well as our helicopter force, and a seventh SOF 
helicopter company. I support this budget's rebalancing in favor of 
more commercial airborne ISR capabilities for combatant commanders. 
This budget continues increasing the number of unmanned combat air 
patrols, coupled with the ability to fully exploit the intelligence 
coming from these platforms. We should expand current technologies to 
fill electronic warfare shortfalls and develop next-generation 
technologies for manned and unmanned aircraft.
New initiatives
    Too many of our processes and programs remain geared to a peacetime 
clock, but several new initiatives focused on supporting our war 
efforts show promise. I strongly support the Afghanistan/Pakistan Hands 
program and ongoing initiatives that increase the number and skill of 
our civil affairs and psychological operations personnel. I also 
strongly back the USAF's initiative to use light aircraft for enhanced 
capacity building of key allies and partners for light mobility and 
attack.
    Our current acquisition process remains too unwieldy and 
unresponsive. Adding 20,000 more acquisition experts by 2015 will help, 
as will increasing the rigor and efficiency of our internal processes. 
Stability in our programs, comprehensive design reviews, better cost 
estimates, more mature technology and increased competition will make 
the process more responsive. Once fielded, our systems are the finest 
in the world, because of the experienced and capable program managers 
and engineers building them. We need more of managers and engineers, 
and they need better support and leadership.
    Finally, I am growing concerned about our defense industrial base, 
particularly in ship building and space. As fiscal pressures increase, 
our ability to build future weapon systems will be impacted by 
decreasing modernization budgets as well as mergers and acquisitions. 
We properly focus now on near-term reset requirements. However, we may 
face an eroding ability to produce and support advanced technology 
systems. Left unchecked, this trend would impact war fighting 
readiness. The Department, our industry leaders, and Congress need to 
begin considering how to equip and sustain the military we require 
after our contemporary wars come to an end.
                    balancing global strategic risk
    Balancing global risk requires sustained attention to resetting the 
force. It also means making prudent investments to meet the challenges 
of an increasingly complex and challenging worldwide security 
environment. As the President recently noted, it is the United States 
that has helped underwrite global security with the blood of our 
citizens and the strength of our military. America's interests are 
global, and our military must secure these interests. Where possible, 
we will act first to prevent or deter conflict. When necessary, we will 
defeat our enemies. Whenever able, we will work in concert with our 
many allies and partners.
    For many decades, but especially since 1989, U.S. conventional 
overmatch has guaranteed our security and prosperity, as well as that 
of our many allies and partners. We have helped protect expanding 
global commons, including into space and cyberspace. We have seen the 
likelihood of conventional war between states drop. We have used the 
tools designed for war not against human adversaries, but instead to 
support humanitarian operations. Most recently in Haiti, but elsewhere 
over the past 60 years, the military's unmatched capacity to transport 
goods and services have provided relief in the face of tragic natural 
disasters. In short, many nations have benefited from an 
extraordinarily capable and ready U.S. military, even as we have 
defended our own interests.
    That capability must continue to span the full range of military 
operations. But in this post-Cold War era--one without a military near-
peer competitor--we should not be surprised that adversaries will 
choose asymmetric means to confront us. They will seek to use both old 
and new technology in innovative ways to defeat our advantages. 
Terrorism will remain the primary tactic of choice for actors to 
conduct warfare ``on the cheap''. Both state and non-state actors will 
seek weapons of mass destruction through proliferation. Increasingly, 
states will attempt to deny our ability to operate in key regions, 
through the development and proliferation of ballistic missile systems, 
or by exploiting space and cyberspace. Taken together, these are 
diverse threats that require a broad set of means.
    Winning our current wars means investment in our hard won irregular 
warfare expertise. That core competency must be institutionalized and 
supported in the coming years. However, we must also stay balanced and 
maintain our advantage in the conventional arena. In the air, this 
advantage requires sufficient strike aircraft and munitions capable of 
assuring air superiority and holding difficult targets at risk. At sea, 
we require sustained presence and capacity supported by a robust ship-
building program. On the ground, we must accelerate the modernization 
of our combat brigades and regiments. Without question, these are 
expensive undertakings. But our present security challenges demand 
them.
    Countering weapons of mass destruction means investing in new 
research, securing nuclear materials, and preparing a layered defense. 
Improving our ability to neutralize and render safe critical targets is 
vital. We maintain the ability to respond to their use against our 
citizens. But while improving responsiveness to the use of such weapons 
is critical, more important is to counter their proliferation and deter 
their use. I advocate diverse investments in nuclear forensics and 
expanding our biological threat program, in addition to continuing 
investment in the highly effective counterproliferation programs that 
are central to our success in this critical endeavor. These relatively 
small funds will have a disproportionately positive impact on our 
security.
    The ability of potential adversaries to challenge our freedom of 
movement and the peaceful use of the global commons--sea, air, space, 
and cyberspace--has grown in recent years. Anti access-technologies and 
capabilities are proliferating, which could prevent us from deterring 
conflict in some regions. We must preserve our ability to gain access 
even when political, geographical or operational factors try to deny us 
the same. This requires funding for improvements to our missile defense 
capabilities, expanded long range and prompt global strike systems, and 
hardened forward bases. Threats in cyberspace are increasing faster 
than our ability to adequately defend against them. Cyber attacks can 
cripple critical infrastructure, impose significant costs, and 
undermine operational capabilities. Meanwhile, space-based systems 
critical to our global awareness and connectivity are aging and have 
proven vulnerable. A determined enemy could degrade existing space 
systems, significantly impacting our strategic intelligence and warning 
capabilities, as well as global positioning and communication. I ask 
Congress to support the stand-up of U.S. Cyber-Command and provide 
funding for cyber and space initiatives to redress these growing and 
worrisome vulnerabilities.
    Rising states may present a strategic challenge, but also offer 
opportunities. China's economic strength, military capability, and 
global influence continue to grow. While our military relations remain 
generally constructive, we seek much more openness and transparency 
from China regarding the growth of its conventional and nuclear defense 
forces. We also believe that China can--and should--accept greater 
responsibility for and partner more willingly to safeguard the global 
trade and investment infrastructure. This requires Beijing to work more 
collaboratively when determining fair access to transportation 
corridors and natural resources. China also should demonstrate greater 
clarity in its military investments. Absent a more forthcoming China in 
these critical areas, we must prudently consider known Chinese 
capabilities, in addition to stated intentions. As we seek to establish 
a continuous military-to-military dialogue to reconcile uncertainties 
and gain trust, we will pursue common interests in agreed upon areas 
such as counter-piracy, counter-proliferation, search and rescue, 
humanitarian assistance and disaster relief. As a Pacific Rim nation 
with longstanding interests throughout Asia, we will continue to play a 
vigorous regional role.
    Our present dialogue with Russia is multi-faceted. It acknowledges 
points of contention as well as opportunities to ``reset'' our 
relationship on a positive trajectory. We seek Moscow's cooperation in 
reducing the number and role of strategic nuclear weapons. These 
discussions have been constructive, and negotiations are near fruition. 
I believe the resulting treaty will benefit the United States, Russia, 
and the world. Moscow has also helped us establish a supplemental 
logistics distribution line into Afghanistan. Russia also helped our 
diplomats pressure Iran, and we look toward Moscow to do even more in 
this process. On the other hand, Russia continues to reassert a special 
sphere of influence with its neighbors. The Russian military is 
simultaneously modernizing its strategic forces and many conventional 
forces. Our obligations under Article V of NATO remain clear and we 
remain poised to fulfill them.
    North Korea's autocratic government makes it a persistent wild card 
in Asia. Today, Pyongyang continues to pursue intercontinental 
ballistic missile technologies, develop nuclear weapons, and export 
weapons in contravention to international law and treaties. It also 
maintains an unfortunate and threatening posture toward our ally South 
Korea, and an unhelpful disposition toward our ally Japan.
    Of course, we can best defend our interests and maintain global 
order when we partner with like-minded nations. By forging close 
military-to-military relations with an expanding number of nations--
providing training, equipment, advice, and education--we increase the 
number of states that are interested and capable of partnering with us. 
While tending to long-term allies, we should also cultivate our 
relationships with other liked-minded powers around the world. Making a 
small investment now will pay dividends in reducing our security burden 
and global risk.
    We need full funding of Defense Theater Security Cooperation 
programs, International Military Education and Training activities, and 
the many security assistance programs managed by the Department of 
State. Preventative strategies require providing foreign partners with 
the capacity to promote stability and counterterrorism. With your help, 
we have made considerable strides in adapting our tools for security 
force assistance, but more is needed. I urge your complete support of 
the Global Train and Equip initiatives (under section 1206 
authorities), the future evolution of the Global Stability fund (under 
section 1207 authorities), as well as funding for special operations to 
combat terrorism (under section 1208 authorities).
    The majority of threats facing the United States require integrated 
interagency and international initiatives. Supporting interagency 
cooperation programs, to include expanding the number of exchanges 
between the Department of Defense and other Executive Agencies, will 
improve interagency capacity to meet future security threats as well. 
Please urge your colleagues who oversee the Department of State to 
fully fund Secretary Clinton's requests. I ask Congress to promote 
legislation that increases the expeditionary capacity of non-military 
Executive Agencies. Our future security concerns require a whole-of-
government effort, not just a military one.
                               conclusion
    This past year witnessed significant achievements by America's men 
and women in uniform. Their efforts and sacrifices--as part of a 
learning and adapting organization--have sustained us through more than 
8 years of continuous war. Thanks to them we are in position to finish 
well in Iraq. Thanks to them, we can begin to turn the corner in 
Afghanistan and Pakistan. In conjunction with our many partner nations, 
they've provided humanitarian relief assistance to millions, helped 
contain a threatening H1N1 pandemic, expanded support to national law 
enforcement for enhanced border security, and disrupted terrorist 
sanctuaries world-wide. Thanks to them, we have a global presence 
protecting our national security and prosperity.
    The demands of the present remain high, and our military role in 
national security remains substantial. This will continue for the 
foreseeable future. Yet as I have testified before this body in past 
appearances, the military serves America best when we support, rather 
than lead U.S. foreign policy.
    On behalf of all men and women under arms, I wish to thank Congress 
for your unwavering support for our troops in the field, their families 
at home, and our efforts to rebalance and reform the force to assure 
that we win the wars we are in and are poised to win those we are most 
likely to face in the future.

    Chairman Levin. Thank you so much, Admiral.
    We'll try a 5-minute first round here. Mr. Secretary, the 
change in our Afghanistan policy is what drove the requirement, 
apparently, for a supplemental funding request this year. Is it 
your goal to avoid a supplemental funding request for fiscal 
year 2011?
    Secretary Gates. Yes, sir, it is. Our hope would be that 
the OCO's approach is a preferred way to do this. As we saw 
this time unforeseen circumstances brought us up here to defend 
another supplemental. I think I'm on the record last year as 
expressing the hope we wouldn't be doing another one of those, 
but here I am. But it is our intent that for fiscal year 2011 
the OCO fund would be sufficient.
    Chairman Levin. Mr. Secretary, the President, you, the 
Admiral, and others have all pointed out that a principal 
mission for our forces in Afghanistan is the training up of the 
Afghan security forces to take over responsibility for the 
security of their country. Yet our NATO allies are 90 percent 
short of meeting their commitment for trainers for the Afghan 
troops. These are the ones who are in that early 8-week basic 
training period, not out in the field, where I think we're 
doing very well and we are meeting what the goals are in terms 
of kind of on-the-job training, partnering unit with unit.
    But back to that basic training, the NATO non-U.S. 
countries committed 2,000 trainers. They've produced 200. Now, 
what are we going to do to get General Caldwell those 
additional trainers which are so essential?
    Secretary Gates. My understanding is that General 
Caldwell's short about 1700 trainers. Our hope is that with the 
additional commitments of somewhere between 7 and 10,000 
additional forces by our NATO and other partners, that out of 
that number we can more than fill the requirement for trainers. 
Certainly Admiral Stavridis, General Petraeus, and General 
McChrystal have been talking to them about this. But I might 
add, Admiral Mullen just met with the heads of the European 
militaries last week. I might ask him for a comment.
    Chairman Levin. If you could just briefly say, are you 
confident that the need is going to be filled, because it's 
just totally unacceptable that the commitment is made and then 
not kept?
    Admiral Mullen. We all agree it's unacceptable. It's the 
top priority there and it's a top priority from this meeting 
with some 28-plus CHODs to go back to their capitals and meet. 
There's a conference later this month to focus specifically on 
that.
    Chairman Levin. The ``CHOD,'' what does that mean?
    Admiral Mullen. Sorry. My counterparts, the chiefs of 
defense for these countries in NATO.
    Chairman Levin. Thank you.
    Secretary Gates, the BMDR report says that, in contrast to 
the practice over the last decade of fielding missile defense 
capabilities that were still being developed, that the 
administration ``will take a different approach, best described 
as fly before you buy, which will result in a posture based on 
proven technology in order to improve reliability, confidence, 
and cost control.'' That's a welcome change.
    My question: Will we be deploying ground-based interceptors 
(GBIs) that have not been tested and demonstrated?
    Secretary Gates. We have deployed GBIs at Fort Greely. We 
have a very aggressive test program that has been successful. 
We believe that those interceptors give us the capability to 
deal with launches from either Iran or North Korea, a small-
scale threat.
    The fact is we are continuing--in addition to robustly 
funding increases in theater level missile defense, we will 
also continue to spend. We have in this budget $1.35 billion to 
continue the development and test program for the GBIs, both 
the three-stage that are now deployed and the two-stage that we 
were going to deploy in Poland.
    So I think we, both for homeland security and for our 
allies and our troops in the field, have very strong programs 
going forward.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. Secretary Gates, do you believe that the 
Christmas bomber should be tried in civilian court or by 
military commission?
    Secretary Gates. Senator, I would defer to the Attorney 
General and the proper jurisdiction for such people.
    Senator McCain. When you fill out your form when we confirm 
you for the U.S. Senate, you sign that you would give your 
honest and candid opinion in response to questions. Do you want 
to give me an opinion?
    Secretary Gates. My honest opinion is that I think that the 
Attorney General is in the best position to judge where these 
people get tried. After all, we have----
    Senator McCain. Thank you very much.
    It was reported in the media that ``When President Obama 
convened his national security team on January 5 to discuss the 
Christmas incident, the decision to charge the suspect in 
Federal court was specifically discussed and again nobody 
present raised any objection to it. In fact, Secretary of 
Defense Robert Gates made the point that even if Abdulmutallab 
had been transferred to military custody, it is unlikely that 
any more information could have been gleaned from him since 
enhanced interrogation techniques have been banned by the 
administration.''
    Is that a true depiction of your view?
    Secretary Gates. What I actually said was that I believed 
that a team of highly experienced Federal Bureau of 
Investigation (FBI) and other interrogators could be as 
effective in interrogating the prisoner as anyone operating 
under the Military Field Manual.
    Senator McCain. So that's a direct contradiction to the 
Michael Isikoff piece in Newsweek magazine. So you agree with 
Director of National Intelligence Blair when he said ``We did 
not invoke the HIG''--that's the trained interrogators--``in 
this case. We would have.'' Do you agree with Admiral Blair?
    Secretary Gates. I think we did not have the high-level 
interrogators there that we now have protocols in place to 
ensure would be present in such a situation.
    Senator McCain. Do you agree that they should have been 
there?
    Secretary Gates. Yes, sir.
    Senator McCain. Do you believe it was possible in 50 
minutes to exhaust the possibilities for getting all of the 
information that was needed from the Christmas bomber?
    Secretary Gates. I'm just not in a position to know the 
answer to that, Senator.
    Senator McCain. I see. Again, media reports state that you 
thought so.
    Is it your view that, absent enhanced interrogation 
techniques, that the Intelligence Community provides no value 
in the interrogation of a terrorist?
    Secretary Gates. No, I don't believe that.
    Senator McCain. Well, I thank you.
    On the issue of the F-35, to what do you attribute the fact 
that you were not appraised of all the major problems 
associated with the program last summer, when it seems to me 
you needed to be?
    Secretary Gates. We had not yet undertaken at that time, 
Senator McCain, an independent cost analysis that is now one of 
the requirements under the Acquisition Reform Act that you 
passed last year. Our Under Secretary for Acquisition launched 
such an exercise. He himself spent about 2 weeks full-time 
looking into the F-35 program, and as a result of the 
independent cost estimate and his own investigation came to the 
conclusions that the program required restructuring.
    Senator McCain. Can you give us, either verbally or in 
writing, the delays and cost overruns that we now expect?
    Secretary Gates. Yes, sir. I would say that, in terms of 
delivery, even with the restructured program, we still expect 
the training squadron to be at Eglin in 2011. We expect initial 
operational capability (IOC) for the Marine Corps in 2012, for 
the Air Force in 2013, and the Navy in 2014, the fourth quarter 
of 2014.
    There will be fewer delivered aircrafts at IOC. That's the 
result of reducing the production ramp, as has been recommended 
to deal with some of the issues associated with that.
    [The information referred to follows:]

    At the time of this hearing, the Department knew that the Joint 
Strike Fighter Program would need additional funding of approximately 
$3 billion to complete the System Development and Demonstration (SDD) 
phase. Additionally, SDD would require an additional 13 months to 
complete. Procurement costs were also estimated to be higher. The 
Department reduced the procurement ramp to align with recommendations 
from an Independent Manufacturing Review Team, to pay for the increased 
development costs and to reduce concurrency.
    Since the hearing, the Department has benefited, and will continue 
to benefit, from insight gained during the Nunn McCurdy review, and the 
subsequent bottoms up Technical Baseline Review of the development and 
test program. The Department is utilizing all of the independent 
reviews, analysis, and actual program performance from the past year to 
develop the fiscal year 2012 budget, and document the cost and schedule 
for the program going forward. That work is still ongoing.

    Senator McCain. Well, in conclusion, given your 
responsibilities to the men and women who are serving in the 
military in the defense of this Nation, I hope you will come to 
a conclusion as to how enemy combatants should be treated as 
far as their trials are concerned and our ability to assure the 
American people that they will not be returning to the 
battlefield, and whether they should be tried and incarcerated 
in the United States rather than Guantanamo. I look forward to 
your views on that because I view that clearly in your area of 
responsibility, not the Attorney General, who has obviously 
botched this one very, very badly.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to add my welcome to Secretary Gates and Admiral 
Mullen for being here to discuss the 2011 defense budget, and 
to thank you for your service and the service of all the men 
and women in our Armed Forces, and I also welcome Mr. Hale.
    Secretary Gates, you have mentioned that beyond winning the 
wars themselves, the treatment of our wounded and ill is your 
highest priority. As a result of today's continuing conflicts, 
the psychological effects of those conflicts within the ranks 
of the U.S. military have never been more profound. Secretary 
Gates, what do we need to improve our treatment of mental 
illness and how does this budget address that?
    Secretary Gates. Well, as Admiral Mullen mentioned in his 
opening statement, there is over $1 billion in this budget for 
the treatment of post-traumatic stress disorder (PTSD) and TBI. 
All of the Services have very extensive programs for dealing 
with psychological problems. All of the leadership, I think, 
have weighed in on this very heavily.
    I would say that there are two problems that we still are 
wrestling with. One is the shortage of mental health care 
providers. We are--and frankly, we've discovered it's a 
national shortage; it's not just a shortage in the military, 
because we're all over the country trying to hire these people. 
We've hired a lot, I think something on the order of 1,000 or 
1,400 over the last 18 months or so. But we still need more.
    The second is still overcoming the stigma of seeking help, 
of getting not only our soldiers, but also their families, to 
get the psychological help that is available to them.
    But let me ask Admiral Mullen if he'd like to add a word or 
two.
    Admiral Mullen. I think the Secretary has captured the two 
big issues. We dramatically increased the number of mental 
health providers in recent years, but we're still short. We're 
just beginning to understand the real impacts of TBI.
    Then the other piece I would ask for your help on is, how 
do we work with other committees here? Secretary Gates and 
Secretary Shinseki have certainly set the standard shoulder-to-
shoulder that both DOD and VA need to work this together, 
because many of these young people transition certainly from 
DOD to VA. I really believe it has to be a three-part team that 
includes communities throughout the country.
    So how do we ensure that those who sacrifice so much 
receive the care across this entire continuum, and we 
understand their needs, which change over time. It's those who 
suffer greatly in uniform, but it's also families who have been 
under great stress. So that would be the third piece that I 
would add to the Secretary's answer.
    Senator Akaka. Mr. Secretary, IEDs remain the number one 
cause of casualties in Afghanistan. The administration recently 
announced the deployment of 30,000 additional U.S. troops to 
Afghanistan. As a result, more of our men and women will be 
exposed and vulnerable to this deadly form of attack. The Joint 
IED Defeat Organization was created to lead and coordinate all 
DOD actions in support of combatant commanders' efforts to 
defeat IEDs as weapons of strategic influence. Mr. Secretary, 
what is your assessment of DOD's efforts in protecting our 
troops against IEDs, and if improvement is needed what can be 
done to improve those results?
    Secretary Gates. Senator, I think that we have a number of 
very forward-leaning efforts to try and deal with the challenge 
of IEDs. My concern a few months ago was that these efforts 
were not adequately integrated and put together in a way that 
we derive maximum benefit from the efforts that we had under 
way.
    I asked the Under Secretary of Defense for Acquisition, 
Technology, and Logistics, as well as General Jay Paxton, to 
co-chair an effort, a short-term effort, to see what more we 
could do, both in terms of better structure for how we deal 
with this problem, but also if there were some specific areas 
where additional attention was needed. They've brought to me 
some recommendations in terms of significant enhancements for 
long-term full-motion video so we can watch roads, we can watch 
the areas around our encampments, aerostats, a variety of other 
technical solutions.
    The commanders have increased the requirement for the MRAP 
vehicles, particularly the ATVs, so there is an additional 
requirement that actually is already funded or is taken care of 
in this budget for about 10,000 more MRAPs. 6,600 of those will 
be the all-terrain version that are designed especially for 
Afghanistan to protect our troops.
    So we have a number of efforts. There were identified 
problems, such as the labs we had--we had a lot of labs working 
the IED problem in Iraq. We hadn't put as many labs into 
Afghanistan yet. So this is a dynamic process and I would say 
to you we have a number of initiatives under way to improve the 
strong work that was already being done, because this is 
absolutely the worst killer and maimer of our troops and we 
are, with your support, sparing no expense and no effort to try 
and reduce those casualties.
    The MRAPs have made a huge difference, but the enemy is a 
thinking enemy and they change their tactics and their 
structures.
    Another thing we're doing is, a very high percentage in 
Afghanistan of these IEDs are made from the fertilizer 
component ammonium nitrate, which is illegal in Afghanistan. So 
now we're establishing an effort to try and hit the smuggling 
networks that bring this ammonium nitrate in to be used for 
these IEDs.
    But we have a lot of different efforts going on, and if the 
committee is interested I'd be happy to have Secretary Carter 
and General Paxton come up and brief on their endeavors.
    Senator Akaka. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me start off by saying I disagree with Senator McCain 
on his statements on the C-17 and I disagree with him on the 
statements, his past statements on the F-22. It concerns me 
that we keep hearing, well, this is something that the military 
doesn't want, they didn't ask for, and all that. Then I go over 
there and that's not their attitude at all. They have needs 
over there. Our lift capacity is in dire straits. We're still 
using those old, beat-up C-130E models that we keep losing 
engines on. We actually lost two engines on one not too long 
ago when I was over there.
    The state of the art is still there in the C-17s and I 
think that we are going to have to do some surgery on that and 
some of the other things on this budget when the Senate Armed 
Services Committee gets together.
    Now, on the F-22, just yesterday we read about the T-50 
that they're coming out with, a fifth generation that the 
Russians have. I'm not at all as confident as everyone else is 
that our F-35s are going to be on line when we say; as Senator 
McCain just said, that we have cost overruns, we have problems 
that just recently have surfaced. I'm concerned about this.
    I guess if we're down to 187 F-22s, and I think out of that 
what, only 120 are actually combat-ready and used for combat. 
Yet, as I read this article on the T-50, they're starting to 
crank these things out and India, is talking about buying 200 
of them. Who knows who else is going to be buying them?
    So I am concerned about it. I guess it goes beyond just 
that. I look at the Senate Armed Services Committee. On these 
two vehicles I mentioned, the F-22 and the C-17--in Oklahoma I 
don't have a dog in that fight. We don't have any parochial 
interest there. But it's the capability that we're going to 
need.
    I look and I see and remember so well testimony that our 
defense for 100 years averaged 5.7 percent of gross domestic 
products (GDP). It's now down to 3.7 and, as you project it by 
the figures that I'm getting, it will go down to 3 percent by 
2019. This is what really concerns me, is we're just not doing 
the job that we need to be doing to defend America, if you 
consider that the number one function of government, which I 
happen to.
    I do agree with Senator McCain on his concern over pulling 
the rug out from under Eastern Europe on the third site. I read 
something yesterday that Russia doesn't want us to have any 
ground-based capability. I don't know.
    I guess the first thing I would ask you, Mr. Secretary--and 
I should know this, but I don't: If we're talking about having 
the capability of the SM-3 and getting that working, where 
would it be used? Is this Aegis or where would we have this 
capability?
    Secretary Gates. In the initial phase it would be based on 
ships, but we have money in the budget for a land-based 
Standard missile. So it would be deployed in Europe and perhaps 
elsewhere, depending on the agreements that we reached with 
other countries.
    Senator Inhofe. You don't think you'll have a little bit of 
a problem, in that we negotiated, and we went over there, with 
the Czech Republic for its radar and then Poland for the site 
of the GBI, and then changed our minds? Isn't that going to 
create a little bit of a problem, or have you already initiated 
any kind of a discussion with any of the European countries to 
have that capability there?
    Secretary Gates. Yes, and in fact we've reached agreement 
with the Poles already to move advanced Patriots into Poland. 
So I think, frankly, we----
    Senator Inhofe. That's a different capability than getting 
up, what we were talking about before.
    Secretary Gates. As I say, I don't think we'll have a 
problem.
    Senator Inhofe. Okay. All right.
    Well, Army modernization, I've been concerned about that. 
:ook at our capability on the Non-Line-of-Sight (NLOS) cannon. 
First we were going to have a Crusader and then that was axed 
by the Republicans, by President Bush, right when we were in 
negotiations, I might add, in the Senate Armed Services 
Committee on putting together a program. So I'm concerned about 
that.
    Now we do have the Paladin Integrated Management program 
and that's good on the Paladin. But I have to tell you, that's 
the same technology they had when I was in the U.S. Army, so I 
am concerned about that.
    I'm concerned that General Casey and General Chiarelli both 
have stated many times that we're burning up equipment as soon 
as they can be procured. Yet the Army procurement funding 
decreased in this budget by $31 billion from fiscal year 2008 
to fiscal year 2010. Is that a good idea?
    Secretary Gates. I think a good part of that was for the 
Army's Future Combat Vehicle and we're restructuring that 
program, and I think that you'll see a significant increase 
when the Army moves into production of that vehicle.
    Senator Inhofe. Well, I hope that's the case and I hope 
that we're here to be able to see that as a reality.
    My time has expired, but just one last question if I could, 
Mr. Chairman. On the section 1206, 1207, 1208, and so forth, 
the 1206 is fine. I appreciate the fact that we have enhanced 
that program and some of the others. The 1207, that's the 
civilian-to-civilian. That now is going to go back to the State 
Department, and one of the original reasons we wanted to have 
this in the DOD was the timing, so that when a decision is made 
we'll be able to get it done. Do you think that's a good move 
or do you think we should try to reverse that in terms of the 
1207 in the train and equip program to bring it back the way it 
is today?
    Secretary Gates. First of all, Senator, I want to thank you 
for your support and your help on section 1206, 1207, and 1208. 
But I think when I testified here last year the plan was to 
begin transferring the 1207 money to the State Department. I 
think the plan you have in front of you essentially simply 
accelerates that process.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Let me add my appreciation to you and your families for 
your distinguished service.
    I've long been an advocate for benchmarks or measures of 
progress and I think we need to continue to do so objectively 
so we can gauge our efforts in both Afghanistan and Pakistan. I 
know this administration, as well as our NATO allies, are 
committed to objective benchmarks for measurement and we've 
done so with past strategies, and we've all talked about this 
so many times, most recently in December, about both 
Afghanistan and Pakistan.
    During that hearing in December, it was noted that measures 
of progress were being used and evaluated. I thought at that 
time those benchmarks would be forthcoming to our committee, 
but at least I have yet to see them. It seems to me that one of 
the most important times to inform the process is at the very 
onset of any change, and as this mission changes course, the 
way in which we measure efforts will change as well.
    Have comprehensive and final benchmarks or measures of 
progress been developed to reflect this new strategy, and if so 
when will these be made to the committee? Secretary Gates?
    Secretary Gates. I think they have and I frankly thought 
that they had already been provided to the committee, and I'll 
check on it after the hearing.
    [The information referred to follows:]

    In accordance with section 1117 of the Supplemental Appropriations 
Act, 2009 (Public Law 111-32), the President submitted to Congress on 
September 24, 2009, a statement of the objectives of U.S. policy with 
respect to Afghanistan and Pakistan, and the metrics to be utilized to 
assess progress toward achieving such objectives. Section 1117 also 
includes a reporting requirement to provide Congress an assessment of 
the progress of U.S. Government efforts in achieving the objectives of 
U.S. policy by March 30, 2010, and every 180 days thereafter using the 
metrics submitted in September 2009. The President will submit the 
first report in Mach 2010 and semi-annually thereafter.

    Senator Ben Nelson. Okay, thank you.
    Could you talk a little bit about some of the areas of 
measurement that would be in these measures of progress?
    Secretary Gates. I think a couple that are pretty obvious 
are are the Afghans meeting their recruitment goals for the 
Afghan national security forces, are they meeting their goals 
in terms of limiting attrition, how many--are they meeting the 
number of units being fielded that are in the plan, are they--
there are benchmarks associated with their training. So I think 
those are the kinds of things, at least with respect to the 
security forces, that we're talking about.
    Senator Ben Nelson. Do we have anything that we might 
relate to our measures of progress with respect to our 
particular efforts?
    Secretary Gates. I think in some respects the President has 
made his expectations pretty clear. He has some clear 
expectations and is benchmarking us on how fast we can get 
30,000 troops into Afghanistan and watching that carefully. I 
think he has clearly set a marker in terms of beginning to 
transfer security authority to the Afghans beginning in July 
2011, so that's a clear benchmark that must be met. So I think 
we do have some.
    Another for us is the number of civilians we're getting 
into Afghanistan from the State Department, USAID, and other 
agencies.
    Senator Ben Nelson. Are you working with the State 
Department jointly in that effort? Because I know they've set 
some measures of progress of their own.
    Secretary Gates. Absolutely. This is as integrated an 
effort as I've ever seen the U.S. Government undertake.
    Senator Ben Nelson. Thank you.
    I'd like to talk to you just a second about our contractor 
conversion efforts. You announced in the spring of 2009 that 
DOD would scale back the role of contractors in support 
services. Quite honestly, my sense is that for too many years 
we were outsourcing too much with perhaps too little emphasis 
on why and whether it was justified.
    But regardless of the makeup, outsourcing or insourcing has 
to make sense and be oriented towards the best utilization of 
resources, both money and people. Is there in place a strategic 
plan for the right mix of contractor, government, civilian, and 
military personnel, and what are we doing to execute such a 
plan?
    Secretary Gates. First of all, our goal is to take the 
number of contractors in DOD as a percentage of the workforce 
back to where it was prior to September 11, which would mean 
taking it from 39 percent to 26 percent. The plan--first of 
all, I think one of the effects of what we have seen in Iraq in 
particular has been the revival of acquisition in a couple of 
the Services where that as a career field had withered. I think 
this is particularly true in the Army, where a number of 
measures, including the allocation of general officer positions 
and so on, to revive that career field as an attractive career 
field. Some other Services have done better.
    I think that Under Secretary Carter has a clear idea of the 
right mix between contractors and civilians. But I think that 
the first place we need to look is that we probably shouldn't 
have contractors evaluating contractors. So I think that's the 
first area as we make these conversions, which I might add are 
on track 1 year in.
    Senator Ben Nelson. My time has expired. Thank you, Mr. 
Chairman.
    Chairman Levin. Just to implement the point Senator Nelson 
made, I believe in this year's budget proposal you are 
proposing maybe 10,000 contractor jobs be eliminated and 
changed over to employees of DOD. I don't know the exact 
number, but is that not true? It's in the budget?
    Secretary Gates. Our goal is 20,000, to increase the number 
of acquisition professionals from 127,000 to 147,000. 10,000 of 
those will be the conversion of contractor jobs to civil 
service jobs. Another 10,000 will be new hires.
    Chairman Levin. That's in this year's budget, is that 
correct?
    Secretary Gates. That's correct.
    Chairman Levin. I just wanted to clarify that point.
    Admiral Mullen. 20,000 total is over 2010 to 2014, Senator 
Levin.
    Chairman Levin. Over 4 years.
    Admiral Mullen. Right.
    Chairman Levin. How many in this year's budget?
    Admiral Mullen. The total is about 6,000. That would 
include acquisition and everything else. I'll have to get you 
the number specifically for acquisition.
    Chairman Levin. To clarify the benchmarks point made by 
Senator Nelson, which he's been very persistent on, to the 
benefit of everybody in the Nation, the only thing that we've 
received from DOD is a draft set of benchmarks and they were 
classified. So he is right, we have not received benchmarks, 
although we were promised them. We need both the benchmarks, 
but also in an unclassified way.
    Secretary Gates. The benchmarks that I was talking about 
were interagency benchmarks that had been agreed, and those 
were the ones that I thought had been delivered and I'll pursue 
after the hearing.
    [The information referred to follows:]

    In accordance with section 1117 of the Supplemental Appropriations 
Act, 2009 (Public Law 111-32), the President submitted to Congress on 
September 24, 2009, a statement of the objectives of U.S. policy with 
respect to Afghanistan and Pakistan, and the metrics to be utilized to 
assess progress toward achieving such objectives. Section 1117 also 
includes a reporting requirement to provide Congress an assessment of 
the progress of U.S. Government efforts in achieving the objectives of 
U.S. policy by March 30, 2010, and every 180 days thereafter using the 
metrics submitted in September 2009. The President will submit the 
first report in march 2010 and semi-annually thereafter.

    Chairman Levin. Thank you. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman, for your good 
leadership. You're an excellent chairman. We do have a lot on 
the agenda today: talking about the defense budget, the QDR, 
two wars, the BMDR, DADT, terrorist trials. I guess I would 
just say, I don't think we can do it all justice today. I hope 
we'll have more hearings as we go forward. Some of them, we 
need the Secretary of Defense and the Chairman of the Joint 
Chiefs.
    Just briefly, Mr. Secretary, on the Christmas Day bomber. I 
saw your former colleague, Attorney General Mukasey, this 
morning on the television pointing out that, yes, they tried 
Moussaui in Federal court, he tried the case as a Federal judge 
at the time, but he pled guilty and the sentencing phase took a 
year. He said it was made into a circus. He pointed out that 
Guantanamo was created for the purpose of these kind of trials.
    When a person like the Christmas Day bomber leaves Yemen 
armed with a bomb from al Qaeda, on directions of al Qaeda, and 
flies into the United States, I suggest he's an unlawful enemy 
combatant and perfectly suited for detention and trial, if need 
be a trial, in military custody. I think DOD needs to know 
about those things because the intelligence that could be 
gathered from a prolonged interrogation by people knowledgeable 
in Yemen could have added greatly to this.
    Now he's been advised he has a right to a lawyer. He's no 
longer going to cooperate or talk. He's going to be entitled to 
a speedy trial. There are a lot of problems with that.
    So I just hope you will be alert to that as it goes by. I 
think the military has a real responsibility.
    I just would briefly say that I've come to understand and 
feel more strongly about the concern Senator McCain has about 
setting an absolute date for beginning to leave in 2011. We'll 
hardly have our troops in place by then, the surge in place by 
then. We see things like President Karzai beginning to talk to 
the Taliban. It makes you wonder if he's looking beyond our 
departure date. I worry about that.
    Mr. Secretary, you talked about the supplemental. I've been 
baffled a bit by that. It seems to me that when you're in a 
war, a supplemental is an appropriate way to handle funding for 
that. To try to force into the baseline budget funding 
specifically for these two operations, with a couple hundred 
thousand troops deployed, is not a good policy. Why do you feel 
like we should do this only within the baseline budget?
    Secretary Gates. I absolutely do not believe we should do 
it within the baseline budget. I think that the purpose of 
providing the OCOs funding budget is I think that it's actually 
in response to considerable pressure from Congress for 
greater----
    Senator Sessions. I know you have gotten pressure from 
Congress on that.
    Secretary Gates.--greater predictability----
    Senator Sessions. But not out of me.
    Secretary Gates.--greater predictability about how much is 
going to be spent in these wars, and so that those budgets can 
be considered within the framework of the normal consideration 
of the budget. So I think that it's certainly not a part of the 
base budget, but it is provided in advance in a way that gives 
Congress the opportunity to review it in the same way it 
reviews the rest of the budget.
    Senator Sessions. I'm not sure. It seems we should be able 
to review the supplemental as well. But I guess in a way you're 
creating a discrete funding program that we could review, and 
maybe that would be acceptable.
    Admiral Mullen, with regard to our procurement of major 
weapons systems, I know that DOD has focused on life cycle 
costs, and I guess you would agree that things such as fuel and 
maintenance are important factors to evaluate if you're going 
to evaluate the cost of a weapons system over a period of 
years?
    Admiral Mullen. Yes, sir.
    Senator Sessions. I know we did that on the tanker 
aircraft. In fact, fuel and that sort of things are counted as 
evaluating that aircraft. Should that be applied to a 
procurement program like the LCS; the cost of fuel over its 
lifetime, should that be accounted for?
    Admiral Mullen. I've long been concerned about life cycle 
costs. Senator Sessions, I think you know that long before now. 
The Secretary pointed out, and I think very importantly, in his 
opening statement that the programs that he cut last year 
actually had some life cycle value focused on about $330 
billion. As far as what's in a request for proposal (RFP) and 
what it's going to be focused on, that's something that I 
really can't comment on----
    Senator Sessions. I don't know. We have an RFP in the LCS 
that I'm told does not have any factor for fuel costs.
    Admiral Mullen. You know more about it than I do. I haven't 
seen it.
    Senator Sessions. If that's so, would you be willing to 
look at it and ask questions if that's a wise decision?
    Admiral Mullen. Again, as I said, for a long time I've been 
concerned about life cycle costs. Actually, I think one of the 
weaknesses of the acquisition system is typically that the line 
is not involved in it. The uniformed side is not involved in 
that. So I'm not involved from that point of view and would 
under actually no circumstances see an RFP or look at its 
evaluation criteria in what I'm doing right now.
    Senator Sessions. I would think it would be your ultimate 
responsibility as part of the procurement of the Department to 
see that at least basic requirements are being met. I think I 
hear you say that life cycle costs, which certainly would 
include fuel, should be a factor in evaluation of the bids or 
the proposals. Wouldn't it?
    Admiral Mullen. I've said life cycle costs are an important 
factor and have been for a long time.
    Senator Sessions. We'll have to follow up on that.
    Thank you very much.
    Chairman Levin. Thank you. Thank you very much.
    Senator Udall is next.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, gentlemen. Thank you for being here with us 
today.
    Secretary Gates, we have a proposal from the President 
which I fully support, to freeze nondiscretionary spending for 
nondefense programs in fiscal year 2011. I think we're going to 
face tighter budgets in future years and we may have the 
potential need to trip Pentagon budgets as well. Could you talk 
about how you're posturing DOD to be able to react to that 
potential?
    Secretary Gates. First of all, I think that the situation 
out there in the world doesn't change, and the world is 
becoming more complex and I would say more dangerous, rather 
than less so. I think that as people think about where we are, 
there are many reasons for the deficit and DOD certainly spends 
a lot of money. But if you look at where DOD is today, it's 
very much within historical norms in terms of both GDP and a 
percentage of the budget in terms of what we're spending.
    That said, I would tell you that if DOD received 
significant reductions in its budget, that we would have to 
sacrifice force structure. We cannot do it any other way. So 
the result of that would be a reduction in military capability 
and a reduction in our flexibility.
    Senator Udall. If I might, let me thank you for your focus 
on acquisition reform. I want to associate myself with Senator 
McCain's remarks and I hope that this committee will continue 
to support you as you make some tough decisions, so that we 
extract every penny of value from every dollar that we spend. I 
just want to acknowledge the important work you've done there.
    Let me turn to Afghanistan. Senator Sessions expressed some 
concern, but I would like to comment that you make peace with 
your enemies, not with your friends. I've been interested, 
Admiral Mullen, in the re-integration of the low-level Taliban 
proposals that have been forthcoming. There was a recent 
conference I believe in the United Kingdom some significant 
monies pledged.
    Could you comment on those plans to the extent that you're 
comfortable?
    Admiral Mullen. The reintegration piece is clearly an 
important piece of this, and every commander feels that way. 
Very specifically, the reintegration is really bringing those 
who are literally the fighters who are against us right now, 
bringing them into the fold. In fact, General McChrystal is 
very focused on that. We are in the execution of this strategy 
which includes that, so getting everybody on the same page for 
exactly what it means and how rapidly it happens or doesn't 
happen is where we are very much at the beginning. But we think 
it is an important part. There is no view at this point that is 
a panacea, because we just don't see that many at this point.
    The other term that is used that I think it's very 
important to understand is the reconciliation piece, which is a 
term that is focused on I would call the senior leadership of 
the Taliban or the senior leadership of the enemy--much more 
complex, and President Karzai has made it clear that he wants 
to get on this path. But again, it's at the beginning. We're at 
the beginning of that process.
    I think we have to be clear about the terms and what they 
mean, and also look at a realistic pace in terms of both 
expectations and actually what's happening. In that regard, 
we're just at the beginning.
    Senator Udall. Let me turn to Iraq. We have elections 
looming. There is some increased violence. Do you still believe 
we're on schedule to redeploy, as General Odierno has put in 
place?
    Admiral Mullen. Yes, sir, I do. We were very focused on the 
elections in early March. It's the elections after which we 
start coming down fairly dramatically, 104,000 today is what we 
have on the ground. We will come down to approximately 50,000 
by August. In that timeframe, another big issue is they will be 
standing up a government and it will take them several months 
to do that, sort of the summertime, to stand up this newly-
elected government.
    So it's a great time of transition. General Odierno, and 
Ambassador Hill on the civilian side, are very focused on all 
aspects of that. But right now, overall the indicators are 
positive.
    Senator Udall. I see that my time's expired. I want to 
thank you again for your leadership and for this comprehensive 
set of statements today and for a budget, Secretary Gates, that 
I think clearly leads us in the right direction.
    Thank you.
    Chairman Levin. Thank you, Senator Udall.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Mr. Secretary, Admiral, thank you for your outstanding 
service and for appearing today and responding to some of our 
questions.
    Secretary Gates, I wanted to take up with you the 
recommendations in the budget and the QDR. Going back to the 
2006 QDR, there was a recommendation in there to develop a 
follow-on bomber. You've made it clear that you support the 
development of a new bomber. Last April you opted not to pursue 
a development program for a follow-on Air Force bomber until 
you had a better understanding of the need, the requirement, 
and the technology.
    As part of the effort to better understand the requirement 
for a new bomber, I also understand that you stood up a Tiger 
Team to do an in-depth study of long-range strike in the new 
QDR. In reading the new QDR on page 33, it looks, however, like 
you have still not made a decision to move forward with the new 
bomber program, but instead have commissioned yet another 
study.
    My question is, what conclusions were drawn by the Tiger 
Team regarding the development of a new bomber and are those 
conclusions available to us, at least in writing for the 
record?
    Secretary Gates. I will get you an answer for the record on 
that, Senator. But there is, I think, $1.7 billion in the 
budget for next generation bomber and long-range strike. I 
think one of the issues that we're still wrestling with is what 
kind of a bomber would we be looking for. Do we want a stand-
off bomber? Do we want an attack bomber? Do we want a manned 
bomber or an unmanned bomber? Or do we want variations, where 
you could have a platform that could serve both purposes?
    I think we still have a lot of life left in the B-52s, as 
old as they are, and there is modernization money for both them 
and the B-2s in the budget. We're talking about a bomber that 
would probably not appear into the force until the late 1920s. 
So we're just trying to figure out, looking ahead a generation, 
what the right configuration for that would be.
    [The information referred to follows:]

    The Tiger Team to which you refer was formed to study the need, 
requirement, and technology for a follow-on Air Force long-range strike 
aircraft. That team completed its work last November. The team was 
supportive of pursuing a new long-range strike aircraft, but recognized 
that additional analysis was needed to explore options for reducing 
overall program costs and determining fielding timelines. Another 
conclusion of the Tiger Team's study was that the Department should 
sustain the industrial base for early-stage design work and 
technologies for a new long-range strike aircraft while the Department 
continues to study all options. Through the Quadrennial Defense Review, 
the Department provided industrial base funding for fiscal year 2011 
and fiscal year 2012 to prepare for the potential start of a new long-
range strike program. I decided that a more in-depth analysis was 
required in order to evaluate and compare the capabilities of new long-
range strike aircraft designs in the context of the full range of 
supporting capabilities that would be relevant to the operation of such 
aircraft in future combat scenarios.
    The Department is now undertaking a follow-on effort to examine the 
appropriate mix of long-range strike capabilities; upgrades to legacy 
bombers; manned and unmanned options; stand-off and penetrating 
requirements; new and improved cruise missiles; electronic warfare 
improvements; intelligence, surveillance, and reconnaissance demands; 
and conventional prompt global strike options. The goal of this ongoing 
assessment is to ensure that the Department fully understands how all 
potential long-range strike options and supporting capabilities could 
contribute to U.S. security goals before committing to one or more 
major development programs. I anticipate that our analysis will inform 
decisions shaping the Department's fiscal year 2012 budget submission.

    Senator Thune. The 2006 QDR had suggested, I think, 
fielding a new bomber by 2018. I understand the concerns that 
you raised about what type of bomber that might be. But I 
guess--and by the way, I think the $1.7 billion is a multi-year 
number. Isn't that like a 4-year number?
    Secretary Gates. Yes.
    Senator Thune. But why is it necessary to have another 
study? I mean, the thing has been studied and studied and 
studied and studied, on whether or not we want to move forward 
on developing a follow-on bomber. When would you expect that 
study to be completed?
    Secretary Gates. I'll have to get an answer for the record. 
I think what the studies up to now have been is whether, and 
now the study is what.
    [The information referred to follows:]

    The Tiger Team that was initially formed to study the need, 
requirements, and technology for a follow-on Air Force bomber completed 
its work last November. The team's conclusions were supportive of 
pursuing a new bomber, but the team recognized that additional analysis 
was needed to explore options for reducing overall program costs and 
determining fielding timelines. Additionally, I decided that a more in-
depth analysis of how a new bomber might compare with other long-range 
strike options was required. Consequently, the Department chartered 
another study to look at a broader array of long-range strike options 
to include upgrades to legacy bombers; manned and unmanned options for 
future bombers; stand-off and penetrating options for future bombers; 
new and improved cruise missiles; and conventional prompt global strike 
options, such as land-based and sea-based conventional ballistic 
missiles. The new study will also examine the support requirements for 
various long-range strike options, such as electronic warfare, 
intelligence, surveillance, and reconnaissance, and secure, high-data-
rate communications.
    The rationale for this new study is to ensure the Department fully 
understands how all potential long-range strike options could 
contribute to U.S. goals before we spend billions of dollars. I 
anticipate that results from the new study will be available in time to 
support the formation of the fiscal year 2012 budget.
    Another of the initial Tiger Team's conclusions was that the 
Department should sustain the industrial base for early-stage design 
work and technologies for a new bomber while the Department continues 
to study long-range strike options. Consequently, the Department 
provided industrial base funding for fiscal year 2011 and fiscal year 
2012 to prepare for a potential start for a new bomber program.

    Senator Thune. Secretary Gates, with regard to the FYDP 
force structure that's set out in the new QDR for the Air 
Force, the QDR proposes five long-range strike wings with up to 
96 primary mission aircraft. According to the latest Air Force 
Almanac, the Air Force has 153 bomber aircraft and I understand 
some of these aircraft are dedicated to testing, but over 50 
aircraft for testing seems like a lot. Do you plan on retiring 
any bomber aircraft in the near future? I guess a follow-on 
question would be, what are the assumptions underlying what 
appears to be a substantial reduction in the number of bombers?
    Admiral Mullen. Senator, I'm not aware that we are, 
although I certainly would want to check for the record to make 
sure that I have that right. But there certainly hasn't been 
any big discussion about the retirement of bombers.
    If I could speak just briefly to the other issue you raise, 
one of the things that's happened in the last two budgets in my 
view is it's put us on a pace and with a view that evolves. 
Some of the previous laydowns, the 2006 QDR, were from my 
perspective incredibly aggressive. So part of my answer to the 
question of why we're still doing this is because this is a 
very difficult problem. We want to get it right, and it has a 
huge impact, quite frankly, on the future of the Air Force 
because of the capability requirement.
    I think what you're seeing is a process that is led by 
Secretary Gates to move us through a deliberative process that 
really focuses on getting it right for the future. As he 
indicated, the previous study was as to whether or not, and now 
we look to the future as what it should be. I'm supportive of 
that. These are tough decisions we absolutely want to get 
right.
    Senator Thune. Could you for the record get to that 
question, though, of the number? Of the 96 bombers that are 
assumed in the five wings, with 153 Air Force bombers, a 
certain number of them allocated to testing, but that does seem 
like a significant number, whether or not there is any plan to 
retire and any assumptions underlying that, what would appear 
to be a substantial reduction in the number of bombers.
    Admiral Mullen. We'll supply it for the record, but I think 
a lot of them may be for training. I think you're talking about 
primary aircraft, coded aircraft. There are a number designated 
for training and testing, as you say. But we'll supply the 
details for the record.
    Senator Thune. That would be great.
    [The information referred to follows:]

    [Deleted.]

    Senator Thune. Mr. Chairman, if I could, I'd like to get 
for the record a response to a question dealing with the START 
Treaty in sort of the same vein. Thank you.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. We will expect that answer for the record 
relative to Senator Thune's question on START.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Thank you both, Secretary Gates and Admiral Mullen, for 
your testimony today and for your dedication to our men and 
women in the military.
    Secretary Gates, I applaud you for the tremendous job DOD 
has done in carrying out and supporting the relief efforts that 
have been under way in Haiti. The ability of our maritime 
forces to operate from a sea base while rapidly transitioning 
personnel and equipment ashore is something that I believe is 
an excellent demonstration of what our military is capable of 
doing and especially useful in a situation in Haiti where 
there's limited capacity for air transport.
    I believe it's important that we maintain our advantage in 
projecting sea power across the range of military operations 
from humanitarian relief to combat. My question, Secretary 
Gates and Admiral Mullen, is do the military departments and 
combatant commanders have sufficient amphibious operational 
capabilities to address the full spectrum of requirements, both 
military and humanitarian, anticipated within the QDR?
    Admiral Mullen. Ma'am, as I go back over the last 10 to 15 
years and then look at the future, my overall answer to that 
would be yes. We certainly have this within DOD over the years, 
debated this and there's been tension. I think it's good 
tension to get this right, and it focuses very specifically on 
the amount of amphibious lift capability that we have.
    Actually, one of my concerns specifically--so right now, 
yes. One of my concerns about the future--and I'm certain that 
the Commandant of the Marine Corps shares this--how is the 
Marine Corps has become very heavy. Obviously, it's now in the 
sixth or seventh year of fighting a land war, which is not what 
it wants to do. So there are an awful lot of adjustments that 
have to be made for the future. The Marine Corps is going to 
have to get lighter than it's been in the past.
    So I think this discussion will continue. But as far as my 
view of the future, I think we have it about right as we sit.
    Senator Hagan. Thank you.
    I know that we've already discussed some of the IEDs, but I 
know that in Afghanistan the mountainous terrain and the 
limited communication infrastructures certainly pose a 
distinctly different IED threat as opposed to what we have seen 
in Iraq. We need additional personnel at the battalion and 
company levels with the appropriate expertise and technical 
equipment to detect the IEDs in areas such as Afghanistan, 
where the insurgents utilize the primitive forms of IEDs with 
very little metallic content that is buried into the ground.
    What type of feedback are you receiving from CENTCOM and 
the component commanders in theater with respect to their 
personnel requirements encountering the IEDs, and what do you 
expect to do to address any shortages that exist?
    Secretary Gates. A substantial number of the 30,000 troops 
that will be going are in the category of what we call 
enablers. That includes engineers, route clearance specialists, 
counter-IED specialists, all of whom are--and people associated 
with ISR--all of which are part of the counter-IED effort.
    One of the initiatives that this temporary task force that 
I've set up under General Paxton and Dr. Carter is looking at 
is establishing, at the battalion level, what we would call a 
warehouse approach for counter-IEDs, which would basically, 
instead of giving every battalion the same set of equipment, 
rather have an array of equipment that is available to that 
battalion, so that each of the teams going out can select the 
equipment that seems most appropriate to that mission that day.
    We have a wide range of these detectors and intelligence 
capabilities and so on, and the idea is some of these units are 
better, frankly, with certain kinds of equipment than others. 
There's more than a little art in this. So what we're trying to 
do is figure out how, at the battalion level, we in essence 
could have an array of equipment that a team going out could 
take advantage of.
    So I think that there is an understanding on the part of 
General McChrystal and General Petraeus that we are pouring 
every bit of counter-IED capability into Afghanistan that we 
can.
    Senator Hagan. Thank you. My time is up.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Wicker.
    Senator Wicker. Thank you, gentlemen. We do have a lot to 
talk about, and I share Senator Sessions' view that it would be 
nice to have you back. I hope the chairman will be able to 
arrange that.
    My first question is about the 313-ship Navy, Admiral 
Mullen. The Congressional Budget Office recently testified that 
the current shipbuilding budgets are not enough to fund the 
Navy's plan to increase the fleet to 313, and I think we all 
know that. I assume you agree with that. At 283, the Service 
has the smallest fleet since 1916. That's pre-World War I. We 
need to build more than 12 ships per year for the next 18 years 
to arrive at 313.
    Is 313 still the requirement, Admiral Mullen? How does this 
budget, how does this QDR, support the goal of a 313-ship Navy?
    Admiral Mullen. It is still the goal. It was when I led 
that analysis and generated that requirement as Chief of Naval 
Operations. It remains the floor. It was a number that was 
achieved with an understanding of what the risk would be. We, 
the total ``we''--that's the Services, the Department, those 
that build ships, certainly congressional support--have been 
working for years to get more money into the shipbuilding 
account. I think, as we laid out, there's some $15 billion this 
year. It's 10 ships, 1 of which is an Army ship.
    One of the things that we're not going to be able to do is 
build to that number if ships keep costing a whole lot more 
than we expect they will. The acquisition reform is really a 
critical part of that. I'll use the littoral combat ships as an 
example. That has cost--while I had expectations the costs 
would go up, certainly not to the degree that it has.
    So that has to be contained. We don't need the perfect ship 
or the perfect airplane as we look to the future. So I argued 
for years there has to be a strategic partnership across all 
three of those entities in order to get shipbuilding and major 
procurement right. I think this budget takes some steps in that 
direction. But you can just do the math and see that we're not 
going to get to 313, and I would not want to be satisfied with 
283, which is sort of what the projection is right now, given 
the demands that we have for our military and our Navy.
    Senator Wicker. So it's going to take acquisition reform to 
get us to that floor number of 313. When do you think we might 
be able to actually make some progress in that regard?
    Admiral Mullen. I think the Secretary and many others, 
myself included, have taken steps to really put our--get our 
arms around requirements growth, having expertise there, 
holding people accountable. Those are some of the things that 
are certainly in great focus right now, and there's more to do.
    But it's going to take a few years, I think, before that 
really takes a grip and starts to have the kind of impact to be 
able to generate the kind of capability you need within cost. 
I'm encouraged by this shipbuilding program. It has two 
submarines in it. This is the first year it has. I can tell you 
it took almost 10 years to make that happen. So we will 
continue to--I think it continues to need to be an area of 
focus. It's a vital capability for our country and, as you 
indicated, it's the smallest Navy we've had for many, many 
decades. For a country that has big bodies of water on both 
coasts, that's a maritime country, that's a great concern.
    Senator Wicker. Would it be fair to say we are 
shortchanging part of the mission? Could you enlighten us as to 
what aspects of our mission are we shortchanging because of the 
lack of these 313 ships?
    Admiral Mullen. The Navy is very pressed right now, 
operating at a very high tempo. I think Admiral Roughead, who 
will certainly have an opportunity to speak for himself, would 
say that he is sort of at the edge of being able to meet the 
commitments in terms of global commitments. He and our Navy is 
heavily focused in the Gulf as well. The sea base that was just 
created very quickly in Haiti is certainly well within what we 
expect and can do. But given the operational tempo (OPTEMPO) 
that our Navy and our Air Force, quite frankly, is under, which 
sometimes gets lost in the focus on our ground forces--their 
OPTEMPO has increased as well, and so Admiral Roughead's 
concern is that we are wearing capability out and we're not 
replacing it at a rate that gets to that kind of number that 
you're talking about.
    Senator Wicker. I see.
    Let me move back to a point that Senator McCain was making. 
I just returned also from Afghanistan and Pakistan. I agree 
with Senator McCain that this July 2011 date is mentioned when 
you talk to leaders over there. There was a term that we came 
back with from our Congressional Delegation with Leader 
McConnell, and that was a ``deficit of trust.'' It's not just 
the date for the beginning of the drawdown, but also 
specifically with regard to Pakistan it's the decade of really 
very ill will between the United States and the Government of 
Pakistan.
    Do you agree, Secretary Gates, that there is a deficit of 
trust about the United States' intention to be a long-term 
strategic partner with Afghanistan and Pakistan, and what are 
we doing to address that deficit of trust?
    Secretary Gates. I think there definitely is such a deficit 
of trust with Pakistan, and I think it's historical. The 
Pakistanis will speak of three or four American betrayals, only 
the most recent of which are turning our backs on Afghanistan 
and them after the Soviets withdrew, and the other the 
implementation of the Pressler amendment and cutoff of military 
to military relationships.
    I think, frankly, the way that trust is rebuilt is with 
time, effort, and actions. I think Admiral Mullen at this point 
has in his 2\1/2\ years as Chairman been to Pakistan probably 
15 or 16 times. He has an extraordinary relationship with 
General Kayani. I think there is a good personal trust there.
    But I think for Pakistanis as a whole, it is our sticking 
with them. It is our attention to their problems, including 
their economic problems. So we commend the Kerry-Lugar-Berman 
bill, which is very important. But I think being steadfast is 
important.
    I was in Pakistan just a couple of weeks ago and spoke 
directly to this, and I would say that in some areas it's more 
than a deficit of trust. There are conspiracy theories over 
there about our wanting to take their nuclear weapons, about 
our wanting to divide them up, all kinds of things. I spoke to 
that directly. So I think honesty in dealing with them, but a 
long-term effort, is what's going to be required.
    In Afghanistan, my personal sense is that we have--in the 
various visits that I have made and Admiral Mullen and others, 
they understand that July 2011 is the beginning of a process 
and that there is no deadline on that process. But there also 
is an acknowledgment by some of the Afghans that in effect they 
needed that kind of wakeup call in order to begin to realize 
they were going to have to take responsibility themselves for 
defeating the Taliban, that this wasn't something that 
everybody else could do for them.
    So I think that what we need to continue to communicate to 
the Afghans is that even as our security forces draw down over 
the next several years, that our presence there, our 
willingness to partner with them, our willingness to be a part 
of their economic and political life going forward, is a long-
term, decades-long commitment by the United States to that 
country, not to having huge military forces there, but helping 
them get control of their security situation and then them 
being in charge of their country.
    But I think the July 2011 timeline is controversial. My own 
view is that it provided exactly the right incentive for them 
to begin to accept responsibility, but by having no terminal 
date on it, it allows us to do a conditions-based withdrawal 
that I think makes sense.
    Senator Wicker. Thank you.
    Chairman Levin. Thank you very much, Senator Wicker.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Gentlemen, we have the recommendations of the QDR. We have 
your budget proposal. This is not the moment to comment from 
our side of the table on the details in there.
    I would like to thank Senator Wicker for his comments about 
the size of the Navy and the challenges in the Navy. Obviously, 
I do not think it is an appropriate budget item for the Navy to 
think that they can spend a billion dollars in upgrading a 
nice-to-have facility in Mayport at the same time when we're 
looking to try to build a fleet up to 313 ships. Admiral 
Mullen, you'll recall when you and I were commissioned in 1968 
we had 930 ships in the United States Navy. We went down to 
479. When I was Secretary of the Navy it went up to 568.
    But I want to set that aside. I want to make sure you know 
we're still going to continue that discussion. I want to set 
that aside because I only have 5 minutes and I want to talk 
about something else. That is that I don't believe, quite 
frankly, that the DOD budget should be sacrosanct when it comes 
to looking at the constraints and the examinations that we 
ought to be putting on different programs.
    Secretary Gates, I take your point about not wanting to go 
into force structure reductions. But at the same time, I 
believe you can meet the challenges and adapt for the future 
and still clean up a lot of unnecessary programs that exist in 
the Pentagon by taking a hard look at programs that don't 
produce a clear bottom line and are not simply hardware systems 
or force structure issues.
    I very much appreciate the efforts that you've made in 
terms of program reductions, which you mentioned in your 
opening statements. But I think there comes a time every now 
and then to sort of shake things down. I remember when I was 
Secretary of the Navy the Gramm-Rudman Act was passed over 
here, 1987. We had to implement it in 1988. It mandated a 10 
percent across-the-board reduction in defense programs, because 
it was a 5 percent government-wide mandate and half of the 
programs at that time were fenced.
    They went too far. They clearly went too far. I resigned as 
Secretary of the Navy because they cut into force structure too 
far. But it doesn't hurt to really get into efficiencies in an 
area where we're not getting an appropriate bottom line.
    Let me give you three data points and I would ask today for 
you to make a commitment to really examine these types of 
programs. You and I are familiar with the Blackwater program 
that I wrote you about in 2007, and we came to some resolution 
on it, where out in San Diego they were going to spend more 
than $60 million for a private contractor to train sailors how 
to do their job, basically how to defend themselves on-board a 
ship.
    The first question I had on that was the fact that this is 
something that active duty people should have been doing, not a 
contractor. But the major concern I had was that this program 
came from operations and maintenance block funding. It had 
never been authorized. It had never been specifically 
appropriated as a program. It was just approved by a lower 
level official in the Department of the Navy based on the needs 
of the fleet. As we examined it, we found out that the 
Secretary of the Navy didn't even have to review that program 
unless it was a $78 million program.
    There's a program existing right now, and I don't know the 
extent of it, where we're basically sending military officers 
over to staff and fund think tanks. Your own Under Secretary of 
Defense was part of creating a think tank, CNAF. My 
understanding of these programs is they get military fellows. 
These are active duty people. They go over, they get their full 
pay and allowances. But not only that, they get tuition. The 
numbers that I saw were $17,000 a ``semester,'' whatever a 
semester is while you're over there, to pay the rent, the 
computers and all the rest of that.
    Essentially what that means is the American taxpayer is 
funding think tanks, basically to keep them in business. They 
don't produce any really added value to DOD in my view in terms 
of a direct contribution.
    Another example that just came up over the past couple of 
months is this mentors program, where, according to news 
reports, you can have retired high-ranking general officers and 
admirals making well in excess of $100,000 a year in their 
retirement, 80 percent of these people working with defense 
contractors, and then going in and making up to $2,600 a day to 
give their advice. In other words, a retired admiral or general 
can make more in a day than a corporal in Afghanistan will make 
in a month, basically to do what he's supposed to do anyway, 
and that is fulfill his stewardship from having spent a career 
in the military.
    I don't know the full cost of that, but according to USA 
Today these people are being paid between $200 and $340 an hour 
plus expenses. They are hired as independent contractors, so 
they're not subject to government ethics rules. They operate 
outside public scrutiny, and many of them work for weapons 
makers and in effect are able to either gain information for 
companies or exchange data.
    That's not the military I grew up in. That's not the 
military you and I served in, Admiral. That's not the Pentagon 
that I served in in the 1980s.
    So these are the kinds of things, Mr. Secretary, I think we 
can do and not affect force structure.
    Secretary Gates. We certainly will continue to look at 
these things. I will tell you on the mentoring program, the 
Deputy Secretary has been reviewing this and I think you will 
see some--we think there is great value in the program, but you 
will see some fairly dramatic changes in the way it's 
administered.
    Senator Webb. I would certainly hope so.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator LeMieux.
    Senator LeMieux. Thank you, gentlemen, for your service and 
for being here today to answer our questions.
    Secretary Gates, when we capture an enemy combatant in 
Afghanistan or Iraq, do we read them their Miranda rights?
    Secretary Gates. No.
    Senator LeMieux. So why should we do so if we capture one 
in this country?
    Secretary Gates. That's a question better addressed to the 
Attorney General, Senator.
    Senator LeMieux. You were the Director of the Central 
Intelligence Agency before you were the Secretary of Defense?
    Secretary Gates. Yes, sir.
    Senator LeMieux. So I assume you have an opinion on this.
    Secretary Gates. My view is that the issue of whether 
someone is put into the American judicial system or into the 
military commissions is a judgment best made by the chief law 
enforcement officer of the United States.
    Senator LeMieux. Before they get into either commission, 
there's a question of being able to ask questions, and 
certainly we know there's a chilling effect when we give 
someone their Miranda rights. So if we're not doing it 
overseas, I'm not sure why it makes sense that we would be 
doing it in this country.
    Secretary Gates. We have in place protocols now that--and 
there is authority under the law--that if a person is deemed to 
be a threat to the national security as a self-confessed 
terrorist would be, that there can be delays in Mirandizing to 
allow time for questioning. So we have the authority to do that 
even in the Article III system.
    Senator LeMieux. My colleague from Virginia was just 
talking about Mayport and that he has a different view than you 
expect that I would. You put in the QDR that, to mitigate the 
risk of a terrorist attack, accident or natural disaster, the 
Navy will homeport an east coast carrier in Mayport. I know you 
support that and I appreciate that.
    But there is no money in the budget, as I understand it, 
for the nuclearization projects or other projects that need to 
be completed.
    Admiral Mullen. There's $239 million in the FYDP for 
military construction for Mayport.
    Senator LeMieux. Okay, thank you.
    Admiral Mullen, will you officially designate a ship to 
Mayport in the coming months?
    Admiral Mullen. Actually, it's not mine. I think that in 
the end that would be a decision that the Navy would recommend 
and it would come up to the Secretary.
    Senator LeMieux. Are you planning on making a 
recommendation soon?
    Admiral Mullen. As soon as the Navy brings one up, and I 
just don't know where they are in that process.
    Senator LeMieux. Maybe we can follow up on that later.
    I want to speak a little bit about acquisition reform. A 
number of my colleagues have mentioned this. Specifically, Mr. 
Secretary, about the JSF, we recently were given some 
information about the fact that it's 35 percent over budget, 
which I think is about $18 billion if my numbers are correct. 
This program started in the mid-1990s. It occurs to me I think 
we went to the moon quicker than we've produced this plane.
    So I appreciate your efforts to try to get this under 
control, and I saw that there was a suspension in the 
performance bonuses. My question to you is, in terms of 
acquisition reform, it seems to me that there needs to be 
reform across DOD, probably across the government, and not just 
performance bonuses being withheld, but performance penalties 
under the contracts that we have with vendors.
    Is there a person that you charged as responsible solely to 
lead the effort on acquisition reform, and are you looking at 
these contracts to make sure that the vendor would bear the 
cost if programs were delayed?
    Secretary Gates. Under Secretary Carter is responsible for 
that and he is taking a very close look at a large number of 
contracts.
    Senator LeMieux. I had an opportunity to be at CENTCOM 
yesterday and I spoke with General Petraeus. In the follow-up 
to my trip to Afghanistan at the end of October, which I went 
on with Senator Burr and Senator Whitehouse, one thing that we 
noted is that our information work there in terms of trying to 
get the message out to the Afghan people may be not doing as 
good of a job as it could be.
    General Petraeus talked about the fact that we were 
successful in the surge in Iraq because of the power of ideas, 
not just the power of our forces. I'm wondering if this is on 
your radar screen, the need to commit more focused energy and 
potentially more funds to providing information to the Afghan 
people to counteract what the Taliban does. The Taliban will go 
in and say, oh, we just killed a bunch of children. It's 
misinformation.
    There are some good efforts that are being done. I met with 
a Colonel Kraft who was doing some very good work with trying 
to get radios out there to folks, working with territorial 
governors to get information out quickly so that we could 
counteract propaganda from the Taliban.
    Is that something that's risen to your level and do you 
understand the need to maybe improve our efforts?
    Secretary Gates. Absolutely, and in fact we have spent a 
good bit of time on this in the situation room with our 
interagency.
    Senator LeMieux. I'm out of time, Mr. Chairman. I'd like to 
ask just one more question for the Admiral.
    On the 313-ship Navy, the plan I guess is currently to have 
10 carriers. Is that sufficient? We're refitting the 
Enterprise. Do we need to keep the Enterprise in operation 
until the Ford comes on line? What's your thoughts?
    Admiral Mullen. I think that the current requirement is for 
11 and I support that. The 10-carrier issue is to be decided 
literally decades down the road. Obviously, how we build them 
generates how many of them there are and when we retire them.
    I don't think we should keep the Enterprise. I think the 
Enterprise is unique, incredibly costly, and the decision to 
decommission it after its next deployment and take the risk in 
that gap I think--it is a decision that I support, recognizing 
there is some risk associated with that.
    Senator LeMieux. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator LeMieux.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    I'd like to add my thanks, gentlemen, for the wonderful 
service that you do for our country. For those of our military 
personnel in Haiti, I just want to extend my thanks to them, 
and also remind our government that we're there to assist and 
not to take over or occupy a country, as some people are 
concerned about. So make sure that we keep that message going 
forward.
    Mr. Secretary, the DIMHRS, the largest enterprise resource 
planning program ever implemented for the human resource 
system, would replace over some 90 legacy systems. It's 
intended to bring all payroll and personnel functions of the 
military into one integrated, web-based system.
    In August 1996, a DOD task force concluded that the 
multiple service-unique military personnel and pay systems 
causes significant functional shortcomings, particularly in the 
joint arena, and excessive development and maintenance costs. 
Their central recommendation was that DOD should move to a 
single all-Service, all-component, fully-integrated personnel 
and pay system with common core software.
    This is a program that DOD said at one time was necessary. 
Why is it considered a poorly performing program today, Mr. 
Secretary, and why is it not necessary and what has changed?
    Secretary Gates. Well, this is one where I think both 
Admiral Mullen and I have something to say. First of all, after 
10 years of effort, poor performance and difficulties with that 
program, I would say that what we've gotten for half a billion 
dollars is an unpronounceable acronym. Many of the programs 
that I have made decisions to cut have been controversial 
within DOD. I will tell you this one was not.
    Admiral Mullen. Both in my prior life as head of the Navy 
and actually even before that as a budget officer and certainly 
through this, this program has been a disaster. The 
characteristics you describe, Senator, are good characteristics 
to have. I talked earlier about making a program too perfect 
and you just can't get there, too complex. It was proven that 
DIMHRS couldn't get there time and time again.
    So I applaud the termination of the program. That doesn't 
mean we shouldn't try to create the kind of enterprise effort 
that you just described, but we have to do it in a way where 
we're not spending the kind of money that we were spending 
going nowhere in DIMHRS.
    Senator Burris. Gentlemen, is that where we run into a 
military bureaucracy, that people don't want to give up 
something? I think it's more of that. If we can pay under the 
Office of Personnel Management all civilian employees under one 
payment system, why can't the military also exercise one 
payment system? It would be my assessment that you would run 
into turf problems that the military is not willing to say that 
a person at a grade 6 in the Navy should be paid as a person 
who's a grade 6 in the Army, with the same system. So you cut a 
paycheck and you don't have all these--what have you got, five 
or six different payroll systems in the military? We can save 
millions and millions of taxpayers' dollars by combining those 
systems.
    Admiral Mullen. I don't disagree that theoretically we 
could get there and we should have that. However, it was 
costing us a tremendous amount of money to go nowhere in this--
--
    Senator Burris. Then why----
    Admiral Mullen. Senator, even in the private sector, when 
you talk to individuals who have tried to combine, who have 
combined various multi systems, it is always a challenge. So 
the challenge is there. I think the goal is one that's a good 
goal. We just were not getting there with DIMHRS. We were 
wasting our money.
    Senator Burris. Are you going to take it up in the future?
    Admiral Mullen. Yes, sir, I'm sure we will. It sounds like 
we will.
    Senator Burris. Let me shift gears for a minute. Why is the 
funding for Iraq security forces nearly doubling from the 
fiscal year 2010 budget to the fiscal year 2011 budget? When I 
was in Iraq it was my understanding we were standing down and 
that we wouldn't need to be spending extra money for training 
for the security forces. Is there an explanation why the budget 
is increasing?
    Secretary Gates. Sir, $300 million in the 2011 OCO is to 
set the conditions for the transfer to the State Department for 
responsibility for training the police.
    Chairman Levin. Repeat what ``OCO'' means?
    Secretary Gates. The overseas contingency operations bill.
    Chairman Levin. Thank you.
    Secretary Gates. The new supplemental.
    So there are a number of categories like that. A lot of 
it--there's only $158 million--of the billion dollars for 2010, 
for example, only $150 million of that is for equipment. The 
rest of it is all connected with our transfer of 
responsibilities from--costs associated with transfer of 
responsibilities either from ourselves to the Iraqis or from 
DOD to the Department of State after our troops come out. So 
most of those costs are associated in that area, along with 
sustainment of and training for the Iraqis who are going to be 
taking our places.
    Senator Burris. My time has expired. But gentlemen, I hope 
that we will revisit this personnel system. If the civilians 
can do it, you get one paycheck and one pay scale system, the 
civilians, the military can do it without five or six different 
systems existing.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Burris.
    A couple quick items. Feel free to submit that 
unpronounceable acronym for the record.
    Secretary Gates. DIMHRS.
    Chairman Levin. You made reference in an earlier answer to 
the Article III system, and you were referring to the civilian 
court system.
    Secretary Gates. Yes, sir.
    Chairman Levin. Now, one housekeeping announcement before I 
call on Senator Collins. When we begin our hearing on DADT, 
which it looks like we're on schedule to begin maybe even 
before noon, we're going to follow the same early bird order as 
we have for this hearing, so that everybody can be put on 
notice. We're going to recognize Senators in the same order as 
they appeared for the current hearing when we reach the DADT 
hearing.
    Senator Collins.
    Senator Collins. Thank you. So the last will be first for 
that next hearing?
    Chairman Levin. I didn't say reverse order. I said the same 
order. [Laughter.]
    I wish I could say otherwise. We're struggling here with 
what is the best way to do it and we decided the best way to do 
it is to put everyone on notice.
    Senator Collins. Just don't tell them that we're starting 
early, then.
    Chairman Levin. Okay, you have a deal. [Laughter.]
    Senator Collins. Thank you, Mr. Chairman.
    Secretary Gates, according to the QDR, on any given day 
there are more than 7 million DOD computers that are being used 
to support our warfighters and for other DOD operations. We 
also know that every single day there are attempts to hack into 
those computers. Some of these attacks are from nation-states 
like China.
    What is your assessment of the effectiveness of DOD's 
current cyber security efforts?
    Secretary Gates. I think that we actually are, particularly 
with our classified systems, in good shape. Most of the attacks 
that we encounter, too, are to unclassified systems. But 
frankly, we're not happy with where we are, and particularly as 
we look ahead. That's why we have an initiative to create Cyber 
Command and also have money in the budget and have made a 
priority in the QDR and in the budget for cyber in terms of 
training significant additional individuals who are expert in 
this area. We've made it a top priority for the Services to 
fill all the slots in the education programs for cyber.
    So I would say I think we're in good shape now, but we look 
with concern to the future and we think a lot more needs to be 
done.
    Senator Collins. Thank you.
    Admiral Mullen, last year the President announced a major 
policy change on how our country would extend protection 
against ballistic missiles to our NATO allies. I joined Senator 
Levin on a trip to talk to the Czech Republic, Poland, and 
Russia about this very issue last March. I support the change 
in direction.
    Part of the change in direction is that sea-based Aegis 
surface combatants would become a primary means of 
accomplishing that important mission. Now, ships dedicated to 
perform this mission will likely be tied to specific areas of 
operation. That means that they're not going to be fully 
available to perform many of the other more traditional 
missions that we've typically assigned our major surface 
combatants. A number of analysts have suggested that that means 
we will need a larger number of major surface combatants if all 
of these missions and roles are to be executed successfully.
    How does the decision to assign major surface combatants to 
this new dedicated missile defense mission affect your 
assessment of the size of the overall fleet?
    Admiral Mullen. It starts with an earlier discussion we had 
on the need to get to that floor of 313 ships, which we're 
below target right now. One of the things that I've worried 
about for years is that we would have enough in particular 
surface combatants to be able to meet the needs that are out 
there, although I do not subscribe to the theory that these 
ships would become ships like our strategic ballistic missile 
submarines, in other words it's the only thing that they do. 
We've invested too much in the broad capability of our surface 
ships, wide-ranging capability of our surface ships, to 
dedicate them to one mission.
    I think as this program has been adjusted, it focuses on 
regional, theater, evolving threats and I think that's the 
right answer. So we would have certainly some indications and 
warning. We have enough ships to flood, if you will, to a 
certain area, understanding what the threat is.
    So I think we need to look carefully at how many we need. I 
also think we need to upgrade the ones that we have. While we 
are upgrading some, I think that we need to look pretty 
seriously in modernization at do we have enough upgrades for 
the ships that we've already built to meet this threat in the 
longer term, as well as looking to see if we need more. I'm 
more focused on the upgrade right now than I am additional 
Aegis ships per se.
    Senator Collins. Thank you.
    Chairman Levin. Thank you, Senator Collins.
    Senator Bill Nelson.
    Senator Bill Nelson. Gentlemen, I want to compliment you on 
the relief efforts in Haiti.
    The American military leads. You are the point of the 
spear. You make it happen. Please consider that for the future, 
for the long term, we're going to have to do something 
different. I was just told a very troubling story of a relief 
effort by a group of Floridians, doctors, prominent people, 
that took a private planeload of medical supplies down to a 
number of our doctors who have been on the ground just doing 
heroic stuff. Just before they got there, the customs had been 
turned back over to the Haitian Government, and as they're 
unloading the plane of all the medical supplies to get it to in 
this case to University of Miami doctors, who were there the 
day after the earthquake, the customs officials wanted bribes 
to release the medical supplies.
    We just can't allow this kind of thing. So you have done 
tremendous things in getting us to where we are, the 
humanitarian mission. But for the long term, we're going to 
have to have some kind of international trusteeship that's 
going to be led by the international community, that will take 
this kind of nonsense away from the people who have done this 
for 200 years in Haiti.
    I'm not expecting a response. I just want to compliment you 
for what you've done.
    Now, I have the privilege of chairing the Emerging Threats 
and Capabilities Subcommittee and as we withdraw our 
conventional forces in Iraq, the requirement for the SOF is 
projected to remain. But they, the SOF, rely on the 
conventional counterparts for many of the support functions. So 
what do we do to ensure that our SOFs are being adequately 
supported as we withdraw the conventional forces from Iraq?
    Secretary Gates. Senator, I think there's a two-part 
answer. I'll take the equipment part and ask Admiral Mullen to 
take the people part.
    One of the things that we are doing is moving the base--
moving the funding of the Special Operations Command (SOCOM) 
from the supplementals into the base budget. We believe SOCOM 
is going to have the capability that this country is going to 
need far into the future, and so in terms of their equipment, 
we're plussing up the equipment that they are supplied with, 
much of which is unique to them. We are increasing the number 
of slots that they have by this budget for fiscal year 2011, 
increases the SOCOM personnel by 2,800 people.
    So I think that in terms of equipment and so on, we are 
putting ourselves on a long-term footing to sustain that 
capability.
    Admiral Mullen. Part of--and this is in the QDR and in the 
budget--part of moving to the future is investing in the wars 
that we're in, and there's no more critical capability to my 
view that we are investing in in these wars than the Special 
Forces capability. That will serve us well for the future.
    I don't know if I'll get these numbers exactly right, but I 
think we started these wars at about 38,000. We're at some 
56,000 Special Force operators or Special Force military 
members now, and these, as the Secretary said, are growing by 
2,800. This is, at least from my interaction with Admiral 
Olson, this is about as fast as we can grow, as fast as we can 
find the people to do this.
    A document which has struck both the Secretary and myself 
has been Admiral Olson's guidance for this year in 2010. I have 
said for years I believe our whole military has to be looking 
at the kinds of characteristics--swift, agile, lethal, 
engaging, all those kinds of things that is a part of our 
Special Forces, as we look to the future for our conventional 
forces.
    The tension that you describe--and I think it's a healthy 
tension--between the Special Forces and the Services that 
provide the people, provide a lot of the early training, go out 
and recruit them, is a good tension and we'll have to continue 
to deal with that.
    Senator Bill Nelson. Just a quick comment, if you would, 
Admiral, about the role of Joint Surveillance Target Attack 
Radar System (JSTARS) aircraft in Afghanistan? You have 
provided adequately in the budget for keeping JSTARS as a 
viable option by re-engining these old platforms. What's the 
role in Afghanistan?
    Admiral Mullen. It is principally tracking targets on the 
ground more than anything else. But as you ask that question, 
Senator Nelson, I think of JSTARS being the revolutionary 
aircraft that it was for Operation Desert Storm--actually, I'm 
sorry, even in the mid-1990s, early to mid-1990s in the 
Balkans, where we deployed them prior to the time that we 
actually finished successfully testing them, and they have 
provided an extraordinary capability. Yet, the adaptation in 
these wars to the persistence requirement which we've achieved 
much more readily with our unmanned aerial vehicles (UAVs) than 
we've been able to do with any manned aircraft per se.
    But they're incredibly valuable, particularly in tracking 
targets on the ground, which is one of the reasons this 
investment is so important.
    Senator Bill Nelson. Thank you, sir.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator McCaskill.
    Senator McCaskill. First I want to thank you, Secretary 
Gates, and I hope that your office will continue to cooperate 
with information we've requested on a number of different 
topics for the subcommittee that I chair in Homeland Security 
on contracting.
    One of the things we're trying to get to the bottom of is 
whether or not some of the contracts on the earmarks have been 
competitive. There is--it is said that--I think the chairman 
accidentally called on me before Senator Bayh and I want to 
make sure--I'm happy to----
    Chairman Levin. Just let me thank Senator Bayh. There's a 
mistake I made here and I appreciate your courtesy in dealing 
with it. Thank you.
    Senator McCaskill. I want to thank you for the cooperation 
in trying to get to the bottom, because I think that there is 
in some instances a fiction that some of these earmarks are 
being competitively given out, when in reality the Senators' 
requests are being honored, maybe informally. But we're trying 
to get to the bottom of it and make sure we have as much 
transparency as possible.
    I've read everything I can get my hands on on the JSF, and 
when we're going to actually use these fighters. I'm confused 
about the date. Depending on whether you're talking about the 
analysis team that went out from DOD or whether--I see quotes 
from General Schwartz or whoever--let's get that on the record, 
Secretary Gates. When do you think the JSF is going to be 
operational for our military?
    Secretary Gates. Even with the restructuring of the 
program, the training squadron is still scheduled to deploy to 
Eglin Air Force Base in 2011. The Marine Corps will have their 
IOC in 2012; the Air Force in the second quarter of 2013; and 
the Navy the fourth quarter of 2014. Those are the latest 
estimates that I've been given.
    Senator McCaskill. Okay. I heard you say those earlier. I 
just wanted to make sure that it was clarified.
    I want to tell you how much I respect the fact that you 
fired somebody. You've done this several times. I've watched 
you do this, and it is unusual. I don't think anybody around 
here realizes how unusual it is for a Secretary of Defense to 
fire people when these things happen. Traditionally, there have 
not been people that have been fired. I just want you to know I 
noticed and I think it's hard to do, but I think it's very 
important that you send that signal of accountability.
    Let me ask you about the modernization of the C-5s. I'm 
going to try to go at the C-17 a little bit differently. I 
would like to ask this question: If your hands were not tied by 
Congress in terms of the modernization of the C-5s, would you 
continue to modernize or would you retire?
    Secretary Gates. We would continue to modernize a good 
portion of the C-5s. But there would be some of the older C-5As 
that we would retire.
    Senator McCaskill. Are you advocating that we repeal the 
statutory tying of your hands while you're advocating for the 
closing of the line on the C-17s? Are you also advocating that 
Congress quit tying your hands as it relates to retiring the C-
5s?
    Secretary Gates. Any greater flexibility I can have to 
manage the program, I would welcome.
    Senator McCaskill. I want to make sure that I get your 
endorsement for us retiring our hand-tying of you, obviously, 
the modernization of the C-5s has had huge problems. It turned 
out to be much more expensive than it was ever intended to be. 
I know that it's my understanding we're not using C-5s in 
Haiti, correct?
    Secretary Gates. I don't think so.
    Senator McCaskill. In fact, we're using, as we always do, 
the reliable, easy to land on short runways, load them up, get 
them out, cheaper to fly, C-17 in Haiti; isn't that correct, 
Admiral Mullen?
    Admiral Mullen. Yes, ma'am.
    Senator McCaskill. I just wanted to make sure.
    Secretary Gates. Although I would just say for the record, 
200 and some, 204,000 landings for strategic lift since 1997, 4 
percent have been at airfields that a C-5 could not access, and 
half of those were in Iraq.
    Senator McCaskill. I understand that and I know that. But 
it's important to remember that the Iraq capability was pretty 
darn important over the past 6 to 8 years in terms of military 
operations. I think we're going to have the same situation in 
Afghanistan. Aren't there air strips in Afghanistan that are 
certainly more friendly to a C-17 than a C-5?
    Secretary Gates. Sure.
    Senator McCaskill. I would like to briefly get into 
prescription drugs and our military. I think we are all 
painfully aware of the suicide problem that we have. I think we 
are also aware that there has been a ``modernization,'' of 
prescription drug availability in the military as it relates to 
PTSD and other mental health issues. I know that we have a task 
force looking at prescription drug use.
    I wanted to also bring to the attention of the committee, 
and to you, I think as this task force is looking at 
prescription drug use, not only should we be looking at the 
anti-depressants that I think have become ubiquitous in some 
instances as it relates to treating our deployed forces when 
they're having stress issues, but also the prescription drug 
for pain. I particularly have mentioned to General Casey 
Oxycontin, and the highly addictive nature of Oxycontin and the 
widespread availability of Oxycontin within the military, and 
the fact that we now know that in some parts of our country 
Oxycontin has a higher street value than heroin because of the 
highly addictive nature of the drug.
    I wanted to ask your cooperation, Secretary Gates--and I 
will be sending you a letter--that the prescription drug task 
force also take a look at how widely available Oxycontin is in 
the military and whether or not its overall effect has been 
harmful or positive.
    I wanted to ditto Senator Webb on the mentoring program. 
Pretty ugly. We have to get that under control and make sure 
it's transparent. The revolving door at the Pentagon deserves 
as much attention as the revolving door in Congress.
    Thank you, Secretary Gates.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Bayh, again with our thanks.
    Senator Bayh. Thank you, Mr. Chairman.
    First let me compliment Senator McCaskill for her line of 
questioning. Claire, Harry Truman would be proud. You're 
focused on saving the taxpayers' money. It reminds me in a 
previous incarnation when I was our State's governor during 
difficult financial times. I used to scrub the budget so 
carefully I had a nickname in some quarters as ``Evaneezer.'' 
So I really do appreciate your efforts.
    Mr. Secretary, I'd like to begin by complimenting you and 
associating myself with what Senator McCaskill was saying. It 
was a breath of fresh air that you're bringing increased 
accountability to some of these programs. Some of the practices 
that have been allowed to exist for too long in DOD contracting 
of weapons systems would never survive in the private sector. 
So the fact that people are being held accountable and the 
contractors themselves are being asked to share some of the 
burden for the delays and the cost overruns I think is 
absolutely the right thing to do. I want to commend you for 
that and I hope we'll see more of the same.
    We are gathered here at a time of great financial and 
economic distress for the American people and for our 
government. People are being asked to make sacrifices. The 
President has called for a freeze and nonsecurity discretionary 
spending, and yet we are being asked to appropriate, I think 
you indicated, a 3.4 percent increase in Defense spending. Is 
that correct?
    Secretary Gates. 1 percent, 1.8 percent in real growth.
    Senator Bayh. In real growth. My point is I support that 
because of the challenges that we face. I just wanted to put it 
in the context of people are being asked to make real 
sacrifices. It makes even more important your efforts to try 
and save tax dollars wherever possible.
    It seems to me that, looking at the big items, the prospect 
for any real meaningful savings in the future have to do with 
our commitments in Iraq and Afghanistan and perhaps the 
prospect that they will head in a better direction, allowing us 
to perhaps save some money there. So I'd like to ask you about 
both of those conflicts.
    I know you've given us your best--or your most likely case 
estimate about what it will take in both of those conflicts. If 
you had to say that it was going to be something other than the 
most likely case--let's start with Iraq. The way things are 
trending there, would it be more or less likely that we would 
be able to withdraw more aggressively there than you're 
currently planning on, and in so doing save some of the money 
that we're being asked to commit to to Iraq?
    Secretary Gates. I think that General Odierno's view would 
be that it would be very risky to try and accelerate the 
withdrawals beyond the timetable that he already has.
    Senator Bayh. So no real prospect for savings beyond what 
has been estimated there?
    Secretary Gates. I think not.
    Senator Bayh. In Afghanistan, my own view is that skeptics 
who look at that conflict and say, we're going to do our part, 
we're making a major commitment to stabilizing that country, to 
keeping the Taliban and the al Qaeda from having a platform to 
attack us--there's no doubt in my mind we'll do what is 
necessary. The question is whether the Afghans are capable and 
willing to do their part. You look at the history of that 
country, the complexity of that country, I think skeptics kind 
of wonder whether even with our best efforts we'll be able to 
get the job done.
    Would it be your assessment that there probably is not much 
prospect for--well, if events are going to deviate from the 
most likely scenario, it's more likely to be on the down side 
than the up side in Afghanistan, no real prospect for 
additional savings there?
    Secretary Gates. I suspect not. But I would tell you, 
Senator, that, as the President announced, there will be a 
review of our strategy in Afghanistan at the end of this year, 
and I think both Admiral Mullen and I are committed that if we 
determine that our strategy is not working that we will not 
recommend just plunging ahead blindly without a change of 
course.
    Admiral Mullen. If I could just quickly, I think a healthy 
skepticism is good. I think a terminal skepticism at this point 
is--it's far too soon. In fact, we see signs in many places now 
of uplifted spirits on the part of the Afghan people where 
security has turned around. I'm not underestimating the 
significance of the challenge, but from a strategy standpoint, 
a resourcing standpoint, a leadership standpoint, and a 
commitment on the part of the Afghans that we can see as a 
result of what the President announced, it's better than it's 
ever been and we're just a few months into it.
    Senator Bayh. We're all hopeful, but I think we all realize 
we have to be realistic as well. Mr. Secretary, I think that's 
what you've outlined here: a review in progress, assessing our 
partners both in Pakistan and Afghanistan, and then making the 
hard decisions at the appropriate time.
    Let me ask a couple of other questions. Have you requested 
all the Predators and Reapers you can use and you need?
    Secretary Gates. Yes, sir. We have pretty much maxed out 
the lines. I would just say that those capabilities in some 
instances, in more than a few instances, the challenge is not 
just the airframe or the platform; it's the ground station, 
it's the crews, it's the linguists that enable us to use the 
information. So it's the whole package that we have to put 
together.
    Senator Bayh. For a long time there was a shortage of 
pilots as I recall. But we've----
    Secretary Gates. It was both airframes and platforms. But I 
would say over the last year to 15 months the Air Force has 
really leaned into this problem, and General Schwartz has told 
me that they are now training more UAV pilots than they are 
fighter-bomber pilots.
    Senator Bayh. That's quite a change. But it's one of those 
systems that's really been delivering for us here. So I'm 
delighted at your request.
    Finally--and my time has expired--along with five of my 
colleagues, I was in Kabul and at the Bagram Air Base earlier 
this month, or last month now that it's February, and I just 
want to--please convey, we have met with many of the members of 
the Armed Forces, and particularly the Special Operations folks 
down there at Bagram, they're doing an outstanding job and I 
want you to, if you can, please relay our appreciation for the 
service they're rendering our country.
    Chairman Levin. Thank you, Senator Bayh.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony. Some points have 
been raised with respect to the trial of Abdulmutallab and I 
think, Mr. Secretary, you sort of indicated that that decision 
was the province of the Attorney General. But just as a matter 
of fact, had he been turned over to military custody he would 
have been provided a lawyer, I presume; isn't that correct?
    Secretary Gates. Yes, sir.
    Senator Reed. Given the fact that we've harmonized the 
rules of interrogation between the FBI and other agencies of 
the government, including the military, that the tools 
available for an interrogation would have been very much the 
same?
    Secretary Gates. Yes, sir.
    Senator Reed. I think something else, too. Again, this is 
not a question of venue; this is a question more of how we 
combat these terrorists. A lot of them describe themselves as 
holy warriors, and if we reinforce their self-described holy 
warrior description, trying them essentially in a military 
trial and not a civilian trial, doesn't that reinforce what 
they think they are, which is basically that they're not 
terrorist criminals, they are some type of holy warrior?
    Secretary Gates. Well, I suppose that that's the case. I 
just think that we're in a good place when you have the ability 
to use both the civilian court system and the military 
commissions and to be able to make decisions on how to 
prosecute an individual based on a case by case basis depending 
on those specific circumstances. The Attorney General consulted 
with me in terms of the decision on the Christmas Day bomber 
and I told him that I would defer to him on that. I think we 
need to use both of those venues, but I think it will depend on 
the circumstances in each case.
    Senator Reed. Thank you, Mr. Secretary.
    Admiral Mullen, in Afghanistan there has been I believe an 
increase in recruits to the Afghani forces, which are 
absolutely essential to our long-term strategy. I know there's 
been a pay increase that has helped. But what other factors 
have helped?
    Admiral Mullen. I think an intangible that I would put out 
there is the fact that the commitment on the part of the United 
States and NATO nations specifically to this fight and to the 
totality of it, not just the military side. I think the 
leadership in Afghanistan visibly more committed, General 
McChrystal out in battlefield circulation with the President, 
who has connected with his people in ways that have been very 
important as well, along with--and I think it's a combination 
of standing up for their country, which I am told routinely and 
which their leaders feel strongly about, in addition to the 
incentivized pay increases specifically.
    What we're struggling with is, while the recruiting was at 
116 percent over the last couple of months, having the 
institutional capacity both from a training infrastructure 
standpoint as well as trainers to absorb that many. That's 
just, quite frankly, an area that we haven't focused on enough 
in the past and we're trying to get right right now.
    Secretary Gates. I should correct the record. The Attorney 
General consulted with me on the five September 11 terrorists, 
not the Christmas Day bomber.
    Senator Reed. Thank you, because it's important to have the 
record accurate.
    Mr. Secretary, you have I think once again proposed robust 
funding for basic science in DOD in this budget. I think that's 
critical. Could you give an idea of where you're proposing to 
spend this money?
    Secretary Gates. Let me do that for the record if I might.
    [The information referred to follows:]

    The $200 million increase relative to the Fiscal Year 2010 
Department of Defense request will be directed to basic research in 
high-priority areas that are promising for transformational defense 
capabilities. These include nano-manufacturing science, synthetic 
biology, advanced energy science, materials modeling for force 
protection, computational neuroscience and quantum information science, 
among other highly promising areas. We have increased the investment in 
the Army by $29 million, Navy by $25 million, Air Force by $34 million, 
the Defense Advanced Research Projects Agency by $102 million and with 
smaller changes in other Defense Agencies. The research will be 
conducted at universities and other nonprofit institutions, industries, 
and Government laboratories, in distribution similar to the base budget 
for basic research. The increased funds will support individual 
investigators and research teams, including students.

    Senator Reed. You're quite welcome to do that for the 
record.
    Admiral Mullen, in the QDR there is a discussion of dealing 
with anti-access environments and utilizing the advantages of 
sub-surface operations, which I presume is not just submarines, 
but also unmanned undersea vehicles. Can you amplify what your 
plans are?
    Admiral Mullen. Broadly, I think the presumption is exactly 
right. We've focused on investments there for some years. I'd 
have to get back to you with what the specifics of that would 
be. I would only say, from actually every capability area that 
we have, that the ability to create and sustain access 
globally, oftentimes is very important. Oftentimes this is very 
focused on the Western Pacific, but, quite frankly, it's much 
broader than that and those capabilities are vital for our 
future.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    Thank you all for being here, and I am the last one 
standing I think on this round of activity. So let me try to be 
very quick. I have some very Alaskan issues, but first a little 
more global.
    Again, thank you for all the work you're doing in Haiti and 
the impact that we have down there. Can you tell me, just so I 
have the number correct, what's our total capacity down there 
right now in regards to troops that we have there?
    Admiral Mullen. We actually had over 20,000. With the 
release of the aircraft carrier Vinson, who actually left her 
helicopter capability ashore in Haiti, but with the release of 
her we're down to just under 17,000 today.
    Senator Begich. Do we have an idea of what the resource 
cost has been so far to DOD?
    Secretary Gates. It's about $150 million so far.
    Senator Begich. Do you have an estimation of what you think 
in this budget process that you're planning to expend for the 
next year?
    Mr. Hale. Well, I am not sure of the duration and length of 
this. We estimated $300 to $400 million during the first 30 
days, and I think we'll have to revise that depending on how 
long we're there and the degree of our commitment.
    Senator Begich. Do you have within the budget that the 
President has presented the resources to meet that goal?
    Secretary Gates. No.
    Senator Begich. Okay, that's good. That's what we need to 
know.
    Secretary Gates. We can cash flow it, but we need to be 
repaid.
    Senator Begich. Understood.
    Mr. Hale. We do have the money right now, thanks to the 
committee and Congress, to cash flow it.
    Senator Begich. Okay. Do you think and believe you have a 
clear mission of what you should be doing Secretary Gates?
    Secretary Gates. Yes, I think we do.
    Admiral Mullen. Yes, sir. It's very clear and it's in 
support of, obviously, first of all the Haitian people, the 
Haitian government, the UN mission. We're in support of USAID, 
who has also been magnificent in this effort. So it is a 
supporting effort specifically.
    Senator Begich. Very good. If I can go very quickly on 
another subject that Senator McCaskill brought up, on 
Oxycontin. The other piece I would like, maybe at another time 
for the record, not only what the drug activity in the sense of 
distribution, but the efforts for individuals who are trying to 
get off of it. I have talked to several soldiers who have had 
Oxycontin as their pain management and other things, but now 
they're trying to get off it and we have limited resources. So 
if you could, maybe for the record, just give me kind of how 
that works and what you do for those soldiers that are trying 
to now get themselves out of that situation, if you could do 
that for the record, Admiral.
    [The information referred to follows:]

    We have come a long way in identifying and treating substance abuse 
in recent years, but our work is not done. The Department continues to 
work diligently to assure the appropriate use of pain medications and 
prevent their misuse.
    Foremost, alternative non-opioid pain treatments are being 
developed and used when possible. Physical modalities, non-opioid 
adjuvant medications, integrative modalities, and injection and 
interventional modalities all provide treatment for pain in some cases 
and thus militate against some opioid use.
    An excellent example is the Defense and Veterans Pain Management 
Initiative (DVPMI). The DVPMI seeks to improve the management of pain 
in military and civilian medicine. Through clinical research efforts, 
it has become a model for effective integration of acute and chronic 
pain medicine. Through the efforts of the DVPMI, peripheral nerve 
infusion pumps and patient-controlled analgesia pumps have been 
approved for battlefield use and for flights on military aircraft.
    The 2010 National Defense Authorization Act directed the Secretary 
of Defense to develop and implement a comprehensive policy concerning 
pain management. The Task Force Report contained numerous 
recommendations, and is currently being operationalized into a six 
phase Comprehensive Pain Management Campaign Plan that will standardize 
and optimize pain management.
    Additionally, alternative pain management methods are being 
considered which will allow a portion of servicemembers to avoid the 
possibility of addiction in many cases where opioid pain medications 
would otherwise have been used.
    When opioids are the proper choice for patient care, programs and 
standards of care are being improved to more effectively manage those 
patients. Closely managing patients reduces the likelihood that the use 
of opioids will lead to addiction. Efforts to improve the patient 
management process include embedding pain physicians in the wounded 
warrior clinics. We anticipate that improvements in Health Information 
Technology will also reduce duplicative prescribing and dispensing of 
medication. This includes tracking beneficiary data for prescription 
information and working with civilian organizations on the Prescription 
Drug Monitoring Program.
    In some cases, a servicemember requires opioids and their use can 
lead to addiction. In these cases, there are a variety of treatment 
options available. A primary care provider is the first step in a whole 
continuum of treatment levels. Patients move through the continuum of 
care as more resource intensive treatments may become necessary.
    In addition, Military OneSource allows soldiers to receive mental 
health counseling. The program leverages civilian resources to prevent 
those with addiction issues from failing to seek help.

    Senator Begich. Then give me the Iraq status again. We had 
how many troops there about a year ago?
    [The information referred to follows:]

    In February 2009, we had roughly 146,400 military in Iraq: 108,100 
Army; 11,100 Air Force; 6,200 Navy; and 21,000 Marines.

    Admiral Mullen. Sorry?
    Senator Begich. How many troops did we have in Iraq about a 
year ago? What was our peak level, do you think? 140?
    Admiral Mullen. Yes, I would say 140, 150. We're at 104,000 
today.
    Senator Begich. 104,000 today?
    Admiral Mullen. Right, and the marines are out.
    Senator Begich. Then by the end of August, you think we'll 
be down to?
    Admiral Mullen. About 50.
    Senator Begich. 50,000 remaining?
    Admiral Mullen. Right.
    Senator Begich. Then the other date of next August, where 
will we be?
    Admiral Mullen. The following year, actually end of 2011, 
we'll be out.
    Senator Begich. Again to echo what I think you said to 
Senator Udall, we're on track?
    Admiral Mullen. We are.
    Senator Begich. Very good. I'm trying to rapid-fire these, 
knowing my time is limited.
    In your DOD presentation of the budget, do you still have a 
very robust--another issue, separate--alternative, renewable 
energy program? I know that's been a big plus, to be very frank 
with you, with the military. You have been leaders in this 
area. Are you still fairly, in your mind, aggressive in this 
arena?
    Secretary Gates. Yes.
    Senator Begich. Let me now be parochial, as you probably 
had anticipated. But first with regards to the GMD, I 
appreciate the missile ground defense system and the work 
you've been doing in Alaska and the efforts you've done over 
the years in kind of transition of what's been going on with 
overall missile defense.
    The way I understand this is you'll finish off field 2. Do 
you have the resources in this budget or do you allocate 
utilizing other resources to get to that final completion of 
the 12 and then the decommissioning of the 6?
    Secretary Gates. That's budgeted for.
    Senator Begich. In this cycle?
    Secretary Gates. Yes.
    Senator Begich. Is there anything beyond even the six 
decommissioned? Do you have to budget for that or do you think 
you have that also in this cycle?
    Secretary Gates. I think it's all in the budget.
    Senator Begich. If there is a difference, you'll let us 
know?
    Climate change, Arctic policy. I know you mentioned it and 
you started talking about it within this process, and I think 
it's important. There is an issue, and maybe again at a later 
time--we have three, the European Command, the Northern 
Command, and the Pacific Command that kind of manages it all 
together. Is there a process you're going through now to try to 
bring some unified command, be it a joint command. How do we 
deal with that, because I know that's an issue that keeps 
popping up. Are you going through the process now, Admiral?
    Admiral Mullen. I think, Senator, we would use the normal 
process, which would bring all of that back here certainly from 
the combatant commander's standpoint. We do that routinely 
across a host of issues. There's no view that I've heard of or 
certainly I don't see it from an intention standpoint to create 
another command to handle this. But we are looking at the 
policy. We actually want to give Thad Allen and the Coast Guard 
a lot of credit here because they've actually done great work 
and brought it to our attention in the last couple years. We've 
moved ahead. We still have a long way to go there.
    Senator Begich. My time is up, but that is exactly--you 
stated that the Coast Guard's really been hollering out there 
at all of us. As you move forward on that, I would love to be 
engaged in that. As you're well aware, a huge opportunity, also 
potential huge conflicts. So your work there would be greatly 
appreciated.
    My time is up. I tried to give you a variety pack and you 
did a great job.
    Thank you very much.
    Chairman Levin. Thank you, Senator Begich.
    Senator Chambliss is on his way. He has not had a first 
round yet. I think maybe we'll just see if anyone has one 
question for a second round. I have one, and then I'll see if 
others do. Okay, I'll call on you too, Senator Burris.
    My question is the following. There was a study that the 
Institute for Defense Analysis (IDA) did on that alternate 
engine for the F-136. My question is: It's now about 3 years 
old. They looked at how much was invested, how much would need 
to be invested to develop it, what would be the possible 
benefits, what would be the costs for that alternate engine. My 
question is, will you ask the IDA to update that study, since 
we've had a couple of years now of additional investment? Can 
you do that, Secretary Gates?
    Secretary Gates. Let me take a look at it, Senator, Mr. 
Chairman. I don't know why not, but let me get back to you.
    [The information referred to follows:]

    The Department does not intend to contract with the Institute for 
Defense Analyses (IDA) to update their 2007 study. The Fiscal Year 2007 
National Defense Authorization Act directed the Department to sponsor a 
Federally Funded Research Center (FFRDC) to conduct one of the three 
independent studies on the Joint Strike Fighter propulsion system. The 
Department selected IDA. The Department's Cost Analysis Improvement 
Group (CAIG) was also directed to complete one of the studies. The 
Department's Cost Analysis and Program Evaluation (CAPE) office, 
formerly the CAIG, recently updated their 2007 study to account for 
investment in the alternate engine since that time, as well JSF 
programmatic changes. The Department is satisfied with the CAPE's 
analysis and believes that contracting with an FFRDC to do the same 
analysis would not be a prudent use of Department resources.
    The Deputy Secretary provided the CAPE's updated analysis to 
Senator Levin via separate correspondence.

    Chairman Levin. All right. Is there anyone--let's just try 
one question for everybody. Senator Burris--well, wait a 
minute. Let me see. Senator Collins would be next if you had a 
question.
    Senator Collins. No.
    Chairman Levin. Okay, Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    My question, gentlemen, goes to the ability of small 
contractors to have the opportunity to do business with DOD, 
where they may need some type of assistance with their 
development project, which I understand that there are millions 
of dollars sometimes spent to get a piece of equipment that the 
military may need. I have a specific company in mind where it's 
been cleared through generals and been authorized, but you 
can't get the decision to be made, because we're talking about 
saving--this is technical equipment for our space stations and 
our drones and other military aircraft. It seems like the 
bureaucracy with the bigger companies just seem to charge much 
more money and they sometimes try to subcontract or either sub-
contract with these contracts, but this could be sold directly 
to the military, but there just seems to be a bureaucracy that 
these small companies run into.
    Gentlemen, is there some system or device that a small 
business can really get an opportunity to sell their product to 
DOD, which is a better product and a cheaper product, which 
will save taxpayers' dollars?
    Secretary Gates. Let me give you an answer for the record 
on how we deal with small business, Senator. If you will 
provide us with the specifics of the case you have in mind, 
we'll look into it.
    Senator Burris. Mr. Secretary, I certainly will do that.
    Admiral?
    Admiral Mullen. If I just could respond briefly, my 
experience in this is exactly what you've said, Senator. I 
think it's very difficult to get small, innovative, creative 
companies into the business. My experience is too often 
competing against the bureaucracy, they just can't afford it. 
They can't afford the overhead. They don't have the people. It 
puts them out of business. So they go too often in the private 
sector. There are some great ideas out there. I've seen small 
companies go other places, put out of business, or be consumed 
by the larger defense contractors.
    My engagement with larger defense contractors over the 
years has been to try to get them to support these smaller 
companies. Some of them have. But it's a real challenge, and I 
think it's a shortfall in what we do overall, in our overall 
contracting business, if you will, as we try to look to the 
future.
    Senator Burris. Mr. Secretary, we will get this information 
on this small company, because we're talking about saving, if 
the numbers are correct, hundreds of millions of dollars.
    Chairman Levin. Thank you.
    If you can just have one question, because we need to take 
a 5-minute break here for everybody's sake.
    Senator Begich. Mine's very quick. Secretary and Admiral 
Mullen, I just want to follow from the comment you made earlier 
in regards to I think it was the life cycle of equipment and so 
forth and how the procurement process works and how sometimes 
the line folks are not engaged in that. I guess the question 
is, are you making efforts to change that, because I agree with 
you 100 percent, if the line people are not involved you end up 
with a product--and a good example might have been the payroll 
issue, but I won't go into that. As a former mayor, I dealt 
with payroll transformation. It's a nightmare. Is there 
something you're working on to make that transition?
    Admiral Mullen. I think in the area of acquisition reform, 
this is an area of focus. But we have a system right now that 
would only allow me to pull something in. It does not come to 
me naturally or, quite frankly and more importantly, to the 
Service Chiefs naturally, particularly on the acquisition side.
    Senator Begich. Are you working to change that?
    Admiral Mullen. Yes, I am. But I don't see--I don't see 
healthy change coming in that regard in the near future, 
because that fundamental principle that was laid out in 1986 in 
Goldwater-Nichols that separates us is still there.
    Senator Begich. Let us know how we can help. I agree with 
you on what you're trying to do.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    We're going to call just now on Senator Chambliss, Senator 
Lieberman. We're going to really break no later than noon here. 
We all need a 5-minute break. Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Mr. Secretary, I was not going to get into a discussion on 
F-22 particularly. We've been down that road. But when you 
responded to Senator McCain's question about why you didn't 
discuss the problems with the F-35 when we were having the 
debate last summer, your response was that you didn't have the 
independent cost analysis that you have now. I thought it was 
pretty ironic that the report from the independent commission 
came out about 2 days after the vote in the Senate, where the 
F-22 in effect was killed. I couldn't understand why you didn't 
know about that, didn't know that report was coming.
    But really, the 2009 report was simply a validation of 
exactly what that same commission reported in 2008. Now, I 
assume you knew about the 2008 report and for whatever reason 
you didn't give much credence to it. Am I incorrect in that 
assumption? Did you not know about the 2008 report from that 
independent commission, or did you just seek to ignore it?
    Secretary Gates. I honestly don't remember, Senator. The 
restructuring of this program has been due not just to the 
report of the JET from last fall, but to the time that the 
Under Secretary for Acquisition, Technology, and Logistics 
spent on this issue just in the last few weeks, and that's the 
reason that the restructuring has only been announced in the 
last few days. It's because he completed his investigation, of 
which the JET was one part, just within the last couple weeks 
or so.
    Senator Chambliss. Well, I heard your comment yesterday 
about your not intending to in any ways revisit the F-22 issue. 
Is that a correct statement?
    Secretary Gates. Correct.
    Senator Chambliss. That's even in spite of the fact that we 
now know that the assumptions that you based your decision on 
last year were wrong, that the F-35 is going to slip, and that 
your department has no idea of what the cost of an F-35 is 
going to be, as we've been told in a hearing by Dr. Carter. Now 
it's gotten to the point where I understand you've even 
relieved your program manager of his duties as of yesterday on 
the F-35.
    So you're not going to in any ways revisit that, even 
though we're struggling with the issues that we talked about 
might come about with regard to the F-35?
    Secretary Gates. No, sir, because the IOCs, based on 
information that I was given in preparation for this hearing, 
the IOCs for the Services, for the arrival of the training 
squadron at Eglin, all remain pretty much on track. The 
difference will be somewhat fewer aircraft delivered.
    Senator Chambliss. Do you intend to allow the expiration of 
foreign military sales (FMS) of the F-22?
    Secretary Gates. My impression is that that's prohibited by 
law.
    Senator Chambliss. Well, you've been instructed in the 
authorization bill last year that you will do a review of FMS 
and the prospect of those sales. There's another independent 
commission outside DOD that's also tasked with that. So is that 
review not under consideration at this point?
    Secretary Gates. I'll have to check, Senator.
    Senator Chambliss. Could you get me an answer on that, 
please, sir.
    Secretary Gates. Sure, sir.
    [The information referred to follows:]

    The report required by section 1250(a)(b) of the National Defense 
Authorization Act (NDAA) for Fiscal Year 2010 directed the Secretary of 
Defense, in coordination with the Secretary of State, and in 
consultation with the Secretary of the Air Force, to submit a report on 
potential Foreign Military Sales (FMS) of the F-22A fighter aircraft. 
The report was completed and transmitted to the Defense Committees, the 
Senate Committee on Foreign Relations, and the House Committee on 
Foreign Affairs on August 26, 2010. Section 1250(c) of the NDAA for 
Fiscal Year 2010 directed the Secretary to contract with a Federally 
Funded Research and Development Center to submit an additional report 
on the impact of F-22A FMS on the U.S. aerospace and aviation industry. 
The Department contracted RAND to complete the report. RAND expects to 
complete the report in early 2011.

    Senator Chambliss. Let me just ask you a quick question on 
the budget. I want to go back to the MRAP that's specifically 
designed for Afghanistan. Tell me again about that vehicle? 
What's the difference in that and what we're using in Iraq, and 
what's the budget difference there?
    Secretary Gates. The cost per vehicle is roughly the same 
for the ATV and the R-31 MRAP. The MRAP being designed for 
Afghanistan is designed to operate off-road, where the MRAPs in 
Iraq, designed for Iraq, were designed to operate on the road. 
So there's quite a difference in the engineering as well as in 
the power train and so on.
    Senator Chambliss. Any of those vehicles in Afghanistan 
today?
    Secretary Gates. Yes, sir. We probably have somewhere 
between 500 and 700 of them now. We're ramping up the 
production right now and our expectation is that we'll be 
sending in between 500 and 1,000 a month pretty quickly here.
    Senator Chambliss. Do you have any idea when that will 
begin? Will it begin before the weather warms up?
    Secretary Gates. Yes, sir. Again, we're probably either 
this month or next going to be at 500 a month going into the 
country.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks to the witnesses for your service. It strikes me 
after 3 hours that we're coming close here to violating your 
rights under the Geneva Convention. But I thank you for your 
strength as shown here today.
    Frankly, seriously, I don't think we've had a better team 
than you at DOD in a long time, and I thank you for your 
service in every way. I think this is a very good budget. 
Obviously, we'll go over it in a series of subject matter 
hearings, but I think it meets the needs of our military within 
the resources that we have.
    I want to ask a question I think hasn't been addressed. 
Both of you talked about, Secretary Gates, Admiral Mullen, 
about the proper balance between allocating funds to meet the 
unconventional threats we're facing in the war against Islamist 
extremism, terrorism, and then being set to meet threats later 
on from large potentially peer competitors. Somewhere in the 
mix with both of those is Iran, now still the major state 
sponsor of terrorism in the world, according to the State 
Department.
    It seems to me that it is also the most significant threat 
multiplier out there if it goes nuclear. We all want to find a 
diplomatic way to get the Iranians not to go nuclear. The 
Senate passed a very strong sanctions bill last Thursday 
unanimously, which goes to conference now and hopefully it will 
come back soon.
    But I wanted to ask you the extent to which the budget that 
you present to us will enable us to deal with this threat. If 
Iran goes nuclear, it greatly strengthens their terrorist 
proxies, including some that have killed a lot of Americans in 
Iraq and are causing some trouble in Afghanistan. It probably 
ends the nonproliferation, nuclear nonproliferation regime.
    Admiral Mullen, at one point I saw you quoted somewhere a 
while ago that said just in the normal dispatch of your 
responsibility it's your responsibility to prepare plans for 
potential use of military force against Iran regarding nuclear 
weapons. Then General Petraeus said something similar recently. 
I wanted to ask you if that's the case and how you would 
describe that, in what context you would put that preparation?
    Admiral Mullen. I put it in the context I think, Senator, 
that you laid it out. I think the potential for instability is 
still there, that I'm, as many are, hopeful that the engagement 
dialogue has legs and actually can produce something. I would 
agree with your assessment that them achieving that capability, 
it becomes a whole new ballgame in terms of what the down side 
potential is. I don't see much upside potential. We certainly 
over a long period of time have recognized that and focused on 
that. We work contingencies all the time, and it was really in 
that context that I was speaking of that.
    The President has said, Secretary Gates has said, I've 
said, all options remain on the table and certainly the 
military is one of them.
    Senator Lieberman. Secretary Gates, let me ask you a 
different side to this. In recent trips over the last year or 
so that I've taken to the Middle East, both to the Arab 
countries and to Israel, it seems to me that there is a kind of 
increasing military connection in a very positive sense between 
ourselves and our allies there. I wonder if you'd comment on 
that, and to what extent you see it in relationship to the 
current or future Iranian threat?
    Secretary Gates. We have made considerable progress over 
the past 2 years or so in developing a regional maritime 
surveillance, air and missile defense cooperation in the Gulf 
region. It is a step at a time. It is in my view clearly 
motivated--they are motivated--because of their concerns with 
Iran's armaments programs and, leave aside nuclear weapons, the 
number of missiles they're building and so on. So we have made 
considerable progress in those relationships.
    Senator Lieberman. I thank you. My time's up. I know we 
want to give you a minute or 2 off. Thank you again.
    Chairman Levin. Thank you very much, Senator Lieberman.
    That concludes this hearing. The chart I referred to, which 
I prepared relative to the Afghan Army, will be made part of 
the record. Secretary Gates, we would ask you and Chairman 
Mullen to present this chart to your folks, make sure that it's 
accurate. If there's any errors in it, please let us know 
immediately, and ask General Rodriguez please to provide us the 
information that he has committed to provide.
    Admiral Mullen, you have your hand up.
    Admiral Mullen. Just one for the record, and it's brief. On 
Senator Thune's question, he was asking about decommissioning 
bombers and in fact what I didn't say was there is 
consideration for a reduction in the number of bombers in the 
overall START negotiations, which are ongoing and which have 
not come to conclusion yet.
    Chairman Levin. We will ask his staff to give him that 
information.
    We're going to recess now for 5 minutes. When we come back, 
after opening statements we are going to call on Senators in 
the same order that we called on them for the first hearing. 
We'll stand adjourned for 5 minutes.
    [Recess from 12:03 p.m. to 12:08 p.m.]
    Chairman Levin. The committee is now going to receive 
testimony from our senior leadership of DOD as we begin the 
task of addressing the DADT policy on gays in the military. I 
believe that ending the policy would improve our military's 
capability and reflect our commitment to equal opportunity. I 
do not find the arguments used to justify DADT convincing when 
it took effect in 1993 and they are less so now.
    I agree with what President Obama said in his State of the 
Union address, that we should repeal this discriminatory 
policy. In the latest Gallup poll, the American public 
overwhelmingly supports allowing gays and lesbians to serve 
openly in the military. Sixty nine percent of Americans are 
recorded as supporting their right to serve and many in fact 
are serving.
    As former Chairman of the Joint Chiefs General John 
Shalikashvili said--and he supports ending the policy--``A 
majority of troops already believe that they serve alongside 
gay or lesbian colleagues.'' One recent study estimated that 
66,000 gays and lesbians are serving today, at constant risk of 
losing their chance to serve.
    Other nations have allowed gay and lesbian servicemembers 
to serve in their militaries without discrimination and without 
impact on unit cohesion or morale. A comprehensive study on 
this was conducted by Rand in 1993. Rand researchers reported 
on the positive experiences of Canada, France, Germany, Israel, 
and The Netherlands and Norway, all of which allowed known 
homosexuals to serve in their Armed Forces. Senator McCain and 
I have asked DOD to update the 1993 report.
    Ending this discriminatory policy will contribute to our 
military's effectiveness. To take just one example, dozens of 
Arabic and Farsi linguists have been forced out of the military 
under DADT at a time when our need to understand those 
languages has never been greater. Thousands of troops, 13,000 
by one estimate, have been forced to leave the military under 
the current policy. That number includes many who could help 
the military complete some particularly difficult and dangerous 
missions.
    I have long admired the merit-based system of advancement 
employed by the U.S. military that allows service men and women 
of varied backgrounds to advance to positions of high 
leadership. An Army is not a democracy. It is a meritocracy, 
where success depends not on who you are, but on how well you 
do your job. Despite its necessarily undemocratic nature, our 
military has helped lead the way in areas of fairness and anti-
discrimination. It has served as a flagship for American values 
and aspirations, both inside the United States and around the 
world.
    We will hold additional hearings to hear from various 
points of view and approaches on this matter. This committee 
will hold a hearing on February 11, when we will hear from an 
independent panel. The Service Secretaries and Service Chiefs 
will all be testifying before this committee during the month 
of February on their various budgets, and they, of course, will 
be open to questions on this subject as well during their 
testimony.
    My goal will be to move quickly, but deliberatively, to 
maximize the opportunity for all Americans to serve their 
country, while addressing any concerns that may be raised. We 
should end DADT and we can and should do it in a way that 
honors our Nation's values while making us more secure.
    My entire statement will be made part of the record. A 
statement of Senator Gillibrand will also be inserted in the 
record following the statement of Senator McCain.
    Senator McCain.
    [The prepared statement of Senator Levin follows:]
                Prepared Statement by Senator Carl Levin
    The committee continues our hearing this afternoon to receive 
testimony from the senior leadership of the Department of Defense as we 
begin the task of addressing the ``Don't Ask, Don't Tell'' policy on 
gays in the military. I believe ending the policy would improve our 
military's capability and reflect our commitment to equal opportunity.
    I did not find the arguments used to justify ``Don't Ask, Don't 
Tell'' convincing when it took effect in 1993, and they are less so 
now. I agree with what President Obama said in his State of the Union 
address, that we should repeal this discriminatory policy.
    In the latest Gallup poll, the American public overwhelmingly 
supports allowing gays and lesbians to serve openly in the military. 
Sixty-nine percent of Americans are recorded as supporting their right 
to serve--and many are in fact serving. As former Chairman of the Joint 
Chiefs General John Shalikashvili, who supports ending the policy has 
pointed out, a majority of troops already believe they serve alongside 
gay or lesbian colleagues. It's hard to know for sure, but one recent 
study estimated that 66,000 gays and lesbians are serving today, forced 
to hide their orientation and at constant risk of losing the chance to 
serve.
    Supporters of this policy argue that allowing gays and lesbians to 
serve openly would damage unit cohesion and morale, crucial factors in 
building combat effectiveness. But there is no evidence that the 
presence of gay and lesbian colleagues would damage our military's 
ability to fight. Other nations have allowed gay and lesbian 
servicemembers to serve in their militaries without discrimination and 
without impact on unit cohesion or morale. The most comprehensive study 
on this was conducted by Rand in 1993. Rand researchers reported on the 
positive experiences of Canada, France, Germany, Israel, the 
Netherlands and Norway, all of which allowed known homosexuals to serve 
in their Armed Forces. Senator McCain and I have asked the Department 
to update this 1993 report.
    We should end this discriminatory policy because ending it will 
contribute to our military's effectiveness. To take just one example: 
dozens of Arabic and Farsi linguists have been forced out of the 
military under ``Don't Ask, Don't Tell'' at a time when our need to 
understand those languages has never been greater. Thousands of 
troops--13,500 by one estimate--have been forced to leave the military 
under the current policy. Certainly that number includes many who could 
help the military complete its difficult and dangerous missions.
    Supporters of ``Don't Ask, Don't Tell'' accuse those who would 
change it of trying to impose a social agenda on the military. But at 
this point in our history, when gays and lesbians openly work and 
succeed in every aspect of our national life, it is the ``Don't Ask, 
Don't Tell'' policy that reflects a social agenda out of step with the 
everyday experience of most Americans.
    I have long admired the merit-based system of advancement employed 
by the U.S. military that allows service men and women of varied 
backgrounds to advance to positions of high leadership. An Army is not 
a democracy. It is a meritocracy where success depends not on who you 
are, but on how well you do your job. Despite its necessarily 
undemocratic nature, our military has helped lead the way in areas of 
fairness and anti-discrimination, as it did in ending racial 
segregation in America. It has served as a flagship for American values 
and aspirations both inside the United States and around the world.
    We will hold additional hearings to hear from various points of 
view and approaches on this matter. This committee will hold a hearing 
on February 11 when we will hear from an independent panel. The Service 
Secretaries and Service Chiefs will all be testifying before this 
committee during the month of February and they will be open to 
questions on this subject during their testimony.
    Change is always hard, especially when it involves social issues or 
personal beliefs. We will proceed fairly, trying to hear varying 
opinions. I hope those who favor change will not mistake open and fair 
process for undue delay.
    My goal will be to move quickly but deliberately to maximize the 
opportunity for all Americans to serve their country while addressing 
any concerns that may be raised. We should end ``Don't Ask, Don't 
Tell,'' and we can and should do it in a way that honors our Nation's 
values while making it more secure.

    Senator McCain. Thank you very much, Mr. Chairman. I want 
to thank you Secretary Gates and Admiral Mullen for what's 
turning into a very long morning for them. We appreciate your 
patience and your input on this very, very important issue.
    We meet to consider the DADT policy, a policy that the 
President has made clear, most recently last week in his State 
of the Union Address, that he wants Congress to repeal. This 
would be a substantial and controversial change to a policy 
that has been successful for 2 decades. It would also present 
yet another challenge to our military at a time of already 
tremendous stress and strain.
    Our men and women in uniform are fighting two wars, 
guarding the front lines against a global terrorist enemy, 
serving and sacrificing on battlefields far from home, and 
working to rebuild and reform the force after more than 8 years 
of conflict. At this moment of immense hardship for our armed 
services, we should not be seeking to overturn the DADT policy.
    I want to make one thing perfectly clear upfront. I'm 
enormously proud of and thankful for every American who chooses 
to put on the uniform of our Nation and serve at this time of 
war. I want to encourage more of our fellow citizens to serve 
and to open up opportunities to do so. Many gay and lesbian 
Americans are serving admirably in our Armed Forces, even 
giving their lives so that we and others can know the blessings 
of peace. I honor their sacrifice and I honor them.
    Our challenge is how to continue welcoming this service 
amid the vast complexities of the largest, most expensive, most 
well-regarded, and most critical institution in our Nation, our 
Armed Forces. This is an extremely difficult issue and the 
Senate vigorously debated it in 1993. We heard from the senior 
uniformed and civilian leaders of our military on eight 
occasions before this committee alone. When Congress ultimately 
wrote the law, we included important findings that did justice 
to the seriousness of the subject.
    I would ask, without objection, Mr. Chairman, that a copy 
of the statute, including those findings, be included in the 
record.
    Chairman Levin. It will be.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator McCain. I won't quote all those findings, but three 
points must be made. First, Congress found in the law that the 
military's mission to prepare for and conduct combat operations 
requires service men and women to accept living and working 
conditions that are often spartan and characterized by forced 
intimacy with little or no privacy.
    Second, the law finds that civilian life is fundamentally 
different from military life, which is characterized by its own 
laws, rules, customs, and traditions, including many 
restrictions on personal conduct that would not be tolerated in 
civil society.
    Finally, the law finds that the essence of military 
capability is good order and unit cohesion and that any 
practice which puts those goals at unacceptable risk can be 
restricted.
    These findings were the foundation of DADT, and I'm eager 
to hear from our distinguished witnesses what has changed since 
these findings were written such that the law they supported 
can now be repealed.
    Has this policy been ideal? No, it has not, but it has been 
effective. It has helped to balance the potentially disruptive 
tension between the desires of a minority and the broader 
interests of our All-Volunteer Force. It is well understood and 
predominantly supported by our fighting men and women. It 
reflects, as I understand them, the preferences of our 
uniformed services. It has sustained unit cohesion and unit 
morale while still allowing gay and lesbian Americans to serve 
their country in uniform. It has done all of this for nearly 2 
decades.
    Mr. Chairman, this is a letter signed by over 1,000 former 
general and flag officers who have weighed in on this issue. I 
think that we all in Congress should pay attention and benefit 
from the experience and knowledge of over a thousand former 
general officers and flag officers, where they say: ``We firmly 
believe that this law which Congress passed to protect good 
order, discipline and morale in the unique environment of the 
Armed Forces deserves continued support.'' So I think we should 
also pay attention to those who have served, who can speak more 
frankly on many occasions than those who are presently serving.
    I know that any decision Congress makes about the future of 
this law will inevitably leave a lot of people angry and 
unfulfilled. There are patriotic and well-meaning Americans on 
each side of this debate, and I have heard their many 
passionate concerns. Ultimately, though, numerous military 
leaders tell me that DADT is working and that we should not 
change it now. I agree.
    I would welcome a report done by the JCS based solely on 
military readiness, effectiveness, and needs, and not on 
politics, that would study the DADT, that would consider the 
impact of its repeal on our armed services, and that would 
offer their best military advice on the right course of action.
    We have an All-Volunteer Force. It is better trained, more 
effective, and more professional than any military in our 
history, and today that force is shouldering a greater global 
burden than at any time in decades. We owe our lives to our 
fighting men and women and we should be exceedingly cautious, 
humble, and sympathetic when attempting to regulate their 
affairs.
    DADT has been an imperfect but effective policy, and at 
this moment, when we're asking more of our military than at any 
time in recent memory, we should not repeal this law.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Gillibrand follows:]
            Prepared Statement by Senator Kirsten Gillibrand
    Chairman Levin, Senator McCain, distinguished members of the 
committee, I appreciate your leadership in hosting this important 
hearing today.
    James Madison once said, ``Equal laws protecting equal rights . . . 
the best guarantee of loyalty and love of country.''
    Lesbian and gay service men and women have been serving in our 
Armed Forces bravely while being denied the full equality they deserve. 
Since 1993, more than 13,500 American troops have been discharged from 
the military under ``Don't Ask, Don't Tell'' (DADT), at an estimated 
cost of over $400 million. Those discharges include more than 800 
specialists with skills deemed mission critical by the U.S. military, 
including at least 323 linguists, approximately 10 percent of foreign 
language speakers, 59 of which specialized in Arabic, and at least 9 of 
which specialized in Farsi, the official language of Iran. Among these 
specialists were pilots, engineers, doctors, nurses, and combat medics, 
all of which the military has faced shortfalls of in recent years.
    These brave Americans were not discharged because of poor 
performance, but rather because of their sexual orientation.
    According to a recent study by the Williams Institute, an estimated 
66,000 lesbians, gay men, and bisexuals are serving in the U.S. 
military. According to data provided by the Department of Defense, 
discharges under DADT in the Army, Air Force, Navy and Marine Corps 
declined to 428 in 2009 from 619 the previous year. This represents a 
65 percent drop since 2001, the highest number on record.
    In a time of war, discharges have decreased, even as anecdotal 
evidence strongly suggests larger numbers of lesbian and gay 
servicemembers are serving openly. Despite the current law, individual 
commanders are deciding to retain otherwise qualified personnel.
    Why is this the case? Because the Armed Forces is experiencing 
shortfalls in several types of mission-critical personnel, especially 
in the midst of fighting ongoing wars, and is losing additional trained 
and highly qualified personnel under DADT. It has been estimated that 
the U.S. military loses more than 4,000 gay and lesbian military 
personnel each year, which it would have otherwise retained, had the 
servicemembers been able to be open about their sexual orientation, and 
that more than 40,000 recruits might join if the ban is lifted. 
Commanders on the ground believe what many of us strongly believe--it's 
time to repeal DADT.
    In a January 2007 op-ed article published in The New York Times, 
General John M. Shalikashvili, Chairman of the Joint Chiefs of Staff 
when the policy was enacted, stated that his opinion was that DADT 
should be repealed. He argued that due to the U.S. military being 
stretched thin by its current deployments in the Middle East, the Armed 
Forces need to accept every American who is willing and able to serve. 
Last week I was proud to share another statement from General 
Shalikashvili, 1 of only 17 people in the country's history to serve as 
chairman of the Joint Chiefs of Staff, calling for an end to this 
failed policy. In his statement he said:

          ``When I was Chairman of the Joint Chiefs of Staff, my 
        support of the current policy was based on my belief that 
        implementing a change in the rules would have been too 
        burdensome for our troops and commanders at the time.
          ``The concern among many at that time, was that letting 
        people who were openly gay serve would lower morale, harm 
        recruitment and undermine unit cohesion. ``DADT'' was seen as a 
        useful measure that allowed time to pass while our culture 
        continued to evolve. The question before us now is whether 
        enough time has gone by to give this policy serious 
        reconsideration. I believe that it has.''

    Twenty-five foreign militaries now let gays serve openly, including 
our closest ally, Britain. I sit on the Foreign Relations Committee and 
I am acutely aware that most of our allies--Israel, Britain, France, 22 
of 26 NATO nations in all--allow gay and lesbian soldiers to serve 
openly and I believe the American military should follow suit. At a 
time when our Nation is fighting two wars, and with increased national 
security threats, we can ill afford this loss of personnel and talent 
in our national defense. Our military is the best in the world. Once 
gay and lesbian servicemembers are allowed to serve openly, our 
military will still be the best in the world.
    As we look at the path that has brought us to this hearing today, 
regarding how best to repeal the DADT policy, I am reminded of several 
leaders in the fight to allow openly gay servicemembers into the Armed 
Forces.
    One is then West Point Cadet, Lt. Alexander Raggio. In his 2006 
award winning thesis he stated:

          ``The military should abandon the false acceptance of DADT 
        and allow the open service of homosexuals immediately.'' He 
        added, ``Current policy cannot be rationally explained except 
        as a reflection of the personal prejudices of those who create 
        and enforce it and, rationalized by faulty logic and double 
        standards.''

    These steps towards equality are our duty. I strongly believe that 
equality is an inalienable American right--and should not be ascribed 
based on gender or race, religion or sexual orientation or gender 
identity. America must lead by example when it comes to equality and 
justice. Freedom from discrimination is a basic right that all 
Americans should enjoy. Lifting the ban on DADT is not only necessary 
for realizing equality, but it's necessary for ensuring that our Armed 
Forces remain the best in the world.
    Pepe Johnson, a former Sergeant, U.S. Army sums up the moral 
imperative on why we have to change this policy. Every day this policy 
remains we ask these soldiers to lie about who they are, Pepe said 
``Honesty and integrity are everything in the army. I felt if I was 
lying, I didn't have it. I wasn't serving with integrity. I felt 
trapped. Lying is not the way of the Army--I felt I was violating 
regulation.
    ``During the 3 years I served I only wanted to be all I could be--
to borrow the old recruiting slogan--but DADT forced me to be something 
other than what I was. That's not consistent with the Army's Values: 
'Leaders are honest to others by not presenting themselves or their 
actions as anything other than what they are, remaining committed to 
the truth.' (FM 6-22, Army Leadership) As long as DADT exists, there is 
a hole in the integrity of the entire military.''
    We must recognize that human dignity and respect are part and 
parcel of who we were as Americans--male or female, African American or 
Caucasian, gay or straight, bisexual or transgender.
    We must ensure that our Armed Forces are fully prepared with the 
best resources we can muster. DADT is a threat to our men and women in 
uniform and our national security. We cannot afford to handicap our 
efforts because of ignorance or hatred.
    This policy is wrong for our national security and inconsistent 
with the moral foundation upon which our country was founded. It is 
critically important for this Congress to take up President Obama's 
call to permanently end the ban on LGBT Americans serving in our armed 
services. We will strengthen America--both militarily and morally--by 
repealing this discriminatory policy.

    Chairman Levin. Thank you, Senator McCain.
    Secretary Gates.
    Secretary Gates. Mr. Chairman, last week during the State 
of the Union Address the President announced he will work with 
Congress this year to repeal the DADT law. He subsequently 
directed DOD to begin the preparations necessary for a repeal 
of the current law and policy.
    I fully support the President's decision. The question 
before us is not whether the military prepares to make this 
change, but how we best prepare for it. We received our orders 
from the Commander in Chief and we are moving out accordingly. 
However, we can also take this process only so far, as the 
ultimate decision rests with you, Congress.
    I am mindful of the fact, as are you, that unlike the last 
time this issue was considered by Congress more than 15 years 
ago, our military is engaged in two wars that have put troops 
and their families under considerable stress and strain. I am 
mindful as well that attitudes towards homosexuality may have 
changed considerably, both in society generally and in the 
military, over the intervening years.
    To ensure that DOD is prepared should the law be changed, 
and working in close consultation with Admiral Mullen, I have 
appointed a high-level working group within DOD that will 
immediately begin a review of the issues associated with 
properly implementing a repeal of the DADT. The mandate of this 
working group is to thoroughly, objectively, and methodically 
examine all aspects of this question and produce its finding 
and recommendations in the form of an implementation plan by 
the end of this calendar year.
    A guiding principle of our efforts will be to minimize 
disruption and polarization within the ranks, with special 
attention paid to those serving on the front lines. I am 
confident this can be achieved.
    The working group will examine a change of lines of study, 
all of which will proceed simultaneously. First, the working 
group will reach out to the force, to authoritatively 
understand their views and attitudes about the impact of 
repeal. I expect that the same sharp divisions that 
characterize the debate over these issues outside of the 
military will quickly seek to find their way into this process, 
particularly as it pertains to what are the true views and 
attitudes of our troops and their families.
    I am determined to carry out this process in a way that 
establishes objective and reliable information on this 
question, with minimal influence by the policy or political 
debate. It is essential that we accomplish this in order to 
have the best possible analysis and information to guide the 
policy choices before the Department and Congress.
    Second, the working group will undertake a thorough 
examination of all the changes to the Department's regulations 
and policies that may have to be made. These include potential 
revisions to policies on benefits, base housing, fraternization 
and misconduct, separations and discharges, and many others. We 
will enter this examination with no preconceived views, but a 
recognition that this will represent a fundamental change in 
personnel policy, one that will require that we provide our 
commanders with the guidance and tools necessary to accomplish 
this transition successfully and with minimum disruption to the 
Department's critical missions.
    Third, the working group will examine the potential impacts 
of a change in the law on military effectiveness, including how 
a change might affect unit cohesion, recruiting and retention, 
and other issues crucial to the performance of the force. The 
working group will develop ways to mitigate and manage any 
negative impacts.
    These are, generally speaking, the broad areas we have 
identified for study under this review. We will of course 
continue to refine and expand these as we get into this process 
or engage in discussion with Congress and other sources. In 
this regard, we expect that the working group will reach out to 
outside experts with a wide variety of perspectives and 
experience. To that end, the Department will, as requested by 
this committee, ask the Rand Corporation to update their study 
from 1993 on the impact of allowing homosexuals to serve openly 
in the military.
    We also have received some helpful suggestions on how this 
outside review might be expanded to cover a wide swath of 
issues. This will be a process that will be open to views and 
recommendations from a wide variety of sources, including of 
course members of Congress.
    Mr. Chairman, I expect that our approach may cause some to 
wonder why it will take the better part of a year to accomplish 
the task. We have looked at a variety of options, but when you 
take into account the overriding imperative to get this right 
and minimize disruption to a force that is actively fighting 
two wars and working through the stress of almost a decade of 
combat, then it is clear to us we must proceed in a manner that 
allows for the thorough examination of all issues.
    An important part of this process is to engage our men and 
women in uniform and their families over this period, since, 
after all, they will ultimately determine whether or not we 
make this transition successfully.
    To ensure that this process is able to accomplish its 
important mission, Chairman Mullen and I have determined that 
we need to appoint the highest level officials to carry it out. 
Accordingly, I am naming DOD General Counsel, Jeh Johnson, and 
General Carter Ham, Commander of U.S. Army-Europe, to serve as 
the co-chairs for this effort.
    Simultaneous with launching this process, I have also 
directed DOD to quickly review the regulations used to 
implement the current DADT law and within 45 days present to me 
recommended changes to those regulations that within existing 
law will enforce this policy in a fairer manner. You may recall 
that I asked DOD's General Counsel to conduct a preliminary 
review of this matter last year. Based on that preliminary 
review, we believe that we have a degree of latitude within the 
existing law to change our internal procedures in a manner that 
is more appropriate and fair to our men and women in uniform. 
We will now conduct a final detailed assessment of this 
proposal before proceeding.
    Mr. Chairman, Senator McCain, members of the committee: DOD 
understands that this is a very difficult and in the minds of 
some controversial policy question. I am determined that we in 
DOD carry out this process professionally, thoroughly, 
dispassionately, and in a manner that is responsive to the 
direction of the President and to the needs of Congress as you 
debate and consider this matter.
    However, on behalf of the men and women in uniform and 
their families, I also ask you to work with us to insofar as 
possible keep them out of the political dimension of this 
issue. I am not asking for you not to do your jobs fully and 
with vigor, but rather that as this debate unfolds you keep the 
impact it will have on our forces firmly in mind.
    Thank you for this opportunity to lay out our thinking on 
this important policy question. We look forward to working with 
Congress and hearing your ideas on the best way ahead.
    [The prepared statement of Secretary Gates follows:]
               Prepared Statement by Hon. Robert M. Gates
    Last week, during the State of the Union address, the President 
announced that he will work with Congress this year to repeal the law 
known as ``Don't Ask, Don't Tell.'' He subsequently directed the 
Department of Defense to begin the preparations necessary for a repeal 
of the current law and policy.
    I fully support the President's decision. The question before us is 
not whether the military prepares to make this change, but how we best 
prepare for it. We have received our orders from the Commander in Chief 
and we are moving out accordingly. However, we also can only take this 
process so far as the ultimate decision rests with you, Congress.
    I am mindful of the fact, as are you, that unlike the last time 
this issue was considered by Congress more than 15 years ago, our 
military is engaged in two wars that have put troops and their families 
under considerable stress and strain. I am mindful, as well, that 
attitudes towards homosexuality may have changed considerably--both in 
society generally and in the military--over the intervening years.
    To ensure that the department is prepared should the law be 
changed, and working in close consultation with Admiral Mullen, I have 
appointed a high-level working group within the department that will 
immediately begin a review of the issues associated with properly 
implementing a repeal of the ``Don't Ask, Don't Tell'' policy. The 
mandate of this working group is to thoroughly, objectively and 
methodically examine all aspects of this question and produce its 
finding and recommendations in the form of an implementation plan by 
the end of this calendar year. A guiding principle of our efforts will 
be to minimize disruption and polarization within the ranks, with 
special attention paid to those serving on the front lines. I am 
confident that this can be achieved.
    The working group will examine a number of lines of study, all of 
which will proceed simultaneously.
    First, the working group will reach out to the force to 
authoritatively understand their views and attitudes about the impacts 
of repeal. I expect that the same sharp divisions that characterize the 
debate over these issues outside of the military will quickly seek to 
find their way into this process, particularly as it pertains to what 
are the true views and attitudes of our troops and their families. I am 
determined to carry out this process in a way that establishes 
objective and reliable information on this question with minimal 
influence by the policy or political debate. It is essential that we 
accomplish this in order to have the best possible analysis and 
information to guide the policy choices before the Department and 
Congress.
    Second, the working group will undertake a thorough examination of 
all the changes to the department's regulations and policies that may 
have to be made. These include potential revisions to policies on 
benefits, base housing, fraternization and misconduct, separations and 
discharges, and many others. We will enter this examination with no 
preconceived views, but a recognition that this will represent a 
fundamental change in personnel policy--one that will require we 
provide our commanders with the guidance and tools necessary to 
accomplish this transition successfully and with minimal disruption to 
the Department's critical missions.
    Third, the working group will examine the potential impacts of a 
change in the law on military effectiveness, including how a change 
might affect unit cohesion, recruiting and retention, and other issues 
crucial to the performance of the force. The working group will develop 
ways to mitigate and manage any negative impacts.
    These are, generally speaking, the broad areas we have identified 
for study under this review. We will, of course, continue to refine and 
expand these as we get into this process or engage in discussion with 
Congress or other sources.
    In this regard, we expect that the working group will reach out to 
outside experts with a wide variety of perspectives and experience. To 
that end, the Department will, as requested by this committee, ask the 
RAND Corporation to update their study from 1993 on the impacts of 
allowing homosexuals to serve openly in the military. We have also 
received some helpful suggestions on how this outside review might be 
expanded to cover a wide swath of issues. This will be a process that 
will be open to views and recommendations from a wide variety of 
sources, including, of course, Members of Congress.
    Mr. Chairman, I expect that our approach may cause some to wonder 
why it will take the better part of the year to accomplish this task. 
We looked at a variety of options, but when you take into account the 
overriding imperative--to get this right and minimize disruption to a 
force that is actively fighting two wars and working through the stress 
of almost a decade of combat--then it is clear to us that we must 
proceed in manner that allows for the thorough examination of all 
issues. An important part of this process is to engage our men and 
women in uniform and their families over this period since, after all, 
they will ultimately determine whether we make this transition 
successfully or not.
    To ensure this process is able to accomplish its important mission, 
Chairman Mullen and I have determined that we need to appoint the 
highest level officials to carry it out. Accordingly, I am naming the 
Department of Defense General Counsel, Jeh Johnson, and General Carter 
Ham, Commander of U.S. Army Europe, to serve as the co-chairs to for 
this effort.
    Simultaneous with launching this process, I have also directed the 
Department to quickly review the regulations used to implement the 
current Don't Ask, Don't Tell law and, within 45 days, present to me 
recommended changes to those regulations that, within existing law, 
will enforce this policy in a more humane and fair manner. You may 
recall that I asked the Department's General Counsel to conduct a 
preliminary review of this matter last year. Based on that preliminary 
review, we believe that we have a degree of latitude within the 
existing law to change our internal procedures in a manner that is more 
appropriate and fair to our men and women in uniform. We will now 
conduct a final detailed assessment of this proposal before proceeding.
    Mr. Chairman, Senator McCain, and members of this committee, the 
Department of Defense understands that this is a very difficult and, in 
the minds of some, controversial policy question. I am determined that 
we in the Department carry out this process professionally, thoroughly, 
dispassionately, and in a manner that is responsive to the direction of 
the President and to the needs of Congress as you debate and consider 
this matter. However, on behalf of the men and women in uniform and 
their families, I also ask that you work with us to, insofar as 
possible, to keep them out of the political dimension of this issue. I 
am not asking for you not to do your jobs fully and with vigor, but 
rather that as this debate unfolds, you keep the impact it will have on 
our forces firmly in mind.
    Thank you for this opportunity to lay out our thinking on this 
important policy question. We look forward to working with Congress and 
hearing your ideas on the best way ahead.

    Chairman Levin. Thank you.
    Admiral Mullen.
    Admiral Mullen. Thank you, Mr. Chairman, Senator McCain, 
and thank you for giving me the opportunity to discuss with you 
this very important matter.
    The Chiefs and I are in complete support of the approach 
that Secretary Gates has outlined. We believe that any 
implementation plan for a policy permitting gays and lesbians 
to serve openly in the Armed Forces must be carefully derived, 
sufficiently thorough, and thoughtfully executed. Over these 
last 2 months, we have reviewed the fundamental premises behind 
DADT as well as its application in practice over the last 16 
years. We understand perfectly the President's desire to see 
the law repealed and we owe him our best military advice about 
the impact of such a repeal and the manner in which we would 
implement a change in policy.
    The Chiefs and I have not yet developed that advice and 
would like to have the time to do so in the same thoughtful, 
deliberate fashion with which the President has made it clear 
he wants to proceed. The review group Secretary Gates has 
ordered will no doubt give us that time and an even deeper 
level of understanding. We look forward to cooperating with and 
participating in this review to the maximum extent possible, 
and we applaud the selection of Mr. Johnson and General Ham to 
lead it. Both are men of great integrity, great experience, and 
have our complete trust and confidence.
    Mr. Chairman, speaking for myself and myself only, it is my 
personal belief that allowing gays and lesbians to serve openly 
would be the right thing to do. No matter how I look at this 
issue, I cannot escape being troubled by the fact that we have 
in place a policy which forces young men and women to lie about 
who they are in order to defend their fellow citizens. For me 
personally, it comes down to integrity, theirs as individuals 
and ours as an institution.
    I also believe that the great young men and women of our 
military can and would accommodate such a change. I never 
underestimate their ability to adapt.
    But I do not know this for a fact. Nor do I know for a fact 
how we would best make such a major policy change in a time of 
two wars. That there will be some disruption in the force I 
cannot deny. That there will be legal, social, and perhaps even 
infrastructure changes to be made certainly seem plausible. We 
would all like to have a better handle on these types of 
concerns and this is what our review will offer.
    We would also do well to remember that this is not an issue 
for the military leadership to decide. The American people have 
spoken on this subject through you, their elected officials, 
and the result is the law and the policy that we currently 
have. We will continue to obey that law and we will obey 
whatever legislative and executive decisions come out of this 
debate.
    The American people may yet have a different view. You may 
have a different view. I think that's important and it's 
important to have that discussion. Frankly, there are those on 
both sides of this debate who speak as if there is no debate, 
as if there is nothing to be learned or reflected upon. I hope 
we can be more thoughtful than that. I expect that we will be 
more thoughtful than that.
    The Chiefs and I also recognize the stress our troops and 
families are under, and I have said many times before, should 
the law change we need to move forward in a manner that does 
not add to that stress. We have two wars going on, a new 
strategy in Afghanistan, and remaining security challenges in 
Iraq. We're about to move forward under a new QDR. We still 
have budget concerns and a struggling economy, and we have a 
host of other significant security commitments around the 
globe. Our plate is very full, and while I believe this is an 
important issue, I also believe we need to be mindful as we 
move forward of other pressing needs in our military.
    What our young men and women and their families want, what 
they deserve, is that we listen to them and act in their best 
interests. What the citizens we defend want to know, what they 
deserve to know, is that their uniformed leadership will act in 
a way that absolutely does not place in peril the readiness and 
effectiveness of their military. I can tell you that I am 100 
percent committed to that.
    Balance, Mr. Chairman, balance and thoughtfulness, is what 
we need most right now. It's what the President has promised us 
and it's what we ask of you and this body.
    Thank you.
    Chairman Levin. Thank you very much, Admiral.
    So that everyone has a chance within a reasonable period of 
time, we're just going to have a 3-minute first round.
    Senator McCain. Mr. Chairman, we need more than 3 minutes. 
We need more than 3 minutes.
    Chairman Levin. We can have a second round then. We have to 
also have a schedule here. So we'll go to a second round if we 
can fit that into Secretary Gates' schedule. If not, we'll pick 
this up at a later time.
    Well now, this schedule was shared with everybody here, I 
know.
    Senator McCain. Not with me.
    Chairman Levin. It was indeed shared.
    Senator McCain. You're the chairman.
    Chairman Levin. Mr. Secretary, the Washington Post I think 
this morning reported that the Military Services will not 
pursue any longer disciplinary action against gays and lesbian 
servicemembers whose orientation is revealed by third parties. 
Is that one of the degrees of latitude within existing law that 
you're looking at?
    Secretary Gates. Mr. Chairman, a preliminary assessment, 
which fits within the 45-day review that I mentioned in my 
prepared statement, is that we can do the following within the 
confines of the existing law. We can raise the level of the 
officer who is authorized to initiate an inquiry. We can raise 
the level of the officer who conducts the inquiry. We can raise 
the bar on what constitutes credible information to initiate an 
inquiry. We can raise the bar on what constitutes a reliable 
person on whose word an inquiry can be initiated. Overall, we 
can reduce the instances in which a servicemember who is trying 
to serve the country honorably is outed by a third person with 
a motive to harm the servicemember. We also have to devise new 
rules and procedures in light of the appeals court decision in 
Witt versus the Department of the Air Force for the areas of 
the country covered by the appellate court.
    So I would say all of these matters are those that will be 
reviewed within this 45-day period. So it's a little more 
complicated than the Washington Post conveyed.
    Chairman Levin. But all of those are possibilities?
    Secretary Gates. Yes, sir.
    Chairman Levin. Now, would you--assuming that even if it 
requires legislation, would you support a moratorium on 
discharges under DADT during the course of this up to year-long 
assessment that DOD is going to be making?
    Secretary Gates. I would have to look into that, because 
the problem that we have is that all of the issues that both 
Admiral Mullen and I described in terms of what we have to look 
into in terms of the effect on the force, in terms of 
everything else, is what we need to examine before I could 
answer that question.
    Chairman Levin. While you're going to be examining the 
other points that you're looking at, the other flexibilities, 
would you add this to the questions you're going to look at and 
let us know promptly----
    Secretary Gates. Sure.
    Chairman Levin.--as to whether you would support a 
moratorium pending this period on discharges? That doesn't mean 
you couldn't discharge at the end of the period, but there'd be 
a moratorium.
    Secretary Gates. We will look at it, Mr. Chairman. I would 
tell you that the advice that I have been given is that the 
current law would not permit that, but--
    Chairman Levin. I'm saying would you support a change in 
the current law if necessary in order to permit that. That's 
what we need to hear from you on.
    Senator McCain.
    Senator McCain. I'm deeply disappointed in your statement, 
Secretary Gates. I was around here in 1993 and was engaged in 
the debates, and what we did in 1993 is we looked at the issue 
and we looked at the effect on the military and then we reached 
a conclusion and then we enacted it into law. Your statement is 
the question before us is not whether the military prepares to 
make this change, but how we best prepare for it.
    It would be far more appropriate, I say with great respect, 
to determine whether repeal of this law is appropriate and what 
effects it would have on the readiness and effectiveness of the 
military, before deciding on whether we should repeal the law 
or not. Fortunately, it is an act of Congress and it requires 
the agreement of Congress in order to repeal it. So your 
statement obviously is one which is clearly biased, without the 
view of Congress being taken into consideration.
    Admiral Mullen, you're the principal military adviser to 
the President and you have to consult with and seek the advice 
of the other members of the JCS and the combatant commanders. 
What in your view are the opinions of the other members of the 
Joint Chiefs and combatant commanders about changing this 
policy?
    Admiral Mullen. Senator McCain, as the chairman indicated 
earlier, they'll obviously be out in their posture hearings in 
the near future, and I would certainly defer to them in terms 
of exactly----
    Senator McCain. Well, in the near future I'd like you to 
ask them and we could have it on the record what their position 
is, in the near future.
    Admiral Mullen. Yes, sir.
    [The information referred to follows:]

    Each of the Service Chiefs and combatant commanders has appeared 
before the committee, where they had the opportunity to express their 
views. I can tell you that all the Chiefs are concerned with current 
combat operations and the associated stress on the force. Given what is 
currently being asked of our force and their families, the Chiefs would 
all like to better understand the exact nature of the impact of any 
repeal of the law. This is why all of us support a comprehensive review 
of the issue in order to better advise the Secretary of Defense and the 
President.

    Senator McCain. I would like it as soon as possible.
    Admiral Mullen. Actually, I've worked very closely with 
them over the last months in terms of understanding what their 
concerns and what our overall concerns are, and I would 
summarize them by saying it's really important for us to 
understand that if this policy changes, if the law changes, 
what's the impact and how we would implement it. Secretary 
Gates' point about the study is to really understand 
objectively the impact on our troops and on our forces, and 
that is their biggest concern.
    Secretary Gates. I would say, Senator McCain, I absolutely 
agree that how Congress acts on this is dispositive.
    Senator McCain. Well, I hope you will pay attention to the 
views of over a thousand retired flag and general officers.
    Mr. Secretary, what kinds of partnerships or unions would 
the military be prepared to recognize by law in the event that 
this DADT is repealed?
    Secretary Gates. That's one of the many issues that I think 
we have to look at, Senator.
    Senator McCain. So again, you are embarking on saying it's 
not whether the military prepares to make the change, but how 
we best prepare for it, without ever hearing from members of 
Congress, without hearing from the members of the Joint Chiefs, 
and of course without taking into consideration all the 
ramifications of this law. Well, I'm happy to say that we still 
have a Congress of the United States that would have to pass 
the law to repeal DADT despite your efforts to repeal it in 
many respects by fiat.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. Thank you for 
holding this very important hearing.
    I want to acknowledge, Secretary Gates, the work you've 
done to put a plan in place. Admiral Mullen, I think the 
centerpiece of your statement will be long remembered for the 
courage and integrity with which you outlined your own personal 
beliefs and how we can proceed.
    I'm proud to hail from a region of the country, the Rocky 
Mountain West, where we have a live and let live attitude. Some 
people would call it small ``l'' libertarianism. People's 
personal lives, the choices that people make, are not the 
government's business. I can't help but think about a great 
Arizonan--I grew up in Arizona. My father was an Arizonan, my 
mother was a Coloradan, and I have the great honor to represent 
Colorado now. Barry Goldwater once said: ``You don't have to be 
straight to shoot straight.'' That's the opportunity that we 
have here today as Congress and the Pentagon moves forward.
    I have a few concerns I'd like to share in the couple of 
minutes that I have, and I'll pepper my comments with questions 
and hopefully there'll be time for you to respond. There have 
been a lot of studies done, Mr. Secretary, Rand, and there's a 
recent study in the Joint Force Quarterly. It's not clear to me 
that the study group needs a full year to study the 
implementation and transition. I want to just put that out 
there.
    I want to ensure that the focus of the group is on how to 
implement repeal of the policy, not whether, and I want to ask 
you to assure me that the end point of the study would be a 
road map to implementing repeal, and that Congress would then 
be in a position to take legislative action that the Pentagon 
as a whole could support.
    Before you answer, I'd like your reaction to a legislative 
proposal that you may have seen. It would be to write into 
repeal legislation the period of time you suggest you need, say 
1 year, while legislating that at the end of that time we would 
have finality, in other words a complete end to DADT. During 
that year-long transition, the DOD would have full authority 
and discretion with respect to DADT investigations and 
discharges.
    Language like this would certainly make me much more 
comfortable since I want, and so many others, a clear path to 
full repeal, and I'm not sure I see finality in the study.
    Again, thank you, gentlemen, and hopefully there's a little 
bit of time left for you to answer.
    Secretary Gates. I think the purpose of the examination 
that we're undertaking frankly is to inform the decisionmaking 
of Congress and the nature of whatever legislation takes place. 
It's also, frankly, to be prepared to begin to implement any 
change in the law. We obviously recognize that this is up to 
Congress and my view is, frankly, that it's critical that this 
matter be settled by a vote of Congress.
    The study is intended to prepare us along those lines so 
that we understand all of the implications involved. Frankly, 
there have been a lot of studies done, but there has not been a 
study done by the military of this, and this is the kind of 
thing that Admiral Mullen was talking about.
    I would just say with respect to your second point that I 
think we would regard--if legislation is passed repealing DADT, 
we would feel it very important that we be given some period of 
time for that implementation, at least a year.
    Admiral Mullen. Senator, if I may, the only thing I would 
comment about all the studies and all the polls, I would just 
urge everybody that's going to be involved in this, look at 
those studies and polls deliberately and what they actually 
looked at specifically, and to just reemphasize what the 
Secretary said: There really hasn't been any significant 
statistically significant and objective survey of our people 
and their families. That gets to the Chiefs' concern and mine 
as well, which really is engaging them in a way that we really 
understand their views on this. That just hasn't been done and, 
as urgently as some would like this to happen, it's just going 
to take some time to do that.
    Chairman Levin. Thank you, Senator Udall.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I know this is 
an important issue. We need to think it through, and every 
American is entitled to fairness and justice as we deliberate 
these issues. I do think we should do it at a high level.
    I would note, however, a bit of a concern that arises from 
something Senator McCain suggested. That is that the President 
as the Commander in Chief has announced a decision, and the 
Secretary of Defense apparently supports that decision. Admiral 
Mullen now has declared that he personally believes in this 
decision. So then presumably someone below you will do some 
work on the policy, whether this is a good policy or not. So I 
guess if it was a trial we would perhaps raise the undue 
command influence defense.
    I think we need an open and objective and fair evaluation 
of this. A lot of things that have been said I would note that 
are not accurate, at least in my view, at least misrepresent 
certain things. One of them is 10,000 people have been 
dismissed from the military or voluntarily left the military 
under this provision. But that's over 10 years. It would be 1 
percent maybe, if it was 1 year less than that, maybe if it was 
1 year less than that, maybe .75 of 1 percent. But over a 
decade, it would be one-tenth of 1 percent or less.
    Also, there will be costs. I noticed--and I give the 
military credit. A lot of people don't know this, Admiral 
Mullen, how open the debate and discussion you are. There's an 
article in the Joint Forces Quarterly that basically supports 
this change. It was an award-winning article, and they raised a 
lot of different issues both for and against, and the military 
welcomed that. I salute that. I think that's healthy.
    But one of the points it made is that Charles Moskos, one 
of the original authors of the DADT points out that the number 
of discharges for voluntary statements by servicemembers--
presumably, they come forward and say that they are 
homosexual--accounts for 80 percent of the total, and the 
number of discharges for homosexual acts have declined over the 
years. Do you think that's approximately correct?
    Admiral Mullen. Senator Sessions, I think it is 
approximately correct. But it does go to again sort of a 
fundamental principle with me, which is everybody counts. Part 
of the struggle, back to the institutional integrity aspect of 
this----
    Senator Sessions. Well, I know. I appreciate your view.
    Admiral Mullen.--and putting individuals in a position that 
every single day they wonder whether today's going to be the 
day and devaluing them in that regard just is inconsistent with 
us as an institution. I have served with homosexuals since 
1968. Senator McCain spoke to that in his statement. Everybody 
in the military has, and we understand that. So it is a number 
of things which cumulatively for me personally get me to this 
position.
    But I also want to reemphasize what I said, is I am not 
all-knowing in terms of the impact of what the change would 
have, and that's what I want to understand, and any impact and 
understanding readiness and effectiveness is absolutely 
critical.
    Senator Sessions. Well, it's pretty clear what your view is 
and it would be clear on all your subordinates, every single 
servicemember in uniform. I don't think that they are required 
to lie about who they are. I think that's an overstatement, 
although I think the rule of DADT has seemed to work pretty 
well.
    I would note from the Christian Science Monitor here that 
the Chiefs of the Services met with the Chairman, Mike Mullen--
I'm quoting from the article--``and the consensus seemed to be 
that, the military fighting two wars and now responding to a 
new mission in Haiti, now is not the time to make such a big 
change to military policy.'' That's my understanding of the 
status of things.
    I just hope that as we discuss it you'll recognize first 
that Congress has made the decision, it's not yours to make, 
and we'll have to change it if we do change it; and second, you 
shouldn't use your power to in any way influence the discussion 
or evaluation of the issue.
    Secretary Gates. Senator, I would just say that we can't 
possibly evaluate the impact on unit cohesion, on morale, on 
retention, on recruitment and so on, unless we encourage people 
to tell us exactly what they think and exactly what their views 
are honestly and as forthrightly as possible. Otherwise there's 
no use in doing this at all.
    Again, I just can't emphasize enough, we understand from 
the beginning of this that this must be an act of Congress.
    Chairman Levin. Thank you.
    Admiral Mullen. Senator Sessions, for me this is about--
this is not about command influence. This is about leadership, 
and I take that very seriously.
    Chairman Levin. Thank you.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Secretary Gates, I want to say that I applaud your efforts 
in commissioning a thorough evaluation of DADT and how to 
implement a repeal of the policy in order to minimize 
disruption in military readiness. I was just wondering, within 
this study how will you study--how will the study take into 
account the views of the combatant commanders in theater in 
order to minimize any disruption in the military readiness?
    Secretary Gates. The combatant commanders and the Service 
Chiefs will all have a part in this. The one thing that I have 
asked is that as we go through this process we try to--try not 
to disrupt or impact the deployed forces, and particularly 
those in Afghanistan and Iraq. They have enough on their minds 
and it seems to me we can get the answers that we need to the 
questions that need to be asked by not adding to their burden. 
So the one limitation I've put on this, which obviously does 
not apply to the combatant commanders, is that we try and have 
as little impact on the deployed force as possible.
    Senator Hagan. Mr. Secretary and Admiral Mullen, as we move 
to end discriminatory practices within our Armed Forces, is 
there any reason to believe that the dedication and 
professionalism of our leaders in uniform is based in any way 
upon your sexual orientation, and that the moral fitness of our 
men and women should be based upon their sexual orientation? If 
not, then on what grounds do you believe that there remains a 
need to discriminate based on a servicemember's sexual 
orientation?
    Admiral Mullen. Senator Hagan, I personally don't think 
sexual orientation, again, has a place for these kinds of 
decisions. I actually, I think there's a gap between that which 
we value as a military, specifically the value of integrity, 
and what our policy is. But again, that's personally where I 
am. I think it's really in the review that would take place 
over the course of the next--by the end of this year, that I 
would look to certainly understand it much more fully, 
understand the impact if and when the policy changes, the 
impact on our people.
    That's really--rather than at the end of this, we're to 
some degree at the beginning of really trying to understand 
that. That's in light of many other opinions on this, including 
the opinions of those who've retired, all those things. But it 
really is--what I need to understand is to get it from our 
people and their families, and incorporating that in addition 
to all the other requirements that are here will be the goal of 
the review over the next better part of this year.
    Senator Hagan. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    I, too, am disappointed with this decision by the 
administration. But I'll say this for our two witnesses. They 
understand the chain of command. I think we understand that 
elections have consequences, and these two gentlemen see their 
charge as moving forward with the directives of their 
commander. I think Secretary Gates said it explicitly in his 
statement: ``We have received our orders from the Commander in 
Chief and we are moving out accordingly.''
    So we'll have a debate about this and we will appreciate 
the information that the Department gathers for us.
    Senator McCain referenced in his statement more than 1,000 
retired flag and general officers. Actually, I think it's 
upwards of 1,160 retired flag and general officers from all the 
armed services who have come out against a change in this 
policy. For my colleagues, their statement urging continued 
support for the 1993 law is contained at 
www.flagandgeneralofficersforthemilitary.com.
    I would commend to the members of this committee an op-ed 
written by Carl E. Mundy, Jr., a retired four-star general and 
former Commandant of the U.S. Marine Corps, who points out--who 
mentions the strong support for the current policy by this 
overwhelming number of retired flag and general officers, and 
points out that certain findings were made by Congress in 
support of the 1993 law to ensure clarity concerning the 
rationale behind the current statute. Key findings included 
that the primary purpose of the Armed Forces is to prepare and 
to prevail in combat, not to promote civil rights or social 
justice or compassion or individual fairness, but to prepare 
for and prevail in combat.
    Further findings include that success in combat requires 
military units that are characterized by high morale, good 
order and discipline, and unit cohesion; and further, that one 
of the most critical elements in combat capability is unit 
cohesion, that is the bonds of trust among individuals 
servicemembers.
    I would ask, Mr. Chairman, that this op-ed dated January 
12, 2010, by General Mundy be included in the record at this 
point.
    Chairman Levin. It will be made part of the record.
    [The information referred to follows:]

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Wicker. So I appreciate the situation that our two 
witnesses find themselves in and I look forward to the debate 
and hope that the policy remains.
    Thank you.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Gentlemen, let me see if we can review the facts here. This 
is obviously quite an emotional issue, but it's also a 
legislative issue. My understanding from hearing both of your 
statements is this year period that you're going to take in 
order to examine the issues will be followed then by clearer 
observations about the implications of changing the law. Would 
that be a correct way to state it? So you're not coming in here 
saying, we're going to change the law and this is the year that 
we're going to put into figuring out how to implement the 
change?
    Secretary Gates. Our hope would be that the information we 
would develop during the course of this review would help 
inform the legislative process.
    Senator Webb. Right. I salute both of you for very careful 
statements. Admiral Mullen, I salute you for the courage, for 
what you said, but I want to also emphasize that you balanced 
that in your statement saying you don't know what's going to 
come out of this. We don't know.
    What we're looking for here is an examination of the 
present law, what is the most damaging aspect of the present 
policy? I think, Admiral Mullen, you made a very powerful 
statement in terms of the integrity of the individual as your 
deciding factor on your personal view.
    What is, on the other hand, what's the great value of this 
law if we were to do away with it and move into something else? 
Again, what are the perils of undoing the law? Where are we 
going? Would we know we are going in the proper direction? We 
don't. We can't really say that today.
    I think that when you say that this is something that will 
ultimately be decided by Congress, I'd also like to emphasize 
my own agreement with what you have been saying about how 
important it is to hear from people who are serving, because 
whether the ultimate decision might be here with Congress, that 
decision can't be made in a proper way without a full and open 
input from all of those who are serving, not just combatant 
commanders--family members, people who are in the operating 
units.
    The way that I am hearing this, which I would agree with, 
is that we have a duty here in a very proper way to understand 
the impact of this on operating units, to raise the level of 
understanding of the complexity of this issue among the 
American people and up here, as well as attempting to deal 
fairly with this issue.
    So again, I salute you both for a very responsible and 
careful approach to how we examine this.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Webb.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Just as was stated by my friend Senator Udall, I think that 
a live and let live policy is not a bad policy to adhere to, 
and that's what we have in place in the military with DADT 
right now.
    To you, Secretary Gates and Admiral Mullen, you're in a 
tough spot and we understand that. This is an extremely 
sensitive issue. Everybody on this committee, I'm satisfied, is 
very sensitive to the issue, both inside and outside the 
military. In the military, it presents entirely different 
problems than it does in civilian life, because there is no 
constitutional right to serve in our Armed Forces. Today we 
know we have gay and lesbians soldiers serving. They've served 
in the past. They're going to serve in the future and they're 
going to serve in a very valiant way.
    But the primary purpose of the Armed Forces is to prepare 
for and to prevail in combat should the need arise. Military 
life is fundamentally different from civilian life in that 
military society is characterized by its own laws, rules, 
customs, and traditions, including restrictions on personal 
behavior that would not be acceptable in civilian society. 
Examples include alcohol use, adultery, fraternization, and 
body art. If we change this rule of DADT what are we going to 
do with these other issues?
    The Armed Forces must maintain personnel policies that 
exclude persons whose presence in the Armed Forces would create 
an unacceptable risk to the Armed Forces' high standards of 
morale, good order, and discipline, and unit cohesion. In my 
opinion, the presence in the Armed Forces of persons who 
demonstrate a propensity or intent to engage in homosexual acts 
would very likely create an unacceptable risk to those high 
standards of morale, good order and discipline, and effective 
unit cohesion and effectiveness.
    I'm opposed to this change and I look forward to a very 
spirited debate on this issue, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    I believe Senator Burris is next. Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    I'd like to extend my deep admiration for our two 
distinguished leaders and their position. Not only are you 
following the direction of the Commander in Chief, but, Admiral 
Mullen, you expressed your personal view, which is to be 
commended.
    What we need is a policy that allows any individual who has 
the integrity and the commitment to serve this country, to 
serve this country. We can go back to President Truman, who 
took the audacity to integrate the Services. At one time my 
uncles and members of my race couldn't even serve in the 
military. We moved to this point where they're some of the best 
and brightest that we've had, generals and even now the 
Commander in Chief is of African American heritage.
    So what we are doing here now is not looking at the 
integrity and the commitment that individuals can make, not 
based on their sexual orientation, but in defense of this 
country. I say the policy needs to be changed, the policy must 
be changed, and we must have everyone who is capable, willing, 
and able to volunteer to defend this country, defend this great 
American tradition of ours, to have the opportunity to serve 
regardless of their sexual orientation. So based on that, we 
must continue to have the American spirit and have individuals 
who are willing to serve.
    I don't have a question, Mr. Chairman. I just have this 
statement. I hope that we will look at legislation. By the way, 
the House has drawn up a bill. There are 185 members on this 
House bill. It's House Bill 1283 and I'm hoping and praying 
that we will get it and move on this issue and not be wasting 
the taxpayers' time and all of the energy on something that is 
so basic in human rights and opportunities for individuals in 
this country.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Burris.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Mr. Chairman, 
unlike my colleagues, I do have some questions rather than just 
a statement to ask.
    Admiral Mullen, we know that many of our NATO allies allow 
gays and lesbians to serve openly and many of these countries 
have deployed troops who are serving with us in Afghanistan. 
Are you aware of any impact on combat effectiveness by the 
decision of our NATO allies to allow gays and lesbians to serve 
openly?
    Admiral Mullen. Senator Collins, I've talked to several of 
my counterparts in countries whose militaries allow gays and 
lesbians to serve openly and there has been, as they have told 
me, no impact on military effectiveness.
    Senator Collins. We've heard today the concern that if DADT 
is repealed that it would affect unit cohesiveness or morale. 
Are you aware of any studies, any evidence, that suggests that 
repealing DADT would undermine unit cohesion?
    Admiral Mullen. I'm not. In fact, the 1993 RAND study 
focused heavily on unit cohesion and that became the principal 
point put forward by the military leadership at the time, and I 
understand that. I understand what it is, I understand what 
goes into it, and that there are--there's been no thorough or 
comprehensive work done with respect to that aspect since 1993. 
That's part of what needs to be addressed as we move forward 
over this year.
    Secretary Gates. I would just underscore that. Part of what 
we need to do is address a number of assertions that have been 
made for which we have no basis in fact.
    Senator Collins. Exactly.
    Secretary Gates. We need--the purpose of the review that we 
are undertaking is to find out what the force, what the men and 
women in our Armed Forces, and, as Senator Webb said, and their 
families really think about this. The fact is at this point we 
don't really know.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Collins.
    Senator Lieberman is next and then, assuming nobody else 
comes in, then Senator McCaskill would be next, and then 
Senator Reed. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    I opposed the DADT policy when it was created by this 
committee in 1993 and I remain opposed to it today. Therefore I 
support repealing it as soon as possible. My feeling, stated 
simply, then was that what mattered most was not how a member 
of the military lived his or her private sexual life, but that 
they were prepared to risk their lives in defense of our 
country; and that my judgment was that in a combat situation a 
member of the military in a tank or an MRAP today is going to 
care a lot more about the capability and courage of the soldier 
next to them than they are about the sexual orientation of that 
soldier, just as over the years, as Senator Burris referred to, 
they came to care a lot less about the race of the soldier next 
to them than about his or her courage or capability.
    Therefore, I'm grateful that the President has said he 
supports the repeal of DADT. I thank you, Secretary and 
Chairman, for saying that the question now is not whether, but 
how, and I think for us really when, we will repeal DADT. Am I 
right that what you're telling us today is that what you're 
going to do as soon as possible, at least after 45 days, is to 
determine how you can reduce the impact of the DADT within the 
current state of the law? Is that correct?
    Secretary Gates. Yes, sir. The numbers actually have gone 
down fairly substantially. They were about 600 and some in 
2008, 428 in 2009. We don't know--I mean, we can't quantify 
what the possible changes that I have talked about here, what 
impact they would have on that. But at least it would--if we 
are able to do something like that, would make these folks less 
vulnerable to somebody seeking revenge or whatever their 
motives in terms of trying to wreck somebody's career.
    Senator Lieberman. Am I correct, just to ask the question 
and get it on the record, that your judgment as advised by 
counsel is that it requires an act of Congress repealing DADT 
for the actual policy itself to be ended in the military? You 
can't do it by executive action.
    Secretary Gates. Yes, sir, that is correct.
    Senator Lieberman. I wanted to ask you if--I'm sure one of 
the reactions to what you announced today will be that this is 
a delay. I want to ask you to consider not only the 45-day 
limit, but whether you would think about providing regular 
reports to Congress, and therefore the public, on the progress 
of the study that you're doing during this next year?
    Secretary Gates. I don't see any reason why we can't do 
that.
    Senator Lieberman. I appreciate that.
    Then the final obviously is that it's up to us in Congress 
and in the Senate. We have to get 60 votes to repeal DADT or 
else it will remain in effect.
    Thank you.
    Chairman Levin. Unless there's a provision inside the 
defense authorization bill that goes to the floor, which would 
then require an amendment to strike it from the bill, in which 
case the 60-vote rule would be turning the other way.
    Senator Lieberman. It's good. It is with great appreciation 
that I accept the higher wisdom of the chairman of the 
committee. I think that's a great way to go.
    Chairman Levin. That's on the record, everybody. 
[Laughter.]
    Thank you, Joe.
    Senator McCaskill is next.
    Senator McCaskill. Thank you, Mr. Chairman.
    I just want to make sure that we're crystal clear about a 
couple of things here. First, are gay and lesbian Americans 
currently serving in our military?
    Admiral Mullen. Yes.
    Senator McCaskill. In fact isn't the foundation of the 
current policy that we welcome their service?
    Admiral Mullen. Yes.
    Senator McCaskill. Are you aware of any morale issues or 
disciplinary problems surrounding the current service of gay 
and lesbian Americans as members of our military?
    Admiral Mullen. Certainly not broadly.
    Senator McCaskill. Now, I think what you're embarking upon 
is important. I think it is welcome. But here's my problem. We 
now have established that we have gay and lesbian Americans 
serving in the military, that they are not broadly causing any 
kind of disciplinary or morale problems, that we welcome their 
service.
    So the issue isn't whether or not gay and lesbian Americans 
are serving in the military. It's whether or not we talk about 
it. So how are you going to get their input in this survey?
    Admiral Mullen. Actually, my take on that is--well, hang on 
a second. [Pause.]
    I think that we would have to look very carefully at how we 
would do that.
    Senator McCaskill. That's the point I would like to leave 
you with today, is that unfortunately because of this policy we 
welcomed their service. They're serving bravely and well. We 
don't have any kind of issues with morale and cohesiveness 
surrounding their service. But yet when it comes time to 
evaluate their service, they're not allowed to talk about it. 
So you have a real challenge in getting perhaps maybe some of 
the most important input you may need as you consider this 
policy. I'll be anxiously awaiting how you figure that one out.
    Admiral Mullen. Yes, ma'am.
    Senator McCaskill. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator.
    Secretary Gates. One approach, Senator, is to talk to those 
who have been separated.
    Senator McCaskill. I think that's terrific. I think the 
ones who have been separated would be a great place that you 
can get good information. But I don't know that you're going to 
be able to get at those that are currently serving, because 
obviously they're not going to e able to step forward and talk 
bout it. But I agree, Secretary Gates, that's a great place 
because so many of them voluntarily separated because of issues 
of integrity.
    Thank you
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Mr. Secretary, I want to follow up the point that Senator 
Collins made. It was my understanding that both Canada and the 
United Kingdom have allowed gays and lesbians to serve openly, 
in the case of Canada since the early 90s and Great Britain 
since at least early 2000. They are fighting side by side with 
us today in Afghanistan, and in fact I would think that we 
would like to see more of their regiments and brigades there.
    Does that I think suggest, as Admiral mentioned to me 
before, that their combat effectiveness has not been impaired 
and we've had the opportunity to work with them in joint 
operations. Does that add credibility, evidence, or weight to 
the discussions that you're undertaking?
    Secretary Gates. I think that it is clearly something we 
need to address. We need to talk to those countries' militaries 
in a more informal and in-depth way about their experience. I 
think that their experience is a factor, but I also would say 
that each country has its own culture and its own society and 
it has to be evaluated in those terms as well.
    Senator Reed. I think one of the aspects you referred to in 
your prepared remarks is the at least presumptive difference in 
terms of the attitudes at different ranks within the military. 
Is that something you can comment upon now? Have you done any 
research or, Admiral Mullen, can comment about the attitudes 
based on age or based on other factors?
    Secretary Gates. I think that really goes to the point of 
what we need to do in the months ahead. I think Admiral Mullen 
would agree that we don't know. We don't have information based 
on rank or anything like that.
    Admiral Mullen. Anecdotally, it would be my only comment: 
There really hasn't been any objective review of this. So I 
think it would be too soon to comment, because actually 
anecdotally, there are young poeople, noncommissioned officers, 
senior officers, on both sides this issue. It gets to this 
strongly held views driving this, as opposed to really 
understanding objectively what this policy change would mean.
    Senator Lieberman. Let me ask a final question, which I 
think is implicit in your overall testimony. That is--and this 
is rather simplistic, but there will be a decision and then 
there will be the implementation of that decision. I would 
assume that, at least in part, those have to be coordinated or 
referenced, so that part of this discussion and analysis going 
forward is not only a decision, but it's also about how this 
policy would be implemented in a very detailed fashion. That 
would be something that would be available to Congress before 
they made the decision, or can you comment at all about that 
aspect?
    Secretary Gates. Let me just start by saying, sure, because 
one of the things that we will look at is, if there is a 
problem with unit cohesion, how would you mitigate it? How 
through training or regulations or other measures do you--if 
Congress were to repeal the law, then how would we implement 
it, just as you say. Part of our review process is, as we look 
at the different aspects of it, what are the problem areas that 
we're going to see and how do we address those?
    As I said in my statement, it's everything from base 
housing to various policies and regulations and so on. All of 
those have to be addressed.
    Admiral Mullen. For me, Senator, it's understanding the 
impact. It is then in that understanding that speaks in great 
part to potential implementation, and that then really goes to 
the core of where I am on this, which is leadership. So I mean, 
understanding that and they are integral to each other, impact 
and implementation, then says to me, Mullen, here's how you 
lead this, this is what you need to do to move through it if 
the law changes.
    Senator Lieberman. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Just briefly following up Senator Reed and Senator Collins' 
point about other militaries, and Senator Reed's point that our 
military is fighting side-by-side and with militaries who do 
not have a discriminatory policy against open service by guys, 
have you noticed any impact on our troops who serve with 
Canadians or with Brits because of a British or Canadian policy 
that allows gays to openly serve? Admiral?
    Admiral Mullen. Since these wars started in 2003, it has 
not been brought to my attention that there's been any 
significant impact of the policies in those countries on either 
their military effectiveness or our ability to work with them.
    Chairman Levin. I have to make one comment on a suggestion 
that somehow or other, Admiral, you were simply following 
orders here of your Commander in Chief, who's made a decision, 
in your testimony this morning. I think your testimony was not 
only eloquent, but it was personal. You made it very clear that 
you were reflecting your personal view, which you are obligated 
under the oath you take to give to us. We thank you for that, 
and I thank you not just because it happens that I agree with 
what you said, but more importantly because you are required to 
give us a personal view, and it was clear to me and I think 
clear to most of us that this was a view that you hold in your 
conscience and not giving to us because you were directed to by 
anybody, including the Commander in Chief.
    This statement of yours in my judgment was a profile in 
leadership this morning. It's going to take a great deal of 
leadership to have this change made. I hope it is--the sooner 
the better, as far as I'm concerned. But with the kind of 
leadership you've shown this morning, I think it's very doable, 
hopefully in a short period of time.
    One other comment and that has to do with what can be done 
in the interim--you're going to be looking at that--without 
legislative change. Secretary, it's my understanding that when 
servicemembers are discharged under DADT with an honorable 
discharge, that DOD policy now is that they only receive half 
of their separation pay which is authorized by statute. You're 
authorized to either get half or full pay. Would you take a 
look at that as something we can do in the interim here to 
indicate a greater sense of fairness about this issue.
    You're sitting there quietly, Senator Udall. I should have 
asked, do you have a final question?
    Senator Udall. No, thank you.
    Chairman Levin. I thank you both. It's been a long hearing 
this morning and we very much appreciate you, the men and women 
that serve with you and your families. We will stand adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Robert C. Byrd
            tactical signals intelligence/electronic warfare
    1. Senator Byrd. Secretary Gates, it has been brought to my 
attention that during operations in Afghanistan, U.S. forces enter 
areas believed to be infiltrated by the Taliban and, because of the 
widespread availability of cell phone and satellite phone technology, 
their efforts to capture the enemy are thwarted when lookouts provide 
early warning of their approach. What efforts can be undertaken to 
provide readily available, comprehensive, and continuous support to 
defeat this enemy capability? Please provide a detailed response (in 
classified form, if necessary).
    Secretary Gates. [Deleted.]

    2. Senator Byrd. Secretary Gates, it has also been brought to my 
attention that during operations in Afghanistan, U.S. forces have had 
to rely on physical searches of caves and other dangerous areas to 
locate Taliban propaganda radio stations. What capabilities exist to 
locate and defeat these facilities, and are they sufficiently deployed 
to prevent these facilities from operating? Please provide a detailed 
response (in classified form, if necessary).
    Secretary Gates. [Deleted.]

        intelligence, surveillance, and reconnaissance programs
    3. Senator Byrd. Secretary Gates, the current ability of the Air 
National Guard (ANG) to perform its Incident Awareness and Assessment 
(IAA)/Intelligence, Surveillance and Reconnaissance (ISR) mission to 
support law enforcement, counter-narcotics, weapons of mass destruction 
response, search and rescue, border and maritime security, and National 
Security Special Events requirements within the United States has been 
degraded due to the transfer of 6 of the 11 ANG RC-26 aircraft to 
support Overseas Contingency Operations (OCO) as an enduring U.S. 
Central Command (CENTCOM) requirement. These transfers, combined with 
maintenance and upgrade requirements, have reduced the number of 
available aircraft in the Continental United States to as few as one 
operational aircraft at times. What efforts are underway to 
reconstitute this domestic capability?
    Secretary Gates. No timeline has been established for the return of 
the six RC-26 aircraft supporting OCO in the CENTCOM area of 
responsibility. Although I do not expect the RC-26 to be permanently 
deployed, I anticipate the aircraft will maintain a prolonged presence 
in theater to help offset the current airborne full motion video 
shortfall.
    The ANG is nearing completion of a capabilities based analysis that 
will identify domestic requirements for a fixed-wing aircraft with 
capabilities similar to those on the RC-26 (results expected in May 
2010). This analysis will provide a basis for which the U.S. Air Force 
and ANG can better identify and fill domestic incident awareness and 
assessment requirements.

    4. Senator Byrd. Secretary Gates, are sufficient ISR assets 
currently dedicated to U.S. Africa Command? Please explain (in 
classified form, if necessary).
    Secretary Gates. [Deleted.]

                           medical evacuation
    5. Senator Byrd. Secretary Gates, the progress being made in 
Afghanistan by the United States in connection with minimizing the time 
between battlefield injury and arrival at a facility with surgical 
capabilities is admirable, and the performance of our medical 
evacuation and combat search and rescue crews can only be described as 
heroic. Are you committed to maintaining the current standard in 
Afghanistan as additional forces are deployed and operations spread 
over a larger geographic area?
    Secretary Gates. [Deleted.]

    6. Senator Byrd. Secretary Gates, several of our North Atlantic 
Treaty Organization (NATO) allies also provide medivac support in areas 
occupied by U.S. forces. What efforts are underway to shorten the NATO 
90-minute standard for medical evacuation from the battlefield?
    Secretary Gates. Less than a year ago (June 18, 2009), 
International Security Assistance Force Command (COMISAF) issued 
Fragmentary Order 318-2009 (Reassessment of Medical Evacuation 
(MEDEVAC) timelines) reducing the NATO standard for MEDEVAC timelines 
from 120 minutes to 90 minutes. COMISAF also directed that the regional 
commands conduct assessments to determine whether service personnel are 
receiving appropriate and expedient medical care. General McChrystal's 
goal is for medical treatment to be made available to all assigned 
forces of International Security Assistance Force (ISAF)/U.S. Forces-
Afghanistan (USFOR-A) within 60 minutes of receipt of the medical 
request. The current COMISAF MEDEVAC plan is based on the 60-minute 
standard, and includes aircraft necessary to meet this timeline.
    Additionally, the Departments of Defense and State continue to 
encourage our Allies and partners to invest in additional helicopters 
and the associated technology required for MEDEVAC in adverse 
conditions, as well as to drop those caveats that preclude currently 
deployed airframes and aircrew from responding in a timely manner.

    7. Senator Byrd. Secretary Gates, I have been informed that certain 
NATO allies have caveats on their medical evacuation aircraft that 
limit their support during certain times of the day and under certain 
battlefield conditions. When U.S. combat forces operate in these areas, 
they are often required to provide their own medical evacuation 
capabilities because of the NATO 90-minute standard and the caveats on 
their operations. What is being done to remedy this issue?
    Secretary Gates. Seven nations currently have caveats on MEDEVAC 
missions that include minimum night vision goggle illumination 
requirements, dust limitations, constraints on flying in mountainous 
terrain, requirements for landing zones to be secured, or have higher 
headquarters approval processes. Although the Departments of Defense 
and State consistently appeal to ISAF nations to remove operationally 
restrictive caveats, we are realistic that limitations in training, 
budgets, and political desire will preclude all caveats being dropped. 
Therefore, as part of the President's increase in forces to 
Afghanistan, a Combat Aviation Brigade (CAB) is being deployed in RC-
North to provide, among other missions, timely MEDEVAC coverage. 
Additionally, General McChrystal has directed regional commanders to 
ensure that all Allied service personnel receive appropriate and 
expedient medical care, ideally within 60 minutes of receipt of a 
MEDEVAC request.
    To support achievement of the goal of 60 minutes for our service 
men and women, in June 2009 I issued a memorandum to Commander, U.S. 
CENTCOM directing him to achieve medical evacuation parity between 
Operation Iraqi Freedom and Operation Enduring Freedom, with the 
standard for both theaters at 60-minute mission completion time. I 
further instructed General Petraeus to improve MEDEVAC response times 
in Afghanistan by:

    (1)  establishing procedures to expedite MEDEVAC mission launches 
without having to wait for approval;
    (2)  creating a process to identify, analyze, and report all 
MEDEVAC missions that take longer than 60 minutes;
    (3)  reviewing existing MEDEVAC approval and launch procedures 
across Afghanistan;
    (4)  directing USFOR-A to review ISAF/NATO procedures and Standard 
Operating Procedures, and making recommendations to ISAF for 
streamlining current requirements; and
    (5)  requiring all U.S. forces in the USCENTCOM to review and 
understand existing MEDEVAC procedures.

    8. Senator Byrd. Secretary Gates, the fiscal year 2011 budget 
request supports creation of two CABs. What is the timetable for 
standing up these units?
    Secretary Gates. The 12th Active Component CAB, currently 
designated the 16th CAB, is planned to be fully operational by 2012. 
The majority of the personnel requirement for this CAB already exists, 
as this formation was consolidated utilizing existing aviation force 
structure. Some personnel growth is required to grow the headquarters 
for an assault battalion, an aviation support battalion, and the 
brigade headquarters; the spaces required for these formations were 
resourced in Total Army Analysis 12-17 (TAA 12-17).
    The Army Staff will present a recommendation for stationing 
location and timelines for the 13th Active component CAB to the 
Secretary of the Army (SecArmy) and Chief of Staff, Army (CSA) in late 
May 2010. There are multiple courses of action affecting the 
recommendation for the final stationing timeline which are dependent on 
available military construction, equipping and production line 
capabilities. Once the SecArmy and CSA have made their final stationing 
timeline decision we will be able to provide Congress with an expected 
timeline and final stationing locations for these units.

    9. Senator Byrd. Secretary Gates, will priority be given to the 
standup of the associated medivac companies to support combat medical 
evacuation in Afghanistan?
    Secretary Gates. [Deleted.]

    10. Senator Byrd. Secretary Gates, what procurement is planned for 
fiscal year 2011 to ensure that these units are able to be fielded as 
rapidly as possible?
    Secretary Gates. One of the two CABs is being reorganized from 
existing aviation force structure and will not require additional 
procurements. The second CAB is being built incrementally as manning 
and equipment become available. Fiscal year 2011 procurement includes 4 
CH-47F helicopters, 16 UH-60M, and 2 HH-60M MEDEVAC helicopters.

    11. Senator Byrd. Secretary Gates, of the UH-60M aircraft proposed 
for procurement in fiscal year 2010 and fiscal year 2011, how many will 
be allocated to replace the aging fleet of UH-60A aircraft currently 
being used for medical evacuation?
    Secretary Gates. Due to a growth in medical evacuation requirements 
across the Army, the Army projects that it will not start replacing UH-
60A aircraft with HH-60M aircraft until fiscal year 2015. Prior to 
fiscal year 2015, the HH-60Ms that the Army procures will fill the new 
requirement for additional MEDEVAC aircraft.

    12. Senator Byrd. Secretary Gates, the Afghanistan mission of the 
aging fleet of combat search and rescue aircraft has been expanded to 
include medical evacuation. This means that the direct combat support 
role of these HH-60 aircraft and the associated wear and tear on these 
aircraft has been dramatically increased. How many additional HH-60 
aircraft will be procured in fiscal year 2010 and fiscal year 2011 to 
replace existing combat search and rescue aircraft?
    Secretary Gates. The Air Force is purchasing four HH-60 aircraft in 
fiscal year 2010 and the fiscal year 2011 budget requests the purchase 
of three additional HH-60 aircraft during fiscal year 2011. There are 
an additional three aircraft identified in the fiscal year 2011 OCO 
request.

    13. Senator Byrd. Secretary Gates, the wars in Iraq and Afghanistan 
have placed a dramatic strain on the UH-60 aircraft. What is the 
principal factor limiting the acquisition of new aircraft to support 
the UH-60 mission: production capacity, cost, lack of available or 
appropriate alternative aircraft, or some other reason?
    Secretary Gates. The Army is committed to procure UH-60M aircraft 
as part of the Army's overall plan to modernize the UH-60 Blackhawk 
Fleet. The UH-60 fleet is the largest helicopter fleet in the U.S. 
Army. The Army manages its UH-60 fleet modernization using Army force 
generation requirements to meet operational demands. There are no 
constraints to acquire the full number of aircraft required within 
budgeted resources. The maximum UH-60 production capacity has not been 
exceeded and the Army is procuring over 70 UH-60M aircraft each year 
through fiscal year 2015 for a total of 451 aircraft.

                   improvised explosive device defeat
    14. Senator Byrd. Secretary Gates, in Afghanistan, the largest 
percentage of U.S casualties is being suffered directly from the 
employment of improvised explosive devices (IEDs) by enemy forces. What 
is the status of your review regarding IED defeat in Afghanistan and 
when can forces on the ground expect to see additional support?
    Secretary Gates. We have a number of very forward-leaning efforts 
underway to try and deal with the challenge of IEDs. Last November, I 
asked the Undersecretary of Defense for Acquisition Technology and 
Logistics (AT&L) and the Joint Staff, Director of Operations (J-3), to 
co-chair an effort focused on integrating Counter-IED programs across 
the Department of Defense (DOD). They made a number of recommendations, 
most recently to significantly enhance long-term full motion video 
platforms like aerostat blimps. In addition to this larger integration 
effort the theater commanders increased their requirement for Mine-
Resistant Ambush-Protected (MRAP) vehicles, particularly the MRAP all-
terrain vehicles. There is an additional requirement that is funded, or 
reflected in the OCO request, for approximately 10,000 more MRAPs--
6,600 of those will be the all-terrain version that is designed 
specifically for Afghanistan. Another important step has been to work 
collaboratively with the Government of Afghanistan to ban ammonium 
nitrate, the ingredient in the most prevalent IEDs in Afghanistan. 
Afghan National Security Forces and the coalition are aggressively 
pursuing smuggling networks that bring ammonium nitrate into the 
country to be used for making IEDs.

              rapid prototyping and acquisition capability
    15. Senator Byrd. Secretary Gates, as you know, when a requirement 
is received from the battlefield, it is almost always a current 
requirement. However, the defense acquisition process is not set up in 
such a way to facilitate immediate or near-term fulfillment of these 
requirements. In many cases, these requirements can be met immediately. 
In other cases, minor modifications to existing technologies can be 
made. In past wars, when the United States was less dependent on 
contractor support, these modifications could be made on the fly, often 
in the theater of operations. Similar requirements are being developed 
today. However, because of the current force structure and requirements 
process, these modifications or off-the-shelf requirements languish 
while our forces remain at risk. What efforts are currently underway to 
develop rapid prototyping and rapid acquisition capabilities and 
centers to address these requirements as quickly as possible?
    Secretary Gates. Operations Iraqi Freedom and Enduring Freedom 
clearly demonstrated the importance of developing a Departmental 
structure capable of rapidly responding to urgent warfighting needs. To 
respond to these urgent requirements, the Department has created 
several organizations that work with the Services to provide rapid 
prototyping and rapid acquisition. The Joint IED Defeat Organization 
(JIEDDO) and the Rapid Fielding Directorate (RFD) within the Director 
of Defense Research and Engineering (DDR&E) are indicative of flexible 
organizations focused on expeditiously addressing the Joint urgent 
operational needs of our warfighters. When necessary, I have also 
formed task forces to quickly respond to emerging threats, such as the 
MRAP and the ISR Task Forces. Additionally, each of the Services and 
the U.S. Special Operations Command (SOCOM) have developed rapid 
acquisition processes to respond to Service-specific urgent needs.
    Rapid prototyping and rapid acquisition have enabled the Department 
to develop and field the all-terrain version of the highly successful, 
MRAP vehicle. The MRAP program made excellent use of rapid prototyping 
and rapid acquisition to accelerate schedules and deliveries of this 
lifesaving, highly effective vehicle. Additionally, within the last 6 
months, the Department has used the Joint Capability Technology 
Demonstration (JCTD) Program to rapidly develop and demonstrate 
persistent ground surveillance technologies that will directly benefit 
U.S. Forces in Afghanistan. The success of this recently accelerated 
JCTD (Persistent Ground Surveillance System (PGSS)) will deliver 
increased force protection and persistent surveillance sensors and 
command and control. The rapidly developed and procured Distributed 
Tactical Communication System now permits remote forces to stay in 
contact with friendly forces. The Transnational Information Sharing 
Cooperation (TISC) JCTD's ``All Partners Access Network'' is enabling 
U.S. Southern Command (SOUTHCOM) to coordinate with non-governmental 
organizations, coalition and interagency partners in support of Haitian 
disaster relief. Each of these systems was rapidly developed to respond 
to Warfighter and humanitarian assistance needs in less time than 
conventional defense systems.
    As I have previously stated, stability and counter-insurgency 
missions require 75 percent solutions over a period of months. The 
Department is infusing innovative thinking and flexibility into its 
sometimes rigid procurement processes and adapting our policies and 
organizations to rapidly meet today's threats to servicemembers and 
missions.

                           special operations
    16. Senator Byrd. Secretary Gates, it has come to my attention from 
a variety of sources that U.S. Special Operations Forces (SOF) in 
Afghanistan do not have sufficient medivac, manned ISR platforms, and 
dedicated air assets. As a result, forces are at increased risk. What 
is being done to remedy this situation?
    Secretary Gates. Deployed SOF in Afghanistan currently have 
sufficient medevac resources to support current operational 
requirements.
    Personnel training is the biggest factor limiting how fast DOD can 
deliver more manned ISR platforms to Afghanistan. Training pipelines 
for ISR operators and intelligence analysts are operating at maximum 
throughput to operate and employ newly acquired hardware, and DOD 
continues to ensure proper numbers and placement of analysts to 
effectively collect, analyze, and exploit intelligence data.
    To address the current need for battlefield mobility, one 
additional MH-47 will be delivered to Afghanistan in May, and two 
additional Chinooks will arrive in December 10 and June 11, 
respectively. Additionally, five CV-22s deployed in April to support 
SOF mobility requirements in Afghanistan, to include vertical lift. DOD 
is also accelerating delivery of CV-22s to better support the forces 
requiring them, and the Department anticipates adding five more CV-22s 
to the fleet in the coming year. Additionally, Program Objectives 
Memorandum (POM) initiatives will grow SOCOM's helicopter fleet by 
eight MH-47 Chinooks by fiscal year 2015, and SOCOM's CV-22 Osprey 
fleet will grow from the current 12, to 50 by 2016.

    17. Senator Byrd. Secretary Gates, when can these units expect to 
receive additional support? Please provide a detailed response (in 
classified form, if necessary).
    Secretary Gates. Deployed SOF in Afghanistan currently have 
sufficient medevac resources to support current operational 
requirements.
    Personnel training is the biggest factor limiting how fast DOD can 
deliver more manned ISR platforms to Afghanistan. Training pipelines 
for ISR operators and intelligence analysts are operating at maximum 
throughput to operate and employ newly acquired hardware, and DOD 
continues to ensure proper numbers and placement of analysts to 
effectively collect, analyze, and exploit intelligence data.
    To address the current need for battlefield mobility, one 
additional MH-47 will be delivered to Afghanistan in May, and two 
additional Chinooks will arrive in December 10 and June 11, 
respectively. Additionally, five CV-22s deployed in April to support 
SOF mobility requirements in Afghanistan, to include vertical lift. DOD 
is also accelerating delivery of CV-22s to better support the forces 
requiring them, and the Department anticipates adding five more CV-22s 
to the fleet in the coming year. Additionally, POM initiatives will 
grow SOCOM's helicopter fleet by 8 MH-47 Chinooks by fiscal year 2015, 
and SOCOM's CV-22 Osprey fleet will grow from the current 12, to 50 by 
2016.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
              foreign language development strategic plan
    18. Senator Akaka. Secretary Gates, the Government Accountability 
Office (GAO) recently reported that while DOD is developing a foreign 
language development strategic plan, DOD doesn't know when it will be 
finished. In the absence of an approved plan, it will be difficult for 
DOD to guide the Services as it develops its approach to foreign 
language and regional proficiency transformation. Furthermore, it will 
be difficult for DOD and Congress to assess progress toward a 
successful transformation. Do you have an estimate as to when DOD will 
issue a strategic plan?
    Secretary Gates. The Department is nearing completion of its 
strategic plan for language skills, regional expertise, and cultural 
capabilities. We anticipate its release by late summer of 2010.

    19. Senator Akaka. Secretary Gates, how will this plan address the 
development of foreign language skills for all servicemembers to better 
perform warfighting and non-warfighting activities?
    Secretary Gates. The strategic plan, built on the foundation laid 
in numerous strategic documents, will address the development of 
foreign language skills by focusing on identifying needed capabilities 
and requirements of the combatant commands and Defense Agencies. The 
plan will also outline specific steps how to build these capabilities 
into the Department.
    The strategic plan is designed to provide a comprehensive, 
systematic, and actionable way ahead. The plan's vision statement, 
goals, objectives, and tasks will focus on building and enhancing 
language skills, regional expertise, and cultural capabilities as vital 
enablers for the Department to shape and respond to national security 
issues. The desired result will be the institutionalization of language 
skills, regional expertise, and cultural capabilities across the 
Department and the generation of a globalized force, with the right 
combination of skills and in the right numbers, equipped with the 
capabilities needed to meet the diverse operational needs of the 21st 
century.

                     asia-pacific region readiness
    20. Senator Akaka. Secretary Gates, it is impossible to overstate 
the importance of our military engagement in the Asia-Pacific region. 
It's obvious that there are many challenges in this area, given the 
administration's emphasis on this vital region. If one looks at 
continuing developments in the Pacific, our conventional adversaries 
are getting better and it is critical we maintain our superiority in 
the region. Given the many demands on the defense budget and the unique 
mission and environment we have in the region, how does DOD's fiscal 
year 2011 budget impact our military readiness in the Pacific region?
    Secretary Gates. The fiscal year 2011 budget request supports the 
Quadrennial Defense Review (QDR) which identifies the unique mission 
and environment of the Pacific Region. The United States has been a 
Pacific power for more than a century. The vast distances of the 
Pacific and the low density of U.S. basing and infrastructure there 
place a premium on forward stationed and forward-deployed U.S. forces. 
We seek to sustain and strengthen our Asia-Pacific alliances and 
partnerships to advance mutual security interests and ensure 
sustainable peace and security in the region, while also promoting 
contributions by our allies and partners to global security. Toward 
this end, the fiscal year 2011 budget request supports augmenting and 
adapting our forward presence, which reassures allies of the U.S. 
commitment to their security. At the same time, we will encourage our 
allies and partners to enhance their roles in security and in regular 
multilateral security cooperation within the region to build trust, 
increase transparency, and reduce the risks of crisis or conflict.

                   u.s.-pakistan military engagement
    21. Senator Akaka. Secretary Gates, you were recently quoted in a 
speech at the Pakistan National Defense University that rebuilding 
relationships with this generation of Pakistani officers--who have had 
little or no interactions with the American military--cannot be done in 
just a few months. Rather, it will take years--requiring openness, 
transparency, and, above all, continuous engagement on both sides. What 
is U.S. and Pakistan progress in this area and how we can improve?
    Secretary Gates. Critical relationships are built through many 
aspects of DOD's engagement program. For example, under the 
International Military Education and Training (IMET) program and the 
Combating Terrorism Fellowship Program (CTFP), DOD brings Pakistani 
officers into U.S. Professional Military Education (PME) programs, 
where they and their families can gain an appreciation for the United 
States and its citizens that pays dividends long after the officers 
return to Pakistan. Within Pakistan, the best examples are the training 
and equipping activities that U.S. forces carry out every day in 
various locations throughout the country-coaching, teaching, mentoring, 
and enabling soldiers, noncommissioned officers (NCOs), and officers.
    These opportunities, and the progress achieved through them, are 
difficult to quantify because they are based on the complexity of 
personal contacts and commitment; nonetheless, the progress is quite 
real. As an example, from fiscal year 2009 to fiscal year 2010, 
Pakistan IMET funding rose from $2.3 to $5.0 million, which supported 
132 Pakistani students in fiscal year 2009 and is forecasted to support 
197 students in fiscal year 2010. We continue to seek to expand 
opportunities for such interchanges through IMET and other avenues. 
Where DOD has built such relationships, the PAKMIL leaders with whom 
DOD interacts have allowed us to expand our training and assistance, 
teach PAKMIL forces far more sophisticated tactics, and the 
fundamentals of Military Intelligence. Conversely, in those places and 
with those PAKMIL units where we are still struggling to build such 
relationships, there has been far less progress.
    The primary organization that engages the Pakistani Military 
(PAKMIL) on a continuous basis is the Office of Defense Representative 
Pakistan (ODRP) in Islamabad, Pakistan. This joint military 
organization, led by the three-star flag officer who also commanded our 
Humanitarian Relief efforts after the 2005 earthquake in Pakistan, 
provides the direct, military-to-military engagement for U.S. CENTCOM 
and DOD.
    ODRP's ongoing efforts to strengthen and enable the PAKMIL's 
ongoing combat operations against violent extremist organizations are 
fundamentally based on the establishment and nurturing of personal 
relationships with a broad range of PAKMIL officers and servicemembers. 
The ``trust gap'' that divides our countries and our militaries is 
quite real, and will take years to overcome. By focusing on personal 
relationships, DOD has learned that it can still create opportunities 
for real progress in achieving DOD's goals to improve the PAKMIL's 
skills in conducting counterinsurgency operations and strengthening its 
defense capabilities.
    We also utilize the DOD's Near East South Asia (NESA) Center's 
initiatives, which host Pakistani military officers and familiarize 
them with U.S. political values, governmental structures, policymaking 
processes, and policies related to South Asia and other regions of 
special interest to Pakistan. These initiatives are another essential 
piece in building the U.S.-Pakistan military relationship.

                    electronic health record systems
    22. Senator Akaka. Secretary Gates, the National Defense 
Authorization Act (NDAA) for Fiscal Year 2008 required DOD and the 
Department of Veterans Affairs (VA) to accelerate their exchange of 
health information and to develop capabilities that allow for 
interoperability (generally, the ability of systems to exchange data) 
by September 30, 2009. It also required compliance with Federal 
standards and the establishment of a joint interagency program office 
to function as a single point of accountability for the effort. In a 
January 2010 report, the GAO noted that the DOD-VA interagency program 
office is not yet positioned to function as a single point of 
accountability for the implementation of interoperable electronic 
health record systems or capabilities. In addition, GAO also stated 
that if the program office does not fulfill key management 
responsibilities as GAO previously recommended, it may not be 
positioned to function as a single point of accountability for the 
delivery of future interoperable capabilities, including the 
development of the virtual lifetime electronic record. What is the 
status of the virtual lifetime electronic record?
    Secretary Gates. Following the President's announcement of April 9, 
2009, DOD and VA accelerated efforts already underway to develop an 
approach to achieve the Virtual Lifetime Electronic Record (VLER). On 
August 21, 2009, the Deputy Secretaries of Defense and Veterans Affairs 
endorsed a development approach for VLER's health component, leveraging 
the Federal Health Architecture's Nationwide Health Information Network 
(NHIN) concept and standards. The VLER approach is multi-phased. The 
initial two phases will aid in defining additional pilots and the VLER 
implementation timeline, which is anticipated to occur in six month 
increments.
    A VLER Pilot in San Diego was implemented on January 30, 2010. The 
San Diego Pilot participants were DOD's Naval Medical Center San Diego, 
VA's San Diego Medical Center, and Kaiser-Permanente. They demonstrated 
the use of the NHIN to exchange a selected set of data elements of a 
``Continuity of Care'' document. Kaiser Permanente is a contract 
provider for VA, but not for DOD in the San Diego area, so DOD had no 
shared patients with Kaiser Permanente. Lessons learned from the San 
Diego Pilot are being incorporated into the next Pilot in Tidewater, 
Virginia.
    Subsequent phases of VLER will include additional VA and DOD sites, 
live patient information, expanded data domains, different document 
types, and the ability for additional civilian sector partners to 
participate. VLER will build on the San Diego Pilot data set and expand 
it initially to Naval Medical Center Portsmouth, the VA Medical Center 
Hampton, and private sector partners in the Tidewater/Hampton Roads 
area in Virginia. The target date for activation of Phase 1b is July 
31, 2010. The hospitals at Fort Eustis and Langley Air Force Base will 
be incorporated into the pilot after the initial activation. The 
Departments anticipate selecting additional sites for implementation by 
January 31, 2011.

    23. Senator Akaka. Secretary Gates, what is your assessment of the 
progress being made and what are your thoughts on how the DOD and VA 
should proceed?
    Secretary Gates. The Departments of Defense (DOD) and Veterans 
Affairs (VA) are making substantial progress with electronic health 
record (EHR) systems. Historically, their respective systems existed in 
mutually exclusive lifecycles, with DOD serving beneficiaries from 
accession until retirement or separation and VA providing services from 
that point forward. Each Department's EHR capability evolved to meet 
functional requirements, mission-specific and shared. Each Department 
also developed a system to obtain clinical information from private 
providers of purchased care.
    The historical EHR model is evolving as the Departments collaborate 
on and deliver health information technology solutions that improve the 
secure sharing of electronic benefits, personnel, and health 
information. Today, DOD and VA share more health information for 
clinical use than any other two health organizations in the Nation. 
Each Department has real-time access to the other's health data on more 
than 3.5 million shared patients, including over 173,300 patients who 
are in theater. Further, since 2001, DOD has securely shared 1.6 
terabytes of data on over 5.0 million patients using the Federal Health 
Information Exchange initiative. Shared data includes patient 
demographic data, medication and allergy data, laboratory results, 
radiology reports, discharge summaries, consult reports, and health 
assessments.
    Today, each Department is modernizing its EHR capability and 
migrating from outdated legacy technologies to enable more rapid, 
flexible, and scalable responses to evolving national health care and 
computer industry standards. Common requirements will be treated as 
opportunities to consider common capabilities. A disciplined process 
for reviewing and identifying potential opportunities for shared 
acquisition or development is in place to ensure that shared efforts 
support the effective execution of each Department's medical mission. 
The end-to-end lifecycle of health care will become a seamless process.
    The Departments' efforts coincide with the movement to national 
standards led by the Department of Health and Human Services. As the 
Nation develops an increased capability for health information exchange 
using the Nationwide Health Information Network (NHIN) portfolio of 
services, DOD and VA are developing a Virtual Lifetime Electronic 
Record (VLER) that will employ NHIN services. Over time, VLER will 
become the primary method for DOD and VA to exchange clinical 
information with each other and with purchased care providers in the 
private sector. Until then, legacy system interoperability will be 
maintained.

                            futenma airbase
    24. Senator Akaka. Secretary Gates, there has been growing concern 
over a possible delay of the implementation of the move of the Futenma 
Airbase on Okinawa's remote east coast. Japan has said that it needs 
more time to consider the base's future following recent elections. 
What is your assessment of the situation and how does DOD plan to 
proceed?
    Secretary Gates. I recognize that implementing the Futenma 
realignment agreement has been a challenge. The process has spanned 
three U.S. administrations and multiple Japanese cabinets.
    Prime Minister Hatoyama has stated that he intends to resolve the 
issue by May. I look forward to resuming work with the Government of 
Japan to fulfill our longstanding mutual objective of realigning our 
force posture in Japan to ensure that the Alliance's operational 
capabilities remain sustainable politically and operationally.

                         don't ask, don't tell
    25. Senator Akaka. Secretary Gates, in the President's State of the 
Union speech, he said he will work with Congress and the military to 
repeal Don't Ask, Don't Tell (DADT). DOD has a lot on its plate, from 
fighting two wars, supporting contingency operations in Haiti, to 
trying to build and maintain the best military force in the world in a 
fiscally constrained environment. What are the men and women in uniform 
telling you regarding this issue?
    Secretary Gates. As I announced in my statement previously before 
this committee, I have appointed a high-level Working Group within the 
Department to review the issues associated with properly implementing a 
repeal of the Don't Ask, Don't Tell policy. Over the course of the next 
8 months members of the Working Group will meet with a wide array of 
individuals of all Services, ranks, ages and assignments, officers and 
enlisted, to seek their advice, opinions, and concerns regarding a 
repeal and how it should be implemented.

    26. Senator Akaka. Admiral Mullen, a repeal of DADT will have an 
effect on many levels of the military. As a former commander, you have 
had to deal with how changes in policy have affected those under your 
command. It has been argued that a repeal could present some very 
complicated issues in the daily lives of our military. It has also been 
said that these resulting changes could affect morale and discipline in 
the ranks. Have you had the opportunity to talk to military leaders of 
our allies who allow individuals to serve in their militaries 
regardless of sexual orientation? Please provide comments on anything 
that you have learned from them.
    Admiral Mullen. I am familiar with the militaries of a number of 
countries, typically western-style democracies, that have lifted the 
ban on homosexual conduct. I have spoken with the chiefs of many of 
these militaries. Their experiences are informative, but as the 
Congressional Research Service notes, we must be careful in making 
comparisons to other militaries. Our military is uniquely American, 
shaped by our unique national experience. I want to understand the 
range of issues repeal presents within our forces, and how those issues 
might be managed.
    That is why we are undertaking a comprehensive review of the issue 
to better understand the dynamics of any repeal.

                  suicide prevention conference report
    27. Senator Akaka. Admiral Mullen, suicide prevention is difficult 
and challenging. There have been a lot of people in the Services and 
the VA who have worked diligently on this issue. The Services have 
experienced a rise in the number of suicides since the wars in 
Afghanistan and Iraq started. There is a need to understand suicide, 
look at the causes, and get to a point where we can prevent it. I would 
like to request a report on the results of the recent DOD/VA 2010 
Suicide Prevention Conference. In particular, what follow-up actions 
are to be required from the two departments, as well as what is the 
timeframe which specifies the goals and actions that are to be 
achieved?
    Admiral Mullen. The 2010 DOD/VA Suicide Prevention Conference, 
Building Strong and Resilient Communities, was attended by 
approximately 980 people from DOD, VA, the Services, and other Federal 
and civilian agencies. The conference was hosted by the Suicide 
Prevention and Risk Reduction Committee (SPARRC), which is chaired by 
the Defense Centers of Excellence for Psychological Health and 
Traumatic Brain Injury and VA and also includes representatives from 
DOD, the Services, and other Federal agencies. The conference 
demonstrated the progress DOD and VA have made in suicide prevention 
efforts, but also identified six key areas that need additional 
attention, including families; dissemination of resources; postvention 
activities; reducing stigma; building resilience; and additional 
research. Postvention refers to all activities after a suicide event. 
The SPARRC members and its partners will continue to collaborate this 
year to address some of the most pressing suicide prevention issues as 
highlighted during the conference.
    The conference identified the need for additional outreach, 
training, and education for families. Families should be viewed as the 
first line of defense in recognizing the signs and symptoms associated 
with suicide risk. SPARRC has formed a family subcommittee, which 
includes representatives from the Services, National Guard, and 
Reserves to focus on the needs of families, such as outreach, 
education, and training. During the course of calendar year 2010, the 
subcommittee will identify the most pressing needs of family members 
and provide recommendations on how SPARRC can best address those gaps. 
The subcommittee held its first meeting in March 2010 and will provide 
recommendations to the SPARRC in December 2010.
    The dissemination of resources and tools to servicemembers, 
veterans, and families is another area that requires additional focus. 
Many innovative resources and tools currently exist, but 
servicemembers, veterans, families, and clinicians need to be aware of 
and have access to them. Populations in rural areas, particularly as it 
pertains to the National Guard, Reserves, and veterans are especially 
difficult to reach. One of the top priorities this year is to launch 
the SPARRC website. This website will serve as a ``clearinghouse'' for 
suicide prevention resources and practical tools for servicemembers, 
veterans, families, and clinicians. It will also create a collaborative 
space and allow for further improvement of dissemination and sharing of 
resources. An easily accessible web-based location for resources will 
ensure servicemembers, veterans, families, and clinicians know where to 
go for help and have access to critical resources no matter where they 
are located.
    The conference emphasized the need for consistent postvention 
activities within DOD. To address this issue, SPARRC has formed a 
working group to draft a DOD policy memo on postvention activities. 
Members of the working group will include representatives from the 
Services, National Guard, Reserves, VA, other Federal partners, as well 
as civilian organizations. The group will leverage existing postvention 
initiatives and best practices to develop a policy applicable to DOD. 
The working group expects to have a draft completed by September 2010.
    First hand testimonies from the conference emphasized the 
importance of seeking help, support and treatment. Stigma remains a 
toxic threat to access to care and needs to be eliminated. SPARRC and 
its partners will continue working to proactively transform culture 
through public education campaigns such as Real Warriors 
(www.realwarriors.net), the Marine Corps ``Cover Me'' video, and 
numerous other efforts to reduce stigma and encourage help-seeking 
behaviors to prevent suicide. Reducing stigma is an ongoing effort that 
DOD and VA will engage in throughout year.
    The conference also demonstrated the importance of engaging leaders 
at all levels to proactively mitigate risk through building resilience. 
The second highest priority highlighted by the Chairman of the Joint 
Chiefs of Staff's strategic guidance for 2009-2010 states, ``we will 
focus on Health-of-the-Force by considering holistically how to better 
prepare our force and care for our people.'' Development of a Chairman 
of Joint Chiefs of Staff Instruction (CJCSI) is currently underway to 
address Total Force Fitness based on the CJCS's guidance. The estimated 
completion date for the CJCSI is fiscal year 2011.
    Finally, the conference highlighted the need for additional 
research and evidence-based models. The RAND Corporation conducted a 
study to identify state of the art suicide prevention practices. This 
effort was discussed at the conference and the results will be 
disseminated by May 2010. The Department will continue to engage in 
other research efforts to inform suicide prevention efforts throughout 
the DOD.
    SPARRC and its partners will work aggressively this year to 
accomplish these initiatives, but also recognize that suicide 
prevention is an ongoing effort. Continued collaboration between SPARRC 
members will ensure completion in a timely manner. Further, the SPARRC 
will facilitate communication and dissemination of emerging knowledge 
and tools through sustained outreach to military line leaders, health 
care professionals, family members, and communities.

    28. Senator Akaka. Admiral Mullen, DOD has made significant 
progress caring for our military heroes with mental health issues. But, 
before we can care for them, we must first identify them. One of the 
biggest issues we must address is reducing the stigma related to 
seeking counseling. You recently stated at the DOD/VA Suicide 
Prevention Conference last month that the stigma still exists among 
servicemembers. It is imperative to get the message to our warriors 
that it would be courageous to reach out for help. How would you assess 
DOD's continuing efforts to tear down the stigma that still deters many 
from seeking treatment for problems such as Traumatic Brain Injury and 
Post-Traumatic Stress Disorder and what do we need to do as we move 
forward?
    Admiral Mullen. Current DOD-wide resilience and anti-stigma 
initiatives are focused on research and evaluation of the range and 
effectiveness of military resilience programs, to include, the Real 
Warriors Campaign to combat stigma, to increase servicemembers 
awareness of and encourage use of resources, utilization of the Warrior 
Resilience Conference to enhance and integrate core principles, DOD/
Federal programs development and utilization, promoting leadership in 
health and well-being, and providing practical tools for units and 
colleagues.
    Information on DOD Wide Real Warriors Campaign program is provided 
in attachment one. Although the Services do not have individual anti-
stigma campaigns, anti-stigma efforts are reflected at all levels of 
their programs (see attachment two) including imbedded psychological 
health providers in personnel communities and primary care clinics (to 
avoid concern about seeking behavioral health services from the medical 
community), removal of personal information in psychological heath 
utilization reports to leadership, confidential counseling services, 
lower stigma options for seeking care for issues such as sleep 
difficulties rather than mental health, and many other new initiatives 
delivered within the units, aleviating stigma concerns.
    Finally, and most importantly, a robust series of evaluation 
initiatives are underway to provide objective measurement of the range 
and effectiveness of resilience programs in the military. These 
evaluation efforts are outlined in detail in the third attachment. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                Questions Submitted by Senator Evan Bayh
                       readiness funding concerns
    29. Senator Bayh. Secretary Gates and Admiral Mullen, the fiscal 
year 2011 budget materials request an 8.5 percent increase in Operation 
and Maintenance (O&M) funding from last fiscal year's budget. The 
budget materials claim to rebalance the force. Yet without a decrease 
in operational tempo, force readiness continues to be consumed as 
quickly as it is created. How does this request rebalance the force if 
the lack of readiness in our nondeployed forces continue to cause 
significant risk to our National Military Strategy?
    Secretary Gates and Admiral Mullen. In the absence of force cuts, 
DOD needs real growth to sustain its operations because some major 
programs grow faster than inflation--for example military health and 
readiness requirements.

        <bullet> Sustains air, ship, and land forces operations
        <bullet> Increased fuel costs
        <bullet> Interoperable communications
        <bullet> Intelligence and security activities
        <bullet> Information, surveillance, and reconnaissance 
        activities

    The DOD also made significant progress to shift the financing of 
enduring programs from the OCO budget to the base budget. Adds were 
made to the base program for flying hours, servicemember and family 
support, intelligence, and special operations previously funded through 
OCO.
    Also DOD faces higher operating costs for more sophisticated 
weapons--e.g., stealth materials and technologies require more 
expensive maintenance.

        <bullet> Depot maintenance for land forces equipment, ships, 
        and aircraft
        <bullet> Related contract logistics support

    Training costs associated with more sophisticated weapons are 
higher.

        <bullet> Advanced skills training such as flight training

    30. Senator Bayh. Secretary Gates and Admiral Mullen, is the reset 
funding request for fiscal year 2011 sufficient and when will we begin 
to see a return on its investment in reset in terms of improved 
readiness?
    Secretary Gates and Admiral Mullen. The Department's reset funding 
request of $21.3 billion is sufficient, based on an examination of 
individual military Service requests, reconciled with the 
administration's ground rules for items acceptable for inclusion in 
reset funding. This amount will cover requirements for replenishing 
ammunition and missile stocks expended in operations and training, 
replacement of equipment lost in battle or worn beyond economic repair, 
and maintenance activities based on scheduled need. If funding is 
provided as requested, the Department will maintain the highest level 
of readiness that is achievable, but readiness levels are dependent on 
other Overseas Contingencies Operations funding as well, such as 
Military Personnel, O&M to maintain operating tempo levels, and Force 
Protection funding, to mention a few.

    31. Senator Bayh. Secretary Gates and Admiral Mullen, would 
additional reset funding restore readiness levels sooner and what are 
the anticipated reset costs for the out-years?
    Secretary Gates and Admiral Mullen. The Department's reset funding 
request of $21.3 billion is sufficient for fiscal year 2011, based on 
an examination of individual military Service requests, reconciled with 
the administration's ground rules for items acceptable for inclusion in 
reset funding. It is anticipated that reset funding will be needed for 
at least 2 years after the contingencies end. The Department will 
assess the need for future reset funding based on force levels in the 
theater of operations, as well as specific equipment battle losses and 
damage as those are incurred. Outyear funding requirements are not 
precisely known at this time, as they are dependent on those 
circumstances, as well as the timing of eventual force drawdown.

    32. Senator Bayh. Secretary Gates and Admiral Mullen, to what 
extent has DOD evaluated the impact of sending additional forces to 
Afghanistan on overall force readiness?
    Secretary Gates and Admiral Mullen. Through our quarterly Global 
Force Management Board (GFMB) process, the Department routinely 
evaluates the impact and risk associated with force sourcing before the 
decision to allocate additional forces is approved. Furthermore, as a 
major component of the Chairman's Readiness System (CRS), the Joint 
Combat Capabilities Assessment (JCCA) process evaluates our ability to 
execute plans based on our current force posture and readiness. In 
turn, the Joint Staff examines and evaluates the results of the JCCA 
process and reviews force readiness on a quarterly basis through the 
Joint Force Readiness Review (JFRR).

    33. Senator Bayh. Secretary Gates and Admiral Mullen, how confident 
are you that the supplemental request will or will not be sufficient to 
cover all costs, considering the disaster assistance currently being 
provided to Haiti by our military forces?
    Secretary Gates and Admiral Mullen. Based on the current force 
assumption, the fiscal year 2010 OCO supplemental request will be 
sufficient assuming congressional support for a Haiti supplemental. The 
Department is requesting a supplemental of $655 million to support 
operations in Haiti. The Haiti supplemental includes $400 million to 
reimburse the Component's for Haiti operations and $255 million for the 
Overseas Humanitarian Disaster Assistance and Civilian Assistance 
(OHDACA).

    34. Senator Bayh. Secretary Gates and Admiral Mullen, what is the 
plan to recoup those costs which are currently being taken out of O&M?
    Secretary Gates and Admiral Mullen. The Department is requesting a 
supplemental of $655 million to support operations in Haiti. The Haiti 
supplemental includes $400 million to reimburse the Services for funds 
that were transferred from the O&M appropriation to the OHDACA 
appropriation for the Haiti operations. It also includes $255 million 
for the OHDACA to cover the costs for DOD's humanitarian support to 
Haiti and other contingencies that are affected by natural disasters.

           reset/reconstitution and readiness in afghanistan
    35. Senator Bayh. Secretary Gates and Admiral Mullen, as DOD begins 
to increase troop levels in Afghanistan, the Army and Marine Corps have 
been adjusting their plans to redeploy equipment from Iraq. Some of 
this redeploying equipment, which was scheduled to return to the United 
States, is now being redirected to units headed to Afghanistan. In 
addition, we understand that some forces will move directly from Iraq 
to Afghanistan. How is DOD handling the reset of this equipment to 
original capability before it goes into Afghanistan?
    Secretary Gates and Admiral Mullen. The equipment directly 
transferred from Iraq to Afghanistan is combat-ready and is being 
transferred without going through a reset event. The transferred 
equipment is primarily Theater Provided Equipment (TPE) that units 
deploying to Afghanistan will fall in on. Use of TPE reduces 
transportation requirements, a particularly important consideration for 
supporting Operation Enduring Freedom. In rare cases based on 
operational need, some units were transferred from Iraq to Afghanistan 
with serviceable, combat-ready organizational equipment and TPE. Some 
equipment items, such as MRAPs, are being reconfigured to meet 
operational requirements and repaired as required en route to 
Afghanistan at an in-theater facility; however, this is not a reset 
event. As most TPE has been in theater for more than 6 years, the 
Services anticipate higher than normal wash-out rates as well as 
increased repair costs in future years. The organizational equipment 
assigned to units redeploying from Iraq to home station will be reset 
as appropriate after return.

    36. Senator Bayh. Secretary Gates and Admiral Mullen, what are the 
cost implications for reset/reconstitution given increases in troop 
levels and new platforms such as MRAP vehicles and Multipurpose All-
Terrain Vehicles (M-ATVs)?
    Secretary Gates and Admiral Mullen. The Department will assess the 
need for future reset funding based on force levels in the theater of 
operations each year, as well as specific equipment battle losses and 
damage as those are incurred. Equipment Reset costs will be more 
dependent on equipment already in theater that will be scheduled for 
maintenance cycles and possible replacement, than the presence of new 
platforms such as MRAPs and M-ATVs. Outyear funding requirements are 
not precisely known at this time, as they are dependent on those 
circumstances, as well as the timing of eventual force drawdown and 
equipment return to the continental United States (CONUS).

    37. Senator Bayh. Secretary Gates and Admiral Mullen, what 
additional training is being provided to those forces that will move 
directly into Afghanistan from Iraq?
    Secretary Gates and Admiral Mullen. The combatant commander and 
joint service provider of forces transitioning from Iraq to Afghanistan 
is responsible for ensuring those forces receive any required 
Afghanistan specific training prior to assignment to that area. Core 
competency training associated with the CENTCOM Area of Responsibility 
(AOR) and the Request For Forces (RFF) requested capability(ies) has 
previously been completed by those forces already deployed to Iraq. 
Afghanistan specific training will be provided based on RFF 
requirements and can include but not be limited to Rules of Engagement 
(ROE), cultural training, enemy threat briefs, detention procedures, 
medical and casualty evacuation (MEDEVAC/CASEVAC) procedures, and other 
force protection measures. Additional training and briefings on various 
Afghanistan command directives such as the July 2009 ISAF headquarters 
(HQ ISAF) tactical directive will also be incorporated into individual 
and unit training requirements as required.

    38. Senator Bayh. Secretary Gates and Admiral Mullen, is there 
sufficient basing in Afghanistan to handle the additional troops, and 
given the logistical challenges in Afghanistan, has DOD synchronized 
the arrival of troops with their equipment, and if not, what is the 
operational impact?
    Secretary Gates and Admiral Mullen. A. The basing in Afghanistan 
will have to expand in order to handle the additional troops the 
President ordered, but U.S. CENTCOM and U.S. Forces Afghanistan (USFOR-
A) have structured a plan to send Engineers in early to build 
additional Forward Operating Bases (FOBs) and expand existing FOBs to 
accommodate the additional forces prior to their arrival. As for 
synchronization, CENTCOM and U.S. Transportation Command conducted 
planning conferences in December and again in late January. These 
planning conferences refined requirements for personnel and associated 
equipment and developed a phased transportation plan to ensure 
synchronized force build up. The Global Force Management process is now 
closely managing the deployment of those forces to arrive in country at 
virtually the same time as their equipment, so the troops are not 
waiting without their equipment.
    B. I agree with what Secretary Gates said. I think it is important 
to realize, the basing standard we are building to is the Initial 
Standard, which is expeditionary, with our troops living in austere 
conditions utilizing unit organic tentage, with force protection and 
basic life support services provided but not much more. Our intent is 
to improve the facility infrastructure over time to a Temporary 
Standard. In order to improve the sustainable living environment of our 
forces, we have asked for some Military Construction (MILCON) funds to 
facilitate these improvements and appreciate your continued support in 
these efforts. To the question of phasing, the forces are arriving in 
three phases and the engineers are timed to arrive in time to prepare 
FOBs for the troops arriving for the next phase. The FOB construction 
and expansion plans are on track and the additional 30,000 troops the 
President ordered will be closed by the end of August this year as 
planned. Finally, I would just note that the Department continues to 
improve synchronized force flow through prudent planning and expanded 
air, road and rail routes across Europe and Central Asia, routes also 
known as the Northern Distribution Network (NDN). The NDN augments 
other well-established routes running through Pakistan and is an 
important part of our capacity and synchronization solutions.

                                earmarks
    39. Senator Bayh. Secretary Gates, every year our committee 
receives letters from Senators requesting earmarks. While we have taken 
significant steps to increase earmark transparency to the general 
public, the process for evaluating and which to support has essentially 
remained the same over the years. As a result, in order to support a 
few earmarks we must make funding cuts in other areas to meet budget 
resolution top line requirements and the President's budget request. 
Unfortunately, cuts sometimes take additional risk in DOD's O&M 
accounts. How can you help us better determine what earmark requests 
are in line with real military value or requirements and what are 
simply wasteful spending?
    Secretary Gates. What you are asking essentially is for assistance 
in cutting the President's defense budget request in order to fund 
earmarks that we did not request. Your question acknowledges that 
earmarks cause additional risk in DOD's O&M accounts, and that is what 
I would underscore. If certain earmarks have some military value, that 
does not alter the fact that those earmarks would displace genuine, 
higher priority requirements in our request. When our DOD leaders 
formulate each year's budget request, we always have to omit certain 
requirements because they cannot be accommodated in a constrained 
topline. Each year's budget request includes our most pressing military 
needs, and cuts to the request increase the risks for our current and 
future warfighters.

    40. Senator Bayh. Secretary Gates, in your opinion, what would 
constitute a valid member request?
    Secretary Gates. In my opinion, the program needs to have military 
value to the Department and be a priority of the administration. The 
budget request that the President submitted for fiscal year 2011 
reflects the most pressing needs of our military warfighters that could 
be accommodated within the constrained Defense topline. Any action by 
Congress to reduce the budget request for Defense to fund programs not 
requested by the adminsitration increases the risk for current and 
future warfighters.

    41. Senator Bayh. Secretary Gates, from your experience, how would 
you characterize the additional risks are we accepting to military 
readiness by making cuts in O&M accounts?
    Secretary Gates. The President's fiscal year 2011 budget request 
balances our needs, including O&M accounts, to secure and advance U.S. 
security interests around the world. Reduction to any appropriation 
account increases the risks of not being able to meet our mission 
requirements. The fiscal year 2011 budget supports our force structure 
requirements and will sustain our readiness levels. Should significant 
cuts be made to operating budgets, readiness goals will be put at risk.

                         full disclosure budget
    42. Senator Bayh. Secretary Gates, in last week's issue of Defense 
Daily, retired Pentagon senior budget analyst, John King, proposed a 
``full-disclosure budget, where all parties can see the real military 
requirement backed by quantifiable rationale, the budget plan, and any 
gap created by affordability or other development or acquisition delays 
. . . To re-channel all the misspent pork war energy, DOD can set up a 
show-and-tell office, where companies, research institutes, and 
universities can bring their ideas and proposals. DOD conducts a hard-
nosed evaluation of how the proposal adds military value and fits into 
the budget plan.'' This process would be open to the public as well. 
What is your take on this idea and how feasible is it?
    Secretary Gates. A full disclosure budget is feasible, and that is 
exactly what DOD uses. So this proposed process is essentially already 
used and is not a new idea. Every DOD budget request is backed by 
quantifiable rationale to justify the military requirements being 
funded. Our budget plans or presentations discuss development or 
acquisition delays, or affordability issues. And companies, research 
institutes, and universities have full access to bring their ideas and 
proposals in response to DOD requests for proposals (RFPs).
                                 ______
                                 
               Questions Submtited by Senator Mark Begich
                            energy security
    43. Senator Begich. Secretary Gates and Admiral Mullen, over the 
course of the past several years, DOD has engaged in a number of 
initiatives to increase its energy security. Energy security is 
critical to national security. How important do you believe it is for 
DOD to achieve energy security and what specific steps is DOD taking to 
get there?
    Secretary Gates and Admiral Mullen. It is critical that the 
Department achieve energy security. The U.S. military's reliance on oil 
and other fossil fuels poses four broad security challenges. The first 
is the growing risk to operating forces. Attacks on our supply lines in 
Afghanistan and Iraq are increasingly sophisticated and effective, 
resulting in a growing number of casualties. The ability of potential 
adversaries to attack our fixed energy supplies and delivery forces 
will continue to improve. In short, our fuel inefficiency endangers our 
troops and threatens our missions.
    A second challenge is the insecurity of the global commons. Most 
petroleum products are transported by sea, and much of this trade 
passes through vulnerable chokepoints such as the Straits of Hormuz and 
the Straits of Malacca. The free flow of energy through these vital 
channels may be threatened by piracy, political instability, or 
military action. Thus, fuel inefficiency is a strategic as well as a 
tactical threat.
    A third challenge has to do with oil supply, demand, and price 
volatility. Tightening global oil supplies and political instability 
within some oil-producing nations created significant price volatility 
in recent years, raising our costs and making budget and acquisition 
decisions more difficult. The challenge will increase as the growing 
demand for energy--particularly in Asia--outstrips projected oil 
production and refining capacity.
    A final challenge is grid vulnerability. The Department's reliance 
on a fragile commercial grid to deliver electricity to its 500-plus 
installations places the continuity of critical missions at risk. Most 
installations lack the ability to manage their demand for and supply of 
electrical power and are thus vulnerable to intermittent and/or 
prolonged power disruption due to natural disasters, cyber attacks, and 
sheer overload of the grid. Because of U.S. combat forces' increasing 
reliance on ``reachback'' support from installations in the United 
States, power failures at those installations could adversely affect 
our power projection and homeland defense mission capability. For 
example, the Department operates Predator drones in Afghanistan from a 
facility in Nevada and analyzes battlefield intelligence at data 
centers here at home. This means that an energy threat to bases at home 
can be a threat to operations abroad.
    The Department has made meaningful progress in addressing energy 
security, though we have much more to do. In keeping with the 
requirements of the 2009 NDAA, I have created the Office of Director 
for Operational Energy Plans and Programs. The President has nominated 
Sharon Burke to head this new Directorate, and I hope the Senate will 
confirm her very soon. The Military Departments are standing up their 
energy offices as well and they are developing detailed strategic 
plans. The Service Secretaries have also made energy a high priority. 
For example, in October, Navy Secretary Ray Mabus announced a set of 
ambitious new goals to boost the energy efficiency of the Navy and the 
Marine Corps. His plans include fielding a completely sustainable 
carrier strike group (nuclear vessels and ships powered by biofuel), 
dubbed ``the Great Green Fleet,'' by 2016, and producing half of the 
Navy's installation energy requirements from renewable sources by 2020. 
Secretary Mabus also stated recently that energy-related costs will 
become a greater consideration in Navy acquisition decisions. We have 
seen how the vulnerability of logistics forces, coupled with a huge 
demand for fuel, creates an operational risk that must be reduced. As 
Congress has directed, I will develop and implement the Energy Key 
Performance Parameter in the requirement development process and the 
Fully Burdened Cost of Fuel in the acquisition process to help drive 
down this risk to forces and the cost of assuring operational energy 
security.
    With respect to fixed installations, under my direction the 
Department has pursued a two-part investment strategy that is designed 
to: (1) reduce the demand for traditional energy while (2) increasing 
the supply of renewable energy sources. In addition to the Department's 
military construction budget, financing for these investments has come 
from our Energy Conservation Investment Program, Energy Savings 
Performance Contracts and mechanisms such as Enhanced Use Leases, and 
Power Purchase Agreements.
    Efforts to curb demand--through conservation measures and improved 
energy efficiency--are by far the most cost-effective way to improve an 
installation's energy profile. A large fraction of energy efficiency 
investments go to retrofit existing buildings; typical retrofit 
projects install high-efficiency heating, ventilation, and cooling 
(HVAC) systems, energy management control systems, new roofs, and 
improved lighting. The Department is also taking advantage of new 
construction to incorporate more energy efficient designs, material and 
equipment, using LEED Silver standards as a guide. From 2005 to 2008, 
DOD reduced the energy intensity of facilities by 11 percent through 
conservation and investment in energy efficiency.
    On the supply side, military installations--which are large and 
disproportionately located in the southwest and on our coasts--are 
well-situated to support solar, wind, geothermal and other forms of 
renewable energy. For example, Nellis Air Force Base in southern Nevada 
built a 14-megawatt (MW) photovoltaic solar array using a public-
private partnership. The military's interest in renewable energy is 
nothing new. Naval Air Weapons Center China Lake in California has been 
operating a 270-MW geothermal plant since 1987. The Department 
renewable energy goal is to produce or procure 25 percent of energy 
from renewable sources by fiscal year 2025.
    The assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs, the Deputy Under Secretary of Defense for 
Installations and Environment, and the Office of the Director for 
Operational Energy Plans and Programs are also leading an effort on 
grid-related energy security relative to DOD operations. The purpose is 
to ensure DOD's critical missions continue unimpeded during 
interruptions in grid power and to inform the interagency and industry 
on DOD's needs related to grid-supplied power.

    44. Senator Begich. Secretary Gates and Admiral Mullen, how does 
the budget and the QDR budget reflect a move towards energy security? 
Please describe in detail.
    Secretary Gates and Admiral Mullen. The recently released QDR makes 
clear that crafting a strategic approach to energy and climate change 
is a high priority for DOD.
    To achieve operational energy reductions, the Department tripled 
investment in energy security technology over the last 4 years, from 
$400 million to $1.2 billion. DOD is investing to improve the 
efficiency of aircraft engines, which account for a large fraction of 
all operational energy consumption. One promising project is the Highly 
Efficient Embedded Turbine Engine, based on a high-pressure ratio, 
high-temperature core turbine technology that should reduce fuel 
consumption by 25 percent and also be applicable to commercial 
aircraft. The Army is developing technology to reduce the fuel 
consumption of tactical ground vehicles such as the High Mobility 
Multipurpose Wheeled Vehicle (HMMWV) by 30 to 40 percent in the future.
    The Defense Advanced Research Projects Agency (DARPA) is spending 
$100 million on an 18-month project to develop affordable algae-based 
synthetic fuels. DOD is testing a more advanced approach within the 
Net-Zero Joint Concept Technology Demonstration program that would 
allow a FOB to create all the power it needs within its own perimeter 
fence--largely through renewable energy. The demonstration is hosted at 
the National Training Center at Fort Irwin, CA. Generators used to 
provide HVAC at FOBs are another major consumer of operational energy. 
In 2008, DOD began spraying insulating foam on tents, trailers and 
other temporary structures in Iraq, and later Afghanistan, with 
significant results. Estimates of the fuel saved for heating and 
cooling in these structures are approximately 50 percent. In one 
demonstration, DOD insulated 9 million square feet of temporary 
structures and reduced daily fuel demand by an estimated 77,000 
gallons, which can translate to 13 fewer trucks convoying fuel each 
day. Once confirmed, the Director for Operational Energy Plans and 
Programs will lead the creation of a DOD-wide Operational Energy 
Strategy setting priorities and informing how the Department addresses 
energy in its core planning, requirements, acquisition, and budgeting 
processes.
    With respect to fixed installations, the Department is pursuing a 
two-part investment strategy that is designed to: (1) reduce the demand 
for traditional energy; and (2) increase the supply of renewable energy 
sources. In addition to the Department's military construction budget, 
financing for these investments has come from its Energy Conservation 
Investment Program, Energy Savings Performance Contracts, and 
mechanisms such as Enhanced Use Leases and Power Purchase Agreements.

                       ballistic missile defense
    45. Senator Begich. Secretary Gates and Admiral Mullen, last year, 
the administration made significant changes to the Ground-based 
Midcourse Defense (GMD) element of Ballistic Missile Defense (BMD). The 
decision was made to decrease deployment of interceptors in the United 
States from 44 to 30. Additionally, deployment of a European GMD 
capability was cancelled in favor of a phased-adaptive approach to 
address a range of threats in the area. The new approach is intended to 
augment the existing GMD long-range capabilities in the United States. 
As a result of the decision to cancel deployment of GMD Europe, Alaska 
and California are the Nation's only line of defense against a long-
range intercontinental ballistic missile (ICBM). How does the fiscal 
year 2011 budget and the BMD review reflect a robust strategy and 
investment in the GMD program to provide defense of the Nation with 30 
operational interceptors?
    Secretary Gates and Admiral Mullen. The fiscal year 2011 
President's budget request lays out a funded plan to expand the 
integration of the GMD capabilities into the larger Ballistic Missile 
Defense System (BMDS). This will include deploying 30 operational 
ground-based interceptors (GBIs), as well as delivery of 4 additional 
interceptors as operational spares (based on reliability estimations) 
and 18 additional interceptors to support the flight test program. The 
GMD element will maintain operational effectiveness and reliability 
through a number of initiatives designed to: thoroughly test the 
performance of the system; achieve a high state of readiness; monitor 
the health of the deployed interceptors; and modernize the system with 
technology improvements to the interceptor and supporting ground 
systems.
    The Department plans to complete the construction of Missile Field 
2 in Fort Greely, AK, by emplacing the full 14 GBI silos and making 
those silos operationally ready. This will both replace older, 
inadequate silos from Missile Field 1 and provide a reserve capability 
to deploy up to 8 additional GBIs rapidly from the pool of interceptors 
currently designated for testing. Although the Department does not 
currently foresee a need for more than 30 deployed GBIs, these extra 
operational silos will provide an additional hedge against future 
threat uncertainty. The Department does not require the procurement of 
additional GBIs for this purpose. The Department will also complete a 
second GMD Fire Control node at Fort Greely, AK, by the end of calendar 
year 2011.

                       interceptor infrastructure
    46. Senator Begich. Secretary Gates and Admiral Mullen, what 
decisions have been made with respect to infrastructure required to 
deploy interceptors, specifically at Fort Greely, Alaska?
    Secretary Gates and Admiral Mullen. There are currently two 
completed missile fields at Fort Greely, AK--Missile Field 1 and 
Missile Field 3 with 6 and 20 silos, respectively. The fiscal year 2011 
President's budget request reflected the funding needed to continue the 
operations, sustainment, and maintenance of Missile Field 1 and to 
complete Missile Field 2 in a 14-silo configuration.
    This effort also requires continued use of fiscal year 2009 funds 
previously appropriated for work on Missile Field 2 and fiscal year 
2010 funds previously appropriated to suspend work on Missile Field 2. 
MDA submitted a reprogramming request to the Department's Comptroller 
for the realignment of $72.8 million of fiscal year 2009 RDT&E funds 
and $16 million of fiscal year 2010 RDT&E funds within the BMDS 
Midcourse Defense program element for the continuation of Missile Field 
2. This configuration's additional silos will enable future flexibility 
to increase GBI inventory in response to emerging threats.
    Upon completion of Missile Field 2, Missile Field 1 will be 
decommissioned. Missile Field 1 was originally designed as a test bed, 
so it lacks required hardening and redundant power, and has significant 
infrastructure reliability issues. The Missile Field 2 design includes 
shielding and addresses the reliability concerns of Missile Field 1. 
Missile Field 1 will not be decommissioned until Missile Field 2 is 
fully available for emplacing GBIs. In the meantime, Missile Field 1 
will be closely monitored and maintained in a high state of readiness 
through intensive maintenance procedures.

    47. Senator Begich. Secretary Gates and Admiral Mullen, has DOD 
taken any measures to preserve deployment capacity as a hedge against 
the increasing threat in the event more than 30 operational 
interceptors are required?
    Secretary Gates and Admiral Mullen. Yes, The Department plans to 
buy 52 GBIs, 30 of which will be operationally deployed, 4 of which 
will be held as operational spares, and the rest of which will be test 
articles. DOD expects this level to provide sufficient protection of 
the homeland, while allowing the Missile Defense Agency (MDA) to pursue 
a robust test program and enabling operational flexibility should a new 
threat emerge. DOD will maintain readiness and continue to develop 
existing operational capabilities at Fort Greely, AK, and Vandenberg 
Air Force Base, CA.
    DOD will hedge against an increased threat in numerous ways, 
including:

        <bullet> Complete the second field of 14 silos at Fort Greely 
        to hedge against the possibility that additional deployments 
        become necessary.
        <bullet> Continue development and assessment of a two-stage 
        GBI.
        <bullet> Deploy new sensors in Europe to improve cueing for 
        missiles launched at the United States by Iran or other 
        potential adversaries in the Middle East.
        <bullet> Invest in further development of the Standard Missile-
        3 (SM-3) for future land-based deployment as the ICBM threat 
        matures.
        <bullet> Pursue a number of new GMD system enhancements, and 
        develop next generation missile defense capabilities.

    48. Senator Begich. Secretary Gates and Admiral Mullen, how is the 
deployment capacity in Missile Field 2 at Fort Greely funded, and is 
this all in fiscal year 2011 or a reprogramming?
    Secretary Gates and Admiral Mullen. The fiscal year 2011 
President's budget request contains funding needed to complete Missile 
Field 2 in a 14-silo configuration. The request reflects funds required 
in addition to fiscal year 2009 funds previously appropriated for work 
on Missile Field 2 and fiscal year 2010 funds previously appropriated 
to suspend work on Missile Field 2.
    The MDA submitted a reprogramming request to the Department's 
Comptroller for the realignment of $72.8 million of fiscal year 2009 
RDT&E funds and $16 million of fiscal year 2010 RDT&E funds within the 
BMDS Midcourse Defense program element for the continuation of Missile 
Field 2.

    49. Senator Begich. Secretary Gates and Admiral Mullen, what 
deficiencies and readiness are achieved by continuing completion of 
Missile Field 2 in a 14-silo starting capacity?
    Secretary Gates and Admiral Mullen. Completing Missile Field 2 in a 
14-silo configuration allows for the decommissioning of Missile Field 1 
and provides future flexibility to increase the number of interceptors, 
if the threat evolves. When Missile Field 2 is completed and fully 
available for emplacing GBIs, the MDA plans to transfer six GBIs 
currently deployed in Missile Field 1 to Missile Field 2.
    Once Missile Field 2 is fully operational, Missile Field 1 will be 
decommissioned since it was designed as a test bed only and is not 
hardened or sufficiently reliable for a long-term operational 
deployment. Specifically, Missile Field 1 lacks backup power and has 
significant infrastructure reliability issues. These reliability issues 
include extensive mold contamination in the Missile Field 1 utilidor, 
requiring personnel to suit up for a hazardous environment; inadequate 
valve connections in the chilled water system, resulting in leaks of 
glycol; and dust intrusion at Mechanical Electrical Building-1. The 
Missile Field 2 design includes shielding and addresses the reliability 
concerns of Missile Field 1.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                   modernization and recapitalization
    50. Senator Burris. Secretary Gates and Admiral Mullen, what 
particular programs address the Services' modernization and 
recapitalization?
    Secretary Gates and Admiral Mullen.
Guardian Armored Security Vehicle (ASV):
        <bullet> Modernization:

                <bullet> Product Director (PD), ASV, is addressing 
                limited modernization (Engineering Change Proposals 
                (ECPs)) through existing modification and services line 
                or by modernization through spares.

        <bullet> Reset (Operations and Maintenance, Army-funded):

                <bullet> Planning is underway to reset approximately 
                1,500 ASVs during fiscal year 2011-2017.
                <bullet> While the average age of ASVs is 3 years, some 
                ASVs in theater accumulated 20,000-plus miles per year 
                (peacetime OPTEMPO is estimated at 2,729 miles per year 
                for a useful life of 20 years).
                <bullet> Reset will bring ASVs to fully mission capable 
                condition, to include replacing basic issue items such 
                as shovels and tire jacks.

        <bullet> Recapitalization (RECAP--Other Procurement, Army 
        (OPA), funding is required):

                <bullet> The Army has not programmed RECAP funding in 
                POM fiscal year 2012-2017.

                        <bullet> OPA funding currently ends in fiscal 
                        year 2011, with production ending in fiscal 
                        year 2012.

                <bullet> However, in accordance with a recent 
                Acquisition Decision Memorandum, the ASV Product Office 
                will continue to collaborate with the Combat Developer 
                on desired upgrades. Potential outcome of this 
                collaboration could result in an ASV RECAP requirement.
Stryker:
        <bullet> Modernization:

                <bullet> Evolutionary acquisition approach to achieve 
                the full Stryker Capability Development Document
                <bullet> Planned as separate and distinct program from 
                base Stryker
                <bullet> Provides suspension, structure and power 
                growth capability to support planned upgrades
                <bullet> Includes modified lower hull for under belly 
                IED protection as well as upgraded suspension to 
                support up to a 60,000-pound GVW
                <bullet> Key Upgrades include Lethality, Survivability, 
                360 degrees Situational Awareness, Sniper Detection
                <bullet> Assumes JTRS & Battle Command Upgrades
                <bullet> 30-ton Capacity Configuration

        <bullet> Reset:

                <bullet> Army selected Anniston Army Depot, Alabama, as 
                centralized Reset facility for the Stryker Family of 
                Vehicles.
                <bullet> Stryker vehicle resets for OCONUS based 
                Stryker Brigade Combat Teams (2nd Brigade, 25th 
                Infantry Division--Schofield Barracks, HI, and 2nd 
                Cavalry Regiment--Vilseck, Germany), as well as the 1st 
                Brigade, 25th Infantry Division SBCT (Fort Wainright, 
                AK) may still be conducted at home station.
                <bullet> Stryker Reset provides annual scheduled 
                service level plus maintenance action, does not return 
                vehicles to zero hours/zero miles standard.

        <bullet> Recapitalization:

                <bullet> Stryker does not perform RECAP efforts.

                defense support to civilian authorities
    51. Senator Burris. Secretary Gates and Admiral Mullen, please 
explain how the mission to provide defense support to civil authorities 
is addressed.
    Secretary Gates and Admiral Mullen. During the 2010 QDR, I directed 
a significant emphasis to domestic military operations, including 
Defense Support of Civil Authorities. After considerable analysis in 
the QDR, the Department will make a number of changes in its approach 
to support civil authorities responding to Chemical, Biological, 
Radiological, Nuclear, and High-Yield Explosives (CBRNE) incidents in 
the United States.
    First, the Department will re-structure CBRNE Consequence 
Management Response Force 1 (CCMRF-1) to be larger and faster than it 
is today, with more life saving capabilities. CCMRFs 2 and 3 will be 
significantly downsized to become command and control (C2) elements, 
each able to handle up to 45,000 Title 10 general purpose and 
specialized forces in the event of multiple, simultaneous incidents.
    Most significantly, rather than building three large Federal-level 
response forces to be employed by U.S. Northern Command, the Department 
will start placing a National Guard-based Homeland Response Force (HRF) 
in each of the ten Federal Emergency Management Agency (FEMA) regions 
beginning at the end of fiscal year 2011. Each HRF, routinely operating 
in State status (State Active Duty or in duty under Title 32, U.S. 
Code) at the direction of a governor, will consist of approximately 560 
personnel. The HRFs will include CBRNE capabilities similar to the 
existing National Guard CBRNE Enhanced Response Force Packages 
(CERFPs), as well as additional robust C2 and security capabilities. I 
anticipate that the HRFs will serve as a catalyst for promoting greater 
regional integration within the FEMA regions and promoting closer 
working relationships with the FEMA Regional Administrator offices, 
Defense Coordination Officers, and individual States.

                    overseas contingency operations
    52. Senator Burris. Secretary Gates and Admiral Mullen, what role 
will the ongoing contingency operations play in future force-sizing?
    Secretary Gates and Admiral Mullen. All of our servicemembers 
(Active and Reserve) continue to perform extraordinarily in light of 
the demands we have placed upon them. We cannot fail to have the right 
numbers and kinds of uniformed personnel to win our wars and deter 
potential adversaries. Additionally, our force, Active and Reserve, 
must be large enough to not only satisfy deployed demands, but also 
have a base that recognizes the personal needs of our volunteers and 
their families. We believe we are currently at an appropriate force 
level. As our future challenges evolve and requirements change, we will 
work closely with Congress to determine if adjustments are necessary.

                     guantanamo detainee operations
    53. Senator Burris. Secretary Gates and Admiral Mullen, how does 
the budget support the President's decision on Guantanamo (GTMO) 
detainee operations?
    Secretary Gates and Admiral Mullen. The President's fiscal year 
2011 OCO budget request includes $350 million to finance all detainee 
operations at the Guantanamo Bay detention facility or another site.

                         don't ask, don't tell
    54. Senator Burris. Secretary Gates and Admiral Mullen, taking a 
look at discharge statistics provided by DOD, it appears that the 
number of individuals discharged during years of conflict drop off 
drastically. Can you explain these numbers--noting that reports of 
homosexual conduct are not covered under the military's stop-loss 
policies?
    Secretary Gates and Admiral Mullen. I cannot speculate as to why 
separations under the homosexual conduct policy have declined in recent 
years. However, the Department has not changed how it applies 10 U.S.C. 
Sec. 654 in ``years of conflict.''

    55. Senator Burris. Secretary Gates and Admiral Mullen, once this 
change is enacted, how will you address the cases involving pending and 
previously discharged servicemembers?
    Secretary Gates and Admiral Mullen. If the law is repealed, any 
pending homosexual conduct discharge cases would be ceased. Those 
servicemembers previously separated would remain separated. As part of 
their assessment, the working group will examine re-accession policies 
for such servicemembers if the law is repealed.
                                 ______
                                 
               Questions Submitted by Senator John McCain
          program management of the f-35 lightning acquisition
    56. Senator McCain. Secretary Gates, I am gratified by the 
management decisions you announced yesterday to instill accountability 
in the Joint Strike Fighter (JSF) program by replacing the program 
executive officer and withholding more than $600 million. Does the 
withhold reflect the outcome of pending discussions between your office 
and the prime contractor, following the instructions you issued in 
December 2009 to restructure the program, to have the contractor fund 
part of the proposed extension in development?
    Secretary Gates. A more accurate way to portray the handling of the 
$614 million withhold is that the Department is changing the paradigm 
under which the contractor can earn that fee. I decided that the 
current award fee structure would not properly incentivize the 
contractor. Therefore, the Department took the future fee that the 
contractor could have earned and redistributed it in a fashion that 
better reflects the behavior I expect. The criteria are objective, date 
certain, and designed to accomplish major events in the program with 
the appropriate level of detail to ensure the event is successful 
instead of just complete. In addition, the fee is back-loaded, with a 
major portion applied to the ability of the contractor to meet the 
estimate at completion. Failure to do so results in the complete loss 
of that fee.

    57. Senator McCain. Secretary Gates, under what circumstances, if 
any, could the prime contractor recoup that withholding?
    Secretary Gates. The remaining fee for the contractor's development 
effort is $614 million. We are restructuring that $614 million and 
revising the SDD contract structure to reward measurable progress 
against significant schedule events and ensure event-based fees, to 
include completion at or under the estimate at completion. The 
contractor can recoup the withheld fees only if these events are 
successfully completed according to the schedule and the estimate at 
completion is achieved.

                  f-35 testing and engineering issues
    58. Senator McCain. Secretary Gates, as you of course know, I am 
concerned about the F-35 Lightning acquisition program, even with the 
restructuring you announced in December 2009. A few weeks ago, the 
Director of Operational Testing and Evaluation (DOT&E) found that 
``[c]ontinued production concurrent with the slow increase in flight 
testing over the next 2 years will commit the Department and Services 
to test, training, and deployment plans with substantial risk.'' Will 
extending development of the JSF, as is being proposed under the budget 
request, be supported with additional flight test aircraft, the 
delivery of software, and an adequate pace of testing, so that 
operational testing of fully integrated and capable aircraft will occur 
on time in 2016?
    Secretary Gates. The program office is currently working with all 
the test stakeholders, including the Operational Test (OT) community, 
to finalize the test schedule outlining both the timing and the 
appropriate allocation of resources for a successful completion of 
System Development and Demonstration as well as successful transition 
to OT. The restructured program will mitigate cost and schedule 
challenges. The restructured program funds the F-35 program to an 
Independent Cost Estimate, adds additional schedule to development 
test, moves the full rate production decision to April 2016, adds 
additional test assets to flight test to build on the successful 
ongoing ground test, and expands the software integration capacity. 
These actions are in-line with multiple independent assessments 
performed in 2009 covering cost, schedule and capacity.

    59. Senator McCain. Secretary Gates, please explain how your budget 
request will ensure that program management emphasizes maintaining 
robust engineering and test forces; early completion of detailed test 
plans; fully resourcing those plans; and rigorous accreditation of 
models and labs.
    Secretary Gates. The fiscal year 2011 budget request for the JSF 
program is the result of rigorous analysis by a Joint Estimating Team 
(JET), led by the Office of the Director, Cost Analysis and Program 
Evaluation. The JET's analysis informed a senior leadership JSF Task 
Force that led to a restructure of the JSF development and test 
program. The program office is currently working with all the test 
stakeholders, including the OT community, to finalize the test schedule 
outlining both the timing and the appropriate allocation of resources 
for a successful completion of System Development and Demonstration and 
transition to OT. The Department will conduct an even more in-depth 
review of the JSF program as part of the Nunn-McCurdy certification 
process. All aspects of the program, to include engineering manning, 
test plan scheduling, resourcing, and lab and modeling accreditation 
will be reviewed.

    60. Senator McCain. Secretary Gates, to what extent will your 
budget proposal ensure that the delivery of assets for OT&E and initial 
training will be managed consistent with plans approved for OT&E?
    Secretary Gates. The Department has fully funded F-35 System 
Development and Demonstration (SDD) to the Joint Estimating Team (JET) 
II estimate, which includes adequate funds for both developmental and 
operational testing. The funds are adequate to purchase and deliver 
aircraft and all the necessary support equipment to the OT community. 
In addition, the Department has fully resourced, across the Future 
Years Defense Program (FYDP), for adequate organic and contractor 
support of developmental and operational testing. The program office is 
currently working with all the test stakeholders, including the OT 
community, to finalize the test schedule outlining both the timing and 
the appropriate allocation of resources for a successful completion of 
SDD.

    61. Senator McCain. Secretary Gates, do you expect that the 
delivery of those test and training assets will deviate from those 
plans? If so, please explain.
    Secretary Gates. I expect delivery of test and training assets to 
happen on a timeline commensurate with the restructured program. The 
program office is currently working with all the test stakeholders, 
including the OT community, to finalize the test schedule outlining 
both the timing and the appropriate allocation of resources (including 
training) for a successful completion of System Development and 
Demonstration as well as successful transition to OT.

    62. Senator McCain. Secretary Gates, during the hearing, you 
explained that, at this moment, the program is holding schedule in 
terms of the expected initial operating capability (IOC) dates for all 
the variant aircraft except that fewer quantities may be delivered. 
Please explain.
    Secretary Gates. At the date of the hearing, the Services were 
still evaluating how the restructured program would impact IOC dates. 
The Services have completed their review, and the Marine Corps IOC is 
still projected for December 2012 with Block 2 capability, while the 
Air Force and Navy IOCs are now projected for 2016 with Block 3 
capability.

    63. Senator McCain. Secretary Gates, the concurrency structured 
into the JSF program's test, production, and training plans has 
obscured the mission capability of low-rate initial production (LRIP) 
aircraft and support systems. How will DOD, under its proposed budget, 
improve the process by which the mission capability of LRIP systems 
will be accurately and credibly predicted well before delivery?
    Secretary Gates. Concurrency was a choice made at the outset of the 
program, which was a sound strategy for the Department. It is designed 
to replace legacy aircraft and provide the Warfighter a 5th generation 
strike fighter as quickly as possible, allowing the Department to reach 
a more economic order quantity while still thoroughly testing the 
aircraft. To that end, DOD intends to produce aircraft at a rate 
consistent with the Independent Manufacturing Review Team 
recommendations to the maximum extent possible. To mitigate concurrency 
risks, a great deal of upfront investment was made in design tools 
giving us a greater level of confidence in the design of the aircraft 
than we would have for legacy systems such as the F-16 or F-15. Early 
ground and flight test data closely match model predictions for flying 
qualities, performance, and structures, justifying our upfront 
investment. The maturity of the physical aircraft and the restructured 
program give us confidence that our predictions will remain sound 
concerning the capabilities of the F-35.

    64. Senator McCain. Secretary Gates, I understand that the JSF 
program office is executing a comprehensive, robust, and fully funded 
live fire test plan. However, the program recently removed shutoff 
fuses for engine fuel hydraulics lines. Coupled with the prior removal 
of dry bay fire extinguishers, this may increase the likelihood of 
aircraft combat losses from ballistic threat induced fires. At present, 
only the Integrated Power Plant (IPP) bay has a fire suppression 
system. Though the JSF Executive Steering Board (JESB) has approved the 
Joint Program Office's (JPO) request to remove these safety systems as 
an acceptable system trade to balance weight, cost, and risk, DOT&E 
remains concerned regarding the aircraft's vulnerability to threat-
induced fires. Why is DOT&E's concern here not valid?
    Secretary Gates. The Department is committed to delivering the most 
affordable, supportable, lethal and survivable F-35 aircraft that meets 
the needs of the warfighter. The overall survivability posture of the 
F-35 is without equal due to advanced avionics and sensor suite, 5th 
generation stealth performance, advanced countermeasures and robust, 
balanced vulnerability reduction design. The warfighting effectiveness 
of each design feature is carefully balanced against the overall system 
impact to cost, weight and supportability. According to the JPO, the 
removal of PAO (polyalphaolefin) coolant shut-off valves and fuses for 
engine fuel-draulic lines resulted in a minimal (.05 Pk) impact on the 
vulnerability assessment, no impact on the safety assessment, avoids 
11 lbs. per aircraft in weight, avoids $40,000 (CTOL and CV)--$50,000 
(STOVL) per aircraft in procurement cost, and avoids $1.4 million in 
development cost. The JESB decision included a requirement to update 
the vulnerability assessment after conclusion of the live-fire testing 
in calendar year 2011. All F-35 aircraft vulnerability data will then 
be re-assessed.

    65. Senator McCain. Secretary Gates, looking ahead to 2010, exactly 
what milestones does the Director, Cost Assessment and Program 
Evaluation (DCAPE) believe the JPO and prime contractor must complete 
on time and on budget to achieve stated IOC dates?
    Secretary Gates. DCAPE has identified five performance metric areas 
for tracking in fiscal year 2010 that CAPE will monitor closely to 
assess whether the JPO and prime contractor are making reasonable 
progress against what the Joint Estimating Team (JET) schedule forecast 
and cost estimate prepared in fall 2009 (also known as the ``JET II 
estimate''). These areas are: 1) Progress in software for Block 0.5 and 
1.0 releases; 2) the status of Mission System Hardware qualification 
activities; 3) the level of engineering change traffic resulting from 
ongoing flight test and early production activities; 4) the 
availability of flight test aircraft at test sites; and 5) the status 
of sortie generation rates, flight test hours completion, and test 
point verification completion.

    66. Senator McCain. Secretary Gates, to what extent will the 
verification, validation, and accreditation (VV&A) of labs and models 
as test venues be event-driven, subject to disciplined oversight by the 
government and independent review?
    Secretary Gates. The JSF Program Office employs a specific process 
for verification, validation and accreditation of each model, lab, and 
simulation intended as a test venue. A joint government/contractor team 
reviews the validation evidence and accreditation support packages. The 
team makes a recommendation to accredit the venue to the government 
accreditation authority in the program office, which is either the 
chief engineer or the program executive officer. Independent review of 
the validation and accreditation process or content is not currently 
included in the process but would be useful in helping to ensure 
adequate F-35 test data are used in the validation phase and that 
models are not used before accreditation is complete.

    67. Senator McCain. Secretary Gates, to what extent will these labs 
and models not be used to close verification success criteria unless 
formally approved for that use?
    Secretary Gates. I expect the JSF program office leadership to 
follow the process and assure any verification success criteria 
dependent on model accreditation are not considered closed unless the 
model successfully completed an adequate validation and accreditation 
process.

              impact of iraqi elections on drawdown plans
    68. Senator McCain. Secretary Gates, the budget request is based on 
assumptions that include the ability to withdraw all combat forces from 
Iraq by the end of fiscal year 2011, leaving a non-combat U.S. military 
training and assistance force of about 50,000. The ability to make 
substantial reductions in combat forces hinges on the timing of the 
next round of Iraqi parliamentary elections that were first scheduled 
for January and which have now slipped to March. Domestic political and 
security considerations in Iraq may lead to further delays. The bombing 
in Baghdad on February 1, 2010, was the fifth suicide attack in Baghdad 
in a week. While it's not totally unexpected given the national 
elections in March, a sudden deterioration in security could have 
considerable implications for the withdrawal of most U.S. troops later 
this year. Do you anticipate General Odierno will recommend that the 
estimated 65,000 U.S. combat troops return this August?
    Secretary Gates. DOD is on schedule to draw down to 50,000 U.S. 
forces in Iraq and to end the combat mission by August 31, 2010. The 
remaining U.S. forces will be engaged in training, equipping, and 
advising the Iraqi Security Forces (ISF); targeted counterterrorism 
operations; and protection of U.S. military and civilian efforts. U.S. 
forces will continue to draw down responsibly in compliance with the 
Security Agreement.
    DOD's ability to continue the drawdown of U.S. forces is a 
testament to the increasing capability of the ISF, as evidenced by 
their performance during the elections. Since U.S. forces repositioned 
from the cities in June 2009, the ISF have had the lead for operations 
in Iraq, with U.S. forces playing a supporting role through partnering 
with and enabling the ISF.

    69. Senator McCain. Secretary Gates, what will be the budget impact 
if forces in Iraq cannot be withdrawn according to the current plan?
    Secretary Gates. The budget impact would be proportional to the 
size of the force that is not withdrawn. The budget impact could be 
substantial because it is very expensive to sustain deploy forces, even 
if the operating tempo is moderate compared to active combat. Still, I 
remain confident that U.S. forces can be withdrawn according to our 
current plan.

    70. Senator McCain. Secretary Gates, how will that impact the 
ability to source the increase of troops in Afghanistan?
    Secretary Gates. The responsible drawdown of U.S. forces in Iraq 
continues forward as planned and will be executed concurrently with the 
increase of forces in Afghanistan. The Iraqi national elections and the 
plan to drawdown U.S. military forces in Iraq do not adversely affect 
the ability to source the force increase in Afghanistan. The Iraqi 
national elections were successfully conducted on March 2010. The 
security environment established by the ISF prevented any large scale 
effective attacks by insurgents or extremist elements seeking to derail 
the conduct or outcome of the elections and demonstrated the increasing 
capability of the Iraqis to provide security for themselves. As our 
requirements in Iraq continue to decrease, units that redeploy from or 
are no longer required to deploy to Iraq will return to the pool of 
forces available to deploy in support of the mission in Afghanistan or 
other global requirements.

    71. Senator McCain. Admiral Mullen, I remain concerned that Iraq 
will not have the training and equipment that it will need to maintain 
a credible defense after most of our forces leave later this year. What 
are we doing to ensure that Iraq receives the equipment and training 
necessary to ensure we can responsibly withdrawal as scheduled?
    Admiral Mullen. In spite of Iraq's recent budgetary challenges that 
impact both manning and equipping the ISF, we remain confident that 
with continued and focused U.S. support, specifically the $3 billion in 
requested Iraqi Security Forces Funds, the ISF will be capable of 
providing internal security and foundational external defense by the 
time U.S. forces withdraw at the end of December 2011.
    As of February 2010, the Iraqi Foreign Military Sales (FMS) program 
had executed 144 cases valued at $5 billion. Between now and the end of 
2011, USF-I will continue to support the training and equipping of the 
ISF. We are currently working with Iraq on 96 additional FMS cases 
valued at over $4 billion. In addition, thanks to critical authorities 
provided by Congress in the 2010 NDAA, the United States will transfer 
equipment to the ISF to further assist Iraq in meeting critical 
equipping requirements.

                           military pay raise
    72. Senator McCain. Admiral Mullen, for the last 3 years, Congress 
has increased the administration's proposed increase in pay by half a 
percentage point. What is the impact on the DOD budget by such a 
directed increase in fiscal year 2011 and beyond?
    Admiral Mullen. The cost of an additional half percent pay raise 
increase to the fiscal year 2011 budget is $339 million in fiscal year 
2011 and $2.2 billion across the FYDP. Increases in pay beyond DOD 
requests contribute to a reduction of funding for our readiness 
accounts which will jeopardize our ability to meet defense objectives 
to prevail in today's wars, prevent and deter conflict, prepare to 
defeat adversaries and succeed in a wide range of contingencies, and 
preserve and enhance the All-Volunteer Force.

                          u.s. forces in korea
    73. Senator McCain. Admiral Mullen, what will be the total costs in 
terms of infrastructure, family support programs, and other operating 
costs to achieve DOD's long-term goal to phase out all unaccompanied 
tours in Korea?
    Admiral Mullen. The fiscal year 2011 FYDP includes $536 million to 
increase the total number of families in Korea to 4,900. Additional 
increases in the number of families in Korea, as part of the 
Department's long-term goal to phase out unaccompanied tours, will be 
addressed in future budget requests.

    74. Senator McCain. Secretary Gates, are these costs reflected in 
the budget request for fiscal year 2011 and the FYDP?
    Secretary Gates. The fiscal year 2011 FYDP includes $536 million to 
increase the total number of families in Korea to 4,900. Any further 
increases in the number of families in Korea, as part of the 
Department's long-term goal to phase out all unaccompanied tours, would 
be addressed in future budget requests.

                     force structure in afghanistan
    75. Senator McCain. Secretary Gates, GAO recently reviewed military 
readiness issues and raised concerns that the flow of forces into 
Afghanistan, including critical enabling forces, is being impeded by a 
force cap placed on the total number of troops equal to 68,000 plus the 
President's announced increase of 30,000, with a 10 percent buffer of 
3,000 additional troops. This 10 percent buffer, which could 
temporarily raise troop levels above the maximum of 98,000, can only be 
authorized on a case-by-case basis by you. Is there a hard cap on the 
number of troops in Afghanistan?
    Secretary Gates. In December 2009, President Obama committed an 
additional 30,000 forces to Afghanistan for an extended surge of 18 
months. Since taking office, the President has committed 52,000 
additional troops to Afghanistan for a total U.S. force of 92,000.
    The deployment of an additional 30,000 forces for the extended 
surge will be largely completed by the end of August. There is no hard 
cap on the number of forces in Afghanistan. DOD's commitment of 
significant military resources to support this effort is consistent 
with the President's strategy set forth in March 2009, and is directly 
linked to the progress of General McChrystal's civil-military plan to 
reverse the Taliban's momentum and create time and space to develop 
Afghan security and governance. DOD will maintain this increased force 
level through July 2011. During this time, we will regularly measure 
our progress and, beginning in July 2011, transfer lead security 
responsibility to the Afghans and start to transition our combat forces 
for redeployment.

    76. Senator McCain. Secretary Gates, is this cap driven by 
operational factors, budget concerns, or other policy considerations?
    Secretary Gates. In December 2009, President Obama committed an 
additional 30,000 forces to Afghanistan for an extended surge of 18 
months. Since taking office, the President has committed 52,000 
additional troops to Afghanistan for a total U.S. force of 92,000.
    The deployment of an additional 30,000 forces for the extended 
surge will be largely completed by the end of August. There is no hard 
cap on the number of forces in Afghanistan. DOD's commitment of 
significant military resources to support this effort is consistent 
with the President's strategy set forth in March 2009, and is directly 
linked to the progress of General McChrystal's civil-military plan to 
reverse the Taliban's momentum and create time and space to develop 
Afghan security and governance. DOD will maintain this increased force 
level through July 2011. During this time, we will regularly measure 
our progress and, beginning in July 2011, transfer lead security 
responsibility to the Afghans and start to transition our combat forces 
for redeployment.

    77. Senator McCain. Secretary Gates, should there be any arbitrary 
cap on the total number of forces that may be temporarily in 
Afghanistan if such forces are necessary to establish the capability to 
succeed in the mission?
    Secretary Gates. In December 2009, President Obama committed an 
additional 30,000 forces to Afghanistan for an extended surge of 18 
months. Since taking office, the President has committed 52,000 
additional troops to Afghanistan for a total U.S. force of 92,000.
    The deployment of an additional 30,000 forces for the extended 
surge will be largely completed by the end of August. There is no hard 
cap on the number of forces in Afghanistan. DOD commitment of 
significant military resources to support this effort is consistent 
with the President's strategy set forth in March 2009, and is directly 
linked to the progress of General McChrystal's civil-military plan to 
reverse the Taliban's momentum and create time and space to develop 
Afghan security and governance. DOD will maintain this increased force 
level through July 2011. During this time, we will regularly measure 
our progress and, beginning in July 2011, transfer lead security 
responsibility to the Afghans and start to transition our combat forces 
for redeployment.

    78. Senator McCain. Secretary Gates, are there indications from 
CENTCOM that the build-up of forces in Afghanistan is being impeded by 
the cap on forces?
    Secretary Gates. No, the U.S. CENTCOM has indicated the build-up/
increase of U.S. forces approved by POTUS in December 2009 is not being 
impacted by the total authorized force. U.S. CENTCOM has worked a very 
detailed transportation plan to ensure a majority of these forces 
arrive in-country by late summer and this plan still remains feasible.

    79. Senator McCain. Secretary Gates, if the President's priority is 
to rapidly increase U.S. force levels in Afghanistan to turn the tide 
in the fight against the Taliban and al Qaeda so the U.S. can begin to 
withdraw forces by July 2011, is managing the flow of forces to stay 
below an arbitrary cap consistent with that priority?
    Secretary Gates. In December 2009, President Obama committed an 
additional 30,000 forces to Afghanistan for an extended surge of 18 
months. Since taking office, the President has committed 52,000 
additional troops to Afghanistan for a total U.S. force of 92,000.
    The deployment of an additional 30,000 forces for the extended 
surge will be largely completed by the end of August. There is no hard 
cap on the number of forces in Afghanistan. DOD's commitment of 
significant military resources to support this effort is consistent 
with the President's strategy set forth in March 2009, and is directly 
linked to the progress of General McChrystal's civil-military plan to 
reverse the Taliban's momentum and create time and space to develop 
Afghan security and governance. DOD will maintain this increased force 
level through July 2011. During this time, we will regularly measure 
our progress and, beginning in July 2011, transfer lead security 
responsibility to the Afghans and start to transition our combat forces 
for redeployment.

    80. Senator McCain. Secretary Gates, will a delay in the supply of 
trainers for Afghan security forces, or a decision by NATO allies not 
to provide trainers, affect the need for U.S. forces above the 30,000 
approved by the President?
    Secretary Gates. Ensuring that the NATO Training Mission-
Afghanistan (NTM-A) has sufficient institutional and operational 
trainers remains a top priority. DOD is currently working with NATO to 
resource NTM-A. A series of SHAPE-led force generation efforts have 
resulted in a significant number of international commitments to help 
meet the institutional and operational trainer shortfall. The U.S. 
Government continues to be engaged in very active diplomatic efforts to 
urge our coalition partners to provide additional trainers and 
mentoring teams for the Afghan National Security Force (ANSF). We are 
also examining DOD's own contributions to ensure we are doing 
everything we can to fill the requirement.

             overseas contingency operations budget request
    81. Senator McCain. Secretary Gates, among the items in the fiscal 
year 2011 OCO supplemental budget request is a request for one F-35 JSF 
aircraft. I understand that this aircraft is intended to replace an F-
15E fighter plane from the 336th Fighter Squadron, Seymour Johnson Air 
Force Base, North Carolina that crashed while conducting combat 
operations in eastern Afghanistan, near the Ghazni province on July 18, 
2009. I also understand that the existing ground rules for determining 
what projects can be funded with the supplemental budget allow for the 
replacement of combat equipment as a result of loss during combat 
operations.
    I have been told that because the Air Force can no longer procure 
F-15E aircraft from the prime contractor, you elected to procure a 
fighter aircraft currently in production. I am troubled by this 
request. The JSF aircraft you are proposing to buy here will cost $205 
million, as opposed to the F-15E unit cost of around $65 million. More 
importantly, the very earliest that the Air Force can accept delivery 
of its first operationally capable aircraft will be 2013, and 
development of the JSF will not be completed until a few years later. 
Would you please provide a major cost breakout and explain why you are 
asking $205 million for this one JSF aircraft?
    Secretary Gates. In early summer 2009 the Air Force provided an 
estimate for a fiscal year 2011 OCO F-35 aircraft. At that time, the 
estimate was $204.9 million. This cost control was subsequently used to 
develop the detailed cost breakout that appeared in DOD's fiscal year 
2011 President's budget (PB) Justification. If Congress approves the 
additional OCO aircraft, the unit cost for 23 aircraft (fiscal year 
2011 22 aircraft plus 1 OCO aircraft) would be approximately $182.5 
million. OCO funds appropriated above this amount will be used for 
initial spares associated with the OCO F-35. The table below reflects 
the numbers which were submitted in the fiscal year 2011 PB 
documentation for the base and OCO request, and what the OCO numbers 
should have been in the documentation for the same weapon system unit 
cost ($182.5 million).
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    82. Senator McCain. Secretary Gates, as a cost effective 
alternative to buying a JSF aircraft here and to ensure timely fielding 
of needed strike fighter capability in theater, to what extent have you 
explored the possibility of refixing a legacy F-15E intended for 
retirement, or one that has actually been retired, pursuant to the Air 
Force's Combat Air Forces (CAF) Restructure Plan?
    Secretary Gates. The F-15E Strike Eagle is a two-seat all-weather 
ground attack aircraft designed for high-speed interdiction and is a 
derivative of the F-15C Eagle that is used for air superiority. The F-
15Es are some of the newest fighters in the Air Force (AF) active 
inventory, and as of today, none of them have been retired or are 
planned to be retired.

                       bmd-capable ships and sm-3
    83. Senator McCain. Secretary Gates, with the growing threat from 
China, North Korea, and the Middle East, does DOD have enough BMD/SM-3 
resources/assets to defend the United States, its allies, and forward 
deployed forces in the region? In answering this question, please break 
out your responses by BMD-capable ships and SM-3 missiles.
    Secretary Gates. The Department will have 20 Aegis BMD ships and 81 
SM-3 interceptors available for worldwide deployment by the end of 
fiscal year 2010. The Aegis BMD ships and SM-3 interceptors deployed to 
the East Asia, Middle East, and Europe are sufficient to carry out 
assigned missions in those regions.
    The Department also plans to have 23 Aegis BMD ships operationally 
available in fiscal year 2011, along with a total of 110 SM-3 
interceptors. By Phase 2 of the EPAA in the 2015 timeframe, the 
Department plans to have 37 Aegis BMD-capable ships along with 112 SM-3 
Block IA and 180 Block IB interceptors available.
    The Department understands that demand for regional BMD 
capabilities will outstrip supply for quite some time. Given this 
reality, DOD is pursuing a collaborative approach with Allies and 
partners to strengthen regional deterrence architectures. It is 
important to note that as we manage U.S. resources, our objective is to 
provide a steady-state capability that can be augmented for added 
defensive capability for a limited duration in times of increased 
threat. This is the essence of the phased adaptive approach to regional 
architectures.

    84. Senator McCain. Secretary Gates, does the Navy have enough 
Aegis Class Destroyers to support both MDA and Navy requirements?
    Secretary Gates. The Navy currently has sufficient large surface 
combatants to meet the demand for Aegis destroyers. The Navy does not 
have the capacity to meet the entire BMD requirement. In the near term, 
DOD will employ a comprehensive Global Force Management (GFM) process 
to most effectively allocate available surface combatants with Aegis 
BMD capability. A modernization program is in place to increase BMD 
capacity to meet the additional Combatant Commander's forward presence 
requirements for BMD capable ships. The restart of the Aegis 
shipbuilding program is aligned with providing the required Aegis BMD 
capacity.
    By spring 2010, Navy will have 21 BMD capable ships, and by 2015, 
new construction and modernization will bring the total of BMD capable 
ships to 27. The Navy will continue to work with the MDA to support 
global BMD demands. It is important to recognize that Navy force 
structure is not sized to utilize multi-mission Aegis ships for an 
exclusive use mission on an enduring basis. Such single mission use 
invariably results in shortages in other mission areas and a loss of 
operational flexibility for the Joint Force Commander. Navy's long-term 
plan is to make all Aegis destroyers and up to 15 Aegis cruisers BMD 
capable to provide BMD forward presence ``in stride'' while also 
performing its other missions.

                      contract oversight personnel
    85. Senator McCain. Secretary Gates, last May, the Special 
Inspector General for Afghanistan Reconstruction (SIGAR) found that 
Combined Security Transition Command-Afghanistan (CSTC-A), the lead 
element for training Afghan security forces, did not have ``the 
mechanisms necessary to ensure that U.S. funds are managed effectively 
and spent wisely.'' In particular, the SIGAR noted a lack of qualified 
contracting personnel in the command. Have you increased the number of 
personnel overseeing these training contracts, and if so, by how much?
    Secretary Gates. NATO Training Mission-Afghanistan and Combined 
Security Transition Command-Afghanistan (NTM-A/CSTC-A) takes 
contracting oversight seriously. Every resource that is misallocated 
due to inefficiency, miscommunications, and undue delay cannot 
contribute to improving the operational capabilities of the Afghan 
National Security Forces. Concerning contracting oversight, we have 
taken the following specific actions in the areas of oversight, quality 
assurance, contract management, and senior leadership review:

        <bullet> Oversight: For our large Continental United States 
        (CONUS) based contracts that require a substantial degree of 
        effort to implement adequate contract oversight, we have 
        coordinated to have the contracting command provide a full-time 
        'in-country' Contract Officer Representative (COR) located with 
        CSTC-A.
        For contracts that are awarded in Afghanistan and for small 
        CONUS based contracts CORs have been appointed from either 
        CSTC-A or other USFOR-A personnel. Additionally, for certain 
        contracts that require technical competence (such as vehicle 
        and weapons maintenance) we are arranging for U.S. Government 
        civilians from Army Depots (e.g. Red River Army Depot) to 
        deploy and provide us with oversight assistance.
        <bullet> Quality Assurance: We are enforcing the requirement 
        for Quality Assurance Surveillance Plans (QASP) for CSTC-A 
        contracts and have in place a tracking system to ensure 
        designated CORs are verifying compliance with the QASP. During 
        the contract planning phase, requirement generators develop a 
        detailed written QASP and the associated COR coverage 
        requirements identifying the quantity, locations, and required 
        qualifications & skills for required CORs to provide adequate 
        oversight coverage to reasonably ensure compliance with the 
        QASP.
        <bullet> Contract Management: We established a six-person CSTC-
        A Contract Management team that has developed improved 
        processes and they also monitor CSTC-A contracts to validate 
        contract oversight and share best practices across the command. 
        We are in the process of implementing a systemic approach to 
        review the contract oversight and standards for every contract. 
        Additionally, each month we identify COR requirements for every 
        location where contracted services are provided and update the 
        description of the oversight responsibilities that need to 
        performed.

    86. Senator McCain. Secretary Gates, in this audit, the SIGAR 
described a particular $404 million training contract where the 
government contracting personnel were located in Maryland and 
Pennsylvania--nine time zones away from where the work was actually 
being performed. Is DOD planning to deploy more DOD contract oversight 
personnel out to the field in Afghanistan?
    Secretary Gates. Yes. Overall the DOD has increased the numbers of 
Contracting Officer Representative (CORs) and Contracting Officer 
Technical Representatives (COTRs), and placed military commanders at 
each training site associated with this contract. In addition, DOD has 
taken the following steps to increase oversight:

        <bullet> Established a contract management cell within Combined 
        Security Transition Command-Afghanistan.
        <bullet> Added greater flexibility in assignment of contract 
        advisors with the ability to more geographically and among the 
        levels of Advisor/Trainer (Ministerial Systems, Institutional 
        Training, Field level).
        <bullet> Issued orders in theater on how to select, train and 
        place CORs for the upcoming Research and Development and 
        Engineering Command Contract.
        <bullet> Developed a contract statement of work to reduce the 
        number of contract advisors and identify other efficiencies and 
        increased contractor oversight in so doing.

    The Department takes its contingency contracting oversight 
functions extremely seriously and will continue to keep Congress 
informed of how the Department performs this important function.

                            naval readiness
    87. Senator McCain. Admiral Mullen, as you recall, the only 
priority that the Chief of Naval Operations (CNO) identified as 
unfunded in your last budget submission was ship depot maintenance. 
Over the last few months, a number of press accounts have come out 
describing problems directly related to how ineffectively the shipyards 
are maintaining the readiness of the Navy's oldest surface combatants. 
I understand that this year's proposed budget increases total funding 
for ship depot maintenance by almost $800 million over last year. To 
what extent does that proposed amount fully fund the Navy's current 
requirement for ship depot maintenance and capture depot maintenance 
volume that has accumulated from chronic underfunding over time?
    Admiral Mullen. The fiscal year 2011 budget request in the O&M 
baseline and Other Contingency Operations accounts is $6.1 billion and 
funds 99 percent of the total projected ship maintenance requirement. 
This request, and the percent of requirement funded, clearly reflects 
the Navy's commitment to ensure that ships are properly maintained to 
support current operations, and reach their expected service lives.
    The request also funds the Surface Ship Life Cycle Management 
(SSLCM) activity. Established in May 2009, SSLCM mission is to provide 
centralized SSLCM. In conjunction with Naval Sea Systems Command and 
Commander, Naval Surface Forces (CNSF), the SSLCM activity conducted a 
detailed review of fiscal year 2011 surface ship maintenance 
requirements. The fiscal year 2011 budget request incorporates the 
results of this review. The SSLCM activity is assessing maintenance 
requirements for each ship class based on engineered technical 
requirements necessary to reach expected service life, and any 
additional requirements that are identified will be included in future 
budget requests.

                       c-17 acquisition programs
    88. Senator McCain. Secretary Gates, over the last 4 years, the 
Senate Appropriations Committee added 44 C-17s that we neither needed 
nor could afford, at a total cost of over $14 billion above DOD's 
requests--in the form of earmarks. As DOD had done in the preceding few 
years, you proposed last year to cancel the C-17 Globemaster program 
and argued against a congressional earmark that intended to buy 10 more 
of those aircraft for $2.5 billion. You stated that the cost of buying 
and operating those additional aircraft would ``invariably result in a 
reduction in critical warfighting capability somewhere else in the 
defense program.'' Is this view shared by the Service Chiefs and 
unified and combatant commanders?
    Secretary Gates. The current C-17 fleet is in excess of our 
strategic airlift needs, resulting in increased operating costs at the 
expense of other priorities. This position, supported by the Services 
and Combatant Commanders, is based on the findings of several recent 
mobility studies to include the Mobility Capabilities Requirements 
Study 2016 (MCRS-16). The objectives of MCRS-16 were to determine the 
mobility capabilities and requirements needed in support of the 
National Military Strategy in the 2016 timeframe, to determine 
capability gaps/overlaps associated with the programmed mobility force 
structure, and to support the QDR and decisions regarding mobility 
programs. The study found that the planned capacity of the programmed 
strategic airlift fleet, consisting of 223 C-17s and 111 C-5s, exceeds 
the most demanding projected requirements. In addition, the report 
noted that C-17s could be used to support intra-theater missions 
without adding to the peak demand for C-17s. Both of these insights are 
consistent with findings from previous mobility studies.
    Based upon this information no additional C-17s should be procured, 
and I request your support in granting me the authority to allow for 
the proper management of the strategic fleet by providing the 
Department greater flexibility in retiring C-5 aircraft and eliminating 
the current statutory requirement to maintain a minimum fleet of 316 
strategic airlift aircraft.

    89. Senator McCain. Secretary Gates, what affect would the purchase 
of yet more C-17s, as some Members might insist on again this year, 
have on our ability to field critical warfighting capabilities?
    Secretary Gates. Unnecessary acquisition programs deplete funding 
for our readiness accounts which jeopardize our ability to meet defense 
objectives to prevail in today's wars, prevent and deter conflict, 
prepare to defeat adversaries and succeed in a wide range of 
contingencies, and preserve and enhance the All-Volunteer Force.
    I am fully aware of the political pressure to continue building the 
C-17, but I will strongly recommend that the President veto any 
legislation that sustains the unnecessary continuation of this program.

    90. Senator McCain. Secretary Gates, while I appreciate your 
commitment in your opening statement to recommend a veto for further C-
17 funding in the current budget request, will you request that that 
the President directly signal his intent to veto this bill if it 
authorizes any expenditure for more C-17s, as was done with F-22 
funding last year?
    Secretary Gates. I will continue to strongly recommend to the 
President that he veto any legislation that sustains the unnecessary 
continuation of the C-17 program for the reasons stated in my 
testimony.

                            missile defense
    91. Senator McCain. Secretary Gates, the supply of missile defense 
assets, whether it be Aegis cruisers, SM-3 missiles, THAAD units, etc., 
pales in comparison to the worldwide demand of our combatant 
commanders. How does DOD and this budget seek to satisfy the stressing 
needs of the new European phased adaptive approach while also 
continuing to meet those needs of our ongoing efforts in the Pacific, 
the Middle East, and the Homeland?
    Secretary Gates. The fiscal year 2011 President's budget request 
affirms and continues the decisions made in the fiscal year 2010 PBR to 
realign BMD programs and plans to focus on regional missile defenses. 
Toward this end, investments in regional missile defenses amount to 
about $3.8 billion in the fiscal year 2011 President's budget request, 
or almost half of the MDA budget request. Significant investments will 
continue over the FYDP, enabling the Department to make progress in 
closing the gap between demand and supply. By 2015 DOD plans to have 6 
THAAD batteries with 281 interceptors, along with 292 SM-3 interceptors 
and 37 Aegis BMD-capable ships.
    As the Department makes progress on fielding additional regional 
missile defenses, I will also work to build on a strong foundation of 
cooperative relationships and utilize appropriate contributions from 
Allies. It is important to note that as we manage U.S. resources, my 
objective is to provide a steady-state capability that can be augmented 
for added defensive capability for a limited duration in times of 
increased threat. This is the essence of the phased adaptive approach 
to regional architectures.

    92. Senator McCain. Secretary Gates, does modernization and 
sustainment of our GBIs and the development and testing of a two-stage 
GBI remain a priority for DOD?
    Secretary Gates. Yes. I believe that defending the homeland against 
the threat of limited missile attack is a high priority for the 
Department. Therefore, the DOD is committed to continue modernizing and 
sustaining the GMD system.
    The fiscal year 2011 President's budget request lays out a funded 
plan that includes fielding 30 operational GBIs, as well as delivery of 
4 additional interceptors as operational spares (based on reliability 
estimations), and 18 additional interceptors to support the flight test 
program. The GMD sustainment program will maintain and support an 
effective defensive system, meeting Warfighter requirements over the 
expected 20-year life cycle.
    As part of a hedging strategy for homeland defense against long-
range ballistic missile attacks, the Department is continuing the 
development and assessment of the two-stage GBI. The planned two-stage 
flight testing also supports three-stage data collection requirements 
and adds to our confidence in and sustainment of the GBIs.

    93. Senator McCain. Secretary Gates, are you committed to the 
modernization and sustainment of our GBIs and the procurement of 
additional GBIs if it were determined that technological advancements 
with the SM-3 do not come to fruition in the planned timeframe?
    Secretary Gates. I am committed to modernizing and sustaining the 
GMD system as the Department defends the United States against 
ballistic missiles.
    The fiscal year 2011 President's budget request lays out a funded 
plan that includes completing the fielding of 30 operational GBIs; 
delivering 22 additional GBIs for testing, stockpile reliability, and 
operational spare requirements; and refurbishing 16 of the original 52 
GBIs for both operational and flight test rotation during the FYDP. The 
budget request also provides for continued Exoatmospheric Kill Vehicle 
(EKV) software upgrades for the GBIs with focus on improved probability 
of kill while leveraging improved sensor data. Additionally, we will be 
completing the establishment of a second command and control node at 
Fort Greely, AK.
    The GMD sustainment program maintains and supports an effective 
defensive system, meeting Warfighter requirements over the expected 20-
year life cycle. This program is planned within established Army and 
Navy standards for missile field and depot-level support, including the 
surveillance and testing of GBIs over their lifetime. A service-life 
extension decision is anticipated in the 2027 timeframe.
    Development and testing of the two-stage GBI will continue as a 
hedge alternative should the SM-3 Block II A/B not emerge as 
anticipated. The first two-stage GBI test will occur this summer.

                        nuclear weapons complex
    94. Senator McCain. Secretary Gates, in the past you have been 
quite vocal on the need for modernization of the nuclear weapons 
complex. The fiscal year 2010 budget lacked adequate funding to address 
the dire infrastructure needs. More than a year has passed since you 
stated that ``there is absolutely no way we can maintain a credible 
deterrent and reduce the number of weapons in our stockpile without 
either resorting to testing our stockpile or pursuing a modernization 
program.'' Do you believe the President's fiscal year 2011 budget 
addresses the critical needs for modernizing our nuclear weapons 
complex?
    Secretary Gates. Yes, I believe that the fiscal year 2011 budget 
provides a credible modernization program to meet the national security 
needs of the United States. The fiscal year 2011 budget for the 
National Nuclear Security Administration (NNSA) reverses a decade's 
long decline in the U.S. nuclear weapons enterprise in terms of both 
stockpile management and the recapitalization of aging and 
unsustainable nuclear facilities that do not meet modern safety 
standards.
    Specifically, the fiscal year 2011 NNSA budget requests funds to:

        <bullet> Revitalize warhead surveillance efforts, and the 
        science and technology that supports stockpile assessment and 
        certification in the absence of nuclear testing.
        <bullet> Protect human capital--including the expertise to 
        design, develop, and field warheads-through a stockpile 
        management program that fully exercises these capabilities.
        <bullet> Design and build a modern facility at Los Alamos--the 
        Chemistry and Metallurgy Research Replacement Nuclear 
        Facility--for plutonium R&D and pit production support.
        <bullet> Design and build a modern facility at Y-12--the 
        Uranium Processing Facility--to support Highly Enriched Uranium 
        (HEU) and related operations.

                     funds for the closure of gtmo
    95. Senator McCain. Secretary Gates, the OCO portion of the 
President's budget request for fiscal year 2011 includes $350 million 
in a transfer fund for the detention facilities at GTMO, provides 
funding to make improvements at the Illinois State Prison at Thomson, 
IL, in the amount of $150 million, and includes another $158 million 
for information technology improvements at the Rock Island Arsenal, IL, 
to support DOD detainee operations at Thomson. These funds are in 
addition to another $150 million in the Department of Justice (DOJ) 
budget request to purchase the Thomson facility from the State of 
Illinois. Current law prohibits bringing detainees from GTMO for any 
reason except for detention during trial or for other legal 
proceedings.
    Why are the amounts requested for purchase and improvement of 
Thomson and information technology support, a total of nearly $458 
million, so high considering that the existing prison and courtroom 
facilities at GTMO were built for about $240 million?
    Secretary Gates. The $350 million request is for detainee 
operations in general and not just for Thomson. Of the $350 million, 
approximately $100 million is for improvements at Thomson Correctional 
Center, approximately $50 million is for improvements at Rock Island 
Arsenal, approximately $35 million is for procuring capital equipment 
for the facility, and approximately $60 million is for capital 
equipment and supplies for detention operations. The remaining $105 
million is for operations at GTMO and Thomson.
    The $458 million request includes DOJ purchase, DOJ operations, DOD 
renovations, and DOD operations. When operations costs are excluded, 
the relevant comparison for ``GTMO'' facility investment at Thomson is 
approximately $200 million (DOJ's purchase price of DOD's portion of 
the prison plus DOD's renovation costs).

    96. Senator McCain. Secretary Gates, are these amounts in addition 
to the more than $200 million per year that it is estimated to cost to 
try Khalid Sheikh Mohammed and his four September 11 cohorts in New 
York?
    Secretary Gates. The $200 million per year was estimated by New 
York City officials as their cost to conduct the trials. The amounts 
requested in the President's budget are separate from this estimate.

    97. Senator McCain. Secretary Gates, what is the estimated amount 
of funding necessary to carry out all September 11 terrorist trials in 
GTMO?
    Secretary Gates. I cannot estimate a number at this time. The cost 
per trial varies depending on the number of pre-trial motions, 
witnesses, and other variables which are difficult to predict.

    98. Senator McCain. Secretary Gates, what is the estimated amount 
to try all the detainee cases the DOJ believes can be tried, which I 
understand is about 35 total cases, in GTMO?
    Secretary Gates. I cannot estimate a number at this time. The cost 
per trial varies depending on the number of pre-trial motions, 
witnesses, and other variables which are difficult to predict.

    99. Senator McCain. Secretary Gates, why is $158 million needed for 
information technology improvements at Rock Island to support detention 
facilities at Thomson?
    Secretary Gates. Of the $350 million request, only approximately 
$35 million is for procuring capital equipment, which includes 
information technology hardware at both Thomson and Rock Island.

    100. Senator McCain. Secretary Gates, does this request include 
funding for military housing and other base support facilities at 
Thomson and Rock Island for the military personnel that will be 
stationed to support the new facility?
    Secretary Gates. No, it does not. There are no plans to build 
military housing because the Department's initial preliminary 
environmental assessment shows that the local economy can support the 
estimated number of personnel that will work at Thomson and Rock 
Island.

    101. Senator McCain. Secretary Gates, how many military personnel 
will be assigned to Thomson and where will they be housed?
    Secretary Gates. I estimate that approximately 800 military 
personnel will be assigned to Thomson in a temporary duty status at 
initial operational capability. The exact number of military personnel 
assigned to Thomson will be determined by the Commander, U.S. Northern 
Command (NORTHCOM). These personnel will leverage the local economy for 
housing, and initial environmental planning documents affirm that the 
local economy can support them.

    102. Senator McCain. Secretary Gates, how many additional military 
personnel will be assigned to Rock Island to support detention 
operations at Thomson and where will they be housed?
    Secretary Gates. Pending completion of NORTHCOM's planning efforts, 
I estimate that up to 500 personnel supporting the detainee operations 
will be assigned to Rock Island at initial operational capability. The 
exact number of personnel assigned to Rock Island will be determined by 
the Commander, NORTHCOM. These personnel will leverage the local 
economy for housing, and initial environmental planning documents 
affirm that the local economy can support them.

    103. Senator McCain. Secretary Gates, if Congress approves a change 
in the law to allow long-term detention without trial in the United 
States, and also approves the funding requested to purchase and improve 
detention facilities at Thomson, what is the timeline to begin 
detention operations at Thomson?
    Secretary Gates. From the date the restriction on long-term 
detention without trial in the United States ceases to have effect, and 
the funding requested to purchase and improve detention facilities at 
Thomson becomes available. I would not give any estimate because there 
are too many variables to work through.

    104. Senator McCain. Secretary Gates, when do you estimate the 
Bureau of Prisons would purchase the Thomson facility from the State of 
Illinois?
    Secretary Gates. The Bureau of Prisons cannot begin negotiating a 
purchase price until enactment of the portion of the President's fiscal 
year 2011 budget that contains the DOJ appropriations and provides 
funding for planning and assessment to continue at Thomson.

    105. Senator McCain. Secretary Gates, when would the extensive 
improvements at Thomson and Rock Island begin?
    Secretary Gates. Improvements could not begin until the 
environmental assessment is completed, the Bureau of Prisons purchases 
the facility, and DOD receives authorization and funding from Congress.

    106. Senator McCain. Secretary Gates, when would the IOC for 
detention operations at Thomson be achieved?
    Secretary Gates. I estimate that initial operational capability 
would be achieved 10-13 months after DOD receives authorization and 
funding from Congress.

    107. Senator McCain. Secretary Gates, when is the earliest date 
that military commission trials be held at Thomson under this plan?
    Secretary Gates. Military commission trials could be held when 
initial operating capability is achieved.

    108. Senator McCain. Secretary Gates, when would the Final 
Operational Capability (FOC) for detention operations at Thomson be 
achieved?
    Secretary Gates. Full operational capability would be achieved in 
13-18 months after DOD receives authorization and funding from 
Congress.

    109. Senator McCain. Secretary Gates, what is the difference in 
terms of the number of detainees that could be held or the nature of 
detention operations between IOC and FOC?
    Secretary Gates. There is no difference in either the number of 
detainees that could be held at IOC and FOC or the nature of detention 
operations at IOC and FOC.

    110. Senator McCain. Secretary Gates, on what date would detention 
operations at GTMO actually end?
    Secretary Gates. Detention operations at GTMO could end shortly 
after Thomson is operational.

                     disposition of gtmo detainees
    111. Senator McCain. Secretary Gates, the President established a 
Joint Task Force (JTF) shortly after taking office last January to 
review all the available information on the detainees at GTMO and to 
make recommendations on whether they should be tried, released, or held 
long-term without trial. These recommendations were to extend to 
whether trials should be by military commission or by Federal courts, 
and the location of such trials. After extending the deadline for their 
work by 6 months, the media now reports that the report has been 
completed and recommendations on all the detainees have been made. When 
will the JTF report be made available to Congress, since the details it 
contains will influence our consideration of funding for alternatives 
to GTMO?
    Secretary Gates. The report was completed on January 22, 2010, and 
subsequently sent to the White House. It is not my decision to release 
the report.

    112. Senator McCain. Secretary Gates, will the administration come 
forward with a legislative proposal to repeal the current restrictions 
on bringing detainees from GTMO to the United States in time for 
comprehensive review before Congress receives the JTF report or takes 
action on the funding request for the closure of GTMO?
    Secretary Gates. The administration is reviewing a number of 
possibilities relating to this issue, and it will not move any 
detainees to the United States unless it is in full compliance with 
U.S. law.

    113. Senator McCain. Secretary Gates, if an administration's 
legislative proposal is forthcoming, will it address other aspects of 
detention policy such as:

        <bullet> a prohibition on release of detainees into the United 
        States;
        <bullet> denial of any immigration status to detainees, 
        including refugee and asylum status, if detainees are ordered 
        released by a Federal court as a result of habeas corpus 
        challenges to their detention;
        <bullet> authorization for long-term detention without trial 
        within the United States; and
        <bullet> uniform rules for Federal courts to apply in 
        conducting habeas corpus proceedings reviewing the detention of 
        terrorists captured during our ongoing armed conflict with al 
        Qaeda and the Taliban, and associated forces, which are 
        responsible for the attacks of September 11?

    Secretary Gates. The President said that we will not release any 
detainee into the United States who will endanger American lives, and 
that we will use all lawful and appropriate means to protect the 
American people. The authority to detain individuals under the 
immigration laws pending their removal from the United States, 
particularly where they pose a threat to national security, is but one 
mechanism that may be relied upon, if necessary, to ensure that 
detainees will not endanger our citizens.
    Furthermore, denial of any immigration status to detainees has 
already been constituted. Section 552(f) of the fiscal year 2010 
Department of Homeland Security Appropriations Act, which was signed 
into law by the President on October 28, 2009, specifically bars 
immigration benefits for detainees including ``classification as a 
refugee or applicant for asylum.''

                         law of the sea treaty
    114. Senator McCain. Secretary Gates, the U.S. has not ratified the 
Law of the Sea Treaty while China has continued efforts to assert 
sovereignty over contested areas in the South China Sea and in other 
areas where such claims support China's national security interests. 
Beijing has now suspended military-to-military exchanges as a result of 
the recent U.S. announcement to continue defensive arms sales to 
Taiwan. How are we managing our relationship with China in disputed 
areas such as its maritime claims?
    Secretary Gates. Despite China's recently announced suspension of 
military-to-military relations, I remain highly committed to 
strengthening the mechanisms that the Department has in place to engage 
China on this and other security issues, including the U.S.-China 
Defense Consultative Talks, the U.S.-China Defense Policy Coordination 
Talks, and the U.S.-China Military Maritime Consultative Agreement 
process. These mechanisms provide for open and sustained channels of 
communication to build greater confidence and mutual understanding, 
discuss candidly our differences, and improve understanding and 
application of safety standards and rules of the road for operations 
that improve the safety of sailors and airmen of all countries in the 
region.
    I regard any suspension of discussions on operational safety as 
potentially dangerous, and I regard the suspension of these discussions 
on political grounds as particularly unfortunate. PLA General Xu Caihou 
and I both reaffirmed our commitment to maintaining open dialogue on 
security and safety issues during his visit in October. The United 
States remains committed to all of our dialogue mechanisms with the 
PLA.
    Regarding China's maritime claims and the competing claims by other 
states around the South China Sea, U.S. policy continues to be that we 
do not take sides on the competing legal claims over territorial 
sovereignty, including those in the South China Sea and East China Sea. 
Furthermore, the United States does not propose to arbitrate or mediate 
the underlying conflicts between the competing claims. However, it is 
my view that our strong and continued presence in the region does 
provide a sense of stability and a modicum of breathing room for the 
claimants to pursue political means to resolve these issues. In short, 
the U.S. presence is a stabilizing influence for all claimants in the 
region.

    115. Senator McCain. Secretary Gates, how do you think the 
relationship with China will develop as we continue to share the global 
commons--sea, air, space and cyberspace--as our interests clash or 
diverge?
    Secretary Gates. As U.S.-PRC interactions at sea, in the air, in 
space, and in cyberspace become more frequent, it will become 
increasingly important that the United States and China have effective 
mechanisms for communication to avoid miscalculation or 
misunderstanding. I believe that the United States and China should 
seek to recognize and expand shared interests in upholding the 
stability of, and access to, the global commons, and work together 
cooperatively in support of those interests. Where our interests 
diverge, we must ensure that each has a clear understanding of the 
other's intentions, and that open channels of communication exist to 
avoid escalatory reactions or perceptions that could breed mistrust or 
inadvertently destabilize the overall bilateral relationship. Whether 
addressing shared or divergent interests with China, I have been 
diligent to ensure DOD's positions are advanced in accordance with 
customary international law.
    DOD has several existing mechanisms to facilitate discussion with 
China on the topics you mentioned, and the Department is examining ways 
to expand their scope and effectiveness. In 1998, then-Secretary Cohen 
signed the Military Maritime Consultative Agreement (MMCA) with China's 
Minister of Defense, and under its auspices the U.S. and China have 
held discussions on maritime operational safety, at sea and in the air. 
In 2005, DOD established what became the Defense Policy Coordination 
Talks as a forum for discussing, among other things, issues of maritime 
security. In 2008, DOD also began a Dialogue on Nuclear Policy and 
Strategy, and, in October 2009, General Xu Caihou, Vice Chairman of 
China's Central Military Commission, visited U.S. Strategic Command 
(STRATCOM) and engaged in discussions with General Chilton and his 
staff on the issues under STRATCOM's purview.
    The American and Chinese Governments have not yet reached the point 
where these interactions are sufficiently consistent or substantive to 
constitute the solid foundation needed for a stable and productive 
relationship--one that can withstand the stresses that inevitably 
emerge between two countries with interests as diverse as those of the 
United States and China. Going forward, I believe that a whole-of-
government approach on both sides of the table provides the best 
formula for building the necessary foundation.

                      okinawa to guam realignment
    116. Senator McCain. Secretary Gates, on February 17, 2009, the 
U.S. Government reaffirmed its support of an agreement with the 
Government of Japan (GOJ) concerning the implementation of the 
relocation of 8,000 marines and their families from Okinawa to Guam by 
2014 in a manner that maintains unit integrity. Since then, Japan 
elected a new Prime Minister, Yukio Hatoyama, who has asked the U.S. 
Government to consider new options for the Futenma Replacement Facility 
(FRF), which is part of the larger agreement for Guam. I note that the 
agreement stipulates that the Japanese Government must demonstrate 
tangible progress regarding the FRF, which has been defined to include 
a signature by the Governor of Okinawa on a landfill permit required to 
commence construction. This action was currently planned to take place 
in mid to late 2010. In a press conference yesterday, you suggested 
that we should demonstrate patience in the negotiations with the 
Japanese Government on the future of the agreement. With that said, the 
fiscal year 2011 budget request contains $387 million in military 
construction funds for infrastructure on Guam to support the relocation 
of marines from Okinawa. This is in addition to $160 million authorized 
for construction in the 2010 defense bill. If the Japanese position 
does not change regarding Futenma, will DOD still proceed with the 
award of construction contracts on Guam to support the relocation of 
the marines?
    Secretary Gates. The fiscal year 2011 budget request is $452 
million in military construction funds for infrastructure on Guam to 
support the relocation of marines from Okinawa. The NDAA for Fiscal 
Year 2010 approved $514 million to support the relocation effort.
    The framework for U.S.-Japan force posture realignment is the U.S.-
Japan Roadmap for Realignment Implementation, issued following the May 
1, 2006, meeting of the cabinet-level U.S.-Japan Security Consultative 
Committee. This framework confirms that the Okinawa-related realignment 
initiatives are interconnected and, specifically, that the III Marine 
Expeditionary Force (III MEF) relocation from Okinawa to Guam is 
dependent on, among other things, tangible progress toward completion 
of the FRF.
    The relocation to Guam is a capabilities issue, not a basing issue. 
I have a responsibility to provide operationally ready forces in 
support of the combatant commander and to meet our commitments to 
Allies and partners in the region, including under the U.S.-Japan 
Treaty of Mutual Cooperation and Security.
    The Department is currently waiting for the GOJ to complete its 
review of the FRF. Prime Minister Hatoyama stated that he intends to 
resolve the issue by May, and I look forward to resuming work with the 
GOJ to fulfill our longstanding mutual objective of realigning our 
force posture in Japan to ensure that the Alliance's operational 
capabilities remain politically and operationally sustainable.

    117. Senator McCain. Secretary Gates, what other options are 
acceptable to DOD for the relocation of Marine Corps aviation units 
from Marine Corps Air Station Futenma?
    Secretary Gates. The FRF, included in the May 2006 U.S.-Japan 
Realignment Roadmap, resulted from several years of bilateral 
coordination that took into account the political, operational, safety, 
noise, environmental, and infrastructure requirements associated with 
the Marine Corps forces in Okinawa. These forces, which consist of air, 
ground, logistics, and command elements, remain dependent upon the 
interaction of those elements in regular training, exercises, and 
operations.
    I am not aware of any other options that meet these criteria. DOD 
is prepared to review what the GOJ comes up with to determine its 
feasibility, including operational, safety, noise, environmental, and 
infrastructure aspects, as well as to discuss its political 
sustainability given local conditions. DOD remains committed to the 
FRF--as reflected in the May 2006 Realignment Roadmap--as the best way 
to move forward with the strategic transformation of U.S. presence in 
Okinawa.

    118. Senator McCain. Secretary Gates, when do you expect to see a 
resolution on the status the FRF?
    Secretary Gates. Prime Minister Hatoyama stated that he intends to 
resolve the issue by May. The GOJ is conducting a review of options and 
has asked the U.S. Government to be patient as they prepare to present 
an official alternative. I look forward to resuming work with the GOJ 
to fulfill our longstanding mutual objective of realigning our force 
posture in Okinawa to be more politically and operationally 
sustainable.

    119. Senator McCain. Secretary Gates, would you recommend to the 
President the continuation of the movement of marines to Guam absent an 
acceptable solution for the FRF?
    Secretary Gates. The current framework for U.S.-Japan force posture 
realignment is the U.S.-Japan Roadmap for Realignment Implementation, 
issued following the May 1, 2006, meeting of the cabinet-level U.S.-
Japan Security Consultative Committee. This framework confirms that the 
Okinawa-related realignment initiatives are interconnected and, 
specifically, that the III Marine Expeditionary Force (III MEF) 
relocation from Okinawa to Guam is dependent on, among other things, 
tangible progress toward completion of the Futenma Replacement Facility 
(FRF).
    A suitable FRF is considered the ``lynchpin'' for III MEF 
relocation to Guam. The relocation to Guam is a capabilities issue, not 
a basing issue. I have a responsibility to provide operationally ready 
forces in support of the combatant commander and to meet our 
commitments to allies and partners in the region, including under the 
U.S.-Japan Treaty of Mutual Cooperation and Security.
    The Department is currently waiting for the GOJ to complete its 
review of the FRF. Prime Minister Hatoyama stated that he intends to 
resolve the issue by May, and I look forward to resuming work with the 
GOJ to fulfill our longstanding mutual objective of realigning our 
force posture in Japan to ensure that the Alliance's operational 
capabilities remain politically and operationally sustainable.

    120. Senator McCain. Secretary Gates, if the GOJ fails to approve 
the current roadmap regarding Futenma, is the United States prepared to 
nullify the current framework and remain in Futenma?
    Secretary Gates. The current framework for U.S.-Japan force posture 
realignment is the U.S.-Japan Roadmap for Realignment Implementation, 
issued following the May 1, 2006, meeting of the cabinet-level U.S.-
Japan Security Consultative Committee. While a suitable FRF is 
considered essential for an enduring presence on Okinawa, the 
Department is prepared to stay at Futenma if no replacement facility is 
approved by the GOJ.
    The GOJ is reviewing the FRF; Prime Minister Hatoyama has stated 
that he intends to resolve the issue by May. We look forward to 
resuming work with the GOJ to fulfill our longstanding mutual objective 
of realigning our force posture in Japan to ensure that the Alliance's 
operational capabilities remain sustainable, politically and 
operationally. We have a responsibility to provide operationally ready 
forces in support of the combatant commander and to meet our 
commitments to allies and partners in the region, including under the 
U.S.-Japan Treaty of Mutual Cooperation and Security.

                      international pilot training
    121. Senator McCain. Secretary Gates, many of our allies choose to 
conduct fighter pilot training here in the United States for various 
reasons ranging from the availability of adequate ranges to cost and 
the quality of training. This obviously affords the U.S. Air Force an 
outstanding opportunity to partner and train with NATO and other allied 
pilots. From what I have been told, the Secretary of the Air Force's 
International Affairs office manages the program. Does DOD normally 
guide or influence a partner nation's selection of the best location 
among candidate bases already conducting similar missions in the United 
States to conduct training to maximize efficiency for cost, quality of 
training, and access to ranges?
    Secretary Gates. There is no initiative in the U.S. Air Force 
concerning a decision to influence or guide international partner pilot 
training to a particular location. The Air Force provides tuition-based 
pilot training at 14 locations. Each location, with the exception of 
undergraduate pilot training, is the sole provider of tuition-based 
training for a particular model of aircraft. For example, all F-16 
tuition-based training is done at Tucson Air National Guard Base 
(ANGB), AZ, through the 162d Fighter Wing and their assigned F-16 
aircraft and instructor pilots.
    When a partner nation desires to bed down its own aircraft at a 
continental United States (CONUS) air force base, the Secretary of the 
Air Force for International Affairs (SAF/IA) provides options based on 
the country's requested training needs and budgetary requirements. When 
presented with available locations, training capabilities, and pricing 
information, the partner nation selects the training venue that best 
meets their needs. The U.S. Air Force is committed to providing the 
most effective training venue available for our international partners 
consistent with their training needs and budget by dispassionately 
providing the facts and costs for the available training.

    122. Senator McCain. Secretary Gates, would the office of the 
Secretary of Defense have any reason to provide guidance to Secretary 
of the Air Force's International Affairs office to encourage an allied 
nation to remain at a certain location, regardless of the cost or 
quality of training? If so, what would be those reasons and why?
    Secretary Gates. There are occasions when discussions take place 
between the appropriate DOD offices and a partner nation concerning 
their choice of a bed down training location, usually when information 
is requested by the partner nation. Cost and quality of training are 
always considered in these discussions and are provided on all 
available training locations. Once the data are provided, we expect the 
partner nation to make the decision that best meets their training 
needs and budgetary requirements.
    When a partner nation requests tuition-based training for a 
specific aircraft, there are no alternatives and the requesting nation 
is limited to the stated location and standard student cost.

         contractor performance for the missile defense agency
    123. Senator McCain. Secretary Gates, in the fiscal year 2011 
budget press conference for the MDA, David Altwegg, Executive Director, 
was asked about the quality of work being conducted by contractors on 
MDA acquisition programs. Altwegg responded stating:

          ``I'm not going to name names today, but I'm going to tell 
        you we continue to be disappointed in the quality that we are 
        receiving from our prime contractors and their subs--very, very 
        disappointed; quality-design issues, but more in quality of 
        products delivered, which then results in rework and which 
        reserved--because most of these contracts are cost contracts, 
        it costs the taxpayer more.''

    Given the cost-plus nature of many of these contracts and the 
allegation that reckless failures by contractors are resulting in 
unnecessary cost increases, how do you intend to address these 
concerns, both within MDA and across DOD?
    Secretary Gates. MDA has consistently expressed concern over the 
magnitude and frequency of quality problems encountered in the 
development and manufacture of the various elements that make up the 
Missile Defense System.
    MDA made significant changes in its acquisition processes over the 
past several years that both Lieutenant General O'Reilly, the MDA 
Director, and I believe will improve the quality in the manufacture of 
our weapons systems. Specifically:

        <bullet> MDA established a robust quality organization within 
        the Agency, which focuses on tackling problems identified 
        during development and testing. One of the first steps of this 
        organization was the development of a MDA Assurance Plan, and a 
        MDA Parts, Materials and Process Plan. These plans require 
        major contractors to adopt disciplined processes and procedures 
        that lead to enhanced quality, a reduction in rework, lower 
        costs, and preventing ``parts'' quality issues from progressing 
        to the finished components. Second, MDA Quality Safety and 
        Mission Assurance now conducts periodic mission assurance 
        audits at contractors' facilities to monitor compliance and 
        ensure the contractors are following their approved policies 
        and procedures for the manufacture of systems. Following the 
        audit, any deficiencies identified are tracked and reported to 
        the MDA Director until they are successfully closed out.
        <bullet> MDA made significant changes to the award fee process 
        and quality control has received increased emphasis over the 
        past year. Prior to the beginning of each award fee period, the 
        contractor is provided with an expectations letter clearly 
        articulating the areas that the fee determining official 
        considers to require emphasis during the period. The award fee 
        expectations letters outline to contractors that poor quality 
        will not be tolerated and will reduce award fee earned when 
        appropriate.
        <bullet> MDA also moved away from cost plus award fee contracts 
        to cost plus incentive fee contracts, an approach that measures 
        contractor performance more precisely. Cost overruns result in 
        lower fees, while the contractor has also the opportunity to 
        earn more based on demonstrated positive performance against 
        objective criteria.
        <bullet> MDA performs an annual assessment of its contractor's 
        performance that is recorded in a database called Past 
        Performance Information Retrieval System (PPIRS) where these 
        assessments are retrieved and used as part of past performance 
        evaluations supporting future source selections throughout DOD. 
        Negative reports, such as poor quality control, can lead to a 
        contractor not being selected for a competitive contract award.
        <bullet> MDA embarked on efforts to re-compete many of its 
        major contracts. The Agency's expectation is that the 
        competitive process will result in lower cost, better 
        performance, and higher quality.
        <bullet> MDA clearly articulated to companies that it will not 
        authorize future contract scope when a clear trend of poor 
        quality assurance is not addressed by senior personnel and they 
        do not initiate changes to cause enduring improvement in the 
        quality and reliability of products.

    124. Senator McCain. Secretary Gates, what steps can be taken to 
ensure that contractors are held responsible to provide quality 
products without unnecessary increases in cost?
    Secretary Gates. I believe that the greater use of incentive-type 
contracts with cost incentives and objective criteria, rather than 
award fee contracts with more subjective criteria, should improve 
contractor performance. In addition, greater emphasis on past 
performance as a discriminator during contract competitions will 
incentivize sources to achieve quality performance.

    125. Senator McCain. Secretary Gates, please explain to what extent 
the fee structure of those contracts covered by Executive Director 
Altwegg's comment can be better designed to incentivize optimal 
performance. What specific remedial efforts do you intend to employ to 
achieve that result?
    Secretary Gates. The contract fee structure is just one element in 
how we motivate or incentivize better contract performance. We will 
monitor contractor performance under the revised incentive structure 
over time and propose new steps when appropriate. The steps taken by 
MDA will accomplish our mutual goal of achieving optimal contract 
performance. Specifically:

        <bullet> MDA established a robust quality organization within 
        the Agency, which focuses on tackling problems identified 
        during development and testing. One of the first steps of this 
        organization was the development of a MDA Assurance Plan, and a 
        MDA Parts, Materials and Process Plan. These plans require 
        major contractors to adopt disciplined processes and procedures 
        that lead to enhanced quality, a reduction in rework, lower 
        costs, and preventing ``parts'' quality issues from progressing 
        to the finished components. Second, MDA Quality Safety and 
        Mission Assurance now conducts periodic mission assurance 
        audits at contractors' facilities to monitor compliance and 
        ensure the contractors are following their approved policies 
        and procedures for the manufacture of systems. Following the 
        audit, any deficiencies identified are tracked and reported to 
        the MDA Director until they are successfully closed out.
        <bullet> MDA made significant changes to the award fee process 
        and quality control has received increased emphasis over the 
        past year. Prior to the beginning of each award fee period, the 
        contractor is provided with an expectations letter clearly 
        articulating the areas that the fee determining official 
        considers to require emphasis during the period. The award fee 
        expectations letters outline to contractors that poor quality 
        will not be tolerated and will reduce award fee earned when 
        appropriate.
        <bullet> MDA also moved away from cost plus award fee contracts 
        to cost plus incentive fee contracts, an approach that measures 
        contractor performance more precisely. Cost overruns result in 
        lower fees, while the contractor has also the opportunity to 
        earn more based on demonstrated positive performance against 
        objective criteria.
        <bullet> MDA performs an annual assessment of its contractor's 
        performance that is recorded in a database called PPIRS where 
        these assessments are retrieved and used as part of past 
        performance evaluations supporting future source selections 
        throughout DOD. Negative reports, such as poor quality control, 
        can lead to a contractor not being selected for a competitive 
        contract award.
        <bullet> MDA embarked on efforts to recompete many of its major 
        contracts. The Agency's expectation is that the competitive 
        process will result in lower cost, better performance, and 
        higher quality.
        <bullet> MDA clearly articulated to companies that it will not 
        authorize future contract scope when a clear trend of poor 
        quality assurance is not addressed by senior personnel and they 
        do not initiate changes to cause enduring improvement in the 
        quality and reliability of products.

                              tricare fees
    126. Senator McCain. Secretary Gates, in your recent press comments 
on the fiscal year 2011 budget request, you stated that reasonable 
tradeoffs had to be made to control cost growth in the TRICARE program. 
What is the administration's rationale for charging military families 
or retirees higher out of pocket fees for health care they earned in 
return for their military service?
    Secretary Gates. There are no proposals in the fiscal year 2011 
budget request that will raise discretionary fees for military families 
or retirees. However, fees for the TRICARE program have remained static 
since its inception in 1995, while health care costs have soared. For 
example, the Prime enrollment fee has remained $460 a year for a 
retiree family since 1995. As a result, many beneficiaries are 
returning to the Military Health System (MHS), opting to use their more 
generous TRICARE benefits versus other health plans.
    MHS costs have more than doubled between fiscal year 2001 ($19 
billion) and fiscal year 2010 ($49 billion). At this growth rate, MHS 
costs are projected to approach $64 billion by fiscal year 2015, more 
than 10 percent of the Department's top line budget. While the 
Department continually looks for opportunities for savings and 
efficiencies within the MHS, these efforts are unlikely to solve the 
long-term sustainability issues of the TRICARE benefit without changes 
to the beneficiary cost-sharing structure

                  extending benefits to new categories
    127. Senator McCain. Secretary Gates, the Senate Committee on 
Veterans Affairs has recently adopted legislation that would extend 
TRICARE benefits to certain current and former members of the Armed 
Forces and their family members for health problems occurring as a 
result of exposure to environmental hazards at Camp LeJeune and the 
Atsugi Naval Air Facility if so determined by an advisory board on 
military exposures. What is your position on expansion of eligibility 
for TRICARE to cover such individuals, including those who may be 
otherwise ineligible for DOD health care benefits?
    Secretary Gates. Before we would extend health benefits, we would 
need evidence of causality between consumption of contaminated water 
and any adverse health conditions. The Agency for Toxic Substances and 
Disease Registry of the Centers for Disease Control and Prevention has 
not yet established linkage between the consumption of contaminated 
water at Camp Lejeune and health conditions in the population who 
consumed the contaminated water.
    Health benefits coverage should be limited only to those conditions 
where there is sound scientific evidence of a causal relationship 
between exposure, including the amount of exposure dose, and specific 
disease outcomes. Absent information on exposure dose and in accordance 
with proposed Senate legislation, this determination would be made by 
an Advisory Committee and a Scientific Review Committee. In addition to 
consideration of causally-related associations with the particular 
contaminants identified, consideration must be given to the severity of 
exposures (dosages) that individuals may have encountered while 
residing at Camp Lejeune or the Naval Air Facility Atsugi, Japan. The 
doses of contaminates are critical in determining risk, as many low 
dose exposures do not create significant health risks. The Agency for 
Toxic Substances and Disease Registry is embarking on a series of 
studies to better identify the exposed personnel and then to study 
disease outcome in those individuals in order to identify any positive 
associations.
    It should also be noted, in accordance with the National Defense 
Authorization Act for Fiscal Year 2007, the Marine Corps contracted 
with the National Academy of Sciences (National Research Council (NRC)) 
to review the evidence regarding potential associations between 
exposure to contaminated drinking water at Camp Lejeune and adverse 
health effects in prenatal children, children, and adults. The NRC 
review report concluded that while former Camp Lejeune residents and 
workers were exposed to unregulated solvents, there are no conclusive 
associations between adverse health effects and exposure to the 
contaminated water at the base. The report noted that for the chemicals 
of greatest concern, tetrachloroethene and trichloroethene, the highest 
levels measured in the mixed-water samples at Camp Lejeune were much 
lower than the lowest dose that caused adverse effects in the most 
sensitive strains of species of laboratory animals. The review 
concluded, however, that even though adverse effects were unlikely, 
they could not be ruled out completely and that the Department of the 
Navy (and other policy makers) should move forward with responses they 
deem appropriate based on available information.
    In regard to the personnel who were assigned at Naval Air Facility 
Atsugi, Japan while the Japanese Shinkampo incinerator was operational, 
a number of comprehensive health studies were accomplished by the U.S. 
Navy Environmental Health Center. As a result of these assessments, it 
would be difficult to attribute any particular cancer occurring in this 
population that is related to the incinerator emissions.

    128. Senator McCain. Secretary Gates, if enacted, how would the 
TRICARE program implement health benefits coverage limited to 
conditions related to exposure to environmental hazards?
    Secretary Gates. The Department provides or arranges for medically 
necessary health care for those entitled to the MHS benefit. In the 
broad sense, we do not deny care to those entitled to care based on the 
cause of their medical condition. If the statute is changed and the 
Department is directed to provide care for a new category of 
beneficiary, we would use existing regulatory procedures to define 
eligibility and health care coverage.

                     payments to civilian hospitals
    129. Senator McCain. Secretary Gates, what amount of savings is 
assumed in this request as a result of payment reform for civilian 
hospitals, such as application of Medicare outpatient prospective 
payments, and payments to sole community providers?
    Secretary Gates. TRICARE implemented its Outpatient Prospective 
Payment System (OPPS) on May 1, 2009 to bring its reimbursement rates 
for hospital outpatient services into alignment with Medicare rates. 
All public comments were taken into account before the final rule was 
published on December 10, 2008. The rule provided a phase in period of 
four years for network hospitals and three years for non-network 
hospitals to buffer the effect of the decline in payments. Prior to 
this rule, TRICARE paid billed charges for emergency room visits and a 
CHAMPUS Maximum Allowable Charge for outpatient radiology, pathology, 
and ambulatory surgery. In total, the payments reflected approximately 
45 percent of overall billed charges.
    The fiscal year 2011 President's budget for the Defense Health 
Program assumes $366 million in savings associated with this change. 
The calculation included the phase in schedule as well as the 
assumption that some hospitals would qualify for Military Contingency 
Payment Adjustments which offset the effect on facilities serving a 
significant number of active duty servicemembers and their families. 
These adjustments may be applied if certain volume or TRICARE revenue 
thresholds are met by the hospital. This provision was designed to 
ensure continued access to care in military communities. Sole community 
hospitals are among those affected by the OPPS regulation.
    Based on the first 3 months of fiscal year 2010, we are on track to 
realize these projected savings. TRICARE Regional Offices are assisting 
hospitals with documentation of their claims history to qualify for the 
Military Contingency Payment Adjustment.

    130. Senator McCain. Secretary Gates, do civilian hospitals lose 
money every time they care for a TRICARE patient? If so, why? If not, 
please explain, based on data available to DOD.
    Secretary Gates. We have no evidence that civilian hospitals lose 
money. Statute (10 U.S.C. 1079(j)(2)) requires TRICARE to pay 
institutional providers according to the rules which apply to Medicare 
reimbursement to the extent practicable. In comparing OPPS 
reimbursement to the prior formula, our analysis of a nationwide sample 
of 73 hospitals indicated reimbursement would drop from approximately 
45 percent of overall billed charges to 30-40 percent. This amount 
exceeds publicly available cost to charge ratios in all but four States 
(Wyoming, Utah, Nebraska, and Alaska), thus covering hospitals' costs 
for the care.
    While TRICARE's OPPS represents a significant change for hospitals, 
it aligns our program with Medicare, covers hospital costs, and 
includes considerations for hospitals seeing a large volume of TRICARE 
patients.

           medical facilities in the national capital region
    131. Senator McCain. Secretary Gates, nearly all of our Nation's 
seriously wounded and ill warriors return to medical facilities in the 
National Capital Region (NCR) even if they do not become inpatients 
here. It is imperative that the quality of care at Walter Reed and Fort 
Belvoir retain the high degree of excellence provided today as well as 
achieve additional attributes of world-class care in the new joint 
facility.
    In its independent review of DOD's plans for the new Walter Reed 
National Military Medical Center (WRNMMC), an advisory committee of the 
Defense Health Board (DHB) found that there is an ``urgent need to 
clarify the vision, goals, and expectations'' for the new facility and 
to ``consolidate organizational and budgetary authority in a single 
entity.'' The NDAA for Fiscal Year 2010 requires DOD to delineate 
budget and operational authority to provide and operate world class 
military medical facilities in the NCR as part of a plan that must be 
submitted to Congress by March 31, 2010. Are funds included in DOD's 
FYDP to invest in the existing facilities at Bethesda to raise them to 
world-class standards?
    Secretary Gates. The Department has developed a Comprehensive 
Master Plan for the NCR, which provides a roadmap to continue improving 
the finest healthcare facilities possible for our military families. 
Military medicine in the NCR incorporates many of the world-class 
attributes and capabilities as defined in the DHB panel's recently 
established standard. Since our 2009 review of the DHB report, the 
Department has institutionalized even greater requirements than the 
report outlined and has undertaken a Master Facilities Planning process 
to define and execute the requirements as part of our Comprehensive 
Master Plan. This plan will inform the DOD's FYDP starting fiscal year 
2012.

    132. Senator McCain. Secretary Gates, what are the plans for DOD 
and the JTF, NCR Medical, to address the issues of command and control, 
resources and staffing, both military and civilian, of the integrated 
care system for the NCR?
    Secretary Gates.
Command, Control, and Resources:
    The 2005 Base Realignment and Closure (BRAC) recommendation that 
realigned operations from Walter Reed Army Medical Center (WRAMC) to a 
new WRNMMC, Bethesda and Fort Belvoir Community Hospital (FBCH), was 
the Department's first step in a larger effort to transform, realign, 
and significantly enhance the way it delivers healthcare in the NCR. 
Taking into account the recommendations of the DOD's 2007 Independent 
Review Group and the President's Commission on Care for America's 
Returning Wounded Warriors (Dole-Shalala), the DOD Senior Oversight 
Council recommended, and the Department established, the Joint Task 
Force National Capital Region Medical (JTF CAPMED) as a standing JTF to 
oversee these efforts.
    The NCR BRAC Health Systems Advisory Subcommittee of the DHB's 
independent review of DOD's plans for the new WRNMMC, Bethesda, and 
FBCH identified authority issues in the NCR as ``foundational'' and 
recommended empowering a single official with complete organizational 
and budgetary authority in the NCR.
    The Department is developing and implementing a comprehensive 
master plan for the NCR Medical as required under section 2714 of the 
NDAA for Fiscal Year 2010 that will address this.
Manpower Document:
    The Department has determined an Active-Duty Force mix distribution 
for the new WRNMMC, Bethesda and FBCH and the Services have identified 
the resources to meet the defined manning requirements. At WRNMMC, 
Bethesda the Active-Duty Force mix will be approximately 41 percent 
Army, 54 percent Navy, and 5 percent Air Force. At FBCH, it will be 
approximately 62 percent Army, 36 percent Navy, and 2 percent Air 
Force. The distribution of forces is necessary to understand where the 
future requirements for the civilian workforce will be located.
    An Intermediate Manpower Document (IMD) is being developed and will 
be used to facilitate the development of the ultimate Joint Table of 
Distribution (JTD). The IMD is an authoritative database that supports 
the underlying manning documents for each Service. It will allow the 
compilation of all personnel requirements for the eventual JTD while 
maintaining more flexibility for changes during the transition and as 
experience is gained operating the new hospitals. The IMD will look 
exactly like a JTD in all aspects, which will facilitate its eventual 
migration to the JTD. The final iteration of the Department's draft JTD 
version 3.0 was renamed the IMD. Following the completion of the IMD, 
JTF CAPMED and the Services will develop a Memorandum of Agreement 
(MOA) to commit resources in support of the IMD. Until the Department 
makes its final determination on the ultimate governance alignment of 
JTF CAPMED, the IMD can remain a local database, with necessary MOAs, 
allowing flexibility for position changes and realignments.
Civilian Personnel:
    Retaining the skilled workforce in the NCR is imperative to 
operating the new WRNMMC, Bethesda and FBCH. A Joint manning solution 
coupled with a comprehensive human capital strategy will allow the 
Department to incorporate the rich legacies of both WRAMC and NNMC as 
national icons in establishing the new WRNMMC, Bethesda and FBCH. While 
attrition levels of government civilians at WRAMC remain normal, 
individuals at WRAMC and NNMC remain concerned about their jobs and 
location in the end state. The Department is engaged in comprehensive 
communication efforts with the current workforce to ensure transparency 
and maintain trust.
    The Department has established a Civilian Human Resources (CHR) 
Council to oversee the transition of civilian employees in the NCR. In 
February 2010, the CHR began matching current permanent WRAMC civilians 
to work locations at either WRNMMC, Bethesda or FBCH. Utilizing a 
workforce mapping model to execute a Guaranteed Placement Program 
(GPP), the Department will be able to identify placement options for 
the vast majority of WRAMC government civilians at their desired work 
location performing their preferred work assignment. Placement options 
will also include reassignment opportunities and career progression 
opportunities that do not exist today. By July 1, 2010 notifications 
will be made to civilian employees of their future work assignments and 
locations at WRNMMC, Bethesda, FBCH or other opportunities within the 
GPP. Government civilians will not incur any loss in pay as a result of 
the transition.
    The Department is taking significant actions to accommodate work 
location preferences for as many civilians as possible. Approximately 
1,500 of the WRAMC civilian personnel will be placed at WRNMMC, 
Bethesda. Surveys indicate that approximately 405 current civilian 
employees prefer to work at FBCH, which includes 355 civilian employees 
assigned to WRAMC and 50 civilian personnel assigned to NNMC. DOD may 
be able to expand WRAMC placement opportunities for civilian personnel 
at WRNMMC Bethesda through workforce mix analysis, insourcing and/or 
other initiatives. All new permanent civilian hires at WRAMC and NNMC 
are being advised that their work and position may move to FBCH in 
2011. This change was effective as of February 2010. In addition, DOD 
will leverage attrition over the next year and a half to create 
additional positions at WRNMMC, Bethesda in order to place current 
permanent WRAMC civilians. DOD is committed to maintaining a highly-
skilled workforce in the NCR able to meet the unique healthcare needs 
of the Nation's servicemembers, retirees, and their families.

    133. Senator McCain. Secretary Gates, what steps has DOD taken and 
what additional steps are necessary to apprise civilian health care 
employees at Walter Reed and Bethesda of their future status within the 
new facility in order to retain the highest quality staff now serving?
    Secretary Gates. Retaining the skilled workforce in the NCR is 
imperative to operating the new WRNMMC, Bethesda and FBCH. A Joint 
manning solution coupled with a comprehensive human capital strategy 
will allow the Department to incorporate the rich legacies of both 
WRAMC and NNMC as national icons in establishing the new WRNMMC, 
Bethesda and FBCH. While attrition levels of government civilians at 
WRAMC remain normal, individuals at WRAMC and NNMC remain concerned 
about their jobs and location in the end state. The Department is 
engaged in comprehensive communication efforts with the current 
workforce to ensure transparency and maintain trust.
    The Department has established a CHR Council to oversee the 
transition of civilians in the NCR. In February 2010 it began matching 
current permanent WRAMC civilians to their work locations at either 
WRNMMC, Bethesda or FBCH in the end state. Utilizing a workforce 
mapping model to execute the Guaranteed Placement Program (GPP), the 
Department will be able to place the vast majority of WRAMC government 
civilians at their desired work locations doing the work they want to 
do and will provide reassignment opportunities and career progression 
opportunities that do not exist today. Notifications will be made to 
Federal Government civilians, who will be transitioned to a single DOD 
civilian manning model, of their future work locations at WRNMMC, 
Bethesda, FBCH, or other opportunities within the GPP by July 1, 2010. 
Government civilians will not incur any loss in pay as a result of the 
transition.
    The Department has taken significant actions to meet work location 
preferences for as many civilians as possible. The Active-Duty Force 
mix across these hospitals will facilitate the placement of 
approximately 1,500 of the WRAMC civilian personnel to be placed at the 
WRNMMC, Bethesda. Surveys indicate that more than 355 Federal 
Government civilians at WRAMC and 50 at NNMC desire to go to FBCH. 
There are approximately 230 contract billets planned for FBCH and 475 
for WRNMMC, Bethesda and depending on the skills needed, DOD may be 
able to use some of those contractor billets to expand WRAMC personnel 
placements at Bethesda. In addition, effective February 2010, all new 
permanent hires at WRAMC and NNMC are being advised that their work may 
move to FBCH in 2011. DOD will also be leveraging attrition over the 
next year and a half to create additional ``spaces'' at Bethesda to 
place current permanent WRAMC civilians. DOD is committed to 
maintaining a highly-skilled workforce in the NCR able to meet the 
unique healthcare needs of the Nation's servicemembers, retirees, and 
their families.

            support for military families with special needs
    134. Senator McCain. Secretary Gates, the NDAA for Fiscal Year 2010 
required DOD to establish an Office of Community Support for Families 
with Special Needs, and to significantly improve programs both in the 
Office of the Secretary of Defense and throughout the military 
departments to assist military families with special educational and 
medical needs. What are DOD's plans to implement this program in fiscal 
year 2010?
    Secretary Gates. We have established the Office of Community 
Support for Military Families with Special Needs within the office of 
the Deputy Under Secretary of Defense for Military Community and Family 
Policy. The NDAA for Fiscal Year 2010 requires the office to develop 
and implement a comprehensive policy on support for military families 
with special needs.
    An Office of the Secretary of Defense (OSD)/Services working group 
has been meeting since April 2009, on how to better support military 
families with special needs, for both Active Duty and the Reserve 
component. The working group has begun developing the policy and will 
develop standards and metrics by which to measure the effectiveness of 
the support provided.
    We met with military families with special needs to better 
understand their needs and will continue to involve them. We will also 
consult with military and civilian specialists supporting families with 
special needs to help us develop the family support program.
    In November 2009, the Department sponsored joint service training 
for over 300 military personnel who serve military families with 
special needs.
    The Department has established a repository of information for 
military families with special needs at Military OneSource 
(www.militaryonesource.com/specialneeds). The launch page provides a 
central location for families to learn about services and support 
available from the military as well as from the communities outside the 
gate.

    135. Senator McCain. Secretary Gates, why does the request for 
fiscal year 2011 omit any request for funding this mandate?
    Secretary Gates. Although the Department did not request funds in 
the fiscal year 2011 budget, we understand the importance of this 
program. We are reviewing our funding options for fiscal year 2011 and 
will work with Congress to resolve any concerns.

    136. Senator McCain. Secretary Gates, what is DOD's estimate of the 
funds required to meet this mandate in fiscal year 2011 and how will it 
be achieved?
    Secretary Gates. The Military Community and Family Programs office 
under the Under Secretary of Defense (Personnel and Readiness) 
continues to refine the implementation plan, including the requirements 
of the program management office. Once the implementation plan is 
complete, funds will be realigned within available resources, or 
reprogrammed during the Omnibus reprogramming action to meet the 
initial fiscal year 2010 funding requirements of the Office of 
Community Support for Military Families with Special Needs. The 
implementation plan will also lay out the fiscal year 2011 funding 
requirements and strategies. As necessary, the Department will submit a 
reprogramming action to meet fiscal year 2011 requirements.

                   rotary wing support in afghanistan
    137. Senator McCain. Admiral Mullen, on September 28, 2009, 
Newsweek released an article titled ``Not So Special Forces'' 
describing a shortage of aviation assets, particularly rotary lift, to 
support SOF in Afghanistan, including a claim that nearly 80 percent of 
aviation requests made by SOF in Afghanistan were rejected. Aware of 
the vital role SOF play in our efforts against terrorism, the 2010 QDR 
calls for a substantial increase in SOF personnel and a correlating 
increase in key enabling assets for SOF, including rotary lift. While 
this increase is necessary to support the growing end strength of SOF, 
it will not provide near-term relief to already strained resources in-
country. What is your current assessment of the availability of 
enabling forces, including rotary lift, for SOF in Afghanistan?
    Admiral Mullen. We continue to have shortfalls in ISR and rotary 
wing support to SOF in Afghanistan. Personnel training is the biggest 
factor limiting how fast we can deliver more ISR to Afghanistan. 
Training pipelines for ISR operators and intelligence analysts are 
operating at maximum throughput to operate and employ newly acquired 
hardware, and we continue to ensure proper numbers and placement of 
analysts to effectively collect, analyze, and exploit intelligence 
data.
    To address the current need for battlefield mobility, one 
additional MH-47 will be delivered to Afghanistan in May, and two 
additional Chinooks will arrive in December 2010 and June 2011, 
respectively. Additionally, five CV-22s deployed in April to support 
SOF mobility requirements in Afghanistan, to include vertical lift. We 
are also accelerating delivery of CV-22s to better support the forces 
requiring them, and we anticipate adding five more CV-22s to the fleet 
in the coming year. Currently at initial operational capability, CV-22 
units cannot currently sustain a permanent presence in Afghanistan and 
they are limited to 4-6 month deployments to accommodate training new 
crews. However, their presence will become more enduring as the fleet 
grows and the CV-22 reaches full operational capability in fiscal year 
2011.

    138. Senator McCain. Admiral Mullen, what steps, if any, have been 
taken to alleviate the shortage of key enabling forces, including 
rotary lift, in Afghanistan for SOF?
    Admiral Mullen. We continue to have shortfalls in ISR and rotary 
wing support to SOF in Afghanistan. Personnel training is the biggest 
factor limiting how fast we can deliver more ISR to Afghanistan. 
Training pipelines for ISR operators and intelligence analysts are 
operating at maximum throughput to operate and employ newly acquired 
hardware, and we continue to ensure proper numbers and placement of 
analysts to effectively collect, analyze, and exploit intelligence 
data.
    To address the current need for battlefield mobility, one 
additional MH-47 will be delivered to Afghanistan in May, and two 
additional Chinooks will arrive in December 2010 and June 2011, 
respectively. Additionally, five CV-22s deployed in April to support 
SOF mobility requirements in Afghanistan, to include vertical lift. We 
are also accelerating delivery of CV-22s to better support the forces 
requiring them, and we anticipate adding five more CV-22s to the fleet 
in the coming year. Currently at initial operational capability, CV-22 
units cannot currently sustain a permanent presence in Afghanistan and 
they are limited to 4-6 month deployments to accommodate training new 
crews. However, their presence will become more enduring as the fleet 
grows and the CV-22 reaches full operational capability in fiscal year 
2011.

    139. Senator McCain. Admiral Mullen, do you believe that U.S. 
forces will have adequate rotary medical evacuation lift in Afghanistan 
once the surge of 30,000 forces is in place?
    Admiral Mullen. The Joint Staff stood-up an operational planning 
team to examine the current and future requirements for rotary medical 
evacuation, or MEDIVAC, platforms in Afghanistan given the increase in 
number of deployed forces. I expect to be briefed on the team's 
assessment by 10 May and I will subsequently provide the results to the 
committee. That said, we will do all we need to do to ensure there is 
adequate rotary medical evacuation lift in Afghanistan once the surge 
of 30,000 forces are in place.
    The Joint Staff is working closely with U.S. CENTCOM and U.S. Joint 
Forces Command (JFCOM) to accurately define the CENTCOM Commander's 
requirements and sourcing solutions. Additionally, in order to be 
adequately prepared to source solutions once the Commander's 
requirements are finalized, U.S. Joint Forces Command is working 
closely with the Services, Reserves, and National Guard Bureau to 
determine readiness and availability of forces.

              impact to readiness from off-shore drilling
    140. Senator McCain. Secretary Gates, the President stated his 
support for new off-shore drilling initiatives during his State of the 
Union Address. As you may know, the issue of drilling in the Eastern 
Gulf of Mexico has raised concerned within DOD over potential impacts 
to the test and training air ranges in that area. Some of this concern 
has been addressed with recent negotiations with the Department of the 
Interior about acceptable methods of drilling. What is the current 
position of DOD concerning the issuance of additional leases in the 
Eastern Gulf of Mexico to support off-shore drilling operations and the 
current concerns about the impact to military readiness?
    Secretary Gates. On April 2, 2010, the DOD transmitted a report to 
the Department of Interior (DOI) on the compatibility of DOD activities 
with oil and gas resource development on the outer continental shelf. 
Transmittal of the report occurred after months of discussions with the 
DOI and was in response to the Mineral Management Service's ``Draft 
2010-2015 Outer Continental Shelf Oil and Gas Lease Sale Plan.''
    The report applied greater analytic rigor than past reports, going 
beyond the former binary analysis where areas were either compatible or 
incompatible with development, to include areas of conditional 
compatibility (drilling with stipulations such as periodic evacuation 
or no permanent surface structures). While only a small portion of the 
Eastern Gulf was found to be compatible without restrictions, larger 
areas were found to be conditionally compatible. The report only 
examined military mission and did not address environmental issues.

                      don't ask, don't tell policy
    141. Senator McCain. Admiral Mullen, in your testimony on February 
2, you were clear that the Joint Chiefs have not yet developed their 
best military advice about the impact of a repeal of the DADT policy 
and the manner in which you would implement a change in policy. You 
stated that you would like to have the time to do so. However, many in 
Congress intend to move quickly through legislation to repeal 10 U.S.C. 
Sec. 654 as quickly as possible.
    In view of the time needed to perform the high level review, do you 
support legislative change to the current homosexual conduct policy 
before the Chiefs have formulated their advice?
    Admiral Mullen. I agree with the approach that the Secretary of 
Defense has proposed, which calls for a careful review of this policy. 
Given all we are currently asking of our force and their families, I 
think we owe it to them to understand the exact nature of the impact of 
any repeal of the law. I also believe this review will be useful to 
Congress in your deliberations. This is why we are undertaking a 
comprehensive review of the issue, and I support taking the time to do 
so. I do not support legislative change to current homosexual conduct 
policy before the Chiefs have formulated their advice, tied to the 
results of the ongoing comprehensive review.

    142. Senator McCain. Secretary Gates, you testified that a high-
level working group within DOD will review the issues associated with 
properly implementing a repeal of the DADT policy. Part of this review, 
you testified, will be to reach out to authoritatively understand the 
views and attitudes of the force. Please explain in detail what steps 
DOD will take to implement the President's direction to begin the 
preparations necessary for repeal of the current law and policy.
    Secretary Gates. As I have directed, the Working Group will solicit 
the views of a wide array of individuals including military families. 
Over the course of the next 8 months members of the Working Group will 
meet with a wide array of individuals of all Services, ranks, ages and 
assignments, officers and enlisted, to seek their advice, opinions, and 
concerns regarding a repeal and how it should be implemented. The 
Working Group will thoroughly, objectively, and methodically examine 
all aspects of this question, and produce its finding and 
recommendations in the form of an implementation plan by the end of 
this calendar year.

    143. Senator McCain. Secretary Gates, are the actions you are 
directing intended to strengthen the argument for repeal of existing 
law?
    Secretary Gates. The Comprehensive Review Working Group is 
conducting a comprehensive review of the issues associated with a 
repeal of the law. I have directed this effort be carried out 
professionally, thoroughly, dispassionately, and in a manner responsive 
to the direction of the President and to the needs of Congress this 
matter is debated and considered.

    144. Senator McCain. Secretary Gates, what difference will it make, 
if any, in DOD planning if a significant proportion--say 50 percent--of 
servicemembers and their families register objection to a change in the 
policy?
    Secretary Gates. I am not in a position to speculate as to what the 
Working Group may find and conclude in the course of its review. I do 
know that the Working Group will undertake its review in an objective 
and thorough manner, and I expect that the Working Group co-chairs will 
provide me with their best assessment of the impact of repeal, 
regardless of what that may be, to permit me to determine, as I said in 
my testimony, how best to prepare for implementation of a congressional 
repeal.

    145. Senator McCain. Secretary Gates, please explain in detail how 
you intend to authoritatively understand the views and attitudes of 
Active and Reserve servicemembers.
    Secretary Gates. Over the course of the next 8 months members of 
the Working Group will meet with a wide array of individuals of all 
Services, ranks, ages, and assignments, officers and enlisted, to seek 
their advice, opinions, and concerns regarding a repeal and how it 
should be implemented. The Working Group is in the process of 
developing appropriate means by which to accomplish this.

    146. Senator McCain. Secretary Gates, as part of your review, do 
you intend to seek the views of veterans or retired members of the 
Armed Forces? If no, why not?
    Secretary Gates. The Working Group will seek to hear from the many 
responsible voices of those individuals and groups with diverse views 
on this important matter, including veterans and retired members of the 
Armed Forces.

    147. Senator McCain. Secretary Gates, please explain in detail how 
the working group will attempt to gauge the impacts of a change in the 
law on military effectiveness, including how a change might affect unit 
cohesion, recruiting, and retention.
    Secretary Gates. As stated in my testimony, the Working Group will 
examine the potential impacts of a change in the law on military 
effectiveness, including how a change might affect unit cohesion, 
recruiting and retention, and other issues crucial to the performance 
of the force. To accomplish this task, I have directed the Working 
Group to systematically engage the force and in an appropriately 
balanced manner engage Members of Congress, key influences of potential 
servicemembers, and other stakeholder groups who have expressed a view 
on the current and prospective policy.

    148. Senator McCain. Secretary Gates, you have outlined plans for a 
study about changing, or more likely, repealing the current law 
regarding military service by homosexuals. Please describe the 
regulatory or legislative changes you will seek or direct this year 
with respect to DOD's DADT policy and title 10, U.S.C., Sec. 654.
    Secretary Gates. The Working Group will produce its findings and 
recommendations in the form of an implementation plan by the end of 
this calendar year. I anticipate recommended regulatory and legislative 
changes will be included in this report. Additionally, as announced in 
my testimony, I have directed the Department to quickly review the 
regulations used to implement the current Don't Ask, Don't Tell law, 
and within 45 days present recommended changes to regulations that will 
enforce this policy in a fairer manner within existing law.

    149. Senator McCain. Admiral Mullen, you are the principal military 
adviser to the President and the Secretary of Defense, but under law, 
you must consult with and seek the advice of the other members of the 
Joint Chiefs of Staff and the combatant commanders. What are the views 
of the other Joint Chiefs of Staff and the combatant commanders about 
changing the existing homosexual conduct policy?
    Admiral Mullen. Each of the Service Chiefs and combatant commanders 
has appeared before the committee, where they had the opportunity to 
express their views. I can tell you that all the Chiefs are concerned 
with current combat operations and the associated stress on the force. 
Given what is currently being asked of our force and their families, 
the Chiefs would all like to better understand the exact nature of the 
impact of any repeal of the law. This is why all of us support a 
comprehensive review of the issue in order to better advise the 
Secretary of Defense and the President.

    150. Senator McCain. Secretary Gates and Admiral Mullen, 
subparagraph (a) of section 654 of title 10, U.S.C., sets forth 15 
findings of fact concerning homosexuality in the Armed Forces. Do you 
disagree with any of the findings? If so, how?
    Secretary Gates and Admiral Mullen. I fully support the President's 
decision. The President announced a plan to work with Congress this 
year to repeal 10 U.S.C. Sec. 654. He subsequently directed DOD to 
begin the preparations necessary for repeal of the current law and 
policy. I have directed this effort be carried out professionally, 
thoroughly, dispassionately, and in a manner responsive to the 
direction of the President and to the needs of Congress this matter is 
debated and considered. The Comprehensive Review Working Group will 
solicit the views of a wide array of individuals from the different 
Services on this subject. This working group is conducting a 
comprehensive review of the issues associated with a repeal of the law. 
With the preparation and conclusions of the working group completed, 
the next stage will be Congressional deliberation and decision, as only 
Congress can repeal 10 U.S.C. Sec. 654.

    151. Senator McCain. Secretary Gates and Admiral Mullen, would you 
please explain your views about what conditions are now present in the 
Armed Forces that justify repealing the current homosexual conduct 
policy now.
    Secretary Gates I support the President's decision to work with 
Congress this year to repeal 10 U.S.C. Sec. 654 and to direct DOD to 
begin the preparations necessary for a repeal of the current law and 
policy. The Comprehensive Review Working Group I have established will, 
among other things, solicit the views of a wide array of individuals 
from the different Services on this subject, and I look forward to the 
continued progress of the working group as they undertake their 
important task in the months ahead.
    Admiral Mullen. Given all we are currently asking of our force and 
their families, I think we owe it to them to understand the exact 
nature of the impact of any repeal of the law. I support the approach 
that the Secretary of Defense has proposed, which calls for a careful 
review of issues and impact related to this policy and its potential 
repeal. This review will help us better understand the conditions in 
today's Armed Forces related to this law and policy.
    My personal view, as I have expressed, is that current law and 
policy conflict with our core value of integrity--as individuals and as 
an institution. But I need to understand the full impacts of any change 
to the law, and how to best ensure the wellbeing of the force should 
the law change.
    It is premature for me to speculate now regarding what the review 
will find. I look forward to working with leaders within DOD to conduct 
this review in a manner that preserves the high state of readiness of 
the U.S. military.

    152. Senator McCain. Admiral Mullen, you have extensive operational 
and command experience, including command of three ships. Even on 
today's most modern ships and submarines, living conditions are 
spartan. The same is certainly true for deployed ground forces in Iraq, 
Afghanistan, and around the globe. What is your message to military 
personnel of any rank who object to being required to live and work 
under such conditions with an openly gay individual?
    Admiral Mullen. We ask much of our servicemembers, and we put them 
into situations where they are living and working, day in and day out, 
under tough conditions. At all times, we must be attentive to good 
order and discipline and morale, and maintaining military 
effectiveness. We will always take the steps necessary to preserve 
effectiveness and readiness, consistent with our core values and 
military ethos, and our mission.

    153. Senator McCain. Admiral Mullen, we should anticipate that many 
military leaders, officer and enlisted, will object to changes in the 
current DOD homosexual conduct policy. Yet you have testified about 
your personal view that good leadership requires military leaders to 
support changes to the policy. Please expand on your views about 
military leadership and the burden of implementing the homosexual 
conduct policy.
    Admiral Mullen. For the record, I testified that understanding the 
impact of any change to the law gets to the core of where I am at on 
this issue, which is leadership. We must be prepared to lead if the law 
changes.
    I do not expect to try to change someone's views about 
homosexuality. I do believe that we can have clear standards of conduct 
and behavior, and hold people accountable to those standards. To ensure 
we can lead effectively, we are undertaking a comprehensive review of 
the issue to better understand the dynamics of any repeal. Leadership 
requires preparation, and it is my responsibility to ensure our leaders 
are ready for any decision Congress should make.

    154. Senator McCain. Admiral Mullen, what is your message to 
officer and enlisted leaders who oppose change but whom you consider 
key to making changes to the policy work successfully.
    Admiral Mullen. I do not expect to try to change someone's views 
about homosexuality. I do believe that we can have clear standards of 
conduct and behavior, and hold people accountable to those standards. 
To ensure we do this effectively, we are undertaking a comprehensive 
review of the issue to better understand the dynamics of any repeal.
    I have great confidence in the quality of our officer and enlisted 
leadership and know that with sound preparation they can lead the force 
successfully, should the law and policy change.

    155. Senator McCain. Admiral Mullen, in your view, to what degree 
and how would repeal of the current law and DOD homosexual conduct 
policy improve military readiness?
    Admiral Mullen. I cannot say what all the impacts of repeal of the 
law would be. That is why we are undertaking a comprehensive review of 
the issue to better understand the impacts of any potential change. A 
balanced, reasoned assessment will best serve us as we consider this 
matter.

    156. Senator McCain. Admiral Mullen, what effect would repeal of 
the current law and policy have on recruiting and retention?
    Admiral Mullen. I cannot say for certain how repeal might affect 
these areas. That is why we are undertaking a comprehensive review of 
the issue to better understand the impacts of any potential change. It 
is important for us to understand these dymanics in order to lead the 
force, should the law change

    157. Senator McCain. Admiral Mullen, to what extent, if any, has 
the current law and DOD DADT policy hindered the military's ability in 
a measurable way to recruit and retain qualified personnel to meet 
service manpower requirements?
    Admiral Mullen. I know that some schools have expressed concern 
over the presence of recruiters due to the existence of this law. Our 
recruiters currently are able to accomplish their mission, and we will 
continue to work through issues directly with those schools that 
express concerns.
    However, I cannot say for certain how the current law affects 
recruiting and retention overall, or its how its potential repeal might 
affect recruiting and retention. That is why we are undertaking a 
comprehensive review of the issue to better understand the impacts of 
any potential change of current law and policy.

    158. Senator McCain. Admiral Mullen, to what extent, if any, has 
the current law hindered the ability of the Army and Marine Corps to 
expand in recent years?
    Admiral Mullen. The Marine Corps has already completed its growth 
to new active duty end strength levels of 202,100. The Army is on track 
to grow to 547,400, and I am confident that the Army will be successful 
in getting to that level. I cannot say how current law has helped or 
hindered this process. Recruiting and retention are impacted by many 
factors, and it is important that we understand these as best we can.

    159. Senator McCain. Admiral Mullen, to what extent, if any, has 
the requirement to separate homosexual personnel under section 654 
created a measurable impact on readiness of the force?
    Admiral Mullen. The number of annual separations is small (less 
than four-tenths of 1 percent of all separations). No one likes to see 
talent leave the Service, but it is our job to follow the law. I 
support Congress' examination of Don't Ask, Don't Tell, and should the 
law change we will work within any new guidance. Related to your 
deliberation, I support the approach the Secretary of Defense has 
proposed, which calls for a careful review of this policy.

    160. Senator McCain. Admiral Mullen, to what extent, if any, do you 
think the repeal of the current law and DOD homosexual conduct policy 
would affect military readiness, cohesion, morale, good order, and 
discipline?
    Admiral Mullen. We have fair and responsive disciplinary and 
administrative processes by which we promptly investigate and 
adjudicate instances of inappropriate conduct. Our standards and 
processes apply to conduct, regardless of orientation, rank, or gender. 
However, I cannot say exactly what all the impacts of repeal of the law 
would be. That is why we are undertaking a comprehensive review to 
better understand the issues associated with any potential change. A 
balanced and thorough review will support effective leadership within 
the force, should the law change.

    161. Senator McCain. Admiral Mullen, what effect would a repeal of 
current law have on the propensity of prospective recruits to enlist 
and on the propensity of influencers (parents, coaches, teachers, and 
religious leaders, for example) to recommend military service?
    Admiral Mullen. I cannot say for certain how repeal might affect 
recruiting and retention. I would expect a range of views among 
influencers, who guide our young Americans towards public service as 
policemen, firemen and first responders, as well as towards the armed 
forces. Through our comprehensive review of the issue we aim to better 
understand the impacts of any potential change from current law and 
policy.

    162. Senator McCain. Secretary Gates, according to data provided by 
the Services and DOD, the number of discharges for homosexual conduct 
consistently has been significantly less than 1 percent, compared to 
discharges for other reasons. The Congressional Research Service 
concluded that most discharges occur among younger, less experienced 
personnel. Do you consider the numbers of discharges under the existing 
DOD policy to adversely affect the readiness of the Armed Forces?
    Secretary Gates. The Comprehensive Review Working Group will 
examine impacts--both positive and negative--of repeal of the law. This 
will include the impact of no longer discharging servicemembers for 
homosexual conduct, as is currently required by law.

    163. Senator McCain. Secretary Gates, what percentage of 
separations on the basis of the policy can be attributed to statements 
only, i.e., individuals who identify themselves as homosexual or 
bisexual?
    Secretary Gates. In fiscal year 2009, there were 428 homosexual 
conduct separations. Of these, 341, or approximately 80 percent, were 
based on the member making a statement that he or she was homosexual, 
bisexual, or words to that effect.

    164. Senator McCain. Secretary Gates, what percentage of total 
discharges has been based on extrinsic evidence, i.e., third-party 
reports?
    Secretary Gates. The Department does not currently track homosexual 
conduct discharges this way. All discharges are due to a military 
member engaging in one of the forms of conduct set forth 10 U.S.C. 
Sec. 654: (a) engaging in, attempting to engage in, or soliciting 
another to engage in a homosexual act, (b) stating that he or she is a 
homosexual or bisexual, or words to that effect, or (c) marrying or 
attempting to marry a person known to be of the same biological sex. Of 
the 428 separations in fiscal year 2009, 341 were statements cases, 80 
were acts cases, and 7 were marriage cases.

    165. Senator McCain. Secretary Gates, the 2008 Military Times poll 
of active duty subscriber/respondents found that 10 percent said they 
would decline reenlistment if the law is repealed, and another 14 
percent would consider ending their careers. Even a smaller proportion 
of losses among mid-career people would cause many difficulties in 
short-handed units. What weight do you give to this 2008 Military Times 
poll regarding the views of currently serving individuals?
    Secretary Gates. These sentiments, as well as many others held by 
servicemembers, will be one of many data points the Working Group will 
consider in its review.

    166. Senator McCain. Secretary Gates, do you think that 
servicemembers with more than 10 years of military service should be 
given a temporary retirement option or some other separation payment if 
they express objection to serving on Active Duty with openly gay 
servicemembers?
    Secretary Gates. No, I do not believe a temporary retirement option 
nor other separation pay should be given in these circumstances.

    167. Senator McCain. Secretary Gates, if the effective date of the 
law were postponed, how could current law be enforced pending that 
date?
    Secretary Gates. I do not have a position on the implications of 
such an arrangement. However, I do not support a moratorium on 
homosexual conduct discharges while the Working Group is undertaking 
its review.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                      air force tanker competition
    168. Senator Sessions. Secretary Gates, I understand that many 
factors in the previous RFP that favored a larger, more capable 
aircraft have been removed from the RFP and many factors that favor a 
smaller, less capable aircraft are now mandatory. If the pending tanker 
RFP fails to result in a real competition, meaning at least two teams 
decide to bid, then we really do not have a competition. What steps are 
you taking to ensure that both sides stay at the table and bid on the 
pending draft RFP?
    Secretary Gates. I pledged to Members of Congress a fair, open, and 
transparent process. DOD and the Air Force favor a competition but will 
let the RFP process run its course. The RFP is structured to be fair to 
all sides and, above all, to the taxpayer and warfighter. The process 
of procuring a new Air Force tanker needs to recommence without delay. 
Numerous meetings with potential offerors were held as part of the 
draft RFP process. Careful consideration is being given to all requests 
and comments, and all questions are being answered to ensure that the 
Department is crystal clear on how the winning offeror will be 
selected. The approach will be crafted to favor no one except the 
Warfighter and taxpayer. The Department has steered straight down the 
middle.

    169. Senator Sessions. Secretary Gates, what steps do you plan to 
take if one of the sides does not bid and we do not have a real 
competition?
    Secretary Gates. As I stated at the House Armed Services Committee 
hearing on February 3, 2010, ``We would like to have a competition . . 
. and we hope that both companies will agree to participate. But we 
will move forward. We have to have new tankers. We hope very much that 
there will be a real competition. We hope very much that both 
competitors stay in the competition. But should that not prove to be 
the case, we will--we have to move forward. It's been delayed too long. 
We need to get this thing started.''

                        national missile defense
    170. Senator Sessions. Secretary Gates, last year the President's 
budget request, as it pertained to NMD, called for cutting back the 
deployment of GBIs from 44 to 30 while curtailing further 
modernization. Thanks to your efforts, this year's budget request seems 
to indicate a commitment to continue to improve the GMD system, while 
also purchasing additional missiles for testing and stockpile 
reliability. Can we continue to count on your support for a robust GMD 
modernization program that will ensure the system keeps pace with the 
threat?
    Secretary Gates. Given the uncertainties of future ICBM threats, I 
will preserve a position of advantage by maintaining and enhancing the 
current midcourse defense capability. The fiscal year 2011 President's 
budget request provides a substantial investment in the GMD element to 
ensure it remains effective and viable over the long-term. This is 
accomplished by funding element and system improvements, including:

        <bullet> Refurbishment or delivery of 22 GBIs for testing and 
        operational spare requirements;
        <bullet> New software upgrades to expand GMD integration with 
        the BMDS and improve interceptor discrimination capability;
        <bullet> Interceptor obsolescence mitigation and avionics 
        upgrades;
        <bullet> The completion of Missile Field 2 with 14 silos at 
        Fort Greely, AK, by fiscal year 2012, increasing the number of 
        silos available for operational use if needed to address the 
        threat;
        <bullet> The completion of the Future Power Plant at Fort 
        Greely, Alaska to address survivability and reliability 
        concerns; and
        <bullet> Implementation of a GMD reliability, availability, and 
        maintainability program;

    Fiscal year 2011 funding will complete the establishment of a 
second GMD Command and Control node at Fort Greely, AK. The fiscal year 
2011 budget also requests funds to continue executing operationally 
realistic ground and flight testing of the GMD element of the BMDS, and 
to validate BMDS system performance through robust models and 
simulation anchored by flight test data.

    171. Senator Sessions. Secretary Gates, can you assure us there 
will not be a break in production for the GBI until DOD determines how 
many GBIs are needed for testing and stockpile reliability over the 
life of the system, as per section 233 of the NDAA for Fiscal Year 
2002?
    Secretary Gates. The MDA's most recent purchase of GBIs occurred in 
December 2006. As a result, lower-tier GBI suppliers began completing 
delivery, i.e., began a ``production break,'' in 2007 for sub-
assemblies to support the manufacture and delivery of the remaining 
GBIs on contract. All remaining third- and fourth-tier GBI suppliers 
are expected to complete their deliveries in fiscal year 2010 with the 
exception of Aerojet and Rockwell Collins.
    The fiscal year 2011 President's budget request (fiscal year 2011 
PBR) lays out a funded plan that includes completing the fielding of 30 
operational GBIs; delivering 22 additional GBIs for testing, stockpile 
reliability and operational spare requirements; and refurbishing 16 of 
the original 52 GBIs for both operational and flight test rotation 
during the FYDP.
    The three requirements set forth in section 233 of the NDAA for 
Fiscal Year 2010 have either been met or will be met shortly. First, I 
delivered the BMDR to Congress on February 1, 2010. Second, in the 
fiscal year 2011 PBR, MDA states plans to acquire five additional GBIs, 
beginning in fiscal year 2011, to satisfy Integrated Master Test Plan 
(IMTP) and stockpile reliability testing requirements to support the 
service life of the GMD element of the BMDS.
    With respect to the third requirement, within the next several 
weeks, a report on the GBI production line will be submitted to the 
congressional defense committees. The report will detail the 
Department's plans to utilize the additional $50 million fiscal year 
2010 appropriation to keep the manufacturing lines for critical 
suppliers warm through fiscal year 2010, with most of the component 
suppliers completing deliveries in fiscal year 2011. This investment 
along with the planned five additional GBIs, plus additional hardware 
components to support GBI scheduled maintenance and refurbishment 
activities, will sustain third and fourth tier GBI suppliers until 
fiscal year 2013.
    GBI purchases after fiscal year 2013 will likely include 
manufacturing line restart costs for third- and fourth-tier GBI 
suppliers. Also, any additional GBI purchases beyond the planned 2011 
purchases will likely include redesign/development costs due to parts 
obsolescence. With ongoing refurbishments for operational and flight 
test GBIs, the first- and second-tier GBI manufacturing lines will 
remain warm beyond 2016.

                        european missile defense
    172. Senator Sessions. Secretary Gates, the Phased Adaptive 
Approach to missile defense in Europe calls for fielding land-based SM-
3 Block IB missiles in Europe starting in 2015. Is the IB missile on 
schedule, and have you identified the two countries that will host its 
deployment in 2015?
    Secretary Gates. Yes. The SM-3 Block IB missile is on schedule for 
flight testing in fiscal year 2011, deployment on Aegis ships in 2013 
and fielding on land in 2015.
    In February 2010, Romania agreed to host the land-based SM-3 
Southern Europe site planned for deployment in Phase 2 (2015 
timeframe). In the coming months, the U.S. and Romanian Governments 
will work together and begin discussions on the system, including the 
steps necessary to establish a missile defense facility in Romania.
    In October 2009, Poland agreed to host a similar Northern Europe 
site in Phase 3 (2018 timeframe). I expect that by the planned time of 
this deployment, the more advanced SM-3 Block IIA will be available. 
The Department has concluded a supplemental Status of Forces Agreement 
(SOFA) with Poland and the Polish Government recently agreed to an 
updated BMD basing agreement that will enable us to move forward with 
the land-based SM-3 site in Poland. The supplemental SOFA has been 
ratified by the Polish Parliament and entered into force. The BMD 
Agreement was signed but has not yet been ratified by the Polish 
Parliament.

    173. Senator Sessions. Secretary Gates, last year you testified 
that the two-stage GBI will continue development as a hedge against 
technical difficulties with the SM-3 Block IIA and IIB missiles. Is 
this still the plan?
    Secretary Gates. Yes. As part of a hedging strategy for defense of 
the homeland against long-range ballistic missile attacks, the 
Department is continuing the development and assessment of the two-
stage GBI. My overall testing strategy for the two-stage GBI, which 
includes flight testing, supports three-stage data collection 
requirements as well.

    174. Senator Sessions. Secretary Gates, how and when would we know 
that it is necessary to substitute the two-stage GBI for the SM-3 Block 
II missile?
    Secretary Gates. There are two planned versions of the SM-3 Block 
II, the SM-3 Block IIA and the SM-3 Block IIB. The SM-3 Block IIA is 
planned for use aboard ships first, and then for use ashore until the 
Block IIB is developed and available. The Aegis BMD ship-based SM-3 
Block IIA will remain an operational need independent of decisions 
related to developing and producing two-stage GBIs or Block IIBs.
    MDA will know if it is necessary to substitute the two-stage GBI 
for the Block IIB after the Block IIB flight testing, which is 
currently planned for fiscal year 2016. The MDA is engineering the 
systems and maturing the technologies for the SM-3 Block IIB. The 
technical maturity will be determined through a series of knowledge 
points that tie achievement of critical information to reducing 
developmental risk and increasing confidence in capabilities. These 
knowledge points will measure confidence in the SM-3 Block IIB through 
the end of fiscal year 2016, providing data that will be used to 
determine whether development should continue or whether alternative 
designs should be considered.

    175. Senator Sessions. Secretary Gates, what has been Russia's 
reaction to the new missile defense plans for Europe?
    Secretary Gates. Russia's initial reaction to the new system was 
positive. Although the Department is transparent with Russia about the 
Phased Adaptive Approach (PAA), Russia recently expressed concern that 
the adaptive nature of the system makes is appear to be open-ended, and 
in later phases could undermine Russia's strategic deterrent. The new 
system poses no threat to Russia, and I believe Russia has an interest 
in working with the United States and Europe to defend against the 
growing missile and nuclear threat from Iran and other states. I will 
continue to be transparent with Russia about our plans for the PAA to 
try to allay its concerns, and I will seek avenues for cooperation in 
this area.

    176. Senator Sessions. Secretary Gates, I've seen press reports 
that Russia may now be concerned that the SM-3 Block II missile may be 
a threat to their strategic forces and that Russia will seek to limit 
its deployment in the ongoing Strategice Arms Reduction Treaty (START) 
follow-on negotiations. What can you tell me about this?
    Secretary Gates. Russia expressed concerns that the SM-3 Block IIB 
interceptors that we would deploy in Phase 4 of the Phased, Adaptive 
Approach (PAA), in the event that the threat environment evolves to 
require the deployment, could be capable of engaging their ICBMs. The 
Department is in discussions with Russia on the nature of the threat 
presented by various ballistic missile programs and the potential for 
missile defense cooperation. During our consultations with Russia, DOD 
stressed that the PAA is not directed at Russia. I believe that Russia 
may be unnecessarily concerned simply because the SM-3 Block IIB is 
still in development and thus Russia could be suspicious about the 
final capabilities of the interceptor. I will continue to be 
transparent with Russia on DOD's BMD capabilities, including the SM-3 
Block IIB interceptor, to allay their concerns and build trust. 
Regarding New START Treaty, I have been clear with Russia that U.S. 
missile defense systems are not directed against Russia and that the 
new treaty is about strategic offensive arms.

    177. Senator Sessions. Secretary Gates, the administration's new 
approach to missile defense in Europe hopes to solicit allied 
participation. We are hearing, however, that NATO is facing a funding 
crisis due to the operational demands related to Afghanistan. How 
likely is it that we can expect European contributions to the defense 
of their territory against medium- and long-range ballistic missiles?
    Secretary Gates. I believe that, as an alliance, NATO can best 
contribute to European territorial missile defense in two areas--
political commitment and command and control (C2) infrastructure.
    In terms of political commitment, I am seeking a decision by NATO 
to take on territorial missile defense as a mission for the alliance. 
If NATO adopts such a mission, there will be a NATO-wide BMD effort to 
which the United States can contribute through the European Phased, 
Adaptive Approach (PAA). Furthermore, Allies will be able to contribute 
their current and future missile defense capabilities to this effort, 
augmenting the overall defense and the PAA.
    Regarding C2 infrastructure, NATO is developing a C2 network that 
will allow Allies to link their missile defense assets together, called 
the Active Layered Theater Ballistic Missile Defense (ALTBMD) program. 
By linking Allied assets, including those of the U.S. PAA, NATO and the 
United States can create a more efficient and cost-effective 
architecture.
    Currently, NATO is funding the component of ALTBMD that will 
provide C2 for defense of deployed forces only, rather than territorial 
missile defense. I strongly support continued funding for ALTBMD, as 
well as the ongoing study to determine the implications of expanding 
ALTBMD to include C2 for territorial missile defense. To date, NATO 
spent =159 million of the total =451 million cost for the current 
ALTBMD program.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                 funding for contsrtuction/restoration
    178. Senator Graham. Secretary Gates, some military agencies do not 
appear to be spending funds appropriated by Congress for construction, 
cleanup and restoration activities. The Air Force Center for 
Engineering and the Environment and Naval Facilities Engineering 
Command has yet to obligate hundreds of millions of dollars 
appropriated. The United States Army Corps of Engineers continues to 
fall further behind in awards for the New Orleans Hurricane Risk 
Reduction Program and for the Everglades restoration. The funds for 
these projects represent a large number of jobs which could be filled 
by capable DOD contractors. What is the root cause of the delay and 
what is being done to remedy this situation?
    Secretary Gates. I fully support the President's budget and will 
continue to fully execute the construction, cleanup and restoration 
projects for which funds are authorized and appropriated. The root of 
the ``problem'' is the global economic downturn. As a result of that 
downturn, during fiscal year 2009, the Department was able to award 
many projects below initial government estimates, producing bid 
savings. DOD is making every effort to quickly apply those bid savings 
to offset a variety of requirements such as increases in costs on other 
projects and reductions to programs levied by Congress in fiscal year 
2010. In those rare circumstances when the Department cancels a 
project, we notify Congress as required by statute.
    Regarding the New Orleans Hurricane Risk Reduction Program, the 
Army Corps of Engineers is awarding construction contracts at a rapid 
pace, and construction work is progressing throughout the New Orleans 
area. As of mid-April 2010, the Army Corps awarded 251 of 361 planned 
construction contracts and obligated $8 billion of the $14.5 billion 
appropriated for the program.
    The Everglades restoration projects experienced contract award 
delays stemming from complications in establishing required cost share 
agreements with non-Federal sponsors. The Corps has made significant 
progress in completing agreement negotiations with the South Florida 
Water Management District (SFWMD), the primary non-Federal sponsor for 
Everglades restoration projects, by executing a Comprehensive 
Everglades Restoration Plan (CERP) Master Agreement in August 2009. 
This agreement provides the foundation for all future Project 
Partnership Agreements by establishing basic terms of cooperation for 
CERP projects including cost sharing, construction, operations and 
maintenance, replacement, rehabilitation, and oversight by agency 
technical staff. The Corps is awarding contracts more rapidly since 
putting this agreement into effect. Additionally, to accelerate 
contract awards, the Corps is improving coordination with SFWMD during 
respective agency review and approval of draft agreements and allowing 
construction contract advertisements to be made prior to execution of 
partnership agreements, thus permitting earlier contract award 
following execution of those agreements.

                      air force tanker competition
    179. Senator Graham. Secretary Gates, regarding the competition for 
the new Air Force tanker competition, some have advocated a dual buy of 
tankers, wherein DOD would buy aircraft from the two major competitors 
who have previously proposed aircraft as the new aerial tanker. What is 
your position on this proposal?
    Secretary Gates. I am not planning for a dual award at this time. 
The Air Force considered all options per congressional direction, but 
ruled out split buy and dual award approaches based on budget 
affordability and fleet concerns including increased training, 
operations, maintenance, and support costs. I am committed to a single-
award, competitive strategy for a commercial derivative tanker as it 
provides the best value for the Warfighter and taxpayer.
                                 ______
                                 
               Questions Submitted by Senator John Thune
                              start treaty
    180. Senator Thune. Secretary Gates, a January 25, 2010, article in 
RIA-Novosti, a Russian press outlet, stated that the United States and 
Russia have coordinated a number of disputed issues in relation to the 
START follow-on treaty. Specifically, the article said an agreement has 
been reached to reduce the number of nuclear delivery vehicles, meaning 
bombers, submarines, and land-based missiles, of 700 to 750 systems. 
Today, the United States deploys about 883 delivery vehicles, when 
ghost or phantom systems are taken off the books. Testimony before the 
House in July indicated that the Russians at best can deploy 500 
delivery vehicles through the course of the START follow-on treaty. At 
the delivery vehicle levels of 700 to 750 reported in the Russian 
press, where will these significant cuts come out of our triad?
    Secretary Gates. I believe that the New START Treaty allows the 
United States to maintain an effective nuclear deterrent. Under the 
draft New START Treaty, both the United States and Russia have seven 
years after entry into force of the treaty to meet the treaty limits. 
The Department will have sufficient time to align our forces and to 
effect the necessary eliminations to fulfill our obligations under the 
New START Treaty with regard to our strategic delivery vehicles and 
their associated warheads. The specific mix of systems to be maintained 
was closely examined during the Nuclear Posture Review, with a final 
decision deferred pending signing of the Treaty.

    181. Senator Thune. Secretary Gates, at the delivery vehicle levels 
of 700 to 750 reported in the Russian press, is Russia actually giving 
up any delivery vehicles?
    Secretary Gates. As of October 1, 2009, Russia declared 809 
deployed Intercontinental Ballistic Missiles (ICBMs) and their 
associated launchers, deployed Submarine Launched Ballistic Missiles 
(SLBMs) and their associated launchers, and deployed heavy bombers 
under START counting rules. Some of these systems may not be 
accountable under the New START Treaty, but others may still represent 
delivery vehicles that will be eliminated during the treaty's seven-
year elimination period following entry into force.

                         next generation bomber
    182. Senator Thune. Secretary Gates, the 2006 QDR made the decision 
to develop a follow-on bomber, and you have made clear that you support 
the development of a new bomber. However, last April you opted not to 
pursue a development program for a follow-on Air Force bomber until you 
had a better understanding of the need, the requirement, and the 
technology. As part of this effort to better understand the 
requirements for a new bomber, I understand that you stood up a Tiger 
Team to do an in-depth study of long-range strike in the new QDR. 
However, on reading the new QDR, on page 33, it looks like you have 
still not made a decision to move forward with a new bomber program, 
but instead have commissioned yet another study. What conclusions were 
drawn by the Tiger Team regarding the development of a new bomber?
    Secretary Gates. The Tiger Team to which you refer was formed to 
study the need, value, and technology for a follow-on Air Force long-
range strike aircraft; that team completed its work last November. The 
team was supportive of pursuing a new long-range strike aircraft, but 
recognized that additional analysis was needed to explore options for 
reducing overall program costs and determining fielding timelines. The 
Department decided that a more in-depth analysis was required in order 
to determine how a new long-range strike aircraft might compare with 
other options. An assessment of the various support functions for long-
range strike assets was also needed. Consequently, the Department 
chartered another study to look at a broader array of options to 
include the appropriate mix of long-range strike capabilities; upgrades 
to legacy bombers; manned and unmanned options; stand-off and 
penetrating requirements; new and improved cruise missiles; electronic 
warfare improvements; intelligence, surveillance, and reconnaissance 
demands; and conventional prompt global strike options.
    The goal of this new study is to ensure that we fully understand 
how all potential long-range strike options could contribute to U.S. 
security goals before spending billions of dollars. We anticipate that 
the new study will be completed in time to inform decisions shaping the 
Department's fiscal year 2012 budget.
    The final conclusion of the Tiger Team's study was that the 
Department should sustain the industrial base for early-stage design 
work and technologies for a new long-range strike aircraft while the 
Department continues to study all options. The Department provided 
industrial base funding for fiscal year 2011 and fiscal year 2012 to 
prepare for the potential start of a new long-range strike program.

                         bomber force structure
    183. Senator Thune. Secretary Gates, with regard to the FYDP force 
structure set out in the new QDR for the Air Force, the QDR proposes 
five long-range strike wings with up to 96 primary mission aircraft. 
According to the latest Air Force Almanac, the Air Force has 153 bomber 
aircraft. I understand some of these aircraft are dedicated to testing, 
but over 50 aircraft for testing seems like a lot. Do you plan on 
retiring any bomber aircraft in the near future?
    Secretary Gates. The total number of bombers in the Air Force 
inventory is 162 (66 B-1, 20 B-2, and 76 B-52 aircraft). 96 represents 
the total number of combat coded aircraft with the difference being 
made up from training, backup, attrition Reserve, and test airframes. 
The table below shows the breakdown by aircraft type and coding. The 
attached slides show the geographic location, coding, and correct 
number for each bomber in the Air Force inventory. At this time, the 
Air Force has no plans to retire any of the 162 bombers currently in 
the inventory. I believe that the 2011 President's budget provides for 
aggressive modernization for all three types of bombers, to keep them 
relevant far into the future.

----------------------------------------------------------------------------------------------------------------
                                            Combat Coded    Training                    Attrition
          Airframe                Total         (CC)          (TF)      Backup (BAI)  Reserve (AR)    Test (CB)
----------------------------------------------------------------------------------------------------------------
B-1.........................           66            36            16             9             1             4
B-2.........................           20            16             0             4             0             0
B-52........................           76            44            16            11             2            3
----------------------------------------------------------------------------------------------------------------
Atch: Bomber inventory slides


    184. Senator Thune. Secretary Gates, what are the assumptions 
underlying what appears to be a substantial reduction in the number of 
bombers?
    Secretary Gates. At this time, there are no plans to retire any of 
the bombers currently in the inventory. The fiscal year 2011 budget 
provides for aggressive modernization for all three types of bombers, 
to keep them relevant far into the future.

                              qdr red team
    185. Senator Thune. Secretary Gates, I understand you appointed a 
so-called ``Red Team'' of retired senior officers and outside defense 
experts to give you an outside assessment of the QDR. I understand that 
the Red Team reviewed the QDR's assessments and conclusions through the 
summer of 2009, and submitted a memo to you in the fall of 2009. As you 
know, you are required by the QDR statute in Title 10 to appoint an 
independent panel to assess the QDR. However, that panel will not be 
able to provide a report to us until July of this year, meaning that we 
may very well have completed work on the National Defense Authorization 
Bill for Fiscal Year 2011 before we see an independent assessment of 
the QDR. Since we won't be able to read an independent assessment of 
the QDR in a timely way, please provide us with a copy of the Red 
Team's memo to you, with the names of the Red Team members redacted to 
protect any confidentiality agreements.
    Secretary Gates. When I appointed the QDR Red Team, I assured the 
members that their insights would help inform my decisionmaking and 
would not be subject to outside review. I did this to foster frank and 
forthright advice for use by the Department in its internal 
deliberations. However, the Commander, U.S. Joint Forces Command, 
General James Mattis, and Director of Net Assessment, Mr. Andrew 
Marshall, served as co-chairs of the QDR Red Team. They would be happy 
to provide Members their perspectives on the QDR.
    The QDR Independent Panel has begun its work and has indicated it 
will publicly deliver interim findings before the release of its final 
report in July 2010.

    186. Senator Thune. Secretary Gates, are any members of the Red 
Team that assessed the QDR also now members of the independent panel 
assessing the QDR?
    Secretary Gates. Mr. Andrew Marshall, Director of the Office of Net 
Assessment, and General James Mattis, Commander U.S. Joint Forces 
Command, served as the co-chairs of the 2010 Red Team. The identities 
of other members of the QDR Red Team remain confidential. I believe 
that it is critical that I maintain the ability to have candid 
discussions with senior defense thinkers outside of government on a 
non-attribution basis.
    I selected members for the QDR Independent Panel based on their 
ability to offer an objective, independent, and non-partisan 
perspective.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                      army aircraft modernization
    187. Senator Wicker. Secretary Gates, I am glad to know that the 
QDR places success in today's wars as its first priority. It is our 
foremost responsibility to provide for our national defense. Just as 
the tactics and strategies have adjusted to that of our enemy, so must 
our approach to investing the necessary resources to rapidly equip the 
warfighter for success.
    I also appreciate your stating that this budget is shaped by 
embracing a dose of realism. One dose of realism that we can't avoid is 
the long-term impacts that the current deficit forecast is going to 
have on all sectors of the government, to include DOD. Given that 
realism, it is increasingly important that we do our best to get the 
best long-term benefit out of the investments we make to fulfill our 
immediate needs.
    One major focus area of this budget is to increase the availability 
of helicopters by procuring more aircraft and improving aircraft 
capabilities. Due to the cancelation of the armed Scout helicopter 
program, DOD is planning to invest well over a billion dollars in the 
aging Kiowa Warrior. That investment has transformed from performing 
safety enhancements to a long-term modernization program. I now hear 
discussions ranging from engine upgrades to reconstituting a production 
line.
    While many of these improvements are necessary to maintain 
operational capability, none will result in the performance 
capabilities that are desired. Yet, I don't know of any investments 
being planned on other fleet assets that would reduce your risk of 
providing more capable Scout capabilities and could realistically 
achieve the 80 percent of optimal solution that you have mentioned in 
the past.
    Are there any newer aircraft in the Army's fleet that could be 
enhanced, which would significantly exceed the capability of the legacy 
Scout helicopter, and could also provide returns on that investment 
much further into the future?
    Secretary Gates. The Army is exploring all options to leverage 
existing and potential developmental solutions to replace the legacy 
scout helicopter. Investment in the OH-58D Kiowa Warrior (KW) as a 
bridging strategy is critical in fulfilling the Army's immediate 
reconnaissance needs in support of Army Force Generation (ARFORGEN) 
requirements. This investment will address immediate obsolescence, 
safety, and weight reduction issues and will enable the aircraft to 
perform better in the current combat environment until a viable 
replacement is procured. The Army is conducting an Analysis of 
Alternatives (AoA) to address Armed Aerial Scout (AAS) capabilities and 
determine a replacement for the KW. The study will be completed in 
April 2011 at which time the existing KW path ahead will be re-
evaluated along with the future AAS recommendations for a leadership 
decision.

    188. Senator Wicker. Secretary Gates, would you be supportive of 
the Army exploring all options to leverage existing assets to provide 
the highest level of Scout capability until the Army acquires and 
fields its future Armed Aerial Scout aircraft?
    Secretary Gates. The Army is exploring all options to leverage 
existing and potential developmental solutions. In July 2009, the 
Defense Acquisition Executive (DAE) directed the Army to conduct an AoA 
to meet Armed Aerial Scout capabilities and determine a replacement for 
the OH-58D Kiowa Warrior. This AoA will determine the appropriate 
materiel solution(s) to address any capability gaps and meet Army 
requirements. The AoA will be conducted in two non-sequential phases 
with the preliminary results completed in December 2010 and final 
results published in April 2011.
    On April 14, 2009, the Secretary of the Army approved a strategy to 
reinvests in the Kiowa Warrior helicopter to address obsolescence and 
sustainment until a viable replacement is procured. The strategy 
includes a funded ACAT II program called the Cockpit and Sensor Upgrade 
Program (CASUP). The CASUP addresses obsolescence, safety, and weight 
reduction to perform better in the current combat environment. The Army 
expects to sustain the Kiowa Warrior until 2025.

                mine resistant ambush protected vehicles
    189. Senator Wicker. Secretary Gates, you mentioned the funding 
requested in the budget for an additional 10,000 MRAPs, of which 6,600 
are the new M-ATV. What type of MRAP vehicle makes up the remaining 
3,400?
    Secretary Gates. The most recent purchase of MRAP family of 
vehicles includes 1,460 more Oshkosh M-ATVs, 1,050 Navistar MaxxPro 
Dashs, 250 GDLS RG-31s and 58 BAE RG-33s. The remaining 582 vehicles to 
fulfill the estimated requirement for Afghanistan have not yet been 
defined.

    190. Senator Wicker. Secretary Gates, will these platforms be sent 
to Afghanistan?
    Secretary Gates. All of the vehicles most recently purchased are 
being sent to Afghanistan.

    191. Senator Wicker. Secretary Gates, how will they compliment the 
M-ATVs?
    Secretary Gates. MRAP vehicles are designed to meet mission 
requirements. The M-ATV was uniquely designed for missions requiring 
off-road mobility. The earlier variants in the MRAP family of vehicles 
were designed for other missions ranging from urban area patrolling, 
route clearance and Special Forces missions. The Department continues 
to make available all vehicles under the MRAP family of vehicles to 
Warfighters upon Combatant Command requirements. Our most recent 
purchase of MaxxPro Dashs, RG-31s and RG-33s will include improved 
suspension systems that are more suitable to the rough terrain in 
Afghanistan. I believe that these vehicles will complement the M-ATVs 
by supporting other, but closely related missions.
                                 ______
                                 
            Questions Submitted by Senator George S. LeMieux
                         information operations
    192. Senator LeMieux. Secretary Gates, in October, I traveled to 
Afghanistan with Senators Burr and Whitehouse. While there we learned 
of the good work being done by our SOFs in the area of strategic 
communications--particularly in countering the enemy's false messages. 
However, I am concerned that too often we are not getting our message 
out to counter the enemy's. Some of the soldiers in Afghanistan are 
using what is called radio-in-a-box technologies to try and counter 
enemy propaganda. I think this approach should be more prevalent in the 
military. What is in this budget to help our soldiers get the best 
message out to local Afghans?
    Secretary Gates. During fiscal year 2011, I will ensure that DOD 
will allocate funds specifically for the dissemination of messages to 
the Afghan people down to the local level. DOD collaborates with the 
ISAF and the Department of State (DOS) to commit significant resources 
to ensuring the U.S. Government is getting our message out, and when 
necessary countering the enemy's propaganda. DOD and ISAF fund programs 
in Afghanistan that capitalize on radio and television programming, as 
well as a variety of printed products to disseminate messages that 
support U.S. and coalition objectives. The messages are directed at key 
audiences at multiple levels from national to local and are focused on 
objectives such as increasing support for Afghan National Security 
Forces, reducing support for insurgents, and increasing reporting of 
illicit activities. The majority of DOD and ISAF efforts are 
concentrated on content development and dissemination, and DOS has made 
a significant commitment to building the communications infrastructure 
in Afghanistan. The radio-in-a-box provides tactical military 
commanders a very capable temporary solution to short-range radio 
broadcasts in areas not covered by permanent stations. The funds 
provided to U.S. and coalition forces in Afghanistan allow commanders 
the flexibility to purchase more of these systems should they determine 
it is necessary to bridge the gap until DOS or another organization's 
efforts provide a permanent solution.

    193. Senator LeMieux. Secretary Gates, do you believe our forces 
are well-trained and doing enough to project good news in the warzone?
    Secretary Gates. I believe that U.S. forces are the best trained 
military in the world to fight and win America's wars. DOD committed 
significant resources to increase cultural awareness among U.S. forces 
and improve the understanding of the environment in which U.S. forces 
operate. DOD made significant progress in information operations, 
working closely with the ISAF, DOS, other U.S. Government agencies, and 
nongovernmental organizations to ensure the Afghanistan people and the 
international community understand the coalition's commitment to the 
future of Afghanistan. U.S. and ISAF forces conduct face-to-face 
engagement with leaders at all levels, develop and disseminate messages 
through radio, television, and printed products, and participate with 
our Afghan partners in civil-military activities. As technology 
advances, and the infrastructure develops in Afghanistan, DOD will 
continue to develop new methods of getting the message to the audience.

    194. Senator LeMieux. Secretary Gates, what is the training 
pipeline for soldiers who conduct information operations?
    Secretary Gates. Both the service components and the Joint 
community have specific training requirements for personnel who conduct 
Information Operations (IO). Specific service requirements are varied 
and driven by their unique operational and doctrinal requirements. I 
expect all servicemembers assigned to a combatant command to have had 
appropriate exposure to joint operational concepts and procedures; 
particularly within the area of IO and so will focus my comments on the 
Joint IO community.
    Within the Joint IO community, training requirements and the 
training pipeline are clearly described in Chairman of the Joint Chiefs 
of Staff Manual (CJCSM) 1630.01, Joint Information Operations Force. 
Based on the policy established in CJCSM 1630.01, members of the Joint 
IO Force are drawn from commissioned officers in grades O-4 through O-9 
and non-commissioned officers in grades E-6 through E-9. The manual 
further stipulates that these individuals must have completed either a 
U.S. Joint Forces Command (JFCOM) certified Joint IO Planning Course or 
a JFCOM-certified Joint IO Core Capabilities Specialist Course and 
occupy a billet requiring Joint IO education and/or training. At 
present there are 159 joint billets requiring JFCOM-certified IO 
planners and 153 Joint billets requiring JFCOM-certified IO Core 
Capability Specialists.
    Commissioned and non-commissioned officers, in the grades I 
previously mentioned, enter the Joint IO training pipeline upon 
assignment to a JFCOM-certified IO Planning or IO Core Capability 
Specialist Course. The Joint Forces Staff College's Joint IO Planners 
Course constitutes the only JFCOM-certified Joint IO Planning Course at 
present. JFCOM-certified Joint IO Core Capability Specialist Courses 
include the Joint Military Deception Training Course, the Joint Theater 
Electronic Warfare Operations Course and the Joint Network Attack 
Course. Besides these courses, Joint Operations Security and 
Psychological Operations courses are currently under development.
    Upon designation by the appropriate service component, an officer 
or noncommissioned officer, who has already completed service component 
IO training, will attend one of the JFCOM-certified IO training 
courses. After graduation, these personnel should be assigned to an 
OSD-level, Joint Staff, combatant command staff or JTF. In the case of 
an OSD-level, Joint Staff or combatant command assignment, this tour of 
duty will normally be 36 months. For a JTF, the tour duration could 
range from 60 days to more than a year.

    195. Senator LeMieux. Secretary Gates, how is the private sector 
being utilized to help the military adopt best practices for 
information operations?
    Secretary Gates. DOD seeks partnership with the private sector to 
understand the information environment and improve DOD information-
related capabilities. DOD has developed and continues to identify 
relationships with communication companies, media companies, software 
developers and producers, academia, and defense contractors to remain 
abreast of technological advances, media resources, and access to 
information not readily available to the military. These relationships 
are very important to DOD capability providers and help DOD adopt best 
practices. For example, one of the five core capabilities of 
information operations, psychological operations (PSYOP), utilizes the 
private sector to produce high-quality products targeted at specific 
foreign population segments. Public Affairs use the private sector to 
assist in monitoring the enormous number of global media sources and 
outlets, to gain cultural understanding, and for translation support. 
Information operations planners integrate applicable information 
capabilities consistent with U.S. Government guidance and policies to 
support the Commander's information goals and objectives. The 
Department recently forwarded an extensive report to Congress outlining 
our efforts to align information operations with other U.S. Government 
activities via the strategic communication process.

    196. Senator LeMieux. Admiral Mullen, do you believe we need to put 
more resources toward information operations?
    Admiral Mullen. The information environment plays an increasing 
role in all the Department's activities and we're looking at 
Information Operations (IO) across the board to determine future 
requirements. Although IO is a relatively small part of the defense 
budget, several combatant commands have highlighted its importance in 
their Integrated Priority Listings; specifically in support of the 
VOICE programs and for cyber activities.
    Currently, there are numerous IO-related studies in various stages 
of completion looking specifically at what we will need in the future. 
The Joint Force Information Operations Study is evaluating joint IO 
organizations, roles and missions, training and education, and measures 
of effectiveness. The Electronic Warfare Initial Capabilities Document 
and the PSYOP Capabilities Based Assessment are reviewing those 
capabilities at the Service level. The PSYOP Capabilities Based 
Assessment will validate whether or not there is a need for growth in 
the active and Reserve components to support both special and 
conventional forces. These are detailed studies and their 
recommendations are expected later this year. The results of these 
studies will influence SOCOM's and JFCOM's requests for additional 
future resources. It is my opinion that we wait to allow those studies 
to inform future IO funding recommendations.

    197. Senator LeMieux. Admiral Mullen, how are we empowering the 
Afghans to spread news more rapidly to local populations?
    Admiral Mullen. HQ ISAF, alongside the U.S. Embassy and the U.K. 
Embassy, are working with the Government of the Islamic Republic of 
Afghanistan (GIRoA) to bolster their Government Media Information 
Center (GMIC). The central GMIC in Kabul provides GIRoA the ability to 
rapidly disseminate news to all critical outlets. Additionally, the 
Kandahar GMIC, located on the Governor's Compound, is expected to be 
operational in April and will provide similar capacity and capability 
for the southern region. ISAF has embedded planners and liaison 
personnel in both of these facilties. To assist the security 
ministries, ISAF has partnered with the MoD and MoI to establish the 
Security News Coordination Center (SNCC). The SNCC is already 
operational and ensures shared situation awareness among MoI, MoD, and 
ISAF strategic communication teams. MoI, MoD, and ISAF personnel man 
the SNCC together, and will ultimately provide 24/7 media response 
capability. Regular meetings between President Karzai's spokesman, Mr. 
Wahid Omar, and the ISAF's Communications Directorate Staff ensure key 
issues are clarified and resolved, delivering one common voice to the 
Afghan people.
    Most of the direct production and distribution of information is 
supported by U.S. Agency for International Development (USAID) 
initiatives in Afghanistan; programs like journalist training and media 
programming/content management training are successful examples. That 
said, the IJC-in heavy consultation with Afghans-produces a wide array 
of media for public consumption. Radio programming provides the 
greatest outreach across Afghanistan. Recently, the IJC produced a 
``radio drama'' portraying key security issues (reintegration, for 
example) in a culturally appropriate way. Television, newspapers and 
pamphlets also cover areas where literacy and access to electricity are 
greatest.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                        optempo and dwell times
    198. Senator Vitter. Secretary Gates and Admiral Mullen, a 
previously identified and ongoing problem our military faces is an 
incredible operational tempo with inadequate dwell times between 
deployments. Today you stated that ``we will not see significant dwell 
time improvements across all Services until 2012.'' Unforeseen events 
such as the Haiti relief effort will only serve to further exacerbate 
this problem. Have you accounted for contingency troop deployments, 
such as Haiti, in your calculations?
    Secretary Gates and Admiral Mullen. Barring a major contingency 
operation that requires a substantial ground campaign, Army and Marine 
Corps forces will begin to approach a 1:2 BOG to Dwell ratio in fiscal 
year 2012. U.S. forces can absorb some small scale operations such as 
Haiti relief, but multiple occurrences may impact forces in Dwell. 
Overall, we anticipate 24-36 months following redeployment from Iraq 
and Afghanistan to reset and train the force for full spectrum 
readiness.

    199. Senator Vitter. Secretary Gates and Admiral Mullen, when do 
you expect to achieve the goal of 2 years at home for every 1 year 
deployed?
    Secretary Gates and Admiral Mullen. The pace of operations in 
support of Operation Iraqi Freedom and Operation Enduring Freedom has 
not yet allowed our ground forces to achieve the dwell goal of 2 years 
at home for every 1 year deployed. Although we have seen some small 
dwell improvements over the past year, the Department does not 
anticipate achieving this goal until late in calendar year 2011.

    200. Senator Vitter. Secretary Gates and Admiral Mullen, should 
more be done now to increase dwell times for an already stressed 
military? If so, what are your recommendations?
    Secretary Gates and Admiral Mullen. The temporary increase in Army 
end strength has been helpful, particularly in regard to ensuring that 
units have sufficient personnel to address those individuals who cannot 
deploy. This increase does not affect the unit's dwell time, but does 
provided for needed personnel replacements and ensures a more ready and 
deployable unit. Although we have seen some small dwell improvements 
over the past year, with the surge in Afghanistan, we do not anticipate 
achieving the goal of a 1:2 dwell ratio until late in calendar year 
2011 for ground forces. We do not anticipate any unit will spend less 
than a year at home before being deployed again. We, as a Department, 
are managing dwell times closely, and based on projected demand for 
ground forces, we anticipate some very real and significant 
improvements in dwell in the next 2 years.

                        civil executive agencies
    201. Senator Vitter. Admiral Mullen, you have asked Congress to 
``promote legislation that increases the expeditionary capacity of non-
military executive agencies'' stating that ``our future security 
concerns require a whole-of-government effort.'' According to National 
Security Presidential Directive 44, DOS is now the lead for stability 
operations. Should your request be interpreted to mean that DOS and 
other non-military executive agencies are currently failing in the 
execution of their overseas roles in parallel to DOD efforts?
    Admiral Mullen. State continues to develop and strengthen its 
capacity to execute its overseas roles. National Security Presidential 
Directive 44, has been further enhanced by the Reconstruction and 
Stabilization Civilian Management Act of 2008 (Title XVI, P.L. 110-
417), which codifies State's role as the lead for reconstruction and 
stabilization by establishing the Office of the Coordinator for 
Reconstruction and Stabilization (S/CRS) under the Office of the 
Secretary of State. S/CRS is leading the establishment of a whole-of-
government civilian response capability, the Civilian Response Corps, 
which responds to failed and failing states either in conjunction with 
the military or in the absence of military forces. The Civilian 
Response Corps is comprised of active and standby members from eight 
participating civilian agencies and, when fully implemented, will serve 
as the main non-military expeditionary force of the U.S. Government.
    The President's fiscal year 2011 budget request includes $184 
million for the Civilian Stabilization Initiative, which funds the 
stand-up of the Civilian Response Corps, and supports S/CRS's efforts 
to manage and deploy this civilian force. I urge Congress to fully fund 
and support this request.

    202. Senator Vitter. Admiral Mullen, in your opinion, is DOS 
adequately prepared to assume agency primacy in Iraq, Afghanistan, and 
future conflict areas as hostilities transition to stabilization and 
reconstruction activities?
    Admiral Mullen. I simply don't have the visibility inside State to 
tell you whether they are prepared for that role today. I do know that 
the State Department is working hard to build that capacity. The 
Secretary of State, through the Office of the Coordinator for 
Reconstruction and Stabilization (S/CRS), has been developing a whole-
of-government civilian response capability that can deploy to both 
conflict and post-conflict situations. The Civilian Response Corp, or 
CRC, is gaining strength to meet this mission. Furthermore, the 
President's fiscal year 2011 budget request includes $184 million for 
the Civilian Stabilization Initiative, which funds the stand-up of the 
CRC, and supports S/CRS's efforts to manage and deploy this civilian 
force.
    As is now happening in Haiti, I envision a gradual transfer of 
responsibility based on the situation on the ground. In that sense, DOD 
and DoS, through the leadership of General Odierno and Ambassador Hill, 
will gradually shift ``primacy'' from a military to a civilian led 
force. I expect this same gradual transition in Afghanistan when 
appropriate.
    On a parallel note, Defense has supported S/CRS by transferring 
over $350 million under the Section 1207 authority to State for 
conflict prevention, stabilization and security projects and by urging 
congressional support for S/CRS's budget request and for soft power 
overall.

    203. Senator Vitter. Admiral Mullen, what specific legislated 
increases in expeditionary capacity of non-military executive agencies 
do you recommend?
    Admiral Mullen. I recommend that Congress fully fund the Civilian 
Stabilization Initiative, which will allow the Office of the 
Coordinator for Reconstruction and Stabilization to continue to build 
and deploy a whole-of-government civilian expeditionary response 
capability to failed and failing states.
    I also recommend that Congress fully fund the Complex Crisis Fund 
in State, which is intended to replace the Section 1207 transfer 
authority.
    Finally, I recommend that Congress authorize flexible hiring 
authorities, already granted by Congress to State for hiring civilian 
to deploy to Iraq and Afghanistan, to S/CRS to more rapidly stand-up 
the Civilian Response Corps, as well as any other personnel authorities 
necessary for the CRC to reach its full potential as quickly as 
possible.
    I would also recommend a pooled fund, as proposed by Secretary 
Gates, continue to be considered for security capacity building, 
stabilization, and conflict prevention. State, USAID, and Defense would 
contribute to these funds and no project could move forward without the 
approval of all agencies. Although there are obstacles to this concept, 
it is worth continued consideration as it could further support the 
activities of the Civilian Response Corps under future reconstruction 
and stabilization crises. We need agility, flexibility, effective 
oversight mechanisms, and tools that foster cooperation across the 
executive branch which could also enhance cooperation across 
jurisdictional boundaries among congressional committees--thereby 
actually strengthening congressional oversight in the national security 
arena. We believe this pooled fund is the first step.

                              f136 engine
    204. Senator Vitter. Secretary Gates, Congress has been very clear 
in its support of the F136 competitive engine for the JSF for about 15 
years. Why does it not make sense to make the investment needed to 
complete program and capitalize on the benefits of competition in 
production just like the Air Force did on the F-16 in the mid-1980s, 
particularly since we're talking about a production of over 4,000 
engines during the procurement of the JSF?
    Secretary Gates. Maintaining two engine suppliers would result in 
increased development, production, and support costs. Recent experience 
with engine development for the F-22 and F/A-18E/F indicates that sole 
source risks are modest and acceptable, and the Pratt & Whitney F135 
engine continues to meet or exceed our stringent performance 
requirements. The risks involved with a single engine supplier are 
acceptable, and savings associated with competition, which may be 
realized in the future, will not sufficiently offset the upfront 
development costs when competing against existing Department 
priorities.

    205. Senator Vitter. Secretary Gates, history has shown that it's 
very difficult to control costs on a sole source program. If you 
terminate the F136 engine, you will have a $100 billion sole source 
program on the engines for the JSF. What would be the incentive for the 
sole source supplier to control costs when they would know that DOD 
would have no alternative to their engine?
    Secretary Gates. In my view, maintaining two engine suppliers would 
result in increased development, production, and support costs. Recent 
experience with engine development for the F-22 and F/A-18E/F indicates 
that sole source risks are modest and acceptable, and the Pratt & 
Whitney F135 engine continues to meet or exceed the Department's 
stringent performance requirements. The risks involved with a single 
engine supplier are acceptable, and savings associated with 
competition, which may be realized in the future, will not sufficiently 
offset the upfront development costs when competing against existing 
Department priorities.

    206. Senator Vitter. Secretary Gates, how does DOD intend to ensure 
cost control under a sole source circumstance?
    Secretary Gates. Pratt & Whitney leadership committed to assist the 
Department in correcting the cost growth concerns on the F135 engine. 
In addition, company leaders agreed, from corporate funds, to fund a 
number of affordability initiatives that require investment in order to 
further reduce the cost of the F135 engine. The Joint Assessment Team 
proposed that, with commitment and funding, the cost growth trends can 
be reversed and I have every expectation that the Department will 
accomplish that. DOD will continue to work with Pratt & Whitney, with 
affordability as a major concern, to take actions that will continue to 
lower the price of the F135 for the future. The company's incentive is 
to please one of its primary customers, as there will likely be an 
opportunity for Pratt & Whitney to pursue future DOD and partner-nation 
work, and a failure on its part to achieve affordability could likely 
be a deciding factor in the future.

                       c-17 acquisition programs
    207. Senator Vitter. Secretary Gates, over the last 4 years, the 
Senate Appropriations Committee added 44 C-17s that we neither needed 
nor could afford, at a total cost of over $14 billion above DOD's 
requests--in the form of earmarks. As DOD had done in the preceding few 
years, you proposed last year to cancel the C-17 Globemaster program 
and argued against a congressional earmark that intended to buy 10 more 
of those aircraft for $2.5 billion. You stated that the cost of buying 
and operating those additional aircraft would ``invariably result in a 
reduction in critical warfighting capability somewhere else in the 
defense program.'' Is this view shared by the service chiefs and 
unified and combatant commanders?
    Secretary Gates. I believe that the current C-17 fleet is in excess 
of our strategic airlift needs, resulting in increased operating costs 
at the expense of other priorities. This position, supported by the 
Services and combatant commanders, is based on the findings of several 
recent mobility studies to include the MCRS-16. The objectives of MCRS-
16 were to determine the mobility capabilities and requirements needed 
in support of the National Military Strategy in the 2016 timeframe, to 
determine capability gaps/overlaps associated with the programmed 
mobility force structure, and to support the QDR and decisions 
regarding mobility programs. The study found that the planned capacity 
of the programmed strategic airlift fleet, consisting of 223 C-17s and 
89 C-5s, exceeds the most demanding projected requirements. In 
addition, the report noted that C-17s could be used to support intra-
theater missions without adding to the peak demand for C-17s. Both of 
these insights are consistent with findings from previous mobility 
studies.
    Based upon this information, it is my position that no additional 
C-17s should be procured, and I request your support in granting me the 
authority to allow for the proper management of the strategic fleet by 
providing the Department greater flexibility in retiring C-5 aircraft 
and eliminating the current statutory requirement to maintain a minimum 
fleet of 316 strategic airlift aircraft.

    [Whereupon, at 1:23 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                       TUESDAY, FEBRUARY 23, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                         DEPARTMENT OF THE ARMY

    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, E. Benjamin Nelson, Udall, Hagan, Begich, Burris, 
McCain, Sessions, Chambliss, Graham, Thune, Wicker, Burr, 
Vitter, and Collins.
    Committee staff member present: Richard D. DeBobes, staff 
director.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella Eisen, counsel; Michael J. Kuiken, professional staff 
member; Peter K. Levine, general counsel; Jason W. Maroney, 
counsel; William G.P. Monahan, counsel; Michael J. Noblet, 
professional staff member; Roy F. Phillips, professional staff 
member; John H. Quirk V, professional staff member; and William 
K. Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, professional staff member; Paul 
C. Hutton IV, professional staff member; Michael V. Kostiw, 
professional staff member; Daniel A. Lerner, professional staff 
member; Lucian L. Niemeyer, professional staff member; Diana G. 
Tabler, professional staff member; and Richard F. Walsh, 
minority counsel.
    Staff assistants present: Paul J. Hubbard, Jennifer R. 
Knowles, and Brian F. Sebold.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Christopher Griffin, assistant to 
Senator Lieberman; Carolyn A. Chuhta, assistant to Senator 
Reed; Nick Ikeda, assistant to Senator Akaka; Caroline Tess, 
assistant to Senator Bill Nelson; Ann Premer, assistant to 
Senator Ben Nelson; Patrick Hayes, assistant to Senator Bayh; 
Gordon I. Peterson, assistant to Senator Webb; Roger Pena, 
assistant to Senator Hagan; Roosevelt Barfield, assistant to 
Senator Burris; Anthony J. Lazarski, assistant to Senator 
Inhofe; Lenwood Landrum, assistant to Senator Sessions; Clyde 
A. Taylor IV, assistant to Senator Chambliss; Jason Van Beek, 
assistant to Senator Thune; Brian Walsh, assistant to Senator 
LeMieux; Kyle Ruckert, assistant to Senator Vitter; and Chip 
Kennett, assistant to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Today, Secretary McHugh and General Casey will testify 
before our committee on the plans and programs of the U.S. Army 
as part of our review of the fiscal year 2011 Annual Budget and 
Overseas Contingency Operations (OCO) Request.
    Gentlemen, we are thankful to you for your dedicated 
service to our country, and to your families for their support 
of your service.
    As the committee meets again this year to review the Army's 
posture, we find ourselves, as always, inspired by, and proud 
of, what our soldiers have accomplished and what they continue 
to do.
    General Casey, I understand that you will be introducing 
some special guests later on this morning. We look forward to 
meeting them, to hearing their stories from you, and thanking 
them in person for their service and their sacrifice.
    America's Army today is as great as any other in the Army's 
nearly 235 years of service to the Nation. Great service, 
however, always comes with great sacrifice. Our Army remains 
globally committed and overstretched by nearly 8 years of 
continuous combat. Thankfully, the drawdown of U.S. forces in 
Iraq has begun, but over 96,000 American soldiers remain 
engaged in operations there, contributing to the continued 
strain on our forces. I'm hoping that, at a minimum, we will 
achieve the planned withdrawal of additional units from Iraq, 
set to reach 50,000 by the end of this August.
    Much depends on the ability and willingness of the Iraqis 
themselves to preserve hard-fought gains; and, in turn, that 
will depend in large measure on whether the political steps 
Iraqi leaders have consistently promised to take will be 
completed.
    At the same time we see the drawdown of forces in Iraq, the 
administration has shifted its strategic emphasis and resources 
to the counterinsurgency campaign in Afghanistan and support to 
help Pakistan confront the al Qaeda and Taliban threats.
    An additional 30,000 troops--many Army--will be committed 
to support operations in Afghanistan to implement a people-
centered counterinsurgency strategy to help defeat al Qaeda and 
the Taliban and more quickly build up the capabilities of 
Afghanistan security forces.
    Last week, coalition forces, including large numbers of 
Afghan Army units, started a major offensive operation in 
Helmand Province to take control of key populations away from 
the Taliban and build support for the Afghan Government by 
leaving security and services in the wake of removal of the 
Taliban to them. Hard fighting continues, and some of our best 
and bravest have been lost and wounded.
    I've long argued that the principal mission in Afghanistan 
should be training the Afghan military and police so that they 
can take responsibility for the security of their country. It 
is essential to the success of our objectives in Afghanistan 
that we strengthen the Afghan army, deepen the partnership of 
coalition and Afghan units, operating together on a one-unit to 
one-unit basis, and for Afghans to take the lead in achieving 
security. In this respect, operations in Helmand could be a 
turning point for the Afghan people and their government, their 
security forces, and the people of this critically important 
region. But, we are still short thousands of trainers in 
Afghanistan for the initial 8 weeks of training. That is 
totally unacceptable. Our North Atlantic Treaty Organization 
(NATO) allies have provided only 10 percent of the trainers 
that they committed.
    Although the Army continues to meet the demands of 
counterinsurgency and support operations in Afghanistan and 
Iraq and around the world, the Army--soldiers and their 
families--are stressed in many ways. In order to gain and 
sustain necessary higher readiness levels in our deployed 
forces, the readiness of our nondeployed forces has been at 
historic lows. Most of our nondeployed Army units are not ready 
to quickly respond to an unforeseen contingency. Consequently, 
getting those units reconstituted and ready for their next 
rotation to Iraq or Afghanistan is that much more difficult and 
risky. This Nation faces substantially increased risk, should 
we need the Army to respond to another contingency, despite the 
amazing resilience of our troops and their families.
    In light of this challenge, the Department of the Army, 
over the last 3 years, has set a goal to reestablish a balance 
within the force by 2011. By balance, we understand that 
soldiers and units would have twice as much time at home as 
they would deployed. Nondeployed units would achieve required 
levels of personnel, equipment, and training readiness 
necessary to meet other strategic contingencies; budget 
pressures to support current operations would ease, allowing 
greater investment in modernization; and Army families would 
enjoy greater stability and less stress. The committee is 
interested to learn more about how the Army's fiscal year 2011 
budget request will achieve balance in 2011, even assuming that 
declining operational demands on the force keep pace with 
current strategic plans.
    An issue of concern to the committee, and related to the 
strain on the force, is the size of the Army. In order to deal 
with getting units ready for the rotational requirements of 
Afghanistan and Iraq, the Secretary of Defense has permitted 
the Army to retain 22,000 soldiers, temporarily, above its 
authorized end strength of 547,000. Additional troops, plus 
limiting the growth of Active component Army combat brigades to 
45, are intended to address the Army's soldier shortages in 
units getting ready to deploy. However, questions of additional 
permanent Army end strength, as well as unit structure, need to 
be carefully considered, in light of the inevitable and heavy 
near- and long-term budgetary pressures that such increases 
will put on the Army's investment and modernization accounts.
    We'd like the witnesses to address the Army's analysis of 
its current and future end strength and unit structure 
requirements, and their ideas on how to manage the growth of 
personnel costs.
    Nothing in our defense establishment is as important or as 
expensive as our people. In fact, the 2009 Quadrennial Defense 
Review (QDR) makes preservation of the All-Volunteer Force an 
overarching national defense strategy objective. The Army's 
2011 budget request supports this objective and makes a strong 
commitment to ensure that we are taking care of our 
servicemembers and their family.
    Much of the defense budget's growth can be attributed to 
significant and necessary increases in pay and benefit 
accounts. For example, the fiscal year 2011 budget request 
continues the Army's major commitment to expand and improve 
programs for wounded soldiers and their families, as well as 
for the prevention, identification, and care of soldiers and 
their families suffering from the stress of ongoing operations.
    I commend the Army for your commitment. I look forward to 
the witnesses' discussion of these programs today.
    The long anticipated 2009 QDR, submitted with the fiscal 
year 2011 budget, places the Department of Defense's (DOD) 
focus and priorities squarely on policies, programs, and 
initiatives that support the current fight in Afghanistan and 
Iraq and against al Qaeda around the world.
    The QDR recognizes the tremendous contributions that the 
Army has been providing in this fight over the last several 
years, and emphasizes that these types of contingencies are 
more likely the wave of the future. Accordingly, the 2009 QDR's 
recommendations support much of what the Army has already been 
doing, but it includes new direction for building or realigning 
capabilities and force structure that will make it more 
structurally relevant to the requirements of irregular or 
unconventional warfare.
    We look forward to the witnesses' assessments on the 2009 
QDR, what it means for the Army today and into the future, and 
how their 2011 budget request supports the changes that are 
directed.
    As challenging as meeting the demands of current operations 
is today, the Army must also ensure that it remains 
technologically dominant across the range of potential 
contingencies and assure our future security. Army 
modernization, however, has proven difficult to manage and 
achieve. Army technical modernization, as part of a broad 
transformational effort, appears to have been consistently 
falling short of plans and promises. Secretary Gates' decision 
last year to restructure the Future Combat Systems (FCS) 
program, including cancellation of the previously planned 
manned combat vehicle systems, require the Army to 
fundamentally change its approach to modernization.
    The 2011 budget request carries the Army deeper into yet 
another modernization strategy that attempts to rationalize the 
demands for new, immediately ready technologies needed to 
quickly support the current fight with the opportunities that 
other less mature technologies may offer for the force in the 
next 5, 10, or 15 years, such as the Army's commitment to a new 
ground combat vehicle.
    The Army must also manage its modernization investment 
risks carefully and consistently with our recently enacted 
Weapons System Acquisition Reform Act. It also needs to guard 
against allowing its enthusiasm for modernization and the near-
term availability of resources to lead to a high-risk schedule-
driven program, where the necessary technologies are not mature 
and the operational requirements are not urgent.
    We look forward to the witnesses' report on their efforts 
to establish an Army modernization program that meets the many 
challenging goals of simultaneously being comprehensive, 
relevant, technologically achievable, manageable, affordable, 
and enduring.
    So, Secretary McHugh and General Casey, the Nation could 
not be more proud of the Army, its soldiers, and their 
families, and we are grateful for your leadership of our Army 
and our Army family.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I join you in welcoming Secretary McHugh and General Casey 
here today.
    Gentlemen, I thank you for your leadership in these 
challenging times.
    I've also had the opportunity of saying hello to our 
wounded warriors and spouses and brave Americans, and I look 
forward to your introduction of them to the committee. I thank 
them for their service and sacrifice.
    We all know the Army has been operating at a high 
operational tempo for the past 8 years, while meeting wartime 
requirements a half a world away, so we should consider the 
implications of the President's 2011 budget request in the 
context of our most pressing challenges, which are, of course, 
success in Afghanistan and Iraq.
    I applaud Secretary Gates' recent statement that, 
``Achieving our objective in Afghanistan and Iraq has moved to 
the top of our institutional military's budgeting policy and 
program priorities.'' I look forward to your explanation of how 
the budget priorities of the institutional Army directly 
support ongoing operations in Afghanistan and continuing 
efforts to succeed in Iraq.
    General Casey, you have expressed concern, and very 
legitimate concern, about the effect of continued deployments 
on our All-Volunteer Army. While stretching our forces does 
create risk, we have demonstrated that the best way to reduce 
that risk is by succeeding in theater. The Iraq troop surge 
offers an important lesson in that regard.
    Now we have the right mission and the right leadership in 
place in Afghanistan. The additional 30,000 troops ordered by 
the President are beginning to arrive, and the burden on the 
institutional Army is high. It's incumbent on you to field the 
best-trained and -equipped force in the world, and it is 
incumbent on us, in Congress, to approve resources sufficient 
to do so. We are committed to the long-term success of 
Afghanistan and Iraq as stable states that can govern and 
secure themselves and will not become bases of attacks on the 
United States, on our allies.
    I would also point out, incredibly, that retention and 
recruitment is at an all-time high in the history of the All-
Volunteer Force. Many are surprised by that; in fact, I am 
pleasantly surprised. But, the fact is, it's a testimony to the 
patriotism and willingness to serve of young Americans all over 
this country.
    The competition for resources frequently pits development 
of future capabilities against the cost of sustaining current 
operations, and this gets to the heart of the Army's 
modernization efforts. Last year, we supported Secretary Gates' 
decision to restructure the Army's FCS program with spinouts of 
mature technologies to the current force.
    The Army has done much over the past year to develop a new 
acquisition strategy based on an incremental Brigade Combat 
Team (BCT) modernization plan. This new acquisition plan, like 
the previous FCS program, will be a multiyear, multibillion-
dollar program that is the centerpiece of the Army's 
transformation efforts. I'm interested in hearing from our 
witnesses how the Army plans to transition from the FCS program 
to the BCT modernization program. Specifically, what is the 
Army's BCT modernization strategy and spinout plan, and what is 
the impact of an incremental modernization strategy on the 
Army's budget for 2011 and beyond?
    Since taking office, Secretary Gates has taken decisive 
action to increase capabilities available to our deployed 
forces, especially those forces in combat in Iraq and 
Afghanistan.
    As we all know, improvised explosive devices (IEDs) 
continue to be the greatest killer of American troops in Iraq 
and Afghanistan, and I applaud the Army and DOD for fielding 
technologies to protect our men and women on the battlefield. 
Congress authorized and appropriated billions for mine-
resistant ambush-protected (MRAP) vehicles, and their increased 
use has reduced the Army's reliance on other lightly-armored 
vehicles.
    Enhancing capabilities of our fighting forces is critical 
to our efforts in Iraq and Afghanistan. I support the Army's 
budget request to field more helicopters and aircrews, create 
two combat aviation brigades, and fund new unmanned aircraft.
    Recently, Mr. Secretary, I was down at the Yuma Proving 
Ground. I was very impressed by the coordination and 
communication between field commanders in Iraq and Afghanistan 
and the Yuma Proving Ground, as we face these ever-evolving new 
technologies that the enemy is using in developing new and more 
lethal IEDs. From the battlefield to testing and response, I 
was extremely impressed.
    Finally, I'm interested, of course, in the views of General 
Casey and Secretary McHugh on the Don't Ask, Don't Tell (DADT) 
policy. We will continue to listen to our military leaders. As 
I pointed out before, recruitment and retention is at an all-
time high in the history of the All-Volunteer Force, and 
obviously changes in a policy that, I think, is working would 
have to be carefully considered.
    I want to make perfectly clear that I am enormously proud 
of every American who puts on an Army uniform to serve in a 
time of war, and we want to encourage more of our fellow 
American citizens to serve and to open up opportunities to do 
so.
    So, with that, I would like to thank you, Mr. Secretary. I 
think this is your first inquisition here, and we certainly 
welcome you on the other side. We want to thank you, again, for 
your outstanding service for many years as a member of the 
House Armed Services Committee, and the work we did together.
    Thank you.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Thank you, Mr. Chairman. I join you in welcoming Secretary McHugh 
and General Casey here today. Gentlemen, thank you for your leadership 
in these challenging times. I would also like to welcome the soldiers 
and spouses who are seated behind you and take this opportunity to 
thank them for their service and sacrifice. The Army has been operating 
at a high operational tempo for the past 8 years while meeting wartime 
requirements half a world away. So we should consider the implications 
of the President's fiscal year 2011 budget request in the context of 
our most pressing challenges, success in Afghanistan and Iraq.
    I applaud Secretary Gates' recent statement that ``achieving our 
objectives in Afghanistan and Iraq has moved to the top of the 
institutional military's budgeting, policy, and program priorities.'' I 
look forward to your explanation of how the budget priorities of the 
institutional Army directly support ongoing operations in Afghanistan 
and continued efforts to succeed in Iraq.
    General Casey, you have expressed very legitimate concern about the 
effect of continued deployments on our all-volunteer Army. While 
stretching our forces does create risk, we have demonstrated that the 
best way to reduce that risk is by succeeding in theater. The Iraq 
troop surge offers an important lesson in that regard. Now we have the 
right mission and the right leadership in place in Afghanistan. The 
additional 30,000 troops ordered by the President are beginning to 
arrive and the burden on the institutional Army is high. It is 
incumbent on you to field the best-trained and -equipped force in the 
world and it is incumbent on Congress to approve resources sufficient 
to do so. We are committed to the long-term success of Afghanistan and 
Iraq as stable states that can govern and secure themselves and that 
will not become bases for attacks on the United States or our allies.
    I would also point out that retention and recruitment is at an all 
time high in the history of the All-Volunteer Force. Many are surprised 
by that, but I believe it is testimony to the patriotism and 
willingness to serve of young Americans.
    The competition for resources frequently pits development of future 
capabilities against the cost of sustaining current operations. This 
gets to the heart of the Army's modernization efforts. Last year we 
supported Secretary Gates' decision to restructure the Army's Future 
Combat Systems (FCS) program with spin-outs of mature technologies to 
the current force. The Army has done much over the past year to develop 
a new acquisition strategy based on an incremental Brigade Combat Team 
(BCT) Modernization plan. This new acquisition plan, like the previous 
FCS program, will be a multiyear, multibillion-dollar program that is 
the center piece of the Army's transformation efforts. I am interested 
in hearing from our witnesses how the Army plans to transition from the 
FCS program to the BCT Modernization Program. Specifically, what is the 
Army's BCT modernization strategy and spin-out plan and what is the 
impact of an incremental modernization strategy on the Army's budgets 
for fiscal year 2011 and beyond?
    Since taking office, Secretary Gates has taken decisive action to 
increase capabilities available to our deployed forces--especially 
those forces in combat in Iraq and Afghanistan. Improvised explosive 
devices (IEDs) continue to be the greatest killer of American troops in 
Iraq and Afghanistan and I applaud the Army and the Department of 
Defense for fielding technologies to protect our men and women on the 
battlefield. Congress authorized and appropriated billions for mine-
resistant vehicles and their increased use has reduced the Army's 
reliance on other lightly armored vehicles. Enhancing capabilities for 
our fighting forces is critical to our efforts in Iraq and Afghanistan 
and I support the Army's budget request to field more helicopters and 
air crews, create two Combat Aviation Brigades, and fund new unmanned 
aircraft.
    I would note here that I was at Yuma Proving Ground last week and 
was very impressed by the coordination and communication taking place 
between field commanders in Iraq and Afghanistan and the Proving Ground 
as we face ever evolving IED technologies used by the enemy. The short 
response time between testing of new technologies and their application 
on the battlefield was extremely impressive.
    Finally, I'm interested in the views of General Casey and Secretary 
McHugh on the ``Don't Ask, Don't Tell'' policy. We will continue to 
listen to our military leaders, and as I have pointed out, recruitment 
and retention is at an all-time high in the history of the All-
Volunteer Force. I think that the current policy is working and changes 
to it would have to be carefully considered.
    I want to make perfectly clear that I'm enormously proud of every 
American who puts on an Army uniform to serve at a time of war. I want 
to encourage more of our fellow citizens to serve and to open up 
opportunities to do so.
    I look forward to our witnesses' testimony. Thank you Chairman 
Levin.

    Chairman Levin. Thank you, Senator McCain.
    A special welcome to you, Secretary McHugh. You're battle-
tested over in the House, so you come with a great background.
    Mr. Secretary.
    Secretary McHugh. It does look a little different from down 
here than it does from up there, I'll just say. [Laughter.]

    STATEMENT OF HON. JOHN M. McHUGH, SECRETARY OF THE ARMY

    Secretary McHugh. I should say, I've never missed being in 
Congress so much as I do right now. [Laughter.]
    But, with your permission, Mr. Chairman, I certainly want 
to thank you, sir, and you as well, Ranking Member McCain, for 
your very kind and very gracious comments, not just in support 
of me, but in support of this absolutely incredible Army.
    It is a privilege, although somewhat intimidating, to be 
before you here today, but I do it with great pride, because we 
are here, along with the Chief of Staff, in support of 
America's Army.
    As was noted, it was just a few short months ago that I sat 
before you as President Obama's nominee for our Nation's 21st 
Secretary of the Army, and at that time, I recall very clearly, 
I promised you, and assured you, of my dedication and 
commitment to support our men and women in uniform, Army 
civilians, and the great families, who, I know all you 
understand so very well, stand with them. I pledged to work 
with you, as well, in support of that great institution.
    It's some 5 months later, and I want to tell you, I come 
before you again reaffirming that commitment; but, doing so 
having been in the Pentagon, having worked with these great men 
and women for that time, it brings an even greater appreciation 
of those wonderful Americans who serve within the Army ranks, 
and the vital role they play in defense of our great Nation.
    One-point-1 million soldiers, some 279,000 civilians, and, 
as I noted, their families, proudly serving in some 80 
countries around the world, and they continue to be at the 
forefront in ongoing counterinsurgency operations against our 
enemies, assisting other nations to build their own security 
capacity, supporting homeland defense, deterring and defeating 
hybrid threats and hostile state actors, and, as we've 
witnessed, I think, so proudly, in recent days in Haiti, 
providing life-saving humanitarian assistance in response to 
natural disasters.
    At the risk of stating the obvious, every member of this 
committee, and every member of the House and the Senate at 
large, are critical to the success of these vital missions, in 
your capacity as our congressional overseers. As was mentioned, 
I know full well, from my nearly 17 years of service on the 
House Armed Services Committee, that a strategic partnership 
between Congress and the Army is critical to the Army's 
success. I think I can speak from experience, as well; without 
exception each and every one of you has partnered with us to 
ensure that our soldiers, civilians, and family members receive 
the very best in training, equipment, healthcare, and vital 
family programs. I want to say, on behalf of a grateful Army, 
thank you for your leadership and for your unwavering support.
    This morning, if I may, Mr. Chairman, Senator McCain, and 
other distinguished members, I'd like to share, just briefly, a 
few of my priorities and some of the perspectives I've gained 
over the past several months on where the Army is now, and 
where it's heading in fiscal year 2011.
    Admittedly, over the last several months, I've been on kind 
of a crash course. I learned I was not quite as smart as I 
routinely said every 2 years in my campaign for reelection. 
But, through the process of studying our programs, visiting 
installations in the United States and overseas, examining 
units in all stages of what we call R4 Gen, and most 
importantly, talking with our soldiers, civilians, and their 
family members throughout the force, how well and yet the 
challenges that lie before us.
    I have been, in this time, both impressed and challenged 
personally by what I've observed and what I've discovered. 
Frankly, I've found an Army that is clearly fatigued by nearly 
9 years of combat, but through it all is today a resilient, 
determined, and extraordinarily effective. Our soldiers today, 
through nearly 9 years of war, have more expertise, more 
education, more training, and more lethal capabilities than 
ever before, and due to the advancement, equipment, training 
and doctrine, are more likely than ever before to return safely 
to their loved ones and to a grateful Nation.
    But, in spite of those significant gains, the stress on our 
personnel and their families remains all too real. For all our 
efforts, as has been referenced, and as the Chief of Staff has 
said repeatedly, we remain out of balance. As I know all of you 
clearly understand, the All-Volunteer Force is a national 
treasure, as Senator McCain mentioned. If we wish to sustain 
it, supporting our critical family and quality-of-life programs 
for our soldiers and their families must be a top priority. If 
I say nothing else here today, I want to assure you, for those 
of us in the Army family, it is the top priority. The 2011 
proposed budget rightly focuses on those initiatives that 
support our soldiers, families, and civilians. The submission 
requests $1.7 billion in 2011 to standardize and fund those 
vital family programs and all those that they serve.
    We're attempting to aggressively address the cause of 
stress on individuals resulting from the effects of multiple 
deployments, including the essential effort to increase dwell 
time. As all of you know, and has been referenced here already 
this morning, with continuing deployments in multiple theaters, 
this has been no easy task. But, I want to assure you in the 
strongest terms, the Army is committed to our wounded warriors 
and those critical programs that support them, and to building 
dwell ratios, bringing back a sense of stability in terms of 
their redeployments.
    We fully believe it is our solemn obligation to provide 
world-class care and transition services to our wounded, ill, 
and injured through properly led and properly resourced Warrior 
Transition Units. Your Army is committed to ensuring that the 
quality of life for those who serve, or who have served, is 
commensurate with the quality of their service.
    On the subject of family programs, I've heard from many of 
the good Senators on this panel about reductions in base 
operation support (BOS) budgets in installations across the 
country. Earlier this month, General Casey and I announced the 
Army's plan to increase BOS funding by $500 million in fiscal 
year 2010.
    The Army Installation Management Command continues to work 
with each installation to guarantee that essential BOS needs 
are met.
    We also will conduct a comprehensive mid-year review of all 
BOS accounts to ensure that adequate funding is maintained to 
meet Army priorities through the remainder of the fiscal year.
    I want to make it clear that as our installations look for 
ways to operate more efficiently, as they should, family 
programs will be sacrosanct; they will not be touched. That 
isn't to say we won't ask, ``Is this program working? Is the 
money well spent? Are there better ways to provide necessary 
care?'' Where change is required, we'll change things, but 
where money is best directed, we'll so direct it. But, through 
all of that, Army families will not be left behind.
    Second, I found an Army with equipment systems and networks 
in need of reset while simultaneously requiring significant 
modernization to ensure our soldiers maintain a decisive edge 
on the battlefield of today, as well as superiority over 
threats of tomorrow. Nowhere is this challenge more evident 
than in the need to repair, replace, and recapitalize equipment 
affected by the harsh realities and environment of war. As the 
responsible drawdown in Iraq continues and the flow of forces 
and equipment to Afghanistan grows, we'll confront this reality 
anew.
    Additionally, we have to strive to modernize efficiently in 
an era of growing fiscal challenges. As such, with this year's 
budget, the Army is embracing what I believe is an affordable 
yet effective modernization strategy designed to revamp our 
vehicle, network, aviation, and logistical systems. We've 
requested $31.7 billion for research, development, and 
acquisition which includes $3.2 billion for the BCT 
modernization, $1.29 billion to fund tactical vehicle 
modernization, $2.74 billion to fund Army network systems, and 
$6.41 billion to fund aviation modernization. Fully funding 
these programs is vital to our soldiers' welfare this year and 
beyond.
    Third, I found an Army acquisitions system that, while 
improving, still lacks the workforce and flexibility needed to 
efficiently and affordably purchase the right weapons, 
services, and equipment to our soldiers. Here, too, the 
proposed budget will help us better meet our continued 
commitment to growing the Army's acquisition workforce by 
thousands of positions over the next few years, thereby 
ensuring that we have the best available equipment for our 
soldiers, while being responsible stewards of the taxpayers' 
dollars.
    But, I would tell you, workforce improvements are not 
enough to fix the procurement system, and I know you on this 
committee, particularly the chairman and the ranking member, 
who worked so hard on the Weapon Systems Acquisition Reform Act 
(WSARA) of last year, know that full well. The entire process 
must be retooled, and in that way, more fully adopt an agile 
system that rapidly develops, purchases, and fields innovative 
solutions. This approach will require more streamlined 
procedures and flexible rules, and for that, we need your help.
    As I mentioned, in 2009 Congress significantly reformed how 
DOD purchases major weapons systems. Thank you to this 
committee and its leadership in that regard. But, as the 
chairman and the ranking member so correctly noted, both at 
that time and since, it's only a start. Now it's time to 
address how we purchase services, and on that front, we look 
forward to partnering with you to develop better ways and 
better systems that achieve that critical objective.
    In the end, I would tell you we have an Army that is strong 
in spirit, strong in ability, and strong in results. We need to 
recognize, too, this is an Army that, after 8 years of 
uninterrupted war, is tired, stressed and too often burdened by 
the inefficiencies of bureaucracy. This must change, and with 
your help, we'll make those changes.
    Let me close by highlighting, again, my deep appreciation 
for the men and women in uniform, the civilians and the 
families who support them, and by so doing, support this 
Nation. Every day, I'm humbled by their dedication. I'm so 
blessed to have the chance to walk into a building every 
morning to go to work where the word hero really means 
something. All of you on this great committee are part of that 
magnificent formula for freedom. Thank you, again, for all you 
do in support of our men and women in uniform, our Army 
civilians, and their families.
    I deeply appreciate the opportunity to appear here before 
you, and I look forward to your questions.
    Thank you, Mr. Chairman.
    [The joint prepared statement of Secretary McHugh and 
General Casey follows:]
   Joint Prepared Statement by Hon. John M. McHugh and GEN George W. 
                            Casey, Jr., USA
                              introduction
    America's Army continues to answer the Nation's call, as it has 
since it was established nearly 235 years ago. Today our Army is 
fighting two wars, assisting other nations as they build their own 
security capacity, supporting civil authorities at home, helping the 
people of Haiti rebuild after a devastating earthquake, and preparing 
to deter and defeat new threats. The Army's soldiers, civilians, and 
families faithfully shoulder the load that our Nation asks of them. 
With the support of Congress, we are on track with our 4-year plan to 
put the Army back in balance.
    Though their sacrifices can never be fully repaid, the Nation 
continues to recognize and honor our soldiers and their families by 
supporting them before, during, and following deployments. Our soldiers 
rely upon the best training and equipment that our Nation can provide 
to accomplish their mission. Yet even with this continued support, the 
demands of 8 years of war weigh heavily on our Army. The strain of 
multiple deployments is evident on soldiers and their families. 
Equipment is used at a pace that seriously challenges our maintenance 
and replacement capabilities and resources. The stress is present in 
our institutions as we change 20th-century systems and processes to 
meet the demands of the 21st century.
    Our Nation faces the difficult challenge of balancing when, where, 
and how to engage in a dynamic and uncertain world while meeting 
important priorities at home. However, when the security of our 
citizens or allies is threatened, the Nation can depend on America's 
Army--the Strength of the Nation.
                           strategic context
    The United States faces a complex strategic landscape with an array 
of diverse security challenges. We are fighting wars in Iraq and 
Afghanistan while preparing for future challenges to our national 
security. For the foreseeable future, violent extremist movements such 
as al Qaeda and other terrorist organizations comprise the most 
immediate threats. Current global economic conditions, changes in 
demographics, cultural pressures associated with globalization, and 
competition for scarce resources exacerbate the uncertainty and 
volatility of the strategic environment. Within this setting, the 
American soldier stands as our Nation's most visible and enduring 
symbol of commitment in an era of persistent conflict.
                          persistent conflict
    For the near future, persistent conflict--protracted confrontation 
among state, non-state, and individual actors that are increasingly 
willing to use violence to achieve their political and ideological 
ends--will characterize the global security environment. Security 
crises will arise unpredictably, vary in intensity and scope, and last 
for uncertain durations. These challenges will take place in all 
domains: land, sea, air, space, and cyberspace. Natural disasters and 
humanitarian emergencies will continue to be frequent and unpredictable 
missions, requiring the commitment of soldiers and resources. In this 
dynamic environment, the Army will conduct operations that span the 
spectrum of conflict from humanitarian and civil support to 
counterinsurgency to general war, often simultaneously.
                             global trends
    Several global trends will continue to shape the international 
security environment and the conflicts confronting our Nation. 
Globalization may increase prosperity, but it can also spread 
destabilizing influences. The unequal distribution of benefits creates 
societies with divisions between ``haves'' and ``have nots''--divisions 
that can be exploited by extremist ideologies and lead to conflict. 
Fault lines reflecting protracted competition and friction can erupt 
unpredictably as societies struggle to adjust to the move toward 
modernity and greater interdependence. Meanwhile, increasingly 
available and affordable technology provides our adversaries 
sophisticated tools to enable a networked approach to recruiting the 
disenfranchised and exporting terror.
    Shifting demographics and rapid population growth that is 
increasingly urbanized can continue to break down traditional, 
localized norms of governance, behavior, and identity, and further 
strain already stressed governments. This is especially true where a 
lack of economic opportunity increases the potential for instability 
and extremism. Those who are disaffected may rebel against perceived 
western interference, challenges to traditional values, and ineffective 
governments. Increased resource demand, in particular energy, water, 
and food, is a consequence of growing prosperity and populations. The 
growing global competition for resources will continue to produce 
friction and increase opportunities for conflict. In this environment, 
climate change and natural disasters will compound already difficult 
conditions in developing countries by igniting humanitarian crises, 
causing destabilizing population migrations, and raising the potential 
for epidemic diseases.
    The two trends of greatest concern are the proliferation of weapons 
of mass destruction (WMD) and failed or failing states. A catastrophic 
attack utilizing WMD has the potential to be globally destabilizing. 
Failed or failing states, lacking the will or capacity to maintain 
effective territorial control, contribute to regional instability and 
provide ideal environments for terrorist groups to plan and export 
operations. The merging of these two trends constitutes a significant 
and compelling threat. Together, these trends make conflict in the 
decades ahead more likely.
               character of conflict in the 21st century
    Global trends and recent conflicts--such as those in Lebanon and 
Georgia--and our own recent combat experience indicate the evolving 
character of conflict in the 21st century.
    Conflicts will be waged among diverse actors--state and non-state--
with the latter employing capabilities that, during the last century, 
remained largely the purview of nation-states. Motives, objectives, and 
often the identities of these actors will be difficult to discern, and 
are likely to shift as some act covertly and others use proxies. The 
battle to gain influence over, and support from, populations will be 
central to our success. Therefore, conflict will be unavoidably waged 
among the people.
    The initiation, location, duration, and intensity of conflicts are 
increasingly unpredictable. In an interdependent world, conflicts are 
more susceptible to the potential for spillover, creating regionally, 
and potentially globally, destabilizing effects. All of this will occur 
under the unblinking scrutiny of the 24-hour global media cycle and the 
internet. Details of conflict as well as misinformation will flow 
equally across social, communications, and cyber networks. Our 
adversaries will exploit these media and communication sources locally 
and globally.
    We are more likely to face hybrid threats-diverse and dynamic 
combinations of conventional, irregular, terrorist, and criminal 
capabilities employed asymmetrically to counter our advantages. Hybrid 
threats require hybrid solutions-adaptive military forces that can 
function in a variety of situations with a diverse set of national, 
allied, and indigenous partners. Given the strategic environment, 
enduring global trends, and the character of 21st-century conflict, the 
Army will operate as part of a Joint, interagency, inter-governmental, 
and multi-national team to fulfill its global commitments.
                          roles of land forces
    More than 1 million of our men and women have served in the ongoing 
campaigns in Iraq and Afghanistan. Over 3,900 American soldiers have 
given their lives, and more than 25,000 others have been wounded during 
this longest period of sustained conflict ever fought by an All-
Volunteer Force. Today, America's Army has over 255,000 soldiers and 
more than 18,500 Army civilians serving in nearly 80 countries around 
the world--with the remainder stationed within the United States 
supporting domestic missions, resetting from recent deployments, or 
preparing for an upcoming deployment.
    Our soldiers are performing magnificently around the world every 
day, and the roles for land forces in this environment are becoming 
increasingly clear.
    First, the Army must prevail in protracted counterinsurgency (COIN) 
operations. Not only must we prevail in our current missions in Iraq, 
Afghanistan, and the Philippines, we must be prepared to prevail in any 
future COIN operation.
    Second, the Army must engage to help other nations build capacity 
and to assure our friends and allies. Through security force 
assistance, we can increase the capacity of other nations' military and 
police to uphold the rule of law, ensure domestic order, and deny 
sanctuary to terrorists--thereby helping avoid future conflicts that 
might otherwise develop. American soldiers are currently deployed to 
Central America and the Balkans, building the capacity of indigenous 
security forces. Additionally, the Army has established an Army Service 
Component Command for U.S. Africa Command to assist partner nations and 
humanitarian organizations in Africa.
    A third role that the Army fulfills is to provide support to civil 
authorities at home and abroad. In the past year alone, American 
soldiers have fought fires in the west, conducted search and rescue 
operations in the Rockies and Alaska, and assisted with tsunami relief 
in American Samoa, in support of civil authorities. The Army has also 
provided a sizeable force to support the relief efforts in Haiti 
following the catastrophic earthquake that destroyed its capital. Army 
units from both the active and Reserve components remain prepared to 
react to a variety of crises as consequence management and response 
forces. The U.S. Army Corps of Engineers is a lead organization in 
providing DOD support to civil authorities for disaster relief at home 
and engineering support to the U.S. Agency for International 
Development overseas. Abroad, the Army has also supported civil 
authorities in many ways, such as sending Agribusiness Development 
Teams from the Army National Guard to Afghanistan.
    Finally, the Army must deter and defeat hybrid threats and hostile 
state actors. As an Army, we recognize that we must remain prepared to 
meet and defeat hostile state actors that threaten our national 
security. But we recognize that the probability of facing a nation that 
will challenge America's military head-on is lower than it was during 
the Cold War and other periods in our history. Our readiness and 
capability to confront near-peer competitors also deters war by raising 
the stakes for nation-state and hybrid actors who would threaten our 
security interests.
    To meet these threats, Army units continue to participate in joint 
and international training exercises around the world, ensuring that 
military skills and cooperative partnerships remain strong. The Army 
continues to position forces in Korea and at various missile defense 
sites in order to discourage actors who seek to disrupt regional 
stability and security.
                        two critical challenges
    The Army has operated at a demanding pace for the last 8 years, and 
while it has met each challenge, the strain has placed the Army out of 
balance. Demand for Army forces continues to exceed the sustainable 
supply. Against that backdrop, the Army continues to meet the wartime 
requirements of our Nation while it addresses the two major challenges 
facing our force--restoring balance and setting conditions for the 
future. In 2007, we established a 4-year plan to restore balance to an 
Army that had experienced the cumulative effects of years of conflict. 
The fiscal year 2011 budget supports the final year in that plan. As we 
continue to restore balance to the force, we are also setting the 
conditions for the Army of the 21st century--an Army that fulfills our 
strategic role as an integral part of our Joint Force.
             restoring balance: the army's four imperatives
    With the help of Congress, we have made significant progress over 
the past 3 years in our plan to restore balance--a plan founded on four 
imperatives. Yet today the Army remains out of balance. We've improved 
our ability to sustain the Army's soldiers, families, and civilians; 
prepare forces for success in the current conflict; reset returning 
units to rebuild the readiness consumed in operations and to prepare 
for future deployments and contingencies; and transform to meet the 
demands of the 21st century. As a result of this progress we now are in 
a better position to achieve balance than we were 2 years ago. Critical 
to this was the growth in the size of the Army.
    The security agreement with Iraq that transferred security in urban 
areas to Iraqis was a momentous and welcomed accomplishment. The hard 
work and sacrifice of our soldiers with the support of Congress helped 
make this achievement possible and set the conditions for our 
responsible drawdown of combat forces in Iraq this year. Coupled with 
our growth, the drawdown in Iraq allowed for our increased commitment 
of forces to Afghanistan to stem the rising violence, and disrupt, 
dismantle, and defeat al Qaeda while reversing the momentum of the 
Taliban insurgency. However, the campaigns in Iraq and Afghanistan 
continue to create demands that have our Army operating beyond 
sustainable capacity. In fact, in 2009 more soldiers were deployed in 
Iraq and Afghanistan combined than during the height of the Iraq surge.
    Presently, and for the short term, we lack sufficient strategic 
flexibility, and we continue to accumulate risk. We continue to stress 
our soldiers, families, civilians, equipment, and institutional 
systems, so our efforts to restore balance must not waiver.
Sustain
    Sustaining our All-Volunteer Force is our first imperative. Nowhere 
is the stress on our force more profound than in the toll it takes on 
our people, as is tragically evident in the rising number of suicides 
and increasing need for counseling among our soldiers and families. We 
are aggressively addressing the causes of stress on individuals 
resulting from the cumulative effects of multiple deployments, and 
seeking to build resilience in soldiers, families, and civilians. The 
Army is committed to ensuring that the quality of life of those who 
serve the Nation is commensurate with the quality of their service.
    Goals
    To sustain the force, the Army continues to pursue four major 
goals. Our first goal is to recruit and retain quality soldiers and 
civilians dedicated to service to the Nation. Next, we are committed to 
furnishing the best care, support, and services for soldiers, families, 
and civilians by improving quality of life through meaningful 
initiatives such as the Army Family Action Plan, the Army Family 
Covenant, Army Community Covenants, and the Comprehensive Soldier 
Fitness Program. It is our solemn obligation to provide world-class 
warrior care and transition to our wounded, ill, and injured warriors 
through properly led and resourced Warrior Transition Units. Finally, 
by supporting the families of our fallen comrades we honor their 
service and sacrifice.
    Progress and Accomplishments
        <bullet> The Army met 104 percent of its recruiting goals for 
        2009, and achieved both numeric goals and quality benchmarks 
        for new recruits.
        <bullet> All components exceeded 105 percent of their 
        reenlistment goals.
        <bullet> We reduced off-duty fatalities by 20 percent, to 
        include a 15 percent reduction in overall privately-owned-
        vehicle fatalities and 37 percent reduction in motorcycle 
        fatalities.
        <bullet> In collaboration with the National Institute of Mental 
        Health, the Army began a seminal study into suicide prevention 
        that will inform the Army Suicide Prevention Program and 
        society's approach to suicide.
        <bullet> We began instituting Comprehensive Soldier Fitness--an 
        all-inclusive approach to emotional, social, spiritual, family, 
        and physical fitness--as the foundation to building resiliency 
        within the Army.
        <bullet> We initiated an unprecedented series of construction 
        projects at five major hospitals as part of our commitment to 
        modernize our healthcare system.
        <bullet> The Army established the Warrior Transition Command 
        and reorganized Warrior Transition Brigades to provide 
        centralized support, rehabilitation, and individualized 
        transition planning to our recovering warriors.
        <bullet> We expanded Survivor Outreach Services to over 26,000 
        family members, providing unified support and advocacy, and 
        enhancing survivor benefits for the families of our soldiers 
        who have made the ultimate sacrifice.
        <bullet> We implemented the post-September 11 GI Bill, 
        significantly increasing educational benefits for Active Duty 
        soldiers, veterans, and family members.
        <bullet> The Army Reserve established Army Strong Community 
        Centers to support geographically-dispersed soldiers and 
        families. Together with Army National Guard Family Assistance 
        Centers and Soldier and Family Assistance Centers on active 
        duty installations, these centers provide help to soldiers' 
        families near their hometowns.
    Fiscal Year 2011 Budget Highlights
        <bullet> Provides $1.7 billion to standardize and fund vital 
        family programs and services to include welfare and recreation; 
        youth services and child care; Survivor Outreach Services; and 
        expanded education and employment opportunities for family 
        members.
        <bullet> Provides a 1.4 percent military basic pay raise and 
        civilian pay raise, a 3.9 percent basic allowance for housing 
        increase, and a 3.4 percent basic allowance for subsistence 
        increase.
        <bullet> Warrior Transition Units for our wounded soldiers will 
        continue to receive strong support in fiscal year 2011 with $18 
        million in military construction funds allocated to resource 
        construction of barracks spaces.
        <bullet> Supports Residential Communities Initiatives program, 
        which provides quality, sustainable residential communities for 
        soldiers and their families living on-post, and continues to 
        offset out-of-pocket housing expenses for those residing off-
        post.
Prepare
    Our soldiers face determined enemies--so preparing the force for 
our current conflict is complex and time-consuming, but essential for 
success. Our units must have the people, training, and equipment they 
need to prevail. Meanwhile, our institutions and systems must adapt to 
provide those critical capabilities in a timely manner and in 
sufficient quantities.
    Goals
    To prepare the force, we have four key goals. First, we accelerated 
the pace at which we needed to Grow the Army to our end strength and to 
grow our modular brigades to 73 Brigade Combat Teams (BCTs) and nearly 
230 Support Brigades. Second, the Army is committed to improving 
individual and collective Training to better prepare soldiers and 
leaders for a complex and challenging operational environment. Next, we 
continuously work to provide our formations with effective equipment in 
a timely manner that maintains our technological edge and protects our 
most critical resource--the soldier. Finally, we must transform the 
Army to a rotational model--Army Force Generation (ARFORGEN)--the core 
process for generating trained, ready, and cohesive units on a 
sustained and rotational basis--to meet current and future strategic 
demands.
    Progress and Accomplishments
        <bullet> We began the phase-out of stop-loss, starting with the 
        Reserve Component in August 2009 and the Army National Guard in 
        September 2009, and followed by the Active Army in January 
        2010. Today, no mobilizing or deploying units have stop-loss 
        soldiers in their ranks.
        <bullet> The force achieved its ``Grow the Army'' end strength 
        goal of 1.1 million in 2009. The Active component continues to 
        grow toward its additional authorized temporary end strength in 
        order to improve unit manning within the already existing Army 
        structure as we eliminate stop-loss.
        <bullet> Fifteen-month tours effectively ended in November 
        2009, when the last soldiers on those extended deployments 
        returned.
        <bullet> We completed fielding nearly 12,000 Mine Resistant 
        Ambush Protected (MRAP) vehicles in Iraq and Afghanistan and 
        delivered the first MRAP All-Terrain Vehicles (M-ATVs) to 
        Afghanistan--just 15 months after identifying the need for that 
        capability. As of the beginning of February, we have provided 
        nearly 800 M-ATVs to Afghanistan.
        <bullet> This year, we successfully manned, trained, equipped, 
        and deployed 67 brigade equivalents.
        <bullet> The Army exceeded fleet readiness of 90 percent for 
        ground equipment, to include MRAPs, and 75 percent for 
        aviation.
        <bullet> We established Army Training Network (ATN)--a 21st 
        Century Approach to Army Training. This revolution in training 
        knowledge access is now providing a one-stop portal to share 
        training best practices, solutions, and products across the 
        Army.
        <bullet> The Army increased its employment of biometric 
        technologies enabling the Army to better identify the enemy 
        among the populace.
    Fiscal Year 2011 Budget Highlights
        <bullet> Funds permanent, Active component end strength at 
        547,400; Army Reserve at 205,000; and National Guard at 358,200 
        in the base budget and supports a 22,000 temporary increase in 
        the Active component through the Overseas Contingency 
        Operations (OCO) request.
        <bullet> Procures and upgrades the Army's UH-60 Black Hawk, CH-
        47 Chinook, and AH-64 Apache helicopters, which are vital to 
        operations in Afghanistan and Iraq.
        <bullet> Provides over $1 billion for flight crew training in 
        all components to fund flying hours, maintenance, fuel, 
        airfield operations, and specialized skill training.
Reset
    With the pace of continuous combat operations in two wars for the 
past 8 years, we are consuming our readiness as fast as we can build 
it. Reset restores returning units--their soldiers, families, and 
equipment--to a level of readiness necessary for future missions.
    Goals
    Our Reset plans include four goals. Our efforts to revitalize 
soldiers and families seek to reestablish and strengthen relationships 
following deployments. The Army's comprehensive efforts to repair, 
replace, and recapitalize equipment affected by the harsh environments 
of the war are essential to resetting units. In particular, achieving 
responsible drawdown in Iraq while increasing our commitment of forces 
and equipment to Afghanistan will require an unprecedented reset 
effort. The Army must retrain soldiers, leaders, and units to build 
critical skills necessary to operate across the spectrum of conflict in 
the current security environment. Lastly, we are identifying and 
applying the lessons learned from the Reset Pilot Program that was 
designed to improve the efficiency and effectiveness of the Reset 
process. Army Reset is a necessary process that must continue not only 
as long as we have forces deployed, but an additional 2 to 3 years 
after major deployments end.
    Progress and Accomplishments
        <bullet> The Army completed the reset of 29 brigades' worth of 
        equipment in fiscal year 2009 and continued the reset of 13 
        more. In total, we have reset more than 98,000 pieces of 
        equipment as depot production has doubled since September 11, 
        2001.
        <bullet> We began executing a responsible drawdown in Iraq 
        which will redistribute, transfer, or dispose of 3.4 million 
        pieces of equipment; redeploy 143,000 military and civilian 
        personnel, and 147,000 contractors; close 22 supply support 
        activities; and consume or dispose of over 21,000 short tons of 
        supplies.
        <bullet> In 2009, more than 160,000 soldiers and family members 
        participated in over 2,600 strong bonds events designed to 
        strengthen Army families.
        <bullet> The Army continues to revise its approach to training 
        by emphasizing doing fewer tasks better, making judicious use 
        of field time, and maximizing the use of mobile training teams 
        and distributed learning.
        <bullet> We completed our Reset Pilot Program and will begin 
        instituting the full Reset model across the Army in 2010.
        <bullet> The Army fostered partnerships by executing more than 
        $24 billion in new foreign military sales.
    Fiscal Year 2011 Budget Highlights
        <bullet> Provides $10.8 billion to reset Army equipment through 
        the Overseas Contingency Operations (OCO) request.
        <bullet> Supports training and sustainment of Army forces to 
        include individual skills and leader training; combined arms 
        training toward full spectrum operations; and adaptable, phased 
        training based on the ARFORGEN process.
Transform
    Since 2004, the Army has been transforming our force to provide the 
combatant commanders tailored, strategically responsive forces that can 
dominate across the spectrum of conflict. Transformation is a 
continuous process that sets the conditions for success against both 
near-term and future enemies.
    Goals
    Our goals for transformation include continued modular 
reorganization to standardize our formations to create a more 
deployable, adaptable, and versatile force. We will accelerate fielding 
of advanced technologies to ensure our soldiers retain their 
technological edge. The Army will operationalize the Reserve components 
by systematically building and sustaining readiness while increasing 
predictability for these soldiers, families, employers, and 
communities.
    Completing the requirements of the Base Realignment and Closure 
(BRAC) statutes is central to restationing forces. soldier and leader 
development will ensure that we produce the next generation of agile 
and adaptive military and civilian leaders who are supremely competent 
in their core proficiencies and sufficiently broad enough to operate 
effectively in the joint, interagency, intergovernmental, and multi-
national environments.
    Progress and Accomplishments
        <bullet> The Army is 88 percent complete on the modular 
        conversion of its brigades. The fiscal year 2011 budget will 
        support the near completion of this process.
        <bullet> The Army consolidated existing aviation force 
        structure to create a 12th Active component combat aviation 
        brigade (CAB) forming an additional deployable CAB without 
        adding force structure.
        <bullet> The Army activated the 162nd Infantry Brigade at Fort 
        Polk, LA, providing a dedicated and enduring capability to 
        prepare combat advisors to train and build capacity in foreign 
        security forces. Trainers from the brigade are now deployed to 
        Afghanistan to assist with the training and development of the 
        Afghan security forces.
        <bullet> The Army developed a new incremental capability 
        package approach to modernization which will allow 
        technologically mature, soldier-tested, proven technologies to 
        be prioritized, bundled in time, and fielded to the force more 
        quickly than ever before.
        <bullet> We provided combatant commanders with dedicated, 
        regionally based network operations support, and integrated 
        cyber security capability in the form of Theater Network 
        Operations and Security Centers, unique within the Department 
        of Defense.
        <bullet> This past year, the Army closed three active 
        installations and five U.S. Army Reserve Centers and is on 
        course to complete BRAC in fiscal year 2011. To date, we have 
        awarded 265 major military construction projects, of which 59 
        are complete.
        <bullet> The Army built a Leader Development Strategy that 
        balances experience, greater opportunities for professional 
        education, and training in full spectrum operations.
    Fiscal Year 2011 Budget Highlights
        <bullet> Invests nearly $3.2 billion in BCT modernization 
        programs that include procurement of the first incremental 
        changes packages for Infantry BCTs and additional research, 
        development, testing, and evaluation funding for subsequent 
        change packages as well as initial development of the Ground 
        Combat Vehicle (GCV).
        <bullet> Provides funds to begin equipping a 13th CAB.
        <bullet> Supports the increase in intelligence, surveillance, 
        and reconnaisance (ISR) platforms to include the Extended 
        Range/Multi-Purpose, Raven, Shadow unmanned aerial vehicles 
        (UAVs) and the Extended Medium Altitude Reconnaissance and 
        Surveillance System.
                   setting conditions for the future
21st Century Army
    The second critical challenge facing the Army is setting the 
conditions for the future through a continuous process of 
transformation. We must ensure that our Nation has the capability and 
range of military options to meet the evolving challenges we face in 
the 21st century. We need an Army that is a versatile mix of tailorable 
and networked organizations, operating on a rotational cycle, to 
provide a sustained flow of trained and ready forces for full spectrum 
operations and to hedge against unexpected contingencies--at a tempo 
that is predictable and sustainable for our All-Volunteer Force.
    Versatility is the central organizing principle of a balanced Army. 
It enables our forces and institutions to effectively execute 
operations across the spectrum of conflict. Our modular heavy, Stryker, 
and light brigades provide a versatile mix of forces that can be 
combined to provide multi-purpose capabilities, and sufficient capacity 
to accomplish a broad range of tasks from peacetime engagement to major 
combat operations.
    Our modular units are designed to be tailorable. Brigades now have 
capabilities previously found at division level and higher. These 
brigades can be tailored for specific missions and combined with 
support units and key enablers such as ISR, communications, civil 
affairs, psychological operations, public affairs capabilities, and 
expanded logistics support, to accomplish a wide variety of missions 
and increase the land options available to combatant commanders.
    The network is essential to a 21st-century Army. Networked 
organizations improve the situational awareness and understanding 
leaders need to act decisively at all points along the spectrum of 
conflict, while providing connectivity down to the individual soldier. 
The network allows dispersed Army organizations to plan and operate 
together, and provides connectivity to joint, combined, and interagency 
assets. To support this objective, the Army will use the Global Network 
Enterprise Construct (GNEC) as our strategy to transform LandWarNet to 
a centralized, more secure, operationalized, and sustainable network 
capable of supporting an expeditionary Army.
    To provide a sustained flow of trained and ready forces at a tempo 
sustainable for our All-Volunteer Force, we will put the whole Army 
under a rotational model-ARFORGEN.
    The ARFORGEN process includes three force pools--Reset, Train-
Ready, and Available. Each of the three force pools contains a 
versatile force package, available at varying time intervals based on 
its readiness level. Each force pool consists of an operational 
headquarters (a corps), 5 division headquarters (of which 1 or 2 are 
National Guard), 20 BCTs (3 or 4 are National Guard), and 90,000 
enablers (about half of those are Guard and Reserve). Each will be 
capable of full spectrum operations once we reach a steady-state, ratio 
of time deployed (known as ``boots on the ground'' or BOG) to time at 
home (dwell) of 1:2 (BOG:dwell) for Active component forces and 1:4 for 
Reserve component forces. This versatile mix of land forces could 
sustain operations in Iraq and Afghanistan. At lower demand levels, a 
sustainable BOG:dwell ratio of 1:3 for Active component forces and 1:5 
for Reserve component forces provides ready, global reaction forces and 
regionally-oriented forces for engagement in support of Theater 
Security Cooperation Programs. This process also allows strategic 
flexibility to surge in response to unexpected contingencies across the 
spectrum of conflict, and provides operational depth with more forces 
available for longer commitment times.
    The increased demands of our combatant commanders, coupled with the 
size of our Active component (AC) force, require that we continue to 
integrate Reserve component (RC) forces as part of our operational 
force. Continued and routine access to our RC forces is essential to 
sustaining current operations, and is improving the overall operational 
experience and quality of our RC forces. Additionally, sufficient Army 
National Guard (ARNG) forces must be ready and immediately available to 
their state and territorial authorities to respond to domestic crises. 
We are building an integrated Army in which our RC forces are included 
in the rotational cycle, but at a deployment rate of about half that of 
their AC counterparts.
    The ARFORGEN process increases predictability for soldiers, 
Families, employers, and communities, and enables our RC to remain an 
integral element of the operational force while providing the Nation 
with the strategic depth (i.e. those nondeployed units which are 2 to 3 
years from commitment) and operational flexibility to meet unexpected 
contingencies.
    The Army has undergone significant changes in recent years, and we 
must continue to change in order to keep pace with an environment of 
uncertainty and complexity in this era of persistent conflict. The same 
requirements that drive the imperative to change also drive our 
modernization efforts and need for institutional adaptation.
Realizing Change
    To become the Army the Nation needs in the second decade of the 
21st century, we are transforming the Army and prioritizing programs 
and efforts that show the most promise for today and tomorrow. 
Similarly, we are transforming business processes across the Army, 
including how we identify requirements, acquire, and provide materiel 
capabilities to our soldiers, and how we adapt our institutions to 
align with the ARFORGEN process.
    On April 6, 2009, Secretary Gates announced his adjustments to the 
defense program as part of the President's budget proposal for fiscal 
year 2010. The Secretary's decisions had an immediate and major impact 
on our FCS-centric Army modernization effort. He terminated the MGV 
portion of FCS, directing that we ``reevaluate the requirements, 
technology, and approach--and then re-launch the Army's vehicle 
modernization program . . . .'' He further directed the Army to 
``accelerate the initial increment of the program to spin out 
technology enhancements to all combat brigades,'' and retain and 
deliver software and network development program in increments, and 
incorporate MRAP into our force structure. Secretary Gates' intent for 
these bold adjustments was clear--to better reflect the lessons that we 
were learning from ongoing operations and better posture Army forces 
for a broader range of future challenges.
    To fully implement the Secretary of Defense's direction, the Army 
has developed a comprehensive plan. We refer to this new program as the 
Army's ``BCT Modernization Plan,'' which is a subset of our overall 
Army Modernization Strategy.
    BCT Modernization Plan
    We will leverage the lessons learned from the last 8 years to 
provide effective and affordable equipment now, while reducing the time 
it takes to develop and field new and updated materiel solutions. BCT 
Modernization includes four elements: modernizing the network over time 
to take advantage of technology upgrades, while simultaneously 
expanding it to cover ever increasing portions of the force; 
incorporating MRAPs into our force; rapidly developing and fielding a 
new GCV that meets the requirements of the 21st-century Army; and 
incrementally fielding capability packages that best meet the needs of 
soldiers and units as they train and then deploy.
                              army network
    Central to the Army's modernization efforts is an enhanced and 
interoperable communication network that gives the Army a decisive 
advantage across the spectrum of conflict. The network supports leaders 
in making timely, informed decisions, and supports organizational 
agility, lethality, and sustainability. It allows our soldiers to know 
where the enemy is, where other friendly forces and civilian 
populations are, and what weapon systems are available for them at any 
given time. The network links soldiers on the battlefield with space-
based and aerial sensors, robots, and command posts--providing 
unprecedented situational awareness and control and enabling the 
application of precise lethal fires on the modern battlefield.
    Maintaining our technological advantage is a constant challenge. 
The Army's battle command network must be continuously upgraded to 
ensure security and provide improved capability, capacity, connectivity 
and operational effectiveness. The Warfighter Information Network 
(Tactical) (WIN-T) is designed to extend the network ultimately to the 
company level for BCTs and provide real-time information, such as high 
definition imagery, from surveillance sources. The Joint Tactical Radio 
System (JTRS) was born joint with the specific requirement to resolve 
radio interoperability among the services. It will provide soldiers at 
the tactical level with connectivity at extended ranges, including 
voice, data, and video, enabling them to move information from platoon 
to higher-level command posts in complex terrain (including urban and 
mountainous areas).
                             mrap strategy
    In response to deadly IEDs in Iraq and Afghanistan, the Nation made 
a tremendous investment in fielding MRAPs that have saved lives by 
providing significantly improved protection for our soldiers. The Army 
is incorporating these vehicles throughout its unit formations. 
Additionally, we used the basic design of the MRAP as the foundation 
for the M-ATV, modifying it for the mountainous terrain in Afghanistan 
and in other regions around the world. The MRAP family of vehicles 
provides the versatility our forces need to rapidly move around the 
battlefield, particularly in an IED environment, with the best 
protection we can provide.
                         ground combat vehicle
    Combining the lessons learned from the survivability of the MRAP, 
the tactical mobility of the Bradley Fighting Vehicle, and the 
operational mobility of the Stryker, the Army is developing a GCV that 
possesses all of these qualities. Providing soldiers protected mobility 
is our top design criteria. The first combat vehicle designed from the 
ground up to operate in an IED environment, the GCV will have enhanced 
mobility that will allow it to operate effectively in both urban and 
off-road environments. It will be designed to host the Army's network. 
Perhaps most importantly, it will have the capacity available to accept 
future upgrades incrementally as technologies mature and threats 
change.
    The GCV will be versatile enough to support our expeditionary 
requirements and be capable of carrying an infantry squad. It will 
combine sustainability features that match the availability rates of 
the Stryker while consuming less fuel than current vehicles of similar 
weight and power. The pace of change and the operational environment 
demand an expedited acquisition timeline, so the Army is pursuing a GCV 
program timeline that provides the first production vehicles in 7 
years.
                          capability packages
    Capability packages provide the Army a regular, timely process to 
enable our deployable units with the latest materiel and non-materiel 
solutions based on the evolving challenges of the operating 
environment. The best available capabilities will go to the soldiers 
who need them most, based on the threats they are likely to face. These 
bundles of capabilities will include materiel, doctrine, organization, 
and training to fill the highest priority requirements and mitigate 
risk for soldiers. This incremental packaging approach will enable 
leaders to make timely, resource-informed decisions, and will help 
ensure that we provide the best available technologies to fulfill 
urgent needs to soldiers in the fight--all driven by the cyclic 
readiness produced by ARFORGEN. These capability packages will upgrade 
our units as they prepare to deploy by providing them improved 
capabilities such as precision fires and advanced Intelligence, 
Surveillance, and Reconnaissance (ISR).
The Army Modernization Strategy
    The Army's BCT Modernization Plan is a key element of our overall 
Army Modernization Strategy. The Army Modernization Strategy reflects 
our overarching vision of how we will achieve our ends, which is to:
    Develop and field an affordable and interoperable mix of the best 
equipment available to allow soldiers and units to succeed in both 
today's and tomorrow's full spectrum military operations.
    The Army Modernization Strategy relies on three interrelated lines 
of effort:

    (1)  Develop and field new capabilities to meet identified 
capability ``gaps'' through traditional or rapid acquisition processes. 
In support of this Line of Effort in fiscal year 2011 we have requested 
$934 million to develop the Army's new GCV, which will overcome 
critical capability gaps in both current and future operations. It is 
envisioned to have the tactical mobility of a Bradley, the operational 
mobility of a Stryker, and the protection of an MRAP. We are also 
requesting $459 million to procure the Extended Range Multi-Purpose 
Unmanned Aerial Vehicle. This extraordinarily capable platform, which 
is already making a difference in Operation Enduring Freedom, gives 
commanders longer dwell ISR capabilities across a joint area of 
operations.
    (2)  Continuously modernize equipment to meet current and future 
capability needs through upgrade, replacement, recapitalization, 
refurbishment, and technology insertions. Army efforts in this line of 
effort include our request for $887 million for the procurement of 16 
Block III AH-64 Apache Helicopters, as well as the upgrade of 13 AH-64 
Helicopters to Block II. Block III Apache is part of a long-term effort 
to improve situational awareness, performance, reliability, and 
sustainment of the Apache. Block II upgrades continue our commitment to 
modernize the Army National Guard Aviation Fleet. Additionally, in this 
line of effort, we have requested $505 million to upgrade Shadow RQ-7 
UAVs. This key upgrade will increase the payload capacity and enhance 
the performance of this key ISR asset for our BCT Commanders.
    (3)  Meet continuously evolving force requirements in the current 
operational environment by fielding and distributing capabilities in 
accordance with the Army Resource Priorities List and ARFORGEN Model. 
Meeting the constantly evolving needs of theater commanders and the 
demands of persistent conflict will require unprecedented agility in 
our equipping and modernization programs. One example of this agility 
can be found in our Kiowa Warrior fleet. We are currently maneuvering 
our fleet of OH-58D Kiowa Warrior Light Helicopters to meet Army and 
combatant command requirements based on the ARFORGEN model. As Air 
Cavalry Squadrons return from conflict, their OH-58D helicopters are 
placed into Reset. Units in Reset have very few aircraft, if any. 
Because the Kiowa Warrior fleet is short 35 aircraft overall, when the 
squadrons transition into the Train/Ready Phase of ARFORGEN, they are 
provided a number of helicopters sufficient to conduct training (25), 
but less than what they are fully authorized (30). When the units move 
into the available phase, they are provided their full complement of 
aircraft. It is this agility that has allowed Army forces to meet the 
needs of theater commanders for over 8 years of sustained combat.

    What do we need? Congress has been very supportive of Army 
Modernization needs in the past. Their tremendous support has ensured 
that the Army soldier is the best equipped and most respected combatant 
in the world. In order to execute Army Modernization and ensure the 
continued success of soldiers and units, we depend on a variety of 
resources, not the least of which is predictable funding. For fiscal 
year 2011, we have requested $31.7 billion for procurement and 
Research, Development, Test, and Evaluation (RDT&E) efforts.
Adapting the Institution and Transforming Business Practices
    In addition to modernizing our operating force, we are transforming 
our institutional Army. As required by section 904 of the 2008 National 
Defense Authorization Act (NDAA), the appointment of the Under 
Secretary of the Army as the Army's Chief Management Officer (CMO) has 
allowed the Army to develop a series of initiatives to adapt the 
institutional Army and transform our business practices. In accordance 
with section 908 of the 2009 NDAA, these efforts will result in the 
development and implementation of a comprehensive program that 
establishes a series of measurable performance goals and objectives. 
Specifically, the comprehensive program will address the following:

        <bullet> Developing and implementing a business transformation 
        plan focused on running the Army as effectively and efficiently 
        as possible.
        <bullet> Continuing the Army's business process reengineering 
        activities, led by OSD's Business Transformation Agency.
        <bullet> Developing an integrated business systems architecture 
        that emphasizes transparency and seamless access to data, and 
        provides timely and accurate information to decisionmakers.
        <bullet> Preparing Army leaders to take a greater role in 
        inculcating the Army with a cost-conscious culture.

    While the Army transformed its operating force--building versatile, 
agile units capable of adapting to changing environments--the 
institutional Army continued to use processes and procedures that were 
designed to support a pre-September 11 Army based on tiered levels of 
readiness. To support this new operating force, the Army must have an 
updated institutional Army--our generating force.
    Once the mission is defined, our institutions must seamlessly and 
continuously adapt--tailoring force packages and quickly adjusting 
training, manning, and equipping--to ensure units have all of the 
physical and mental tools necessary to succeed.
    Institutional agility allows us to adapt to the realities that 
present themselves. To that end, the CMO and Office of Business 
Transformation will build upon progress that has already been made 
toward the Army's institutional adaptation, specifically:

        <bullet> Improvement of the ARFORGEN process-aligning the 
        generating force and its processes to better support soldiers, 
        families, and units within the operating force.
        <bullet> Adoption of an Enterprise Approach-developing civilian 
        and military leaders who take a collaborative, holistic view of 
        Army objectives and resources to make better decisions for the 
        Army.
        <bullet> Reformation of the requirements and resource 
        processes--delivering timely and necessary capabilities at best 
        value.

    This transformational approach will overlay everything that the 
institutional Army does, with the unwavering goal of effectively and 
efficiently providing trained and ready forces to meet combatant 
commander requirements.
                       stewardship and innovation
    The Army remains devoted to the best possible stewardship of the 
resources it is provided by the American people through Congress. The 
establishment of the CMO and initiatives related to the transformation 
of Army business practices represent the Army's effort to act as a 
responsible steward. Several other initiatives serve to conserve 
resources and to reduce waste and inefficiencies wherever possible.
    The Army achieved full operating capability of the new Army 
Contracting Command, Expeditionary Contracting Command, and Mission and 
Installation Contracting Command in 2009. These organizations are 
dedicated to ensuring professional, ethical, efficient, and responsive 
contracting.
    Civilians are assuming increased responsibilities within the Army. 
The Army is recouping intellectual capital by in-sourcing former 
contracted positions that were associated with inherently governmental 
functions. In fiscal year 2009, the Army saved significant resources by 
in-sourcing more than 900 core governmental functions to Army 
civilians. We plan to in-source 7,162 positions in fiscal year 2010, 
and are programmed to in-source 11,084 positions during fiscal year 
2011-2015, of which 3,988 are acquisition positions. These positions 
were identified in the Army's ongoing contractor inventory review 
process.
    In the Employer Partnership program, the Army Reserve works with 
public agencies and private employers to leverage their shared 
interests in recruiting, training, and credentialing highly skilled 
citizen-soldiers. The Army Reserve has signed more than 800 partnership 
agreements with corporations, state agencies, and local police 
departments.
    Energy security is a key component of Army installations, weapons 
systems, and operations. The Army has developed a comprehensive energy 
security strategy, and is acting now to implement initiatives to make 
us less dependent on foreign sources of fuel and better stewards of our 
Nation's energy resources. In support of these goals, we fielded the 
largest hybrid vehicle fleet within the Department of Defense. Energy 
will continue to be a key consideration in all Army activities in order 
to reduce demand, increase efficiency, seek alternative sources, and 
create a culture of energy accountability, while sustaining or 
enhancing operational capabilities.
    The Army is committed to environmental stewardship. Through 
cooperative partner agreements and the Army Compatible Use Buffer 
Program, the Army protected more than 28,000 acres of land at 14 
locations in fiscal year 2009. Through creative solutions, the Army 
continues to conduct realistic training on its installations while 
protecting threatened and endangered species on Army lands.
               america's army--the strength of the nation
    The professionalism, dedicated service, and sacrifice of our All-
Volunteer Force are hallmarks of the Army--the Strength of our Nation.
    Our soldiers and their families quietly bear the burdens of a 
Nation at war. Our civilians stand with them, dedicated to the Nation 
and the Army that serves it. Despite the toll that 8 years of combat 
has taken, these great Americans continue to step forward to answer our 
Nation's call. In an environment in which we must make hard choices, 
they deserve the very best we can offer, commensurate with their 
dedication and sacrifice.
    To continue to fulfill our vital role for the Nation, the Army must 
sustain its efforts to restore balance and set conditions for the 
future. We have made significant progress this year, but challenges 
remain. The continued support of Congress will ensure that the Army 
remains manned, trained, and equipped to protect our national security 
interests at home and abroad, now and in the future. America's Army--
the Strength of the Nation.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Thank you, Mr. Secretary.
    General Casey.

 STATEMENT OF GEN GEORGE W. CASEY, JR., USA, CHIEF OF STAFF OF 
                            THE ARMY

    General Casey. Thank you, Mr. Chairman, Senator McCain, 
members of the committee.
    As the chairman said, I would like just to begin by 
introducing four representative members of this great Army that 
we have.
    First, I'd introduce Mrs. Donna Engeman. Donna's husband, 
John, was killed in Iraq 4 years ago, and she currently runs 
our Survivor Outreach Services Programs. It's a program we put 
in place, about 2 years ago, to increase what we were doing for 
surviving family members. Her son, Patrick, is on his second 
tour in Iraq.
    Next to her is Staff Sergeant Christian Hughes. He was 
wounded in Afghanistan in October. He's recovering from his 
wounds in Walter Reed, and he looks forward to rejoining his 
unit as soon as he can.
    Next is Sergeant First Class Shana Tinsley. Her husband, 
Arthur, is a Master Sergeant. He leaves for Afghanistan 
Thursday, I think, and she will be here with her children, 
working here with us in the Pentagon.
    Lastly, Sergeant First Class Jeff Lawson. He has recently 
completed a program at the University of Pennsylvania that 
qualifies him to be a master resilience trainer, and this is an 
important part of our Comprehensive Soldier Fitness Program 
that I will talk about a bit later. He has three tours in Iraq, 
himself.
    So, thank you all, very much, for coming out. [Applause.]
    Chairman Levin. General, thank you so much for bringing 
these special guests to us. I just want to give them a special 
thanks for their service, their families' service, their 
dedication and commitment to this country. We stand in awe of 
you. Thank you.
    General Casey. Thank you.
    Now, if I could, Mr. Chairman. As you noted, I've been 
saying for the past 3 years that the Army is out of balance, 
that we're so weighed down by our current commitments that we 
can't do the things we know we need to do to sustain this All-
Volunteer Force and to prepare to do other things. I can tell 
you that, with the help of the committee, we've made progress 
over the last year to get back in balance, but we're not quite 
out of the woods yet.
    That said, fiscal year 2011 budget completes the 
procurement funding to finish our conversion to modular 
organizations that we began in 2004 and the growth that we 
began in 2007. It also contains the military construction 
funding to complete the Base Realignment and Closure (BRAC) 
moves of 2005. So, your continued support will allow us to meet 
the goals we set 6 years ago to build an Army that was both 
relevant to 21st century challenges and back in balance.
    Now, this plan that we put in place to get ourselves back 
in balance was centered on four imperatives. We had to sustain 
our soldiers and families; they're the heart and soul of the 
force. We had to continue to prepare our soldiers for success 
in the current conflict. We had to reset them effectively when 
they return. Then we had to continue to transform for an 
uncertain future.
    Let me just give you a short progress report on where we 
are.
    Our first objective was to finish our growth. You'll 
recall, the administration, in January 2007, directed that we 
increase the size of the Army by 74,000. Originally, we were 
going to do that by 2012. With Secretary Gates' and your 
support, we completed it last spring. When that did not prove 
to be sufficient, we were granted a temporary increase of 
22,000 soldiers, and we will evaluate, later this year, that 
entire amount. This growth, coupled with the drawdown in Iraq, 
has allowed us to meet the need for additional forces in 
Afghanistan without returning to 15-month deployments and 
without going back on stop-loss.
    Our second key objective was to increase the time our 
soldiers spend at home. I will tell you, after almost 3 years 
in the job, I'm more convinced than ever that this is the most 
important element of putting ourselves back in balance, and for 
several reasons. One, our soldiers need time to recover from 
repeated combat deployments. What we continue to see across the 
force are the cumulative effects of these deployments. We 
recently completed a study that demonstrates what we 
intuitively knew, that it takes 2 to 3 years to recover from a 
1-year combat deployment. That's why it's so important for us 
to meet our near-term objective of 2 years at home between 
deployments for our Active Force and 4 years at home between 
deployments for our Reserve components. As demand decreases, we 
plan to move to more sustainable goals of 3 and 5 years, 
respectively, between deployments.
    More time at home also gives us more stable preparation 
time for the next mission and more time to prepare to do other 
things. When you're only home for a year, you barely have time 
to finish your leave before you have to begin preparing to go 
back. I've recently visited units that had 18 months home. The 
difference between 18 months at home and 12 months at home, and 
the pace of the tempo that they're home, is significant.
    Additionally, as time at home increases, we'll be able to 
see more units training for the full spectrum of operations, 
and we will gradually rekindle some of the skills that have 
atrophied over the past several years.
    Our third objective was to move away from our Cold War 
formations to organizations that are more relevant for the 
challenges we'll face in the 21st century. In 2004, we set out 
to convert all 300-plus brigades in our Army to modular 
organizations. Today, we're almost 90-percent complete, and 
these formations are demonstrating their versatility and their 
value in Iraq and Afghanistan every day.
    We also set out to rebalance the skills resident in these 
formations. This involved converting, retraining, and equipping 
around 150,000 soldiers from all components to new jobs. By way 
of example, in the last 6 years we have stood down around 200 
tank companies, artillery batteries, and air-defense batteries, 
and we've stood up a corresponding number of military police, 
engineers, civil affairs, and Special Forces companies. This 
has paid tremendous benefits in the current operations.
    So, together, the rebalancing and the modular conversions 
represent the largest organizational transformation of the Army 
since World War II, and we will have done this while fighting 
two wars.
    Fourth, we are moving to put the whole Army on a rotational 
readiness model, much like the Navy and Marine Corps have been 
on for many years. This model will allow us to more efficiently 
and effectively provide a sustained flow of land forces that 
are trained for the full spectrum of operations to our 
combatant commanders. It will also allow us to have forces 
available to hedge against the unexpected contingencies that 
you spoke of. It will also allow us to do this in a way that's 
predictable and sustainable for this All-Volunteer Force.
    Our fifth objective was to complete our restationing, and 
we're just over half way through these efforts. We're on track 
to complete the 2005 BRAC by the end of 2011. This will affect 
over 380,000 soldiers, family members, and civilians. While 
it's a lot of turbulence, the construction on these new 
installations will significantly improve the quality of life 
for our soldiers and families.
    So, the bottom line, Mr. Chairman, is we've made progress, 
but we still face challenges as we work to restore balance and 
set the conditions for the future.
    I'd like to conclude my remarks with comments on three 
areas that are very important to us and, I would hope, also 
important for this committee.
    First of all, sustaining our people. This budget contains 
money for housing, barracks, childcare, youth centers, Warrior 
Transition Units, and surviving spouse programs--all critically 
important to sustaining our soldiers, civilians, and families 
through a period in which our country is asking so much of 
them. In general, we're strengthening our programs to build 
resiliency into the force, to help them deal, not only with the 
challenges of the past, but with the challenges of the future.
    We've all seen the manifestations of the stresses of 8\1/2\ 
years at war--elevated suicide rates, increased demand for 
behavioral health counseling and drug and alcohol counseling, 
increased divorce rates, increased numbers of soldiers 
temporarily nondeployable from nagging injuries from previous 
deployments--and we've been moving aggressively to give our 
soldiers and families the skills they need to deal with these 
challenges.
    In October, we began a program that we had been working on 
for more than 18 months with some of the best experts in the 
country. The program is called Comprehensive Soldier Fitness. 
I've spoken about it here before. It's designed to give mental 
fitness the same level of effort that we give to physical 
fitness. We intended to provide our force the resiliency skills 
that they need to succeed in an era of persistent conflict. 
This program consists of four components: an online self-
assessment to identify resiliency strengths, this assessment 
has already been taken by over 250,000 soldiers; next, online 
self-help modules; third, master resilience trainers, like 
Sergeant Lawson. These are designed to conduct resiliency 
training down to the unit level. We've trained over 600 
Sergeant Lawsons at the University of Pennsylvania already. 
Finally, there will be resiliency training at every Army Leader 
Development School. This program shows great promise, and I'd 
be happy to discuss it further in the questions and answers.
    Second, the reset of our equipment will be increasingly 
important as we complete the drawdown in Iraq over the next 2 
years, and for 2 to 3 years after the conclusion of combat 
operations. It's important to note that our reset efforts have 
been a key factor in maintaining the high operational readiness 
rates for ground and air systems in Iraq and Afghanistan. This 
budget provides almost $11 billion to reset our equipment, and 
sustained funding for reset will be essential to the long-term 
health of the force.
    Finally, this budget, as you mentioned, Mr. Chairman, 
contains a significant adjustment to our modernization 
strategy. I believe that we are in a period of continuous and 
fundamental change, and that we must continually adapt to deal 
with evolving threats. So, in conjunction with the Secretary of 
Defense, we've transitioned away from the FCS program to what 
we believe is an achievable, affordable modernization program 
for our BCTs. This program leverages the lessons that we've 
learned at war and the lessons that we learned from the FCS 
program itself. It contains four elements. First of all, 
incrementally modernizing our networks over time to take 
advantage of rapid advances in technology. Second, 
incrementally fielding capability packages to put the best 
equipment into the hands of our soldiers as rapidly as it is 
available. Third, incorporating MRAP vehicles into our force. 
Lastly, rapidly developing and fielding a new ground combat 
vehicle that meets the requirements of a 21st century Army.
    We intend to make this program a model for the Weapon 
Systems Acquisition Reform Act (WSARA), and we look forward to 
working with the committee on it.
    In closing, I'd like to reiterate how proud I am of what 
the men and women of this great Army continue to accomplish at 
home and around the world. We've made progress in restoring 
balance, but we still face a tough road ahead, and we could not 
have done it without the committee's support.
    Thank you very much. The Secretary and I look forward to 
your questions.
    Chairman Levin. Thank you so much, General. We appreciate 
that testimony.
    Let's try a 7-minute first round.
    This goes, first, to you Mr. Secretary; the fiscal year 
2011 budget request for DOD includes $549 billion for the base 
budget and $159 billion for the ongoing wars in Iraq and 
Afghanistan. Now, on top of the $708 billion request for 2011, 
the administration has included a 2010 supplemental request of 
$33 billion to fund the additional 30,000 troops to support the 
President's policy announced last December, and much of that 
additional funding is required to support the Army's operating 
costs. What is your estimate, Mr. Secretary, of how far into 
the current fiscal year the Army can cover its war costs before 
you're going to need that appropriation of additional funds?
    Secretary McHugh. I appreciate you asking this, Senator, 
because obviously it is something we spend a lot of time 
talking about on the Army side. I recognize full well that the 
process of introducing, and ultimately passing and having 
signed, a supplemental, under any conditions, is not always 
subject to a calendar, but there are realities, as you just 
mentioned.
    Our budget people tell us, including DOD Comptroller Hale, 
that the last possible moment in which we can comfortably fund 
this would be at the end of June, beginning of July.
    Chairman Levin. Thank you.
    The WSARA was designed to address the problems that we've 
had with weapons systems that take too long and cost too much, 
by getting the programs off on a sounder footing, with better 
systems engineering, better cost estimates, more mature 
technologies, and better developmental testing. Is the Army on 
track to rebuild its systems engineering, cost estimating, and 
developmental testing capabilities, as required by that Act?
    Secretary McHugh. We believe we are. I've jokingly said, 
over the last several months, as a prime cosponsor of that bill 
in the House, that had I known I was going to be Secretary of 
the Army, I probably would have read it more carefully. But, 
having the chance now to work with it, we're working very hard, 
particularly in programs like the ground combat vehicle, to 
meet the kinds of standards and the kinds of milestone 
judgments and prototype competitions that is envisioned in this 
act.
    I would tell you, we have a challenge on insourcing and 
growing that workforce. If you look at the statistics over the 
last 10 years, there's been a 15 percent cut in the acquisition 
workforce in the Army. At the same time, we've been called upon 
to execute approximately a 500 percent increase in contracted 
dollars. I think the workforce, as strained as they have been, 
have done a good job in that regard. Over 2008 and 2009, we had 
about 1,000 protests to the contract lettings through our 
systems, and yet, of those 1,000, approximately only 8 were 
sustained.
    Nevertheless, the long pole in the tent, it seems to me, is 
bringing in more contract expertise. We had a good start. We've 
insourced about 900 core functions. We've saved about $41 
million. We have, though 2015, a plan to insource nearly 4,000 
new positions. Targets sometimes are hard to achieve. But, I 
think we've done, thus far, a pretty good job in respecting 
both the intent and the letter of that law.
    Chairman Levin. In general, you feel you're on track.
    Secretary McHugh. I do, sir.
    Chairman Levin. Thank you.
    Now, on the Wounded Warrior Transition Command, you've both 
made references to our responsibility to our wounded warriors. 
The Army has set up a Warrior Transition Command to oversee the 
care and support of wounded or ill or injured soldiers. In your 
judgement, is that new command now in operation, and is it 
effective?
    General Casey. It has been fully operational, Mr. Chairman, 
and it has been increasingly effective. We've continued to 
improve our facilities, the staffing, and actually how we 
process soldiers through the Warrior Transition Unit system. We 
are trying to shift our focus away from just disability, over 
to rehabilitation. We focus them on goal-settings, to move them 
more rapidly through the process.
    The other bit is, we've added an automation component to 
this, and we're automating the evaluation board process, and I 
think that's going to help us streamline this, as well. Short 
answer, it has improved the way we handle our warriors.
    Chairman Levin. Thank you.
    Relative to the DADT law and policy, Secretary Gates 
testified that he's appointed a high-level working group to 
review the issues that are associated with implementing a 
repeal of the DADT law and policy. Admiral Mullen has testified 
that he and the Service Chiefs are in support of that approach.
    Let me ask both of you; would you object to a moratorium on 
discharges for homosexuality until completion of that review?
    Mr. Secretary?
    Secretary McHugh. Mr. Chairman, I hate to parse words, but 
it depends what you mean by support.
    Chairman Levin. Well, I said, would you object to a 
moratorium?
    Secretary McHugh. We don't feel we have the legal authority 
to impose that, from the Department side. But, quite honestly, 
if it were the will of Congress and the President to institute 
that moratorium, I can't see that we would object to that, per 
se.
    Chairman Levin. Okay.
    General, if Congress adopted a moratorium, would you object 
to that? Would you recommend against it? What would be your 
position?
    General Casey. Senator, I would recommend against it. Aside 
from the legal issues that the Secretary mentioned, it would 
complicate the whole process that Secretary Gates had laid out. 
We would be put in a position of actually implementing it while 
we were studying implementation, and I don't think that would 
be prudent.
    Chairman Levin. If the moratorium were simply a moratorium? 
In other words, you're not implementing anything, you're just 
withholding discharges until that study is completed.
    General Casey. Mr. Chairman, this process is going to be 
difficult and complicated enough. Anything that complicates it 
more, I think I would be opposed to.
    Chairman Levin. Well, if we do that, we'll try and make it 
simple and straightforward.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses.
    General Casey, you've put forward the goal of increasing 
dwell time for soldiers, so they can spend 2 years at home for 
every year deployed. I think it's a laudable goal. Obviously, 
there's two ways of reaching it: reduce our commitment overseas 
or increase end strength. What would be the effect of making 
the temporary end-strength increase of 22,000 soldiers 
permanent? Would that be helpful?
    General Casey. Senator, it would have a slight impact on 
dwell across the Army. I can tell you that, with the drawdown 
in Iraq and the plus-up in Afghanistan, we actually get 70 
percent of the Active Force to our goal of 1 year out, 2 years 
back, in 2011, and 80 percent of the Guard and Reserve meet 
their goal. So, we are well on the way to getting that, because 
of our growth and because of the drawdown in Iraq.
    Senator McCain. Do you still think we can get close to your 
objectives by 2011?
    General Casey. I do, Senator.
    Senator McCain. Secretary McHugh, how much of the Army's 
OCO request could be placed in the base budget?
    Secretary McHugh. About $8 billion, sir.
    Senator McCain. Out of $100 billion.
    Secretary McHugh. A hundred-plus, yes.
    Senator McCain. So, we will probably see supplemental 
requests for a long period of time.
    Secretary McHugh. Well, I can't speak to that. There is 
certainly an expectation--a hope, if you will--amongst the Army 
leadership and, I expect, most of the Services, as we are 
engaged in named overseas operations, that we would have 
supplemental support.
    Senator McCain. In other words, you think we need 
supplementals?
    Secretary McHugh. If we're going to operate in these types 
of theaters, yes, we absolutely do.
    Senator McCain. Mr. Secretary and General Casey, as we 
know, they are going to stop making the Humvee. The 2011 
request ends production in the Humvee line of vehicles. Maybe 
you could provide, for the record, the long-term plan for a 
wheeled-vehicle fleet. I understand the President's budget 
request. I hope that we have some plans on a replacement for 
that.
    [The information referred to follows:]

    The long-term plan for the Light Tactical Vehicle (LTV) fleet is to 
support the development and procurement of the Joint Light Tactical 
Vehicle (JLTV) and to modernize the existing High Mobility Multi-
purpose Wheeled Vehicle (HMMWV) fleet through recapitalization.
    The Army is currently reviewing the LTV requirement, which 
currently stands at approximately 150,000 vehicles. As JLTV is 
projected to start procurement in fiscal year 2013, the HMMWV 
requirement will decrease proportionately. The Army will divest based 
on criteria in favor of the most modern, capable versions of armored 
and unarmored HMMWVs.
    The Army recognizes there will continue to be a requirement for 
both armored and unarmored HMMWVs in the fleet. As JLTV is fielded and 
its capabilities evaluated, the role of both armored and unarmored 
HMMWVs will be reassessed, and the fleet will be adjusted accordingly.

     Senator McCain. General Casey, do you feel that the 
operational commanders also ought to have input into this issue 
of how to address the DADT issue?
    General Casey. Their input is certainly welcome, but we're 
the ones responsible for organizing and preparing the forces 
that they employ. So, I believe that we, the Service Chiefs, 
have a greater stake in it. But, their reasoned opinions are 
always welcomed.
    Senator McCain. Of course, since they have to implement 
your personnel policies, and are given that responsibility, it 
seems to me they should be consulted, as well.
    I think it's pretty obvious what the next step is in this 
effort to repeal DADT. Senator Levin just said, now instead of 
going through the study that the Secretary of Defense has 
called for, the forces now will want a moratorium before any 
decision is made. Not unexpected, but certainly it flies in the 
face of what the Secretary of Defense committed to, and that 
is, before a decision is made to change a policy that, in my 
view at least, is working, we would then impose a moratorium.
    What are the plans for this long-range study that the 
Secretary of Defense is going to implement? Do you know, 
Secretary McHugh?
    Secretary McHugh. In general terms, Senator, it's still 
being set up; and, in fact, some of the basic construct of the 
seniors group was worked out this weekend.
    If I may, before I go to that, just to return to the 
chairman's question. My answer about a moratorium was 
predicated upon the assumption that if Congress were to pass 
it, we would respect and obey that.
    Senator McCain. But, that was not the chairman's question.
    Secretary McHugh. Well, that's how I took it. I want to be 
clear. If you're asking for my personal opinion as to the 
effects of a moratorium, we have any number of cases underway, 
pursuant to the current law, that would be greatly complicated 
were there a moratorium; but if it were passed, obviously, and 
the intent of my answer was to say, we would follow through 
with that.
    Chairman Levin. What are those cases, if I could just 
interrupt?
    Secretary McHugh. Well, we have Lieutenant Choi, a member 
of the New York Reserve, for example, who's in a process now, 
whose Federal recognition has been withdrawn, who's not had 
final action.
    Chairman Levin. Who is being discharged?
    Secretary McHugh. We've not yet seen the recommendations 
and paperwork out of the State, but certainly with the process 
of withdrawing his Federal recognition, that would certainly 
lend to that decision and others. I'm not trying to prejudge 
the appropriateness of that discharge or any other discharge, 
I'm just saying it would bring a legal complication to the 
circumstances.
    But, if Congress were to pass it, and the President were to 
sign that, we would step forward and respect it and implement 
it.
    Senator McCain. Mr. Secretary, but that's not the question. 
The question is, would you support a moratorium before the 
review, as conducted by the Secretary of Defense, is completed?
    Secretary McHugh. If the question is my personal opinion, 
if asked, the preference would be, we would not enact a 
moratorium.
    Senator McCain. Thank you very much.
    Unfortunately, last year we put hate crimes on the defense 
authorization. For the first time in history, we put a 
legislation that didn't have anything to do with defense 
authorization on the authorization bill, and I'm greatly 
concerned about what would be put on this authorization bill 
since the precedent was shattered last year by the majority by 
putting on legislation that had nothing to do with the Nation's 
defense.
    I thank you for your candid answers, and I thank all of you 
for your service to the country.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Just while we're on DADT, am I correct in concluding, based 
on your testimony, two things; one, if Congress adopted a 
moratorium on enforcement of DADT or adopted repeal and the 
President signed it, that you would carry out those those laws? 
Is that correct?
    Secretary McHugh. Absolutely.
    General Casey. Absolutely.
    Senator Lieberman. The second question is, on the question 
of repeal of DADT, what I'm hearing both of you say--maybe you 
want to fill it in--is that, this morning, you are neither 
supporting nor opposing repeal. Is that correct?
    Secretary McHugh. I have a somewhat different position on 
this matter, under the constructs of my responsibilities as 
Secretary. I work for the President of the United States and 
the Secretary of Defense. I entered this job with a full 
understanding, and the President has been consistently clear, 
that he supports repeal of this policy. Recent developments, of 
course, are the first steps by the administration to take steps 
to work in a way in which he believes can bring about an end to 
that. My job is to try to provide, as the Secretary of Defense 
is doing at this moment, the best possible information and 
views, from the Army's side, so that they can formulate 
whatever decision forward and way forward they may choose, and 
thereafter, to best explain and represent the policies that the 
Commander in Chief has put forward.
    Senator Lieberman. Thanks, Mr. Secretary.
    I know, when we talked about this a while back, General 
Casey, I thought I understood you to say that you had some 
questions about a repeal, but that you were not taking a hard 
position either for or against, at this point.
    General Casey. Senator, I think that's fair. As I mentioned 
to you, I do have serious concerns about the impact of the 
repeal of the law on a force that's fully engaged in two wars 
and has been at war for 8\1/2\ years.
    Senator Lieberman. Right.
    General Casey. We just don't know the impacts on readiness 
and military effectiveness.
    Secretary McHugh. Exactly.
    General Casey. That's why I fully support what Secretary 
Gates has laid out. I'll fully participate in that. I feel I 
can provide my informed military judgments to the Secretary of 
Defense, the President, and Congress.
    Senator Lieberman. Good enough.
    Let me go on to the end strength question that Senator 
McCain took up for a moment in his questioning. We worked very 
hard to give you the increase in temporary end strength of 
22,000 soldiers. Based on the dwell time, the time back at 
base, that our troops have and the stress that they're under, 
and also, of course, based on the unpredictability of the two 
hot wars we're involved in, in Iraq and Afghanistan, which is 
to say, what demands there'd be on manpower we never can 
foresee--I notice there's a story in the paper this morning 
suggesting that, because of uncertainties surrounding the 
election in Iraq and the post-election negotiating to form a 
new government, that it may be necessary to keep more of our 
soldiers in Iraq longer than we had originally hoped. It's not 
clear yet, but while we're surging in Afghanistan. So, I want 
to get clear, just for the record, General Casey. Have you 
filled that 22,000 increase in end strength now?
    General Casey. We have not. We will fill up to 15,000 this 
year.
    Senator Lieberman. Right.
    General Casey. Then we'll make a decision, later this year, 
whether of not we want to complete the last 7,000. It's tied, 
as you would suggest, to the demand on our forces--and the 
drawdown in Iraq. I will tell you, because of what was already 
spoken of here--the military personnel costs--we will work to 
find the right balance between an Army that we can afford and 
an Army that is able to meet the Nation's demands at 
sustainable deployment rates for its soldiers.
    Senator Lieberman. I appreciate it. We had a hearing 
yesterday with Secretary Flournoy and General Paxton about a 
status report on where we are in the operations in Afghanistan 
and Marja, and based on statements that General McChrystal and 
General Petraeus have made, this is the beginning of a turn-
the-momentum-against-the-Taliban operation that will presumably 
go from Marja in Helmand Province into Kandahar. These are all 
very troop intensive operations, and we know that, in this kind 
of conflict, numbers matter. So, I just want to express my 
hope--first a concern, if I can--that in the budget that you're 
receiving, this end strength increase temporarily goes to 2012. 
My concern is that you're going to get squeezed budgetarily to 
make a decision against the troop increase that we may need in 
Afghanistan and Iraq, because the truth is that personnel 
really do cost a lot of money. The net effect of that, I fear, 
will be that we will increase the stress on our forces and not 
do so well in combat. In a sense, the Secretary of Defense's 
decision--which I support with the fiscal year 2011 budget--to 
add two additional combat aviation brigades--which I supported, 
because it provides much needed aviation assets for the Army--
also creates additional manpower and budgetary demands on our 
overtaxed force.
    So, you get my point. I'm concerned that the Army's going 
to be pressured, for reasons of money, not effectiveness in the 
field or your goal, which I totally support, of increasing 
dwell time, to not have the personnel we need to achieve those 
ends. How would you respond?
    General Casey. Senator, I share your concerns, and I assure 
you that we won't get pressed by that to do something that will 
impact a force that's already stretched by 8\1/2\ years of war. 
As I talked to you in your office, the Secretary and I will let 
you know, here, as we get closer to this, about how we're 
thinking on it and where we're going.
    Senator Lieberman. I appreciate that. I'll keep asking the 
question.
    Mr. Secretary, do you want to add anything?
    Secretary McHugh. Well, I would simply say, Senator, as 
both the Chief and I have discussed, we deeply appreciate that 
plus-up; and it was through yours and other great members of 
this committee that that came about. We feel that if our plans 
for drawdowns in Iraq and the continued plus-up goes according 
to the outlines, that we can meet our dwell objectives without 
that end strength. But, obviously, as General Odierno's 
comments in the media this morning suggest, this is a situation 
that could change, and we need to make that judgment at the 
appropriate time.
    Senator Lieberman. I appreciate that. Thank you.
    You have a lot of allies here in that cause, so thank you 
very much.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Gentlemen, again, thanks for your service.
    Mr. Secretary, you and I have been good friends for a long 
time, and I'm very proud of your service and your continuing 
commitment to our military Services, particularly the U.S. 
Army.
    My State continues to be at the forefront of both the war 
in Afghanistan and the conflict in Iraq. The 48th Brigade of 
the Georgia National Guard is in the process of returning home 
right now, after another very successful engagement, this time 
in Afghanistan. Of course, the 3rd Infantry Division is on 
their fourth tour in Iraq now and, again, just doing a terrific 
job. We're very proud of those folks.
    General Casey, you referenced in your statement that this 
budget includes all the remaining funding to complete the round 
of BRAC. While the Taliban can't stop the U.S. Army in 
Afghanistan, it appears that the red cockaded woodpecker in 
Georgia has at least slowed down the transfer of the Armor 
School. Can you give us an update on that, and does your budget 
reflect the fact that we're going to complete that in the short 
term?
    General Casey. The budget reflects the fact that we're 
going to complete the construction. Frankly, I am not up to 
speed on where we are with the red cockaded woodpecker.
    Mr. Secretary, I don't know if you have the data either.
    I'll find out, and let you know.
    [The information referred to follows:]

    The move of the Armor School and stand up of the Maneuver Center of 
Excellence (MCOE) at Fort Benning is on track to meet the September 15, 
2011, BRAC 2005 deadline. The Sierra Club and the Southern 
Environmental Law Center have expressed concerns and discussed possible 
litigation regarding the adverse impact the military construction and 
subsequent training at the MCOE will have on the red cockaded-
woodpecker (RCW), a federally listed endangered species. Thus far, 
several of the concerns expressed by the Sierra Club and the Southern 
Environmental Law Center have been satisfactorily addressed. Remaining 
issues of concern are expected to be resolved in late March 2010 when 
the U.S. Fish and Wildlife Service issues a supplement to the existing 
Biological Opinion that will provide greater clarity and specificity on 
the requisite procedures to ensure proper management of the RCW.

    General Casey. I was down at Benning probably 2 months ago, 
and they told me that they were on track. They mentioned some 
problems, but they didn't think those were going to keep us 
from meeting that September 2011 date to have Armor Center down 
there.
    Senator Chambliss. Okay. Well, if you could just give us a 
followup on that in writing, or have your staff give me a call, 
that would be fine.
    Mr. Secretary, we previously discussed the issue of Fort 
Stewart and the Army's decision not to grow the additional 
three BCTs, as previously stated. With that in mind, the QDR 
mentions two pending reviews of our four European-based BCTs. 
As you well know, we eagerly await the outcome of those reviews 
and hope that the Army will give a hard look at where those 
BCTs should be based, and keep in mind both your commitments to 
NATO allies, as well as the need to have troops based in the 
continental United States.
    Now, in that regard, the fiscal year 2010 defense 
appropriation bill called for a review to be completed within 
60 days of enactment of the Department's efforts to mitigate 
the impact of the brigade basing decisions that I mentioned 
above on local communities. Can you give us the status of that, 
since we are at the 60-day mark?
    Secretary McHugh. The one thing I've learned, Senator, 
since my 5 months in the Pentagon, is that 60 days usually 
means 75. I've not yet seen that report. I promise you we will 
attempt to find out where it is for you and provide that 
information for you.
    [The information referred to follows:]

    Per the Office of the Secretary of Defense (OSD) Legislative 
Affairs congressional report tracking system, OSD (Acquisition, 
Technology, and Logistics) is writing this report and is expected to 
have it completed in the near future.

    Secretary McHugh. As to the rebasing, we expect the NATO 
review and the attendant U.S. posture reviews, as to the four 
brigade teams' end in the European theater, to be concluded, 
and, hopefully, a decision can be made whether they'll be 
retained in Europe or, perhaps, one or both be brought back 
home by the fall of this year.
    Senator Chambliss. Okay.
    With respect to the reset and replacement of the equipment 
that we are using, or have used, in Iraq over the last several 
years, it's pretty obvious, when you're on the ground over 
there, that a lot of this equipment is just simply worn out. If 
we're truly going to leave the Iraqis in a position to be able 
to maintain security, both internally and also threats from 
external sources, we're probably going to have to leave some 
equipment with them. What's the plan of the Army now with 
respect to how much of this equipment is truly going to be 
brought back to the United States to be reset, how much is 
going to be left there for the Iraqis, and how much is simply 
too worn out to do either of the above?
    General Casey. Senator, that is a great question. In fact, 
we have been working on the drawdown in Iraq for over 18 
months, and putting in place the stewardship boards to ensure 
that we have a good handle on this. As you suggest, just to 
give you an idea of the scope of this, this is about 3 million 
pieces of equipment in Iraq, and as you say, in various states 
of repair. About 70 percent of that equipment belongs to Army 
units. That will come back to the United States, get reset, and 
get put back into units. The remaining 30 percent is 
nonstandard equipment. About 95 percent of that will be 
retained for our future use. It's things like X-ray machines 
that we use at entry sites. About 5 percent will be made 
available to State agencies for emergency use.
    Right now, it looks like we will leave about half a billion 
dollars worth of excess equipment to the Iraqis, and that 
includes trucks, Humvees, rifles, generators, and those kinds 
of things. Part of that has been provided by the authorities 
that came from this committee. But, of all the billions of 
dollars, only about half a billion dollars will be left there 
for the Iraqis.
    Senator Chambliss. Okay. I think Senator McCain touched on 
the issue of the 22,000 personnel that we've plussed-up and 
whether or not we ought to make those permanent. But, without 
repeating the specific question that he asked--I hope I'm not--
General Casey, what are your thoughts on making the current 
temporary increase of end strength at 22,000?
    General Casey. Senator, because of the costs of personnel 
and the impact of that on the rest of the programs within the 
budget, I want to look at it very closely. As I mentioned to 
Senator Lieberman, if we meet the drawdown in Iraq targets 
about as they've been laid out, we may not need the entire 
22,000, and we may not need to keep it. But, it's something 
we'll look very, very closely at here, probably over the next 6 
months.
    Senator Chambliss. I would fully expect this committee is 
going to support your decision, whatever it may be, but the one 
issue that I keep hearing, back home as I visit the Army posts, 
is the operational tempo issue, and it primarily comes from 
spouses, the same as what you already know, I'm sure. Trying to 
deal with that issue is not easy, but one way to do it is to 
make these 22,000 troops permanent.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service.
    General Casey, the Marines deployed, initially, MRAP 
vehicles that had specialized suspension for Afghanistan. Where 
is the Army in that process? Is that something you intend to 
do?
    General Casey. I was up at Aberdeen, and I looked at one of 
those systems up there, and we have a plant in Kuwait that is 
actively transitioning some of the MRAP vehicles that we have 
in theater to the new suspension system. So, we're actively 
working on that.
    Senator Reed. Is it your goal to fully equip all our Army 
forces in Afghanistan with those vehicles, or what is the plan?
    General Casey. My recollection, Senator, is that we're 
converting a certain type of MRAP vehicle. All MRAP vehicles 
don't necessarily need that kit, and so we'll continue to 
outfit those.
    Senator Reed. Thank you.
    Both for the Secretary and for the Chief of Staff; as we go 
forward, both in Iraq and Afghanistan, hopefully the need for 
combat brigades will decrease, and the need for trainers will 
increase. How are you trying to accommodate that shift in the 
future?
    General Casey. We have been creating, probably for the last 
6 months or so, Senator, advise-and-assist brigades for Iraq 
and modular brigades that are augmented with additional 
trainers for Afghanistan. There's a two-phase training process: 
one, that when they go to their mission rehearsal exercise at 
one of our training centers, they get some training there; and 
then, last year, we stood up a new brigade whose sole mission 
is to conduct security force assistance trainings for general-
purpose units. So, the leadership of those units also receives 
additional training in the skills required to work with 
indigenous forces, much like our Special Forces do. We're 
having great success with the combination of those.
    The other thing, Senator, I was down visiting a brigade 
from the 82nd at one of their exercises, and I said, ``What's 
the story, guys, can we really do this? Can conventional units 
do this training?'' There was silence, and then one of the 
battalion commanders said, ``Sir, it's what we've been doing 
for the last 4 years.'' Since 2005, our conventional forces 
have been actively working with the indigenous forces in Iraq 
and also in Afghanistan. So, we're getting much better at it.
    Senator Reed. This proposal you're talking about is the 
embedded trainers or units working with American brigades?
    General Casey. We put additional field-grade officers into 
existing brigades so that they can partner with divisions and 
border brigades, things like that.
    Senator Reed. But, at some point, the presence of 
brigades--in Iraq first, and then Afghanistan--will be minimal, 
and what about individual trainers or training structures that 
don't depend upon the brigades?
    General Casey. Both Iraq and Afghanistan have structures to 
stand up the institutional side of their armies. It's called 
MNSTC-I, in Iraq, and it's called CSTC-A, in Afghanistan. 
Lieutenant General Bill Caldwell, USA, has been working in 
Afghanistan to stand it up. Frankly, it was under-resourced. In 
fact, we've just sent about 50 senior leaders from that 
training brigade to Bill Caldwell to augment his staff and 
continue to get things going there. That is where, currently in 
Afghanistan, he is having problems with the trainers, the 
institutional trainers that I think the Chairman mentioned in 
his opening statement.
    Senator Reed. Going forward, General and Mr. Secretary, are 
you consciously planning to resource this effort with qualified 
noncommissioned officers on an extended basis? Is that built 
into your plan?
    General Casey. Absolutely. In fact, we have begun selecting 
lieutenant colonel and colonel commanders, off of a command 
select list to command in those organizations.
    Senator Reed. Another aspect to this training issue is 
interagency training, prior to deployment. Is that going on, 
and how effective is that?
    General Casey. It is, but it's tough, Senator. What we wind 
up doing is contracting retired interagency folks to come out 
and give us that expertise as we're going through the training. 
The other agencies just aren't big enough to provide the folks 
that are actually going to be out there in time. So, that 
continues to be difficult.
    Senator Reed. So, there's no sort of training as you do 
before deploying military units to bring all of the relevant 
parts together, train for a period of time, and then deploy. 
You have surrogates, and then when they get in the field, they 
get together with the actual agency partners.
    General Casey. Right. If we're getting the actual partners 
there, it's by exception and not the rule.
    Senator Reed. There's been a lot of discussion about the 
DADT policy. Have you heard anything from commanders in the 
field in Afghanistan or Iraq about the readiness of British 
forces or Canadian forces, which do allow gay servicemembers to 
serve openly? Is there any reluctance, by American units, to 
cooperate? Any feedback from individual soldiers about their 
policies?
    General Casey. I have heard nothing from anyone about any 
conflicts with British or Canadian soldiers, or any other 
country's soldiers, that have already implemented that policy.
    Senator Reed. Have you had anybody suggest that their 
battle readiness was impaired by that policy?
    General Casey. I have not, Senator.
    Senator Reed. As you go forward, you're reorganizing the 
military--as you point out, the most significant reorganization 
in decades--is there any thought about changing the construct 
of the Reserve Forces, of putting more or less combat service 
support elements there? If there is, can you comment?
    General Casey. We're always trying the get the mix of 
Active component and Reserve component forces right. We made a 
conscious decision in 2004 to get through this, to complete 
this reorganization that we've done. Now we're reassessing and 
we're taking a hard look at ourselves to see if we have the mix 
right. That will take place over the next 6 months, and I'd be 
happy to keep you abreast of it as we go forward.
    Senator Reed. Thank you, General.
    I just want to recognize and commend you Mr. Secretary for 
your leadership. We were all very gratified when the President 
nominated you, and your performance since then, Mr. Secretary, 
has been very exceptional, and I thank you for that service.
    Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    Let me echo my appreciation to both witnesses for their 
service. To reiterate what I said when Congressman McHugh was 
nominated by the President, I think the President chose well, 
and we're proud of the Secretary.
    Just to follow up on Senator Reed's question, General. Have 
you had conversations with British or Canadian generals of like 
rank about the transition and their observation with regard to 
DADT?
    General Casey. I have not, Senator.
    Senator Wicker. Okay. But, don't you think that might be a 
good idea, something you might pursue?
    General Casey. We will do that as part of this process.
    Senator Wicker. Okay. Thank you.
    There's been a lot of discussion about MRAP vehicles today. 
In your prepared testimony, gentlemen, you say the Army is 
incorporating these vehicles throughout its unit formations. I 
understand that Secretary Gates mentioned sharing MRAP vehicles 
with our allies. To either one of you, are we going to do that, 
or is that just a notional concept? Would we be giving them to 
other countries? Would we be selling them under a foreign 
military sales-type program? Specifically, how many MRAP 
vehicles do we have in Iraq today? I have information that it's 
about 23,000. Would that be a fair number?
    General Casey. No, Senator. We have probably about 9,300 
MRAP vehicles or so in Iraq.
    Senator Wicker. Ninety-three hundred?
    General Casey. That's the total for the Army now.
    Senator Wicker. The Army.
    General Casey. We have almost 12,000 total deployed and 
about 600 of these MRAP all-terrain vehicles (MATVs) out there.
    Senator Wicker. Okay.
    General Casey. That number of 23,000 sounds high, but it 
may be all of the other Services thrown in there.
    Senator Wicker. Okay. Is this part of the equipment that 
Senator Chambliss was talking about? Will some of these be left 
in control of the Iraqis? Are we going to bring them all back?
    Secretary McHugh. We're not through that process, as yet, 
Senator. I will tell you that, with respect to discussions to 
provide MRAP vehicles or any other piece of hardware to our 
allies, obviously we want them to be equipped as they help us 
on this or any other battlefield, they have adequate 
protection. But, the last I knew, the Secretary of Defense's 
position was that we must meet U.S. solders' requirements first 
and foremost.
    As to the means of disposal of those, either through some 
sort of in-kind donation or should they pay up front, it will 
be on a case-by-case basis, should we get to that point.
    Senator Wicker. Okay, now this refurbishing that Senator 
Reed asked about is taking place in Kuwait. Is that to make 
them ready for the different terrain in Afghanistan?
    General Casey. It's to put a more agile suspension system 
on them, yes.
    Senator Wicker. Will all of them have to go through this 
refurbishing before they're sent to Afghanistan?
    General Casey. Senator, I don't believe so, but I don't 
know exactly. So, I will provide that to you for the record.
    [The information referred to follows:]

    Yes. All mine-resistant ambush-protected (MRAP) vehicles that are 
being redistributed from Iraq to Afghanistan are routed thru the Army's 
MRAP Sustainment Facility in Kuwait. This ensures all required 
maintenance actions are performed before these vehicles are shipped to 
our forces in Afghanistan.

    Senator Wicker. Okay.
    General Casey. It will apply to some models for sure. I 
don't know that it applies to all the models, but I'll get you 
that for the record.
    [The information referred to follows:]

    Based on past experience, virtually all vehicles require some level 
of maintenance work after being redeployed to Kuwait. Current 
priorities at the mine-resistant ambush-protected Sustainment Facility 
are the Maxx Pro (manufactured by International Military Group of 
NAVISTAR), CAIMAN (manufactured by BAE, Inc.) and Force Protection 
variants.
    In the case of the Cougar, the Joint Program Office (JPO) is 
planning to install an independent suspension system on 515 Cougar 
vehicles on loan to the U.S. Army from the U.S. Marine Corps and U.S. 
Navy. This system will better enable the Cougar to operate within the 
challenging terrain of Afghanistan. The JPO has modified approximately 
600 U.S. Marine Corp and U.S. Navy Cougars. These vehicles were 
modified in Kuwait and are now operating in Afghanistan.

    Senator Wicker. I understand we're transitioning from the 
MRAP vehicle to the MATV. Are we going to be building any more 
MRAP vehicles or are we going to start making MATVs 
exclusively, at this point?
    Secretary McHugh. My understanding is that the various 
platforms of MRAP vehicles will continue. The theater demand is 
for the MATV, but that doesn't suggest that some of the other 
variants don't have suitability and applicability in other 
uses, and that will be examined on a case-by-case basis. But, 
clearly, from the battlefield, the MATV, particularly in 
Afghanistan, is the high-demand platform.
    We're getting the impression you're interested in MRAP 
vehicles.
    Senator Wicker. Indeed, and other members of the panel have 
been interested in MRAP vehicles.
    One other line of questioning, and that's with regard to 
the Fire Scout vehicles. They've been made by Northrop Grumman, 
in my State of Mississippi. I was disappointed when Secretary 
Gates canceled the program.
    We have eight Fire Scout vehicles manufactured, sitting in 
storage in the manufacturing plant in Mississippi. The 
President's budget indicates that the Army is working to 
transfer existing assets to the Navy or Special Forces. But, my 
question is, it would seem to me that the Army would need a 
vertical takeoff-and-landing capability in Afghanistan, much as 
the Fire Scout can provide. So, can either one of you tell me 
why the Army decided to cancel the Fire Scout program? When 
will the Army present Congress with its plan on moving forward 
with existing assets that have been manufactured and are 
sitting unused? Is the Army currently conducting any studies to 
determine the need for a vertical takeoff-and-landing unmanned 
air system capability in its future force?
    General Casey. Senator, if I could, I'd answer those in 
reverse. Right now, we don't have any studies ongoing for a 
vertical takeoff and landing system. We will get you the plan 
for how we intend to deal with the existing systems here within 
the next 60 days.
    [The information referred to follows:]

    With the termination of the Class IV Unmanned Aerial System, the 
U.S. Army considered several options for disposition of the eight U.S. 
Army Fire Scouts that are currently at Moss Point, MS. While a final 
decision has not yet been made, the Army anticipates transferring the 
Fire Scouts to the U.S. Navy as soon as possible to facilitate their 
continued development of the Fire Scout Unmanned Aerial System.

    General Casey. Now to the question of why did we go down 
this road to begin with? The bottom line is, Senator, that we 
developed an unmanned aerial vehicle (UAV) strategy that gave 
us more capability at less cost. We studied this over the last 
year, and we looked at the payload, the cost, and the force 
structure that was attendant to operating the different 
systems. When we compared it to an improved Shadow, which is a 
system that's already in the force, the Shadow gave us more 
value for the money, and more capability for the money, as 
well. While a vertical takeoff-and-landing capability is 
convenient, it just didn't put it over the top, in terms of the 
capabilities that the improved Shadow gave us for the cost.
    Senator Wicker. The Shadow doesn't have that vertical 
capability. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Wicker.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to add my welcome to Secretary McHugh and General 
Casey, and I want to thank you for your distinguished service 
to our country.
    I also want to thank the men and women of our Army, both 
uniformed and civilian, who serve our country proudly. Also, I 
want to thank Army families, who make many sacrifices while 
their loved ones serve our country.
    Mr. Secretary, the number of servicemembers returning from 
deployment who have mental health issues is a great concern. 
Many servicemembers are reluctant to volunteer information that 
could reflect negatively on the state of their mental health. 
Secretary McHugh, considering servicemembers' reservations to 
volunteer such information, can you update us on the Army's 
efforts to proactively identify and assist soldiers in dealing 
with mental health issues? Also, for those transitioning from 
the Active component, how is the Army helping them to find 
mental healthcare, either from the VA or from the civilian 
sector?
    Secretary McHugh. You raise a very important point, 
Senator. There has long been the attitude, amongst men and 
women in uniform across the Services, that somehow mental 
health is a shortcoming, a handicap, a weakness. From the Army 
side--and, I think it's fair to say, from all of the Services--
we're working very hard to try do change the opinions of those 
who we hope will find themselves in a position to reach out for 
help. Earlier, the Chief mentioned Comprehensive Soldier 
Fitness, and this change of attitude has to begin at the very 
basic level, and that is to have Army doctrine treat physical 
fitness and mental fitness along the same par. That is the 
attempt of this initiative. I think it's fair to say that, 
combined with the online mental health assessments that are 
available through that program, and coupled with the resilience 
trainers that are increasingly going out into the units and 
helping soldiers become more resilient, that they're beginning 
to understand it's okay to seek out help.
    We have the same challenge, quite frankly, that we see in 
the civilian community, and that is a difficulty in bringing on 
necessary behavioral health specialists. In fact, we're at 
about 86 percent of our stated requirements for those 
behavioral health providers, and we're working, each and every 
day, to try build on that. But, we've had success, I would 
argue, particularly in moving our concern about behavioral 
health, and our focus on it, away from just the predeployment. 
We're reaching out into the battlefields. We have the mental 
health advisory teams that come back and provide advice to us 
as to what we can do to extend that service. Now in the 
battlefields, both Iraq and Afghanistan, we have mental health 
specialists dealing with the troops, dealing with them on 
patient-to-provider ratios that, frankly, are better than our 
stated requirement. We have a requirement in theater of about 1 
of these behavioral health providers for every 700 soldiers, in 
both Iraq and Afghanistan. We're just about or just above the 
1-to-600.
    So, the way you get people to understand it's okay is to 
act as if it's okay and by providing that kind of care and 
destigmatizing it. That's key to our success in the future, and 
it's certainly key to our activity, thus far.
    Senator Akaka. The other part of that question was on 
whether there are any efforts being made to help them plan for 
their healthcare from either the VA or the private sector.
    Secretary McHugh. We don't just turn people loose, Senator. 
When soldiers redeploy, thanks to the work of both Houses of 
Congress, and certainly this and the House Armed Services 
Committee, we're now providing not one but two post-deployment 
reassessments. We're trying to create a continuum where we can, 
more early on, identify folks who are either likely or who are 
encountering problems; and when those people are identified, we 
try to provide for them in house.
    Where distance becomes a challenge, as it often does with 
respect to the Reserve component, we're working through the 
Reserves, through the Yellow Ribbon Reintegration Program, and 
others to make sure that we can do everything we can to connect 
people who are in need, based on their service challenges, to 
those who can provide them help.
    I don't want to suggest that we have this perfect. We 
don't. But, it is, nevertheless, something we focus on every 
day, and we're improving every day. But, we still have a ways 
to go.
    Senator Akaka. I'm very interested, Secretary McHugh, in 
collaboration between the Services and the VA. Of note, the 
Army has worked with the VA on a Physical Disability Evaluation 
System pilot program, and a Virtual Lifetime Electronic Record 
systems. Mr. Secretary, can you give me an update on the pilot 
program and how you are addressing the challenges of creating a 
Virtual Lifetime Electronic Record system?
    Secretary McHugh. I can provide you an overview, and I 
think the Chief could give you more detail, because he's been 
focused on this. I spent a lot of time in Congress, on the 
House Armed Services Committee, frankly, frustrated at the 
disconnect between the various evaluation systems maintained in 
the military versus those in the VA, and we're working very 
hard, particularly post what we found out at the Walter Reed 
Army Medical Center. One of the great frustrators of soldiers, 
in our Warrior Transition Units who were doing the 
transitioning from the military to the VA disability system, 
was that disconnect and the frustration of repetitive dealings.
    The last report I got is that the model study is going 
fairly well and they hope to have it completed and results in 
the relatively near future. But, I'd defer to the Chief for any 
fill-in-the-blanks he might have.
    Senator Akaka. Thank you.
    Chief?
    General Casey. The pilot is currently working at 10 places, 
and we're going to increase it by another 5 in March. That, 
frankly, is not as fast as I'd like to see it go, because 
intuitively, we all believe it's the way that we should go.
    The general feedback we get from the soldiers is, they see 
the one physical given in the pilot is more fair, because it 
allows them to start getting their benefits sooner.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Thank you, both of you, for your service, and I look 
forward to continuing to work with you to support the finest 
Army this Nation, I think, has ever fielded. They've been under 
great stress, and have exceeded all our expectations. I'm so 
proud of the men and women that serve.
    Just a few issues that I'd like to raise. General Casey, we 
have a continual discussion about unmanned aerial systems, and 
there was some confusion, for a period of time, about who was 
going to be responsible for that. I think that matter has been 
settled with clarity.
    First, is that so? Second, we've seen how effective they 
can be, is there any need to expand the number of military 
units and reduce the size of the units that have access to this 
kind of capability?
    General Casey. To answer your first question, we have 
worked very closely with the Air Force over the last 18 months 
to resolve who's in charge, and at what level. I feel very 
comfortable that we have resolved those differences.
    Senator Sessions. Was that different from Secretary 
England's decision? Have you made any changes from what I 
understood his decision was?
    General Casey. What I was speaking of, Senator, was the 
employment aspect of it, not the procurement side of it.
    The other thing I would say is I think you know that, in 
this budget, we have been given some additional assets to 
procure some additional UAVs. In fact, several companies of our 
top-line UAV. I think we all feel that these systems give our 
soldiers, not only a great capability to operate in irregular 
warfare operations, but they are relevant across the spectrum 
of conflict.
    Senator Sessions. Well, like I said, we have MRAP vehicles 
and we spend a lot of money on those protective vehicles. But, 
there was an article in the paper, in the last few days, about 
a young officer using an unmanned aerial system to identify a 
group of people planting an IED in the road. So, it could save 
lives in a lot of different ways. I just hope that you will not 
hesitate to ask for what you need.
    Second, with regard to the Commanders' Emergency Response 
Program (CERP) funds and the funds, General Casey, that 
soldiers have to deal with local civilians. Let's say, in the 
Afghan theater, there's a village, remote from the central 
government, that has always sort of taken care of its own 
matters. What I think we learned in Iraq--and you were there 
when it really happened--was that if you work with some of the 
local leaders, and can help them have the resources to hire and 
train local people who are going to defend the local community, 
sometimes you get a lot better result than if you take those 
young people and send them off to some distant part of the 
country, where they have no family and not the same loyalty.
    As I understand it, the commanders have certain abilities 
to utilize funds through CERP to work with local leaders, but 
the substantial majority of the money may be going through the 
State Department, and often they're not in these more remote 
villages. My question is: are you satisfied that you have 
enough funds, based on the amount that's out there, to actually 
work with local leaders, shake hands with them, make some 
commitments, and be able to deliver on those commitments in a 
way that can transform a whole village, region, or valley in a 
more positive way?
    General Casey. Senator, there's $1.3 billion in the fiscal 
year 2011 budget for CERP funds. The bulk of that, $1.1 
billion, is going to Afghanistan. That seems to me to be an 
appropriate amount for what their needs are there, at the low 
level.
    Senator Sessions. Can that be used at the local level, 
let's say, to help a local leader hire a police force, and pay 
those people?
    General Casey. Yes. I'm a little rusty on the exact 
restrictions they have. Hiring people sometimes is outside of 
the realm of CERP.
    Senator Sessions. Well, there we go.
    General Casey. But, certainly it can be used----
    Senator Sessions. See that's the problem. It was in the 
Washington Post; they had an interesting article about it. 
Ambassador Eikenberry and Ambassador Holbrooke were quoted 
about it, and they have concerns. Kabul has concerns. They like 
everybody to answer only to them, of course. But, didn't we 
have success in Iraq, when you were there, in creating loyalty 
with the local leaders by the military people being able to 
deliver, and help them provide jobs and security forces for 
their people?
    General Casey. Yes, Senator. I was just there before 
Christmas and I'm not getting any feedback that that's not 
happening in Afghanistan.
    Senator Sessions. There's still some uncertainty about it. 
I just hope, Mr. Secretary, sometimes DOD has to defend its 
legitimate interest in the internal bureaucracies that are out 
there. I don't know precisely where the line ought to be drawn, 
but I know, in certain areas of Afghanistan, there really is no 
State Department presence. The only presence there is a 
trained, skilled military officer, who meets with a tribal 
leader, and he needs to be able to offer that leader something, 
and make decisions that could neutralize hostilities and save 
lives. Is that something you've thought about?
    Secretary McHugh. I have, and it's something that I agree 
with you about. The workings between State and DOD on this 
program took some time. My understanding is that now it's 
working relatively well, that commanders on the ground do have 
access to those funds that provide, as you correctly noted, 
Senator, a great opportunity and a great option to create local 
jobs through various construction projects, be it a repair of a 
road, or be it construction----
    Senator Sessions. What about security forces?
    Secretary McHugh. I have to demur, as I think I heard the 
Chief do.
    Senator Sessions. Well, it's a pretty big issue, would you 
agree that that's a big issue? Will you look at it? That's all 
I'm asking.
    Secretary McHugh. I'm not disagreeing. What I'm saying is, 
I'm not certain, under the current construct, if direct hiring 
is allowable under CERP. I just don't know of it is or it 
isn't. Generally, a CERP is a construction program that 
provides jobs and, obviously, economic security in that way. If 
there's an opportunity for hiring of direct forces, we're 
generally inclined to do that through other means. But we can 
certainly check and get back to you.
    [The information referred to follows:]

    Direct hiring of local security personnel is not allowed under the 
Commanders' Emergency Response Program (CERP). CERP may be used for 
short-term security contracts that hire security personnel on a 
temporary basis to guard critical infrastructure.

    Senator Sessions. General Casey, just briefly, you did that 
in Iraq. The forces were able to partner with local people, put 
their local young men on the payroll as security forces, and 
they ran al Qaeda out of their villages, time and time again, 
didn't they?
    General Casey. I think that happened afterwards. I don't 
recall hiring security forces with CERP.
    Senator Sessions. I don't know where they got their money 
but I'm just telling you, that's a big deal. They don't have 
time to send them off a year to Kabul to be trained and get 
sent some other place in Afghanistan. I mean, the reality is 
now; you've cleared a village or whatever, and you have some 
support and I just think we need to cut through this and be 
able to recognize, in some areas of the country, that the 
military are the only real people there that make a good 
decision, and they should have access to some of those funds, 
if need be, to do that.
    General Casey. I'll check on that and get back with you.
    Secretary McHugh. I'll double check on that.
    [The information referred to follows:]

    Military commanders in Afghanistan do have access to the 
Commanders' Emergency Response Program funds and may use those funds to 
contract for temporary security guards to protect critical 
infrastructure, including neighborhoods and other public areas in a 
village. The contracts must be short-term, usually for the life of the 
project involved, but not to exceed 365 days.

    Senator Sessions. I have some other questions I'll submit 
to you in writing.
    I, again, thank you for your service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    I do believe that Senator Sessions is correct. I think the 
CERP funding has been authorized at least for the reintegration 
piece; it's not just for construction. I think it's been 
specifically authorized for reintegration, which would include 
payroll.
    Secretary McHugh. We will certainly check and see how 
that's being applied.
    Chairman Levin. I think it is not only authorized, I think 
it's been used for that purpose, at least to reintegrate some 
of the lower-level Taliban with some pay for them.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your service.
    I thank the members of the Army for your service, as well 
as the families who support our men and women in uniform.
    I'd like to turn to military construction (MILCON), just 
for a moment, Secretary McHugh and General Casey. General 
Casey, you and I have talked about reset and recapitalization, 
so what I'm really addressing is, the budget request includes 
significant funding increases to replace aging facilities for 
the National Guard and the Reserves. Obviously, the investment 
is critical, considering the Guard and Reserve personnel 
comprise some 51 percent of your end strength. But, your 
request for Guard and Reserve MILCON, while $1.2 billion, is 
less than 1 percent of your total base budget, and only a fifth 
of your total MILCON request. Some of Nebraska's Guard units, 
for example, are lacking, currently, adequate space to store 
and reset new equipment. For example, Nebraska units lack 33 
acres for improved and unimproved parking to store new trucks, 
tractors, and trailers, as well as 8,000 square feet of heated 
storage and 3,500 square feet of security vault storage.
    We'll take this for the record, but what is the current 
state of our Guard and Reserve infrastructure at the present 
time? Perhaps you could make some general comments. We'd like 
to have something more for the record.
    [The information referred to follows:]

    The current state of Army Reserve infrastructure is adequate to 
support its current missions but inadequate to support all its 
missions. Competing requirements from mission areas such as Grow the 
Army, Army Modular Force, Army Force Generation, provide facility lease 
options to address Army requirements to support unit stationing plans 
and others will always be a constraint to a modernized infrastructure. 
The average age of Army Reserve facilities is over 42 years old, the 
majority of facilities are under-sized for today's mission 
requirements, encroached upon by local community activities and are 
Anti-Terrorism/Force Protection non compliant. Base Realignment and 
Closure Act of 2005 (BRAC 2005) funding helped tremendously in 
providing over 120 new Air Force Reserve Commands that meet today's 
operational and training needs; however, BRAC 2005 funding modernized 
only 11 percent of the Army Reserve Center facility inventory. The Army 
National Guard has stated that they could use $1.5 billion per year for 
20 years to address revitalizing their facilities.

    Senator Ben Nelson. Secretary McHugh?
    Secretary McHugh. Senator, as we have begun to 
operationalize the Guard and Reserve, there have been 
significant challenges. The first wave of those challenges were 
based largely on the equipment side. If you look at the state 
of both the personnel, as well as the equipment readiness for 
Guard and Reserve, although still a work in progress, we've 
made some successful steps. The personnel readiness ratings 
have improved about 4 percent this year over last. The 
equipment, right now, is at about 79 percent readiness. If you 
count substitute equipment, that raises to about 89 percent. 
But what that tells us is, we have a long way to go.
    As to the distribution of MILCON, certainly, if I were in a 
Guard or Reserve unit, I'd feel as though I wasn't getting what 
I needed, and we have to admit that.
    Senator Ben Nelson. Well, that's why, in taking them to an 
operational Reserve, it has to be thorough with respect to not 
only equipment, but to their facilities, so that the facilities 
management is capable of taking care of the equipment and 
keeping them an Operational Ready Reserve. So, that's my 
concern, and obviously it's your concern, as well. But, I hope 
that you can address that in more detail for us and for the 
record.
    Secretary McHugh. We will do that, Senator.
    [The information referred to follows:]

    The Army fully supports the fiscal year 2011 President's budget 
request. The fiscal year 2011 request completes the U.S. Army Reserve's 
Grow the Army effort to provide new facilities for those additional 
soldiers. However, funding is currently not sufficient to address all 
of the Army Reserve's requirements to include modernizing our legacy 
facilities, provide new/upgraded maintenance facilities, provide 
leasing funded options to address Army requirements to field units 
faster and upgrade our facilities to meet current mission standards and 
anti-terrorism/force protection set back requirements. Long-term 
solutions for all of the remaining requirements (such as recapitalizing 
existing facilities for existing missions) necessitates a long-term 
funding strategy beyond the Future Years Defense Program. Obsolete 
legacy facilities adversely affect readiness, organizations, missions 
and installations across the Army. This issue affects all Army commands 
and components and adversely impacts the mission and organizations.

    Secretary McHugh. As I said, we're making progress, but 
it's incremental, at best, I would agree with you.
    Senator Ben Nelson. Well, if we don't continue to make 
progress, what we'll see happen is what would be fairly 
obvious, that would be a sliding back of the capabilities of 
the Guard and Reserve to be that Operational Reserve, and 
readiness will suffer, I think, as we all understand.
    On human capital, one of the biggest challenges will be 
managing and expanding the new missions while maintaining the 
fixed end strength. A significant number of questions have been 
asked about that. What I'd like to do is focus on the 
intelligence, surveillance, and reconnaissance mission seeing a 
great deal of growth all across the services, due in part 
because of this expansion of the UAVs. How will the Army be 
able to staff the growing needs of these missions, both as to 
the increased number of units and increased number of these 
UAVs? What are we doing to be able to keep pace with the 
growing nature of the use of such?
    General?
    General Casey. That's a great question, Senator, we have 
learned a lot over the course of the last 8\1/2\ years about 
intelligence, particularly in how to apply intelligence in this 
environment. We are in the process of going through another 
significant reevaluation of our whole intelligence structure. 
As we look at this, we do very good analysis of where our gaps 
and shortfalls are. But, what we don't do well, and what we are 
working on, is redundancies, and how to get at redundancies. To 
get at high-payoff forces, like the intelligence forces, we 
have to continue to be able to free up redundant forces from 
other areas, to put them in these high-payoff areas. That 
process is hard, but it's ongoing right now.
    Senator Ben Nelson. Do you think that we're maintaining an 
adequate pace? Is it something we need to step up in order to 
have our readiness there be as sufficient as we would like it?
    General Casey. I think you always like to go faster. We are 
keenly aware of the fact that we're at war and we have soldiers 
deployed, and I think we're moving on this about as fast as is 
reasonably possible, Senator.
    Senator Ben Nelson. I've also noticed that the fiscal year 
2011 request includes $507 million to buy 29 MQ-1 drones, and a 
plan to spend $2.9 billion on 158 of these aircraft by 2015. 
The Air Force's request, $1.1 billion in fiscal year 2011, to 
purchase 48 MQ-9 drones, and they'll spend $7.3 billion on 341 
MQ-9s over the same period.
    Is there intercooperation between the Air Force and the 
Army sufficiently on this so that there's no overlap or 
underlap, in that we don't have a stovepipe situation 
developing where we have ours, they have theirs? Obviously, 
coordination of these efforts would strengthen our overall 
military.
    General Casey. You're exactly right. I've been working 
directly with the Air Force Chief for almost 2 years on UAV 
issues. I can't look you in the eye and tell you we've 
eliminated all the redundancies, Senator, but we will continue 
to work closely with the Air Force to avoid that.
    Senator Ben Nelson. These are not only essential military 
requirements we need to meet to have the sufficient number of 
UAVs for certain, but we don't want to underlap the situation 
in any significant way, because, obviously, the information can 
be exchanged readily if there's a willingness to do it. I 
appreciate the fact that you're suggesting to us that you're 
working with your counterpart in the Air Force. I hope that 
will continue. Obviously, I'm going to ask the Air Force the 
same question. So, if I can smooth the process for you, I'll be 
happy to.
    General Casey. Use my name, yes.
    Senator Ben Nelson. I'll use your name. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General Casey, 6 years ago this week, at a hearing before 
the Personnel Subcommittee, you and I had a discussion about 
the problem of sexual assaults in the military. At that time, 
you stated that the Army had a zero-tolerance policy, and you 
pledged your commitment to trying to deal with this growing 
problem.
    Last fiscal year, however, there were 2900 reports of 
sexual assaults among servicemembers; and obviously, since the 
Army's the biggest, on a percentage basis, the majority of 
those assaults occurred among our soldiers. This reflected an 
increase of 8 percent over the previous fiscal year.
    Now, I understand that the Army is contending that this is 
a result of better reporting and that our female soldiers, in 
particular, feel more comfortable now coming forward to report 
assaults, but it is still extremely troubling that we're seeing 
those kinds of numbers. Why haven't we made more progress in 
the past 6 years in this troubling area?
    General Casey. Senator, that's a fair question, and I can 
tell you, I still remember that hearing. As the Vice Chief, I 
went back and we worked very hard to put together a prevention 
and response program because we, frankly, didn't have one that 
was effective. We worked very hard on it.
    When I came back to this job--it was probably about 18 
months ago, now--I was sitting down and getting a report on 
where we'd come, and I was shown the data for the last year, I 
think it was the year before, and we were clearly the highest 
of the Services. I was told the same thing that you were, 
``Well, we just report better.'' I said, ``Baloney.'' As I 
bored into it, it was clear to me that we had a program that 
was almost entirely focused on response, on helping the victim 
after it happened, and not on the prevention. Secretary Geren 
and I sat down and used Secretary Geren's experience when he 
was working with the Air Force on this, to put together a 
program to change our culture so that we could prevent the 
assaults before they happened. We kicked that off in the end of 
2008, and we put $28 million in his budget to bring that 
program to fruition. We recognized--and we started it in 2008--
that it was a culture change and that it was going to take some 
time. But, we're absolutely committed to staying on this until 
we fix it. I still feel that we're zero-tolerance, and we have 
to be.
    Senator Collins. Secretary McHugh, would you like to add 
anything?
    Secretary McHugh. I would, Senator. As you and I have 
talked before, there's very few, if any, other single issues 
that are more contrary to the Army values than sexually 
assaulting or harassing another member in uniform, or anyone, 
for that matter. I made the pledge to you and to others in the 
House--Congresswoman Harman, for example--and any number of 
others who have, thankfully, focused on this issue so 
carefully.
    The Chief, I think, has highlighted what the Army needs to 
do, and that is to change the culture. I can't tell you how it 
came to the level it did. I don't want to say it was ever 
acceptable, because it wasn't, but clearly, there was some kind 
of disconnect amongst our young soldiers that didn't help them 
understand more clearly, this is not just wrong, it's 
unacceptable. The I. A.M. Strong program, under the SHARP 
program, as you're aware, is the major means by which we convey 
that new attitude of values. It's something we're working very 
hard. The Chief correctly mentioned the $28-million 
appropriation in the President's proposed budget for this.
    But I think we need to, as well, while changing the 
culture, help those victims understand that, if they do come 
forward, they're going to be helped. That critically means that 
we're going to pursue, legally, those that have committed these 
acts. I think there was an attitude amongst many, largely 
female, victims that if they reported, they'd become a victim 
again by a system that just didn't follow through and somehow 
didn't care.
    We have worked hard to start, in our Judge Advocate General 
schools, to put courses in for prosecutors to pursue these. 
We've hired highly qualified experts and forensic scientists 
who are skilled in pursuing crime scenes, and brought in new 
prosecutors, as well, so that those soldiers who are the victim 
of this horrendous, unacceptable crime, when they are brave 
enough to come forward, see that it means something and we 
follow through.
    So, the Chief correctly said, it's frustrating, in that it 
doesn't happen overnight, but we are fully committed to that.
    Senator Collins. Thank you.
    I know, from our discussions, that you also share my 
concern about the enormous increase in suicides in the Army. 
You've had a previous discussion with members of this panel 
about the need for more mental health services. Secretary 
McHugh, I just want to commend you for your emphasis in talking 
about not just physical fitness, but mental and emotional 
fitness. I think that's absolutely critical.
    It's troubling that the Army had its worst year on record 
last year, as far as the number of suicides. But, it's even 
more troubling that we don't know why, that there doesn't seem 
to be a correlation--at least that's what I'm told--between the 
number of deployments or whether the person is in the Reserve 
or on Active Duty. Are we any closer to understanding why there 
is this troubling spike in suicides?
    Secretary McHugh. Sadly, the answer is not much closer. We 
have instituted--and I appreciate your kind comments--the 
Comprehensive Social Fitness program, that I think is so 
critical, and we're transitioning that now to families, as 
well, to help people become more mentally resilient. That was a 
lot of great work by the Chief and by my predecessor. Those 
kinds of things need to continue to help people better cope.
    But, as to why people take this step, particularly as to 
why men and women in uniform do, we're still, in many ways, 
befuddled. The best hope I see, in terms of understanding it 
truly, is the 5-year longitudinal study that the Vice Chief of 
Staff of the Army has headed up for us, with the Institute of 
Mental Health, that will take a cold, hard look, over a 
necessary period of time, to try to better understand that. 
Frankly, we don't have much better answers in the civilian 
community either.
    But, as you noted, 160 suicides last year in the Army, the 
highest number ever, tells us that we have to focus in on this 
even more strongly, and we're doing that.
    The one thing I would say about this 5-year study--it seems 
like a long time, and it is--is that there is a process for 
quarterly reports, so that, as things hopefully come to light 
as we begin to understand things we might do in the interim, 
the data will be provided, and the guidance provided, for us to 
step forward and to try to put into place some measures that 
will hopefully provide some solutions.
    Senator Collins. Thank you.
    Chairman Levin. Thank you, Senator Collins.
    Senator Hagan.
    Senator Hagan. Thank you.
    Secretary McHugh and General Casey, thank you very much for 
being here today, for your service and your testimony.
    General Casey, thank you for bringing the individuals you 
introduced.
    I want to thank each and every one of you for your service 
to our military.
    I do want to say that we all know that we have the best 
army in the world and that Fort Bragg's 82nd Airborne Division 
is leading the effort in the Regional Command East in 
Afghanistan, and there are also elements of the 82nd throughout 
Afghanistan and Iraq, advising, assisting, and partnering with 
the Afghan National Security Forces, as well as the Iraqi 
Security Forces.
    I also want to point out the exceptional contributions to 
the Army Special Forces in theater, as well as the 30th BCT 
from the North Carolina National Guard. I can't tell you how 
proud we are of the incredibly important job that they are 
doing.
    Secretary McHugh and General Casey, in your opening 
statements, both of you talked about the commitment that you 
have for the families. Secretary McHugh, you said that the 
number one concern to you is the care for families and the 
programs for them. General Casey, when you were talking about 
getting the Army back in balance, you stated that dwell time 
was the most important issue in order to get back in balance. 
Then you gave details about that.
    Obviously, ensuring family readiness plays a big role in 
Army retention. Improving the quality of life of our Army 
families allows our soldiers to operate in theater more 
effectively. I'd like to have you comment on some of the 
enhanced family programs that you have mentioned and which are 
included in this budget.
    Secretary McHugh. I appreciate, first of all, the great 
service of all those great North Carolinians you mentioned, not 
just in Fort Bragg, but your Reserve component soldiers. I was 
over there; I had a chance to visit with some of them, and they 
should make you proud. They make all of us proud.
    If you can't tell, I will state it for the record, I'm a 
big admirer of Secretary Pete Geren, my predecessor, and one of 
many great things he did is work with the Chief of Staff and 
really make a commitment to our Army families that we're going 
to do everything we can to return the sacrifice that, as you so 
correctly noted, Senator, they make, each and every day on our 
behalf. The main conveyance of that was the Army Family 
Covenant. It was one of the first acts I did when I came to the 
Pentagon was to resign that in a ceremony that reaffirmed our 
commitment to those families and the various programs that 
we've instituted to try to attend to their needs.
    We have done a good job on funding. In fact, over the last 
several years, the appropriations for Army family programs has 
doubled. It was about $750,000 when we started, now just 2 
short years later, it's up to $1.5 billion. The President's 
budget would increase it to $1.7 billion, and by the end of 
2015 it would be up to $1.9 billion according to the planned 
way forward.
    It does a whole host of things. It provides respite care 
for the caregivers and families whose soldier is deployed; it 
provides respite care to those soldiers and their families who 
have children with special needs; there's the Spousal 
Employment that works with Fortune 100 and 500 companies to 
provide employment opportunities for spouses. In fact, we've 
had the great success through those terrific companies of 
filling jobs for more than 35,000 Army spouses, and just on and 
on and on.
    It's just something we have to do. You noted, we sign up 
the soldier, we re-sign the family. It's something that we 
believe in very, very devoutly. We have a plan for creation of 
50-some new child development centers, 7 new youth centers, 
just trying to take the whole range of family needs and show 
them that the family cares.
    General Casey. The only thing I really can add is, as you 
point out, keeping the families understanding that we really 
are committed to them over the long haul is an essential part 
of holding this force together over the next couple of years.
    Senator Hagan. Well, I appreciate your signing of the Army 
Family Covenant. I do think that's extremely important. I think 
these programs, and the enhancement of the programs, are 
certainly playing a big role in the families and the retention. 
So, I thank you for that.
    I know we've had a lot of discussion today about the MRAP 
vehicles. I wanted to say that I'm supportive of the Joint 
Light Tactical Vehicle (JLTV) program; however, I want to learn 
more about how that program fits within the Army's long-term 
ground vehicle strategy. When the JLTV program first began in 
2006, the MRAP vehicle requirement did not exist, and the 
unforecasted procurement of significant numbers of the MRAP 
vehicles has impacted the overall JLTV program. The Army has 
stated that the MRAP vehicles fill a short-term urgent joint 
service requirement in order, obviously, to protect our 
soldiers, while the JLTVs are the long-term solution.
    Can you describe how it is in the best interests of the 
Army to maintain the JLTV and the MRAP vehicle, given their 
overlapping missions and requirements, and how does the JLTV 
service the long-term solution in order to better protect our 
soldiers?
    Secretary McHugh. Let me take the first swat at that, 
Senator. It really all starts with Humvees. The Army did an 
assessment this year as to the requirements for the current 
light tactical vehicle in the Army fleet, the Humvee. What we 
discovered is, we had totally met our stated requirements for 
that platform. As such, there are no funds included in this 
budget for any more procurement, beyond the stated contract, 
for Humvees.
    The question we have to ask ourselves is: how do we provide 
for a light tactical vehicle until the JLTV, the joint program 
with the Marine Corps, is up and running? The answer to that is 
really two-fold. One, we've experienced far fewer battle 
losses, and far fewer breakdowns on the Humvee platforms than 
originally expected. So we feel that we can meet a large part 
of that through recapitalization and reset of the platforms we 
have available. As you said, about 3,000 or so of the Humvee 
requirements can be met by our MRAP vehicle stocks. So until 
the JLTV comes onto line, we feel very comfortable that we have 
a light tactical vehicle that will serve and keep safe our men 
and women in uniform.
    One of the concerns of the Humvee, of course, is that 
commanders are telling us that it does not provide, in its 
manufactured state, the level of protection that is necessary. 
We hope the JLTV will meet that need.
    General Casey. The other thing I'd add to that is in 
response to another question over here about; what's our 
wheeled vehicle strategy?
    Senator Hagan. Right.
    General Casey. We are in the throes of completing that. 
But, DOD has had a significant investment in the MRAP vehicle, 
and we have to figure out how to incorporate that into our 
force, and into our overall wheeled vehicle strategy.
    Senator Hagan. I have another host of questions concerning 
this, but I believe my time has run out, so I'd put those on 
the record.
    Chairman Levin. Thank you very much, Senator Hagan.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Thank you both for your service.
    When it comes to mental health professionals, I know 
they're in short supply nationwide, but approximately many more 
mental health professionals do we need to address some of the 
problems related to suicide and just general mental health 
problems? What's the strategy to find these people?
    Secretary McHugh. The requirement of behavioral health 
providers in the Army is 4,304 as I mentioned earlier, we are 
at 86 percent of that, which, if my math is correct, is 3,714.
    So, we are roughly about 600 short. The strategy is to try 
to use the flexibilities that this Congress has provided us in 
creating incentive programs and outreach programs to try to 
convince those folks, who obviously are in great demand in the 
private sector, to come and to serve their Nation in the Army.
    Senator Graham. Do you have the tools you need to be 
competitive with the private sector?
    Secretary McHugh. We're making progress. I guess that would 
suggest that we have sufficient tools. Certainly, as we go 
forward, if more flexibility and more initiatives are needed, 
we won't hesitate to ask.
    Senator Graham. That's my invitation. Let us know. Is it 
harder to recruit a mental health professional than it is just 
a traditional doctor?
    Secretary McHugh. Generally, recruiting of specialties and 
subspecialties is more challenging, simply because you don't 
have the density of personnel available.
    Senator Graham. Is there a cross-training effort within the 
military to get people who enjoy the military and are willing 
to go into a new career?
    Secretary McHugh. Well, we do have education opportunities, 
through the university hospital system and scholarships and 
such, that can be provided to candidates who meet the 
qualifications.
    Senator Graham. Okay, great.
    When it comes to the Guard and Reserve, I think TRICARE has 
been very helpful, making that available to Guard and Reserve 
families, because a lot of them didn't have healthcare, it just 
gave them an opportunity to purchase TRICARE for their Guard 
and Reserve time, which I think is a pretty good deal for the 
force.
    The other issue I hear from the Guard and Reserve 
everywhere I go is about lowering the retirement age. I know 
there's several ideas floating around about how you can earn an 
early retirement by doing more Active Duty tours and getting 
credit for that. I do understand the need for the military to 
sort of self-select, but I'm looking from the 20- to the 30-
year point. It used to be that most Guard and Reserve members 
stayed in 30 years. A lot of them are getting out, now, at 20, 
for a variety of reasons; multiple deployments being one 
reason. Is there a strategy to deal with allowing people to 
retire early, but incentivizing them to stay from 20 to 30, 
based on the needs of the military?
    Secretary McHugh. That's part of the process that we have 
to do in deciding what kind of structure has to be put into 
place to operationalize the Guard and Reserve.
    Senator Graham. Right.
    Secretary McHugh. The challenge I think we ultimately have 
to face is: how do we sufficiently incentivize those good folks 
to come from our communities, to periodically leave their jobs 
and their families, to act as an operationalized Guard and 
Reserve, but, at the same time, recognizing we have to keep 
certain distance, in benefits and such, with the Active.
    Senator Graham. You don't want to cross-purpose here.
    Secretary McHugh. True.
    Senator Graham. You don't want to get people out of the 
Active Duty.
    Secretary McHugh. Exactly.
    Senator Graham. But, I don't really think it's that much of 
a problem right now, with the benefit packages, from the 20- to 
30-year period, a lot of people are leaving earlier, some of 
our best and brightest, if they could earn their way to early 
retirement, they might stay past 20.
    Secretary McHugh. I think it's correct to say we're willing 
to consider any kind of initiative.
    Senator Graham. Yes.
    Secretary McHugh. I know that there are many champions in 
Congress of a variety of approaches.
    Senator Graham. Yes.
    Secretary McHugh. My good friend, who is now retired, Jim 
Saxton on the House side, was very active in this regard.
    Any ideas would be happily accepted.
    Senator Graham. I'll give you some input, and I appreciate 
your willingness to receive it.
    General, moving on to Guantanamo Bay. General Petraeus said 
Sunday that he believed it was in our national security 
interest to try to close Guantanamo Bay. Do you share that 
view?
    General Casey. Senator, that's a policy issue that is 
outside the purview of my job here, as the Chief of Staff of 
the Army.
    Senator Graham. Fair enough. Just from your travels, do you 
think Guantanamo Bay is used by our enemies, still, against us, 
the images of the past?
    General Casey. I have read intelligence where I have seen 
how the enemy has used that against us.
    Senator Graham. That's fair enough.
    We're looking at the DADT policy. I think you all have 
given good answers about how we'll study it. Any movement to 
change the role of women in combat? Has that time come?
    Secretary McHugh. From the Army perspective, Senator, we 
conduct, periodically, an assessment of all the MOSs and who is 
eligible to serve in them. That's ongoing right now. It is not 
directed specifically at women in combat, but, obviously, the 
billets that are either open or closed to women would be part 
of that review.
    Senator Graham. So, General, what's your view about 
expanding the ability of women to serve in combat roles?
    General Casey. Senator, I believe that it's time that we 
take a look at what women are actually doing in Iraq and 
Afghanistan, and look at our policy. We've discussed this, 
between ourselves here. We don't have an active effort going 
on, but I think it's time.
    Senator Graham. I agree with you, because, as I understand 
it, women, on the aviation side, fly combat missions. Probably 
the time has come to look at that, and if you could give us 
some input, we'd appreciate it.
    Thank you both for your service. I know these have been 
stressful times for our men and women in uniform, and they've 
delivered. I just want to make sure that we're here to deliver 
for them, and that's why your testimony is so helpful.
    Thank you.
    Chairman Levin. Thank you, Senator Graham.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, Secretary McHugh, great to see you here. 
Thank you for taking the time to come out to Colorado and visit 
Fort Carson. I know you could spend every day of the rest of 
your tenure visiting the facilities around the country, but 
when you come back out, maybe we can join together and be 
inspired by the men and women there at Fort Carson.
    General Casey, thank you for your service. You and I have 
had some conversations about the transition opportunity for 
soldiers with Outward Bound. It's an organization I worked with 
for 20 years, and it's a wonderful way to provide those 
soldiers with the opportunity to get in touch with that 
excitement, the adrenaline, the meaning that comes when you 
serve in combat, but also how you make that transition with 
those needs back to civilian life.
    A couple of shout-outs. I wanted to acknowledge Master 
Sergeant Rubio, who's here. She served as a fellow in my office 
for a year. It's a wonderful program. General, you need to know 
that, whether she's in uniform or in civvies, she brings a 
complete game. I miss her. I know she's back with her first 
love, but I wanted to acknowledge the great work she did for 
me.
    Then, Sergeant First Class Larson, thank you for what 
you're doing as a master resilience trainer. I liked what 
General Casey said about mental fitness. This thing up here is 
the biggest, baddest piece of equipment we have but it needs to 
be maintained and upgraded, it needs a little tender love and 
care, sometimes the sights have to be recalibrated. But, thank 
you for what you're doing in that regard. You're a brain 
mechanic, it sounds like, and we have a lot more to learn. So, 
thank you for pushing the envelope there.
    I'd like to turn to two areas. One, I want to talk about 
Combat Aviation Brigades, and then conclude with a couple of 
comments on DADT.
    We've seen, in these last few decades, just how important 
aviation is. It's a combat multiplier. Everything from airborne 
attacks to aeromedical evacuations. It appears in the fiscal 
year 2011 budget that we're going to increase aviation assets, 
it supports the development of a twelfth combat aviation 
brigade, and then begins to acquire, it looks like, equipment 
for a planned thirteenth aviation brigade.
    When will you make stationing decisions for those brigades, 
General and Mr. Secretary? Can you share some criteria that the 
Army would use to make those decisions?
    Secretary McHugh. Those are ongoing right now. Obviously, 
there have been no final determinations made. As I think both 
you and your colleague on your right from Alaska are aware, the 
Army is looking very carefully at all the permutations of that 
stationing, from environmental to training capacity, et cetera, 
et cetera. So, I would expect, in the very reasonably near 
future, those decisions will be finalized.
    Senator Udall. I look forward to working with you in that 
way. We have, certainly, mountainous terrain that rivals and 
matches that in some of the theaters in which we're undertaking 
operations today. We have, in Colorado, of course, a history of 
training combat aviators up in the Eagle County region, at the 
High-Altitude Army Aviation Training facility that the National 
Guard runs so effectively. So, thank you for that outline.
    Let me turn to DADT. What I heard both of you say is, when 
the repeal occurs, you'll follow the leadership and the 
dictates of the Commander in Chief and the Joint Chiefs 
themselves. I appreciate that clarity.
    If I might, I'd like to make a couple of comments on how I 
see this. We did talk about the moratorium and how that might 
work or be implemented. It was mentioned that a moratorium 
would introduce legal complications; for example, in the case 
of Lieutenant Dan Choi. It seems to me that that complication 
would simply be that the Army would not, for the duration of 
the moratorium, discharge an Arabic-speaking combat veteran 
who's now participating in drills with his Guard unit, at the 
request of his superior officers.
    My belief is, the moratorium could be put in place as we 
put this implementation plan together. I say that because the 
testimony of Admiral Mullen and Secretary Gates was that the 
review is not about whether, but it's about how we'll implement 
the repeal. So, it seems that the eventuality of the repeal 
isn't in question.
    In that spirit, this Senator thinks that we ought to put a 
moratorium in place during this implementation period. In other 
words, the moratorium would be in effect until we begin to 
implement this plan to repeal the DADT measure.
    The Army and the military does human resources as well as 
any corporation, as well as any organization I've ever seen. I 
know that this is one of the challenges, and one of the reasons 
we, maybe, need some time to study how you implement. How do 
you deal with those servicemembers who are in the pipeline 
right now, if you will, because of DADT, because they've been 
identified as being gay servicemembers? I just think that we 
should do everything possible, given that we're going to, based 
on what the President, Secretary Gates, and Admiral Mullen have 
said, implement a repeal, that we should do everything possible 
to ensure that as few servicemembers are discharged between now 
and then.
    Who's going to be the last gay servicemember to be 
discharged under DADT? That would be a tragedy, in my mind, 
because they're clearly patriots, they clearly want to serve 
their country. Admiral Mullen made it very clear that they 
shouldn't have to lead a lie to serve their country and defend 
their country.
    I'll end on this note, I mentioned Senator Goldwater in the 
previous hearing. He was an Arizonan. I had the great privilege 
to know him as a boy. He and my father, who served in 
Congress--one a Democrat, one a Republican--loved Arizona, they 
loved the libertarian spirit of the west, where it's live and 
let live. Senator Goldwater famously said, ``You don't have to 
be straight to shoot straight.'' I think that's what we've come 
to be aware of, and that's why I so strongly support repealing 
this policy, so that every single American can serve who would 
like to.
    You don't need to respond. I just wanted to, for my own 
heartfelt reasons, make that statement to the committee.
    Thank you again for your leadership. I'm just so proud to 
know both of you and to be able to serve with you in my 
capacity as you defend our Nation.
    Thank you.
    Chairman Levin. Thank you, Senator Udall.
    I'm going to have a question on that issue, the DADT answer 
of yours, on a second round, which will be brief, I think. But, 
I will have another question or two on that same subject.
    Senator Begich.
    Senator Begich. Mr. Chairman, thank you very much.
    Thank you both for being here. I know you've been here for 
several hours, so I'll try to give you a random selection, 
because you've come through the snowstorm to my office, and I 
appreciate that. We had a good time there, having a good 
discussion about many issues. I have a couple of broad 
questions, then I'm going to kind of bring it down a little 
parochial.
    First, if I can follow up on the dwell-time issue. Based on 
the rebalancing that's occurring, for soldiers that are 
listening, and for families that are listening, give me a sense 
of the difference that it will be for a family, today or next 
year versus 2, 3 years ago, in the amount of dwell time or time 
home they might have. Can you put that in kind of a term that 
people can see it and hear it?
    General Casey. I can try, Senator, but for the last 5 
years, a good portion of the force was deploying on 1 year out, 
1 year back. We were, frankly, meeting ourselves coming and 
going.
    Senator Begich. Right.
    General Casey. They'd come home, take their leave, come 
back, and immediately start training to go back. So, the time 
they were home, they weren't home.
    Senator Begich. Right.
    General Casey. I went down and visited a unit that was home 
for 18 months. The difference in pace between 18 months at home 
and 12 months at home was striking. The difference in pace 
between 24 months at home and 12 months at home is going to be 
even more striking. As I mentioned earlier, we expect to get 70 
percent of the Active Force to 2 years at home by 2011, and 80 
percent of the Guard and Reserve at 4 years at home by 2011.
    Senator Begich. When you say 2011, do you mean calendar 
year or fiscal year?
    General Casey. By the end of the calendar year.
    Senator Begich. End of calendar year 2011.
    Very good. Thank you. I know you had mentioned it earlier, 
and I just wanted to kind of reemphasize, because I agree with 
you, and we've talked a little bit about this, in regards to 
the amount of dwell time is critical for the long-term health 
of the military. It doesn't matter if it's the Army or the Air 
Force, but Army, specifically, because the amount of time that 
you're out is going to be critical for the long-term health. 
So, I want to say thank you for moving down that path.
    Mr. Secretary, did you have something that you wanted to 
add to that?
    Secretary McHugh. I was just going to say there's another 
component to it, as well, that, if families are listening, the 
Chief and I certainly fully endorse the commitment that we're 
not going to revert to 15-month deployments, and we'll be 
sending folks out without the threat of stop loss.
    Senator Begich. Excellent.
    Secretary McHugh. That doesn't directly play into the dwell 
time, although, in a very real way, it does, because it 
requires more troops. But, families care very much about that, 
and I think they would want to be assured of that, as well.
    Senator Begich. That's great. That's a good point. It's a 
combo package.
    Let me ask a couple more general questions and then I'm 
going to be on a couple of quick Alaska issues.
    I want to follow up with Senator Graham on mental health 
services and making sure you hire the right professionals. I 
heard the pay differential between the private-sector mental 
health providers and what we're able to pay, there's a gap 
there. Is that one of the challenges you have? Because if 
that's the case, I think this committee, or members, would be 
very interested in trying to help solve that to make sure we're 
competitive in the marketplace, especially as this economy is 
now turning around. Healthcare providers in the private sector 
will be one of the biggest fast-growth areas in the new 
economy, and we're going to be competing with that. When I say 
we, the military. I want to make sure we are not at an economic 
disadvantage.
    Is that something you could get to me and indicate, at some 
point, if there is a gap? If so, what strategies do you have? 
Because as this economy picks up, the fastest-growing industry 
will be healthcare, and we will have a problem competing 
against that. Is that a fair request?
    General Casey. Yes, sir.
    Senator Begich. Excellent.
    When people do retire, do you do exit interviews with those 
folks that are retiring, to determine why they're leaving 
early? Is there an actual datapoint study that you guys 
utilize?
    General Casey. I don't know that we do retirees so much as 
we do soldiers or officers who leave before retirement.
    Senator Begich. Before retirement.
    General Casey. I know we do very good sitdowns just to find 
out what's on their mind and what's motivating them to leave. I 
don't know that we do that with retirees.
    Senator Begich. Actually, I misstated. The way you stated 
it was correct.
    General Casey. Yes.
    Senator Begich. The early retirees, basically, people 
getting out before their 20 or 30 years. Do you put that in any 
kind of analysis that can be shared with this committee or with 
members? I'd be curious, what are those two or three top things 
that people say, ``This is why I'm leaving,'' based on data?
    General Casey. Right. We do have that data available. In 
fact, we recently completed a survey--it was finished up in the 
end of the summer last year--and it's a general survey of the 
force. As part of that survey, it was repeated deployments that 
still remains the number one reason for soldiers leaving the 
Army.
    We also utilize our various intellectual centers, such as 
we maintain at West Point. I'm thinking specifically of our 
midgrade officers who were leaving the force in greater numbers 
than we'd like, and in greater numbers, I think, than we would 
expect. They've done some analysis to see what it was that they 
felt they weren't getting as part of their Army service. In 
large measure, it was educational and the rotations and to go 
to the various schools and such that we're trying to respond 
to. So, it's not something we look at holistically, but through 
bits and pieces, particularly where we're finding challenges. 
We try to get whatever answers we can.
    Senator Begich. Very good. That helps.
    Let me get to, very quickly, a couple of quick Alaskan 
ones. This is one that you could respond to later, because it's 
very, very specific. In Fairbanks, in the basic allowance for 
housing, there was a study done. When they did the study, it 
reduced the rates of what the soldiers would get for their 
housing in Fairbanks. I can tell you, from my experience of 
almost 25 years in the landlord business, that they did it at a 
time when the utility rates were lower and vacancy rates were 
higher, which is summer. It creates a problem, because then the 
analysis sets the rate, which then they will have to pay for or 
deal with as they go into the winter months, which was lower 
vacancy rates and the higher utility costs. The end result is, 
the soldiers--we've gotten calls on this--end up paying out of 
their pocket to make sure they can compensate for the housing 
allowance.
    Would you take a look at that? We will send you something a 
little more detailed. But, just in my 25-plus-years experience 
in the real estate business, the timing of the survey was 
probably not the most appropriate time, or they could have 
extended it over the winter-fall to get a better picture. 
Because you can go $2 or $3 a gallon heating-fuel differential 
between those months, as an example, and the rates can 
dramatically be different, based on winter and accessibility of 
the fuel and other things, especially in Fairbanks, which is a 
significant problem with heating issues. If you wouldn't mind, 
just note that.
    The last thing I'll say--only because Senator Udall isn't 
here now, I can say it--that, of course, we have the best 
training grounds. We don't have hills, we have mountains, and 
all three of us have talked about that in the past. But, as you 
progress on utilization of training facilities, the one, as I 
mentioned to you, is the unmanned aircraft. I think we have 
some superb locations that, as you consider all the deployments 
and reassignments of equipment, obviously we want to be engaged 
in that discussion. You know it better than I do by your ground 
troops up there, but what we have up there is exceptional. I'll 
tell Senator Udall later that I credited his and I didn't say 
anything about mine.
    Thank you very much for your testimony.
    Chairman Levin. You create a real problem for me, Senator 
Begich, because I'm tempted to talk about our training areas in 
Michigan, and I'm going to resist that temptation, only because 
of time limitations.
    I have a couple of questions. One has to do with equipment 
that we have authorized to go from Iraq--or, more technically, 
perhaps, Kuwait--to the Afghan Army. We are short on training 
that army, not just in the shortage of trainers I pointed out, 
but we also have not done what we need to do in terms of 
equipment. So, we authorized, in the last authorization bill, 
not just equipment that could go to the Iraqi army, even though 
it was not excess equipment. The same thing is true with the 
Afghan army.
    We talked to one of our trainers over there, when we were 
there a few months ago, and he indicated, as a matter of fact, 
some of that equipment was beginning to arrive from Iraq-Kuwait 
into Afghanistan for the Afghan army, not just for our guys.
    In going through the numbers there, General, you indicated 
that half a billion dollars of excess equipment, I believe, was 
left for the Iraqis. Perhaps it was non-excess. I'm not sure. 
But, in any event, we have authorized, not just excess 
equipment, but non-excess equipment, understanding we're going 
to have to replace that, but also understanding that it's 
essential that we get equipment to the Afghan army if we're 
serious about turning over responsibility for the security of 
Afghanistan to that army.
    Do you have any numbers at all on how much either excess or 
non-excess equipment has gone from the Iraq theater to the 
Afghan army or police?
    General Casey. I know we've processed the Afghans' 
uparmored Humvees, machine guns, and some ammunition and repair 
parts, but I don't have any specific numbers.
    Chairman Levin. If you could get us that for the record, 
I'd appreciate it.
    [The information referred to follows:]

    The Department of the Army is using multiple means and authorities 
to transfer or sell equipment located in the Iraq Theater and other 
locations to the Afghanistan National Security Forces (ANSF). Current 
efforts to facilitate equipping the ANSF include: Foreign Military 
Sales of 1,626 Non-Excess Up Armored HMMWVs (1,317 are for the Afghan 
National Police and 309 for the Afghan National Army); excess defense 
articles transfer of over 211,000 pieces of organizational clothing and 
individual equipment; 1,260 machine guns; approximately 6.5 million 
rounds of ammunition; and 2,500 life support items such as tents, light 
sets and folding cots. Additionally, the Department is processing a 
request for transferring over 5,000 pieces of excess, nonstandard 
equipment located in Iraq (commercial nontactical vehicles, 
communications, and maintenance-related equipment).

    Chairman Levin. Now, on this question of DADT, what you've 
indicated, appropriately, is that a moratorium could create 
complications for pending legal cases. But, the decision of the 
Commander in Chief to end the policy--the only issue being, in 
his mind, how and when, and not whether--has also got to create 
some complications for existing cases. If you were representing 
somebody, in an existing case, who was being discharged or 
threatened with discharge, I assume you'd ask for a stay until 
there's a resolution of the matter.
    So, what I will need from you is your lawyers' assessment 
as to whether or not there are complications, currently, with 
the decision of the Commander in Chief to end the policy, and 
just to have a study as to how it's done, and to compare that 
to any complications which might occur from having a suspension 
of the discharges, pending a decision on whether to repeal.
    Remember, a moratorium or a suspension is not a repeal. 
That would mean that, if for some reason it were not repealed 
down the road, then the current discharge policy would stay in 
place.
    So, my request of you is that you get an assessment from 
your lawyers to this committee as to whether there are 
complications from the decision that's been given by the 
Commander in Chief, relative to repeal down the road, and 
whether there are complications from a moratorium, which 
obviously there could be, as well as from a down-the-road 
repeal announcement, and to compare for us whether or not, one 
way or the other, there are more or less complications.
    That's not a question, other than to ask you whether or not 
you will ask your lawyers if they could prepare that assessment 
for us.
    Secretary McHugh. Absolutely.
    [The information referred to follows:]

    The analysis you requested is currently under review and 
consideration as part of the Secretary of Defense's study of the 
potential repeal of the Don't Ask, Don't Tell (DADT) law. The Army is 
working closely with Department of Defense officials to assess the 
personnel, readiness, legal, and operational issues and impacts 
associated with action to suspend, modify or repeal DADT. Upon 
completion, it is expected the analysis will include the information 
outlined in the chairman's request, which will be shared with the 
committee when available. While the Secretary's comprehensive study is 
ongoing, the Army is committed to providing the committee with 
information on the Army's implementation of current DADT law.

    Chairman Levin. We thank you both. We thank the men and 
women you lead. We particularly, again, want to acknowledge the 
presence of your special guests here today. We thank them for 
their service, for your son's service, Mrs. Engeman. We are 
grateful for it. It's a grateful Nation that is united behind 
our troops and our veterans, no longer facing the kind of 
divisions we had in previous engagements, such as Vietnam, but, 
regardless of policy differences, totally behind our forces, 
our men and women who put on the uniform of this country.
    Thank you all.
    We will stand adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
     adaptability of higher-end combat units to lower-end missions
    1. Senator Levin. General Casey, the notion of a full spectrum 
force has been a central and enduring organizing, equipping, and 
training concept for the Army. Today's range of potential security 
threats, and the likelihood that the Army will be called upon to meet 
simultaneous conventional and irregular challenges, calls for a much 
more adaptable, if still full-spectrum force.
    Over the years, the Army has argued that, as a rule, most 
capabilities required for higher-end combat operations can be adapted 
for application to lower-end missions. The Army's modular brigade 
combat teams (BCTs)--whether infantry, heavy, or Stryker--can be task 
organized, or if necessary augmented, for lower-end missions such as 
stability operations and security force assistance missions, while 
remaining capable of full-spectrum operations.
    On the other hand, since the start of counterinsurgency operations 
in Afghanistan and Iraq several senior Army leaders have acknowledged 
that the notion of lesser and included tasks at the lower end of the 
spectrum were not in fact easily adapted in units trained and ready for 
high-end conflict.
    The 2009 Quadrennial Defense Review (QDR) recognizes this challenge 
and directs specific structural changes in the Army including the 
conversion of at one heavy brigade to a medium Stryker brigade, the 
potential conversion of heavy to lighter brigades in the future, and 
increasing the number of combat aviation brigades to 13.
    What are the Army's assumptions and observations today about the 
adaptability of higher-end combat units, equipment, and training for 
application in lower-end stability or counterinsurgency missions?
    General Casey. We continue to rebalance the force to achieve the 
right mix of capabilities to meet current demands while preparing for 
future challenges. Operations in Iraq and Afghanistan have shown that 
the right mix of BCT-types, properly tailored for the mission, possess 
full spectrum utility to protect our own forces as well as the local 
population and successfully train and partner with indigenous security 
forces. During the QDR we examined how to further institutionalize 
lessons learned in current operations as well as next steps to posture 
the Army to execute Full Spectrum Operations as part of the Joint Force 
in the mid- to far-term. Full Spectrum Operations recognizes the 
unpredictability of the environment and hybrid nature of kinetic and 
non-kinetic threats. The key to meeting this guidance and maintaining 
the balance outlined by the Secretary of Defense is the modularization 
and rapid mission tailoring of the BCT through the Army Force General 
(ARFORGEN) Cycle. This is the base general purpose force organizational 
construct designed to balance the offense, defense, stability, and 
civil support operations as part of the Joint Force.
    The QDR outlines the importance of providing a highly adaptable, 
versatile Security Force Assistance (SFA) capability for all combatant 
commanders in the future. The BCT contains a range of experience in 
combat arms, combat support and combat service support. This 
composition serves as a firm base of trainers and advisors, together 
with the integral supporting staff. It has the ability to task-organize 
constituent elements to provide teams of the required size and skill 
set for each mission, providing simultaneous sustained SFA across 
multiple locations using organic command and staff capabilities.
    The Army has developed numerous initiatives to improve and 
complement the adaptability of BCTs for stability and counter-
insurgency missions. The Army's Institutional or Generating Force can 
augment the operating force to conduct SFA. Training and Doctrine 
Command (TRADOC) is one example of this capability with 32 schools and 
centers at 16 Army installations--all of which can provide ``Train the 
trainer'' experts. The Army has developed a new SFA doctrine, 
established a permanent SFA training formation and associated planning 
teams in Geographic Combatant Commands. It has enhanced SFA-related 
education, training and gaming; increased foreign language and cultural 
training; and increased study and publication of SFA lessons learned.

    2. Senator Levin. General Casey, what risks might additional 
emphasis on non-conventional missions, in doctrine and training, pose 
for the Army's ability to conduct traditional high-end combat missions?
    General Casey. The nature of conflict today requires a flexible 
approach for anticipating force requirements. Accordingly, the Army's 
greatest emphasis must be on creating a versatile force. We must 
prepare soldiers, units and their equipment for future missions, both 
conventional and non-conventional, by providing adequate time to train 
for full-spectrum operations and to reduce uncertainty and stress for 
soldiers and their families. We continue to assess and transform the 
force to meet combatant commanders' requirements by revising our 
modernization strategy, completing transformation from Cold War legacy 
formations to modular formations and improving business processes in 
order to apply resources efficiently.
    Although we are focused on prevailing in current counterinsurgency 
operations, improving the Army's deployment to dwell time ratios will 
increase training opportunities across the full-spectrum of operations 
necessary to meet future requirements. Rebalancing the force remains an 
essential part of mitigating risk from unforeseen contingencies for our 
Army. Restoring readiness will enable the Army to prepare for and 
accomplish all assigned missions as a member of the Joint Force. 
Mitigating these risks will sustain our Army, which is the most 
experienced combat force in the world.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman
                               m4 carbine
    3. Senator Lieberman. General Casey, I understand that although the 
M4 Carbine performed to Army specifications during the battle of Wanat, 
you are now reviewing options to improve that weapon's performance 
during sustained firefights, namely by requiring a thicker barrel. I am 
glad that the Army is making these improvements, and the only concern 
that I have is that the process for approving them may take too long. 
What steps are you taking to expedite the speed with which these 
improvements for the M4 reach our troops in the field?
    General Casey. The Army had previously approved the heavier barrel, 
as well as a full auto trigger mechanism. These improvements are 
already in use by our Special Operations units, who use the M4A1. We 
are also incorporating an ambidextrous fire control selector into the 
M4 series. The heavy barrel and ambidextrous selector will begin to 
reach our conventional forces in the fourth quarter of fiscal year 
2010. The full auto trigger will be available in the second quarter of 
fiscal year 2011. The next series of improvements include an improved 
rail system and weapon bolt and carrier. These will be available in the 
second and fourth quarter fiscal year 2012, respectively.
    The Army is continually testing and upgrading the carbine. For 
example, since 1991 more than 8 million rounds have been fired in 
product improvement testing. As a result of this testing, over 62 
performance enhancing improvements have been incorporated into the 
carbine design to include the trigger assembly, extractor spring, 
recoil buffer, barrel, chamber and bolt. These improvements have made a 
significant difference to the mean time between stoppages (MRBF) for 
the weapon. The requirement for the M4 is 600 MRBF, but with these 
improvements applied testing has demonstrated the reliability is over 
3,600 MRBF.

                          army force structure
    4. Senator Lieberman. Secretary McHugh, the report accompanying the 
Senate Armed Services Committee's mark of the National Defense 
Authorization Act for Fiscal Year 2010 included a special interest item 
requiring a report providing an analysis comparison, and projected 
impacts of limiting the Army's Active component to 45 rather than 48 
BCTs through 2012. I note that the deadline for that report is March 1, 
2010--can you reconfirm that you will submit this report by that 
deadline?
    Secretary McHugh. The Army anticipates providing the committee with 
an interim report no later than 4 March and a final response by 30 
April 2010. We are reviewing the recent troop increase in Afghanistan 
and the Iraq drawdown plan to better assess the effects of maintaining 
the Army at 45 versus 48 Active BCTs.

                          land warrior program
    5. Senator Lieberman. Secretary McHugh, the Land Warrior system has 
received positive reviews from the soldiers who have used it in Iraq 
and Afghanistan, and it is my understanding that there are currently 
units with operational needs statements that have not received Land 
Warrior equipment due to funding constraints and production lead times. 
In light of these recent requests for Land Warrior systems, is it fair 
to conclude that the Army prematurely terminated this program?
    Secretary McHugh. No. The Army learned valuable lessons from the 
Land Warrior system but it did not represent the complete capability we 
desired. The Ground Soldier System is expected to cost less, weigh 
less, and provide greater operational mission duration using more 
advanced technologies than were resident in the original Land Warrior 
system. Fielding of the Ground Soldier System is expected to begin in 
fiscal year 2012.

    6. Senator Lieberman. Secretary McHugh, now that Ground Soldier 
System is going into production, what lessons have been learned by the 
Army from the Land Warrior fielding that would assist them in providing 
this capability to dismounted troops in a timely manner?
    Secretary McHugh. The Army learned a great deal from the Land 
Warrior program, and we are applying these lessons to our Ground 
Soldier System in order to get the best capability to our dismounted 
soldiers in the most efficient manner possible. For example, the Army 
learned that soldier acceptance of the system and its capabilities is 
critical to achieving operational success; and effective training at 
the individual and collective unit levels plays a vital role in that 
acceptance. Soldier and unit leader input has resulted in 
recommendations to improve form, fit, and function.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                 army test range unfunded requirements
    7. Senator Bill Nelson. General Casey, on February 22, the Senate 
Armed Services Committee received a copy of a letter you wrote on 
February 19 to Representative Buck McKeon, the ranking member of the 
House Armed Services Committee, in which you provided a list of what 
are called unfunded requirements. On that list were two items that 
relate to the Army's test infrastructure: $18 million for Test and 
Evaluation Instrumentation, and $23 million for Army Test Range 
Infrastructure.
    As the chairman of the Emerging Threats and Capabilities 
Subcommittee, I am glad to see the Army indicating that additional 
funding for these items would, as you say in your letter, ``provide 
added value to commanders in the field.'' This committee has been 
concerned for many years about the need to improve our military test 
and evaluation infrastructure.
    Can you tell me how these additional funds would improve the Army's 
ability to conduct test and evaluation of our ever more complex weapon 
systems?
    General Casey. The additional funds would be used for the 
replacement and restoration of critical infrastructure and 
instrumentation, such as radars, optics, telemetry and digital systems. 
This new equipment/infrastructure will better align our testing with 
changing requirements and will allow us to monitor/analyze more complex 
technologies during evaluations and experiments. The funds would also 
provide for modeling and simulation to address survivability, 
reliability, maintainability and the increased complexity of 
ballistics, which affects every major Army acquisition program.

        national guard and reserve component operational tempos
    8. Senator Bill Nelson. Secretary McHugh and General Casey, the 
wars in Iraq and Afghanistan have transformed our Guard and Reserve 
Forces from Strategic Reserves to an operational force. The increased 
demand placed on these servicemembers has naturally led to increased 
requirements for more training, equipment, and facilities. What are the 
biggest challenges you face with the high operational tempo for the 
Guard and Reserve Forces?
    Secretary McHugh and General Casey. Even as the men and women of 
the Army National Guard (ARNG) continue to demonstrate their dedication 
to the Nation, the reality is that there are significant challenges for 
Guard and Reserve Forces. While we continue with the transformation of 
the ARNG into an Operational Force, the Army is using the ARFORGEN 
model to try to make deployments predictable and to provide stability 
for soldiers, families, and their employers. The ARNG also has Homeland 
Defense and Civil Support missions, which place additional demands and 
requirements on the soldiers and their equipment.
    The men and women of the ARNG can meet the demands of the 
operational tempo, provided that they are properly prepared physically 
and have the resources available to complete their Federal and State 
missions. The citizen-soldier must have access to proper medical and 
dental care, before, during, and after mobilization because when 
soldiers are not available for medical reasons, it has a ripple effect 
as soldiers are pulled from other units to plug holes. Providing care 
also promotes stability for families by reducing the financial and 
personal impacts of serving as a member of the ARNG.
    Equipment has also been strained by the operational tempo over the 
past 8 years. The dual-use equipment within the ARNG is vital to both 
the Federal and State missions. As conditions have changed outside the 
borders of the United States, so too have conditions within the 
borders. These changing requirements must be constantly evaluated to 
ensure that the ARNG is equipped to meet the challenges of today and 
tomorrow with equipment that is available, well-maintained, and 
relevant.
    The ARNG also faces a difficult challenge with regard to individual 
soldier training. Soldiers awaiting training occupy a position within a 
unit in the ARNG, even though they are nondeployable. This impacts 
overall readiness and forces the ARNG to cross-level soldiers from 
other units. As with the medically nondeployable, this has a ripple 
effect over time that creates stress on soldiers, families, and 
employers.

    9. Senator Bill Nelson. Secretary McHugh and General Casey, what 
risk does your budget take with equipping and training the Guard and 
Reserves?
    Secretary McHugh and General Casey. The ARNG and Army Reserve are 
being equipped based on a deliberate investment plan which is 
commensurate with their mission and commitments. Over the last 4 years, 
the ARNG and Army Reserve have been equipped and modernized at a pace 
exceeding that of the Active component. Shortages do remain, but 
working with the Reserve components we are ensuring they have the 
necessary equipment to execute their State and Federal commitments.
    From the Individual Training perspective, the ARNG accepts risk in 
certain functional training courses in order to maintain the necessary 
Duty Military Occupational Skills Qualification rate for deploying 
units. This ensures that soldiers are qualified to perform their 
primary duties when deployed. Functional courses teach soldiers 
secondary skills such as advanced gunnery and maintenance courses, and 
airborne or air assault training. The Army Reserve has adapted a 
similar program. Soldiers from the ARNG and the Army Reserve also go 
through Mobilization Training prior to deploying.

    10. Senator Bill Nelson. Secretary McHugh and General Casey, please 
describe the Grow the Force initiatives that will increase the Army 
Reserve Forces in Florida and other States.
    Secretary McHugh and General Casey. Pursuant to the Grow the Army 
Initiative, the Army Reserve was granted an increase in Force Structure 
Allowance from 205,000 to 206,000. Additionally, the Army Reserve 
restructured 16,000 unstructured Trainees, Transients, Holdees and 
Students spaces into structured forces to help meet the Army's 
increased operational requirements. Due to resourcing constraints, the 
Army Reserve has programmed the activation of these new units over a 5 
year period (fiscal year 2009-fiscal year 2014) with the majority of 
actions occurring in fiscal year 2010-2011. In some cases, previously 
scheduled inactivating units are retained in the force, resulting in no 
local community disruption. Given that programming the force is a 
continuous process, the original Grow the Army list has changed. Today, 
there are 144 Army Reserve units programmed in 32 States and Puerto 
Rico. Florida has 11 units in 6 communities in the Grow the Army 
program. The ARNG has no ``Grow-the-Force Initiatives'' that will 
increase forces.

    11. Senator Bill Nelson. Secretary McHugh and General Casey, what 
additional military construction (MILCON) funding is needed to 
rehabilitate and construct Reserve centers and National Guard 
facilities for training and duty?
    Secretary McHugh and General Casey. The funds requested in 
President's fiscal year 2011 budget will be used complete the USAR's 
Grow the Army efforts in order to provide new facilities for additional 
soldiers. ``Military Construction Army Reserve'' funding, however, is 
not sufficient to address all of the USAR's requirements, which include 
modernizing our legacy facilities and upgrading our facilities to meet 
current mission standards and Anti-Terrorism/Force Protection (AT/FP) 
set back requirements. The Army Reserve would need $180 million in 
additional MILCON funding to rehabilitate and construct these Reserve 
centers for training and duty. These specific construction projects are 
as follows:

------------------------------------------------------------------------
         Installation            Location     Project Title      Cost
------------------------------------------------------------------------
Fort Collins.................            CO Army Reserve         $11,200
                                             Center.
Homewood.....................          IL   Army Reserve          12,800
                                             Center.
Rockford.....................          IL   Army Reserve          10,800
                                             Center/Land.
Fort Benjamin Harrison.......          IN   Army Reserve          50,000
                                             Center.
Kansas City..................          KS   Army Reserve          16,000
                                             Center/Land.
St. Joseph...................          MN   Army Reserve           9,000
                                             Center.
St. Charles..................          MO   Army Reserve          26,000
                                             Center.
Greensboro...................           NC  Army Reserve          16,500
                                             Center/Land.
Schenectady..................          NY   Army Reserve          16,000
                                             Center.
Orangeburg...................           SC  Army Reserve          11,400
                                             Center/Land.
                                                             -----------
  Total                                                         $179,700
------------------------------------------------------------------------

    The ARNG requires $1.5 billion a year for 20 years to revitalize 
its facilities.

        mobilization for training for reserve component soldiers
    12. Senator Bill Nelson. Secretary McHugh and General Casey, the 
Army recently withdrew the mobilization for training option for Reserve 
component soldiers. This concept relieved pressure on the State 
National Guard training budgets, and it lengthened the dwell time for 
soldiers in some cases. What prompted this change in policy, your 
assessment of the change, and whether or not it is something that 
should be revisited?
    Secretary McHugh and General Casey. Mobilization for Training is a 
cumbersome system that was not being effectively used by the state 
Adjutants General. In most cases, the Mobilization for Training program 
was used to ensure that soldiers received their requisite military 
education. With the current ARFORGEN cycle, however, soldiers are being 
afforded time to get needed training. Funding the Army School Systems 
budget will help to ensure that the Mobilization for Training program 
is no longer necessary.

                        7th special forces group
    13. Senator Bill Nelson. Secretary McHugh and General Casey, the 
Army's 7th Special Forces Group is in the process of moving from Fort 
Bragg, NC, to Eglin Air Force Base, FL, to increase joint training 
opportunities between the Army and Air Force Special Forces. What is 
the status of the move?
    Secretary McHugh and General Casey. The move of the 7th Special 
Forces Group (SFG) to Eglin Air Force Base (AFB) in accordance with 
Base Realignment and Closure (BRAC) is proceeding as planned. 
Construction is on or ahead of schedule and is to be completed no later 
than 1 August 2011. The unit move is slated for August and September 
2011. The 7th SFG has advanced party elements in place at Eglin AFB to 
coordinate and facilitate the logistics, and the operations associated 
with the arrival of the 7th SFG.

    14. Senator Bill Nelson. Secretary McHugh and General Casey, is the 
move on time?
    Secretary McHugh and General Casey. The BRAC move of the 7th SFG is 
currently on schedule, and is to be completed by 15 September 2011.

    15. Senator Bill Nelson. Secretary McHugh and General Casey, what 
issues remain?
    Secretary McHugh and General Casey. There are no BRAC related 
issues at this time.
                                 ______
                                 
           Questions Submitted b. Senator E. Benjamin Nelson
                guard and reserve military construction
    16. Senator Ben Nelson. Secretary McHugh and General Casey, your 
budget requests include significant funding increases to replace aging 
facilities for the National Guard and the Reserves. This investment is 
critical considering the Guard and Reserve personnel comprise some 51 
percent of your end-strength. However, your request for Guard and 
Reserve MILCON is $1.2 billion, which is less than 1 percent of your 
total base budget and only a fifth of your total MILCON request. Some 
of Nebraska's Guard units are lacking adequate space to store reset and 
new equipment. For example, Nebraska units lack 33 acres for improved 
and unimproved parking to store new trucks, tractors, and trailers, as 
well as 8,000 square feet of heated storage and 3,500 square feet of 
security vault storage. What is the current state of our Guard and 
Reserve infrastructure, both nationally and within Nebraska?
    Secretary McHugh and General Casey. Army Reserve Nationally: The 
average age of Army Reserve facilities is over 42 years old. The 
majority of facilities are under-sized for today's mission 
requirements, encroached upon by local community activities and not 
compliant with Anti-Terrorism/Force Protection (AT/FP) standards. BRAC 
Act funding helped to provide over 120 new AFRCs that meet today's 
operational and training needs, as well as to modernize 11 percent of 
the Army Reserve Center facility inventory.
    Army Reserve Nebraska: The Army Reserve will construct and 
modernize 7 of 13 facilities within the next 7 years. The remaining 6 
facilities are inadequate and are not AT/FP compliant. The facility in 
Fremont will be rehabilitated in fiscal year 2015 and the remaining 
five facilities are not currently programmed.
    ARNG Nationally: The Army is proposing in the fiscal year 2011 
budget submission Army National Guard MILCON funding of $874 million, 
more than in any previous budget submission. In the fiscal year 2011 
budget, the ARNG has 20 projects where it is proposing to either build 
new or revitalize existing Readiness Centers to address space or 
condition shortfalls or to support new missions.
    The ARNG infrastructure has about 80 percent of the required square 
footage, and the average facility requires about 20 percent of its 
original value in repairs. Critical shortfalls include Readiness 
Centers, Training Facilities, and Maintenance Facilities. Replacing 
aging and inadequate facilities with modern facilities that allow 
efficient training to support the ARFORGEN cycle is a high priority for 
the Army and the National Guard.
    ARNG Nebraska: Nebraska's ARNG infrastructure also has about 80 
percent of required building square footage, and the average facility 
requires about 20 percent of its original value in repairs. There are 
two MILCON Projects proposed for Nebraska in the fiscal year 2011 
budget: a Readiness Center in Mead and a Readiness Center addition or 
alteration in Lincoln.

    17. Senator Ben Nelson. Secretary McHugh and General Casey, you 
noted that there is a concern that the investment in infrastructure 
isn't enough and that equipment may not be properly stored and 
maintained. I am concerned that this will undermine the readiness. What 
is being done to address what are known facility gaps?
    Secretary McHugh and General Casey. The ARNG is pursuing a number 
of options to address well-known facility gaps related to equipment 
storage and maintenance. Storage issues alone total about $2.2 billion. 
This number reflects the upfront costs related to the requirements of 
an Operational Force. Projects include constructing secured parking 
areas and storage buildings, acquiring land and modifying facilities 
(especially arms vaults to meet code requirements and increase 
capacity). Most states have taken a hard look at this shortfall and 
have plans to execute the funds quickly to resolve increasing storage 
requirements. Short-term solutions include installing portable vaults 
and erecting unheated storage buildings, which will allow rapid 
installation and construction. Many states have looked at longer-term 
solutions, such as acquiring additional land. Nearly all states have 
itemized their shortfalls and stand ready to remedy these and other 
well-known facility gaps.

    18. Senator Ben Nelson. General Casey, barring constraints from 
other mission areas, what level of funding do you need to address all 
your MILCON requirements?
    General Casey. Competing requirements from other mission areas will 
always be a constraint. MILCON funding is currently not sufficient to 
address all of the Army's MILCON requirements. The Army has prioritized 
its existing resources to support the Army Modular Force, Grow the 
Army, completing BRAC, completing Global Defense Posture Realignment, 
and completing the barracks modernization. Long term solutions for all 
of the remaining requirements (such as recapitalizing existing 
facilities for existing missions) necessitates a long-term funding 
strategy beyond the fiscal year 2012-2017 POM. Obsolete legacy 
facilities adversely affect readiness, organizations, missions and 
installations across the Army. The level of funding that the ARNG 
requires for the facility revitalization is $1.5 billion a year for 20 
years. At this level of funding the ARNG will meet its readiness 
requirements.

                       ballistic missile defense
    19. Senator Ben Nelson. General Casey, in your letter of February 
19 to the House Armed Services Committee, you indicated that one of the 
so-called unfunded requirements of the Army is the Patriot missile 
defense system. Your letter indicated that an additional $134 million 
of funding for Patriot would be valuable to our combatant commanders. 
The Patriot system is our only combat-proven missile defense system, 
and is a critical element of our ability to defend our forward deployed 
forces and allies against existing short- and medium-range ballistic 
missiles. Can you tell me how these additional funds would be used to 
improve the Army's Patriot capability?
    General Casey. The Patriot Advanced Capability-Phase 3 (PAC-3) 
missile is a hit to kill surface-to-air interceptor. It provides the 
most robust protection for troops and critical infrastructure against 
Tactical Ballistic Missiles and Air Breathing threats. Funds are 
necessary to repair and recertify PAC-3 missiles and return them to the 
operational force. The Enhanced Launcher Electronic System (ELES) is 
the upgrade kit applied to aging PAC-2 launching stations, to upgrade 
them to fire the PAC-3 missile. The proposed funding would procure 24 
additional ELES upgrade kits in fiscal year 2011, upgrading 24 
additional PAC-2 launchers to the PAC-3 capability.

    20. Senator Ben Nelson. General Casey, do you believe additional 
Patriot capabilities would help meet the requirements of our combatant 
commanders to defend against short- and medium-range ballistic missiles 
from countries like North Korea and Iran?
    General Casey. Given the rapid proliferation of short- and medium-
range ballistic missiles, it is critical that we continue to modernize 
and grow our regional ballistic missile defense capabilities. We are 
already increasing our Patriot capacity by growing our PAC-3 battalions 
from 13 to 15 over the next 2 years. Within the broader ballistic 
missile defense strategy, as articulated in the January 2010 Ballistic 
Missile Review Report, 15 Patriot battalions is sufficient capacity to 
address those threats that the Patriot can defend against. Our 
modernization strategy will also focus on complementary ballistic 
missile defense capabilities, including the Terminal High-Altitude Area 
Defense system currently being fielded, the AN/TYP-2 radar, and 
overarching command and control battle management architecture. 
Additionally, it is important that we continue to procure PAC-3 
missiles and Patriot launcher upgrades to enhance the capability of our 
Patriot Battalions.

                             human capital
    21. Senator Ben Nelson. General Casey, from a human capital 
perspective, one of the biggest challenges facing the Services will be 
managing expanding and new missions while maintaining a fixed end-
strength. The intelligence, surveillance, and reconnaissance (ISR) 
mission is an area that is seeing a great deal of growth across all of 
the Services due in large part to the significant expansion of unmanned 
aerial vehicles (UAVs) or remotely piloted aircraft. What is the 
current state of your training pipeline for operators and analysts, and 
how are you expanding it to meet demand?
    General Casey. The Army approach to Unmanned Aircraft Systems (UAS) 
training is a systematic, module-based training program, which produces 
highly trained, professional and Federal Aviation Administration tested 
Enlisted UAS operators. We have Common Soldier UAS Operator training 
for Shadow, Hunter, Warrior-Alpha, and the Extended Range/Multi-purpose 
(ERMP) UAS.
    Through 2004, we trained less than 1,000 operators and maintainers 
per year on a single shift, Monday through Friday. In 2005, we expanded 
to two shifts to meet the increasing demand. In 2008 and 2009, we hired 
and trained 253 additional instructors and support personnel, and 
currently train in three shifts at multiple locations to accommodate 
the 2,000+ operators and maintainers programmed for 2010. Current 
training throughput requires Libby Army Airfield (LAAF) operations 6 
days per week, 16 hours per day. The Army is in the process of 
validating the requirement to increase airfield operations at LAAF to 6 
days per week, 24 hours per day in order to meet the future UAS 
training requirements.
    To meet growing requirements for analysts, the Army's Intelligence 
Center of Excellence has doubled the annual number of Imagery Analysts 
graduates over the past 5 years. Since 2005, over 1,500 Imagery 
Analysts have been trained at Fort Huachuca. This has resulted in a 
current on hand strength of 110 percent for Active Army Imagery 
Analysts (MOS 35G) throughout the force.
    Full Motion Video (FMV) training is an integral part of the 105-day 
Imagery Analyst course where students are exposed to current tactics, 
techniques and procedures (TTPs) used in overseas contingency 
operations (OCOs). Students utilize the Distributed Common Ground 
System--Army approved software for exploitation of all Full Motion 
Video (FMV). Soldiers in training also receive further scenario-based 
FMV training as they conduct convoy live-fire exercises with a UAS 
flying in support of the mission. Additional exposure to FMV 
exploitation in support of intelligence, surveillance and exploitation 
comes during a 10-day capstone exercise during which students plan, 
execute and exploit simulated UAS missions in support of BCT 
requirements/operations.

    22. Senator Ben Nelson. General Casey, what kind of retention rates 
are you seeing in UAV pilot and sensor operators and intelligence 
analyst specialties?
    General Casey. The Army is retaining nearly 100 percent of its 
warrant officer Military Occupational Specialty (MOS) 150U, (Tactical 
Unmanned Aerial Vehicle (TUAV) Operations Technicians), who have 
trained and deployed in this specialty over the past 5 years.
    Although the Army transferred this specialty from Military 
Intelligence to the Aviation in September 2008, it was originally 
established under MOS 350U, Unmanned Aerial Vehicle Operations 
Technician. Since its transfer, the MOS has been restructured to be 
managed with the Army's other Aviation skills. It is currently in the 
fourth year of a 5-year growth and integration plan within the Aviation 
Branch and is at 89 percent of assigned strength.
    This specialty's unusually high retention rate is to be expected 
during its initial development. Personnel are selected for their 
longevity and interest, and, therefore, are very likely to continue 
service. As the specialty matures beyond the initial growth phase, 
however, the Army expects to see an increase in losses that more 
closely resemble other Aviation Warrant Officer specialties. Regarding 
enlisted personnel, the 15W Unmanned Aerial Vehicle Operators specialty 
is retaining just under 95 percent of first-term inventory 
(approximately 500 soldiers), as compared to the average first-term 
retention across all enlisted specialties of just over 87 percent.

                           unmanned aircraft
    23. Senator Ben Nelson. General Casey, with regard to mission 
effectiveness, how are you coordinating efforts with the Air Force to 
integrate your growing fleet of drones with their unmanned and manned 
aircraft into concept of operations that will ensure safe and effective 
mission execution?
    General Casey. Each of the Services have missions that require 
specific capabilities, which are often unique to that Service. For 
example, the Navy has a requirement to support maritime operations 
using shipborne systems. The need to share information across all 
Services, however, is not unique. To that end, the Department of 
Defense (DOD) has stressed interoperability between the Services as the 
cornerstone of all manned and unmanned Intelligence, Surveillance and 
Reconnaissance system acquisitions and employments.
    Today, for example, a ground maneuver commander can expect full 
motion video transmitted from any manned or unmanned aircraft overhead 
will be received and displayed by another Service's remote video 
receiver. This has been made possible through the Services working 
closely together to develop interoperable data link protocols for 
control, video and encryption. To ensure safe and effective mission 
execution, we use joint processes, which apply to both manned and 
unmanned systems, to ``de-conflict'' airspace and layer assets to 
provide the best mission profiles.

    24. Senator Ben Nelson. Secretary McHugh, what process does DOD 
have to produce a comprehensive plan to integrate policy and 
requirements across the Services for unmanned aircraft programs?
    Secretary McHugh. In 2007, due to the diversity of the Services' 
unmanned aircraft programs, DOD created the UASs Task Force to 
coordinate policies and acquisitions across DOD. Although the Services 
retain their individual Title 10 authorities and responsibilities, this 
organization, led by the Under Secretary of Defense for Acquisition, 
Technology, and Logistics, is the central clearinghouse for 
interoperability protocols, national airspace access initiatives and 
the development of common procurements where applicable. An example of 
this close cooperation between the Services can be seen in real time 
transmission of Full Motion Video (FMV).
    By adhering to a set of uniform standards for interoperability, the 
Army One System Remote Video Terminal, and similar systems in other 
Services, receive real time FMV from all transmitting manned and 
unmanned aircraft overhead. This interoperability enables joint support 
of combat operations regardless of the Services involved. Additionally, 
policy is being developed and published by the Joint Staff, which will 
guide standards of training for UAS operators across the Services.
                                 ______
                                 
                Questions Submitted by Senator Jim Webb
                transfer of ownership of fort monroe, va
    25. Senator Webb. Secretary McHugh, it has come to my attention 
that three critical health and safety projects at Fort Monroe, VA, 
remain unfunded, in spite of the Army's plan to transfer ownership of 
that installation's property to the Commonwealth of Virginia in 2011. I 
realize BRAC law does not provide for new MILCON, however, 
infrastructure remediation, modernization, and maintenance that will 
affect the health and safety of the installation's current staff and 
personnel or its future owner should be completed prior to the transfer 
of this property. These critical projects are:

    1.  $10.1 million to upgrade the water supply system to provide 
adequate supply for the fire-suppression system;
    2.  $15.0 million to bring sanitary sewer infrastructure up to 
Virginia Department of Environmental Quality standards; and
    3. $20 million to complete flood-protection projects.

    What are the Army's plans to address these health and safety 
requirements before Fort Monroe is transferred to Virginia at the end 
of fiscal year 2011?
    Secretary McHugh. The current conditions of these systems meets 
current Federal health and safety standards and are operating properly 
to ensure the safety of our soldiers, our civilians and their families. 
We have invested funds to ensure that the fire suppression system meets 
all operational requirements with no shortfalls in safety standards. 
The sanitary sewer infrastructure meets Federal safety standards, and 
in 2003 the Army initiated and completed a $26 million flood control 
construction project.
                                 ______
                                 
              Questions Submitted by Senator Kay R. Hagan
    recapitalization of high mobility multi-purpose wheeled vehicles
    26. Senator Hagan. General Casey, I understand the Army is in the 
process of recapitalizing its Humvees to increase survivability and 
mobility. What is the status of the Army's Humvee recapitalization 
program?
    General Casey. The Army is developing a program to continue the 
recapitalization of High Mobility Multipurpose Wheeled Vehicles 
(HMWWVs) currently underway at Red River and Letterkenny Army Depots. 
We have requested $983 million in fiscal year 2011 for this effort, and 
may request permission to reprogram some amount of fiscal year 2010 
funding to support this program.

    27. Senator Hagan. General Casey, what are the requirements?
    General Casey. The Army will recapitalize approximately 8,390 
legacy High Mobility Multipurpose Wheeled Vehicles (HMMWVs) to reduce 
the fleet age as HMMWVs will remain in the Army's fleet through at 
least 2025. We will also have the requirement to recapitalize over 
7,000 Up Armored HMMWVs returning from theater as we responsibility 
draw down from Operation Iraqi Freedom and Operation Enduring Freedom.

                   joint light tactical vehicle cost
    28. Senator Hagan. General Casey, I understand it is difficult to 
generate an accurate cost estimate of the Joint Light Tactical Vehicle 
(JLTV) program because it is still in development. However, defense 
analysts suggest the JLTV program may cost as much as $30 to $70 
billion, depending upon the final unit cost of the vehicle and the 
number procured. What is the Army's JLTV procurement requirement, and 
what is the current estimated per vehicle cost?
    General Casey. The current Army JLTV procurement requirement is 
54,883 vehicles. However, the Army is in the process of developing and 
refining our tactical wheeled vehicle strategy; therefore, a final 
planned JLTV quantity has not been determined. The Army is creating a 
flexible vehicle strategy emphasizing a mixed fleet approach that spans 
performance, protection and payload. Planning figures are subject to 
change as the Army's tactical wheeled vehicles strategy evolves, the 
availability of base funding changes, and service requirements develop. 
The average base vehicle cost is between $370,000-$400,000, including 
general and administrative fees and profit. This base vehicle cost 
includes hull/structure, suspension, power pack/drive train, auxiliary 
automotive, ring mount, Gunners Protection Kit and Government Furnished 
Equipment A-Kit (all in-dash wiring and items integral to the vehicle).

    29. Senator Hagan. General Casey, will the Army have to reduce 
total JLTV acquisition quantities or scale back JLTV capabilities in 
order to deal with rising costs?
    General Casey. The Army is actively pursuing this vehicle. Although 
the final planned quantity has not been determined, the current 
procurement requirement remains 54,883 vehicles. The program is in the 
Technology Development (TD) Phase. The requirements and cost data 
developed during the TD phase are being evaluated to provide an 
affordable system that is balanced between payload, performance and 
protection. Based on current estimates of quantity, schedule, and 
technical capability, there has been no cost growth and no reduction in 
acquisition quantities.

                     next generation ground vehicle
    30. Senator Hagan. Secretary McHugh and General Casey, Secretary 
Gates emphasized the importance of having the Army adequately develop a 
next generation ground vehicle capability that takes into account and 
adapts to the lessons learned in theater. Can you discuss the status of 
the Army's assessment with the Marine Corps on joint capability gaps 
for ground vehicles?
    Secretary McHugh and General Casey. Future Combat Systems 
Acquisition Decision Memorandum, dated 23 June 2009, directed the Army, 
in conjunction with the Marine Corps, to ``initiate actions to assess 
joint capability gaps for manned ground vehicles.'' The Army 
Capabilities Integration Center and the Marine Corps Combat Development 
Command implemented a consolidated assessment process from June to 
August 2009. Much like the Army's and Marine Corps' earlier assessments 
for the JLTV, this review included comprehensive lessons learned, 
current operational data for specific types of platforms and seminar 
wargames with both Generating Force and Operating Force members.
    In August 2009, the Army-Marine Corps Board approved the joint 
capability gap assessment for manned ground vehicles, which addresses 
protection, network, mobility and lethality shortfalls. This was 
included in the Army's submission to the Joint Requirements Oversight 
Council (JROC) as part of the approval process for the Ground Combat 
Vehicle (GCV) Initial Capabilities Document in November 2009. The next 
formal step in the requirements process is submission of a Capabilities 
Development Document to the JROC.

    31. Senator Hagan. Secretary McHugh and General Casey, can you also 
discuss how the assessment is providing new requirements for Army GCV 
modernization?
    Secretary McHugh and General Casey. The joint capability gaps 
assessment for manned ground vehicles provided key insights into 
prioritizing modernization efforts for all combat vehicles. We apply 
these lessons learned in our analysis of vehicle upgrades, divestments 
and new procurements. For example, the capability gaps in protection 
underpin our efforts to improve Stryker protection.
    The assessment also weighed heavily in drafting the operational 
requirements for the GCV (e.g., new kinds of weapon systems and/or 
equipment needed by the warfighter in current operations). For example, 
the capability gaps identified regarding protected mobility and non-
lethal assets for manned ground vehicles led to specific operational 
requirements in the draft GCV Capabilities Development Document.

    32. Senator Hagan. Secretary McHugh and General Casey, what effect 
will the vehicle modernization program have on the Army's force 
structure, operational capabilities, procurement, and budget 
requirements?
    Secretary McHugh and General Casey. The Army's combat vehicle 
modernization is a combination of the new GCV program with divestiture 
and recapitalization (RECAP) of other existing combat vehicles, to 
include rebuilds and upgrades. RECAP will continue for the Abrams, 
Paladin, and Stryker and RESET will continue for Bradley as interim 
solutions until GCV is available. Mine Resistant Ambush Protected 
(MRAP) vehicle variants will also provide protected mobility.
    The GCV effort is part of a holistic Army plan to modernize its 
combat vehicle fleet within the existing force structure. The GCV 
platform will be highly survivable, mobile and versatile. The GCV is 
the first vehicle that will be designed from the ground up to operate 
in an improvised explosive device (IED) environment. It is envisioned 
to have greater lethality and ballistic protection than a Bradley, 
greater IED and mine protection than an MRAP, and the cross country 
mobility of an Abrams tank.
    Our intent for the first installment of GCV procurement is conduct 
a one for one replacement of Bradley Infantry Fighting vehicles in 
Heavy BCTs with the first brigade being equipped in fiscal year 2019. 
In conjunction with developing our program for fiscal year 2012-2017, 
we will develop a balanced modernization effort across our platforms 
based on capability needs and the resources available.

                       alternative fuel and power
    33. Senator Hagan. Secretary McHugh and General Casey, 
Afghanistan's mountainous terrain poses significant logistical 
challenges, which drives up the cost of our operations in theater. I 
believe we need to engage in significant research and development 
initiatives involving alternative fuel and power sources, as well as 
fuel efficient engines for the Army's tactical wheeled vehicles. What 
are the Army Research Office and Program Executive Office doing to 
increase the fuel efficiency of tactical wheeled vehicles?
    Secretary McHugh and General Casey. Fuel efficiency is a Key System 
Attribute (KSA) in the JLTV Capability Development Document. The JLTV 
effort is the future of the light tactical vehicle fleet. The fuel 
efficiency KSA states that the JLTV shall achieve 60 (Threshold) 65 
(Objective) ton-miles per gallon as measured at gross vehicle weight 
(including armor) using Test Operating Procedure 2.2.603 over the 
Munson Standard Fuel Course. The Tank and Automotive Research, 
Development and Engineering Center's analysis of the three technology 
development contractor vehicles states that the JLTV is currently at 76 
ton-miles per gallon. Clearly, this highlights the Army's commitment to 
incorporating more fuel efficient vehicles into our Tactical Wheeled 
Vehicle fleet.
    The Army is also pursuing research and development initiatives in a 
number of technological areas, which enable increased fuel efficiency 
in the ground tactical wheeled vehicle fleet. Ongoing efforts include 
development of the following: light-weight structural materials (armors 
and composites, which can reduce the overall vehicle weight resulting 
in more fuel efficient vehicles) and technologies to enable high 
efficiency energy storage, efficient motors, exportable power and 
thermal/power management for application on a hybrid electric vehicle. 
In addition, the Army is evaluating a number of currently fielded 
engines for their ability to perform in an operational environment 
using alternative fuels. Although these fuels alone are not expected to 
increase the vehicles' fuel efficiency, their widespread use could 
reduce the Army's overall dependence on petroleum.
    Finally, the Army Research Office is investing in promising 
research in a number of fundamental technological areas, such as the 
conversion of cellulosic materials into hydrocarbons, understanding the 
chemical kinetics of hydrocarbon combustion, spray and combustion 
diagnostics and new hydrocarbon spray methodologies. These basic 
research investments have the potential to further enable the use of 
alternative fuels and ultimately improve gas mileage.

                     army irregular warfare center
    34. Senator Hagan. General Casey, I am pleased the Army is looking 
into establishing an Irregular Warfare Center in order to streamline 
irregular warfare doctrinal development. Has the Army made a decision 
on the location of the Irregular Warfare Center?
    General Casey. I have tasked TRADOC to assess and then recommend to 
me whether we should establish an Irregular Warfare Center. Our 
Combined Arms Center at Fort Leavenworth currently has proponency for 
all warfighting doctrine across the full spectrum of conflict including 
operations against traditional threats, counterinsurgency, and 
stability operations. In the execution of this responsibility, they 
will closely coordinate with the JFK Special Warfare Center at Fort 
Bragg, NC. I expect TRADOC's recommendation within the next 90 days.

    35. Senator Hagan. General Casey, what is the TRADOC's position?
    General Casey. The U.S. Army TRADOC and the Headquarters, 
Department of the Army are examining the benefits of creating a center 
for Irregular Warfare (IW). If created, the IW center would leverage 
expertise, experience and core capabilities, from sources both internal 
and external to the Army, as well as harness the intellectual capital 
of the growing IW community. The center would focus on collecting 
lessons learned, identifying best practices and informing concept 
development. This would more effectively enable the integration of 
doctrine, organization, training, materiel, leadership and education, 
personnel and facilities across TRADOC and the Army.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                          supplemental request
    36. Senator Burris. Secretary McHugh and General Casey, there is a 
$20 billion supplemental request for fiscal year 2010 in addition to a 
$102.2 billion OCOs request for 2011. If the supplemental is being 
replaced by the OCO request, then why is there such a big disparity?
    Secretary McHugh and General Casey. The $20 billion supplemental is 
a requested increase to the $78 billion provided by the fiscal year 
2010 OCO, which was enacted in December 2009. This is additional 
funding required this fiscal year to support the increasing force 
levels in Afghanistan. The fiscal year 2011 OCO request of $102 billion 
is to provide fiscal year 2011 funding for all operations in 
Afghanistan and Iraq.

                          balancing the force
    37. Senator Burris. Secretary McHugh and General Casey, it is my 
understanding that in a speech to the Association of the U.S. Army and 
other forums last fiscal year, that you expected the Army will achieve 
operational balance in the force by 2011. Do you still believe that the 
Army will reach that goal, specifically, with achieving the dwell time 
ratios?
    Secretary McHugh and General Casey. Although the recent troop 
increase in Afghanistan delays the Army's long-term goal of a 1:3/1:5 
ratio of time deployed versus time spent at home station (i.e., 
``BOG:Dwell''), the Army's current growth continues to mitigate this 
new Operation Enduring Freedom force demand.
    Because of the growth of the Army over the past 5 years (more than 
70,000 troops since 2004; 40,000 of them in the last 2 years) and the 
drawdown in Iraq, the Army can execute this increase without going to 
15-month deployments, without going to less than 12 months at home 
between deployments and without continued implementation of stop loss. 
Assuming the drawdown in Iraq continues on schedule, the Army will 
achieve our BOG:Dwell goals. The Army estimates that approximately 70 
percent of the Active component and 80 percent of the Reserve component 
will achieve BOG:Dwell goals of 1:2 Active component and 1:4 Reserve 
component by 2011. The remainder of the force will continue to see an 
increase in its dwell rate and will meet these goals by 2012.

    38. Senator Burris. Secretary McHugh and General Casey, will you 
meet the Grow the Army objectives that are part of achieving 
operational balance?
    Secretary McHugh and General Casey. The Army will meet the Grow the 
Army objectives of building or converting 301 brigades across all 
components by the end of fiscal year 2014. The support from your 
committee continues to ensure the Army will be capable of achieving 
operational balance and conducting full spectrum operations.

                            force protection
    39. Senator Burris. Secretary McHugh and General Casey, you 
testified in the past that force protection is a major imperative with 
current and future OCO. Why did you not request mine-resistant ambush 
protected (MRAP) vehicles and other force protection vehicles as part 
of your 2011 budget, OCO, or fiscal year 2010 supplemental requests?
    Secretary McHugh and General Casey. To date, the MRAP initiative 
remains a joint program and the Office of the Secretary of Defense 
(OSD) submits requests for programmatic funding. All funding received 
is managed and controlled by OSD and the Joint Program Office--MRAP.
    In fiscal year 2010, OCO funds were requested to procure MRAP-All 
Terrain Vehicles (M-ATVs) for the Army and other Services. There is no 
MRAP procurement anticipated in fiscal year 2011, because the Army's 
known needs will have been met.
    The M-ATVs were requested for the Army as part of overall OSD 
fiscal year 2010 OCO budget submission. Additionally, OSD recently 
directed the procurement of an additional 1,300 MRAPs and 1,460 M-ATVs 
for the Army in fiscal year 2010.
    OSD anticipates that the MRAP initiative/program will transition to 
individual Service management in fiscal year 2012. At that time, the 
Army will assume budgetary control for our fleet of MRAP vehicles. The 
Army is committed to incorporating the MRAP Family of Vehicles into the 
future force structure.

    40. Senator Burris. Secretary McHugh and General Casey, how does 
your UAV budget request compare with the other Services' requests?
    Secretary McHugh and General Casey. The Army's UAV budget request 
is comparable to that of the other services. The total DOD budget 
request for procurement and development of UAVs was approximately $5.1 
billion. Of that amount, the Army requested $1.45 billion to procure, 
retrofit and develop the Extended Range/Multi-Purpose UAS, to retrofit 
the RQ-7B Shadow with Tactical Common Data Link, longer wings and laser 
designators and to procure new the RQ-11B Raven Small UAS and retrofit 
it with digital data link kits. For their UAV programs, the Air Force 
requested $1.1 billion; the Navy and Marine Corps requested $.7 
billion; and the Special Operations Command requested $1.8 billion.

    41. Senator Burris. Secretary McHugh and General Casey, is separate 
research, development, test, and evaluation (RDT&E) and procurement 
necessary?
    Secretary McHugh and General Casey. Separate RDT&E and procurement 
budget lines are necessary, because each Service has different 
requirements for its Unmanned Aerial Systems (UAS). The Army UASs are 
tactical platforms under the direct control of the Combatant Commander 
used to provide immediate, responsive, real-time Reconnaissance, 
Surveillance, Target Acquisition and, if deemed appropriate, attack 
support to influence the current fight. The Air Force uses its UASs to 
provide Intelligence, Surveillance and Reconnaissance information for 
analysis at a strategic level in order to influence future battles. 
Finally, the Navy has its own unique requirements, such as overwater 
operations, and therefore, designs its UASs to operate in a salt water 
environment. Although each Service may manage and develop UASs to meet 
its individual requirements, where appropriate, the Army leverages the 
technologies being developed by the other Services.

                    army national guard and reserves
    42. Senator Burris. Secretary McHugh and General Casey, I applaud 
the level of integration of the ARNG and the Army Reserves into the 
total Army. The Army has carried the lion's share of the OCO missions 
and should be commended. How would you characterize the success of 
their integration and support to the world-wide missions of the Army?
    Secretary McHugh and General Casey. During the last 8 years of war, 
our Reserve component (RC), the Army National Guard (ARNG) and U.S. 
Army Reserve (USAR), has consistently demonstrated its readiness and 
ability to make sustained contributions to ongoing operations. The 
challenges facing the United States today and in the future require the 
employment of the RC as part of a global operational force. To that 
end, we have institutionalized the transformation of the RC from a Cold 
War Era strategic Reserve to an operational Reserve.
    The Army's procurement strategy for the ARNG/USAR is focused on 
modernization on par with the Active component (AC) and in accordance 
with the ARFORGEN model. Over the last 5 years (fiscal years 2006-2010) 
the Army has invested a total of $28.4 billion in ARNG equipping. 
Additionally, over the same 5 years, Congress appropriated an 
additional $4.4 billion for the ARNG in the National Guard and Reserve 
Equipment Appropriation. Much of the equipment from the fiscal year 
2008 and fiscal year 2009 procurements are now emerging from production 
and are being fielded. This filled shortages and modernized equipment 
on hand (EOH)--giving units increased capability, (although readiness 
calculations may not appear to show significant improvement due to a 
concurrent growth in requirements).
    The overall EOH summary by Components at the end of March 2009 was: 
AC 80 percent; ARNG 77 percent; USAR 80 percent. The Army has 
programmed approximately $102.4 billion over the next 5 years to 
address shortfalls and modernize equipment. Based on current 
operational requirements, the Army anticipates bringing the AC to 86 
percent, the ARNG to 83 percent, and the USAR to 81 percent EOH by 
2017. Transforming RC to an Operational Reserve will require the Army 
to develop new policies and make targeted investments in support of 
desired outcomes: efficient delivery of medically ready and trained 
soldiers to RC units; incentives programs to sustain family and 
employer support for the Guard and Reserve; policies for utilization 
and integration of the total force; and investments in RC unit 
management programs and collective training.

    43. Senator Burris. Secretary McHugh and General Casey, do you see 
a need to ask for more funding to cover the costs of full-time manning 
for the National Guard and the Army Reserves?
    Secretary McHugh and General Casey. No. Our Reserve components are 
able to leverage OCOs funding to mitigate war-related demands for 
additional manning.

    44. Senator Burris. Secretary McHugh and General Casey, it appears 
that the majority of the ARNG's portion of the budget request is in the 
OCO and supplemental. Will the baseline request adjust when these two 
budgets are no longer needed?
    Secretary McHugh and General Casey. Yes. The baseline will be 
adjusted when the OCOs and supplemental budgets are not longer needed.

                               recruiting
    45. Senator Burris. Secretary McHugh and General Casey, the fiscal 
year 2011 baseline $43.9 billion Operation and Maintenance request 
funds the recruiting and training the All-Volunteer Force program. Is 
there a study examining the possibility of having one recruiting 
command that serves the needs of the total force vice having three 
separate agencies?
    Secretary McHugh and General Casey. The Army combined the Army 
Reserve and Regular Army recruiting programs in the 1990s, but has not 
taken action to add ARNG recruiting. This is primarily due to the 
authority that the 54 States and territories exercise in determining 
whether an individual will be enlisted in the Guard. There are no 
formal studies examining the possibility of having one recruiting 
command that serves the needs of the total force--Regular Army, Army 
Reserve, and ARNG.

           post-deployment and mobilization respite allowance
    46. Senator Burris. Secretary McHugh and General Casey, the Army 
issued an information paper on February 17, 2010 titled, ``Post 
Deployment & Mobilization Respite Allowance.'' It is my understanding 
that there are over an estimated 20,000 National Guard and Reserve 
soldiers who exceeded their original deployment schedule that are 
eligible to receive post deployment and mobilization respite allowance. 
It is my understanding this process has taken over 3 years, and to 
date, many have not been paid. Can you explain to me how this situation 
occurred and what is the timeline to expeditiously resolve this very 
unfortunate issue?
    Secretary McHugh and General Casey. The National Defense 
Authorization Act for Fiscal Year 2010, Section 604 (Public Law 111-
84), authorized the Service Secretaries to retroactively compensate 
former servicemembers for Post-Deployment Mobilization Respite Absence 
(PDMRA) days earned from January 19, 2007, through the date the 
Military Department implemented the PDMRA program. Under the statutory 
authority, however, the Service Secretaries may provide such benefits 
only in accordance with regulations prescribed by the Secretary of 
Defense. The DOD implementation policy was approved on February 1, 
2010, and the Army began payments on March 1, 2010. We will continue to 
process and pay these claims until all eligible individuals are 
appropriately compensated.

                               diversity
    47. Senator Burris. Secretary McHugh and General Casey, the Army 
has worked hard to advocate a robust diversity program that provides 
opportunities for minorities and women to reach the highest ranks. 
After reviewing your equal opportunity Army strength data, I see that 
the overall number of minorities and women in the ARNG are very scarce 
given that the Army National Guard makes up approximately 35 percent of 
the total force. Is there not enough qualified minorities and females 
officers available in the Army National Guard?
    Secretary McHugh and General Casey. At the national level, four of 
the nine senior positions in the Army National Guard are occupied or 
filled by a female or a minority officer. The percentage of female 
officers in the Army National Guard has continued to increase over 
time. In 1992, 7.8 percent of the Army National Guard officer corps was 
made up of females compared to 12.2 percent at the end of fiscal year 
2009.
    Regarding African Americans, as of fiscal year 2009, 10.2 percent 
of officers in the Active Army were African American, while in the ARNG 
it was 7.9 percent. Although the disparity between the two is not that 
great, there is obvious room for improvement. The ARNG has programs to 
encourage African Americans, as well as other minorities to join the 
Army. These programs apply to officer and enlisted personnel and are 
integral to supporting the overall recruiting mission of the U.S. Army 
Accessions Command.

    48. Senator Burris. Secretary McHugh and General Casey, is there a 
plan to address this disparity?
    Secretary McHugh and General Casey. Although the overall disparity 
is not that great, whatever differences there are may stem from the 
fact that each state looks at its program individually, as does the 
ARNG. Diversity programs vary from State to State based on their 
individual requirements and demographics. The ARNG is considering one 
standardized framework for continuity and measurement purposes. 
Although one blanket set of standards may not work for all states, 
recruiting goals and objectives could be tailored to address these 
areas.
                                 ______
                                 
               Questions Submitted by Senator John McCain
             army to revise requirements generation process
    49. Senator McCain. Secretary McHugh and General Casey, Lieutenant 
General Reno (retired) recently completed an internal study of the 
Army's requirement's generation process, which has not been shared with 
Congress. We understand General Reno's report emphasizes the need to 
make Army requirements realistically reflect resource constraints. This 
would prevent the creation of future requirements which are neither 
technologically nor financially obtainable. Do you agree with General 
Reno's recommendation? Please explain how you plan to make the Army 
requirements process better informed by resource constraints.
    Secretary McHugh and General Casey. In June 2009, Lieutenant 
General (R) William Reno completed the Reforming the Requirements and 
Resourcing Processes in Support of Army Institutional Adaptation study 
known as The Reno Study. The purpose was to recommend methods by which 
the requirements system could be reformed and better aligned with the 
resourcing systems of the Army. The Army intends to deliver The Reno 
Study to the committee in early March.
    I wholeheartedly support LTG Reno's recommendations to improve our 
requirements determination processes. We must continuously improve our 
acquisition model to ensure the Army identifies capabilities that 
provide the best operational capability at the best cost. The Reno 
Study provides several recommendations to incorporate cost-based 
analysis earlier in the Army requirements generation process, which 
will improve decisions on required capabilities informed by life-cycle 
costs and operational risk. The earlier use of analytics to determine 
best value (best capability for best cost) will identify feasible 
alternatives with associated costs across the doctrine, organization, 
training, materiel, leadership and education, personnel and facilities 
(DOTMLPF) domains.
    To implement these recommendations, we are updating our 
requirements determination and programming policies, training analysts 
to conduct cost-benefit analyses and placing them in our Capabilities 
Development and Integration Directorates within the TRADOC, and 
requiring cost-based analysis across the DOTMLPF domains for all new 
requirements submitted to the Department. The culmination of these 
efforts will enable our senior leaders across governance forums to 
weigh choices based on best value and make better-informed decisions.

    50. Senator McCain. Secretary McHugh and General Casey, when will 
this report be provided to the committee?
    Secretary McHugh and General Casey. In June 2009, Lieutenant 
General (R) William Reno completed the Reforming the Requirements and 
Resourcing Processes in Support of Army Institutional Adaption study, 
also known as ``The Reno Study.'' The Army intends to deliver the study 
to the committee in early March. The Army has conducted a detailed 
analysis of the study, and has developed implementation proposals for 
each of its 98 recommendations. The Under Secretary of the Army and the 
Vice Chief of Staff Army are conducting final reviews of these 
proposals.

                 end strength and deployment cycle time
    51. Senator McCain. General Casey, you have put forward the goal of 
increasing dwell time for soldiers so that they spend 2 years at home 
for every 1 year deployed. There are two ways to achieve that goal: to 
reduce our commitments overseas or to increase end-strength. What are 
the budgetary and dwell-time implications of making the temporary end-
strength increase of 22,000 soldiers permanent?
    General Casey. Budget: A sustained 22,000 increase would cost 
$11.15 billion across the Future Years Defense Program (fiscal year 
2012-fiscal year 2017) above the Program Objective Memorandum (POM). 
This cost estimate includes $4.71 billion Operations and Maintenance 
(O&M), $5.67 billion Military Personnel Appropriation Army (MPA) and 
$0.77 billion Medicare Eligible Retiree Health Care Fund, assuming such 
an increase would remain predominantly in grades E1 through E4.
    Dwell: A sustained 22,000 increase above documented authorizations 
would not add any rotational units to the force pool and therefore 
would not have any impact on unit BOG: Dwell ratios. A sustained 22,000 
increase would certainly relieve stress and strain on the force by 
filling our deploying units appropriately, compensate for nondeployable 
soldiers in deploying units, and improve readiness of units throughout 
the Army Force Generation (ARFORGEN) process.

    52. Senator McCain. General Casey, in review of the 2009 QDR, I 
noted that one of the objectives was ``to further rebalance the 
capabilities of the U.S. Armed Forces and institutionalize successful 
wartime innovations to better enable success in today's wars while 
ensuring that our forces are prepared for a complex future.'' The QDR 
went on to assert priorities for the sizing and shaping of the force 
which assumed a range of conflicts and contingencies similar to what 
our Armed Forces are presently facing. Yet the QDR proposed a force 
structure for the Army that is essentially what you currently have, 
without the 22,000 soldiers. In your testimony today, you state that 
``the Army has operated at a demanding pace for the last 8 years and . 
. . the strain has placed the Army out of balance.'' You go on to say 
that ``the campaigns in Iraq and Afghanistan continue to create demands 
that have our Army operating beyond sustainable capacity.'' I see a 
disconnect between your testimony and the results of the QDR. Does the 
QDR's recommendation regarding Army force structure allow the Army to 
meet its goals regarding dwell time given the QDR's defense objectives 
regarding prevailing in today's wars, preparing to defeat adversaries, 
and preserving the force?
    General Casey. The temporary manpower increase of up to 22,000 was 
authorized by the Secretary of Defense to assist with near term manning 
challenges and ensure units are appropriately manned prior to 
deployment. The temporary manpower increase does not include force 
structure and is intended to mitigate the increase in the soldier 
nondeployable rate associated with the current high demand for forces. 
With the upcoming responsible OIF drawdown and the subsequent projected 
demand reduction on the force, the Army views the manning challenge as 
temporary. Therefore, the projected decrease in demand on the 
programmed Army force structure will allow the Army to achieve balance 
by the end of 2011 and meet the rotation dwell time goals given the 
QDR's defense objectives.

    53. Senator McCain. General Casey, have you determined how many 
deployed forces your current force structure levels can sustain to meet 
your goals for dwell time? If so, what is that number?
    General Casey. Our interim goal, only sustainable in the near-term, 
is 2 years at home for every 1-year deployed for the Active Force and 4 
years at home for every 1-year mobilization for the Reserve component. 
At these dwell ratios, the Army can produce a continuous supply of 1 
corps headquarters, 5 division headquarters, 20 BCTs, and about 90,000 
troops worth of enablers.
    Our long-term dwell goal, which we believe is necessary to maintain 
the All-Volunteer Force, is a ratio of three periods at home for each 
period deployed for the Active component, and 5 years for every 1 year 
mobilized for the Reserve component. Our target for achieving this 
long-term goal is 2015. At this dwell ratio, the Army can produce a 
continuous supply of 1 corps, 4 divisions, 16 BCTs, and about 72,000 
troops worth of enablers.

                   readiness of nondeployed readiness
    54. Senator McCain. General Casey, in review of your February 23 
testimony, I note your continued concern that ``presently, and for the 
short term, we lack sufficient strategic flexibility, and we continue 
to accumulate risk.'' This risk is reflected in the quarterly readiness 
reports received by this committee that continue to show severely 
degraded readiness for nondeployed units. I also note that the QDR does 
not propose any initiatives or plans to specifically address the issues 
of the reset or readiness of nondeployed forces in the Army and the 
Marine Corps. In your opinion, why did the QDR not address the issue of 
the readiness status of nondeployed units in the Army?
    General Casey. We will continue to accumulate risk in the near-term 
as we meet requirements for the current campaigns, and we anticipate a 
tough few years ahead in providing sufficient strategic flexibility to 
meet future contingencies. Eight and a half years at war builds latent 
risks; risks that inherently impact soldiers and their families, and 
their equipment.
    The QDR addresses the primary readiness concerns to the Joint 
Force. First, and most importantly, the QDR recognizes the need to 
preserve the All-Volunteer Force and to sustain the health of our 
soldiers, civilians, and their families. Next, the findings clearly 
articulate the importance of managing deployment tempos and associated 
challenges with resetting and reconstituting equipment. These two 
issues directly impact readiness for the Joint Force, and particularly, 
the Army.
    Under the ARFORGEN's cycle, we do not apply a single, standardized 
test of readiness to all units. Instead, different units in different 
phases of ARFORGEN are expected to be at different levels of readiness. 
As an example, ARFORGEN Reset phase is specifically designed without 
any readiness expectations for unit personnel and equipment. Typically, 
it is a 6-month process that systematically restores units--whether re-
deployed or nondeployed--to a level of personnel and equipment 
readiness that permits resumption of training for future missions.
    Reset encompasses those tasks necessary to reintegrate soldiers and 
families, and tasks required to organize, man, equip, and train a unit. 
As units progress from Reset to Train/Ready status, they possess the 
soldiers and equipment required to train to a level of readiness that 
will enable the Army to provide a surge capacity for contingencies. We 
are not able to provide this now, but in the near- to mid-term we 
expect to achieve this capacity and restore our strategic flexibility. 
In the available cycle of ARFORGEN, soldiers and units are at a level 
of readiness to execute assigned full spectrum operations.
    Meeting the requirements of the last 8 years at war, the Army has 
not achieved targeted deployment to dwell ratios creating heightened 
stress to soldiers and their Families. By managing deployment tempos, 
specifically deployment to dwell at home station time ratios, we build 
readiness with predictability and sufficient physical and mental 
recovery time for soldiers and their families. As dwell times at home 
station stabilize and increase in time, individual soldier and unit 
readiness will increase as they train and prepare for the full spectrum 
of military operations.
    As cited in the QDR, DOD is developing policies and initiatives to 
assess the effects of stress to the force, the impact of low dwell 
rates and measures to mitigate the same. Similarly, the Army has 
implemented numerous initiatives to mitigate stressors to soldiers, 
their families, and units. These initiatives, among many others, 
include: the Comprehensive Soldier Fitness Program, the Army Suicide 
Prevention Program, Army Family Action Plan and Warrior Care and 
Transition.
    Reset is essential in maintaining our equipment and Army Pre-
positioned Stocks (APS) readiness. During Reset, we repair or replace 
destroyed, degraded and lost equipment. Although current support 
provides for the full restoration and replacement of all equipment in 
support of operations in Iraq and Afghanistan, success in restoring 
readiness following responsible draw downs in both campaigns will 
depend on reliable, timely and consistent funding to reset the force. 
Of particular importance will be support to our soldier, families, and 
veterans, and restoring the readiness of our equipment and pre-
positioned stocks. The combination of these actions will improve 
readiness in the near- to mid-term.

    55. Senator McCain. General Casey, what do you consider to be an 
acceptable degree of risk for the readiness of nondeployed forces?
    General Casey. The Army mitigates risk to the readiness of 
nondeployed forces by progressively increasing unit readiness as they 
cycle through the ARFORGEN force pools from RESET through Train/Ready 
to the Available force pool.
    The RESET force pool provides a unit time to reintegrate soldiers 
with their Families, receive new personnel, field new equipment, 
conduct individual training, attend institutional training and initiate 
collective training. The Train/Ready force pool progressively increases 
a unit's readiness by completing the fill of personnel shortages, 
fielding equipment, conducting collective training and conducting 
mission readiness exercises to validate unit readiness in meeting 
Combatant Commanders' and Service requirements. Risk decreases as a 
unit progresses from the RESET force pool, without any readiness 
expectations, to the Available force pool.
    Additionally, the Army is establishing ARFORGEN Aim Points to track 
a unit's progression and focus resources to ensure its readiness 
increase. The first Aim Point is when a unit emerges from the RESET 
force pool. The second Aim Point is approximately 45 days before a 
unit's mission readiness exercise. ARFORGEN will generate enough forces 
to meet Combatant Commander and Global Force Management sustained 
demands and to have depth to respond to contingencies.

    56. Senator McCain. General Casey, what are your plans over the 
next 2 years to mitigate this risk?
    General Casey. The Army's plan to reduce risk to the force in the 
near-term is contingent upon achieving sustainable deploy-to-dwell 
ratios, adequately providing for soldiers, civilians, and families, 
resetting our Soldiers and their equipment, and securing reliable, 
timely and consistent funding.
    With your support and no change to known troop requirements the 
Army will reach a deploy-to-dwell ratio of 1 year deployed to 2 years 
at home station for the Active component and one year deployed to 4 
years at home station for the Reserve component in fiscal year 2012, as 
well as begin to move towards our long-term deploy-to-dwell ratios. 
Improving dwell times is critical to preserving the All-Volunteer Force 
as we implement Army initiatives to improve and sustain the health of 
our soldiers and their families, and provide them with a quality of 
life that is commensurate with their service to the Nation.
    We are developing a revised Modernization Strategy to build the 
necessary capabilities required to meet future contingencies while 
balancing capabilities between the Active and Reserve components. 
Continued additional funding above the base budget is critical to 
mitigating risk in the near to mid-term to allow us to reset equipment 
and Army Prepositioned Stocks. This additional funding will be needed 
for several years after completion of operations in Iraq and 
Afghanistan.

    57. Senator McCain. General Casey, based on your plan, when is this 
committee going to see an overall improvement in the readiness of 
nondeployed units as reflected in quarterly reports?
    General Casey. The Army plans to improve readiness by increasing 
dwell times for Army units, reconstituting its Army Prepositioned 
Stocks, and operationalizing the Reserve Component.
    The recent approval of the Army's accelerated Grow the Army plan 
was intended to rapidly improve the unit'' time deployed to time at 
home'' ratio. As dwell time increases, we expect to see sustained 
improvement in the readiness of nondeployed units. The Army is 
continuing to transition the Reserve component to an accessible partner 
of the total operational force and is integrating the ARNG and the U.S. 
Army Reserve (USAR) into the Sustained Sourcing Approach. The Army has 
programmed approximately $102.4 billion over the next 5 years to 
procure shortfalls and modernize equipment, which is anticipated to 
bring the ARNG and USAR to 83 percent and 81 percent Equipment On Hand 
respectively by 2017 based on current operational requirements.
    The current Army procurement strategy for ARNG/USAR is focused on 
modernization and is on par with the active Component in accordance 
with the ARFORGEN model. Integration of the Reserve Component into the 
ARFORGEN cycle better enables Reserve Component employment as part of 
the Joint Force while preserving some ability to expand the scope by 
accelerating availability. With timely and predictable funding, we will 
be able to provide units more of their required equipment earlier in 
the process, not just-in-time for their deployment. This will also help 
us restore the Army's strategic depth and increase our flexibility to 
defend the Nation.

    58. Senator McCain. General Casey, do you believe the funding 
proposed for reset, manning, and training in the fiscal year 2011 
budget and the Future Years Defense Plan will allow you to restore 
readiness of nondeployed units to an acceptable level?
    General Casey. The readiness of nondeployed formations continues to 
be the biggest concern for the Army--it is the foremost concern driving 
the Army's risk assessment for the Chairman. The Army has been at war 
since September 11, and seen sustained growth annually in overseas 
contingencies operations since the end of the Cold War. The fiscal year 
2011 budget will help arrest the continued decline in the readiness of 
nondeployed forces--but will not in and of itself reverse the decline 
in nondeployed readiness. ARFORGEN accepts the proposition that some 
forces are less ready due to their proximity in the deployment cycle. 
Right now, too many nondeployed forces are at degraded readiness 
levels. The readiness of nondeployed forces will not improve to an 
acceptable level (based on ARFORGEN goals) until demand is reduced.

     establishment of an army unit at thomson correctional facility
    59. Senator McCain. Secretary McHugh and General Casey, the OCO 
portion of the President's budget request for fiscal year 2011 includes 
$350 million in a transfer fund for the detention facilities at 
Guantanamo Bay, provides funding to make improvements at the Illinois 
State Prison at Thomson, Illinois, in the amount of $150 million, and 
includes another $158 million for information technology improvements 
at the Rock Island Arsenal, Illinois, to support DOD detainee 
operations at Thomson. The current plan calls for approximately 600-
1,000 permanently-stationed Army personnel to perform duties at Thomson 
with base support provided by Rock Island Arsenal, which is about 60 
miles from the Thomson facility. Do you support the use of Army 
personnel and facilities for this initiative?
    Secretary McHugh and General Casey. The Army is the Executive Agent 
for detainee operations policy, and we are coordinating closely with 
DOD regarding the potential use of the Thomson facility. If DOD assigns 
this task to the Army, we will develop the appropriate personnel 
structure to accomplish this mission to the best of our ability.

    60. Senator McCain. Secretary McHugh and General Casey, does the 
Army have the available manpower authorizations to support this new 
mission?
    Secretary McHugh and General Casey. If OSD assigns the Army this 
task, we will thoroughly review the manpower requirements needed to 
accomplish the mission.

    61. Senator McCain. Secretary McHugh and General Casey, do you 
support the proposal to require Army personnel to commute 60 miles each 
way to work at the Thomson facility?
    Secretary McHugh and General Casey. If the Army was directed to 
perform this mission, the senior commander within the local area has 
the flexibility to establish and define the local commuting area. A 
distance of 50 miles, one way, is normally considered to be within 
reasonable commuting distance of a station, but the 50-mile rule is not 
inflexible.

    62. Senator McCain. Secretary McHugh and General Casey, do you have 
any proposals or plans to mitigate the effects of this dislocation for 
soldiers and their families?
    Secretary McHugh and General Casey. In addition to the senior 
commander's authority to establish and define the local commuting area, 
the Army could accommodate short distance moves within proximity of the 
facility if the Army is directed to perform this mission.

           military construction requirements for afghanistan
    63. Senator McCain. General Casey, the budget request for fiscal 
year 2011 OCO contains $761 million for facilities and infrastructure 
to be constructed in Afghanistan, plus an additional $90 million for 
future planning and design of facilities in Afghanistan. In the 
justification documents provided with the budget request, most of these 
projects are not proposed to be completed until mid-2012, almost a full 
year after the President's announced goal for start of the withdrawal 
of forces. In other words, we may be faced with a scenario where we are 
still constructing facilities at the same time we are withdrawing 
forces. I ask you only because the amounts are requested by the Army. 
Does this make sense to you?
    General Casey. Yes, the Army continues to plan for all scenarios 
and will adjust plans and operations as the situation develops. The 
Afghanistan projects requested in the fiscal year 2011 MILCON base 
program were identified to support CENTCOM's Global Defense Posture 
plan. These projects serve a dual purpose by supporting CENTCOM's 
enduring mission post conflict and contingency operations prior to unit 
drawdown and mission accomplishment. fiscal year 2011 OCO projects 
support current contingency operations. All projects were coordinated 
with CENTCOM and ARCENT with the current timeline taken into 
consideration. Projects will be cancelled or scaled down as needed.

    64. Senator McCain. General Casey, are the proposed dates for 
completion of construction consistent with the President's policies and 
goals?
    General Casey. Yes, we are planning for operational requirements, 
consistent with the administration's policies and goals, beyond 2012.
    In addition, based on the Global Defense Posture Plan, the Army 
will have an enduring presence in Afghanistan and other countries in 
Southwest Asia. Projects in the base budget are required to support the 
enduring force.

    65. Senator McCain. General Casey, should I read in these documents 
the military's plan to maintain forces in Afghanistan long after June 
2011?
    General Casey. Based on the Global Defense Posture Plan, the Army 
will have an enduring presence in Afghanistan and other countries in 
Southwest Asia. Our plans support operational requirements, consistent 
with the administration's policies and goals, beyond 2012.

                    implications of iraqi elections
    66. Senator McCain. General Casey, the U.S. presence in Iraq is 
currently about 96,000 uniformed personnel. General Odierno said 
yesterday that the planned withdrawal of all U.S. combat forces by the 
end of August 2010 could be delayed if conditions worsen in the coming 
months as Iraqis choose a new government. Should the Iraqi elections 
scheduled for March 7 be postponed, will the Army be capable of 
sustaining the necessary forces in Iraq while fulfilling the 
requirements of the troop increase in Afghanistan?
    General Casey. All indications are the elections are going to take 
place as planned.

                        equipment and readiness
    67. Senator McCain. General Casey, with regard to excess military 
equipment, specifically Class II, VII, and IX, currently located in the 
Southwest Asia theater, what specific steps is the Army taking to 
return excess equipment to nondeployed Army units?
    General Casey. This question requires a two part answer:
    First, with regard to excess Class II (general supplies) and IX 
(repair parts), we will retrograde our serviceable stocks, and 
redistribute them throughout the Total Army (to include Army 
Prepositioned Stocks (APS)). The items may be redistributed to 
Afghanistan, APS and other War Reserve requirements, as well as used to 
offset the routine resupply of Army units worldwide.
    Second, regarding excess Class VII (end items), our first priority 
for materiel, which is not needed, is redistribution to satisfy 
requirements in Afghanistan. If not needed there, it will redeploy to 
the Continental United States, be Reset, and redistributed to 
nondeployed units. The Army will use its Army's Resourcing Priorities 
List to determine the distribution of this equipment. If not needed 
within the Army anywhere, these items will be offered to Foreign 
Military Sales customers as Excess Defense Articles, or will be 
disposed of by the Defense Reutilization and Marketing Service. Excess 
non-standard gear no longer needed by the Army will be offered to U.S. 
State and local governments, subject to their willingness to pay 
transportation costs to return the items to the United States.

    68. Senator McCain. General Casey, how is equipment that was rushed 
to Iraq, like MRAP vehicles, being incorporated into the Army's vehicle 
fleet?
    General Casey. The Army has developed a predecisional allocation 
plan for MRAPs as they return from theater. This plan was briefed to 
Army senior leaders and is undergoing revision based on guidance to 
conduct a detailed cost benefit analysis. The results will be presented 
to Army senior leaders the end of March 2010. Other pieces of non-
standard equipment that have been acquired to meet operational 
requirements are being reviewed through the Non-Standard Equipment 
(NSE) disposition process. As a part of the NSE disposition process, 
selected NSE items that have potential to become enduring capabilities 
will be sent through the Capabilities Development for Rapid Transition 
(CDRT) process for additional detailed analysis. These processes use 
wartime lessons learned and other inputs to determine if equipment 
procured through non-traditional means should be incorporated into the 
Army's long term force structure. If it is determined a piece of 
equipment should be retained, a capabilities document is developed to 
assist in the documentation of the structure, manning, training and 
sustainment (including base budget) as the first step in the formal 
process of becoming an acquisition program or being incorporated into 
an existing acquisition program.

    69. Senator McCain. General Casey, have these vehicles been placed 
on units' property books?
    General Casey. Yes, as the Joint Program Office issued MRAP 
vehicles to units in theater, they were placed on unit property books. 
Moreover, last year U.S. Army Central directed units in theater to 
conduct 100 percent inventories to ensure all equipment (including MRAP 
vehicles) appeared in our automated property book system, which 
provides both accountability and visibility. We will continue to focus 
on property accountability at every level during the drawdown in Iraq.

    70. Senator McCain. General Casey, the President's 2011 budget 
request ends production of the Humvee line of vehicles. In many 
instances Humvees are no longer the preferred transport in theater, 
having been supplanted by more heavily protected vehicles, like MRAPs. 
When does the Army intend to finalize a tactical wheeled vehicle 
strategy?
    General Casey. The Army originally developed an overarching 
tactical wheeled vehicle (TWV) strategy in 2009. This strategy takes 
maximum advantage of existing platforms; plans for the integration of 
MRAP into the fleet; emphasizes a mixed fleet approach that spans the 
``Iron Triangle'' of protection, payload and performance; and moves the 
Army to a fleet of scalable protection. Additionally, we published a 
TWV investment strategy on 30 October 2009.
    We are currently working the latest updates to the strategy as part 
of our POM 12-17 submission. This work includes the ongoing TRADOC MRAP 
and TWV studies to determine the feasibility of adjusting the fleet 
mix. This will inform long-term life cycle management decisions and 
future investment strategies.

            don't ask, don't tell homosexual conduct policy
    71. Senator McCain. General Casey, in recent testimony before this 
committee the Chairman of the Joint Chiefs of Staff, Admiral Mullen, 
stated his personal view that the current Don't Ask, Don't Tell (DADT) 
policy on homosexual conduct should be repealed. You testified on 
February 23, 2010, to the effect that you are not ready to endorse 
elimination of the DADT policy and that you want to first see the 
results of the high level review that Secretary Gates has ordered 
before you provide advice on this. Do you agree with the proposition 
that some have advanced that the decision to repeal the DADT policy has 
already been made by the President as Commander in Chief and that the 
only reason for the review and delay is to formulate a plan for 
implementation?
    General Casey. In his State of The Union Address on 27 January 
2010, President Obama indicated an intention to ``work with Congress 
and our military to finally repeal [10 U.S.C. Sec. 654]. . . . `` 
Secretary Gates stated, ``[t]o ensure that the department is prepared 
should the law be changed, and working in close consultation with 
Admiral Mullen, I have appointed a high-level working group within the 
department that will immediately begin a review of the issues 
associated with properly implementing a repeal of the ``Don't Ask, 
Don't Tell' policy.'' Therefore the reason for the review is to 
identify issues associated with the proper implementation of a repeal 
of DADT, should Congress act to change the law.

    72. Senator McCain. General Casey, what do you view as the purpose 
and utility of the high level review?
    General Casey. At the direction of the Secretary of Defense, the 
Army is participating in an OSD Task force to determine the potential 
impact of a repeal of 10 U.S.C. Sec. 654 to military readiness, 
military effectiveness and unit cohesion and how to best manage any 
noted impact during implementation if the law is ultimately changed. 
The review will assess servicemember views and attitudes concerning 
Don't Ask Don't Tell and will determine what changes to Service 
regulations and policies may be necessary in the event that the current 
law is repealed.

    73. Senator McCain. General Casey, do you personally hold open the 
possibility that you will review the outcome of the high level review 
and determine that the DADT policy should remain in effect and not be 
changed?
    General Casey. The finding of the high-level review will certainly 
inform my opinion as to whether and how the DADT policy should be 
changed. However, the ultimate decision remains with Congress.

    74. Senator McCain. General Casey, is it your understanding that 
the DADT policy lawfully cannot be repealed or ignored, despite the 
President's preferences, and that openly gay soldiers must continue to 
be processed for separation until Congress repeals or modifies section 
654 of title 10, U.S.C.?
    General Casey. The Army's policy on homosexual conduct implements 
DOD policy and Federal Law. DOD policy implements 10 U.S.C. Sec. 654 
and applies to all branches of the Armed Forces. Due to current law and 
governing policy, when a soldier has violated the homosexual conduct 
policy, the commander must initiate separation procedures.

    75. Senator McCain. General Casey, in your view, has the DADT 
policy since 1993 affected the Army's military readiness negatively or 
positively?
    General Casey. Under the current homosexual conduct policy, the 
Army continues to accomplish the mission of providing trained and ready 
forces in support of the combatant commanders.

    76. Senator McCain. General Casey, how would repeal of the current 
law, in your judgment, affect recruiting and retention in the Army?
    General Casey. The OSD Task Force study will help determine the 
impact of repealing the current law on recruiting and retention. If any 
impacts are identified and Congress changes the law, the Army will take 
appropriate actions to address any effects on our recruiting and 
retention programs.

    77. Senator McCain. General Casey, has the current law and DADT 
policy hindered the ability of the Army to increase its end strength in 
recent years?
    General Casey. The current law and ``Don't Ask Don't Tell'' policy 
has not negatively impacted the Army's ability to increase end 
strength. The Army has enjoyed tremendous success in meeting the end 
strength goals and is ahead of schedule (resulting in end strength of 
543,645 for fiscal year 2008). The Army met the fiscal year 2010 end 
strength goal of 547,400 in January 2009. As a result of meeting the 
end strength growth early, the Army currently has enough enlisted 
soldiers to fill all the current authorizations, which helps to 
mitigate the stress of the high operational pace. The current fiscal 
year 2010 end strength projection is 563,543 compared to our targeted 
end strength of 562,400, which includes a 15,000 temporary end strength 
increase. This success is based on both our recruiting and retention 
programs.

    78. Senator McCain. General Casey, in his testimony on February 2, 
Admiral Mullen was clear that the Joint Chiefs have not yet developed 
their best military advice about the impact of a repeal of the DADT 
policy or the manner in which a change would be implemented. However, 
many in Congress intend to move quickly through legislation to repeal 
the law as quickly as possible, including imposition of a moratorium on 
administrative separations while the high level review proceeds. Do you 
support legislative change to the current policy before the Chiefs have 
formulated their advice?
    General Casey. The military must look hard at how a new policy 
would be implemented and address any issues in the Armed Services that 
may result from a repeal of the current law. It is important to have 
accurate data on how soldiers and their families feel about 
implementing a new policy. Because a moratorium would complicate the 
process laid out by Secretary Gates, I would object to a moratorium 
until the Services have a clearer picture.

    79. Senator McCain. General Casey, what is the basis for your 
objection to a congressionally-mandated moratorium on separations of 
openly gay servicemembers under the DADT policy?
    General Casey. It would complicate, and in some respects, undermine 
the whole process that Secretary Gates had laid out. The practical 
impact of a moratorium would be the same as the repeal of the current 
law. We would be put in a position of actually implementing a 
``repeal'' while we were studying the potential impacts of implementing 
a repeal.

                   role of the joint chiefs of staff
    80. Senator McCain. General Casey, Admiral Mullen is the principal 
military adviser to the President and the Secretary of Defense, but 
under law, he must consult and seek advice from the other members of 
the Joint Chiefs of Staff and the combatant commanders. Have you been 
given adequate opportunity to state your views to date?
    General Casey. Yes. The Chairman, Vice Chairman and Service Chiefs 
meet regularly to discuss issues and collectively make decisions.

               high level review of don't ask, don't tell
    81. Senator McCain. Secretary McHugh and General Casey, on February 
2, Secretary Gates testified that a high-level working group within DOD 
will review the issues associated with properly implementing a repeal 
of the DADT policy. Part of this review, he testified, will be to reach 
out to authoritatively understand the views and attitudes of the force. 
Please explain what steps the Army has been asked to take in order to 
implement the President's direction to ``begin the preparations 
necessary for repeal of the current law and policy.''
    Secretary McHugh and General Casey. The Army fully supports the 
working group established by Secretary Gates. General Carter Ham, 
Commander, U.S. Army Europe, was selected as the co-chair of the 
working group. It is my understanding that the group will seek input 
from across the Army regarding the views and attitudes of the force 
concerning changing the law and the current DADT policy. The group is 
also expected to review the regulations used to implement the current 
policy to determine if there are different ways to enforce existing 
polices. Finally, the Army has ensured full participation in the 
working group by assigning officers and enlisted personnel in the 
specialties requested.

    82. Senator McCain. Secretary McHugh and General Casey, is it 
correct that the actions the Secretary of Defense has directed are 
intended to strengthen the argument for repeal of existing law?
    Secretary McHugh and General Casey. The actions directed by the 
Secretary of Defense are intended to ``objectively and methodically 
examine all aspects of this question, and produce its findings and 
recommendations'' by the end of this calendar year.

    83. Senator McCain. Secretary McHugh and General Casey, what 
difference will it make, if any, in DOD planning if a significant 
proportion--say 50 percent--of servicemembers and their family members 
register objection to a change in the policy?
    Secretary McHugh and General Casey. The views of soldiers and Army 
families will be relevant to our assessment of the potential impact 
that a repeal of the current law may have on military readiness, 
military effectiveness and unit cohesion. DOD policy implements 10 
U.S.C. Sec. 654, which applies to all branches of the Armed Forces. If 
the existing law is changed, the Army will comply with the new law and 
resulting DOD policy. We will deal with this issue with the same 
professionalism that has marked our conduct during this war and that 
has been a hallmark of this institution for 234 years.

    84. Senator McCain. General Casey, according to data provided by 
the Services and DOD, the number of discharges for homosexual conduct 
has consistently been far less than 1 percent, compared to discharges 
for other reasons. The Congressional Research Service concluded that 
most discharges occur among younger, less experienced personnel. How 
many soldiers have been discharged since September 11, 2001, for 
violating DADT?
    General Casey. The total number of Army Homosexual Conduct 
discharges from fiscal year 2001 through fiscal year 2009 (9 years) is 
3,211.

------------------------------------------------------------------------
                  Fiscal Year
------------------------------------------------------------------------
2001..........................................                      627
2002..........................................                      433
2003..........................................                      378
2004..........................................                      325
2005..........................................                      386
2006..........................................                      280
2007..........................................                      303
2008..........................................                      284
2009..........................................                      195
------------------------------------------------------------------------


    85. Senator McCain. General Casey, does that number adversely 
affect the readiness of the Army?
    General Casey. As Chief of Staff of the Army, I am focused on my 
Title 10 responsibilities of preparing and sustaining an Army at war. 
That number of soldiers separated for violating the homosexual conduct 
policy since September 11, 2001, has not affected the readiness of the 
Army as we have accomplished the mission of fighting and winning this 
nation's wars.

                   medium extended air defense system
    86. Senator McCain. General Casey, the Medium Extended Air Defense 
System (MEADS) is the Army's follow-on program to the Patriot missile 
system. It is being co-developed by the United States (funding 58 
percent), Germany (25 percent), and Italy (17 percent). MEADS is 
designed to provide 360-degree coverage and protect against short-range 
ballistic missiles, cruise missiles, UAVs, and aircraft. In their most 
recent assessment of MEADS, the Government Accountability Office (GAO) 
determined that many critical technologies have not matured since 
development started in 2004 and will not be fully mature until the 
production decision in 2012. During the program's preliminary design 
review (PDR) in 2008, it was determined that this program carried 
excessive risk and that at least an additional $1 billion and more time 
would be needed prior to Critical Design Review, which is now scheduled 
for August this year. What steps are being taken to ensure that the 
program stays within budget and schedule?
    General Casey. As an international cooperative program, the 
overarching decision body for MEADS is the National Armaments 
Directorate. The representatives or National Armaments Directors are 
senior defense officials of partner nations. The U.S. National 
Armaments Director is the Defense Acquisition Executive (DAE). Program 
direction and oversight is being migrated from a Joint Steering 
Committee to a more senior tri-national Board of Directors (BOD). The 
senior U.S. member of the BOD is OSD for Acquisition, Technology, and 
Logistics (OSD-AT&L), The Office of Portfolio Systems Acquisition (PSA) 
and is supported by the Army Acquisition Executive.
    In an effort to contain costs and reduce program risks, the 
National Armaments Directors agreed to pursue a rebaseline of the 
original 110 month program. This would extend the Design and 
Development program by up to 24 months. The nations are awaiting the 
response to the proposal for the rebaselined program. Based on the 
direction of the BOD, the North Atlantic Treaty Organization MEADS 
Management Agency General Manager is conducting cost reviews and the 
OSD-Cost Assessments and Program Evaluation is conducting an 
independent cost estimate of the rebaselined program. Preliminary 
projections indicate the extended program will add at least $700 
million in cost to the U.S. over the remainder of the Design and 
Development (D&D) program. Several changes are being sought to adjust 
the program. We acknowledge the schedule and cost growth and are 
discussing additional steps with the international partners to address 
the cost and schedule changes in the upcoming years. The OSD-AT&L is 
the lead for these international negotiations for the Department, so I 
will defer to OSD-AT&L for a current status of those negotiations.

    87. Senator McCain. General Casey, given the international 
collaboration associated with MEADS, is it true that this program is 
exempt from traditional DOD acquisition regulations? If so, was or is 
MEADS in risk of breaching Nunn-McCurdy?
    General Casey. The International (North Atlantic Treaty 
Organization (NATO)) MEADS Program is exempt from DOD 5000 Regulations. 
It is governed by the negotiated tri-national Memorandum of 
Understanding (MOU). The International MEADS program is executed by a 
NATO agent, NATO MEADS Management Agency, which complies with the MOU 
and NATO rules and regulations.
    As part of the normal stewardship of our funds, we assess the 
program against typical program metrics, such as procurement and total 
program unit costs as used in Nunn-McCurdy evaluations, as well as 
requiring program documentation similar to those required by DOD 5000 
(e.g. test plans, cost documents, etc.). Based on available estimates, 
the U.S. MEADS current program assessments are within Nunn-McCurdy 
thresholds. The department will have a more precise assessment at the 
conclusion of the OSD Cost Assessments and Program Evaluation's Cost 
Assessment.

    88. Senator McCain. General Casey, is the Army looking at any 
alternatives to a follow-on system for Patriot?
    General Casey. The Army is continuing to program and plan for the 
MEADS as a replacement for Patriot.

                         humanitarian missions
    89. Senator McCain. General Casey, what effect will continuing 
humanitarian operations in Haiti have on the Army's continuing missions 
in Afghanistan and Iraq, or the ability to respond to contingencies 
around the world?
    General Casey. Assuming force requirements do not increase, 
continuing humanitarian operations in Haiti should have little or no 
effect on the Army's continuing missions in Afghanistan and Iraq, or 
the ability to respond to contingencies around the world. It is 
anticipated units supporting Haiti operations will be redeployed with 
sufficient time for reset and train-up for scheduled future 
deployments.

    90. Senator McCain. General Casey, what is the Army's understanding 
of the duration, personnel, and equipping requirements in response to 
the continued humanitarian mission to Haiti?
    General Casey. Duration - Our understanding of the duration of the 
humanitarian mission is that units will remain in place until relieved. 
The mission will not impact operations in Afghanistan or Iraq.
    Personnel - Units are currently transitioning based on U.S. 
Southern Command (SOUTHCOM) timeline.

        <bullet> U.S. Army South (USARSO) is assuming command and 
        control of Joint Task Force (JTF) Haiti, from 18 Airborne 
        Command Post (ACP), not later than 15 Mar 2010. 18 ABC ACP is 
        redeploying and will return to home station.
        <bullet> 2/82 Airborne (ABN) is redeploying and will return to 
        home station by end of Mar 2010. There is no requested backfill 
        for 2/82 ABN. FORSCOM projects 2/82 ABN will assume GRF mission 
        on or around 01 Apr 2010.
        <bullet> 377 Theater Support Command (TSC) replaced the 3rd 
        Expeditionary Support Command (ESC) Headquarters on 06 Mar 
        2010.

    Equipping - Units deployed to Haiti with organic equipment. 
Equipment will not be left behind unless directed by Command Authority.

    91. Senator McCain. General Casey, how is the Army preparing to 
deal with future disaster relief missions, to include assisting 
partners to better prepare for these regional and global responses?
    General Casey. The Civil-Military Emergency Preparedness program, 
which was created at the inception of the Partnership for Peace program 
in 1994, is the Army's primary means to assist partner nations in 
enhancing their disaster preparedness and response capacities. 
Annually, this program conducts bilateral and regional events that 
support DOD and Army security cooperation objectives by enhancing 
civil-military cooperation and building our partners' capacity to 
respond to both natural and manmade disasters.
    In fiscal year 2009, the program, which is funded by DOD and 
managed by Headquarters, Department of the Army, conducted 23 events 
with 14 countries using a budget of $1.4 million. In fiscal year 2010, 
the Army plans to conduct 32 events in 16 countries including support 
to U.S. Africa Command's emergency response events using a $1.8 million 
budget. Recently, the program developed a new global assessment tool 
called Providing International Disaster Emergency Support, or ProvIDES, 
which quantitatively assesses a nation's capabilities and capacity to 
establish requirements for enhancing effectiveness across all phases of 
preparedness and response.
    Additionally, the Army assists partners with disaster preparedness 
through security cooperation activities executed by the Army Service 
Component Commands as well as through programs at the Army Medical 
Command and the Western Hemisphere Institute for Security Cooperation 
(WHINSEC). Of note, since 2007 a total of 13 students from Chile have 
participated in disaster preparedness training at WHINSEC.

                      mid-level officer shortfalls
    92. Senator McCain. Secretary McHugh and General Casey, the 
committee heard outside testimony last year that the Army is projected 
to experience a shortfall of approximately 3,000 captains and majors 
until at least 2013. Please describe the current status of this 
shortfall, its impact, and the Army's mitigation efforts.
    Secretary McHugh and General Casey. The Army's current officer 
shortages stem from force structure growth designed to support the 
development of additional capabilities needed to meet emerging threats 
in our OCOs. Based on this growth, we project the Army will be short 
over 4300 captains and majors (across all officer competitive 
categories) through fiscal year 2010, with the shortage dropping to 
about 2900 in fiscal year 2011. We project the Army will be 
specifically short approximately 3800 Army Competitive Category (ACC) 
captains and majors through fiscal year 2010, with the shortage 
dropping to about 2700 in fiscal year 2011. The Army expects to be 
above full strength for captains in aggregate for fiscal year 2013 and 
beyond.
    A shortage of 1,000-1,300 (10 percent-12 percent) ACC majors will 
continue from fiscal year 2011 through fiscal year 2013, and we will 
remain short 1,900-2,200 (10 percent-12 percent) majors across all 
competitive categories during the same time period. The Army will not 
be able to eliminate the major shortage in the foreseeable future, but 
can ease its effects by using captains to fill certain major vacancies 
after fiscal year 2012.
    Examples of measures taken to mitigate captain and major shortages 
include the following: increasing Regular Army accessions to 5500 by 
the end of fiscal year 2010; Reserve Component calls to active duty 
(over 1500 to date); and the use of ``Blue-to-Green'' inter-Service 
transfers (over 500 to date). The Army is also implementing high 
promotion rates to both captain and major (including 2 years below-the-
zone eligibility for selection to major). We will work to lower these 
rates gradually to allow additional opportunities to differentiate 
exceptional performers. We are also slowly increasing promotion ``pin-
on'' points for lieutenants and captains as our personnel inventories 
become more healthy.
    The Army is also using incentives to help mitigate our shortages of 
captains and majors. We offered the Captains' Retention Menu of 
Incentives in September 2007 through March 2009 with a goal of 
retaining and managing critical skills in officers to complete the 
Army's modularity conversion. As a result of this program, the Army 
increased captain retention through fiscal year 2011 for over 16,000 of 
the 23,000 captains, who were eligible to participate. We have also 
continued to use the pre-commissioning Officer Career Incentive 
Program, first implemented in fiscal year 2006. By adding 3 guaranteed 
years of active service to the initial obligations of officers 
commissioned through USMA and ROTC programs, this program has increased 
retention at the 8th year of service from a historical 47 percent to 
between 62 percent and 69 percent.

               brigade combat team modernization program
    93. Senator McCain. General Casey, this year's budget request 
continues work begun under Future Combat Systems (FCS) with a multi-
billion dollar request for the Army's BCT Modernization program, which 
includes the Early Infantry BCT (E-IBCT) component. The Director of 
Operational Test and Evaluation (DOT&E) reported in February 2010 that 
``all E-IBCT systems require further development before fielding,'' 
that E-IBCT systems ``demonstrated reliability well below user 
requirements,'' and that the ``systems [tested] were not in the same 
configuration as the systems intended for purchase.'' Under Secretary 
of Defense for Acquisition, Technology, and Logistics [USD (AT&L)] 
Carter recently approved the Army's request to move E-IBCT into Low 
Rate Initial Production (LRIP), but said that ``testing has identified 
large reliability shortfalls'' and that the Army lacks ``a clear 
operational perspective of the value'' of these systems in their 
current form. Why is the Army moving ahead with LRIP of the E-IBCT set 
of systems, when they have not met important reliability goals?
    General Casey. The Army has just entered year 3 of a 4-year test 
cycle for Increment 1 capabilities. The Army will not field any new 
equipment until system performance is sufficient to satisfy the 
capability requirements of the warfighter. Given our desire to get E-
IBCT capabilities into the hands of soldiers as soon as possible, 
Increment 1 employs an extensive developmental and operational test 
program. This will culminate with one brigade set of low rate initial 
production equipment being tested as part of initial operational test 
and evaluation in 2011. The ``test-fix-test'' strategy we are utilizing 
has allowed the program to continuously mature hardware models and 
software as it progresses through the development process. One key 
element of this strategy has been the use of the Army Evaluation Task 
Force. Comprised of combat veterans, these soldiers evaluate all of the 
E-IBCT equipment and provide invaluable feedback to the program which 
permits continual improvement to these systems.
    In 2009, the second year of warfighter tests, results indicated 
that Reliability, Availability and Maintainability scores fell short of 
their requirements. The Army has implemented an aggressive reliability 
growth plan that has identified 100 percent of the root causes. To 
date, 98 percent of the known failures have been corrected and are 
implemented for Limited User Test 10.
    As directed in the December 2010 Acquisition Decision Memorandum, 
the Program Office will report to the OSD the results of these tests, 
which will factor into approval to proceed with production and fielding 
plans.

    94. Senator McCain. General Casey, how does the Army intend to 
mitigate E-IBCT developmental delays?
    General Casey. Increment 1 equipment and software has undergone 
robust testing and evaluation. All programmatic milestones including 
Preliminary Design Review (PDR) and Critical Design Review (CDR) have 
been met and approved through a series of Defense Acquisition Board 
reviews and decisions ultimately leading to a Low Rate Initial 
Production (LRIP) decision in December 2009.
    Soldiers are part of a 4-year test and evaluation process. Early in 
development the Army made the decision to deliver pre-production 
equipment and network components to the Army Evaluation Task Force to 
allow soldiers to test and evaluate the systems. Resultant soldier 
feedback has played a key role in optimizing design throughout the 
development phase leading to better product design. Increment 1 
capabilities are only now in their third year of the pre-planned 4-year 
test cycle.
    OSD has asked the Army to report on the progress at the end of the 
second year as these capabilities move through the 2010 test cycle. The 
Army is required to report test and evaluation plans, risk mitigation 
strategies and test and evaluation results at two Defense Acquisition 
Board meetings in April 2010 and December 2010. These reviews will 
shape the path ahead for the LRIP of the Early Infantry BCT (E-IBCT) 
equipment sets 2 and 3.
    The Increment 1 LRIP decision was based on sound acquisition 
processes and multiple reviews/tests/evaluations of hardware and 
software. Production will be intensely managed and will allow for 
adjustments to be made in the LRIP stage as additional test results are 
finalized. Such an incremental process will allow for technological 
upgrades and refinements even during the fielding process.
    The Government's interests are protected through a series of 
established decision points.

    1.  Milestone C for Increment 1 in December 2009 authorized 
acquisition of the first E-IBCT set of equipment. This decision was 
supported by results from 2009 test cycle (year 2 of 4) and DODI 5000.2 
Statutory and Regulatory requirements.
    2.  Limited User Test 2010 (year 3 of 4) assessment and breakout 
decision review is scheduled for December 2010. This review evaluates 
year 3 of 4 test and evaluation results plus risk mitigation plans 
prior to authorization for the final two LRIP E-IBCT sets of equipment. 
Finalization of the Full Rate Production (FRP) plan will also occur.
    3.  A FRP decision for the additional six E-IBCT sets of equipment 
will occur in December 2011using all 4 years of test results. This 
decision will be supported by the fiscal year 2011 (year 4 of 4) 
testing including the Initial Operational Test and Evaluation 
demonstrating that Increment 1 production units are operationally safe, 
effective, suitable, and survivable.

    95. Senator McCain. General Casey, what are the advantages of 
developing and procuring E-IBCT spin-out increments together under one 
contract?
    General Casey. The development effort and the procurement effort 
are being acquired as two separate contracts. For clarification 
purposes, there is only one planned spin out of the Early-Infantry 
Brigade Combat Team (E-IBCT) capability. The Army, as directed by the 
Milestone Decision Authority, is planning on two spin out programs 
called increments. The Increment 1 E-IBCT program will field capability 
to nine E-IBCTs and the Increment 2 program will field additional 
capability to thirty-one IBCTs. The Increment 1 capability is 
completing development under a cost-reimbursable development contract 
(restructured from the former Future Combat Team Program). The 
Increment 1 capability (systems) is being procured as an integrated set 
for fielding to the E-IBCT under a separate fixed-price low-rate 
initial production contract.

    96. Senator McCain. General Casey, what would be the advantages or 
disadvantages of incrementally upgrading E-IBCTs using multiple, 
smaller contracts?
    General Casey. For clarification purposes, there is only one 
planned spin out of the Early Infantry Brigade Combat Team (E-IBCT) 
capability. A follow-on incremental capability is under development for 
the Infantry Brigade Combat Team (IBCT).
    For purposes of responding to this question it is assumed that 
``multiple, smaller contracts'' as used in this question refers to 
platform level versus integrated system of systems performance 
contracts.
    Upgrading E-IBCTs using multiple, smaller contracts shifts overall 
IBCT performance and schedule risk to the Government, which may or may 
not be acceptable depending on the lifecycle phase. Breaking out 
performance accountability across multiple contracts makes the 
Government responsible for integrated performance versus the 
contractor. Prior to completion of integrated operational test and 
evaluation, this risk was determined unacceptable for E-IBCT given the 
magnitude of cost and schedule impacts associated with managing and 
fixing component (platform) deficiencies to meet the integrated 
specification. Under a single contractor, that contractor is 
responsible for meeting the integrated performance and, therefore, 
responsible for any deficiency. Furthermore, if each platform is being 
developed or enhanced under separate contracts, the Government becomes 
responsible for coordinating the timely delivery of each platform. 
Should effort under one platform fall behind schedule then it could 
become grounds for Government caused delay and equitable adjustment 
entitlement claims by contractors performing on the other contracts.
    Post fielding, the advantage to using multiple contracts for 
upgrade efforts is greater flexibility and insight in making platform 
specific changes. The disadvantages of using multiple contracts are 
contracting and administrative staffing needs substantially increase to 
accommodate the award and monitoring of multiple contracts. 
Additionally, contracts for associated E-IBCT systems may be impacted 
by each platform change which would have to be contractually addressed.

         internal threats to army personnel and their families
    97. Senator McCain. General Casey, in January 2010, an independent 
panel appointed by Secretary Gates to identify gaps or deficiencies in 
DOD force protection policies following the horrific killing of 12 
servicemembers, 1 Army civilian, and the wounding of 43 others at Fort 
Hood, TX, on November 5, 2009, concluded that DOD was inadequately 
prepared to address internal threats. Do you agree with that finding?
    General Casey. The independent review chaired by Former Army 
Secretary Togo West and retired Navy Adm. Vernon Clark identified 
shortfalls in DOD's procedures for identifying and responding to 
potentially dangerous internal threats.
    I agree with their assessment and concur with Secretary Gates' view 
that, as a result of the shortcomings revealed by the Fort Hood 
tragedy, DOD must do more to adapt to the evolving domestic internal 
security threat to American troops and military facilities that has 
emerged over the past decade.

    98. Senator McCain. General Casey, what actions have you taken 
since the killings at Fort Hood to assess the specific threats posed by 
violent extremism to U.S. Army personnel and their families?
    General Casey. On 23 November 2009, the Army issued an All Army 
Action message on Force Protection (DTG 231751ZNov 09). The message 
directed the immediate review of force protection measures to identify 
potential insider threats and to prevent or mitigate acts of violence 
directed against the Army.
    The message tasked Army leaders to become familiar with the ten key 
indicators of terrorist activities and to use them in conjunction with 
Subversion and Espionage Directed Against the Army (SAEDA) training. It 
also directed leaders to engage their soldiers and know their behavior 
on and off duty, to train leaders in identifying indicators of 
potential violence and terrorist behavior and to identify and report 
soldiers exhibiting indicators of potential violence. The message 
tasked senior leaders to ensure compliance with existing privately 
owned weapons registration policies, ensure leaders emphasize SAEDA 
training and ensure soldiers know how to report those suspected of 
subversion and espionage. Leaders are to take appropriate actions 
wherever soldiers exhibit behaviors that adversely affect good order 
and discipline in the Army.
    In addition, the message tasked mission commanders and installation 
commanders to perform risk assessments of their installations and to 
consider detailing, on a routine but random basis, law enforcement 
officials to observe behavior at primary gathering places like 
commissaries, schools and hospitals. It directed them to increase 
community oriented policing programs, review and adjust Random 
Antiterrorism Programs, and revitalize Neighborhood Watch Programs. The 
message also tasked installation commanders to coordinate information 
sharing between local civilian and installation law enforcement 
officials so commanders receive feedback on off base activities.
    My office is reviewing the findings and recommendations of the DOD 
Independent Review of the Fort Hood Shootings, and, where appropriate, 
is in the process of implementing many of the recommendations, in 
accordance with Army policies and processes.

    99. Senator McCain. General Casey, what actions have you taken to 
reduce the risk that internal threats driven by violent extremism will 
result in harm to U.S. Army personnel and their families, such as 
improved awareness and reporting programs?
    General Casey. On 23 November 2009, the Army issued an All Army 
Action message on Force Protection (DTG 231751ZNov 09). The message 
directed the immediate review of force protection measures to identify 
potential insider threats and to prevent or mitigate acts of violence 
directed against the Army.
    The message tasked Army leaders to become familiar with the ten key 
indicators of terrorist activities and to use them in conjunction with 
Subversion and Espionage Directed Against the Army (SAEDA) training. It 
also directed leaders to engage their soldiers and know their behavior 
on and off duty, to train leaders in identifying indicators of 
potential violence and terrorist behavior and to identify and report 
soldiers exhibiting indicators of potential violence. The message 
tasked senior leaders to ensure compliance with existing privately-
owned weapons registration policies, ensure leaders emphasize SAEDA 
training and ensure soldiers know how to report those suspected of 
subversion and espionage. Leaders are to take appropriate actions 
wherever soldiers exhibit behaviors that adversely affect good order 
and discipline in the Army.
    In addition, the message tasked mission commanders and installation 
commanders to perform risk assessments of their installations and to 
consider detailing, on a routine but random basis, law enforcement 
officials to observe behavior at primary gathering places like 
commissaries, schools and hospitals. It directed them to increase 
community oriented policing programs, review and adjust Random 
Antiterrorism Programs, and revitalize Neighborhood Watch Programs. The 
message also tasked installation commanders to coordinate information 
sharing between local civilian and installation law enforcement 
officials so commanders receive feedback on off base activities.
    My office is reviewing the findings and recommendations of the DOD 
Independent Review of the Fort Hood Shootings, and, where appropriate, 
is in the process of implementing many of the recommendations, in 
accordance with Army policies and processes.

    100. Senator McCain. General Casey, what actions have been taken to 
improve the application of military personnel evaluation policies with 
respect to medical personnel, and to hold accountable supervisors who 
fail to report substandard performance?
    General Casey. We are currently in the process of reviewing our 
evaluation reporting systems including leader counseling and 
development, roles and responsibilities of rating officials, and the 
synchronization of evaluation report assessments with the 
identification and selection of qualified leaders. Insights from 
investigations into the Fort Hood tragedy are being carefully 
considered in our review.

                           army suicide study
    101. Senator McCain. Secretary McHugh, in July 2009, the Department 
of the Army launched a $50 million study by the National Institute of 
Mental Health on Army suicides. The study is reportedly designed to be 
able to identify quickly potential risk factors that can inform 
existing prevention strategies. What is the status of the research 
project and how much DOD money has been expended to date?
    Secretary McHugh. The Army Study to Assess Risk and Resilience in 
Servicemembers (Army STARRS) is a 5-year study being conducted through 
a cooperative agreement grant award from the National Institute of 
Mental Health (NIMH). In July 2009, NIMH awarded the grant to a 
consortium consisting of the Uniformed Services University of the 
Health Sciences, Columbia University, the University of Michigan, and 
Harvard University. The research is being conducted by the grantees, as 
well as NIMH scientists. Army scientists are also participating in 
scientific coordination and review.
    Army STARRS began receiving historical data from internal Army 
sources in January 2010. This followed a detailed review to identify 
relevant data sources, the establishment of a Data Use Agreement, and 
demonstrating compliance with the Army's Information Assurance 
protocol. Parallel Data Use Agreements with applicable DOD data sources 
are being processed. The Study is scheduled to begin new data 
collection from current soldiers and new recruits over the next 6 
months.
    The Army transferred $10 million to NIMH in June 2009 to cover the 
fiscal year 2009 expenditures. An additional $10 million is programmed 
for fiscal year 2010.

    102. Senator McCain. Secretary McHugh, what specific findings, if 
any, have been helpful in improving prevention strategies?
    Secretary McHugh. From a scientific perspective, it is too early in 
the study to have substantive findings. In the interim and at our 
request, National Institute of Mental Health (NIMH) has provided a 
report on civilian ``best practices'' regarding suicide prevention and 
behavioral health care. NIMH and the Army are working together to 
identify where relevant interventions could be implemented.

    103. Senator McCain. Secretary McHugh, what are future deliverables 
and when are they expected?
    Secretary McHugh. The STARRS will report its progress and findings 
on a quarterly basis, as well as on an ad hoc basis as it makes new 
findings.
    In the coming year, Army STARRS is scheduled to deliver initial 
findings on risks and protective factors for suicide and related 
outcomes. This will be based on analyses of historical data, as well as 
detailed new information on the characteristics, exposures and 
experiences of current soldiers and new recruits, with a particular 
focus on known risk factors for suicide, such as mental health 
problems.
    In subsequent years, the study will follow soldiers over time, 
identify those who have particular negative (or positive) outcomes and 
deliver practical, actionable information on specific risks and 
protective factors for suicide. This is designed to assist the Army 
preventing suicide and improving soldiers' overall psychological 
health.

       traumatic brain injury and post traumatic stress disorder
    104. Senator McCain. Secretary McHugh and General Casey, please 
provide a comprehensive list and description of policy and program 
actions which are underway in the Army to identify and treat traumatic 
brain injury (TBI), including mild TBI, and post-traumatic stress 
disorder (PTSD).
    Secretary McHugh and General Casey. The Army TBI program is a 
standardized, comprehensive program that provides a continuum of 
integrated care and services for soldiers and patients from point-of-
injury to return to duty, or transition from active duty and/or return 
to highest functional level.
    The policy documents supporting the program include the following: 
the TBI Task Force report, the TBI Action Plan, four All Army Activity 
messages, and the TBI Operations Order. The Army is also initiating an 
``Educate, Train, Treat & Track'' campaign plan to facilitate leader 
and medical collaboration to improve acute concussion identification 
and management. The plan's goal is a cultural change in warfighter 
management after concussive events to include identification and 
treatment close to point of injury, documentation of the incident and 
expectation of recovery with early treatment.
    Key actions that facilitate identification and treatment of TBI 
include: educating the Force on TBI; funding over 350 staff to provide 
TBI care; implementing TBI screening for all medically evacuated 
patients and all soldiers during post-deployment; implementing the 
Military Acute Concussion Evaluation for initial concussion assessment; 
and developing and implementing Clinical Practice Guidelines for the 
management of soldiers with concussion in both the deployed and 
nondeployed settings.
    To help those dealing with PTSD and other psychological effects of 
war, Army leadership is taking aggressive, far-reaching steps to ensure 
the availability of an array of behavioral health services for soldiers 
and their families. Key actions that have facilitate identification and 
treatment of PTSD include: improving the distribution of behavioral 
health providers in theater and increasing access to care; implementing 
the Respect-Mil program to integrate behavioral healthcare into the 
primary care setting; incorporating Battlemind training in the 
Deployment Cycle Support program; producing two DVD/CDs that deal with 
family deployment issues; screening soldiers using the Post-Deployment 
Health Assessment and Reassessment; revising the questionnaire for 
national security positions regarding mental and emotional health; 
instituting post traumatic stress training for our health care 
providers; and hiring approximately 350 additional behavioral 
healthcare providers and 44 marriage and family therapists across the 
Army Medical Command.
    Additionally, on 1 Oct 2008 the Army established the Comprehensive 
Soldier Fitness Program. The mission of this program is to develop and 
institute a holistic, resilience building fitness program for soldiers, 
families, and Army civilians. The program focuses on optimizing five 
dimensions of strength: Physical, Emotional, Social, Spiritual, and 
Family. Comprehensive Soldier Fitness expects this to enhance the 
performance (capability) and build the resilience (capacity) of the 
Force in this era of persistent conflict and high operational tempo.
    Finally, the Army supports and conducts innovative TBI and PTSD 
research. The Army Medical Research and Materiel Command manages the 
Congressional Special Interest medical research program and serves as 
the Executive Agent of the DOD Blast Injury research program. In 
partnership with the Department of Veterans Affairs, the Defense Center 
of Excellence, civilian hospitals and research institutes, as well as 
other organizations such as the National Football League, the Army is 
working aggressively to improve our understanding of TBI and 
psychological health conditions.

    105. Senator McCain. Secretary McHugh and General Casey, how much 
is provided for these programs in the fiscal year 2011 request?
    Secretary McHugh and General Casey. The President's proposed budget 
for the fiscal year 2011 Defense Health Program (DHP) provides the Army 
$285 million for TBI and psychological health, focused on initiatives 
related to access, surveillance, quality, resilience and transition. 
The DHP also enhanced funding for medical research, which will include 
funds directed toward research on TBI and psychological health.

    106. Senator McCain. Secretary McHugh and General Casey, are there 
any unfunded requirements for personnel, programs, treatment or 
research with respect to TBI and PTSD? If so, please identify each such 
requirement.
    Secretary McHugh and General Casey. The President's proposed budget 
for the fiscal year 2011 DHP fully funds the Army's identified 
requirements for personnel, programs and treatment with respect to TBI 
and PTSD. Similarly, the combined Research, Development, Test, and 
Evaluation investment of Army and the DHP adequately addresses the key 
gaps in our knowledge of TBI and PTSD, as well as the technological 
development required to field improvements in medical treatment and 
prevention.

                            nursing shortage
    107. Senator McCain. Secretary McHugh, what is the current state of 
the nursing shortage within the U.S. Army and what actions are underway 
to increase the supply of nurses available to the Army, both in uniform 
and civilian nurses?
    Secretary McHugh. The Army Nurse Corps has been successful in 
meeting its recruiting goals for Active Duty nurses. In the aggregate, 
the Army Nurse Corps is over 100 percent of required end strength. As 
such, the recruiting focus has shifted from building capacity to 
building capability.
    The Army Nurse Corps will continue its current accession 
strategies, but enhance them through precision recruiting initiatives. 
We have realigned recruiting incentives to make Army Nursing 
competitive with incentives offered nationally. Our focus is recruiting 
experienced nurses in specialties such as trauma/critical care, 
emergency nursing and all behavioral health disciplines to ensure 
position fill in low density, high complexity areas of concentration. 
Incentive Specialty Pay for nurses, who achieve and maintain 
certification in these areas of concentration, has been an effective 
retention incentive that assists the Army Nurse Corps to maintain 
capability in critical fill areas to support operations at home and 
abroad.
    Through effective recruitment, we have successfully increased the 
number of civilian registered nurses (RNs) throughout the Army Medical 
Command, even as the mission requirements of a protracted conflict have 
generated an increased demand for healthcare providers. The staffing 
strength has steadily increased to over 5,300 civilian RNs in 2009, 
representing a 45 percent increase over the 2007 end strength.
    The Civilian Nurse Loan Repayment Program (CNLRP) and the 
Recruitment, Relocation and Retention Initiatives Program (3Rs) are two 
successful civilian nurse incentive programs. The 3Rs support our newly 
appointed and current employees by offering incentives commensurate 
with service agreements. Since its inception, the CNLRP has supported 
tuition loan repayment for over 283 RNs and 32 licensed practical 
nurses. Central funding of the CNLRP at $1.5 million annually began in 
2006. The use of 3Rs for Army Medical Command civilian nurses increased 
from $4.8 million in 2007 to $8.2 million in 2009. Although the 
recruitment and retention incentives for RNs have been successful, Army 
Medical Command still had over 650 open hiring actions for RNs at the 
end of 2009. These open actions represent about 12 percent of our 
civilian RN workforce and are typical of the number of vacancies we 
manage as part of routine turnover.
    The Army Medical Command's success in attracting experienced nurses 
into the military healthcare system may be partially due to the 
downturn in the economy and private sector salaries. We must maintain 
aggressive recruitment efforts and incentives for nurses, regardless of 
the Economic environment, to ensure future success.

                 mental health resources in afghanistan
    108. Senator McCain. General Casey, the Army's most recent Mental 
Health Advisory Team study identified a shortage of mental health 
providers for Army personnel serving in Afghanistan. What actions have 
you taken to address that gap in staffing?
    General Casey. There is currently no staffing gap in Afghanistan. 
Based on the Mental Health Advisory Team's (MHAT) findings and 
recommendations, the Army pushed additional behavioral health providers 
into Afghanistan to close the staffing gap. There are approximately 104 
behavioral health providers serving in Afghanistan providing clinical 
services to the supported force. The ratio in Afghanistan of 1 
behavioral health provider for every 663 servicemembers improves upon 
the MHAT's recommended ratio of 1:700.

                   medical evacuation in afghanistan
    109. Senator McCain. General Casey, in March 2009 Secretary Gates 
directed that medical care and evacuation capabilities in Afghanistan 
achieve parity with the Iraq theater. Have we achieved that goal?
    General Casey. Critically wounded personnel in both theaters are 
being delivered to surgical facilities consistently in less than 1 
hour. The Army recognizes the strategic value of this mission, and have 
reprioritized our resources, changed our structure and invested in 
improvements to take care of the wounded in Afghanistan. The Army 
implemented several initiatives to achieve this standard. The greatest 
being the increase in assets deployed to the Theater.
    In March 2009, there were 15 HH-60 medical evacuation (MEDEVAC) 
helicopters and 3 Forward Surgical Teams (FST) deployed. Today, the 
Army has deployed 39 HH-60 MEDEVAC helicopters and an additional 6 
FSTs. Additionally, the Army's increased assets include Level III 
surgical augmentation and a medical brigade command and control 
headquarters. Other initiatives include changing doctrine for 
aeromedical evacuation to 1 hour for urgent and urgent surgical 
missions, increasing force structure, increasing additional assets, 
fielding improved aircraft capabilities, streamlining procedures, 
establishing new data collection/reporting requirements and releasing a 
VCSA SENDS Aeromedical Evacuation Message. The Army's force structure 
changes include aggressively growing 9 additional MEDEVAC companies in 
the Reserve component (two of which will be deployed this year) and a 
force design structure change in each of the 37 MEDEVAC companies 
increasing from 12 aircraft/12 crews to 15 aircraft and 20 crews. The 
first of these newly designed companies will be deployed this year.
    The Army also continues to modernize MEDEVAC aircraft with improved 
engines, satellite communication capability and forward looking 
infrared technology. We are committed to aggressively pursuing 
initiatives that further improve medical care and evacuation 
capabilities for our fighting forces.

    110. Senator McCain. General Casey, are sufficient MEDEVAC 
helicopters, crews, and forward surgical teams available in Afghanistan 
to ensure rapid evacuation and care for the wounded?
    General Casey. Currently we have sufficient evacuation capability 
to ensure rapid evacuation of the wounded. The challenge is the surge. 
Although we all know that requirements will go down in Iraq, the 
reality is that future demand will have a short term net increase that 
may exceed our available supply. In order to mitigate this challenge, 
the Army has changed its sourcing strategy. The Army is beginning to 
source the requirement with the new 15 aircraft/20 crew MEDEVAC 
companies instead of replacing units in the fight with the older 
construct of 12 aircraft/12 crew MEDEVAC companies. This strategy will 
increase capacity and capability and mitigate surge requirements. These 
efforts are part of a larger joint effort to ensure sufficient MEDEVAC 
capability is sustained in Afghanistan.

    111. Senator McCain. General Casey, what is the ratio of U.S. 
personnel who are injured to those who die, and how does that compare 
with experience in the Iraq theater?
    General Casey. The ratio of U.S. personnel injured in Operation 
Enduring Freedom to those who die is 1 Soldier Killed in Action for 
every 7 Soldiers Wounded in Action (based on reports from theater since 
October 7, 2001). For Operation Iraqi Freedom, the ratio of U.S. 
personnel injured to those who die is one soldier killed in action for 
every nine soldiers wounded in action (based on reports from theater 
since March 19, 2003). This information, from the Defense Manpower Data 
Center Contingency Tracking System, is current as of February 6, 2010.

                         support for survivors
    112. Senator McCain. General Casey, please provide information 
describing the Army's Survivor Outreach Services (SOS) program.
    General Casey. In fiscal year 2008, the Army began a holistic 
review of programs, services, and policies for survivors of the fallen 
to ensure we serve them in a manner commensurate with their level of 
service and sacrifice to the Nation. The Army created the SOS program 
to standardize services and ensure we meet our commitment to these 
family members.
    The SOS program has been operational for 1 year and provides a 
holistic and multi-agency service delivery model to our survivors. The 
SOS program supports all survivors--including Reserve component 
survivors--who have lost loved ones while on active duty, regardless of 
whether the loss was a result of combat, accident, illness or suicide. 
The SOS Program services remain available until the survivors no longer 
desire them; however, some services, such as medical care requires the 
recipient be a DOD ID card holder. The SOS helps Survivors understand 
their benefits and make timely and more accurate decisions that impact 
positively on them and their families.
    The range of services covers the entire spectrum of care, from life 
skill education to treatment. Services are tailored to the needs of the 
survivors and may include support groups, educational seminars, 
financial counseling, advocacy, information, referral, and behavioral 
health treatment.
    The Army increased SOS Program staffing levels by adding support 
coordinators and financial counselors at garrisons and communities 
closest to where the families live. Support coordinators serve as the 
long-term support agent and links survivors to programs and services. 
Additional staff was placed at the Casualty Assistance Centers to 
include benefit coordinators and trainers who are subject matter 
experts on benefits and entitlements, and provide standardized training 
for Casualty Assistance and Notification Officers.

    113. Senator McCain. General Casey, what are the goals of the 
program?
    General Casey. Our Fallen Warriors have paid the ultimate 
sacrifice, and the Army is committed to serving their families--both 
Active and Reserve component survivors--for as long as they desire. The 
goal of the SOS program is to deliver on this promise by expanding and 
standardizing services, as well as building a comprehensive program 
that embraces and reassures survivors that they are continually linked 
to the Army for as long as they desire.

    114. Senator McCain. General Casey, are sufficient resources 
available to achieve those goals?
    General Casey. The current fiscal year funding of $53.8 million has 
been adequate to establish the program. To ensure we reach out and 
fully support every survivor, as well as improve our case management 
systems, the Army plans to increase our garrison and headquarters 
capabilities by adding a full-time SOS Support Coordinator at every 
garrison and increasing staffing at the Department of the Army level.

    115. Senator McCain. General Casey, what additional resources or 
legislative authority, if any, are needed?
    General Casey. At this time, no changes to legislation are required 
to support the SOS program. As we refine and develop the program, we 
will request additional funding in future budget requests as necessary.

                      support for military spouses
    116. Senator McCain. General Casey, please provide a comprehensive 
description of training and support programs provided to military 
spouses at all points in the career of Army personnel.
    General Casey. Families are important to the Army, a priority to 
soldiers, and a vital factor in the Army's overall readiness. A 
prepared Family is better able to manage deployment, long-term 
separations, and Army life in general. The Army has a myriad of 
training and support programs that are geared towards our spouses, both 
Active and Reserve Component.
    To help new spouses adapt to the Army, we have developed the New 
Spouse Orientation Seminar, which this available online.
    The Building Strong and Ready Families is a commander-directed 
program that is primarily for first-time soldiers and spouses as they 
adapt to Army life.
    Army Family Team Building classes provide junior spouses and those 
new to the military with the skills and tools to successfully maneuver 
through the Army system.
    Senior Spouse Leadership Seminars are offered annually to spouses 
whose soldiers are attending training at the Army War College and the 
Sergeants Major Academy. These courses are designed to assist senior 
spouses in enhancing their roles as mentors and advisors.
    The Enlisted Spouse Outreach and Training Plan prepares enlisted 
spouses for requirements of key assignments through drill sergeant, 
recruiter, and first sergeant spouse seminars.
    The Joint Senior Spouse Course is the only senior spouse course 
regarding leadership. It is jointly conducted and is the 5-day course 
for spouses of newly promoted general officers. This course complements 
the CAPSTONE course for general officers conducted by the National 
Defense University.
    In addition to these training programs, there is a multitude of 
programs and services, which offer support to spouses. Let me take a 
few moments to highlight some of these programs.
    Services for Multi-Cultural Families target support for Families 
with foreign-born spouses.
    Liaison for Citizen Immigration Services is available to Families 
seeking guidance for the citizenship and residency application process.
    Hearts Apart offers support to all waiting Family members--Active 
Army, Army Reserve, and National Guard spouses and children.
    The Operation Resources for Educating About Deployment and You 
(Operation READY) training program assists commanders in meeting family 
readiness objectives. Operation READY includes training modules and 
resources designed to help soldiers and their families cope with 
personal, Family, and financial demands of deployment.
    Military Family Life Consultants (MFLCs) provide non-medical, 
short-term, problem-solving counseling services which help soldiers and 
families cope with the reactions to stressful or adverse situations 
created by deployments and reintegration. The MFLC works directly with 
Army Community Service, ARNG Headquarters and Army Reserve Regional 
Commands to provide deployment and reintegration support to soldiers 
and their families. Consultants with specialized skills (e.g., 
financial, child, and youth needs) may be requested to respond to 
installation and Reserve Component needs. The goal is to prevent Family 
distress by providing education and information on Family dynamics, 
parent education, support services, and the effects of stress and 
positive coping mechanisms. In April 2009, MFLCs increased the number 
of nonmedical Behavioral Health counseling sessions offered for 
servicemembers and their Families from 6 to 12 sessions per person/per 
issue.
    Family Readiness Group (FRG)/Rear Detachment Training is available 
to FRG leaders and rear detachment commanders. Virtual FRGs (vFRG) 
provide all the functionality of an FRG via a secure, online setting to 
meet the needs of geographically dispersed units and families.
    The Employment Readiness Program provides assistance to family 
members in acquiring skills, networks, and resources that will allow 
them to participate in the work force and to develop a career plan. 
Employment services are available to all Army components regardless of 
location. Services include: career counseling and coaching; employment 
training classes; job fairs; Army Spouse Career Assessment Tool; job 
listings; and information and assistance on the Military Spouse Career 
Advancement Account.
    The Army Spouse Employment Partnership (ASEP) is an expanding 
partnership that is mutually beneficial to the Army and corporate 
America. ASEP consists of a small group of committed partners from the 
private sector, military, and Federal Government who have pledged their 
best efforts to increase employment and career opportunities for 
military spouses. The partnership provides Army spouses the opportunity 
to attain financial security and achieve employment goals through 
career mobility and enhanced employment options. Additional training 
and support opportunities includes Battlemind Training for spouses, 
which assists in understanding PTSD and TBI.
    The Dependents' Educational Assistance (DEA) Program provides 
education and training opportunities to eligible dependents of certain 
veterans. DEA reduces tuition by offering up to 45 months of education 
benefits.
    The Stateside Spouse Education Assistance Program (SSEAP) is a 
need-based education assistance program designed to provide spouses of 
active duty and retired Army soldiers, and widows(ers) of Army soldiers 
who died either on active duty or in a retired status, and residing in 
the United States, with financial assistance in pursuing educational 
goals. The program assists spouses/widows(ers) in gaining the education 
required to allow them to qualify for increased occupational 
opportunities. SEAP provides for up to $2,500 maximum per academic year 
for fees, supplies, or books.
    The Army has a website (Army OneSource) which provides detailed 
information for all of these programs.

    117. Senator McCain. General Casey, what resources are available to 
support these programs in the fiscal year 2011 request?
    General Casey. The resources requested for training and support 
programs for military spouses has more than doubled from the fiscal 
year 2008 budget of $116.9 million to the fiscal year 2011 budget 
request of $321.1 million.

    118. Senator McCain. General Casey, are there any unfunded 
requirements with respect to programs to support military spouses? If 
so, please identify each such requirement.
    General Casey. All programs provided by Army Community Services 
that support military spouses are fully funded.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                             army structure
    119. Senator Inhofe. Secretary McHugh and General Casey, the 2010 
QDR states, ``In the mid- to long-term, U.S. military forces must plan 
and prepare to prevail in a broad range of operations that may occur in 
multiple theaters in overlapping time frames. This includes maintaining 
the ability to prevail against two capable nation-state aggressors.'' I 
am concerned that DOD is being short sighted in our QDR and budgeting 
process; that the cost of Iraq and Afghanistan is coming at the expense 
to maintaining our long-term military capability. The Army's fiscal 
year 2011 budget request appears focused more on maintaining the force 
in the current fight and less on developing a force capable of winning 
across the spectrum of future threats. Is the Army postured and 
structured properly to counter the full spectrum of threats, low and 
high end, in the near- and far-term?
    Secretary McHugh and General Casey. The Army has outlined two major 
priorities: Restoring Balance and Setting Conditions for the Future. To 
restore balance, we are targeting the four imperatives of Sustain, 
Prepare, Reset and Transform. First, we must sustain the All-Volunteer 
Force by ensuring a quality of life for our soldiers, families, and 
Army civilians that is commensurate with their quality of service. 
Second, we must prepare soldiers, units, and their equipment for future 
deployments by providing adequate time to train for full-spectrum 
operations and to reduce uncertainty and stress for soldiers and their 
families. Third, we must reset the force as it returns from extended 
deployments, to a level of personnel and equipment readiness that 
permits the resumption of training for future missions across the full 
range of potential military operations. Finally, we must continuously 
assess and transform the force to meet combatant commander requirements 
by revising our modernization strategy, completing transformation from 
Cold War legacy formations to modular formations, and improving 
business processes.
    Our fiscal year 2011 budget reflects how we have transformed the 
Army and prioritized programs and efforts that show promise for today 
and tomorrow. The Army incorporated a BCT modernization plan that 
continuously modernizes equipment to meet current and future capability 
needs through upgrade, replacement, recapitalization, refurbishment, 
and technology insertions. Army efforts in this line of effort include 
our request for $887 million for the procurement of 16 Block III AH-64 
Apache Helicopters, as well as the upgrade of 13 AH-64 Helicopters to 
Block II. Block III Apache is part of a long-term effort to improve 
situational awareness, performance, reliability, and sustainment of the 
Apache. Block II upgrades continue our commitment to modernize the ARNG 
Aviation Fleet. Additionally, in this line of effort, we have requested 
$505 million dollars to upgrade Shadow RQ-7 UAVs. This key upgrade will 
increase the payload capacity and enhance the performance of this key 
Intelligence, Surveillance, and Reconnaissance (ISR) asset for our BCT 
commanders.
    We are confident the current program provides the resources and 
structure to meet the imperatives defined above while also setting 
conditions for the future. The Army continues to serve the needs of the 
Nation in an increasingly unpredictable global security environment. 
While me must maintain access to consistent, timely and reliable 
funding, we believe the fiscal year 2011 base budget and OCOs requests 
provide the resources necessary to sustain the force, ensure deployment 
readiness, reset the force, and to transform the Army to ensure an 
adaptive, capable and dominant force in support of combatant commanders 
and the Nation. The Army takes seriously its obligation to maintain 
responsible stewardship of the resources appropriated to it by the 
American public. Current enterprise initiatives are studying how to 
continually improve Army business practices and policies to better 
enable this stewardship.
    As we responsibly draw down our forces in both Iraq and Afghanistan 
and train for Full Spectrum Operations, we must sustain reliable, 
timely, and consistent funding. A force capable of deterring or 
defeating emerging adversaries is supported by funding that restores 
balance and readiness for our soldiers, families, and veterans, and 
allows us to reset our equipment and Army Prepositioned Stocks.

    120. Senator Inhofe. Secretary McHugh and General Casey, does the 
Army have the right equipment currently in inventory or being developed 
to address these contingency requirements?
    Secretary McHugh and General Casey. Yes. The current and future 
strategic environments of persistent conflict require the Army to 
modernize our capabilities continuously and aggressively to stay ahead 
of our adversaries. The objective of the Army's modernization effort is 
to develop and field a versatile and affordable mix of the best 
equipment available to allow soldiers and units to succeed in full 
spectrum operations both today and tomorrow.
    The Army will accomplish our modernization goals by focusing our 
efforts on three major lines of effort: develop and field new 
capabilities to meet identified gaps through traditional and rapid 
acquisition processes; continuously modernize equipment to meet current 
and future needs through the procurement of upgrades, recapitalization 
and divestment; and meet continuously evolving force requirements in 
the current operational environment by fielding and distributing 
capabilities in accordance with Army priorities. Examples include the 
ongoing Apache Block III and Paladin Improvement Programs, new GCV and 
Joint Light Tactical Truck Programs.

                    combat vehicles and helicopters
    121. Senator Inhofe. Secretary McHugh and General Casey, the Army's 
current fleets of combat vehicles and helicopters were developed and 
procured over 30 to 60 years ago and are aging at an increasingly rapid 
rate. The M1 Abrams tank was developed in the 1970s and fielded in the 
1980s, the M2 Bradley Fighting Vehicle was developed over 25 years ago, 
and the M109A6 Paladin howitzer is on its sixth version. The Army's 
helicopter fleet continues to get older and suffer the effects of 
continuous combat operations, with ages ranging from 15 to 40-plus 
years, with the CH-47 dating back to 1962 and on its seventh version 
(CH-47F). How does the Army achieve a balanced and full spectrum 
strategy when its fleet of combat vehicles and helicopters range from 
30 to 50 years old?
    Secretary McHugh and General Casey. The Army reduced the Fleet Age 
of M1 Abrams tanks and M2 Bradley Fighting Vehicles by conducting a 
national level reset of its vehicles returning from deployments. This 
combat vehicle reset restored capability or ``life'' lost during combat 
operations. Additionally, the Army recapitalized these vehicles by 
installing equipment upgrades to incrementally modernize the vehicle 
fleet resetting a vehicles' age to zero hours/miles. These actions 
reduced the fleet age in aggregate, while allowing the Army to 
integrate lessons learned from OEF/OIF to enhance survivability and 
battle command.
    We are making a similar investment in the M109A6 Paladin 155mm, 
Self-propelled howitzers and Field Artillery Ammunition Vehicles 
(FAASV) with the Paladin Integrated Management (PIM) program. The PIM 
program will produce a new chassis with Bradley common engine, 
transmission and suspension systems. The new PIM chassis combined with 
the current cannon turret will provide the needed power to maneuver the 
howitzer and FAASV with the Abrams and Bradley fleets. In addition, 
with Bradley common components, the PIM program will reduce the 
logistic footprint of the Heavy BCT, while restoring the fleet age and 
minimizing the overall maintenance costs.
    The Army will also continue to modernize its aviation fleet through 
procurement, recapitalization and reset. A total of 464 CH-47F model 
aircraft are planned for delivery to the Army over the next 12 years. 
Of these, 220 will be new builds and the remaining 244 
``remanufactured'' aircraft utilize dynamic components from the 
divested CH-47D. Unlike the CH-47D which was created on the same aging 
frame of the CH-47A fleet, the CH-47F will include a new airframe, 
wiring harness and hydraulic system. The current average age of the CH-
47D fleet is 20 years and the current age of the CH-47F fleet is 2 
years. Other Army airframes are receiving similar attention like the 
UH-60A to A to L RECAP Program, which recapitalizes 228 UH-60A ARNG and 
USAR legacy fleet Black Hawk helicopters in fiscal year 2010 thru 
fiscal year 2015.

    122. Senator Inhofe. Secretary McHugh and General Casey, what is 
the plan for Army helicopter modernization for fiscal year 2011 and 
beyond?
    Secretary McHugh and General Casey. Army Aviation continues to 
transform and modernize to meet current and future full-spectrum 
aviation requirements. The Aviation Transformation Plan, which guides 
fleet modernization strategy and aviation formation transformation, is 
based on a full, in-depth analysis that integrates lessons learned from 
recent operations in Operation Iraqi Freedom and Operation Enduring 
Freedom. The Plan restructures Army Aviation warfighting units into 21 
Combat Aviation Brigades (13 Active, 8 Reserve components).
    Additionally, we have significant MEDEVAC and cargo/utility modular 
capabilities above division level to support the combatant commander 
requirements ensuring the aviation units are modular, capable, lethal, 
tailorable and sustainable. To maintain our current capability, and 
meet future requirements, we are executing a combination of aircraft 
recapitalizations and remanufactures, in addition to replacing wartime 
losses with brand new aircraft.
    The future vision for Army Aviation is being assessed and developed 
throughout the aviation community of operators and materiel 
development. The challenge is to chart a future for Army Aviation while 
maintaining and fighting the world's best rotary wing and unmanned 
system fleets. To do this, we must continue the cooperation with 
industry and academia to ensure we provide the incentive to make the 
next leap in technology that will bring us the development of future 
propulsion systems and revolutionary aircraft designs that will meet 
our future requirements for faster, more capable, more efficient and 
more easily sustained aircraft systems.
    As part of the process, the Army is participating in several 
studies looking at future Rotorcraft capabilities. These include the 
DOD's Future Vertical Lift Study, the Joint Future Theater Lift effort, 
and our own Joint Multi-Role Helicopter Study. These capabilities-based 
assessments will lay out a strategic plan for the Department's vertical 
lift that will take us to the next fleet of rotorcraft and vertical 
lift aircraft in the 2025 timeframe.
    The Army will also continue to modernize its aviation fleet through 
procurement, recapitalization and reset. A total of 464 CH-47F model 
aircraft are planned for delivery to the Army over the next 12 years. 
Of these, 220 will be new builds and the remaining 244 
``remanufactured'' aircraft utilize dynamic components from the 
divested CH-47D. Unlike the CH-47D which was created on the same aging 
frame of the CH-47A fleet, the CH-47F will include a new airframe, 
wiring harness and hydraulic system. The current average age of the CH-
47D fleet is 20 years and the current age of the CH-47F fleet is 2 
years. Other Army airframes are receiving similar attention like the 
UH-60A to A to L RECAP Program, which recapitalizes 228 UH-60A ARNG and 
USAR legacy fleet Black Hawk helicopters in fiscal year 2010 thru 
fiscal year 2015.

                     ground combat vehicle program
    123. Senator Inhofe. Secretary McHugh and General Casey, the 
cancellation of the Armored Gun System, Comanche, Crusader, and the FCS 
Manned Ground Vehicle program, along with recent reports on the 
uncertainty of the GCV as part of the BCT Modernization program, gives 
me cause for concern over the Army's capabilities in the coming years. 
Since the Manned Ground Vehicle portion of FCS was terminated last 
year, you have made it a priority to field the new GCV within the next 
7 years. The press has been reporting that there is disagreement 
between DOD and the Army about the Army's GCV program--``U.S. Army, 
Pentagon at odds over new vehicle''--Reuters, February 17, 2010. Is 
there disagreement and if so, what is it based on?
    Secretary McHugh and General Casey. The Army and OSD agree on the 
need to develop the new GCV in response to current and emerging threats 
and the limitations of the existing combat vehicle fleet. In response 
to the Secretary of Defense's direction, the Army has reviewed 
requirements and developed an acquisition plan for GCV that is 
consistent with DOD policy and law. As part of the Materiel Development 
Decision approval process, the Army provided OSD with several briefings 
to ensure that all questions and concerns were addressed. The shared 
goal is to see the GCV program proceed in a way that will ensure its 
success. As a result of Army's last meeting with OSD, the GCV Request 
for Proposal was released. In accordance with DOD policy and law, OSD 
will continue to be involved in the planning for the GCV program as it 
moves toward a Milestone A decision.

    124. Senator Inhofe. Secretary McHugh and General Casey, what are 
you doing differently to ensure that the GCV doesn't suffer the same 
fate as other failed programs?
    Secretary McHugh and General Casey. The GCV program plan has 
incorporated several mitigation strategies into the program plan. First 
of all, we will have contractors deliver subsystem level competitive 
prototypes early in the development. This will give the program manager 
an undeniable indication of the contractor's progress. Second, we will 
retain competition throughout the Technology Development (TD) and 
Engineering and Manufacturing Development (EMD) phases. This will keep 
the competing contractors responsive and innovative; they will not have 
any assurance that they are the sole source for GCV production. This 
strategy required the contractors to maintain schedule and reduce costs 
as they progress through the TD and EMD phases. Third, we will stay 
focused on maintaining the program schedule during execution, even if 
that results in slightly less capability. A 7-year schedule is the 
constant even if that schedule results in an 80-85 percent solution. 
Finally, the modular design approach with growth margin to support 
system updates will support performance improvements over time and will 
provide flexibility for emerging/changing requirements.

    125. Senator Inhofe. Secretary McHugh and General Casey, if the GCV 
is fielded in accordance with your schedule, how long will the current 
fleet of vehicles such as the Bradley Infantry Fighting Vehicles remain 
in the force?
    Secretary McHugh and General Casey. The current fleet of combat 
vehicles including the Bradley will remain in use through 2030. The GCV 
will replace the Bradley in its Infantry Fighting Mission Role starting 
in 2017 with replacement of the Bradley's other mission roles to 
follow.

    126. Senator Inhofe. Secretary McHugh and General Casey, what are 
your plans to upgrade the other vehicles such as the engineer, field 
artillery, ambulance, and command vehicles?
    Secretary McHugh and General Casey. The Army continues to explore 
an incremental approach to conduct modernization for its combat vehicle 
fleet. This effort is tied to how the Army conducts its current fight 
and adjusts its force structure and mix analyses. The Army has a 
significant number of M113 variants which are serving in command and 
control, engineer, field artillery and ambulance roles. There are about 
5,200 of these variants required. As the Army builds its Program 
Objective Memorandum (POM) 12-17 investment program, we will be 
exploring options for the replacement of these vehicles. Those options 
include using Strykers, Bradley Fighting Vehicles and MRAP vehicles to 
fill some or all of these roles.

                     health and quality of the army
    127. Senator Inhofe. Secretary McHugh and General Casey, the Army's 
strength is in its soldiers, their families, and the Army civilians who 
support them. Even after 8-plus years of combat operations, the Army 
remains resilient and capable, a fact that never ceases to leave me in 
awe. I applaud you, General Casey, for the emphasis you have placed on 
the Comprehensive Soldier Fitness Program, the Army Risk Reduction 
Program, and the Health Promotion Program as part of your stated 
objective to ``sustain soldiers, civilians, and families.'' I also 
applaud the Army in taking an aggressive approach last year to address 
the soldier suicide issue and continue to pursue the right solutions 
for the growing trend of suicides among family members. What is your 
assessment of the health and quality of the Army?
    Secretary McHugh and General Casey. Our soldiers, families, and 
civilians are clearly stressed and fatigued by nearly 9 years of 
combat. The Army is out of balance, and that balance needs to be 
restored to sustain this All-Volunteer Force for the long haul. Yet 
through it all, our Army remains amazingly resilient, determined, and 
extraordinarily effective. Today, our soldiers have more expertise, 
education, training and capabilities than ever before, and in fiscal 
year 2009 our incoming Active component soldiers had the highest high 
school diploma rates since fiscal year 2003.

    128. Senator Inhofe. Secretary McHugh and General Casey, where is 
the Army in terms of the Comprehensive Soldier Fitness Program, the 
Army Risk Reduction Program, and the Health Promotion Program?
    Secretary McHugh and General Casey. Comprehensive Soldier Fitness 
(CSF) is a rapidly maturing program designed to develop psychological 
and physiological resilience across the entire Army community, 
including soldiers, family members, and Department of the Army 
civilians. To date, over 395,000 soldiers have taken the Global 
Assessment Tool, which is a web-based strengths assessment. Eight web-
based training modules that target resilience skills are currently 
available to soldiers once they complete the Global Assessment Tool, 
and 20 modules will be available by the end of fiscal year 2010. 
Additionally, CSF has trained 829 Master Resilience Trainers at the 
University of Pennsylvania and satellite locations, with a goal of 
training at least 1,800 trainers by the end of fiscal year 2010. These 
Master Resilience Trainers lead resilience development training in 
their units and local communities. CSF is currently budgeted for $42 
million annually over the next 5 years.
    The Army considers reduction of soldier high-risk behaviors as an 
ultimate goal. These behaviors, whether they be substance abuse, 
domestic violence, financial problems, self-medication or others are 
viewed by the Army as possible precursors to suicide, as well as 
serious issues that must be dealt with individually. In essence, many 
of our human services fall under the general rubric of risk reduction. 
The Army also has a specific Risk Reduction Program that aids 
commanders and human service providers in tracking 15 high-risk soldier 
behaviors in units and addressing areas of high risk. This program is 
now being expanded to deployed units and to the Reserve and National 
Guard as a result of initiatives from the Army Suicide Prevention Task 
Force.
    The goal of the Army Health Promotion Program is to maximize 
readiness, warfighting ability and work performance. Objectives include 
enhancing the well-being of all soldiers, Army civilians, family 
members, and retirees; and encouraging lifestyles that improve and 
protect physical, behavioral and spiritual health. The Army Health 
Promotion Program encompasses a variety of activities designed to 
facilitate behavioral and environmental alterations to improve or 
protect health and well-being. This includes a combination of health 
education and related policies, organizational, social, behavioral, 
spiritual and health care activities and initiatives. These are 
integrated to produce a single comprehensive program evaluating 
population needs, assessing existing programs and coordinating targeted 
interventions.

    129. Senator Inhofe. Secretary McHugh and General Casey, how have 
the measures taken in 2009 helped to reduce the suicide rates in the 
Army?
    Secretary McHugh and General Casey. The Army had a record number of 
suicide deaths in January and February 2009. If the trend had 
continued, the Army was on track to exceed 200 Active Component suicide 
deaths for 2009. The Army's senior leadership engaged this problem 
head-on.
    The Army conducted a ``suicide stand-down'' in March 2009, released 
an interactive suicide training video and implemented several 
initiatives to reduce the ``stigma'' associated with seeking behavioral 
health services. The Confidential Alcohol Treatment and Education Pilot 
program in Schofield Barracks, HI; Fort Richardson, AK; and Fort Lewis, 
WA allows self-referral into treatment programs without command 
notification. Several ``tele-behavioral'' health pilot programs are 
underway, which require all redeploying soldiers, from the senior 
commander to the most junior soldier, to receive behavioral health 
screening.
    In 2010, we have continued this effort by expanding the training 
for ``peer support'' using the Ask - Care - Escort model, developing 
new interactive training videos, and increasing access to behavioral 
health care thru telemedicine initiatives. Finally, the Army fully 
supports the requirement set forth in the National Defense 
Authorization Act for Fiscal Year 2010 for ``person to person'' 
behavioral health assessments for every servicemember upon their 
redeployment from an overseas operation.

    130. Senator Inhofe. Secretary McHugh and General Casey, what is 
the Army doing to address suicides among family members?
    Secretary McHugh and General Casey. : The Army Suicide Prevention 
Task Force and the Army Campaign Plan for Health Promotion, Risk 
Reduction and Suicide Prevention have addressed family member and Army 
civilian suicide prevention efforts.
    Many of our outreach efforts have a specific family member focus. 
For example, this year's interactive training video ``Home Front'' will 
have specific scenarios for family member's--both spouses and children. 
The Walter Reed Army Institute of Research developed Family Battlemind 
training for use in both pre- and post-deployment settings. Key 
components include teaching families the following:

        <bullet> Independence: the capability of having a fulfilling 
        and meaningful life as part of an Army-centric Family
        <bullet> Resiliency: The ability to overcome setbacks and 
        obstacles and to maintain positive thoughts during times of 
        adversity

    The Army Medical Department has expanded access to behavioral 
health within Military Treatment Facilities and through TRICARE. The 
Army helped initiate the TRICARE Assistance Program and Tele-Behavioral 
Health program for geographically dispersed Family Members. This 
demonstration project will expand access to existing behavioral health 
services by using audiovisual telecommunication systems, such as video 
chat and instant messaging to access existing behavioral health 
centers. It also expands access to the behavioral health call centers 
and counseling services for eligible beneficiaries, which assists 
Reserve component and Active component families, who do not live near 
an Army post.

                            equipment reset
    131. Senator Inhofe. Secretary McHugh and General Casey, since 
2003, Army units have left behind a significant amount of their 
organizational equipment in Iraq and Afghanistan as with some given to 
Iraqi or Afghan forces, some abandoned and some left in place to 
provide future capability in theatre. In some instances, leaving this 
equipment has created home-station training challenges for units going 
through reset in preparation for another deployment. In the fiscal year 
2011 OCO request, $10.8 billion is highlighted for reset of Army 
equipment. As well, it was noted that ``the Army has reset 29 brigades 
worth of equipment in fiscal year 2009 and continued the reset of 13 
more, with a grand total of some 98,000 pieces since September 11, 
2001.'' As I understand reset, it is a continuous requirement, 
occurring as brigades return from combat operations and prepare for the 
next, and will have to continue well after operations in Iraq and 
Afghanistan have ceased. Is the Army experiencing any equipment 
shortages due to reset or recap funding?
    Secretary McHugh and General Casey. No. The Army does have some 
equipment shortages, but they are not due to inadequate reset or 
recapitalization funding. The Army greatly appreciates all of the 
support Congress has provided for Army equipment reset, which has 
enabled the Army to meet all such requirements for redeployed units.
    You are correct regarding continuous reset. As our Army 
organizations return from operational missions, they immediately move 
to reset to prepare for the next mission. When equipment shortfalls are 
identified, the Army uses our ARFORGEN model as a mitigation strategy 
to support training and homeland defense missions for nondeployed 
forces. Many of our current equipment shortages can be traced to the 
extraordinary demands imposed by fighting two wars simultaneously.

                           water purification
    132. Senator Inhofe. Secretary McHugh and General Casey, the task 
of supplying U.S. and coalition forces in Afghanistan is a daunting 
task, a task that was challenging even without the deployment of 
additional U.S. and coalition forces and the increase in ground 
operations. Supply lines to Afghanistan are long and difficult, with 
many of our operating bases in austere locations. One piece in a 
February 14 New York Times article about the movements of a Marine 
company in Helmand Province caught my eye--some of the Marines were 
carrying 5-gallon jugs of water which increased the weight they were 
carrying to 100 pounds or more. I have received reports from Army, 
Marine, and Special Operations units regarding the need for man-
portable water filtration units. What is the current state of supply 
operations to your soldiers in Afghanistan?
    Secretary McHugh and General Casey. U.S. Forces Afghanistan has the 
capacity to produce and distribute both bulk and bottled water for 
current forces, as well as for the future force structure.
    Current bulk water requirements are 1.5M gallons per day and 
147,000 cases of bottled water per day. With the surge, projected bulk 
requirements will rise to 2.5 million gallons per day and projected 
bottled water requirements to 220,000 cases per day. Today, the current 
maximum bulk capacity for water production supporting Afghanistan is 
3.4 million gallons per day and a bottled water capacity of 544,000 
cases per day. This capacity is based on the forward positioning of 
five commercial water bottling plants: two in Kabul, and one each in 
Pakistan, Uzbekistan, and United Arab Emirates.
    We fully recognize that the major challenge in tactical water 
operations in Afghanistan, as with any supply commodity in that 
theater, is distribution, not necessarily capacity or wholesale 
production. To address this distribution challenge, the Army has 
deployed its full array of tactical water purification systems, as well 
as water storage and distribution assets as far forward as possible. 
These tactical systems range from larger capacity production units, 
such as the 3,000 gal per hour Reverse Osmosis Water Purification Unit, 
to lighter weight purification systems that are designed to support 
smaller unit configurations, such as Teams, Platoons, and Company-sized 
elements. These lighter systems are capable of being delivered by air 
along with a robust storage capability to support them.
    Moreover, there are currently seven Expeditionary Water Packaging 
Systems (EWPS) being deployed to various operating bases in 
Afghanistan, placing water production and distribution closer to the 
forces. The EWPS are government owned, contractor operated water 
bottling systems using tactical production equipment. Each is capable 
of producing a minimum of 5,000 one-liter bottles per day.
    Finally, we recently deployed six well drilling rigs, currently in 
Afghanistan, to drill new wells closer to the point of consumption. 
This will shorten the distribution leg. The CENTCOM water strategy 
continues to be the development of water resources and the production 
of water at the forward operating bases (FOBs); thus reducing 
transportation requirements.
    Currently, there are no Operational Needs Statement or Joint Unit 
Operational Needs Statement or Rapid Equipping Force 10 Liner 
requirements for a manportable water filtration unit.

    133. Senator Inhofe. Secretary McHugh and General Casey, can you 
check on our ability to purify water in austere locations, ensuring a 
safe supply of drinking water for our soldiers in theater?
    Secretary McHugh and General Casey. The Army has sufficient water 
purification, storage and distribution systems available for employment 
in a tactical environment. Each of these systems is approved for use by 
the U.S. Army Health Command; thereby ensuring that the water is safe 
for soldier consumption. These systems have been successfully 
supporting Operations Iraqi Freedom and Enduring Freedom. Our forces 
continue to receive potable and palatable water on-time and in 
sufficient quantities to meet all water requirements for consumption 
and personal hygiene.
    To ensure that water production capability is closer to the point 
of consumption in austere areas, we have deployed six well drilling 
rigs in Afghanistan, to expand water resources and production of water 
at our FOBs.
    Currently, we also have the following tactical systems, designed 
for austere deployment, in support of Operation Enduring Freedom:
Water Purification Units:
        <bullet> The 600 Gallon per hour (GPH), trailer mounted, 
        Reverse Osmosis Water Purification Unit (ROWPU) is capable of 
        purifying 600 gallons of seawater and 900 gallons fresh water 
        per hour. Eighteen (18) of these systems are in deployed status 
        providing a total capability of 10,800 GPH.
        <bullet> The 3000 GPH, trailer mounted, ROWPU is capable of 
        purifying 2,000 gallons of seawater and 3,000 gallon of fresh 
        water. Twenty-four of these systems are in a deployed status 
        providing a total capability production of 72,000 GPH.
        <bullet> The 1500 GPH, Tactical Water Purification System is 
        capable of purifying 1,200 GPH seawater and 3000 GPH fresh 
        water. Nine systems are in a deployed status providing at total 
        production capability of 13,500 GPH.
        <bullet> The Light Weight Purifier (LWP), which is the Army's 
        most expeditious reverse osmosis purification unit, is capable 
        of producing 125 GPH from a fresh water source and 75 GPH from 
        a salt water source. Both air transportable and air droppable, 
        26 systems are in a deployed status providing a total 
        capability production of 3,250 GPH.
Storage and Distribution:
        <bullet> Water Tank Rack (HIPPO) consists of a 2,000 gallon 
        potable hard wall water tank in an ISO frame with an integrated 
        pump, hose and fill stand.
        <bullet> Water Storage and Distribution Systems, which consists 
        of 800,000 and 40,000 gallon system, are collapsible tanks and 
        support equipment and that provide large volumes of bulk 
        potable water storage and distribution (two 800,000 and three 
        40,000 systems are in a deployed status providing a storage and 
        distribution of 1.7 million gallons of water).
        <bullet> The Expeditionary Water Packaging System, which is a 
        newly developed tactical water purification system capable of 
        bottling water, is being deployed to Afghanistan (7 systems 
        total). These systems are designed to operate at austere FOBs, 
        placing water packaging and distribution closer to U.S. forces. 
        Each system is capable of bottling 5,000 one liter bottles per 
        day.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                             army aviation
    134. Senator Sessions. General Casey, I am very happy about the QDR 
plus-up of two Combat Aviation Brigades for the Army. With this plus-up 
of aviation assets must come a plus-up in resources. Do you believe 
adequate resources are available to support the growth in Army 
aviation?
    General Casey. Yes, I think we have what we need. The first of 
these combat aviation brigades (CAB) was organized by consolidating 
existing aviation force structure within the Army. With the exception 
of adding some required headquarters personnel and common equipment 
such as trucks and generators, the resources required were minimal. All 
aircraft and crews required were already in the existing force 
structure. As for the second CAB, the majority of the funding required 
($5.5 billion) was provided. While we have determined that it is 
feasible to activate this CAB, there is an unfunded requirement 
remaining ($1.2 billion) to cover operations, training and some 
personnel costs, which we will have to make adjustments for in our 
budget process.

    135. Senator Sessions. General Casey, are you planning to increase 
resources for the Aviation Training Center at Fort Rucker?
    General Casey. Yes. We have already begun increasing resources for 
training at Fort Rucker. Funding there increased from $775 million 
(fiscal year 2009) to $995 million (fiscal year 2010) to $1.067 billion 
(fiscal year 2011) annually to cover increases in undergraduate and 
graduate flight training. Fort Rucker has already hired 40 new contract 
instructor pilots to train AH-64, CH-47, and UH-60 flight training with 
plans to increase the total to 52 new instructors. The Aviation Center 
has received an additional 21 AH-64Ds and 20 UH-60s to meet the 
increased training requirements. New hangar ($36 million) and 
maintenance facilities ($29 million) are being constructed in fiscal 
year 2011 to support training increases. Additionally, $34 million in 
improvements will be made this year to existing structures and ranges 
to support increased training.

    136. Senator Sessions. General Casey, will this plus-up of Army 
aviation include manned and unmanned teaming increases?
    General Casey. The Army has achieved great success by combining the 
capabilities of manned and unmanned systems in combat operations, and 
will maximize this new aviation organizational force design construct. 
Additional Combat Aviation Brigades (CABs) and their manned helicopter 
assets will be paired with existing unmanned systems, to provide 
greater manned-unmanned operations capability. In addition to teaming 
with UAS resident within BCTs, the Extended Range Multi-Purpose UAS 
will be assigned to CABs. We are also developing concepts combining 
Shadow UAS with manned scout helicopters in an Armed Reconnaissance 
Squadron. These efforts will greatly expand the Army's manned-unmanned 
capabilities.

    137. Senator Sessions. General Casey, will the Center of Excellence 
for unmanned aerial systems at Fort Rucker receive additional resources 
to continue doctrine development, integration, and execution planning 
for the manned and unmanned team initiative?
    General Casey. The Army Unmanned Aircraft System Center of 
Excellence (UAS CoE) is a critical organization that provides a 
professional and focused team to ensure the Army maintains our 
leadership role in the UAS community across all Army warfighting 
functions. This includes our groundbreaking efforts to develop and 
improve manned-unmanned operations.
    The UAS CoE is currently a provisional organization and is 
resourced through May 2010. Fort Rucker has forwarded a Concept Plan to 
Headquarters, TRADOC to ensure that the UAS CoE remains as an enduring 
organization with 6 military and 11 civilian personnel authorized on an 
approved Table of Distribution and Allowances. As the Army reviews our 
Generating Force personnel numbers (including TRADOC), our unmanned 
systems mission growth is a key area upon which we will focus.

                          anniston army depot
    138. Senator Sessions. Secretary McHugh, I just visited Anniston 
Army Depot last week while working in Alabama. I understand that the 
Army is considering placing the installation under the command of the 
Army's Installation Management Command. The community is up in arms 
over this decision. Do you believe Anniston Army Depot will increase 
its productivity and lower its Army Capital Working Fund rates because 
of this realignment of command?
    Secretary McHugh. The Army Materiel Command (AMC) and Installation 
Management Command (IMCOM) are in the process of conducting a transfer 
of responsibility for base operation functions in a pilot at ANAD. 
IMCOM will assume responsibilities for non-Army Working Capital Fund 
(AWCF) base operation support functions.
    Under the pilot concept, ANAD with the support of AMC and IMCOM 
regional office, will create a virtual structure to determine if the 
proposed transfer of non-AWCF base operating functions and costs to 
IMCOM can be done with no impacts to the ANAD production mission and no 
additional cost to Army as a whole. If the pilot is successful and 
implementation is approved there will be a reduction in base operating 
costs (overhead costs) that have to be allocated to stabilized 
workload; however, due to the complex nature of rates this would only 
be a good measure if all extraneous variables were held constant (i.e. 
direct labor hours available to allocate overhead costs, direct labor 
and material costs, Accumulative Operating Results adjustments, etc).

    139. Senator Sessions. Secretary McHugh, if productivity does not 
increase and Army Capital Working Funds rates are not reduced, will you 
carry on with the reassignment?
    Secretary McHugh. The Army will consider all factors prior to 
moving forward with the reassignment. We have established three guiding 
principles for assessing the results of the pilot: (1) maintaining or 
reducing costs; (2) maintaining or improving mission effectiveness; and 
(3) preserving the mission commander's flexibility to direct resources. 
As we conduct the pilot program, we will adjust the parameters as 
required to address any issues encountered.

                              afghanistan
    140. Senator Sessions. General Casey, I think we would all agree 
that the Anbar Awakening during the Iraq war was a great success and 
signaled the beginning of stabilization in that troubled theater. A 
recent Washington Post article that appeared on January 22 highlights 
U.S. Central Command's use of local defense initiatives to similarly 
train local militias as security forces to bridge the gap until more 
Afghan army and police forces can be trained. Recent estimates imply 
that 32,000 soldiers need to be added over the next 10 months in order 
to meet the stated goal of 134,000 troops by the end of the year. While 
not all lessons from the Iraq war can be applied to Afghanistan, former 
Pakistani President Pervez Musharraf recently wrote, ``Afghanistan for 
centuries has been governed loosely through a social covenant between 
all the ethnic groups, under a sovereign king. This structure is needed 
again to bring peace and harmony.'' Would you agree that this program 
will spread coalition influence into remote regions and bridge the gap 
until we can recruit and train adequate Afghan army and police forces?
    General Casey. Central Command (CENTCOM) is working on several 
initiatives to achieve local security by incorporating more community 
involvement. It's my understanding that these initiatives are Afghan 
led and supported by the CENTCOM.

    141. Senator Sessions. General Casey, do you think the Afghani 
government can be persuaded to support this program or is this 
something that will have to be implemented independently?
    General Casey. I believe the Afghan government will proceed with 
caution as the initiatives are more fully developed and implemented, 
but I defer to CENTCOM for their assessment.

    142. Senator Sessions. General Casey, what is your opinion on our 
ability to adequately screen militia candidates for this program to 
ensure that we are not training the wrong folks?
    General Casey. I defer to CENTCOM to respond since they are on the 
ground and better able to assess the situation.

    143. Senator Sessions. General Casey, the Post article addressed 
differences between DOD and the Department of State (DOS) concerning 
implementation of a timeline. General McChrystal has already 
implemented this program on a small scale using existing funding. In 
order to fully implement, though, Ambassador Eikenberry must release 
additional funds. How are existing Commander's Emergency Response 
Program funds being used to support this program and are these funds 
adequate to fully implement local defense initiatives?
    General Casey. Commander's Emergency Response Program (CERP) 
funding is used for short-term, private sector contracts for temporary 
guards of critical infrastructure, not to train local militias as 
security forces. The CERP program supports local defense initiatives by 
funding development projects in targeted areas. As noted in the same 
Washington Post article, ``In Afghanistan, compensation will be in the 
form of money for development projects in areas where the groups 
operate.'' Current CERP funding is adequate to accomplish these 
development efforts.

    144. Senator Sessions. General Casey, what support is needed from 
DOS and what is DOD doing to resolve these differences in a timely 
manner?
    General Casey. I believe there is a lot of cooperative activity 
taking place between DOD and Department of State. We have ongoing 
partnerships with the Iraqi Security Forces and the Afghan National 
Security Forces with a number of counter-terrorism initiatives ongoing. 
As for the specific details regarding support that DOD needs from the 
Department of State, I have to defer to DOD to respond.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                   medium extended air defense system
    145. Senator Vitter. Secretary McHugh, GAO and OSD have confirmed 
that MEADS will cost billions more than expected. What amount of 
additional funding will be necessary that exceeds the existing budget 
baseline?
    Secretary McHugh. The cost growth for the International Program is 
estimated to be over $1.2 billion to be shared by the three Nations. 
The U.S. share of this is estimated to be in the range of $700 million 
(preliminary estimates). The OSD for Cost Assessments and Program 
Evaluation assessment is ongoing and will be used to refine these 
estimates further.

    146. Senator Vitter. Secretary McHugh, why has the MEADS program 
not been scrutinized under Nunn-McCurdy?
    Secretary McHugh. We evaluate and assess the program against the 
Nunn-McCurdy criteria as part of our normal program management. The 
program has been reporting program unit costs against Nunn-McCurdy 
criteria since September 2004, and current estimates are within the 
thresholds. We continue to monitor the matter closely, and OSD directed 
the Cost Assessments and Program Evaluation office to develop an 
independent estimate.

    147. Senator Vitter. Secretary McHugh, MEADS was designed to 
upgrade the capabilities of the U.S., German, and Italian Air and 
Missile Defense (AMD) systems. However, the MEADS program is 9 years 
behind to deliver the capability to our troops and our allies. What is 
the reason and justification for this delay and how will we defend 
ourselves from current threats while we continue to wait for MEADS?
    Secretary McHugh. The MEADS Design and Development program of 
record began in July 2004. Issues emerged during the program's 
Preliminary Design Review, necessitating an Army and OSD independent 
review. The independent review assessed the program to be approximately 
18 months behind schedule, with a high degree of concurrency and risk 
leading into Critical Design Review and testing. The independent review 
team recommended a rebaseline of the program, adding approximately 18-
24 months (at additional cost), to reduce engineering and test 
concurrency and reduce overall risks. The MEADS initiative has 
experienced a series of starts and stops since the concept inception in 
the early 1990s. Since the Milestone B Defense Acquisition Board in 
2004, the program has been fully funded but will require approximately 
$700 million between fiscal year 2012-17 to support the rebaselined 
schedule and effort.
    The United States utilizes a combination of Air and Missile Defense 
systems to provide required capability to the force today. Most 
notably, the Patriot Missile System is forward deployed in multiple 
Areas of Responsibility. These systems undergo periodic upgrades to 
increase capability against an evolving threat, mitigate obsolescence, 
and minimize sustainment costs. Patriot is the only combat-proven 
Tactical Ballistic Missile Defense in the force. Patriot continues to 
match the threat and provide our troops with excellent Air Defense 
coverage.

    148. Senator Vitter. Secretary McHugh, in addition to years of 
program delays, cost overruns, and technological challenges for the 
MEADS program, I understand there may be changes to the key performance 
parameters (KPPs) for MEADS. What changes have been made to the KPPs?
    Secretary McHugh. Currently, no changes to the KPPs are being made; 
however the U.S. Army TRADOC has been tasked to review MEADS 
requirements

    149. Senator Vitter. Secretary McHugh, is it possible that an AMD 
system could be centered around the upgraded Patriot AMD system, which 
I understand would be a more cost-effective alternative to MEADS?
    Secretary McHugh. While it is possible, even an upgraded Patriot 
Air and Missile Defense system would not meet the MEADS requirements 
for a 360-degree surveillance and fire control capability.

    [Whereupon, at 12:18 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                      THURSDAY, FEBRUARY 25, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                         DEPARTMENT OF THE NAVY

    The committee met, pursuant to notice, at 9:37 a.m. in room 
SDG-50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Bill Nelson, Webb, Hagan, Begich, Burris, Inhofe, 
Sessions, Thune, Wicker, LeMieux, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Creighton Greene, 
professional staff member; Jessica L. Kingston, research 
assistant; Peter K. Levine, general counsel; Jason W. Maroney, 
counsel; William G.P. Monahan, counsel; John H. Quirk V, 
professional staff member; and Russell L. Shaffer, counsel.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Michael V. Kostiw, professional staff member; 
Lucian L. Niemeyer, professional staff member; Christopher J. 
Paul, professional staff member; and Diana G. Tabler, 
professional staff member.
    Staff assistants present: Paul J. Hubbard, Christine G. 
Lang, and Brian F. Sebold.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Nick Ikeda, assistant to Senator Akaka; 
Christopher Caple, assistant to Senator Bill Nelson; Juliet 
Beyler and Gordon Peterson, assistants to Senator Webb; Julie 
Holzhueter, assistant to Senator Hagan; David Ramseur, 
assistant to Senator Begich; Brady King, assistant to Senator 
Burris; Anthony J. Lazarski, assistant to Senator Inhofe; 
Sandra Luff, assistant to Senator Sessions; Clyde A. Taylor IV, 
assistant to Senator Chambliss; Jason Van Beek, assistant to 
Senator Thune; Erskine Wells III, assistant to Senator Wicker; 
Brian Walsh, assistant to Senator LeMieux; and Chip Kennett, 
assistant to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. We welcome 
Secretary Mabus, Admiral Roughead, and General Conway to our 
committee this morning to testify on the plans and programs of 
the Department of the Navy in our review of the fiscal year 
2011 annual budget and overseas contingency operations (OCO) 
request. This committee is grateful to each one of you for your 
service to our Nation and for the valorous and truly 
professional service of the men and women under your command, 
and we are also grateful to their families.
    Since our last meeting, the Department of Defense (DOD) has 
completed the 2009 Quadrennial Defense Review (QDR). We look 
forward to the witnesses' assessments of the 2009 QDR, what it 
means for the Department of the Navy today and into the future, 
and how their fiscal year 2011 budget request supports the 
changes which were directed.
    Our witnesses this morning are faced with a number of 
critical issues that confront the Department of the Navy in the 
budget, such as balancing modernization needs against the costs 
of supporting ongoing operations in Iraq and Afghanistan. The 
President's strategic review, concluded in December, called for 
a surge in additional U.S. Marine Corps forces to Afghanistan, 
including an increase to 18,500 marines in Afghanistan by March 
2010, with that number rising to 19,400 by mid-April.
    The recent launch of major operations in southern 
Afghanistan represents a critical test of the President's 
counterinsurgency strategy and the campaign plan developed by 
the International Security Assistance Force (ISAF) commander, 
General McChrystal, to implement that strategy. U.S. and ISAF 
personnel, with the U.S. Marines playing a central role, are 
partnering side by side with Afghan forces in support of 
extending the authority of the Government of Afghanistan to the 
Central Helmand River Valley, including the former Taliban 
stronghold of Marjah.
    The ratio of Afghan to U.S. troops in Marjah is almost one 
to two, one Afghan soldier to two coalition troops, a 
considerable improvement, as I've mentioned before, over the 
one to five ratio which was the case when a number of us 
visited the marines in Helmand Province last September. General 
Petraeus, commander of U.S. Central Command (CENTCOM), has 
called this operation the initial salvo of a 12- to 18-month 
military campaign. The extraordinary bravery of our soldiers 
and marines, as well as our allies, reminds us once again how 
truly heroic our men and women in uniform are.
    I've argued for a long time that our principal focus in 
Afghanistan should be the building of the capacity of the 
Afghan army and police so they can take the lead in providing 
for their country's security. In this respect, it is difficult 
to understand why there has been a persistent shortfall in the 
number of trainers available to provide the 8-week basic 
training to Afghan security forces. That is a totally 
unacceptable situation.
    As we discussed in my office, General Conway, you and the 
Marines are looking for ways to help out General Bill Caldwell, 
the head of the North Atlantic Treaty Organization (NATO) 
Training Command in Afghanistan, to help him to fill the gap by 
deploying Marines on shorter rotation to Afghanistan to serve 
as trainers for the Afghan army, and we're going to be 
interested in getting your update on the progress in supplying 
those marines as trainers.
    We have proceeded with the drawdown of Marine Corps forces 
in Iraq. Where these forces once averaged roughly 25,000 
marines, as of last Friday there were only about 150 marines in 
Iraq. By spring, the marines will have completed their 
redeployment.
    The Navy has also been contributing directly to the war 
effort in CENTCOM as well. In addition to normal deployments of 
ships and aircraft in support of these operations, the Navy 
currently has deployed almost 12,000 individual augmentees 
(IAs) to support these missions on the ground in Afghanistan 
and Iraq. In total, the Navy provides approximately 15,600 
sailors in the form of IAs, including 3,800 personnel in the 
training pipeline to fulfill mission requirements of the 
combatant commanders.
    So we express the thanks of this committee for how well and 
ably the men and women of the Department of the Navy and their 
families are responding to these challenges.
    Many of the challenges facing the Department of the Navy 
center on acquisition programs. We have great concerns about 
cost problems in the shipbuilding arena, the most notable 
example being the Littoral Combat Ship (LCS) program. Since 
last year the Navy has decided on a winner-take-all acquisition 
strategy for the contract for the two LCS vessels approved in 
the fiscal year 2010 budget.
    We also look forward to receiving all of the analytical 
efforts that were required by our National Defense 
Authorization Act for Fiscal Year 2010 regarding future surface 
combatant production and the truncation of the DDG-1000 
production line. We understand that the Navy decided to make 
this change for a number of reasons, including mission 
requirements and affordability. However, we want to ensure that 
whatever program we pursue has a sound basis in reasoning 
behind it before we launch on another vector.
    If the Department of the Navy is unable to get control of 
its acquisition programs and cost growth, there is no way that 
the Navy is going to be able to afford the fleet of 313 ships 
that Admiral Roughead says that he needs, and it is obvious 
that other capabilities would suffer as well. I cannot 
overstress the importance that the whole Navy Department 
shoulders its responsibility to correct mistakes in acquisition 
programs because the future strength of our Navy depends on it.
    General Conway, lest you feel left out of the acquisition 
discussion, you're pursuing the Expeditionary Fighting Vehicle 
(EFV) program. In your prepared statement you emphasize the 
importance of the EFV to the Marine Corps' amphibious assault 
mission and of the continuing relevance of that mission and 
capability to our Nation's defense. The Marine Corps' 
amphibious assault concept rests on launching an assault from a 
safe distance from shore, beyond where our ships can be easily 
observed and attacked. This concept depends on an ability to 
swim ashore from 20 to 30 miles out to sea with armored 
vehicles, which is the purpose of the EFV.
    The QDR heavily emphasized the need to overcome the so-
called anti-access capabilities and strategies that might be 
employed by potential adversaries and approved continuing the 
EFV program despite previous cost, schedule, and performance 
issues with the program. So we need to understand how the 
Marine Corps' amphibious assault mission relates to the anti-
access concerns and initiatives discussed in the QDR and what 
are you doing in the EFV program to correct the previous 
problems with the program.
    The President last year signed the Weapons Systems 
Acquisition Reform Act (WSARA). While I'm certain that this 
legislation is going to help correct past problems, we also 
know that we will succeed only through concerted efforts within 
the executive branch to implement the spirit of that 
legislation and improve past behavior within the Department. We 
in Congress cannot legislate a culture change. So we look 
forward to hearing how the Department of the Navy is proceeding 
to implement the provisions of this act.
    Another concern surrounds future ship and aircraft force 
levels. We are facing the prospect that the current Navy 
program will lead to potentially large gaps between the forces 
that the Chief of Naval Operations (CNO) has said that he needs 
and the forces that will be available to his successors. For 
instance, the Navy is facing a shortfall of as many as 250 
tactical fighters needed to outfit our 10 aircraft carrier air 
wings and 3 Marine Corps air wings in the middle of this 
decade. With shortfalls that large, we could be faced with 
drastically reducing the number of aircraft available on short 
notice to the combatant commanders, either because we have 
deployed under strength air wings or because we did not deploy 
the carrier at all because of these aircraft shortages.
    Since the last time we saw a Future Years Defense Program 
(FYDP), we've actually had a slight net loss of production of 
new strike fighter aircraft over comparable years in the FYDP, 
a result that cannot help this situation.
    Turning to naval readiness, currently the Navy is operating 
with a 1-year backlog in aircraft and ship depot maintenance. 
When asked for your unfunded priorities in the fiscal 2010 
budget request, Admiral Roughead, you only had two unfunded 
items on your list, aircraft and ship depot maintenance in the 
amount of $395 million. Both sides of the aisle on this 
committee, as well as our House counterparts, authorized that 
critical funding, but, unfortunately, that addition was not 
supported by the appropriators. As a result, over $188 million 
in deferred maintenance was not executed last year.
    In the fiscal year 2011 presidential budget request, again 
we have a very short list from the Navy of unfunded 
requirements, including aircraft and ship depot maintenance and 
aircraft spares to meet the Navy's maintenance requirements. 
While we encourage the Navy's commitment to these vital 
readiness accounts, we're very interested in hearing from the 
witnesses today specifically why this funding is critical to 
the Navy's mission, what were the effects of not receiving last 
year's maintenance funding, and what are the potential 
ramifications of not receiving additional fiscal year 2011 
funds to support these needs.
    Readiness rates need to be restored rather than delayed. 
Additionally, I believe it is essential that the Navy not rely 
on OCO funding to make up for maintenance shortfalls. Such an 
approach does not contribute to long-term sustainment and risks 
degrading the expected service life of the fleet.
    We look forward to hearing your testimony. Again, we are 
grateful to you and your families for supporting your service 
and, of course, the men and women that you command.
    Senator McCain is not here. Senator Inhofe is the acting 
ranking member this morning.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Mr. Chairman, I'm going to go ahead and 
submit Senator McCain's statement for an opening statement. But 
I'd like to make an observation. When we have these Navy 
posture hearings, I look around and I see a very heavy 
representation from coastal States, and I'm not sure why. I'd 
like to remind my colleagues up here of something that may 
surprise them a little bit: We in my State of Oklahoma are in 
fact navigable. We have a navigation way that we put in many 
years ago.
    In fact, when I was in the State senate many years ago, the 
head of the World War II submarine veterans came to me and he 
told me the story of the submarine veterans, about how half of 
them died in World War II and the other half took care of the 
families of those others. He said, ``I'd like to do a memorial; 
I'd like to bring a World War II submarine all the way up to 
Oklahoma.''
    We studied it and it could be done. So we went down to 
Orange, TX, and got the USS Batfish and we took all 300 feet of 
this thing all the way up the channel. It had to go down under 
some of the bridges and have flotation and all that. All my 
adversaries were saying, ``We're going to sink Inhofe with his 
submarine.'' But we made it, so we have a submarine in my State 
of Oklahoma.
    We also have quite a presence, which surprises people, of 
Navy and Marines, with TACAMO Operations for E-6s at Tinker Air 
Force Base. There is a very large presence of Navy there. At 
Vance Air Force Base we're doing primary training of not just 
Air Force, but also Navy and the Marines. Then down at Fort 
Sill we do most of the artillery training, General Conway, for 
marines there at Fort Sill in my State of Oklahoma. So we have 
a great personal interest in this hearing today.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Mr. Chairman, I join you in welcoming our witnesses here today to 
discuss the President's budget request for fiscal year 2011 for the 
Department of the Navy. I'm sure I speak for all members of our 
committee when I say that our thoughts and prayers are with all the 
deployed sailors and marines, with their families, and with particular 
concern for those marines who are currently engaged in the combat 
operations. I also want to commend the thousands of men and women of 
the Navy and Marine Corps who deployed to Haiti within just a few hours 
of the earthquake to support humanitarian efforts there. Their hard 
work and dedication reflects the very finest traditions of the 
Department of the Navy.
    While supportive of your fiscal year 2011 budget submission, I do 
have concerns about the Navy's future force that I would like to have 
you specifically address.
    For example, last year, the Navy estimated that its shortfall of 
carrier-based strike-fighter aircraft was growing larger than previous 
estimates--243 aircraft short by 2018. That number is now 100. I'd like 
to know what the Navy's current appraisal of that ``strike-fighter 
gap'' is and what steps it is taking under its budget proposal to 
manage that issue. While this is undoubtedly an important issue, 
protecting taxpayers' interests requires that any proposal to buy more 
F/A-18s under a multi-year contract fully complies with applicable law.
    On the F-35 Joint Strike Fighter (JSF) Program, with a newly 
announced slip in development of 13 months, that program appears to be 
headed into another breach of Nunn-McCurdy's cost growth limits. Among 
my concerns here is whether the Navy and Marine Corps will be equipped 
with the F-35 in time to have the capability they need, when they need 
it. With the Marine Corps expected to take delivery of a squadron of 
these fighters first among all the Services in 2012 and its acute 
reliance on this Program to provide much-needed capability, my concerns 
about this Program apply with the most force to them.
    On ship depot maintenance, I am encouraged that this year the Navy 
has added about $1.2 billion over last year's request to overhaul ships 
and, in particular, restore those systems that affect safety and 
current combat capability to established performance levels. But, that 
amount does not cover the ship maintenance periods that were not funded 
in last year's budget--because the appropriators saw it fit to strip 
that money away to fund earmarks. Still, that leaves nine additional 
ships that will not undergo repair work next year. From the witnesses, 
I would like to hear their concerns about underfunding ship overhauls 
and whether our surface fleet may be returning to the days of a hollow 
force.
    On the Littoral Combat Ships Program, the Navy will down-select to 
a single sea frame and split its production between two competing 
shipyards--reflecting a new acquisition strategy designed to reduce the 
ship's overall cost. I would like to know whether the costs of that 
troubled program will be below the congressional cost cap and whether 
the Program will finally deliver the capability that it was designed to 
provide at its inception.
    Next, the LPD-17 amphibious ship program has too seen more 
challenges than we had hoped. From the witnesses, I would like to know 
if we are seeing a systemic problem with the readiness of the Navy's 
amphibious ships and how the budget request addresses that issue.
    Finally, the Navy's 30-year Shipbuilding Plan calls for the 
replacement of 14 Ohio-class submarines and the multi-year procurement 
of 2 Virginia-class attack submarines per year to replace Los Angeles-
class submarines. But, those ballistic missile submarines run about 
$6.5 billion each and the Virginia-class submarines cost about $2 
billion each. That alone consumes over 75 percent of the current 
shipbuilding budget. Particularly in the context of our current 
economic challenges, we have to be careful that our commitment to 
recapitalizing the submarine fleet does not impinge on our commitment 
to the surface fleet. I hope the witnesses can give us their views on 
the impact of the Plan on our force projection capability in the future 
and the shipbuilding industrial base.
    I would like to take a moment to convey my support the Department's 
decisions to terminate or cut back on those Navy and Marine Corps 
programs that have benefited from a reassessment of our requirements or 
suffered from a chronic inability to manage development and production 
risk. Those programs include canceling plans to build two new joint 
command ships; delaying the Expeditionary Fighting Vehicle Program; and 
terminating the EP-X manned intelligence, surveillance, and 
reconnaissance aircraft program, as well as the JSF Alternate Engine 
program and the Next Generation Cruiser (CG(X)). According to the 
Office of Management and Budget, those program cuts will save taxpayers 
as much as $573 million over last year's budget, freeing up resources 
much needed by our combatant commanders to fight the fights we are in 
and defense against threats likely to arise in the future.
    I look forward to hearing from these witnesses on these, and other, 
tough but important issues, which go squarely to how we arm and equip 
those men and women who serve their Nation so selflessly at home and 
abroad.
    Thank you, Chairman Levin.

    Chairman Levin. Thank you very much, Senator Inhofe.
    Secretary Mabus.

 STATEMENT OF HON. RAYMOND E. MABUS, JR., SECRETARY OF THE NAVY

    Mr. Mabus. Mr. Chairman, Senator Inhofe, and distinguished 
members of this committee, it's a real pleasure to be here 
today with you. The CNO, the Commandant, and I are grateful for 
the commitment that the members of this committee have shown to 
the men and women in uniform in the Navy and Marine Corps. We 
are exceptionally proud to be here today representing our 
sailors, marines, civilians, and their families.
    The Navy and Marine Corps remain the most formidable 
expeditionary fighting force in the world, capable of 
operations across the entire spectrum of warfare. Today 40 
percent of our forces are deployed and over half our fleet is 
at sea. In Helmand Province, Afghanistan, more than 15,000 
marines are engaged in major combat, counterinsurgency, and 
engagement operations, including, as the chairman pointed out, 
the effort to clear the Taliban from their stronghold in 
Marjah. They're supported by naval aircraft flying close air 
support from the Eisenhower and our forward-deployed 
expeditionary aviation assets.
    A total of 12,000 sailors are on the ground in Iraq, 
Afghanistan, and across the broader Middle East and another 
9,000 sailors and marines are embarked on our ships at sea. Off 
the coast of Africa, ships are protecting international 
commerce off Somalia, and ships are operating as partnership 
stations with our regional allies. Off the coast of South 
America, more ships are stemming the flow of illegal drugs into 
the United States.
    Our ballistic missile defense forces are ready to defend 
against any threat to international peace in Europe, the Middle 
East, and the Pacific Rim, where our forward-deployed forces 
continue their role as a strategic buffer and deterrent against 
rogue states and potential competitors alike. Today in Haiti, 9 
ships and 1,900 marines from the 22nd Marine Expeditionary Unit 
(MEU) continue to provide humanitarian aid, medical assistance, 
and disaster relief.
    The Navy and Marine Corps are flexible, responsive, and 
everywhere our Nation's interests are at stake. Our global 
presence reduces instability, deters aggression, and allows us 
to respond rapidly to any crisis.
    I believe that the President's fiscal year 2011 budget for 
the Department of the Navy is a very carefully considered 
request that gives us the resources we need to conduct 
effective operations and meet all the missions we have been 
assigned. Our shipbuilding and aviation requests concur with 
the findings of the QDR and its objectives of prevailing in 
today's wars, preventing conflict, preparing for future wars, 
and preserving the force.
    With this budget, the Navy and Marine Corps will continue 
to maintain the maritime superiority of our forces, sustain a 
strong American shipbuilding base, and ensure our capacity for 
rapid global response.
    Across the FYDP, we have requested the funds to build an 
average of 10 ships a year, including 1 carrier, 1 big-deck 
amphibious ship, 10 Virginia-class submarines, and 17 LCSs. 
We'll leverage the technologies captured from the canceled 
Future Cruiser Program and truncated DDG-1000 program into what 
will become our Flight 3 Burke-class guided missile destroyers. 
These technologies include the SPY-3 and air and missile 
defense radar.
    Through the submitted shipbuilding plan, we will increase 
the size of our fleet to approximately 320 ships by 2024. In 
our shipbuilding program, I believe we have made the most cost 
effective decisions to achieve the most capable force, one that 
achieves equal flexibility to confront missions across the 
spectrum of conflict from the technically complex, like 
ballistic missile defense and integrated air defense, to low 
intensity, humanitarian response, and regional engagement.
    In aircraft procurement, we have requested just over 1,000 
aircraft across the FYDP, including both fixed and rotary wing. 
Over the next year, the Navy and the Marine Corps will continue 
to move ahead with changes to our acquisitions process. In 
compliance with the WSARA, we are aggressively developing our 
acquisition strategies to ensure that on-time and on-budget 
becomes the standard for the Navy and Marine Corps.
    I'm grateful for the support of this committee for the 
decision to recompete the LCS program when it failed to meet 
program standards, and I can assure you that we will not 
hesitate to recompete or cancel other programs whenever 
substandard performance demands such a change.
    Change is also required to address the way in which the 
Navy and Marine Corps use and produce energy. Energy reform is 
an issue of national security and it's essential to maintaining 
our strategic advantage, warfighting readiness, and tactical 
edge. By 2020, I've committed the Navy to generate half of all 
the energy we use from alternative sources.
    Forty years ago, I stood watch on the deck of the USS 
Little Rock as a young junior officer. Today I have the great 
and solemn privilege of standing watch on behalf of our Navy 
and Marine Corps in a time of war and national challenge. I'm 
honored by the trust that the President and Congress have 
placed in me and fully recognize the solemn obligation I have 
to those who defend us.
    I, along with the CNO and the Commandant, look forward to 
hearing your thoughts, answering your questions about our 
budget request, our specific programs, and our policies. I also 
look forward to working closely with you as we move forward to 
sustain the Navy and Marine Corps as the most formidable 
expeditionary fighting force in the world.
    Thank you.
    [The prepared statement of Mr. Mabus follows:]
            Prepared Statement by Hon. Raymond E. Mabus, Jr.
    Chairman Levin and Senator McCain, it is a pleasure to be here 
today with the Senate Armed Services Committee as the representative of 
the nearly 900,000 sailors, marines, and civilians that make up the 
Department of the Navy. The Chief of Naval Operations, the Commandant 
of the Marine Corps and I are privileged to lead some of the best men 
and women in the country, who are selflessly serving the United States 
all around the world in support of our safety, our security, and our 
national interests.
    The Navy and Marine Corps remain the most formidable expeditionary 
fighting force in the world. We are America's Away Team. The mission 
and experience of our team is well matched to the multiple and varied 
challenges that threaten our Nation's security and global stability.
    Today the Navy and Marine Corps are conducting operations across 
the spectrum of military operations, from major combat and ballistic 
missile defense to humanitarian assistance and disaster relief.
    Fifteen thousand marines are at the forefront of our Nation's 
defense, serving in and around Helmand Province, Afghanistan. By spring 
this number will grow to almost 20,000. It is a testament to the 
responsiveness and combat capability of the Marine Corps that the first 
troops to depart for Afghanistan in the wake of the President's 
December 1 announcement were 1500 marines from Camp Lejuene, NC. The 
new arrivals, who deployed before the end of last year, joined the 
Second Marine Expeditionary Brigade already in place. Together they are 
taking the fight to the Taliban and al Qaeda in their sector and 
assisting the Afghan Provincial Government in reestablishing control. 
General Conway describes their capability as a two-fisted fighter, 
capable of simultaneously combating an adaptive and insidious 
insurgency among the Afghan civilians while maintaining the skill set 
to conduct major combat operations.
    The Navy in Afghanistan is contributing Special Operations Forces, 
Explosive Ordnance Disposal Teams, Seabee civil engineering assets, all 
of the airborne expeditionary tactical Electronic Warfare capability, 
medical and intelligence professionals, and logistical support. From 
our carriers operating in the Indian Ocean, we are launching a 
significant percentage of the close air support that watches over our 
marines and soldiers on the ground. The Navy has over 12,000 sailors on 
the ground in Central Command supporting joint and coalition efforts in 
both Iraq and Afghanistan and another 9,000 sailors at sea supporting 
combat operations.
    The Navy and Marine Corps today are globally engaged in a host of 
other security and stability operations. In our cruisers and 
destroyers, the Navy has built a strong ballistic missile defense 
force. These multi-mission ships routinely deploy to the Mediterranean, 
the Arabian Gulf, and the Western Pacific and extend an umbrella of 
deterrence. Across the Future Years' Defense Program we will expand 
this mission and operationally implement the President's decision in 
September 2009 to focus on sea-based ballistic missile defense.
    That capability is complemented by the continued preeminence of the 
ballistic missile submarines in our strategic deterrent force, who 
operate quietly and stealthily on station every day of the year.
    In the Gulf of Aden and Western Indian Ocean, Combined Task Force 
151 is leading the international effort to combat piracy in the Gulf of 
Aden. They are coordinating their operations with forces from the 
European Union, North Atlantic Treaty Organization, and a total of 24 
Nations contributing ships, aircraft, and staff personnel as well as 
operational and intelligence support.
    Our ships and maritime patrol aircraft in the Caribbean and off 
South America are working with the Coast Guard-led Joint Interagency 
Task Force-South, which ties together information and forces from 13 
nations to stem the flow of illegal narcotics into the United States. 
In 2009 alone they contributed to the seizure or disruption of almost 
220,000 kilograms of cocaine with a street value of over $4 billion.
    Both the Navy and Marine Corps routinely conduct training exercises 
and multi-lateral operations with nations all around the world to 
solidify our relationships with traditional allies and forge 
partnerships with new friends. Global Partnership Stations in Africa, 
South America, and the Pacific are training hundreds of sailors, 
marines, and coastguardsmen from dozens of nations and are supporting 
regional diplomatic and humanitarian engagement efforts, like those of 
the hospital ship USNS Comfort and the Fleet Auxiliary USNS Richard E. 
Byrd in the summer of 2009. The two ships together treated over 110,000 
patients in the Caribbean, South America, and Oceania, and the USNS 
Comfort furthered an existing partnership with numerous civilian aid 
organizations.
    The Navy-Marine Corps team remains on the frontline of response to 
natural disasters. In 2009 we provided humanitarian assistance to 
Indonesia, the Philippines, and American Samoa, and delivered thousands 
of tons of food, water, and medical supplies to those affected by 
devastation. After the January 12 earthquake in Haiti, the Navy and 
Marine Corps responded immediately. Within a week of the earthquake, 11 
Navy ships, including the carrier USS Carl Vinson, the big-deck 
amphibious ship USS Bataan, and the hospital ship USNS Comfort were on 
station off the coast of Haiti. These ships embarked 41 Navy and Marine 
Corps helicopters and approximately 2,000 marines of the 22nd Marine 
Expeditionary Unit. On station, our units treated patients, provided 
helicopter lift capability, and delivered hundreds of tons of relief 
aid. Additional personnel and capabilities continued to flow in over 
the next weeks. Our mission there will continue as long as required.
    The Navy and Marine Corps are flexible, responsive, and everywhere 
that our Nation's interests are at stake. The Navy and Marine Corps' 
global presence reduces instability, deters aggression, and allows for 
rapid response to a wide range of contingencies.
    In order to ensure our continued global mobility, the Department of 
the Navy strongly supports accession to the Law of the Sea Convention. 
The United States must continue to take maximum advantage of the 
navigational rights contained in the Convention. Ratification would 
enhance stability for international maritime rules and ensure our 
access to critical air and sea lines of communication.
    I have now been the Secretary of the Navy for 9 months, and in that 
short period of time I have met thousands of our sailors and marines 
serving on the frontlines at sea and ashore. I have been constantly 
inspired by the high morale, courage, and commitment to serving our 
country displayed by every one of them as they conduct our missions. In 
return, I have continually expressed to them the appreciation of the 
American people for the sacrifices they and their families are making 
every day.
    I have met our operational commanders and seen first-hand the 
warfighting readiness of our Fleet and our Marine Forces. I have 
inspected the facilities of our industry partners who are building the 
Navy and Marine Corps of tomorrow. With the advice and support of my 
leadership team, I have made some initial decisions to better prepare 
the Navy and Marine Corps for the challenges of the future. These 
observations and our initial actions have given me a good picture of 
the Navy and Marine Corps, and from this vantage I can report to 
Congress and the President the current state of the Services, the 
budgetary requirements we need to successfully perform our mission, and 
the future direction I believe we must take.
    The Department of the Navy's fiscal year 2011 budget request 
reflects the President's priorities, Secretary Gates' strategic and 
fiscal guidance, and fundamentally aligns with the 2010 Quadrennial 
Defense Review (QDR) priorities:

          (1) Prevailing in today's wars
          (2) Preventing and deterring conflict
          (3) Preparing for a wide range of future contingencies
          (4) Preserving and enhancing the All-Volunteer Force

    This budget request of $160.7 billion will maintain across the 
Future Years' Defense Program our commitment to a strong industrial 
base. The fiscal year 2011 request of $18.5 billion for contingency 
operations includes incremental costs to sustain operations, manpower, 
equipment and infrastructure repair as well as equipment replacement to 
support our focus on increasing threats in Afghanistan and elsewhere.
    In the fiscal year 2011 budget request, we have included funds for 
nine ships, including two additional Virginia-class submarines, two 
destroyers in the restarted Arleigh Burke line, a lower-cost commercial 
variant of the Mobile Landing Platform, the multi-role Landing 
Helicopter Assault Replacement, a Joint High Speed Vessel, and two 
Littoral Combat Ships, which will be constructed under the terms of the 
down-select we will conduct this fiscal year. In aviation, we have 
requested 206 aircraft in fiscal year 2011, including 20 F-35 Joint 
Strike Fighters for both the Navy and Marine Corps, 24 MH-60R and 7 P-
8As to begin replacing our aging anit-submarine warfare (ASW) and 
maritime patrol squadrons, 18 MH-60S for logistics support, 28 H-1 
variant helicopters, and 30 MV-22 for the Marine Corps, 22 F/A-18E/F 
and 12 EA-18G to continue replacing the EA-6B. For Marine Corps ground 
operations, we have requested funding for an additional 564 Logistics 
Vehicle System Replacement (LVSR) and High Mobility Multipurpose 
Wheeled Vehicle (HMMWV) tactical vehicles. The fiscal year 2011 budget 
request also contains development funding for the Navy Unmanned Combat 
Aerial System and continues development of the Broad Area Maritime 
Surveillance Unmanned Aerial Vehicle (UAV). We have continued our 
support of the Naval Expeditionary Combat Command, including funding 
for a fourth Riverine Squadron.
    The Department's long-range shipbuilding and aviation intentions 
are designed to sustain our naval superiority and they achieve a 
balance of capability and affordability that both wins today's wars 
even while preparing for the challenges of the future.
    There are four strategic, tactical, and personnel management 
imperatives I believe the Department of the Navy must also address to 
maintain preeminence as a fighting force and successfully address 
whatever comes in the future. These four areas reinforce the strategic 
framework of the QDR and address the areas of risk it identifies. They 
are:

          (1) Taking care of our sailors, marines, civilians, and their 
        families
          (2) Treating energy in the Department of the Navy as an issue 
        of national security
          (3) Creating acquisitions excellence
          (4) Optimizing unmanned systems

    They underpin the development of our fiscal year 2011 budget 
request, execute Presidential policy, and comply with and respond to 
congressional direction.
     taking care of sailors, marines, civilians, and their families
    Sailors and marines are the fundamental source of our success. They 
are our most important asset, and they must always come first in our 
minds and in our actions. One of my most important responsibilities as 
Secretary is to ensure adequate compensation, medical care, and family 
support services are provided to our sailors, marines, civilians, and 
their families.
    The Navy and Marine Corps will continue to recruit and retain the 
same high quality individuals we brought into and kept in the service 
in 2009. We remain committed to providing a competitive pay and 
benefits package to aid recruiting. The package includes not only basic 
pay and housing allowances, but also provides incentives for critical 
specialties in health care, explosive ordnance disposal, and nuclear 
propulsion.
    Beyond compensation, we recognize that quality of life programs are 
crucial to retention and the military mission. We are providing 
expanded career opportunities, opportunities for life-long learning, 
and a continuum of care and family support. The Department continues to 
support a wide array of readiness programs, including deployment 
support services, morale and welfare services, and child and teen 
programs. Our innovative personnel management and human resource 
programs were in fact recognized by civilian experts as among the best 
in the country when, in October 2009, the Navy was named by Workforce 
Management Magazine as the winner of the Optimas Award for General 
Excellence.
    Since the attacks of September 11, 2001, over 10,000 marines and 
sailors have been wounded in action. Their service has been exemplary 
and unselfish, and in their sacrifice they have given so much of 
themselves for our country. The Department of the Navy, through the 
Wounded Warrior Regiment and the Navy Safe Harbor Program, provides 
support and assistance to our wounded, ill, and injured servicemembers 
and their families throughout recovery, rehabilitation, and 
reintegration. We continue to provide encouragement and support for 
wounded sailors and marines, in partnership with the Department of 
Veterans Affairs, long after they have left the Service.
    Our medical community has continued to strive for excellence in the 
care of our sailors and marines. Navy Medicine has reached out to its 
civilian colleagues, and we have established partnerships with civilian 
hospitals to improve our understanding and care for those affected by 
traumatic brain injuries, mental health issues, amputation, and 
disfiguring injuries. I had the opportunity last fall to see this 
first-hand, when I witnessed groundbreaking pro-bono work in 
reconstructive surgery on behalf of Wounded Warriors at the UCLA 
Medical Center.
    We will continue to aggressively address the issues of sexual 
assault prevention and response. Sexual assault is a criminal act that 
is corrosive to the readiness and morale of a professional military 
organization. In the fiscal year 2011 budget request, we have requested 
funds to support a reinvigorated program under the supervision of a new 
Office of Sexual Assault Prevention and Response, which I created 
within the Secretariat to focus attention on the issue, develop 
effective training, and coordinate prevention and response programs 
across the Navy and Marine Corps.
    In 2010, the Department will move forward on expanding the 
opportunities for women in the Navy. We will establish a process to 
integrate women into the submarine force, beginning with nuclear-
trained and Supply Corps officers on our ballistic and guided missile 
submarines.
    After 8 years of continuous combat operations, the Navy and Marine 
Corps' people remain strong, and the Chief of Naval Operations (CNO), 
Commandant of the Marine Corps (CMC), and I are very focused on 
maintaining the overall health of the force. The fiscal year 2011 
budget request reinforces these goals and is designed to provide the 
fiscal support necessary to sustain the force. The visible support of 
Congress to our personnel programs is deeply appreciated and has been 
vital in maintaining overall readiness.
                             energy reform
    The way in which we use and produce energy is an issue of national 
security and is essential to maintaining our warfighting capabilities. 
At present, we simply rely too much on fossil fuels, which are 
susceptible to both price and supply shocks caused by events in 
volatile areas of the world largely outside the scope of our control. 
Those potential shocks have, in turn, strategic, operational, and 
tactical effects upon our forces. In addition, fossil fuel emissions 
are the root cause of many of the impending security challenges of 
tomorrow, and the QDR has correctly identified that climate change and 
its effects: rising sea levels, pressure on natural resources, and 
changes to the polar regions, will increasingly affect our force 
structure and the global security environment as the 21st century 
progresses. In order to improve our long-term strategic and fiscal 
position, I have set the Navy and Marine Corps on a path to change the 
way in which we use and produce energy.
    In October 2009, I issued five energy targets. They are ambitious 
in their scope, but I firmly believe that little will be accomplished 
without bold, innovative, and timely action. The most important of the 
targets commits the Navy and Marine Corps to generating half of all the 
energy we use, including that used by the operational fleet, from 
alternative sources by 2020. I have also committed the Navy and Marine 
Corps to consider energy as a mandatory evaluation factor in 
contracting, and to consider as an additional factor in our business 
dealings, the energy footprint of the companies that sell to the Navy 
and Marine Corps.
    America is a world leader precisely because of our willingness to 
not just embrace change, but to create it. The U.S. Navy has always 
been a technological leader. We moved from wind to coal in the 19th 
century, coal to oil early in the 20th century, and to nuclear power in 
mid-century. In every transition there were opponents to change, but in 
every case the strategic and tactical position of naval forces 
improved. In this century, I have asked the Navy to lead again by 
pioneering technological change through use of alternative energy. But 
I want to reiterate that every action and program we undertake must and 
will have as an effect improved warfighting capability. We will strive 
in every case to improve energy efficiency and reach cost-neutrality 
over the life of the program.
    Many of our initiatives are already doing this. We conducted a 
ground test of an F/A-18 Hornet jet engine this fall running on a 
biofuel blend and we intend to conduct an airborne test of the ``Green 
Hornet'' later this year. In late 2010, the Navy will also conduct 
tests of a more efficient F/A-18 engine, which will increase the 
aircraft's range. Afloat, the USS Makin Island, the first ship 
constructed with a hybrid-electric drive that dramatically lowers fuel 
consumption at lower speeds, saved approximately $2 million in a single 
transit to her new homeport in San Diego. Over the life of the ship, we 
estimate the savings will be up to $250 million using today's fuel 
prices. Writ large across the Navy, as we begin to retrofit our DDG 
fleet with similar propulsion systems, the potential fuel savings will 
only grow.
    In addition to these tactical applications, we have implemented a 
number of energy projects at our facilities ashore, and numerous other 
efficiency initiatives throughout the Fleet. As the President clearly 
stated in Copenhagen, changing the way we use and produce energy is a 
national security imperative.
                         acquisition excellence
    The ships and aircraft of the Navy and Marine Corps are unmatched 
at sea and over land. Our precision munitions, networked targeting 
systems, armored vehicles, stealth technology, and unmanned vehicles 
are advanced systems that define the leading edge of warfare in all 
domains.
    These truths have been brought home to me during my visits with the 
defense industry. I have had the opportunity to visit shipyards, 
aircraft manufacturers, factories, and depots; and I applaud the hard 
work and dedication of this country's skilled workforce--Americans who 
take as much pride in their patriotism as they do in their 
craftsmanship.
    The issue before us all, however, is affordability. Acquisition 
costs are rising faster than our budget's top-line, and without 
deliberate, sustained action to reverse this trend, we put the size and 
capability of the future force at risk. In accordance with the Weapons 
System Acquisition Reform Act passed by Congress in 2009, the Navy and 
Marine Corps will aggressively pursue additional ways to make the 
acquisitions process more rigorous; we will prudently safeguard the 
resources entrusted to us by the American taxpayer, and we will fully 
meet the obligation we hold to our Sailors and Marines.
    This requires close examination of the way we do business in our 
policies, practices, priorities, and organization, with a clear focus 
on controlling cost. The Navy and Marine Corps will continue 
initiatives to raise standards, to improve processes, to instill 
discipline in procurement, and to strengthen the professional corps 
that manages our major defense acquisition programs.
    We are pressing forward with key initiatives that promise to 
improve our ability to affordably deliver combat capability to the 
fleet.
    We are improving the quality of our cost estimates, which underpin 
our investment decisions. We are strengthening our cost estimating 
group, requiring independent cost estimates, and incorporating 
Departmental best practices in the formulation of our Service Cost 
Position for all major programs. We are using these realistic cost and 
schedule estimates to drive difficult decisions at the front end of the 
requirements process.
    We are developing our acquisition strategies with the intent of 
expanding the use of fixed price contracts, leveraging competition, and 
tightening up on the use of incentive and award fees to ensure quality 
systems are delivered consistently on budget and on time to our sailors 
and marines. When we could not achieve these objectives this past year 
on the Littoral Combat Ship program, we rewrote the program's 
acquisition strategy to improve performance through competition. I 
thank the committee for its strong support of this revised strategy, 
and I assure you that I will not hesitate to recompete or cancel 
programs when substandard performance demands change.
    We are demanding strict discipline in the execution of our 
contracts. Before commencing production on new start ship programs, I 
have reported to you the results of reviews conducted to ensure that 
designs are mature. We are specifically clamping down on contract 
changes, the most-often cited reason for cost growth, through improved 
policies and increased oversight.
    Our goals for modernizing today's force and recapitalizing the 
fleet affordably cannot be accomplished without a healthy industrial 
base and strong performance by our industry partners. We have worked 
hard to procure our ships, aircraft, and weapon systems at a rate 
intended to bring stability to the industrial base and enable efficient 
production. The Navy's long-range shipbuilding plan was developed with 
particular regard for maintaining the unique characteristics and 
strength of the base and our efforts support the QDR's emphasis on 
maintaining the defense industrial base with appropriate levels of 
competition, innovation, and capacity. The Future Years' Defense 
Program outlines construction of a balanced force of 50 ships, an 
average of 10 ships per year, which requires the full breadth of 
capabilities and services provided by our major shipbuilders and 
vendors.
    In the end, industry must perform. We will work with our shipyards, 
aircraft manufacturers, and weapon systems providers to benchmark 
performance, to identify where improvements are necessary, to provide 
the proper incentives for capital investments where warranted, and to 
reward strong performance with terms and conditions that reflect our 
desire for a strong government-industry partnership.
    To meet our objectives, we must be smart buyers. The acquisition 
workforce has been downsized over the past 15 years and in truth our 
professional acquisition corps has been stretched too thin. 
Accordingly, and with your strong support, we are rebuilding the 
acquisition workforce through a number of parallel efforts. We must 
both increase the number of acquisition workers and restore to the 
government the core competencies inherent to their profession. The 
Department has added 800 acquisition professionals in the last year 
towards the goal of increasing the community by 5,000 over the Future 
Years' Defense Program. This represents a 12 percent growth in our 
workforce.
                            unmanned systems
    The complex nature of today's security environment, as well as 
current and future anti-access threats faced by the United States 
require that the Navy and Marine Corps investigate the contributions 
unmanned systems can make to warfighting capability. Unmanned systems 
are unobtrusive, versatile, persistent, and they reduce the exposure of 
our sailors and marines to unnecessary threats. They perform a vast 
array of tasks such as intelligence collection, precision target 
designation, oceanographic reconnaissance, and mine detection, and that 
array will grow exponentially year to year.
    Navy and Marine Corps unmanned systems have already made key 
contributions to operations in Afghanistan, Iraq, and in the counter-
piracy effort off the coast of Africa. Unmanned aircraft systems have 
flown thousands of flight hours in support of Operation Iraqi Freedom 
and Operation Enduring Freedom. Unmanned ground vehicles employed by 
the Marine Corps have conducted thousands of missions detecting and/or 
neutralizing improvised explosive devices. Unmanned maritime systems 
have provided improved port security.
    We continue to support research and development activities to 
improve these capabilities and increase the level of autonomy in 
unmanned systems. Over the Future Years' Defense Program we will 
continue to focus on transitioning from research and development and 
limited deployments, through test and evaluation, to full fleet 
integration and operations. In order to best direct our research and 
harness the capabilities of unmanned systems, I am tasking the 
Department to develop a comprehensive roadmap for unmanned system 
development, to include a coordinated strategy for air, ground, 
surface, and subsurface systems focused on integration and 
interoperability with our existing platforms and capabilities.
    The initiatives and investments contained in the fiscal year 2011 
budget request will move us onto this path. I look forward to reporting 
continued progress throughout the year.
                                closing
    In this statement, I have discussed the strategic and tactical 
imperatives that guide the Department and influence the future 
decisions we will make. Specific programmatic requests are reflected in 
the fiscal year 2011 budget request, which I believe incorporates the 
difficult trade-offs and disciplined decision making that you and the 
American taxpayer expect of us. We have carefully weighed risks and 
made proposals to you that will ensure we retain a ready and agile 
force capable of conducting the full range of military operations. We 
will continue to work hard to be effective stewards of the resources 
you allocate to us.
    Forty years ago I stood watch on the deck of the USS Little Rock as 
a young junior officer. Today I have the solemn privilege of standing 
watch on behalf of our Navy and Marine Corps in a time of war and 
national challenge. I am honored by the trust the President and 
Congress have placed in me and I fully recognize the solemn obligation 
I have to those who defend us.
    That obligation fueled my desire to observe our people up close in 
their varied and often dangerous jobs. I've seen first hand the courage 
of our young marines in Helmand, the determination of a wounded SEAL to 
walk despite losing two legs, the pride of a young sailor in a hot 
engine room, the selfless dedication of corpsmen, nurses, and doctors 
caring for the fallen.
    Sacrifice and service created and preserve the freedom and 
opportunity that we enjoy as Americans. Although we aspire to create a 
world in which violence and aggression have been eliminated, we 
understand that peace and stability are often secured only when strong 
nations and good people are willing and prepared to use decisive force 
against those who threaten it. The Navy and Marine Corps stand ready to 
do so.
    Your commitment to the service of our country and your recognition 
of the sacrifice of our sailors, marines, civilians, and their families 
has been steadfast and is fully reflected in the support of this 
committee for our key programs and our people.
    I, along with my partners, the Chief of Naval Operations, Admiral 
Roughead, and the Commandant of the Marine Corps, General Conway, look 
forward to hearing your thoughts and answering any questions you may 
have about our budget request or specific programs of interest. I also 
look forward to working closely with Congress as we move forward to 
sustain the Navy and Marine Corps as the most formidable expeditionary 
fighting force in the world.
    Thank you and Godspeed.

    Chairman Levin. Thank you, Mr. Secretary.
    Admiral Roughead.

 STATEMENT OF ADM GARY ROUGHEAD, USN, CHIEF OF NAVAL OPERATIONS

    Admiral Roughead. Thank you, sir. Chairman Levin, Senator 
Inhofe, members of the committee, it is my honor to appear 
before you again representing more than 600,000 sailors and 
Navy civilians. Sixty-five thousand of them are deployed, 
12,000 on land in the CENTCOM area of operations, and 56 
percent of our fleet is underway carrying out our maritime 
strategy, a prescient precursor to the 2010 QDR.
    They are projecting power into Afghanistan, building 
partnerships in Africa, delivering relief in Haiti, silently 
patrolling under the sea in every ocean, and providing 
ballistic missile defense in the Arabian Gulf, the Western 
Pacific, and the Eastern Mediterranean with pride and 
determination.
    They are even deployed on the first LCS, 2 years ahead of 
schedule, and I think it's noteworthy that in the first week of 
that ship's deployment it seized over a quarter of a ton of 
cocaine.
    It is our sailors and Navy civilians who make all things 
possible, and thanks to your support we made important progress 
in building tomorrow's Navy, remaining ready to fight today, 
and supporting our sailors, Navy civilians, and families last 
year. This year's budget submission will take us even further.
    As the high demand for our Navy continues apace, we have 
stabilized end strength and the tone of the force remains 
positive. We will continue to aggressively improve wellness 
programs and medical and social services for our wounded 
warriors, indeed for all who serve. For our fleet as a 
continuously deployed force, we must continue to reset in 
stride. Conducting regular maintenance and training so that our 
ships and aircraft reach their expected service lives is 
extremely important.
    This year's budget aligns our baseline budget for operation 
and maintenance (O&M) accordingly and reflects a significant 
shift away from supplemental funding. I strongly request your 
support for this important change.
    While we reset, we must also procure ships and aircraft to 
reach our requirement of more than 313 ships. Last year we 
commissioned 9 ships and over the next decade our plan procures 
an average of 10 ships per year, significant growth for the 
near term.
    For aviation, we remain committed to bringing new 
capabilities on line, the Joint Strike Fighter (JSF) and 
unmanned aircraft, and to maintaining the readiness of our 
current naval air force, all of which give our Nation 
flexibility in response unencumbered by overseas basing.
    Affordability for all our plans will remain fundamental to 
our decisions. The effectiveness of our unmanned systems, 
ships, and aircraft is a feature of the systems which connect 
them. Last year, I brought information capabilities and 
resources under a single Information Dominance Directorate 
within the Navy staff and commissioned Fleet Cyber Command 10th 
Fleet. I see benefits of that already.
    I am proud of our Navy's accomplishments last year and I am 
confident we can achieve more with this year's budget 
submission. Our risk continues to trend towards significant and 
achieving the right balance within and across my priorities 
remains critical to mitigating it. But I remain optimistic 
because of our outstanding sailors and Navy civilians and the 
spirit of our Nation. We have seen more challenging times and 
emerged prosperous, secure, and free.
    I ask you to support our 2011 budget request and thank you 
for all you do to make the U.S. Navy a global force for good 
today and into the future. I look forward to your questions.
    [The prepared statement of Admiral Roughead follows:]
              Prepared Statement by ADM Gary Roughead, USN
                navy fiscal year 2011 posture statement
    Chairman Levin, Senator McCain, and members of the committee, it is 
my honor and pleasure to appear before you, once again, representing 
the more than 600,000 sailors and civilians of the U.S. Navy. Every 
day, our dedicated Navy men and women are forward deployed protecting 
the global commons in every domain: sea, land, air, space, and 
cyberspace. I appreciate your continued support for them as our Navy 
protects our Nation and our national interests.
    When I signed our Maritime Strategy with General Conway and Admiral 
Allen more than 2 years ago, I was confident that the strategy would 
prepare us well for the current and future security environments. Since 
then, it has guided our operations and investments, and I am further 
convinced of its relevance to our operations today and of its enduring 
attributes. The 2010 Quadrennial Defense Review (QDR) validated the 
underlying principle articulated in the Maritime Strategy that 
preventing wars is as important as winning wars. The QDR also declared 
that U.S. security and prosperity are connected to that of the 
international system, that deterrence is a fundamental military 
function, and that partnerships are key to U.S. strategy and essential 
to the stability of global systems. These themes reinforce the tenets 
of our Maritime Strategy and the six core capabilities it identified 
for our maritime Services: forward presence, deterrence, sea control, 
power projection, maritime security, and humanitarian assistance and 
disaster response (HA/DR).
    My priorities for the Navy remain unchanged: to build tomorrow's 
Navy, to remain ready to fight today, and to develop and support our 
sailors, Navy civilians, and their families. We are making progress in 
these areas thanks to your continued support. Some highlights follow.
    We added nine new ships to our fleet in 2009, including USS Freedom 
(LCS-1), currently on its first deployment, and USS Independence (LCS-
2), our second Littoral Combat Ship. We delivered three DDG-51 
destroyers and restarted the DDG-51 line to increase surface combatant 
capacity for maritime security, deterrence, and anti-submarine warfare. 
We are adapting our force to meet the President's demand for sea-based 
ballistic missile defense (BMD) of Europe while sustaining our current 
BMD missions in the Arabian Gulf and Western Pacific. Our Virginia-
class submarine program continues to excel with the delivery of USS New 
Mexico (SSN-779) 4 months ahead of schedule. We rolled out our first 
carrier variant of Joint Strike Fighter (JSF) (F-35C) aircraft, the 
timely delivery of which remains essential to fulfilling our strike 
fighter requirements. We are conducting the first deployment of our 
Vertical Take-Off and Landing Unmanned Aerial Vehicle (VTUAV) and we 
expect the first test flight of our Navy Unmanned Combat Aerial System 
demonstrator this year.
    In the information and cyberspace domain, I established Fleet Cyber 
Command/U.S. Tenth Fleet as the global operator of Navy's cyber, 
networks, cryptology/signals intelligence, information, electronic 
warfare, and space operations. I restructured the Navy staff to bring 
all Navy information capabilities and resources under our new 
Information Dominance Deputy Chief of Naval Operations and created the 
Navy Information Dominance Corps, integrating more than 45,000 sailors 
and civilians from our existing intelligence, information professional, 
information warfare, meteorology/oceanography, and space communities. 
About 1,400 of these sailors are deployed globally as individual 
augmentees (IAs) today, most supporting operations in the Central 
Command (CENTCOM) area of responsibility.
    More than 40 percent of our fleet is underway daily, globally 
present and persistently engaged. Our forward presence enabled the 
rapid response of our aircraft carrier USS Carl Vinson and numerous 
other surface and USNS ships, helicopters, and personnel to Haiti to 
provide humanitarian aid after the devastating earthquake in January. 
We remain engaged in operations in Afghanistan and in the drawdown of 
U.S. forces in Iraq. Navy has more than 21,000 Active and Reserve 
sailors on the ground and at sea in CENTCOM. This includes a doubling 
of our construction battalion (SEABEE) presence in Afghanistan and 
ongoing IA support to both operations. I recently issued our Navy 
Vision for Confronting Irregular Challenges to shape how our Navy will 
plan for, resource, and deliver a wide range of capabilities to 
confront irregular challenges associated with regional instability, 
insurgency, crime, and violent extremism at sea, in the littorals, and 
on shore.
    Our Navy continues to support our people and their families. We are 
in the process of expanding opportunities for service at sea to women 
in the Navy by opening to them assignments on submarines for the first 
time in history. Our Navy has received 19 national awards in the past 
18 months for its workforce planning, life-work integration, diversity, 
and training initiatives. Most notably, Workforce Management magazine 
awarded Navy the 2009 Optimas Award for General Excellence, which 
recognized the U.S. Navy as an employer of choice among the ranks of 
previous distinguished recipients such as Google, Intel, and Hewlett-
Packard. We have met or exceeded overall officer and enlisted (Active 
and Reserve) recruiting goals for 2009 and we are on track to achieve 
similar success in 2010. I appreciate the support of Congress for our 
fleet and its dedicated sailors, Navy civilians, and their families 
that serve our Nation every day.
    I continue to focus on ensuring our Navy is properly balanced to 
answer the call now and in the decades to come. Last year, I stated our 
risk was moderate trending toward significant because of the challenges 
associated with Fleet capacity, increasing operational requirements, 
and growing manpower, maintenance, and infrastructure costs. This risk 
has increased over the last year as trends in each of these areas have 
continued. We are able to meet the most critical combatant commander 
demands today, but I am increasingly concerned about our ability to 
meet any additional demands while sustaining the health of the force, 
conducting essential maintenance and modernization to ensure units 
reach full service life, and procuring our future Navy so we are 
prepared to meet the challenges of tomorrow.
    The costs to own and operate our fleet continue to rise due to 
increasing operational demands, higher maintenance requirements, and 
growing manpower costs. Over the last decade, the overall size of our 
active fleet decreased by more than 30 ships, about 10 percent, and our 
active duty end strength decreased by about 13 percent, while 
operational demands globally have grown. Our Navy's high tempo of 
operations has placed additional stress on our smaller fleet of 
sailors, ships, and aircraft and we are consuming the service life of 
our fleet at a higher than expected rate. We are implementing force 
management measures in the near term to stretch the capacity of our 
285-ship force to meet increasing global requirements. Through our 
Fleet Response Plan, we are tailoring our training and maintenance 
cycles to generate ready forces, allowing us to meet the most critical 
combatant commander requirements today. The impact of these measures on 
our fleet has been felt in longer deployments and shorter dwell times, 
which increase stress on our sailors and drive up maintenance 
requirements and costs for our ships and aircraft. Regular maintenance 
of our ships and aircraft, and training and certification of our crews 
between deployments, is essential to our ability to sustain our force. 
It is how we reset. This ``reset in stride'' is different from other 
Services. It ensures our ships and aircraft maintain the required 
continuous forward presence whether supporting coalition troops in 
Afghanistan, deterring North Korea and Iran, or providing humanitarian 
aid in Haiti. For our Navy, continuous reset translates into decades of 
service for each ship and aircraft, a significant return on investment.
    Our reset and readiness are tied directly to our operation and 
maintenance (O&M) funding. Over the last decade, we have relied upon a 
combination of base budget and overseas contingency operations (OCO) 
funding to operate and maintain our Navy. Our fiscal year 2011 OCO 
request for O&M is tightly focused on supporting our ongoing and 
increased operations in CENTCOM. Our fiscal year 2011 base budget 
request for O&M is focused on properly sustaining our ships and 
aircraft so they reach their expected service life; funding enduring 
readiness requirements, particularly in aviation; and funding price 
increases, most notably in fuel, to support our enduring operations. 
Together, our OCO and base budget O&M requests reflect our commitment 
to resource current operations while preserving our fleet for future 
operations. I ask for your full support of this year's O&M request.
    Our fiscal year 2011 budget request achieves the optimal balance 
among my priorities to build tomorrow's Navy, to remain ready to fight 
today, and to develop and support our sailors, Navy civilians, and 
their families. It supports our Maritime Strategy and the 2010 QDR and 
continues us on the path we started in fiscal year 2010 to support our 
forces forward, take care of our people, continue rebalancing our force 
to meet current and future challenges, and reform how and what we buy. 
Highlights follow.
                         build tomorrow's navy
    Since the release of our Maritime Strategy, I have stated that our 
Navy requires a minimum of 313 ships to meet operational requirements 
globally. This minimum, a product of our 2005 force structure analysis, 
remains valid. We are adjusting our requirement to address increased 
operational demands and expanding requirements, as outlined in the QDR, 
for BMD, intra-theater lift, and forces capable of confronting 
irregular challenges. Our shipbuilding plan addresses these operational 
needs by growing our fleet to 315 ships in 2020 and peaking at 320 
ships in 2024. Per the President's direction, we will improve our 
capacity to conduct sea-based BMD of Europe by increasing our inventory 
of Aegis-capable ships through our restarted DDG-51 production line and 
modernization of our existing cruisers and destroyers. The funding for 
these upgrades will deliver the capability and capacity of ships 
required to perform this mission while maintaining sustainable 
deployment ratios for our sailors. To fulfill combatant commander 
requirements for intra-theater lift, we will increase the number of 
Joint High Speed Vessels (JHSV) in our Fleet; the large payload bays, 
speed, and shallow draft of these versatile ships make them capable of 
supporting a wide range of naval missions, including security 
cooperation, security force assistance, and logistics support. To 
provide forces capable of confronting irregular challenges, we will 
continue to pursue the planned number of Littoral Combat Ships, 
providing a flexible and modular ship optimized for operations close to 
shore. We are moving from developing a Maritime Prepositioning Force 
(Future) squadron optimized for high-end, forcible entry operations to 
augmenting our three existing Maritime Prepositioning Squadrons (MPS) 
with enhanced sea basing capabilities that are useful across a wide 
range of military operations. The augmented MPS will support our 
amphibious warfare force, which we will build to a minimum of 33 ships 
to increase our capacity to conduct theater security cooperation, 
sustain combat and assistance operations from the sea, and hedge 
against future conflict.
    We have improved the balance among capability, capacity, 
affordability, and executabilty in our procurement plans by developing 
a shipbuilding plan that procures our most needed capabilities, 
increases Fleet capacity in the near-to-mid-term, and is fiscally 
executable within the FYDP. It carefully manages increasing levels of 
operational and institutional risk, recognizing that, for as much as 
our Navy does to protect our national security and prosperity, the 
overall economy of our Nation undoubtedly does more. I am confident our 
near-term plan provides the capability and capacity we need to conduct 
contingency operations and build partner capacity while retaining our 
ability to deter aggressors, assure allies, and defeat adversaries. 
Beyond 2024, I am concerned about the decrease in Fleet capacity that 
will occur as our legacy cruisers, destroyers, submarines, and 
amphibious ships reach the end of their service lives. Many of these 
ships were brought into service during the 1980s, when we procured some 
ship classes at a rate of four to five ships per year. While economic 
and security conditions are sure to change between now and then, it 
takes 10 to 15 years to design and build our ships, which then remain 
in service for 20 to 50 years. A long view is necessary to ensure our 
Navy has sufficient capacity to protect America's global national 
interests in the future.
    As directed by the QDR, we are working with the Air Force and 
Marine Corps on an Air Sea Battle concept that will identify the 
doctrine, procedures, training, organization, and equipment needed for 
our Navy to counter growing military threats to our freedom of action. 
This joint effort will help us inform investments and identify future 
opportunities to better integrate naval and air forces across the 
entire range of operations. We are already moving forward with the Air 
Force to streamline capabilities, manpower, and resources related to 
our unmanned aviation systems. We continue to pursue our unique 
maritime aviation capabilities in carrier-based strike, anti-submarine 
warfare, and naval special warfare missions.
    Underpinning the capacity and capability of our fleet is a highly 
technical and specialized industrial base. A strategic national asset, 
our shipbuilding and aviation industrial base is essential to 
sustaining our global fleet and remains a significant contributor to 
our Nation's economic prosperity. Our shipbuilding industrial base 
directly supports more than 97,000 uniquely-skilled American jobs and 
indirectly supports thousands more through second and third tier 
suppliers. The highly specialized skills in our shipbuilding base take 
years to develop and, if lost, cannot be easily or quickly replaced. 
Level loading and predictable ship procurement allow industry to 
stabilize its workforce and retain the critical skills essential to our 
national security.
    I am committed to reducing the total ownership cost of our fleet so 
that what we buy today does not pressurize our ability to operate 
tomorrow. Significant cost drivers for our Fleet include increasing 
technical and design complexity, changes in requirements, reductions in 
the number of ships procured, and higher labor costs. To reduce these 
costs, we are pursuing common hull forms and components, open 
architecture for hardware and software, and increased modularity. 
Moreover, we are considering total ownership costs in procurement 
decisions. We are exploring new ways to design our ships with greater 
affordability throughout their lives, including reducing costs of fuel 
consumption, maintenance, and manpower and by increasing the efficiency 
of our maintenance and support processes and organizations. We are 
leveraging open production lines to deliver proven and required 
capabilities, such as in our DDG-51 and EA-18G programs. We are 
promoting longer production runs with our Virginia class SSNs, EA-18G 
and F/A-18E/F, P-8A, BAMS, and DDG-51 programs. We are capitalizing on 
repeat builds to control requirements creep and increase predictability 
with our aircraft carrier, destroyer, and submarine programs. Finally, 
we are pursuing evolutionary instead of revolutionary designs to 
deliver required future capabilities. Our future missile defense 
capable ship, for example, will be developed by spiraling capability 
into our DDG-51-class ships, instead of designing and building a new 
cruiser from the keel up.
    I remain committed to delivering a balanced and capable fleet that 
will meet our national security requirements. I seek your support for 
the following initiatives and programs:
                           aviation programs
Aircraft Carrier Force Structure
    The Navy remains firmly committed to maintaining a force of 11 
carriers for the next 3 decades. With the commissioning of USS George 
H.W. Bush (CVN-77) and inactivation of the 48-year-old USS Kitty Hawk 
(CV-63), our last conventionally powered aircraft carrier, we now have 
an all nuclear-powered carrier force. Our carriers enable our Nation to 
respond rapidly, decisively, and globally to project power, as we have 
done in Iraq and Afghanistan, or to deliver humanitarian assistance, as 
we have done in Haiti, while operating from a small, yet persistent, 
footprint that does not impose unnecessary political or logistic 
burdens on other nations. Our carriers remain a great investment for 
our Nation.
    Our 11-carrier force structure is based on worldwide presence and 
surge requirements, while also taking into account training and 
maintenance needs. I thank Congress for granting us a waiver to 
temporarily reduce our force to 10 carriers for the period between the 
inactivation of USS Enterprise (CVN-65) and the delivery of Gerald R. 
Ford (CVN-78). We will continue to meet operational commitments during 
this 33-month period by managing carefully carrier deployment and 
maintenance cycles. After the delivery of CVN-78, we will maintain an 
11-carrier force through the continued refueling program for Nimitz-
class ships and the delivery of our Ford-class carriers at 5-year 
intervals starting in 2020.
    CVN-78 is the lead ship of our first new class of aircraft carriers 
in nearly 40 years. Ford-class carriers will be our Nation's premier 
forward-deployed asset capable of responding to crises or delivering 
early decisive striking power in a major combat operation. These new 
carriers incorporate an innovative new flight deck design that provides 
greater operational flexibility, reduced manning requirements, and the 
ability to operate current and future naval aircraft from its deck. 
Among the new technologies being integrated in these ships is the 
Electromagnetic Aircraft Launch System (EMALS), which will enable the 
carrier's increased sortie generation rate and lower total ownership 
costs. EMALS is on track for an aircraft demonstration later this year 
and is on schedule to support delivery of CVN-78 in September 2015.
Strike Fighter Capacity: Joint Strike Fighter and F/A-18 E/F
    Our Navy remains committed to the JSF program. The timely delivery 
of the F-35C carrier variant remains critical to our future carrier 
airwing strike fighter capacity. Our Navy has the necessary tactical 
aircraft capacity in the near term to support our Nation's strategic 
demands; however, a January 2010 assessment forecasts a decrease in our 
carrier-based strike fighter capacity that peaks in 2014 and remains 
through 2019. We have a plan to address this capacity decrease that 
involves several management and investment measures.
    Our force management measures are targeted at preserving the 
service life of our existing legacy strike fighter aircraft (F/A-18 A-
D). We will reduce the number of aircraft available in our squadrons 
during non-deployed phases to the minimum required. We will reduce our 
Unit Deployed squadrons (UDP) from 12 aircraft to 10 aircraft per 
squadron to match the corresponding decrease in Marine Corps 
expeditionary squadrons. We are accelerating the transition of five 
legacy F/A-18C squadrons to F/A-18E/F Super Hornets using available F/
A-18E/F aircraft and will transition two additional legacy squadrons 
using Super Hornet attrition reserve aircraft. These measures make our 
legacy strike fighter aircraft available for High Flight Hour (HFH) 
inspections and our Service Life Extension Program, which together will 
extend their service life and manage to some extent the decrease in our 
carrier-based strike fighter capacity through 2018. These measures 
expend the service life of our Super Hornets earlier than programmed, 
so we are refining our depot level production processes to maximize 
throughput and return legacy strike fighter aircraft to the fleet 
expeditiously. Our fiscal year 2011 budget procures 22 additional F/A-
18E/F aircraft.
    Our investment measures are targeted at extending the service life 
of our F/A-18 A-D aircraft and procuring JSF. HFH inspections, which 
have been in place for 2 years, provide the ability to extend the 
service life of our legacy F/A-18 A-D aircraft to 8,600 flight hours, 
while engineering analysis is underway to determine the SLEP 
requirements necessary to reach the service life extension goal of 
10,000 flight hours. The HFH and SLEP programs increase our 
institutional risk by diverting investment and maintenance funds from 
other accounts, but they are necessary measures to address our strike 
fighter decrease while preserving our investment in JSF.
    I remain committed to the JSF program because of the advanced 
sensor, precision strike, firepower, and stealth capabilities JSF will 
bring to our Fleet. While the overall schedule for JSF has slipped, 
causing us to reduce the overall rate of procurement, initial operating 
capability is still planned for 2014 and we have not reduced the total 
number of airframes we plan to buy. We are monitoring the JSF program 
closely and managing our existing strike fighter capacity to meet power 
projection demands until JSF is delivered. Procurement of an alternate 
engine for JSF increases our risk in this program. The Navy does not 
have a requirement for an alternate engine, and its additional costs 
threaten our ability to fund currently planned aircraft procurement 
quantities, which would exacerbate our anticipated decrease in strike 
fighter capacity. Our fiscal year 2011 budget request procures seven F-
35C aircraft.
EA-18G Growler
    The proliferation of technology has allowed state and non-state 
actors to use the electromagnetic spectrum with increasing 
sophistication. Airborne Electronic Attack (AEA) provides one of the 
most flexible offensive capabilities available to the joint warfighter 
and it remains in high demand in traditional, irregular, and hybrid 
conflicts. The Navy continues to provide extensive AEA support from our 
carriers afloat and from our expeditionary EA-6B Prowler squadrons 
deployed currently to Iraq and Afghanistan.
    We are leveraging the mature and proven F/A-18E/F airframe 
production line to recapitalize our aging EA-6B aircraft with the EA-
18G Growler. As directed in the QDR, we are planning to procure an 
additional 26 EA-18G Growler aircraft across the FYDP to increase joint 
force capacity to conduct expeditionary electronic attack. Our program 
of record will buy 114 total EA-18G aircraft, recapitalizing 10 Fleet 
EA-6B squadrons and four expeditionary squadrons. The program continues 
to deliver as scheduled. In September, our first EA-18G transition 
squadron, based at NAS Whidbey Island, reached Initial Operational 
Capability and it will deploy as an expeditionary squadron later this 
year. Our fiscal year 2011 budget requests funding for 12 EA-18Gs.
P-3 Orion and P-8A Poseidon Multi-Mission Maritime Aircraft
    Your continued support of the P-3 and P-8A force remains essential 
and is appreciated greatly. Our P-3 Orion roadmap focuses on 
sustainment and selected modernization until it is replaced by the P-8A 
Poseidon. These aircraft provide capabilities ideally suited for 
regional and littoral crises and conflict, and are our pre-eminent 
airborne capability against submarine threats. Our P-3s are in high 
demand today for the time-critical intelligence, surveillance and 
reconnaissance they provide to the joint force on the ground in CENTCOM 
and for their direct contributions to our maritime domain awareness in 
key regions across the globe.
    P-3 Zone 5 wing fatigue has resulted in the unplanned grounding of 
49 aircraft between 2007 and 2009, with more expected. Mitigation 
measures include a combination of targeted Zone 5 modifications and 
outer wing replacements. As of December, we have returned 12 aircraft 
to service after completing Zone 5 modification and 32 aircraft are 
currently being repaired. As part of our sustainment program, we have 
included $39.6 million in our fiscal year 2011 budget request to 
conduct outer wing installations on nine of our P-3 aircraft. P-3 
sustainment and modernization programs are critical to ensuring 
successful transition to the P-8A, while preserving essential maritime 
and overland battle space awareness.
    The P-8A completed it's first Navy test flight this past October 
and will resume integrated flight testing in March of this year. The P-
8A will achieve initial operating capability and begin replacing our 
aging P-3 aircraft in 2013. Our fiscal year 2011 budget request 
procures seven P-8A aircraft.
MH-60R/S Multi-Mission Helicopter
    The MH-60R and MH-60S successfully completed their first deployment 
together this past summer with the USS John C. Stennis carrier strike 
group. The MH-60R multi-mission helicopter replaces the surface 
combatant-based SH-60B and carrier-based SH-60F with a newly 
manufactured airframe and enhanced mission systems. With these systems, 
the MH-60R provides focused surface warfare and anti-submarine warfare 
capabilities for our strike groups and individual ships. Our fiscal 
year 2011 budget request procures 24 MH-60R helicopters. The MH-60S 
supports surface warfare, combat logistics, vertical replenishment, 
search and rescue, air ambulance, airborne mine counter-measures, and 
naval special warfare mission areas. Our fiscal year 2011 budget 
request procures 18 MH-60S helicopters.
                         surface ship programs
Littoral Combat Ship
    Littoral Combat Ship (LCS) is a fast, agile, networked surface 
combatant that is optimized to support naval and joint force operations 
in the littorals and capable of supporting open-ocean operations. It 
will operate with tailored-mission packages to counter quiet diesel 
submarines, mines, and fast surface craft. The modular and open 
architecture design of the seaframe and mission modules provides the 
inherent flexibility to adapt or add capabilities beyond the current 
Anti-Submarine, Mine Countermeasures, and Surface Warfare missions. 
These ships will employ a combination of manned helicopters and 
unmanned aerial, surface, and undersea vehicles.
    USS Freedom (LCS-1) has completed her post-delivery testing, trial, 
and shakedown periods and commenced her maiden deployment in February 
to Southern Command and Pacific Command. Her deployment 2 years ahead 
of schedule will allow us to incorporate operational lessons more 
quickly and effectively as we integrate these ships into our Fleet. USS 
Independence (LCS-2) completed builder's trials in October 2009 and 
acceptance trials in November 2009. We accepted delivery of 
Independence on 18 December 2009, and commissioned her 16 January 2010. 
In March 2009, fixed price contracts were awarded for USS Fort Worth 
(LCS-3) and USS Coronado (LCS-4) which are now under construction by 
Lockheed Martin and General Dynamics respectively.
    I am impressed and satisfied with the capabilities of both LCS 
designs and am committed to procuring 55 of these ships. Affordability 
remains the key factor in acquiring LCS in the quantities we require. 
After careful review of the fiscal year 2010 industry proposals, 
consideration of total program costs, and ongoing discussions with 
Congress, we made the decision to cancel for affordability reasons the 
Phase II requests for proposals for three fiscal year 2010 LCS ships 
and adjust our acquisition strategy. In fiscal year 2010, we will 
conduct a competition among the existing LCS industry participants to 
down-select to a single LCS design. The winner of the down-select will 
be awarded a block buy contract for up to 10 ships, to be procured from 
fiscal year 2010 through fiscal year 2014 at a rate of two ships per 
year, built in one shipyard. To sustain competition and increase 
capacity, the winner of the down-select will be required to deliver a 
Technical Data Package to the Navy to support competition for a second 
contract source. We plan to award up to five ships to a second source 
beginning in fiscal year 2012 with one ship and continuing with an 
additional two ships per year through fiscal year 2014. The winner of 
the down-select will provide combat systems equipment, up to 15 ship 
sets, for the ships built by the two contract sources: 10 sets for the 
10 ships under contract with the winner of the down-select and up to 5 
additional sets for the 5 ships being procured by the second contract 
source. The five additional sets will later be provided as government-
furnished equipment to support the second source LCS contract. We 
intend to procure all future LCS ships within the national Defense 
Authorization Act (NDAA) for Fiscal Year 2010 revised cost cap. Our 
down-select strategy leverages competition to the maximum extent 
practical, provides for economic procurement quantities, improves 
learning curve and commonality opportunities, and ultimately provides 
for program stability. We recently issued the requests for proposals 
for this contract and expect industry bids in March of this year.
    Consistent with our new strategy, our fiscal year 2011 budget 
requests two LCS seaframes and an additional $278 million to secure an 
LCS block buy, which is essential to lowering unit costs. I request 
your support as we acquire LCS in the most cost-effective manner and 
deliver its innovative capability in sufficient capacity to our Fleet.
Integrated Air and Missile Defense
    Integrated Air and Missile Defense (IAMD) incorporates all aspects 
of air defense against ballistic, anti-ship, and overland cruise 
missiles. IAMD is vital to the protection of our force, and it is an 
integral part of our core capability to deter aggression through 
conventional means. The demand for sea-based BMD is increasing 
significantly. The Navy's mature and successfully demonstrated maritime 
BMD capability will play a primary role in the first phase of our 
Nation's plan to provide for the missile defense of Europe. Aegis BMD 
counters short, medium, and some intermediate-range ballistic missiles 
through active defense and is able to pass target information to other 
BMD systems, thereby expanding the BMD battlespace and support of 
homeland defense. Currently, 20 ships (4 cruisers and 16 destroyers) 
have this capability and are being used to perform maritime BMD. All of 
the Arleigh Burke-class destroyers and nine of the Ticonderoga-class 
cruisers are planned to receive BMD capability through our 
modernization program.
DDG-51 Restart and Future Surface Combatant
    To address the rapid proliferation of ballistic and anti-ship 
missiles and deep-water submarine threats, as well as increase the 
capacity of our multipurpose surface ships, we restarted production of 
our DDG-51 Arleigh Burke-class destroyers (Flight IIA series). These 
ships will be the first constructed with IAMD, providing much-needed 
BMD capacity to the Fleet, and they will incorporate the hull, 
mechanical, and electrical alterations associated with our mature DDG 
modernization program. We will spiral DDG-51 production to incorporate 
future integrated air and missile defense capabilities.
    We are well underway with restarting DDG-51 production. We awarded 
advance procurement (AP) contracts for DDG-113 and -114, and expect to 
award an AP contract for DDG-115 in the coming months, to support the 
long lead items necessary for production of these ships. I thank 
Congress for supporting our fiscal year 2010 budget, which funded 
construction of DDG-113. We anticipate a contract award for DDG-113 
production this spring. Our fiscal year 2011 budget requests funding 
for the construction of DDG-114 and DDG-115 as part of our plan to 
build a total of eight DDG-51 ships through the FYDP.
    The Navy, in consultation with the Office of the Secretary of 
Defense, conducted a Radar/Hull Study for future surface combatants 
that analyzed the total ship system solution necessary to meet our IAMD 
requirements while balancing affordability and capacity in our surface 
Fleet. The study concluded that Navy should integrate the Air and 
Missile Defense Radar program S Band radar (AMDR-S), SPY-3 (X Band 
radar), and Aegis Advanced Capability Build (ACB) combat system into a 
DDG-51 hull. While our Radar/Hull Study indicated that both DDG-51 and 
DDG-1000 were able to support our preferred radar systems, leveraging 
the DDG-51 hull was the most affordable option. Accordingly, our fiscal 
year 2011 budget cancels the next generation cruiser program due to 
projected high cost and risk in technology and design of this ship. I 
request your support as we invest in spiraling the capabilities of our 
DDG-51 class from our Flight IIA Arleigh Burke ships to Flight III 
ships, which will be our future IAMD-capable surface combatant. We will 
procure the first Flight III ship in fiscal year 2016.
Modernization
    As threats evolve, we must modernize our existing ships with 
updated capabilities that sustain our combat effectiveness and enable 
our ships to reach their expected service life, which in the case of 
our destroyers and cruisers, is more than three decades. Our destroyer 
and cruiser modernization program includes advances in standard 
missiles, integrated air and missile defense, open architecture, and 
essential hull, mechanical and electrical (HM&E) upgrades. Maintaining 
the stability of the cruiser and destroyer modernization program is 
critical to achieving relevant future Navy capability and capacity.
    Our Navy plans to conduct DDG modernization in two 6-month 
availabilities. The first availability is focused on HM&E 
modifications, while the second availability, conducted 2 years later, 
is focused on combat systems modernization. The program will commence 
in fiscal year 2010 and focuses on the Flight I and II DDG-51 ships 
(hulls 51-78). All ships of the class will be modernized at midlife. 
Key tenets of the DDG modernization program include: an upgrade of the 
Aegis Weapons System to include an Open Architecture (OA) computing 
environment, an upgrade of the SPY radar signal processor, the addition 
of BMD capability, installation of the Evolved Sea Sparrow Missile 
(ESSM), an upgraded SQQ-89A(V)15 anti-submarine warfare system, 
integration with the SM-6 Missile, and improved air dominance with 
processing upgrades and Naval Integrated Fire Control-Counter Air 
capability.
    The Cruiser Modernization Program will modernize all remaining 
cruisers (Baseline 2, 3, and 4). The first fully modernized cruiser, 
USS Bunker Hill (CG-52), was completed in June 2009. The key aspects of 
the CG modernization program include: an upgrade to the Aegis weapons 
system to include an OA computing environment, installation of an SPQ-
9B radar, addition of the Evolved Sea Sparrow Missile (ESSM), an 
upgrade to Close-In Weapon System (CIWS) Block 1B, an upgraded SQQ-
89A(V)15 anti-submarine warfare system, and improved air dominance with 
processing upgrades and Naval Integrated Fire Control-Counter Air 
capability. Six Baseline 4 cruisers will receive the BMD upgrade.
    Our fiscal year 2011 budget requests funding for the modernization 
of three cruisers and three destroyers.
DDG-1000
    The DDG-1000 Zumwalt guided missile destroyer will be an optimally 
crewed, multi-mission surface combatant designed to fulfill long-range 
precision land attack requirements. In addition to providing offensive, 
distributed and precision fires in support of forces ashore, these 
ships will serve as test-beds for advanced technology, such as 
integrated power systems, dual band radars, and advanced survivability 
features, which can be incorporated into our other ship classes. The 
first DDG-1000 is under construction and approximately 20 percent 
complete. We recently notified Congress of a Nunn-McCurdy breach in 
this program as a result of our decision to reduce the number of DDG-
1000s in the original program. DDG-1000 will be a three-ship class. It 
is scheduled to deliver in fiscal year 2013 with an initial operating 
capability in fiscal year 2015.
Joint High Speed Vessel
    Intra-theater lift is key to enabling the United States to rapidly 
project, maneuver, and sustain military forces in distant, overseas 
operations. The Joint High Speed Vessel (JHSV) program is an Army and 
Navy joint program that will deliver a high-speed, shallow draft 
surface ship capable of rapid transport of medium payloads of cargo and 
personnel within a theater to austere ports without reliance on port 
infrastructure for load/offload. In addition, the Navy JHSV will be 
capable of supporting extensive Security Force Assistance and Theater 
Security Cooperation operations, including the hosting of small craft 
for training. A JHSV Production Readiness Review was completed in 
October 2009 and the first vessel construction began this past December 
with an anticipated delivery to the Army in fiscal year 2012. The 
second ship, a Navy vessel, is scheduled to be delivered in 2013. Our 
fiscal year 2011 budget includes funds for the construction of Navy's 
third JHSV. Navy continues oversight of JHSV procurement for the five 
Army-funded vessels in this program. The Army assumes full 
responsibility for these five vessels following acquisition.
                           submarine programs
Virginia-Class SSN
    The Virginia-class submarine is a multi-mission submarine that 
dominates in the littorals and open oceans. Now in its 13th year of 
construction, the Virginia program is demonstrating that this critical 
undersea capability can be delivered affordably and on time. Thanks to 
Congress, these ships will begin construction at a rate of two a year 
in 2011, with two ship deliveries per year beginning in 2017. The Navy 
continues to realize a return from investments in the Virginia cost 
reduction program and construction process improvements through 
enhanced shipbuilder performance on each successive ship. These 
submarines are under budget and ahead of schedule, and their 
performance continues to exceed expectations with every ship delivered. 
Three of the five commissioned ships completed initial deployments 
prior to their Post Shakedown Availabilities, a first for the Navy. I 
am pleased with the accomplishments of the combined Navy-Industry team 
and look forward to even greater success as we ramp up production to 
two submarines next year.
SSGN
    Our Navy has four guided missile submarines that provide high-
volume strike and irregular warfare capabilities in support of 
operations and missions across the broad spectrum of conflict. SSGNs 
are performing well on deployment, and we are learning valuable lessons 
from each mission. Combatant commanders value the long-range strike 
capability they provide and we are investigating options to sustain 
this capability in the most operationally and cost effective manner, to 
include options for expanding the long-range strike capacity of the 
submarine fleet.
SSBN and Ohio Replacement
    Our Navy supports the Nation's nuclear deterrence capability with a 
credible and survivable fleet of 14 Ohio-class ballistic missile 
submarines (SSBN). Originally designed for a 30-year service life, this 
class will start retiring in 2027 after more than 42 years of service.
    The United States needs a reliable and survivable sea-based 
strategic deterrent for the foreseeable future. To ensure there is no 
gap in this critical capability, our fiscal year 2011 budget requests 
research and development funds for the Ohio replacement to support the 
start of construction of the first ship in fiscal year 2019. The Ohio 
replacement will be a strategic, national asset with the endurance and 
stealth to enable our Navy to provide continuous, survivable strategic 
deterrence into the 2080s. Appropriate R&D investment is essential to 
design a reliable, survivable, and adaptable submarine capable of 
deterring all potential adversaries. We completed our Analysis of 
Alternatives study in 2009, and Milestone A is planned for April 2010. 
The Ohio Replacement program will leverage the many successes of the 
Virginia SSN program to achieve acquisition and total ownership cost 
goals. The United States will realize significant program benefits as a 
result of our close partnership with the United Kingdom's Vanguard SSBN 
replacement program, particularly in the design and construction of a 
common missile compartment. Our cooperation with the UK mitigates 
technical risk and shares design costs.
                        amphibious warfare ships
    Our amphibious warfare ships provide essential capabilities for the 
full range of military operations, including theater security 
cooperation, humanitarian assistance, conventional deterrence, and 
forcible entry as part of major combat operations. With the unique 
capability to move hundreds of personnel and substantial material 
through complementary surface and air capabilities, these ships are key 
to our ability to overcome geographic, political, and infrastructure 
impediments to access. The Commandant of the Marine Corps and I have 
determined that a minimum of 33 amphibious assault ships represents the 
limit of acceptable risk in meeting the 38-ship requirement for 
supporting a forcible entry operation conducted by an assault echelon 
of two Marine Expeditionary Brigades (MEB). Our 33-ship force would be 
comprised of 11 LHA/D amphibious assault ships and a mix of 11 LPD-17 
amphibious transport dock ships and 11 LSD dock landing ships. At this 
capacity, we are accepting risk in the speed of arrival of the combat 
support elements of the MEB. The QDR and our 30-Year Shipbuilding Plan 
account for 29-31 amphibious warfare ships within the FYDP. We plan to 
procure the 11th LPD-17 in 2012, which will allow us to realize a 33-
ship minimum amphibious force in about fiscal year 2016. We continue to 
review options to achieve and sustain the minimum 33 amphibious ship 
assault echelon force.
LPD-17 Class Amphibious Warfare Ship
    The LPD-17 class amphibious warfare ships represent the Navy and 
Marine Corps commitment to an expeditionary fleet capable of power 
projection, security force assistance, and theater security cooperation 
in diverse operating environments. These ships have a 40-year expected 
service life and will replace four classes of older ships: the LKA, 
LST, LSD-36, and the LPD-4. Two LPD-17 class ships have completed their 
initial deployments, and USS New York (LPD-21), forged with steel from 
the World Trade Center, delivered in November 2009. We continue to 
apply the lessons learned during construction and initial operation of 
the early ships to those under construction. Quality is improving with 
each ship delivered as we continue to work closely with the shipbuilder 
to address cost, schedule, and performance concerns.
LHA Replacement (LHA(R))
    LHA(R) is the replacement for our aging Tarawa class ships, which 
will reach the end of their already extended service life between 2011-
2015. LHA(R) will provide us flexible, multi-mission amphibious 
capabilities by leveraging the LHD-8 design and increasing aviation 
capacity to better accommodate the JSF, MV-22, and other aircraft that 
comprise the future Marine Corps Air Combat Element. We laid the keel 
of the lead ship, USS America (LHA-6), in April 2009 and our fiscal 
year 2011 budget includes one LHA(R) which is split-funded in fiscal 
year 2011 and fiscal year 2012.
Mobile Landing Platform and Future Maritime Preposition Force
    The Future Maritime Preposition Force (MPF(F)) program was 
envisioned as a forward-deployed squadron of ships capable of at-sea 
assembly and rapid employment of forces in an area of interest during a 
crisis. Our requirement for amphibious and joint forcible entry 
operations was reevaluated during the QDR and, as a result, we have 
adjusted our approach to augment our three existing Maritime 
Prepositioning Squadrons (MPS) instead of developing an MPF(F) 
squadron. MPF(F) was optimized for high-end, forcible entry operations, 
while the augmented MPS will provide enhanced sea basing capabilities 
across a wide range of contingency operations. Each existing MPS will 
be augmented by one Large Medium-Speed Roll-on/Roll-off (LMSR) cargo 
ship (transferred from the Army), a T-AKE combat logistics ship, and a 
new Mobile Landing Platform (MLP). The MLP will be based on existing 
designs for commercial ocean-going tankers and will meet most of the 
mission requirements envisioned for the original MLP design. The three 
augmented MPS reflect the QDR's emphasis on day-to-day deterrence and 
partner capacity building, while continuing to meet forcible entry 
needs. Our fiscal year 2011 budget request procures one MLP.
                     information dominance programs
Unmanned Aircraft Systems (UAS)
    We are investing in unmanned aircraft to meet an increasing 
warfighter demand for Intelligence, Surveillance and Reconnaissance 
(ISR), and we are making technology investments to expand UAS 
operations to other mission areas. The Broad Area Maritime Surveillance 
(BAMS) UAS will enhance our situational awareness and shorten the 
sensor-to-shooter kill chain by providing persistent, multiple-sensor 
capabilities to Fleet and Joint Commanders. The VTUAV Fire Scout is on 
its first deployment aboard the USS McInerney (FFG-8). We are 
developing a medium endurance maritime-based UAS and a Small Tactical 
Unmanned Aerial System (STUAS) that will support a variety of ships, 
Naval Special Warfare and Navy Expeditionary Combat Command units, and 
Marine Corps elements.
    The Navy Unmanned Combat Aircraft System demonstration (UCAS-D) is 
designed to prove carrier suitability of an autonomous, unmanned, low 
observable, carrier-based aircraft. This effort includes maturing 
technologies for aircraft carrier catapult launches and arrested 
landings, as well integration into carrier-controlled airspace. Initial 
flight tests to demonstrate carrier suitability are scheduled to start 
later this year and autonomous aerial refueling demonstrations are 
planned for 2013. We will leverage the lessons learned from operating 
the demonstrator in developing a low-observable unmanned carrier-
launched airborne strike and surveillance system.
Mobile User Objective System
    Our Maritime Strategy demands a flexible, interoperable, and secure 
global communications capability that can support the command and 
control requirements of highly mobile and distributed U.S. and 
coalition forces. Satellite communications give deployed forces a 
decisive military advantage and often offer the only communication 
means to support on-going operations. Rapidly expanding joint demand 
for more access at ever-higher data rates requires moving beyond our 
current legacy Ultra High Frequency (UHF) satellite capabilities. The 
Mobile User Objective System (MUOS) will satisfy those demands when 
initial operational capability is reached in fiscal year 2012. I 
request your continued support of MUOS and the critical UHF satellite 
communication capability it will provide to the joint warfighter as the 
aging UHF Follow-On constellation degrades.
Next Generation Enterprise Network
    The Navy is continuing its transition from disparate independent 
computer networks to a single secure network environment. We are 
currently evolving our ashore network from the Navy Marine Corps 
Intranet (NMCI), the largest intranet in the world, to the Next 
Generation Enterprise Network (NGEN). NGEN Increment 1 is the follow-on 
to the existing NMCI contract, which expires at the end of fiscal year 
2010. NGEN will sustain the services currently provided by NMCI, while 
increasing government command and control of our network and enabling 
secure, reliable, and adaptable global information exchange. Future 
NGEN increments will expand on services currently provided by NMCI and 
support seamless transition between afloat and ashore environments. A 
continuity of services contract is expected to be awarded this spring 
and NGEN Initial Operating Capability is scheduled for the summer of 
2012.
E-2D Advanced Hawkeye
    The E-2D Advanced Hawkeye aircraft, which replaces the E-2C, will 
improve nearly every facet of tactical air operations and add overland 
and littoral surveillance to support theater Integrated Air and Missile 
Defense against air threats in high clutter, complex electro-magnetic 
and jamming environments. The airborne radar on the E-2D, with its 
improved surveillance capability, is a key pillar of the Navy 
Integrated Fire Control concept. The E-2D is scheduled to begin 
operational test and evaluation in 2012. The first Fleet squadron 
transition is planned for 2013, with deployment planned for October 
2014. Our fiscal year 2011 budget requests four E-2D Hawkeye aircraft.
                      remain ready to fight today
    Our Navy continues to operate at a high tempo. We are filling new 
combatant commander requirements for BMD, electronic attack, 
intelligence, surveillance, and reconnaissance (ISR), combat support, 
combat service support, and maritime security force assistance, in 
addition to conducting ongoing deployments in support of our maritime 
and national strategies.
    In CENTCOM alone, we have more than 9,000 sailors at sea, including 
a U.S. Navy aircraft carrier and air wing dedicated to providing 24/7 
air support to U.S. and coalition forces on the ground. Navy Riverine 
forces are on their sixth deployment to Iraq, conducting interdiction 
patrols and training their Iraqi counterparts. Our surface ships in the 
region are providing BMD and conducting counterterrorism, 
counterpiracy, maritime security, theater security cooperation, and 
security force assistance operations. On the ground in CENTCOM, we have 
more than 12,000 Active and Reserve sailors supporting Navy, joint 
force, and coalition operations. Navy Commanders lead 6 of the 12 U.S.-
led Provincial Reconstruction Teams in Afghanistan. We have doubled our 
construction battalions (SEABEEs) in Afghanistan, increasing our 
capacity to build forward bases for U.S. forces and improve critical 
infrastructure in that country. Our Naval Special Warfare Teams 
continue to be engaged heavily in direct combat operations and our 
Explosive Ordnance Disposal teams continue to conduct lifesaving 
counter-Improvised Explosive Device operations on a daily basis. As we 
shift our effort from Iraq to Afghanistan, demand for Navy individual 
augmentees (IAs) has grown. We are providing IAs to support the 
increase of U.S. forces in Afghanistan while our IAs in Iraq remain at 
current levels to support the withdrawal of U.S. combat troops, 
maintain detention facilities and critical infrastructure, and assist 
coalition efforts until they can be turned over to Iraqi forces. During 
my recent trip to CENTCOM, I met with many of our dedicated Navy men 
and women supporting these efforts and I could not be more proud of 
their contributions. Their expert skill, ingenuity, competence, and 
drive are impressive and unmatched.
    Our high tempo will likely continue as combat forces draw down in 
Iraq and Afghanistan. Navy enabling forces will remain in CENTCOM to 
provide protection, ISR, and logistics support to our troops and 
partner forces in the region, while we will continue to maintain a 
forward-deployed presence of about 100 ships around the world to 
prevent conflict, increase interoperability with our allies, enhance 
the maritime security and capacity of our traditional and emerging 
partners, and respond to crises. Global demand for Navy forces remains 
high and continues to rise because of the unequalled and unique ability 
of our naval forces to overcome diplomatic, geographic, and military 
impediments to access while bringing the persistence, flexibility, and 
agility to conduct operations from the sea.
    Reset in stride is how our Navy prepares our Fleet to deploy again. 
Lifecycle maintenance and training between deployments is essential to 
our reset and to the ability of our ships and aircraft to reach their 
expected service lives. Although we are on pace to grow our fleet for 
the next 10 years, our fleet reduced in size over the past decade. As a 
result, while we continue to maintain the same number of ships at sea 
assigned to combatant commanders, we have a historically low number of 
ships available for at-sea training, exercises, and surge operations. 
Our fiscal year 2011 budget request balances the need to meet 
increasing operational requirements, sustain our sailors' proficiency, 
and conduct the maintenance required to ensure our ships and aircraft 
reach their full service lives. Highlights follow of initiatives that 
ensure our Navy remains ready to fight today.
Depot Level Maintenance
    Our ships and aircraft are capital assets that operate in 
challenging physical and security environments. Keeping these assets in 
acceptable operating condition is vital to their ability to accomplish 
assigned missions and to reach their expected service lives. Timely 
depot level maintenance, performed in a cycle determined by an 
engineered assessment of expected material durability and scoped by 
actual physical condition, will preserve our existing force structure 
and ensure it can meet assigned tasking. Continued investment in depot 
level maintenance is essential to our efforts to achieve and sustain 
the force structure required to implement the Maritime Strategy.
    Last year, I established the Surface Ship Life Cycle Management 
(SSLCM) Activity to address deficiencies in our ship class maintenance 
plans that could prevent our ships from reaching their full service 
life. SSLCM has established an engineered approach to surface ship 
maintenance that optimizes existing maintenance availability work 
packages and better tracks ship material condition through robust 
inspections and corrosion control tasks. We accelerated our review of 
the requirements for certain ship classes, significantly improving the 
accuracy of our surface ship maintenance requirements in fiscal year 
2011 over prior years. We are committed to a full review of all surface 
ship class maintenance plans, which will take several years. The value 
of investing in an engineered approach to maintenance is evident in our 
submarine force, where we have successfully extended the time between 
scheduled availabilities based on demonstrated material conditions and 
verification of engineering analysis. Because we have invested in this 
engineering and planning effort, we have been able to safely recover 
additional operational availability and reduce the overall depot level 
maintenance requirement for our submarines. This significant step has 
provided some of the resources needed to make additional investments in 
surface ship maintenance.
    Our combined fiscal year 2011 budget funds 99 percent of the 
projected depot ship maintenance requirements necessary to sustain our 
Navy's global presence. Our budget funds aviation depot maintenance to 
provide 100 percent of the airframes for deployed squadrons and 96 
percent of the nondeployed airframes. I request that you fully support 
our baseline and contingency funding requests for O&M to ensure the 
effectiveness of our force, safety of our sailors, and longevity of our 
ships and aircraft.
Shore Readiness
    Our shore infrastructure is a fundamental enabler of our 
operational and combat readiness and is essential to the quality of 
life and quality of work for our sailors, Navy civilians, and their 
families. As I described last year, rising manpower costs and growing 
operational demands on our aging fleet have led our Navy to take risk 
in shore readiness. This risk increases our maintenance, sustainment, 
restoration, and modernization requirements and continues our reliance 
on old and less efficient energy systems. These factors increase the 
cost of ownership of our shore infrastructure and outpace our efforts 
to reduce costs through facilities improvements and energy upgrades. At 
our current investment levels, our future shore readiness, particularly 
the recapitalization of our facilities infrastructure, is at risk.
    To manage our risk in shore infrastructure, our fiscal year 2011 
budget request prioritizes funding for our most critical needs, 
including Navy and Joint mission readiness, nuclear weapons security 
and safety, and improving our bachelor quarters through sustained 
funding for our Homeport Ashore initiative. To guide investment in 
other areas ashore, we continue to pursue our capabilities-based Shore 
Investment Strategy, which targets our investment in shore 
infrastructure to where it will produce the highest return on 
investment and have the greatest impact on achieving our strategic and 
operational objectives, such as in areas that enable critical 
warfighting capabilities, improve quality of life, and fulfill Joint 
requirements.
    We have made essential progress and improvements in nuclear weapons 
security, child care facilities, and bachelor's quarters. Thank you for 
funding all our requested military construction projects in 2010, as 
well as 19 additional projects and our Reserve program. Your support 
allowed us to address ship, aircraft, systems, infrastructure, and 
training requirements, while enhancing the quality of life and quality 
of service for our sailors and their families. Your similar support and 
assistance through the American Recovery and Reinvestment Act of 2009 
was also very helpful. As you requested, we identified Military 
Construction projects for Child Development Centers and barracks and 
prioritized them according to operational need and the ability to 
obligate funds quickly. We selected infrastructure and energy projects 
based on mission requirements, quality of life impact, environmental 
planning status, and our ability to execute quickly. Our aggressive 
execution schedule is on track; we have awarded all but 1 of our 85 
initial projects and construction outlays are ramping up swiftly.
Training Readiness
    Our Fleet Synthetic Training (FST) program provides realistic 
operational training with seamless integration of geographically 
dispersed Navy, Joint, Interagency and Coalition forces. Using virtual 
and constructive training environments has allowed us to reduce our 
energy consumption and greenhouse gas emissions while providing the 
level of sophistication necessary to prepare our sailors for 
operational and tactical mission proficiency. We continue to evolve FST 
to provide our sailors with exposure to a multitude of warfare areas. 
Last year, we conducted our first BMD Fleet Synthetic Training event, 
proving the viability and effectiveness of integrated Navy, Joint, and 
partner-nation BMD training.
    The proliferation of advanced, stealthy, nuclear, and non-nuclear 
submarines continues to challenge our Navy's ability to guarantee the 
access and safety of joint forces. Effective Anti-Submarine Warfare 
(ASW) training with active sonar systems is vital to meeting potential 
threats. The Navy remains a world leader in marine mammal research and 
we will continue our robust investment in this research in fiscal year 
2011 and beyond. Through such efforts, and in full consultation and 
cooperation with other Federal agencies, Navy has developed effective 
measures that protect marine mammals and the ocean environment from 
adverse impacts of mid-frequency active sonar while not impeding vital 
Navy training. We continue to work closely with our interagency 
partners to further refine our protective measures as scientific 
knowledge evolves. It is vitally important that any such measures 
ensure the continued flexibility necessary to respond to future, 
potentially unforeseen national security requirements.
    Over the last year, we completed environmental planning for seven 
existing and proposed at-sea training and combat certification areas. 
We expect to complete planning for another six areas by the end of 2010 
as we continue to balance our responsibility to prepare naval forces 
for deployment and combat operations with our responsibility to be good 
stewards of the marine environment.
    Conducting night and day field carrier landing practice (FCLP) 
prior to at-sea carrier qualifications is a critical training 
requirement for our fixed-wing carrier-based pilots, who must develop 
and maintain proficiency in the fundamentals necessary to conduct safe 
carrier-based flight operations. We continue to seek additional 
airfield capacity in the form of an outlying landing field (OLF) that 
will enhance our ability to support FCLP training for fixed-wing, 
carrier pilots operating from Naval Air Station Oceana and Naval 
Station Norfolk. The additional OLF will allow Navy to meet training 
requirements and overcome challenges related to capacity limits, urban 
encroachment, and impacts from adverse weather conditions at existing 
East Coast facilities. In August 2009, the Navy announced that the 
release of the draft environmental impact statement (EIS) for 
construction and operation of an OLF would be delayed. This delay was 
necessary to ensure JSF noise analysis is included in the OLF draft 
EIS. The Navy is committed to developing, with local, State, and 
Federal leaders, a plan to ensure the OLF provides positive benefits to 
local communities while addressing Navy training shortfalls.
Energy and Climate
    Energy reform is a strategic imperative. The Secretary of the Navy 
and I are committed to changing the way we do business to realize an 
energy-secure future. In alignment with the Secretary of the Navy's 
five goals, our priorities are to advance energy security by improving 
combat capability, assuring mobility, ``lightening the load'', and 
greening our footprint. We will achieve these goals through energy 
efficiency improvements, consumption reduction initiatives, and 
adoption of alternative energy and fuels. Reducing our reliance on 
fossil fuels will improve our combat capability by increasing time on 
station, reducing time spent alongside replenishment ships, and 
producing more effective and powerful future weapons. Most of our 
projects remain in the demonstration phase; however, we are making good 
progress in the form of hybrid-electric drive, delivered last year on 
the USS Makin Island (LHD-8), bio-fuel engines, advanced hull and 
propeller coatings, solid state lighting, and policies that encourage 
sailors to reduce their consumption through simple changes in behavior.
    Thanks to your support, the American Reinvestment and Recovery Act 
funded Navy energy conservation and renewable energy investment in 11 
tactical and 42 shore-based projects totaling $455 million. Tactical 
projects included alternative fuel, drive, and power systems, while 
ashore projects included alternative energy (wind, solar and 
geothermal) investments in 10 States and the installation of advance 
metering infrastructure in three regions. Our fiscal year 2011 budget 
continues to invest in tactical and ashore energy initiatives, 
requesting $128 million for these efforts.
    In our Maritime Strategy we addressed maritime operations in an era 
of climate change, especially in the ice diminished Arctic. In May 
2009, I established the Navy's Task Force on Climate Change to develop 
policy, investment, and force-structure recommendations regarding 
climate change in the Arctic and globally over the long-term. Our focus 
will be to ensure Navy readiness and capability in a changing global 
environment.
Second East Coast Carrier-Capable Port
    Hampton Roads is the only nuclear carrier capable port on the East 
Coast. A catastrophic event in the Hampton Roads area affecting port 
facilities, shipping channels, supporting maintenance or training 
infrastructure, or the surrounding community has the potential to 
severely limit East Coast Carrier operations, even if the ships 
themselves are not affected. Consistent with today's dispersal of West 
Coast aircraft carriers between California and Washington State, the 
QDR direction to make Naval Station Mayport a nuclear carrier-capable 
homeport addresses the Navy's requirement for a capable facility to 
maintain aircraft carriers in the event that a natural or manmade 
disaster makes the Hampton Roads area inaccessible. While there is an 
upfront cost to upgrade Naval Station Mayport to support our nuclear 
aircraft carriers, Mayport has been a carrier homeport since 1952 and 
is the most cost-effective means to achieve strategic dispersal on the 
east coast. The national security benefits of this additional homeport 
far outweigh those costs.
United Nations Convention on the Law of the Sea
    The Law of the Sea Convention codifies navigation and overflight 
rights and high seas freedoms that are essential for the global 
mobility of our Armed Forces. It directly supports our national 
security interests. Not being a party to this Convention constrains 
efforts to develop enduring maritime partnerships, inhibits efforts to 
expand the Proliferation Security Initiative, and elevates the level of 
risk for our sailors as they undertake operations to preserve 
navigation rights and freedoms, particularly in areas such as the 
Strait of Hormuz and Arabian Gulf, and the East and South China Seas. 
By becoming a party to the Convention, the United States will be able 
to expand its sovereign rights to the increasingly accessible outer 
continental shelf areas of the resource rich environment of the Arctic, 
as well as in other locations where technological advances are opening 
up previously unobtainable resources. Accession to the Law of the Sea 
Convention remains a priority for our Navy.
   develop and support our sailors, navy civilians and their families
    Our sailors, Navy civilians, and their families underpin our 
Maritime Strategy and are the foundation of our Nation's global force 
for good. We have great ships, aircraft, weapons, and systems, but it 
is our skilled and innovative sailors who turn these ships, aircraft, 
and technologies into capabilities that can prevent conflict and win 
wars. In January 2010, we released the Navy Total Force Vision for the 
21st century to guide our efforts to attract, recruit, develop, assign, 
and retain a highly-skilled workforce and reaffirm our commitment to 
supporting our uniformed and civilian people wherever they serve and 
live.
    We have transitioned from reducing end strength to stabilizing our 
force through a series of performance-based measures. Our stabilization 
efforts remain focused on maintaining a balanced force in terms of 
seniority, experience, and skills while supporting growth in high-
demand areas such as cyber and special operations. We recognize the 
importance of retaining the talent and experience of our sailors after 
they complete their active duty obligation so we are actively removing 
barriers associated with the transition between Active and Reserve 
careers to allow for a continuum of service over a lifetime. Our fiscal 
year 2011 budget requests authorization and funding for 328,700 Active 
end strength and 65,500 Reserve end strength. We continue to request 
OCO funding for our individual augmentees that are performing non-core 
Navy missions in support of contingency operations in Iraq and 
Afghanistan. OCO funding remains critical to our ability to meet these 
missions without adversely impacting fleet readiness or sailor dwell 
time.
    We continue to provide support to our sailors and their families, 
including those who are wounded, ill, and injured, through expanded 
Fleet and Family Support services, Navy Safe Harbor, and our 
Operational Stress Control (OSC) program. We are addressing 
aggressively the recent rise in suicide rates by implementing new 
training and outreach programs for fleet commanders, sailors, and Navy 
families to increase suicide awareness and prevention. We are focused 
on reducing sexual assaults in our Navy through our new Sexual Assault 
Prevention and Response (SAPR) Office and initiatives that emphasize 
our intolerance for sexual assault and related behavior in our Navy. We 
remain committed to helping our sailors balance work and family 
commitments through initiatives such as 12-month operational deferments 
for new mothers (the most comprehensive policy of all military 
services), 21 days of administrative leave for adoptive parents, 10 
days of paternity leave, a Career Intermission pilot program, and 
flexible work options. I continue to emphasize diversity outreach and 
mentorship to ensure we attract, leverage, and retain the diverse 
talent of our Nation. Diversity among U.S. Naval Academy and Navy 
Reserve Officer Training Corps (NROTC) applicants and graduates 
continues to grow each year. Through our Naval War College and Naval 
Postgraduate School, we are providing Joint Professional Military 
Education (JPME) and world-class higher education and training to our 
sailors. We continue to build our Foreign Area Officer program to 
strengthen existing and emerging international partnerships.
    Our fiscal year 2011 budget request represents a balanced approach 
to supporting our sailors and their families, sustaining the high tempo 
of current operations, and preserving fleet and family readiness. I 
request the continued support of Congress for our fiscal year 2011 
manpower and personnel initiatives.
Recruiting and Retention
    Our Navy has attracted, recruited and retained a highly-skilled 
workforce over the past several years, and we expect this success to 
continue into fiscal year 2011. Fiscal year 2009 marked the second 
consecutive year Navy achieved its aggregate officer and enlisted 
recruiting goals in both the Active and Reserve components. At the 
forefront of this effort is our highly trained and professional 
recruiting force, which has postured us to respond to changing trends. 
We continue to attract the highest quality enlisted recruits in our 
history. We are exceeding DOD and Navy standards for the percentage of 
non-prior service enlisted recruits who have earned a high school 
diploma and whose test scores are in the upper mental group category. 
We met the Navy standard of 95 percent of recruits with a high school 
diploma in fiscal year 2009 and are currently at 96 percent this fiscal 
year. We exceeded the Navy standard of 70 percent of recruits in the 
upper mental group category in fiscal year 2009 (77 percent tested into 
this group) and we are currently at 78 percent this fiscal year.
    Navy will remain competitive in the employment market through the 
disciplined use of monetary and non-monetary incentives. Using a 
targeted approach, we will continue our recruiting and retention 
initiatives to attract and retain our best sailors, especially those 
within high-demand, critical skill areas that remain insulated from 
economic conditions. Judicious use of special and incentive pays 
remains essential to recruiting and retaining these professionals in 
the current economic environment, and will increase in importance as 
the economic recovery continues. Our goal remains to maintain a 
balanced force, in which seniority, experience, and skills are matched 
to requirements.
Diversity
    Our Navy draws its strength and innovation from the diversity of 
our Nation. We continue to aggressively expand our diversity. We are 
committed to implementing policies and programs that foster a Navy 
Total Force composition that reflects America's diversity. We have 
increased diverse accessions through targeted recruiting in diverse 
markets, developed relationships with key influencers in the top 
diverse metropolitan markets, and are aligning all Navy assets and 
related organizations to maximize our connection with educators, 
business leaders and government officials to increase our influencer 
base. Recruiting and retaining a diverse workforce, reflective of the 
Nation's demographics at all levels of the chain of command, is a 
strategic imperative, critical to mission accomplishment, and remains 
focus area for leaders throughout our Navy.
    We continue to expand our relationships with key influencers and 
science, technology, engineering, and mathematics (STEM)-based affinity 
groups to inform our Nation's youth about the unique opportunities 
available in our Navy. To increase our accessibility to diverse 
markets, we established NROTC units at Arizona State University and 
Tuskegee University. Tuskegee University accepted students in the fall 
of 2009, and ASU will accept students in the fall of 2010. Our 
diversity outreach efforts have contributed to our 2013 U.S. Naval 
Academy and NROTC classes being the most diverse student bodies in our 
history. In the years ahead, we will continue to focus our efforts on 
retaining this talent by building and sustaining a continuum of 
mentorship approach that reaches out and engages sailors throughout 
their career. This approaches includes social networking, strong 
relationships with affinity groups, and various programs offered by our 
sailors' immediate commands and associated leadership in addition to 
their respective enterprises and communities.
Women on Submarines
    The Secretary of the Navy and I are in the process of changing the 
Navy policy that restricts women from serving aboard our submarines. 
This move will enable our Navy and, specifically, our submarine force 
to leverage the tremendous talent and potential of our female officers 
and enlisted personnel. Initial integration will include female 
officers assigned to ballistic missile (SSBN) and guided missile (SSGN) 
submarines, since officer accommodations on these submarines have more 
available space and appear to require less modification. The plan also 
integrates female supply corps officers onto SSBNs and SSGNs at the 
department head level. We are planning the first female submarine 
officer candidate accessions into the standard nuclear training and 
submarine training pipelines this year, making it possible to assign 
the first women to submarines as early as fiscal year 2012. Integration 
of enlisted females on SSBNs and SSGNs and integration of officer and 
enlisted female personnel on attack submarines (SSNs) will occur later, 
once the extent of necessary modifications is determined. This 
initiative has my personal attention and I will continue to keep you 
informed as we integrate these highly motivated and capable officers 
into our submarine force.
Sailor and Family Continuum of Care
    We remain committed to providing our sailors and their families a 
comprehensive continuum of care that addresses all aspects of medical, 
physical, psychological, and family readiness. Our fiscal year 2011 
budget request expands this network of services and caregivers to 
ensure that all sailors and their families receive the highest quality 
healthcare available. Navy Safe Harbor, Navy's OSC Program, Reserve 
Psychological Health Outreach Program, Warrior Transition Program 
(WTP), and Returning Warrior Workshop (RWW) are critical elements of 
this continuum.
    Navy Safe Harbor continues to provide non-medical support for all 
seriously wounded, ill, and injured sailors, coastguardsmen, and their 
families through a network of Recovery Care Coordinators and nonmedical 
Care Managers at 16 locations across the country. Over the past year, 
Safe Harbor's enrollment has grown from 387 to 542. Over 84,000 sailors 
have participated in OSC training, which is providing a comprehensive 
approach designed to actively promote the psychological health of 
sailors and their families throughout their careers while reducing the 
traditional stigma associated with seeking help. The WTP and RWWs are 
essential to post-deployment reintegration efforts. WTP, established in 
Kuwait and expanded via Mobile Care Teams to Iraq and Afghanistan, 
provides a place and time for individual augmentees to decompress and 
transition from life in a war zone to resumption of life at home. The 
RWW identifies problems, encourages sailors to share their experiences, 
refers family members to essential resources, and facilitates the 
demobilization process.
Stress on the Force
    As we continue to operate at a high operational tempo to meet our 
Nation's demands in the Middle East and around the world, the tone of 
the force remains positive. We continue to monitor the health of the 
force by tracking statistics on personal and family-related indicators 
such as stress, financial well-being, and command climate, as well as 
sailor and family satisfaction with the Navy. Recent results indicate 
that sailors and their families remain satisfied with command morale, 
the quality of leadership, education benefits, health care, and 
compensation.
    Suicide affects individuals, commands and families. We continue 
efforts at suicide prevention through a multi-faceted approach of 
communication, training, and command support designed to foster 
resilience and promote psychological health among sailors. Navy's 
calendar year 2009 suicide rate of 13.8 per 100,000 sailors represents 
an increase from the previous year rate of 11.6 per 100,000 sailors. 
Although this is below the national rate of 19.0 per 100,000 
individuals for the same age and gender demographic, any loss of life 
as a result of suicide is unacceptable. We remain committed to creating 
an environment in which stress and other suicide-related factors are 
more openly recognized, discussed, and addressed. We continue to 
develop and enhance programs designed to mitigate suicide risk factors 
and improve the resilience of the force. These programs focus on 
substance abuse prevention, financial management, positive family 
relationships, physical readiness, and family support, with the goal of 
reducing individual stress. We continue to work towards a greater 
understanding of the issues surrounding suicide to ensure that our 
policies, training, interventions, and communication efforts are 
meeting their intended objectives.
    Sexual assault is incompatible with our Navy core values, high 
standards of professionalism, and personal discipline. We have 
reorganized our efforts in this critical area under the Navy SAPR 
program, which takes a multi-faceted approach to raise awareness of 
effective prevention methods, victim response and offender 
accountability. Recent program reviews undertaken by the Government 
Accountability Office, the Defense Task Force on Sexual Assault in the 
Military Services, and the Navy Inspector General will help us to 
identify program gaps and refine our program so we can continue to 
promote a culture that is intolerant of sexual assault.
Learning and Development
    Education and training are strategic investments that give us an 
asymmetric advantage over our adversaries. To develop the highly-
skilled, combat-ready force necessary to meet the demands of the 
Maritime Strategy and the Joint Force, we have 15 learning centers 
around the country providing top-notch training to our sailors and Navy 
civilians. We continue to leverage civilian credentialing programs to 
bolster the professional qualifications of sailors in all ratings and 
increase sailor equity in their own professional advancement. We are 
balancing existing education and training requirements with growth in 
important mission areas such as cyber warfare, missile defense, and 
anti-submarine warfare. Cultural, historical, and linguistic expertise 
remain essential to the Navy's global mission, and our budget request 
supports expansion of the Language, Regional Expertise, and Culture 
program for NROTC midshipmen, as well as implementation of the AF-PAK 
Hands Program. We recognize the importance of providing our people 
meaningful and relevant education, particularly JPME, which develops 
leaders who are strategically-minded, capable of critical thinking, and 
adept in naval and joint warfare. Our resident courses at Naval War 
College, nonresident courses at Naval Postgraduate School and Fleet 
Seminar program, and distance offerings provide ample opportunity for 
achievement of this vital education. I appreciate the support of 
Congress in the recent post-September 11 GI Bill. We have led DOD in 
implementing this vital education benefit and continue to carefully 
balance our voluntary education investments to further develop our 
force.
                               conclusion
    Our sailors are performing brilliantly, providing incredible 
service in the maritime, land, air, space, and cyberspace domains 
around the world today. I am optimistic about our future and the global 
leadership opportunities that our Navy provides for our Nation. Our 
fiscal year 2011 budget request continues the progress we started in 
fiscal year 2010 to increase fleet capacity, maintain our warfighting 
readiness, and develop and enhance the Navy Total Force. I ask for your 
strong support of our fiscal year 2011 budget request and my identified 
priorities. Thank you for your unwavering commitment to our sailors, 
Navy civilians, and their families, and for all you do to make our U.S. 
Navy an effective and enduring global force for good.

    Chairman Levin. Thank you so much, Admiral Roughead.
    General Conway.

  STATEMENT OF GEN. JAMES T. CONWAY, USMC, COMMANDANT OF THE 
                          MARINE CORPS

    General Conway. Mr. Chairman, Senator Inhofe, and 
distinguished members of the committee, thank you for the 
opportunity to report to you on the posture of your Marine 
Corps. My pledge, as it has been over the years, is to provide 
you with a candid and honest assessment.
    Having recently returned from a trip to theater, I'm 
pleased to report to you on the magnificent performance of your 
marines and sailors in combat. If you count a 4-year enlistment 
as a generation of marines, we are now experiencing our third 
generation of great young patriots since our Nation was 
provoked on September 11. The first generation broke trail, 
leading strikes into Afghanistan and Iraq. The second 
generation quelled a once-violent province of Anbar. Today 
there are less than 150 marines in Iraq. But our third 
generation has more than 15,000 serving in Afghanistan.
    Your marines are fighting a skilled and determined enemy, 
but, with the Afghan Security Forces, they are once again 
proving they are the strongest tribe in the Taliban stronghold 
of Helmand. Let me assure you from what the Sergeant Major and 
I witnessed first-hand, the highest morale in the Corps resides 
in those units that are posted to Afghanistan.
    My written statement to the committee provides a snapshot 
of the Corps and describes our near-term focus, long-term 
priorities, and our vision of the future. That vision matches 
closely the results of the QDR. The Secretary of Defense seeks 
to create a U.S. military more closely focused on hybrid 
threats, yet capable of responding to a major-level 
contingency. That combination essentially describes the Marine 
Corps that we have built today, a Corps that we call a two-
fisted fighter, able to perform equally well in a 
counterinsurgency or in a high-intensity combined arms fight.
    Our resource expenditures, moreover, reflect our dual, or 
swing, capacity. That is to say that 100 percent of Marine 
Corps equipment can be used in a hybrid conflict or in a major 
fight. Equipment procurement is indeed our primary concern as 
we look at the fiscal year 2011 budget and beyond. Our 
requirements for equipment density in Afghanistan and our 
resolve to reestablish our maritime prepositioned squadrons 
have driven equipment stocks to an all-time low in our 
operating forces at home station. The ability to perform and 
train for deployment and certainly the ability to respond to an 
unexpected contingency is at significant risk based on this 
increasing shortfall.
    Congress has promised us resources for reset and 
reconstitution, but increasingly we cannot wait for the guns to 
fall silent in Afghanistan for such an effort to begin. We ask 
for your help in this critical area.
    Our military construction (MILCON) accounts in the fiscal 
year 2011 budget and the FYDP are sufficient to help maintain 
the promise we made to our marines that they'll have quality 
living spaces while they're home between deployments. One need 
only visit some of our major bases and stations to realize that 
we waited too long to begin the effort.
    Similarly, we believe that even in wartime we must continue 
a heavy emphasis on education of our officers and senior staff 
NCOs. A strong reservoir of strategic and operational thinkers 
is a must on a sophisticated joint and combined battlefield. 
Therefore, a quality Marine Corps University with facilities to 
match our already world class student body, faculty, and 
curriculum is a major priority. We trust we will receive your 
fully support on our MILCON investments that will pay huge 
investments in the years to come.
    Ladies and gentlemen of the committee, I must admit my own 
surprise that our Marine Corps and their families have remained 
so resilient over these 9 years of conflict. They have been 
incredibly determined, loyal, and courageous in an effort to 
see these two wars to a successful close. Much of the credit 
goes to you in Congress for providing them with the finest in 
terms of equipment, warrior care, quality of life for families, 
and compensation.
    The number one question in the minds of our troops is 
always: Is the country behind us? The Members of Congress have 
answered that question in spades, both by your apportionment of 
the Nation's precious resources and also through personal 
efforts to visit both the troops in theater and our wounded at 
Bethesda and Walter Reed.
    As a result of the above and the natural tendency of 
marines to stick around for a fight, our recruitment and 
retention are at all-time highs. I predict that for the second 
year in a row we will close out reenlistment opportunities for 
first-term and career force halfway through the fiscal year. 
Clearly, such a phenomenon would not be possible if marines and 
their families were not happy in the service of their country.
    One day this long war with terrorists and Islamic 
extremists will be over. Your Marine Corps will cease being a 
second land army and will gladly rejoin our Navy brothers 
aboard amphibious ships in order to project American global 
presence, demonstrate American good will, and if need be 
protect America's vital interests. Until that day comes, 
however, your Corps will continue, as we say, to do windows. 
That is, we'll continue to take aboard the indomitable youth of 
America and make them marines, with the absolute conviction 
that as a result they will one day be better citizens. We will 
be trained and as equally prepared to route Taliban fighters in 
Marjah as we are to feed beleaguered Haitians outside Port au 
Prince.
    With your continued support and that of our loyal 
countrymen, we will do whatever the Nation asks us to do and do 
it exceedingly well.
    Thank you, and I look forward to your questions, sir.
    [The prepared statement of General Conway follows:]
            Prepared Statement by Gen. James T. Conway, USMC
    Chairman Levin, Senator McCain, members of the committee, thank you 
for the opportunity to provide a written report for the record on the 
current posture of the Marine Corps. My pledge, as always, is to 
provide you with a candid and honest assessment. On behalf of all 
marines, their families, and our civilian employees, I want to thank 
you for your concern and continued support.
    This brief statement contains a summary of our near-term focus and 
enduring priorities, an update on your Marine Corps today, a discussion 
of the challenges we see ahead, and our vision of the future. In 
addition to any testimony you wish to receive from me, I have directed 
the Deputy Commandants of the Marine Corps to meet with you as 
individuals and members of your respective subcommittees, and to 
provide you any other information you require. Our liaison officers 
will also deliver copies of 2010 U.S. Marine Corps Concepts and 
Programs to the offices of each member of the committee. This almanac 
and reference book contains detailed descriptions of all our major 
programs and initiatives. We hope you will find it useful.
                          i. your marine corps
    We believe that Americans expect their marines to be ready to 
respond when our country is threatened; to arrive on the scene on short 
notice anywhere in the world via the amphibious ships of the U.S. Navy, 
as was necessary when a disastrous earthquake recently struck Haiti; 
and to fight and win our Nation's battles. The public invests greatly 
in the Marine Corps. In turn, our commitment is to uphold their special 
trust and confidence and provide them the best return on their 
investment.
Characteristics
    Your Marine Corps is a young force that provides great value to the 
Nation.

        <bullet> The average age of a marine is 25 years old.
        <bullet> Almost half of the enlisted force--84,830 marines--is 
        between the ranks of private and lance corporal (pay grades E1-
        E3).\1\
---------------------------------------------------------------------------
    \1\ As of 23 December 2009.
---------------------------------------------------------------------------
        <bullet> Almost 70 percent of your marines are on their first 
        enlistment, and some 30,000 have been in uniform for less than 
        a year.\2\
---------------------------------------------------------------------------
    \2\ As of 1 December 2009, the percentage of marines on their first 
enlistment was 68.6 percent, and the number of marines with less than 1 
year on active duty is 29,032.
---------------------------------------------------------------------------
        <bullet> The ratio of officers to enlisted marines is 1:9--the 
        lowest of all the Services.\3\
---------------------------------------------------------------------------
    \3\ Authorized end strength of 202,000 = 21,000 officers + 181,000 
enlisted marines = 1:9.
---------------------------------------------------------------------------
        <bullet> More than 136,000 marines (67 percent) are in 
        deploying units--what we call the Operating Forces. Nearly 
        30,000 marines are forward deployed, forward based, or on 
        training exercises around the world.
        <bullet> For 6.5 percent \4\ of the baseline 2010 Defense 
        budget, the Marine Corps provides:
---------------------------------------------------------------------------
    \4\ 6.5 percent of DOD budget represents fiscal year 2010 USMC 
Green dollars and Direct Blue (Navy) dollars.

                <bullet> 17 percent of the Nation's active ground 
                combat maneuver units
                <bullet> 12 percent of the Nation's fixed wing tactical 
                aircraft
                <bullet> 19 percent of the Nation's attack helicopters

Expeditionary
    The Marine Corps is the Nation's naval expeditionary, combined-arms 
force-in-readiness. To marines, expeditionary connotes fast, austere, 
and lethal.

        <bullet> Expeditionary means rapid deployment by air or sea to 
        respond to crises of temporary duration. For example, within 24 
        hours of the speech by the President of the United States in 
        December announcing the current strategy in Afghanistan, the 
        lead elements of 1st Battalion, 6th Marines from Camp Lejeune, 
        NC, were en route to Afghanistan.
        <bullet> Expeditionary means being efficient and effective 
        while operating in an austere environment--a task-organized 
        force that is manned and equipped no larger or heavier than 
        necessary to accomplish the mission.
        <bullet> Expeditionary means being prepared for decisive 
        action--to be lethal, if necessary--but also possessing the 
        lesser-included capabilities for security cooperation, 
        humanitarian assistance, or disaster relief.
        <bullet> In summary, the term expeditionary to marines goes to 
        the very heart of our service culture, core values, and warrior 
        ethos. Service as part of an expeditionary force means 
        embracing a Spartan way of life and regular deployments on 
        foreign soil in furtherance of our Nation's interests.\5\
---------------------------------------------------------------------------
    \5\ This is consistent with the official Defense Department 
definition of an expeditionary force: ``An armed force organized to 
accomplish a specific objective in a foreign country.'' Joint Pub 1-02 
Department of Defense Dictionary of Military and Associated Terms 
(Washington, DC: 2001, as amended through 31 August 2005), p. 193.
---------------------------------------------------------------------------
Organization
    The Marine Corps is the only general-purpose force in the 
Department of Defense (DOD) that is trained and equipped as the 
Nation's first responders.

        <bullet> We organize in Marine Air-Ground Task Forces (MAGTFs). 
        Under a single command element, the MAGTF integrates three 
        major subordinate elements: (1) Ground Combat Element, (2) 
        Aviation Combat Element, (3) Logistics Combat Element. Each 
        element of the MAGTF is complementary, and Marine Corps forces 
        are most effective and best employed as MAGTFs within the joint 
        or multinational command structure.
        <bullet> MAGTFs are adaptive, general-purpose rapid response 
        forces. They are multi-capable, transitioning seamlessly from 
        fighting conventional and hybrid threats to promoting stability 
        and mitigating conditions that lead to conflict. For example, 
        in 2003, after completing a conventional, 350-mile attack over 
        land from Kuwait to Baghdad, I Marine Expeditionary Force--a 
        60,000-marine-plus MAGTF--was able to transition quickly to 
        security and stability operations.

Near-Term Focus
    We understand the economic challenges facing our country and the 
hard decisions Congress must make. We thank you for your unwavering 
support. This report discusses the near-term focus of the Marine Corps:

        <bullet> The current fight in Afghanistan and the responsible 
        drawdown in Iraq
        <bullet> Readiness and reset of equipment
        <bullet> Modernization of the MAGTF
        <bullet> Preparing for the next contingency and the 
        uncertainties of the future
Enduring Priorities
    Through the Future Years Defense Program and beyond, we are focused 
on:

        <bullet> Providing the Nation a naval expeditionary force fully 
        prepared for employment as a MAGTF across the spectrum of 
        operations
        <bullet> Remaining the most ready when our Nation is least 
        ready
        <bullet> Providing for our marines and their families
                        ii. iraq and afghanistan
Operation Iraqi Freedom
    Since testimony before your committee last year, the Marine Corps 
has transferred authority for Anbar Province to the U.S. Army and is 
near completion of a responsible drawdown from Iraq.

        <bullet> From 2003-2009, our force levels in Iraq averaged 
        25,000 marines.
        <bullet> As of February 19, 2010, there were 159 marines in 
        Iraq. By spring of this year, our mission in Iraq will be 
        complete and your marines will redeploy.
Operation Enduring Freedom
    In Afghanistan, the mission has expanded.

        <bullet> As of September 23, 2009, there were more marines in 
        Afghanistan than in Iraq.
        <bullet> By March 2010, there will be more than 18,500 marines 
        in Afghanistan, and by mid-April, that number will grow to a 
        robust MAGTF of 19,400 personnel with equipment, and will be 
        commanded by a Marine two-star general.
        <bullet> Your marines have already had success and have made a 
        difference in some of the toughest regions of Afghanistan, 
        primarily Helmand Province in the south--formerly a Taliban 
        stronghold, and the source of the highest volume of opium 
        production in the world. However, more work remains to be done.
Summary
        <bullet> Operations in Iraq and Afghanistan have required the 
        Marine Corps to fight as a second land army. Although we have 
        been successful in our assigned missions in Iraq and 
        Afghanistan, that success has come at the price of degraded 
        readiness for our designed missions. The Marine Corps will 
        always do whatever the Nation requires. But, as Congress has 
        authorized and resourced, the Marine Corps is trained, 
        organized, and equipped for our primary mission as a force in 
        readiness.
        <bullet> The harsh environments and tempo of operations in Iraq 
        and Afghanistan through 8 years of combat have accelerated wear 
        and tear on our equipment. The enemy's weapon of choice--the 
        improvised explosive device (IED)--has forced us to increase 
        the weight of our personal protective equipment and the armor 
        on our vehicles.
        <bullet> The distributed nature of operations has shown us that 
        our legacy tables of equipment were inadequate. The required 
        type and number of ground vehicles, radios, and other major end 
        items of equipment have significantly increased. In our 
        infantry battalions, for example, the number of tactical 
        vehicles has almost doubled while the number of radio sets has 
        grown sevenfold. Our preliminary estimates indicate that the 
        cost of restructuring the Marine Corps' tables of equipment 
        would be $5 billion over fiscal year 2012 through fiscal year 
        2015.
        <bullet> The amount of equipment that has been damaged, 
        destroyed, or has reached the end of service life from 
        accelerated use has increased, and the cost associated with 
        fixing or replacing this equipment has increased significantly.
        <bullet> Based upon the Marine Corps current analysis, our 
        estimated reset cost is $8 billion. The $8 billion consists of 
        $3 billion requested in the fiscal year 2011 OCO and an 
        additional long-term reset liability of $5 billion upon 
        termination of the conflict.
        <bullet> Equipment on hand at home station to support training 
        has been serious degraded. Particularly worrisome is our 
        capacity to respond to other contingencies.
        <bullet> We are institutionalizing the lessons learned in Iraq 
        and Afghanistan in training, education, organization, doctrine, 
        and capability development. One of the ways we are doing this 
        is through the Marine Corps Center for Lessons Learned.
        <bullet> The current operating environment in Iraq and 
        Afghanistan has led to an exponentially increased need for 
        intelligence collection assets down to lower levels of command. 
        The Marine Corps Intelligence, Surveillance, and Reconnaissance 
        Enterprise provides support to the MAGTF in this operating 
        environment by organizing all of the intelligence disciplines, 
        sensors, and equipment and communication architecture into a 
        single capability that is integrated and networked across all 
        echelons.
                             iii. readiness
1. Personnel Readiness
    Our people--the brave men and women who wear our uniform and the 
spouses, children, and the parents who support them--are our most 
valuable resource. In 2009, your Corps lost 65 marines to enemy action 
in combat. We also lost 52 marines who died by suicide--this serious 
issue, which will be discussed later in this report, has my personal 
attention.
    End Strength
    Current authorized end strength is 202,100 marines in the Active 
component and 39,600 marines in the Selected Reserve.

        <bullet> During fiscal year 2007, the Marine Corps requested 
        and received authorization to grow 27,000 additional personnel 
        by the end of fiscal year 2011.
        <bullet> We completed our growth during fiscal year 2009--2 
        years ahead of schedule. We attribute this to four factors: 
        quality recruiting, exceptional retention, reduced personnel 
        attrition, and a great young generation of Americans who want 
        to serve their country during wartime.
        <bullet> With this personnel increase, we will improve 
        training, upgrade readiness, and enhance the quality of life 
        for all personnel and their families. The goal is to build the 
        equivalent capacity of three Marine Expeditionary Forces--the 
        largest MAGTF and principal Marine Corps warfighting 
        organization.
        <bullet> We are continuing to shape the Marine Corps with the 
        right mix of units, grades, and occupational specialties.
    Quality
        <bullet> Recruiting. In fiscal year 2009, we exceeded goals in 
        numbers and standards for the Active component and the Selected 
        Reserve. The Active component accessed 31,413 personnel, and 
        the Selected Reserve accessed 9,627 personnel. In fiscal year 
        2010, our goal is to access 27,500 enlisted personnel in the 
        Active component and commission 1,800 new officers.
        <bullet> Enlistment Standards. One of the DOD standards for new 
        recruits is that at least 90 percent will possess a high school 
        diploma. The Marine Corps has chosen to maintain a higher 
        standard; our goal is a high school graduation rate of 95 
        percent. In fiscal year 2009, for our combined active and 
        Reserve components, the high school graduation rate of our 
        recruits exceeded 98 percent.
        <bullet> First-Term Reenlistments. In fiscal year 2009, 8,011 
        first-term marines reenlisted, meeting 109.2 percent of our 
        goal. This represented a retention rate of 33.7 percent, 
        exceeding our traditional retention rate of 24 percent. In the 
        first quarter of fiscal year 2010, 5,194 first-term marines 
        have already reenlisted--77 percent of the goal for the entire 
        year.
        <bullet> Subsequent Term Reenlistments. In fiscal year 2009, 
        7,985 marines who had completed at least two enlistment 
        contracts chose to reenlist again. This number represented 107 
        percent of our goal and a 78.6 retention rate--the highest in 
        history. In the first quarter of fiscal year 2010, 5,685 
        marines who had completed at least two enlistment contracts 
        chose to reenlist again--82 percent of the goal for the entire 
        year.
        <bullet> Officers. The quality of officers accessed and 
        retained remains high. In one example, the share of Marine-
        option U.S. Naval Academy candidates in the top third of their 
        graduating class greatly exceeded representative levels in 
        2008. The number of Naval Academy graduates who chose to become 
        Marine Corps officers last year was 270--the highest number in 
        history for the second year in a row.
        <bullet> In fiscal year 2009, our officer retention rate was 93 
        percent and during fiscal year 2010, we expect officer 
        retention to remain stable.
    Reservists
    The Marine Corps Reserve is a full partner in the total force. As 
of January 2010, there were 39,164 marines in the Selected Reserve and 
another 55,233 in the Inactive Ready Reserve. Marine Forces Reserve 
includes 183 training centers in 48 States, the District of Columbia, 
and Puerto Rico.

        <bullet> The extensive contributions of the Reserve have 
        reduced deployment requirements for the Active component, 
        thereby improving the health of the total force. More than 
        54,000 marines from the Selected Reserve and the Inactive Ready 
        Reserve have mobilized and deployed in support of Operations 
        Iraqi Freedom, Enduring Freedom, or other operational 
        commitments around the globe.\6\
---------------------------------------------------------------------------
    \6\ As of 3 January 2010.
---------------------------------------------------------------------------
    ``Every Marine into the Fight''
    The majority of your marines joined the Corps after our Nation was 
already at war. They expect to train, deploy, and fight because that is 
what they believe marines are supposed to do. As such, the 2007 ``Every 
Marine into the Fight'' initiative adjusted personnel assignment 
policies so marines serving in nondeploying units or the supporting 
establishment would have the opportunity to deploy. At the same time, 
we monitor carefully the frequency and duration that units and 
individual personnel spend deployed.

        <bullet> To date, 73 percent of the available marines have 
        deployed in support of Operations Iraqi Freedom and Enduring 
        Freedom, or other operational commitments around the globe.
        <bullet> Individual Deployment Tempo. We measure individual 
        deployment tempo on a 2-year sliding scale--the number of days 
        deployed out of the previous 730 days. In the last 7 years, we 
        have seen a 20-fold increase in the individual deployment tempo 
        of marines in the Active component. In October 2002, the number 
        of marines who deployed for at least 120 consecutive days in a 
        2-year period was 4,845. As of January 2010, 100,760 marines 
        had deployed for at least 120 consecutive days.
        <bullet> Unit Operational Tempo. The metric we use to measure 
        unit operational tempo is the ratio of ``deployment to 
        dwell''--months deployed to months at home station. We limit 
        the duration of deployments for units and individual marines to 
        no more than 7 months for battalions and squadrons. Higher 
        headquarters units deploy for 1 year.
        <bullet> Our goal is to achieve a 1:2 deployment to dwell ratio 
        in the Active component and a 1:5 ratio in the Reserve 
        component. Our Reserve units are currently operating at a ratio 
        that more closely approximates a ratio of 1:4, while many of 
        our Active component units, on average, are nearing the goal of 
        1:2 (see Table 1).

           Table 1. MAGTF Unit Deployment to Dwell Ratios \7\
------------------------------------------------------------------------
                                                Average Ratio (Months
               MAGTF Element                   Deployed : Months Home
                                                      Station)
------------------------------------------------------------------------
Command Element...........................  1:1.43
Ground Combat Element.....................  1:2.08
Aviation Combat Element...................  1:2.11
Logistics Combat Element..................  1:1.79
------------------------------------------------------------------------
\7\ As of 18 November 2009.

        <bullet> The subordinate units most frequently deployed are 
        Intelligence Battalions, 1:1.01 (Command Element); Infantry 
        Battalions, 1:1.78 (Ground Combat Element); VMU Squadrons, 
        1:1.10, and Attack Helicopter Squadrons, 1:1.28 (Aviation 
        Combat Element); and Explosive Ordnance Disposal Companies 
        1:1.30 (Logistics Combat Element).
    Suicide Prevention
    The number of marines who have died by suicide in recent years is 
shocking and unacceptable. This issue has my personal attention, and we 
have multiple programs at work to reverse this trend.

        <bullet> Causes. Our studies have shown that regardless of duty 
        station, deployment, or duty status, the primary stressors 
        associated with marine suicides are problems in romantic 
        relationships, physical health, work-related issues, such as 
        poor performance and job dissatisfaction, and pending legal or 
        administrative action. Multiple stressors are typically present 
        in a suicide. This is consistent with the findings of the other 
        services and civilian agencies.
        <bullet> Deployments. We analyze suicides monthly and annually 
        for combat-related trends such as the number of deployments and 
        dwell time. Although it is reasonable to assume that one or 
        more deployments may cause an increase in suicides, to date, we 
        have been unable to establish a direct correlation between 
        deployments and suicides.
    Civilian Employees
    Civilian employees are a vital part of the Marine Corps. In fiscal 
year 2010, civilian Federal employees will number more than 25,000. 
Through initiatives in management and career development, the Marine 
Corps is dedicated to maintaining a civilian workforce with the 
leadership skills and technical competencies necessary to meet the 
challenges of today as well as those of the future.

        <bullet> Traditionally, civilian employees have served 
        primarily in the supporting establishment. Now, more than ever 
        before, they are deploying with the operating forces and 
        serving in positions traditionally occupied by Active Duty 
        marines. For example, we are in the process of hiring more than 
        260 tactical safety specialists, who will each rotate on 
        deployments with the operating forces. We are also 
        participating in DOD's program to build a deployable Civilian 
        Expeditionary Workforce.
    Families
    While we recruit marines, we retain families. More than 45 percent 
of your marines are married, and we believe that investing in military 
families is critical to the long-term health of the institution. When 
marines know that their loved ones at home station have access to 
quality housing, healthcare, child development services, and education, 
they are better prepared to face the rigors of deployment and more 
inclined to stay in uniform when they return home.

        <bullet> Family Readiness Programs. Our baseline budget in 
        fiscal years 2010 and 2011 for family programs is $399 million 
        per year. We have reformed our family readiness programs at 
        every level of command at all of our installations. As an 
        example, we have created more than 400 full-time positions for 
        family readiness officers down to the battalion and squadron 
        level.
        <bullet> Child Care. Today, we are currently meeting 64 percent 
        of potential need for child care spaces. To meet the DOD 
        standard of 80 percent of potential need based on the current 
        population, we would require approximately 3,000 additional 
        spaces. With your support, we have programmed an additional 
        2,615 spaces that will open over the next 18-24 months.
        <bullet> Families with Special Needs. With an increase of $11 
        million for the Exceptional Family Member Program in this 
        year's baseline budget, we have made great strides improving 
        the programs that support special needs family members. 
        Enrollment is now mandatory and more than 8,900 exceptional 
        family members are in the program. The Marine Corps assigns a 
        caseworker to each family, who assists during relocation, 
        deployment, and life events. In addition, the Marine Corps now 
        underwrites the cost of up to 40 hours of respite care per 
        month for families in the program. To date, the Marine Corps 
        has provided more than 250,000 hours of respite care.
    Wounded Warriors
    About 9,000 marines have been injured or fallen seriously ill while 
serving in support of Operations Iraqi Freedom or Enduring Freedom. We 
are deeply committed to their care as well as the welfare of their 
families. Since activation in April 2007, the Wounded Warrior Regiment 
has provided a wide range of nonmedical care for the injured and ill. 
The Marine Corps now also has wounded warrior battalions at Camp 
Pendleton and Camp Lejeune.

        <bullet> Infrastructure. The Marine Corps is investing $50 
        million from the 2009 Overseas Contingency Operations 
        supplemental for the construction of resource and recovery 
        centers at Camp Pendleton and Camp Lejeune. These recovery 
        centers will provide spaces for counseling, physical therapy, 
        employment support, financial management, and other training 
        and outreach programs in support of our wounded.
        <bullet> Outreach. With a 24-hour call center for wounded 
        marines and their families, the Wounded Warrior Regiment has 
        contacted 99.4 percent of all marines (7,654 out of 7,703) who 
        were wounded since the beginning of Operations Iraqi Freedom 
        and Enduring Freedom, in order to determine their health 
        status. We also maintain a toll-free number to the medical 
        center in Landstuhl, Germany, for families to contact their 
        loved ones who have been wounded.
        <bullet> Recovery Care. The Marine Corps has 42 recovery care 
        coordinators, who coordinate non-medical services for marines 
        and their families during recovery, rehabilitation, and 
        transition.
        <bullet> Mental Health

                <bullet>  Traumatic Brain Injury. Naval medicine 
                remains at the forefront of researching and 
                implementing pioneering techniques to treat traumatic 
                brain injury. One technique, Hyperbaric Oxygen 
                Treatment, is showing great promise. We anticipate a 
                study to begin this spring that tests the efficacy of 
                this revolutionary treatment. The Marine Corps has a 
                formal screening protocol for marines who suffer 
                concussions or who are exposed to blast events in 
                theater.
                <bullet>  Post-Traumatic Stress Disorder. We are 
                attentive to the mental health of our warriors and we 
                are dedicated to ensuring that all marines and family 
                members who bear the invisible wounds caused by stress 
                receive the best help possible. We developed the Combat 
                Operational Stress Control program to prevent, 
                identify, and holistically treat mental injuries caused 
                by combat or other operations.

        <bullet> With the increased workload, we do have concerns about 
        the capacity of mental health care in military medicine. 
        Operational support and current treatment facility demands 
        continue to stretch our mental health professional communities, 
        even though DOD has taken many steps to increase mental health 
        services. Our shortages of mental health professionals are a 
        reflection of Nation-wide shortages of this specialty. We are 
        actively engaged in discussions about possible solutions.
2. Equipment Readiness
    We have sourced equipment globally, taking from non-deployed units 
and strategic programs to support our forces in theater. As a result, 
the amount of equipment remaining for non-deployed units to use for 
training and other potential contingencies is seriously deficient.

        <bullet> For example, while the overall supply rating of Marine 
        Corps units in Afghanistan is near 100 percent, the supply 
        rating of units at home station is less than 60 percent.
        <bullet> Additional equipment is being procured with 
        supplemental funds, but the production rates are too slow to 
        meet our requirements for new equipment orders.
    Equipment Reset
    As mentioned previously, the distributed and decentralized nature 
of operations in Iraq and Afghanistan has shown us that our legacy, 
20th century tables of equipment are significantly inadequate. 
Moreover, the tempo of operations has accelerated the wear and tear on 
equipment. Also, the diversion of equipment in theater from Iraq to 
Afghanistan has delayed reset actions at our logistics depots in the 
United States.

        <bullet> Our preliminary estimates indicate that the cost of 
        restructuring the Marine Corps' tables of equipment would be $5 
        billion over fiscal year 2012 through fiscal year 2015.
        <bullet> In light of the continued high tempo of operations in 
        Afghanistan, and the delay in reset actions due to the 
        diversion of equipment in theater, we estimate the cost of 
        reset for the Marine Corps to be $8 billion ($3 billion 
        requested in the fiscal year 2011 OCO and an additional $5 
        billion reset liability upon termination of the conflict).
    Aviation Readiness
    All Marine Corps aircraft in support of overseas contingency 
operations are exceeding programmed rates, and are thus consuming 
service life at a rate sometimes three times higher than that scheduled 
for the lifetime of the aircraft. (See Table 2.) This will eventually 
result in compressed timelines between rework and, ultimately, earlier 
retirement of the aircraft than originally programmed.

        <bullet> It is critical that our aviation modernization 
        programs, discussed in the next section of this report, 
        continue to receive the support of Congress.
        <bullet> The majority of our legacy platforms are at the end of 
        their service life and most of the production lines are closed.

                            Table 2. Fiscal Year 2009 USMC Aircraft Utilization Rates
                                         Overseas Contingency Operations
----------------------------------------------------------------------------------------------------------------
                                                                  Programmed
                  Aircraft                      Average Age     Rates  (Hours/     OCO Rates      OCO Life Usage
                                                  (Years)           Month)       (Hours/Month)
----------------------------------------------------------------------------------------------------------------
AH-1W.......................................              19             19.5             32.7             1.7x
UH-1N.......................................              35             21.7             30.0             1.4x
CH-46E......................................              41             13.6             31.1             2.3x
CH-53D......................................              40             23.8             50.3             2.1x
CH-53E......................................              21             19.2             33.6             1.8x
MV-22B......................................               3             20.9             29.4             1.4x
AV-8B.......................................              13             20.9             24.1             1.2x
F/A-18A.....................................              23             25.5             72.5             2.9x
F/A-18C.....................................              16             23.9             65.5             2.7x
EA-6B.......................................              27             26.4             66.0            2.5x
----------------------------------------------------------------------------------------------------------------
Note: Programmed rates are defined in the Weapon System Planning Document and are based on the projected dates
  an aircraft will be replaced by a new platform or reworked to extend its service life. Programmed rates
  include monthly flight hours and the associated logistical support required for each aircraft.

    Strategic Prepositioning Programs
        <bullet> Marine Corps prepositioning programs trace their 
        origins back 30 years, when the Iranian revolution, the Soviet 
        invasion of Afghanistan, the Iraqi attack on Iran, and the 
        deepening civil war in Lebanon collectively brought to the 
        forefront the limitations of strategic airlift to respond to 
        no-notice contingencies. The solution--the Secretary of Defense 
        testified in 1980, and Congress agreed--was prepositioned 
        combat equipment, ammunition, and supplies afloat on commercial 
        vessels underway or docked in strategic locations. The Marine 
        Corps developed three squadrons of maritime prepositioned ships 
        and, in 1982, began prepositioning equipment and ammunition 
        underground in Norway.
        <bullet> The first real test for these programs was in 1991, 
        during Operation Desert Shield. In 2003, in Kuwait, the Marine 
        Corps downloaded 11 vessels from all 3 prepositioned squadrons 
        and moved 648 principal end items from Norway in preparation 
        for Operation Iraqi Freedom. Without this capacity, the Marine 
        Corps would not have been able to move half of the entire 
        operating forces--more than 60,000 fully equipped marines--
        halfway around the world for a 350-mile attack on Baghdad.
        <bullet> When completely loaded, Marine Corps prepositioning 
        vessels today carry more than 26,000 pieces of major equipment 
        including tanks, wheeled tactical vehicles, and howitzers, as 
        well as the necessary supplies to support the force.
        <bullet> When measured against authorized allowances, the 
        percentage of major item equipment (Class VII) currently 
        present in the prepositioned fleet is 94 percent; the 
        percentage of supplies currently present is in excess of 99 
        percent.\8\
---------------------------------------------------------------------------
    \8\ Data as of 18 February 2010. To clarify any misperceptions, 
these are not the formal readiness percentages the Marine Corps uses in 
separate reports to Joint Chiefs of Staff, the Office of the Secretary 
of Defense, and Congress. The readiness percentages in those reports 
are a measurement against MARES reportable items, a more select range 
of equipment.
---------------------------------------------------------------------------
        <bullet> In Norway, the current percentage of on-hand major end 
        item equipment (Class VII) measured against authorized 
        allowances is 47 percent; the percentage of on-hand supplies is 
        78 percent.\9\
---------------------------------------------------------------------------
    \9\ Data as of 18 February 2010.
---------------------------------------------------------------------------
        <bullet> It is important to note that these programs are not 
        just a strategic war Reserve. Marine Corps prepositioning 
        programs support forward-deployed training exercises and, along 
        with the amphibious ships of the U.S. Navy, the steady state 
        requirements of the combatant commanders. For example, using 
        the equipment positioned in Norway, the Marine Corps provides 
        security force assistance to partner nations in U.S. European 
        Command and U.S. Africa Command.
        <bullet> In summary, Marine Corps prepositioning programs are 
        vital to the Nation and they require the continued funding and 
        support of Congress.
3. Infrastructure
    Bachelor Housing
    Our number one priority in military construction is barracks. In 
years past, due to fiscal constraints, we had focused on operational 
concerns. We now have a program under way that will provide adequate 
bachelor housing for our entire force by 2014. Table 3 depicts Marine 
Corps fiscal year 2011 investment in new barracks.

          Table 3. USMC Fiscal Year 2011 Barracks Construction
                        [In millions of dollars]
------------------------------------------------------------------------
                                            Fiscal Year
                Location                       2011        New Barracks
                                            Investment        Spaces
------------------------------------------------------------------------
Twentynine Palms, CA....................           $53.2             384
Camp Lejeune, NC........................           326.6           2,794
Cherry Point, NC........................            42.5             464
Camp Pendleton, CA......................            79.9             860
MCB Hawaii, HI..........................            90.5             214
MCB Quantico, VA........................            37.8             300
                                         -------------------------------
  Total.................................          $630.5           5,016
------------------------------------------------------------------------

        <bullet> The Marine Corps is committed to funding the 
        replacement of barracks furnishings on a 7-year cycle and to 
        funding the repair and maintenance of existing barracks to 
        improve the quality of life of marines.
    Summary
        <bullet> Our equipment shortfalls are serious and the impacts 
        on readiness have been significant. Our nondeployed units do 
        not have the required amount of equipment they need to train or 
        support other contingencies. Moreover, the harsh environments 
        of Iraq and Afghanistan, the tempo of operations, and our 
        employment as a second land army since 2004 has accelerated 
        wear and tear on our equipment and delayed the reset activities 
        necessary to prepare for the next contingency.
        <bullet> We estimate that the cost of restructuring the Marine 
        Corps' tables of equipment from fiscal year 2012 through fiscal 
        year 2015 would be $5 billion and the cost to reset for the 
        Marine Corps will be $8 billion ($3 billion requested in fiscal 
        year 2011 OCO and an additional $5 billion reset liability upon 
        termination of the conflict).
        <bullet> Iraq and Afghanistan have not adversely affected 
        personnel readiness or the resiliency of the force. The Marine 
        Corps continues to recruit and retain the highest quality 
        people. Your marines want to make a difference; they understand 
        being a marine means deploying and fighting our Nation's 
        battles. Indeed, the marines with the highest morale are those 
        currently in Afghanistan.
        <bullet> The Marine Corps has achieved its goal of 202,000 
        active duty personnel and has done so with no compromise in 
        quality. However, the Marine Corps has not achieved the correct 
        mix of skills and paygrades. Continued funding will be needed 
        to balance the force correctly.
        <bullet> Our personnel growth has outpaced our growth in 
        infrastructure, and your continued support is needed to provide 
        the additional barracks, messing, and office spaces required.
                     iv. modernization of the magtf
    Our modernization effort is not merely a collection of programs but 
a means of aligning the core capabilities of the MAGTF across the 
spectrum of present and future security challenges. All of our 
procurement programs are designed to support the full range of military 
operations.
The Individual Marine
    Marines are the heart and soul of your Corps. The trained, 
educated, and physically fit marine enables the Corps to operate in 
urban areas, mountains, deserts, or jungles. However, we are concerned 
about weight. Depending on the enemy situation, and including helmet, 
body armor, individual weapon, water, ammunition, and batteries, the 
weight of gear for a marine on foot-patrol in Afghanistan can average 
90 pounds. There is a delicate balance between weight and protection, 
and we continue to pursue the latest in technology to provide marines 
with scalable protection based on the mission and threat.
Tactical Vehicles
    The Marine Corps currently has a total ground tactical vehicle 
quantity of nearly 47,500. Over the next 10 years, we plan to replace 
about 50 percent of that total.

        <bullet> We are planning, programming, and budgeting toward a 
        balanced fleet of vehicles. Our chief considerations are 
        mobility, survivability, payload, transportability, and 
        sustainability. Our goal is a portfolio of vehicles that is 
        able to support amphibious operations, irregular warfare, and 
        operations ashore across the range of military operations. We 
        envision a blend of Expeditionary Fighting Vehicles, Marine 
        Personnel Carriers, Mine Resistant Ambush Protected vehicles, 
        and replacements for our High Mobility Multipurpose Wheeled 
        Vehicles.
        <bullet> The Expeditionary Fighting Vehicle (EFV) is the number 
        one modernization program in the ground combat element of the 
        MAGTF. The requirements of the current and future security 
        environment have driven the research and development of the 
        critical capabilities associated with the EFV. The Marine Corps 
        has not taken a myopic view of the EFV; we are well aware of 
        the fiscal realities and developmental challenges associated 
        with such a revolutionary vehicle. We are, however, convinced 
        that national security demands the capabilities of the EFV and 
        justifies the costs. This vehicle will save lives and enable 
        mission success across an extremely wide, and highly probable, 
        range of operational scenarios.
Fire Support
    We are modernizing Marine Corps land-based fire support through a 
triad of weapons systems--a new and more capable 155mm howitzer, a 
system of land-based rockets, and a helicopter-transportable 120mm 
mortar. Each of these is extremely accurate. This accuracy is critical 
in counterinsurgency operations and irregular warfare because accuracy 
reduces the instances of civilian casualties and collateral damage to 
local infrastructure.

        <bullet> The Lightweight 155mm Towed Howitzer (M777) weighs 
        about half of the cannon it is replacing and fires projectiles 
        to a range of 15-19 miles. Our Marine Expeditionary Brigade in 
        Afghanistan has 15 of these howitzers at 3 different locations, 
        which have collectively fired more than 600 rounds since April 
        2009.
        <bullet> The High Mobility Artillery Rocket System (M142 
        HIMARS) provides high-value rocket and missile fire in support 
        of ground forces. Each system carries six rockets or one 
        missile. Like our new lightweight howitzer, HIMARS has proven 
        itself over the past year in Afghanistan, delivering long-range 
        precision fires.
        <bullet> The Expeditionary Fire Support System is a rifled 
        120mm mortar, internally transportable 110 nautical miles by 
        both the MV-22 Osprey and the CH-53E helicopter. This will be 
        the primary indirect fire-support system for helicopter-
        transported elements of the ground combat element. A platoon 
        equipped with these new mortars recently deployed with the 24th 
        Marine Expeditionary Unit.
Marine Aviation
    Marine pilots are naval aviators; they are trained to fly from the 
ships of the U.S. Navy or from expeditionary airfields ashore in 
support of marines on the ground. We are in the midst of an 
unprecedented modernization effort. By 2020, we will have:

        <bullet> Transitioned more than 50 percent of our aviation 
        squadrons to new aircraft
        <bullet> Added 5 more operational squadrons and almost 100 more 
        aircraft to our inventory
        <bullet> Completed fielding of the tilt-rotor MV-22 Osprey and 
        the upgraded Huey (UH-1Y) utility helicopter
        <bullet> Updated our entire fleet of aerial refuelers to the 
        KC-130J model
        <bullet> Fielded the upgraded Cobra (AH-1Z) attack helicopter 
        and the Joint Strike Fighter (F-35B)
        <bullet> Fielded an entirely new family of Unmanned Aircraft 
        Systems
        <bullet> Introduced a new model of the heavy-lift CH-53 cargo 
        helicopter
The Joint Strike Fighter
    The Marine Corps is on track to activate DOD's first operational 
Joint Strike Fighter squadron in 2012. Although our investment in this 
program may seem high, it is important to note that the Marine Corps 
has not bought a fixed-wing tactical aircraft in 11 years, and that the 
Joint Strike Fighter will ultimately replace three different types of 
aircraft currently in our inventory.

        <bullet> The short-takeoff and vertical landing variant (F-35B) 
        of the Joint Strike Fighter will be transportable aboard the 
        amphibious ships of the U.S. Navy; it will be able to operate 
        under the same austere conditions as does the AV-8 Harrier; it 
        will be able to carry more bombs and loiter overhead longer 
        than does the F/A-18 Hornet; and it will be a better electronic 
        warfare platform than our legacy EA-6 Prowler.
The Osprey
    We are very pleased with the performance of the tilt-rotor MV-22 
Osprey. The Osprey provides greater speed, more range, and enhanced 
survivability compared to other rotary wing platforms. It flies more 
than twice as fast and carries three times the payload at more than six 
times the range of the medium-lift helicopter it is replacing.

        <bullet> Osprey squadrons have completed three successful 
        deployments to Iraq and one aboard ship. One squadron is 
        currently in Afghanistan. We are nearing delivery of our 100th 
        operational aircraft, and at a current build of 30 Ospreys per 
        year, we are replacing our CH-46E medium-lift helicopter 
        squadrons at a rate of two squadrons per year.
Logistics Command and Control
    Global Combat Service Support System--Marine Corps is the 
cornerstone of our logistics modernization strategy.

        <bullet> The program is a portfolio of information technology 
        systems that will support logistics command and control, joint 
        logistics interoperability, secure access to information, and 
        overall visibility of logistics data. It will align Marine 
        Corps logistics with real-world challenges, where speed and 
        information have replaced mass and footprint as the foremost 
        attributes of combat operations; it will replace 30-year old 
        legacy supply and maintenance information technology systems; 
        and it will provide the backbone for all logistics information 
        for the MAGTF.
                               v. vision
    The current transnational struggle against violent extremism will 
not end anytime soon. Other threats--conventional and irregular--will 
continue to emerge and the complexity of the future operating 
environment will only increase. As we look to the future, we believe we 
must refocus on our core competencies, especially combined-arms 
training and operations at sea with the U.S. Navy.
2010 Quadrennial Defense Review
    We believe the report from the Quadrennial Defense Review offers an 
accurate and informed analysis of the challenges in the future security 
environment, particularly with respect to growing complexity of hybrid 
threats and the spread of advanced anti-access capabilities.

        <bullet> We concur with the overarching need for a 
        comprehensive and balanced approach to national security--a 
        whole of government approach.
        <bullet> We agree with the need for a U.S. military that is 
        balanced in capabilities for irregular warfare and conventional 
        conflict. For the Marine Corps, we have always believed in such 
        a balance. Our equipment and major programs, and our means of 
        employment as an integrated MAGTF, reflect our commitment to be 
        flexible in the face of uncertainty. One hundred percent of our 
        procurement can be employed either in a hybrid conflict or in 
        conventional combat.
        <bullet> Finally, while our current focus is rightly on today's 
        fights, we believe it is critical that we do not underestimate 
        the need to maintain the ability to gain access in any 
        contested region of the world.
Seabasing and the Navy-Marine Corps Team
    With oceans comprising about 70 percent of the Earth's surface and 
the world's populations located primarily on the coasts, seabasing 
allows our Nation to conduct crucial joint operations from the sea.

        <bullet> Seabasing is a capability and a concept. It is the 
        establishment of a mobile port, airfield, and replenishment 
        capability at sea that supports operations ashore. In effect, 
        seabasing moves traditional land-based logistics functions 
        offshore.
        <bullet> From the sea, U.S. forces will be able to conduct the 
        full range of military operations, from disaster relief and 
        humanitarian assistance to irregular warfare and major combat 
        operations. Sea-based logistics, sea-based fire support, and 
        the use of the ocean as a medium for tactical and operational 
        maneuver permit U.S. forces to move directly from sea to 
        objectives ashore.
        <bullet> There are misperceptions that the United States has 
        not conducted an amphibious operation since Inchon during the 
        Korean War in 1950. Since 1982, our Nation has conducted more 
        than 100 amphibious operations. For example, the Navy-Marine 
        Corps Team has been on the scene in Bangladesh (1991), the 
        Philippines (1991), Liberia (1996), and East Timor (1999).

                <bullet> After September 11, U.S. amphibious forces, 
                from a seabase, led the first conventional strikes 
                against the Taliban in Afghanistan.
                <bullet> In 2004, the 15th Marine Expeditionary Unit 
                was on station in Southeast Asia to support the relief 
                efforts after the Tsunami.
                <bullet> In 2005, from a seabase in the Gulf of Mexico, 
                the Navy and Marine Corps supported recovery efforts 
                after Hurricane Katrina.
                <bullet> In 2009, off the coast of Somalia, when 
                pirates boarded the Maersk Alabama, the 13th Marine 
                Expeditionary Unit and the USS Boxer were on station to 
                support the counterpiracy operations.

        <bullet> Last month, with Haiti's airfield overwhelmed and 
        their seaport disabled by wreckage following the earthquake, 
        the USS Bataan Amphibious Ready Group and the 22nd Marine 
        Expeditionary Unit provided a significant and sustainable 
        delivery of food, water, and other supplies without the 
        logistical burden ashore.
        <bullet> Seabasing--Maritime Prepositioning Force (MPF) 
        Enhancements

                <bullet> Critical to seabasing are the logistics 
                vessels of the Maritime Prepositioning Force. As 
                discussed in the Long-Range Plan for Naval Vessels, we 
                have restructured our Maritime Prepositioned Force 
                (Future) program and will enhance the current 
                capabilities of each of our three existing Maritime 
                Preposition Force Squadrons.
                <bullet> One mobile landing platform (MLP), one Large 
                Medium-Speed Roll-on/Roll-off (LMSR) ship, and one 
                Lewis and Clark-class (T-AKE) cargo ship will be added 
                to each squadron of the MPF.
                <bullet> The MLP will interface with the LMSRs, which 
                are being added to each MPF squadron from fiscal year 
                2009-2011, thus providing the capability to transfer 
                cargo while at sea and making each MPF squadron highly 
                responsive to demands across the full-spectrum of 
                operations.
                <bullet> In summary, as the security environment grows 
                more complex, so does the value of amphibious forces.
Expeditionary Operations in the Littoral Domain
    The littoral domain is where the land and sea meet. This is where 
seaborne commerce originates and where most of the world lives. 
Littorals include straits--strategic chokepoints that offer potential 
control of the world's sea lanes of communication. The Navy-Marine 
Corps team and the vitality of the amphibious fleet is critical to 
overcoming anti-access challenges in locations along the coastlines of 
the world where there are no American military forces or basing 
agreements.

        <bullet> The QDR emphasized the need for U.S. naval forces to 
        be capable of robust forward presence and power projection 
        operations, while adding capability and capacity for working 
        with a wide range of partner navies. Amphibious forces are 
        perfectly suited for engagement and security force assistance 
        missions, as well as humanitarian missions such as are ongoing 
        in Haiti. In short, the strategic rebalancing directed in the 
        QDR places high demands on our amphibious forces.
        <bullet> Given the fiscal constraints facing the Department of 
        the Navy, the Secretary of the Navy, Chief of Naval Operations, 
        and I agreed that 33 amphibious ships represents the limit of 
        acceptable risk in meeting the 38-ship requirement we 
        established in a letter to the committee on 7 January 2009.
        <bullet> We currently have a 31-ship force in the U.S. 
        amphibious fleet. The Long-Range Plan for Naval Vessels 
        projects a 33 ship amphibious inventory in the near-term.
        <bullet> With a robust inventory of amphibious ships the Navy-
        Marine Corps team will be able to:

                <bullet> Better address the growing steady state 
                combatant commander requirement for theater security 
                cooperation, forward presence, and crisis response.
                <bullet> Strengthen our Nation's relations with allied 
                and partner countries through peacetime engagement and 
                training exercises.
                <bullet> Better ensure our Nation is ready to respond 
                with humanitarian assistance when disaster strikes 
                anywhere around the globe.
                <bullet> In the event of major conflict, improve our 
                response time to gain theater access with combat forces 
                without having to rely on basing agreements with 
                foreign governments.

        <bullet> Finally, to clarify any misperceptions about the 
        numbers of amphibious ships cited in the 2010 QDR Report, those 
        numbers of ships are neither shipbuilding requirements nor 
        targets; they are simply statements of the amphibious ship 
        numbers across the fiscal year 2011-2015 Future Years Defense 
        Program.\10\
---------------------------------------------------------------------------
    \10\ Department of Defense, Quadrennial Defense Review (QDR Report) 
(Washington, DC: Feb 2010), p. xvi, 46.
---------------------------------------------------------------------------
Training, Education, and Professional Development
        <bullet> ``Two-Fisted Fighters.'' The QDR Report calls for 
        increased counterinsurgency capacity in the general purpose 
        forces of the United States.\11\ The Marine Corps has long 
        recognized the special skills required to operate with host 
        nation forces and among local populations. Evidence of this 
        dates back to the Marine Corps publications of Small Wars 
        Operations (1935) and the Small Wars Manual (1940), both 
        comprehensive texts on counterinsurgency operations and 
        irregular warfare. Today, through standing Marine Corps 
        organizations such as the Center for Advanced Operational 
        Culture Learning and the Center for Irregular Warfare, and 
        programs such as the International Affairs Officers Program, we 
        continue to build capacity in foreign language, and regional 
        and cultural skills.\12\
---------------------------------------------------------------------------
    \11\ Department of Defense, Quadrennial Defense Review (QDR Report) 
(Washington, DC: Feb 2010), pp. 20-26.
    \12\ Each year, the Marine Corps selects officers for the 
International Affairs Officer Program, which consists of two 
professional tracks: Foreign Area Officer (FAO), and Regional Area 
Officer (RAO). The International Affairs Officer Program provides 
graduate-level study and language training for nine geographic areas. 
There are 329 international affairs officers on active duty (262 FAOs, 
67 RAOs). The officers in this program possess advanced knowledge and 
expertise in the language, culture, and political-military affairs of a 
given region. Since 2008, the Marine Corps has doubled the number of 
accessions in the FAO program, and accessions will continue to increase 
through 2015. Moreover, the Marine Corps provides mid-grade officers 
(major-lieutenant colonel) for the Afghanistan-Pakistan (AFPAK) Hands 
Program. Our current requirement is to provide 63 officers--3 cohorts 
of 21 officers each.
---------------------------------------------------------------------------
        <bullet> Leadership Development. We recognize the need for a 
        diversity of skills and specialties, and our standing guidance 
        to promotion, command, and special selection boards is to give 
        due consideration to personnel with special skills and 
        nontraditional career patterns.
        <bullet> Marine Corps University. Annually, a percentage of 
        Marine Corps officers from the rank of captain through colonel 
        attend year-long resident courses in professional military 
        education at Marine Corps University in Quantico. The Marine 
        Corps University is regionally accredited to award postgraduate 
        degrees and, in 2009 alone, University schools awarded 200 
        master's degrees.\13\
---------------------------------------------------------------------------
    \13\ The Marine Corps also has a separate, voluntary graduate 
education program, through which officers attend Naval Postgraduate 
School and other secondary institutions to obtain advanced degrees. 
There are 300 officer billets in the Marine Corps that require master's 
degrees. The Marine Corps also maintains an active fellowship program.
---------------------------------------------------------------------------
        <bullet> Facilities are an integral part of supporting 
        professional military education. To that end, the Marine Corps 
        fiscal year 2011 military construction budget request includes 
        funding for additions in Quantico to the General Alfred M. Gray 
        Research Center and the Staff NCO Academy. These projects will 
        support our plan to upgrade the infrastructure of the Marine 
        Corps University.
        <bullet> Acquisition Professionals. The Marine Corps has an 
        active acquisition professional program in place to meet the 
        need identified in the QDR ``for technically trained 
        personnel--cost estimators, systems engineers, and acquisition 
        managers--to conduct effective oversight.'' \14\ There are 
        about 520 acquisition billets in the Marine Corps--400 are 
        entry and mid-level positions filled by enlisted marines and 
        officers, and 120 are senior-level acquisition professional 
        positions filled by field grade officers who oversee our major 
        ground and aviation programs. Our acquisition professional 
        officers are members of the Defense Acquisition Community; they 
        possess Level II certification, 4 years of acquisition 
        experience, at least 24 undergraduate credit hours in business.
---------------------------------------------------------------------------
    \14\ DOD, QDR, p. 76.
---------------------------------------------------------------------------
Future Realignment of Marine Forces in the Pacific
    The Governments of the United States and Japan have agreed to 
invest in a realignment of forces that will result in Marine Corps 
forces postured in the Pacific for a long-term presence on Japan, Guam, 
and Hawaii. Critical requisites to the implementation of this 
realignment are:

        <bullet> Japanese construction of a replacement for Marine 
        Corps Air Station Futenma that meets both operational and 
        safety requirements.
        <bullet> An appropriate force laydown that supports the 
        operational requirements of the Commander, U.S. Pacific 
        Command.
        <bullet> Adequate available airlift and sealift within theater 
        to transport marines to training areas and partner countries.
        <bullet> Adequate training areas and ranges in Guam and the 
        Northern Mariana Islands that can maintain readiness as well as 
        support security cooperation with our regional partners.
        <bullet> An enduring, sustainable ``live where you work,'' base 
        on Guam that maximizes operational effectiveness, minimizes 
        encroachment, accommodates future development, and provides a 
        quality of life on Guam commensurate with any other U.S. base.
        <bullet> Continued political and financial support by the 
        Governments of the United States and Japan.

    Refined planning and staff interaction processes within DOD have 
made significant contributions to our efforts to align these 
requirements. Planned and executed properly, this realignment effort 
will result in an enduring solution that provides forward deployed 
combat ready Marine forces to uphold our Nation's commitment to the 
security and stability of the Pacific region.
Energy and Water Initiatives
    We believe energy and water are two of our Nation's most valuable 
resources. We are focused on improving our stewardship at our 
installations and on the battlefield.

        <bullet> Our Installations. We have already gained efficiencies 
        and achieved savings at all our major installations. We have 
        three major goals:

                1.  From 2003-2015, reduce energy consumption by 30 
                percent
                2.  Through 2020, reduce water consumption by 2 percent 
                per year
                3.  By 2020, increase the use of alternative energy at 
                our installations to 50 percent of the total energy 
                consumed

        <bullet> On the Battlefield. Operations in Afghanistan have 
        forced us to reevaluate energy and water distribution and usage 
        in expeditionary environments. We believe the future security 
        environment will again require the Marine Corps to operate over 
        long distances in austere environments, and we are actively 
        pursuing a wide range of solutions to:

                <bullet> Lighten the combat load of our marines and 
                sailors
                <bullet> Reduce our overall footprint in current and 
                future expeditionary operations
                <bullet> Lessen energy consumption and dependence on 
                fossil fuels
                <bullet> Achieve resource self-sufficiency in 
                expeditionary environments
                               conclusion
    As a naval expeditionary force in the form of an elite air-ground 
team, the Marine Corps is ready and willing to go into harm's way on 
short notice and do what is necessary to make our country safe. America 
expects this of her marines. In the complex and dangerous security 
environment of the future, the Marine Corps stands ready for the 
challenges ahead. We appreciate the continued support of Congress. 
Thank you again for this opportunity to report on the posture of your 
Marine Corps.

    Chairman Levin. Thank you so much, General. We can't thank 
you and your marines enough for what they are doing in 
Afghanistan and other places around the world. It was an 
eloquent statement. We're appreciative.
    I want to talk to you, not just about our marines, but also 
about the Afghan forces that they're fighting with and how well 
that's working out. We heard from ISAF the other day that there 
are five brigades of Afghan Security Forces that are part of 
Operation Moshtarak, and we want to know from you if you can 
tell us, based on what you understand, just what your 
assessment is as to whether or not the Afghan army particularly 
is in the fight.
    We heard from Marine General Nicholson that the Afghan 
forces are not cosmetic, but what is your assessment?
    General Conway. Sir, first of all, it's in their blood to 
fight. They have a warrior culture and so that gives you good 
raw material to draw from. There are issues with regard to 
educated young men in Afghanistan to lead. But our experience 
is, at least at this point, at the lower levels when you join 
an Afghan infantry unit you have fighters at your flank.
    That has been our experience now in the early days of the 
assault onto Marjah. Not as many as we would like, but more 
than perhaps we saw when Marine forces were first introduced, 
before the President's decision on the 30,000.
    I am concerned, as you noted in your opening statement, 
sir, about the number of trainers and the ability to raise the 
Afghan forces that will be needed to one day turn the country 
over to them and walk away. But I'm also optimistic that as we 
help to bridge that effort and as the Army trainers and perhaps 
NATO trainers become more available to us that that will be 
something that we will be able to accomplish.
    Chairman Levin. I forgot to announce that we'll have an 8-
minute first round.
    Are the Afghan forces and the Marine Corps jointly 
coordinating planning and conducting the operations?
    General Conway. We are, sir. There's an Afghan brigadier 
general who's quite a charismatic character, who has brought 
his officers into the planning sessions, and we've been very 
satisfied with their tactical acumen and their ability to lead 
their forces.
    Actually, we have taken partnering to a new level, to the 
degree that we have actually integrated Afghan units into our 
company and platoon formations. As the Sergeant Major and I 
arrived at Dwyer, we witnessed some of the rehearsal activity 
that was taking place with both Afghan and U.S. units for the 
helicopter-borne assaults that kicked off the first day of 
Marjah, and they were knitted closely together.
    Chairman Levin. Thank you.
    Mr. Secretary and Admiral, I want to hear a little bit more 
detail about the readiness and maintenance concerns. We added 
some funding last year. It was not appropriated, and so I want 
to ask you about the impact of not receiving last year's 
unfunded maintenance requirements. What would be the effects on 
naval readiness if you do not receive support for the unfunded 
aircraft and ship depot maintenance requirements that you've 
identified in the fiscal year 2011 budget?
    Mr. Mabus. As the CNO pointed out in his opening statement, 
the Navy resets in stride. Our O&M budget is essentially our 
reset budget and it allows the Navy to make sure that our ships 
reach the end of their operational life, that they are ready 
for any eventuality that comes along.
    We have requested a fairly substantial increase in 
operational maintenance funds for this year and we think that 
they are crucial to keeping Navy readiness at the place it 
should be. If we receive the funds that we have requested, we 
will have 99 percent of our depot maintenance for ships, 100 
percent for deployed aircraft, and 96 percent for nondeployed 
aircraft.
    The unfunded requirements that you talk about, we would be 
unable to do nine ship depot availabilities totaling about $35 
million. For the aircraft, we'd be unable to do about 21 
aircraft and 240 engines, the overhaul and upgrade. So that 
would be the result of not receiving that
    Chairman Levin. Admiral?
    Admiral Roughead. Yes, sir. To follow on with the 
Secretary, it is ensuring the current readiness of today, that 
the systems are up, that the necessary repairs have been done, 
so that we can stay in the deployment cycles that are part of 
what we do as a Navy. It's also about getting those ships to 
the end of their service lives so that we can realize the force 
structure that we need. If we're not doing the maintenance on 
them today, they're not going to live as long as they normally 
would.
    It also gets to the ability to train in the way that we've 
planned to train. If the ships aren't ready to go, we can't get 
out and do the training. Similarly with the aircraft. So that 
it begins to have an effect on the competencies of our people. 
So it all adds together, and that's why we made the move to 
increase the percentage as we did this year.
    Chairman Levin. Thank you.
    We're going to be facing the issue of the Don't Ask, Don't 
Tell (DADT) law and what actions, if any, should be taken in 
this year's authorization bill or otherwise. Secretary Gates 
testified earlier this month along with Admiral Mullen. 
Secretary Gates said that he'd appointed a high-level working 
group to review the issues associated with properly 
implementing a repeal of DADT law and policy, and Admiral 
Mullen testified that he's in complete support of Secretary 
Gates's position, both professionally as our top military 
officer, but also personally.
    Secretary Mabus, let me first ask you and then I'll ask 
your colleagues, what are your views on DADT? Should we repeal 
it and, if so, what process should we follow in any event?
    Mr. Mabus. Since DADT is the law, whatever happens resides 
in Congress. I support the repeal of DADT. I do think the 
President has come up with a very practical and workable way to 
do that, to work through the working group that the Secretary 
of Defense has set up to make sure that we implement any change 
in the law that Congress makes in a very professional and very 
smooth manner and without any negative impacts on the force.
    Chairman Levin. Has that working group been appointed?
    Mr. Mabus. Yes, sir. It's headed by Jeh Johnson, the 
General Counsel for DOD, and General Ham, the head of U.S. Army 
Europe.
    Chairman Levin. Admiral Roughead?
    Admiral Roughead. Yes, sir. The DADT is the law and that 
will be a matter for Congress to change or not change, and 
clearly we will abide by that law.
    I think the path that has been laid out is extremely 
important to be able to perform the assessment that the 
Secretary has called for, because there are comparisons made to 
other navies, there are comparisons made to other forces, there 
is a lot of anecdotal information, none of which really 
addresses the current force that we serve in today. I believe 
it is important to assess that force, the opinions of that 
force, and also the families, because we as a Navy, as a 
military, have made our families part of who we are in ways 
that other services have not, other countries have not. The 
assessment is extremely important and we are fully supportive 
of that, and we have our very best people assigned to that 
group that is being led by General Ham and Jeh Johnson.
    Chairman Levin. Thank you.
    General Conway?
    General Conway. Sir, my professional perspective, first of 
all, is that our Commander in Chief has spoken and the 
Secretary of Defense has a way to examine, based on data and 
gathering of perspectives from the force, just how we should 
proceed. My personal opinion is that, unless we can strip away 
the emotion, the agendas, and the politics and ask, at least in 
my case, do we somehow enhance the war-fighting capabilities of 
the United States Marine Corps by allowing homosexuals to 
openly serve, then we haven't addressed it from the correct 
perspective. At this point, I think that the current policy 
works. At this point, notwithstanding the results that the 
study will bring forward, my best military advice to this 
committee, to the Secretary, to the President, would be to keep 
the law such as it is.
    Chairman Levin. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I appreciate that answer very much.
    In your opening statement--and this goes both for the Navy 
and the Marine Corps--right now you have some 30,000 marines 
deployed, less than 20,000 in the theater of Iraq and 
Afghanistan. At a time when the Navy and the Marine Corps are 
being called on to project presence in more parts of the world 
than ever before, I see an unacceptable growth in the risk of 
the force.
    When you take into consideration what's happening right 
now--and I could read the whole list of the strike fighter 
shortfall that's going to reach a peak of 263 aircraft by 2017. 
We're looking at a lot of the resources dropping down. Would 
you want to talk about a risk assessment? I would say both to 
Admiral Roughead and General Conway, what would the risk 
assessment be right now in light of the operational tempo and 
the lack of resources that are out there?
    Admiral Roughead. With regard to our risk, as I said in our 
opening statement, Senator, we are trending towards 
significant. It's not that the total force is at risk, but that 
we have some pockets where it would be a challenge for us to 
swing those capabilities. For example, our SEABEES are heavily 
engaged, our explosive ordinance disposal is heavily engaged, 
our SEALs are heavily engaged.
    We have taken our maritime patrol aircraft that normally 
are optimized for anti-submarine warfare, but because of the 
systems that we have on them they are extremely effective in 
the over-land fight and the intelligence, surveillance, and 
reconnaissance mission, and so we essentially have that fleet 
committed to the fight, appropriately so.
    So there is risk should there become a maritime campaign of 
being able to swing those types of assets. But, the fleet 
response plan that we have in place makes us more flexible than 
we ever have been. Still there are some pockets where we do 
have some risk.
    Senator Inhofe. The reason I bring this up, General 
Conway--I've talked to you about this before. One of the 
problems I have in these posture hearings when they come to 
Washington, you hear a lot rosier of a scenario than you do 
when you go out in the field and you talk to people in the 
field. I guess a lot of that's because--and I'm talking about 
everyone up here--when we go out to Iraq, Afghanistan, or 
Djibouti or any of the other areas, you hear more about the 
problems than how good things are.
    So I always appreciate it if you can be as open as 
possible. That's why I think using the term, what would the 
risk assessment be, high, low, and so forth, that's a good way 
to approach it during these hearings. Any thoughts on that, 
General Conway, as far as your feelings?
    General Conway. Sir, as I tried to provide in my opening 
statement, we do have serious concerns actually. Our priority, 
the Secretary of the Navy's priority, is that marines at the 
front of the spear increasingly in Afghanistan will have 
everything they need in order to be able to win that fight. But 
in the process, we're taking away from our capabilities 
elsewhere.
    At this point, we're at about a 60 percent readiness factor 
with regard to equipment in our home station forces. Should 
there be a requirement for marines to flow elsewhere, we could 
be in some serious straits. We would hold what we have in 
Afghanistan, perhaps call on our Reserves, use our Maritime 
Prepositioning Squadrons (MPS) equipment, and all those things. 
So we could get the job done, but it would not be nearly as 
elegant.
    Senator Inhofe. Yes. Aren't you using a lot of your 
resources, though, over there that otherwise you'd use in 
training?
    General Conway. Absolutely, 100 percent of what is required 
in theater, 60 percent of what's available in home station. 
That's an imbalance I'm uncomfortable with.
    Senator Inhofe. I think that's significant. The Marine 
Corps are famous for not complaining about anything. They're 
the only Service that has retreads. Is that still true now?
    General Conway. Yes, sir.
    Senator Inhofe. You're not complaining, right?
    Let me just ask on another line. I've been active in Africa 
for many years in things not even related to defense. But, when 
we made a decision to go and become active in Africa right 
after September 11, I think that was the right thing to do. 
We're working on brigades there to help train or have the 
Africans train the Africans and we're assisting, so that as the 
squeeze takes place in terrorism and some of this terrorist 
activity goes down through the Horn of Africa and Djibouti that 
they'll be ready to do a lot of things.
    I was also one that was very active in pursuing the idea of 
taking the continent of Africa, that was in three commands, and 
putting it in one command, U.S. Africa Command (AFRICOM). I 
think that was good. I only wish that we were actually down in 
Ethiopia or someplace instead of up in Germany for the 
headquarters, but that's a political problem in Africa and I 
understand that.
    Admiral, because of the piracy and all these problems that 
are going on, not just in the area in East Africa, but what's 
happening in the Gulf of Guinea and around there, what is your 
activity and what contribution are you making to some of those 
coastal African nations?
    Admiral Roughead. Yes, sir. Thank you, and Africa has been 
an area of focus for us. We are the only Service that has a 
four-star component commander that addresses Africa.
    Senator Inhofe. Yes. I was over there and I visited with 
them just recently.
    Admiral Roughead. Yes, sir, and I think that has paid great 
dividends.
    Clearly, we're working with several other navies on the 
counter-piracy operations in the Gulf of Aden and off the coast 
of Somalia, and that has had some additional benefits of 
bringing many people together that otherwise normally wouldn't 
be--Russia, China, us, the European Union, and NATO. But we've 
also very aggressively taken on this idea of Africa partnership 
stations. Initially we began in the Gulf of Guinea and on the 
west coast of Africa, but we now are operating an Africa 
partnership station on the east coast of Africa.
    Most recently, the Gunston Hall, the ship that was on its 
way over to be the West Africa partnership station, we sent to 
Haiti. The staff was already embarked, African officers who 
participated directly, actively, and effectively in that Haiti 
relief operation. So that actually enhances how they're able to 
come along.
    We've also reached out to South Africa. I'm the first CNO 
to have visited there. We have had an aircraft carrier visit 
there for the first time and also one of our nuclear submarines 
was welcomed there.
    So we're looking at the west coast. We're working with the 
navies there, maritime strategic, humanitarian assistance, but 
also just bringing the navies of Africa together in a 
constructive and a very focused way so that we can get to some 
of the issues that are going to be important for their 
development.
    Senator Inhofe. Yes, because I know that on the west side 
around the Sea of Guinea some of the finds and the oil activity 
and all of that, that's increased your activity and I know it's 
draining a lot of resources.
    General Conway, I visited your marines in Djibouti and 
other areas down there. What's your activity down there?
    General Conway. Sir, we think that Africa is going to be 
tremendously important to our country in the long term, and so 
at this point I think it's fair to say we're doing what we can. 
My agreement with General Ward, the Commander of AFRICOM, is 
that we substantially are going to take a rain check at this 
point. We will work with our brothers in the Navy and we'll go 
inside the continent where we need to to try to accomplish some 
of his smaller-scaled engagement opportunities.
    I would, at this point, like to tout our Reserves because 
they are carrying the preponderance of that load. They are 
stepping up and volunteering, coming on duty to do some of 
these things at a time when our Active Forces are simply 
engaged in the transition to go back now to Afghanistan.
    So I would say at this point, sir, we appreciate the 
importance. We want to be players in the long term and we're 
doing what we can.
    Senator Inhofe. I appreciate that. It's kind of the 
forgotten continent. People talk about other areas and they 
don't talk about Africa as much. But you guys are doing a great 
job there.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Mr. Secretary, Admiral, General, thank you very much for 
your extraordinary service to our country.
    I don't have any questions about DADT, but I do really want 
to respond to the answers that you gave Senator Levin, which I 
appreciate, I think were thoughtful and honest. I want to make 
two comments about them. General Conway, I agree with you that 
ultimately the question of what we do about DADT has to be held 
to the standard of military readiness. I'm supportive of 
repealing DADT. I believe it's the fair and right thing to do. 
But in the end, because we are fulfilling our constitutional 
responsibility to provide for the common defense, as you are 
and those who serve with you are, this has to pass the test of 
military readiness.
    I believe it will, based on my knowledge of what's happened 
in other militaries, including those like the Brits and the 
Canadians that we serve alongside today in Afghanistan and 
Iraq. I visited Afghanistan in January. There is a British 
general, General Carter, who our forces serve under the 
direction of, and it seems to work very well.
    But I want to say that I agree with that and I think it's 
important that all of us go forward in that way. This has to 
pass the test of military readiness. In fact, I hope that 
repealing DADT will enhance military readiness, but that's yet 
to be determined as the study goes on.
    The second thing that gives me confidence about this, and 
it's a factor that's hard to weigh prospectively, but we can 
acknowledge it retrospectively, which is exactly the sense of 
duty and honor that characterized your answers. This is the 
law. If the law changes, the military will follow it. If the 
Commander in Chief takes a position, the military will make it 
work.
    That's been the history of the military, taking us through 
some transitions within the military that seemed very hard when 
they were first mentioned. That too, which I wanted to express 
my appreciation for, is what gives me confidence that on the 
day this happens and the repeal occurs that there's an 
intangible factor here that will make it work, which is that 
the leadership will say that, these are our orders now from 
Congress, from the Commander in Chief, and now we have to make 
it work and make it work for the benefit of our military, our 
country, and every individual who serves in our military.
    So I thank you for what you said. I look forward to working 
with you on that.
    I want to go back now to the Navy, Mr. Secretary and 
Admiral, and to say that I'm glad to see that this year's 
budget and the 30-year shipbuilding plan includes an SSBN-X, 
the new generation of strategic deterrence submarine. This is 
the program that will provide a replacement for the Ohio-class 
submarines that have so ably defended our Nation since 1981.
    Admiral, I note that the 30-year shipbuilding plan states 
that the requirement for SSBNs will be reassessed in the 
Nuclear Posture Review (NPR). I understand that the 
requirements-building process for our strategic deterrence 
submarines is classified, but I think it is also important, to 
the extent that we can in an open setting, that we explain to 
the public that they're not made of whole cloth. In that sense, 
I want to ask you the specific question: Could you describe, to 
the degree you can in public session, the significance of 
having a fully operational SSBN force and what risks could 
result from a reduction in that force?
    Admiral Roughead. Thank you very much, Senator. For fear of 
being a little parochial on that line, there's no question that 
as we look at our strategic triad, all important to be sure, 
but that the true stealth of our SSBN force in my opinion makes 
it the most survivable leg of the triad. It is also a leg that 
we can move, that we can protect through its stealth and 
through its movement in ways that the other legs don't enjoy.
    The SSBN-X that we are in the process of designing, its 
last patrol will be in 2080.
    So the importance of getting the design done properly and 
thoroughly and thoughtfully is absolutely key to ensuring that 
that very survivable leg of the triad remains almost to the end 
of the century. If that capability were not to exist, it would 
not be in the best security interest of the Nation.
    Senator Lieberman. Is it fair to say, Admiral, that 
assuming we make progress in some of the nuclear reduction 
negotiations we're in with the Russians and perhaps more 
broadly and the number of our nuclear warheads goes down, that 
the importance of the strategic nuclear fleet goes up because 
of its survivability?
    Admiral Roughead. I do believe that the importance does 
increase. I also think it is important to understand that the 
number of submarines that we need are not strictly based on the 
number of warheads, but rather where you want the submarines to 
be to provide that continuous coverage, and that also is a 
driver of the number. It's where you put them and the rotation 
that they're on. So those two things come into play and it's 
not simply about the number of weapons.
    Senator Lieberman. Well said.
    Secretary, do you want to add anything to that?
    Mr. Mabus. Just that in order for us to field the SSBN-X on 
schedule to replace the Ohio-class that now is when we have to 
do the design work, the engineering work, and we have to begin 
building the first of those boats in 2019. We tried this year 
in the 30-year shipbuilding plan to be very realistic in terms 
of costs of each ship and in terms of historically what 
Congress has appropriated for our total shipbuilding budget and 
putting the SSBN-X in our core budget was part of that realism.
    Senator Lieberman. Thank you for that answer.
    Admiral Roughead, we have a perennial favorite here that 
seems to blossom for our committee every year and that's the 
question about the alternate engine for the JSF. When you were 
asked about an earmark to develop an alternate engine for the 
JSF last July, you said that space on an aircraft carrier is at 
a premium.
    I note that in your prepared statement which you gave to 
the committee for this hearing you say that continued 
development of an alternate engine would ``increase our risk in 
the underlying JSF program.''
    Could you draw out those two statements and tell us what 
your feeling is today as we go forward with this battle again?
    Admiral Roughead. Yes, sir. My position on the alternate 
engine is based on the operational needs that we have in the 
Navy and the constraints that we face, not just on our aircraft 
carriers, but JSF will also be in our large-deck amphibious 
ships and they are even more challenged space-wise than our 
carriers are.
    One can look at a carrier and see a very large ship, but 
when that ship is deployed we have things packed in almost 
every nook and cranny in order to provide that reliability and 
responsiveness. So having to stock two different types of 
engines is just not practical for us.
    The costs associated with the alternate engine in my 
opinion would simply continue to pressurize a program that is 
already being pressurized for a variety of reasons. So from the 
perspective of the Navy and the support that I render to the 
Marine Corps and their JSF, the best course of action for us 
and my recommendation has been and will continue to be one 
engine, because that's what serves us the best.
    Senator Lieberman. I appreciate it. Thank you.
    My time is up. I just want to say finally, General, that 
when I went to Afghanistan in January and was able to spend 
some time with General Larry Nicholson and the marines--and I 
just want to validate what you said. The morale is very high. 
The interactions with the Afghan forces are exemplary. It's 
really inspiring to see, and I thank them and thank you.
    General Conway. Thank you, sir. I'll pass your comments 
along.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I thank each of you for your service.
    I'm disappointed to have to raise the subject I'm going to 
raise with you, Mr. Secretary, but I just feel no alternative 
to it. Some might say you're worrying about a parochial 
interest, but the LCS is a part of our Navy's future, as 
Admiral Roughead and his predecessors have all committed to. 
Fifty-five of those ships are expected to be built and we're 
getting close to having a bid on it.
    You would agree, I assume, that when you draft a request 
for proposal (RFP) it should be fair, give each party a fair 
opportunity to succeed, and properly set standards that serve 
the interest of the Navy and the warfighter. I guess you do. So 
I would take that as a yes.
    I'm concerned about it. In October 2009, you made a speech 
at a Naval Energy Forum in which you said, ``We have to change 
the way we award contracts. The lifetime energy costs of a 
building or a system and the fully-burdened costs of fuel in 
powering those will be a mandatory evaluation factor when 
awarding contracts.'' That makes sense to me.
    Then later, at the Press Club in September 2009, you say, 
``We no longer have the luxury to say this is a good deal 
today, let's buy it. We have to get our arms around the life 
cycle.''
    In your testimony today you talk about having half the 
Navy's fuel from alternative sources by 2020. I will just say, 
that's a costly decision. I don't know that that's necessary as 
a policy decision for the Navy. It's just going to deny other 
money for other areas. But I would note that you're correct to 
focus on energy costs, and one way to save energy is not use so 
much, to use less.
    So you said in your remarks today, ``I have also committed 
the Navy and Marine Corps to consider energy as a mandatory 
evaluation factor in contracting and to consider as an 
additional factor in our business dealings the energy footprint 
of the companies that sells to the Navy and Marine Corps.''
    As you and I have discussed, I have to ask you publicly: 
How is it that in this combat ship, this new transformational 
littoral ship, that we have a factor capping the life cycle 
costs, apparently all life cycle costs, not just fuel use, at 3 
percent? Isn't that too small? Could it be a mistake and will 
you reevaluate it?
    Mr. Mabus. Thank you, Senator. As we discussed, the whole 
idea behind the LCS was a total ownership cost for the lifetime 
of the ship--the crew size, the type of weapons, and the 
maintenance costs that would be involved. All these things for 
both variants are an important determinant for deciding to 
build the LCS in the first place.
    We believe that the way the RFP is written is an absolutely 
level playing field, and is an absolutely fair way to pick the 
down-select.
    Senator Sessions. Does it meet your standard that you 
announced last October that the lifetime energy cost will be a 
mandatory factor? You have to fully and fairly evaluate the 
lifetime energy costs, do you not?
    Mr. Mabus. Sir, we believe that the way the RFP is written, 
the lifetime energy cost will be fully and fairly----
    Senator Sessions. All right. What if it becomes clear that 
the 3 percent factor for total lifetime cost that you've 
apparently capped in this RFP is not a fair evaluation of the 
lifetime energy cost? Would you be willing to reevaluate it?
    Mr. Mabus. I believe, based on everything we know today, 
that the way the RFP is written and the only reason we down-
selected or made the decision to down-select the one variant 
was because the bids came in at an unsustainable level for each 
variant prior, that we are considering everything that involves 
total ownership costs for each of those variants.
    Senator Sessions. I know the cost was high, and I think 
you've gotten all the bidders' attention. If they can't submit 
a competitive bid, then they don't need to be selected. But 
when you set up the criteria for the bid, don't you think it 
should adequately reflect the lifetime fuel consumption costs 
of the vessels involved?
    Mr. Mabus. I believe that the RFP that we did does do that, 
yes.
    Senator Sessions. So the answer is yes. Would you not agree 
that cost should not be the only factor, that value for the 
warfighter, capability, should be also adequately considered in 
the bid process?
    Mr. Mabus. Our major concern is for capability and value to 
the warfighter. However, we have determined through the first 
two ships of each of these variants that either will give us 
the capability that we need and will give us high value for the 
warfighter.
    Senator Sessions. That worries me, because you say these 
are the only things we care about. For example, the ship that 
would be built in Alabama can accommodate two helicopters, they 
can land without a tether. The other ship can only account for 
one and that has to be tethered to bring the helicopter down. 
It has substantially more cargo space. It uses less fuel. It 
cruises, I think we'll establish, with greater stability.
    So if the prices came in exactly the same and one ship had 
greater potential or even if one was slightly more expensive 
than the other one, should you not be sure to give some credit 
for that, rather than just say both meet minimum requirements?
    Mr. Mabus. I think both meet far more than minimum 
requirements. They meet all our requirements, each one of the 
variants do.
    Senator Sessions. Are you saying that you should or should 
not give credit for what might be a substantial additional 
capability?
    Mr. Mabus. I think that both variants have shown that they 
meet not only minimum requirements, but all the requirements 
that the Navy has established for these ships. Both are 
excellent competitors. As you pointed out, we have not received 
any bids yet.
    Senator Sessions. You can have two good automobiles, but if 
you want to carry some cargo and one has a larger luggage 
compartment and it costs $50 more and it has other capabilities 
that you need like cruise control or some things, I think you 
should give credit for that.
    But regardless of that, I want to ask you again: Are you 
saying that even if there is shown to be a RFP that fails to 
meet your stated goal and the logical goal--this is a good 
goal; you're correct to say this--that the lifetime energy cost 
must be a mandatory evaluation factor, and if this RFP fails to 
adequately do that would you consider changing it?
    Mr. Mabus. Well, I do believe that the RFP does do it.
    Senator Sessions. I know you said that, but if there's some 
rare possibility that there was an incorrect accounting and 
maybe a slip of the typewriter and it wasn't written quite 
right, would you be willing to change that?
    Mr. Mabus. At this point in the RFP process, Senator, we're 
expecting bids in. Based on our view or the analysis that we 
have done previously on the two ships that we have, and on the 
projected use of those ships, frankly, it's unclear if either 
has an advantage on energy consumption over the lifetime.
    Senator Sessions. I think you should fairly evaluate it. I 
certainly agree with that, and you should rigorously analyze 
and compare the fuel savings that each claim to have.
    I would just note that the Air Force tanker aircraft in 
their second RFP changed the lifetime fuel costs, which they 
calculated rigorously, from 25 years to 40 years, raising it 
even to a greater level. You count the entire lifetime cost of 
this ship at 3 percent and I think that's so far beyond the 
actual relevant factors that it really needs to be evaluated. 
I'm disappointed to have to spend this time raising that, but 
you want the best ship for the Navy and we don't want to have 
an RFP that does not get you that, along with a competitive 
price.
    Thank all of you. General Conway, we appreciate your 
marines. They're doing such a fabulous job. Admiral Roughead, I 
appreciate your service. You know this Navy so well and I 
appreciate that. I thank you, Secretary Mabus.
    Mr. Mabus. Thank you, Senator.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony.
    Mr. Secretary and Admiral Roughead, the Secretary of 
Defense announced that women will be allowed to serve on 
submarines. Can you give us an idea of when that will happen? 
How long will it take to do the preparation, and what 
significant steps do you feel we have to make to accommodate 
that decision, Mr. Secretary?
    Mr. Mabus. The preliminary timeline that we have set forth 
shows that if we get women into the pipeline to serve on two of 
our classes of submarines, SSBNs and SSGNs, coming out of this 
year's class, and we take them through the normal nuclear power 
training and normal submarine training, the first women will be 
on submarines late in fiscal year 2011.
    We think that we've learned a lot from integrating women 
into our surface ships almost 20 years ago and that those 
lessons are very applicable today. Some of those lessons are 
that you need a critical mass of women on a crew, and for that 
reason we want to put enough women on each submarine. It also 
is important to have more senior women or a more senior woman 
officer on each submarine to act as mentors for the new people 
coming in, and so we're looking at bringing supply corps 
officers as department heads on these first tours. Once these 
first tours are completed, the women that came into the 
submarine force as ensigns will have the experience to be those 
department heads.
    Finally, the reason for choosing the SSGNs and SSBNs to be 
the lead ships that we integrate women into is that neither 
would require any structural modification to allow those women 
officers to be integrated into the force.
    Finally, one of the lessons that we learned and one of the 
things that we are going to do in this integration is to make 
sure that any questions are answered by the force, any 
questions are answered by the families, and that we are very 
open and transparent about exactly how we're doing this.
    But we think this is a great idea and that it will be done 
very smoothly and very professionally and that it will enhance 
our warfighting capabilities.
    Senator Reed. Admiral Roughead, any comments?
    Admiral Roughead. We have a very good plan. We have great 
interest. We're ready to go. The first young women will come 
aboard at the end of 2011.
    Senator Reed. Thank you.
    General Conway, let me also join my colleagues in 
commending your marines who are fighting so aggressively and 
effectively today and doing a remarkable job, as they always 
do. Let me look at another issue, though. In the fiscal year 
budget you're restructuring the Maritime Prepositioned Force 
for the future. In that restructuring, will that still allow 
you to move to an offshore location and conduct operations 
without any intermediate land base or adjacent land base?
    General Conway. Yes, sir, it will. We still have as the 
core element of the Maritime Prepositioned Force three brigades 
of equipment that are embarked aboard the collective of ships. 
The Maritime Prepositioned Force Future, which will allow us to 
do sea basing in the aggregate, is still under development and 
that will take some years to bring to pass.
    But in the meantime, we have a steady and resilient 
capability at about 44 percent these days of supply 
availability, and we consider that in some ways very much a 
national Reserve.
    Senator Reed. Going forward, are your plans taking into 
consideration what has become typically the more heavy and 
larger vehicles that the Marine Corps is using, because of the 
limitations on some of the ships?
    General Conway. Yes, sir, we are. Frankly, some of those 
vehicles won't fit aboard our ships, and so it is a cause for 
concern. We don't want the Marine Corps of the future to be the 
Marine Corps that we have today, for instance in Afghanistan or 
that we saw in Iraq. We need to cut it back. We need to shed 
weight. We need modular kinds of concepts so that if we do go 
static we can add armor protection for our troops or those 
types of things that a requirement might cite.
    But in the meantime, our definition of expeditionary is 
fast and austere, and those things call for us to be much 
lighter than we are today.
    Senator Reed. Is there a parallel discussion of different 
types of equipment in the future that would make you lighter?
    General Conway. Yes, sir. The Joint Light Tactical Vehicle 
is a classic example of that. We emphasize the light. Our 
partner in it is the Army. They're not quite as concerned about 
it as we are. We are concerned about the additional weight of 
the helicopters that we're going to see and what it does to 
center of gravity on our L-class ships, those manner of things.
    So it's something that we keep a constant eye on, sir, and 
try to keep curtailed to the degree that industry can support 
us.
    Senator Reed. Thank you.
    Admiral Roughead, I want to associate myself with the 
comments of Senator Lieberman about the wisdom of including the 
SSBN development. But also in that area of undersea warfare, 
there is a renewed emphasis on unmanned sub-surface vehicles 
and sub-surface operations. Can you give us an idea of the 
development of some of those systems, where you stand and where 
you're going?
    Admiral Roughead. Yes, sir. I mentioned in my opening 
remarks that we've done a reorganization within my headquarters 
that has given us a much better focus and effort into 
unmanneds. Unlike the other Services, we in the Navy are the 
only ones that will be exploring the underwater effort. We have 
some very interesting concepts. We've made a prototype 
deployment of some of those systems. It's clear to me that the 
area that we have to spend most of our effort in is in power. A 
lot of folks will want to hang a new sensor of some kind on 
these vehicles, but we have to get to the power issue. That's 
where we are focusing ourselves. That's where we are 
encouraging our labs to look, to get into that. We have run 
some experiments out in the Pacific with some unmanned concepts 
that I find not only very exciting, but I'm very optimistic as 
to where we can take those. It has my full attention.
    Senator Reed. Thank you.
    The QDR called for a new air-sea operational concept for 
the Pacific theater of operations, beginning with the review 
obviously. Can you give us some indication of how you propose 
to conduct that review and who will the participants be, and in 
general terms how do you go forward?
    Admiral Roughead. Yes, sir. That review is already under 
way. We began bringing the group together from the Air Force 
and the Navy, and the Marine Corps is also included because of 
the air power that they also generate. The groups have been 
formed and we are working our way through the various 
scenarios.
    I'll be getting an update here from them very shortly. I 
think it's a great opportunity for us to look, not only at the 
airborne systems, but the networks that are involved, and we 
are well underway. We started before the QDR was published.
    Senator Reed. So we can assume there's a cyber dimension in 
this review of significance?
    Admiral Roughead. My direction to my team was if you're not 
talking about networks it's not going to pass the test.
    Senator Reed. Thank you very much, gentlemen.
    Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Wicker.
    Senator Wicker. Thank you very much.
    I appreciate the testimony of all three witnesses. 
Secretary Mabus, I think you will agree with the members of 
this committee that you are well served by the two gentlemen on 
your right and left.
    Mr. Mabus. It gives me an incredible feeling of comfort and 
security to be surrounded by the CNO and the Commandant.
    Senator Wicker. Right, and the committee and country are 
well served by them also.
    Let me just follow up on the DADT questions. Secretary 
Mabus, I understand your position. It's very straightforward. 
Yesterday with Secretary McHugh, Senator McCain asked a 
question about whether there was any discussion pending the 
survey of attitudes that's being done of a moratorium on the 
current DADT enforcement. Have you been a part of any 
discussion that enforcement actions might be suspended pending 
a final decision?
    Mr. Mabus. No.
    Senator Wicker. Secretary Mabus, in the Navy are there some 
discharges and actions pending at this time?
    Mr. Mabus. Senator, I don't know how many are pending. 
There's usually a small number each year. I don't know what's 
pending today.
    Senator Wicker. But from the information that you have, the 
law, as it currently is, is going to be enforced until such 
time as the survey is completed and the law is changed; is that 
your understanding?
    Mr. Mabus. Until such time that the law is changed, we will 
follow the law.
    Senator Wicker. All right. Then let me ask you, Admiral 
Roughead. You said something about comparisons to other navies 
and anecdotal information. I wonder if you could just briefly 
explain what you were getting to there?
    Admiral Roughead. Yes, sir. The surveying and the attitudes 
of the U.S. Navy have never been formally sensed or assessed. 
There is often discussion about how other services and other 
countries have implemented homosexual service into their navy, 
army, air force, or whatever it may be. But while I have high 
regard for those other Services, they are not us. They do not 
come from our culture. They do not come from the beliefs that 
the young men and women bring into the service. We have to be 
able to assess our force and judge what our force believes and 
what the attitudes within our force are. That's why this 
assessment is so important, and not use surveys from other 
militaries and other countries.
    Senator Wicker. I thank you for clarifying that statement.
    I want to ask about the cost as it relates to changing 
requirements. I'll ask that question with regard to our 
amphibious ships. I think I've had the conversation with both 
the General and the Admiral about the well deck aspect. For 
those within the sound of my voice who don't know, a well deck 
is a hangar-like deck located on the waterline on the back of 
some amphibious assault ships, and by taking on water the ship 
can lower its stern, flooding the well deck and allowing boats 
and amphibious landing craft to dock with ships.
    We just completed at Northrop Grumman the LHD-8. That ship 
has a well deck. Now, the next two ships will not have a well 
deck, the LHA-6 and, as I learned at last year's hearing, most 
emphatically the LHA-7 will not have a well deck. I think it's 
fair to say that General Conway wishes that those did have a 
well deck. Then the follow-on ship, the LHA, will indeed have a 
well deck again.
    Now, we're told that on the two ships where it was 
eliminated, that the decision was made to enlarge the hangar 
space to accommodate the F-35 and the V-22 Osprey, so the well 
deck was eliminated.
    If the design continues to change, gentlemen, isn't it fair 
to say that this is a significant cost driver? We're interested 
in commonality and the use of common hulls, and I would simply 
submit that this is going to be a cost driver and it's 
regrettable. Would either one of you like to comment on this?
    Admiral Roughead. Yes, sir. In fact, the Marine Corps and 
the Navy have periodic warfighter talks. This was one of the 
topics that we discussed just last week. There were decisions 
made in years past about the configuration of the big-deck 
amphibs and, as was pointed out, the weight, the volume of the 
equipment has changed, and the interest in going back to the 
well deck design is something that was a topic.
    In order to get into looking in that redesign, there is a 
cost associated with it, and then the cost of redesign. 
Depending on when we do it, that cost can change, and I have 
committed to the Commandant that we're going to take a very 
hard look at this as we go into our 2012 budget to see how that 
can best be done to support the needs of the Marine Corps.
    General Conway. I would only complement the CNO's answer, 
sir, to say that we're operating at risk with the numbers of 
amphibs that we have. It's our view that those that are at sea 
ought to have the maximum flexibility possible for whatever the 
mission might require. Ergo, our desire to have well decks on 
ships after the two that you referenced.
    We also would like to have that ship in the 2016 budget 
because we will need it for purposes of putting MEUs to sea and 
that type of thing. So as the CNO said, we're going to look at 
it from a business case perspective, analyze the costs against 
the timeline, and hopefully make a very good decision.
    Senator Wicker. Let me ask you about the requirement for 38 
amphibious ships, as opposed to the QDR recommendation for an 
amphibious fleet of 29 to 33. It is the testimony of both the 
CNO and the Commandant that a 33-ship amphibious fleet 
represents the limit of acceptable risk. So let me ask you 
this: What is the risk of going below 33 and are you willing to 
take issue publicly with the possibility in the QDR of 29, 30, 
31, or 32? What are your major concerns about going below 33 
amphibious ships?
    General Conway. Sir, I think what the QDR reflects is the 
5-year program on out, and the numbers are below 33 at that 
point. There is then obviously additional risk. I think, to 
give it perspective, though, you did acknowledge the agreement 
that we have with the CNO on what we actually see as the 
requirement, what that risk number is in and around 33.
    If you look at the 30-year shipbuilding plan, it sort of 
runs a sine wave. At one point we build to as many as 36. So I 
think you have to look at it perhaps from a larger perspective, 
realize that we also want a strong and balanced fleet out there 
supporting our amphibs and that there are cost drivers.
    So would we like more? Of course. Are we fiscally realistic 
at this point? I'd like to think we're also that.
    Senator Wicker. Admiral, is the 31 an acceptable risk? What 
is the risk?
    Admiral Roughead. I think the Commandant and I are in 
agreement--that 33 is a risk that we believe is acceptable now, 
because if you don't have that number then the speed and the 
amount which you can flow becomes questionable. So, as the 
Commandant mentioned, it is a question of balancing the many 
shipbuilding demands that we have and building the fleet that 
is balanced and gives us the broadest capability, and 33 is 
acceptable.
    Senator Wicker. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to say aloha to our esteemed panel of leaders here 
today. First, I would like to thank each of you for your 
dedicated service to our country. I also want to commend the 
military and civilian men and women of the Navy and Marine 
Corps for their outstanding service and thank their families 
for the support of their loved ones.
    The proposed fiscal year 2011 budget highlights the 
Department's priorities of prevailing in today's war, preparing 
for a wide range of contingencies, and managing its most 
precious resource, its people.
    I was pleased to hear the Department of the Navy has agreed 
to fund a study that will address the health concerns from 
drinking water contamination at Camp Lejeune. I look forward to 
the results. I see this as a positive step to help determine 
the true scope of the problem and the number of people 
affected. I will include questions for the record on this 
matter.
    Secretary Mabus, I'm very interested in collaboration 
between the Services and the Department of Veterans Affairs 
(VA). Of note, the Department has worked with the VA on the 
physical disability evaluation system pilot program and the 
virtual lifetime electronic records system. Mr. Secretary, how 
are you addressing the challenges of creating a virtual 
lifetime electronic record system?
    Mr. Mabus. Thank you, Senator. I think it goes without 
saying, but I want to repeat, that our care for our veterans, 
and particularly our wounded warriors, is the most important 
thing that we do. We have an obligation to those who have borne 
the battle and who have come back to us wounded, to do 
everything that we can to make whatever transition they have to 
make whatever transition they have to make as smooth as 
possible.
    The things that we are doing on the subject that you talked 
about, in Chicago, for example, we're putting together VA and 
Navy medicine in one place, so that there's one stop for 
everyone to go to, Navy, Marine Corps, and veterans.
    You talked about the single physical and mental evaluation. 
That pilot program is ongoing at our six largest personnel 
installations. We are ready to extend that and make it 
permanent, and we're working very closely with the VA to do 
that.
    Similarly, on the lifetime electronic records we're moving 
forward to make sure that every servicemember and everyone who 
has served will have that, so that there will be a seamless 
transition between service and back to the community or service 
and back to the unit.
    I've been with the Commandant to Bethesda, and the 
Commandant makes one statement and that is, to every marine: If 
you want to stay a marine, regardless of your wounds, we'll 
find a place for you in the Marine Corps. While there are a lot 
of different decisions made by our wounded warriors as they 
progress through rehabilitation as to whether to continue in 
the Marines or the Navy or to go back to their community, the 
idea that they are welcome as a marine has a very powerful 
impact, I think, on those young men and women who have been 
wounded.
    Finally, in terms of employment, one of the things that we 
are working very hard on and that we're proud of is we just had 
an employer conference for our wounded warriors to allow those 
who have decided to rejoin their communities, go back to the 
civilian world, that they'll have a job when they get there. We 
should be able to help them make sure that they have a good job 
waiting for them when they finish their rehabilitation process.
    I will end as I began, which is there is no more important 
thing that we do than to care for our veterans, and 
particularly our wounded warriors.
    Senator Akaka. Thank you for your response.
    Admiral Roughead, to ensure mission success the Navy must 
have shipyards that are modern, flexible, and safe. The Navy's 
public shipyards play a vital role in keeping the fleet 
operating to meet the significant challenges posed all over the 
world. In June 2009, the Navy reported a shortfall of $1.3 
billion in sustainment, restoration, and modernization projects 
at its four public shipyards.
    Admiral, how is this shortfall affecting current and future 
Navy readiness and how is the Navy addressing this situation?
    Admiral Roughead. Sir, when we look at our accounts for our 
public shipyards, which are extraordinarily important to us as 
a Navy, but also for all of our shore infrastructure, and we 
set what the shortfalls are, that is a figure that we use to 
take us to the very highest level of everything that is there. 
Obviously, as we work our way through the budgets and deal with 
the many issues that we have there will be a difference between 
absolute perfection and that which we bring our facilities to. 
But I can assure you that the mission capability and the 
safety, especially the safety aspects of our shipyards and our 
facilities, are provided for, and we value that capability and 
we ensure that we have funded to deliver on that safety and 
mission capability.
    Senator Akaka. Admiral, I'm glad to hear that the Naval 
Academy's current freshman class is the most diverse in the 
history of the great institution. I believe that diversity is a 
real strength. Organizations that are diverse are able to use 
to their advantage many different views and perspectives. I 
understand that diversity is a very important issue for you.
    Can you share with us your views in this area and how 
you're approaching diversity in the senior levels of the 
officer, enlisted, and civilian ranks?
    Admiral Roughead. Thank you, Senator. I would also add that 
not only did we achieve the most diverse class at the Naval 
Academy, but our Reserve Officer Training Corps (ROTC) class 
was also the most diverse, simply because we have had a much 
more aggressive outreach program and have really attracted 
many, many bright young men and women to the Navy, and I'm very 
proud of what we've done.
    But it's more than just those who are coming in, it's 
looking at the leadership that we have currently. What I do 
periodically with the leaders of the various specialty areas 
within the Navy is to sit down with them individually leader to 
leader, not a staff function, and go through where their 
underrepresented minorities are serving, the types of jobs that 
they have, the types of educational and experiential 
opportunities that we're providing them, because we know that 
in order to be selected for promotion there are certain 
experiences that are valued.
    This is not a quota system. This is not a goal, but rather 
we ask if we are bringing the bright young leaders of the 
future along and putting them in positions and giving them the 
experiences that they need. We do that routinely. As I 
mentioned, we've just recently created an Information Dominance 
Corps. Last week I did my first review of that group, and it 
allows us to look at how we're developing that leadership. 
You're right, sir; it's a very high priority for me.
    Senator Akaka. Let me ask General Conway for any further 
comments on this.
    General Conway. Sir, my answers again are significantly the 
same. It starts with a strong young cadre of diverse officers 
that can go through the traditional assignments that will allow 
them to prosper and grow, and we're seeing that. We have two 
battalions attacking in Marjah. One of them is commanded, for 
instance, by a very capable young black officer who just is 
representative of what we're seeing increasingly in our Corps 
all the way through the general officer ranks. So the process 
works.
    Senator Akaka. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Thanks to each of you for your service. I was pleased that 
my friend and colleague Jack Reed raised the issue of women 
serving on submarines. Actually, I wasn't pleased, because I 
wanted to be the first to raise that issue. But it was good to 
hear your testimony that you do not see significant costs in 
reconfiguring submarines to allow women to serve. I view this 
as creating more opportunity for women in the Navy to go 
through the ranks. I just want to start by commending you for 
that decision.
    Admiral Roughead, in your testimony you indicated that the 
DDG-1000 program has recently triggered a Nunn-McCurdy breach. 
For the record, I just want to clarify my understanding that 
this breach is solely due to the decrease in quantity from 10 
to 3 DDG-1000s, as opposed to any dissatisfaction with the 
performance of Bath Iron Works, which is slated to build all 3 
of the DDG-1000s. Is that correct?
    Admiral Roughead. That's correct, Senator. It's pure 
mathematics. Fewer ships and the math triggers the breach. 
We're in the process of complying with the requirement to make 
the certifications that are necessary. But it's a mathematical 
issue and, as I've been able to say on many occasions over the 
last couple of years, the program is extremely well run by 
very, very fine people. Of course, we know the great work that 
comes out of Bath and look forward to that.
    Senator Collins. Thank you.
    Secretary Mabus, that's your assessment as well?
    Mr. Mabus. Yes, it is.
    Senator Collins. Thank you.
    Secretary Mabus, Congress has previously strongly supported 
the Navy's two previous uses of multi-year procurements for the 
DDG-51 shipbuilding program. What we found is that multi-year 
procurements have tended to reduce acquisition costs, they have 
led to more stability in the workforce among our dual-source 
shipbuilding industrial base, and that too has contributed to 
reduced acquisition costs.
    The Navy is proposing in its FYDP to procure a total of six 
DDG-51 destroyers over 4 years between fiscal year 2012 and 
fiscal year 2015 at alternating procurement rates of one or two 
ships per year. Now, prior to the restart last year of the DDG-
51 program the Navy had procured the most recent DDG-51s in two 
successive 4-year multi-year procurements, and I would note 
that previous studies have found that the most efficient 
procurement level necessary to meet force structure 
requirements and maintain production efficiency is to do three 
DDG-51s a year.
    Has the Navy decided on an acquisition plan for procuring 
these ships? Are you looking at doing multi-year procurements, 
which could help you reduce the costs?
    Mr. Mabus. In any procurement program that we do, we look 
at all the alternatives, including multi-years. There are, as 
you are well aware, certain thresholds that a multi-year has to 
reach and, because the DDG-51 line, as you pointed out, was 
restarted last year, we have not had sufficient ship numbers to 
make a decision and to do the certifications necessary of 
whether a multi-year will save us the requisite amount of money 
or not.
    Senator Collins. I would encourage you to take a close look 
at that approach, which has been used successfully in the past.
    Mr. Mabus. Thank you.
    Senator Collins. Admiral Roughead, you have said strongly 
and repeatedly that you view 313 ships as the minimum for our 
fleet, and indeed there was a draft version of the QDR which 
suggested that the Navy might request a minimum level of 324 
ships. In any event, 313 is the number that you've consistently 
testified is necessary.
    Recently the Congressional Budget Office (CBO) gave 
testimony before the House subcommittee in which it cast doubt 
on whether the funding in the FYDP is adequate to meet that 
minimum level. Indeed, the CBO has warned that its estimate 
shows that the battleforce fleet could fall to only 270 ships 
by 2025 with a $15 billion annual budget and estimated that if 
there were a bit higher budget it might be 240 ships. But 
still, in both cases the projections by CBO do not show us 
meeting that 313-ship level.
    Could you comment on the CBO analysis, please?
    Admiral Roughead. Yes, ma'am. The budget that we have 
proposed and that is before you puts us on a trajectory and we 
believe that we have adequately priced the ships that will take 
us beyond the 313 minimum. As we get out into what I would call 
the mid-years and the requirements that we have for building 
the fleet, recapitalization of ships that we're building in 
large numbers every year, as they fall off the scope as we 
recapitalize the strategic deterrent, the funding does become 
quite challenging in that mid-year period.
    But the budget that we have before you and the plan that we 
have laid out puts us on that trajectory to take us over 313 
ships.
    Senator Collins. Thank you.
    Finally, Mr. Secretary, I know you've been to my State and 
I very much enjoyed your visits, both to Bath Iron Works and 
the Portsmouth Naval Shipyard in Kittery, ME. I want to 
associate myself with the comments made by the Senator from 
Hawaii about the importance of our public shipyards, which are 
making such a contribution, particularly in the area of 
submarine overhaul and maintenance. I believe that Senator 
Akaka has made very good points about the backlog in 
maintenance projects. The chairman also has referred to that. I 
just want to pledge to work with you to make sure that you have 
the funding needed.
    Mr. Mabus. Thank you, Senator.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Senator Hagan arrived in the nick of time to be recognized. 
Your timing is exquisite. I hope it was intentional so I don't 
catch you by surprise.
    Senator Hagan. Oh, no, that's fine. Thank you, Mr. 
Chairman.
    Chairman Levin. Senator Hagan.
    Senator Hagan. I just wanted to once again thank you for 
being here and your testimony and especially your service, each 
and every one of you. You're doing a great job.
    I wanted to say that my office has received a signed 
agreement in principle concerning the Camp Lejeune water 
contamination study, and the signed agreement between the 
Assistant Secretary of the Navy for Environment and the acting 
Director for the Agency for Toxic Substances and Disease 
Registry (ATSDR), and I certainly appreciate the Department's 
deciding to fully fund this Camp Lejeune water mortality study 
in the ATSDR and Annual Plan of Work.
    But I wanted to know when we can expect for this agreement 
in principle to be solidified and when will the money be 
transferred to ATSDR for the actual study?
    Mr. Mabus. The money will be transferred as soon as we get 
the voucher and it will take 3 or 4 days. But we are ready to 
fund this. The agreement in principle is pretty much the 
agreement. We're ready to move forward on this with all six 
studies, four of which previously have been agreed to, with the 
mortality study and with the health survey. We have committed 
to fully fund whatever science comes out of the health survey 
in terms of doing a fuller health study.
    Senator Hagan. Great. I think the fact that we have so many 
families that have had questions for so many years, that it is 
time to begin this study so that we can get answers to the 
family members who have served at Camp Lejeune over so many 
years. So thank you on that one.
    I also wanted to talk about that in Afghanistan, with the 
challenging terrain and extremely limited infrastructure, it 
serves as a formidable logistical challenge for our military. 
Recent reports have indicated that DOD pays an average cost of 
$400 per gallon for fuel that's delivered to and consumed in 
Afghanistan's remote locations, where the Marines often 
operate.
    The extent of our current dependence on fossil fuels is a 
strategic vulnerability that has the potential to influence 
foreign policy and national security objectives. What does the 
Marine Corps intend to do in order to lighten our energy 
footprint, reduce energy inefficiencies in expeditionary 
environments, and reduce energy dependencies? Are our Marine 
Corps bases and stations vulnerable to the energy grid?
    General Conway. Ma'am, let me correct something first of 
all that was cited. A Defense Science Board study did determine 
as much as $400 is sometimes spent on fuel, but for the most 
part that's fuel that's flown up to Army forces in RC-East in 
some very rigorous terrain. Our costs on average are more than 
what you pay at the service station here, but not nearly 
approximating those costs.
    That said, frankly, I was stunned when I looked at what I 
consider to be waste in terms of how we are going about the 
fight. There's a lot of what I would call low-hanging fruit in 
terms of how we can become more efficient in terms of our fuel, 
in terms of the structures that we build and their ability to 
retain cold or heat, in terms of water, and any number of 
things that we consume on a daily basis that simply can be made 
better.
    So we have put in place an Expeditionary Energy Office, a 
colonel with about 10 people both military and civilian that 
will work for him. We're not going to burden the field 
commander with this responsibility. That would be unfair. I've 
been in his shoes and he simply needs to know what he needs and 
how soon it's going to get there. But we think that we owe it 
to the Nation to be better stewards of the resources available, 
to cut back on our needs where we can, to keep young marines 
and sailors off those convoys to the extent that we have 
reduced demand, and we're very serious about going about that.
    In terms of bases and stations, we think we're doing pretty 
well. We have the mandate that's been placed on us. It is one 
of the Secretary's four priorities, to cut back our energy 
consumption about 30 percent by 2015, petroleum consumption by 
20 percent at the same time, and we're working hard to be able 
to do that.
    We've had more success I would say at this point in our 
western bases and stations because of solar energy and wind. 
But across the Corps we're working hard to try to be more 
efficient and again better stewards of our resources.
    Senator Hagan. Do you have plans and procedures in place to 
monitor how you're achieving these goals?
    General Conway. Yes, ma'am, absolutely, only through 
metrics and determining just what we can do. There have been 
some things done already. For whatever combination of reasons, 
the Army did not have need for eight solar water generation 
kinds of capabilities. We took those happily and they're 
already in Afghanistan.
    But we have a series of metrics that the office of this 
colonel is maintaining to give us a grade and see where we need 
to go.
    Senator Hagan. Great.
    I have a question concerning the mental health care for our 
returning servicemembers. As our service men and women continue 
to rotate home from Iraq and Afghanistan, there are those among 
them that are obviously returning with significant mental 
health issues. Early intervention services for these men and 
women may reduce the demands placed upon the VA once these 
servicemembers are discharged.
    What programs or initiatives are being put into place to 
address the mental health concerns of our returning 
servicemembers?
    Mr. Mabus. Senator, as I said in answer to a previous 
question, there's nothing more important that we do than to 
care for the people who have borne the battle. That is equally 
true of mental health as it is in physical health. The Navy and 
Marine Corps are both doing a lot of work in both post-
traumatic stress disorder (PTSD) and traumatic brain injuries 
(TBIs). For TBIs, one key is very early diagnosis and care near 
the battlefield. The Marine Corps in particular, supported by 
Navy medicine, has been working to make sure that the symptoms 
are recognized by both medical and non-medical personnel in the 
field.
    We do a mental evaluation before people go on deployment in 
the Navy or in the theater as marines. We do a second one when 
they come out to see if there has been any impact, and then 
another evaluation some time after they return home.
    For Navy IAs, as we bring them out of theater we have a 
stop-over in Kuwait to allow them to decompress from what they 
have been doing before they return home and be evaluated in 
terms of physical and mental health. I know that the Commandant 
and the CNO can give you other details, because we are working 
very hard on these things.
    One of our primary focuses is to make sure that there is no 
stigma attached to asking for help for mental health issues. 
One of the things we look at is to make sure that as people ask 
for help that those people who ask are promoted at exactly the 
same rate as the ones who do not need that assistance. So I 
think that in our senior enlisted ranks and our officer ranks 
that the understanding that we need to make sure that there is 
no stigma attached to asking for mental health services, and in 
fact that there's an imperative that if you need any help or if 
people around you recognize the symptoms that they encourage 
you to get help.
    We're working as hard as we are on anything to make sure 
that our returning warriors' mental health needs are absolutely 
met.
    Senator Hagan. Thank you. I do want to thank you again for 
having the agreement in principle completed on the Camp Lejeune 
water mortality study, and that obviously begins as soon as 
possible. So thank you for that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    I want to thank you all, Admiral, General, Secretary, very 
much for your service to our country, and I appreciate your 
responses to the committee and the questions that you're being 
posed today.
    I would echo what the Senator from North Carolina has said 
on the issue of energy. That's something I have a great 
interest in. The Air Force has taken quite a fairly aggressive 
goal out there in terms of trying to acquire 50 percent of 
their domestic aviation fuel via alternative fuel blends in 
which the alternative component is derived from domestic 
sources. I think this issue of dependence, this dangerous 
dependence that we have on foreign sources of energy, is a very 
real issue, and of course the military is the biggest user.
    I hope that the Navy and the Marine Corps can move in that 
direction as well, because I do think it's not only a national 
security issue, but it's also something that I think in terms 
of the economic security of the country is really critical. I'm 
hoping that you can pursue that path as well.
    Admiral Roughead, I wanted to raise a question with you. 
I'm very concerned about the Strategic Arms Reduction Treaty 
(START) follow-on treaty negotiations that we're currently 
having with the Russians, and particularly worried about the 
steep cuts that are being made to the number of delivery 
vehicles and that it might necessitate making our nuclear triad 
a diad. President Obama agreed in a joint understanding with 
President Medvedev last July to reduce the nuclear delivery 
vehicles somewhere in the range of 500 to 1,100 systems. Then a 
few days later General Cartwright, who is the current Vice 
Chairman of the Joint Chiefs and former head of Strategic 
Command, testified before this committee that he would be very 
concerned about the ability to maintain the nuclear triad if 
the number of delivery vehicles would go below about midpoint 
between 1,100 and 500 or, in other words, if the number went to 
somewhere in the 800 delivery vehicle range.
    So the question I have, Admiral, is do you share General 
Cartwright's concern about the ability to maintain the nuclear 
triad if the final START number agreed on for delivery vehicles 
is below that 800 delivery vehicle number?
    Admiral Roughead. Yes, sir. The negotiations are still 
ongoing. But I think as you get into the lower numbers that 
General Cartwright cited, it does become problematic. We have 
been working with the Joint Staff and all the Services, and 
clearly the value of the triad is well acknowledged.
    Senator Thune. Do you see a scenario in which the triad 
might be in jeopardy if they agreed to a number, though, that's 
below 800, if you get down to 700, 750? There has been some 
reporting in the Russian press that that's the range that 
they're looking at.
    Admiral Roughead. In the discussions that I've had, 
Senator, I'm not concerned about that--nor have we had 
discussions about any elimination of a leg of the triad.
    Senator Thune. Good.
    Admiral, the new QDR rightly dedicates a lot of ink to 
deterring and defeating aggression in anti-access environments, 
and it directs the Navy and the Air Force to develop a new 
joint air-sea battle concept for defeating adversaries with 
sophisticated anti-access and area denial capabilities, which 
in turn will help guide the development of future capabilities 
needed for effective power projection operations.
    I strongly support expanding and improving our Nation's 
long-range strike and power projection capabilities and I was 
pleased to see you mention in your prepared testimony that the 
Navy, as directed by the QDR, is working with the Air Force to 
develop this new joint air-sea battle concept, and I understand 
that was discussed a little bit earlier this morning.
    I understand that you and the Air Force Chief of Staff 
signed a memorandum to begin developing this new operational 
concept last September. In your view, how will long-range 
strike capabilities fit into this new air-sea battle concept?
    Admiral Roughead. I think that they will fit into the air-
sea battle concept, as will many other facets of that type of 
operation. We've also included the Marine Corps in air-sea 
battle. But I believe there's long-range strike that needs to 
be considered. Even the ability for us to be able to engage in 
an air-sea battle from under the sea becomes extremely 
important, and also the importance of networks in how we knit 
all this together is a key element, and I've made that point to 
my people, that in addition to all of the kinetic 
considerations that we also have to be thinking in terms of 
networks, because any adversary is going to be looking at that 
same thing as well.
    Senator Thune. Last September the Manchester Guardian 
reported that the President has rejected the Pentagon's first 
draft of the NPR as being too timid and has called for a range 
of more far-reaching options consistent with his goal of 
eventually abolishing nuclear weapons altogether, according to 
European officials, and that's a quote from that newspaper. Is 
that an accurate report?
    Admiral Roughead. I haven't read the Manchester Guardian, 
Senator. But I've been involved in the NPR and I believe that 
the process we've had, the considerations we've had, has placed 
great value on our nuclear deterrent force, all legs of that 
triad, and the considerations of being able to field the 
strategic needs of the Nation. I haven't read the article, but 
I'm very comfortable with the discussions we've had, the 
involvement that we've had, and how we're looking at things.
    Senator Thune. With respect to the delay on that, why is it 
continually getting pushed back? We're now looking at April as 
the latest date that we've heard in terms of that being 
completed.
    Admiral Roughead. Yes, sir. We continue to work with the 
Office of the Secretary of Defense on this, and I'll get back 
to you on the particulars of the delay.
    [The information referred to follows:]

    The delay reflects the fact that the current Nuclear Posture Review 
(NPR) is fundamentally different from the prior NPRs conducted in 1994 
and 2001. The differences are of scope, process, and context.
    On scope: The 1994 NPR was focused almost exclusively on force 
structure and numbers. The 2001 review also addressed forces, but had 
more to say about strategy than in 1994. In contrast, the 2010 NPR is 
broadly reviewing capability, strategy, and policy. This comprehensive 
approach reflects requirements applicable to the 2010 NPR that are in 
section 1070 of the National Defense Authorization Act (NDAA) for 
Fiscal Year 2008, Public Law 110-181.
    On process: The two prior NPRs were both conducted by the 
Department of Defense with some coordination with the White House. As 
stated in section 1070 of the NDAA for Fiscal Year 2008, the Secretary 
of Defense shall conduct this NPR in consultation with the Secretary of 
Energy and the Secretary of State, so this review is interagency in 
character. From the review's start last April, the Departments of State 
and Energy have been key partners in the process and have added 
significant value to the comprehensive approach. Moreover, the review 
undertook to provide results in the form of options, across all areas 
of review, for discussion by senior leaders. This has facilitated a 
broad, high-level discussion of nuclear posture and policy of a kind 
not conducted in decades.
    On context: The rising risks of nuclear proliferation and nuclear 
terrorism since the 2001 NPR have underscored the need for a fresh 
approach to strategy and policy. In Prague in April 2009, the President 
articulated a vision for reducing 21st century nuclear dangers that 
highlighted the commitment to the ultimate elimination of such weapons 
globally. He then asked for a work plan of concrete steps that would 
move demonstrably toward that goal, while also meeting continuing 
requirements of deterrence, assurance, and strategic stability. 
Determining how best to accomplish these objectives has required broad 
and deep analysis.

    Senator Thune. That comes from a European newspaper. But 
we've been led to believe that the analysis guiding the START 
negotiations in the QDR was completed at the front end of that 
NPR process, and that the first draft was reportedly scrapped 
on a concern that it was too timid in terms of reducing the 
number of nuclear weapons.
    Maybe you don't want to comment.
    Admiral Roughead. The too timid phrase is one that I had 
not heard before. I think as we have worked our way through 
what's a very complex process, I've been very comfortable with 
the discussions that we've been having, sir.
    Senator Thune. All right, good.
    Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Burris is next.
    Senator Burris. Thank you, Mr. Chairman.
    I'd like to add my thanks to these three excellent 
Americans for their dedication and commitment to the service of 
our country. I would just like to let them know where I spent 
last week--at the Marine Corps recruiting depot in San Diego 
and the Marine Air Station in Miramar, where I experienced and 
flew the Osprey simulator and crashed it about 20 times. Also, 
Mr. Secretary, I visited the naval medical center in San Diego. 
I must say, Commandant, I thought I was a pretty rough kid 
coming up until I saw the basic training that those marines 
were going through in preparing them to be warriors and to 
defend this country. The leadership that I met was terrific, 
from the officers on down to the enlisted personnel. I want to 
compliment you for what you're doing in preparing those young 
men.
    General Conway. Thank you, sir. I'll pass that to the 
troops.
    Senator Burris. Also, on the question of DADT, gentlemen, I 
hear the various positions and I know that you may have some 
input into that major question that we will be confronting. 
Keep in mind that at one time blacks could not serve with any 
dignity in our military. We just heard the comment on where we 
are now with this diversity issue and the top ranks. Not only 
that, but we've had an African American who served as the Joint 
Chiefs of Staff, and of course we have currently an African 
American who's the Commander in Chief. Also, at one time we 
didn't allow women in our services, and now we're talking about 
even having women on submarines.
    So please keep that in mind in terms of what it is and how 
we judge individuals by their orientation or by their sex or by 
their race, so just by way of comment.
    Mr. Secretary and General Conway, the JSF program has been 
plagued with numerous delays and setbacks. If the program 
continues to be beset with difficulties, at what point will 
your readiness posture be significantly affected in terms of 
that aircraft?
    General Conway. Sir, we have seen setbacks in the program. 
We, as a product of this 5-year defense plan, have seen a 
reduction of 28 Marine Corps JSFs and that's a serious impact 
on our readiness, because for about 11 or 12 years now we have 
not bought an attack aircraft. We did not buy the E&F when the 
Navy did and so we've been relying upon our F-18s A through D 
types and on our venerable Harriers.
    So we're really anxious to have the JSF come on line when 
it's supposed to, with the capacities that we believe it has. 
We're nevertheless encouraged that the supplier is going to 
make his timeline that he's promised us, which is initial 
operating capacity in 2012.
    Senator Burris. Commandant, pardon me. That's not what my 
information is. My information is that they're behind schedule, 
that they're trying to test various components of it because of 
the complications of it replacing three or four of those other 
planes. If we have any information to the contrary, please----
    General Conway. We'll have to compare notes, sir. December 
2012 is what we have been tracking now for quite some time. We 
have three aircraft at Pax River at our test facilities. We 
will see vertical flight we think this quarter and delivery of 
other airplanes before the end of the year.
    It is the answer to your question, though, because 2012 is 
really important to us in that we have gone for so long without 
this capacity.
    Senator Burris. Absolutely.
    General Conway. If we don't make those kinds of timelines 
it will almost immediately have an impact on our ability to 
provide the strike fighter capacity that both the Navy and the 
Air Force depend on.
    Senator Burris. General, I applaud the level of integration 
of the Navy and the Marine Corps Reserves into the total force 
structure by the Navy and the Marine Corps. How would you 
characterize the success of their integration into the overall 
mission of the Department of the Navy?
    Mr. Mabus. I think the integration of the Reserves of the 
Marine Corps and the Navy has been an absolute success. We 
simply wouldn't be able to do some of the missions that we do 
without the Reserves. They perform an incredibly wide variety 
of missions. Their training and readiness is exemplary, and 
when they are called to active duty they are integrated 
seamlessly and well. As I said, we owe our Reserves not only 
the training and readiness, but also the things that I answered 
previously about health care, mental health care, and when they 
return from active duty.
    Senator Burris. Mr. Secretary, do you see the need for more 
funding to cover the costs of fulfilling the manning of the 
reservists?
    Mr. Mabus. Senator, I think that the budget that we 
submitted will allow us to meet every mission, both Active Duty 
and Reserve.
    Senator Burris. Admiral, did you want to comment on that, 
sir?
    Admiral Roughead. I was just going to say that integration 
is absolutely extraordinary. But even with that, we're not 
satisfied. In the Navy we're continuing to look at ways with 
which our Active and Reserve components can flow between the 
two more seamlessly. A few months ago, by the time you got all 
of the paperwork and admin done, it was about a 4-month 
process. We now have that down to 8 days and my personnel chief 
and my Chief of Naval Reserve know they have to get it to 72 
hours.
    We can do that because of the terrific professionalism and 
the fact that we truly are one Navy. It doesn't make any 
difference if we're Active or Reserve. We are one Navy.
    General Conway. Senator, I would only comment on the 
mentality of the Reserves. It's absolutely incredible to me, 
but our Secretary of Defense has set aside guidelines and terms 
of their usage and how frequently we can make use of our 
Reserve formations. These people want to come on board active 
duty and they want to come on board in most instances even more 
frequently than what the policies will now allow for.
    There are just tremendous people out there who really do 
want to be a part of what's taking place in the world today.
    Senator Burris. Commandant, you're making that comment and 
I see this myself. Even those wounded warriors, the ones that 
come back from combat injuries, or amputees--I saw some of them 
out in San Diego Hospital or saw them over at Walter Reed. I'm 
amazed at the commitment that they have.
    I asked this young infantryman from the Army at Walter Reed 
when I was out there a question. He was an amputee just below 
the knee and he was being discharged that day. I asked him: 
Okay, young man, what do you want to do? He said, ``Sir, what I 
really want to do is to go back and join my unit.''
    General, I couldn't hold it. I just cried right before him. 
I mean, it's amazing to me. We have to give thanks to those 
type of individuals, committed to give us protection and that 
cause and help us to be the America that we are. We couldn't do 
it without them.
    Thank you very much, Mr. Chairman. My time is up.
    Chairman Levin. Thank you, Senator Burris. Senator Burris 
speaks for this entire committee with those eloquent comments.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    Mr. Secretary, General Conway, Admiral Roughead, thank you 
for your service to the country. Thank you for the men and 
women who serve in the Navy and the Marines.
    As we had a chance to talk about last night, Florida loves 
having the Navy and the Marines, not as many marines as we 
would like, General, but we'll work on that. But from Naval Air 
Station (NAS) Jacksonville and NAS Pensacola down to Key West 
to Blount Island to Mayport, we're just very privileged and 
proud to have you in Florida in the numbers that you're in.
    I want to first commend you for the work that you have done 
and are doing in Haiti. I had a chance to go on a Congressional 
delegation trip 2 weeks ago and to visit the young men and 
women who are down there who are helping in that rescue and the 
humanitarian effort. It is as difficult a situation as one 
could find in the world. They're doing great work, and I 
appreciate the work that they continue to do.
    The next thing I'd like to talk to you about is a topic 
that we've discussed before. It will not come as a surprise to 
you, and that is Mayport and the decision that the Secretary of 
the Navy signed, the record decision to make Mayport a nuclear-
ready facility in order to have a nuclear-powered submarine.
    Now, it's my understanding that we have enjoyed having an 
aircraft carrier in Mayport since 1952 and it's been maybe not 
continuously that way, but it was that way up and through 2006, 
when the USS Kennedy was decommissioned.
    Admiral Roughead, I know that there has been some 
discussion about homeporting a carrier at Mayport. But it's my 
understanding that the Navy has had a long policy of strategic 
dispersal, that is dispersing your assets in numerous places in 
order to best protect them, and that you do this, for example, 
on the west coast of the United States. So is it true that the 
Navy has historically had aircraft carriers homeported in 
multiple ports on each coast, and that Mayport has been home to 
several aircraft carriers in the past?
    Admiral Roughead. That's correct, sir.
    Senator LeMieux. Also, is it true that the Navy maintains 
more than one nuclear-capable port on the west coast and that 
making Mayport nuclear-capable only makes a sensible strategy 
just like the Navy employs on the west coast of the United 
States?
    Admiral Roughead. Yes, sir, that's correct.
    Senator LeMieux. I've heard discussion that this is going 
to be an extremely expensive proposition, talks about $1 
billion to $2 billion, and that it's not going to be an 
effective or efficient decision for the Navy. Can you comment 
on that for me, Admiral?
    Admiral Roughead. Yes, sir. We estimate the cost to be just 
past $500 million. Some of those costs have already been 
incurred because we are involved with dredging the basin there. 
But the costs are also spread out over a period of years. It's 
not one lump sum in any given year, it's spread out, and will 
give us the opportunity to have an alternate carrier port on 
the east coast, which would then make it possible for every 
ship class that we have to have alternatives as far as where 
they could go to be maintained or where they could go to put in 
if they had emergency work to be done.
    Senator LeMieux. I guess, Admiral, that part of the concern 
is that if there is only one East Coast port for a nuclear 
carrier and there were some kind of natural disaster or other 
manmade disaster, that that would significantly limit our 
strategic abilities.
    Admiral Roughead. Particularly as it would apply to our 
carrier fleet, yes it would, sir.
    Senator LeMieux. In terms of the future of the Navy and the 
ships that the Navy will have, it's my understanding that more 
and more ships may be nuclear-powered, not just subs, not just 
aircraft carriers, and that that's going to require proper 
shore facilities to maintain those nuclear propulsion plants.
    Admiral Roughead. Senator, as we look to the future, 
nuclear power clearly is something that we will be looking at 
as a propulsion source. There are many factors that come into 
play--construction, maintenance, the manning, and the training. 
But as we look to the future, fuel considerations, energy 
considerations, and then the power that some of the newer 
weapons systems are going to require, you're automatically 
drawn to nuclear power as a source, and we're going to be 
looking at that.
    Senator LeMieux. So having those capabilities in multiple 
locations to be able to service those ships is important?
    Admiral Roughead. Yes, sir, it is.
    Senator LeMieux. Last on the Mayport issue: I've heard some 
talk about concerns about hurricanes and weather. In Florida 
we've unfortunately, like other States, had hurricanes hit us 
in the past. Has there been an evaluation as to whether or not 
Jacksonville is as susceptible as the rest of Florida is to 
hurricanes?
    Admiral Roughead. Yes, sir. That was one of the factors 
that we looked at, because I think that one can easily conjure 
up an image that anything in Florida is susceptible to multiple 
hurricanes. But when you look at the historic nature of the 
storm tracks, that area in the Jacksonville area is not prone 
to what many perceive to be a high incidence of hurricanes.
    The patterns either take them south or the patterns take 
them up toward the Carolinas, and the area in Jacksonville 
seems to be in a very fortunate pocket.
    Senator LeMieux. It does. I'm not aware of a hurricane ever 
hitting Jacksonville. Perhaps it has. It hasn't in the last 4 
years that I'm aware of, and I don't think we've had one prior 
to that. Maybe a long time ago, but it has been a long time. 
That area does seem to be a pocket.
    I want to next talk a little, if I may, Mr. Secretary and 
Admiral, about the good work that the Navy is doing in relation 
to Colombia. I had an opportunity to visit Colombia last week 
on a delegation trip and meet with President Uribe as well as 
Minister of Defense Silva and talk about the good work that 
we've been doing for the past 8 years--longer than that, but 
specifically in the past 8 years--to help the Colombian 
military with fighting narcotrafficking and all of the 
challenges that Colombia has had with the Revolutionary Armed 
Forces of Colombia.
    It recently was mentioned to me by the Admiral that the 
Fourth Fleet was able to achieve a major success with a drug 
seizure on February 22 and disrupting a go-fast vessel and 
recovering more than a quarter ton of cocaine.
    I want to emphasize to you how important I think this work 
is. The drug terrorists, these folks what are working from 
Colombia all the way up through Central America into Mexico, 
are very dangerous people. They are not just drug gangs. They 
are terrorists. We recently saw this incident in Mexico where a 
young soldier who had been killed in a firefight with one of 
the drug cartels and then given a State funeral, that his 
entire family was killed afterwards by the drug cartel in order 
to make a point.
    That is extremely worrisome to me. It's also extremely 
worrisome to me, not to get into information that we can't 
speak about openly, but we know that Iran is projecting its 
image into Latin America. We know that Ahmadinejad has visited 
Venezuela on several occasions. We know that there are concerns 
about Hamas and Hezbollah in Latin and South America.
    So I want to commend you on the work that you're doing with 
the Colombians and with our other partners in Central and South 
America. I had an opportunity to visit our friends in Honduras 
as well and our good work that we're doing there in partnership 
with them under the new government.
    I want to make the point of how important I think it is 
that you continue to do the work that you're doing with Joint 
Interagency Task Force-South and with the Coast Guard and the 
combined efforts with the Colombian military, because I find 
that to be an emerging threat to our country and to our 
national security. While we are focused, properly, on 
Afghanistan and Iraq and other places in the world, we cannot 
fail to look south. We cannot fail to make sure that we do not 
have terrorist threats within this hemisphere.
    So thank you for that good work and thank you for your 
service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator LeMieux.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Just to follow on a bit, as you might expect, from the 
comments of my good friend from Florida and my other good 
friend from Florida arriving to make comments after I speak, 
I'd like to emphasize that I do have a good deal of empathy for 
that area of Florida for the fact that they have lost ships due 
to retirement, and that there are ways to address that 
situation.
    But I would also like to emphasize that this discussion is 
clearly not over, and that there are strong statements that 
could be made contrary to what was just said. This isn't the 
place. I have a very limited amount of time here and I want to 
get into some detail with the situation in Okinawa and Guam, 
General Conway.
    But we are in a situation where we are going to have to 
find ways to make better use of limited funds and we are going 
to be wanting to put them in places that enhance our overall 
ability to perform our national objectives, and that very 
strongly includes making sure that we hit the mark on our 
shipbuilding goals, Admiral, as you and I discussed when you 
visited. There's a great deal of concern about this.
    I just listened to Senator Collins mention a CBO study that 
indicated that if certain trends were followed the size of the 
Navy could be at 270 ships by 2025. I know that the bow wave 
always looks good in the Pentagon. I spent 5 years over there. 
Your testimony is that you can hit your 313 minimum in a 
certain period of time.
    But these are just as compelling strategic concerns as 
dispersal. I've been through three different renditions of 
strategic dispersal debates in my adult lifetime, one of them, 
as you'll remember, during the Reagan administration, when we 
were going to put a strategic homeport in Corpus Christi. I 
went down there and made the speech when I was Secretary of the 
Navy to open that one. They were talking about a strategic 
homeport in Alaska.
    You're familiar with the service of Admiral Joe Prueher, I 
assume, former Vice CNO, commander of Sixth Fleet, former 
Commander in Chief, Pacific, and former Ambassador to China, 
who is not being paid by anyone as a lobbyist to express a 
point of view, who stated his strong agreement that this amount 
of money would be much better spent in shipbuilding than in 
creating a redundant facility.
    So I want to make that point, just because I'm sandwiched 
here between two opposing points of view, but this discussion 
is not over.
    I just returned from a visit to Tokyo, Okinawa, Guam, 
Tinian, and Saipan. The purpose of this trip was to first meet 
with the new leadership of the Japanese Government, but then 
also to listen to the viewpoints on Okinawa and in these other 
areas in terms of this military base realignment. General, as 
you recall, I spent a good bit of time out there in 1973 and 
1974, walked and drove every square inch of the military lands 
on Guam, Tinian, Saipan, went up to Okinawa, and looked at our 
training areas.
    Without going through the whole drill, there are two 
questions that I am very concerned about right now. One is for 
you, General, and the other is for you, Mr. Secretary. We have 
gotten ourself into a box with respect to a 2014 timeline, not 
only in the situation at Okinawa, which has been delayed 
because of the Futenma relocation controversy, and we're 
waiting for the Japanese Government to come forward with a 
decision, but also in terms of the way we are dealing with the 
situation on Guam.
    This realignment of marines and these new bases were 
arguably supposed to be completed by 2014. I think what is 
happening out there is that the civilian populace in both 
places are getting very nervous about the prospect of these 
timelines, in Okinawa, one, because people see that it's not 
really doable practically; and on Guam, because of the civilian 
infrastructure itself that would be needed, you can't hit that 
mark.
    I would like to get your thoughts on that timeline, 
General, and what our position might be on it.
    General Conway. Sir, I share your concern. Of course, we 
will await the Japanese decision, hopefully by May. But any 
delay at this point I think is going to be reflected downrange 
attempting to meet our timelines. Going all the way back to the 
1970s probably, but certainly today, there's only a certain 
workforce capacity on Guam to get things done. There is a lot 
that needs to be done.
    So our concern is that for every month we delay a decision 
and action really on the part of both governments in cohort 
with each other, it's going to have impact on our ability to 
make the timelines.
    Senator Webb. I think we're going to have to start talking 
more realistically about what those timelines are and calm 
people down. I would also strongly encourage looking at more 
training areas and firing ranges on Tinian rather than Guam. 
Guam is 208 square miles. They now say 210; somewhere they've 
gotten 2 more square miles since I was working out there. But 
one-third of that island is already military retention areas. 
It's very difficult to put firing ranges and that sort of thing 
on there.
    Tinian is wide open. I went up and looked at it again. The 
difficulty is it's not part of the specific plan that's being 
discussed. But the utility long-term is very strong.
    Mr. Secretary, I hope you will be able to raise the 
importance of getting funding for the civilian side on this 
Guam project if we're serious about doing this. We cannot 
remain as a viable balancing force in the Pacific without these 
bases. At the same time, the numbers I got from last year, just 
to give you an idea of the disconnect here, were that, in terms 
of MILCON projects for this buildup, there was $700 million in 
the DOD budget inside the wire and only $51 million outside the 
wire, and $50 million of that was DOD money for roads in Guam.
    As the General mentioned, they're going to have to increase 
workforce out there. They have school difficulties, hospital 
difficulties. When I was there, there was a $50 million grant 
that was supposed to come their way through the stimulus 
package for the port authority that somehow did not happen. 
This is American soil. This isn't like being off in Kuwait 
somewhere. These are American citizens and the people who have 
supported this have now started to wonder whether we are really 
serious about doing it in a responsible way. That can only 
happen, I think, through interagency coordination and strong 
discussions with the White House.
    Mr. Mabus. Yes, sir, I agree. On the grant for the Apra 
Harbor, I was a very strong advocate for that grant and met 
with the Secretary of Transportation on two different occasions 
to urge him to do that grant, for the exact reasons that you 
just stated.
    Senator Webb. I contacted the White House when I was on 
Guam, trying to make the point that this isn't simply a 
transportation issue; it's a national security issue. I think 
that $50 million when they have $150 billion in unexpended 
money from the stimulus package would go a long way towards 
calming people down out there, but also getting this done.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Bill Nelson.
    Senator Bill Nelson. Mr. Chairman, before my dear friend 
Senator Webb departs, we have certainly had a different 
position with regard to our parochial interests on the 
homeporting of a carrier. Florida has always been a second port 
and the Atlantic fleet of carriers has always been dispersed. 
It was up until 1987 that there was----
    Senator Webb. Excuse me. We've had this discussion before. 
I have a meeting I have to go to.
    Senator Bill Nelson. Okay. Well, as you are departing, I 
just wanted to point out that you are a distinguished former 
Secretary of the Navy, and in your confirmation hearing in 
1987--well, the former Secretary and now Senator from Virginia 
has just departed; I'll just finish the sentence. I went back 
and checked the record, and indeed he supported strategic 
dispersal of carriers in his confirmation hearing for Secretary 
of the Navy.
    Of course, it's the logical position, and that was 1987 and 
the Atlantic fleet, just like the Pacific fleet, had always 
been dispersed so that you don't put all your eggs in one 
basket. There are three homeports for the Pacific fleet. There 
have always been two homeports for the Atlantic fleet, and that 
was the case up until 2\1/2\ years ago when the conventional 
carrier John F. Kennedy was mothballed, and that left no 
carriers in Mayport.
    Since then a new carrier has come on line, a nuclear 
carrier since we now have all nuclear carriers, but the Navy 
has made its decision. This goes back. The record is replete. 
In February 2005 the CNO, Admiral Clark, stated that the Navy 
should have two Atlantic carrier ports.
    In March 2006, the Deputy Secretary of Defense and former 
Secretary of the Navy Gordon England stated: A nuclear carrier 
should be in Florida to achieve dispersion.
    In March 2006, the Vice Chairman of the Joint Chiefs, 
Admiral Giambastiani, shared his judgment before this committee 
that we should disperse our carriers.
    These are all parts of the record of this committee, Mr. 
Chairman.
    In July 2007, the Chairman of the Joint Chiefs, Admiral 
Mullen, stated, ``I am on the record more than once for this, 
very supportive of strategic dispersal of our carriers.''
    In December 2008, the Secretary of Defense wrote, ``Having 
a single CVN homeport has not been considered acceptable on the 
West Coast and should not be considered acceptable on the East 
Coast.''
    In January 2009, the Navy issued a record of decision to 
establish Naval Station Mayport as a CVN homeport. Then we went 
through all last year, the QDR, at the insistence of the 
Senator from Virginia. When the QDR was complete, DOD validated 
the Navy's position, stating in the QDR, ``To mitigate the risk 
of terrorist attack, accident, or natural disaster, the U.S. 
Navy will homeport an east coast carrier in Mayport, FL.''
    I didn't intend to come here and speak on this. If I'd have 
known that my colleague from Florida was going to speak on it, 
I would have encouraged him not to. But it seems like that we 
have to continue, and therefore I will continue. Just so the 
record is understood, Admiral, you earlier testified that the 
total cost of making Mayport nuclear-capable for a homeport of 
a nuclear carrier would be somewhere around $500 million.
    Admiral Roughead. That's correct, sir.
    Senator Bill Nelson. You also stated, if I recall, because 
I heard you on the television, that that included the amount 
that was being spent now for the dredging as well as the 
repairs to the wharf. Is that correct?
    Admiral Roughead. That's correct, sir. It's to make that 
port nuclear carrier-capable, which I include to be a 
maintenance capability.
    Senator Bill Nelson. Therefore, I would like the record to 
reflect that that was a matter that we took care of in the 
defense appropriations bill for this current fiscal year. That 
is law, and that money is appropriated and it's being spent, 
and it is a total amount of some $70 million for the dredging 
out to a mile and a half, and that's dredging down to 55 feet 
to accommodate a nuclear carrier, as well as to the repairs to 
the wharf, which are the two long-lead items that need to be 
done.
    So if my math is correct, $70 million already appropriated 
from what the Admiral said, approximately $500 million. We're 
talking about somewhere in the range of about $430 million left 
over a several-year period to be appropriated to have a second 
homeport for a nuclear carrier; is that right?
    Admiral Roughead. That's correct, sir, give or take some 
adjustments in there. But we've begun the process. The money is 
spread over the FYDP, and this year what we need is to be able 
to continue this plan. It's the money that allows us to do the 
appropriate planning that allows us to most efficiently lay in 
that improvement.
    Senator Bill Nelson. Mr. Chairman, I certainly don't want 
to continue to take the committee's time on this. The decision 
has been made. A good slug of the appropriations are already 
underway. The military has made its decision all the way up to 
the Secretary of Defense with the QDR, and I'd like to move on.
    But as long as this keeps being raised as an issue, I'm 
going to have to have a fight in the Budget Committee over this 
very same issue.
    If that is the case, so be it. It seems to me that at some 
point we ought to understand that the decision has been made 
and it's been made for the purposes of securing the national 
defense. If we disperse carriers in three homeports with 
another two ports available in the Pacific, for a total of 
five, we sure better not put all five Atlantic fleet carriers 
in one port up river, which the commercial channel runs right 
by the docks.
    So I will stop right there. I want to thank you, Mr. 
Chairman, for your patience.
    I want to thank the CNO, the Secretary of the Navy, and the 
indulgence of the General. I want to thank you all for your 
public service. Thank you.
    Chairman Levin. Thank you very much, Senator Nelson.
    I have just a few additional questions. I don't know if any 
other colleagues do, but if they do I'm sure they'll come back.
    First, Secretary, on the WSARA of 2009, it was designed to 
address some of the problems that we've had with weapons 
systems that take too long and cost too much. An effort is 
there in law, but it's going to require in the culture to 
insist on early tradeoffs between cost, schedule, and 
performance, better systems engineering, better cost estimates, 
more mature technologies at the beginning, and better 
developmental testing.
    Is the Navy on track to rebuild its systems engineering, 
cost estimating, and developmental testing capabilities as 
required by our law?
    Mr. Mabus. Yes, sir, we are. We are aggressively moving to 
hire the acquisition professionals back into the Navy to get 
those requirements on line.
    Chairman Levin. The committee added nine F/A-18 E and Fs to 
the budget request last year, in part to help with a real 
shortfall in strike fighters. We understand the Department was 
glad to get those additional aircraft. We've seen a 
restructuring this year of the JSF program, with a resultant 
slowdown, we believe, in the production of F-35s, with a slight 
increase in the number of F-18s, but that increase does not 
match the slowdown in the F-35 aircraft production.
    What is the current assessment of the Navy of the maximum 
size of the fighter shortfall, Admiral?
    Admiral Roughead. Yes, sir. We have worked this management 
of our tactical aviation very hard for the last couple of 
years, and I believe we have done some very good work in using 
attrition aircraft and transitioning squadrons a little ahead 
of schedule. So right now as we sit and we look at what we're 
going to have in the future, it's about 100 aircraft. In POM 
2012 we're going to have to look at the life extension on some 
of our earlier 18 A through Ds, and that's where our focus will 
be.
    Chairman Levin. Why not request the increase in the F/A-18 
E and Fs procurement to compensate for that reduction in JSF?
    Admiral Roughead. What we are looking at, Senator, is the 
cost of the life extension on the A and Ds is not unattractive. 
We have to look at that and that's where our focus is right 
now. Getting the JSF on track and delivered is of paramount 
importance, but we're going to look at the life extension 
program on the earlier Hornets.
    Chairman Levin. Admiral, your prepared statement says that, 
``Accession to the Law of the Sea Convention remains a priority 
for the Navy.'' Is that your personal and professional view 
regarding accession to that convention?
    Admiral Roughead. Absolutely, and it's even more important 
than just the Navy, Senator. I believe that as we deal with 
resource issues in the coming years and decades being party to 
that treaty will be in the best interests of the Nation.
    Chairman Levin. Secretary, your prepared statement said 
that you support ratification of that convention, saying that, 
``Ratification would enhance stability for international 
maritime rules and ensure our access to critical air and sea 
lines of communication.'' Secretary, what effects would you 
foresee if we do not ratify that convention?
    Mr. Mabus. Senator, I think that ratifying the convention 
will give us much more ability to make those things happen in 
terms of free access to sea lanes, and in terms of our ability 
to use the sea as a maritime commons. I think that if we do not 
ratify that convention we take some risk in being able to do 
some of the things that we need to do.
    Chairman Levin. Secretary and Admiral, let me join in my 
commendation for the Navy for reassessing a prohibition which 
it had on the assignment of women for service on our 
submarines. I think you're doing the right thing and I commend 
you for that leadership.
    On the question of DADT, Mr. Secretary, you indicated that 
you favor repeal of that program. I guess my question is would 
you favor repeal the way you do, if you felt that it would lead 
to a negative impact on readiness?
    Mr. Mabus. No, sir, I do not.
    Chairman Levin. So in favoring the repeal, then, is it fair 
to assume or to believe that you believe it will not have a 
negative effect on readiness?
    Mr. Mabus. That's my personal belief, Senator. But I do 
believe that the President has set forth a good plan in terms 
of how to implement and I think that we should follow that 
implementation plan.
    Chairman Levin. The President has also indicated, or I 
guess Secretary Gates has indicated, that there is going to be 
an effort to see if there can be some modifications in the way 
in which the rules are applied without a change in the law. Are 
you familiar with that directive?
    Mr. Mabus. I'm familiar that Secretary Gates has said that, 
yes, sir.
    Chairman Levin. Do you know what he is referring to?
    Mr. Mabus. No, sir, I do not.
    Chairman Levin. Thank you.
    Senator Bill Nelson.
    Senator Bill Nelson. I just wanted to mention a couple 
things. It's pretty exciting, Admiral, as we're now looking 
down the road, what does the new nuclear submarine look like. 
Part of that is going to be designing the launch system of the 
future. Would you share with the committee what we had talked 
about before, the role that the Naval Ordnance Test Unit at 
Cape Canaveral that has been so integral to the design of the 
existing SSBNs, what that role might be in the future?
    Admiral Roughead. Yes, sir. As we begin to design the new 
submarine that will serve our country for decades to come, one 
of the components of it will be missile compartment and launch 
systems. Clearly, the relationship that we've had with the 
center down in Cape Canaveral is one that will continue. As we 
look to the future, there will be opportunities for not just 
that site, but also for employment as we begin to spin up and 
get into various stages of development and test.
    Senator Bill Nelson. I'd just like the record to reflect, 
Mr. Chairman, that unfortunately, due to some misplaced 
priorities in the development of the new rocket to follow on 
the Space Shuttle, that rocket is not developed and as a result 
there are going to be layoffs of some exceptionally talented 
and trained and educated people at the Kennedy Space Center, 
which will be a talent pool that is needed as the Navy gets 
into this design work with regard to the future launcher of a 
nuclear submarine. So I want the record to reflect that.
    Finally, Mr. Chairman, if I might ask General Conway. We 
have the Lightweight Mine Roller System. It's listed as one of 
your unfunded programs. It's my understanding--and I'd love to 
hear your ideas--that it has been very effective in countering 
the improvised explosive devices (IEDs) in Afghanistan. Can you 
describe that system and the Marines' attitude about funding 
for that system?
    General Conway. Yes, sir, I can. It has been effective, 
sir. It's valuable to us because it's a steerable system that 
fits on the front of virtually all of our mine-resistant 
ambush-protected vehicles. There's no doubt that it has saved 
lives.
    They for the most part are blown away when the larger IEDs 
go off. But in instances where they're not, it's easily 
repairable and put back into operation, and that's what makes 
it different from some of the others.
    Sir, it's on the unfunded priority list because actually 
we've done some discovery learning on the value of the system 
since we worked our budget. Normally, unfunded priority list 
types of things would not take precedence over our budget 
items. That's by conscious choice. But in this case there are 
probably two or three instances out of that $231 million that 
we have found very valuable just in recent weeks or months in 
Afghanistan that we wanted to put on that list.
    Senator Bill Nelson. Well, we want to keep talking to you 
about that. Since this seems to be such an effective device, if 
it's ready to be funded we want to try to provide that for you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson. Thank you for 
pointing out that priority. It's a major priority. It has been 
for this committee for as long as I can remember that these 
IEDs be addressed in any way we possibly can, and we have never 
that I can remember, ever not come forth with whatever funding 
could be usefully spent to address that threat.
    Gentlemen, we thank you and we will stand adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
                           suicide prevention
    1. Senator Akaka. Secretary Mabus, the Navy and Marine Corps still 
face the tough challenge of preventing suicides. The wars in 
Afghanistan and Iraq have placed additional mental burdens on our men 
and women in uniform. I applaud the Navy and Marine Corps for their 
campaign to increase the involvement of their leaders at all ranks in 
suicide prevention efforts. Can you please update me on the Navy and 
Marine Corps' efforts to prevent suicides, including adding more mental 
health providers and substance abuse counselors?
    Secretary Mabus. Sailors and marines are the Department of the 
Navy's (DON) most important asset. The DON continues to develop and 
deploy training that builds resiliency for the individual servicemember 
while educating the force on the warning signs of a troubled sailor and 
marine. No longer is training focused solely on the active duty member. 
Training now includes DON civilian employees and is available to family 
members. Service-specific efforts include:

        <bullet> Navy has developed the Operational Stress Control 
        (OSC) program to address the psychological health needs of 
        sailors and their families. To date more than 99,000 sailors 
        have received the initial OSC familiarization brief. Formal 
        training curriculum for key points throughout a sailor's career 
        is now in various stages of development and fleet introduction.
        <bullet> Navy recently updated its suicide prevention policy 
        guidance requiring commands to maintain written crisis response 
        plans and updating reporting requirements. Additionally, Navy 
        has initiated an overarching policy review to identify 
        potential barriers to seeking appropriate care or to the 
        successful reintegration of a sailor to a viable career path 
        following treatment.
        <bullet> Marine Corps (USMC) is implementing its Operational 
        Stress Control and Readiness (OSCAR) program. This program 
        assists leaders in prevention, early identification, and 
        treatment of combat and operational stress problems, using 
        medical, religious and peer support assets. OSCAR reduces 
        stigma associated with mental health issues and enhances other 
        behavioral health programs like suicide prevention, family 
        advocacy, and substance abuse by addressing all sources of 
        operational stress. All Marine Divisions will receive OSCAR 
        training by May 2010, with implementation to other commands 
        soon thereafter.
        <bullet> Marine Corps has updated its suicide prevention 
        training at Recruit Training, Drill Instructor School and the 
        Basic School. Furthermore, Marine Corps is now providing new 
        evocative suicide prevention training to junior enlisted, staff 
        noncommissioned officers (NCO) and spouses. The training is 
        peer taught, interactive, and personal. Nearly 100 percent of 
        all NCOs and Hospital Corpsmen have received the training. A 
        longitudinal study will be used to assess the training's 
        effectiveness.
        <bullet> Marine Corps will be participating in a National 
        Institute of Mental Health study to better understand unique 
        Marine Corps risk and protective factors, and to better inform 
        prevention programs.
        <bullet> The number of mental health provider authorizations 
        adjusts to meet the demand for medical services. The 
        combination of military, Federal civilian service and 
        contractor professionals provides flexibility and timeliness to 
        meet the operational and beneficiary care and missions. To that 
        end, between fiscal year 2009 and fiscal year 2012 DON will 
        increase the number of military mental health authorizations by 
        137.

                           cultural awareness
    2. Senator Akaka. Secretary Mabus, there has been a continuing 
emphasis within the Department of Defense (DOD) to increase cultural 
awareness of our personnel so that they may better perform counter-
insurgency and stability operations. What is your opinion regarding the 
Navy and Marine Corps' efforts at developing foreign language skills to 
better perform warfighting and non-warfighting activities?
    Secretary Mabus. Over the past years, Navy and Marine Corps have 
made significant progress in language familiarization and cross 
cultural competency training for in support the full spectrum of its 
core capabilities missions.
    Specifically, Navy has:

        <bullet> Established its Center for Language, Regional 
        Expertise, and Culture (CLREC), which leverages existing 
        foreign language, culture and area studies instruction, as well 
        as training tools, technologies and methodologies, to 
        facilitate professional development of Foreign Area Officers, 
        Intelligence, Information Warfare, and Cryptologic personnel. 
        Additionally, CLREC has developed practical, Navy-wide, cross-
        cultural skills training needed to enhance relationships with 
        emerging partners.
        <bullet> Navy directs CLREC coordinated training and education 
        to operational forces through classroom instruction provided 
        during pre-deployment work-ups, or as mission-tailored Mobile 
        Training Teams (MTT) to units already deployed. In 2002, in 
        response to the attack on USS Cole, Navy established its 
        Regional Security Education Program, coordinated by the Naval 
        Postgraduate School (NPS) in Monterey, CA. NPS faculty and 
        regional experts embark with Navy Strike and Amphibious Groups 
        to deliver underway instruction in regional history, current 
        affairs, threats and general cultural/religious awareness.
        <bullet> Navy is increasing regional and cultural content 
        through Navy Professional Military Education (NPME) developed 
        by the Naval War College (NWC), providing non-resident language 
        instruction to sailors and delivering in-residence training to 
        more officers. NWC offers a set of five Regional Concentration 
        Areas in its Elective Program within its resident intermediate 
        and senior PME programs.
        <bullet> For officer accessions, Naval Reserve Officers 
        Training Corps (NROTC) midshipmen now take a semester course in 
        regional studies, world culture and/or world religions, with 
        emphasis on Third World, Far East, and SW Asia. This 
        requirement uses existing university-taught courses. The U.S. 
        Naval Academy has established an International Programs Office 
        and a Center for Middle East and Islamic Studies. Starting with 
        the 2009-2010 academic year, Navy implemented an LREC Majors 
        program for NROTC. This program provides NROTC scholarships to 
        20-30 midshipmen per year who will major in select critical 
        languages, with a minor in associated regional studies, or 
        major in regional studies, with a minor in an associated 
        language. The goal, when fully implemented across 4 years, is 
        to have up to 120 total NROTC Midshipmen enrolled in the 
        program.
        <bullet> In July 2007, U.S. Fleet Forces Command and Commander, 
        U.S. Pacific Fleet developed Navy Tactical Task 4.8.5 
        ``Maintain Cultural Awareness,'' committing the fleet to a 
        gradual, but important enhancement of the Navy's awareness of 
        overseas cultures. CLREC is tasked to define the cultural 
        awareness training needed to meet the Mission Essential Task 
        (MET) and to prioritize and tailor development of country and 
        regional studies.
        <bullet> Navy's interest in, and support for, cultural issues 
        led it to volunteer to conduct a DOD-sponsored, Joint Staff-
        led, Regional Expertise and Cultural Awareness Capabilities 
        Based Assessment (REC-CBA) to develop a validated methodology 
        to identify combatant commander REC requirements. Army led an 
        associated Language CBA. The assessments have been completed, 
        and the resultant methodology has been submitted for 
        implementation pending review by the Joint Staff, combatant 
        commands, and Services.

    The Marine Corps separates the needs of its Marines into three 
broad categories, each with distinct cultural and language training 
requirements. These three categories are:

    (1)  Professional Linguists (Intelligence Crypto-linguists and 
Signals Intelligence, and Foreign Area Officers (FAO))
    (2)  Special Forces (those marines assigned to Marine Special 
Operations Command)
    (3)  General Purpose Forces (GPF)

    There are numerous organizations involved in the Marine Corps 
efforts to improve the culture and language skills of our entire 
uniformed force. In May 2005 the Marine Corps opened its Center for 
Advanced Operational Culture Learning (CAOCL) under Training & 
Education Command as the central Marine Corps agency for operational 
culture training and education. CAOCL's mission is to provide regional, 
operational culture and operational language knowledge through 
training, education, research and mentorship so that Marines and Marine 
units can plan and operate effectively in the joint expeditionary 
environment, anywhere in the world.
    While CAOCL is primarily focused on the GPF, there are other Marine 
Corps organizations and institutions that provide culture and language 
training and education for Marines. Intelligence Department manages the 
professional linguist community within the intelligence MOSs and those 
Marines selected for attache duty. The Deputy Commandant for Plans, 
Policies and Operations (PP&O) manages the International Affairs 
Officer Program, which includes our FAOs and Regional Affairs Officers 
(RAO). The Marine Special Operations Command manages the training of 
its Marines with specific language and culture requirements and 
receives support from CAOCL and the Defense Language Institute (DLI).
    The goal of Marine Corps culture and language training and 
education programs is to develop a force of marines that have the 
operational culture and language skills needed to quickly and 
accurately comprehend, then appropriately and effectively operate, in 
any complex environment to achieve the desired outcomes. CAOCL, through 
its direct programs and in concert with other Marine Corps and joint 
institutions, ensures that our marines have the right culture and 
language skills to perform both warfighting and non-warfighting 
functions anywhere in the world.
    The Marine Corps is:

        <bullet> Enhancing USMC capacity to meet the culture, regional 
        studies, and language needs of the GPF across the career 
        continuum, from accession until retirement, and in all 
        operating environments across the range of military operations 
        by working across the Marine Corps training and education 
        establishment. Our enduring effort to train and educate our 
        marines is encapsulated in the Marine Corps Regional, Culture, 
        and Language Familiarization (RCLF) Program. Throughout the 
        program all career marines will study a specific strategic 
        region and corresponding language, while deepening their 
        ability to operate across all cultures. Providing operational 
        culture and language familiarization training to units 
        throughout the predeployment training program (PTP).
Operation Iraqi Freedom (OIF)/Operation Enduring Freedom (OEF)
        <bullet> Over the last 3 years, over 68,000 deploying marines 
        received training in the country-specific operational culture 
        of Iraq or Afghanistan.
        <bullet> Over the same 3 year period, over 16,000 deploying 
        marines were trained in the tactical use of either Iraqi, 
        Pashto or Dari languages.
        <bullet> Building Partner Capacity & Security Force 
        Assistance--Providing country-specific cultural training and 
        robust, mission focused language training to support the 
        deployment of Marines to carry out Security Force Assistance, 
        Security Cooperation, Security Assistance, Civil Affairs, Civil 
        Military Operations, Transition and Advisor team missions.
        <bullet> Coordinating and synchronizing efforts within DOD and 
        the Interagency to leverage culture and language resources and 
        minimize duplication of effort.
        <bullet> Expanding USMC research capacity and outreach to the 
        broader U.S. Government, academic, nongovernmental, and 
        international communities to increase our training and 
        education capabilities.
        <bullet> Formalizing and institutionalizing culture and 
        language training standards in a Training & Readiness Manual, 
        eventually being a readiness reportable item for commanders.
        <bullet> Creating a cultural mentorship program to provide high 
        quality heritage subject matter experts (SMEs) as operational 
        support to senior level MAGTF Commanders, both at home station 
        prior to deployment, and then while forward deployed. This 
        capability embeds cultural SMEs within the headquarters 
        elements to assist commanders and senior staff with mature 
        counsel when facing operational decisions that are effected by 
        culture considerations.
        <bullet> Fielding Language Learning Resource Centers at major 
        Marine Corps bases and stations that facilitate focused 
        language instruction in support of PTP and the RCLF Program.
        <bullet> Providing a number of computer-based language training 
        programs such as Defense Language Institute's (DLI) Head Start, 
        Rosetta Stone and Transparent Languages' CL-150. These and 
        other government procured software available to Marines for 
        self-paced study. Over 31 languages are currently offered.
        <bullet> Responsive to General McChrystal's desire to improve 
        the language skills of senior commanders to enhance Key Leader 
        Engagements (KLEs), the Marine Corps created an Incidental 
        Language Training Program for commanders. This program better 
        prepares commanders to conduct key leader engagements while 
        deployed in support of OEF.
        <bullet> In close coordination and partnership with the Navy 
        Staff, the Marine Corps actively participated in the DOD-
        sponsored, Joint Staff-led, REC-CBA to develop a validated 
        methodology to identify combatant commander REC requirements.
        <bullet> The Marine Corps is creating an interdisciplinary 
        research capacity for USMC to enhance it's understanding of 
        culture and strategic regions and augment existing USMC culture 
        and regional studies training and education efforts in order to 
        ensure operational effectiveness. This capacity is blended with 
        seasoned operational experience to create academically sound 
        and operationally relevant publications and curricula.

          educating sailors and marines in financial literacy
    3. Senator Akaka. Secretary Mabus, it is vitally important that our 
citizens, both in and out of uniform, understand the importance of 
saving, debt reduction, planning for retirement, and understanding 
investments. It is also important that our troops be protected from 
predatory practices of some companies that specifically target them. 
Can you tell me what the Navy and Marine Corps are doing to educate 
their members on the importance of financial literacy?
    Secretary Mabus. The Navy and Marine Corps offer personal financial 
management services to sailors and marines and their families to ensure 
they have the knowledge, skills, and tools necessary to successfully 
manage their personal finances. These services are provided by 
certified financial counselors at Navy and Marine Corps installations 
worldwide and include the following:

        <bullet> Individual assistance to help foster financial 
        responsibility and accountability with primary emphasis on 
        financial independence, sound money management, debt avoidance, 
        and long-term financial stability to increase personal, family 
        and operational readiness.
        <bullet> Education forums specifically designed to stimulate 
        changes in personal financial behavior at key career intervals, 
        including recruit training, initial skills training, Petty 
        Officer indoctrination, first-term and mid-career career 
        exploration workshops, Transition Assistance Program, and pre-
        retirement seminars, with appropriate financial topics at each 
        lifestyle milestone.
        <bullet> The Navy launched ``Million Dollar Sailor,'' a 
        standardized wealth-building program, in February 2009 as a 
        means of teaching sailors how to develop positive financial 
        habits, how to be savvy consumers, and how to save and invest 
        to become future million dollar sailors. Navy Fleet and Family 
        Support Centers offer the program fleetwide.
        <bullet> Navy and Marine Corps Personal Financial Management 
        Program specialists work collaboratively with installation 
        Command Financial Specialists, on-installation banks and credit 
        unions, and DOD financial readiness partners to provide 
        information on financial planning and budgeting, credit and 
        debt management, military retirement plans, Thrift Savings 
        Plans, home and car purchases, insurance, investment 
        strategies, deployment cycle financial impacts, predatory 
        lending, and personal banking.
        <bullet> Both the Navy and Marine Corps participate in the 
        ``Military Saves'' campaign, a DOD programs designed to 
        encourage military families to improve personal financial 
        savings.

                      jinkanpo atsugi incinerator
    4. Senator Akaka. Secretary Mabus, the Jinkanpo Atsugi Incinerator 
was a waste incinerator located near Naval Air Facility (NAF) Atsugi, a 
base manned partly by several thousand U.S. Navy members and their 
families. The incinerator, which closed in 2001, emitted harmful toxins 
into the air that spread to surrounding areas. NAF Atsugi's proximity 
to the incinerator potentially exposed its residents to these harmful 
toxins. Can you please explain what the Department of the Navy has done 
to identify and notify persons who have potentially been exposed?
    Secretary Mabus. In April 1998, at the direction of Assistant 
Secretary of the Navy for Manpower and Reserve Affairs (ASN(M&RA)), 
Navy Environmental Health Center developed a comprehensive risk 
communication and health consultation program. This was coordinated 
with the Bureau of Medicine and Surgery, NAF Atsugi, Branch Medical 
Clinic Atsugi, Commander Naval Forces Japan, Bureau of Naval Personnel 
and Commander in Chief, U.S. Pacific Fleet. The plan established 
procedures for providing formal risk communication to personnel aboard 
NAF Atsugi or who subsequently received orders to Atsugi.
    One-on-one health consultations were conducted for all adults who 
remained on station for more than 6 years, all adults who had children 
under the age of six, those with chronic respiratory conditions and 
pregnant or nursing women. Six years was chosen because the cancer risk 
for adults residing at NAF Atsugi for 6 years was at a level of 1 in 
10,000 above the current rate of cancer in the U.S. population. This 
risk level falls at the upper end of the Environmental Protection 
Agencies' acceptable cancer risk range. A standard entry was made in 
medical records that described potential exposure conditions at NAF 
Atsugi.
    The program required that orders assigning personnel to Atsugi 
include a statement regarding the air quality issue and referring 
members to medical and base points of contact for further information. 
Overseas medical screeners were required to discuss the health risks 
and provide a focused health consultation for individuals with orders 
to NAF Atsugi, and to provide a fact sheet addressing potential risks 
of living and working at NAF Atsugi. A phased approach was established 
to inform individuals of potential risks to adults and children living 
or working at NAF Atsugi.
    A Health and Environmental Risk Communication Plan addressed the 
means for providing information to the community (e.g., base newspaper 
articles, public availability sessions, fact sheets, web sites, library 
repositories).
    Several different medical record forms were used at NAF Atsugi to 
respond to concerns from NAF Atsugi military personnel and their 
families about medical documentation and full disclosure of their 
potential exposure and possible health effects. All forms were placed 
in personnel and family permanent health records. Branch Medical Clinic 
Atsugi, with Bureau of Medicine and Surgery's approval, developed a 
medical record form that listed the maximum sampling concentrations 
measured in 1994 for 12 chemicals exceeding U.S. Environmental 
Protection Agency (EPA) or New York State ambient air quality standards 
during the air quality study. These chemicals included: sulfur dioxide, 
nitrogen dioxide, hydrochloric acid, carbon tetrachloride, benzene, 
dioxins, cadmium, mercury, nickel, chromium, arsenic and respirable 
particulates. (http://www-nmcphc.med.navy.mil/downloads/ep/Atsugi/
Appendix--A--appendices.pdf). Cancer risks were also provided on this 
form. Beginning March 1, 1996, this form was inserted into the medical 
records of all individuals who requested the documentation.
    During health risk communication and consultation at NAF Atsugi, 
which began in June 1998, a revised form was completed for every 
individual at NAF Atsugi and those with orders to NAF Atsugi. This new 
form documented full disclosure of potential exposures and possible 
health effects, related to environmental conditions, for each military 
member and family member based upon their medical history. The new form 
was signed by each adult family member (18 years and older) to 
acknowledge receipt of risk communication. The sponsor or spouse signed 
the new form for children under the age of 18. Additionally, all 
servicemembers and family members over the age of 17 indicated that 
they received a risk communication briefing by signing an 
``Administrative Remarks NAVPERS 1070/613 (Rev. 10-81),'' commonly 
referred to as a ``Page 13'' entry, to be retained in the member's 
military record. Prior to detachment from NAF Atsugi, another medical 
form was completed to document arrival and departure dates, locations 
of residence, schools attended and employment, while assigned to NAF 
Atsugi.

    5. Senator Akaka. Secretary Mabus, is there a current registry of 
those exposed to environmental toxins at NAF Atsugi? If not, why?
    Secretary Mabus. The Navy has assembled a comprehensive database of 
personnel and their families stationed at NAF Atsugi during the 
timeframe the Shinkampo Incinerator Complex was in operation. The Navy 
Marine Corps Public Health Center in Norfolk, VA, maintains the 
database.

       number of navy personnel on ships off the coast of vietnam
    6. Senator Akaka. Secretary Mabus, a frequently cited estimate is 
that around 800,000 personnel served on ships located off the coast of 
Vietnam during the Vietnam war. Is this an accurate number? If not, 
what is the Navy's accurate estimate of the number of Navy personnel 
who served on ships located off the coast of Vietnam during the Vietnam 
war?
    Secretary Mabus. The Navy does not hold records that would readily 
allow for an assessment of the accuracy of the estimate that 800,000 
sailors served in ships located off the waters adjacent to Vietnam or 
provide the basis for an official Navy estimate. A rough estimate could 
be based upon the standard complement of crew for those ships that 
sailed within a particular proximity to the Vietnamese coast. The 
creation of such a list of Navy ships would require a compilation of 
those ships that earned the Armed Forces Expeditionary Medal for 
Vietnam or the Vietnam Service Medal followed by research into their 
deck logs to determine whether those vessels sailed within a defined 
area off the coast of Vietnam. A more precise figure would entail 
extremely detailed and extensive research into Navy personnel records.

                         ships' past locations
    7. Senator Akaka. Secretary Mabus, keeping track of a ship's 
locations during its lifetime is an important operational and historic 
function. Does the Navy keep track of where its current and past ships 
have sailed?
    Secretary Mabus. The deck logs submitted by Navy ships allow for a 
detailed accounting of an individual vessel's movements. However, no 
comprehensive resource or record exists that provides a list of all 
Navy ships that sailed within a defined area during a particular time 
period.

    8. Senator Akaka. Secretary Mabus, is such information readily 
available? If not, how long would it take to compile such information?
    Secretary Mabus. A single listing of all Navy ship locations is not 
readily available. A list of ships that sailed within a particular 
proximity to the Vietnamese coast could be compiled by creating a list 
of Navy ships that earned the Armed Forces Expeditionary Medal for 
Vietnam or the Vietnam Service Medal followed by researching those 
ship's deck logs to determine whether they sailed within a defined area 
off the coast of Vietnam. It is difficult to accurately estimate the 
time necessary to complete such a list; however, it would require an 
exceptional level of detailed and extensive research.

    9. Senator Akaka. Secretary Mabus, can you provide the names of 
ships that were located off the coast of Vietnam during the Vietnam 
war?
    Secretary Mabus. The Navy does not hold readily available records 
that would provide that information. A list of ships that sailed within 
a particular proximity to the Vietnamese coast could be compiled by 
creating a list of Navy ships that earned the Armed Forces 
Expeditionary Medal for Vietnam or the Vietnam Service Medal followed 
by researching those ship's deck logs to determine whether they sailed 
within a defined area off the coast of Vietnam. It is difficult to 
accurately estimate the time necessary to complete such a list; 
however, it would require an exceptional level of detailed and 
extensive research.

              contaminated drinking water at camp lejeune
    10. Senator Akaka. Secretary Mabus, many military personnel and 
their family members who were stationed at Camp Lejeune from the late 
1950s through the late 1980s may have been exposed to contaminated 
drinking water. The chemicals contained in the contaminated drinking 
water are known toxins that have adverse health effects on humans. 
Military personnel and their family members who may have been exposed 
to the contaminated drinking water may have lost confidence in DOD's 
and the Department of the Navy's ability to provide adequate, 
appropriate, and needed health care that will result from exposure to 
contaminated water at Camp Lejeune. What are DOD and the Department of 
the Navy doing to identify personnel and family members who may have 
been exposed to contaminated drinking water?
    Secretary Mabus. The Department of Navy continues to reach out to 
our marines, sailors, and civilians who worked or lived aboard Camp 
Lejeune regarding potential exposure to drinking water contamination 
prior to 1987. In September 2007, we launched a Notification Registry 
which can be accessed via the internet or a toll-free phone line. The 
registry was created so that former Camp Lejeune residents, workers, as 
well as other interested parties can input their contact information so 
that we may notify them and send them up-to-date information regarding 
this important issue. We have used information from our personnel 
records as well as print and radio advertising to solicit individuals 
to register. To date, we have sent out over 200,000 direct 
notifications and registered more than 155,000 individuals. The 
registry can be accessed on the Camp Lejeune Water Study Website at 
http://www.marines.mil/clwater or via the toll-free hotline at (877) 
261-9782.
    In addition to individual notifications, the Marine Corps continues 
to use general notification tools (print and other media as well as 
targeted outreach to VA centers and retirees) to reach former base 
residents and workers to encourage them to register. General 
notification will also be used to announce the completion of the 
ongoing health study initiatives. The Marine Corps will keep 
Congressional Members updated on our notification progress.
    The Department of the Navy relies on science organizations like the 
Agency for Toxic Substances and Disease Registry (ATSDR) and the 
National Academy of Sciences to inform us on scientific matters through 
their research initiatives. Currently, no association between adverse 
health outcomes and exposure to impacted water at Camp Lejeune has been 
demonstrated.

    11. Senator Akaka. Secretary Mabus, what is the estimated number of 
personnel and family members who may have been exposed to contaminated 
drinking water?
    Secretary Mabus. Detailed data for servicemembers and family 
members who lived or worked on Camp Lejeune between 1957 and 1987 do 
not exist. The Marine Corps can only make estimations using assumptions 
that will likely produce conservatively high estimations. We estimate 
that stationed at Camp Lejeune between 1957 and 1987 there were:

    <bullet>  As many as 630,000 servicemembers.
    <bullet>  As many as 60,000 spouses.
    <bullet>  As many as 60,000 dependent children.
    <bullet>  As many as 30,000 births.
    <bullet>  Total population estimate = 500,000-800,000

    Note: Data from the Defense Manpower Data Center, Camp Lejeune 
housing, Camp Lejeune schools, and ATSDR studies were used to produce 
these estimates. These estimates do not include Marine Corps Air 
Station New River.
    Patient care and Federal benefits for veterans and their dependents 
are primarily a function of the Department of Veterans Affairs and not 
a function of DOD or the Department of the Navy. Questions about 
provision of patient care or Federal benefits as a result of or related 
to exposure to impacted water should be directed to the Department of 
Veterans Affairs.

    12. Senator Akaka. Secretary Mabus, what are DOD and the Department 
of the Navy doing to address the valid and pointed concerns of 
veterans, military personnel, and their family members?
    Secretary Mabus. The Department of the Navy cares deeply about 
current and former marines, sailors, civilian workers, and their 
families. We believe the best way to assist them is to continue our 
support of the research initiatives underway. This includes studies and 
surveys being undertaken by the ATSDR. Additionally, a scientific/
medical literature review was conducted by the National Academies' 
National Research Council and was released on 13 June 2009. Our hope is 
that these efforts will help answer the many questions we all have 
regarding exposure to the impacted water at Camp Lejeune, NC.
    Furthermore, the Department of Navy and the Marine Corp is 
proactively engaged in outreach to marines, sailors, and civilians who 
worked or lived aboard Camp Lejeune prior to 1987. In September 2007, 
we launched a Notification Registry that can be accessed via the 
internet or a toll-free phone line to collect contact information of 
former Camp Lejeune residents, workers, and other interested parties 
who wish to receive information updates on this important issue. To 
date, we have sent out over 200,000 direct notifications and registered 
more than 155,000 individuals. The registry can be accessed on the Camp 
Lejeune Water Study Website at http://www.marines.mil/clwater or via 
the toll-free hotline at (877) 261-9782.
    The Marine Corps also continues to use general notification tools 
such as print and other media as well as targeted outreach to VA 
centers and retirees to reach former base residents and workers to 
encourage them to register. General notification will also be used to 
announce the completion of the ongoing health study initiatives.

                        chinese naval activities
    13. Senator Akaka. Admiral Roughead, China's economic growth has 
led it to import large amounts of raw materials, much of which comes by 
sea. There is speculation that China is considering establishing 
overseas naval bases to protect these supply lines. The idea of Chinese 
bases abroad, particularly in the Indian Ocean, immediately raises 
concerns that China is growing more active and assertive in its naval 
activities. What are your thoughts on whether or not the Navy has the 
capacity and capabilities to address this developing scenario?
    Admiral Roughead. Our Navy today has the capacity and capabilities 
to protect U.S. national interests in the Western Pacific and Indian 
Ocean. I am committed to maintaining the necessary forward presence of 
ships and aircraft in the Western Pacific and Indian Ocean, with 
credible combat power, to assure our allies and friends, deter 
aggression, and build partnerships with nations that share our common 
interests.
    As I have stated before, we require a minimum of 313 ships to meet 
and sustain combatant commanders' warfighting and forward presence 
demands globally, while providing reasonable operational tempo for our 
sailors and their families and conducting the maintenance necessary to 
reach the expected service life of our fleet. Our 30-Year Shipbuilding 
Plan grows our fleet capacity in the near term, which will enable our 
continued, relevant presence in the Western Pacific and Indian Ocean 
region to support our national interests and counter both current and 
future naval threats.

                    care for wounded servicemembers
    14. Senator Akaka. Admiral Roughead and General Conway, I'm 
encouraged with the additional funding in the defense budget for 
wounded warrior care. The Navy Safe Harbor Program and the Marine Corps 
Wounded Warrior Regiment show the continued commitment to our 
servicemembers that we will take care of them and their families. How 
would you each assess the approach within your respective Services to 
care for our wounded, ill, and injured servicemembers and their 
families?
    Admiral Roughead. I am confident that we are extending the highest 
quality care to our wounded, ill and injured sailors, coast guardsmen, 
and their families. Our Navy provides a continuum of care to sailors 
and their families that addresses all aspects of medical, physical, and 
psychological care. Through our Navy Safe Harbor program, recovery care 
coordinators provide oversight of, and assistance with, delivery of 
care to recovering servicemembers and families who move between DOD, 
Veterans Affairs, and civilian facilities. Direct family member 
feedback and survey results indicate high enrollee satisfaction with 
the program.
    General Conway. The Marine Corps' approach to caring for its 
wounded, ill, and injured Marines and their families is solid and 
robust. The foundation of its approach is compassionate and concerned 
leadership that focuses its marines on their abilities and stresses 
that they are still in the fight as they continue to contribute to the 
mission of defending our Nation. With this foundation and 
encouragement, the Marine Corps' Wounded Warrior Regiment provides a 
wide range of nonmedical care ranging from family support and mental 
health treatment coordination to financial security counseling and 
employment transition assistance. The intent of our efforts is to 
support a Marine's return to a full duty status or provide them with 
the support resources they need to successfully reintegrate to their 
communities. The Wounded Warrior Regiment continually assesses its 
approach through personal feedback from Marines and their families 
during command visits (including General Officer visits with our 
wounded, ill, and injured marines and families), town hall meetings and 
surveys. The Regiment reaches out to active duty, Reserve and veteran 
marines and their families through the Sergeant Merlin German Call 
Center, a recognized DOD ``Best Practice'' model. The call center, 
named for a Marine who died from injuries suffered in Iraq, receives 
requests for assistance and places outgoing calls to wounded, ill and 
injured Marines to touch base with them and offer help. The call center 
adds depth to our approach and reminds our Marines and their families 
that they will always have a place to go for help.

                             cyber threats
    15. Senator Akaka. Admiral Roughead and General Conway, our 
National security is tightly linked to cyberspace, where conflict is 
not limited by geography or time. The expanding use of cyberspace 
places our Nation's interests at greater risk from cyber threats and 
vulnerabilities. How are the Navy and Marine Corps responding to cyber 
threats so that it can carry out its mission?
    Admiral Roughead. I have elevated the role of information, cyber, 
and networks in our Navy. I established Fleet Cyber Command/U.S. Tenth 
Fleet as the global operator of Navy's cyber, networks, cryptology/
signals intelligence, information, electronic warfare, and space 
operations. I restructured the Navy staff to bring all Navy information 
capabilities and resources under our new Information Dominance Deputy 
Chief of Naval Operations and I created the Navy Information Dominance 
Corps, integrating more than 45,000 sailors and civilians from our 
existing intelligence, information professional, information warfare, 
meteorology/oceanography, and space communities. These actions have 
improved Navy's ability to ensure the availability, integrity, 
confidentiality, and security of our information and warfighting 
systems.
    Additionally, the Navy has developed the Prometheus system, a 
unique network defense capability that receives, processes, aggregates, 
correlates, and fuses real-time and near real-time information from 
multiple network sources to provide Network Domain Awareness (NDA). 
This capability, supported by SIGINT and a Dynamic Network Defense 
operational construct, provides the Navy with an exceptional ability to 
develop a deep understanding of the network environment, to rapidly 
characterize network activity and enable a preemptive response to 
global threats in support of our warfighting missions.
    General Conway. [Deleted.]

                       shipyard budget shortfall
    16. Senator Akaka. Admiral Roughead, to ensure mission success, the 
Navy must have shipyards that are modern, flexible, and safe. The 
Navy's public shipyards play a vital role in keeping the fleet 
operating to meet the significant challenges posed all around the 
world. In June 2009, the Navy reported a shortfall of $1.3 billion in 
sustainment, restoration, and modernization (SRM) projects at its four 
public shipyards. How is this shortfall affecting current and future 
Navy readiness, and how is the Navy addressing this situation??
    Admiral Roughead. Our public shipyards are fully functional and 
safely meeting their Fleet mission requirements. Our $3 billion naval 
shipyard restoration and modernization (RM) backlog represents the 
investment required to meet the very highest level of shipyard RM 
needs. Our Navy has steadily increased its investment in naval shipyard 
recapitalization over the past several years through Operation and 
Maintenance, Navy and Military Construction (MILCON) projects, and we 
are developing future investment plans to reduce the RM backlog and 
ensure that our public shipyards continue to meet their mission 
requirements.

                           mental health care
    17. Senator Akaka. General Conway, the Marine Corps has made 
significant progress in caring for our military heroes with mental 
health issues. But, before we can care for them, we must first identify 
them. One of the biggest issues we must address is reducing the stigma 
related to seeking counseling. Last summer, DOD launched the Real 
Warriors campaign, a public education effort designed to reduce stigma. 
It is imperative to get the message to our warriors that it would be 
courageous to reach out for help. How would you assess the Marine 
Corps' continuing efforts to tear down the stigma that still deters 
many from seeking treatment for problems such as traumatic brain injury 
(TBI) and post-traumatic stress disorder (PTSD), and what more do we 
need to do as we move forward?
    General Conway. First of all I would like to state that the U.S. 
culture in general faces issues of stigma surrounding mental health 
problems and care. The Marine Corps is no different in this regard, but 
as an institution we understand that we have responsibilities and 
options in tackling stigma reduction that are not present in the 
civilian world.
    The Marine Corps' approach to ensuring that all marines who need 
help with Traumatic Brain Injury and Operational Stress issues is 
focused in three major areas: strategic communications, engaged 
leadership and ``meeting the Marine where he/she is.''
    I expect all of my leaders, officer and enlisted, to treat a marine 
with a TBI or TSI (Traumatic Stress Injury) in the same way they 
approach other injuries with the provision of command support during 
the treatment process with an expectation of improvement/resolution and 
a return to full duty. I broadcast this message whenever I meet with 
groups of Marines, which I do quite frequently. In addition, I have 
filmed a specific message on this subject in which I directly address 
the need for Marines to stay mentally as well as physically fit and 
that getting the help they need is part of being a marine. This video 
has been distributed throughout the Marine Corps and the informal 
feedback I have received has been very positive.
    The key weapon in the Marine Corps in addressing a wide range of 
issues related to earlier detection of Marines having difficulties is 
Engaged Leadership. No one is better positioned to notice a Marine 
``not being quite right'' for any reason than the Marines that he or 
she serves with everyday. I rely on my leaders at all levels to know 
their Marines and intervene early when things seem to be veering off 
course. Our Combat Operational Stress Control (COSC) model as well as 
our ethos as warriors makes leadership the front line in noticing 
marines having a problem. That having been said, we also have a variety 
of formal tools and processes that aid us in detecting TBI and TSI 
problems. The Post-Deployment Health Assessment and Post-Deployment 
Health Reassessment are requirements for all marines to complete and 
represent real opportunities for these conditions to be detected. 
Similarly, the Pre-Deployment process that involves a structured review 
of a Marine's health status prior to deployment provides another 
opportunity to discover a previously unknown medical issue. 
Additionally, we are working with the other Services and the Office of 
the Secretary on the implementation of the ``person to person'' post 
deployment mental health evaluations that are now required as a result 
of the NDAA 2010. We expect that there will be some questions related 
to TBI as well as Traumatic Stress incorporated into these evaluations. 
All of these efforts serve to ``normalize'' having a discussion about 
psychological health and TBI and this normalization is a key element in 
our drive to reduce the stigma sometimes associated with these issues.
    Finally, while I would like all Marines to feel comfortable coming 
forward to discuss their concerns about a TBI or TSI, for some this is 
still difficult to do. As such, the Marine Corps has developed ways 
that make it easier for marines to at least start these conversations. 
Working with Navy Medicine we have assigned additional psychological 
health professionals to operational units via the OSCAR initiative. 
With OSCAR these professionals are part of a Marine unit. They train 
with them before a deployment, return home with them and importantly 
remain with the unit after returning. While I wish there were enough 
psychological health personnel to put one of these teams with every 
battalion that is just not the reality of the situation. To meet the 
psychological health needs of all marines we have also instituted the 
OSCAR extender training program that provides a comprehensive 
curriculum to organic battalion level providers, typically general 
medical officers and general duty corpsmen, as well as leaders 
throughout the unit. With these initiatives, Marines have a very high 
likelihood of having a known and trusted agent with additional 
psychological health training working close by and thus reducing a 
potential barrier to that critical first discussion.
    The Marine Corps is not in this alone of course. We publicize and 
support DOD efforts to provide other avenues for warriors, and their 
families, to access assistance without necessarily involving the chain 
of command. One prime example of this would be the ``Military 
OneSource'' hotline. While I know that my leaders, officer and 
enlisted, would prefer to be viewed by their Marines as accessible and 
the ``go to person'' for a Marine having any difficulty, having some of 
these other tools available that are outside the traditional chain of 
command will continue to be valuable for the foreseeable future.
    In summary, the Marine Corps recognizes that stigma is one of 
several potential barriers to marines seeking the care they need and 
deserve. We are addressing these barriers in a proactive way and the 
message I am receiving is that these efforts are making a difference. I 
sense this difference whenever I gather with a group of marines. We 
still have more to do in this area, but I am optimistic that we are on 
the right path on these issues and I will continue to pursue them with 
vigor for the remainder of my time as Commandant.
                                 ______
                                 
                Questions Submitted by Senator Kay Hagan
                   joint lightweight tactical vehicle
    18. Senator Hagan. General Conway, reportedly, the Marine Corps is 
considering removing itself from the Joint Lightweight Tactical Vehicle 
(JLTV) program because the vehicle's weight does not lend itself to 
Marine Corps expeditionary operations. JLTV prototypes do not seem to 
meet the Marine Corps' requirements in terms of improvised explosive 
device resistance, weight, survivability, and mobility. The Marine 
Corps is also concerned that the JLTV prototypes are too heavy to be 
transported by helicopter and ships. Please describe additional 
concerns the Marine Corps has with the JLTV program.
    General Conway. Our team updating the ground vehicle strategy has 
taken a hard look at capabilities and capacities needed by the MAGTF. 
That work has underlined the critical need for about 5,000 light combat 
support vehicles that provide the payload and mobility of the original 
HMMWV, with all the protection we can get in an expeditionary (aka 
fully transportable and maneuverable) vehicle. We are working hard to 
ensure that those 5,000 vehicles that replace the current ECV and M-ATV 
are substantially lighter than the M-ATV, and substantially more 
protected than the ECV, but at a reasonable cost.
    We are finding it challenging to develop a vehicle with 
expeditionary qualities in an ACAT I program with all services. Over 
the past 15 years we've worked successfully with the Army in building 
smaller quantities of vehicles that are fully suitable to our 
expeditionary needs. The Medium Tactical Truck Replacement is an 
excellent example--probably the best medium tactical truck in the 
world, built in relatively small quantities for the Marine Corps, 
supported by TARDEC as appropriate.

    19. Senator Hagan. General Conway, can you also describe some of 
the interim solutions the Marine Corps has looked at?
    General Conway. The Small Combat Tactical Vehicle Capsule (SCTVC) 
is a lightweight highly protected system currently under development as 
a part of experimentation activities at the Marine Corps Warfighting 
Laboratory (MCWL). This vehicle would replace existing 2- and 4-door 
vehicle cabins of the HMMWV Expanded Capacity Vehicle (ECV) fleet with 
a protected capsule, incorporating best practices survivability design 
concepts such as v-shaped blast-deflecting hull forms. If SCTVC 
experimentation activities continue to produce positive results, an 
SCTVC-like capsule recapitalization, along with other needed upgrades, 
could be used by the Marine Corps as a low-cost recapitalization 
``bridge'' to JLTV-level capabilities.

    recapitalization of high mobility multi-purpose wheeled vehicles
    20. Senator Hagan. General Conway, reportedly, the Marine Corps is 
in the process of determining whether to recapitalize and reset its 
existing Humvees, or design an interim vehicle with a v-shaped hull 
outside the auspices of the JLTV program. I understand the Marine Corps 
is testing a blast capsule that goes over a Humvee chassis as a 
probable solution to meet the Marine Corps' requirements to 
recapitalize Humvees. Please provide an update on this initiative.
    General Conway. The SCTVC is a lightweight highly protected system 
currently under development as a part of experimentation activities at 
the MCWL. It is built by Granite Tactical Vehicles Inc. SCTVC replaces 
the existing 2- and 4-door vehicle cabins of the existing HMMWV ECV 
fleet with a protected capsule, incorporating MRAP/JLTV survivability 
design concepts such as v-shaped blast-deflecting hull forms and a lift 
to increase standoff.
Key Points
        <bullet> HMMWVs will be in the Marine Corps' inventory through 
        2020. The existing HMMWV ECV is constructed from aluminum and 
        then outfitted with a series of often heavy fragmentation kits. 
        These kits add significant weight, stressing the payload and 
        mobility capabilities of the vehicle.
        <bullet> The SCTVC capsule increases protection levels while 
        not increasing the overall weight of the vehicle. Outside of 
        the capsule, SCTVC retains the characteristics and components 
        of the existing HMMWV. Other recapitalization improvements, 
        such as engine, suspension, and chassis upgrades, could also be 
        implemented if SCTVC experimentation continues to demonstrate 
        an effective capability.
        <bullet> MCCDC and MCWL are closely monitoring SCTVC 
        performance. SCTVC is being considered in the Joint Light 
        Tactical Vehicle (JLTV) Analysis of Alternatives as a ``product 
        improvement'' option for cost benefit comparisons.
        <bullet> If SCTVC experimentation activities continue to 
        produce positive results, an SCTVC-like capsule 
        recapitalization, along with other needed upgrades, could be 
        used by the Marine Corps as a low-cost recapitalization 
        ``bridge'' to JLTV-level capabilities. SCTVC is not a 
        replacement to MRAP or MATV.
        <bullet> We have conducted blast and ballistic testing at 
        Aberdeen Proving Grounds with successful results. We are 
        currently building three more test articles to evaluate basic 
        safety and drivability, to include driveline overheating from 
        the enclosed drivetrain.
Plan Of Action and Milestones
        <bullet> Oct-Nov 2009: Blast and Ballistic testing conducted at 
        Aberdeen Proving Grounds
        <bullet> Jan-Mar 2010: Building of three additional test 
        articles for safety and drivability assessment.
        <bullet> April 2010: Safety and drivability assessment at 
        Aberdeen Proving Grounds
        <bullet> May 2010: Report submitted to MCCDC and MCSC on the 
        overall effectiveness of the SCTVC concept demonstrator

       acquisition of combat vehicles and recapitalization needs
    21. Senator Hagan. General Conway, within your prepared testimony 
you commented on the fact that the distributed nature of today's 
conflicts have revealed that the Marine Corps' legacy table of 
equipment was significantly inadequate. You have also addressed the 
requirement to replace aging equipment due to the fact that the wear 
and tear generated by the extreme conditions in Iraq and Afghanistan 
has reduced the service life of major end items. Understanding that the 
Marine Corps' ground vehicle equipment set has grown heavier based upon 
the demands of the current conflicts, does the Marine Corps believe 
that the mix of combat vehicle programs that are currently in the 
acquisition pipeline will sufficiently address its recapitalization 
needs, and if not, what specific requirements does the Marine Corps 
still need to address in order to meet its operational requirements?
    General Conway. As we update our vehicle strategy to meet current 
and future operating environments, we're finding the needed vehicle 
capabilities are already documented in the three major programs being 
pursued by the Marine Corps, EFV, MPC and JLTV. While the requirements 
are sound, we're finding it takes longer than we'd like to get those 
capabilities, with expeditionary qualities, built and fielded. Two of 
our newer legacy systems, the LVSR, MTVR are superb vehicles, but they 
are in fact being aged at an accelerated rate, along with the venerable 
LAVs, and a host of legacy support vehicles. Our vehicle assessment 
included a look at readiness risk in the next 5-10 years, cuing us of 
the need to focus additional R&D on maintenance, reliability and fuel 
efficiency to arrest some of the O&M cost growth we are seeing as the 
average weight of our vehicle fleet grows. We are seeing a direct 
relationship between vehicle weight and vehicle procurement cost, and a 
comparable direct relationship between vehicle procurement cost and 
annual O&M cost. So, for the Marine Corps, efforts to reduce vehicle 
weight have a double return in that they ensure our vehicles have 
expeditionary qualities, and contribute to O&M cost containment. So in 
summary, the Marine Corps will continue our efforts to replace aged 
equipment with new in the near term, and invest in weight and cost 
reduction technologies for the vehicle fleet in the long term

                  realignment of forces in the pacific
    22. Senator Hagan. General Conway, although the United States and 
Japan have agreed to invest in the future realignment of forces in the 
Pacific, there are a number of very real quality of life, capacity, 
encroachment, training access, and operational effectiveness concerns 
that still seem to be unresolved. What impact on training and readiness 
are anticipated based upon your assessment of where we are right now in 
planning for the future realignment of Marine Forces in the Pacific?
    General Conway. If done correctly, the realignment of forces in the 
Pacific could result in improved training and readiness for Marine 
forces at the individual, unit, joint, and coalition level.
    Key to this will be a robust training capability to support marines 
distributed on Okinawa, Guam, and Hawaii. While the ongoing Guam 
relocation Environmental Impact Statement does not address all Marine 
Corps training requirements, those requirements will be addressed by a 
separate Environmental Impact Statement to be initiated by U.S. Pacific 
Command. This second Environmental Impact Statement will address 
longstanding shortfalls in the Pacific to conduct combined-arms, live-
fire, and maneuver training.
    One of the biggest training and readiness advantages that this 
future realignment offers is the basing of Marines on Guam where we can 
conduct training with our allies and partners in the region. This 
allows us to host training without the restrictions often associated 
with deploying to foreign countries, reciprocate training that have 
been hosted by our allies and partners, and build strong and meaningful 
partnerships that improve our ability to respond to contingencies in 
the region.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                      joint strike fighter program
    23. Senator Burris. Secretary Mabus and General Conway, the Joint 
Strike Fighter (JSF) program has been plagued with numerous delays and 
setbacks. If the program continues to be beset with difficulties, at 
what point will your readiness posture be significantly affected?
    Secretary Mabus. As we develop POM-12, any additional delays in the 
JSF program will impact future readiness. While it is difficult to 
define a tipping point per se, we will actively manage our transition 
plan based on the JSF production challenges, growth in capabilities, 
and remaining life on our legacy platforms. The PB11 tactical aviation 
resource submission includes the management initiatives necessary to 
retain our readiness posture while we conduct the transition to the 
JSF. We will consider initiating an F/A-18 SLEP program, and further 
optimize our tactical aircraft depot efficiencies in POM12.
    General Conway. Readiness posture is a factor of many complex 
variables and is monitored closely for the Department. Among those 
variables are aircraft operational use; accidents; resources for depot 
repair; the type of repair required (that cannot always be determined 
until airframes are inspected); the outcome of service life extension 
programs (SLEP); the availability of spare/repair parts; resources 
provided to the Services; etc. As such, a precise date is difficult to 
state or predict at this time. The PB11 tactical aviation resource 
requirements include the management initiatives necessary to retain our 
readiness posture while transitioning to the JSF by increasing the F/A-
18 SLEP program and further optimizing our tactical aircraft depot 
efficiencies. In fiscal year 2010 we will continue to explore other 
mitigation alternatives and refine our management actions to ensure 
readiness as the transition matures.

              integration of reserves into the total force
    24. Senator Burris. Secretary Mabus, Admiral Roughead, and General 
Conway, I applaud the level of integration of the Navy and Marine Corps 
Reserves into the total force structure of the Navy and Marine Corps. 
How would you characterize the success of their integration into the 
overall missions of the Department of the Navy?
    Secretary Mabus. The integration of the Navy and Marine Corps 
Reserve Components (RC) into the Total Force is an absolute success. 
The RC performs missions throughout the full spectrum of operations. 
Their contributions are vital in achieving overall mission success. 
Their training and readiness are exemplary, and when they are called to 
active duty, they are integrated seamlessly and well. They stand 
shoulder to shoulder with our Active component men and women overseas 
at this very moment, and no distinction is made between Active or 
Reserve. They truly are part of one Navy and Marine Corps team.
    Admiral Roughead. We have had extraordinary success integrating our 
Navy reservists into our Total Force. Navy reservists provide half of 
the Navy's shore-based support to Overseas Contingency Operations in 
Central Command and African Command, they participated in recent 
Humanitarian Assistance/Disaster Relief operations in Haiti, and they 
are called upon regularly to support short-term, emergent needs via 
voluntary Active Duty for Special Work and Definite Recall assignments. 
Navy Reserve personnel continually demonstrate their readiness to 
respond to emergent missions across a broad spectrum of military 
operations as an integral part of the Navy Total Force.
    We have improved our processes to better facilitate movement 
between our Active and Reserve Forces. Over the last year, we reduced 
the average time it takes to transition from the Active to Reserve 
component from 30 days to approximately 8 days and we are aggressively 
working to reduce that further, to less than 72 hours. Additionally, 
the efforts of our new Career Transition Office (CTO) have increased 
the number of Active component officers who choose to affiliate with 
the Reserves after they separate from 28 percent to 54 percent. The 
Naval Personnel Command is in the process of expanding CTO operations 
to also encompass transitions for enlisted sailors. We continuously 
review and adjust our policies and practices to allow our Active and 
Reserve sailors seamless transitions between the two components.
    General Conway. The Marine Corps Reserve is a full partner in the 
total force and provides operational capabilities to meet requirements 
across the range of military operations. The extensive contributions of 
the Marine Corps Reserve have reduced deployment requirements for the 
active component, thereby improving the health of the total force. More 
than 54,000 marines from the Selected Reserve and the Inactive Ready 
Reserve have mobilized and deployed in support of Operations Enduring 
Freedom, Iraqi Freedom, or other operational commitments around the 
globe.

    25. Senator Burris. Secretary Mabus, Admiral Roughead, and General 
Conway, do you see a need to ask for more funding to cover the costs of 
full-time manning for the reservists?
    Secretary Mabus. The budget that the Department of the Navy 
submitted will allow us to meet every mission.
    Admiral Roughead. No, the budget as submitted meets our mission 
requirements.
    General Conway. No, we do not see a need to request additional 
funding.

                       wear and tear on the force
    26. Senator Burris. General Conway, for the better part of a 
decade, the Marine Corps has been engaged in sustained ground combat. I 
am concerned about the wear and tear on the equipment your marines need 
to be successful. What potential problems do you see with regard to 
equipment shortfalls and equipment replacement due to sustained 
operations?
    General Conway. To support the requirements in OIF and OEF, the 
Marine Corps has been forced to deplete strategic in-stores equipment 
and redirect equipment, originally slated to return to CONUS as part of 
our reset, from Iraq and send it to Afghanistan. The result is that 65 
percent of our non-deployed units are now in a degraded state of 
readiness, with equipment being the largest contributing factor. 
Equipment shortages negatively impact training and perhaps more 
importantly, the Marine Corps' ability respond to another major global 
contingency. Congress' continued support and investment is needed to 
reset our ground and aviation assets to not only prevail in the current 
fight, but also to ensure we are prepared to overcome future challenges 
to U.S. interests and security.

    27. Senator Burris. General Conway, how has equipment modernization 
been affected due to the sustained operations?
    General Conway. Our modernization effort is not merely a collection 
of programs but a means of aligning the core capabilities of the MAGTF 
across the spectrum of present and future security challenges. All of 
our procurement programs are designed to support the full range of 
military operations. Due to the sustained effort of operations in Iraq 
and Afghanistan, and our focus on the forward deployed warfighter, some 
of our equipment modernization efforts have been delayed, but we 
continuously reevaluate every program to ensure we remain on track to 
meet the future security challenges.

    28. Senator Burris. General Conway, has the Force reached its 
breaking point in terms of stress on your personnel?
    General Conway. Despite the increase in unit deployments and the 
corresponding increase in the deployment tempo of our individual 
marines, the Marine Corps has not observed any indicators of adverse 
impacts, i.e., too much stress, to date. While continued high 
deployment tempo could result in increased attrition, decreased 
retention rates and decreased accessions, the Marine Corps has not 
observed any indicators of these adverse impact to date.
    Although not considered a ``breaking point'', we are also 
monitoring indicators on suicides, sexual assaults, divorce rates, et 
cetera, for signs of increased stress on the force and families. We are 
taking deliberate action in prevention programming, training, and 
leadership engagement. Examples include:

        <bullet> Expanding our program of embedding mental health 
        professionals in operational units--the OSCAR program.
        <bullet> Enhancing suicide prevention capabilities by reducing 
        stigma through senior/peer leadership and effective evocative 
        peer-led training for NCOs.
        <bullet> Redesigning family readiness training with LifeSkills 
        courses that specifically address the challenges of military 
        life in order to increase the resiliency of our marines and 
        their families.

    29. Senator Burris. General Conway, what programs do you have in 
place to address immediate and latent combat stress and mental health 
issues?
    General Conway. Addressing immediate and latent combat stress and 
mental health issues in our marines is a paramount priority and a 
leadership responsibility. The Marine Corps Combat and OSC program has 
two goals: 1. Force preservation and readiness and 2. Long-term health 
and well-being. Currently, Headquarters Marine Corps is implementing 
the OSCAR program. OSCAR extends leadership capabilities and helps 
build strength, resilience, and readiness in Marines. To further assist 
leaders with prevention, rapid identification, and early treatment of 
combat operational stress, we are expanding our program of embedding 
mental health professionals in operational units--the OSCAR program--to 
directly support all Active and Reserve ground combat elements. This 
will be achieved over the next 3 years through realignment of existing 
Navy structure supporting the operating forces, and increases in the 
Navy mental health provider inventory. Currently there are six 
authorized permanent billets, two at each active division. In fiscal 
year 2011, 23 additional permanent billets will be authorized in the 
Active and Reserve divisions. Ultimately, each Active division will 
have three mental health providers, and each regiment will have two. In 
the Reserves, the division will have four providers. OSCAR capability 
is also being extended to all deploying units, but is specifically 
focused and prioritized to support infantry battalions by providing 
additional training to OSCAR Extenders (existing medical providers, 
corpsmen, chaplains, and religious program specialists) to make OSCAR 
expertise immediately available to more marines.

                mine-resistant ambush-protected vehicles
    30. Senator Burris. General Conway, I know that force protection is 
a high priority for our troops deployed in support of operations in 
Iraq and Afghanistan. Have you and General Casey conferred on the 
number of mine-resistant ambush-protected (MRAP) vehicles that are 
required for our overseas operations?
    General Conway. Along with the Joint Staff, the Army and Marine 
Corps have been working very closely together to ensure both Services 
have the right mix of vehicles for overseas operations. The Marine 
Corps has loaned the Army 399 Category I Cougars and reallocated 400 
MaxxPro Dashes for their use in Afghanistan. The Army has reallocated 
25 MaxxPro ambulances and 34 M-ATVs to meet Marine requirements. 
Currently we are completing the coordination to reallocate additional 
vehicles to meet service-specific needs.

    31. Senator Burris. General Conway, which Department has budgeted 
for the MRAP vehicles?
    General Conway. All MRAP funding to date has been received via the 
MRAP Joint Program Office OCO funding requests. It is anticipated that 
OCO funding will decrease with the completion of combat operations, 
thus transitioning sustainment funding responsibilities to the 
individual Services. Although, the Marine Corps has yet to be given an 
official date when the MRAP sustainment costs would transfer we 
anticipate that the Services will be directed to budget for the 
sustainment of MRAPs as Programs of Record in the near future, 
potentially as soon as POM-12.

    32. Senator Burris. General Conway, will MRAP vehicles play a role 
in the modernization of the Marine Corps?
    General Conway. Our plans for use of MRAP vehicles place them in 
our engineer and EOD units, supporting the Route Reconnaissance and 
Clearance, EOD and other engineer support missions. We have added these 
vehicles to our unit equipment lists to ensure adequate planning for 
sustainment of MRAPs, and are currently integrating MRAPs into our MPF 
planning cycles.
    MRAP vehicles and the new MRAP All Terrain Vehicle (M-ATV) will be 
included in the Marine Corps Ground Combat Tactical Vehicle (GCTV) 
Strategy. M-ATVs have the potential to fill the armament carrier 
mission role for the light vehicle fleet.
    The approved course of action proposed that all MRAPs presently 
allocated to the Marine Corps and determined to be in an appropriate 
operational condition will be retained and designated for one of three 
locations. (It is assumed for planning purposes that all 2502 MRAPs 
will remain in serviceable condition upon the completion of 
hostilities. 1218 MRAP/1284 M-ATVs)
    Because none of the MRAP vehicles have the expeditionary qualities, 
mobility or modularity needed by the MAGTF, we continue to be 
aggressive in developing our Program Objective Memorandum to support 
our long-term commitment to balancing our ground vehicles in both 
traditional and irregular warfare, while accepting the MRAP investment 
as a near-term bridge for protected mobility.

                            amphibious fleet
    33. Senator Burris. Secretary Mabus and General Conway, the Navy's 
budget overview states that the 2011 budget provides for a deployable 
force of 284 ships, including 11 aircraft carriers and 29 amphibious 
ships. The Navy has stated that while 38 ships are needed in the 
amphibious fleet to fully meet amphibious lift requirements, 33 ships 
will meet minimal requirements at an acceptable level of risk. If a 33-
ship fleet already presents additional risk, how much extra risk is 
present with the 29-ship fleet supported by the budget?
    Secretary Mabus. The Navy has looked more closely at where it would 
be willing to assume risk for the future and procure only those ships 
which are absolutely necessary in executing the missions for which the 
Navy is solely responsible. In completing this review, the Navy has 
balanced the anticipated risk in the period with the uncertainties of 
the future to achieve the best balance of missions, resources and 
requirements possible. The shipbuilding plan provides a projected 
battle force that balances the level of risk across the fleet; while 
the long-term risk has increased above past assessments, it is 
acceptable for the force.
    The 2.0 Marine Expeditionary Brigade (MEB) lift, which drives the 
33 ship assault echelon requirement, is an amphibious ship combatant 
inventory demand necessary to support forcible entry operations in 
Major Combat Operations (MCO). In any area of operations below that of 
major warfare, augmented Maritime Prepositioning Ships (MPS) Squadrons 
will enhance the afloat prepositioning capacity and will continue to 
support the USMC 2.0 MEB lift requirement by enabling a reinforcing MEB 
to ``marry up'' ashore with its equipment from one of the three MPS 
squadrons.
    The augmented MPS will enable limited seabasing operations by 
introducing three core capabilities: transfer of vehicles and equipment 
between ships at sea, delivery of equipment from over the horizon, and 
sea based sustainment of forces ashore. This will facilitate the 
routine employment of prepositioned equipment in a variety of 
activities across the range of military operations (ROMO) and mitigate 
the impact of lower than desired amphibious ship inventory levels.
    General Conway. The Navy has looked more closely at where it would 
be willing to assume risk for the future and not procure those ships 
which are not absolutely necessary in executing the missions for which 
the Navy is solely responsible. In completing this review, the Navy has 
balanced the anticipated risk in the period with the uncertainties of 
the future to achieve the best balance of missions, resources and 
requirements possible. The shipbuilding plan provides a projected 
battle force that balances the level of risk across the fleet; while 
the long-term risk has increased above past assessments, it is 
acceptable for the force.
    Any additional risk in the amphibious force may be mitigated by the 
Amphibious Lift Enhancement Program (ALEP). The ALEP is a program of 
record developed to mitigate the operational risk of the amphibious 
lift requirement, specifically, the vehicle square footage shortfall. 
ALEP is designed to provide augmentation to forcible entry lift 
capability in response to national emergency.
    The 2.0 Marine Expeditionary Brigade (MEB) lift is an amphibious 
combatant inventory requirement in support of Major Combat Operations 
(MCO). The augmented Maritime Prepositioning Ships (MPS) Squadrons will 
enhance the operational capabilities of afloat prepositioning and will 
continue to support the USMC 2.0 MEB lift requirement by enabling a 
reinforcing MEB to ``marry up'' ashore with its equipment from one of 
the three MPS squadrons.
    The augmented MPS will enable limited seabasing operations by 
introducing three core capabilities: transfer of vehicles and equipment 
between ships at sea, delivery of equipment from over the horizon, and 
sea based sustainment of forces ashore. The augmented MPS will 
facilitate the routine employment of prepositioned equipment in a 
variety of activities across the range of military operations (ROMO).
    Given fiscal constraints, DoN will sustain a minimum of 33 total 
amphibious ships in the Assault Echelon, accepting risk in the arrival 
of combat support and sustainment elements of the MEB. The plan 
maintains an adaptable amphibious landing force of approximately 33 
ships.

    34. Senator Burris. Secretary Mabus and General Conway, what is the 
long-term plan to get to a 33-ship force?
    Secretary Mabus and General Conway. It is anticipated that the 
total number of amphibious ships will be at 33 in fiscal year 2016 
(LHA-7 and LPD-27 are expected to deliver in fiscal year 2016, 
resulting in a force of 8 LHDs and 2 LHAs, 11 LPDs and 12 LSDs).
    Within fiscal constraints, the Department is committed to meeting 
the Marine Corps lift requirements throughout the period of the 30-Year 
Shipbuilding Plan. In fact, the Navy begins procurement of the LSD-41 
class replacement, LSD(X), in fiscal year 2017--roughly 3 years earlier 
than necessary to ameliorate the drop-off in amphibious ship inventory 
that results from the block retirement of the LSD-41 class. By building 
the LSD(X) at a 2-year interval, the Navy will have a total of 11 
LSD(X) in the inventory by about 2043. The objective force will be 
comprised of 11 LPD-17 class ships, 11 LSD(X), and 11 large-deck 
amphibious ships.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                     dod homosexual conduct policy
    35. Senator McCain. Admiral Roughead and General Conway, what are 
your views about the current Don't Ask, Don't Tell (DADT) policy?
    Admiral Roughead. My views are shaped by what is in the best 
interest of the U.S. Navy. At present, we have no empirical data upon 
which to base an assessment of the impact that DADT has had or will 
likely have on military readiness, recruiting, retention, end strength 
or attrition. The comprehensive review directed by Secretary Gates will 
allow us to assess the dynamics and impacts of the current law, as well 
as identify issues and potential impacts of repeal of that law.
    General Conway. I believe that the current policy has worked well 
to carry out the requirements directed upon us by Congress via 10 
U.S.C. Sec. 654.

    36. Senator McCain. Admiral Roughead and General Conway, do you 
support retaining the current policy, or do you believe that the law 
requiring this policy be repealed and a new policy permitting openly 
gay servicemembers to serve in the military be put into effect?
    Admiral Roughead. I believe it is essential to first complete the 
comprehensive review directed by Secretary Gates to fully understand 
all the potential issues and impacts associated with changing this law. 
Since enactment of the law that governs the ``Don't Ask, Don't Tell'' 
policy, we have been able to field ready forces, meet recruiting and 
retention goals, dramatically reduce attrition, and meet our end 
strength objectives. The thorough and objective review ordered by the 
Secretary of Defense will allow us to assess the dynamics and impacts 
of the current law as well as the possible impacts that may be 
associated with repeal or amendment.
    General Conway. The President and Secretary of Defense have given 
us a way forward. We will participate in the year-long assessment that 
the Secretary has directed. Once this study has been completed, we will 
examine the issue based on the information gathered from all sources, 
including marines and their families.
    My primary interest will be on the effect of any change to 
readiness and military combat effectiveness.
    When I am asked for my advice on this matter, I will support the 
way forward that, at a minimum, maintains the current exceptional 
warfighting capabilities of the Marine Corps.

    37. Senator McCain. Admiral Roughead and General Conway, in his 
testimony before this committee a week ago, Admiral Mullen, the 
Chairman of the Joint Chiefs of Staff, indicated that he had worked 
closely with you and the other Chiefs in understanding what your 
concerns are about changing the policy. Do you think that your concerns 
have been heard and listened to?
    Admiral Roughead. Yes. The Chairman has always been receptive to 
hearing my views on this and other matters affecting the U.S. Navy.
    General Conway. The Chairman has always been open and receptive to 
my input on this and other matters impacting the Marine Corps.
    I expect that we will continue to discuss and consult on the study 
and development on the Department's position on any future change to 
the law.

    38. Senator McCain. Admiral Roughead and General Conway, what do 
you view as the purpose of the year-long review that Secretary Gates 
testified about?
    Admiral Roughead. DOD and the Joint Chiefs owe the President and 
Congress an informed assessment of the implications of a repeal of the 
``Don't Ask, Don't Tell'' law. As Secretary Gates has stated, we must 
understand all issues and potential impacts associated with repeal of 
the law and how we would manage implementation of any repeal in such a 
way that minimizes disruption to a force engaged in combat operations 
and other demanding military activities around the globe. The 
comprehensive review will objectively and methodically examine all 
aspects of this issue; specific lines of study will address personnel 
policies, including benefits, base housing, and discipline, as well as 
separation and discharge issues. This study will inform us all on this 
important issue.
    General Conway. As stated in the Terms of Reference, the 
Secretary's review will examine the issues associated with the repeal 
of the law, should it occur, and will include an implementation plan 
that addresses the impact, if any, on the Department.

    39. Senator McCain. Admiral Roughead and General Conway, is the 
year-long review to determine whether the current policy should change, 
or has the decision already been made to repeal the policy in your 
understanding?
    Admiral Roughead. The memorandum from Secretary Gates, accompanying 
the Terms of Reference for the comprehensive review, provides that 
``The Chairman and the Joint Chiefs of Staff and I owe the President an 
assessment of the implications of such a repeal, should it occur.''
    General Conway. As stated in the Terms of Reference, the 
Secretary's review will examine the issues associated with the repeal 
of the law, should it occur, and will include an implementation plan 
that addresses the impact, if any, on the Department.

               high level review of don't ask, don't tell
    40. Senator McCain. Secretary Mabus, Admiral Roughead, and General 
Conway, on February 2, Secretary Gates testified that a high-level 
working group within DOD will review the issues associated with 
properly implementing a repeal of the DADT policy. Part of this review, 
he testified, will be to reach out to authoritatively understand the 
views and attitudes of the force. Please explain what steps the Navy 
and Marine Corps have been asked to take in order to implement the 
President's direction to ``begin the preparations necessary for repeal 
of the current law and policy.''
    Secretary Mabus. The Department of the Navy is participating in the 
comprehensive review ordered by Secretary Gates. The review is designed 
to assess the implications of a repeal and determine how to implement 
any potential change Congress might make to the law. The Department is 
providing participants to the Comprehensive Review Working Group and 
the Executive Committee, comprised of senior service reps--civilian and 
military, as well as administrative staff in support of this review. We 
will continue to support the review which is due to report its findings 
to Secretary Gates by December 1, 2010.
    Admiral Roughead. Navy is fully participating in the comprehensive 
review, and is providing working group participants and administrative 
staff in support of the effort. We will continue to support the review 
which is due to report its findings by December 1, 2010.
    General Conway. The Marine Corps is participating in the DOD 
Working Group to assess the implications of a repeal of 10 U.S.C. 
Sec. 654, should that occur, and develop an implementation plan for any 
new statutory mandate.
    The Marine Corps is providing representation to the Comprehensive 
Review Working Group that will identify the impacts to the force of a 
repeal of 10 U.S.C. Sec. 654 in areas that include military readiness, 
military effectiveness, unit cohesion, recruiting/retention, and family 
readiness, and recommend actions that should be taken in light of such 
impacts.

    41. Senator McCain. Secretary Mabus, Admiral Roughead, and General 
Conway, what difference will it make, if any, in DOD planning if a 
significant proportion--say 50 percent--of servicemembers and their 
family members register objection to a change in the policy?
    Secretary Mabus. Our servicemembers are professional and dedicated, 
and they will execute the direction provided by the chain of command. I 
am confident we will continue to meet mission requirements. We owe our 
servic members informed and thoughtful decisionmaking. That is why 
Secretary Gates has asked all of the Services to participate in a 
comprehensive review, not of whether the ``Don't Ask, Don't Tell'' law 
should change, but what the impact would be should Congress change the 
law and develop an implementation plan for any statutory change. Our 
department is providing participants to the Comprehensive Review 
Working Group and the Executive Committee, comprised of senior service 
reps--civilian and military, as well as administrative staff in support 
of this review. We will continue to support the review which is due to 
report its findings to Secretary Gates by December 1, 2010. Our 
servicemembers have every right to expect us to proceed with careful 
deliberation and to reach decisions that will enhance readiness and 
advance mission accomplishment. But no matter what decision Congress 
makes, I am confident our sailors and marines will execute their 
mission fully and successful, just as they have always done.
    Admiral Roughead. I cannot speculate on what impact opposition to a 
change would have on DOD planning, but we owe our servicemembers 
informed and thoughtful decisionmaking. The comprehensive review will 
allow us to assess and better understand the impacts of the Don't Ask, 
Don't Tell law. Our servicemembers and their families have every right 
to expect us to proceed with careful deliberation and to reach 
decisions that will enhance readiness and advance mission 
accomplishment.
    General Conway. It is not clear to me that this decision will be 
made using strictly democratic principles. For me, given my title 10 
responsibilities, the issue is the impact of any change to the current 
law and policy on readiness and combat effectiveness, not on how many 
people support that change.
    As instructed, the Department is conducting a review and study of 
the force to gauge the impact of a change to the current law and 
policy. Our understanding is that this study will include input from 
servicemembers and their families on the potential impact of a repeal 
of the current law on readiness, military effectiveness and unit 
cohesion, recruiting and retention, and family readiness.
    Once the Department concludes this effort, the Service Chiefs will 
provide review and comment. The Department and Chiefs will then have 
the opportunity to deliver their best advice to the President, and then 
to Congress. Armed with these recommendations, Congress will be able 
determine the way forward and we will follow this direction.

              cost growth in joint strike fighter aircraft
    42. Senator McCain. Admiral Roughead and General Conway, do you 
expect that additional cost growth in the JSF program arising from 
Secretary Gates' decision to restructure the program in December 2009 
will trigger a Nunn-McCurdy breach? Please explain your answer.
    Admiral Roughead. DOD reported a Nunn-McCurdy breach in the JSF 
program in its December 2009 F-35 Selected Acquisition Report, which 
was delivered to Congress on 2 April. The report was based on the 
independent Joint Estimating Team (JET II) assessment, led by the 
Office of the Secretary of Defense (OSD) Cost Assessment and Program 
Evaluation. The JET II determined that F-35 program cost increases were 
a result of: higher than planned development costs due to weight-driven 
performance issues identified in 2003, and the related schedule 
extension to address them; an increase in labor and overhead rates; 
degradation of airframe commonality; reduction in Department of Navy 
planned procurement quantities, from 1,089 to 680 aircraft; increases 
in commodity prices (particularly titanium); and major subcontractor 
cost growth.
    General Conway. Defer to OSD.

    43. Senator McCain. Admiral Roughead and General Conway, in the 
context of a projected shortfall in the Navy's tactical strike-fighter 
capability over the intermediate- to long-term, what would that mean 
for the Navy?
    Admiral Roughead. The Department of the Navy (DoN) has the 
necessary tactical aircraft capacity in the near term to support our 
Nation's strategic demands; however, ongoing assessments forecast a 
potential decrease in our strike fighter inventory that will peak at 
the end of this decade. We plan on addressing this inventory decrease 
through aggressive and precise management strategies that include 
service-life extension programs to prolong the use of existing F/A-18 
A-D aircraft, reducing the number of aircraft available in our non-
deployed squadrons to the minimum required, accelerating the transition 
of seven legacy squadrons to F/A-18 E/F Super Hornets (using F/A-18E/F 
attrition aircraft in two cases), and maximizing depot level throughput 
to return legacy strike fighter aircraft to the Fleet more quickly. 
Collectively, these measures will extend the service life of our legacy 
aircraft and make the projected inventory decrease manageable.
    While the F/A-18 fleet continues to meet operational needs in the 
current conflicts, the timely delivery of the JSF remains critical to 
our future strike fighter capacity. I remain committed to the JSF 
program and am watching it closely as the program restructures and a 
new program manager takes office.
    General Conway. The USMC will preserve our legacy fleets of 
Harriers and Hornets with sufficient funding while awaiting the fifth 
generation STOVL JSF. This is the best option to balance the 
requirement to fulfill operational commitments with legacy aircraft, 
while funding the development and procurement of the JSF. We are taking 
proactive steps today to preserve the legacy fleets, maintain their 
operational relevance, and continuing these efforts until the 
production of STOVL is sufficient to fully transition our Harriers, 
Hornets, and Prowlers to the STOVL variant.

    44. Senator McCain. Admiral Roughead and General Conway, the F-35 
JSF program, already facing a 1-year delay, could be heading toward a 
breach of Nunn-McCurdy cost growth limits. Will the Navy and Marine 
Corps be equipped with the F-35 in time to have the required 
capabilities they need, when they need it?
    Admiral Roughead. The Navy remains on schedule to deploy its F-35C 
carrier variant strike fighter with the required Block III capability 
as planned in 2016.
    While the JSF program restructuring directed by the Secretary of 
Defense pushed back F-35C Initial Operating Capability (IOC) to 2016, 
this IOC reflects our requirement for a squadron of 10 Block III 
aircraft that have completed Initial Operating Test & Evaluation and 
are ready to deploy. We will begin to receive JSF aircraft into our 
squadrons in 2014 and anticipate their deployment in 2016.
    General Conway. We are confident the action taken by the Secretary 
of Defense to address the testing and production problems in PB-11 
establish a viable program that continues to support a Marine Corps 
December 2012 IOC.

    45. Senator McCain. Admiral Roughead and General Conway, I'm 
concerned about the Naval Air Systems Command's (NAVAIR) recent finding 
that the Navy's version of the F-35 JSF may be considerably more 
expensive to operate than the legacy aircraft that it was intended to 
replace. Is NAVAIR's analysis reflected in the Navy's budget proposal 
this year?
    Admiral Roughead. I have directed my leaders to study and 
understand the total ownership costs (TOCs) of new and existing 
systems. The NAVAIR estimate of JSF cost per flight hour is consistent 
with that direction. It is not prudent to conclude the TOCs of JSF 
based on the NAVAIR study alone. Navy has not yet completed operational 
testing of the carrier variant and flight hour costs are only one 
aspect of JSF TOCs. Understanding and controlling TOCs is a priority 
for the U.S. Navy, and we will continue to pursue ways to reduce our 
long-term operations and support costs for all our ships and aircraft.
    General Conway. No, the assessment you are referring to is not an 
official estimate, or considered a finished product, nor has it been 
refined or corrected to accurately compare operation and support (O&S) 
costs between a legacy supportability construct and the JSF 
evolutionary international collaborative approach to sustainment.
    We are realizing today the Congressional Budget Office analysis 
from 2001, age does cause higher O&S cost increases ranging from 1 
percent to 3 percent for every additional year of age. The average age 
today of our F/A-18s is 19 years and will reach 32 years by retirement 
in 2023, increasing O&S costs by over 50 percent. The cost of 
recapitalization and modernization of our legacy aircraft will soon 
exceed the cost of procuring and sustaining an aircraft with more 
relevant capabilities and technology that will substantially increase 
survivability, reliability and maintainability.
    Managing the future O&S costs of the JSF is a joint DOD and 
international endeavor that requires deliberate action and finite 
analysis now in the early acquisition phase of the program to ensure 
affordability as the JSF ages through the next 30 plus years of service 
life. The JSF program is just now maturing to the point where we can 
move from modeling cost to assessing the actual cost of operating the 
aircraft with our first deliveries in 2010.

   f-35 joint strike fighter lightning testing and engineering issues
    46. Senator McCain. Secretary Mabus, Admiral Roughead, and General 
Conway, I continue to be concerned about the F-35 Lightning II 
acquisition program, even with Secretary Gates' decision to restructure 
the program in December 2009. Basically, at this point, I am concerned 
about whether the program will make the deadlines by which it is 
supposed to deliver aircraft with initial operating capability (IOC) to 
each of the Services, the program's ability to manage software risk, 
the testing program's ability to detect and anticipate problems, and 
the capability of those aircraft that will be delivered under low-rate 
initial production (LRIP). A few weeks ago, the Director, Operational 
Testing and Evaluation (DOT&E) found that ``[c]ontinued production 
concurrent with the slow increase in flight testing over the next 2 
years will commit DOD and the Services to test, training, and 
deployment plans with substantial risk.'' Do you share that concern, 
particularly as it relates to the Navy's version of the fighter?
    Secretary Mabus. The F-35 program was structured with known 
concurrency that will remain, though reduced, with the SECDEF directed 
F-35 program restructure. The DOD decision to restructure the F-35 
Program was in response to multiple Department studies and reports 
including DOT&E's most recent Operational Test report. The F-35 program 
restructure mitigates many of the risks highlighted by DOT&E and the 
GAO, though the Department acknowledges that F-35 program risks will 
continue, as would any major defense acquisition program. Software risk 
will be mitigated by the addition of another software integration line 
to preclude mission systems software from becoming a limiting factor 
during SDD. The F-35 test program risks will be mitigated by the 
continuation of a test program assessment in conjunction with the 
support and advice of DOT&E. An Integrated Test Review Team composed of 
experts in developmental test and operational test continues to mature 
test program plans to ensure program technical maturity is aligned with 
Initial Operating Capability (IOC) dates; operational assessments are 
optimized; new opportunities for integrated test are matured; test 
schedule margins are realistic; and the proposed flow of technical data 
enables the planned operational test periods. To help mitigate aircraft 
assets required during testing, the program is adding one carrier 
variant (CV) aircraft to the SDD program in order to expand 
developmental testing capacity and will utilize three low-rate initial 
production (LRIP) aircraft in support of development testing. USMC IOC 
requirements encompass capabilities, equipment, training, and support 
metrics that will measure the progress of the program office to meet 
our goals and enable the Marine Corps to ensure all the tenets for 
operational use of the F-35B are ready. The Navy IOC date is based on 
sufficient aircraft quantities; desired capability to conduct all ORD 
missions, to include, but not limited to, AI, OCA, DCA, CAS, SEAD/DEAD 
and CSAR in a denied, near-peer environment better than legacy 
aircraft; and completion of operational test of that capability. Based 
upon the SECDEF directed F-35 program restructure and Navy/Marine Corps 
IOC requirements, the Marine Corps F-35B IOC in 2012 and the Navy F-35C 
IOC in 2016.
    Admiral Roughead. I continue to watch the JSF program carefully. 
The F-35 program restructure directed by the Secretary of Defense 
mitigates many of the risks highlighted by the most recent DOT&E 
Operational Test report; however, the Department acknowledges that risk 
in the F-35 program will continue. To mitigate this risk, we will add 
one F-35C carrier variant aircraft to the System Development and 
Demonstration (SDD) program in order to expand developmental testing 
capacity; we will utilize three LRIP aircraft in support of development 
testing; and we will add another software integration line to preclude 
mission systems software from becoming a limiting factor during SDD. 
These three steps, taken together, establish a viable program and 
continue to support the Navy's 2016 IOC and the Marine Corps' 2012 IOC.
    General Conway. With the recent program restructuring approved by 
USD(AT&L), the F-35B IOC is projected to be 2012 and the F-35C IOC is 
projected to be 2016. The action taken by the SECDEF to address the 
testing and production problems in PB-11 establish a viable program 
that continues to support a Marine Corps December 2012 IOC. USMC IOC 
requirements encompass capabilities, equipment, training, and support 
metrics that will measure the progress of the program office to meet 
our goals and enable the Marine Corps to ensure all the tenets for 
operational use of the F-35B are ready.
    Navy IOC is contingent on the requirement to deploy an ORD 
compliant, Block 3 aircraft with IOT&E complete.

    47. Senator McCain. Secretary Mabus, Admiral Roughead, and General 
Conway, with the Navy to accept delivery of its first squadrons with 
IOC in 2012 (for the Marine Corps) and 2014 (for the Navy), where do 
you see the most significant risk with respect to the Navy's versions 
of the fighter?
    Secretary Mabus. Based upon the SECDEF F-35 Program Restructure, 
the Marine Corps F-35B IOC will remain in 2012 and the Navy F-35C IOC 
will be in 2016.
    The earlier Navy IOC of 2014 was based on three items: sufficient 
aircraft quantities; capability; and completion test. Based on the 
program and test schedule restructure and delivery of fiscal year 2011 
procured aircraft, the Navy IOC has been revised to be in 2016. The 
most stressing Navy IOC capability requirement is Destruction of Enemy 
Air Defenses which requires a highly integrated mission systems suite 
and stand-off weapons. Further delays in delivery of capabilities are 
the most significant risk to the Navy IOC--with any further delays 
exacerbating the overall strike fighter shortfall. Moreover, the Navy 
requires a sufficient ramp to stand-up a training squadron and a fleet 
squadron prior to declaring IOC. The Navy's intent is to stand up 
squadrons as aircraft become available and declare IOC when sufficient 
capability is tested and delivered. And as with any complex weapon 
system development program, unforeseen discovery during F-35B/F-35C 
test will remain a risk until completion of IOT&E.
    Admiral Roughead. The most significant risk to Navy's version of 
the F-35 JSF is further delay in the delivery of capabilities required 
to achieve carrier variant IOC, which is currently scheduled for 2016. 
IOC will occur once the capabilities identified in our Operational 
Requirements Document for JSF are attained. Navy F-35C IOC is defined 
as outfitting a squadron with 10 Operational Requirement Document (ORD) 
compliant, Block III aircraft ready to deploy with Initial Operational 
Test and Evaluation (IOT&E) complete.
    General Conway. The most significant risk to IOC is the late 
delivery of aircraft to flight test and delays in mission system and 
ALIS software build/test. Both have been addressed by the Secretary of 
Defense in his restructure of the program in PB-11.

    48. Senator McCain. Secretary Mabus, Admiral Roughead, and General 
Conway, as you know, NAVAIR effectively determined a few weeks ago that 
the Marine Corps and the Navy's version of the JSF may end up being too 
expensive to operate, with each flight hour ultimately costing about 
$31,000 compared with about $19,000 per flight hour for current F/A-18 
Hornets and AV-8B Harriers--considerably higher than the costs to 
operate than the legacy aircraft they were intended to replace. Have 
you reviewed NAVAIR's analysis and, if so, do you agree with its 
finding on expected operating costs of JSF?
    Secretary Mabus. I have directed my leaders to study and understand 
the TOCs of new and existing systems. The NAVAIR estimate of JSF cost 
per flight hour is consistent with that direction. However, it is not 
prudent to conclude the TOCs of JSF based on the NAVAIR study alone. 
The Department of the Navy has not yet completed operational testing of 
its two JSF variants and flight hour costs are only one aspect of JSF 
TOCs. Understanding and controlling TOCs is a priority for the 
Department, and we will continue to pursue ways to reduce our long-term 
operations and support costs for all our ships and aircraft.
    Admiral Roughead. I have directed my leaders to study and 
understand the TOCs of new and existing systems. The NAVAIR estimate of 
JSF cost per flight hour is consistent with that direction. It is not 
prudent to conclude the TOCs of JSF based on the NAVAIR study alone. 
Navy has not yet completed operational testing of the carrier variant 
and flight hour costs are only one aspect of JSF TOCs. Understanding 
and controlling TOCs is a priority for the U.S. Navy, and we will 
continue to pursue ways to reduce our long-term operations and support 
costs for all our ships and aircraft.
    General Conway. The department is on the front end of reviewing JSF 
TOCs and assumptions. The brief is a working document and has yet to be 
coordinated across the program office, the services and senior 
leadership.
    The NAVAIR cost team brief on TOCs is a pre-decisional brief. These 
types of briefs are developed to inform leadership of ongoing technical 
analyses and provide options and consequences as we work to deliver 
affordable programs. In a program such as the JSF, these analyses are 
constantly evolving. The brief is an internal working document and 
provides points for discussion in support of achieving successful and 
affordable fielding of all variants of the JSF.
    The operating and support (O&S) costs in the working document are 
not definitive and are subject to variance based on potential courses 
of action. The Navy Department is fully coordinated with OSD, the Air 
Force and the Joint Program Office in executing this critical program.

    49. Senator McCain. Secretary Mabus, Admiral Roughead, and General 
Conway, if you do, what does that mean for the Navy's JSF program and 
what kind of mix should we achieve in terms of the Navy's future 
strike-fighter force?
    Secretary Mabus. The Department's commitment to tactical aviation 
integration is enduring. We view the integration of our forces as the 
best means for the Department to balance operational and programmatic 
risk. We are committed to making a mix decision at the earliest 
opportunity based upon F-35 program maturity as defined by discreet and 
successful program events and accomplishments. Among those key events 
is F-35B test burn down; F-35B/L-class Sea Trials; F-35C test burn 
down; F-35C/CVN sea-trials; and assessment of F-35B/CVN 
interoperability. Upon completion of these, and other key program 
milestones, the Department will make a determination on the proper mix 
between F-35B and F-35C variants. We anticipate this decision could be 
made after the completion of the JSF program SDD in accordance with the 
F-35 program restructure.
    Admiral Roughead. The Navy is committed to the JSF program and has 
not changed the total number of JSF aircraft it intends to buy. Our 
carrier air wings will continue to have a mix of Super Hornet and JSF 
into the 2030s that will bring great capability across a wide range of 
operations. Those capabilities include stealthy, deep penetrating 
strike, netted far-reaching sensors, and lethal close air support to 
troops in contact with enemy forces.
    General Conway. The Department's commitment to tactical aviation 
integration is enduring. We view the integration of our forces as the 
best means for the Department to balance operational and programmatic 
risk. We are committed to making a mix decision at the earliest 
opportunity based upon F-35 program maturity as defined by discreet and 
successful program events and accomplishments. Among those key events 
is F-35B test burn down; F-35B/L-class Sea Trials; F-35C test burn 
down; F-35C/CVN sea-trials; and assessment of F-35B/CVN 
interoperability. Upon completion of these, and other key program 
milestones, the Department will make a determination on the proper mix 
between F-35B and F-35C variants. We anticipate this decision could be 
made after the completion of the JSF program SDD in accordance with the 
F-35 program restructure.

    50. Senator McCain. Secretary Mabus, Admiral Roughead, and General 
Conway, how is NAVAIR's assessment reflected in your current budget 
proposal?
    Secretary Mabus. I have directed my leaders to study and understand 
the TOCs of new and existing systems. The NAVAIR estimate of JSF cost 
per flight hour is consistent with that direction. However, it is not 
prudent to conclude the TOCs of JSF based on the NAVAIR study alone. 
The Department of the Navy has not yet completed operational testing of 
its two JSF variants and flight hour costs are only one aspect of JSF 
TOCs. Understanding and controlling TOCs is a priority for the 
Department, and we will continue to pursue ways to reduce our long-term 
operations and support costs for all our ships and aircraft.
    Admiral Roughead. I have directed my leaders to study and 
understand the TOCs of new and existing systems. The NAVAIR estimate of 
JSF cost per flight hour is consistent with that direction. It is not 
prudent to conclude the TOCs of JSF based on the NAVAIR study alone. 
Navy has not yet completed operational testing of the carrier variant 
and flight hour costs are only one aspect of JSF TOCs. Understanding 
and controlling TOCs is a priority for the U.S. Navy, and we will 
continue to pursue ways to reduce our long-term operations and support 
costs for all our ships and aircraft.
    General Conway. The assessment you are referring to is not an 
official estimate, or considered a finished product, nor has it been 
refined or corrected to accurately compare O&S costs between a legacy 
supportability construct and the JSF evolutionary international 
collaborative approach to sustainment.

       f-35 joint strike fighter and initial operating capability
    51. Senator McCain. Secretary Mabus, Admiral Roughead, and General 
Conway, when Secretary Gates testified here on DOD's budget request a 
few weeks ago, he explained that, while the JSF program is holding 
schedule in terms of when the Services can expect to take delivery of 
fighters with IOC, he expects that fewer quantities may be delivered. I 
understand that the JSF program's IOC date for the Marine Corps is 2012 
and for the Navy is 2014. What is your understanding of how many 
fighters with IOC will be delivered to the Navy and Marine Corps by 
that time? Please explain.
    Secretary Mabus. The current program plan stands up the first two 
training squadrons (USAF and USMC) at Eglin in 2010 and delivers 
production aircraft to the Marine Corps in 2012, Air Force in 2013, and 
Navy in 2014. Each service has differing requirements for Initial 
Operational Capability (IOC) depending upon what capabilities each 
Service requires at IOC encompassing aircraft performance, equipment, 
training, testing, and support. Based upon the F-35 program restructure 
schedule, the Marine Corps will have an IOC in 2012 and the Navy will 
IOC in 2016. The Marine Corps plans to IOC with 10 BLK 2 F-35Bs and the 
Navy plans to IOC with 10 ORD compliant BLK 3 F-35Cs.
    Admiral Roughead. The current JSF program plan begins to deliver 
production aircraft to the Marine Corps in 2012 and the Navy in 2014. 
Navy will begin to accept JSF aircraft into its squadrons in 2014, and 
we expect Initial Operational Capability (IOC) of the F-35C to occur in 
2016 with 10, Operational Requirements Document (ORD)-compliant, Block 
III aircraft that are ready to deploy. The Marine Corps expects to 
achieve IOC of the F-35B in 2012 with 10, Operational Requirements 
Document (ORD)-compliant, Block IIB aircraft.
    General Conway. The current program plan stands up the first two 
training squadrons (USAF and USMC) at Eglin in 2010 and delivers 
production aircraft to the Marine Corps in 2012, Air Force in 2013, and 
Navy in 2014. Each service has differing requirements for Initial 
Operational Capability (IOC) depending upon what `capabilities' each 
Service requires at IOC encompassing aircraft performance, equipment, 
training, testing, and support. Based upon the revised JET II schedule, 
the Marine Corps will have an IOC in 2012 and the Navy intends to IOC 
in 2016. The Marine Corps plan to IOC with 10 BLK 2 F-35Bs and the Navy 
plans to IOC with 10 BLK 3 F-35Cs.

    52. Senator McCain. Secretary Mabus, Admiral Roughead, and General 
Conway, looking ahead to 2010, in your view what milestones do you 
believe the Joint Program Office (JPO) and prime contractor must 
complete on time and on budget to achieve the Navy's IOC dates?
    Secretary Mabus. Key 2010 planned events include the following: 
complete the first F-35B Vertical Landing [accomplished March 19, 
2010]; complete the first F-35C flight; deliver Block 1.0 software to 
flight test; deliver at least three aircraft to Eglin AFB; commence 
flight training operations at Eglin AFB; deliver 11 test aircraft to 
Naval Air Station Patuxent River and Edwards AFB; and complete 400 
flight tests.
    Admiral Roughead. The Joint Program Office (JPO) and prime 
contractor should accomplish the following milestones planned for 2010: 
completing the first F-35B Vertical Landing (accomplished on 19 March 
2010); completing the first F-35C flight; delivering Block 1.0 software 
to flight test; delivering at least three aircraft and commencing 
flight training operations at Eglin AFB; delivering the required test 
aircraft to Naval Air Station Patuxent River and Edwards AFB to 
complete test programs supporting IOT&E completion in 2016.
    General Conway. In 2010 we concur with the Joint Program Office's 
objectives are the requisite milestones needed to keep on track to IOC. 
These include; ALIS operational at the Eglin Integrated Training 
Center, award of the LRIP 4 contract, delivery of Block 1.0 Software to 
Flight Test, commence flight training at Eglin, complete training for 
125 maintenance personnel, deliver at least 3 aircraft to Eglin, 
deliver 11 test aircraft to Pax and Edwards, demonstrate flight test 
rate of 12 Fts/Acft/Mo, and complete 400 test flights. For the Marine 
Corps key milestones are the standup of the first training squadron at 
Eglin, the completion of the West and East Coast Environmental Studies, 
and starting flight training of the first STOVL pilots.

    53. Senator McCain. Secretary Mabus, Admiral Roughead, and General 
Conway, I know that the dates by which all the Services intend to take 
delivery of JSFs with IOC are being maintained. While, for the Navy, 
IOC means ``full warfighting capability and mission functionality'', 
for the Marine Corps it means ``interim warfighting capabilities, basic 
weapons and moderate mission system capabilities''. However, 
development on the JSF is not expected to be completed (per Deputy 
Secretary's statement a few days ago) before November 2015 or, more 
likely (per the Joint Estimating Teams' original assessment), by April 
2017. That is well after the IOC squadrons are supposed to be delivered 
to the Navy in 2012 and 2015.
    Therefore, it seems to me that the only way the Navy will be able 
to take delivery of its IOC squadrons on time is by accepting less 
initial capability and defer some requirements to a future upgrade 
program. Given the likelihood that, in others words, the definition of 
IOC for your JSF squadrons will have to change, what is that new 
definition?
    Secretary Mabus. With the recent program restructuring approved by 
the Secretary of Defense, the IOC for the F-35B is 2012 and 2016 for 
the F-35C. The actions taken by the Secretary of Defense include 
procuring an additional F-35C aircraft to be used for flight testing, 
loaning three early production aircraft to developmental test and 
directing the addition of another software integration line to the 
program. These three steps, taken together, establish a viable program 
and continue to support the DoN IOC dates.
    Each service has a somewhat different definition of IOC depending 
on what capabilities they intend to have at IOC, their operational and 
testing requirements, and the number of aircraft they require for IOC. 
For the Marine Corps, IOC is defined as a squadron of 10 F-35B Block 2 
aircraft able to execute the full range of TACAIR directed mission sets 
and deploy on F-35B compatible ships and austere expeditionary sites. 
For the Navy F-35C, IOC date is based on three items: sufficient 
aircraft quantities, desired capability to conduct all ORD missions, to 
include, but not limited to, AI, OCA, DCA, CAS, SEAD/DEAD and CSAR in a 
denied, near-peer environment better than legacy aircraft; and 
completion of operational test of that capability test.
    Admiral Roughead. The Navy is retaining its definition of IOC as 
Operational Requirements Document (ORD)-compliant, Block III aircraft 
that have completed Initial Operational Test & Evaluation (IOT&E). As a 
result of the recent program restructuring approved by the Secretary of 
Defense, the IOC for Navy's F-35C is currently in 2016.
    General Conway. The F-35B Block 2B is a far superior aircraft than 
any aircraft in the DoN inventory. With VLO survivability, a powerful 
integrated sensor suite, fused information displays, interoperable 
joint connectivity, a precision weapon capability, and self protect 
anti-air weapons it is a total package of capabilities that will 
revolutionize our expeditionary Marine Air-Ground combat power in all 
threat environments while reducing the reliance on supporting aircraft, 
tankers and jammers, and enabling joint interoperability with newer 
systems.
    The aircraft and equipment required to meet IOC were procured in 
fiscal years 2008, 2009, and 2010. The training facilities for our 
aircrew and maintenance personnel are on track at the Joint Integrated 
Training Center at Eglin AFB.
    The remaining infrastructure that enables IOC to include 
environmental studies, and facilities ashore and afloat is on schedule.
    Our IOC requirements and associated metrics that encompass 
capabilities, equipment, training, and support will measure the 
progress of the program office to meet our goals between now and 
December 2012 and enable the Marine Corps to ensure all the elements 
required for operational use of the F-35B are ready.

               joint strike fighter--marine corps variant
    54. Senator McCain. General Conway, the draft Government 
Accountability Office (GAO) report released for DOD comment on February 
12, 2010, lists a large number of critical issues facing JSF. In 
particular, the Marine Corps IOC date of 2012 does not appear to be 
achievable unless the Marine Corps accepts aircraft that are far below 
full combat capability which will have to be upgraded later at 
significant expense for retrofitting. The system development and 
demonstration (SDD) phase for the F-35 extends until April 2017 under 
the most recent December 2009 estimate cited by GAO based on multiple 
sources including NAVAIR and DOT&E, and GAO predicts that technical, 
manufacturing, and testing delays will further delay completion of the 
SDD wring out of potential problems. Why would the Marine Corps accept 
an IOC date that is 5 years or more before SDD shake out of the program 
is complete?
    General Conway. For the Marine Corps F-35B, IOC is defined as a 
squadron of 10 aircraft able to execute the full range of TACAIR 
directed mission sets and to deploy on F-35B-compatible ships and to 
austere expeditionary sites. The Marine Corps plans to IOC with a 
multi-mission support capable Block 2B aircraft, primarily close air 
support and enhanced air interdiction.
    With the recent program restructuring, IOC is projected to be 2012 
for the F-35B which is based on operational requirements and the 
associated metrics that encompass capabilities, equipment, training, 
and support that will measure the progress of the program to meet the 
USMC requirements between now and December 2012 and enable the Marine 
Corps to ensure all the elements required for operational use of the F-
35B are ready. An IOC declaration will be dependent upon meeting these 
requirements.

    55. Senator McCain. General Conway, key milestones for the program 
have shifted 2 to 3 years to the right since the Program of Record was 
established in December 2008, yet the Marine Corps IOC has remained 
unchanged as 2012. Does this indicate that an IOC of 2012 cannot be met 
with an acceptable level or risk given the current delays in 
development, production, and testing?
    General Conway. We are confident the action taken by the Secretary 
of Defense to address the testing and production problems in PB-11 
establish a viable program that continues to support a Marine Corps 
December 2012 IOC.

                  concerns about joint strike fighter
    56. Senator McCain. Secretary Mabus, the concurrency structured 
into the JSF program's test, production and training plans has obscured 
the mission capability of LRIP aircraft and support systems. How will 
DOD, under its proposed budget, improve the process by which the 
mission capability of LRIP systems will be accurately and credibly 
predicted well before delivery?
    Secretary Mabus. The F-35 program was structured with known 
concurrency that will remain, though reduced, with the SECDEF directed 
F-35 program restructure. The DOD decision to restructure the F-35 
Program was in response to multiple Department studies and assessments. 
The Independent Manufacturing Review Team (IMRT) examined the 
transition from development to production. The IMRT recommended the 
program adopt a somewhat flatter and smoother ramp. The Joint 
Estimating Team (JET II) accepted this revised ramp and moved it later 
in time with the delayed progress of the development program. By doing 
so, the risk of concurrency is lowered.
    As part of the program restructure, several steps have been taken 
to partially restore SDD schedule. To help mitigate aircraft assets 
required during testing, Secretary Gates directed the procurement of 
one carrier variant (CV) aircraft to the SDD program in order to expand 
developmental testing capacity, and will utilize some LRIP aircraft in 
support of development testing. Secretary Gates also directed the 
addition of another software integration line to the program, to 
prevent the building of mission systems software from becoming a 
limiting factor on the development schedule. Finally, contract 
negotiations are currently underway to ensure the contractor is held 
accountable in meeting or exceeding a defined set of milestones 
connected to fee on the development contract.
    The scrutiny of the review teams has informed the actions taken by 
the Department to ensure the program is executable. It's also important 
to note that during the extensive reviews that led to the program 
restructure, no fundamental technology or manufacturing problems were 
discovered, nor were there any changes to F-35 performance 
requirements. All F-35 variants are projected to meet their respective 
Key Performance Parameters.

    57. Senator McCain. Secretary Mabus, I understand that the JPO is 
executing a comprehensive, robust, and fully funded live fire test 
plan. However, the program recently removed shutoff fuses for engine 
fueldraulics lines. Coupled with the prior removal of dry bay fire 
extinguishers, this may increase the likelihood of aircraft combat 
losses from ballistic threat-induced fires. At present, only the 
Integrated Power Plant (IPP) bay has a fire suppression system. Though 
the JSF Executive Steering Board (JESB) has approved the JPO's request 
to remove these safety systems as an acceptable system trade to balance 
weight, cost, and risk, DOT&E remains concerned regarding the 
aircraft's vulnerability to threat-induced fires. What is your 
appraisal of DOT&E's concern here?
    Secretary Mabus. The Department is committed to delivering the most 
affordable, supportable, lethal and survivable F-35 aircraft that meets 
the needs of the warfighter. The overall survivability posture of the 
F-35 is without equal due to advanced avionics and sensor suite, fifth 
generation stealth performance, advanced countermeasures and robust, 
balanced vulnerability reduction design. The warfighting effectiveness 
of each design feature is carefully balanced against the overall system 
impact to cost, weight, and supportability. The removal of PAO shut-off 
valves and fuses for engine fueldraulic lines resulted in a minimal 
(.05 PK) impact on the vulnerability assessment, no impact on the 
safety assessment, avoids 11 lbs. per aircraft in weight, avoids 
$40,000 (CTOL and CV)--$50,000 (STOVL) per aircraft in procurement 
costs, and avoids $1.4 million in development costs. The JESB decision 
included a requirement to update the vulnerability assessment after 
conclusion of the Live Fire Testing in calendar year 2011. All F-35 
aircraft vulnerability data will then be re-assessed.

                     expeditionary fighting vehicle
    58. Senator McCain. General Conway, the fiscal year 2011 budget 
calls for $243 million in research and development (R&D) for 
production, testing, and evaluation of seven SDD2 vehicles. That is 
$34.7 million per vehicle in fiscal year 2011 alone. At what point and 
based on what criteria will the Marine Corps determine whether it is 
cost effective to continue the Expeditionary Fighting Vehicle program?
    General Conway. The success criteria for the Expeditionary Fighting 
Vehicle were stated in previous testimony, the Program must pass five 
key decision points that will evaluate the planned operational 
assessments, ability to meet KPPs, as well as the program cost and 
schedule metrics.

                    mv-22 osprey tilt-rotor aircraft
    59. Senator McCain. General Conway, readiness rates of the MV-22 in 
Afghanistan have been reported as in the mid-60s, trending towards the 
70s. On the other hand, the Army's new CH-47F is experiencing readiness 
rates in Afghanistan in the 80s and 90s, consistent with refinement of 
a platform that has been in use for decades. The CH-47F can reach 
speeds greater than 175 mph and transport more than 21,000 pounds, and 
with Aviation Extended Range Fuel System, has a mission radius of more 
than 400 nautical miles. The CH-47F can carry 66 combat-loaded soldiers 
or marines. Should the Marine Corps consider the CH-47F as an 
alternative to the MV-22?
    General Conway. No. The MV-22B is the premier medium lift assault 
support platform in the inventory, and has performed all combat tasking 
in Iraq and Afghanistan without any combat losses. The MV-22B has 
several characteristics that make it superior to the CH-47D and F for 
Marine Aviation purposes.

        <bullet> The MV-22B's ability to leverage its speed to rapidly 
        build combat power in an objective through shorter sortie cycle 
        times surpasses that of the CH-47. This was most recently 
        demonstrated in the assault on Now Zad in Afghanistan, when the 
        MV-22Bs were inbound with their second wave of troops as the 
        helicopters were landing with their first.
        <bullet> By virtue of its design, the MV-22B transits the 
        battlespace at 270kts ground speed in altitude sanctuary 
        compared to 160kts in the heart of the threat as is typical for 
        high-end traditional rotorcraft.
        <bullet> The MV-22B is built for survivability, including 
        excellent ballistic tolerance, low IR signature, low aural 
        signature, and widely dispersed and redundant systems.
        <bullet> The MV-22B combat radius with 24 combat troops is 
        325nm or better with internal fuel. No extended range fuel 
        tanks are required.
        <bullet> Much like the CH-53E that can carry 55 combat troops 
        with center-line seating installed yet carries 24 troops by 
        operational procedure, the CH-47 does not routinely leverage 
        its maximum seating capacity by convention in combat.
        <bullet> MV-22B fulfills the medium lift requirement for the 
        Marine Corps. The CH-47 would be a redundant heavy lift 
        platform.
        <bullet> BDM Federal noted in the 1994 Medium Lift Replacement 
        COEA Phase II:

    ``These studies generally showed that the productivity benefits 
resulting from carrying larger loads are negated when aircraft 
survivability is taken into account. That is, loading more troops onto 
each aircraft meant that more assets would be lost when an aircraft was 
downed as large capacity aircraft were also the least survivable. 
Studies have verified a medium lift requirement when force 
effectiveness is balanced against attrition.''

        <bullet> The MV-22B has specific design features to make it 
        suitable for shipboard operations, including folding blades and 
        wing, electromagnetic hardening, and powered steering for self-
        taxi on the flight deck. To operate aboard ship, the CH-47 
        would have to add blade fold capacity and make landing gear 
        modifications.
        <bullet> The CH-47F operating cost of $6,899 per hour does not 
        include Depot Level Repair charges. The current Fleet MV-22B 
        operating cost of $11,488 includes Depot charges, which account 
        for roughly 50 percent of its parts costs.
        <bullet> At the completion of the current multi-year 
        procurement agreement, we will have procured 243 of our 360 
        program of record. Adding a second Type/Model/Series to conduct 
        the medium-lift mission would significantly increase the 
        program, training, and support costs.

                     procurement of h-1 helicopter
    60. Senator McCain. General Conway, last year, the House of 
Representatives cut H-1 funding by over $300 million as a funding 
source for the F-35 alternate engine based on concern about Bell's 
ability to meet the production ramp. Can Bell meet the ramp for 31 H-1s 
requested in fiscal year 2011?
    General Conway. Yes. Manufacturing planning, processes and tooling 
are in place to support 31 aircraft production a year. Bell has 
consistently delivered both the UH-1Y and AH-1Z production aircraft 30 
days or more ahead of contract requirements. This performance has been 
demonstrated and maintained even after a 6 week labor strike 
experienced in July/August 2009.

    61. Senator McCain. General Conway, how important are these H-1 
assets for the fight in Afghanistan, given their increased capability?
    General Conway. These aircraft are vital to fight supporting our 
marines on the ground. Last November, Marine Light Attack Helicopter 
Squadron (HMLA)-367 deployed to Afghanistan with a full complement of 
nine UH-1Y aircraft. In their first three months HMLA-367 posted 
mission capable rates in excess of 77 percent while flying an average 
of 40 flight hours per aircraft per month--over two times the planned 
utilization rate of 18.9--while also playing a critical role in 
successes achieved in the Now Zad Valley of Helmand Province. The UH-1Y 
has not missed an assigned launch to date and has flown a multitude of 
missions in theater including troop and cargo transport, command and 
control, aerial and armed reconnaissance, armed escort, and close air 
support. The UH-1Y's increased payload, range and endurance has 
resulted in the ability to carry more marines, more payload and more 
ordnance while increasing time on station throughout the entire 
spectrum of utility missions. The legacy UH-1N Huey forced aircrews to 
sacrifice either payload, time on station, or both, whereas UH-1Y 
aircrews no longer have to make those sacrifices. Additionally, the UH-
1Y's increased engine power and performance have been particularly 
important during missions flown at higher altitudes and in hotter 
temperatures.

                          energy alternatives
    62. Senator McCain. General Conway, please describe the alternative 
you are pursuing to reduce our reliance on fuel on the battlefield.
    General Conway. Recently, our Marine Corps Warfighting Lab 
establish an Experimental Forward Operating Base (ExFOB) in Quantico, 
VA. The ExFOB was supported by many organization inside and outside the 
Marine Corps to include all of our fellow services energy experts and 
OSD's Power Surety Task Force. Prior to our recent ExFOB evaluations we 
reviewed approximately 200 commercial off-the-shelve (COTS) 
technologies, in the end, we invited 29 vendors to ExFOB, 27 arrived at 
Quantico for evaluation by our experts. For this phase of ExFOB we 
focused on Energy, Water, and Shelter technologies that were COTS ready 
and could be deployed to Afghanistan right away to reduce our reliance 
on fuel. Of the 27 systems evaluated, 2xwater purification systems, 
3xphotovotaie (PV) solar-based energy systems, 1x PV solar lighting 
system, and 1xLED lighting system were selected for further evaluation 
and deployment to Afghanistan.

    63. Senator McCain. General Conway, which of those initiatives do 
you think holds the most promise?
    General Conway. The water purification systems that can be powered 
by solar systems show the most promise at the tactical edge. As we have 
discovered at the tactical edge, for every fuel truck on the roads of 
Afghanistan, we have 6-7 water trucks. Getting small, lightweight, 
alternative powered water purification systems to the battlefield is a 
high priority. In addition, we are encouraged by replacing our 
incandescent lights with LED lighting and PV solar-powered area lights 
too.

                          iraq and afghanistan
    64. Senator McCain. General Conway, I know you are proud of the 
performance of our marines in both Iraq and Afghanistan, and I share 
that pride. I also noticed that this year's budget request includes 
$4.1 billion in the Overseas Contingency Operations (OCO) for fiscal 
year 2011 for Marine Corps operation and maintenance (O&M). The fiscal 
year 2010 OCO amount was $3.4 billion, although the supplemental for 
fiscal year 2010 raised that amount by about $1.1 billion to a total of 
$4.5 billion for all of fiscal year 2010. What are driving your O&M 
costs for fiscal year 2011?
    General Conway. The primary driver of our fiscal year 2011 O&M 
costs is related to Optempo ($850 million). Other significant drivers 
include depot maintenance ($525 million), transportation associated 
with the OIF draw down ($420 million), body armor and personal 
protective equipment ($365), and deployment specific training ($350 
million).

    65. Senator McCain. General Conway, does the fiscal year 2011 
request include everything you need to support the surge in 
Afghanistan?
    General Conway. Yes, the current fiscal year 2011 request will 
support Marine Corps forces and operational requirements to support the 
surge in Afghanistan.

    66. Senator McCain. General Conway, do you have a good feel for 
what the cost of resetting the force will be?
    General Conway. In light of the continued high tempo of operations 
in Afghanistan, and the delay in reset actions due to the diversion of 
equipment in theater, we estimate the cost of reset for the Marine 
Corps to be $8 billion ($3 billion requested in the fiscal year 2011 
OCO and an additional $5 billion reset liability upon termination of 
the conflict). However, this estimate will change the longer we 
continue to remain in theater.

    67. Senator McCain. General Conway, how many years after the final 
draw downs from Iraq and Afghanistan will it take to reset the force 
and what will it cost?
    General Conway. We believe that after the final draw downs from 
Iraq and Afghanistan, with appropriate funding, we will be able to 
reset the force in 2 to 3 years.

                           laser-guided zuni
    68. Senator McCain. General Conway, I am aware that the Marine 
Corps has placed the Laser-Guided Zuni rocket on its most current 
Marine Aviation Plan and on its Air-to-Ground Weapons roadmap. The 
Marine Corps has also validated the Urgent Universal Need Statement 
that requests 5-inch Laser-Guided Zuni rockets for use in combat 
operations and is pursuing the smaller 2.75-inch Advanced Precision 
Kill Weapon System (APKWS) rockets for helicopters. I have been briefed 
that there is no money in the budget for the 5-inch Laser-Guided Zunis 
for jet aircraft; however Marine Corps requirements documents call for 
its development. In fact, the Navy's China Lake Weapons division has 
partnered with industry to build and successfully test fire Laser-
Guided Zunis against fixed and moving targets. Can you tell me why the 
Marine Corps has decided not to fund in the fiscal year 2011 proposed 
budget the development of these precision rockets for its combat 
forces?
    General Conway. Senator, several years ago the Marine Corps 
recognized the need for low collateral damage during combat operations 
and set out to reduce collateral damage by developing an all-precision-
guided weapon inventory. In the fiscal year 2007 Air-to-Ground Weapons 
Roadmap and Marine Aviation Plan we established a goal to create a 
precision-guided capability for all air-to-ground weapons by 2015. 
These documents included a precision-guided 5-inch Zuni rocket (I do 
not use the term Laser-Guided Zuni (LGZ) as those terms have been trade 
marked for a weapon that is not in the Marine Corps inventory). The 
Naval Air Warfare Center China Lake has been operating with industry 
since 2005 within a Cooperative Research and Development Activity 
(CRADA) to fire a guided 5-inch Zuni rocket and prove the concept for a 
precision-guided 5-inch Zuni rocket. This program, with MBDA Missile 
Systems, is designed to upgrade our extensive existing 5-inch Zuni 
rocket motors and warhead inventories by adding a Semi-Active Laser 
(SAL) capability. Two successful ground-launched guided shots against 
stationary and moving targets were completed in May and August 2009. A 
precision-guided 5-inch Zuni will provide a high probability kill, low 
cost weapon against tactical vehicles and other soft targets and the 
Marine Corps needs it to fill the ``clear air'' forward firing missile 
niche for legacy Marine Corps aircraft as they will not carry the 
Joint-Air-to-Ground-Missile (JAGM). In fiscal year 2007 the Marine 
Corps attempted a Joint Capability Technology Demonstration (JCTD), but 
failed to gain the required joint support. The Air Force does not use a 
5-inch rocket and the Navy is focusing resources on JAGM for F/A-18E/F. 
A sole source Rapid Deployment Capability is now our preferred route to 
funding and fielding a guided 5-inch Zuni rocket, but is unlikely due 
to industry competition. The interest shown by many industry 
representatives in the 2.75-inch fixed wing APKWS JCTD, a spinoff of 
the successful rotary wing APKWS program, indicates that pursuing a 
sole source acquisition strategy for the MDBA LGZ may be challenged by 
formal industry protest. Several vendors have offered solutions that 
provide a precision-guidance capability for the Zuni and a full and 
open competition seems likely to be required. NAVAIR's Legal and 
Contracts personnel are assessing the options. The precision-guided 5-
inch Zuni rocket will follow the APKWS II JCTD and will provide a low 
collateral damage precision munition for Marine legacy fixed wing 
aircraft. Adding precision guidance to the Zuni presents challenging 
technical issues because of its mach speed release from the aircraft 
and higher operation altitudes than the APKWS. Although APKWS and JAGM 
are our precision-guided munition solutions for the near term and 
require the scarce resources we have available for funding weapons, a 
precision-guided 5-inch Zuni rocket remains a valid weapon requirement 
for Marine Corps aviation. It is a capability being aggressively 
pursued by us as we support the precision-guided Zuni CRADA effort at 
China Lake.

    69. Senator McCain. General Conway, are Laser-Guided Zunis included 
in your Unfunded Priority List?
    General Conway. Senator, developing a precision 5-inch rocket with 
laser guidance remains a Marine Corps goal. Currently the JAGM and the 
APKWS are the major Navy and Marine Corps weapons programs and have 
high priorities for rotary wing aircraft. The Small Diameter Bomb is a 
high priority program for our fixed wing F-35B aircraft. The precision-
guided 5-inch Zuni will fill gaps between the JAGM and APKWS and SDB 
II, but it competes for scarce funds and is not yet on our Unfunded 
Priority List

                    requirement for a 313-ship navy
    70. Senator McCain. Admiral Roughead, for the past few years the 
Navy has justified to Congress a need for 313 ships. Does this budget 
support that requirement?
    Admiral Roughead. Yes. Our fiscal year 2011 budget request grows 
the capacity of our Fleet to 313 ships by 2020 and 320 ships by 2024.

    71. Senator McCain. Admiral Roughead, I'm concerned that cost 
overruns in shipbuilding programs will undermine future plans. What 
specific actions is the Navy taking to mitigate cost overruns in 
shipbuilding programs?
    Admiral Roughead. To better control shipbuilding costs, the Navy is 
reducing the types of our ships, maximizing the reuse of ship designs 
and components, and pursuing open architecture and mission systems 
modularity. These efforts permit longer production runs and cost 
reductions associated with production improvements and economies of 
scale. We continue to focus on program affordability by ensuring 
designs are mature and requirements are well understood prior to the 
start of construction, and by emphasizing design and affordability 
concepts in initial design and follow-on procurements. We have also 
improved acquisition governance and cost control mechanisms through the 
following initiatives:

        <bullet> Executing an acquisition governance process where 
        leadership assesses technical maturity and programmatic changes 
        that typically drive cost growth
        <bullet> Using cost risk analysis in budget development, which 
        enables understanding of cost risk and uncertainty inherent in 
        the budget
        <bullet> Improving our ability to provide comprehensive cost 
        and earned value management analysis support
        <bullet> Rebuilding our core knowledge, skills and processes to 
        improve cost estimating
        <bullet> Implementing the requirement to submit a certified 
        cost position and ensure the program is fully funded at each 
        milestone

                       30-year shipbuilding plan
    72. Senator McCain. Admiral Roughead, the Navy's 30-Year 
Shipbuilding Plan calls for the replacement of 14 Ohio-class submarines 
and the multi-year procurement of 2 Virginia-class attack submarines 
per year to replace Los Angeles-class submarines. Because the ballistic 
missile submarines run about $6.5 million each and the Virginia-class 
submarines cost about $2 billion each, those expenditures alone consume 
over 75 percent of the current shipbuilding budget. Will the Navy be 
successful in increasing its shipbuilding budget during that period of 
robust submarine procurement so that overall surface ship production 
will not decrease to just two surface ships per year?
    Admiral Roughead. Building the required force structure will 
largely depend on controlling shipbuilding costs (including combat 
systems) within an affordable range. We are committed to maintaining 
stability in requirements, funding, and profiles to control costs. This 
requires the combined efforts of the Navy, the shipbuilding industry, 
and the combat systems industry. Working in conjunction with Congress, 
the Navy will procure and sustain the force structure necessary to 
deliver the naval capabilities needed to support our National 
interests.

    73. Senator McCain. Admiral Roughead, what will be the impact on 
most importantly our force projection capability and second the 
shipbuilding industrial base?
    Admiral Roughead. The battle force inventory presented in our 30-
year shipbuilding plan provides the global reach, persistent presence, 
and strategic, operational, and tactical effects required of our naval 
forces within reasonable levels of funding. On balance, the force 
structure represented by our 30-year shipbuilding plan maintains our 
ability to project power across the spectrum of challenges we are 
likely to face throughout the time period of the report, albeit with 
prudent risk where appropriate. One of the plan's three basic precepts 
is the importance of maintaining an adequate national shipbuilding 
design and industrial base necessary to build and sustain tomorrow's 
Navy. The shipbuilding plan aims to maintain that base.
    The SSBN(X) procurement will begin to constrain our shipbuilding 
plan in the latter part of this decade because recapitalization of our 
SSBNs will occur at the same time our SSN-688 submarines, CG-47 class 
guided missile cruisers, DDG-51 class guided missile destroyers, and 
LSD-41/49 class dock landing ships reach end-of-service-life. During 
the years in which the new submarine is being procured, the procurement 
of other ship types will be reduced, resulting in force level and 
industrial base impacts. Even under these constraints, our shipbuilding 
plan still achieves a peak battle force inventory of 320 ships in 
fiscal year 2024 and averages about 303 ships between fiscal year 2020 
and fiscal year 2040.

    74. Senator McCain. Admiral Roughead, the recently released 30-year 
shipbuilding plan uses the 313-ship battle force inventory as its 
baseline. However, building the required force structure will largely 
depend on controlling shipbuilding costs (including combat systems) 
within an affordable range. Will the Navy be able to maintain stability 
in requirements, funding, and profiles in an effort to control costs?
    Admiral Roughead. Yes. New construction will be funded consistent 
with balanced investment profiles and expected future budgets. The Navy 
will continue to focus on program affordability by ensuring designs are 
mature, that affordability is a factor in design and procurement 
concepts, and that requirements are well specified prior to the start 
of construction.
    The Navy is taking positive action to control costs and prevent 
requirement creep, and to have a long view regarding reduced types and 
models of ships, maximizing reuse of ship designs and components, and 
using open architecture and mission systems modularity. Navy leadership 
is engaged in managing cost and controlling requirements growth in our 
shipbuilding programs. We have instituted an acquisition governance 
process that causes leadership to assess technical maturity and 
programmatic changes. NAVSEA is improving its ability to provide 
comprehensive cost and earned value management analysis support and is 
rebuilding core knowledge, skills and processes to improve cost 
estimating.
    Navy is committed to developing a stable long-term shipbuilding 
plan to reduce industrial base volatility, which is a primary reason 
for cost growth. Great care has been taken to describe a plan that is 
fiscally sustainable over the 30-year planning horizon. The plan also 
takes into account the importance of maintaining an adequate national 
shipbuilding design and industrial base.

    75. Senator McCain. Admiral Roughead, controlling shipbuilding 
costs will require the combined efforts of the Navy, the shipbuilding 
industry, and the combat systems industry. What is the Navy doing to 
encourage fixed-price contracts and ensuring that requirements are 
approved by the leadership and will not change? Please give some 
discrete examples by program type.
    Admiral Roughead. To encourage the use of fixed-price contracts, 
the Navy has developed an acquisition policy defining certain 
limitations and controls for use of cost-reimbursement type contracts 
and emphasizing use of fixed-priced contracts, as appropriate, to 
support the Department's mission.
    For shipbuilding programs, the Navy has successfully used fixed-
price contracts where the design is very mature at the start and is 
derived from existing ship designs and technical risk is low. In cases 
where the initial ships of a class include complex technologies, the 
Navy contracts for these initial ships under cost-type contracts; 
however, as the respective class matures and we move into serial 
production, the contracts typically used are fixed-priced. A specific 
example is DDG-1000, which is a cost contract due to the innovative 
design and high degree of technology insertion. Follow-on ships (DDG-
1001 and -1002) will be fixed-price contracts. An example of where 
fixed-price contracts were used initially is JHSV. That design was 
mature and derived from a well understood parent design. The lead JHSV 
and all follow ships are contracted under a fixed-price contract.
    Additionally, these recent solicitations for shipbuilding new 
construction contracts have been fixed-price: The LCS (fiscal year 2009 
and fiscal year 2010-2014 competitive solicitation); LPD-26/27; DDG-
113/114, DDG-115, and DDG-1001/1002. The fiscal year 2009-2013 
Virginia-class multi-year contract was awarded on a fixed-price basis. 
The upcoming solicitation for LHA-7 construction will be issued as 
fixed-price.
    To ensure that requirements are approved by leadership and changes 
are closely controlled, the Navy has several acquisition oversight 
processes that provide leadership visibility and vigorous control of 
acquisition requirements. The Navy implemented a Peer Review Program in 
fiscal year 2009 which applies to contracts for supplies, systems and 
services and includes tiered review and approval levels. The CNO's 
Resources and Requirements Review Board and Naval Capabilities Board 
(NCB) are the Navy's 3- and 2-star forums for reviewing and making 
decisions on requirements and resourcing issues. SECNAV's requirements-
acquisition governance (Gate Review) and Configuration Steering Board 
(CSB) processes provide Service-level approval of capabilities 
requirements. The annual Gate Six sufficiency reviews serve as the 
forum for the CSB as part of the oversight process to stabilize 
requirements and review any descoping-cost saving strategies. CVN-78, 
LCS, DDG-51 and Virginia-class have planned Gate Six reviews this year. 
The Navy is introducing rigor into the contract change management 
process by limiting the amount of funding program managers may spend 
without a Gate Six sufficiency review to not more than 40 percent of 
the program funds budgeted for engineering changes. Release of 
remaining funds to program managers will be based on the outcome of 
CSBs that are held in conjunction with Gate Six reviews.

        ddg-1000 destroyer program-critical nunn-mccurdy breach
    76. Senator McCain. Secretary Mabus, on February 4, 2010, Secretary 
Gates said the DDG-1000 destroyer program will breach Nunn-McCurdy's 
cost thresholds. By operation of the Weapons Systems Acquisition Reform 
Act of 2009, it should be canceled or restructured and recertified. 
Based on a critical Nunn-McCurdy cost threshold breach, should the Navy 
go forward with buying the third DDG-1000 in light of the Nunn-McCurdy 
cost breach and the growing requirement for more ballistic missile 
defense (BMD) ships in the Pacific, Mediterranean, and Persian Gulf?
    Secretary Mabus. Pursuant to the Weapons System Acquisition Reform 
Act of 2009 and Section 2433 of Title 10, U.S.C. (``Nunn-McCurdy'' 
statute), the Secretary of Defense will terminate, or provide 
certification of the program to Congress. Navy is supporting the 
ongoing OSD-led certification process. A termination or certification 
decision is due to Congress by late spring 2010.

              amphibious fleet affordability and readiness
    77. Senator McCain. Secretary Mabus and General Conway, the Navy's 
plan for a 33-ship amphibious fleet, according to the Navy's budget 
proposal, represents the limit of acceptable risk in meeting the 
requirement to deliver two Marine expeditionary brigades in a forcible-
entry operation. Is the Marine Corps' desire for 38 ships affordable 
and are there ways to mitigate that risk when considering the entire 
shipbuilding plan?
    Secretary Mabus. The 38 ship force identified by the Marine Corps 
represents the lift capacity necessary to support 2.0 MEB operations 
including all of their combat support and combat service support needs 
across their full range of expected missions. This risk/force level is 
inconsistent with the risk levels accepted by the remaining Naval 
Forces. Therefore, the Commandant and CNO reached an agreement to 
benchmark the Amphibious Force at 33 ships and accept a modicum of risk 
in the extent of combat support equipment available within the Assault 
Echelon (AE) forces and to move that equipment in conjunction with 
follow-on force equipment. Specific decisions made in support of this 
agreement are:

        <bullet> The Navy plans to procure an LHA-6 class ship in 
        fiscal year 2011 and its 11th LPD-17 class amphibious transport 
        dock in fiscal year 2012. LSD(X), replacement for the existing 
        LSD-41 class, will begin in fiscal year 2017.

                <bullet> The Navy determined the LHA-6 class amphibious 
                assault ships previously designated for the Maritime 
                Prepositioning Force (Future) (MPF(F)) would serve more 
                effectively in the AE force where they could be 
                employed in Marine forcible-entry operations. Within 
                the context of the 30-year Shipbuilding Plan, these AE 
                amphibious ships will be procured in fiscal year 2011, 
                fiscal year 2016, and fiscal year 2021.
                <bullet> The Navy begins procurement of LSD-41 class 
                replacement, LSD(X), in fiscal year 2017, on a 2-year 
                build cycle.

        <bullet> The Amphibious Lift Enhancement Program (ALEP) 
        provides additional lift capacity, but does not factor in 
        meeting the Marine Corps' 2.0 MEB AE requirement.

                <bullet> ALEP is designed to fill the gap in vehicle 
                square feet stowage.

        <bullet> The Navy plans to procure three Mobile Landing 
        Platforms (MLP) as well as the three previously appropriated T-
        AKEs. These augmented Maritime Prepositioning Ships (MPS) 
        squadrons enhance the afloat prepositioning capacity and will 
        support the USMC 2.0 MEB lift requirement by enabling a 
        reinforcing MEB to ``marry up'' ashore with its equipment from 
        one of the three MPS squadrons. The augmented MPS facilitate 
        the routine employment of prepositioned equipment in a variety 
        of activities across the range of military operations (ROMO) 
        and mitigate the risk of lower than desired amphibious ship 
        inventory levels.

    General Conway. Without a top line increase and/or a 
reprioritization of missions and capabilities that form the basis of 
the Navy's shipbuilding plan, the requirement for 38 amphibious assault 
ships outlined in our 7 January 2009 report to Congress is 
unaffordable. We have examined ways to mitigate risk within the context 
of the entire shipbuilding plan and determined that sustaining a 
minimum of 33 amphibious ships is adequate within today's fiscal 
limitations.

    78. Senator McCain. Secretary Mabus and General Conway, are the 
requirements for more amphibious ships greater because at least 15 to 
20 percent of the amphibious fleet is not deployable because they are 
in shipyards undergoing maintenance and repair?
    Secretary Mabus. No. Under normal circumstances, no more than about 
10 percent of the amphibious fleet is undergoing significant 
maintenance and repair that would preclude operational availability in 
the event of a national crisis. While there may be instances when 
greater than 10 percent of the force is undergoing maintenance, we are 
confident this assumption is consistent with the long term availability 
of amphibious ships for contingency operations.
    The requirement for amphibious ships outlined in the January 7, 
2009, Report to Congress on Naval Amphibious Force Structure and the 
Annual Report to Congress on the Long Range Plan for Construction of 
Naval Vessels for fiscal year 2011, calls for a force of 33 total ships 
(11 LHA/LHD, 11 LPD, and 11 LSD). Under normal circumstances, 29-30 are 
available for tasking, enough to support MEBs while accepting risk in 
the arrival of combat support and combat service support elements of 
the MEB.
    Without accepting this risk, the full requirement would be 38 
ships. However SECNAV, CNO, and CMC agree that the 33-ship force 
equates to an acceptable level of risk, as stated in the January 7, 
2009, Report to Congress on Naval Amphibious Force Structure.
    General Conway. The 38- and 33-ship numbers were based on the 
mutually agreed-to assumption that amphibious ships were operationally 
available 90 percent of the time based on OPNAVNOTE 4700 scheduled 
maintenance availabilities.
    The requirement for amphibious ships outlined in our 7 January 2009 
report to Congress assumes that amphibious ships are not operationally 
available-class due to maintenance approximately 10 percent of the 
time. Due to the current maintenance challenges faced by the San 
Antonio-class, amphibious shipping is trending near 75 percent 
availability vice the 90 percent planned. We would work to improve 
operational availability to close to the 90 percent level instead of 
increasing our force structure requirement to offset a significantly 
lower operational availability. This will require increased resources, 
specifically maintenance funding for the upkeep of amphibious ships.

    79. Senator McCain. Secretary Mabus and General Conway, the serious 
engineering problems on LPD-17 class ships gives rise for a concern 
about a broader readiness problem. The recent commissioning of the USS 
New York in New York City harbor was a marvelous site, but now the ship 
cannot get underway because of mechanical failures in the main 
propulsion engines, generators, and failing piping welds that make the 
ship unsafe to operate. The LPD-17 amphibious ship program has more 
challenges than we had hoped. Are we seeing a systemic problem with the 
readiness of the Navy's amphibious ships?
    Secretary Mabus. No. While we have seen some recurring material 
issues in LPD-17 class ships, the problems associated with a new 
construction ship are not indicative of a systemic problem with the 
amphibious ship readiness of the existing Fleet.
    General Conway. The Navy and Marine Corps are committed to ensuring 
we are ready to meet our amphibious mission requirements. While we have 
seen some recurring material issues in LPD-17 class ships, we are 
working with the shipbuilder to address these issues head on. An LPD-17 
Class Strike Team was established in December 2008 to methodically 
resolve recurring/systemic class issues. Top three issues in progress 
are main propulsion diesel engine (MPDE) bearing damage, Geislinger 
coupling (connects MPDE to main reduction gear (MRG)) leaks, and faulty 
piping welds. In each case the Navy is working with the shipbuilder or 
vendor to identify the root cause and resolve associated material, 
workmanship, or inspection issues.

                          littoral combat ship
    80. Senator McCain. Secretary Mabus, later this year the Navy will 
down-select to a single sea frame for the Littoral Combat Ship (LCS) 
program and split its production between two competing shipyards--this 
new acquisition strategy is designed to reduce the ship's overall cost. 
Will the costs of this troubled program be below the congressional cost 
cap?
    Secretary Mabus. Although achieving the cost cap will be 
challenging, the Navy is working to ensure the program costs are within 
the parameters of the cost cap established in the National Defense 
Authorization Act for Fiscal Year 2010. The Navy will continue to apply 
lessons learned to the LCS program and across the ship acquisition 
enterprise. The Navy's acquisition strategy to competitively downselect 
to a single LCS seaframe will further contribute to cost control on 
this program. Navy remains committed to effective cost control, and 
believes that the acquisition strategy for the fiscal year 2010 and 
later ships and management practices provide the strongest possible 
foundation for program stability and delivery of this urgently-needed 
capability at the best value.

    81. Senator McCain. Secretary Mabus, will the winning vessel be the 
least expensive to operate as is required under the acquisition reform 
law we enacted last year, which highlighted the total operating costs 
of weapons programs?
    Secretary Mabus. The acquisition strategy for the LCS program for 
fiscal year 2010 and later vessels includes key tenets for competition 
identified by the Weapons System Acquisition Reform Act of 2009, such 
as competitive prototyping, dual sourcing, unbundling of contracts, use 
of modular, open architectures to enable competition for upgrades, and 
use of build-to-print technical data packages to enable production by a 
second source. The goal of the Government is to arrive at a best-value 
determination. The Government will however, consider life cycle cost 
reduction initiatives as part of its evaluation under the technical/
management category. Offeror-proposed initiatives to reduce life cycle 
costs will be evaluated, assigned an adjective rating, and factored 
into the overall best value determination.
    Throughout the LCS program, the Navy has focused on reducing both 
acquisition cost and life cycle cost in LCS class ships. In this 
regard, life cycle cost considerations are emphasized in both designs 
through the Navy's requirements for reduced manning, open architecture 
and mission package modularity that have been key design parameters 
since the inception of the program.

                   electronic aircraft launch system
    82. Senator McCain. Secretary Mabus, I am concerned that problems 
with developing the electromagnetic aircraft launch system (EMALS) 
could delay the USS Gerald Ford's (CVN-78) entry into service. That 
could increase the period of time during which the Navy has 11 
operational carriers from 33 months to some longer period. What is the 
status of that troubled program?
    Secretary Mabus. EMALS is currently undergoing System Design and 
Development (SDD) testing at Lakehurst, NJ, and is on track to conduct 
manned aircraft launch later this year. Manufacturing of EMALS 
production components is ongoing and is on schedule to support CVN-78 
delivery dates. Motor generator components have the least schedule 
float and are being closely monitored by the Navy.

    83. Senator McCain. Secretary Mabus, do we expect that problems 
associated with the EMALS will cause any delays to the delivery of the 
CVN-78 it was designed to support?
    Secretary Mabus. Current EMALS production schedules support on-time 
delivery of CVN-78 in September 2015. Motor generators have the least 
schedule float and are being carefully managed by the Navy to ensure 
that required in yard dates are met.

    84. Senator McCain. Secretary Mabus, should we be looking at a 
conventional steam catapult solution if the contractor cannot resolve 
its engineering issues?
    Secretary Mabus. In 2009, Senior Navy leadership decided EMALS 
would remain the CVN-78 class aircraft launching system following a 
detailed assessment of the viability of both EMALS and steam catapults 
on the CVN-78 class. While steam catapults were deemed at the 
conclusion of the assessment to be a technically viable alternative to 
EMALS, reverting to steam would have incurred a 12-18 month delay in 
CVN-78 ship delivery, along with associated costs for redesign and 
delay. The current EMALS System Development and Demonstration (SDD) 
phase and production schedules continue to support the CVN-78 
construction schedule. While the overlap of system-level testing and 
shipset production hardware procurement decision induces some cost and 
schedule risk, the management focus, review processes, and oversight 
the Navy has employed continue to mitigate these risks. The Navy is 
committed to EMALS as the launching system for CVN-78 class aircraft 
carriers.

    85. Senator McCain. Secretary Mabus, how confident are you that the 
EMALS will come on line on time so as not to delay the delivery of the 
CVN-78?
    Secretary Mabus. The Navy is committed to EMALS as the launching 
system for CVN-78 class aircraft carriers. EMALS technology was 
fundamentally proven by the Navy during the Program Definition and Risk 
Reduction phase using a full-scale, half-length prototype. Component-
level testing of production representative hardware is currently 
verifying design predictions and system performance. A full-scale EMALS 
catapult test site is operational at Lakehurst, with launching of 
manned aircraft projected to begin later this year.
    Implementation of the EMALS system for the Gerald R. Ford-class is 
required to meet the fixed wing launch goals of the Navy, as well as 
provide flexibility for future operations. All manufacturing components 
are on schedule to support required in-yard dates for delivery of CVN-
78 in September 2015. The Navy is closely monitoring the production of 
motor generators, the component with the least schedule float, to 
ensure delivery remains on schedule.

                         ship depot maintenance
    86. Senator McCain. Admiral Roughead, as you recall, the only 
priority that you identified as unfunded in your last budget submission 
was ship depot maintenance. Over the last few months, a number of press 
accounts have come out describing problems directly related to how 
ineffectively the shipyards are maintaining the readiness of the Navy's 
oldest surface combatants. I understand that this year's proposed 
budget increases total funding for ship depot maintenance by almost 
$1.2 billion over last year. To what extent does that proposed amount 
fully fund the Navy's current requirement for ship depot maintenance 
and capture depot maintenance volume that has accumulated from chronic 
underfunding over time?
    Admiral Roughead. Our fiscal year 2011 baseline and Overseas 
Contingency Operations (OCO) budget requests $6.1 billion for ship 
maintenance. This funds 99 percent of our total projected ship 
maintenance requirement, including depot maintenance.

                        navy strike fighter gap
    87. Senator McCain. Admiral Roughead, the Navy testified last year 
that the so-called fighter gap or shortfall of strike-fighter aircraft 
on aircraft carriers was growing larger than previous estimates--243 
aircraft short by 2018. Is the Navy taking appropriate action to 
mitigate the gap and the operational implications of that gap?
    Admiral Roughead. The Department of the Navy (DoN) anticipates a 
decrease in our strike fighter inventory of about 100 aircraft that 
will peak at the end of this decade. We are addressing this inventory 
decrease through aggressive and precise management strategies that 
include service-life extension programs to prolong the use of existing 
F/A-18 A-D aircraft, reducing the number of aircraft available in our 
non-deployed squadrons to the minimum required, accelerating the 
transition of seven legacy squadrons to F/A-18 E/F Super Hornets (using 
F/A-18E/F attrition aircraft in two cases), and maximizing depot level 
throughput to return legacy strike fighter aircraft to the Fleet more 
quickly. Collectively, these measures will extend the service life of 
our legacy aircraft and make the projected inventory decrease 
manageable.

    88. Senator McCain. Admiral Roughead, does the Navy have the 
adequate carrier air wings to satisfy the needs of 11 aircraft 
carriers?
    Admiral Roughead. Yes.
    Our carrier air wing (CVW) Fleet Readiness and Training Plan (FRTP) 
is tailored to compliment the training and maintenance requirements for 
our 11 CVNs. We will manage our tactical aviation inventory to ensure 
we have the number of aircraft required to support our deployable CVWs.

    89. Senator McCain. Admiral Roughead, how does this committee 
reconcile different estimates of what this gap is likely to be in 2018 
which Secretary Gates has offered is 100 aircraft?
    Admiral Roughead. The Navy continues to evaluate and manage its 
strike fighter inventory. We have updated our inventory estimates as we 
have adjusted the assumptions in our models to reflect what we are 
learning about the ability to extend the service life of our legacy 
aircraft, and to adjust to procurement rates for JSF and the addition 
by Congress of nine Super Hornets into our budget last year. Based on 
current data and the application of specific management measures, the 
Navy anticipates a shortfall in our strike fighter inventory of about 
100 aircraft that will peak in 2018.

missile defense, ballistic missile defense-capable ships, and standard 
                               missile-3
    90. Senator McCain. Admiral Roughead, as you are well aware, the 
supply of missile defense assets, whether it be Aegis cruisers, 
Standard Missile-3 (SM-3) missiles, Terminal High-Altitude Area Defense 
(THAAD) units, etc., pales in comparison to the worldwide demand of our 
combatant commanders. How does the Navy's budget request seek to 
satisfy the stressing needs of the new European-phased adaptive 
approach while also continuing to meet those needs of ongoing efforts 
in the Pacific, the Middle East, and the Homeland?
    Admiral Roughead. To meet increasing global demands for BMD, our 
fiscal year 2011 budget requests funding to increase and accelerate BMD 
capability and capacity in our Fleet.
    Specifically, the DOD budget request funds six BMD installations 
and one upgrade, in addition to Aegis modernization installs/upgrades 
that were included in PB 10 for our existing surface combatants. 
Additionally the budget request funds the construction of DDG-114 and 
DDG-115, the second and third ship in our DDG-51 restart program. 
Across the FYDP, our budget request increases our total number of Aegis 
BMD-capable ships from 21 to 38, of which 27 will be deployable in 
fiscal year 2015 to meet global requirements for BMD.
    The Aegis BMD budget contains funding to increase the number of SM-
3 missiles in our inventory. Currently, we have 59 SM-3 missiles. The 
projected inventory will be 61 by the end of fiscal year 2010 and 262 
by end of fiscal year 2015.

    91. Senator McCain. Admiral Roughead, with the growing threat from 
China, North Korea, and the Middle East, do your forces have enough 
BMD/SM-3 resources/assets to defend the United States, its allies, and 
forward-deployed forces in the region? In answering this question, 
please break out your responses by BMD capable ships and SM-3 missiles.
    Admiral Roughead. We are meeting existing requirements for BMD 
forces today. The implementation of the phased adaptive approach to 
missile defense of Europe requires an increase in our capacity of BMD-
capable ships and missiles to continue to meet global requirements.
    We are increasing the number of our BMD ships by accelerating the 
installation of Aegis BMD on our existing cruisers and destroyers and 
by restarting the DDG-51 shipbuilding program. By 2015, new 
construction and modernization will bring the total number of BMD 
capable ships in our Fleet to 27, up from 21 today. Our long-term plan 
is to modernize all 62 Aegis destroyers and up to 15 Aegis cruisers 
with BMD capability while building new, BMD-capable DDG-51 ships.
    We are also increasing the number of SM-3 missiles in our 
inventory. Currently, we have 59 SM-3 missiles. The projected inventory 
will be 61 by the end of fiscal year 2010 and 262 by end of fiscal year 
2015.

    92. Senator McCain. Admiral Roughead, is BMD training for the crews 
of these Aegis-BMD ships sufficient to ameliorate stresses on the force 
that are being called on to satisfy other non-BMD mission requirements?
    Admiral Roughead. In February, we completed a thorough analysis of 
the Aegis modernization training program, including BMD and non-BMD 
mission training requirements. The analysis informed curricula 
improvements now underway in the technical training associated with new 
BMD baselines and open architecture systems, enlisted specialized 
skills training, advanced warfare team training, and command, control, 
communications, and intelligence interoperability training. 
Implementation of these curricula improvements will complete in fiscal 
year 2013 and will enhance BMD and non-BMD mission proficiency among 
our crews. As we increase the number of BMD-capable ships in the Fleet 
to support the President's phased adaptive approach for missile defense 
of Europe, we will further enhance our training programs to accommodate 
increased student throughput at Aegis training commands.

    93. Senator McCain. Admiral Roughead, to what extent does your 
budget request address that issue?
    Admiral Roughead. Our fiscal year 2011 budget requests funding to 
expand our training throughput from 20 to 23 BMD-capable ships by the 
end of fiscal year 2011. The expanded training will provide specialized 
skills for additional individual operator training, instructor 
capacity, team training, and technical training aids that will be 
necessary as we grow our BMD capability.

                         law of the sea treaty
    94. Senator McCain. Secretary Mabus and Admiral Roughead, the 
United States has not ratified the Law of the Sea Treaty while China 
has continued efforts to assert sovereignty over contested areas in the 
South China Sea and in other areas where such claims support China's 
national security interests. Beijing has now suspended military-to-
military exchanges as a result of the recent U.S. announcement to 
continue defensive arms sales to Taiwan. How are we managing our 
relationship with China in disputed areas such as its maritime claims?
    Secretary Mabus. The U.S. Navy (USN) manages its relationship with 
China in disputed areas such as its maritime claims as part of the 
Joint Force, in coordination with the interagency, and in accordance 
with the appropriate DOD policies. In support of the larger U.S. 
Government effort, the USN uses consistency in both policy statements 
and operations. Examples include:

        <bullet> Navy leadership regularly reiterates the U.S. position 
        with senior leaders from other maritime powers, such as on 08 
        February with the Chief of Defense Forces, Singapore Armed 
        Forces.
        <bullet> USN representatives engaging with Chinese officials 
        promote U.S. Government interpretations of UNCLOS and 
        international maritime law at the appropriate policy venues 
        (ex: Defense Policy Consultative Talks).
        <bullet> Naval forces in the PACOM AOR conduct missions such as 
        hydrographic and military surveys in accordance with customary 
        international law as codified in UNCLOS.
        <bullet> USN educational institutions engage in academic 
        discussions with Chinese counterparts.
        <bullet> Naval forces leverage cooperative opportunities such 
        as the HOA counter-piracy operation to develop military-to-
        military understanding that can mitigate future tensions.

    Additionally, the Navy maintains that U.S. ratification of UNCLOS 
directly supports our National security interests.
    Admiral Roughead. We are managing our relationship with China, and 
all other nations, in the maritime domain in accordance with customary 
international law. We continue to conduct missions that are consistent 
with customary international law, including our hydrographic and 
military surveys in the Pacific Command area of responsibility. We are 
also leveraging cooperative opportunities, such as in counter-piracy 
operations, to develop military-to-military understanding that can 
mitigate future tensions. Navy is committed to maintaining our forward 
deployed naval forces and rotational forward presence in the Asia-
Pacific region.
    With regard to the Law of the Sea Treaty, customary international 
law is not universally accepted and may be changed by States over time. 
Customary law does not offer the future stability that comes with being 
a party to the Law of the Sea Treaty. Ratification of the Law of the 
Sea Treaty would codify our essential navigational rights and freedoms 
in disputed areas, and grant the United States a seat at the table when 
critical navigational, economic, and other rights are being applied, 
interpreted, and developed by other nations. I continue to support 
ratification of the Law of the Sea Treaty as vital to our National 
security interests and helpful in managing our relations with foreign 
nations, including China.

    95. Senator McCain. Secretary Mabus and Admiral Roughead, how do 
you think the relationship with China will develop as we continue to 
share the global commons--sea, air, space, and cyberspace--as our 
interests clash or diverge?
    Secretary Mabus. The U.S. Navy is working to support the U.S. 
policy of building a positive, cooperative and comprehensive 
relationship with the People's Republic of China. China's re-emergence 
as an actor of consequence on the international stage is increasing the 
quantity of interactions between our two militaries in the global 
commons. As a consequence, and in support of U.S. policy, the U.S. Navy 
is working hard to ensure the quality of these interactions both 
supports the growth of a positive military relationship and encourages 
China to channel their growing naval capabilities towards providing for 
the security of the maritime commons.
    Maritime security is a key element of our Cooperative Strategy for 
21st Century Seapower. It is also an area of mutual interest we share 
with the PLA(N) as China has become more dependent on the stability and 
security of the maritime domain. Both the U.S. Navy and the PLA(N) are 
showing an increasing willingness to maintain a positive momentum in 
the development of our relationship, and Navy is optimistic that both 
sides will continue to seek to cooperate where our interests converge 
and to work out differences in a constructive and effective manner 
through open and frank discussions.
    The U.S. Navy seek to ensure interactions at sea between naval 
vessels of the two countries are conducted in a safe and professional 
manner through venues such as the Military Maritime Cooperative 
Agreement.
    Admiral Roughead. The U.S. Navy is working to support the U.S. 
policy of building a positive, cooperative and comprehensive 
relationship with the People's Republic of China. China's re-emergence 
as an actor of consequence on the international stage is increasing the 
quantity of interactions between our two militaries in the global 
commons. As a consequence, and in support of U.S. policy, the U.S. Navy 
is working hard to ensure the quality of these interactions both 
supports the growth of a positive military relationship and encourages 
China to channel their growing naval capabilities towards providing for 
the security of the maritime commons.
    Maritime security is a key element of our Cooperative Strategy for 
21st Century Seapower. It is also an area of mutual interest we share 
with the PLA(N) as China has become more dependent on the stability and 
security of the maritime domain. Both the U.S. Navy and the PLA(N) are 
showing an increasing willingness to maintain a positive momentum in 
the development of our relationship, and Navy is optimistic that both 
sides will continue to seek to cooperate where our interests converge 
and to work out differences in a constructive and effective manner 
through open and frank discussions.
    The U.S. Navy seek to ensure interactions at sea between naval 
vessels of the two countries are conducted in a safe and professional 
manner through venues such as the Military Maritime Cooperative 
Agreement.

                u.s. marines-okinawa to guam realignment
    96. Senator McCain. Secretary Mabus and General Conway, on February 
17, 2009, the U.S. Government reaffirmed its support of an agreement 
with the Government of Japan concerning the implementation of the 
relocation of 8,000 marines and their families from Okinawa to Guam by 
2014 in a manner that maintains unit integrity. Since then, the 
Japanese elected a new Prime Minister, Yukio Hatoyama, who has asked 
the U.S. Government to consider new options for the Futenma Replacement 
Facility, which is part of the larger agreement for Guam. I note that 
the agreement stipulates that the Japanese Government must demonstrate 
tangible progress regarding the Futenma Replacement Facility, which has 
been defined to include a signature by the Governor of Okinawa on a 
landfill permit required to commence construction. This action was 
currently planned to take place in mid- to late-2010.
    Recently, the Secretary of Defense suggested that we should 
demonstrate patience in the negotiations with the Japanese Government 
on the future of the agreement. With that said, the fiscal year 2011 
budget request contains $452 million in MILCON funds for infrastructure 
on Guam to support the relocation of marines from Okinawa. This is in 
addition to $160 million authorized for construction in the fiscal year 
2010 defense bill. Also, the Japanese Government transferred $336 
million to DOD in July 2009 for projects on Guam. Does DOD plan to 
award construction projects on Guam with U.S. funds or funds provided 
by the Government of Japan prior to resolution of the future of Marine 
Corps Air Station (MCAS) Futenma?
    Secretary Mabus. The fiscal year 2011 budget request is $452 
million in MILCON funds for infrastructure on Guam to support the 
relocation of marines from Okinawa. The National Defense Authorization 
Act for Fiscal Year 2010 provided $514 million in authorization for 
construction to support the Marine relocation.
    The framework for U.S.-Japan force posture realignment is the 
United States-Japan Roadmap for Realignment Implementation, issued 
following the May 1, 2006, meeting of the cabinet-level U.S.-Japan 
Security Consultative Committee. This framework confirms that the 
Okinawa-related realignment initiatives are interconnected and, 
specifically, that the III Marine Expeditionary Force (III MEF) 
relocation from Okinawa to Guam is dependent on, among other things, 
tangible progress toward completion of the Futenma Replacement Facility 
(FRF).
    Our relocation to Guam is a capabilities issue, not a basing issue. 
We have a responsibility to provide operationally ready forces in 
support of the combatant commander and to meet our commitments to 
Allies and partners in the region, including under the U.S.-Japan 
Treaty of Mutual Cooperation and Security.
    We are currently waiting for the Government of Japan to complete 
its review of the FRF. Prime Minister Hatoyama has stated that he 
intends to resolve the issue by May, and we look forward to resuming 
work with the Government of Japan to fulfill our longstanding mutual 
objective of realigning our force posture in Japan to ensure that the 
Alliance's operational capabilities remain sustainable politically and 
operationally.
    General Conway. No DPRI projects have been awarded. They will be 
awarded after the Record of Decision (ROD) is signed. The ROD is 
anticipated in August 2010. GoJ has stated they will provide resolution 
on the future of the FRF in May 2010.
    Fiscal year 2010 MILCON projects were designed to have broad impact 
and enduring value to DOD stationed on Guam. For example Apra Harbor 
Warf improvements and defense access roads will benefit DOD independent 
of any Marine relocation. We have time with MILCON planning to receive 
and analyze GoJ FRF proposals.
    The construction plan is designed purposely to phase in 
capabilities and design requirements. This allows flexibility during 
the initial construction phase and ultimately allows the force laydown 
to drive final facility requirements.
    Initially, infrastructure and enabling facilities, such as at Apra 
Harbor to improve throughput, will be constructed. These initial 
construction projects have an enduring value no matter what the final 
laydown may be. This will be followed by construction of support 
facilities, such as the fire station and medical clinic, and housing. 
General purpose operational facilities, such as warehouses and 
headquarters buildings, will then be constructed. The final 
construction projects will be unit specific buildings that would be 
particular to the force laydown on Guam.

    97. Senator McCain. Secretary Mabus and General Conway, what other 
options are acceptable to the Marine Corps for the relocation of Marine 
aviation units from MCAS Futenma?
    Secretary Mabus. The current Futenma Replacement Facility (FRF) 
plan is a result of several years of bilateral planning culminating in 
what was agreed to be the best answer for both parties. The Government 
of Japan (GoJ) has not made any formal proposals for alternate options, 
nor have they formally identified what is wrong with the current agreed 
to plan. We continue to honor the Agreed Implementation Plans (AIPs) 
and will respect the GoJ's processes of policy review. However, it is 
the USMC position that any FRF option the GoJ may present must provide 
the same or better capability of the current FRF plan.
    General Conway. The current FRF plan is a result of several years 
of bilateral planning culminating in what was agreed to be the best 
answer for both parties. The GoJ has not made any formal proposals for 
alternate options, nor have they formally identified what is wrong with 
the current agreed to plan. We continue to honor the AIPs and will 
respect the GoJ's processes of policy review. However, it is the USMC 
position that any FRF option the GoJ may present must provide the same 
or better capability of the current FRF plan.

    98. Senator McCain. Secretary Mabus and General Conway, would it be 
in the best interests of the Marine Corps to move marines to Guam 
absent an acceptable solution for the Futenma Replacement Facility?
    Secretary Mabus. The U.S.-Japan negotiated agreements were a 
comprehensive set of realignment initiatives to meet the strategic 
needs for both allies. Although the Government of Japan is taking a 
hard look at Futenma Replacement Facility options, we remain confident 
they realize the strategic value of having marines on Okinawa for their 
own defense and for security in the Asia-Pacific region.
    The Marine Corps requires that an aviation capability must remain 
on Okinawa to support the rest of the Marine Air Ground Task Force 
stationed there. We currently have that capability with Marine Aircraft 
Group 36 at Marine Corps Air Station Futenma.
    Our relocation to Guam is a capabilities issue, not a basing issue, 
and we have a responsibility to provide operationally ready forces in 
support of the combatant commander. We need to look at force laydown in 
the Pacific in total, which includes aviation capabilities on Okinawa. 
A suitable Futenma Replacement Facility is considered the ``lynchpin'' 
for USMC force relocation to Guam. Therefore, it is not the USMC desire 
or intent to alter the force laydown, to include moving any forces to 
Guam, until the Futenma issue is adequately resolved.
    General Conway. The U.S.-Japan negotiated agreements were a 
comprehensive set of realignment initiatives to meet the strategic 
needs for both allies. Although the Government of Japan is taking a 
hard look at Futenma Replacement Facility options, we remain confident 
they realize the strategic value of having marines on Okinawa for their 
own defense and for security in the Asia-Pacific region.
    The Marine Corps requires that an aviation capability must remain 
on Okinawa to support the rest of the Marine Air Ground Task Force 
stationed there. We currently have that capability with Marine Aircraft 
Group 36 at Marine Corps Air Station Futenma. If a suitable replacement 
facility proves to be untenable, for whatever reason, we plan to 
continue operating out of Marine Corps Air Station Futenma 
indefinitely.
    Our relocation to Guam is a capabilities issue, not a basing issue, 
and we have a responsibility to provide operationally ready forces in 
support of the combatant commander. We need to look at force laydown in 
the Pacific in total, which includes aviation capabilities on Okinawa. 
A suitable Futenma Replacement Facility is considered the ``lynchpin'' 
for USMC force relocation to Guam. Therefore, it is not the USMC desire 
or intent to alter the force laydown, to include moving any forces to 
Guam, until the Futenma issue is adequately resolved.

    99. Senator McCain. General Conway, on a related issue, the plan 
for the stationing of marines on Guam calls for the acquisition of land 
not currently under the control of DOD in order to provide adequate 
live fire training ranges for the marines stationed on Guam. Initial 
assessments during the environmental review of the plan suggest that 
these land acquisitions may be problematic and marines may need to use 
ranges on other islands such as Tinian and Saipan to conduct training. 
In your view, how will the potential lack of adequate ranges on Guam 
affect Marine Corps training and readiness?
    General Conway. A lack of adequate ranges and training capability 
that would adversely affect readiness is a show stopper. Before moving 
marines to Guam, we must ensure that adequate training capability is 
available.
    The Marine Corps has always maintained that adequate training 
capability must be available in the area commensurate with relocation 
of our marines. Marine forces on Guam must have the ability to sustain 
core competencies in order to meet the operational requirements of the 
combatant commander.

    100. Senator McCain. General Conway, is this development 
significant, or are there acceptable alternatives for the training of 
marines stationed on Guam?
    General Conway. While training ranges currently planned for Guam 
and Tinian provide limited individual-skills training capabilities, 
these ranges do not provide for all requisite collective, combined 
arms, live and maneuver training the Marine Corps forces must meet to 
sustain core competencies. Those Marine Corps forces relocating from 
Okinawa to Guam will have to travel off-island to maintain requisite 
core competency.
    As part of continuing efforts by DOD to address these existing and 
ongoing training issues, as well as the training needs of other 
services in the Western Pacific, the OSD has directed U.S. Pacific 
Command to conduct an Environmental Impact Statement (EIS) for joint 
training requirements in the Western Pacific. This EIS will include an 
evaluation for additional training facilities in the Commonwealth of 
the Northern Mariana Islands and other locations in the Western Pacific 
to address collective, combined arms, live fire and maneuver training 
requirements for Marine Corps and joint forces in the area.

    101. Senator McCain. General Conway, is the development of a 
training range on Tinian Island feasible?
    General Conway. Currently, the plan to develop four expeditionary 
training ranges to augment individual skills training on Guam is 
feasible. Development of ranges that could potentially support ranges 
to meet individual, unit level, and integrated combined arms training 
requirements for training of Marine, joint, and multilateral forces on 
Tinian are unknown and will be addressed in a separate Environmental 
Impact Statement to be conducted by U.S. Pacific Command.

    102. Senator McCain. General Conway, does a potential exist that 
the Marine Corps will be forced to accept and adapt to a plan that does 
not provide for adequate live fire training ranges on Guam as 
originally envisioned?
    General Conway. The Marine Corps has always maintained that 
adequate training capability must be available in the area commensurate 
with relocation of our marines. A lack of adequate ranges and training 
capability that would adversely affect readiness is a show stopper. 
Before moving marines to Guam, we must ensure that adequate training 
capability is available and we are moving in the right direction 
towards that capability.

    103. Senator McCain. Secretary Mabus, on February 17, 2010, the 
U.S. EPA rated the Navy's Draft EIS as Environmentally Unsatisfactory: 
Inadequate Information. This rating was based on two aspects: first, by 
not providing a specific plan to address wastewater treatment and water 
supply needs of the increase in Guam's population due to the influx of 
construction workers related to facilities improvements on Guam which 
may result in significant adverse public health impacts; and second, 
because aspects of the project will result in what EPA views as 
unacceptable impacts to the coral reef ecosystem in Apra Harbor. EPA 
states that the impacts are of sufficient magnitude that EPA believes 
that the proposed improvements to facilities in Guam should not proceed 
as proposed and that improved analyses are required to ensure the final 
EIS is adequate. Given this very negative position by EPA on the 
current environmental analysis supporting the improvements of 
facilities on Guam, and the aggressive 2014 deadline for facilities to 
be ready to support the relocation of 8,000 marines and 9,000 family 
members from Okinawa to Guam, what is the Navy going to do to correct 
these apparent deficiencies?
    Secretary Mabus. The Guam military build-up EIS is one of the most 
complex EISs ever undertaken by DOD. We have worked closely with EPA 
and other Federal and local agencies during the development of the 
Draft EIS, and expected that formal agency comments would point out 
deficiencies and areas requiring revision. We are currently analyzing 
all comments received on the Draft EIS and are determining how best to 
address these issues in the Final EIS. The White House Council on 
Environmental Quality is also involved and is leading interagency 
efforts to help determine how best to assess and address the indirect 
impacts of the military buildup. DOD is committed to executing the 
program on Guam in such a way that will not pose significant public 
health impacts, so we are currently evaluating the major potential 
causes of those impacts and developing mitigation solutions. We also 
continue to work with other Federal agencies to find ``whole-of-
government funding'' solutions to address Guam's existing conditions 
and potential impacts associated with the general population growth of 
Guam.

    104. Senator McCain. Secretary Mabus, can the Navy proceed with any 
of the MILCON projects requested in the fiscal year 2011 budget 
request, or projects to be funded by the Government of Japan, given the 
need to carry out further environmental analyses to support the build 
up on Guam?
    Secretary Mabus. We are currently reviewing public comments 
received on the DEIS, developing strategies for how best to address 
them in the Final EIS, and determining whether any of the issues raised 
by public comments received require further environmental analysis. As 
of this time we have not identified any specific issues or items that 
require additional environmental analysis such that we would not be 
able to carry out projects funded by the Government of Japan in 
Japanese fiscal year 2009 and 2010, and U.S. MILCON in fiscal year 2010 
and 2011.
    We must complete the Final EIS and sign the ROD before starting any 
of the construction projects, regardless of funding source. Our 
acquisition strategy allows for award of contracts for all projects for 
which we have received GOJ or US funding immediately following the 
signing of the ROD.

    105. Senator McCain. Secretary Mabus, what projects are likely to 
be delayed due to the need to address the issues raised by EPA?
    Secretary Mabus. The Navy is currently reviewing the comments 
submitted by EPA on the Draft EIS. While EPA has raised many serious 
concerns, we are optimistic that we can respond to the issues raised 
and make necessary changes to the Final EIS to address EPA's concerns 
and thus avoid any delay in the program.
    The following Government of Japan funded Japanese fiscal year 2009 
and 2010 projects, as well as the U.S. MILCON fiscal year 2010 and 2011 
projects, are scheduled to be awarded shortly after a ROD is issued 
later this fiscal year.

          JFY 2009 ACE Gate, U&SI Ph I, AAFB
          JFY 2009 Apra Harbor, U&SI Ph 1
          JFY 2009 Finegayan, U&SI Ph I
          FY 2010 P-1003 Military Working Dogs
          FY 2010 P-204 Apra Wharf Ph I (U/T) Increment I
          FY 2010 P-100 North Ramp Utilities Ph I, AAFB
          FY 2010 P-101 North Ramp Parking Ph I, AAFB
          JFY 2010 J007 Waterfront Ops
          JFY 2010 J008 Fire Station, Finegayan
          JFY 2010 J006 Apra Harbor Clinic
          JFY 2010 J017 U&SI Ph II, Finegayan
          JFY 2010 J-010 BEQ, Finegayan
          FY 2011 P-110 U&SI, Finegayan Ph I
          FY 2011 P-202 North Ramp Utilities Ph II, AAFB
          FY 2011 P-203 North Ramp Parking Ph II, AAFB
          FY 2011 P-204 Apra Wharf Ph I (U/T) Increment II
          JFY 2011 J-011 Base Admin Bldg
          JFY 2011 J-012 MLG Admin Bldg
          JFY 2011 J-015 Enlisted Dining Facility
          JFY 2011 J-016 BEQ Site Adapt, 2 BEQs, Finegayan

    106. Senator McCain. Secretary Mabus, how will this delay impact 
the deadline to be ready for the marines to move to Guam by 2014?
    Secretary Mabus. We are committed to the 2014 date agreed to in the 
Realignment Roadmap between the United States and Japan. We are 
currently reviewing public comments received on the DEIS and developing 
strategies for how best to address them in the Final EIS and sign a ROD 
in time to begin construction in fiscal year 2010.

                                 china
    107. Senator McCain. Admiral Roughead, are you comfortable with the 
current number of U.S. submarines, especially at the rate that China is 
building and deploying its submarine fleet?
    Admiral Roughead. Our existing submarine fleet of 53 attack 
submarines (SSNs) is meeting all critical combatant commander SSN 
requirements, including any potential threat posed by the existing 
Chinese submarine fleet.
    Beyond the FYDP, our SSN force structure will dip below combatant 
commanders' minimum force level requirement of 48 SSNs in 2024, as we 
decommission Los Angeles-class SSNs at a rate of 3 to 4 per year. Our 
ability to effectively counter submarine threats posed in this 
timeframe hinges on our reaching and maintaining an increased 
construction rate of two Virginia-class SSNs per year starting in 2011. 
Our fiscal year 2011 budget requests funding for this construction.

    108. Senator McCain. Admiral Roughead, how is the Navy planning 
long-term to maintain its strategic and tactical dominance in Asia-
Pacific?
    Admiral Roughead. The Navy will continue to maintain its strategic 
and tactical dominance in the Asia-Pacific region through sustained 
engagement with allies and partners and the persistent forward presence 
of our combat-capable ships and aircraft in the region. Specifically, 
we will continue to forward deploy naval forces and exercise the 
freedom of maneuver necessary to deter aggression, assure our allies, 
and enable our quick response to regional contingencies. We will employ 
superior and resilient warfare systems, including sea-based BMD and 
conduct exercises to improve interoperability with our joint service 
and international partners. We will conduct regional maritime security 
operations and partnership building activities to protect maritime 
resources, support free and open seaborne commerce, and counter 
conventional and irregular challenges, including maritime-related 
terrorism, weapons proliferation, transnational crime, piracy, 
environmental destruction, and illegal seaborne immigration. Navy 
remains committed to sustained and active engagement in the Asia-
Pacific region over the long-term to protect our vital national 
interests.

                 proposal for moratorium on discharges
    109. Senator McCain. Secretary Mabus, Admiral Roughead, and General 
Conway, in his testimony on February 2, Admiral Mullen was clear that 
the Joint Chiefs have not yet developed their best military advice 
about the impact of a repeal of the DADT policy or the manner in which 
a change would be implemented. However, many in Congress intend to move 
quickly through legislation to repeal the law as quickly as possible, 
including imposition of a moratorium on administrative separations 
while the high level review proceeds. Do you support a moratorium on 
discharges of openly gay servicemembers while the high level review is 
conducted?
    Secretary Mabus. I do not recommend enactment of a moratorium 
because I believe that it would complicate the ongoing review directed 
by Secretary Gates to assess the potential impact of a repeal of 10 
U.S.C. Sec. 654. The Department of the Navy is participating in the DOD 
Comprehensive Review Working Group to assess the implications of a 
repeal of 10 U.S.C. Sec. 654 and, should that occur, to develop an 
implementation plan for any statutory change. That review is due to 
report its findings to Secretary Gates by December 1, 2010. I strongly 
believe we owe our servicemembers informed and thoughtful 
decisionmaking.
    Admiral Roughead. I do not recommend enactment of a moratorium 
because I believe that it would be extremely confusing to the force at 
a time when they are engaged in two combat operations and other 
demanding military activities around the globe. Moreover, a moratorium 
could complicate the ongoing review directed by Secretary Gates.
    General Conway. No.

    110. Senator McCain. Secretary Mabus, Admiral Roughead, and General 
Conway, what is the basis for your objection to a congressionally-
mandated moratorium on separations of openly gay servicemembers under 
the DADT policy?
    Secretary Mabus. I do not recommend enactment of a moratorium 
because I believe that it would complicate the ongoing review directed 
by Secretary Gates to assess the potential impacts of a repeal of 10 
U.S.C. Sec. 654. The Department of the Navy is participating in the DOD 
Comprehensive Review Working Group to assess the implications of a 
repeal of 10 U.S.C. Sec. 654, should that occur, and develop an 
implementation plan for any new statutory mandate. That review is due 
to report its findings to Secretary Gates by December 1, 2010. I 
strongly believe we owe our servicemembers informed and thoughtful 
decisionmaking.
    Admiral Roughead. I believe a moratorium would be extremely 
confusing to the force at a time when they are engaged in two combat 
operations and other demanding military activities around the globe, 
and that a moratorium could complicate the ongoing comprehensive review 
directed by Secretary Gates.
    General Conway. Until such time as the law is changed, the Marine 
Corps will follow the law.
    Commanders in the field are executing the current law and policy to 
the absolute best of their abilities.
    During this time of war, Congress should either change the law or 
not. Half measures, while the public debate and in-depth study are 
ongoing, will only create confusion for commanders and marines and add 
an additional level of friction to an already complex battlefield.

                   role of the joint chiefs of staff
    111. Senator McCain. Admiral Roughead and General Conway, Admiral 
Mullen is the principal military adviser to the President and the 
Secretary of Defense, but under law, he must consult and seek advice 
from the other members of the Joint Chiefs of Staff and the combatant 
commanders. Have you been given adequate opportunity to state your 
views to date?
    Admiral Roughead. Yes. The Chairman has always been receptive to 
hearing my views on matters affecting the U.S. Navy.
    General Conway. Senator McCain, I believe that Admiral Mullen has 
sought out, and provided me adequate opportunity to state my views. If 
disagreement exists, the Chairman routinely shares the Service Chiefs' 
views with the President and the Secretary of Defense. If the Service 
Chiefs think we need a stronger reply, we are not hesitant to write and 
sign a 16-star letter and send it forward.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                 life cycle fuel consumption and costs
    112. Senator Sessions. Secretary Mabus, on December 3, 2009, I sent 
you a letter and expressed concern that ``TOC, including fuel 
efficiency, should be a critical factor of competitive cost 
evaluation'' in the LCS request for proposal (RFP). On January 14, 
2010, you responded in a letter and stated, ``reduced TOC has been 
central to the LCS concept and requirements.'' Additionally, you stated 
at the Naval Energy Forum in October 2009 that, ``the lifetime energy 
cost of a building or a system, and the fully burdened cost of fuel in 
powering those, will be a mandatory evaluation factor used when 
awarding contracts.'' Where, specifically, in the final RFP do you 
evaluate the lifecycle fuel costs in dollars for the LCS?
    Secretary Mabus. The LCS fiscal years 2010-2014 block buy 
solicitation does not specifically address life cycle fuel costs in 
dollars. Life cycle cost reduction is one of six technical/management 
evaluation criteria. The offerors are required to propose specific life 
cycle cost reduction initiatives for all areas of life cycle costs--
training, maintenance, energy usage, supply support, configuration 
management, operations (including fuel usage), environmental impact and 
disposal. These are common TOC categories in the Operating and Support 
Cost Estimating Guide from OSD Cost Analysis Improvement Group (October 
2007).
    The Government will not consider life cycle cost as part of its 
evaluation under the price/cost category. Since the inception of the 
LCS program, the Navy has focused on reducing both acquisition cost and 
life cycle cost in LCS class ships. In this regard, life cycle cost 
considerations are emphasized in both designs through the Navy's 
requirements for reduced manning, open architecture and mission package 
modularity that have been key design parameters since the inception of 
the program.
    The Navy has performed extensive O&S cost sensitivity analysis of 
each ship design. Total ownership considers research and development 
costs, investment costs, disposal costs, and O&S costs including 
maintenance, manning, training, fuel, and infrastructure support. The 
Navy's analysis shows both designs meet the O&S requirements.
    In this regard, fuel costs are an important contributor to the 
estimated life cycle cost for each ship design, but are also highly 
dependent on the speed-time profile assumed for the LCS mission. 
Specifically, fuel costs for both designs would vary significantly 
based on the speed-time profile assumed. Moreover, the speed-time 
profile provided to both design teams in the LCS Build Specifications 
was based upon an assumption that the ship would perform a single 
wartime mission: mine countermeasures. It did not reflect other 
significant LCS wartime missions, such as anti-submarine warfare or 
anti-surface warfare, and did not reflect any lessons learned from 
actual operation of either of the first two ships, and did not include 
a peacetime operating scenario for LCS. What can be shown is that for a 
variety of operational profiles, both LCS designs meet the threshold 
value for O&S costs defined in the LCS Capabilities Development 
Document as ``Ownership Cost'' and approved by the Joint Requirements 
Oversight Council.
    With one ship of each LCS design already delivered and another ship 
of each design under construction, the competing designs are where they 
are today because of the inherent design features that have been 
required from the beginning of the program and the continued focus on 
reducing acquisition cost. If the Navy were to include O&S costs in the 
price/cost evaluation of competing proposals, then the Offerors would 
have to be provided an opportunity to re-optimize their respective 
designs to minimize O&S costs, which may result in significant proposed 
changes to each existing ship design, adding time to the acquisition 
process, introducing design instability, potentially increasing 
acquisition cost, and adding overall risk to the program.
    The solicitation includes an evaluation factor under the technical/
management category for Life Cycle Cost Reduction Initiatives. Offeror-
proposed initiatives to reduce life cycle costs will be evaluated, 
assigned an adjectival rating, and factored into the overall best value 
determination. Proposed life cycle cost reduction initiatives will 
therefore be a consideration in the Navy's best value determination for 
this acquisition. Post award, the Navy may implement any or all of the 
proposed life cycle cost reduction initiatives over the lifetime of the 
contract, if deemed appropriate, in order to provide a more favorable 
long-term O&S cost profile for the selected design.

    113. Senator Sessions. Secretary Mabus, how did you determine the 
factors to address those lifecycle fuel costs in dollars and where was 
the data generated to determine the lifecycle fuel consumption?
    Secretary Mabus. The LCS fiscal years 2010-2014 block buy 
solicitation does not specifically address life cycle fuel costs in 
dollars. Life cycle cost reduction is one of six technical/management 
evaluation criteria. The offerors are required to propose specific life 
cycle cost reduction initiatives for all areas of life cycle costs--
training, maintenance, energy usage, supply support, configuration 
management, operations (including fuel usage), environmental impact and 
disposal. These are common TOC categories in the Operating and Support 
Cost Estimating Guide from OSD Cost Analysis Improvement Group (October 
2007).
    The Government will not consider life cycle cost as part of its 
evaluation under the price/cost category. Since the inception of the 
LCS program, the Navy has focused on reducing both acquisition cost and 
life cycle cost in LCS class ships. In this regard, life cycle cost 
considerations are emphasized in both designs through the Navy's 
requirements for reduced manning, open architecture and mission package 
modularity that have been key design parameters since the inception of 
the program.
    The Navy has performed extensive O&S cost sensitivity analysis of 
each ship design. Total Ownership considers research and development 
costs, investment costs, disposal costs, and O&S costs including 
maintenance, manning, training, fuel, and infrastructure support. The 
Navy's analysis shows both designs meet the O&S requirements.
    In this regard, fuel costs are an important contributor to the 
estimated life cycle cost for each ship design, but are also highly 
dependent on the speed-time profile assumed for the LCS mission. 
Specifically, fuel costs for both designs would vary significantly 
based on the speed-time profile assumed. Moreover, the speed-time 
profile provided to both design teams in the LCS Build Specifications 
was based upon an assumption that the ship would perform a single 
wartime mission: mine countermeasures. It did not reflect other 
significant LCS wartime missions, such as anti-submarine warfare or 
anti-surface warfare, and did not reflect any lessons learned from 
actual operation of either of the first two ships, and did not include 
a peacetime operating scenario for LCS. What can be shown is that for a 
variety of operational profiles, both LCS designs meet the threshold 
value for O&S costs defined in the LCS Capabilities Development 
Document as ``Ownership Cost'' and approved by the Joint Requirements 
Oversight Council.
    With one ship of each LCS design already delivered and another ship 
of each design under construction, the competing designs are where they 
are today because of the inherent design features that have been 
required from the beginning of the program and the continued focus on 
reducing acquisition cost. If the Navy were to include O&S costs in the 
price/cost evaluation of competing proposals, then the Offerors would 
have to be provided an opportunity to re-optimize their respective 
designs to minimize O&S costs, which may result in significant proposed 
changes to each existing ship design, adding time to the acquisition 
process, introducing design instability, potentially increasing 
acquisition cost, and adding overall risk to the program.
    The solicitation includes an evaluation factor under the technical/
management category for Life Cycle Cost Reduction Initiatives. Offeror-
proposed initiatives to reduce life cycle costs will be evaluated, 
assigned an adjectival rating, and factored into the overall best value 
determination. Proposed life cycle cost reduction initiatives will 
therefore be a consideration in the Navy's best value determination for 
this acquisition. Post award, the Navy may implement any or all of the 
proposed life cycle cost reduction initiatives over the lifetime of the 
contract, if deemed appropriate, in order to provide a more favorable 
long-term O&S cost profile for the selected design.

    114. Senator Sessions. Secretary Mabus, why was the determination 
of fuel consumption and lifecycle costs done in terms of percentages 
vice real dollars?
    Secretary Mabus. The LCS fiscal years 2010-2014 block buy 
solicitation does not specifically address life cycle fuel costs in 
dollars. Life cycle cost reduction is one of six technical/management 
evaluation criteria. The offerors are required to propose specific life 
cycle cost reduction initiatives for all areas of life cycle costs--
training, maintenance, energy usage, supply support, configuration 
management, operations (including fuel usage), environmental impact and 
disposal. These are common TOC categories in the Operating and Support 
Cost Estimating Guide from OSD Cost Analysis Improvement Group (October 
2007).
    The Government will not consider life cycle cost as part of its 
evaluation under the price/cost category. Since the inception of the 
LCS program, the Navy has focused on reducing both acquisition cost and 
life cycle cost in LCS class ships. In this regard, life cycle cost 
considerations are emphasized in both designs through the Navy's 
requirements for reduced manning, open architecture and mission package 
modularity that have been key design parameters since the inception of 
the program.
    The Navy has performed extensive O&S cost sensitivity analysis of 
each ship design. Total ownership considers research and development 
costs, investment costs, disposal costs, and O&S costs including 
maintenance, manning, training, fuel, and infrastructure support. The 
Navy's analysis shows both designs meet the O&S requirements.
    In this regard, fuel costs are an important contributor to the 
estimated life cycle cost for each ship design, but are also highly 
dependent on the speed-time profile assumed for the LCS mission. 
Specifically, fuel costs for both designs would vary significantly 
based on the speed-time profile assumed. Moreover, the speed-time 
profile provided to both design teams in the LCS Build Specifications 
was based upon an assumption that the ship would perform a single 
wartime mission: mine countermeasures. It did not reflect other 
significant LCS wartime missions, such as anti-submarine warfare or 
anti-surface warfare, and did not reflect any lessons learned from 
actual operation of either of the first two ships, and did not include 
a peacetime operating scenario for LCS. What can be shown is that for a 
variety of operational profiles, both LCS designs meet the threshold 
value for O&S costs defined in the LCS Capabilities Development 
Document as ``Ownership Cost'' and approved by the Joint Requirements 
Oversight Council.
    With one ship of each LCS design already delivered and another ship 
of each design under construction, the competing designs are where they 
are today because of the inherent design features that have been 
required from the beginning of the program and the continued focus on 
reducing acquisition cost. If the Navy were to include O&S costs in the 
price/cost evaluation of competing proposals, then the Offerors would 
have to be provided an opportunity to re-optimize their respective 
designs to minimize O&S costs, which may result in significant proposed 
changes to each existing ship design, adding time to the acquisition 
process, introducing design instability, potentially increasing 
acquisition cost, and adding overall risk to the program.
    The solicitation includes an evaluation factor under the technical/
management category for Life Cycle Cost Reduction Initiatives. Offeror-
proposed initiatives to reduce life cycle costs will be evaluated, 
assigned an adjectival rating, and factored into the overall best value 
determination. Proposed life cycle cost reduction initiatives will 
therefore be a consideration in the Navy's best value determination for 
this acquisition. Post award, the Navy may implement any or all of the 
proposed life cycle cost reduction initiatives over the lifetime of the 
contract, if deemed appropriate, in order to provide a more favorable 
long-term O&S cost profile for the selected design.

    115. Senator Sessions. Secretary Mabus, is the use of percentages a 
common practice for evaluating these important criteria? If you think 
it does or does not, please explain your rationale.
    Secretary Mabus. The LCS fiscal years 2010-2014 block buy 
solicitation does not specifically address life cycle fuel costs in 
dollars. Life cycle cost reduction is one of six technical/management 
evaluation criteria. The offerors are required to propose specific life 
cycle cost reduction initiatives for all areas of life cycle costs--
training, maintenance, energy usage, supply support, configuration 
management, operations (including fuel usage), environmental impact and 
disposal. These are common TOC categories in the Operating and Support 
Cost Estimating Guide from OSD Cost Analysis Improvement Group (October 
2007).
    The Government will not consider life cycle cost as part of its 
evaluation under the price/cost category. Since the inception of the 
LCS program, the Navy has focused on reducing both acquisition cost and 
life cycle cost in LCS class ships. In this regard, life cycle cost 
considerations are emphasized in both designs through the Navy's 
requirements for reduced manning, open architecture and mission package 
modularity that have been key design parameters since the inception of 
the program.
    The Navy has performed extensive O&S cost sensitivity analysis of 
each ship design. Total ownership considers research and development 
costs, investment costs, disposal costs, and O&S costs including 
maintenance, manning, training, fuel, and infrastructure support. The 
Navy's analysis shows both designs meet the O&S requirements.
    In this regard, fuel costs are an important contributor to the 
estimated life cycle cost for each ship design, but are also highly 
dependent on the speed-time profile assumed for the LCS mission. 
Specifically, fuel costs for both designs would vary significantly 
based on the speed-time profile assumed. Moreover, the speed-time 
profile provided to both design teams in the LCS Build Specifications 
was based upon an assumption that the ship would perform a single 
wartime mission: mine countermeasures. It did not reflect other 
significant LCS wartime missions, such as anti-submarine warfare or 
anti-surface warfare, and did not reflect any lessons learned from 
actual operation of either of the first two ships, and did not include 
a peacetime operating scenario for LCS. What can be shown is that for a 
variety of operational profiles, both LCS designs meet the threshold 
value for O&S costs defined in the LCS Capabilities Development 
Document as ``Ownership Cost'' and approved by the Joint Requirements 
Oversight Council.
    With one ship of each LCS design already delivered and another ship 
of each design under construction, the competing designs are where they 
are today because of the inherent design features that have been 
required from the beginning of the program and the continued focus on 
reducing acquisition cost. If the Navy were to include O&S costs in the 
price/cost evaluation of competing proposals, then the Offerors would 
have to be provided an opportunity to re-optimize their respective 
designs to minimize O&S costs, which may result in significant proposed 
changes to each existing ship design, adding time to the acquisition 
process, introducing design instability, potentially increasing 
acquisition cost, and adding overall risk to the program.
    The solicitation includes an evaluation factor under the technical/
management category for Life Cycle Cost Reduction Initiatives. Offeror-
proposed initiatives to reduce life cycle costs will be evaluated, 
assigned an adjectival rating, and factored into the overall best value 
determination. Proposed life cycle cost reduction initiatives will 
therefore be a consideration in the Navy's best value determination for 
this acquisition. Post award, the Navy may implement any or all of the 
proposed life cycle cost reduction initiatives over the lifetime of the 
contract, if deemed appropriate, in order to provide a more favorable 
long-term O&S cost profile for the selected design.

    116. Senator Sessions. Secretary Mabus, in your letter to me dated 
January 14, 2010, you stated, ``prior to the fiscal year 2010 contract 
award, the LCS program will be presented to the Under Secretary of 
Defense of Acquisition, Technology, and Logistics as the Milestone 
Decision Authority for a Milestone B decision. Here, the Navy's Life 
Cycle Cost Estimate will be scrutinized against an independently 
derived estimate for the Office of the Director of Cost Assessment and 
Program Evaluation (CAPE).'' It is my understanding that the milestone 
decision will occur after the source selection. Why would you wait 
until after a source selection is made to evaluate the second most 
important program cost criteria for the life cycle cost of the LCS?
    Secretary Mabus. The contract award of the LCS fiscal year 2010-
2014 block buy solicitation will not occur until after the Milestone B 
has been conducted. Rather, the Navy will prepare for and participate 
in the Milestone B decision process concurrently with its evaluation of 
competing proposals under this solicitation.
    This approach has been used on other shipbuilding programs and was 
most recently used on the competitive contract award of the Joint High 
Speed Vessel (JHSV) in November 2008.
    This approach is consistent with both the January 14, 2010 letter 
and in my public statements before the Naval Energy Forum in October 
2009.

    117. Senator Sessions. Secretary Mabus, has this approach ever been 
used before, or is it common practice to consider life cycle fuel 
consumption after the source selection is made? If so, please provide 
the program name and dates where this approach was executed.
    Secretary Mabus. The contract award of the LCS fiscal year 2010-
2014 block buy solicitation will not occur until after the Milestone B 
has been conducted. Rather, the Navy will prepare for and participate 
in the Milestone B decision process concurrently with its evaluation of 
competing proposals under this solicitation.
    This approach has been used on other shipbuilding programs and was 
most recently used on the competitive contract award of the JHSV in 
November 2008.
    This approach is consistent with both the January 14, 2010 letter 
and in my public statements before the Naval Energy Forum in October 
2009.

    118. Senator Sessions. Secretary Mabus, do you feel that this 
approach is consistent with your statements of January 14, 2010, in the 
letter to me and your public statement before the Naval Energy Forum in 
October 2009?
    Secretary Mabus. Yes. From the inception of the LCS Program, TOC 
has been addressed through the utilization of open architecture, 
reduced manning, and reduced maintenance. Although fuel (energy) costs 
are not a specific evaluation factor in the cost section of the LCS 
Request For Proposal (RFP), the RFP strikes an appropriate balance 
between the acquisition costs and O&S costs that make up the overall 
TOCs.
    The technical/management section of the RFP specifically focuses on 
the drivers of TOC in an effort to further reduce O&S costs, 
particularly in the area of energy usage or fuel costs. From the 
beginning of the LCS program, the Navy has focused on reducing both 
acquisition cost and life cycle cost in LCS class ships. In this 
regard, life cycle cost considerations are emphasized in both LCS 
designs, through the Navy's requirements for reduced manning, mission 
package modularity and open architecture that have been key design 
parameters since the inception of the program.
    The fiscal year 2010 LCS RFP addresses TOC as one of six technical 
factors. This factor specifically focuses on future efforts to reduce 
ownership cost in the areas of training, maintenance, supply support, 
configuration management, operations costs (which include fuel), 
environmental impact and disposal, all of which affect TOC. The RFP 
includes an evaluation factor under the technical/management category 
for life cycle cost reduction initiatives. Offeror-proposed initiatives 
to reduce life cycle costs will be evaluated, assigned an adjective 
rating, and factored into the overall best value determination.
    Fuel costs are highly dependent on the speed-time profile assumed 
for the LCS mission. Specifically, fuel costs for both designs would 
vary significantly based on the speed-time profile assumed. Moreover, 
the speed-time profile provided to both design teams in the LCS Build 
Specifications was based upon an assumption that the ship would perform 
a single wartime mission: mine countermeasures. It did not reflect 
other significant LCS wartime missions, such as anti-submarine warfare 
or anti-surface warfare, did not reflect any lessons learned from 
actual operation of either of the first two ships, and did not include 
a peacetime operating scenario for LCS. What can be shown is that for 
representative operational profiles, both LCS designs meet the 
threshold value for O&S costs defined in the LCS Capabilities 
Development Document as ``Ownership Cost'' and approved by the Joint 
Requirements Oversight Council.

              draft request for proposal sections l and m
    119. Senator Sessions. Secretary Mabus and Admiral Roughead, why 
was the decision made to not provide Sections L and M to the bidders 
during the draft RFP comment period?
    Secretary Mabus. The decision not to release a draft of Sections L 
and M until after the OSD Peer Review was completed was not a 
mishandling of the draft RFP, nor does it constitute a basis for 
protest. The sections of the RFP that were complete (sections A-J) were 
provided as a draft to the offerors to afford them an understanding of 
the scope, structure and requirements of the RFP and to allow them to 
provide questions or concerns related to the requirements and structure 
of the statement of work. Draft RFP Sections A-J were released to 
industry prior to the OSD Peer Review.
    DOD policy requires peer reviews of solicitations for major systems 
acquisitions to ensure consistent and appropriate regulation and policy 
implementation for negotiated source selections, improve the quality of 
contracting processes, and facilitate sharing of best practices and 
lessons learned across DOD. Sections L and M were not released to 
industry until after the completion of the OSD Peer Review based on a 
joint decision by Naval Sea Systems Command Contracts Directorate 
(NAVSEA 02) and Program Executive Office for Ships (PEO SHIPS).
    The decision on whether to release a draft RFP and the content of 
the draft RFP varies by program. However, it is not uncommon for 
Sections L and M to be released only after they have been finalized. A 
draft RFP without Sections L and M was issued for the competitive 
procurement for Integrated Submarine Imaging Systems (ISIS) in support 
of the Submarine Sensor Systems Program Office (PMS 435). Contract 
award was made and this procurement was not protested. For the DDG-51 
program MRG and JHSV competitions, only the draft specifications were 
issued prior to the final RFP. JHSV was successfully awarded without 
protest; the MRG competition is ongoing.
    Admiral Roughead. The decision to not release a draft of Sections L 
and M until after the OSD Peer Review was completed was not a 
mishandling of the draft RFP, nor does it constitute a basis for 
protest. The sections of the RFP that were complete (sections A-J) were 
provided as a draft to the offerors to afford them an understanding of 
the scope, structure and requirements of the RFP, and to allow them to 
provide questions or concerns related to the requirements and structure 
of the statement of work.
    DOD policy requires peer reviews of solicitations for major systems 
acquisitions to ensure consistent and appropriate regulation and policy 
implementation for negotiated source selections, improve the quality of 
contracting processes, and facilitate sharing of best practices and 
lessons learned across DOD. Sections L and M were not released to 
industry until after the completion of the OSD Peer Review based on a 
joint decision by NAVSEA 02 and PEO SHIPS.
    The decision on whether to release a draft RFP and the content of 
the draft RFP varies by program. However, it is not uncommon for 
sections L and M to be released only after they have been finalized. A 
draft RFP without sections L and M was issued for the competitive 
procurement for ISIS. Contract award was made and this procurement was 
not protested. For the DDG-51 program MRG and JHSV competitions, only 
the draft specifications were issued prior to the final RFP. JHSV was 
successfully awarded without protest; the MRG competition is ongoing.

    120. Senator Sessions. Secretary Mabus and Admiral Roughead, do you 
feel this is a mishandling of the draft RFP and could serve as a 
potential area of protest?
    Secretary Mabus. The decision not to release a draft of Sections L 
and M until after the OSD Peer Review was completed was not a 
mishandling of the draft RFP, nor does it constitute a basis for 
protest. The sections of the RFP that were complete (Sections A-J) were 
provided as a draft to the offerors to afford them an understanding of 
the scope, structure and requirements of the RFP and to allow them to 
provide questions or concerns related to the requirements and structure 
of the statement of work. Draft RFP Sections A-J were released to 
industry prior to the OSD Peer Review.
    DOD policy requires peer reviews of solicitations for major systems 
acquisitions to ensure consistent and appropriate regulation and policy 
implementation for negotiated source selections, improve the quality of 
contracting processes, and facilitate sharing of best practices and 
lessons learned across DOD. Sections L and M were not released to 
industry until after the completion of the OSD Peer Review based on a 
joint decision by NAVSEA 02 and PEO SHIPS.
    The decision on whether to release a draft RFP and the content of 
the draft RFP varies by program. However, it is not uncommon for 
sections L and M to be released only after they have been finalized. A 
draft RFP without sections L and M was issued for the competitive 
procurement for ISIS in support of the Submarine Sensor Systems Program 
Office (PMS 435). Contract award was made and this procurement was not 
protested. For the DDG-51 program MRG and JHSV competitions, only the 
draft specifications were issued prior to the final RFP. JHSV was 
successfully awarded without protest; the MRG competition is ongoing.
    Admiral Roughead. The decision to not release a draft of sections L 
and M until after the OSD Peer Review was completed was not a 
mishandling of the draft RFP, nor does it constitute a basis for 
protest. The sections of the RFP that were complete (sections A-J) were 
provided as a draft to the offerors to afford them an understanding of 
the scope, structure and requirements of the RFP, and to allow them to 
provide questions or concerns related to the requirements and structure 
of the statement of work.
    DOD policy requires peer reviews of solicitations for major systems 
acquisitions to ensure consistent and appropriate regulation and policy 
implementation for negotiated source selections, improve the quality of 
contracting processes, and facilitate sharing of best practices and 
lessons learned across DOD. Sections L and M were not released to 
industry until after the completion of the OSD Peer Review based on a 
joint decision by NAVSEA 02 and PEO SHIPS.
    The decision on whether to release a draft RFP and the content of 
the draft RFP varies by program. However, it is not uncommon for 
sections L and M to be released only after they have been finalized. A 
draft RFP without sections L and M was issued for the competitive 
procurement for ISIS. Contract award was made and this procurement was 
not protested. For the DDG-51 program MRG and JHSV competitions, only 
the draft specifications were issued prior to the final RFP. JHSV was 
successfully awarded without protest; the MRG competition is ongoing.

    121. Senator Sessions. Secretary Mabus and Admiral Roughead, who 
made this decision?
    Secretary Mabus. The decision not to release a draft of Sections L 
and M until after the OSD Peer Review was completed was not a 
mishandling of the draft RFP, nor does it constitute a basis for 
protest. The sections of the RFP that were complete (sections A-J) were 
provided as a draft to the offerors to afford them an understanding of 
the scope, structure and requirements of the RFP and to allow them to 
provide questions or concerns related to the requirements and structure 
of the statement of work. Draft RFP sections A-J were released to 
industry prior to the OSD Peer Review.
    DOD policy requires peer reviews of solicitations for major systems 
acquisitions to ensure consistent and appropriate regulation and policy 
implementation for negotiated source selections, improve the quality of 
contracting processes, and facilitate sharing of best practices and 
lessons learned across DOD. Sections L and M were not released to 
industry until after the completion of the OSD Peer Review based on a 
joint decision by NAVSEA 02 and PEO SHIPS.
    The decision on whether to release a draft RFP and the content of 
the draft RFP varies by program. However, it is not uncommon for 
Sections L and M to be released only after they have been finalized. A 
draft RFP without sections L and M was issued for the competitive 
procurement for ISIS in support of the Submarine Sensor Systems Program 
Office (PMS 435). Contract award was made and this procurement was not 
protested. For the DDG-51 program MRG and JHSV competitions, only the 
draft specifications were issued prior to the final RFP. JHSV was 
successfully awarded without protest; the MRG competition is ongoing.
    Admiral Roughead. The decision to not release a draft of Sections L 
and M until after the OSD Peer Review was completed was not a 
mishandling of the draft RFP, nor does it constitute a basis for 
protest. The sections of the RFP that were complete (sections A-J) were 
provided as a draft to the offerors to afford them an understanding of 
the scope, structure, and requirements of the RFP, and to allow them to 
provide questions or concerns related to the requirements and structure 
of the statement of work.
    DOD policy requires peer reviews of solicitations for major systems 
acquisitions to ensure consistent and appropriate regulation and policy 
implementation for negotiated source selections, improve the quality of 
contracting processes, and facilitate sharing of best practices and 
lessons learned across DOD. Sections L and M were not released to 
industry until after the completion of the OSD Peer Review based on a 
joint decision by NAVSEA 02 and PEO SHIPS.
    The decision on whether to release a draft RFP and the content of 
the draft RFP varies by program. However, it is not uncommon for 
sections L and M to be released only after they have been finalized. A 
draft RFP without sections L and M was issued for the competitive 
procurement for ISIS. Contract award was made and this procurement was 
not protested. For the DDG-51 program MRG and JHSV competitions, only 
the draft specifications were issued prior to the final RFP. JHSV was 
successfully awarded without protest; the MRG competition is ongoing.

    122. Senator Sessions. Secretary Mabus and Admiral Roughead, on 
what other occasions has the Navy not provided these sections during 
the draft RFP comment period?
    Secretary Mabus. The decision not to release a draft of sections L 
and M until after the OSD Peer Review was completed was not a 
mishandling of the draft RFP, nor does it constitute a basis for 
protest. The sections of the RFP that were complete (sections A-J) were 
provided as a draft to the offerors to afford them an understanding of 
the scope, structure and requirements of the RFP and to allow them to 
provide questions or concerns related to the requirements and structure 
of the statement of work. Draft RFP Sections A-J were released to 
industry prior to the OSD Peer Review.
    DOD policy requires peer reviews of solicitations for major systems 
acquisitions to ensure consistent and appropriate regulation and policy 
implementation for negotiated source selections, improve the quality of 
contracting processes, and facilitate sharing of best practices and 
lessons learned across DOD. Sections L and M were not released to 
industry until after the completion of the OSD Peer Review based on a 
joint decision by NAVSEA 02 and PEO SHIPS.
    The decision on whether to release a draft RFP and the content of 
the draft RFP varies by program. However, it is not uncommon for 
sections L and M to be released only after they have been finalized. A 
draft RFP without sections L and M was issued for the competitive 
procurement for ISIS in support of the Submarine Sensor Systems Program 
Office (PMS 435). Contract award was made and this procurement was not 
protested. For the DDG-51 program MRG and JHSV competitions, only the 
draft specifications were issued prior to the final RFP. JHSV was 
successfully awarded without protest; the MRG competition is ongoing.
    Admiral Roughead. The decision to not release a draft of sections L 
and M until after the OSD Peer Review was completed was not a 
mishandling of the draft RFP, nor does it constitute a basis for 
protest. The sections of the RFP that were complete (sections A-J) were 
provided as a draft to the offerors to afford them an understanding of 
the scope, structure and requirements of the RFP, and to allow them to 
provide questions or concerns related to the requirements and structure 
of the statement of work.
    DOD policy requires peer reviews of solicitations for major systems 
acquisitions to ensure consistent and appropriate regulation and policy 
implementation for negotiated source selections, improve the quality of 
contracting processes, and facilitate sharing of best practices and 
lessons learned across DOD. Sections L and M were not released to 
industry until after the completion of the OSD Peer Review based on a 
joint decision by NAVSEA 02 and PEO SHIPS.
    The decision on whether to release a draft RFP and the content of 
the draft RFP varies by program. However, it is not uncommon for 
sections L and M to be released only after they have been finalized. A 
draft RFP without sections L and M was issued for the competitive 
procurement for ISIS. Contract award was made and this procurement was 
not protested. For the DDG-51 program MRG and JHSV competitions, only 
the draft specifications were issued prior to the final RFP. JHSV was 
successfully awarded without protest; the MRG competition is ongoing.

    123. Senator Sessions. Secretary Mabus and Admiral Roughead, what 
was the outcome of those acquisition programs?
    Secretary Mabus. The decision not to release a draft of sections L 
and M until after the OSD Peer Review was completed was not a 
mishandling of the draft RFP, nor does it constitute a basis for 
protest. The sections of the RFP that were complete (sections A-J) were 
provided as a draft to the offerors to afford them an understanding of 
the scope, structure and requirements of the RFP and to allow them to 
provide questions or concerns related to the requirements and structure 
of the statement of work. Draft RFP sections A-J were released to 
industry prior to the OSD Peer Review.
    DOD policy requires peer reviews of solicitations for major systems 
acquisitions to ensure consistent and appropriate regulation and policy 
implementation for negotiated source selections, improve the quality of 
contracting processes, and facilitate sharing of best practices and 
lessons learned across DOD. Sections L and M were not released to 
industry until after the completion of the OSD Peer Review based on a 
joint decision by NAVSEA 02 and PEO SHIPS.
    The decision on whether to release a draft RFP and the content of 
the draft RFP varies by program. However, it is not uncommon for 
sections L and M to be released only after they have been finalized. A 
draft RFP without sections L and M was issued for the competitive 
procurement for ISIS in support of the Submarine Sensor Systems Program 
Office (PMS 435). Contract award was made and this procurement was not 
protested. For the DDG-51 program MRG and JHSV competitions, only the 
draft specifications were issued prior to the final RFP. JHSV was 
successfully awarded without protest; the MRG competition is ongoing.
    Admiral Roughead. The decision to not release a draft of sections L 
and M until after the OSD Peer Review was completed was not a 
mishandling of the draft RFP, nor does it constitute a basis for 
protest. The sections of the RFP that were complete (sections A-J) were 
provided as a draft to the offerors to afford them an understanding of 
the scope, structure and requirements of the RFP, and to allow them to 
provide questions or concerns related to the requirements and structure 
of the statement of work.
    DOD policy requires peer reviews of solicitations for major systems 
acquisitions to ensure consistent and appropriate regulation and policy 
implementation for negotiated source selections, improve the quality of 
contracting processes, and facilitate sharing of best practices and 
lessons learned across DOD. Sections L and M were not released to 
industry until after the completion of the OSD Peer Review based on a 
joint decision by NAVSEA 02 and PEO SHIPS.
    The decision on whether to release a draft RFP and the content of 
the draft RFP varies by program. However, it is not uncommon for 
sections L and M to be released only after they have been finalized. A 
draft RFP without sections L and M was issued for the competitive 
procurement for ISIS. Contract award was made and this procurement was 
not protested. For the DDG-51 program MRG and JHSV competitions, only 
the draft specifications were issued prior to the final RFP. JHSV was 
successfully awarded without protest; the MRG competition is ongoing.

                          best value approach
    124. Senator Sessions. Secretary Mabus, you stated before this 
committee on February 25, 2010, that, ``both ships meet the 
requirements for the Navy.'' I understand that LCS-1 has made 
engineering modifications after delivery to place stern extensions to 
the hull to address performance issues. If that information is 
accurate, how can you state that both ships met the requirements on 
delivery?
    Secretary Mabus. Surface ships, including the LCS designs, are 
required to meet stability standards, even if over 15 percent of the 
ship's length is flooded. The Build Specification for LCS invokes this 
requirement. LCS-1 meets these requirements with the addition of the 
external tanks. The LCS-3 had already incorporated this change into the 
fiscal year 2009 contract baseline, which is the performance baseline 
for the fiscal year 2010-2014 block buy solicitation. Similarly, the 
LCS-4 incorporated larger gas turbine waterjets, which included tunnel 
and transom redesign, which is the performance baseline for the fiscal 
years 2010-2014 block buy solicitation. Both LCS designs in the fiscal 
years 2010-2014 block buy solicitation meet the Navy's standards.

    125. Senator Sessions. Secretary Mabus, additionally, the final RFP 
allows for changes and modifications to the hull to address weight, 
trim, and stability. Are these changes to LCS-1 being allowed to 
compensate for a design shortfall in the hull's performance even after 
she was delivered to the Navy?
    Secretary Mabus. Surface ships, including the LCS designs, are 
required to meet stability standards, even if over 15 percent of the 
ship's length is flooded. The Build Specification for LCS invokes this 
requirement. LCS-1 meets these requirements with the addition of the 
external tanks. The LCS-3 had already incorporated this change into the 
fiscal year 2009 contract baseline, which is the performance baseline 
for the fiscal year 2010-2014 block buy solicitation. Similarly, the 
LCS-4 incorporated larger gas turbine waterjets, which included tunnel 
and transom redesign, which is the performance baseline for the fiscal 
years 2010-2014 block buy solicitation. Both LCS designs in the fiscal 
years 2010-2014 block buy solicitation meet the Navy's standards.

    126. Senator Sessions. Secretary Mabus, does this then mean that 
LCS-1 meets the performance requirements as outlined by the Navy?
    Secretary Mabus. Surface ships, including the LCS designs, are 
required to meet stability standards, even if over 15 percent of the 
ship's length is flooded. The Build Specification for LCS invokes this 
requirement. LCS-1 meets these requirements with the addition of the 
external tanks. The LCS-3 had already incorporated this change into the 
fiscal year 2009 contract baseline, which is the performance baseline 
for the fiscal year 2010-2014 block buy solicitation. Similarly, the 
LCS-4 incorporated larger gas turbine waterjets, which included tunnel 
and transom redesign, which is the performance baseline for the fiscal 
year 2010-2014 block buy solicitation. Both LCS designs in the fiscal 
year 2010-2014 block buy solicitation meet the Navy's standards.

    127. Senator Sessions. Secretary Mabus, if a provision can be made 
to enhance the performance of one ship in these areas, why did you 
determine that changes could not be made to descope the ships where 
they over perform to allow for cost competitiveness?
    Secretary Mabus. Surface ships, including the LCS designs, are 
required to meet stability standards, even if over 15 percent of the 
ship's length is flooded. The Build Specification for LCS invokes this 
requirement. LCS-1 meets these requirements with the addition of the 
external tanks. The LCS-3 had already incorporated this change into the 
fiscal year 2009 contract baseline, which is the performance baseline 
for the fiscal year 2010-2014 block buy solicitation. Similarly, the 
LCS-4 incorporated larger gas turbine waterjets, which included tunnel 
and transom redesign, which is the performance baseline for the fiscal 
year 2010-2014 block buy solicitation. Both LCS designs in the fiscal 
year 2010-2014 block buy solicitation meet the Navy's standards.

                     u.s. marine corps requirements
    128. Senator Sessions. General Conway, it is my understanding that 
you toured the USS Independence (LCS-2) last year. Is a larger mission 
bay more advantageous to Marine Corps operations when comparing LCS-2 
to LCS-1?
    General Conway. A larger mission bay would be advantageous, 
however, the LCS has a limited interface capability and does not have 
the capability for at-sea offload. The Marine Corps continues to 
explore LCS options with the Navy.

    129. Senator Sessions. General Conway, is a larger flight deck more 
advantageous to Marine Corps operations when comparing LCS-2 to LCS-1?
    General Conway. A comparison of LCS-1 versus LCS-2 shows that LCS-
2's larger flight deck would be preferable. It is large enough to 
support landing up to a single CH-53E or a single MV-22 at a time and 
possibly supporting dual operations of H-1 aircraft whereas the smaller 
LCS-1 flight deck would only support landing a single H-1 at a time. 
However, the LCS class of ships was not structurally designed to 
support landing aircraft heavier than Navy MH-60 variants. This results 
in neither ship being capable of supporting landing operations of the 
USMC's primary assault support helicopters (MV-22/CH-53E). The Marine 
Corps is currently working with the Navy in exploring current LCS 
capabilities, determining the costs associated with possible flight 
deck modifications, and how future LCS operations could incorporate 
Marine Forces. Actions such as increasing the deck and point loading 
strength of the LCS-2 or modifying the design of the LCS-1 flight deck 
to support larger helicopters would enable safe and sustained landing 
operations of all Marine Corps rotary-wing platforms. This ability 
would enhance and provide flexibility to stated LCS mission sets such 
as SOF support, NEO, HA/DR, and theater security cooperation/maritime 
influence. This would in turn provide maritime component planners 
greater flexibility in course of action development. We understand that 
ultimately the Navy must find solutions that best support the LCS 
mission.

    130. Senator Sessions. General Conway, were Marine Corps 
operational requirements taken into consideration during the 
development of the draft RFP or final RFP for the LCS program? If so, 
what were those requirements and if not, why not?
    General Conway. Marine Corps operational requirements were not 
taken into consideration. LCS was primarily designed to support three 
Navy missions in the littorals: mine warfare, anti-submarine warfare, 
and surface warfare.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                          contract for lpd-26
    131. Senator Vitter. Secretary Mabus, I understand that a RFP has 
been released for the LPD-26 and a proposal has been submitted. 
Congress has appropriated significant funding for the LPD-26, and the 
longer there is no contract, the more jobs that are at risk. Please 
provide me with a status update on the contract.
    Secretary Mabus. The Navy is committed to a stable shipbuilding 
plan and is actively engaged with industry to expedite shipbuilding 
contract awards. A Request for Proposal for LPD-26 with an option for 
LPD-27 was sent to Northrop Grumman Shipbuilding (NGSB) on May 4, 2009. 
The shipbuilder provided their LPD-26 proposal to the Navy on January 
26, 2010. The Navy immediately began fact finding on the proposal. The 
review and audit of this proposal is ongoing, with negotiations 
expected to start shortly. However, the speed of the resolution and the 
final award will depend on the ability of both NGSB and the Navy to 
reach an agreement that is fair and reasonable.
    In June 2009, Navy awarded $213 million of LPD-26 long lead time 
material (LLTM). An additional $200 million is in process in order to 
maintain the contractor proposed production schedule.

    132. Senator Vitter. Secretary Mabus, how quickly will the Navy 
take to approve a bid to move forward on the LPD-26?
    Secretary Mabus. The Navy is committed to a stable shipbuilding 
plan and is actively engaged with industry to expedite shipbuilding 
contract awards. A Request for Proposal for LPD-26 with an option for 
LPD-27 was sent to NGSB on May 4, 2009. The shipbuilder provided their 
LPD-26 proposal to the Navy on January 26, 2010. The Navy immediately 
began fact finding on the proposal. As a result of discussions between 
the Navy and NGSB, the proposal is ongoing, with negotiations expected 
to start shortly. However, the speed of the resolution and the final 
award will depend on the ability of both NGSB and the Navy to reach an 
agreement that is fair and reasonable.
    In June 2009, Navy awarded $213 million of LPD-26 LLTM. An 
additional $200 million is in process in order to maintain the 
contractor's proposed production schedule.

    133. Senator Vitter. Secretary Mabus, can you give a definitive 
deadline on when this will be approved?
    Secretary Mabus. The Navy is committed to a stable shipbuilding 
plan and is actively engaged with industry to expedite shipbuilding 
contract awards. For the LPD-17 program, the Navy awarded $213 million 
of LLTM to NGSB for LPD-26 on June 23, 2009. The Navy's Request for 
Proposal (RFP), issued on May 4, 2009 for construction of LPD-26, 
included options for LPD-27 LLTM and for LPD-27 construction. The Navy 
received a proposal from NGSB for construction of LPD-26 and some LLTM 
for LPD-27 on January 26, 2010, and is actively in discussions with 
NGSB to reach an agreement.

                    information technology contracts
    134. Senator Vitter. Secretary Mabus, the Department of the Navy 
was visionary in their pursuit and implementation of the Navy Marine 
Corps Intranet (NMCI), the single largest information technology (IT) 
network in the world short of the Internet itself. NMCI has been in 
place since 2000 and has proven to be invaluable to the Department of 
the Navy as the world's preeminent command and control network and 
placing the Department of the Navy ahead of both the Army and the Air 
Force in IT capability.
    We are now coming to the conclusion of this contract which will 
expire in October of this year. It is my understanding the Department 
of the Navy has decided to continue operations using a Continuations of 
Services Contract (COSC) until the Department finalizes the RFP 
necessary to procure for the Next Generation Enterprise Contract which 
will be the program of record building on NMCI.
    My question for you is in these challenging economic times wouldn't 
it be best for the taxpayers and the Department of the Navy to contract 
those services via a multi-year contract for the required duration of 
the COSC, instead of a series of single-year contracts? We know these 
multi-year contracts reduce program costs because they enable the 
ability to plan and make the necessary arrangements well into the 
future rather than negotiating program specifics on an annual basis 
regarding workforce retention, supplier pricing, and asset cost 
recovery.
    Secretary Mabus. As a multi-year contract the Department of the 
Navy would be locked into an extended non-competitive relationship with 
predetermined minimums that would compromise the competitive 
environment we seek to create for NGEN. The DoN goal is to transition 
as quickly as possible from COSC to competitive contracts.
                                 ______
                                 
              Question Submitted by Senator Susan Collins
                            public shipyards
    135. Senator Collins. Secretary Mabus, last year I raised the issue 
of maintaining the infrastructure in our four public shipyards. You 
indicated that the Navy is trying to incorporate more mission critical 
infrastructure improvement projects into the base budget rather than 
relying on congressional earmarks for funding. Although the President's 
fiscal year 2011 budget includes slight increases in MILCON and SRM 
funding, I remain concerned about the material condition of Navy 
shipyards. According to the Navy the current SRM backlog, as of last 
December, was $3 billion. Can you please detail how the Navy plans on 
addressing this backlog and upgrading our public shipyards?
    Secretary Mabus. Shipyards are fully functional and safely meeting 
their fleet mission requirements. The Navy has steadily increased its 
investment in Naval shipyard recapitalization over the past several 
years through Operation and Maintenance, Navy and MILCON projects.
    In 2009, Navy completed a comprehensive condition assessment of the 
Naval shipyards to assess restoration requirements. A configuration 
analysis was also recently completed for modernization requirements.
    We are developing future investment plans to properly address the 
backlog to ensure that the public shipyards continue to meet future 
mission requirements.

    [Whereupon, at 12:28 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                        THURSDAY, MARCH 4, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                      DEPARTMENT OF THE AIR FORCE

    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Akaka, Bill Nelson, E. Benjamin Nelson, Udall, Hagan, Begich, 
Burris, McCain, Sessions, Chambliss, and Thune.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Madelyn R. Creedon, counsel; Creighton Greene, professional 
staff member; Jessica L. Kingston, research assistant; Gerald 
J. Leeling, counsel; Peter K. Levine, general counsel; Jason W. 
Maroney, counsel; Roy F. Phillips, professional staff member; 
and John H. Quirk V, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Pablo E. Carrillo, minority investigative 
counsel; Daniel A. Lerner, professional staff member; Lucian L. 
Niemeyer, professional staff member; Christopher J. Paul, 
professional staff member; Diana G. Tabler, professional staff 
member; and Richard F. Walsh, minority counsel.
    Staff assistants present: Kevin A. Cronin, Paul J. Hubbard, 
and Jennifer R. Knowles.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Patrick Hayes, assistant to 
Senator Bayh; Gordon I. Peterson, assistant to Senator Webb; 
Jennifer Barrett, assistant to Senator Udall; Roger Pena, 
assistant to Senator Hagan; Lindsay Kavanaugh, assistant to 
Senator Begich; Roosevelt Barfield, assistant to Senator 
Burris; Sandra Luff, assistant to Senator Sessions; Clyde A. 
Taylor IV, assistant to Senator Chambliss; Jason Van Beek, 
assistant to Senator Thune; and Erskine W. Wells III, assistant 
to Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. We will start with 
a warm welcome to our witnesses. Secretary Donley, General 
Schwartz, we welcome you back to the committee to testify on 
the plans and the programs of the U.S. Air Force as we review 
the fiscal year 2011 annual budget and overseas contingency 
operations (OCO) request of the administration.
    Gentlemen, please extend on behalf of our committee our 
gratitude to the men and women of the Air Force and to their 
families, for the many sacrifices that they have made on behalf 
of our Nation; thanks to both of you for your long careers of 
leadership and service.
    The budget request continues the defense reforms begun last 
year to rebalance the force towards the military capabilities 
necessary to prevail in today's wars, to buy weapons that are 
relevant and affordable, and to ensure that tax dollars are 
used wisely. Consistent with those reform goals set out by 
Secretary Gates and the results of the Quadrennial Defense 
Review (QDR), a top priority for the Department of Defense 
(DOD) must be the critical requirements for the ongoing 
conflicts in Afghanistan and Iraq. Our committee has sought to 
ensure that our combatant commanders have what they need to 
succeed in those conflicts, including technologies to counter 
improvised explosive devices (IED) and intelligence, 
surveillance, and reconnaissance (ISR) assets.
    We're confident that this committee will continue to 
support the needs of our warfighters in those conflicts. I 
would note in particular that the new budget is going to 
support expanding the number of Predator Unmanned Aerial 
Vehicles (UAV) in theater from approximately 150 to 200. This 
committee has been pressing for more UAVs I think every single 
year for at least the last 15 years.
    A number of critical issues confront the Air Force. We know 
that the Air Force is providing forces to the U.S. Central 
Command (CENTCOM) war efforts in a number of traditional roles, 
but is also providing airmen in support of land component 
tasks. We look forward to hearing this morning about how the 
Air Force is responding to the shift of emphasis from Iraq to 
Afghanistan and how the Air Force is supporting these current 
operations while preparing its forces to deal with future 
demands.
    The catastrophic January 12, 2010, earthquake that struck 
the nation of Haiti reminded all of us just how indiscriminate 
national disasters can be and renewed America's commitments to 
the Nation of Haiti. DOD has mobilized resources and manpower 
to aid in the relief effort in support of the Department of 
State and the U.S. Agency for International Development.
    We know that the Air Force has played a critical role in 
supporting those relief efforts in Haiti, and we applaud those 
efforts and stand ready to continue to work with the Air Force 
to ensure that DOD is able to continue to provide support to 
this critical humanitarian disaster response effort in the 
weeks and months ahead.
    We await receipt of the Nuclear Posture Review (NPR). We 
also expect that the Senate will be presented with a new treaty 
to succeed the Strategic Arms Reduction Treaty (START). 
Significant reductions in the nuclear weapons stockpile, both 
deployed warheads and those in reserve, while maintaining the 
remaining stockpile in a safe, secure, and reliable 
configuration, should strengthen our security. We will be 
having much more discussion on these topics in the coming 
weeks.
    The NPR, as well as the START follow-on treaty, could have 
a significant impact on the Air Force. The budget request for 
fiscal year 2011 includes funds to begin the next phase of the 
life extension study for the B-61 nuclear bomb. This nuclear 
gravity bomb is the only nuclear weapon carried by fighter 
aircraft and is the only nuclear weapon carried by North 
Atlantic Treaty Organization (NATO) aircraft.
    The Air Force is looking at bomber force reductions, a new 
bomber aircraft, and the possibility of some changes in the 
Minuteman Intercontinental Ballistic Missile (ICBM) force, 
either in the number of deployed systems or the number of 
nuclear warheads loaded on missiles. After the significant 
failures in the management of the nuclear force structure, the 
Air Force has taken significant steps to refocus on the nuclear 
enterprise, including the recent standup of the Global Strike 
Command. But there is much more that needs to be done. More 
rigorous nuclear inspections have uncovered deep systemic 
problems. There's been progress and a lot of hard work on the 
part of many dedicated professionals, but the recovery is by no 
means complete.
    The most pressing space issue for the Air Force, together 
with the Office of the Secretary of Defense (OSD), is to 
address the management of space programs. Currently management 
of space programs is very fragmented. One of the reasons for 
this predicament is that the Air Force has been without an 
Under Secretary since well before the end of the Bush 
administration.
    That extended vacancy in the Under Secretary's position 
raises a more fundamental problem that the Air Force is facing 
now. The President has nominated and the committee has 
considered, and indeed unanimously endorsed, a number of well-
qualified people to fill vacancies in DOD. I intend to seek 
again unanimous consent to move those nominations through the 
Senate. They've been stalled far too long. It is unconscionable 
what these holds are doing to nominees that are nominated to 
fill essential positions.
    I would hope that all of my colleagues, all of us on this 
committee, will join in this effort to get these nominees 
confirmed. They were unanimously approved by this committee, 
and these vacancies matter and it makes it much more difficult 
for the agencies, in this case the Air Force, to carry out 
essential functions.
    Another acquisition challenge facing the Air Force is the 
closure of several production lines and the stretching out of 
others. Once again, the Air Force has chosen not to request 
funds for the C-17 aircraft program and the overall F-35 Joint 
Strike Fighter (JSF) program has been stretched out. I know 
that the JSF program is being managed by a joint program office 
with representatives from the Air Force and the Department of 
the Navy. Also, at the current time, an Air Force official 
serves as the senior acquisition executive overseeing the JSF 
joint program office.
    Given the recent revelations of troubles with the system 
design and demonstration phase of the JSF program and the 
relief of the program manager, as well as Secretary Donley's 
indications this week that the initial operating capability 
(IOC) date for the Air Force has slipped and the restructured 
program may incur a Nunn-McCurdy breach, the committee will be 
holding a hearing next week on the JSF program. I specifically 
want to thank again Senator McCain for his bird-dogging of this 
and so many programs. I just want to again let all the members 
of the committee know that the hearing, which Senator McCain 
has requested very appropriately, should be scheduled by the 
end of next week, and we thank him for his focus on this matter 
on behalf of all of us.
    One program that appears to be moving forward as planned at 
this time last year is the Strategic Tanker Modernization 
program. The Department of the Air Force issued a new request 
for proposals (RFP) late last month. We look forward to the Air 
Force's proceeding on that program.
    Underlying all these major acquisition concerns is an 
acquisition management issue. Secretary Donley, both you and 
your predecessor have made it a major goal to improve the Air 
Force acquisition corps. I believe that we all realize that the 
Air Force needed to take significant steps to build up the 
acquisition workforce and restore confidence in the Air Force 
acquisition program after the abuses and poor decisions that 
were previously documented on the tanker lease program.
    In addition, the President last year signed the Weapons 
Systems Acquisition Reform Act (WSARA) of 2009, which this 
committee led in getting passed. While this legislation will 
help correct past problems, I also know that we will succeed 
only through concerted efforts within the executive branch to 
implement the spirit of that legislation and to improve past 
behavior within DOD. We cannot legislate a culture change. We 
can do everything we can legislatively, and we have. We can 
perform oversight, which we have a responsibility to do. But 
the culture change, which is essential, can only come 
internally.
    We look forward to hearing from you this morning about what 
progress you're making on this issue, expanding the acquisition 
workforce, and dealing with the other issues that face the Air 
Force.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you very much, Mr. Chairman. I join 
you in welcoming Secretary Donley and General Schwartz here 
today to discuss the President's budget request for fiscal year 
2011 for the Department of the Air Force. Informed by the 2010 
QDR and the aircraft investment plan for fiscal years 2011 
through 2040, the Air Force's fiscal year 2011 base budget 
request of $150 billion builds on the substantial changes that 
both of you outlined in last year's budget. I want to 
emphasize, I understand the Air Force is going through a period 
of significant transition where winning the wars of today while 
preparing for the conflicts of tomorrow requires balancing of 
risks.
    I look forward to your assessment as to how this budget 
proposal achieves a desirable balance between our present and 
future priorities. I want to again state, I greatly appreciate 
your continuing to place the highest priority on supporting our 
men and women who wear the blue uniform and their families. 
There can be no doubt that, like our soldiers, sailors, and 
marines, they deserve the most steadfast and united support we 
can offer.
    As the chairman mentioned, JSF is one of the Air Force's 
top acquisition priorities, and I'm very concerned about the 
stability of that program. Despite Secretary Gates' decision to 
restructure the program, I remain concerned about the ability 
of the test program to detect and anticipate problems, how 
effectively software risk will be managed going forward, 
whether deficiencies in the program's manufacturing processes 
will be resolved so that flight testing and production hold 
schedule, and the capability of those aircraft that will be 
delivered under low-rate initial production.
    As to the Air Force decision this week to extend the 
deadline by which it is supposed to accept delivery of JSF 
aircraft with IOC, I ask that the witnesses explain why the Air 
Force decided to extend the IOC date, exactly what kind of 
capability will those aircraft have, what effect that decision 
will have on the cost of buying that aircraft, the Air Force's 
anticipated fighter shortfall, and the basing plans for the 
aircraft.
    I want to thank the chairman for scheduling a hearing on 
this very important issue. There are a lot of questions that 
need to be answered. Given Secretary Gates' testimony before 
the committee just early last month that the Services' IOC 
dates would not change, it appears that just over the last few 
weeks the Secretary and the Services have increased their 
appreciation of the development and production risks associated 
with the program.
    In my view, that piecemeal process by which DOD has been 
assessing risk and only in some cases notifying the committee 
in a timely and appropriate manner of required changes to the 
program frustrates the ability of this committee to subject 
this program to proper congressional oversight.
    Against that backdrop, I want to again thank Chairman Levin 
for agreeing to hold hearings, and probably more than one, on 
this very important weapons system.
    I have serious concerns about the Air Force's commitment to 
managing military space programs, for which $10.9 billion is 
requested in the 2011 budget. I applaud the decision to move 
away from some of the high-risk programs of the past, but I'm 
concerned that the Air Force continues to make significant 
investments without a designated executive agent for space or a 
space posture review and strategy, which I now hear could be 
delayed by as much as a year.
    I look forward to hearing how committed the Air Force 
remains to its space acquisition mission and, if so, exactly 
how it intends to reverse the troubling trend of chronic 
schedule delays, Nunn-McCurdy breaches, and the widening gaps 
in capability.
    Because we ask our men and women in uniform and their 
families to sacrifice so much, both Congress and the 
administration must be ready to make some tough funding 
decisions, something we have failed miserably at in previous 
years. Despite numerous calls last year for earmark reform, the 
Fiscal Year 2010 Defense Appropriations Bill signed into law 
contained over $4 billion in earmarks and $3 billion in 
unrequested and unwanted funding for C-17s and the alternative 
engine for the Air Force's version of the JSF. That's $7 
billion that DOD had to eat in programs that it didn't request 
or need, at the expense of more pressing military priorities.
    I was encouraged by Secretary Gates laying an early marker 
last month by indicating that if we added funds to continue the 
C-17 and the alternate engine for the JSF in 2011, he would 
strongly recommend that the President veto the bill. I look 
forward to seeing the President himself issue that veto threat. 
Now, I'd like to know whether our witnesses support Secretary 
Gates' positions on both programs.
    Finally, I'm interested in the views of General Schwartz 
and Secretary Donley on the ``Don't Ask, Don't Tell'' policy. 
We will continue to listen to our military leaders. As I know, 
recruitment and retention is at an all-time high in the history 
of the All-Volunteer Force. I think that the current policy is 
working and changes to it would have to be carefully 
considered.
    Thank you, Mr. Chairman.
    I thank the witnesses.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Mr. Chairman, thank you.
    I join you in welcoming Secretary Donley and General Schwartz here 
today to discuss the President's budget request for fiscal year 2011 
for the Department of the Air Force.
    Informed by the 2010 Quadrennial Defense Review and the Aircraft 
Investment Plan for fiscal years 2011 through 2040, the Air Force's 
fiscal year 2011 base budget request of $150 billion builds on the 
substantial changes that the both of you outlined in last year's 
budget. Where winning the wars of today while preparing for the 
conflicts of tomorrow require a balancing of risk, I look forward to 
your assessment as to how this budget proposal achieves a desirable 
balance between our present and future priorities.
    I greatly appreciate your continuing to place the highest priority 
on supporting our men and women who wear the blue uniform and their 
families. There can be no doubt that like our soldiers, sailors and 
marines, they deserve the most steadfast and united support we can 
offer.
    The F-35 Joint Strike Fighter (JSF) is one of the Air Force's top 
acquisition priorities and I am very concerned about the stability of 
that program. Despite Secretary Gates' decision to restructure the 
program, I remain concerned about the ability of the test program to 
detect and anticipate problems; how effectively software risk will be 
managed going forward; whether deficiencies in the program's 
manufacturing processes will be resolved so that flight testing and 
production hold schedule; and the capability of those aircraft that 
will be delivered under ``low-rate initial production''. As to the Air 
Force's decision this week to extend the deadline by which it is 
supposed to accept delivery of JSF aircraft with ``initial operating 
capability'' (IOC), I ask that the witnesses explain why the Air Force 
decided to extend that IOC date; exactly what kind of capability will 
those aircraft have; what effect that decision will have on the cost of 
buying that plane, the Air Force's anticipated fighter shortfall, and 
the basing plans for the aircraft.
    Given Secretary Gates' testimony before the committee early last 
month that the Services' IOC dates would not change, it appears that 
just over the last few weeks the Secretary and the Services have 
increased their appreciation of the development and production risks 
associated with the program. In my view, that piecemeal process (by 
which the Department has been assessing risk and, only in some cases, 
notifying the committee timely and appropriately of required changes to 
the program) frustrates the ability of this committee to subject this 
program to proper congressional oversight. Against that backdrop, 
Chairman Levin has agreed to hold hearings as early as next week on the 
status of the F-35 program, which I wholeheartedly support.
    I also have serious concerns about the Department's commitment to 
managing military space programs, for which $10.9 billion is requested 
in the 2011 budget. While I applaud the decision to move away from some 
of the high-risk programs of the past, I am concerned that the Air 
Force continues to make significant investments without a designated 
executive agent for space or a space posture review and strategy, which 
I now hear could be delayed by as much as a year. I look forward to 
hearing how committed the Air Force remains to its space acquisition 
mission and, if so, exactly how it intends to reverse the troubling 
trend of chronic schedule delays, Nunn-McCurdy breaches, and widening 
gaps in capability.
    Because we ask our men and women in uniform and their families to 
sacrifice so much, both Congress and the administration must be ready 
to make some tough funding decisions--something that we have failed 
miserably at in previous years. Despite numerous calls last year for 
earmark reform, the fiscal year 2010 Defense Appropriations Bill signed 
into law contained over $4 billion in earmarks and $3 billion in 
unrequested and unwanted funding for C-17s and the alternative engine 
for the Air Force's version of the JSF. That's $7 billion that the 
Department had to eat in programs that it didn't request or need--at 
the expense of more pressing military priorities.
    I was encouraged by Secretary Gates' laying an early marker last 
month with the Congress by indicating that if we added funds to 
continue the C-17 and alternate engine for the JSF in 2011, he would 
strongly recommend that the President veto the bill. I look forward to 
seeing the President himself issue that veto threat. For now, I would 
like to know whether our witnesses support Secretary Gates' positions 
on both programs.
    Finally, I'm interested in the views of General Schwartz and 
Secretary Donley on the ``Don't Ask, Don't Tell'' policy. We will 
continue to listen to our military leaders, and as I note, recruitment 
and retention is at an all-time high in the history of the All-
Volunteer Force. I think that the current policy is working and changes 
to it would have to be carefully considered.
    Thank you, Mr. Chairman.

    Chairman Levin. Thank you very much, Senator McCain.
    Secretary Donley.

STATEMENT OF HON. MICHAEL B. DONLEY, SECRETARY OF THE AIR FORCE

    Mr. Donley. Thank you, Mr. Chairman, members of the 
committee. It is a pleasure to be here today representing 
almost 680,000 Active Duty, Guard, and Reserve airmen and Air 
Force civilians. I'm also honored to be here with my partner in 
this work, General Schwartz, with whom I came into this 
position. He's been a phenomenal partner, and he is a tireless 
public servant.
    Today, I'm pleased to report that America's Air Force 
continues to make progress in strengthening both our 
contributions as part of the joint team and the excellence that 
is the hallmark of our service. We're requesting $150 billion 
in our baseline budget and almost $21 billion in the OCO 
appropriation to support this work.
    In the past year and in planning for the future, we've 
focused on balancing our resources and risks among the four 
priority objectives outlined by Secretary Gates in the 
recently-released QDR. First, we must prevail in today's wars. 
Your Air Force understands the gravity of the situation in 
Afghanistan, and as we continue to responsibly draw down forces 
in Iraq, we are committed to rapidly fielding needed 
capabilities for the joint team, such as surging ISR assets 
into theater and maximizing air mobility, to accelerate the 
flow of forces into Afghanistan.
    Second, we must prevent and deter conflict across the 
spectrum of warfare. As we await the results of the NPR and the 
New START, we continue concentrating on the safety, security, 
and sustainment of two legs of the Nation's nuclear arsenal. 
Last year, we stood up Air Force Global Strike Command and we 
have now realigned our ICBM and bomber wings under the control 
of a single commander. We also stood up the Air Force Nuclear 
Weapons Center to consolidate the management of all our nuclear 
weapons sustainment activities. To increase our engagement 
across the world, we're building partner capacity in 
Afghanistan and Iraq and developing a training framework 
emphasizing light attack and mobility that can benefit other 
nations.
    Third, we must be prepared to defeat adversaries and to 
succeed in a wide range of conflicts. We need to ensure that 
we're providing the right capabilities with our strategic 
airlift and ISR platforms and ensure our space-based assets 
continue to deliver needed capabilities for the future.
    In addition, the last two decades of sustained operations 
have strained our weapons systems. We continue to determine 
which aircraft we will modernize and sustain and which we 
should retire and recapitalize. One of our primary efforts 
includes retiring and recapitalizing many of our legacy 
fighters and tankers and replacing them with JSFs and KC-X 
aerial refueling tanker aircraft. These decisions require tough 
choices as well as the ability to quickly field systems that 
meet warfighter needs at an affordable price.
    Because acquisition underpins this effort, we're continuing 
our work to recapture excellence in this area. In the past 
year, we've made great strides in reforming our internal 
processes; we've added more program executive officers, and we 
are growing our acquisition workforce by several thousand 
professionals over the next 5 years.
    Finally, we must preserve and enhance the All-Volunteer 
Force. Airmen are our most valuable resource, and they have 
performed superbly in every mission and deployment they've 
undertaken. With the understanding that their families serve 
alongside them, in July of last year, the Chief and I began a 
year-long focus on our men and women and their families. This 
Year of the Air Force Family recognizes their sacrifices and 
looks to determine how we can better support, develop, house, 
and educate them. We're determining which programs are 
performing well and where we can do better.
    Your Air Force is performing exceptionally well in 
supporting the current fights, responding to growing demands 
and shifting personnel priorities. But we're increasingly 
stressed in the continental United States (CONUS). Rebuilding 
the nuclear expertise that we need for the future will require 
continued determination and patience. We're taking more risk in 
non-deployed force readiness and facing significant challenges 
in modernization and infrastructure.
    At the same time, however, we are developing and fielding 
new technologies and capabilities that bode well for our 
future. I can tell you after a recent trip to the CENTCOM area 
of responsibility (AOR), Mr. Chairman, that we are recruiting 
and training some incredible airmen.
    We're very grateful for your continued support, and we look 
forward to discussing our proposed budget. One more point, Mr. 
Chairman. Thank you for your opening comments concerning the 
two Air Force nominations still pending confirmation, Erin 
Conaton, the nominee for Under Secretary of the Air Force, and 
Terry Yonkers, the nominee for Assistant Secretary for 
Installations and Environment. Both of these individuals are 
highly qualified, and we're aware of no issues concerning their 
background, their capabilities, or their credentials.
    More to the point of some concern to others, neither have 
been involved in the Air Force KC-X tanker acquisition and, 
looking ahead, should they be confirmed, neither would have 
responsibility for source selection.
    Both nominations were cleared by this committee on December 
2, 2009. The Under Secretary position has been vacant for over 
2\1/2\ years; the Assistant Secretary position has been vacant 
for over a year and a half.
    Similarly, the nominee for Dr. Carter's Principal Deputy in 
the Under Secretary's Office for Acquisition, Technology, and 
Logistics, Frank Kendall, falls into the same general category. 
That position has been vacant for over a year, and his 
nomination has been pending action by the full Senate since 
October 29.
    I thank the committee, Mr. Chairman and Mr. McCain, other 
members, for your favorable reporting of these nominees, and I 
ask that each member now support their speedy confirmation by 
the full Senate. Their confirmation is important. The 
individuals whose livelihoods and careers are being held in an 
uncertain limbo deserve a vote, and we need to proceed with the 
important work of the Air Force and DOD.
    Thank you, Mr. Chairman.
    [The joint prepared statement of Mr. Donley and General 
Schwartz follows:]
 Joint Prepared Statement by Hon. Michael B. Donley and Gen. Norton A. 
                             Schwartz, USAF
    The 2010 Air Force Posture Statement presents our vision of Global 
Vigilance, Reach and Power as a vital component of the joint team, 
defending our national interests, and guided by our core values of 
Integrity First, Service Before Self, and Excellence in All We Do.
                              introduction
    Today, the United States confronts a dynamic international 
environment marked by security challenges of unprecedented diversity. 
Along with our joint partners, the Air Force will defend and advance 
the interests of the United States by providing unique capabilities to 
succeed in current conflicts while preparing to counter future threats 
to our national security. Over the last year, the Air Force made great 
strides in strengthening the precision and reliability that is our 
hallmark.
                            strategic focus
    This year offers an opportunity to fully integrate our Service 
posture with a new National Security Strategy, the Department of 
Defense Quadrennial Defense Review (QDR), and strategic reviews of the 
Nation's space, nuclear, and ballistic missile defense postures. 
Balance is the defining principle linking this budget request to our 
strategic guidance.
    In the 2010 QDR, the Secretary of Defense established four U.S. 
defense objectives to guide our current actions as well as to plan for 
the future: prevail in today's wars, prevent and deter conflict, 
prepare to defeat adversaries and succeed in a wide range of 
contingencies, and preserve and enhance the All-Volunteer Force. In 
accordance with this guidance, the Air Force developed the 2011 budget 
request to enhance our capabilities to meet these objectives, while 
balancing risk appropriately. As the future security environment will 
require a range of agile and flexible capabilities, investments for 
today's conflict will also support our efforts to prepare, prevent, and 
prevail, and preserve well into the future.
Prevail in Today's Wars
    Our investments in intelligence, surveillance, and reconnaissance, 
as well as airlift, command and control, and building partner capacity 
(BPC) reinforce the prominence of this priority in our budget request. 
In addition, nearly 30,000 deployed airmen daily provide key 
capabilities in direct support of combat operations.
Prevent and Deter Conflict
    The Air Force made significant resource and cultural investments in 
reinvigorating our portion of the Nation's nuclear deterrence over the 
past 18 months. We are now institutionalizing these successes to ensure 
the highest standards across the nuclear enterprise. Our initial 
investments in a family of long-range strike capabilities mark our 
commitment to sustaining power projection capabilities for the next 
several decades.
Prepare to Defeat Adversaries and Succeed in a Wide Range of 
        Contingencies
    This priority directly reflects the Air Force emphasis on balancing 
our commitments to today's conflicts against preparing for mid- and 
long-term risks. Awarding a contract this year to recapitalize our 
aging tanker force is our top acquisition priority. Similarly, tile F-
35 will be the workhorse of the fighter force for decades to come. Our 
investment in this program is timed with other modernization 
initiatives and divestment plans to ensure sufficient capabilities are 
available to deter and defeat potential enemies.
Preserve and Enhance the All-Volunteer Force
    Preserving and enhancing our All-Volunteer Force provides the 
foundation required for our flexible and agile posture. This budget 
reflects a commitment to enhancing our force through education and 
training, while also bolstering the overall quality of life of airmen 
and their families.
                         strategy to resources
    As we prepared the budget request described by this Posture 
Statement, we structured our resource choices by balancing the twelve 
Air Force Core Functions across the near- and long-term. When 
considered together, the Core Functions encompass the full range of Air 
Force capabilities, and serve as the framework for this Posture 
Statement. While this document describes the core functions 
individually, we recognize their inherent interdependence within not 
just the Air Force, but also within the joint force and the whole of 
government.

                        AIR FORCE CORE FUNCTIONS
Nuclear Deterrence Operations.............  Special Operations
Air Superiority...........................  Global Integrated ISR
Space Superiority.........................  Command and Control
Cyberspace Superiority....................  Personnel Recovery
Global Precision Attack...................  Building Partnerships
Rapid Global Mobility.....................  Agile Combat Support



    Nuclear Deterrence Operations
    Since its inception, the Air Force has sewed as a proud and 
disciplined steward of a large portion of the Nation's nuclear arsenal. 
We steadfastly maintain and secure nuclear weapons to deter potential 
adversaries, and to assure our partners that we are a reliable force 
providing global stability.
    The first Air Force priority during the last 2 years has been to 
reinvigorate the stewardship, accountability, compliance, and precision 
within the nuclear enterprise. This mission demands perfection. Last 
year we reorganized our nuclear forces, consolidating responsibility 
into a clear chain of command. All nuclear operations are under the 
command of the Air Force Global Strike Command and all sustainment 
activities are controlled by the Air Force Nuclear Weapons Center. We 
also added a fourth B-52 squadron to enhance nuclear surety through 
greater mission focus. We continued these advancements in fiscal year 
2010 by reassigning Intercontinental Ballistic Missile (ICBM) and 
nuclear bomber forces to Air Force Global Strike Command as it proceeds 
toward full operational capability.
    The fiscal year 2011 budget request continues to invest in 
sustaining the Air Force's ICBM and bomber fleets. We will invest $295 
million across the Future Years Defense Program (FYDP) to replace 
fuzing mechanisms, and to sustain test equipment and environmental 
control systems for the aging, but capable, Minuteman III ICBM weapon 
system.
    As we begin work to develop a future Long Range Strike capability, 
we recognize the need to continue investing in our legacy bomber 
fleels, including nearly $800 million for modernization. This budget 
request provides the B-52, initially designed in the early 1950s, with 
an internal precision-guided weapons capability, a new radar, and a 
modern and effective anti-skid system. This request funds modernization 
of B-2 analog defensive systems to ensure continued survivability 
against increasingly capable air defense systems. Additionally, the UH-
IN replacement program supporting missile launch complexes is on track 
and we anticipate IOC by fiscal year 2015.
    Air superiority
    Air superiority is a necessary precondition for most U.S. military 
operations. American ground forces have operated without fear of enemy 
aircraft since 1953. Although we operate in uncontested airspace in 
current conflicts, we cannot assume this will be the case in the 
future. The emergence of modern air defenses challenges the ability of 
the Air Force to achieve air superiority. Potential adversaries are 
leveraging readily accessible technologies by modifying existing 
airframes with improved radars, sensors, jammers, and weapons. In 
addition, several nations are pursuing fifth-generation aircraft 
capable of all-aspect, low-observable signatures, and fully integrated 
avionics and sensors. Adversary nations are also turning to advanced 
surface-to-air missiles to augment or even substitute for aircraft 
modernization efforts. The proliferation of these sophisticated and 
increasingly affordable weapons presents an area denial capability that 
challenges our legacy fleet. As the range of potential threats evolves, 
the Air Force will rely on the F-22 Raptor as the workhorse of the air 
superiority fighter force for the foreseeable future. Complementing our 
187 modernized F-22s, we will continue to rely on F-15C/D aircraft to 
provide an important component of our air superiority capability.
    Our fiscal year 2010 budget included plans to accelerate the 
retirement of some legacy fighter aircraft to pave the way for a 
smaller but more capable fighter force. As we work with Congress to 
execute this important plan, we continue to aggressively modernize our 
air superiority fleet, including upgrading fielded F-22s to ensure 
fleet commonality with current deliveries. Additionally, we began 
modernizing 176 F-15Cs with the new APG-63(v)3 Active Electronically 
Scanned Array (AESA) radar. Along with these modifications, we are 
continuing the development and procurement of the AIM-9X and AIM-120D 
air-to-air missiles.
    The fiscal year 2011 budget requests $12.5 billion in the FYDP to 
sustain America's air superiority advantage. To continue F-22 
modifications, this request includes $1.34 billion to continue fleet 
commonality upgrades, improving reliability and maintainability, and 
adding training enhancements for the fleet. Building on the multi-role 
nature of our most advanced aircraft, this request also includes $1.19 
billion to add precision attack capabilities such as the Small Diameter 
Bomb. The Air Force will also continue the development and procurement 
of air-to-air munitions and defenses for the F-22 such as the AIM-9X, 
AIM-120D, and electronic warfare capabilities. To sustain our legacy 
aircraft viability, we included $92 million to continue the upgrades 
and modifications to the new F-15 AESA radar. Recognizing that 
Electronic Warfare remains an integral part of air superiority, we 
request $251 million in fiscal year 2011 for upgrades to the EC-130H 
Compass Call fleet. This request includes the conversion of an 
additional EC-130H, as well as a combined flight deck and mission crew 
simulator to increase training capacity.
    Space superiority
    America's ability to operate across the spectrum of conflict relies 
heavily on space capabilities developed and operated by the Air Force. 
We support the Joint force by developing, integrating, and operating in 
six key mission areas: missile warning; space situational awareness 
(SSA); military satellite communications; positioning, navigation and 
timing; space access; and weather.
    To enhance space support to the joint force, we are increasing 
communications capability in fiscal year 2010 through two satellite 
communications programs, the Wideband Global Satellite (WGS) program to 
replace the Defense Satellite Communications System (DSCS), and 
Advanced Extremely High Frequency (AEHF) system for protected 
communications. We launched the second and third WGS satellites in 
fiscal year 2010; each WGS satellite provides the equivalent capacity 
of the entire legacy DSCS constellation. Additionally, the second on-
orbit Space-Based Infrared System (SBIRS) Highly Elliptical Orbit 
payload was fully certified by U.S. Strategic Command to perform 
strategic missile warning. Finally, spacelift remains the backbone for 
national security space with a record 64 consecutive successful 
missions.
    The fiscal year 2011 budget request for $10.9 billion will improve 
our stewardship of space with investment in space and space-related 
support systems. With these resources, we will field several first-of-
their-kind systems--Global Positioning System (GPS) Block IIF, SBIRS, 
and AEHF satellite communications system. This request proposes $1.2 
billion for the Evolved Expendable Launch Vehicle program, $1.8 billion 
for the Space Based Infrared System, and $1.3 billion for GPS. We also 
included $135 million for Joint Space Operation Center Mission System 
to improve SSA capabilities, and $94 million for the Operationally 
Responsive Space program to pursue innovative capabilities that can be 
rapidly developed and fielded in months rather than years. We request 
$577 million to fully fund WGS to meet combatant commander bandwidth 
requirements. Moreover, we will continue to maintain SSA ground-based 
systems and explore space-based capabilities to ensure our continued 
freedom to operate in this domain.
    Cyberspace Superiority
    Cyber threats ranging from individual hackers to criminal 
organizations to state-sponsored cyber intrusions can challenge access 
to, and use of, this domain. Although the freedom to operate in the 
cyber domain is a precondition for our increasingly networked force, 
many of our potential adversaries are similarly adopting information-
enabled technology, rendering them vulnerable to cyber attack as well. 
Threats to freedom of access to the cyber domain present both 
challenges and opportunities.
    In fiscal year 2010, we continued the development and 
institutionalization of cyberspace capabilities and integration into 
the joint cyberspace structure. The newly activated 24th Air Force, the 
first Numbered Air Force dedicated to cyberspace operations, recently 
achieved initial operational capability and has been designated the Air 
Force component for the sub-unified U.S. Cyber Command. We are also 
focusing on cyber personnel by normalizing the cyber career path and 
adding technical education courses.
    The fiscal year 2011 budget request reflects a continued commitment 
to cyber superiority. We request $31 million for expanded rapid cyber 
acquisition capabilities to keep pace with dynamic adversaries and 
fast-paced advances in technology. In support of the national cyber 
effort, this budget request dedicates $104 million to support 
operations and leased space for headquarters staff at the sub-unified 
U.S. Cyber Command. Additionally, we propose adding $15 million and 
additional manpower over the next 5 years to increase the investigative 
and law enforcement aspects of cyberspace defense.
    Global Precision Attack
    Global Precision Attack is the ability to hold any target at risk, 
across the air, land, and sea domains. Many of our global precision 
attack forces are meeting the current requirements of ongoing 
contingency operations by performing precision strike and intelligence, 
surveillance, and reconnaissance (ISR) support roles. In the longer 
term, however, the proliferation of area denial and anti-access 
capabilities will challenge the ability of current fourth-generation 
fighters and legacy bombers to penetrate contested airspace.
    The Air Force budget request in fiscal year 2010 recognized these 
developments and continued improvements to aircraft and weapons 
capabilities. This year, we will take delivery of 10 F-35s for 
developmental testing and to train test pilots. We are also modernizing 
legacy fighter aircraft to maintain sufficient capability and capacity 
until the F-35 fleet is fully operational, and are continuing to 
develop programs for preferred air-to-ground weapons. Upon completion 
of the required reports to Congress later this year, we will implement 
the planned reduction of 257 legacy fighters. We have had mixed results 
in test drops of the Massive Ordnance Penetrator; however, we are 
closely monitoring the progress of this important capability, and 
future successes likely will result in a reprogramming request to 
accelerate its development in fiscal year 2010. Finally, continued 
development of the second increment of the Small Diameter Bomb will 
give the Air Force even greater capability and flexibility.
    Our $14.4 billion Global Precision Attack request for fiscal year 
2011 reflects a balanced approach across the portfolio, prioritizing 
investment in fifth-generation aircraft while sustaining legacy 
platforms as a bridge to the F-35.
F-35 Joint Strike Fighter
    The multi-role F-35 is a critical element of the Air Force's future 
precision attack capability. In addition to complementing the F-22's 
world class air superiority capabilities, the F-35 is designed to 
penetrate air defenses and deliver a wide range of precision munitions. 
This modern, fifth-generation aircraft brings the added benefit of 
increased allied interoperability and cost-sharing across services and 
partner nations.
    Working in close collaboration with DOD, the F-35 program team 
realized a number of accomplishments over the last year, to include the 
first flight of the first optimized conventional take-off and landing 
(CTOL) Joint Strike Fighter (JSF) variant-aircraft AF-I.
    Despite these important accomplishments, the program is 
experiencing program challenges as it transitions from development to 
production. Last year, DOD conducted multiple, independent reviews to 
assess the impact of these challenges on the program's cost, schedule, 
and technical performance. The results were consistent with a previous 
fiscal year 2008 DOD independent assessment that projected a cost 
increase and schedule slip.
    The challenges being experienced are not unusual for this phase of 
a major program. However, we are disappointed by the contractor's 
failure to deliver flight test aircraft as scheduled during the past 
year. The result of the late deliveries will be a delay in the flight 
test program.
    Although there appear to be recent improvements, the contractor 
also has been experiencing assembly inefficiencies that must be 
corrected to support higher production rates.
    In response to the challenges still facing the program and the 
findings of the independent reviews, we have taken numerous management 
actions to reduce risk. Most significantly we have determined that it 
is prudent to adjust the schedule and funding to levels consistent with 
the most recent independent estimates. These cost and schedule 
adjustments require that we initiate the process to confirm the program 
is in breach of the Nunn-McCurdy Act criteria, and details will be 
reported later this spring.
    The F-35 is our largest and most important program and we are 
dedicated to successfully delivering these aircraft to both the United 
States and to our international partners in this effort. The Air Force 
fiscal year 2011 budget includes $5.6 billion for continued development 
and procurement of 22 CTOL production aircraft.
Long-range Strike
    Investments in our B-52 and B-2 fleets sustain nuclear deterrence 
operations as well as conventional global precision attack capabilities 
in the near-term, but we are adding R&D funds to accelerate development 
of enhanced long-range strike capabilities. Building upon insights 
developed during the QDR, the Secretary of Defense has ordered a 
follow-on study to determine what combination of Joint persistent 
surveillance, electronic warfare, and precision-attack capabilities 
will be best suited to support U.S. power projection operations over 
the next two to three decades. The study will examine both penetrating 
platforms and stand-off weapon options. As part of this assessment, the 
Air Force is reviewing options for fielding survivable, long-range 
surveillance and strike aircraft as part of a comprehensive, phased 
plan to modernize the bomber force. Additionally, the Navy and the Air 
Force are cooperatively assessing alternatives for a new joint cruise 
missile. Finally, the Department of Defense also plans to analyze 
conventional prompt global strike prototypes and will assess the 
effects that these systems, if deployed, might have on strategic 
stability.
    Rapid Global Mobility
    The Air Force is committed to providing unmatched airlift and air 
refueling capability to the nation. Air Force mobility forces provide 
an essential deployment and sustainment capability for the Joint force, 
delivering personnel, equipment, and supplies necessary for missions 
ranging from conflict to humanitarian relief.
    We are releasing the Request for Proposal for a KC-X replacement 
tanker in early 2010, and will aggressively work toward awarding a 
contract later this year. Additionally, we completed the successful 
operational testing of the C-5 Reliability Enhancement and Re-engine 
Program (RERP) and will induct two more C-5Bs into low-rate initial 
production. For tactical airlift, we recently concluded a test of our 
Direct Support airlift concept and continue to work with the Army to 
rapidly and smartly transfer the C-27J program to the Air Force.
    The fiscal year 2011 budget reflects a balanced approach across the 
tanker and airlift portfolios, which prioritizes recapitalization of 
the oldest aircraft while ensuring the continued viability of the 
legacy fleet. Investments in tanker capability are heavily weighted 
towards the KC-X program--our top acquisition priority--and represent 
$11.7 billion in the FYDP. However, while moving aggressively to 
recapitalize the tanker fleet, we must also ensure the continued health 
of legacy aircraft. This budget request includes $680 million in the 
FYDP for airspace access modifications and sustainment of the KC-10 and 
KC-1 35 fleets.
    The Air Force Airlift budget request is focused on meeting mobility 
requirements in the most cost efficient way possible, recapitalizing 
only the oldest airlift aircraft. To ensure continued access to all 
airspace, this budget continues to modernize and modify C-5s and C-
130Hs through Avionics Modernization Programs, and upgrades C-5B/Cs 
with RERP. To complete the recapitalization of C-130Es, we request $1.8 
billion over the next 5 years to procure 24 C-130Js. Additionally, in 
accordance with the preliminary results of the Mobility Capabilities 
and Requirements Study 2016, and subject to authorization by Congress, 
we intend to retire some of the oldest, least capable C-5As and C-
130H1s. We have also requested $38.9 million in fiscal year 2011 to 
transition from C-17 procurement to sustainment.
    Special Operations
    Air Force special operations capabilities play a vital role in 
supporting U.S. Special Operations Command (USSOCOM) and geographic 
combatant commanders. As the Department of Defense increasingly 
develops irregular warfare capabilities, the Air Force is investing in 
special operations airlift, close air support, foreign internal 
defense, and intelligence, surveillance, and reconnaissance 
capabilities.
    In fiscal year 2010 we focused on growing and recapitalizing the 
special operations aircraft inventory. By the end of the fiscal year, 
three MC-130W Combat Spear aircraft will be modified with the Precision 
Strike Package to provide additional armed overwatch capability for SOF 
forces. Additionally, we will deliver the 16th of 50 CV-22s.
    This fiscal year 2011 budget proposal includes $6.7 billion through 
the FYDP to continue growing and recapitalizing the Air Force Special 
Operations Command (AFSOC). In fiscal year 2011 we will procure five 
additional CV-22s and five MC-130Js for $1.1 billion. This request also 
includes $1.6 billion in the FYDP to start recapitalizing our AC-130H 
aircraft. We will rapidly recapitalize these aging aircraft through the 
procurement of 16 additional MC-130Js, modified with the proven 
Precision Strike Package. In fiscal year 2011 we will also increase 
AFSOC's manpower by 258 personnel by fiscal year 2015 to support the 
addition of 16 fixed-wing mobility and 2 rotary-wing aircraft.
    Global Integrated Intelligence, Surveillance, and Reconnaissance
    The Air Force continues to rapidly increase its ISR capability and 
capacity to support combat operations. Air Force ISR provides timely, 
fused, and actionable intelligence to the Joint Force, from forward 
deployed locations and globally distributed centers around the globe. 
The exceptional operational value of Air Force ISR assets has led Joint 
Force Commanders in Iraq, Afghanistan, and the Horn of Africa to 
continually increase their requests for these forces. To help meet this 
demand, the Air Force currently has more than 90 percent of all 
available ISR assets deployed.
    In fiscal year 2010, we are quantitatively and qualitatively 
increasing aircraft, sensors, data links, ground stations, and 
personnel to address emergent requirements. Over the last 2 years, the 
Air Force increased the number of remotely piloted aircraft (RPA) 
fielded by 330 percent. We invested in a Wide Area Airborne 
Surveillance (WAAS) system for new and existing MQ-9s to provide up to 
50 video streams per sensor within a few years. By the summer of fiscal 
year 2010, a quick reaction capability version of WAAS known as Gorgon 
Stare will provide 10 video streams per MQ-9. Any ROVER-equipped ground 
force will be able to receive any of these feeds. We also added four 
RQ-4s, and graduated our first class of RPA-only pilots. Early in 
fiscal year 2010, we proposed a shift in the nomenclature from 
``unmanned aircraft systems'' (or UAS) to ``remotely piloted aircraft'' 
as part of normalizing this capability within the Air Force manpower 
structure and culture. We will also maintain our current Joint 
Surveillance and Target Attack Radar System (JSTARS)-based Ground 
Moving Target Indicator (GMTI) capability as we begin an Analysis of 
Alternatives to determine the future of GMTI.
    To complement remotely piloted capabilities, we are deploying MC-
12W Project Liberty aircraft to the theater as fast as they can be 
delivered from the factory. This program progressed from ``concept to 
combat'' in a record 9 months, and has a deployed maintenance 
availability rate well above 90 percent.
    Because analysis transforms data into actionable intelligence, we 
are shifting approximately 3,600 of the 4,100 manpower billets 
recaptured from the early retirement of legacy fighters to support RPA 
operations, and the processing, exploitation, and dissemination of 
intelligence collected by manned and remotely piloted aircraft. We also 
doubled the number of ISR liaison officers assigned to deployed ground 
forces to ensure the seamless integration of ISR collection and 
exploitation assets.
    Our fiscal year 2011 budget proposal reflects the Joint Force 
emphasis on ISR capacity, and builds on progress made in fiscal year 
2010. The Air Force will reach 50 RPA continuous, combat air patrols 
(CAPs) in theater by the end of fiscal year 2011. The budget request 
increases MC-12W funding to normalize training and basing posture, adds 
Wide Area Airborne Surveillance capability, and increases the total 
number of our RPA platforms to enable fielding up to 65 CAPs by the end 
of fiscal year 2013. As we request additional RQ-4 Global Hawks for 
high altitude ISR, we also intend to continue operating the U-2 at 
least throughout fiscal year 2013 as a risk mitigation effort. We will 
sustain our ISR processing, exploitation, and dissemination in the 
Distributed Common Ground System, providing critical distributed 
analysis without having to forward deploy more forces.
    Command and Control
    Theater-wide command and control (C2) enables efficient and 
effective exploitation of the air, space, and cyber domain. The Air 
Force maintains significant C2 capabilities at the theater level. 
However, the highly decentralized nature of irregular warfare also 
places increased demands on lower echelons of command. Matching the 
range and flexibility of air, space, and cyberspace power to 
effectively meet tactical requirements requires a linked C2 structure 
at all echelons.
    This year, we are expanding our efforts to provide C2 at the 
tactical, operational, and strategic levels. In fiscal year 2011, the 
Air Force is requesting $30 million across the FYDP to fund equipment 
and assured communications for U.S. Strategic Command's Distributed 
Command and Control Node (DC2N), U.S. Northern Command's National 
Capital Region-Integrated Air Defense (NCR-IADS), and U.S. Africa 
Command's expanding air operations center. Tactically, we are 
increasing training pipelines for Joint Terminal Attack Controllers 
(JTACs), establishing an Air Liaison Officer career field, fielding 
advanced video downlink capabilities, and adding airborne radio and 
datalink gateways to improve the connectivity of air support operations 
centers and JTACS.
    In fiscal year 2011, the Air Force request also includes 
modernization and sustainment of both airborne and ground-based C2 
systems. For Air Force airborne C2, we request $275 million for the E-3 
Block 40/45 upgrade program. This upgrade modernizes a 1970s-era 
computer network, eliminates many components that are no longer 
manufactured, and adds avionics to comply with Global Air Traffic 
Management standards. To improve ground-based tactical air control 
operations, we are increasing manpower in the control and reporting 
centers and investing $51.5 million with the U.S. Marine Corps for a 
follow-on ground-based radar capability supporting air and missile 
defense. This Three-Dimensional Expeditionary Long-Range Radar will be 
the future long-range, ground-based sensor for detecting, identifying, 
tracking, and reporting aircraft and missiles.
    Personnel Recovery
    Personnel recovery (PR) remains an important commitment the Air 
Force makes to the Joint Force. The increased utilization of military 
and civilian personnel in support of Overseas Contingency Operations 
(OCO) has dramatically increased the number of individuals who may find 
themselves isolated. This has in-turn created an increasing demand for 
Air Force rescue forces beyond the combat search and rescue mission. 
Air Force PR forces are fully engaged in Iraq, Afghanistan, and the 
Horn of Africa, accomplishing crucial medical and casualty evacuation 
missions for U.S. and coalition military and civilian personnel.
    This year, we will continue to surge critical personnel recovery 
capability to the field, and will start replacing the aging fleet. To 
bring the fleet back to its original size of 112 HH-60Gs, we will put 
the first 4 operational loss replacement aircraft on contract. 
Additionally, we will deliver the first two HC-1305 tanker aircraft, 
starting the replacement of the 1960s-era HC-130P fleet.
    The fiscal year 2011 budget request continues the replacement of 
operational losses and modernization of aging equipment. This request 
funds the last eight HH-60G operational loss replacement aircraft by 
the end of fiscal year 2012. Additionally, we begin the process of 
recapitalizing the remaining fleet with the inclusion of $1.5 billion 
to procure 36 HH-60G replacement aircraft in the FYDP. We also continue 
our recapitalization of the HC-130P/N fleet with HC-130J aircraft. 
Finally, we request $553 million in funding throughout the FYDP for the 
Guardian Angel program, which will standardize and modernize mission 
essential equipment for our pararescuemen.
    Building Parnterships
    The Air Force continues to seek opportunities to develop 
partnerships around the world, and to enhance long-term capabilities 
through security cooperation. In the U.S. Central Command (CENTCOM) 
area of responsibility (AOR), deployed airmen are working with our 
Afghan and Iraqi partners to build a new Afghan National Army Air Corps 
and Iraqi Air Force to strengthen the ability of these nations to 
uphold the rule of law and defend their territories against violent, 
non-state actors. We are also working to further partnerships with more 
established allies with programs like the Joint Strike Fighter. 
Similarly, the third and final C-17 procured under the 12-nation 
Strategic Airlift Capability program was delivered in October 2009, 
helping to address a chronic shortage of strategic airlift among our 
European allies.
    In fiscal year 2011, we will expand our capabilities to conduct 
building partnership capacity (BPC) operations with partner air forces. 
Past experience has shown us that we are more effective trainers when 
we operate the same platforms as our partners. To increase our 
interoperability, the Air Force requests resources to prepare to field 
the Light Mobility Aircraft in fiscal year 2012 and the Light Attack/
Armed Reconnaissance aircraft in fiscal year 2013. These aircraft will 
provide effective and affordable capabilities in the two most critical 
mission areas for partner air forces: lower-cost airlift and light 
strike/reconnaissance training. Additionally, we will continue to 
foster BPC capability in our Contingency Response Groups. This request 
also includes $51 million to continue investing in the Strategic 
Airlift Capability program. Finally, we programmed $6.4 million 
annually across the FYDP for Pacific Angel humanitarian assistance 
missions in support of U.S Pacific Command theater objectives.
    Agile Combat Support
    Agile combat support underpins the entire Air Force, from the 
development and training of airmen to revitalizing processes in the 
acquisition enterprise. In terms of core functions, agile combat 
support reflects the largest portion of the Air Force budget proposal, 
totaling approximately $42 billion for personnel and training, 
installation support, logistics, and acquisition.
Airmen and Families
    Over the last year, we stabilized end strength. Retention rates 
have exceeded expectations, but we continue to progress toward our end 
strength goal of 332,200 active duty airmen. In addition to stabilizing 
our end strength, we are also modernizing our training programs and 
aircraft. To better partner with the joint and coalition team, we will 
provide our airmen with cultural and regional expertise and appropriate 
levels of foreign language training. We are also expanding foreign 
language instruction for officer commissioning programs at the Air 
Force Academy and in ROTC, encouraging cadets to take foreign language 
coursework and participate in language immersion and study programs 
abroad. This expanded training includes enhanced expeditionary skills 
training to prepare airmen for deployment. Finally, as part of our 
effort to modernize training systems, we have established a program 
office to start the process of replacing the T-38 trainer with an 
advanced trainer capable of teaching pilots to fly the world's most 
advanced fighter aircraft.
    Recognizing that family support programs must keep pace with the 
needs of airmen and their families, we initiated the Year of the Air 
Force Family in July 2009. We plan to add enough capacity to our child 
development centers to eliminate the child care space deficit by the 
end of fiscal year 2012, provide better support to exceptional family 
member programs, and add 54 school liaison officers to Airmen and 
Family Readiness Centers to highlight and secure Air Force family needs 
with local school administrators.
    The Air Force continues to expand its efforts to improve the 
resiliency of airmen and their families before and after deployments. 
This year we expanded deployment-related family education, coupling it 
with psychological screening and post-deployment health assessments. 
Additionally, we offer access to chaplains who provide pastoral care, 
and counselors and mental health providers trained in post-traumatic 
stress treatment at every base. We plan to further enhance support in 
2010 by promoting and encouraging mental health assistance, and by 
providing at-risk deployers with tailored and targeted resiliency 
programs. To support this increased effort, we will enhance mental 
health career field recruiting and retention through special pays and 
targeted selection bonuses.
Acquisition Excellence
    The Air Force continues to make progress within the Acquisition 
Improvement Plan. In 2009, we hired over 2,000 personnel into the 
acquisition workforce and continued contractor-to-civilian conversions. 
The Air Force institutionalized early collaboration with acquisition 
system stakeholders, senior acquisition leadership certification of 
requirements, cost estimation improvements, and an improved budgeting 
process to enhance the probability of program successes. The multi-
functional independent review teams conducted over 113 reviews, 
ensuring acquisition selections are correct and defendable. As part of 
our recent acquisition reorganization, we created 11 new program 
executive officer positions to reduce the span of control and increase 
their focus on program execution. These enhancements demonstrate our 
commitment to restoring the public's trust in the Air Force's ability 
to acquire the most technologically advanced weapon systems at a 
competitive cost. In the near-term, this more rigorous approach to 
acquisition is likely to identify problems and programmatic 
disconnects. In the medium- and long-term, it should yield significant 
improvements in Air Force stewardship of taxpayer resources.
Energy
    As part of our institutional effort to consider energy management 
in all that we do, the Air Force requests $250 million for energy and 
water conservation projects in fiscal year 2011. This investment will 
ensure we meet the President's efficiency goals by 2015. In fiscal year 
2010, the Air Force finalized an energy plan that directs the 
development and use of reliable alternative energy resources, and 
reduces the life-cycle costs of acquisition programs. Additionally, the 
plan recognizes that aviation operations account for over 80 percent of 
the energy used by the Air Force each year, and directs airmen and 
mission planners to continue managing aviation fuel as an increasingly 
scarce resource.
Military Construction
    The Air Force $1.3 billion MILCON request is austere, but provides 
funding for new construction aligned with weapon system deliveries. 
Additionally, the budget request sustains our effort to provide quality 
housing for airmen and their families. Finally, the Air Force remains 
focused on completing its Base Realignment and Closure (BRAC) 2005 
program and continuing the legacy BRAC programs as well as the 
environmental clean-up at legacy BRAC locations.
Strategic Basing
    In 2009, the Air Force implemented a Strategic Basing Process to 
ensure basing decisions are made in a manner that supports new weapon 
system acquisition and delivery schedules as well as organization 
activation milestones. The newly established Strategic Basing Executive 
Steering Group directs these actions to ensure a standard, repeatable, 
and transparent process in the evaluation of Air Force basing 
opportunities. We are currently using this process to conduct an 
enterprise-wide look at F-35 basing options.
Logistics
    Air Force requirements for weapon system sustainment funding 
continue to grow as aircraft age. In the long term, the increasing 
requirements for sustaining an aging aircraft fleet pose budget 
challenges and force trade-offs. We protected direct warfighter 
support, irregular warfare capabilities, and the nuclear enterprise. 
Since this year's budget includes a simultaneous OCO submission along 
with a base budget, the Air Force optimized its flying hour program 
funding to support only the peacetime flying hours we can fly, given 
the number of deployed airmen and aircraft supporting these operations. 
Due to the volatile nature of fuel prices, reprogramming may be 
necessary to cover increased fuel costs. Over the longer term, 
enactment of the Department of Defense's legislative proposal for the 
Refined Petroleum Products Marginal Expense Transfer Account would 
reduce disruptions to operations and investment programs by providing 
the Department of Defense flexibility to deal with fuel price 
fluctuations in the changing economy. The Air Force maintained its 
commitment to transforming logistics business practices, including 
total asset visibility and associated information technology, by 
protecting funds associated with fielding the first increment of the 
Expeditionary Combat Support System.
                        readiness and resourcing
    Our efforts over the last year continued to stress both people and 
platforms. Nearly 40,000 of America's airmen are deployed to 263 
locations across the globe, including 63 locations in the Middle East. 
In addition to deployed airmen, nearly 130,000 airmen support combatant 
commander requirements from their home station daily. These airmen 
operate the Nation's space and missile forces, process and exploit 
remotely collected ISR, provide national intelligence support, execute 
air sovereignty alert missions, and contribute in many other ways. To 
date, the Air Force has flown over 50,000 sorties supporting Operation 
Iraqi Freedom and almost 66,000 sorties supporting Operation Enduring 
Freedom. During this time the Air Force delivered over 1.73 million 
passengers and 606,000 tons of cargo, employed almost 1,980 tons of 
munitions, and transported nearly 70,000 total patients and 13,000 
casualties from the CENTCOM AOR. In doing so, airmen averaged nearly 
330 sorties per day.
    To support the efforts of airmen and to recruit and retain the 
highest quality Air Force members, this fiscal year 2011 budget request 
includes $29.3 billion in military personnel funding, to include a 1.4 
percent pay increase. Our Active component end strength will grow to 
332,200 Airmen as the Reserve component end strength increases to 
71,200, and the Air National Guard end strength remains 106,700 in 
fiscal year 2011. Our recruiting and retention is strong, but we 
request $645 million for recruiting and retention bonuses targeted at 
critical wartime skills, including command and control, public affairs, 
contracting, pararescue, security forces, civil engineering, explosive 
ordnance disposal, medical, and special investigations.
                                summary
    The Air Force's proposed fiscal year 2011 budget of $119.6 billion 
achieves the right balance between providing capabilities for today's 
commitments and posturing for future challenges. The Air Force built 
this budget to best achieve the four strategic priorities outlined in 
the 2010 Quadrennial Defense Review: (1) prevail in today's wars; (2) 
prevent and deter conflict; (3) prepare to defeat adversaries and 
succeed in a wide range of contingencies; and (4) preserve and enhance 
the All-Volunteer Force.
    Balancing requirements for today and tomorrow determined our 
recapitalization strategy. We chose to improve our existing 
capabilities whenever possible, and to pursue new systems when 
required. This recapitalization approach attempts to keep pace with 
threat developments and required capabilities, while ensuring 
stewardship of national resources. In developing this budget request, 
we also carefully preserved and enhanced our comprehensive approach to 
taking care of airmen and Air Force families.

    Chairman Levin. Thank you very much, Mr. Secretary.
    General Schwartz.

 STATEMENT OF GEN. NORTON A. SCHWARTZ, USAF, CHIEF OF STAFF OF 
                         THE AIR FORCE

    General Schwartz. Mr. Chairman, Senator McCain, and members 
of the committee: I'm proud to be here representing your Air 
Force with Secretary Donley.
    Let me begin by reaffirming that the Air Force is fully 
committed to effective stewardship of the resources that you 
and the Nation have placed in our trust. Guided by integrity, 
service, and excellence, our core values, American airmen are 
serving courageously every day, with precision and reliability, 
on behalf of the American people.
    The budget request supports these airmen and our continuing 
efforts to rebalance the force, to make difficult decisions on 
how and what we buy, and to sustain our needed contributions to 
the joint team.
    Secretary Donley and I established five priorities shortly 
after taking office to ensure that our entire force was focused 
on the right objectives. Most of the initial efforts centered 
on reaffirming our long-established standards of excellence and 
recommitting ourselves in areas where our focus had waned. I am 
pleased to report to you today that our dedicated and talented 
airmen broadly understood our intent and delivered in 
meaningful fashion.
    Although these priorities were not designed to change from 
year to year, our progress with the nuclear enterprise is such 
that we can now shift our efforts to sustaining the progress 
that we've made. Thus, our first priority is to continue to 
strengthen excellence in the nuclear enterprise. The rigor of 
our nuclear surety inspections demonstrates a renewed 
commitment to the highest level of performance. But we must and 
we will do more to ensure 100 percent precision and reliability 
in our nuclear operations and logistics as close to 100 percent 
of the time as such a human endeavor will allow.
    For our second priority, and that is partnering with the 
joint and coalition team in today's fight, Secretary Donley 
mentioned several ways that our airmen are providing critical 
air and space power for the joint and coalition team. Your 
airmen are also performing admirably wherever and whenever our 
joint teammates require, including providing battlefield 
medical support and evacuation, ordnance disposal, convoy 
security, and much more.
    Our third priority remains to develop and care for our 
airmen and their families. We initiated the Year of the Air 
Force Family shortly after our testimony last year in 
recognition of the vital role that our families fulfil in 
mission accomplishment and their contributions. Their sacrifice 
is perhaps less conspicuous, but their efforts are no less 
noble and certainly their contributions no less substantial.
    Modernizing our inventories, organizations, and training, 
our fourth priority, is among the most difficult tasks that our 
service has undertaken in the last 18 months. In order to 
achieve the balance that Secretary Gates has envisioned for our 
force, we are compelled to decisions and to action. The budget 
represents a continuation of that effort. We set forth on a 
plan last year to accelerate retirement of some of the older 
fighter aircraft. This year we will not be retiring additional 
fighters, but we are transitioning from some of our oldest and 
least capable C-130s and C-5s. We will modernize where we can, 
but where modernization no longer is cost effective, we will 
pursue recapitalization.
    KC-X is one example. With the delivery of the RFP last 
week, our top acquisition effort to procure the next generation 
refueling aircraft passed another significant milestone.
    A similar imperative is the JSF. I want to underscore 
Secretary Donley's comment by noting that this weapons system 
will be the work horse driving much of our Air Force and the 
joint force forward.
    Long-range strike is the last program I number among our 
top priorities. The Air Force fully supports the development of 
the family of systems providing both penetrating and standoff 
capabilities for the next 2 or 3 decades, as described in the 
QDR.
    Finally, recapturing acquisition excellence, our fifth 
priority, is now beginning to pay dividends with our 
acquisition improvement plan at the heart of our reform 
efforts. While promising, the initial successes must continue 
for a number of years before we can declare victory on this 
front. But we are fully aware that we must wring every bit of 
capability and value that we can from the systems that we 
procure. So this effort will require sustained focus on 
acquisition excellence.
    Mr. Chairman, the Air Force will continue to provide our 
best military advice and stewardship, delivering global reach, 
vigilance, and power for America. Thank you for your continued 
support of the United States Air Force and particularly our 
airmen and their families.
    As the uniformed member at the table, sir, may I reinforce 
the comments concerning Erin Conaton. Secretary Donley and I 
came into these jobs about 18 months ago. I think we both work 
pretty hard. But I have had the benefit of a four-star deputy 
throughout, General Fraser, now General Howey Chandler. The 
Secretary has been without a deputy and that does need to be 
remedied.
    Finally, sir, on behalf of the Secretary, myself, and the 
entire Air Force, we'd like to offer our sincere condolences to 
the family of Terry Laughlin, with whom we have worked for many 
years and for whom we have the greatest respect.
    Chairman Levin. General, thank you so much, and thank you 
for your reference to our professional staff member and friend 
on the Senate Armed Services Committee, Terry Laughlin for your 
condolences, and in joining us in those feelings. We and his 
family certainly appreciate it.
    Let's try a 7-minute first round here.
    First as to the nomination, I just want to make it clear 
for the record, in addition to the Air Force nominees on which 
there have been holds placed since December, the two that you 
mentioned, Mr. Secretary, we also have Principal Deputy Under 
Secretary of Defense for Acquisition, Frank Kendall, who has 
been held up since last December. We have an Assistant 
Secretary of the Army, an Assistant Secretary of the Navy, and 
General Counsel for the Navy, who have been held up now for 
over a month. We're going to do our very best to bring those 
holds to an end. They are unconscionable. They are not 
supported by any substantive opposition to these nominees. They 
fly in the face of the unanimous vote of this committee. We're 
going to press this issue very, very hard on the floor, and we 
again would urge all the members of this committee to join in 
that effort for the reasons that are obvious to us who spend so 
much time on these issues, as well as the reasons that were 
given by our Secretary here this morning and by General 
Schwartz.
    First, let me ask you about the issue of the C-5A aircraft. 
Is it the intent of the Air Force, maybe I can start with you, 
Mr. Secretary, and then ask General Schwartz, to retire C-5A 
aircraft in fiscal year 2011?
    Mr. Donley. It is, sir. I believe the proposed number to 
retire is 17. To do that, we owe you a couple of reports.
    Chairman Levin. Under WSARA, we require, if we're going to 
succeed, better systems engineering, better cost estimates, 
more mature technologies, and better developmental testing. Is 
the Air Force on track, Secretary Donley, to rebuild the 
systems engineering, cost estimating, and developmental testing 
capabilities as required by WSARA?
    Mr. Donley. Sir, we're making good progress on that, I 
believe. As I mentioned in my statement, we have several 
thousand additions planned over the next 5 years in our 
acquisition workforce. We added over 700 personnel last year, 
and we're on track to continue to grow that in the future in 
the areas that you mentioned: cost estimating and systems 
engineering. We've added nine program executive officers to our 
acquisition structure, which will reduce the span of control 
and give the senior officers more time to spend on fewer 
numbers of programs, and this will align us much more with how 
the Army and Navy have been doing business recently.
    Chairman Levin. The Air Force is requesting an Active Duty 
end strength of 500 more personnel than last year and a Reserve 
end strength of 1,700 more personnel than last year. Why does 
the Air Force need additional Active and Reserve end strength, 
and what are the specific purposes that it would be used for? 
Let me start with you, Secretary, and then go to General 
Schwartz.
    Mr. Donley. Let me give you a broad overview, Mr. Chairman, 
and then provide some more specifics for the record. In 
general, the Air Force is attempting to hold its Active Duty 
end strength relatively constant. We do not plan to grow the 
Air Force in any significant numbers going forward.
    But while we have an essentially fixed top line for Active 
Duty end strength, we do face demands for growth. We've needed 
to put additional personnel on the nuclear enterprise. We have 
needed to bring in and restructure the force to support the ISR 
buildup that we have underway with the new Reaper and Predator 
UAVs coming on board. That means crews, that means providing 
operations and maintenance for their support, and it means 
providing additional intelligence personnel to do the analysis 
from all the data pulled down by the sensors from those 
capabilities.
    We have growth in several areas. Cyber is another area 
where we're anticipating growth.
    Chairman Levin. If you want to supplement that for the 
record, we'd appreciate it.
    [The information referred to follows:]

    The difference between the 331,700 Active Duty (AD) end strength 
authorized in the National Defense Authorization Act (NDAA) for Fiscal 
Year 2010 and the 332,200 AD end strength the Air Force requested in 
the fiscal year 2011 President's budget is 500 AD. The 500 AD will 
support the Defense Health Program (DHP) specifically due to the NDAA 
for fiscal year 2008 reversal of planned military-to-civilian 
conversions for DHP.
    The Air Force Reserve military manpower increase of 1,700 personnel 
between fiscal year 2010 and fiscal year 2011 is a result of the fiscal 
year 2010 President's Decision Memorandum III Reserve end strength 
increase, which increases Air Force Reserve Command manpower in 
association with AD end strength growth. Specifically, the manpower 
increases were utilized in the following areas: nuclear operations 
(70), Intelligence Surveillance and Reconnaissance (930), modernizing 
organizations to include Total Force Integration initiatives (400), 
and stressed career fields (300).

    Chairman Levin. General, anything you want to add to that?
    General Schwartz. Sir, again I would just say that there 
are two countervailing pressures here. One is that we do have 
additional demand in certain mission areas. Certainly ISR is 
one. At the same time, we recognize that personnel costs are a 
very substantial part of our budget, and if we're not careful 
as we grow, we will force out other essential content in the 
portfolio.
    This is the tension we face. As the Secretary suggested, I 
personally do not favor growing the force except marginally, if 
at all, and that we will have to adjust internally and find 
ways to reallocate our manpower to the most pressing missions.
    Chairman Levin. Thank you.
    Relative to ``Don't Ask, Don't Tell,'' Admiral Mullen 
testified that he and the service chiefs are in support of 
Secretary Gates in repealing this program and expressed his 
personal and professional belief, in the case of Admiral 
Mullen, that allowing homosexuals to serve openly would be the 
right thing to do.
    First, Secretary Donley, do you support Secretary Gates in 
this decision?
    Mr. Donley. I do, Mr. Chairman. I support the President's 
efforts to change the policy and change the law in this area. 
There is an additional point I'd like to make on this. As it 
happens, I was actually in this seat in 1993. I know many 
members were also around when this change was made. I think 
Secretary Gates' approach this year has put us in a much better 
situation than we were in 1993. I think a full review of all 
the potential implications of this change, done by the 
community that is most affected by these changes, puts us in a 
stronger position to reach sound judgments and develop sound 
advice going forward on how to do this.
    Chairman Levin. Subject to that qualification, you support 
repeal?
    Mr. Donley. I do.
    Chairman Levin. General, do you support repeal of the 
policy?
    General Schwartz. Mr. Chairman, the President has clearly 
articulated his intent and, should the law change, your Air 
Force will implement the new statute and policy faithfully. I 
do have concern, however, with respect to what I consider 
inadequate current scholarship on this issue and certainly 
insufficient current survey data on our airmen and their 
families.
    Secretary Gates' effort to carefully evaluate and study 
this issue I think is obviously essential to our getting to the 
right spot on this, and that it's important that we carefully 
investigate the facts, circumstances, potential implications, 
the possible complications, and potential mitigations.
    I do have two firm convictions on two matters. One is that 
this is not the time to perturb a force that is stretched by 
combat operations in Iraq, Afghanistan, and important missions 
elsewhere, without due deliberation. Second, that Air Force 
standards, should the law change, will continue to apply to all 
airmen. That is, standards of conduct will continue to apply to 
all airmen, sir.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I didn't intend to begin my questioning with ``Don't Ask, 
Don't Tell,'' but I will follow up. In other words, General 
Schwartz, as you said, this is not the time to disturb the 
force, when we are in two wars. Contrary, in all due respect, 
to what the chairman just said, Admiral Mullen did not testify 
that the Joint Chiefs supported, the chiefs of services 
supported, repeal. In fact, the Commandant of the Marine Corps 
has just come out in opposition to repeal. You have just stated 
your concerns about disturbing the force.q
    Should this survey, study, and in-depth evaluation be about 
how to repeal ``Don't Ask, Don't Tell,'' or should it be about 
the effect of the repeal of ``Don't Ask, Don't Tell''? General 
Schwartz, what is your view on that?
    General Schwartz. Senator McCain, it is important to 
understand what the consequences of the change would be. There 
are things that have not been thoroughly thought through in my 
view in terms of benefits, in terms of cohabitation, in terms 
of discipline and such.
    Senator McCain. So a moratorium would be foolish?
    General Schwartz. I think, sir, that any interim change 
would not be wise.
    Senator McCain. Thank you. Again, I want to point out that 
you reflect basically the views of General Casey, General 
Conway, yourself, and we have yet to hear thoroughly from 
Admiral Roughead. So this idea out there that's being pushed 
that the service chiefs somehow support a campaign promise made 
by the President of the United States is obviously untrue. We 
need to look at this very, very carefully, and we do not want 
to disturb the force, particularly since we are in two wars at 
this time.
    Also, General, I would like to congratulate you and the 
other service chiefs, who have basically stood up under intense 
pressure, including coming from your right. I'm very proud of 
the uniformed service chiefs in the way that they have said 
that an in-depth review is an absolute necessity before we 
change the policy. Clearly, a moratorium would be a change in 
the policy, just a back door way of doing it.
    I'd like to return a second to the JSF. First of all, do 
you support the Secretary of Defense's call for cancellation of 
the C-17 aircraft, Mr. Secretary?
    Mr. Donley. I do.
    Senator McCain. General Schwartz?
    General Schwartz. Yes, sir, I do.
    Senator McCain. All right. Maybe you could give us a 
statement for the record as to why that is necessary.
    [The information referred to follows:]

    The recent release of the Mobility Capability Requirements Study 
validated that our current strategic airlift program of record exceeds 
the most demanding scenarios modeled. Continuing to grow a fleet that 
is already postured to meet national defense strategies diverts 
resources from other critical programs needed to enhance the security 
of the Nation. For this reason, the Air Force believes it is prudent to 
close the C-17 line and end production at the currently planned 223 
aircraft.

    Senator McCain. I want to get, in the few minutes I have 
remaining, to the JSF. As a strong supporter of the JSF, as a 
person who supported the termination of the F-22 because of the 
viability and necessity of the JSF as a partial replacement, 
I'm very disturbed at what has been the process here. We have 
not, I believe, members of the Armed Services Committee or 
Congress, been adequately informed of the full extent of the 
difficulties with this program.
    Now, according to published reports, there's going to be at 
least a 2-year delay in the production of the JSF. Is that 
true, Secretary Donley?
    Mr. Donley. Sir, I think what has been established in the 
acquisition decision memorandum (ADM) that Dr. Carter, Under 
Secretary of Defense for Acquisition, Technology, and 
Logistics, issued is that the delay in development is going to 
be about 13 months.
    Senator McCain. What impact does that have on fulfilling 
the mission requirements of our fighter aircraft?
    Mr. Donley. We're working on that. As part of the 
restructuring that the Secretary announced earlier in the year, 
we added dollars to extend development. We moved, I think, four 
aircraft from initial production back into the test program to 
see if we could accelerate the flight test program, which is 
behind, and to see if we could recapture time there. We have 
lowered the production ramp. That doesn't mean we have stopped 
production. We have, I think, 22 production aircraft in the 
budget for this year. But, we have lowered the rate of growth 
in that production ramp over the next several years.
    DOD took out about 122 jets from its previous estimate of 
last year and about half of those are Air Force jets. We're 
working through the implications of that going forward for 
completion of the test program and also the IOC date that is 
out in front of us. It's up to General Fraser at Air Combat 
Command to work through the IOC date with the program office to 
determine the content that he needs in those production jets.
    If I can make one other point here, in restructuring the 
program, we're also restructuring the contract and putting, I 
think, additional pressure and incentives on the contractor to 
buy back some of the schedule slips that have been forecast by 
the independent estimates.
    Senator McCain. I thank you, Mr. Secretary. The chairman 
has graciously, and I think very appropriately, agreed that we 
need to have a hearing or hearings on this issue, so I'll 
pursue further questioning on it at that time.
    I just want to say that it's disappointing to all of us, in 
these very difficult economic times, when we see these kinds of 
delays and cost overruns. Hopefully, the legislation we passed 
will help remedy some of these problems. But maybe, Mr. 
Chairman, in 6 months, a year, or so we ought to look at the 
effect of the legislation that we passed, because there are 
still significant problems with the consolidation of the 
defense industry, which has led to lack of competition and lack 
of real brakes on cost overruns in acquisition of our weapons 
systems large and small.
    I'd love to see a success story some time, and maybe you 
know one and would bring it to the committee's attention. Go 
ahead, General.
    General Schwartz. It's a modest one, but there is one, and 
it's the MC-12 ISR aircraft. It does both full-motion video and 
signals intelligence. From a cold start to first delivery was 8 
months. There are things out there that are, I think, 
representative of the kind of execution you expect.
    Senator McCain. Good. Maybe you could provide us with some 
of the detail on how that program succeeded. We'd be very 
interested in that. I know we focus on the failures rather than 
the successes, and we'd like to give the successes a little 
more visibility.
    [The information referred to follows:]

    The MC-12W Liberty Project Aircraft program has proven that rapid 
acquisition tools can deliver a product effectively, efficiently, and 
at an affordable price, and still meet the warfighter's immediate 
requirements. This effort was an immediate response to the Secretary of 
Defense's demand for the Services to provide additional intelligence, 
reconnaissance and surveillance (ISR) capability to combat forces. The 
Air Force, working through its specialized, rapid reaction, acquisition 
program management team, and the ISR Task Force, developed the MC--12W 
Liberty concept to deliver an ``80 percent solution'' quickly, and 
continue to improve the system with feedback from operators in the 
fight. These operator inputs are rapidly rolled into both hardware/
software and training in real time. The ISR Task Force provided 
oversight to set and hold requirements, and provide immediate funding. 
The MC-12W Liberty concept leveraged commercial off-the-shelf systems 
integrated on a readily available and highly reliable manned airframe, 
by a responsive and cooperative prime contractor with proven past 
performance. Acquisition professionals and operators, working hand-in-
hand from the beginning, enabled the deployment of a full combat 
squadron directly into the war zone in less than 10 months after 
receipt of requirement. MC-12W aircraft have flown over 11,000 combat 
sorties since June 2009. Of the 37 M-12W aircraft, 30 are deployed in 
the overseas congtingency operations fight while the other 7 are 
dedicated trainers--an unheard of ratio for a traditional aircraft 
program of record. The MC-12W Liberty is a benchmark for Air Force 
rapid acquisition.

    Senator McCain. I thank you both. General Schwartz, again I 
want to thank you and the other uniformed chiefs for standing 
up for the men and women in the military and acknowledging that 
``Don't Ask, Don't Tell'' is an issue that has to be examined 
very carefully, with an eye to our battle effectiveness and 
effect on the performance of the men and women in our military. 
I want to thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Again, thanks, Mr. Secretary and General Schwartz for your 
great leadership. It's hard to resist not asking a question or 
two about ``Don't Ask, Don't Tell'' because it is before us 
now. I want to do it quickly and then move on to the 
acquisition programs.
    General Schwartz, you said something that I think is very 
important as part of this discussion of repealing ``Don't Ask, 
Don't Tell,'' which is that there must be an understanding 
that--I believe you used the term ``standards of conduct''--the 
standards of conduct for Air Force members and, for that 
matter, members of the other three Services cannot be altered 
in any way if ``Don't Ask, Don't Tell'' is repealed. We'd be 
eliminating one policy, but then everybody in the military has 
to live by those standards of conduct.
    I just wanted to say to you as an advocate of repeal that I 
totally agree with that. I think that the ultimate question I 
want to just ask you both and, I understand what you've said, 
that the repeal effort raises is whether one believes that men 
and women in uniform who are otherwise capable and living by 
the standards of conduct of the military should be discharged 
from the military solely because of their sexual orientation. 
Secretary Donley, do you believe that men and women in uniform 
should be discharged solely because of their sexual 
orientation?
    Mr. Donley. My personal view is no, they should not. I'd 
like to come back to the issue that the Chief raised just 
briefly on conduct.
    Senator Lieberman. Go ahead.
    Mr. Donley. The Chief and I at our level have the 
opportunity and the duty to review dismissal cases from the Air 
Force, the highest level of review in the Air Force before 
officers are dismissed from service. My experience in this is 
that these cases do not depend on gender or orientation, but 
rather the issue of good order, discipline, unit cohesion; it 
depends on conduct. That's my experience in this job.
    Senator Lieberman. Thank you.
    General Schwartz, it's a direct question, but I think it is 
ultimately the question: Do you believe men and women in 
uniform should be discharged solely based on their sexual 
orientation?
    General Schwartz. Sir, I have to tell you that the answer 
to that question is more complex than a yes or no. It is 
dependent on the consequences, given a change in the policy. I 
would reiterate that it is very important for us to understand 
what's in each of the four corners of this issue. I would 
submit to you, sir, respectfully, that I'm not sure that is the 
case at the moment.
    For example, have we had an opportunity to understand what 
the thinking of our airmen and their families is? I have not 
done that. I cannot give you a sense of what their current 
views are. We need to know, and we need to understand what the 
puts and takes are.
    I take a pragmatic view of this, sir, not the philosophical 
view perhaps that you've explored here. We need to be 
pragmatic.
    Senator Lieberman. Do you have a personal feeling on the 
underlying question? I understand what you've said about the 
potential impact of it.
    General Schwartz. Senator, my personal feeling is acting 
now is premature.
    Senator Lieberman. Good enough for now, and we'll continue 
the discussion as we go.
    Mr. Donley. I would like to reinforce what has been said. I 
think the Secretary of Defense has put us in a good place by 
calling for this review. This is an important change to our 
military, and we need to have the time and the space to work 
through the implications of this in ways that have not, to be 
honest, sir, fully been worked through in other parts of our 
society in many dimensions. It would have particular impacts on 
our military.
    Senator Lieberman. Understood. My own reading and hearing 
of what Secretary Gates said when he testified before the 
committee, and of course Admiral Mullen backed it up in very 
strong testimony, was that, based on the decision of the 
Commander in Chief, the President, in favor of repeal, that the 
question in Secretary Gates' mind is not whether to repeal, but 
essentially when and how.
    The bill that we put forward yesterday contemplates the 
time going by with the study. It states a principle or goal, 
which is repeal, but it contemplates the time passing. In fact, 
it embraces a delayed time schedule to see that it's 
implemented correctly.
    I'm going to stop this one here for now. I think I 
appreciate the sincerity of the answers. Let me go in the time 
remaining to other issues. I'm really interested in what you 
said about cyber, but I want to just briefly talk to you about 
Joint Surveillance and Target Attack Radar System (JSTARS). 
I've had a long-term interest in the JSTARS program and the 
unique capability that the program has as a ground moving 
target indicator.
    This is all about the re-engining of the program. I was 
very pleased when last September, Under Secretary Carter issued 
an Acquisition Decision Memorandum designating JSTARS as a 
special interest program and directing the Air Force to proceed 
immediately with re-engining. The final fiscal year 2010 
Defense Appropriations Act provided $185 million for JSTARS, 
including $62 million to procure one engine set. This fiscal 
year 2011 budget request provides $168 million in research, 
development, test, and evaluation funding and $176 million on 
procurement. That's $344 million total.
    In the Air Force posture statement, General Schwartz, you 
note that the Service will begin an analysis of alternatives 
(AOA) to determine the future of ground moving target indicator 
capability this year, although the Air Force previously 
indicated that that would begin by April of last year. I want 
to ask you this question. My time is running out. I was 
surprised to see in the justification materials supplied in 
support of the budget for the Air Force for fiscal year 2011 
that although there are a total of 18 aircraft to be modified 
with procurement funds, the Service has only funded 4 of those 
18 aircraft through the Future Years Defense Program and only 2 
aircraft are funded this year, preventing the program from 
attaining economies of scale that would be achieved at the 4 
ship sets per year.
    I want to confirm that the re-engining program for the 
JSTARS fleet remains, as the Air Force justification book for 
procurement indicates, in your opinion a valid requirement.
    General Schwartz. We received guidance from Secretary 
Carter to execute--both to complete the development that 
included two ship sets--and to acquire two production ship 
sets, for a total of four, as you indicated. The backdrop on 
this, Senator, is that you have a couple of issues, one related 
to the JSTARS airframes that were used.
    Senator Lieberman. Right.
    General Schwartz. The pedigree on those airframes is not as 
solid as we'd like it to be. Just a case in point. One of the 
birds we had deployed forward had a cracked upper rear spar 
recently, tail number 122 I believe it was, and we had to bring 
it back for repair. There are issues with respect to the 
longevity of these airframes that raise questions in our mind.
    Second, the question about the AN/APY-7 sensor for JSTARS. 
Is that the sensor to go forward with or is there a better 
package to do both the mechanized movements on the ground as 
well as movements of humans on the ground? They are different 
requirements.
    Third, the issue has to do with the fundamental question on 
where should we invest for the future. That's where the AOA is 
supposed to help us. Should it be an unmanned system, for 
example, or should it be manned as currently?
    The bottom line is, I think the wise thing to do here is to 
proceed cautiously, to re-engine the four airplanes that we've 
been directed to re-engine, and get the AOA and decide what the 
best way forward is for us.
    Senator Lieberman. Okay. My time is up, and we'll continue 
the discussion. Obviously, I hope the AOA can go forward as 
quickly as possible and that the four engine sets can go 
forward as quickly as possible as well.
    Thank you.
    Chairman Levin. Thank you very much, Senator Lieberman.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    General Schwartz, let me echo the comments of Senator 
McCain with respect to the ``Don't Ask, Don't Tell'' repeal. I 
know there's tremendous pressure on you from the administration 
and other arenas to promote this change, and we look forward to 
continuing this debate and to the study. I'm very pleased to 
hear you say that you're going to go down to the very lowest 
levels of the enlisted personnel in the Air Force because, at 
the end of the day, we need to hear from everybody on this. I 
thank you for your courage there.
    Mr. Secretary, in your response to Senator McCain, I want 
to make sure I'm clear on this. The IOC date on the F-35 has 
slipped 2 years, is that correct?
    Mr. Donley. Sir, the IOC decision is up to General Fraser, 
who is the commander of Air Combat Command. We think meeting 
the fiscal year 2013 date that had been on the books for a 
couple of years is going to be very difficult, and our guidance 
to General Fraser and Under Secretary Carter's guidance to us 
at this point is to have the operating community, represented 
by General Fraser, working with the acquisition community and 
with the program office, to work through the implications of 
the restructure for IOC.
    Senator Chambliss. The restructure plan anticipates a 2-
year slippage, correct?
    Mr. Donley. The restructure plan did not address that 
specifically. It just told us to go work the IOC issues.
    Senator Chambliss. So what do you think the slippage is?
    Mr. Donley. I have indicated that it's going to be very 
hard to meet 2013.
    Senator Chambliss. Just answer my question, Mr. Secretary. 
What's going to be the slippage in your opinion?
    Mr. Donley. As I have indicated, certainly beyond 2013. 
General Fraser's task is to establish the definition of what 
IOC is and to work with the program office to determine the 
content of the program going forward.
    Senator Chambliss. Are we going to reach a Nunn-McCurdy 
breach this year with the F-35?
    Mr. Donley. I believe we will. I have indicated that in my 
testimony. The content of that, again, we have not worked 
through completely. But since the restructuring decision was 
made earlier in the winter, we have been undertaking, and the 
program office, under Under Secretary Carter's direction, has 
been undertaking, all the actions as if the program were in a 
Nunn-McCurdy breach. We're working through all the mitigation 
steps necessary.
    Senator Chambliss. The Joint Estimating Team (JET) prepared 
a report on the F-35 in the fall of 2008 that indicated that 
the F-35 would be significantly over cost and behind schedule 
relative to the joint program office's prediction. Are you 
aware of that report?
    Mr. Donley. I am.
    Senator Chambliss. About a week after the vote in the 
Senate last year to terminate the F-22, the JET prepared 
another report that said exactly the same thing. Were you aware 
of that report?
    Mr. Donley. Yes.
    Senator Chambliss. Were you aware of both those reports 
when you came to this committee and testified that there would 
not be a slippage in the IOC date on the F-35, and that it 
would meet test and production requirements?
    Mr. Donley. Yes. This is where we were last year.
    Senator Chambliss. Why didn't you tell us that the JET was 
going to come out with a report that disagreed with the IOC 
date being met?
    Mr. Donley. This concentrated review of the program has 
been a 2-year process. We received the JET report in 2008 
indicating there was a difference between the program office, 
as you have described, and the independent estimate. DOD 
reviewed that and ended up adding dollars to the fiscal year 
2010 budget for more system development and demonstration. It 
did not recognize all the changes in the independent estimate 
at that time, but it set in motion another review, which 
delivered at the end of last year.
    So we've had a close 2-year review of this program. I would 
say that the restructure represents, in part, the work of this 
committee and the House on the weapons system's evaluation 
process and how to better accommodate independent cost 
estimates, more realistic cost estimates in our program.
    Senator Chambliss. Why didn't you tell this to the 
committee?
    Mr. Donley. DOD's judgment at the end of the year was that 
we need to recognize this disconnect and fund closer to the 
independent cost estimate, and that judgment was reached at the 
end of the review.
    Senator Chambliss. Why didn't you tell this committee last 
year when we had testimony on the termination of the F-22 
program that the JET was going to come back with a report a 
week after the vote last year on the floor of the Senate that 
confirmed their conclusions in the fall of 2008 that there was 
going to be a 2-year slippage in this program? Why didn't you 
tell us that?
    Mr. Donley. Sir, I cannot speak to the specific dates 
you're referencing. I don't recall the precise sequence of when 
reports came in or when testimony was taken.
    Senator Chambliss. General Schwartz, were you aware of 
those two reports last year when you came before this 
committee?
    General Schwartz. I was aware of the substance of the 
reports, yes, sir.
    Senator Chambliss. Was there any reason you didn't disclose 
that to this committee when we were discussing the termination 
of the F-22 program?
    General Schwartz. Those, the independent estimates, at that 
time had not received a level of validation that I felt was 
compelling.
    Senator Chambliss. This week, the Air Force awarded a $223 
million contract for the first two re-engining ship sets for 
the JSTARS re-engining effort. I would certainly hope that it's 
the Air Force's intent to procure these engines and install 
them on JSTARS aircraft. Is that the Air Force's intention?
    General Schwartz. It is for the four ship sets, sir.
    Senator Chambliss. The fiscal year 2011 Air Force budget 
includes funds for two additional JSTARS re-engining ship sets. 
Since this is in the President's budget request, I assume that 
you both support that; is that correct?
    Mr. Donley. I do.
    General Schwartz. Yes, sir.
    Senator Chambliss. Are you fully committed to obligating 
and executing these funds as soon as you're able to, assuming 
they are authorized and appropriated?
    General Schwartz. We are, sir. I would only indicate that 
there is a need for a bit of reprogramming in order to execute 
the fiscal year 2011 program, about $20 million.
    Senator Chambliss. But you intend to make that request?
    General Schwartz. We intend to request that approval, yes, 
sir.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Secretary Donley and General Schwartz, I want to begin by 
thanking you for your leadership and your distinguished service 
to our country. I want to recognize and thank our airmen and 
civilians serving around the world and their families that 
support them.
    Secretary Donley, it is impossible to overstate the 
importance of our military engagement in the Asia Pacific 
region. We know that there are six of the world's largest 
militaries that operate in this region. Our conventional 
adversaries are getting stronger, and it is critical that we 
maintain our superiority in this region.
    Mr. Secretary, given the many demands on the Air Force 
budget and the unique mission in the region, the question is 
how does the Air Force and the Air Force's budget impact our 
military readiness in the Pacific?
    Mr. Donley. Certainly, Senator, we recognize the importance 
of this region and, while we have been focused understandably 
on the current work in the CENTCOM AOR, we've been very busy in 
the Pacific working with Admiral Willard on his vision for that 
region. Many of the systems that we are procuring and have 
deployed are part of his plans for this region, both in terms 
of peacetime engagement and in terms of wartime planning as 
well, such as our long-range strike platforms, our mobility 
platforms, our tanker assets, the future fighter attack 
capability when we eventually field and deploy in the F-35, for 
example. We also have our space assets and our ISR assets.
    There are a broad range of Air Force capabilities that are 
important to this region and that are getting support in the 
program that we've tabled this year.
    Senator Akaka. I'm glad to know that the F-22s are being 
sent to Hickam Air Force Base and the Pacific area, as well as 
Alaska.
    General Schwartz, the Air Force is increasing its use of 
UAVs. You mentioned in a speech recently that the Air Force 
wants to acquire an additional 320 units over the next 5 years 
and deploy most of them on combat air patrols. The men and 
women who operate the UAVs face unique mental health challenges 
as they experience the realities of combat remotely.
    General, how does the Air Force plan to help UAV operators 
deal with these unique mental health challenges, and any other 
remarks on that?
    General Schwartz. Sir, I would say that I would take the 
question a bit more broadly. Certainly those remotely piloted 
aircraft operators have a special challenge in that they, for 
some part of their day, are in the midst of combat and, in some 
parts of their day, they are much removed from that, in a more 
domestic setting.
    But more broadly, the question is how do we sustain the 
resilience of our airmen? That is, how do we prepare them both 
physically and mentally to withstand the rigors of today's 
demanding missions, whether they're forward deployed or whether 
they're in the rear? We have several programs underway to 
reinforce our efforts to make sure that our airmen have the 
psychic support, the medical attention, to ensure that there is 
a chaplaincy which is readily available and accessible, as well 
as commanders who care, so that we can assure the resilience of 
this talented and precious pool of airmen.
    We are concerned, for example, about suicide rates, which 
were higher last year than they were the year before, and we're 
running ahead again this year, both with our civilian and 
military personnel. This is another application of our efforts 
to improve resilience among our Air Force members, both 
civilian and military members.
    Senator Akaka. Thank you.
    Mr. Secretary, I'm happy to hear about the progress you 
have made in enhancing the acquisition workforce. Can you 
discuss any improvements within the Air Force acquisition 
system to help prevent a requirements creep and obtain the best 
possible estimates?
    Mr. Donley. Senator, I think there are several efforts 
underway here. But I think the one that I would mention front 
and center is KC-X. As the Air Force went back to define the 
requirement, the mandatory requirement set for KC-X, we were 
very careful to include those things that we needed to go to 
war on day 1. There is a bit of acquisition reform in this as 
well in the manner in which we have done this. We would expect 
to get that capability right off the production line and not to 
have to send an aircraft back for modifications any time soon. 
We would not expect to have to negotiate additional 
capabilities with who ever is selected for that airframe. But 
we have designed the requirements to be what we need on day 1 
and to limit that defining very precisely.
    Senator Akaka. General Schwartz, President Obama has called 
on Americans to lower our reliance on fossil fuels and change 
the way we produce energy. The Air Force's energy strategy is 
to reduce demand, increase supply, and change its culture. 
General, please tell us about the status of efforts to meet the 
Air Force's strategic energy goals by reducing fuel demand, 
increasing energy supplies, and changing Air Force culture?
    General Schwartz. Sir, there are a couple of parts to this. 
We, as you well know, are the largest consumer of hydrocarbons 
in DOD. There are things that we can do as a matter of course 
that reduce our demand for those hydrocarbons. In fact, over 
the last several years we've reduced our demand in the double 
digits through process, through procedures, through careful 
mission planning, and so on.
    That is part of the deal here, which is reminding our 
people that hydrocarbons are a precious resource, they are a 
cost driver in our cost of operations, and they must use these 
petroleum products judiciously. That's one part.
    The other thing we've done, as you probably know, is we 
have qualified a number of our aircraft--the KC-135, the C-17, 
the B-52; the F-22 is pending--on mixes of fuel, hydrocarbon 
and synthetic derivatives, for which we think there is a market 
for that fuel. We don't want to be the producer, but we can be 
the consumer of those blended fuels, which we know will work in 
our airplanes and certainly will enhance availability.
    The third part of this is the fundamental question of 
whether we can get beyond hydrocarbons. Our research laboratory 
is working that aspect as well. Hydrogen is one example, and 
there are a number of other promising technologies.
    I would conclude by saying that this is not just about 
airplanes. Our installations are large consumers of electricity 
and so on. An example of one initiative is the solar farm at 
Nellis Air Force Base, where over 50 percent of the electricity 
consumed at Nellis now is produced via solar. That's again 
representative of our efforts across the board, sir.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I remain deeply, deeply troubled by the process that 
resulted in this dramatic alteration of the RFP for the KC-X 
tanker aircraft. It's such a dramatic change that it has, I 
think, stunned the entire contracting world. I believe that the 
Air Force correctly chose the preferred airplane the last time. 
There were technical problems with the way that RFP went 
forward, and it was legitimate to come back and look at it 
again. But to have 11 significant changes and 9 of those favor 
one aircraft, to change the RFP to a degree that when you have 
two aircraft, each offering different values, and to craft the 
RFP so it directly favors only one aircraft is a stunning 
development. I think is going to have ramifications throughout 
the defense community.
    I believe no matter if the Northrop team decides to bid--
and I hope they do, I hope they do, but I don't know that they 
will--it's still going to be a problem that is not going away. 
There is now a perception, and I believe a correct one, that 
politics somehow influenced the changes that were made.
    I took notice from my colleagues in the Seattle Times after 
the new RFP came out. This is the lead sentence in that 
article: ``The final RFP for the long-delayed $40 billion Air 
Force refueling tanker contract, issued Wednesday, appears to 
heavily favor Boeing's Everett-built 767 plane over the 
rival.''
    It goes on to quote Ashton Carter, the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, as saying: 
``This is not a price showdown.'' But they note: ``But analysts 
noted that only in very limited circumstances will credit be 
given for extra capabilities.''
    The article goes on to say: ``The much larger Airbus 330 
can deliver more fuel per trip than the Boeing 767 and carry 
extra troops and cargo, but the evaluation process will credit 
those items only if the two bids are within 1 percent of each 
other on cost.''
    Lauren Thompson, defense industry analyst at the Lexington 
Institute, said: ``This becomes nothing more than a cost 
competition and a bigger plane costs more.'' He goes on to say: 
``It's Boeing's competition to lose. This is playing out just 
the way Northrop feared.''
    I'm a believer in DOD. I believe in the integrity of DOD, 
but I am very troubled. I remember with great clarity Senator 
McCain challenging the Air Force's decision with Darleen Druyun 
to give, in effect, a sole source contract to Boeing, and what 
did we find out? Ms. Druyun went to jail and members of the 
leadership team at Boeing had to resign, if not be prosecuted. 
I think some were prosecuted. It was a very, very sad thing.
    Politics should not enter into this. I just would tell you, 
I know it was made an issue in the campaign. Senator McCain, 
who saved $8 billion by advocating that this not be a sole-
source contract for DOD, was criticized in the campaign for his 
activity that virtually this whole committee supported. Senator 
Levin supported it. We required a bid. We passed a law that 
said this will be bid. There are only two bidders in the world. 
So, if you doctor a bid that favors only one configured 
aircraft over another and don't consider the total value to the 
Country, then you've I think done something that frustrated, 
really, the intent of Congress.
    Secretary Donley, don't you feel that in a procurement of 
this size that the Air Force should insist that the aircraft 
chosen not only just the cheapest price--that's not the only 
thing--but also that we should consider the other capabilities 
that the Air Force has and that the RFP should be crafted in 
such a way that those extra capabilities are given legitimate 
weight in the evaluation?
    Mr. Donley. Senator, we've had this conversation and, with 
all due respect, I think we probably disagree on how to 
characterize the RFP. DOD has been very careful about how it 
structured this competition and how it structured the 
requirements and the acquisition strategy. We believe this is a 
fair approach, it's balanced, and it has favored no one.
    Senator Sessions. So you believe that?
    Mr. Donley. The Deputy Secretary, Under Secretary Carter, 
and I have played this, DOD has played this, straight down the 
middle as best we possibly can, given all the pressures on both 
sides of these arguments.
    I would also like to remind the committee that in the 
context of the acquisition strategy, the capabilities of the 
aircraft are evaluated in the wartime model, in the peacetime 
fuel burn, and in the needed military construction (MILCON). So 
we have multiple evaluations of the aircraft involved in the 
evaluation upfront. That is part of our work.
    We've been very careful to identify what we need to go to 
war on day 1.
    Senator Sessions. So you would disagree with the paper's 
reporting?
    Mr. Donley. Air Mobility Command has been scrupulous in the 
way this has been put together.
    Senator Sessions. The article says the evaluation process 
will credit those extras only if the two bids are within 1 
percent of each other.
    Mr. Donley. Sir, I understand that there are extra 
capabilities beyond the 1 percent gate. But before the 1 
percent gate, the costs and benefits of smaller airplanes and 
larger airplanes are measured in the warfighting model, in the 
peacetime operating model, and in the MILCON costs. So the 
advantages of one plane over another in that evaluation is 
undertaken before you get to the 1 percent gate.
    Senator Sessions. Thank you. My time is up. I don't agree. 
This is not going to go away, and I just feel it's just so sad 
that we're in this. I think anybody in DOD or the Air Force who 
have talked to me about this bid process will know I never 
asked for any special advantage. I simply said you should craft 
a process to select the best value, not just the more expensive 
or cheaper aircraft, but the best value for the Air Force.
    I think there was a dramatic change in this bid process 
after you took office than there was previously, and I think 
it's resulted in a troubling situation. That's just my 
assessment. I have to say it.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Bill Nelson.
    Senator Bill Nelson. The wisest man in the world, King 
Solomon, faced the problem of who a baby's parent was between 
two women that said the baby was theirs. King Solomon solved 
the problem by saying: ``Well then, we'll just cut the baby in 
half and give a half to each.'' Then, of course, the real 
mother of the two said: ``No, no, your majesty; please give the 
baby to her.'' King Solomon then knew whose baby it was.
    Maybe the rumors are true out there that you're going to 
give this tanker aircraft contract to both contractors, and 
that's percolating. So I'd be interested to find out where the 
truth is here.
    I want to ask you for the record, because I have such a 
little bit of time, and if you'll just get back to me for the 
record, on space infrastructure.
    [The information referred to follows:]

    The Air Force is implementing the Launch Enterprise Transformation 
to support increasing launch demand. Ongoing range modernization and 
sustainment efforts are improving range reliability, availability, and 
maintainability. These efforts are enabling the Air Force to divest 
excess range infrastructure in favor of optimally sited, more reliable, 
and sustainable assets. Additionally, the Air Force is transitioning to 
greater use of on-board systems for tracking and command functions 
essential to range safety. In the near term, the Air Force is moving 
from primary reliance on radar tracking to a combination of on-board 
Global Positioning System (GPS) and inertial guidance tracking. Over 
the longer term, the ranges will transition from ground-based safety 
processes and systems to on-board autonomous flight safety systems. The 
decreased reliance on ground-based infrastructure increases range 
agility and enables the ranges to better satisfy the demands of 
changing launch schedules.
    In addition to these efforts, the Air Force is pursuing several 
initiatives to achieve greater launch flexibility. These include 
improving the launch manifesting process to maximize launch slots, 
optimizing launch vehicle throughput, and investigating the feasibility 
of launching GPS satellites from the west coast.
    The Commander, Air Force Space Command (AFSPC/CC) and the Director, 
National Reconnaissance Office (NRO) chartered a Tiger Team to 
recommend a revised way ahead for the Evolved Expendable Launch Vehicle 
(EELV) program. Among the items the Tiger Team is evaluating are a more 
flexible and transparent contract structure, and multi-vehicle 
procurement to include an fiscal year 2011 pathfinder ``Block Buy'' of 
launch services with the NRO and the National Aeronautics and Space 
Administration. The Tiger Team is also looking at various pre-planned 
product improvement and sustainment options for EELV.
    The team is also reviewing a more flexible manifesting process. 
This ``Whitetail'' concept would manifest and start the manufacturing 
of an EELV that could launch any of several different spacecraft. 
Specific spacecraft assignment would occur later, thereby using finite 
launch opportunities more efficiently. This concept was utilized in the 
most recent Current Launch Schedule Review Board. As a result, some of 
the EELV's manifested for launch in the next year have multiple 
spacecraft assigned for the same launch date. This provides flexibility 
in the event a specific spacecraft slips from its assigned launch date, 
then another spacecraft has the opportunity to launch.
    The results of the Tiger Team efforts will provide the basis for 
the fiscal year 2010 congressional reports required for both EELV 
sustainment and multi-vehicle procurement. The estimated completion 
date for a new acquisition strategy is on or about June 1, 2010.

    Senator Bill Nelson. Our Air Force range system is not as 
flexible as it needs to be to ensure the growing number of 
launches that are required. I want you to respond to us in 
writing, what are your thoughts to upgrade the ranges and to 
support more flexible approaches to space launch? What are you 
looking at with regard to the buying of launch vehicles, and 
the fact that 80 percent of communications for the military now 
go on commercial satellites. What is the right mix, and is the 
Air Force discussing any future plans to increase military 
satellite communications capacity beyond the current generation 
of Wideband Global Satellite and Advanced Extremely High 
Frequency satellites?
    Next is the issue of space situational awareness. What are 
the ramifications for ensuring space situational awareness if 
your increased request in your budget is not appropriated?
    [The information referred to follows:]

    Ensuring our soldiers, sailors, airmen, and marines have reliable, 
consistent access to communications is critical to successful military 
operations. The fielding of Wideband Global Satellite and the upcoming 
launch of Advanced Extremely High Frequency greatly improves access to 
Satellite Communications (SATCOM). However, these constellations cannot 
by themselves satisfy 100 percent of demand and commercial SATCOM will 
continue to provide needed service to the warfighter. The Air Force and 
the Department of Defense are reassessing SATCOM requirements and the 
Military Satellite Communications (MILSATCOM) architecture, to include 
an analysis of the balance of commercial and military SATCOM.
    The increased funds proposed in the fiscal year 2011 President's 
budget would keep the development of new SSA capabilities, specifically 
Space Fence, Space Based Space Surveillance (SBSS) Follow On, and SSA 
Environmental Monitoring (SSAEM) on schedule to replace the existing 
aging Space Surveillance Network infrastructure, and to maintain 
continuity of SSA services. Failure to fund these efforts will slip the 
delivery of these new capabilities and result in: (1) risk of a loss of 
near earth small object detection (Space Fence); (2) loss of Deep Space 
monitoring and tracking (SBSS) upon end of life of SBSS Block 10, and 
(3) loss of key environmental capabilities (SSAEM) that affect all 
space services to the warfighter.

    Senator Bill Nelson. Then, I have questions about 
operationally responsive space. What are your thoughts on 
increasing support to that?
    [The information referred to follows:]

    The fiscal year 2011 President's budget request of $94 million for 
ORS continues to fund the enablers needed to build an ability to 
rapidly reconstitute, augment, and surge space capabilities. We believe 
this level of funding supports the enabling capabilities. We continue 
to closely monitor the ORS-1 satellite development and are prepared to 
address execution issues should they arise.

    Senator Bill Nelson. I would just add my comments on 
JSTARS, and I'd like to be kept in the loop, that, given the 
importance of this asset to the current fight, I'd like to have 
a timeline for a decision on the ground moving target indicator 
requirement, and on the re-engining. So if you'd put me in that 
information loop.
    [The information referred to follows:]

    Ground Moving Target Indicator (GMTI) requirements will be 
evaluated as part of the Joint Surveillance and Target Attack Radar 
System (JSTARS) Mission Area Analysis of Alternatives (AoA) which was 
formally initiated on March 16, 2010. The AoA will determine what GMTI 
sensors and platforms are best suited to address the Department of 
Defense's current capability gaps. Results from this effort are 
expected to be available in March 2011 to support the Air Force's 
fiscal year 2013 budget preparation.
    In parallel, the JSTARS program office is taking steps to address 
recommendations of the Air Force Fleet Viability Board (FVB) with 
regard to E-8C structural condition. The Air Force has recently placed 
Boeing on contract to determine the service life of the underlying 707-
300 structure on which the E-8Cs were built; preliminary results of 
this effort are expected to be available in September 2010. Additional 
FVB remediation activity such as documentation review and a vertical 
stabilizer teardown will continue through early 2012.
    Development activity is ongoing for the JSTARS re-engining program. 
The first two production shipsets are expected to be available in July 
2012, at which time they will be installed on E-8C aircraft to support 
operational testing. Problems, however, have been identified with the 
new engine's bleed air design. The bleed air redesign is expected to be 
complete by July 2012. If the bleed air redesign is not complete in 
time for the engine delivery then a post delivery retrofit will be 
necessary. The fiscal year 2011 President's budget requests funding for 
two additional shipsets for purchase in 2011--these would be available 
for install in early fiscal year 2014.
    If the results of the AoA and E-8C structural analysis indicate 
that the JSTARS should be modernized, the Air Force will have the 
opportunity to include additional E-8C engine production in the fiscal 
year 2013 President's budget. Execution of such funding would be 
contingent on a successful operational test in March 2012.
    If, based on the AoA and structural analysis, the DOD decides to 
replace the JSTARS with a different GMTI capability, the Air Force 
would continue to sustain the E-8C while that replacement is designed, 
produced, and fielded.

    Senator Bill Nelson. Now, the remaining time that I have, I 
just want to say that last night I got a disturbing phone call 
about the Air Force's proposal to shut down 48 F-15s at Tyndall 
Air Force Base and that the job loss is not 594 personnel as 
originally expected. Last night, I found out it's 801 
personnel. I've been told the change is due to factors that 
were unaccounted for during your June 2009 study. But there's 
been no change in the number of departing aircraft.
    This is 15 percent of the total workforce at Tyndall Air 
Force Base that's going to be gone under your present plans. I 
would say that this hasn't been particularly well managed, 
particularly in light that there's not a follow-on mission 
there. We had been advocating to get F-35s to replace those F-
15s, and now you've already testified that the F-35s are going 
to be considerably delayed.
    You know the excellent base that we have. You put the F-22s 
there for pilot training because of the huge Gulf Training and 
Testing Range that we have, which by the way I will continue to 
protect; in spite of the Air Force and the Navy's efforts, I 
will continue to protect so that you don't have the invasions 
there so that you can't test, train, and drop live ordnance.
    I would appreciate very much if you would check out this 
follow-on mission for Tyndall Air Force Base.
    Do you have any comments?
    General Schwartz. Senator Nelson, just a bit of background 
on the 594 to 801 increase in personnel cuts. There were a 
couple of factors involved in this, but the largest one was an 
expectation that we would in-source the F-22 back shop 
maintenance. In other words, it's currently done by contract, 
and the expectation was we would migrate that into blue suits, 
which would help maintain blue suit manpower at Tyndall.
    For a number of reasons, we're not prepared to do that. We 
may well do it in the future, but it's not the right time. That 
is the largest component of the reason for the 174, I guess, 
increase in the numbers, from 594 to 801.\1\
---------------------------------------------------------------------------
    \1\ The committee notes the difference would be 207 personnel.
---------------------------------------------------------------------------
    I did share this in person yesterday with another member of 
the Florida delegation. Please forgive me for not getting to 
you in time.
    Tyndall is a very important place. The F-22 would not be 
there if it were not. As you suggested, the range availability 
there is precious.
    We have not made decisions on training space. It is true, 
the recent restructure of F-35, has pushed a little bit to the 
right decisions about where we would bed down the second 
training location. The first one is----
    Senator Bill Nelson. At Eglin.
    General Schwartz.--at Eglin, and it's 59 aircraft. The 
environmental impact statement is underway as we speak.
    It is clear to me that there's capacity at Eglin \2\ and we 
as an Air Force need to make prudential use of that capacity. 
We just haven't gotten to the point where we've decided exactly 
what that is. But it's well understood.
---------------------------------------------------------------------------
    \2\ General Schwartz intended to refer to Tyndall Air Force Base, 
as indicated by the later remarks.
---------------------------------------------------------------------------
    Senator Bill Nelson. You said ``Eglin,'' but you meant 
``Tyndall.'' It's clear to you that there is capability at 
Tyndall.
    General Schwartz. Tyndall.
    Senator Bill Nelson. Right.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Mr. Secretary, General, thank you very much for your 
service in performing very difficult jobs. We keep making more 
and more demands and resources get more and more constrained 
all the time. I think the discussion this morning is a good 
example of that.
    General Schwartz, I wanted to ask you about, among other 
things, you placed the B-1 bomber high velocity maintenance 
funding as number one on your unfunded priority list. I 
understand that a part of that, the B-1 portion of this item, 
is around $25 million. Can you explain your rationale as to why 
this important maintenance for the B-1 wasn't funded in the 
base budget?
    General Schwartz. Sir, the background on high velocity 
maintenance is, the basic principle comes from the commercial 
sector, where you take airplanes into depot-level maintenance 
more frequently, in this case maybe every 18 months as opposed 
to every 4 or 5 years, and the net result of that is you have 
much less discovery; when you have airplanes come in after long 
intervals, then you discover things that are wrong that you 
didn't know about, such as with the structure and so on and so 
forth.
    The principle in the commercial sector demonstrates that 
looking at airplanes more frequently at the depot level can 
save you money. It is an appropriate initiative. But the bottom 
line was we were pressed. Just as in a case in point, we 
deferred in our budget, trying to make balance all the demands, 
109 depot visits of aircraft and 163 engine overhauls. That 
unfunded priority request helped bring some of those overhauls 
back, including the high velocity maintenance on the B-1s.
    I mean, think about this, Senator Thune. We're asking for 
additional dollars for sustainment, not for a platform, not for 
something you would expect, but to maintain our machines and to 
make sure that we maintain readiness. But the bottom line is we 
have pressures, we made choices, and the number one unfunded 
priority is sustainment.
    Senator Thune. How many B-1s do you think would be impacted 
by that requested funding?
    General Schwartz. We have 66, sir, and ultimately it would 
be all of them.
    Senator Thune. General, the integration of the Sniper 
Advanced Targeting Pod into the B-1 bomber, and other Air Force 
aircraft, has contributed greatly to effective close air 
support in Afghanistan. However, there seems to be a lack of 
these advanced targeting pods for training because they're in 
such high demand in theater. Crews then are using these 
advanced targeting pods overseas in combat. However, they're 
having a limited ability to train on them here at home.
    Does the Air Force have a need for additional advanced 
targeting pods for training use?
    General Schwartz. Sir, you make a good point. The program 
of record which is funded is to grow to 375 sniper pods in the 
Air Force. We've had 241 delivered thus far. When we get to the 
full program, we will be able to dedicate the pods to specific 
tail numbers. But until we get there, typically what we are 
doing, it is true, is bringing the pod to the unit that will be 
deploying 3 to 4 months in advance of their deployment, so they 
can refine their skills and such with respect to the precision 
targeting.
    Again, this is a matter of a temporal issue. This is not a 
funding issue. We will get well as the additional pods are 
delivered.
    Senator Thune. Due to General McChrystal's directive 
restricting close air support operations, my understanding is 
that B-1 crews are frequently being used,instead of for their 
sniper pod capability, to provide ISR to ground troops without 
resorting to any sort of kinetic strike. Do you have any idea 
or notion of how frequently air crews are being utilized by 
ground troops in Afghanistan simply for ISR purposes?
    General Schwartz. Frequently, sir, I don't think that we 
should find that to be a problem. If the aircraft are airborne 
and they do not have a valid target to engage, to support our 
folks on the ground with the view from above and be able to 
provide that view via datalink to folks with Rover terminals on 
the ground, is exactly what we should be doing.
    I can understand why folks would ask this; they know their 
primary mission is delivering iron on target. If it's not 
needed during that sortie, certainly we should make the best 
possible use of the capability of the airplane, including the 
sniper pod.
    Senator Thune. General Schwartz--and Secretary Donley, I 
direct this to you as well--with regard to the Future Years 
Defense Program force structure set out in the new QDR for the 
Air Force, there is a proposal for 5 long-range strike wings 
with up to 96 primary mission aircraft. According to the latest 
Air Force Almanac, the Air Force currently has 153 bomber 
aircraft.
    Now, when I posed a question about the substantial cut to 
the bomber force to Admiral Mullen a few weeks ago, he said 
there is currently consideration for a reduction in the number 
of overall bombers in relation to the START follow-on treaty. 
That's cause for concern in my view because I have long 
expressed the fear that it would be proposed by the 
administration in effect as a way to negotiate the bomber leg 
of the nuclear triad away.
    Are these not substantial cuts to the bomber force as are 
being envisioned by the QDR?
    General Schwartz. Sir, there actually are 162 bomber 
platforms, B-1 and B-52 and B-2. The 96 are what we call 
combat-coded aircraft. So you have training aircraft, you have 
attrition Reserve. It's a complicated formula. In reality, 96 
translates to the current fleet of 162.
    But with respect to potential changes in mission, I do not 
foresee a reduction in B-52 force structure if there is an 
adjustment to nuclear tasking. As you are well aware, the B-1 
is not a nuclear-tasked platform; the B-52 is. If there is a 
requirement for fewer B-52s on the nuclear side, we will still 
require their capability on the conventional side. They simply 
will no longer be dual tasked.
    Senator Thune. Do you think that the cuts to delivery 
vehicles contemplated in the START Treaty, though, in those 
negotiations, are likely to come primarily out of the bomber 
force?
    General Schwartz. Sir, I don't think that'll be the case. I 
do not.
    Senator Thune. I think my time is up, Mr. Chairman. But if 
I have one quick question, can I ask?
    Chairman Levin. All right, yes.
    Senator Thune. General Cartwright indicated--and this is 
quick--that we run the risk of making the triad a diad if we go 
below 800 delivery vehicles in the follow-on START. Do you 
share that concern?
    General Schwartz. The issue for the Air Force, sir, is what 
I would call critical mass, both on the bomber side and the 
missile side. This has less to do with being able to meet 
targeting requirements than it does to be able to maintain the 
talent pool, the expertise in the nuclear enterprise that we 
need. If you get too small, you don't have enough people to 
fill the enterprise with the kind of talent you need.
    So for me, there is a minimum size that really is driven by 
human capital concerns, less than sort of traditional sort of 
targeting concerns.
    Senator Thune. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Ben Nelson. Senator Nelson, I'm going to have to 
leave for a few minutes. If I'm not back, I'd appreciate your 
calling on the next person. Thank you.
    Senator Ben Nelson [presiding]. Thank you, Mr. Chairman. 
Will do.
    Gentlemen, I appreciate your service and the men and women 
in uniform and civilians that do such a great job on behalf of 
the American people through the Air Force and through your 
leadership.
    The 55th Wing at Offutt Air Force Base in Nebraska operates 
a fleet of uniquely equipped RC-135 aircraft. Of course, 
they're individually equipped with unique combinations of ISR 
collections systems. Up to now, these collection capabilities 
are not fully supported by unmanned aircraft systems (UAS).
    In the budget request in fiscal year 2011, the request 
includes $2.2 billion for UASs and supports an increase in 
combat air patrols from 37 to 65 by 2013. Obviously, the 
primary focus of this expansion is via ISR, and it's been on 
UASs. My question is: As the Air Force budgets to meet these 
mission requirements and begins divesting itself of older 
airframes to pay for new technologies and programs, how do you 
see the technology of remotely piloted platforms affecting 
platforms like the RC-135? Perhaps, General Schwartz, you'd 
like to respond to that first.
    General Schwartz. Sir, I would say that is not an immediate 
concern. The issue for us right now really is the high-altitude 
transition between the U-2 and the Global Hawk, and getting the 
Global Hawk, particularly the so-called Block 40 Global Hawk, 
which has a radar sensor--the Block 30 is the more signals 
intelligence-based platform--getting those fielded. That is the 
real issue that we are dealing with.
    I do not foresee remotely piloted aircraft beginning to 
supplant the large fixed-wing capability that particularly 
resides in the RC-135 in the near term.
    Senator Ben Nelson. What efforts are underway in fiscal 
year 2011 to modernize the RC-135 to obviously keep it at the 
highest level of performance?
    General Schwartz. Sir, I'd like to take that question and 
give you a detailed answer for the record, if that's okay.
    Senator Ben Nelson. Yes, I don't want to use all my time on 
that.
    General Schwartz. This airplane continues to improve. 
Certainly the sensor capability on the machine improves. We 
have initiatives there to deal with new signals, new modes of 
collection, and what have you, as well as the airframe, re-
engining, and such, that you're aware. But I'll get you a 
detailed answer on that.
    [The information referred to follows:]

    Fiscal year 2011 will see the continued development and upgrade of 
the RC-135. These upgrades ensure the RC-135 remains operationally 
viable and tactically relevant in its ability to collect, process, 
analyze, and disseminate evolving and emerging adversarial threats--
specifically the collection of advanced digital low-power systems used 
by terrorists and insurgents worldwide. These programmed upgrades will 
enable the RC-135 to continue to rapidly and reliably respond to 
national Intelligence Community taskings, as well as the time-sensitive 
threat warning and force protection requirements of commanders in the 
field.
    Fiscal year 2011 modernization efforts will be the start of the 
largest technology refreshment ever introduced in a single RC-135 
baseline upgrade and will include the following:

      1.   CORVUS: Replaces the Automatic ELINT Emitter Locator System 
(AEELS) which has been on-board the RC-135 since 1991. Due to 
diminishing vendor inventories, the AEELS is at a critical juncture and 
must be replaced or faces potential mission failure in the near future. 
CORVUS significantly improves the probability to intercept signals from 
integrated air defense systems, surface-to-air missile systems, and 
advanced adversary fighter aircraft.
      2.   Digital Multi-threaded Collection Architecture (DMCA): 
Fields a common digital hardware and software architecture for all core 
communications exploitation applications to include searching, copying, 
and geo-locating high-priority targets of interest.
      3.   Wideband Global Satellite (WGS): Accomplishes initial 
engineering test and hardware integration for WGS receiver equipment 
on-board the RC-135. WGS will provide the bandwidth needed for nearly 
all near-term distributed operations capabilities. Currently the single 
greatest barrier to enhanced enterprise integration for the RC-135 is 
lack of data link connectivity bandwidth. WGS will fix this 
shortcoming.
      4.   Ship-wide Interphone: Full replacement of cockpit and 
reconnaissance compartment interphone, voice radio access, and recon 
audio access/control functions for communications; allows timely 
support to national and theater intelligence consumers.
      5.   External Communications Suite Upgrade: Deploys new NSA 
software (Radiant Mercury), providing a data guard that allows multi-
level secure communications. Ensures tactical data links are segregated 
without compromising the integrity and security of any network 
(collateral links from SCI networks). Fields an upgraded suite of 
digital line-of-sight and SATCOM radios compatible with current and 
programmed strategic and tactical secure communications networks.
      6.   General Technology Refreshment: Re-hosts 51 of 54 computer 
processors, ensuring state-of-the-art capability to keep pace with 
ever-changing enemy technologies; purchases new digital recorders to 
archive collected data for real-time and post-mission analysis and 
reporting; purchases new Local Area Network (LAN) switch mainframes; 
and replaces legacy communication receivers with state-of-the-art 
digital tuners.
      7.   Signal Search Research and Development (Special Signals): 
Upgrades legacy equipment, ensuring continued collection capability 
against advanced, digital, high-capacity special signals of interest. 
This upgrade purchases enhanced recording functions and upgrades 
existing analysis systems. This upgrade ensures the RC-135 continues to 
have one of the most technologically advanced mobile signals search and 
analysis capability of all fielded ISR platforms.
      8.   Maintenance Upgrades: Equipment replaces aging maintenance 
equipment, including new cooling systems for multiple computer 
processors, allowing sustained system reliability.
      9.   Enhanced Network Centric Collaborative Targeting (NCCT): 
Capability provides highly precise fused national/tactical geo-location 
to theater and battlefield commanders.
    10.   Expanded Aircrew Capability Extension System Applications: 
Supports distributed operations with ground collection and processing; 
net-centric enabler integrates the RC-135 into national intelligence 
processing, analysis, and reporting systems; supports in-garrison 
linguist training and expanded combat proficiency.

    Senator Ben Nelson. That would be helpful.
    In that connection, I understand that there is no effort 
underway right now to grow the end strength. But as we bring in 
new missions, new technology, and retain existing technology 
and existing systems, there's going to be pressure on personnel 
and the human capital will obviously be affected by that. Are 
you planning training differences or is there a reduction in 
force required for certain systems over other systems?
    General Schwartz. Sir, let me give you a quick example and 
perhaps the Secretary will want to amplify. Right now we have 
put more than 4,000 people, airmen, into the ISR mission. That 
is, as the Secretary suggested earlier, both operators and 
maintainers and a very substantial number of intel folks to 
process the data take. We cannot sustain that indefinitely. We 
can't go from 50 to 65 percent and keep doing it just the same 
way.
    What that suggests is technology has to help us. For 
example, at the moment we have one pilot and one sensor 
operator, fly one platform with one sensor on it, looking at 
one spot on the ground. So it's a one to one to one to one 
relationship. What we need to be able to do is get to the point 
where one operator can operate multiple aircraft, maybe as many 
as four, perhaps more, and gain efficiencies there.
    Likewise, we need on the processing side to use the kind of 
software that we know is available, that you and I saw when we 
were watching the Olympic Games or when we watch football on 
Sundays. We need to have automation in the process of watching 
video, picking out the relevant pieces of video and so on. That 
will reduce the manpower demand.
    Part of this is right now doing what we have to do. This is 
not the way that this needs to be structured indefinitely.
    Senator Ben Nelson. I appreciate that.
    Mr. Donley. Just to amplify on the personnel side, I think 
our Air Force has a very strong reputation for the relationship 
that we have between the Active, the Guard, and Reserve 
components, a very close lashup among the Reserve components 
with the Active-Duty component. We've applied that in many 
different mission areas.
    One of the initiatives I put out this year, and we hope to 
get some results on further along in the calendar year, is 
taking those success stories at individual locations and 
establishing for the Air Force as an institution a little bit 
better business case analysis, a little bit better model for 
the cost effectiveness of our total force initiatives across 
all components, especially in some areas where we have many 
airmen involved but who do not always deploy abroad. There may 
be a slice of the force that requires deployment forward at any 
given time, but in many ways CONUS-based operations or static 
operations, if you will, even though they're in support of the 
combatant commanders, need us to find out whether or not we can 
get better, cost-effective combinations of our Active, Guard, 
and Reserve personnel, and our civilian workforce as well.
    We're looking for better cost-effective models in that 
broad area going forward.
    Senator Ben Nelson. There's one other question. My time's 
out. I'd like you to respond back in writing on this. I noticed 
in the Air Force's unfunded requirements under MILCON an entry 
item of $57.1 million to address Guard and Reserve vehicle 
replacement and equipment. I know the Army in its posture 
hearing last week expressed some concerns about being able to 
deal with the MILCON requirements for the Guard and Reserve. 
Perhaps you can outline to me whether or not the Air National 
Guard (ANG) is suffering from the same facility requirements 
and shortfalls as well. Obviously, as we use the Air Force and 
the Guard as Operational Reserves, their MILCON requirements 
are going to be increasing over a period of time.
    I thank both of you for your time. Did you have a response 
to that?
    Mr. Donley. Sir, we can give you a more specific response 
for the record, but we have been taking increased risk in our 
infrastructure. Tactical and administrative vehicles is an area 
that also gets typically less attention and is an area where we 
take risks. These are things that affect all of our force. But 
we'll get you a more specific answer on the Guard.
    [The information referred to follows:]

    In our fiscal year 2011 budget request, we had to make a number of 
difficult choices, including continued risk in some of our 
infrastructure accounts. However, we believe that these risks are 
necessary, given numerous other priorities that we face in this time of 
conflict; and, we have ensured that our budget request remains aligned 
to our fundamental priorities. Therefore, the Air Force is placing its 
most urgent military construction projects in the Future Year's Defense 
Program (FYDP) and we are working to ensure that all critical 
requirements are met. We will re-examine the requirements for both 
Active and Reserve components during the fiscal years 2012 to 2017 FYDP 
development.

    Senator Ben Nelson. Thank you. Thanks, both of you.
    Senator Udall.
    Senator Udall. Thank you Mr. Chairman.
    Welcome, gentlemen. General Schwartz, your comments about 
the Olympics and the technology there made me think about our 
Olympic team, almost another form of an Air Force, Olympic Air 
Force, though a lot of them operating without chutes and nets. 
What a great result we had in Vancouver.
    I was at another hearing in the Energy and Natural 
Resources Committee, and I missed the exchange on ``Don't Ask, 
Don't Tell.'' I understand it was healthy and frank, and I want 
to compliment everybody involved in this important discussion 
for being forthcoming with their point of view.
    I remain a stalwart supporter of the Lieberman-Levin 
legislation. I have no doubt, given the exemplary fashion in 
which human resources operate in the military, that once we 
decide how to implement this change, that the military will do 
it in a way that makes us proud. Thanks to both of you for 
being clear with your points of view.
    If I might, let me turn to the legacy aircraft retirement 
situation. You've announced plans to retire legacy aircraft in 
order to, as I understand, fund a smaller, more capable force 
and redistribute those personnel to higher priority missions. 
The plan raised some questions here, and I'd like to ask you in 
that context if you have a plan to recapitalize the ANG units, 
which are performing air sovereignty alert missions and whether 
there are concerns you have about potential gaps in the 
homeland defense systems?
    General Schwartz. Sir, we certainly do have a tight 
coupling, as the Secretary suggested, with the ANG. With 
respect to the air sovereignty alert, there are 18 locations, 2 
of which are Active Duty, 16 are covered by the ANG. Of those, 
we have two of which are soon to be F-22 locations. You have, 
if I recall correctly, six are F-16, and the remainder are F-15 
covered.
    The bottom line is that that mission will not diminish in 
coverage as a result of the reductions that we've recommended, 
and that we will make sure that the air sovereignty mission and 
the North American Aerospace Defense Command (NORAD)-U.S. 
Northern Command (NORTHCOM) requirements are satisfied through 
either reallocation of assets if we have to or service life 
extension if that's required. Clearly, some of that coverage 
will be performed by F-35s in due course.
    Senator Udall. I think it wouldn't surprise you and the 
Secretary to know that the Guard, whether it's the ANG or the 
Army Guard, are always keen to take advantage of equipment that 
may be available. They make the most with equipment that often 
has been used.
    General Schwartz. I think and I do believe that our Guard 
and our Reserve are models for complete integration within the 
larger total force context of our Air Force, and I certainly 
would expect that as we get additional equipment and personnel 
and modernize, I would say both in terms of the tankers and in 
terms of the fighters, you will see an appropriate contribution 
from the Guard and the Reserve in both those mission areas.
    Senator Udall. Good luck in that regard. By the way, I 
think Boeing and Northrop are both great companies.
    Let me move to the space posture review. Senator McCain 
mentioned we required in the National Defense Authorization Act 
for Fiscal Year 2009 a report by December 1 last year. I 
understand it won't be completed until the summer. Can you tell 
us anything about what's in the works that's been performed so 
far, the QDR process, and how that might have affected 
modernization and investment plans for security space systems? 
Mr. Secretary, do you care to comment, or General Schwartz?
    Mr. Donley. I wouldn't want to preempt the policy 
discussions that are underway, but I'll just highlight that 
they do reflect themes that are familiar to this committee and 
to prior year testimony from the Air Force, and from Air Force 
Space Command in particular, about the importance of this 
domain to our national security establishment. We need to set 
the right balance between U.S. and partner capabilities as we 
think about those aspects of our major mission areas like 
missile warning, satellite communications systems, weather, 
intelligence and surveillance, all these are mission areas 
within the space domain, and what kind of capabilities we need 
as a military going forward. We also must find the right 
balance between those that we need to own and those that we can 
buy or lease from others, how to set up more effective 
partnerships with our international partners, and our 
commercial partners going forward.
    These are roughly the themes that you will see. Space is 
more crowded than it was 20 or 30 years ago, more congested and 
more contested. The importance of space situational awareness 
as a foundation for our work going forward I think is very 
important. We need to have the capabilities in place that help 
us understand what is happening in that domain with full 
knowledge of all the actors and capabilities that are operating 
in that domain and to be able to attribute actions in that 
domain that could potentially impact U.S. capabilities.
    Senator Udall. I look forward to the report, obviously.
    Let me, in the remaining time I have move to cyberspace. We 
have the 24th stood up at Peterson Air Force Base. We're 
honored to be able to host the 24th and Peterson in general. 
Can you give us a little bit of an update on the 24th and the 
cyberspace mission in general?
    General Schwartz. Just to clarify that, of course, Air 
Force Space Command at Peterson is the senior headquarters to 
the 24th. Actually, the 24th is based in San Antonio, sir.
    Senator Udall. I thank you for that clarification. I didn't 
want to suggest to my friends from Texas that the 24th is in 
Colorado.
    General Schwartz. I understand.
    I think the key thing about 24th is that it is the focus 
for our efforts in cyberspace. There are two major components 
of that. One is defending the net, defending our networks, 
because they are not just administrative entities; they are 
command and control, they're involved in command, control, 
operations, and so on. Defending the net is a major obligation 
and they have infrastructure and people in the command 
relationship to execute that mission.
    In addition, there is the question of what I would refer to 
as the offensive use of cyber. That is, use of cyber in ways 
that would support other aspects of the Air Force mission. For 
example, if you are trying to neutralize an integrated air 
defense system, you can do that with kinetic weapons or 
perhaps, perhaps, you could do it with some cyber capabilities.
    So the 24th is focused on that part, not more broadly, but 
to those kinds of capabilities that would enable other Air 
Force missions. That's the basic theme for 24th. They're 
growing. They will have the talent of our Air Force with 
respect to all things cyber, and it will also be the Air Force 
component command, for the subunified Cyber Command (CYBERCOM) 
when it's established.
    Senator Udall. Thank you, General.
    One final comment. My time has expired. There's an 
interesting analogue here between the conversation we're having 
about offensive activity in space and offensive activity in 
cyberspace. I think there are probably lessons that we can 
learn and discussions that will parallel each other as we 
grapple with those tough, but very serious, questions.
    Thanks again, gentlemen, for being here.
    Chairman Levin. Thank you, Senator Udall.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Secretary Donley and General Schwartz, thank you so much 
for your service and for your testimony today. The Air Force 
contributes so much to today's irregular warfare environment in 
substantial ways, and our airmen do an excellent job in 
providing situational awareness and air-ground integration on 
the battlefield.
    I also want to emphasize the contributions of our Air Force 
Special Operations combat controllers who conduct combat search 
and rescue operations, set up air assault zones, and manage the 
air space.
    Lastly, I want to thank you for the Air Force contributions 
to the efforts in Haiti. I understand there were 600 airmen 
supporting over 120 flights a day and handling at least 12 
million pounds of relief supplies and emergency response 
equipment. The 21st Special Tactics Squadron from the Pope Air 
Force Base did a fantastic job in managing the air space and 
ensuring the flow of supplies. I thank you for that.
    Secretary Donley, I wanted to follow up a little bit, too, 
on the cyber security issue. You mentioned that the Air Force 
is investing additional personnel in cyber security. I 
understand Senator Udall might have just asked some of the 
questions concerning cyber security, but how is the Air Force 
consolidating efforts to protect our computer networks and how 
is the Air Force Space Command going to work with the newly 
created Cyber Security Command?
    Mr. Donley. Well, as the Chief mentioned a few moments ago, 
the 24th Air Force standup in San Antonio is the focus, and has 
been the focus, of our effort of consolidating our network 
operations and network defensive capabilities. 24th Air Force 
reports to Air Force Space Command and 24th Air Force will be 
the Air Force component to the CYBERCOM which is being created 
at Fort Meade. So that's the institutional and the operational 
relationship.
    Space Command has done a tremendous job in overseeing the 
standup of 24th Air Force in the last year, and especially in 
the development and consolidation of career fields for this 
important area, so that we are well positioned with the right 
kind of talent and the right kind of backgrounds.
    We're anticipating that the future demand for how much and 
precisely what kinds of capabilities need to be developed will 
await the standup of CYBERCOM. We'll get the demand signal from 
the joint community on that, probably later this year. We're 
undertaking the actions that we can and should within our Air 
Force, but we think there's more work to be done on the joint 
side, and we'll probably get tasked more specifically later.
    General Schwartz. Ma'am, if I can just elaborate on one 
point. You may wonder why we aligned the 24th with Air Force 
Space Command. The reason is because space and cyber, I would 
argue, are both fundamentally engineering disciplines. You have 
a command that is focused on space and cyber. There was a lot 
of synergy between the two, as Senator Udall suggested, and we 
think that that was the right institutional alignment, as the 
Secretary suggested.
    Senator Hagan. What about the career development and 
finding the right people to go into this area? Can you explain 
a little bit further on that?
    General Schwartz. Sure. There are two aspects to this. One 
is creating organic capability, and so there are joint courses. 
The Navy runs a major course at Pensacola, for example. We also 
have courses at Keesler Air Force Base in Mississippi that will 
prepare our airmen with the skills in order to do this work. 
There's advanced kinds of things which other agencies within 
DOD to help us train and maintain the readiness of our airmen.
    The other part of this, though, is recognizing that it is 
unlikely that DOD will ever be able to have all the cyber 
talent it needs and that actually, the predominance of that 
talent's going to be in the private sector. One of the things 
we're doing, which I think has lots of merit is, let's say we 
have an ANG unit in the State of Washington and its purpose is 
cyber. It can access the talent pool in Everett or in Seattle 
with Microsoft and elsewhere or, in the case of California, in 
Silicon Valley, where we can have folks that every day do their 
work in the cyber business, but also serve in the ANG or the 
Reserve. We think that is a high payoff strategy.
    Senator Hagan. Let me mention, too, that North Carolina has 
an excellent Research Triangle Park with a lot of talent that 
might be utilized also.
    One of the most important issues to me is ensuring family 
support programs across the services are appropriately 
resourced. Improving the quality of life for our airmen and 
their families is extremely important. How is the Air Force's 
family support program keeping pace with our current operations 
and what are some of the latest initiatives with respect to 
family support?
    Mr. Donley. We have a number underway, Senator, and this is 
an extremely important area for our Air Force, especially given 
the pattern of deployments that we've experienced over the past 
several years. We have underway an Air Force Year of the Family 
that is completely reviewing the whole set of capabilities and 
programs that we have with respect to spousal support and 
education, with respect to housing, with respect to health, 
child care, et cetera. We have a full range of programs in 
place already.
    A couple that we have bumped up in importance over the last 
year or so involve greater focus on families with exceptional 
family members who need additional support as they move from 
installation to installation for their particular family member 
to meet those special needs of those family members.
    We've focused more attention on the key spouses program in 
our Air Force and the support network of spouses that support 
our airmen and their families when airmen are deployed forward. 
It's an extremely important early warning network for us. It's 
an extremely important reinforcing of the Air Force community 
at the local level.
    General Schwartz. If I might add, ma'am, we're also paying 
attention to schools. Schools are the coin of the realm to most 
families. So that is a very important aspect of making bases 
attractive, ensuring that schools there to support the 
education of the youngsters in the best possible way.
    Senator Hagan. Secretary Donley, you mentioned about 
spouses and education. It has come to my attention that so many 
people have registered and taking advantage of that program 
there might have been a hold put on participation. Can you 
elaborate on that?
    Mr. Donley. We are familiar with this. This is a program 
administered at the DOD level which was so popular that it 
became overwhelmed, and so there was a need to take a pause and 
that is underway. But I know Dr. Stanley, Under Secretary of 
Defense for Personnel and Readiness, is working this very hard 
with the rest of the manpower community to determine the proper 
way forward there.
    Senator Hagan. I think a lot of the people who were 
currently receiving tuition assistance had not been notified 
that a hold has been put on that, and I think that there's a 
lot of consternation and a lot of upset spouses at the moment.
    Mr. Donley. We understand.
    Senator Hagan. What's the plan going forward?
    Mr. Donley. We don't have that plan worked out just yet. 
The OSD folks are working on that with the rest of the manpower 
community. We can get back to you as soon as we have an answer 
from DOD. I have not heard in the last 48 hours the future plan 
for that particular program.
    Senator Hagan. I would appreciate that, because there are a 
lot of spouses in North Carolina that are calling my office. 
Thank you.
    [The information referred to follows:]

    Last month, the Office of the Secretary of Defense (OSD) placed the 
My Career Advancement Account (MyCAA) spouse tuition assistance program 
on hold. As of 13 March, MyCAA resumed operations for military spouses 
with currently existing accounts. These spouses are able to submit and 
receive approval for financial assistance. OSD is still developing 
long-term program options and expects to announce details soon. Until 
that time, no new accounts can be created. OSD/Military Community and 
Family Policy has advised the Air Force it is reviewing software 
applications, financial assistance documents, and the overall program, 
and that the short pause in the program will allow it to better assess 
the program and ensure it is meeting the goal of providing spouses 
access to education and training for portable high-growth careers.

    Thank you.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    Mr. Secretary, thank you. General Schwartz, good to see you 
again. I consider you an Alaskan from many aspects. But thank 
you very much for being here today, and especially in your 
position. I didn't think, back when you were in Alaska and I 
was on the city council and then later mayor, that we would 
probably visualize us both here across the table. It's an 
amazing thing, but it's good.
    Let me, if I can, just lay a little bit out, following up 
on Senator Udall's and others in regards to the retiring of the 
F-15s. You're very familiar, obviously, with this. For 
Elmendorf Air Force Base there are 24 aircraft that will be 
totally retired and literally go to the lower 48 States to 
another Guard unit or Guard units, however you determine that 
and deploy that.
    You understand the importance of the F-15 as part of the 
19th Fighter Squadron. It's dedicated solely for air 
sovereignty alert missions. That is run by NORAD in partnership 
with Canada. Putting that over here for a second, recognizing 
the retirement that's occurring in regards to those, the F-15s, 
we also have the 36 F-22s, which we're very proud of, in the 
two squads there. But the reality is, those are used on 
multiple missions. One squad seems to always be down in Guam, 
for some of the work that's there, training, maintenance, and a 
variety of other requirements for the F-22s.
    How are we going to accomplish the mission that the F-15s 
have been so successful at and have been literally from 
Alaska's perspective, and I think from the Nation's 
perspective, a real shining bright star? How are we going to 
have that mission, knowing that the F-22s are already being in 
some cases maximized in their utilization, at least from our 
perspective, in the work that they do for Pacific Command as 
well as NORTHCOM?
    General Schwartz. Sir, as I indicated earlier, this is both 
true in Alaska and Hawaii, and while there is a deployment 
requirement, and the F-15s actually had a deployment mission as 
well, over the last decade or two, since Operations Desert 
Shield/Desert Storm, there's been a relatively modest need for 
air superiority kind of deployments. The bottom line is that 
both in Alaska and in Hawaii the F-22s will support the air 
sovereignty mission.
    With respect to whatever capacity is left, and it will be 
substantial, they will be available for deployment for other 
missions in support of other combatant commanders. But I have 
no doubt that those machines will support the air sovereignty 
requirement that's specified by NORAD and NORTHCOM.
    Senator Begich. Can you walk me through the force 
restructuring? I know, and I can't remember the exact timing, 
but the force restructuring, the capability gaps, and the whole 
report that's due at some point. Can you give me an update?
    General Schwartz. In fact, the report was, if I'm not 
mistaken--perhaps the staff can confirm--delivered yesterday. I 
read it one last time on Sunday cover to cover, and at least in 
my view it makes a pretty compelling case.
    Senator Begich. I guess the thing I recognize, and you 
understand the uniqueness of what we have in Alaska, so I just 
want to underline my concern still because of the capacity and 
the amount of responsibility that our units have up there. I 
agree with Hawaii, too, but I want to underline my concern 
there.
    If I can move to maybe three other areas very quickly. 
First, and this is more of a comment, when Senator Bill Nelson 
was talking about launches and so forth, we would underline 
that Kodiak is a great investment that the military has made 
and we would encourage you to continue to look at that as an 
asset. I know some might think because of the cost, and 
question if it is the right location and so forth, but in a lot 
of cases it is. I would hope that you would consider the Kodiak 
Launch Complex as an important asset in how you utilize assets 
around the country for launches.
    We know they have done some incredible work and the 
military and the Federal Government have put an enormous 
investment in that. We would not want to see that become an 
idle investment when there's a value for it, especially as we 
move into more and more space activity.
    I know you know this, and I always get to do this, my 
friend from Colorado, Senator Udall, I always get to do this 
when he's out of the room. We have superior air space in our 
State. He'll tell me later--the last time I said something 
about the mountains and he harassed me and I told him Colorado 
has hills; we have mountains.
    Chairman Levin. You realize, Senator, these proceedings are 
being recorded.
    Senator Begich. Absolutely, and my Alaskans will appreciate 
it. [Laughter.]
    But I know there is a lot of discussion ongoing about 
utilization of air space and making sure we have enough air 
space and uninterrupted air space. That is becoming a growing 
problem for every branch. So again, I know there's a lot of 
work the Air Force has been focused on and looking at Alaska in 
some respect. I just want to continue to keep that point 
clearly on your radar screen. I know it is because you're very 
familiar with the air space there.
    I don't know if you have any comments you want to dare to 
dive into, knowing the chairman will probably add about his air 
space, too, and my colleague to the right will, too.
    General Schwartz. Senator, clearly there are a couple of 
places in the country that are extraordinary in terms of the 
availability of air space. Alaska is one. Clearly, the Barry 
Goldwater Range in Arizona is another. The Nellis Range in 
Nevada, the Utah Testing and Training Range in Utah. There are 
others, but those are the major ones.
    I would just make the point that it is very important, it 
is a national imperative, that we manage this air space 
carefully. There are pressures from development to energy, 
numerous, numerous pressures. We have to be very, very careful 
about eroding those very precious places where we have, as you 
said, continuous, contiguous air space that allows us to train, 
that allows us to test in a controlled fashion, and again, 
underwrites the readiness of all the forces.
    Senator Begich. Very good. Thank you.
    My time is up, and I'll just leave you this for the record, 
if you could. You folks recently provided me some information 
on radars and the air defense mission for fiscal year 2010. In 
there, there's about $31 million, give or take a few dollars of 
unfunded tasks for some of the projects, as well as contractor-
required parts. Can you give me, again for the record, what the 
strategy is there to deal with that underfunding and long-term 
ability to make sure we continue to move ahead on the 
maintenance issues, which only get more expensive as time goes 
on. Delayed maintenance just means delayed costs, increase 
means increased costs. Please, if you could do that for the 
record.
    General Schwartz. Just to clarify, sir.
    Senator Begich. Sure.
    General Schwartz. You're talking about long-range radar 
sites?
    Senator Begich. Yes.
    General Schwartz. Yes, got it.
    [The information referred to follows:]

    Currently, the Air Force supports numerous long-range radars, 
including 15 FPS-117 radars in Alaska. These radars are a key component 
in the defense of our Nation and provide support to Operation Noble 
Eagle. To ensure they remain fully operational, the Air Force added 
$19.7 million in the fiscal year 2010 President's budget for the 
replacement of long-range radar essential parts. The Air Force 
continued its commitment by including $34.9 million in the fiscal year 
2011 President's budget for the replacement of essential parts and an 
additional $12.75 million for the long-range radar service life 
extension program.

    Senator Begich. Great. Thank you very much.
    Chairman Levin. Thank you, Senator Begich.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    Last but not least, gentlemen. I don't know if there will 
be another round, but I just want to extend my thanks for your 
service, Mr. Secretary and General Schwartz. Just one little 
comment, because I know I have several points here. Mr. 
Chairman, I certainly will submit my other questions for the 
record.
    Mr. Secretary, I want to commend you on your position with 
``Don't Ask, Don't Tell.'' I would just like to ask the 
General. You seem like a young man, much younger than I am. But 
General, in terms of the service, we did not have the best and 
brightest in the service prior to the integration and President 
Truman making his statement, making his executive order. Though 
we had separate services, you saw the Tuskegee Airmen, how they 
performed under very adverse conditions because they were 
committed to the service and to the survival of this great 
Country of ours.
    I also learned since I've been in the Senate, and I did not 
even know anything about it, but Senator Kay Bailey Hutchison 
from Texas spoke about the Women's Air Force that came 
together, paid their own way to Texas, had to pay their way 
back home to train because we had so many men in the military 
that they couldn't fly the missions and women flew the 
missions. There was also discrimination against women, 
discrimination against blacks.
    All the Services, General, have adjusted to this to get the 
best and the brightest. We've had an African-American Chairman 
of the Joint Chiefs of Staff. Now, under that program if we had 
started studying and waiting Colin Powell never would have made 
it, probably never would have made it, because of the delays in 
the understanding a need to integrate.
    So General, I just hope, in the interest of consideration, 
that you would think about this, that a person's sexual 
orientation has absolutely nothing to do with his or her 
ability and commitment. They're already lying to get in to 
serve this Country voluntarily, to defend this Country, and 
they have to lie to do it. I agree with the Chairman of the 
Joint Chiefs Admiral Mullen, who made the statement that--
that's where I got the statement from--that they lied.
    So just keep that in mind as you go through your thoughts, 
General, and consider the decision.
    General Schwartz. I absolutely will, sir.
    Senator Burris. I appreciate that.
    Now, General, Scott Air Force Base is the home of three 
major commands, whose missions include providing strategic 
airlift and aerial medical operations in support of Iraq and 
Afghanistan. An increase in the missions and personnel on the 
base presents some challenges to providing base services down 
there. In your operations and maintenance request, what 
priorities did you have or did you give to the requirement for 
Scott Air Force Base in terms of the demands being placed on 
that facility?
    General Schwartz. Certainly, Scott Air Force Base, being 
the headquarters for both our Air Mobility Command and the 
Joint Transportation Command, is a location that has at least 
an equal distribution of our support dollars relative to other 
installations. A case in point is there's a new facility there 
at Scott which is absorbing one of the component commands of 
the Transportation Command, in this case the Army's component 
command, that moved to Scott as a result of base closure. 
There's a new facility, and there was a consolidation of 
Transportation Command elements from around the base, which 
were important. The opening, the grand opening, if you will, 
will occur in July of this year.
    Senator Burris. General, as I understand it, there are some 
construction projects that are underway, but there might be 
some delays. I just hope those are funded. I don't know whether 
or not, Mr. Secretary, but there is a need for covering some 
expansion, for the growth of the facilities and land 
acquisition down there. I hope that that's also covered in the 
2011 budget. Is that correct?
    General Schwartz. As the Secretary suggested, Senator 
Burris, we are tight on military construction. There's no 
question about that. This is a case of first priority. We will 
offer for you the exact profile of what's happening at Scott 
for the record, but I can assure you that with a unified 
command and an Air Force major command at that installation, 
they are getting at least equal treatment.
    [The information referred to follows:]


                        Scott Air Force Base, IL
                        [In millions of dollars]
------------------------------------------------------------------------
            Fiscal Year
------------------------------------------------------------------------
2007...............................  ADAL/TRANSCOM                  83.8
                                      Consolidation (BRAC).
2007...............................  Addition To EOD                 0.9
                                      Facility.
2007...............................  Contractor Logisitics           4.4
                                      Support Storage
                                      Facility.
2007...............................  Dormitory (120 Rm)....         20.0
2007...............................  Mobility AF(MAF)                8.8
                                      Logistics Support
                                      Cen(LSC), Phase II
                                      (BRAC).
2007...............................  Squadron Operations            10.2
                                      Facility.
2008...............................  Child Development               8.2
                                      Center.
2008...............................  Construct Pavements             1.5
                                      And Grounds Facility.
2008...............................  Security Forces                16.7
                                      Operations.
2009...............................  USTRANSCOM Joint               14.0
                                      Intelligence
                                      Operations Center.
2010...............................  Aeromedical Evacuation          7.4
                                      Faciuty.
------------------------------------------------------------------------


    Senator Burris. General, you mentioned something, because I 
was down at Scott and you talked about the school facilities, 
and we got a little bit more money for the impact that they 
would make. I was down there and saw what Scott Air Force Base 
is doing for the community of Mascoutah, IL, which is the 
closest school district to Scott Air Force Base. We actually 
dedicated or broke the ground for a new high school, and the 
colonel was there at the groundbreaking. The Scott Air Force 
Base personnel are very involved in the community, and that 
just really excited me, to see that type of support.
    General Schwartz. I would just emphasize, sir, that this is 
an example of a cooperative effort. It may be the lasting thing 
that comes out of our Year of the Air Force Family, is to make 
our installations more inviting, more accommodating to 
families, to make them magnets for folks that want to live at a 
place where they can still leave their doors unlocked, where 
their kids can be safe.
    Senator Burris. I wish that would happen. Don't come to 
Chicago.
    General Schwartz. I understand. But where kids can play, 
you don't have to fret, and you can get good education for your 
kids. We're working hard on it. That will be, I think, one of 
our lasting accomplishments.
    Senator Burris. I grew up about 30 miles from Scott Air 
Force Base. My hometown is Centralia. So I am really glad to 
see that the Air Force is doing a lot for that facility.
    Did you want to say something, Mr. Secretary?
    Mr. Donley. Sir, I'd just like to follow up just very 
quickly, to reemphasize the point that you made and that 
Senator Hagan made about the Air Force support to operations in 
Haiti, and especially at Scott, the importance of the Tanker 
Airlift Control Center. It is playing a critical role right now 
in the surge and in helping Air Mobility Command and 
Transportation Command manage the tremendous pressure on the 
transportation system to deliver capabilities to theater. It's 
a tremendous capability.
    As we put the operation together in Haiti, it played a key 
role, along with our 1st Air Force and our 12th Air Force as 
well. It was a tremendous team effort across the Active and 
Reserve components as well. So Scott has played, and plays a 
critical role, and I believe does get good support from our Air 
Force.
    Senator Burris. Mr. Chairman, just one last question if I 
may, Mr. Chairman.
    Chairman Levin. Sure.
    Senator Burris. Thank you so much.
    I'm concerned about the cancellation of the C-17. Isn't 
that going to impact our readiness and our ability, because all 
those C-130s? I mean, I flew in one of those things in Iraq. It 
shook me to death. It was about 40 years old, and they're using 
spit, wire, and glue to keep the thing together. How are we 
going to be ready if we cancel the C-17? Please help me.
    General Schwartz. Sir, the C-130 that you flew on is a 
little different place in the inventory than the C-17s. The 
logic is that too much aluminum is as bad as not enough. By 
that, I'm saying if you have more airplanes than you need in a 
surge scenario, you are using resources and people in a way 
that, in a situation where you have limited resources, limited 
manpower, is not the most efficient way.
    Our view is that 223 C-17s is enough and that the remaining 
89-plus C-5s, which will be both re-engined and non-re-engined 
versions of the C-5, will satisfy the requirements that we have 
for surge transportation.
    Senator Burris. General, I'll just have to take your word 
for it. I'm concerned about our ability to transport our troops 
in the field with equipment that's not broken down and needing 
repairs.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Burris.
    General, first of all, Senator Burris' eloquent comments 
reflect my own views and a number of others, obviously not all 
the members of the committee. But in addition to taking to 
heart his heartfelt comments, I would also hope that, if you 
haven't already done so, you talk to some airmen who have been 
discharged solely because of their sexual orientation, who have 
led units and been highly decorated. I have met with those men 
and women, and I think it's just an unconscionable policy. 
Other allies of ours do not follow that policy and have had no 
problems of morale or cohesion.
    I would hope that you would, in addition, again listen very 
carefully to what Senator Burris' comments on our history were, 
that you would also take some time to talk to some of these 
discharged men and women. They'd be very happy to talk to you.
    Finally on that subject, while you're looking and 
determining whether there are any impacts from a change in 
policy, I also hope you give some thought to the unfairness 
that would be involved in discharging people now solely for 
sexual orientation while we're considering whether to end this 
policy. To me, it's just unconscionable that someone's going to 
be discharged next month for sexual orientation and nothing 
else if 6 months or 8 months from now, that person would not be 
discharged, and when we know that there is either likely to be 
a change or there's going to be a serious effort to make a 
change and when the Commander in Chief and the Chairman of the 
Joint Chiefs think it is wrong to discharge people solely for 
sexual orientation.
    I hope you would also give some thought to this interim 
issue as to whether we should not suspend the discharges while 
we are going or you are going through this process of assessing 
impacts. If you'd give that some thought, too, I'd appreciate 
it.
    Senator Burris, do you have any additional comments?
    Senator Burris. No.
    Chairman Levin. Thank you. We will stand adjourned.
    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator Joseph I. Lieberman
             alternate engine for the joint strike fighter
    1. Senator Lieberman. Secretary Donley and General Schwartz, 
Secretary of Defense Robert Gates, in his statement before the Senate 
Armed Services Committee on May 2, 2009, said, ``the facts and analysis 
simply do not support the case for adding an alternate engine program. 
There are several rationales for this conclusion: First, even after 
factoring in Congress' additional funding, the engine would still 
require a further investment of $2.5 billion over the next 5 years. 
Second, the additional costs are not offset by potential savings 
generated through competition.'' Secretary Gates cited additional 
factors before concluding that ``we have reached a critical point in 
this debate where spending more money on a second engine for the [F-35 
Joint Strike Fighter (JSF)] is unnecessary, wasteful, and simply 
diverts precious modernization funds from other more pressing 
priorities. Accordingly, should Congress add more funds to continue 
this unneeded program, I will strongly recommend that the President 
veto such legislation.'' Do you agree with the Secretary's conclusion 
that continued development of the alternate engine would be unnecessary 
and wasteful?
    Secretary Donley and General Schwartz. The Air Force supports 
Secretary Gates' conclusion to not pursue a competitive engine. 
Maintaining two engine suppliers will result in increased development, 
production, and support costs in the near-term. The Air Force maintains 
that the risks involved with a single engine supplier are acceptable, 
and savings associated with competition, which may be realized in the 
future, will not sufficiently offset the upfront development costs when 
competing against existing Department priorities. Recent experience 
with engine development for the F-22 and F/A-18/E/F indicates that sole 
source risks are modest and acceptable. Despite the recognized 
developmental issues and schedule delays experienced so far, the F135 
Pratt & Whitney engine continues to meet or exceed the stringent 
performance requirements associated with the F-35 propulsion system.

    2. Senator Lieberman. Secretary Donley and General Schwartz, do you 
also agree with the Cost Assessment and Program Evaluation (CAPE) 
office conclusion that even if Congress were to continue funding the 
development alternate engine, we have not yet passed the halfway mark 
in terms of the total funding the alternate engine would require before 
it could be competed against the current JSF engine?
    Secretary Donley and General Schwartz. We agree with the CAPE 
office assessment that the program will require approximately $2.9 
billion to get to a competition culmination point. Their estimate 
includes development funding, but also considers the production funding 
necessary to perform directed buys and the support costs associated 
with maintaining the additional engine. It is reasonable to include all 
the costs associated with the alternate engine as the Services would 
incur these costs to continue the alternate engine program.

    3. Senator Lieberman. Secretary Donley and General Schwartz, do you 
support Secretary Gates' recommendation that the President veto any 
bill that contains funding for the alternate engine? Please explain.
    Secretary Donley and General Schwartz. We support the Secretary's 
decision not to pursue an alternate engine.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                           personnel training
    4. Senator Akaka. Secretary Donley, our Nation and military must 
grow our foreign language capability. In a recent speech, you mentioned 
the Air Force Culture, Region, and Language Flight Plan as a means to 
help our airmen understand other cultures and languages. How will this 
plan address the development of language skills and cultural knowledge 
for our airmen to better perform warfighting and non-warfighting 
activities?
    Secretary Donley. The Air Force Culture, Region, and Language 
Flight Plan provides a framework to ensure our strategy, requirements, 
and force development policy and programming are synchronized to 
achieve the desired end-state of all airmen being developed and 
sustained with appropriate levels of culture, region, and language 
knowledge.
    The plan's overarching objective is to develop airmen capable of 
influencing the outcomes of U.S., allied, and coalition operations, and 
to maximize our operational capabilities through building partnerships. 
One of the ways we do this is by ensuring all airmen receive 
appropriate culture and language training prior to deployments. 
Specific to language skills, we will continue to focus on our 
cryptolinguist and regional affairs strategist capability, but we will 
also execute the Language Enabled Airmen Program. This program will 
build surge capability and ensure our ability to meet current taskings 
by building a ready foreign language capability across all specialties. 
Execution of the program will include identifying individuals with a 
propensity to study languages, based on overall academic standing, 
demonstrated foreign language proficiency and foreign language aptitude 
and motivation, through recruiting and U.S. Air Force Academy (USAFA) 
and Air Force Reserve Officer Training Corps (AFROTC) commissioning 
programs, providing these individuals with initial and recurring 
training, and sustaining their capabilities throughout their career. 
These personnel will be utilized for missions across the spectrum, from 
building partnerships to combat. Additionally, all airmen are receiving 
culture education and training through professional military education 
as well as prior to deployments with the goal of developing cross-
culturally competent airmen.

    5. Senator Akaka. Secretary Donley, it is vitally important that 
our citizens, both in and out of uniform, understand the importance of 
saving, debt reduction, planning for retirement, and understanding 
investments. It is also important that our troops be protected from 
predatory practices of some companies that specifically target them. 
Can you tell me what the Air Force is doing to educate its members to 
become more financially literate?
    Secretary Donley. The Air Force recognizes that many airmen enter 
the Service young and with little to no prior financial education or 
training, making them vulnerable to financial difficulties. Because of 
this, we begin financial readiness training at Basic Military Training, 
instructing airmen on financial readiness fundamentals such as personal 
financial responsibility, budgeting, saving, and investing. New airmen 
are again given mandatory financial readiness training at their first 
duty station, including more in-depth discussions of saving and 
investment, estate planning, consumer protection, debt, credit 
management, and awareness of predatory trends and/or practices. 
Throughout their careers, airmen and their families are also eligible 
for one-on-one financial counseling services or topic seminars via our 
Airman and Family Readiness Centers which educates and assists with 
financial management needs by offering free training and counseling to 
help airmen and their families achieve their financial goals. 
Additionally, Air Force installations actively participate in ongoing 
financial awareness campaigns, such as Military Saves, to reinforce the 
message of responsible spending and saving. This year during Military 
Saves week, over 4,500 airmen took the ``Savers Pledge'' and 
participated in more than 100 financial presentations, seminars, and 
activities across the Air Force.

                   acquisition process and personnel
    6. Senator Akaka. Secretary Donley, last April, Secretary Gates 
announced a multiyear plan to increase the Department of Defense (DOD) 
in-house acquisition workforce by 20,000. That number included an 
allocation of more than 4,800 positions for the Air Force, of which 
3,400 positions will come from contractor-to-civilian conversions. Such 
action is needed to reduce costs and increase efficiencies. Another way 
to address cost overruns is to limit the expansion of initial 
requirements and existing performance requirements for items that are 
obtained through the Air Force acquisition process. Can you give me an 
update on your hiring efforts, as well as any efforts to enhance the 
Air Force acquisition process to help prevent requirements expansion 
and obtain the best possible cost estimates?
    Secretary Donley. We started on our journey to strengthen the 
acquisition process back in September 2008. A major part of this 
endeavor was to ensure that we had the right number of people that were 
adequately trained and experienced to meet the acquisition mission 
demands in support of warfighter needs.
    To date, the Air Force has programmed over 5,200 new civilian 
acquisition workforce positions by the end of the Future Years Defense 
Plan (FYDP), starting with 1,100 civilian positions in fiscal year 
2010. With the help of Expedited Hiring Authority and the resources 
provided through Defense Acquisition Workforce Development Fund, the 
Air Force has been and is projecting to be successful in both hiring 
this acquisition workforce growth and replenishing the normal 
workforce. Moreover, the Acquisition Improvement Plan (AIP) directs the 
implementation of six actions to improve the requirements generation 
process and help prevent requirements expansion:

    1.  Ensure acquisition involvement and leadership in support of the 
lead command early in the development of program requirements;
    2.  Require that the Service Acquisition Executive and when 
appropriate, the Commander Air Force Materiel Command or Commander Air 
Force Space Command certify that the acquisition community can 
successfully fulfill the requirements in the warfighter command's 
requirements document;
    3.  Require the Program Executive Officers to coordinate the system 
requirements document used in conjunction with a Request for Proposal 
with the lead user Command Commander or his/her designee based on 
acquisition category level;
    4.  Carefully minimize the number of Key Performance Parameters 
(KPP) and other requirements to the appropriate level for each program, 
and ensure all requirements are finite, measurable, prioritized, and 
can be evaluated during a source selection;
    5.  Require consideration of incremental acquisition strategies 
that reduce cost, schedule, and technical risk, and produce operational 
capability earlier; and,
    6.  Freeze program requirements at contract award, and require 
subsequent changes to Major Defense Acquisition Program (MDAP) KPPs be 
accompanied with adequate funding and schedule considerations that are 
reviewed and agreed upon by the Chief of Staff of the Air Force, and 
similarly require changes to other requirements be reviewed or proposed 
by the lead Major Command (MAJCOM) commanders (or his/her designee).

    These six AIP institutionalized improvements will continue to pay 
dividends for years to come.
    In addition, the Weapon Systems Acquisition Reform Act of 2009 
requires that the Director, CAPE, and the Directors of DOD component 
cost agencies, state the confidence level used in establishing the cost 
estimate for MDAPs and Major Automated Information Systems programs, 
the rationale for selecting the confidence level, and if the confidence 
level is less than 80 percent, the justification for selecting the 
lower confidence level.

                         strategic capabilities
    7. Senator Akaka. Secretary Donley and General Schwartz, it is 
crucial that America protect and defend its vital interests in the 
realm of cyberspace. A recent memorandum to all airmen stated that 
cyberspace is critical to today's fight and to the future U.S. military 
advantage over our adversaries. This memo also stated that the Air 
Force would provide a full spectrum of cyberspace capabilities to Joint 
Force Commanders whenever and wherever needed. What unique capabilities 
does the Air Force bring to this vital domain and are any additional 
resources required to help Joint Force Commanders fully confront the 
cyber-related challenges of today and tomorrow?
    Secretary Donley and General Schwartz. The U.S. Air Force is 
evolving and integrating the unique capabilities we bring to the Joint 
fight. Headquarters Air Force Space Command (HQ AFSPC), as the lead Air 
Force Major Command for cyber, has the following activities underway:

        <bullet> Positioning the Air Force with enhanced and 
        differentiated capabilities complementing those of our sister 
        Services, executed through our 24th Air Force at Lackland AFB, 
        TX.

                <bullet> The Air Force will seek to develop cyber 
                capabilities that complement those of other Services 
                and will explore the combination of cyber with other 
                non-kinetic capabilities to achieve synergies.
                <bullet> Assuring the mission by securing the Air Force 
                portion of DOD's information networks under one 
                commander, the 24th Air Force commander who is also the 
                Commander of Air Force Network Operations.
                <bullet> The Air Force will establish an integrated 
                cyber operations center that is fully integrated with 
                those of our joint partners to serve as the 
                intersection for a full range of cyber capabilities.

        <bullet> Fusing cyber and intelligence functions to create 
        seamless operations.

                <bullet> The Air Force will work to integrate space and 
                cyberspace indicators and warnings to develop an 
                advanced early warning architecture across the Air 
                Force information networks. Like offense and defense in 
                the other operational domains, operations and 
                intelligence in cyberspace must not be separated.

        <bullet> Institutionalizing a cyber culture and mindset.

                <bullet> The Air Force is changing its cultural mindset 
                in the day-to-day execution of cyber operations. The 
                importance of cultivating a new mindset demands a 
                fundamental shift in leadership that encourages 
                creative, yet critical thinking, and rewards innovative 
                activities and solutions. Cyberspace does not function 
                independently of other capabilities provided by the Air 
                Force or other DOD agencies. In addition, we are 
                working to integrate cyberspace into permanent doctrine 
                development, accession and advanced training, 
                professional military education, exercises, wargames, 
                recruitment, and day-to-day operations.

        <bullet> The fiscal year 2011 President's budget request 
        appropriately funds and resources Air Force priorities in this 
        domain and places us on the correct path to increase the 
        Nation's capacity and capability in cyber.

    8. Senator Akaka. Secretary Donley and General Schwartz, it is my 
understanding that China is investing heavily in fourth-generation 
fighters and advanced surface-to-air missiles. F-22s are being phased 
into U.S. Pacific Command (PACOM). F-22s are in Alaska and are 
scheduled to be at Hickam Air Force Base (AFB) in Hawaii in the future. 
Can you discuss the importance of having these assets in the Pacific 
given recent developments in the PACOM area of responsibility (AOR)?
    Secretary Donley and General Schwartz. As the threats in the 
Pacific theater continue to mature, our F-22s in Alaska already provide 
essential fifth generation capability to PACOM. Additionally, those 
soon to be delivered to Hawaii will add to this capability. Future F-35 
procurement is vitally important to ensure sufficient Joint air 
dominance in the event of a contingency. Finally, forward basing of F-
22s in the Pacific AOR provides the PACOM commander rapid access to 
critical fifth generation capability.

    9. Senator Akaka. Secretary Donley and General Schwartz, please 
provide an update on the Hickam AFB schedule for F-22s.
    Secretary Donley and General Schwartz. The transition to the F-22 
Raptor at Hickam AFB is on track. Hawaii's F-15 mission is drawing down 
this year to support the F-22 build up starting this fall. The Hawaii 
Air National Guard (ANG) will receive 20 F-22s from Langley AFB, VA, 
with the first 2 aircraft arriving in July 2010. The remaining aircraft 
will arrive throughout calendar year 2011.

                   active duty and guard cooperation
    10. Senator Akaka. General Schwartz, the current mission of the 
Active Duty 15th Airlift Wing is to partner with the ANG in Hawaii to 
provide strategic and tactical airlift capability to support local and 
worldwide missions of combat support and humanitarian or disaster 
relief. How has this partnership effort between Active Duty and the ANG 
worked?
    General Schwartz. The Total Force partnership between the 15th 
Airlift Wing and the 154th Wing is working effectively. These airmen's 
collaborative efforts have supported strategic and tactical airlift in 
response to recent short-notice humanitarian relief efforts, flying 
Operation Pacific Wave missions to aid tsunami-stricken American Samoa 
and Operation Unified Response missions supporting earthquake-ravaged 
Haiti. These missions delivered key personnel and 1.7 million pounds of 
vital relief supplies and equipment. The association was also able to 
provide airlift for the recent Pacific Angel humanitarian deployment, 
further developing Pacific Air Forces and PACOM building partnership 
capacity programs. Additionally, the wings teamed to support critical 
combat missions sustaining Operations Enduring and Iraqi Freedom, and 
support Theater Security Cooperation exercises Cope Tiger in Thailand, 
Talisman Saber in Australia, and Cope India. With the current surge 
operation in Afghanistan, the partnership between the two wings has 
enabled Pacific Air Forces to fully support increased future 
requirements from U.S. Transportation Command. The success of this 
partnership was further evidenced during the preparations for and 
execution of the 2009 joint 15th Airlift Wing and 154th Wing 
Operational Readiness Inspection, where both wings received 
``Excellent'' ratings, validating their wartime readiness.

    11. Senator Akaka. General Schwartz, what are some of the 
challenges that remain in partnering Active Duty and ANG forces?
    General Schwartz. The partnership between the Air Force's Active 
and Reserve components has made good progress in the recent past; 
however, partnering challenges still exist. Within the fiscally 
constrained budget, prioritization and reallocation of scarce manpower 
and equipment resources is difficult. The Air Force is carefully 
analyzing a number of factors with respect to future partnering 
opportunities, with the goal of optimizing our delivery of combat 
capability to the joint team.
                                 ______
                                 
           Questions Submitted by Senator E. Benjamin Nelson
                          c-135 sustainability
    12. Senator Ben Nelson. Secretary Donley and General Schwartz, the 
next generation tanker program aims to recapitalize nearly half of your 
aging tanker fleet by 2020. What effects will significantly reducing 
the size of the KC-135 fleet have on the long-term sustainment and 
affordability of the remaining KC-135 tankers, as well as your other 
remaining C-135 class aircraft?
    Secretary Donley and General Schwartz. Based on the fiscal year 
2011 President's budget, we expect the delivery of 79 KC-X aircraft 
between 2015 and 2020. We have not programmed the retirement of any KC-
135s as we receive KC-X aircraft. The Aerospace Maintenance and 
Regeneration Group and Oklahoma City Air Logistics Center are in the 
process of conducting a 6-year tear-down study on three retired KC-135 
aircraft to identify future sustainment and modification costs for the 
remaining KC-135s in the inventory. The study focuses on identification 
of structural integrity and corrosion issues. Upon completion of this 
study in fiscal year 2015, we will have a more complete picture of 
future sustainment costs and a stronger basis for programming future 
KC-135 retirements as KC-X enters the inventory.

    13. Senator Ben Nelson. Secretary Donley and General Schwartz, as 
you field next generation tankers, do you have an estimated timeline 
and strategy for how the ANG units that have KC-135s will be rolled 
into the fielding plan?
    Secretary Donley and General Schwartz. Basing locations for the 
next generation tanker are dependent upon results of the Air Force 
strategic basing process. The Air Force is accomplishing an 
``Enterprise-Wide Look'' for the basing of the new Tanker aircraft to 
ensure an objective review of all potential operational and training 
basing options. Air Mobility Command (AMC), as the lead major command, 
is developing operational and training criteria that, upon approval by 
the Secretary of the Air Force and the Chief of Staff of the Air Force, 
will be used to evaluate all Air Force installations. The first phase 
of the tanker operational and training basing criteria should be 
completed and released in the coming months. Based on the results of 
these initial efforts, the Air Force plans to announce the preferred 
alternative locations by late summer of 2011 with a final basing 
decision expected in fall 2012.

                             human capital
    14. Senator Ben Nelson. General Schwartz, from a human capital 
perspective, one of the biggest challenges facing the Services will be 
managing expanding and new missions while maintaining a fixed end-
strength. The Intelligence, Surveillance, and Reconnaissance (ISR) 
mission is an area that is seeing a great deal of growth across all of 
the Services due in large part to the significant expansion of unmanned 
aerial vehicles (UAV) or remotely piloted aircraft. What is the current 
state of your training pipeline for operators and analysts?
    General Schwartz. The Air Force continues to use all available 
resources to meet training requirements as we surge to meet the 65 MQ-
1/9 Combat Air Patrol (CAP) goal by the fourth quarter of fiscal year 
2013. In addition to continuing to crossflow experienced aviators from 
other airframes into the MQ-1 and MQ-9, we have begun providing 
Remotely Piloted Aircraft (RPA) assignments to our new Specialized 
Undergraduate Pilot Training (SUPT) graduates.
    Last year, the Air Force also initiated a test program to train 
non-SUPT graduates in RPA employment. This program is geared towards 
taking officers without aviation experience and training them to employ 
an RPA, and will reduce the need to use experienced aviators as RPA 
pilots by developing a core group of officers dedicated to this career 
field. Our first group of graduates has successfully completed the 
required training to become RPA pilots and some have begun flying 
operational sorties. The Air Force is currently reviewing the first 
group's performance.
    Our analyst training is also at surge capacity and is supported by 
active duty and ANG trainers. Training occurs at Goodfellow AFB, TX 
with crypto linguists attending the Defense Language Institute in 
Monterey, CA, prior to arriving at Goodfellow. After qualification from 
the basic course, Initial Mission Qualification training will occur 
either at Air Force Distributed Common Ground System (DCGS) Formal 
Training Units (FTU), Goodfellow AFB, and/or at their first duty 
location.

    15. Senator Ben Nelson. General Schwartz, how are you expanding ISR 
and UAV training to meet demand?
    General Schwartz. The Air Force continues to use all available 
resources to meet training requirements as we surge to meet the 65 MQ-
1/9 CAP goal by the fourth quarter of fiscal year 2013. In 2005, the 
FTU at Creech AFB trained 40 crews. In recent years, the Air Force has 
opened FTUs at both March AFB and Holloman AFB to increase the 
throughput to 400 crews a year starting in fiscal year 2011.

    16. Senator Ben Nelson. General Schwartz, what kind of retention 
rates are you seeing in UAV pilot and sensor operators and intelligence 
analyst specialties?
    General Schwartz. The UAV [now classified as the Remotely Piloted 
Aircraft (RPA)] pilots do not yet have a core ID with which to track 
retention because this career field is very new. Historically, 68 
percent of all rated officers at the 8-year point will stay through 
their 14th year of service. We will closely follow the RPA force as 
these operators progress through their careers.
    The RPA Sensor Operator career field was created at the end of 
April 2009, and the first class of non-prior service airmen graduated 
in December 2009. Retention data for the career field will not be 
available until late 2010 or early 2011. The sensor operator career 
field is being manned as quickly as possible given its vital nature to 
the Air Force's ISR mission.
    The career field most heavily involved in RPA intelligence analysis 
currently is the Geospatial Intelligence Analyst career field; it is 
currently at 108 percent of its retention goal.

                           unmanned aircraft
    17. Senator Ben Nelson. General Schwartz, with regard to mission 
effectiveness, how are you coordinating efforts with the Army to 
integrate your unmanned and manned aircraft with their growing fleet of 
medium altitude UAVs into concept of operations that will ensure safe 
and effective mission execution?
    General Schwartz. All aviation operations--manned and unmanned; Air 
Force, Army, Navy, Marine or Coalition--are coordinated with the 
Combined Forces Air Component Commander (CFACC) using Joint doctrine 
procedures to ensure safe mission execution. Joint Doctrine also 
addresses effective mission execution, and the processes to provide and 
prioritize the CFACC allocated assets. With regard to unmanned assets, 
Army Training and Doctrine Command (TRADOC) and Air Force Air Combat 
Command (ACC) signed the Army-Air Force Unmanned Aircraft System (UAS) 
Enabling Concept document that describes how the Services will 
integrate theater-capable, multi-role unmanned aircraft. This document 
will be added to the existing Joint Concept of Operations for UASs 
which was published by Joint Forces Command. To further increase the 
Air Force's direct contribution to ground forces, we have deployed 
additional ISR liaison officers with our Expeditionary Air Support 
Operations Squadrons--the units we assign to provide tactical command 
and control of air power and liaison between the CFACC and directly 
supported Army field units. These individuals provide greater expertise 
in ISR operations to assist Army commanders with the planning and 
execution of their missions.

    18. Senator Ben Nelson. Secretary Donley, what process does the DOD 
have to produce a comprehensive plan to integrate policy and 
requirements across the Services for unmanned aircraft programs?
    Secretary Donley. The responsible organization for DOD policy and 
requirements integration for unmanned programs is the Under Secretary 
of Defense for Acquisition (USD [AT&L]). USD (AT&L) established the UAS 
Task Force (and subordinate Integrated Product Teams (IPTs)) to focus 
on policy and requirements in the areas of airspace integration, 
interoperability, frequency and bandwidth, payloads and sensors, and 
research and engineering. The Air Force participates in the working 
groups (and leads several IPTs).
    Additionally, we developed an Air Force UAS Flight Plan to harness 
the increasing automation, modularity, and sustainability of unmanned 
systems to maximize combat capabilities for the Joint Force. Our Flight 
Plan vision is to collaborate with the other Services, our Allies, 
academia, and industry to capitalize on the unique unmanned aircraft 
attributes of persistence, connectivity, flexibility, autonomy, and 
efficiency, and work with the Office of the Secretary of Defense (OSD) 
to chart a course to address the future requirements of combatant 
commanders.
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh
                       readiness and maintenance
    19. Senator Bayh. Secretary Donley and General Schwartz, in the 
fiscal year 2011 budget request unfunded priorities list (UPL), you 
have included $337.2 million for depot maintenance activities such as 
service life extension programs (SLEPs), special structural 
inspections, and engine overhauls. I commend you for placing an 
emphasis on improving readiness and vital depot maintenance 
requirements across the Active Duty, Air Force Reserve (AFR), and ANG 
forces. However, even if the Air Force's unfunded maintenance 
priorities and weapon system sustainment programs were fully funded, 
the result would still be well below 100 percent of needed funding. 
Even with baseline, overseas contingency operations (OCO), and UPL 
funding, Air Force depots would still only be funded at 84 percent for 
the Active component, 89 percent for the ANG, and 90 percent for the 
AFR component. How much risk are we accepting by not fully funding our 
maintenance requirements and do the depots have the capacity to accept 
and execute 100 percent of the Air Force's maintenance requirements?
    Secretary Donley and General Schwartz. With the requested UPL and 
OCO funds, 85 percent of the Air Force Weapon System Sustainment 
requirement is funded. The remaining 15 percent equates to $2.0 billion 
in unfunded requirements, which represents a manageable level of risk 
in the form of materiel readiness. This $2.0 billion includes a mix of 
Depot Purchase Equipment Maintenance (DPEM), Contract Logistics 
Support, Sustaining Engineering, and Technical Order requirements. This 
risk is mitigated through enterprise-wide prioritization to fund the 
highest priority platforms/systems in year of execution.
    Between contract and organic capabilities, Air Force can execute 
100 percent of the required funding; however, depots would need time to 
ramp up to address manpower, infrastructure, and parts constraints. In 
addition, the Air Force would not be able to complete all funded work 
in fiscal year 2011 (causing a temporary increase in carryover), and 
this effort would require careful balancing to maintain compliance with 
legislation (50/50 + DPEM floor).

    20. Senator Bayh. Secretary Donley and General Schwartz, what are 
the risks in terms of long-term sustainment, reduction of the expected 
service life, and the burden of increased flying hours related to 
combat operations in Afghanistan?
    Secretary Donley and General Schwartz. There is manageable risk in 
terms of long-term sustainment, reduction of the expected service life, 
and the burden of increased flying hours related to combat operations 
in Afghanistan. With few exceptions (e.g. sand damage/foreign object 
damage and increased engine overhauls), the Air Force does not have a 
precise means of attributing increased maintenance due to contingency 
operations. We are, however, seeing depot-level workload increases 
above planned work packages.

    21. Senator Bayh. Secretary Donley and General Schwartz, the Navy 
has issues with deferred maintenance and currently has a backlog of 
depot maintenance. Does the Air Force have a similar backlog?
    Secretary Donley and General Schwartz. The Air Force does not 
currently have an issue with deferred depot-level maintenance, as 
defined as maintenance that was: not performed when it should have been 
or when it was scheduled, and which therefore, is put off or delayed. 
We currently have a manageable backlog of maintenance work at our three 
Air Logistics Centers. Backlog is a different management category than 
deferred maintenance.
    The Air Force made decisions not to perform some depot-level 
maintenance on aircraft targeted for retirement and defer depot-level 
maintenance on aircraft required to support on-going contingency 
operations. These decisions are made in accordance with applicable 
guidance and technical data. Additionally, aircraft waived from depot 
maintenance due to operations are reinserted into the Programmed Depot 
Maintenance schedule as soon as possible.

    22. Senator Bayh. General Schwartz, why is depot maintenance 
funding critical to the Air Force's mission and what are the specific 
impacts of not receiving the fiscal year 2011 unfunded depot 
maintenance requirements?
    General Schwartz. Depot maintenance funding is a critical component 
of the Air Force Weapon System Sustainment (WSS) strategy. Underfunding 
creates potential aircraft/engine deferrals and backlogs, and impacts 
aircraft availability required by warfighters. Funds to support OCOs 
and funds to support UPL requirements help mitigate this risk. The Air 
Force requested $337.2 million in UPL funding to fund additional 
aircraft Programmed Depot Maintenance (PDMs) and engine overhauls. 
Specifically, the UPL is programmed to fund 16 aircraft PDMs, 6 engine 
overhauls, and Air Force Space Command software maintenance 
requirements.

    23. Senator Bayh. Secretary Donley and General Schwartz, what are 
the impacts to Air Force readiness if you do not receive unfunded 
aircraft depot maintenance requirements in fiscal year 2011?
    Secretary Donley and General Schwartz. Depot maintenance funding is 
a critical component of the Air Force WSS strategy. Underfunding 
creates potential for aircraft and engine deferrals, and thereby a 
potential decrease in aircraft availability for the warfighter.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                      initial operating capability
    24. Senator McCain. Secretary Donley and General Schwartz, when 
Secretary Gates testified before the Senate Armed Services Committee in 
February 2010, he said that the JSF program is holding schedule in 
terms of when the Services can expect to take delivery of fighters with 
``initial operating capability'' (IOC). However, just a couple of days 
ago, you announced that the Air Force would be extending that IOC date 
from 2013 to 2015. To me, that suggests that even over the last few 
weeks the amount of risk associated with the program was probably not 
fully appreciated. Please explain what the current expected IOC date is 
and why the Air Force is extending that IOC date from what was 
announced just weeks ago.
    Secretary Donley and General Schwartz. The IOC date for the Air 
Force is still being evaluated in light of the program restructure, but 
is currently estimated to be in 2016. The Air Force is extending the 
expected IOC date because it is closely associated with Block 3 
capability that will not complete operational testing until early 2016. 
The Air Force still expects to receive its first operational F-35 in 
2013.

    25. Senator McCain. Secretary Donley and General Schwartz, how many 
fighters with IOC will be delivered to the Air Force at the new IOC 
date and exactly what kind of capability will they have?
    Secretary Donley and General Schwartz. If the President's budget is 
supported by Congress, the Air Force will have approximately 102 F-35 
Block 3 aircraft by the end of 2015, including 12 aircraft that will be 
used for operational test.

    26. Senator McCain. Secretary Donley and General Schwartz, what 
effect, if any, will this decision have on the unit cost of buying the 
Air Force's version of the JSF?
    Secretary Donley and General Schwartz. None. IOC is not a factor in 
the unit cost of the aircraft.

    27. Senator McCain. Secretary Donley and General Schwartz, what 
effect, if any, will this decision have on the Air Force's anticipated 
fighter shortfall?
    Secretary Donley and General Schwartz. The delayed F-35 IOC will 
minimally impact the Air Force's anticipated fighter shortfall. As 
reported in the Air Force's Report to the Congressional Defense 
Committees, House Report 2647 (Public Law 111-84) Sec 1075 (Fighter 
Force Structure Shortfalls), the Air Force is investigating actions to 
increase the service lives of our A-10 and F-16 fleets which are the 
legacy aircraft the F-35 is intended to replace. The Air Force has 
already taken the required steps, to include full scale fatigue testing 
and ``thick skin'' wing replacement to ensure our A-10 fleet will 
remain viable until the year 2030. The Air Force is also conducting 
full scale fatigue testing to determine the feasibility and cost-
benefit of extending our F-16 Block 40s and 50s beyond their current 
estimated service life.

    28. Senator McCain. Secretary Donley and General Schwartz, looking 
ahead, exactly what milestones do you believe the Joint Program Office 
and prime contractor must complete on time and on budget to achieve the 
Air Force's IOC date?
    Secretary Donley and General Schwartz. In order to achieve the Air 
Force's IOC date, the Joint Program Office and prime contractor must, 
first and foremost, deliver the test and production aircraft as 
currently planned. In addition, they must successfully complete 
developmental test for the program, releasing and testing each 
increment of capability (i.e. Block 1, Block 2, or Block 3) on time. 
This on time delivery will allow the Air Force to successfully complete 
operational test.

                              cost growth
    29. Senator McCain. Secretary Donley and General Schwartz, do you 
expect that additional cost growth in the JSF program arising from 
Secretary Gates' decision to restructure the program in December 2009 
will trigger a Nunn-McCurdy breach? Please explain your answer.
    Secretary Donley and General Schwartz. The restructure was 
accomplished under the premise that the program was already going to 
experience a critical Nunn-McCurdy breach. The restructure was designed 
to baseline the program to a higher confidence cost and schedule and 
mitigate future cost and schedule increases by properly resourcing the 
program. As noted in the 2009 Selected Acquisition Report the program 
added development and procurement risk funding consistent with the 
Joint Estimate Team assessment, including less airframe commonality 
than originally envisioned. Also, the planned Multi-Year Procurement 
was delayed to 2016, and the production quantities were updated to 
reflect DOD and International Partner procurements. We believe these 
actions should result in an executable cost and schedule and thus an 
executable program.

    30. Senator McCain. Secretary Donley and General Schwartz, after 
the breach, how much will it cost per unit to buy the Air Force's 
variant of the JSF?
    Secretary Donley and General Schwartz. As reported in the 2009 
Selected Acquisition Report, the Average Procurement Unit Cost (APUC) 
for a Conventional Take Off and Landing (CTOL) is $71 million in Base 
Year 2002 dollars. However, consistent with Nunn-McCurdy statutory 
requirements, a complete Independent Cost Estimate is in process. The 
Department expects this analysis will result in increases to the stated 
Program Acquisition Unit Cost (PAUC) and APUC estimates. The projected 
range of estimates for all variants are $97-$115 million PAUC and $79-
95 million APUC in Base Year 2002 dollars.

                     testing and engineering issues
    31. Senator McCain. General Schwartz, Naval Air Systems Command 
(NAVAIR) effectively determined a few weeks ago that the Marine Corps 
and the Navy's version of JSF might end up being too expensive to 
operate, with each flight hour ultimately costing about $31,000, 
compared with about $19,000 per flight hour for current F/A-18 Hornets 
and AV-8B Harriers. Have you independently reviewed and validated 
NAVAIR's analysis, and if so, do you agree with its finding on expected 
operating costs?
    General Schwartz. The Naval Air Systems Command cost team brief on 
total ownership costs was developed to inform leadership of ongoing 
technical analyses, and provide options and consequences as we work to 
deliver affordable programs. In a program such as the JSF, these 
analyses are constantly evolving. The brief is an internal pre-
decisional document and provides points for discussion in support of 
achieving successful and affordable fielding of all variants of the 
JSF.
    As the CTOL variant of the F-35 transitions to developmental 
testing, the Air Force is conducting necessary assessments to ensure 
readiness to affordably support introduction of this critical 
capability, including reviewing the NAVAIR brief and its implications 
for the CTOL. Deployment and sustainment plans are being reviewed to 
identify cost drivers and develop mitigation strategies. All elements 
of operating and support cost are under thorough review, including 
those driven by program requirements as well as the effects of changes 
in the global aerospace industry.

    32. Senator McCain. General Schwartz, what does the NAVAIR analysis 
mean for the Air Force's JSF program?
    General Schwartz. The Naval Air Systems Command cost team brief on 
total ownership costs was developed to inform leadership of ongoing 
technical analyses and provide options and consequences as we work to 
deliver affordable programs. In a program such as the JSF, these 
analyses are constantly evolving. The brief is an internal pre-
decisional document, and provides points for discussion in support of 
achieving successful and affordable fielding of all variants of the 
JSF.
    As the CTOL variant of the F-35 transitions to developmental 
testing, the Air Force is conducting necessary assessments to ensure 
readiness to affordably support introduction of this critical 
capability. This includes reviewing the NAVAIR brief and its 
implications for the CTOL. Deployment and sustainment plans are being 
reviewed to identify cost drivers and develop mitigation strategies. 
Additionally, all elements of operating and support cost are under 
thorough review, including those driven by program requirements as well 
as the effects of changes in the global aerospace industry.

    33. Senator McCain. General Schwartz, what is being done to 
mitigate the potential JSF flight hour costs going forward?
    General Schwartz. As the CTOL variant of the F-35 transitions to 
developmental testing, the Air Force is conducting necessary 
assessments to ensure readiness to affordably support introduction of 
this critical capability, including reviewing the NAVAIR brief and its 
implications for the CTOL. Additionally, we are reviewing deployment 
and sustainment plans to identify cost drivers and develop mitigation 
strategies. All elements of operating and support cost are under 
thorough review, including those driven by program requirements, as 
well as the effects of changes in the global aerospace industry.

              air force requirement for tactical fighters
    34. Senator McCain. General Schwartz, with the Quadrennial Defense 
Review (QDR) now complete, what is the Air Force's current total 
requirement for tactical fighters?
    General Schwartz. The Air Force reviewed its force structure 
requirements following the QDR. The Air Force requires approximately 
1,200 Primary Mission Aircraft Inventory/2,000 Total Active Inventory 
to meet the National Defense Strategy objectives at a moderate level of 
risk.

    35. Senator McCain. General Schwartz, what is the Air Force's total 
requirement for JSF?
    General Schwartz. The Air Force's total requirement for JSF remains 
unchanged with a planned buy of 1,763 CTOL F-35As. This inventory was 
determined during the 1997 QDR, and reconfirmed during the 2006 and 
2010 QDRs. These F-35As will replace our aging fleets of F-16s and A-
10s, which are approaching the end of their Economic Service Life 
(ESL). In addition, the Air Force has included sufficient numbers of 
aircraft for homeland defense missions, initial aircrew and maintenance 
training, United States Air Force Weapons School and advanced tactics 
training, follow-on capability testing and validation, and program life 
cycle attrition.

                         military construction
    36. Senator McCain. Secretary Donley, the President's budget 
request for fiscal year 2011 contains three military construction 
projects for the Air Force totaling over $76 million that will support 
the stationing of JSF squadrons in 2013. Does the potential slippage of 
JSF IOC dates affect the timing that these projects will need? Please 
explain your answer.
    Secretary Donley. The three fiscal year 2011 JSF Military 
Construction (MILCON) projects will not be early to need. Aircraft 
delivery schedule slippage affects aircraft delivered to the second 
operations and third training location and beyond. The three fiscal 
year 2011 projects are needed to stand up the first operations and 
second training locations, which will have their first F-35s delivered 
in calendar year 2013.

    37. Senator McCain. Secretary Donley, does the slippage affect the 
date for which the Air Force has targeted for the completion of the 
environmental impact study (EIS) and records of decision regarding 
bases for training and operations of Active and ANG personnel? Please 
explain your answer.
    Secretary Donley. The IOC slippage does not affect the EIS and 
Record of Decision (ROD) timeline because they are required to support 
the MILCON timeline necessary for receipt and beddown of the first 
operational and training F-35 aircraft. The first operational aircraft 
will be delivered to the first operational location in the summer of 
2013. The 25 Air Force training aircraft for Eglin AFB or the first 
aircraft for the second training location will be delivered fall 2013. 
fiscal year 2011 MILCON is required to support beddown at these to-be-
determined locations. This requires the operations and training 
locations be announced by operations and training EIS RODs in January/
February 2011.

                        earned value management
    38. Senator McCain. Secretary Donley and General Schwartz, as the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
indicated, the earned value management (EVM) system is the best way of 
managing cost and schedule on major weapon systems. I understand that 
DOD has had major problems with the JSF prime contractor's EVM system 
and has held out the possibility of decertifying that system (thereby 
disabling the contractor from being able to obtain new defense 
contracts) if it does not demonstrate progress that it was fixing 
documented deficiencies. What is your assessment of the prime 
contractor's EVM system and how close is DOD to formally allowing the 
Defense Contract Management Agency to decertify the system pending a 
demonstration of progress in fixing documented deficiencies?
    Secretary Donley and General Schwartz. The Air Force is committed 
to obtaining and using quality earned value information as the best way 
for the Government and Contractors to manage cost and schedule on major 
weapons systems. We support OSD as they determine if the concerns 
warrant de-certification.

             overseas contingency operations budget request
    39. Senator McCain. Secretary Donley and General Schwartz, among 
the items in the fiscal year 2011 OCOs Supplemental Budget Request is a 
request for one JSF aircraft. I understand that this aircraft is 
intended to replace an F-15E fighter plane from the 336th Fighter 
Squadron that crashed while conducting combat operations in eastern 
Afghanistan in July 2009. I also understand that the existing ground 
rules for determining what projects can be funded with the supplemental 
allow for the replacement of combat equipment because of loss during 
combat operations. Nevertheless, I have been told that because the Air 
Force can no longer procure F-15E aircraft from the prime contractor, 
you elected to procure a fighter aircraft currently in production.
    I am troubled by this request. This JSF request in the supplemental 
should be included in the base budget--not the supplemental. The JSF 
aircraft you are proposing to buy here will cost $205 million. That is 
about double what I understand the unit cost of a JSF to be (about $100 
million) and considerably more expensive than how much it costs to buy 
one F-15E. More importantly, the very earliest that the Air Force can 
accept delivery of a JSF with IOC will be 2013, with development not 
expected to be completed until a few years later. Exactly why is the 
Air Force asking $205 million for that one JSF aircraft in the 
supplemental?
    Secretary Donley and General Schwartz. In early summer 2009 we were 
asked to provide an estimate for a fiscal year 2011 OCO F-35 aircraft. 
At that time, the estimate was $204.9 million. This cost control was 
subsequently used to develop the detailed cost breakout that appeared 
in DOD's fiscal year 2011 PB Justification. If Congress approves the 
additional OCO aircraft, the unit cost for 23 aircraft (fiscal year 
2011 22 aircraft plus 1 OCO aircraft) would be approximately $182.5 
million. OCO funds appropriated above this amount will be used for 
initial spares associated with the OCO F-35. The table below reflects 
the numbers which were submitted in the fiscal year 2011 PB 
documentation for the base and OCO request, and what the OCO numbers 
should have been in the documentation for the same weapon system unit 
cost ($182.5 million).

----------------------------------------------------------------------------------------------------------------
                                                           Fiscal Year 2011 Budget Docs (As
                                                                      Submitted)                Fiscal Year 2011
                                                        --------------------------------------  OCO Should Read

----------------------------------------------------------------------------------------------------------------
Proc Quantity..........................................          22 (base)            1 (OCO)            1 (OCO)
Cost (in millions of dollars)..........................             3729.2              204.9              170.8
Advance Proc Cost......................................              257.0                                  11.7
Weapon System Cost.....................................             3986.2              204.9              182.5
Initial Spares.........................................              263.6                                  22.4
Total Proc Cost........................................             4249.8              204.9              204.9
Weapon Sys Unit Cost...................................              182.5              204.9              182.5
----------------------------------------------------------------------------------------------------------------


    40. Senator McCain. Secretary Donley and General Schwartz, would 
you agree that the ground rules for determining what projects can be 
funded with the supplemental were never intended for the DOD to replace 
combat loss with a system that will not--for at least another 6 years--
be fully integrated and capable with all the weapons systems and 
sensors needed to serve in a combat role?
    Secretary Donley and General Schwartz. OSD/Office of Management and 
Budget (OMB) policy is that DOD may request replacements for combat 
losses. If the original item is currently in production it should be 
used as the replacement. If not, an upgraded capability may be 
requested if it provides replacement capability for the combat loss.

    41. Senator McCain. Secretary Donley and General Schwartz, will 
supplemental funds be used in the future to fund JSF requests?
    Secretary Donley and General Schwartz. If future OMB and OSD 
direction remains consistent with the fiscal years 2011-2015 OSD 
Integrated Program and Budget Submission Guidance, and additional 
aircraft are lost in combat, we will request supplemental funds for 
future JSF procurements that meet these combat loss replacement 
criteria.

    42. Senator McCain. Secretary Donley and General Schwartz, as a 
cost effective alternative to buying a JSF aircraft here and to ensure 
timely fielding of needed strike fighter capability in the combat 
theater, did you explore the possibility of ``refixing'' a legacy F-15E 
intended for retirement, or one that has actually been retired--under, 
for example, the Air Force's Combat Air Forces Restructure Plan?
    Secretary Donley and General Schwartz. The F-15Es are some of the 
newest fighters in the Air Force active inventory. We have not retired 
nor do we plan to retire any for the foreseeable future. Additionally, 
the Air Force is making investments in F-15E modernization to ensure 
its combat capability well into the future.

              air force 2010 force structure announcement
    43. Senator McCain. General Schwartz, on June 26, 2009, the Air 
Force formally announced force structure realignments for fiscal year 
2010, which outlined increases and decreases to manpower at units 
around the country. It contained the following announcement for the 
Arizona ANG at Davis-Monthan AFB: ``The 214th Reconnaissance Group has 
an increase of 217 drill positions to meet validated [Predator UAV] MQ-
1 shortfalls. Total impact is an increase of 217 drill positions.'' 
From this statement, the Air Force clearly identified a need to meet 
validated MQ-1 mission shortfalls. Can you describe the nature and 
details of the validated MQ-1 shortfall that was described in the 
announcement?
    General Schwartz. The Air Force fiscal year 2010 Force Structure 
Announcement (fiscal year 2010 FSA) released in June of 2009 included 
information on MQ-1 manpower changes at the 214th Reconnaissance Group. 
The impact to ANG units as a result of the Combat Air Force restructure 
was minimal and did not require a manpower adjustment to the 214th RG. 
The unit is currently manned to their program of record, which is to 
support one steady-state CAP and zero surge CAPs (``1+0''); they have 
sufficient manning for that requirement. For the past 2 years, the 
214th RG has volunteered to ``surge'' to a second MQ-1 CAP, and have 
done an extraordinary job in doing so. As additional ANG units 
transition to MQ-1 operations, the 214th RG will return to normal 
operations.

    44. Senator McCain. General Schwartz, given the extremely high 
demand placed on personnel in MQ-1 squadrons, are these units 
adequately and uniformly manned across the Air Force?
    General Schwartz. The Air Force is working to fill every available 
Remotely Piloted Aircraft (RPA) pilot and sensor operator training slot 
to meet mission requirements. Unit manning (as of 4 Mar 10) is provided 
below. Low numbers in some units are due to recent unit activations, 
increased manpower requirements, and/or limited training availability. 
These numbers will steadily increase as requirements stabilize, and 
more pilots and sensor operators complete training. In addition to the 
units listed below, six ANG and Air Force Reserve units are in the 
process of activation.

----------------------------------------------------------------------------------------------------------------
            Location                      Unit              Position        Authorized    Assigned     Percent
----------------------------------------------------------------------------------------------------------------
Creech AFB......................  11 Recon Sq........  Pilot.............          44           36           82
                                                       Sensor Operator...          59           68          115
                                 -------------------------------------------------------------------------------
                                  15 Recon Sq........  Pilot.............          86           57           66
                                                       Sensor Operator...         126          131          104
                                 -------------------------------------------------------------------------------
                                  17 Recon Sq........  Pilot.............          92           72           78
                                                       Sensor Operator...         110          110          100
                                 -------------------------------------------------------------------------------
                                  30 Recon Sq........  Pilot.............          29           17           59
                                                       Sensor Operator...          54           31           57
                                 -------------------------------------------------------------------------------
                                  42 Attack Sq.......  Pilot.............          89           47           53
                                                       Sensor Operator...         133          102           77
----------------------------------------------------------------------------------------------------------------
Cannon AFB......................  3 Spec Ops Sq......  Pilot.............         103          118          115
                                                       Sensor Operator...         128          136          106
                                 -------------------------------------------------------------------------------
                                  33 Spec Ops Sq.....  Pilot.............          37           27           73
                                                       Sensor Operator...          51           34           67
----------------------------------------------------------------------------------------------------------------
Holloman AFB....................  6 Recon Sq.........  Pilot.............          41           13           32
                                                       Sensor Operator...          53           23           43
                                 -------------------------------------------------------------------------------
                                  29 Attack Sq.......  Pilot.............          41           22           54
                                                       Sensor Operator...          54           36           67
----------------------------------------------------------------------------------------------------------------


    45. Senator McCain. General Schwartz, other than adding manpower to 
the 214th, what is the Air Force doing to address this issue of high 
demand on MQ-1 squadron personnel?
    General Schwartz. The MQ-1 personnel are in high demand and will 
continue to be so as we expand to 65 MQ-1/9 CAPs. The Air Force has 
planned ahead to mitigate this increased demand in three ways. First, 
we have increased our MQ-1 combat capability by increasing the size and 
numbers of units. In addition to manning increases at the 214th at 
Davis-Monthan, five other ANG and Air Force Reserve MQ-1/9 units have 
been or are being stood up. Second, we have increased the MQ-1 training 
pipeline with the start of the new FTU at Holloman in October 2009, 
which graduated its first class in December. Third, while ANG and AFRC 
MQ-1 individuals were mobilized through December 2009, we will continue 
to support surge CAPs through volunteerism and active duty augmentation 
through December 2010 to minimize involuntary mobilizations.

    46. Senator McCain. General Schwartz, what is the status of the 
action for the 214th and when will the positions be filled?
    General Schwartz. The reference to an increase of 217 drill 
positions for the 214th Reconnaissance Group in the fiscal year 2010 
Force Structure Announcement (fiscal year 2010 FSA) was an error--those 
positions were not placed on the unit's manning document and were a 
direct result of attempting to mitigate the loss of manpower due to a 
fiscal year 2010 Combat Air Forces restructure proposal affecting 
Arizona that was not enacted. The unit is currently manned to their 
program of record, which is to support one steady-state CAP and zero 
surge CAPs (``1+0''); current manning is sufficient for that 
requirement.

    47. Senator McCain. General Schwartz, what process does the Air 
Force undertake to ensure that Force Structure Announcements are 
accurate and definitive?
    General Schwartz. The Air Force goes through a very detailed and 
deliberate process to ensure Force Structure Announcements are 
accurate. The major commands submit manpower and aircraft moves for 
every Air Force installation to Headquarters Air Force. The major 
commands' inputs are compiled into a single draft document, checked for 
consistency, and then briefed to the Strategic Basing Executive 
Steering Group and Air Force Board. The proposed final Force Structure 
Announcement is then staffed through every major headquarters staff 
directorate and the major commands to ensure accuracy and completeness. 
Finally, the Force Structure Announcement is approved by both the 
Secretary of the Air Force and Chief of Staff of the Air Force prior to 
public release.

                      international pilot training
    48. Senator McCain. Secretary Donley, many of our allies choose to 
conduct fighter pilot training here in the United States for various 
reasons ranging from the availability of adequate ranges to cost and 
the quality of training. This obviously affords the Air Force an 
outstanding opportunity to partner and train with NATO and other allied 
pilots. I am proud to note that most of this training is conducted by 
the Arizona ANG at the 162nd Fighter Wing operating out of Tucson 
International Airport, AZ. How is the process supposed to work for a 
partner nation's selection of the best location among candidate bases?
    Secretary Donley. The US Air Force provides tuition-based pilot 
training at 14 locations, and each location, with the exception of 
undergraduate pilot training, is the sole provider of tuition-based 
training for a particular aircraft. For example, all F-16 tuition-based 
training is done at Tucson ANGB, AZ, through the 162nd Fighter Wing and 
their assigned F-16 aircraft and instructor pilots.
    When a partner nation desires to beddown its own aircraft at a 
CONUS AFB, Deputy Under Secretary of the Air Force for International 
Affairs (SAF/IA) provides options based on the country's requested 
training needs and budgetary requirements. When presented with 
available locations, training capabilities, and pricing information, we 
expect the partner nation to choose the training venue that best meets 
their needs. The U.S. Air Force is committed to providing the most 
effective training venue available for our international partners 
consistent with their training needs and budget by dispassionately 
providing the facts and costs for the available training.

    49. Senator McCain. Secretary Donley, does the White House or OSD 
normally guide or influence decisions for where to train?
    Secretary Donley. No.

    50. Senator McCain. Secretary Donley, would OSD have any reason to 
provide guidance to the Air Force to encourage an allied nation to 
remain at a certain location, regardless of the cost or quality of 
training? Please provide specific circumstances, if applicable.
    Secretary Donley. There are occasions when discussions take place 
between the appropriate DOD offices and a partner nation concerning 
their choice of a bed down training location, usually when information 
is requested by the partner nation. Cost and quality of training are 
always considered in these discussions and are provided on all 
available training locations. Once the data is provided, we expect the 
partner nation to make a decision that best meets their training needs 
and budgetary requirements.

    51. Senator McCain. Secretary Donley, has the Air Force received 
direction or guidance in 2010 to influence an allied partner to select 
a certain base, regardless of the cost or other benefits? If this has 
occurred, what was the intent of the guidance?
    Secretary Donley. The Air Force provides cost and other benefit-
related information to partner nations supporting base selection for 
beddown and tuition-based training. There are occasions when 
discussions take place between the appropriate DOD offices and a 
partner nation concerning their choice of a beddown location, but once 
DOD provides available options to the partner, we expect the partner 
nation to make an appropriate decision that best meets their training 
needs and budgetary requirements.

         increased maintenance requirements for the f-22 raptor
    52. Senator McCain. General Schwartz, the President's budget 
submission for fiscal year 2011 contains a request of $8.8 million to 
add a hangar bay at Langley AFB for additional requirements related to 
the maintenance and restoration of F-22 low observable (LO) aircraft 
surfaces. The budget justification states, ``the existing LO repair 
facility has two bays that operate at a 97 percent usage rate and 
cannot handle an increased LO repair load as the aircraft matures and 
packaged maintenance plans become more extensive.'' I note that Langley 
AFB currently is home to about half the number of F-22s as was 
originally planned and yet the existing facilities need to be expanded. 
What trends are emerging concerning the time, manpower, and resources 
required to maintain the F-22?
    General Schwartz. The requested funds are for facilities within the 
current F-22 Facilities Requirement Plan (FRP). Reference F-22 FRP pg 
6-44 (dated December 2008), F-22 bases with one 18-24 Primary Aircraft 
Inventory (PAI) squadron of aircraft require two aircraft-size booth 
inserts/bays, while bases with more than one squadron of aircraft 
assigned will need one additional bay per 18-24 PAI squadron to support 
increased LO restoration and on-equipment composite repairs. By this 
criteria, Langley requires three LO Bays. While LO materials initially 
imposed a greater workload than anticipated, improved materials have 
increased their durability and sub-system reliability enhancements have 
decreased the frequency of LO panel removal, resulting in reductions to 
the initially unforeseen LO maintenance requirements.

    53. Senator McCain. General Schwartz, can you estimate how these 
trends translate into increased operating and maintenance costs for the 
F-22 over what was originally planned when the aircraft first entered 
the Air Force inventory?
    General Schwartz. F-22 Program estimates for life cycle mission 
personnel costs in 2004 were $5.7 billion dollars and currently are 
estimated at $9.0 billion dollars. The majority of the increase in 
mission personnel costs was due to LO manpower increases, greater than 
forecasted military pay increases, and the addition of ANG and Air 
Force Reserve units, which were not part of the 2004 Program Office 
Estimate.
    In addition to manpower, the rise in O&M costs can be attributed to 
subsystem reliability and the corresponding increase in LO maintenance 
recovery time. The Reliability and Maintainability Maturation Program 
modifications will alleviate many of the issues but will take time. 
Furthermore, the use of contract field teams (CFT) to augment the units 
has also driven up the cost of the program. The CFT is being used as a 
LO manning stop gap and will be required until the active duty manning 
authorizations are filled and experience levels have matured in the 
field. The F-22 Program Office is working diligently with Lockheed 
Martin and the Air Force manpower community to accelerate the effort as 
much as possible.

    54. Senator McCain. General Schwartz, are you satisfied with the 
mission capable rates of the F-22 and the maintenance hours compared to 
flying hours?
    General Schwartz. The fiscal year 2009 F-22 fleet average mission 
capable rate was 65 percent and the current rate is 67 percent. Direct 
Maintenance Man Hours (DMMH) per flight hour are also heading in the 
right direction. The current goal for DMMH is 12.4 or less, and we are 
exceeding the goal and holding steady at 11.0. We are satisfied with 
the trends and the current improvement efforts (Reliability and 
Maintainability Maturation Program) will continue the upward trends.

                 military construction in the air force
    55. Senator McCain. General Schwartz, you mention in your opening 
statement and in your comments at today's hearing that the Air Force is 
assuming risk in the proposed investment levels for facilities and 
infrastructure. The President's budget for fiscal year 2011 for Air 
Force MILCON totals almost $1.5 billion, but barely 12 percent of that 
amount addresses the recapitalization of existing facilities, while the 
rest goes to other new mission priorities. As a result, the AFR, which 
accounts for 71,263 members of the Total Force, 3 numbered Air Forces, 
and over 2,890 facilities supporting 348 aircraft, will benefit from 
exactly one project totaling $3.4 million at Patrick AFB in Florida. At 
that pace, it would take about 1,000 years to replace each existing 
facility in the AFR. The lack of investment in existing facilities and 
infrastructure has a direct impact on military readiness and is a 
substantial risk. How long can the Air Force sustain the acceptance of 
this risk before it becomes a threat to military operations and 
readiness?
    General Schwartz. The Air Force has taken increased risk in 
infrastructure across the entire Active and Reserve component, without 
significant impacts to readiness. We will not allow risk taken in our 
facilities and infrastructure to jeopardize our ability to conduct 
critical operations from our installation weapon systems. This year, as 
in past years, we have had to make hard decisions in order to fund our 
most critical mission requirements. We have done our best to balance 
shortfalls fairly between Active, ANG, and AFR forces. We continue to 
mitigate this risk by funding facility sustainment to the 90 percent 
level to ensure that we preserve the quality of our facilities. We will 
closely examine the requirements of the Active and Reserve components 
as part of this mitigation strategy as we build the fiscal year 2012 
Program Objective Memorandum.

    56. Senator McCain. General Schwartz, how do you plan to address 
this risk of underinvestment in existing facilities in the future?
    General Schwartz. The Air Force will continue to carefully balance 
risk in infrastructure against other pressing requirements. Each budget 
cycle, we carefully evaluate facility requirements to ensure that those 
most critical to operations and readiness are funded. We remain 
committed to ensuring a minimum level of investment in our facilities 
and will minimize any impacts to readiness. We continue to mitigate 
risk by funding facility sustainment to the 90 percent level to ensure 
that we ``keep our good facilities good.''

                             military space
    57. Senator McCain. Secretary Donley, is the Air Force committed to 
its space acquisition mission?
    Secretary Donley. Yes, the Air Force is committed to space. We 
currently manage 35 space programs, and 7 of those are in the top 20 of 
largest Air Force acquisition programs with $8 billion total space 
investment in fiscal year 2011. The cornerstone to effectively managing 
the Air Force Space portfolio is the AIP, published in May 2009, which 
serves as the strategic framework for re-instilling excellence in space 
systems acquisition. The Air Force AIP focuses on five major 
initiatives: workforce, requirements generation, budget discipline, 
source selection, and lines of authority. We will complete these 5 
initiatives and the 33 associated tasks this spring with the intent to 
have the Air Force Audit Agency inspect our efforts after 1 and 2 years 
to verify that they have taken hold. This plan has postured the Air 
Force for success in Space Acquisition.

    58. Senator McCain. Secretary Donley, I understand that the roles 
and responsibilities for the Air Force in space policy are currently 
under review by OSD and the Air Force. When do you plan to define these 
roles and responsibilities and do you intend to designate an executive 
agent (EA) for space?
    Secretary Donley. Last fall, I directed a review of Headquarters 
Air Force Management of Space Responsibilities. In December 2009, I 
asked Rich McKinney, an experienced Space acquisition expert (prior 
Director for Air Force Space Acquisition and a retired Air Force 
Colonel), to examine how the Air Force headquarters should be organized 
in light of the multiple changes within the Department in this area 
since 2001. In preparing his analysis, Mr. McKinney has interviewed 
many members of the space community--both inside and outside the Air 
Force. Upon review of this report and in coordination with OSD, I will 
select the best option to manage Air Force space responsibilities to 
include planning and programming, acquisition oversight, and 
coordination with other DOD components and agencies.

    59. Senator McCain. Secretary Donley, I understand the Space 
Posture Review, originally due to Congress last December, is going to 
be considerably delayed, perhaps up to a year late. Please explain in 
detail the cause or causes for this delay and what steps are being 
taken to remedy the problem.
    Secretary Donley. DOD and DNI submitted an Interim Space Posture 
Review to Congress on March 15, 2010. The Under Secretary of Defense 
for Policy (USD(P)) is the lead for DOD on this effort, but we 
understand the final report will be submitted in mid-summer 2010.

    60. Senator McCain. Secretary Donley, how informed can the fiscal 
year 2011 budget be without any strategy for our short- and long-term 
space needs?
    Secretary Donley. Over the past year, the Air Force has been 
intimately involved in multi-agency strategic discussions regarding the 
development of a new National Space Policy and the Space Posture 
Review. This experience informed Air Force funding decisions for fiscal 
year 2011 with regard to national security space priorities. In 
addition, we routinely engage the combatant commanders, OSD, and the 
Joint Staff to provide a clear understanding of the threat environment 
and any associated capability shortfalls.

                air force next generation bomber program
    61. Senator McCain. Secretary Donley, at an April 6, 2009, news 
conference on recommendations he was making for the proposed fiscal 
year 2010 defense budget, Secretary Gates announced, among other 
things, that he would recommend deferring the start of a Next 
Generation Bomber (NGB) program, since much of today's inventory will 
remain relevant through 2040. As the Air Force modernizes the existing 
bomber fleet to provide long-range strike capability, simultaneous 
investments in Engineering and Manufacturing Development (EMD) for a 
follow-on bomber will be required. In your view, does Secretary Gates' 
decision last year on NGB require upgrading the current B-52, B-l, and 
B-2 fleets?
    Secretary Donley. Yes, and the Air Force is programming for 
upgrades to these fleets to ensure they remain capable.

    62. Senator McCain. Secretary Donley, how are NGB and EMD decisions 
reflected in your budget request for fiscal year 2011?
    Secretary Donley. The fiscal year 2011 President's budget reflects 
the Department's plan to invest $1.7 billion of Research Development 
Testing and Evaluation funding across the FYDP to support a future Long 
Range Strike (LRS) program. Funding requested in fiscal years 2011 and 
2012 would provide approximately $200 million each year to keep the 
technology industrial base active and viable in the near-term. This 
funding would provide capability improvements in the areas of strike 
responsiveness, survivability, lethality, connectivity, and 
affordability. Investment areas of interest include advanced sensors, 
electronic warfare and countermeasures, survivability, manufacturing 
readiness, net-ready communications, open systems and multi-level 
security architectures, mission management, weapon effectiveness and 
survivability, and combat identification.
    The Air Force would invest fiscal year 2011 funds using a three-
tiered approach:

      Tier 1: Reduce risk for enabling technologies with LRS 
application.
      Tier 2: Enable at-risk critical industry skills while reducing 
program and technical risk through integration and demonstration 
efforts applicable to LRS capabilities.
      Tier 3: Refine LRS requirements and develop concepts with 
engineered, cost-driven capability options.

    63. Senator McCain. Secretary Donley, are there sufficient 
resources in the fiscal year 2011 budget to sustain the long-range 
strike aircraft fleet?
    Secretary Donley. The fiscal year 2011 President's budget (PB) 
contains sufficient resources to maintain current operations and 
maintain capabilities of the legacy bomber fleet. In addition, the 
legacy bombers (B-1 and B-2) are included as part of the Weapon System 
Sustainment Unfunded Priority List to increase aircraft availability.
    The following modernization programs for each legacy bomber are 
funded throughout the FYDP:
B-52:
    CONECT (Combat Network Communications Technology)
    SR2 (Strategic Radar Replacement)
    EHF (Extremely High Frequency)
    1760 Internal Weapons Bay Upgrade
B-2:
    RMP (Radar Modernization Program)
    DMS (Defensive Management System)
    EHF (Extremely High Frequency)
B-1:
    IBS (Integrated Battle Station)
    RMIP (Radar Reliability and Maintainability Improvement Program)
    INS & GSS (Inertial Navigation System & Gyro Stabilization System)

    64. Senator McCain. Secretary Donley, please describe where the Air 
Force is going to make these investments in long-range strike 
capability this fiscal year and in the coming years.
    Secretary Donley. The fiscal year 2011 funds complement and further 
expand the Air Force's fiscal year 2010 technology investment plan, and 
supports the 2010 QDR directed studies and vision as the DOD defines 
future LRS requirements. This coordinated plan maximizes use of 
previous work and best positions the Air Force for future LRS program 
efforts.
    Fiscal year 2011 investments would be used to reduce technology 
risk, preserve critical industrial base skills, and refine requirements 
for a future LRS ``family of systems'' (FoS). Investment areas of 
interest include: advanced sensors, electronic warfare, survivability, 
manufacturing readiness, net-ready communications, open systems and 
multi-level security architectures, mission management, weapon 
effectiveness and survivability, and combat identification.
    The Air Force would invest fiscal year 2011 funds using a three-
tiered approach:

      Tier 1: Reduce risk for enabling technologies with LRS 
application.
      Tier 2: Enable at-risk critical industry skills while reducing 
program and technical risk through integration and demonstration 
efforts applicable to LRS capabilities.
      Tier 3: Refine LRS requirements and develop concepts with 
engineered, cost-driven capability options.

    The fiscal year 2011 and beyond investments will be tailored as a 
result of the DOD directed studies that define LRS requirements and the 
Air Force will program appropriately in future budget submissions.

    65. Senator McCain. General Schwartz, please describe what sort of 
characteristics and requirements the Air Force and the combatant 
commanders are considering in a replacement aircraft for long-range 
strike.
    General Schwartz. ACC and Air Force Global Strike Command (AFGSC), 
assisted by Headquarters Air Force, have led the effort within the Air 
Force to develop and document LRS platform requirements and attributes 
based on the appropriate threat scenarios and target sets. Specific 
attributes of interest include: survivability, range, payload, manned 
or unmanned configuration, and nuclear capability requirements. 
Additionally, in the fiscal year 2011 President's budget, OSD directed 
OSD/Policy to lead a post-2010 QDR study to further refine the LRS 
platform requirements and attributes, as part of an LRS Family of 
Systems that includes a penetrating aircraft, standoff cruise missiles, 
and conventional prompt global strike capabilities. The results of this 
follow-up QDR study are expected in September 2010.

    66. Senator McCain. General Schwartz, given the decision on NGB, 
what concerns, if any, do you have about increasingly relying on the 
old B-52 platform to satisfy our long-range strike capability beyond 
the 2018 threshold?
    General Schwartz. While the B-52 is the oldest Air Force bomber, 
robust design and structural upgrades have extended the B-52's service 
life (currently projected beyond 2040) and will allow it to remain in 
flyable condition well beyond 2018. The Air Force has a rigorous 
maintenance program to keep the B-52 flying, including a thorough 
Programmed Depot Maintenance (PDM) refurbishment program during which 
each jet is inspected (and defects corrected) every 5 years. Despite 
its age, the B-52 maintains the highest mission capable (aircraft 
availability) rate and has the lowest operating cost of any Air Force 
bomber.
    In addition to the focused aircraft maintenance program, the Air 
Force ensures mission relevance through modernization and sustainment 
modification initiatives. The B-52 has programs to address issues with 
communications, navigation, electronic attack, and weapons delivery 
systems, as well as programs for integrating new weapons. While the B-
52 is not survivable against advanced air defenses, it continues to 
provide standoff weapons capability in the advanced threat environment, 
as well as direct attack capability in lower threat environments. These 
modifications enable the B-52 to continue as a responsive, flexible, 
adaptive, and lethal platform to support a share of the Nation's long-
range strike requirements.

                       c-5 galaxy cargo aircraft
    67. Senator McCain. General Schwartz, do you anticipate that the 
new Mobility Capabilities Requirements Study (MCRS) will call for 
additional strategic airlift or do we have enough capability to meet 
National Military Strategy?
    General Schwartz. We have adequate capability to meet the National 
Military Strategy and do not need additional strategic airlift. The 
latest study, MCRS-16, stated that the current National Defense 
Authorization Act for Fiscal Year 2010 Program of Record of 223 C-17s, 
52 C-5Ms, and 59 C-5As exceeded the demand required in the 3 scenarios 
it examined. Accordingly, C-5 retirements requested in the fiscal year 
2011 PB are based on this excess capacity and the strategic airlift 
fleet should not grow based on MCRS-16. Since this result is consistent 
with guidance in the recently released QDR, we also do not see a need 
for a new study of strategic lift in this quadrennial cycle.

    68. Senator McCain. General Schwartz, it is my understanding that 
there have been several recent studies done by DOD, Air Force, and even 
one directed by Congress that have looked at the strategic airlift 
question and whether the Nation has sufficient strategic airlift 
capability currently available. Can you comment on whether any of these 
studies establish a requirement for additional new strategic airlift 
aircraft this year?
    General Schwartz. In 2009, the Institute for Defense Analysis (IDA) 
released the ``Study on Size and Mix of Airlift Force.'' Results of 
this study indicated the existing Program of Record (POR) (fiscal year 
2009 PB enacted) was both sufficient and cost effective. More recently, 
DOD released the ``Mobility Capabilities and Requirements Study 2016'' 
(MCRS-16). This study was aligned with the QDR and examined QDR 
relevant cases. MCRS-16 highlighted an excess in strategic airlift and 
influenced recommended fiscal year 2011 strategic airlift force 
reductions.

    69. Senator McCain. General Schwartz, do any recent studies 
conclude that we need additional C-17s?
    General Schwartz. None of the current studies indicate that we need 
additional C-17s. The current strategic airlift program of record (POR) 
exceeds the most demanding scenarios/cases found in all recent mobility 
studies. The Air Force is aware of two recent studies that looked at 
strategic lift. In 2009, the Institute for Defense Analysis (IDA) 
released the ``Study on Size and Mix of Airlift Force.'' Results of 
this study indicated the existing POR was both sufficient and cost 
effective. More recently, DOD released the ``Mobility Capabilities and 
Requirements Study 2016'' (MCRS-16). This study was aligned with the 
QDR, and examined QDR relevant cases. MCRS-16 validated the current 
strategic airlift POR exceeds all examined cases.

    70. Senator McCain. Secretary Donley and General Schwartz, I have 
heard that the C-5M Galaxy Cargo modernization program is progressing 
well and that the Air Force is pleased with its performance. I 
understand the C-5Ms also have demonstrated some very impressive 
operational capabilities, including setting 42 world records as part of 
their operational test and evaluation. Can you share your impression on 
whether the C-5 Reliability Enhancement and Re-engining Program is 
meeting Air Force's expectations?
    Secretary Donley and General Schwartz. The C-5M modernization 
program is progressing well and is tracking to the AT&L-directed cost 
and schedule. Operational test and evaluation (OT&E) was completed in 
January 2010, and included a 30-day ``surge.'' During OT&E, 175 
missions and 1,336 hours were flown, including 23 days of maintenance 
demonstrations. This OT&E also included cold weather testing at Eielson 
AFB, AK. The C-5M did set 42 records--these assessments were sponsored 
by the vendor and conducted on a non-interference basis during 
operational testing.

    71. Senator McCain. Secretary Donley and General Schwartz, is the 
Air Force satisfied with the C-5M's operational performance?
    Secretary Donley and General Schwartz. The Air Force is satisfied 
with the C-5M's performance. Three development C-5Ms have demonstrated 
the capability to move a wartime cargo load 5,000 statute miles 
unrefueled while decreasing closure time via reduced en route stops. 
They also have improved take-off performance, resulting in 
approximately 20 percent more cargo per mission and 27 percent 
improvement in range. These enhancements translate into fewer landings, 
less aerial refueling, and more rapid delivery of cargo.

    72. Senator McCain. Secretary Donley and General Schwartz, what is 
the estimated reduction in total ownership costs for the C-5M Galaxy 
Cargo aircraft?
    Secretary Donley and General Schwartz. The Cost Analysis 
Improvement Group (CAIG) Independent Cost Estimate (ICE) projected 
reduction in total ownership costs for 52 C-5Ms and 59 C-5As (111 C-5 
aircraft) is $10.7 Billion in Base Year 08.

    73. Senator McCain. Secretary Donley, I am concerned that the Air 
Force has not properly addressed the future of the C-5A aircraft. What 
action is the Air Force taking to address modernization of the ANG and 
AFR C-5As?
    Secretary Donley. The Air Force has fully funded the Avionics 
Modernization Program (AMP) for all ANG and AFRC C-5As not projected 
for retirement in the fiscal year 2011 President's Budget. The AMP 
program implements communications, navigation, surveillance and air 
traffic management (CNS/ATM) upgrades, and mandated safety 
modifications.

    74. Senator McCain. Secretary Donley, over the last 4 years, 
Congress has added 44 C-17s, at a cost of over $14 billion. It is my 
understanding that these earmarks have now created a potential excess 
of Air Force strategic airlift capability and, because of this, the Air 
Force is being forced to consider retiring perfectly capable C-5 
aircraft that, according to the Air Force Fleet Viability Board, could 
serve this Nation or our allies for another 30-40 years. Is my analysis 
correct?
    Secretary Donley. The current strategic fleet exceeds all 
requirements from the newly released Mobility Capabilities and 
Requirements Study-2016 (MCRS-16). The increase of 15 C-17s in fiscal 
year 2008 influenced the decision to upgrade only 52 of the 111 C-5s 
with the Reliability Enhancement and Re-engining Program (RERP). Since 
that time, 18 more C-17s have been added. By retiring some of the 
older, less capable C-5As, we are able to fund the permanent bed down 
of 16 C-17s within the Air Reserve component and appropriately size our 
strategic airlift fleet to meet the Nation's requirements.

    75. Senator McCain. Secretary Donley, to what extent is the Air 
Force looking at alternatives to simply getting rid of perfectly good 
cargo aircraft, such as storing them in a backup inventory status, or 
giving them to trusted allies who desperately need out-sized lift, or 
selling them to a U.S.-flagged Civil Reserve Airlift Fleet provider?
    Secretary Donley. The C-5A aircraft requested to retire in the 
fiscal year 2011 PB exceed capability requirements validated by the 
Mobility Capabilities and Requirements Study 2016 (MCRS-16). 
Maintaining them as Backup Aircraft Inventory (BAI) incurs unnecessary 
sustainment and avionics modernization costs plus stresses limited ramp 
space. The Air Force will use these retired aircraft to support the 
actively flying C-5 fleet as a ready source for aircraft parts. Further 
analysis of BAI conversion will be provided in the C-5 retirement 
report required by Section 137 of the National Defense Authorization 
Act for Fiscal Year 2010.
    For aircraft to be made available for security assistance purposes, 
they must be declared Excess Defense Articles (i.e., they must be 
excess to the requirements of the DOD). Retiring C-5 aircraft will 
continue to support the actively flying fleet as a ready source for 
aircraft parts and will not be excess to Department requirements.
    Finally, CRAF capacity exceeds all MCRS-16 scenarios. Currently, 
DOD regulations prohibit the transfer or sale of C-5 aircraft for 
commercial purposes.

                    kc-x tanker replacement program
    76. Senator McCain. General Schwartz, as the Air Force's fleet of 
tanker aircraft ages, new tankers will be needed to provide in-flight 
refueling support for U.S. military aircraft and for aviation forces of 
coalition partners. Under the current draft request for proposal, the 
Air Force plans to procure 109 new KC-X tankers by 2020. Is the current 
tanker fleet of KC-135 and KC-10 tankers robust and stable to last 
until 2040, as has been reported in the Air Force's report, Tanker 
Replacement Study 2005, and other recent studies?
    General Schwartz. The current fleet of KC-135 and KC-10 tankers 
have been robust and stable to date due to the impact of regularly 
scheduled maintenance. Maintaining the KC-135 and KC-10 fleet until 
year 2040 has been, and will continue to be, a multi-faceted and 
aggressive approach involving KC-135 Programmed Depot Maintenance 
(PDM), KC-10 Contracted Logistics Support, and select investment/
modernization programs that will ensure safety of flight and access to 
the global airspace system.

    77. Senator McCain. Secretary Donley, do you anticipate that 
additional resources will be necessary to fill seams or gaps in the 
tanker replacement plan?
    Secretary Donley. No additional resource needs are anticipated at 
this time, and investment and sustainment funding is programmed for the 
tanker fleet through the FYDP.

            across-the-board pay raise and incentive bonuses
    78. Senator McCain. General Schwartz, the Air Force intends to add 
500 Active-Duty airmen and 1,700 reservists in fiscal year 2011. You 
note in your written statement for today's hearing that the Air Force 
budget includes a 1.4 percent across-the-board pay raise, but you 
request $645 million for recruiting and retention bonuses targeted at 
critical wartime skills. Please explain where the personnel shortfalls 
are in the Air Force and how the combination of these approaches (a pay 
raise and bonuses) will work to shape the Air Force to its best 
advantage.
    General Schwartz. The fiscal year 2011 Air Force Recruiting and 
Retention budget for the Total Force is $644.8 million. This budget 
focuses on targeted, critical career fields that are difficult to 
recruit and retain, or are new and emerging missions requiring urgent, 
immediate increases. The annual across-the-board pay raises help 
tremendously as individuals calculate their service and retirement 
benefits. This twofold strategy addresses both our targeted, critical 
personnel and the force as a whole.
Active Duty: $480.1 million
    Although the Air Force is experiencing high retention in broad 
areas of the force, the Air Force has focused needs within the combat 
and critical skills (both officer and enlisted) and in the health 
professions. For non-medical officers, the Air Force has a Critical 
Skills Retention Bonus (CSRB) budget of $20.2 million which will 
continue bonuses for special operations forces and contracting 
officers, and will start bonuses for 6 stressed career fields: 
Intelligence, Civil Engineer, Public Affairs, OSI (Cyber), Airfield 
Operations, and Logistics Readiness. Additionally, the Air Force has 
budgeted $97.1 million in Aviation Continuation Pay to shape its rated 
force by retaining aviators in specified year groups and at critical 
career decision points. Included in this effort are critical bonuses 
used to move personnel from traditional aviation specialties to new 
mission areas in remotely piloted aircraft (RPA), special operations, 
and ISR, which are increasing rapidly without additional manpower 
authorizations. For the enlisted force, the Air Force manages a 
Selective Reenlistment Bonus budget of $248.2 million, targeting 
critical skills in 91 air force specialty codes, ranging from: sensor 
operators, intelligence analyst specialists, combat controllers, 
pararescue personnel, vehicle maintainers, civil engineering 
specialists, security forces personnel, and contracting specialists.
    Recruiting and retention of the health professions specialties are 
particularly difficult. For accession bonuses, we are using over $14 
million to attract surgeons, nurses, mental health specialists, and 
other health professions to the Air Force Medical Service. The 
retention bonuses are critical to the career longevity of those skilled 
practitioners with years of military and medical expertise. It often 
takes years of intensive training to create a skilled health care 
provider or surgeon that can provide life and limb-saving care under 
austere, battlefield conditions, in tent operating theaters, and state-
of-the-art medical centers. Once trained, it is imperative we keep 
these experts. Therefore, we have programmed $65 million in multiyear 
contractual retention bonuses at selectively targeted health care 
fields such as our physician and dental surgeons, operating room 
nurses, mental health providers, and other skilled healthcare 
professions. The health professions career fields have some of the 
lowest retention rates in the Services, and often leave at their first 
opportunity after their educational obligations are fulfilled.
Reserves: $47.7 million
    The Air Force will recruit and retain personnel in combat related 
and medical career fields, specifically survival, evasion, resistance 
and escape (SERE), pararescue, explosive ordnance disposal, aerial 
gunners, logistics, and a number of other career fields deemed vital to 
mission success.
Air National Guard: $117.0 million
    The Air Force will recruit and retain personnel in critical skills, 
combat related and medical career fields, specifically aircraft 
maintenance/systems, civil engineering, air battle managers, remotely 
operated aircraft, physicians, pharmacists, nurses and surgeons.

        combat search and rescue helicopter replacement program
    79. Senator McCain. Secretary Donley and General Schwartz, I am 
concerned by recent press reports and testimony from Air Force 
officials indicating that the Air Force is considering a multi-billion 
dollar sole-source procurement to replace its aging fleet of HH-60G 
Pave Hawk search and rescue helicopters with newer models of the same 
aircraft. If true, this may raise serious questions regarding the Air 
Force acquisition process. Is the Air Force considering a sole-source 
procurement to recapitalize its fleet of HH-60G helicopters? Please 
explain why.
    Secretary Donley and General Schwartz. No decisions on an 
acquisition strategy for HH-60 recapitalization have been made at this 
time. The Air Force is currently working with OSD and the Joint Staff 
to finalize requirements and acquisition strategy for this needed 
capability.

    80. Senator McCain. Secretary Donley and General Schwartz, how did 
the Air Force arrive at its decision to purchase newer models of the 
same aircraft when better alternatives for combat search and rescue 
(CSAR) are available?
    Secretary Donley and General Schwartz. The Air Force will procure 
newer HH-60 models to replace aircraft lost in combat (Operational Loss 
Replacement). No decisions have been made on aircraft types for the HH-
60 recapitalization program, which will replace the entire HH-60 fleet. 
The Air Force is currently finalizing the requirements and acquisition 
strategy for this program through close coordination with OSD and Joint 
Staff.

    81. Senator McCain. Secretary Donley and General Schwartz, has the 
Air Force abandoned plans for a modern CSAR helicopter fleet?
    Secretary Donley and General Schwartz. No, the Air Force has a need 
to recapitalize the existing HH-60G fleet. The fiscal year 2011 
President's budget begins the program as a new start in fiscal year 
2011, and begins procurement funding in fiscal year 2012.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
            risk assessment of fighter aircraft inventories
    82. Senator Inhofe. Secretary Donley and General Schwartz, as 
stated in your opening remarks, the Air Force has been engaged in 
continuous combat and expeditionary operations since August 1990, which 
means we are coming up on 20 years of persistent operations over places 
like Southwest Asia, Somalia, the Balkans, Haiti, Iraq, Afghanistan, as 
well as the air bridge between the United States and every location we 
have U.S. forces. The mass retirement of so many legacy fighters 
concerns me because the Navy, Marine Corps, and Air Force fighter gaps 
are only growing more quickly each year with no fix in sight. Can you 
give me an overall risk assessment of the Air Force?
    Secretary Donley and General Schwartz. In April 2008 congressional 
testimony, the Air Force projected a fighter gap of over 800 aircraft. 
Since that time, three key assumptions unpinning the 2008 analysis have 
changed. First, the Air Force elected to accept increased warfighting 
risk. Second, the planned F-35 procurement rate was increased from 48 
to 80 aircraft per year in fiscal year 2016. Third, the Air Force 
refined its approach to fighter service life computations. The 
combination of these changes significantly reduced the projected 
fighter force structure shortfall. Actual risk level and an expanded 
discussion are available in a study the Air Force submitted in response 
to House Report 2647 (Public Law 111-84) Section 1075.

    83. Senator Inhofe. Secretary Donley and General Schwartz, are 
there any missions you feel are at high risk?
    Secretary Donley and General Schwartz. The greatest challenge 
continues to be performance across all core missions in the high end of 
the Range of Military Operations against a near-peer competitor. As we 
continue to rebalance the force structure, we must guard against over-
optimization of the force for today's fight at the expense of 
capability against this near-peer threat. These risks are exacerbated 
in anti-access, area denial and electronic attack environments. In this 
environment some of our current weapons are losing ground in both 
capability and sufficiency to rapidly improving near-peer capabilities. 
Underpinning this challenge is the growing risk to our airborne ISR 
mission. This is due primarily to the increasing vulnerabilities of the 
satellite communication architecture. As the Air Force transitions to a 
greater reliance on remotely-piloted aircraft for the preponderance of 
its airborne ISR capability, the security of our satellite 
communications has become increasingly critical to the enterprise. This 
includes not only the maintenance of robust and secure satellite 
communication links, but the protection of space assets themselves 
against a growing array of potential adversary threats.

    84. Senator Inhofe. Secretary Donley and General Schwartz, is the 
Air Force still predicting shortfalls in its fighter and attack 
aircraft inventory?
    Secretary Donley and General Schwartz. Yes, given current 
requirements, the Air Force is predicting a modest shortfall in its 
fighter inventory. In April 2008, the Air Force informed the Congress 
of a projected fighter force structure gap of over 800 aircraft in 
2024. Since that testimony, 3 key force structure assumptions have 
changed significantly, reducing the fighter shortfall in 2024 from 800 
aircraft to 182 aircraft. First, the Air Force elected to accept 
increased warfighting risk, going from ``low-to-moderate'' to 
``moderate.'' Second, the planned F-35 procurement rate was increased 
from 48 to 80 aircraft per year. Third, the Air Force refined its 
approach to computing fighter service life. The Air Force is closely 
monitoring fighter force structure, and will review the potential need 
for SLEPs as part of the fiscal year 2012 budget process.

    85. Senator Inhofe. Secretary Donley and General Schwartz, can the 
ANG continue to support the current 18 Air Sovereignty Alert sights 
with proposed inventory and budget cuts?
    Secretary Donley and General Schwartz. Yes. ANG can cover the 18 
sites with the fiscal year 2010 Combat Air Forces (CAF) Restructure. 
Operation Noble Eagle Ground Alert is not affected by the fiscal year 
2010 CAF Restructure.

                            fighter aircraft
    86. Senator Inhofe. Secretary Donley and General Schwartz, the Air 
Force will not have its first unit of combat-ready JSF until at least 
2015. F-22 production will end at 187 aircraft, leaving approximately 
120 combat-coded aircraft to ``prevail in a broad range of operations 
that may occur in multiple theaters in overlapping timeframes . . . 
[including] the ability to prevail against two capable nation-state 
aggressors'' as stated in the 2010 QDR. Moreover, foreign surface-to-
air missiles and integrated air defense systems continue to improve and 
proliferate; Russia and China continue their military build-up and 
modernization to include development of the J-12 fighter aircraft in 
China and flight testing of the PAK-FA fighter in Russia; and, Prime 
Minister Vladimir Putin said Russia will start building a new strategic 
bomber and announced that the Russian military will commission 1,500 
new military aircraft and helicopters so that the air force will have 
80 percent modern aircraft by 2020. What is the status of our fighter 
fleet and its ability to respond to these threats?
    Secretary Donley and General Schwartz. The fiscal year 2011 budget 
includes $12.5 billion over the FYDP to sustain America's air 
superiority advantage. Building on the multi-role nature of our most 
advanced aircraft, we are also adding precision attack capabilities 
such as the Small Diameter Bomb. The Air Force will also continue the 
development and procurement of air-to-air munitions and defenses for 
the F-22 such as the AIM-9X, AIM-120D, and electronic warfare 
capabilities. We assess that by the time these aircraft are fielded, 
our investment in fifth generation aircraft, associated weapons and 
defensive architectures will allow us to maintain an acceptable level 
of risk.

    87. Senator Inhofe. Secretary Donley and General Schwartz, what 
plans does the Air Force have in place if the JSF continues to slip to 
later dates in the future?
    Secretary Donley and General Schwartz. The Air Force believes the 
restructured F-35 program provides a realistic schedule, however, the 
Air Force has postured the A-10 and F-16 fleets to accept potential 
delays in the F-35 program which is designed and being fielded as their 
replacement. Legacy aircraft SLEPs and modernization are significantly 
more cost effective means to mitigate any risks from potential gaps in 
fighter force structure capacity. The Air Force has also refined our 
ability to quantify aircraft service life. The most accurate depiction 
of the Combat Air Force status is achieved using ESL, which is based on 
MIL STD 1530C and captures both the capability and structural integrity 
of an aircraft constrained by economic reality.
    In 2006, the Air Force conducted a fleet viability review of the A-
10 because of a requirement to fly the aircraft until approximately 
2028. The Fleet Viability Board (FVB) concluded that with proper care, 
investment, and fleet management, the Air Force can keep the fleet 
viable. Structural fatigue testing for the wings was conducted in the 
late 1970s and early 1980s, and the Air Force has recently completed 
component structural tests on the fuselage and empennage to 16,000 
hours. The Air Force is drafting the final report, which will recommend 
future inspection and repair processes. The Air Force is also 
conducting Scheduled Structural Inspections (SSIs) every 2,000 flight 
hours after the initial SLEP inspection conducted at approximately 
8,000 flight hours. In addition, A-10s manufactured with ``thin-skin'' 
center wing panels will be modified with new wings that have ``thick-
skin'' center wing panels as part of the fully funded A-10 wing 
replacement program. These inspections and modifications will ensure 
the A-10 fleet is viable to the ESL of 14,000 equivalent flight hours 
(EFH) which equates to approximately 2030.
    More information regarding F-16 service life is in development and 
the Air Force is currently conducting fleet viability assessments for 
the F-16C/D fleet. The first FVB for Block 25, 30, and 32 aircraft will 
conclude by the end of fiscal year 2010. Immediately following the 
initial FVB, the Air Force will conduct FVBs for the Block 50/52 and 
then Block 40/42 aircraft, and they are scheduled to conclude by the 
end of fiscal year 2011. The Air Force is also requesting funds in the 
fiscal year 2011 President's budget to initiate a full-scale fatigue 
test (FSFT) on an F-16 Block 50 airframe specimen, which will be 
stressed to 24,000 hours. This test is expected to complete by the end 
of fiscal year 2013. Analysis of structural components and failure 
modes relevant to the Block 40-52 fleet will determine the exact 
structural modifications necessary to extend the service life beyond 
8,000 hours. The FVBs and FSFT will provide the Air Force with 
information and data pertinent to extend the service life of the F-16 
fleet beyond the ESL of 9,000 EFH for the Block 25-32s and 8,000 EFH 
for Block 40-52s.

    88. Senator Inhofe. Secretary Donley and General Schwartz, what 
will be the impact on legacy aircraft if JSF production slips further 
than currently planned?
    Secretary Donley and General Schwartz. Further slips to JSF 
production are expected to have minimal impact to legacy aircraft. The 
Air Force has believes the restructured F-35 program provides a 
realistic schedule, however the Air Force has postured the A-10 and F-
16 fleets (aircraft the F-35 is designed to replace), as well as the F-
15E Strike Eagle, to be able to accept delays in the F-35 program. The 
A-10 ESL is 14,000 EFHs and, at current usage rates, it has planned 
viability until approximately 2030. A majority of the A-10 fleet is 
already receiving new wing replacements with ``thick skin'' center wing 
panels, and all aircraft are undergoing regular Scheduled Structural 
Inspections (SSIs) every 2,000 flight hours after the initial SLEP 
inspection conducted at 8,000 flight hours.
    Further delays to F-35 production may impact the Air Force's 
ability to retire additional older model F-16s (Block 30/32s), however, 
more information regarding F-16 service life is in development. The Air 
Force is currently conducting Fleet Viability Boards (FVBs) on the F-16 
fleet that will be completed by the end of fiscal year 2011. The F-16 
ESL is 9,000 EFH for Block 25-32s and 8,000 EFH for Block 40-52s. The 
Air Force has requested funds in the fiscal year 2011 President's 
budget to initiate a Full-Scale Fatigue Test on an F-16 Block 50 test 
article to determine structural modifications necessary to extend the 
F-16 Block 40-52 service life beyond 8,000 hours. This testing starts 
in fiscal year 2011 and is estimated to be complete by fiscal year 
2013. These aircraft are expected to remain in service until at least 
2025. The FVB and FSFT will prepare the Air Force to extend the life of 
the F-16 fleet, and the Air Force will continue to evaluate options 
each budget cycle to mitigate the impacts from potential F-35 program 
slips on the aging F-16 fleet.
    The F-15E Strike Eagles are some of the newest fighters in the Air 
Force active inventory. The F-15E has an ESL of 13,500 EFH, and as of 
today, none of them have been retired or are planned to be retired. 
Further, the Air Force is making steady investments in F-15E 
modernization to ensure its combat capability well into the future.

    89. Senator Inhofe. Secretary Donley and General Schwartz, what is 
the current cost estimate of the JSF overall and per aircraft?
    Secretary Donley and General Schwartz. As of 26 April 2010, the 
total cost of the program is $328.3 billion (Then Year Dollars) and the 
Average Procurement Unit Cost (APUC) for all variants of the JSF is $79 
million (Base Year 2002 Dollars)/$113.6 million (Then Year Dollars) as 
reflected in the 2009 Selected Acquisition Report (SAR). However, 
Consistent with Nunn-McCurdy statutory requirements, a complete 
Independent Cost Estimate is in process. The Department expects this 
analysis will result in increases to the stated Program Acquisition 
Unit Cost (PAUC) and APUC estimates. The projected range of estimates 
for all variants is $97-$115 million PAUC and $79-95 million APUC in 
Base Year 2002 dollars.

    90. Senator Inhofe. Secretary Donley and General Schwartz, do you 
expect cost estimates to change based on cost increases or decreases in 
the number to be procured? Please explain why.
    Secretary Donley and General Schwartz. Production profile changes 
did impact the unit cost estimates as reported in the F-35 December 
2009 SAR. However, these changes were necessary to institute an 
optimized ramp rate commensurate with the Independent Manufacturing 
Review Team recommendation.
    Any further reduction of fiscal year 2011 Low Rate Initial 
Production 5 jets would:

        <bullet> Increase unit costs of remaining fiscal year 2011 DOD 
        and Partner jets;
        <bullet> Increase FYDP costs due to learning curve effects;
        <bullet> Delay Services' fielding of critical capability;
        <bullet> Exacerbate Tactical Air Force structure shortfalls;
        <bullet> Increase F-35 FYDP unit costs; and
        <bullet> Likely cause further delays in some partner 
        procurements, which in turn would further increase DOD unit 
        costs

    Executing the optimized F-35 procurement ramp is key to: (1) 
lowering F-35 unit cost by capitalizing on learning, manufacturing 
efficiencies and economies of scale; and (2) addressing the Services' 
force structure shortfalls.

            combat search and rescue helicopter replacement
    91. Senator Inhofe. Secretary Donley and General Schwartz, the 
fiscal year 2010 budget terminated the Combat Search and Rescue 
Helicopter Replacement (CSAR-X) program. In announcing the termination, 
Secretary Gates questioned the need for a single service, single 
purpose program. Until CSAR-X was terminated, it was the Air Force's 
number-two acquisition priority right behind KC-X. It now appears that 
the Air Force is moving away from platforms that are more capable to 
lower end platforms as more of a budget decision than what provides our 
forces the best capabilities. Joint Forces Command directed study 
validated the need for a new CSAR helicopter in even greater numbers 
than previously planned. In addition, the Air Force has performed 
thousands of joint and coalition recoveries in Central Command's AOR. 
Is CSAR still a core competency for the Air Force?
    Secretary Donley and General Schwartz. Yes, CSAR is an important 
mission for the Air Force. In accordance with guidance set forth by 
Secretary Gates, CSAR now falls under the Service Core Functions of 
Personnel Recovery (PR). The Air Force released the Operational Concept 
for PR in September 2009 as part of a continuing effort to adapt to the 
current irregular warfare environment and to meet all the Joint force 
requirements for personnel recovery. In these challenging fiscal times, 
the Air Force is working to provide our forces with the best 
capabilities possible. The current HH-60 Operations Loss Replacement 
and subsequent recapitalization program will allow the Air Force to 
continue to support Joint MEDEVAC, CASEVAC, CSAR, and other PR 
missions. The Air Force will continue to work with OSD to ensure that 
the right numbers of aircraft with all the required equipment are 
getting to our warfighters.

    92. Senator Inhofe. Secretary Donley and General Schwartz, what was 
the result of the Air Force's 2002 study for a new CSAR platform?
    Secretary Donley and General Schwartz. The Air Force Combat Rescue 
Analysis of Alternatives (AoA) was conducted to provide DOD acquisition 
decision makers one or more affordable upgrade or replacement options 
for the HH-60G recovery vehicle. After careful consideration among five 
concepts and over 25 alternatives, the AoA study team recommended a new 
medium-lift helicopter as the best concept for a replacement of the HH-
60G.

    93. Senator Inhofe. Secretary Donley and General Schwartz, what are 
the current plans for replacing the aging fleet of HH-60G Pave Hawks?
    Secretary Donley and General Schwartz. The current plans for 
replacing the HH-60G fleet involve two efforts, HH-60G Operational Loss 
Replacement (OLR) and HH-60 Recapitalization. HH-60G OLR is the Air 
Force's plan to replace HH-60G Pave Hawks lost in combat and other 
operational missions to sustain the current HH-60 fleet strength. HH-60 
Recapitalization will be a long-term recapitalization effort to replace 
the entire fleet.

    94. Senator Inhofe. Secretary Donley and General Schwartz, will 
this Nation be getting the most capable CSAR platform for our airmen or 
are we compromising based on available budget?
    Secretary Donley and General Schwartz. The Air Force is working 
with OSD and Joint Staff to finalize requirements and an acquisition 
strategy that supports an HH-60 recapitalization program to replace the 
fleet of aging HH-60Gs. Initial program funding is contained in the 
fiscal year 2011 President's budget. A Request for Information has been 
released to obtain industry's ability to provide the Air Force with a 
CSAR platform. The Air Force will procure a CSAR platform that meets 
warfighter requirements.

                          joint cargo aircraft
    95. Senator Inhofe. Secretary Donley and General Schwartz, the DOD 
plan in 2008 was to acquire 75 C-27s for military transport. That 
number was dropped in 2009 to 38 aircraft and eight were funded in the 
fiscal year 2010 budget. The fiscal year 2011 budget requests another 
eight aircraft. From my understanding, the Joint Requirements Oversight 
Council (JROC) validated the requirement for the Joint Cargo Aircraft 
(JCA) and a minimum number of 75 JCA. What is the current requirement 
for C-27s?
    Secretary Donley and General Schwartz. A June 2007 Under Secretary 
of Defense for Acquisition, Technology and Logistics Acquisition 
Decision Memorandum concerning this issue stated, ``The Acquisition 
Program Baseline shall reflect an initial procurement quantity of 78 
aircraft (54 Army, 24 Air Force).'' This quantity matches the aircraft 
procurement through 2013, as presented to the Joint Requirements 
Oversight Committee and the Defense Acquisition Board. Resource 
Management Decision 802 assigned the Direct Support Time Sensitive/
Mission Critical (TS/MC) mission to the Air Force and revised the total 
number of C-27s to 38. The transfer of the TS/MC airlift mission is 
intended to capitalize on efficiencies gained by operating the tactical 
airlift fleet under a single Service, thereby maximizing the robust 
capabilities resident in the existing intra-theater airlift fleet to 
ensure all requirements are met.

    96. Senator Inhofe. Secretary Donley and General Schwartz, what 
mission or missions are driving the required number of C-27s?
    Secretary Donley and General Schwartz. Resource Management Decision 
802 assigned the Army's time sensitive/mission critical (TS/MC) mission 
to the Air Force, and revised the total number of C-27s to 38. The Air 
Force will use the C-27 primarily for TS/MC missions supporting the 
U.S. Army. As an Air Force asset, the C-27s can also be operated and 
managed through the Global Force Management process to answer all 
intra-theater airlift requirements (general support in addition to 
direct support).

    97. Senator Inhofe. Secretary Donley and General Schwartz, how will 
JCAs support homeland security missions such as natural and manmade 
disasters?
    Secretary Donley and General Schwartz. The C-27 will be an ANG 
asset and will be incorporated into the Global Force Management process 
to support the needs of states (Title 32) and geographic combatant 
commanders (Title 10). Airlift requirements in support of homeland 
security and disaster assistance will be met utilizing the Global Force 
Management process to ensure the combatant commander receives the most 
effective airlift platform. The C-27 will operate similar to ANG C-130 
units in response to preparation and recovery efforts.

                         nuclear modernization
    98. Senator Inhofe. Secretary Donley and General Schwartz, your 
posture statement highlights Air Force actions over the past 2 years to 
reinvigorate Air Force stewardship over the ground and air legs of the 
nuclear triad. The fiscal year 2011 budget request shows a planned 
investment of $295 million over the FYDP to keep the aging Minuteman 
III intercontinental ballistic missiles (ICBM) operational. How long do 
you expect this missile type to stay in the operational force?
    Secretary Donley and General Schwartz. The Air Force is committed 
to sustaining and modernizing the current Minuteman III ICBM through 
2030, per congressional direction.

    99. Senator Inhofe. Secretary Donley and General Schwartz, at what 
point must we make a decision to begin development of a follow-on ICBM 
to the Minuteman?
    Secretary Donley and General Schwartz. As long as the Nation 
requires an ICBM, the Air Force will steward that capability to ensure 
we always have safe, secure, and reliable systems. An analysis of 
alternatives will be performed during this FYDP to assess alternatives 
for 2030 and beyond.

    100. Senator Inhofe. Secretary Donley and General Schwartz, is 
there funding in the fiscal year 2011 request for a follow-on ICBM?
    Secretary Donley and General Schwartz. There is no funding in the 
fiscal year 2011 budget. The Air Force is working to define attributes 
and characteristics for a follow-on capability beyond 2030.

    101. Senator Inhofe. Secretary Donley and General Schwartz, do you 
believe it is necessary to continue to maintain the ICBM leg of the 
Strategic Nuclear Triad?
    Secretary Donley and General Schwartz. Yes. ICBMs remain an 
important part of the Nation's nuclear deterrent with attributes that 
ensure the TRIAD is balanced, responsive, and adaptable. The foundation 
of America's strategic and nuclear deterrence effectiveness depends on 
the balance of overall TRIAD capabilities. As such, specific ICBM 
attributes include: high readiness, responsiveness, survivability, 
positive control, rapid retargeting, and day-to-day stability.

    102. Senator Inhofe. Secretary Donley and General Schwartz, $800 
million is requested over the FYDP to modernize the B-52 and B-2 
bombers to ensure survivability against increasingly capable air 
defense systems. $200 million is requested for research and development 
for the next-generation bomber. You state, ``the proliferation of area 
denial and anti-access capabilities will challenge the ability of . . . 
legacy bombers to penetrate contested airspace.'' Will our current U.S. 
strategic bombers be able to fulfill their nuclear deterrent missions 
given the antiaccess threat?
    Secretary Donley and General Schwartz. We are actively sustaining 
and modernizing all strategic Air Force bomber and fighter platforms to 
fulfill the demands of strategic deterrence and conventional warfare 
missions into the future.
    The ongoing B-2 radar, defensive management, and strategic 
communications system upgrades will ensure penetrating capability into 
the mid-term, while B-52 computer system architecture, strategic radar, 
and strategic communication improvements will keep our legacy long-
range strike force operationally relevant through at least 2035. We are 
also in the early stages of examining a follow-on air-launched cruise 
missile which will permit our legacy platforms to fulfill their nuclear 
deterrent mission in future threat environments.

    103. Senator Inhofe. Secretary Donley and General Schwartz, there 
does not appear to be funding in the fiscal year 2011 request to make 
JSF dual-capable. Are there plans to request such funding in the 
future?
    Secretary Donley and General Schwartz. Yes, the Air Force remains 
committed to our strategic deterrent mission and will ensure the JSF 
will be dual capable in time to meet strategic requirements. Dual 
capable aircraft (DCA) capability for the F-35 were not funded in the 
fiscal year 2011 President's budget due to weapon maturity and 
availability issues. The Air Force has multiple options within our 
legacy fighter fleet to ensure seamless DCA mission capability while 
transitioning to the F-35. This includes monitoring the legacy fighter 
force structure closely for any potential need for service life 
extensions. The Air Force continues to evaluate the necessary 
programmatic initiatives to include integrating DCA capability on the 
JSF in the fiscal year 2012 budget submission.

    104. Senator Inhofe. Secretary Donley and General Schwartz, how 
will the United States be able to deliver tactical nuclear weapons 
without a dual-capable JSF?
    Secretary Donley and General Schwartz. The Air Force will maintain 
the ability to employ tactical nuclear weapons through proper 
management of the F-16 and F-15E fleets. The ability of these aircraft 
to penetrate sophisticated adversary air defenses, however, will 
continue to be challenged as anti-aircraft radar and missile systems 
technology proliferates. Therefore, the Air Force continues to pursue 
dual-capable aircraft (DCA) capability on the JSF. F-35 integration 
will maintain this mission capability, enabling the United States to 
seamlessly provide extended deterrence and meet its treaty and alliance 
commitments.

    105. Senator Inhofe. Secretary Donley and General Schwartz, what 
implications will a non-dual capable JSF have for U.S. security 
guarantees to our European allies?
    Secretary Donley and General Schwartz. The 2010 NPR affirmed the 
United States' commitment to strengthening regional deterrence and 
reassuring U.S. allies and partners. The Air Force remains committed to 
replacing the current inventory of F-16s with a dual capable JSF, 
ensuring there is no gap in the dual capable mission as the JSF becomes 
operational in this mission area.

                         next generation bomber
    106. Senator Inhofe. Secretary Donley and General Schwartz, in 
February 2006, DOD called for a new long-range bomber to be fielded by 
2018. Prior to release of the fiscal year 2010 budget request, 
Secretary Gates announced on April 6, 2009, that DOD ``will not pursue 
a development program for a follow-on Air Force bomber until we have a 
better understanding of the need, the requirement, and the 
technology.'' From my understanding, the Air Force conducted numerous 
studies and analyses with the assistance of the Institute for Defense 
Analyses and the Defense Science Board to determine ``if'' and ``what 
type'' of new bomber platform was required to meet future threats. I 
also believe the JROC approved an Initial Capabilities Document and an 
acquisition strategy was formulated and approved by the Under Secretary 
of Defense for Acquisition, Technology, and Logistics in late 2008. 
Finally, I believe efforts were underway to seek approval by the JROC 
of the Capabilities Development Document in 2009. If all these reviews 
have been done, why is more time needed to study the bomber platform 
again to determine what type is needed?
    Secretary Donley and General Schwartz. As stated, the Secretary of 
Defense (SECDEF) delayed the development of an Air Force follow-on 
bomber until the DOD could better understand the need, requirement, and 
technology associated with the weapon system. To satisfy his concerns 
about developing a new LRS platform, the SECDEF directed the formation 
of a Tiger Team. This team, part of the High End Asymmetric Team 
(HEAT), took an in-depth look at long-range strike--including the LRS 
need, requirement, and technology--all within the larger 2010 QDR 
process. The team's conclusions were supportive of pursuing a new LRS 
platform, but identified the need for additional analysis to explore 
options for reducing costs and accelerating fielding timelines. Based 
upon the need for additional analysis, the SECDEF chartered a 
subsequent study to examine a broader array of long-range strike issues 
and options including: the appropriate mix of long-range strike 
capabilities; upgrades to legacy bombers; manned and unmanned force 
structure numbers; stand-off and penetrating platform ratio; stand-off 
cruise missile requirements; ISR demands; and conventional prompt 
global strike needs.
    The DOD's rationale for the study is that expanded analysis is 
needed to fully understand how all potential LRS options could 
contribute the country's national defense and national military 
strategies and objectives before large amounts of funding are committed 
to the program. The results of the study are expected in fall 2010.

    107. Senator Inhofe. General Schwartz, General Corley, Commander of 
ACC, has said that the fleet of B-2 bombers is too small for persistent 
attacks in heavily defended airspace, and the B-1s and B-52s are not 
survivable in heavily defended airspace. Lieutenant General Klotz, Air 
Force Global Strike Command, said there will continue to be a need for 
long-range strike capabilities. You said to expect major work to start 
on a new LRS platform in 2013 but the timing was not definitive. What 
do you mean by expect major work to start by 2013?
    General Schwartz. Work beginning in 2013 is dependent on finalizing 
requirements and establishing and funding a program of record that 
would lead to further design, development, and production. Work prior 
to that would be focused on technology maturation, risk reduction, 
concept development, and requirements definition.

    108. Senator Inhofe. General Schwartz, if work started in 2013, 
when will we see a new bomber?
    General Schwartz. If focused system level design work begins in 
2013, a new bomber could be in flight test in the 2021-2025 timeframe 
with operational capability coming on-line in the 2025-2030 timeframe.

    109. Senator Inhofe. General Schwartz, will we be able to sustain 
the current fleet of bombers to meet national security requirements 
until the next generation bomber is operational?
    General Schwartz. Yes, the current fleet of bombers will be 
maintained to continue to meet national security requirements until a 
future LRS capability is operational. Current modernization efforts 
focus on lethality, responsiveness, survivability, and sustainment. 
Very little can be done to make the B-1 or the B-52 survivable against 
today's modern air defenses; however, the B-1 and B-52 will be equipped 
with extended range munitions to mitigate risk from advanced integrated 
air defense systems in the future. Some efforts like Defensive 
Management System (DMS) Modernization can improve the B-2's 
survivability, but the B-2 will still face survivability challenges in 
the mid-term against emerging advanced air defenses. The ongoing OSD-
led ``Analysis of LRS Options'' study directed by the 2010 QDR will 
inform senior leadership on future LRS investments to address these 
survivability concerns. The following modernization programs are 
currently programmed throughout the FYDP:
B-52:
    CONECT (Combat Network Communications Technology)
    SR2 (Strategic Radar Replacement)
    EHF (Extremely High Frequency)
    1760 Internal Weapons Bay Upgrade
B-2:
    RMP (Radar Modernization Program)
    DMS (Defensive Management System)
    EHF (Extremely High Frequency)
B-1:
    IBS (Integrated Battle Station)
    RMIP (Radar Reliability and Maintainability Improvement Program)
    INS & GSS (Inertial Navigation System & Gyro Stabilization System)
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                        kc-135 depot maintenance
    110. Senator Sessions. Secretary Donley, 2 years ago, Boeing was 
awarded the KC-135 Programmed Depot Level Maintenance contract over 
Alabama Aircraft Industries Incorporated (AAII). AAII is awaiting a 
ruling from the U.S. Court of Appeals concerning this contract, and we 
will let the legal process run its course. My concern is with the 
Birmingham, AL, aerospace industrial base should Boeing retain the 
contract. This industrial base has a skilled workforce of 800 employees 
who have a reputation for on-time completion with the fewest faults. 
What is the Air Force doing to preserve this military industrial base?
    Secretary Donley. Throughout our dealings with the industrial base, 
the Air Force must rely on the free and open competition afforded to 
all companies.

            roles and missions with unmanned aerial systems
    111. Senator Sessions. General Schwartz, 2 years ago when General 
Moseley was Chief of Staff of the Air Force, he tried unsuccessfully to 
make the Air Force the EA for Unmanned Aerial Systems (UAS) as well as 
placing operational control of these assets under the regional Air 
Component Commander. Instead, then-Deputy Secretary of Defense Gordon 
England stood up a DOD UAS Task Force. Last time we talked about this 
issue, you assured me that there was no intent to move from the status 
quo. Unfortunately, I am hearing rumblings that this contentious issue 
may yet again surface. Please provide me an update regarding UAS roles 
and missions in the Air Force and how you are coordinating these 
functions with the Army.
    General Schwartz. The Air Force strongly believes in the tenets of 
Joint doctrine that establishes the Joint Force Commander as the 
authority for the use and prioritization of UAS or Remotely Piloted 
Aircraft (RPA). The Joint Force Air Component Commander executes the 
Joint Force Commander's operational objectives using assigned Joint air 
assets. The intent of the 2007 proposal to establish an Executive Agent 
(EA) for UAS was to establish a Joint organization to specifically 
address the myriad outstanding UAS/RPA issues to include Joint concepts 
of operation to integrate all Service component UAS/RPA systems, 
airspace control, air defense, and acquisition, standardization, and 
interoperability. Since September 2007, the Air Force has been, along 
with the other Services, an active participant on the OSD AT&L UAS Task 
Force that was established by the Deputy Secretary of Defense in lieu 
of an EA for UAS. I believe it is essential for the Air Force and other 
services to continue working together to collectively determine the 
optimal way ahead for UAS/RPA.
    The Air Force is actively engaged with OSD, the Joint Staff, and 
the other Services in determining how to maximize the capabilities that 
various RPA provide. Service responsibilities are to organize, train, 
and equip combat forces for use by Joint force commanders. Combat 
operations are guided by established Joint Doctrine that stipulates 
that priorities for use of Service component forces are determined by 
the JFC-Services do not direct or establish Joint force employment 
priorities. The role of the Combined or Joint Force Air Component 
Commander is to execute air operations in accordance with the 
priorities of the Combined or Joint Force Commander to meet his 
specified mission objectives.
    More specifically dealing with RPAs, last year the Army's Training 
and Doctrine Command (TRADOC) and the Air Force's ACC signed the Army-
Air Force UAS Enabling Concept that describes a concept for how 
theater-capable, multi-role UAS should be integrated. This document 
will be added to Joint Forces Command's Joint Concept of Operations for 
UAS.

                      joint strike fighter basing
    112. Senator Sessions. General Schwartz, the Air Force published 
the Notice of Intent concerning JSF basing on December 30, 2009. I 
understand that the decision on which ANG units will receive the first 
JSFs was very difficult. I am concerned with the fact that the aging F-
16 fleet will begin reaching the end of their service life at the end 
of this decade. Can you give me some indication as to when the next 
round of JSF ANG basing assignments will be announced and how many 
additional units will be on this list?
    General Schwartz. Yes. The first basing decisions will identify the 
training and operational basing for delivery of F-35 aircraft between 
2013 and 2017. Formal environmental impact surveys will be completed 
for the preferred locations and reasonable alternatives, with records 
of decision issued in 2011. The Air Force has currently programmed to 
purchase up to a total of 1,763 aircraft between 2013 and 2035. 
Consequently, the basing process will be repeated every 2 years for 
future bases, and will consider both the Active and Reserve 
installations.

                        active association units
    113. Senator Sessions. Secretary Donley and General Schwartz, last 
time we spoke, you strongly supported the active Association Program 
where ANG and AFR serve alongside Active Duty personnel. I am hearing 
that while Active Duty billets currently exist at ANG and AFR units, no 
personnel have been assigned to these positions. In light of this, can 
you tell me whether the Air Force is still committed to this concept 
and process?
    Secretary Donley and General Schwartz. Yes, the Air Force remains 
committed to the Total Force integration process. Active duty personnel 
have been serving in active associations in the ANG/AFR units since 
2007. Our desired end state is a leaner, more capable, and more 
efficient Air Force that leverages the strengths of our Active and 
Reserve components. We fully expect to create more associations, both 
active and classic, as we continue to transform our Air Force for the 
future.

    114. Senator Sessions. Secretary Donley and General Schwartz, when 
should these units expect to see their first Active Duty personnel 
arrive?
    Secretary Donley and General Schwartz. The Active Duty Air Force is 
committed to Total Force Integration Initiatives and has been manning 
positions in the ANG/AFR units since 2007. The table below shows two 
examples of active duty personnel who are already in place, one unit 
from the Mobility Air Forces (KC-135) and the other unit from the 
Combat Air Forces (F-16). The 99th Air Refueling Squadron at Birmingham 
ANG, AL, is currently manned at 100 percent for officers (7 authorized/
7 assigned) with another 8 inbound as the unit gains more billets; 
enlisted manning for the same unit is currently 50 percent (60 
authorized/30 assigned) with an additional 33 inbound. Similarly, the 
157th Fighter Squadron at McEntire Joint National Guard Base, SC, is 
manned at 100 percent for officers and 87 percent for enlisted.

--------------------------------------------------------------------------------------------------------------------------------------------------------
             Platform                    Location                Unit                Position        Authorized  Assigned   Percent        Comments
--------------------------------------------------------------------------------------------------------------------------------------------------------
KC-135...........................  Birmingham ANG, AL..  99th Air Refueling    Officer.............          7         7       100   8 add'l inbound
                                                          Recon Sq.
                                                                               Enlisted............         60        30        50   33 add'l inbound
--------------------------------------------------------------------------------------------------------------------------------------------------------
F-16.............................  McEntire Joint        157th Fighter         Officer.............          9         9       100
                                    National Guard        Squadron.
                                    Base, SC.
                                                                               Enlisted............          8         7        87   1 add'l inbound
--------------------------------------------------------------------------------------------------------------------------------------------------------

                                 ______
                                 
              Questions Submitted by Senator David Vitter
                        barksdale air force base
    115. Senator Vitter. Secretary Donley, I want to again express my 
deep appreciation that the Air Force chose to locate Global Strike 
Command (AFGSC) at Barksdale AFB in Louisiana. How important do you 
view AFGSC in the Air Force's long-term plans?
    Secretary Donley. ``Continuing to Strengthen the Nuclear 
Enterprise'' is the Air Force's top priority. Establishing a new 
command dedicated to this effort was essential to strengthening the 
Nuclear Enterprise.
    The fundamental mission of Air Force Global Strike Command is to 
provide safe, secure, and effective forces for strategic deterrence and 
for global strike capabilities both to deter aggression against the 
United States and to provide assurance to our allies.
    AFGSC is critical to the Air Force's contribution to strategic 
deterrence. Over the past year, we transferred 8th Air Force and 20th 
Air Force to AFGSC along with their associated nuclear-capable bombers 
and ICBMs. These forces represent two-thirds of our strategic nuclear 
Triad and are vital to the day-to-day deterrence operations for our 
Nation.

    116. Senator Vitter. Secretary Donley, is there consideration by 
the Air Force to make AFGSC a four-star command?
    Secretary Donley. There is no consideration at this time to make 
AFGSC a four-star command.

    117. Senator Vitter. Secretary Donley, I understand that the Air 
Force has decided to wait until the conclusion of a Strategic Arms 
Reduction Treaty (START) follow-on and the Nuclear Posture Review to 
make a final decision on whether or not to execute the recertification 
of the Weapons Storage Area (WSA) at Barksdale AFB, despite Congress 
appropriating $77 million for the project to fulfill the Air Force's 
fiscal year 2010 budget request. Can you give me some insight as to 
what scenarios and outcomes might preclude the Air Force from moving 
forward with the re-certification of the Barksdale WSA?
    Secretary Donley. The New START treaty reduces U.S. nuclear force 
structure. The Air Force has elected to delay a final decision on the 
Barksdale WSA until the New START treaty force structure is decided. 
Once a final force structure is determined, we will work closely with 
the Commander of Air Force Global Strike Command to determine the 
requirements and operational considerations required to support the 
revised force structure.

                  space and cyberspace vulnerabilities
    118. Senator Vitter. General Schwartz, last month you stated that 
our space and cyberspace missions are at risk. We are increasingly 
reliant on our technology that helps make our military the best in the 
world, and we clearly need to address potential vulnerabilities. Please 
describe the most prominent space and cyberspace vulnerabilities that 
concern you.
    General Schwartz. The details of adversary threats to our space 
systems are classified at numerous different levels. At an unclassified 
level, we've seen a demonstrated anti-satellite kill capability and a 
historic well-developed counter-space program threatening our strategic 
communications, navigation/timing, and overhead collection satellite 
missions. On a broader scale, due to the widespread proliferation of 
satellite communication and Global Positioning System jammers among 
multiple other nations, U.S. tactical military advantage on the 
battlefield in local conflicts can be degraded.
    Conceptually, just as effective is a cyber attack on the satellite 
system ground infrastructure that serves command and control, and data 
links. Cyber attack on the ground networks could potentially degrade an 
individual satellite or an entire constellation. DOD depends on a 
robust command and control, and information sharing network. Our 
adversaries know this and undoubtedly seek to deny us this capability.
    The Air Force has a significant program underway to evolve to one 
Air Force network. Additionally, with the establishment of 24th Air 
Force under Air Force Space Command, the Air Force is refining its 
command and control relationships for network operations, not only 
within the Air Force, but with the Joint Information Enterprise as 
well. This single network, reporting to one Air Force Network 
Operations Commander, reduces our vulnerabilities, and leads to a more 
efficient and effective command and control, and information sharing 
construct.

    119. Senator Vitter. General Schwartz, are you confident that the 
President's budget request fully addresses potential vulnerabilities 
that concern you?
    General Schwartz. The President's budget request addresses these 
vulnerabilities and is based on inputs from the combatant commanders, 
and guidance from OSD and the Joint Staff to prioritize our 
capabilities and warfighting dependencies. Armed with a clear 
understanding of the threat environment and associated capability 
shortfalls, we developed an optimized investment strategy aimed at 
reducing risk in our highest priority programs.

    120. Senator Vitter. General Schwartz, do you think the budget 
request is ambitious and forward-looking to address vulnerabilities in 
space and cyberspace?
    General Schwartz. In building the fiscal year 2011 President's 
budget request, we conducted rigorous enterprise-wide assessments that 
considered the threats of a future operating environment, capability 
shortfalls, space and cyberspace system solutions, and reasonable 
fiscal projections, with the goal of maximizing Air Force contributions 
to national defense in these increasingly contested domains. The budget 
request is designed to reduce risk in our highest priority programs, 
while accepting more risk where feasible.

    121. Senator Vitter. General Schwartz, are there other space or 
cyberspace investments or initiatives that should be funded that were 
not included in the President's budget?
    General Schwartz. Consistent with national imperatives and space 
and cyber policy objectives, we have put forward a budget request that 
reflects our strategy of sustaining current capabilities while also 
delivering new capabilities to combatant commanders and national 
agencies.

                     air force personnel recruiting
    122. Senator Vitter. Secretary Donley, military recruiting picked 
up last year as Services met and exceeded goals. To what do you 
attribute this success?
    Secretary Donley. Air Force Recruiting Service (AFRS) continued 
success with enlisted accessions goals can be credited to the numerous 
opportunities we provide, as well as the Air Force reputation and 
lifestyle. Additionally, our highly-motivated, trained, all-volunteer 
recruiting force enthusiastically gets the word out to the young men 
and women in the Nation to be a part of the Air Force team. For some of 
our harder to fill specialties, a vital element for successful 
recruiting is the ability to offer bonuses and incentives where we have 
traditionally experienced shortfalls.

    123. Senator Vitter. Secretary Donley, do you believe that the Air 
Force can meet or exceed recruiting goals this year?
    Secretary Donley. The Air Force is on track to meet its enlisted 
goal and is currently at 100 percent (12,950 of 12,950) of the October 
through February goal. Officer accession is projected at 92.4 percent 
(4,604 of 4,979) for the yearly goal. Of the 4,979 goal, USAFA, AFROTC, 
AECP, and other programs account for 3,276 accessions (66 percent). The 
remaining 1,703 is the Air Force Recruiting Service's share, which 
accounts for health professions, chaplains, and OTS candidates. Of that 
group, recruiting fully qualified health professionals continues to be 
a challenge. As of 28 Feb, we have accessed 16.4 percent (130 of 794). 
The Health Professional Scholarship Program allows us to ``grow our 
own,'' and continued funding is critical to the success of this program 
because Health Professional Scholarship Program accessions are 
historically better than recruiting fully qualified health 
professionals. The program received more bonus dollars this year, but 
still not enough to match bonuses to accession requirements. For 
example: 65 Pharmacist requirements and only 45 bonuses; 43 Public 
Health requirements and 10 bonuses; 60 Psychologist requirements and 15 
bonuses.
    The Air Force Reserve is on track to meet its enlisted and officer 
goals; it is currently at 100.4 percent (4,265 of 4,250) and 96.5 
percent (410 of 425) respectively, of the October through February 
goals.
    The ANG is on track to meet its enlisted goal and is currently at 
111.7 percent (3,041 of 2,722) of the October through February goal. 
Officer accessions, currently at 45.4 percent (470 of 1,036) of the 
October through February goal, remain a challenge. The Guard has issued 
a national incentive-eligible list of critically manned skills, and has 
provided the Retention Office Managers real-time capability to review 
data and make national updates.

    [Whereupon, at 12:01 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                         TUESDAY, MARCH 9, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

   U.S. EUROPEAN COMMAND, U.S. AFRICA COMMAND, AND U.S. JOINT FORCES 
                                COMMAND

    The committee met, pursuant to notice, at 9:03 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Bill Nelson, Udall, Hagan, Burris, McCain, Inhofe, and LeMieux.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jessica L. Kingston, 
research assistant; Michael J. Kuiken, professional staff 
member; Gerard J. Leeling, counsel; Jason W. Maroney, counsel; 
William G.P. Monahan, counsel; John H. Quirk V, professional 
staff member; and William K. Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Paul C. Hutton IV, professional staff member; 
Michael V. Kostiw, professional staff member; Daniel A. Lerner, 
professional staff member; and Lucian L. Niemeyer, professional 
staff member.
    Staff assistants present: Christine G. Lang, Hannah I. 
Lloyd, Brian F. Sebold, and Breon N. Wells.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Christopher Griffin, assistant to 
Senator Lieberman; Carolyn Chuhta, assistant to Senator Reed; 
Greta Lundeberg, assistant to Senator Bill Nelson; Roger Pena, 
assistant to Senator Hagan; John Richards, assistant to Senator 
Begich; Sandra Luff, assistant to Senator Sessions; Jason 
Lawrence, assistant to Senator Chambliss; Jason Van Beek, 
assistant to Senator Thune; Erskine Wells III, assistant to 
Senator Wicker; and Victor Cervino and Brian Walsh, assistants 
to Senator LeMieux.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today's hearing is 
the first in a series of hearings that our committee will hold 
over the coming weeks with our combatant commanders to receive 
their testimony on the U.S. military strategy and operational 
requirements in their areas of responsibility (AORs). This is 
part of the committee's review of the National Defense 
Authorization Request for Fiscal Year 2011.
    This morning, the committee receives testimony from Admiral 
James Stavridis, Commander, U.S. European Command (EUCOM) and 
the North Atlantic Treaty Organization's (NATO) Supreme Allied 
Commander Europe; General William Ward, Commander, U.S. Africa 
Command (AFRICOM); and General James Mattis, Commander, U.S. 
Joint Forces Command (JFCOM).
    First let me take this opportunity on behalf of the 
committee to request that you pass along our gratitude to the 
men and women in your command and to their families for their 
commitment and their sacrifice in carrying out the missions of 
our commands.
    While Admiral Stavridis is not new to appearing before this 
committee, this is his first time testifying as EUCOM Commander 
and Supreme Allied Commander Europe. EUCOM's engagement with 
our allies and partners in Europe is an essential component of 
the trans-Atlantic relationship. Nowhere are the benefits of 
this relationship more clearly demonstrated than in 
Afghanistan, where 43 countries and nearly 40,000 non-U.S. 
troops, the vast majority of which come from countries in the 
EUCOM AOR, are participating in the NATO-led International 
Security Assistance Force (ISAF). EUCOM's efforts to build the 
capacity and interoperability of our allies and partners in 
Europe are an important contribution to ISAF's mission to bring 
security and stability to Afghanistan.
    We welcome the increased commitment of forces by our ISAF 
coalition partners since President Obama announced the 
commitment of additional U.S. forces in December. In addition, 
ISAF soldiers from Britain, Denmark, Estonia, and Canada joined 
U.S. soldiers and marines and Afghan troops in the recent 
combat operations in Helmand Province, and more than a dozen 
ISAF troops have died in that operation. We honor their 
sacrifice and the sacrifice of their families.
    At the same time, an issue that I want to get into further 
this morning is the continuing shortfall by our NATO allies to 
provide the additional trainers the NATO training mission in 
Afghanistan needs to build up the Afghan National Army and 
Police. It's apparent that growing the Afghan security forces 
so that they can take responsibility for ensuring their 
country's security is essential for the success of our 
counterinsurgency strategy and for meeting the July 2011 date 
that President Obama has set for the start of the reduction of 
U.S. troops in Afghanistan. There is no shortage of recruits 
for the Afghan Army, thanks in part to that July 2011 date, 
which has energized Afghanistan's leaders to bring in more 
recruits.
    According to General Bill Caldwell, the head of our 
training mission in Afghanistan, a major problem is the 
continuing shortage of trainers to provide the initial basic 
training. Training the Afghan Army is a mission that our NATO 
allies should embrace, regardless of their ability or their 
willingness to be on the front line of the fight. Yet, at a 
recent conference to generate forces NATO members pledged fewer 
than half of the approximately 1,200 additional NATO trainers 
sought by General Caldwell. That is more than disappointing; it 
is unacceptable.
    EUCOM faces a number of other security challenges within 
its AOR. President Obama's new plan for missile defense in 
Europe, the Phased Adaptive Approach, is supported by our NATO 
allies. In addition, later this year NATO plans to complete a 
revised strategic concept for how the alliance should adapt to 
today's security challenges, the first major revision of NATO's 
strategic concept since the events of September 11.
    General Ward, the challenges in the AFRICOM AOR are 
staggering, from the conflicts that rage across borders to 
fragile governments, to nations where peacekeeping or peace-
enforcing forces are the best and sometimes only hope for 
security and stability, and to the spread of violent extremism.
    While confronting some of these issues falls squarely in 
the lap of a military command, many do not. Your command is 
being directed to assist in nontraditional ways where the 
jurisdictional lines between the Departments of State and 
Defense are blurred at best. The committee looks forward to 
your testimony on these issues and AFRICOM's activities 
designed to confront and to counter them.
    The threat of terrorism from Africa, and particularly the 
potential for havens and recruiting grounds for terrorists in 
ungoverned or undergoverned areas, are cause for deep concern. 
The attempted Christmas Day bombing of an airliner reminds 
everybody that al Qaeda and violent extremists who share their 
ideology are not just located in the Afghanistan-Pakistan 
region, but in places like Somalia, Mali, Nigeria, and Niger. 
The committee is eager to hear how AFRICOM is working to 
confront those very real threats.
    Turning to JFCOM, General Mattis is responsible for the 
training, certification, and mission readiness of our Armed 
Forces as the joint force provider for present and future 
operational needs. I hope that General Mattis will discuss how 
JFCOM has changed and promoted Department of Defense (DOD) 
practices that result in more efficient and effective policies 
and coordination with respect to joint operations, as well as 
meeting the anticipated threats of the future.
    We're also interested in hearing about the role of JFCOM 
with respect to the drawdown of forces in Iraq. Specifically of 
interest would be your views on: how the withdrawal of U.S. 
forces from Iraq will have an impact on JFCOM's ability to 
source the combatant commander's requirements in the future; 
how the Services and other Government agencies are preparing to 
execute the drawdown, and how well the Services are meeting 
their expected dwell times to restore readiness rates.
    In addition, as persistent conflicts in Afghanistan and 
Iraq continue to stress our Armed Forces, our committee is 
interested in hearing your assessment, General, of the 
readiness of deploying forces.
    Again, we thank our witnesses for their dedicated and 
continued service and we look forward to your testimony.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman, and I thank all 
the witnesses for being here today. I'm grateful for your 
service and that of all the brave men and women under your 
commands.
    Many of my colleagues and I have been strong supporters of 
our trans-Atlantic partnerships in the NATO alliance. During 
the Cold War, NATO succeeded, as we all know, in promoting and 
protecting freedom and democracy in Europe and we won. But 
today the alliance is facing a number of very significant 
challenges. Secretary Gates rightly said in his speech at the 
NATO strategic concept seminar last month, ``Unless the 
strategic concept spurs operational and institutional changes, 
it will not be worth the paper it's printed on.''
    Right now the alliance has serious budgetary problems and 
is facing a budget shortfall of some $900 million. The problem 
is not just the current underfunding of NATO. Over the years, 
NATO and the national defense budgets consistently have 
declined to where only 5 of its 28 member states are obligating 
the required defense spending of 2 percent of gross domestic 
product.
    While the war in Afghanistan has shown a light on NATO's 
diminished capacity, these shortcomings are not new. For years 
before Afghanistan NATO, due to its limited budgets, has let 
its capabilities decline. For example, NATO lacks the cargo 
airlift, the helicopters, aerial refueling tankers, and 
intelligence, surveillance, and reconnaissance (ISR) platforms 
needed to be effective in Afghanistan or in any other future 
conflict.
    Member states should be explaining to their parliaments and 
to their citizens that NATO faces common threats and shares 
common goals. I am concerned that they continue to allow the 
idea to build up among their publics that NATO is fighting wars 
because the Americans are making them do it. The alliance must 
be about more than fulfilling our obligations under Article 5, 
as essential as that is. It must also serve to deter potential 
adversaries and build partner capacity within the alliance and 
beyond. Only then can we begin to collectively transform our 
alliance from one of common defense to one of common security.
    Admiral Stavridis, I look forward to hearing your thoughts 
on the future of defense spending among our NATO allies and 
your prescription for developing and better leveraging NATO's 
capabilities to meet future threats.
    I strongly believe it's important to nurture and scrutinize 
old friendships. It's equally important to develop and foster 
new ones. Africa is a continent full of potential friends and 
allies. We often grow too complacent and lack the foresight to 
prepare for the things we don't expect, and that's why I'm glad 
we have AFRICOM. Africa, as we know, has always been vulnerable 
to illicit trafficking due to widespread corruption, poor 
governance, and abject poverty.
    Somalis continue to flow into Yemen and train with al Qaeda 
and its affiliates, and we don't have to look any further than 
the Christmas Day bomber, a Nigerian, as proof that violent 
extremists exist in many places we're not thinking about or 
fighting a war.
    But we have partners in the region. Malian troops have 
launched an offensive against al Qaeda along its northern 
border with Algieria and lost as many as 13 troops last summer. 
African nations are vulnerable to a variety of threats, 
narcotrafficking, piracy, and terrorism, any of which would 
further weaken an already fragile region.
    So, General Ward, I look forward to hearing your testimony 
and your command's need for trainers, forces, and resources.
    General Mattis, your leadership of JFCOM comes at a time 
when our troops are engaged more than ever in joint operations. 
The branches of our Armed Forces are expected not only to team 
with one another, but with allies and host nation troops, as we 
have seen most recently in the offensive in Marjah. The 
committee is interested in understanding how JFCOM is preparing 
our troops to operate jointly and what steps you believe the 
Services should be taking in this regard. I'm also curious 
about how the rapidly changing feedback from the field in Iraq 
and Afghanistan will be incorporated in JFCOM's future 
doctrinal development.
    You're all highly decorated and highly respected members of 
the military. I appreciate your service and weigh your 
opinions, requests, and predictions heavily, so I look forward 
to hearing all of your testimonies.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Thank you, Mr. Chairman and thank you to the witnesses. I am 
grateful for your service, and that of all of the brave men and women 
under your command.
    Many of my colleagues and I have been strong supporters of our 
trans-Atlantic partnerships and the North Atlantic Treaty Organization 
(NATO) alliance. During the Cold War, NATO succeeded in promoting and 
protecting freedom and democracy in Europe--and we won. But today, the 
alliance is facing a number of problems.
    Secretary Gates rightly said in his speech at the NATO Strategic 
Concept Seminar last month, `` . . . unless, the Strategic Concept 
spurs operational and institutional changes . . . it will not be worth 
the paper it is printed on.' ''
    Right now, the alliance has serious budgetary problems and is 
facing a budget shortfall of some $900 million. The problem is not just 
the current underfunding of NATO. Over the years, NATO and national 
defense budgets consistently have declined to where only 5 of its 28 
member states are paying the required defense spending of 2 percent of 
gross domestic product.
    While the war in Afghanistan has shined a light on NATO's 
diminished capacity, these shortcomings are not new. For years before 
Afghanistan, NATO--due to limited budgets--has let its capabilities 
decline. For example, NATO lacks the cargo airlift, the helicopters, 
aerial refueling tankers and the ISR platforms needed to be effective 
in Afghanistan or any other future conflict.
    Member states must explain to their parliaments and to their 
citizens that NATO faces common threats and shares common goals. They 
cannot continue to allow the idea to build up among their publics that 
NATO is fighting wars because the Americans are making them do it. The 
alliance must be about more than fulfilling our obligations under 
Article 5, as essential as that is. It must also serve to deter 
potential adversaries and build partner capacity within the alliance 
and beyond. Only then can we begin to collectively transform our 
alliance from one of common defense to one of common security.
    Admiral Stavridis, I look forward to hearing your thoughts on the 
future of defense spending among our NATO allies and your prescription 
for developing and better leveraging NATO's capabilities to meet future 
threats.
    While I strongly believe it is important to nurture and scrutinize 
old friendships, it is equally important to develop and foster new 
ones. Africa is a continent full of potential friends and allies. We 
often grow too complacent and lack the foresight to prepare for the 
things we don't expect. That is why I am glad we have Africa Command.
    Africa has always been vulnerable to illicit trafficking due to 
widespread corruption, poor governance and abject poverty. Somalis 
continue to flow into Yemen and train with al Qaeda and its affiliates 
and we don't have to look any further than the Christmas Day bomber, a 
Nigerian, as proof that violent extremists exist in many places we're 
not thinking about or fighting a war.
    But we have partners in the region. Malian troops have launched 
offensives against al Qaeda along its northern border with Algiers and 
lost as many as 33 troops last summer. African nations are vulnerable 
to a variety of threats: narco-trafficking, piracy and terrorism. Any 
of which could further weaken an already fragile region. So, General 
Ward, I look forward to hearing your testimony and your command's need 
for trainers, forces and resources.
    General Mattis, your leadership of Joint Forces Command comes at a 
time when our troops are engaged more than ever in `joint' operations. 
The branches of our armed services are expected not only to team with 
one another but with allies and host-nation troops, as we have seen 
most recently in the offensive in Marjah. The Committee is interested 
in understanding how Joint Forces Command is preparing our troops to 
operate `jointly' and what steps you believe the Services should be 
taking in this regard. I am also curious about how the rapidly changing 
feedback from the field in Iraq and Afghanistan will be incorporated in 
Joint Command's future doctrinal development.
    You are all highly decorated officers, and I appreciate your 
service and weigh your opinions, requests and predictions heavily. So, 
I look forward to hearing all of your testimonies.
    Thank you, Mr. Chairman.

    Chairman Levin. Thank you very much, Senator McCain.
    We'll start with you, Admiral Stavridis.

   STATEMENT OF ADM JAMES G. STAVRIDIS, USN, COMMANDER, U.S. 
                        EUROPEAN COMMAND

    Admiral Stavridis. Thank you very much, Senator Levin, 
Senator McCain, and all the members of the committee who are 
taking the time to hear from my two very good friends and 
wingmen this morning, General Kip Ward and General Jim Mattis. 
I feel as a Navy Admiral very safe between these two 
distinguished combat veterans.
    I want to thank Congress, I want to thank this committee, 
for the support you give us in all of our operations. It's 
vital and it translates directly to our men and women, and we 
thank you for it.
    I'll be glad to talk about all of the things that were 
raised by the chairman and the ranking member. In Afghanistan, 
I would say that I am cautiously optimistic. I think Secretary 
Gates yesterday in Afghanistan put it very well: We have some 
challenges ahead, but we are seeing some bits and pieces of 
good news. I'll be glad to talk about some of those.
    Senator Levin, I agree completely that we need to focus 
like a laser on trainers for the NATO forces. I'm committed to 
doing that and I'll talk about it as we go along.
    I did want to mention also we're very engaged from a EUCOM 
perspective in the Balkans. We don't talk a lot about that 
these days, but I think we see a real success story emerging in 
the Balkans. If we look back 10 years ago when we had almost 
30,000 U.S. troops in the Balkans, today we're down to about 
1,200, and our allies are working very hard in the Balkans as 
we move toward a safer and more secure area there.
    I'd also like to touch on cyber and some of my concerns 
there, talk a little about Iran and potential threats to 
Europe, touch on our relations with Russia, and then talk a bit 
about some of the initiatives we're undertaking at EUCOM which 
focus on interagency, international, private-public partnering, 
and the use of effective strategic communications.
    Sir, I'll close by saying I represent here 80,000 brave men 
and women from EUCOM. They're all proud to serve. They're all 
volunteers. They thank you for your support.
    Thank you, sir.
    [The prepared statement of Admiral Stavridis follows:]
           Prepared Statement by ADM James G. Stavridis, USN
    Mr. Chairman, Ranking Member McCain, and distinguished members of 
the committee, I would like to thank you for the opportunity to appear 
before you today to share with you the challenges and successes 
achieved by the men and women of both European Command and Allied 
Command Operations. Although I have only been at the helm of these 
Commands for less than a year, I am happy to report we are making great 
progress and we are moving assertively toward stronger partnerships for 
our shared security. Truly, the most important activities we have 
undertaken in the past year have been those in which we worked together 
with our Allies and partners to build their capacity, as well as our 
own, to ensure security in the European theater and defend our homeland 
forward. These kinds of activities demonstrate the three essential 
pillars I believe are necessary for success.
    First, we must understand the military is but one link in the chain 
anchoring our national security. Those of us in uniform are well 
trained and capable of performing a wide range of duties, but many of 
the dangers posed to our national security elicit more than just a 
military response. Instead, they call for a ``whole-of-government'' 
approach that requires partnering with other agencies such as the 
Department of State (DOS) leading diplomacy, U.S. Agency for 
International Development leading development, Department of the 
Treasury, Department of Energy, Department of Homeland Security, and 
other departments and agencies of our Government to ensure we use all 
the means available to ensure our national security. Several U.S. 
Departments and Agencies either have representatives at our 
headquarters in Stuttgart or will have them in place this fiscal year. 
More than a tool or a method, ``Interagency Partnering'' is an 
expanding paradigm at EUCOM and we are intent on serving as a model of 
interagency cooperation.
    Second, not only must we work with our interagency partners, we 
must also cooperate closely with our international partners as well. 
Our aim is to undertake international security cooperation in a way 
that recognizes and leverages the histories, cultures, and languages of 
our allies and partners, and enhances our collective capability.
    Finally, it is important that we employ effective strategic 
communication in everything we do. Our deeds and words should 
communicate clearly and credibly our values and priorities to allies, 
partners, friends, and even enemies.
    Our partnerships in Europe are strong. We share a great deal of 
history and culture based on democratic values. Our own democracy was 
born of the great European thinkers from Plato to Voltaire, and great 
works that shaped our own Constitution, like the Magna Carta. Waves of 
immigrants from Europe have helped build our country, and many of the 
families of those immigrants still have strong ties to societies on the 
European continent. These strong personal transatlantic ties unite us 
in common goals and enduring partnerships.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    During the past year, European Command's 80,000 soldiers, sailors, 
airmen, marines, and civilians have executed many programs, side-by-
side with our allies and partners, which have truly made us ``Stronger 
Together.'' Let me summarize some key European Command accomplishments 
and initiatives:

    <bullet>  Provided predeployment training to thousands of Europe-
based U.S. forces and over 100 North Atlantic Treaty Organization 
(NATO) Operational Mentoring and Liaison Teams slated for deployment in 
Afghanistan
    <bullet>  Provided forces and critical support for the movement of 
equipment and personnel between the Continental United States and the 
Central Command Region in support of overseas contingency operations
    <bullet>  Provided a world class medical center, Landstuhl Regional 
Medical Center, used as the primary trauma facility supporting U.S. 
forces in Europe and the Middle East
    <bullet>  Executed 38 major exercises involving nearly 50,000 U.S., 
allied, and partner nation personnel and 45 partner nations
    <bullet>  Conducted 151 security assistance projects in 19 
countries
    <bullet>  Reorganized to better engage and collaborate with NATO, 
the interagency, academia, the private sector, think tanks, and 
international and nongovernmental organizations
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                progress
    Think of U.S. European Command as part of a bridge: one that spans 
the broad North Atlantic. Our fundamental purpose is to defend the 
United States of America. To do so, we must keep that trans-Atlantic 
bridge strong.
    In a dynamic region, European Command continues achieving success 
by partnering with allies to increase their capacity and ours to 
contribute to international security-enhancing solutions. Below are 
some examples highlighting this approach:
Joint Multi-National Readiness Center
    The Joint Multi-National Readiness Center supports European Command 
and Central Command operations by providing predeployment training to 
Europe-based U.S. forces and NATO Operational Mentoring and Liaison 
Teams slated for deployment to Afghanistan. Currently, the Center 
provides enduring Observer/Controller support to the United States 
Security Coordinator (USSC) Israel to train the Palestinian National 
Security Forces. Joint Multi-National Readiness Center observer/
controllers were also instrumental in the successful predeployment 
training of the Jordanian 2nd Ranger Battalion for operations in 
support of Afghanistan's national elections. We have trained almost 
4,000 soldiers thus far. Through these training efforts, EUCOM enabled 
partner nations in making contributions to the effort in Afghanistan. 
However, we require expanded long-term authorities and funding to 
enhance and continue these efforts.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Georgia Deployment Program-International Security Assistance Force
    Marine Forces Europe directly supports the Republic of Georgia's 2-
year program to deploy Georgian forces alongside Marine Forces to 
Afghanistan. The Georgia Deployment Program-International Security 
Assistance Force will deploy four rotations of a Georgian battalion 
with a Marine Corps Marine Expeditionary Brigade to Afghanistan. As 
capabilities improve, Georgian forces are expected to be able to 
operate independently. By using Georgian shadow instructors Marine 
Forces Europe will create a Georgian training group that will largely 
take over the Partnership Training Program by their fourth rotation.
The National Guard State Partnership Program
    The National Guard State Partnership Program links individual State 
National Guard organizations with a particular European nation. The 
National Guard of Illinois, for example, partners with Poland. The 
State Partnership Program makes large multi-faceted contributions to 
security both within and outside Europe. The 21 European State 
Partnerships undertake a broad range of projects, including a capacity-
building program generating 4 enduring European Command State 
Partnership Program Operational Mentoring and Liaison Teams conducting 
combat operations in Afghanistan. This program has the additional 
benefit of building critical long-term personal and professional 
relationships between the States and European nations because many of 
the same personnel return year after year to train with their 
counterparts.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Support to NATO Response Force
    We are providing personnel to support multiple 2009 training and 
certification events through U.S. European Command. This effort 
enhanced the training and certification of the Land Component Command 
and assisted the NATO Response Force's Joint Logistics Support Group in 
reaching advanced operational capability. This high level of 
operational acumen is key to ensuring the Force maintains the 
deployment capability required to execute its core mission.
Support to Operation Joint Guardian, Kosovo
    The United States' continuing support to NATO's Kosovo Force 
Operation Joint Guardian helps maintain stability in Kosovo and 
advances security progress alongside our NATO and European Union 
partners. European Command supports Kosovo Force through our land 
component, U.S. Army Europe, and leverages National Guard Bureau forces 
to source Task Force Falcon (Multi-national Task Force-East), Regional 
Mentoring and Liaison Teams, NATO Training Teams, elements of the 
Kosovo Force Headquarters, as well as augmenting the Kosovo Force 
Military-Civilian Advisory Division by providing mentors and advisors. 
In June of last year, the North Atlantic Council approved the plan to 
begin a drawdown from Focused Engagement (current force structure) to a 
Deterrent Presence. Accomplishment of Deterrent Presence, which will 
reduce NATO force presence from approximately 14,000 to 2,500, began in 
January 2010 and, based on a coordinated review of political and 
security conditions on the ground may occur in three phases. Today 
Kosovo remains stable and secure--a real allied success, but NATO's 
North Atlantic Council will continue to evaluate further drawdown.
Reduction of U.S. presence in Bosnia-Herzegovina
    European Command has played a significant role in Bosnia's progress 
since the 1995 implementation of the Dayton Accords. At the height of 
Operation Joint Endeavor in 1996, more than 20,000 U.S. servicemembers 
served in Bosnia. The September 2009 deactivation of Task Force Dayton, 
the last U.S. entity operating in Bosnia-Herzegovina, marked a 
significant milestone for U.S. European Command. Less than 20 U.S. 
personnel now remain in Bosnia assigned to the NATO Headquarters-
Sarajevo and the U.S. Balkans National Support Element. European 
Command continues building partnership capacity with Bosnia through 
focused security cooperation initiatives to include International 
Military Education and Training, Foreign Military Financing, Joint 
Contact Team Program familiarizations, and the State Partnership 
Program with Maryland's Army National Guard. In a show of its 
increasing capacity, Bosnia assumed a key leadership role during 
European Command's 2009 Combined Endeavor exercise involving 39 
countries and 1,200 personnel. European Command is also developing a 
bilateral exercise program to further focus on defense reform, Euro-
Atlantic integration, support to Overseas Contingency Operations, and 
capacity building. Because of the progress in Bosnia, the Nation 
contributed consistently to the coalition effort in Iraq between 2005 
and 2008 and will deploy personnel to Afghanistan in the near future.
Multi-National Joint and Interagency Exercises
    The most intensive form of peacetime interaction with our allies 
and partners occurs in the conduct of joint exercises. European Command 
maintained a robust bilateral and multilateral exercise program last 
year, executing 38 major exercises involving nearly 50,000 U.S., 
allied, and partner nation personnel and 45 partner nations. The 
exercises focused on preparing partner nations for ongoing coalition 
operations to include International Security Assistance Force in 
Afghanistan, NATO interoperability, and improving our military 
capability and interoperability with Israel.
    In support of NATO, European Command provided forces for 12 NATO 
and NATO Partnership for Peace events in the Baltics. U.S. Naval Forces 
Europe also executed Exercise Baltic Operations, a longstanding 
multinational maritime exercise including 14 nations focused on 
maritime and amphibious interoperability. In the Balkans, two major 
exercises, Medical Central and Eastern Europe Exercise 2009 and 
Combined Endeavor, discussed above, bolstered partner capabilities and 
eased regional tensions. Medical Central and Eastern Europe Exercise 
2009, U.S. European Command's first large scale exercise in Serbia, 
included 14 nations and focused on medical readiness and disaster 
response. This exercise also supported the U.S. Agency for 
International Development's Preparedness, Planning and Economic 
Security program that has been making Serbian municipalities more 
resilient to crises and disasters.
    Of particular note, European Command conducted a theater-wide 
Exercise, Jackal Stone, a Special Operations Headquarters and Field 
Training Exercise executed in Croatia and distributed locations 
throughout the theater involving more than 10 nations and 1,500 partner 
nation Special Operation Forces personnel. This event, along with other 
special operations exercises and Joint Combined Exchange Training 
events in over 30 countries, directly supported U.S. and partner 
Special Operations Forces readiness and contributions to International 
Security Assistance Force and other endeavors.
    European Command continues a high level of engagement with Israel, 
conducting 500+ theater security cooperation events annually and 
chairing four bi-lateral, biennial conferences spanning planning, 
logistics, exercises, and interoperability. The U.S.-Israel exercise 
portfolio also includes eight major reoccurring exercises. European 
Command leadership and staff maintain uniquely strong, recurring, 
personal and direct interactions with counterparts on the Israel 
Defense Force. These regular and direct relationships have paid 
dividends as the placement of the AN/TPY-2 radar in Israel resulted in 
a dramatic uptick in both senior level and operator level interaction. 
European Command Headquarters executed Austere Challenge 2009, the 
premier joint force headquarters exercise in the European Command 
Theater, with a crisis action planning phase in January 2009 and an 
operations phase in May 2009.
    Building on the success from Southern Command's exercise Blue 
Advance 2008, European Command benefitted from the participation of an 
Integration Planning Cell with representatives from the U.S. Department 
of Agriculture, the Department of Justice, and the U.S. Agency for 
International Development. The Department of State's Office of the 
Coordinator for Reconstruction and Stabilization led the Integration 
Planning Cell, which also featured the first-time participation of the 
newly formed Advance Civilian Team, which was colocated with EUCOM's 
Joint Task Force headquarters. Together, the Integration Planning Cell 
and Advance Civilian Team comprised the largest interagency involvement 
to date in any Combatant Command exercise. The benefits of this 
structure are clear: most real-world challenges require an interagency 
approach to solve and our robust exercise program reflects this 
understanding.
    Austere Challenge 2010 will feature multiple event-driven scenarios 
requiring multiple joint task forces and will involve a Combined Joint 
Air Coordination Center led for the first time by the French Air Force. 
On a smaller scale, Flexible Leader is a Command Post Exercise, 
focusing on Foreign Consequence Management and Humanitarian Assistance/
Disaster Relief planning and operations, and strengthening our ``whole-
of-government'' approach through engagement with various U.S. agencies 
as well as partner nations and nongovernmental organizations.
    None of these events would be possible without Commander Exercise 
Engagement and Training Transformation Funding. The support from Joint 
Forces Command Joint Warfighting Center is also a keystone to this 
command's capability to plan, manage, and execute these challenging 
joint exercises. In addition to the extensive engagement European 
Command has with partner nations, there are additional major projects.
Logistical Support to Contingency Operations from Spain
    In support of ongoing overseas contingency operations, European 
Command continues providing critical coordination and support for the 
movement of key U.S. equipment and personnel between the Continental 
United States and the Central Command region.
Exercising Nuclear Command and Control
    In May 2009, the Joint Staff conducted a Staff Assessment Visit on 
the European Command Joint Operations Center and Joint Nuclear 
Operations Center, and the Joint Staff inspectors rated both centers' 
performance as ``excellent,'' a repeat from last year's positive 
assessment.
Assistance to Turkey
    Increased intelligence sharing with the Turkish General Staff has 
increased the effectiveness of Turkish cross-border counterterrorism 
operations in Northern Iraq, leading to more precise Turkish action 
that reduces potential collateral damage and increases stability in the 
region.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Humanitarian Assistance Programs
    European Command's Humanitarian Assistance programs directly 
benefit the Nations where they are executed and consist of the 
Humanitarian and Civic Assistance Program, the Humanitarian Assistance-
Other Program, and Humanitarian Assistance Program-Excess Property.
    Projects funded through these resources complement U.S. Agency for 
International Development efforts, enhance regional security 
cooperation, and advance U.S. interests throughout the region. They 
also bolster a country's own capability to respond to disasters, 
thereby diminishing the need for future U.S. involvement, and provide 
an example of the value of a military during times of peace. While the 
European Command Humanitarian Assistance budget is relatively small, it 
has a disproportionately high and positive impact. Last year, the 
command executed over $9 million in Humanitarian Assistance Project 
funding for 151 security assistance related projects in 19 countries.
Whole-of-Government/Whole-of-Society Approach
    Our  Nation's  success  in  developing  conventional  combat  power 
 has  driven  our adversaries to other forms of warfare, necessitating 
a whole-of-government/whole-of-society approach. Interagency and 
international military partnering is the ``heart of the enterprise'' 
for this command.
    Embassy Country Teams, a perfect example of interagency partnering 
themselves, are our primary engagement entities for the 51 countries in 
our region. At the theater or regional level, however, the Geographic 
Combatant Commands can serve as a platform for hosting interagency 
partners wishing to coordinate their activities with the U.S. military. 
European Command presently hosts interagency representatives from the 
Department of State, Department of the Treasury, Agency for 
International Development, Federal Bureau of Investigation, Immigration 
and Customs Enforcement, and the Global Center for Security 
Cooperation; we will soon add representatives from Department of 
Homeland Security, Customs and Border Protection, Department of Energy, 
and the Drug Enforcement Administration. This cooperation helps us 
interact with allied and partner militaries who perform many 
nontraditional military activities: patrolling borders; responding to 
natural disasters; providing coastal security; and performing civilian 
air traffic control.
    We recently changed the organizational structure of European 
Command to better facilitate integration of our interagency partners. 
Starting at the top, we established a civilian deputy, an office now 
filled by Ambassador Kate Canavan, who in addition serves as European 
Command's Political Advisor. Additionally, European Command's newly 
formed J9 Interagency Directorate engages and collaborates with 
international and nongovernmental organizations, academia, the private 
sector, think tanks, and military organizations. We gain many 
advantages by leveraging the knowledge and fresh thinking of academics 
and business professionals, and international organizations and 
nongovernmental organizations have capabilities, access, and 
credibility in areas where the military does not.
    For example, we are in the very early stages of pursuing a whole-
of-government/whole-of-society approach in addressing regional 
narcotics and terrorism threats in Europe and Eurasia, similar to the 
interagency effort led by Joint Interagency Task Force-South in Key 
West. This would synchronize multiple combatant commands (European 
Command, Central Command, Africa Command) and the multitude of agencies 
working border control, counternarcotics, counterterrorism and 
trafficking of weapons of mass destruction, creating synergies that 
would add considerable capability and trust for our international 
partners while defending our Homeland forward.
                  european command service components
    U.S. Army Europe, U.S. Marine Corps Forces Europe, U.S. Naval 
Forces Europe, U.S. Air Forces in Europe, as well as European Command's 
functional subordinate unified command for special operations, Special 
Operations Command Europe, are responsible for supporting our Theater 
Campaign Plan and implementing our Theater Security Cooperation 
programs across the region. The Service components provide the 
capabilities necessary to build military capacity among our partners 
and allies, conduct military operations, and promote vital national 
security interests. Reductions in their forces imposed by budget 
constraints necessarily diminish what they can accomplish.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    With over 69,000 Active-Duty, Reserve, and civilian employees 
operating in 10 main Army communities, U.S. Army Europe leads and 
supports 11 brigades postured in geographically-separated locations 
throughout Central Europe, from Mons, Belgium to Livorno, Italy. U.S. 
Army Europe provides key tactical and operational forces to include 
full spectrum combat units and strategic enablers for European Command, 
Operation Iraqi Freedom, Operation Enduring Freedom, and the 
International Security Assistance Force. The command currently has 25 
percent of its soldiers operationally deployed but still continues to 
lead daily to build partner capacity and execute Theater Security 
Cooperation in support of USEUCOM's strategy of active security and 
global requirements. U.S. Army Europe directly participates in 
cooperative efforts with over 80 percent of the countries that have 
forces actively serving in partnership with the United States in 
Overseas Contingency Operations.
Activities with Allies and Partners
    U.S. Army Europe's Joint Multinational Training Command in Germany 
is pivotal to the Building Partner Capacity mission. Joint 
Multinational Training Command builds expeditionary competencies and 
increased interoperability between partner nations' militaries through 
collective multinational training and through certifying U.S. and 
coalition forces for deployments to International Security Assistance 
Force, Operation Iraqi Freedom, and Kosovo Force missions. 
Additionally, Joint Multinational Training Command has qualified over 
500 soldiers from 21 nations in Counter-Improvised Explosive Device 
training and conducted mission rehearsal exercises for International 
Security Assistance Force North, South, and Central Regional Commands.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    U.S. Army Europe leads Task Force-East as a European Command 
vehicle for fulfillment of the Theater Security Cooperation mission 
requirements set forth by the Defense Department and to reaffirm the 
U.S. commitment to our Black Sea allies. The command continuously 
maintains Task Force-East facilities and support services, and can 
quickly transition the facilities to support an increased posture for 
all European Command components and partners. Task Force-East provides 
important training opportunities not only for the U.S. military, but 
also to new Allies close to their forces' home station. U.S. Army 
Europe's forward presence in Romania and Bulgaria continues to 
facilitate NATO efforts to build and maintain an Alliance for the 21st 
century.
    This year, U.S. Army Europe participated in 26 major exercises in 
22 different countries with 34 participating nations, of which 6 were 
in direct support to U.S. Africa Command. These exercises enabled U.S. 
Army Europe to meet European Command's priority of sustaining the 
relevance of, and U.S. leadership within, NATO; assisting NATO 
countries with the capability to conduct out-of-area operations and 
ensuring a successful transition of U.S. Africa Command into a fully 
operational combatant command. U.S. Army Europe also acted as the lead 
organization in Austere Challenge 2009, a comprehensive command post 
exercise involving over 3,400 European Command forces, which certified 
European Command's Combined Joint Task Force.
    U.S. Army Europe continues supporting Operations Iraqi Freedom and 
Enduring Freedom. In 2009, over half of U.S. Army Europe's units 
trained and deployed to or returned from these operations. Currently, 
the 1st Armored Division Headquarters, 173rd Airborne Brigade Combat 
Team, and 2nd Stryker Cavalry Regiment are deployed in support of 
Overseas Contingency Operations. V Corps inactivation was delayed in 
order to deploy to Afghanistan, where it currently forms the core of 
International Security Assistance Force's 3-star level command and 
control headquarters.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    U.S. Army Europe also continues contributing significant 
operational support and sustainment forces in support of Overseas 
Contingency Operations in the U.S. Central Command and U.S. Africa 
Command region. Additionally, the 2nd Stryker Cavalry Regiment provided 
rotational forces for Task Force East in Romania and Bulgaria while at 
the same time supporting Denmark in their train-up for NATO Response 
Force-14. The 172nd Brigade Combat Team and 2nd Brigade, 1st Armored 
Division, which recently reflagged as the 170th Brigade Combat Team, 
redeployed from Iraq and are preparing for possible future rotations 
while completing their reset and dwell.
Activities Conducted Unilaterally
    U.S. Army Europe continues executing its title 10 responsibilities 
through transformation planning initiatives in support of modernization 
and efficient basing. This past year, U.S. Army Europe transformed into 
a Theater Army functional staff configuration. This restructuring will 
result in European Command losing one of its Full Spectrum Joint Task 
Force/Joint Forces Land Component Command capable headquarters. This 
loss, combined with significant force requirements in support of 
Overseas Contingency Operations outside the European Command region, 
makes retaining one Tactical Intermediate Headquarters and four Brigade 
Combat Teams critical to U.S. Army Europe's and European Command's 
mission. Without the four Brigade Combat Teams and one tactical 
intermediate headquarters capability, European Command assumes risk in 
its capability to conduct steady-state security cooperation, shaping, 
and contingency missions. Deterrence and reassurance are at increased 
risk.
    While U.S. Army Europe is transforming, it is also optimizing its 
footprint and gaining basing efficiencies by consolidating across six 
Main Operating Bases in Germany and Italy by 2015. In support of this 
initiative, this past year U.S. Army Europe returned eight sites to 
host nation control. U.S. Army Europe projects a decrease in 1,400 
soldiers this year as it continues to consolidate forces.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    With only a small service component headquarters, Marine Forces 
Europe very effectively leverages the capabilities of the Marine Corps 
in support of European Command objectives. Marine Forces Europe's 
engagement in the region follows three lines of operation: (1) building 
partner capacity, particularly through combined exercises; (2) 
utilizing expeditionary forces to contribute to conventional 
deterrence; and (3) supporting operations in Afghanistan. The primary 
focus of Marine Forces Europe Theater Security Cooperation activities 
is defense sector reform and professionalization of partner nations' 
militaries in the Caucasus. The primary focus of Marine Forces Europe 
Theater Security Cooperation activities is defense sector reform and 
professionalization of partner nations' militaries in the Caucasus.
Collective Training Programs
    Engagements in Task Force East, Bulgaria and Volos, Greece
    Marine Forces Europe, in coordination with U.S. Naval Forces 
Europe, employed over 2,000 marines and sailors of the 22d Marine 
Expeditionary Unit between May and June 2009 on a scale not seen since 
Operation Iraqi Freedom.
    Maritime Prepositioning Force exercise, Loyal Midas
    Loyal Midas improved prepositioning equipment in support of 
expeditionary operations; a core competency. Loyal Midas experimented 
with procedures for tracking offloaded cargo from a prepositioning ship 
using new wireless technologies, and significantly improved European 
Command's ability to rapidly deploy and assemble expeditionary forces 
in the region.
    Marine Corps Prepositioning Program-Norway
    Using this program, the Marine Corps worked with the Norwegian 
Defense Staff and Headquarters U.S. Marine Corps, and the European 
Command staff to develop a plan that enhances access to prepositioned 
equipment ashore. Participants analyzed joint U.S.-Norwegian 
agreements, and initiated a long-range plan for instituting an 
operating concept for the prepositioning facility.
    Georgia Deployment Program-International Security Assistance Force
    This program supports the sustained deployment of a Georgian 
infantry battalion to Afghanistan to operate as part of the Marine 
Expeditionary Brigade for 2 years. The initial deployment occurs this 
coming spring.
    Coalition Embarkation Support
    Personnel from the Marine Forces Europe Strategic Mobility section 
used this European Command-led International Security Assistance Force 
effort to familiarize partner nations with U.S. embarkation procedures. 
Partner nation self-deployment to Afghanistan or other regional 
contingencies is the overall goal of the program.
    Marine Forces Europe is planning for a company-sized rotational 
force to deploy to Task Force East this summer. This force, which is a 
proof of concept for the Marine Corps' Security Cooperation Marine Air 
Ground Task Force, plans to accomplish in only 90 days what previously 
required a full year of Theater Security Cooperation activity by 
forward-deploying and utilizing the forward operating site in Romania.
    Force Posture
    Despite these successes, the lack of a sustained Amphibious Ready 
Group/Marine Expeditionary Unit in the European Command region curtails 
engagement opportunity with Allies and partners and detracts from 
active deterrence. Resuming a sustained presence in the European 
Command region would deter adversaries and assure allies and partners 
of our commitment to stability in Europe.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    With more than 8,000 Active-Duty, Reserve, and civilian employees 
operating from 5 main installations supporting rotational surface, air, 
submarine and expeditionary forces, U.S. Naval Forces Europe conducts 
the full range of maritime operations and Theater Security Cooperation 
in concert with coalition, joint, interagency and other partners to 
advance security and stability in Europe. NAVEUR continues to 
strengthen relationships with enduring Allies and emerging partners 
while maintaining naval leadership and combat readiness. U.S. Naval 
Forces Europe leverages its maritime expertise to support and improve 
regional maritime safety and security. Through ballistic missile 
defense, anti-submarine warfare, expeditionary force engagement, a 
continuing surface presence, and other activities, U.S. Naval Forces 
Europe enhanced maritime safety, security and cooperation throughout 
the European Command region in 2009.
    Theater Security Cooperation and other Activities with Allies and 
        Partners
    Through military-to-military activities demonstrating our naval 
commitment, U.S. Naval Forces Europe promotes maritime domain 
awareness, maritime security operations, security assistance, NATO 
interoperability, and information sharing.
    Taken together, U.S. Naval Forces Europe's anti-submarine warfare 
program, Ballistic Missile Defense initiatives, and partner capacity 
building efforts are improving maritime stability and ensuring U.S. and 
partner access to the maritime domain. Theater Security Cooperation 
highlights include:
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Afloat Ballistic Missile Defense
    A survivable sea-based ballistic missile defense system is an 
important component of the phased adaptive approach to defend the 
Homeland, as well as allies and partners in Europe and Eurasia. U.S. 
Naval Forces Europe is developing the necessary ballistic missile 
defense command and control architecture while mitigating 
vulnerabilities to the sea-based ballistic missile defense network with 
air and undersea capabilities. A U.S. Naval Forces Europe Flag Officer 
commanded Juniper Cobra 2010, a joint missile defense exercise with 
Israel, incorporating all aspects of both land and sea-based missile 
defense and stands as a hallmark of the future of our ballistic missile 
defense program.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Enhanced Theater Anti-Submarine Warfare Capability
    In partnership with our allies, U.S. Naval Forces Europe continues 
upgrading procedures, training and qualifications to enhance theater 
anti-submarine warfare capability through Commander, Task Force 69.
    Explosive Ordnance Disposal
    Naval Forces Europe's Explosive Ordnance Disposal Mobile Unit Eight 
provides extensive military-to-military training programs with the 
partner nations' expeditionary forces and provides explosive ordnance 
disposal support to International Security Assistance Force 
contributors. In addition to supporting U.S. and NATO exercises 
throughout the region, the unit provided real-world explosive ordnance 
disposal to several European nations.
    Response to Piracy
    Maritime Expeditionary Security Detachment provides shipboard 
security teams to U.S. military support vessels, participates in 
exercises and contributes to theater security cooperation engagements.
    Construction Support
    Naval Construction Forces (Seabees) completed a diverse array of 
construction projects emphasizing humanitarian civil assistance and 
military-to-military engagements as well as construction support to 
exercises Baltic Operations, Medical Training Exercise in Central and 
Eastern Europe, Seabreeze, and Jackal Stone. The Seabees completed 
construction of operation centers, training infrastructure, and quality 
of life projects, including a Military Operation Urban Terrain facility 
used for Close Quarters Combat training in Zadar, Croatia, and 
renovation of the Padarevo Kindergarten facility in Padarevo, Bulgaria.
    Maritime Domain Awareness
    U.S. Naval Forces Europe-Sixth Fleet continues actively developing 
and validating advanced maritime domain awareness procedures. Several 
maritime domain awareness exercises, including Autumn Blitz 2009, were 
conducted with NATO's Maritime Component Command-Naples to advance the 
interoperability and information processing necessary for effective 
planning and conduct of maritime operations, such as NATO's Operation 
Active Endeavour, between NATO and U.S. commands.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Eurasia Partnership Capstone
    In 2009, U.S. Naval Forces Europe's primary Black Sea-Eurasia 
region engagement vehicle took place at Souda Bay, Crete. Personnel 
from 11 nations participated.
    Port Visits
    Ship visits demonstrate U.S. Naval Forces Europe's commitment to 
improving maritime safety and security and strengthen partner 
relationships through training activities with host nation militaries. 
For example, following Joint Warrior 2009, the three participating U.S. 
ships conducted Theater Security Cooperation port visits in six 
countries.
    Exercises with Allies and Partners
    U.S. Naval Forces Europe participated in 19 exercises with 25 
allies and partners covering the full range of maritime activity. 
Highlights include:

        <bullet> Exercise Baltic Operations 2009: U.S. Naval Forces 
        Europe-Sixth Fleet sponsored and executed the 37th annual 
        Baltic Operations with 43 ships from 12 participating nations. 
        This European Command-directed multinational exercise enhanced 
        maritime safety and security in the Baltic Sea by increasing 
        interoperability and cooperation among regional allies.
        <bullet> Phoenix Express 2009: Members of the U.S. Naval Forces 
        Europe-Sixth Fleet Staff, USS Mount Whitney and USS Robert G. 
        Bradley along with several European and North African navies 
        conducted the 2-week Exercise Phoenix Express 2009, leveraging 
        the capability of European and African partnerships in order to 
        enhance stability in the Mediterranean region through increased 
        interoperability and cooperation.
        <bullet> Exercise Frukus 2009: U.S. Naval Forces Europe-Sixth 
        Fleet staff and USS Klakring participated in Exercise Frukus 
        2009 (France, Russia, United Kingdom, and United States). This 
        confidence-building exercise focused on resuming the maritime 
        partnership between NATO's major Navies and the Russian 
        Federation Navy.
        <bullet> Reliant Mermaid 2009: USS Stout and members of the 
        U.S. Naval Forces Europe-Sixth Fleet staff participated in the 
        trilateral maritime search and rescue exercise Reliant Mermaid 
        2009 with maritime forces from Turkey and Israel. This annual 
        exercise contributed to overall joint readiness in response to 
        possible humanitarian assistance efforts or maritime search and 
        rescue operations in the Eastern Mediterranean Sea and helped 
        improve engagement between Turkey and Israel, key U.S. allies 
        and partners in the region.
        <bullet> Way ahead: Our efforts will remain focused on the 
        Black Sea-Eurasia and eastern Mediterranean regions and follow 
        European Command Country Campaign Plans. U.S. Naval Forces 
        Europe is also embarking on an effort to establish a 
        Mediterranean Sea Fleet Commanders Forum to enhance 
        interoperability among capable allies and partners and increase 
        efficiencies in the international military partnership realm.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    With more than 42,000 Active-Duty, Guard, Reserve, and civilian 
employees operating from 7 main installations supporting 8 wings and 80 
geographically separated locations, U.S. Air Forces, Europe is a key 
force provider of tactical combat air forces, tanker, and airlift 
assets for European Command, Operations Iraqi Freedom (OIF), Enduring 
Freedom (OEF), and the International Security Assistance Force. 
Crucially, it also provides a large number of forces for building 
partnership capacity on a daily basis, with approximately 740 annual 
events that promote enduring relationships and increase security within 
and beyond Europe.
    Additionally, U.S. Air Forces in Europe provides full-spectrum air, 
space, and cyberspace capabilities promoting regional stability through 
focused theater engagement and supporting combat operations, 
humanitarian assistance, and Ballistic Missile Defense. U.S. Air Forces 
in Europe is also European Command's lead agent for personnel recovery, 
theater air mobility, and aeromedical evacuation. They execute the 
EUCOM mission with forward-based air power to provide forces for global 
operations, ensure strategic access, assure allies, deter aggression, 
and, key to our approach overall, build partnerships.
    Provide Forces for Global Operations
    U.S. Air Forces in Europe's top priority to partner with the joint 
and combined team to win today's fight. They do this by providing 
expeditionary forces as well as a warfighting headquarters that can 
plan, deploy, command, control, and coordinate air, space, and 
cyberspace capabilities across the full range of military operations.
    Ensure Strategic Access
    Forward basing of air assets and the establishment of mobility hubs 
in the European theater ensure strategic access for operations in 
Europe as well as to the U.S. Central Command and U.S. Africa Command 
regions. U.S. Air Forces in Europe maintains robust support for U.S. 
Transportation Command's enroute locations, enabling global operations 
by permitting the full spectrum of passenger and cargo movement through 
bases throughout Europe. In addition, the command has enhanced 
strategic flexibility by opening up new access points through 
engagement with new NATO partners.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The activation of the Strategic Airlift Consortium at Papa Air 
Base, Hungary exemplified this, with NATO members Bulgaria, Estonia, 
Hungary, Lithuania, the Netherlands, Norway, Poland, Romania, Slovenia 
and the U.S., as well as Partnership for Peace nations Finland and 
Sweden. The result was the creation of a 12-member Heavy Airlift Wing 
consisting of 3 C-17 Globemaster IIIs. The Strategic Airlift Consortium 
is a watershed event in international military cooperation.
    Assure Allies and Deter Aggression
    U.S. Air Forces in Europe continues building and sustaining a 
credible capability to dissuade aggressors. Its interoperability with 
alliance partners through exercises and operations remains crucial for 
ensuring primacy of the Alliance and the U.S. leadership role.
    U.S. Air Forces in Europe is EUCOM's lead agent for Integrated Air 
and Missile Defense. It operates a Command, Control, Battle Management, 
and Communication suite to provide the commander with Ballistic Missile 
Defense situational awareness, early warning, and possible defensive 
countermeasures. The suite is designed to be interoperable with NATO 
systems in order to support the Presidential decision to employ a 
Phased Adaptive Approach to the Ballistic Missile Defense of Europe.
    NATO remains the primary security institution in Europe. Forward 
U.S. presence and interoperability with Alliance partners is crucial 
for ensuring primacy of the Alliance and a U.S. leadership role. The 
planned basing of new systems such as Global Hawk, 5th generation 
fighter capabilities on schedule with our allies, and the potential for 
a future Light Attack/Armed Reconnaissance aircraft capability in 
theater will provide opportunities for the United States to display its 
commitment and resolve, provide critical tools for engagement, and 
enhance allied and partner contributions to global operations. In 
accordance with NATO's strategic concept, the U.S. Air Forces in Europe 
fulfills the U.S. commitment to allied extended nuclear deterrence with 
Dual Capable Aircraft, and personnel who ensure the custody, safety, 
and reliability of U.S. nuclear weapons in Europe.
    Build Partnerships
    In a program with long-term benefit, U.S. Air Forces in Europe's 
efforts build partner capabilities, increase their ability to 
counterterrorism, protect homelands and common interests, and counter 
emerging threats. Their ``Building Partnerships'' program contributes 
to the building of key relationships, promoting U.S. strategic 
interests, providing for essential peacetime and contingency access and 
enroute infrastructure, and improving information exchange and 
intelligence sharing. Within the past 12 months, the command conducted 
approximately 740 building partnership events with 51 partners and 
allies, including theater security cooperation events, exercises, 
aerial events, and military-to-military engagements. In addition to 
partner engagement, they actively engage, in accordance with European 
Command direction, to advance regional stability.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Exercises with Allies and Partners
    U.S. Air Forces, Europe develops increased Alliance capability to 
support Overseas Contingency Operations through participation and 
leadership in 20 combined exercises and operations, including Unified 
Engagement, Medical Training Exercise in Central and Eastern Europe, 
Combined Endeavor, Austere Challenge, Juniper Cobra, and the Baltic 
Region Training Exercises, as well as the Tactical Leadership Program. 
Key cross-border programs include:

        <bullet> Baltic States Air Capability Development. U.S. Air 
        Forces, Europe led a series of four-nation symposia with 
        Latvia, Lithuania, and Estonia to develop the basis for 
        establishing fundamental air combat capabilities leading to 
        ministerial-level buy-in of a concept of operations and a long-
        term strategy for aviation excellence and eventual self-
        reliance.
        <bullet> Enhancing Nordic States interoperability with NATO. In 
        2009, U.S. Air Forces in Europe led and fostered efforts to 
        enable the Swedish and Finnish Air Forces to participate in 
        NATO and coalition air operations.
        <bullet> Developing capability of ``near-4th generation 
        fighter'' nations. U.S. Air Forces, Europe placed strong 
        emphasis on helping these partner nations transition smoothly 
        to 4th-generation operations. To support Poland's new force of 
        48 F-16s, a very successful sister-wing relationship between 
        the 52nd Fighter Wing, Spangdahlem AB, Germany and the Polish 
        AF was established. It is now instrumental in spreading 
        lessons-learned and best practices, as the Polish AF strives 
        toward its goal of expeditionary F-16 operations. Additionally, 
        deployments to Bulgaria and Romania fostered those countries' 
        efforts to adopt NATO-interoperable tactics, techniques, and 
        procedures.
        <bullet> Build/Sustain Joint Terminal Attack Controllers 
        capability. Working to increase the number of Joint Terminal 
        Attack Controllers available to deploy to International 
        Security Assistance Force, U.S. Air Forces in Europe trained 25 
        new partner nation Controllers in 2009 and estimates training 
        30 more in 2010. Work with Poland will provide an organic 
        regional Air Ground Operations School training capability. 
        Continuing training relationships with French pilots enable 
        them to train with native English speakers prior to deploying 
        into Afghanistan.

    U.S. Air Forces in Europe's forward-based forces provide the Nation 
a 3-for-1 efficiency by providing forces for global operations, 
promoting regional stability (with capabilities to deter aggressors and 
assure allies), and building partnerships. Unfortunately, the reduction 
of 24 fighter aircraft will significantly limit the resources available 
for these activities. As we move forward, we must ensure that our 
forward-based posture is adequate to support our Nation's strategic 
objectives.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Special Operations Command, Europe, comprised of more than 1,600 
Active-Duty, Reserve, and civilian employees operating from two main 
locations, remains the preeminent U.S. Special Operations Force 
provider to the International Security Assistance Force; provides such 
forces for Operations Iraqi Freedom and Enduring Freedom; contributes 
significantly to the development of allied and partner special 
operations forces; and stands, prepared and ready, to defend against 
transnational threats and rapidly respond to unforeseen contingencies 
within the EUCOM Area of Responsibility.
    Special Operations Command, Europe's capacity building efforts 
relies on three elements: the Partner Development Program, support to 
the NATO Special Operations Forces Coordination Center--now evolving 
into the NATO Special Operations Headquarters--and deployments in 
support of NATO International Security Assistance Force operations. 
Special Operations Command, Europe remained heavily engaged throughout 
2009, conducting 29 Joint Combined Exchange Training events, 8 
bilateral training activities, 9 military-to-military engagements, and 
6 counternarcoterrorism missions in 18 countries. Along with these 
activities, the Command conducted numerous staff and key leader 
engagements. These events focused on developing more capable and 
professional American and Allied Special Operations Forces, while 
building the relationships required to increase the support and 
commitment of European political and military leadership.
Activities and Exercises with Allies and Partners:
    Partner Development Program
    Partner Development Program allows Special Operations Command, 
Europe to link disparate programs and training venues to build partner 
Special Operations Forces capacity. It focuses on those allies and 
partners that demonstrate willingness to deploy Special Operations 
Forces in support of NATO operations in Afghanistan and the capability 
over time to sustain their increased Special Operations Forces 
capacity. Poland, Romania, Hungary, and Lithuania are a few of the 
countries that have participated in this program and have deployed 
Special Operations Forces for the benefit of the alliance.
    The Command's exercise program exemplifies Partner Development 
Program's utility. The annual Special Operations Command, Europe 
capstone exercise, Jackal Stone 2009, brought together approximately 
1,500 Special Operations Forces servicemembers from 10 countries--9 out 
of 10 currently contribute Special Operations Forces to International 
Security Assistance Force operations, or have indicated a willingness 
to do so in the future.
    Special Operations Command, Europe Support to the NATO Special 
        Operations Headquarters
    The second critical element of American Special Operations Forces 
capacity building objectives in Europe is Special Operations Command, 
Europe support to the NATO Special Operations Headquarters. The NATO 
Special Operations Headquarters, now being established from the NATO 
Special Operations Forces Coordination Center, is already making 
significant contributions to Special Operations Command, Europe and 
Allied efforts by developing common NATO Special Operations Forces 
standards and encouraging allied integration.
    Special Operations Command, Europe Support to International 
        Security Assistance Force
    Since 2007, Special Operations Command, Europe has maintained a 
Special Operations Task Group (one U.S. Special Operations Company and 
associated staff officers) under NATO command in Afghanistan, separate 
from Operation Enduring Freedom. Special Operations Command, Europe 
deployments to International Security Assistance Force also showcase 
``best practices'' to our Special Operations Forces partners and 
encourage equally capable Special Operations Forces allies to mentor 
other developing partners.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    As a direct result of Partner Development Program and NATO Special 
Operations Headquarters initiatives, European national Special 
Operations Forces contributions to International Security Assistance 
Force have steadily increased providing strategic relief for already 
committed U.S. and allied Special Operations Forces. Special Operations 
Command, Europe, through European Command, Special Operations Command, 
and the Department of Defense, continues to work with the Department of 
State and Congress to develop the mechanisms necessary to advance to 
the next stage of partnership cooperation.
    Defense Against Transnational Threats
    Special Operations Command, Europe contributes to American, Allied, 
and partner nation efforts to defend against transnational threats 
through sharing information, building capacity, reinforcing strategic 
communications messages, and, if required, conducting or supporting 
kinetic special operations. For example, throughout 2009, Special 
Operations Command, Europe sponsored a weekly video teleconference, 
allowing Department of Defense and other Government agencies from 
around the globe to share intelligence and evidentiary information that 
closed intergovernmental and international seams and synergized law 
enforcement and military operations against complex non-state global 
networks.
    Preparation for Contingency Operations
    Though the European continent is relatively stable, it has numerous 
potential flashpoints from the Balkans to the Caucasus. In 2010, the 
Command plans to increase regional security through 36 different 
engagement events with 30 countries. The Partner Development Program 
will begin to focus on filling collective rotary wing aviation gaps, 
combining efforts with Department of State to take a lead role in the 
development of interoperable Special Operations Forces aviation 
capacity.
                               challenges
Afghanistan
    Of the 43 nations contributing forces to the International Security 
Assistance Force besides the United States, 80 percent of them (36 
nations) come from the European Theater and those 36 nations represent 
approximately 42 percent of the coalition's personnel. Many nations are 
making particularly large contributions of forces and have suffered 
high casualty rates relative to their populations. Our partners 
understand the importance of this mission and they are willing to send 
their sons and daughters in harm's way alongside our own to bring 
peace, security, and prosperity to the people of Afghanistan. Many of 
these nations wish to contribute more capability and other nations have 
the will to join the International Security Assistance Force but lack 
the capacity to do so. Within the European Theater itself, European 
Command's primary focus is to lend whatever support it can to these 
other nations as they seek to contribute to security and stability 
efforts in Afghanistan. Within the framework of contributing to 
international efforts in Afghanistan, and within the boundaries and 
authorities set by law and regulation and by international agreements, 
this support involves providing training, equipment, logistical 
assistance, and personnel augmentation to nations that desire to 
contribute to the International Security Assistance Force.
Terrorism in Europe
    Our role in the fight against transnational terrorism in the region 
is primarily one of engagement and intelligence sharing. Terrorist 
networks use Europe principally to recruit fighters, garner financial 
and logistic support, and provide sanctuary. They cooperate closely 
with criminal networks and engage in numerous illegal activities as 
fund raising mechanisms. Well-established and commendable European 
civil liberties and the loosening of border controls provide 
opportunities for terrorist support and logistic activities. 
Nonetheless, Europe is not immune to al Qaeda affiliated terror attacks 
or the threat of them. Al Qaeda has consistently and recently stated a 
desire to strike directly against our European allies. The reverse flow 
of foreign fighters out of Iraq and Afghanistan coupled with the bona 
fides and experience these fighters will have gained there may increase 
the terror threat in Europe in the future.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The possibility of a terrorist attack using weapons of mass 
destruction adds another dimension. Al Qaeda has consistently striven 
to incorporate weapons of mass destruction into their attacks and the 
majority of the world's nuclear weapons are within the European 
Command's area of responsibility. The security of these weapons and 
weapons material is a significant aspect of European Command's efforts 
to counter weapons of mass destruction.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The biggest impact we can have on terror networks in Europe is 
through enabling and partnering with our friends and allies. A good 
example of this is our intelligence sharing with Turkey regarding 
Kurdistan Workers' Party (PKK) terrorists. In addition to partnering 
with other nations in Europe, we are also closely partnering with other 
arms of the U.S. Government, where appropriate, to ensure all the 
levers of our national power are applied against these networks in a 
coordinated fashion.
Potential Regional Conflicts
    In spite of European integration, European Command continues to 
face an environment in fluid transition, and we are coping with the 
insecurity associated with 21st century challenges and unsolved 20th 
century security problems. The outbreak of conflict between Georgia and 
Russia served as a reminder that war has not disappeared from the 
European Command Theater.
    Secessionist pressures, unresolved or suspended conflicts, and 
ethnic and religious tensions make European Command's Black Sea and 
Eurasia regions the most conflict-plagued area along the Euro-Atlantic 
perimeter. Russia's North Caucasus remains an area of persistent 
conflict. Armenia and Azerbaijan are at a stalemate over Nagorno-
Karabakh. The South Ossetia and Abkhazia regions of Georgia are a 
continuing source of tension between Georgia and Russia, the more so 
given the Russian military presence in those regions and Russian 
recognition of their independence from Georgia. Little progress has 
been made toward a settlement of the Transnistrian conflict, which 
divides Moldova and hinders solely needed economic development. 
Conflict persists between Israel and Palestinian groups. The sources, 
complexities, and significant tertiary effects of these regional 
conflicts require an integrated interagency approach in concert with 
our European partners and security organizations.
Russia
    The complexities of managing a military-to-military relationship 
with Russia are high. On one hand, there are many areas of potential 
cooperation and partnership, including Afghanistan, arms control, 
counterterrorism, counterpiracy, counternarcotics, and eventually 
missile defense. On the other hand, many of our allies and friends in 
the region remain concerned about Russian actions, including the 
conflict with Georgia in the summer of 2008, exercises on their borders 
like the Zapad series in 2009, and Russia's continuing suspension of 
implementation of the Conventional Armed Forces in Europe Treaty.
    Working with Russia is about balance and seeking to find the 
potential for cooperation, while maintaining an honest and open 
dialogue about all aspects of our relationship, including where we 
disagree. While a great deal of engagement with Russia is handled 
either by State Department in the diplomatic realm or directly by the 
Joint Staff and Office of the Secretary of Defense, we at European 
Command are ready to pursue military-to-military communication, 
engagement, and even training and operations with Russia where and when 
appropriate.
Energy Security
    A massive amount of energy is produced in or transits through 
European Command's region. Russia, Azerbaijan, Norway, and other 
countries produce large amounts of hydrocarbons. Approximately 3 
million barrels of oil transit the Bosporus and the Dardanelles each 
day.
    European Command is and must be a major participant in the 
interagency efforts to ensure the security of energy flows to, from, 
and through our region. The Command already has several interagency 
representatives on staff to better synchronize our efforts. We are 
already working to promote integrated planning and exercises and build 
up the capabilities of our European partners through technical 
assistance, the Partnership for Peace program, and other train and 
equip efforts. The Command is also collaborating with other U.S. 
Government partners and like-minded NATO allies to develop a framework 
to develop common solutions for major energy security issues. Finally, 
we view Russia as a key partner in these efforts and will work with 
Moscow in areas of common interest. However, where our interests do not 
intersect, we will work with other European partners to develop 
solutions for all of Europe.
The Arctic
    Changes in the Arctic create both challenges and opportunities. 
Climate changes may result in open shipping routes, which link Asia to 
Europe, cutting the distance on these routes by up to 40 percent and 
transit time by 10 days.
    The Arctic is emerging as a complex but potentially productive 
region for oil, gas and new industrial activity. Unresolved issues will 
become more pressing as economic activities expand. For example, there 
are eight bilateral boundary issues involving all states in the region, 
and the northernmost extension of the continental shelves in the Arctic 
is unresolved.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    States, particularly the traditional great powers, will play a key 
role in determining patterns of cooperation and tension within the 
Arctic. Russia's activities in the Arctic include producing and 
modernizing icebreakers, resuming submarine and long-range aviation 
patrols, stationing more researchers throughout the region, and 
asserting extensive territorial claims. Russia's latest Arctic policy 
paper states that the Arctic must become Russia's top strategic 
resource base by 2020. It further states that they must complete 
geological studies to prove their claim to Arctic resources and create 
a new group of forces to ensure military security under various 
political-military circumstances.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    As the Arctic emerges as a region of economic significance and we 
develop our relationship with Russia, there may be opportunities for 
increased military activities with Russia to directly support U.S. 
policy initiatives. We see the Arctic as not an area of confrontational 
challenges but one of shared opportunities for cooperation and 
partnership that will benefit all states of the region. Early 
investment in an open and meaningful interagency dialog with Russia in 
the very near future, could avoid potential conflict in the more 
distant future.
Force Posture
    The interrelationship of U.S. forces, their footprint, and our 
relationships with other nations, is key to achieving national 
objectives in the European Command Theater. The presence of U.S. 
forces--air, land, and sea--in Europe fosters relationships and deepens 
partnerships in multiple ways, including the shared use of training 
facilities and other building partner capacity and international 
military partnering events.
    The nations within the European Command region are of significant 
importance to U.S. global strategic interests as evidenced by the 
overwhelming number of ISAF troop contributing nations from the EUCOM 
AOR. Our ability to develop coalitions and the capabilities of European 
coalition partners are central to advancing our national security 
priorities. Building partnerships and building partnership capacity is 
therefore job number one for European Command.
    The forces stationed in Europe today are a key element of America's 
strength and they promote our values, protect our interests, and are 
tangible reminders to friends and foes alike of our dedicated 
commitment to a strong trans-Atlantic relationship based on cooperation 
and adherence to fundamental ideals. As the post-Cold War security 
environment changed, the size of our forces required to maintain our 
leadership role also changed. The number of U.S. personnel in Europe 
has gone from 300,000 during the Cold War to less than 80,000 today. 
European Command forces assure our Allies and deter and dissuade our 
adversaries, and are the most visible indication of the ongoing U.S. 
commitment to the NATO Alliance.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    European Command's footprint is pivotal to U.S. global operations. 
Sites and installations in Europe provide superb power projection 
facilities for the support of coalition operations and overseas 
contingency operations. Installations in the European Command region 
coupled with longstanding and emerging relationships contribute to 
assured access and strategic reach to and from Europe.
    Force posture initiatives for European Command support building the 
capability and capacity of partner nations in Europe, increased 
expeditionary capability from Europe, and achieve basing efficiencies. 
Our posture initiatives support two major categories: operational 
capability development and improvements for basing efficiencies in 
sustainment and Quality of Life. Operational capability development 
initiatives include assessments for stationing of forces anticipated to 
deploy to the European theater and a new prepositioning strategy that 
transforms portions of European Command prepositioning equipment to 
support soft power employment for missions such as Humanitarian 
Assistance and Disaster Response.
    Other force posture initiatives focus on achieving basing 
efficiencies through coordinated review of infrastructure capacity as 
well as supporting service component efforts to optimize resources 
supporting of European Command forces. Sustainment initiatives include 
the continuous review of Quality of Life requirements such as education 
and housing services for European Command personnel and their families.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    European Command has aligned its posture planning processes to 
support the Department's efforts in addressing global force posture. 
The European Command staff coordinates strategic assessment, 
implementation feasibility, and theater prioritization of force posture 
issues through a posture forum that maximizes outreach and integration 
in posture development among Combatant Commands, our European Command 
Service Component Commands, and our interagency partners. Our posture 
planning necessarily involves coordination across the whole of 
government, as we integrate Defense Department posture overseas with 
State Department representatives and ultimately our relationships with 
European hosts.
                             opportunities
    Many of our challenges also present opportunities for international 
military partnering that bring benefit to today's issues such as 
Afghanistan but also for those that we will face tomorrow.
Afghanistan
    Supporting the International Security Assistance Force has given 
European Command the opportunity to deepen its relationship with our 
Allies and partners using our expertise and experience to inculcate an 
expeditionary mindset and train deploying partnered-country forces in 
irregular warfare. The contributions and sacrifice of Eurasian and 
European nations in Afghanistan have demonstrated the credibility, 
legitimacy, and effectiveness of international military cooperation. 
The scale of Allied and partner force contributions to the 
International Security Assistance Force has allowed the hand-over of 
significant responsibility for regional operations to coalition 
partners. NATO's Operational Mentoring and Liaison Teams program 
directly supports the development of the Afghanistan National Army and 
the Police Operational Mentoring and Liaison Teams program supports the 
expansion of the Afghan National Police. Under these programs, European 
Allies and partners are currently providing approximately 50 percent of 
the number of teams required to train Afghanistan's security forces. 
Right now, U.S. Forces assigned to European Command are deployed to 
Afghanistan and make vital contributions on a daily basis. However, 
within the European theater itself, European Command's primary focus is 
to lend whatever support it can to other nations as they seek to 
contribute to the security and stability efforts in Afghanistan.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Engagement with Russia
    In 2009, European Command authored a framework document to resume 
military-to-military cooperation with Russia in an equal, pragmatic, 
transparent, and mutually beneficial manner. This framework not only 
addresses crisis response operations, but also seeks to promote 
interaction and ensure mutual support in conducting counterterrorism 
and counterpiracy operations; peacekeeping; missile, space, and 
ballistic missile-defense; as well as search and rescue. This framework 
document was signed by the Chairman of the Joint Chiefs of Staff and 
the Russian Chief of Defense during the July 2009 Presidential Summit 
in Moscow. This framework begins to rebuild a structure for our 
bilateral defense relationship with Russia that allows wide-ranging and 
candid engagement on all issues of concern.
    In rebuilding the bilateral relationship with Russia, however, 
European Command will work with NATO and partners to develop an 
integrated and inclusive security cooperation architecture beneficial 
to all participants that does not come at the expense of Allies and 
partners.
European Missile Defense
    European Command looks forward to operationalizing the recently 
announced Phased Adaptive Approach, a complete revision of how the U.S. 
manages ballistic missile defense of Europe. The phased implementation 
of the proposed network of sensors, interceptors and associated Command 
and Control structures will provide a regional capability that is 
flexible, scalable, and responsive. The architecture aims to provide 
the right level of capability, at the right time, in the right location 
based on the emerging threat. The new approach provides increased 
opportunity for interagency and international military partnering. 
European Command is actively cooperating with the Department of State, 
Department of Defense, Missile Defense Agency, and others as the United 
States builds the plan for international engagement in the region. The 
capabilities delivered with the new phased, adaptive approach will 
serve as a catalyst to develop a cooperative solution with our allies 
and partners in the region.
Balkans: Bosnia-Herzegovina and Kosovo
    Today, almost 15 years after the Dayton Peace Accords and 10 years 
after the NATO military campaign to end atrocities in Kosovo, Bosnia-
Herzegovina and Kosovo still evince the problems present throughout 
this volatile region: endemic corruption, organized crime, deep-rooted 
ethnic divisions, decrepit infrastructures, and weak economies with 
little foreign direct investment. Such an environment invites organized 
criminals and limits the capabilities of governments to effectively 
provide essential services. Despite these challenges, the United States 
remains committed to bringing lasting stability to the Balkans, and we 
have been making steady progress in the region, as exemplified by the 
April 2009 admission of Croatia and Albania into NATO and recent 
democratic elections in Kosovo.
    In this region, European Command focuses on enhancing transatlantic 
security through defense modernization and reform efforts; defense 
institution building activities to improve the organic capacity of 
countries to recruit, train, and sustain their own military forces; 
humanitarian assistance operations; and demilitarization of unexploded 
ordnance to eliminate the threat to lives, property, and government 
stability.
    Significant political and cultural divisions remain in both Bosnia 
and Kosovo. In Bosnia, uncompromising, ethnic-based rhetoric continues 
to stall reform efforts. While the ``Butmir Talks'' last fall were a 
step in the right direction, Bosnia will need to progress politically 
toward stability. Although many problems in Kosovo are simply growing 
pains of a new state, the institutions in Kosovo face stark challenges 
to strengthen weak government institutions, combat corruption and 
illicit trafficking, and improve provision of essential services. Most 
of our military-to-military engagement is at a basic level, such as 
training the Kosovo Security Force and the provision of personal 
equipment like boots and uniforms. The programmed reduction of NATO and 
European Union forces in the Balkans may induce additional risk and 
requires continued monitoring to guard against others in the region 
from exploiting weaknesses.
    Despite these challenges, there are solid prospects for success 
given that we are prepared to devote the necessary attention and 
resources to the region. Bosnia and Kosovo, like their Balkan 
neighbors, generally hold the United States in high regard. To be 
effective, we must continue to coordinate our efforts with our European 
Allies and partners. We must expand our efforts to persuade NATO and 
European Union partners to persevere in these efforts. Maintaining 
stability at the southeastern corner of Europe remains an important 
transatlantic interest.
Cyberspace
    Cyberspace enables and supports all of the efforts, challenges, and 
opportunities above. The cyberspace domain and the ability to operate 
freely in Cyberspace are of great importance to European Command. The 
21st century and many events of the 20th century will be defined or 
redefined by the development, movement, and consumption of information 
in a holistic and collaborative environment. Our ability to freely 
operate and shape that environment has significant implications on both 
our leadership and partnerships in Europe.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    European Command is already building that advantage and defining 
that success. Access to reliable cyberspace has become imperative to 
our national security, economics, and way of life. We must gain greater 
visibility of disruptive activities, determine how and to what extent 
these actions increase the risk to security and stability, and build 
the ability to maintain freedom of maneuver in the cyber domain for 
ourselves, our friends, and the voices of truth. We have established a 
Network Warfare Center to provide a fused cyber operations, 
intelligence and defense capability. We have also reached out to NATO 
and other partners to establish cyber information sharing agreements. 
These agreements provide great value by enhancing awareness, building 
common understanding and developing operational trust. Finally, 
European Command continues to see the need for continued investment and 
development of both joint and multi-national cyber capabilities. These 
capabilities must be integrated, layered, responsive, and assured. U.S. 
European Command sees great promise in the continued development and 
use of cyberspace in Europe both as a mission enabler and as a common 
interest area with European allies and partners.
Innovation Cell
    Because innovation is so important to maintaining effectiveness, we 
have established a small, dedicated innovation cell. In the first 6 
months, this team closed a gap in U.S.-foreign partner security 
cooperation. As a result, it uncovered an interesting human detection 
technology in the Slovak Republic, accelerated a project with the 
French Armaments Agency to put a wireless internet router in space, and 
connected over a dozen different organizations together to demonstrate 
innovative ways to build partner nation and public-private partnerships 
to counter piracy.
Building Partner Capacity Center
    Building Partner Capacity is at the heart of EUCOM's mission and 
the key to strengthening stability in our region and the regions to 
which we project military forces. It requires, however, complex and 
astute interactions with our allies and partners, and the application 
of lessons learned in many different regions. For those reasons, we are 
investigating the establishment of a Building Partner Capacity Center 
that will bring together subject matter experts in a way that makes 
their knowledge accessible to all and facilitates an in-depth 
examination of the issues.
Counternarcotics Task Force
    In another very critical area, EUCOM and its naval component have 
conducted a full mission analysis for a Counternarcotics Task Force and 
have begun establishing one. U.S. Naval Forces Europe is initially 
staffing the Task Force from its intelligence directorate. The Task 
Force has initiated preliminary outreach to the Maritime Analysis and 
Operations Center-Narcotics in Lisbon and with the Center for Combating 
Smuggling in the Mediterranean (CeCLAD) in Toulon. To accelerate 
establishment, Naval Forces Europe will resource the task force with 
its own personnel and funding and has set aside additional funding for 
fiscal year 2010 as start-up money.
Regional Approach to Stockpile Reduction
    In the last decade, Albania, Bulgaria, Croatia, Serbia, and Ukraine 
have experienced accidental explosions of their aging conventional 
munitions, destroying infrastructure and causing military and civilian 
casualties. The amount of unexploded ordnance (UXO), excess, and 
unstable munitions in our theater is great and of serious concern. We 
are working with the Department of State, the Federal lead for weapons 
removal and abatement, to enhance their recent stockpile reduction 
initiative and address with a greater sense of urgency these stockpiles 
that are aging, destabilizing, and exploding unintentionally. Together 
we want to preclude another incident that would threaten lives and 
decrease stability.
               taking care of european command personnel
Quality of Life
    European Command is committed to support and maintain a quality of 
life for our assigned personnel commensurate to the Nation we serve and 
defend. We also recognize that forward deployed forces are better able 
to focus on the mission when their families are properly cared for 
through quality living quarters, educational opportunities for their 
children, and medical care.
Deployment, Behavioral Health and Compassion Fatigue Support
    Protracted combat operations, multiple deployments, insufficient 
dwell time and casualties have critically increased the immediate and 
future demand for Behavioral Health Specialists for our servicemembers 
and their families. Multiple studies, for example the Department of 
Defense Mental Health Task Force, have identified the need for 
increased behavioral health support to military and family members. 
Component commanders have identified the need for additional behavioral 
health providers and technicians for European Command military and 
family members.
    As we continue to maintain mission readiness, our warriors and 
families require access to these vital programs and services without 
stovepipes in a stigma-free environment. A 360-degree review of 
programs and the connection between at-risk indicators and catalysts is 
needed to eliminate gaps in support. The goal is alignment of focused 
care-giver teams with corresponding indicator data systems to ensure 
the health of our force and family.
    European Command community caregivers providing warfighter and 
family support continue to show signs of stress, burnout and compassion 
fatigue. European Command, with funding from European Regional Medical 
Command, contracted to develop and deliver a comprehensive compassion 
fatigue program titled Providing Outreach While Enhancing Readiness--
Caring for the Caregiver, which focuses on providing caregivers with 
tools and strategies to prevent the risk of burnout, stress and 
compassion fatigue.
Dependent Education
    The quality of the President's school system, managed by the 
Department of Defense Education Activity, is a major contributor to the 
Quality of Life of European Command members. European Command's system 
is a benchmark for other school systems and we need your continued 
support and funding to ensure we maintain high educational standards.
    We continue to work collaboratively with the Department of Defense 
Education Activity to ensure funding for programs such as The Virtual 
School for our approximately 2,000 students in the European Command 
region located in areas with no school. Because funding for educational 
support in remote areas has not kept pace with new mission 
requirements, we need your support for this leading edge educational 
system for our youth. We are now just beginning to see the effect of 
nearly $100 million to replace our schools, many of which are 1950s 
barracks. We must continue funding this endeavor in future years.
    We look forward to sustaining the recent accomplishments in Quality 
of Life and base infrastructure. Taking care of people enhances 
readiness. In the short term, this includes ensuring the capability of 
the community support base to deploy servicemembers and support their 
families. In the long term, it enables the military services to attract 
and retain the high quality force our mission demands.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
             european command infrastructure and logistics
    As a large organization with responsibilities spanning Europe, 
European Command has major infrastructure and logistics 
responsibilities.
Theater Infrastructure
    At enduring locations, we must continue to sustain and recapitalize 
our infrastructure through responsible use of both the Sustainment, 
Restoration, and Modernization program and the Military Construction 
program. At non-enduring locations, we must optimize use of all 
available resources to ensure these installations remain fully mission 
effective until the installations are removed from the inventory.
    Thanks to strong congressional support, previous annual Military 
Construction authorizations and appropriations have enabled European 
Command to address a balanced mix of our most pressing mission, mission 
support, quality of life, and housing requirements. The Kaiserslautern 
Military Community Housing project is nearing completion and is one of 
several showcase examples of the impact that Military Construction 
program support has for our community. Continued support of these 
investments will enable us to eliminate inadequate housing and this 
will pay dividends as we divest non-enduring bases and consolidate our 
forces into more efficient communities. European Command's future 
requirements will appear in our Theater Posture Plan and military 
construction requests.
Strategic Mobility and Maneuver
    Because facilities and forces must be effectively linked, 
dependable and available sealift, strategic and tactical airlift, and 
ground transportation systems are essential elements of European 
Command's strategy. The fielding of the Joint High Speed Vessel and its 
assignment to the region will significantly enhance our capability to 
deploy and transport forces along sea lines of communication. The 
ability of the Joint High Speed Vessel rapidly to transport large 
volumes of material will provide a critical engagement platform to 
support Military Partnership activities and improve our ability to 
respond to potential contingencies such as non-combatant evacuation 
operations.
    European Command's fleet of C-130s is currently undergoing an 
important upgrade from 17 older C-130E aircraft to 14 new, more capable 
C-130Js. The payload, capacity, and range constraints of even these 
aircraft limit European Command's ability rapidly to deliver forces or 
materiel across our theater.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Strategic airlift is also an important force enabled in the region. 
We applaud the stand-up of the Strategic Airlift Consortium-Heavy 
Airlift Wing that commenced operations July of 2009 at Papa Air Base, 
Hungary. The wing operates 3 C-17 aircraft, shared by a consortium of 
10 NATO and 2 Partnership for Peace nations, and is the product of a 
groundbreaking building partner capacity initiative that provides 
European Command with access to robust theater-based strategic lift 
capability. European Command will continue to pursue increased organic 
lift capability to enable the full range of engagement and contingency 
activities.
    European Command's principal contribution to global logistics 
throughput in support of ongoing operations is to the Central Command 
region. For example, lines of communication and distribution routing 
for logistics support through the European region should be able to 
support all of the International Security Assistance Force logistics 
requirements in the event other routes are unable to maintain the 
required capacity. European Command continually coordinates logistics 
planning with Transportation Command and the Defense Logistics Agency 
as well as Central Command to ensure global air, sea, and land lines of 
communication are identified and maintained to support global 
operations.
Prepositioned Equipment
    Prepositioned equipment reduces demands on the transportation 
system and appreciably shortens crisis response time by providing a 
scalable capability and enabling the assembly of deploying forces with 
equipment already staged in the European Command's region. Continued 
support of the Services' Prepositioned War Reserve Materiel programs 
also demonstrates commitment through presence and preserves a broad 
spectrum of response options, from that of traditional crisis response 
through support of Humanitarian Assistance and Disaster Relief. As we 
transition to a more expeditionary posture, there is a heightened need 
for Prepositioned War Reserve Materiel equipment configured to support 
both kinetic and nonkinetic operations, positioned in strategically 
flexible locations, and enablers such as the Joint High Speed Vessel. 
Exercising prepositioned stocks also builds military partner capacity 
with allies and provides ready assets for units arriving in theater for 
training/engagement and security cooperation missions.
    All four Services maintain Prepositioned War Reserve Materiel in 
the European Command's region, either on land or afloat. U.S. Air 
Forces, Europe maintains Prepositioned War Reserve Materiel at main 
operating bases within the theater, with centrally managed storage 
sites in Norway and Luxembourg. U.S. Marine Forces Europe maintains 
Marine Corps Prepositioning Program-Norway and assets afloat in the 
Mediterranean via Maritime Prepositioned Force ships. U.S. Army Europe 
maintains propositioned stocks via the Department of the Army's Heavy 
Brigade Combat Team prepositioned set at Camp Darby near Livorno, 
Italy.
    Prepositioned War Reserve Materiel currently requires upgrade. Over 
two-thirds of the Marine Corps's Prepositioning Program-Norway stocks 
were withdrawn in direct support of Operations Iraqi Freedom and 
Enduring Freedom. Army preposition stocks at Camp Darby have also been 
reduced to support these operations as well as the International 
Security Assistance Force. We do not expect this equipment to reset 
until at least 2015.
    European Command is actively involved in Defense Department-led 
studies examining the global disposition of Prepositioned War Reserve 
Materiel and is working to ensure that these studies incorporate our 
strategic direction and operational requirements.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    NATO has been the anchor of Trans-Atlantic security for more than 
60 years ensuring the security of its members, enhancing peace and 
stability throughout Europe, and countering threats across the globe. 
It is inescapable in any alliance that differences will emerge, 
consensus becomes difficult, and perpetual challenge makes members 
weary; thus making NATO's success that much more impressive, though not 
surprising. The Alliance endures because the principles it defends are 
timeless and the determination to safeguard freedom is boundless.
    In the relative comfort of this success, set against an 
extraordinary amount of post-Cold War challenges, it would be tempting 
to address European security as a less pressing matter. U.S. 
commitment, distinguished by force levels in Europe and leadership 
positions throughout the NATO command structure, will remain a critical 
piece in Trans-Atlantic security in the 21st century.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The NATO Secretary General began a multi-faceted review of NATO's 
Strategic Concept with an eye to the future--the results of which will 
ensure NATO continues being relevant and responsive to future security 
needs and clearly acknowledges that its most significant contributions 
still lie ahead. Thanks to the efforts of former Secretary of State 
Madeleine Albright and the 12-member Group of Experts, who at the 
request of the Secretary General are leading an exercise of reflection 
and consultation among allies, partner nations, NGOs and others 
interested in the future of NATO, careful examination of threat 
perceptions, future challenges to our security, and NATO's role in 
meeting them is underway.
    Whatever the Alliance's level of ambition, we need to align policy 
and resourcing in the same timeframe. NATO does not maintain a 
permanent set of forces; as such, our ability to carry out operations 
is defined by the armed forces the member nations develop and maintain. 
Regardless of the willingness of members to contribute, the burden of 
deployed operations is, and will be, borne by those nations whose armed 
forces are structured for expeditionary warfare.
    NATO needs to be capable of making decisions that may defuse a 
crisis. There are an infinite number of challenges we may face in the 
next decade and we must be ready to respond with appropriate capability 
across the full spectrum. This does not mean we should be looking first 
for military solutions; instead, we will require creative work, 
unparalleled cooperation and active partnerships. Whatever the final 
solutions, there is no substitute for clear objectives and an honest 
commitment to achieve them.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Comprehensive Approach
    Since the Riga Summit in 2006, NATO has become increasingly 
committed to implementing a Comprehensive Approach towards crisis 
management. The mission in Afghanistan, in particular, has emphasised 
the necessity to align security, governance and development activities 
to achieve holistic benefit. Governance, development and security are 
inextricably linked and cannot succeed without complementing each other 
through the collaboration between military and civilian agencies and 
organisations. However, while the aspiration for a Comprehensive 
Approach is noteworthy and the principle agreed universally, it is 
somewhat more difficult to realize.
    The principle of cooperation is universally accepted, however, 
without enlightened and firm leadership, will not be realized and 
optimal progress enjoyed. As the most accepted and legitimate 
organization, the United Nations must be encouraged to take a greater 
and more robust lead in a truly Comprehensive Approach. While there is 
cooperation on the ground between NATO, Security, Governance and 
Development organizations and agencies at national, regional and global 
levels, senior United Nations leadership must act with determined 
resolve. I would encourage our Government to advocate for a High 
Commissioner who is willing to embrace the leadership necessary to see 
this critical mission through.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
NATO-EU Relations
    The European Union is another potential partner for NATO in its 
Comprehensive Approach. However, political differences continue to 
hamper greater collaboration. There is a genuine need to enhance NATO-
EU cooperation, whether within or beyond the 2003 `Berlin Plus' 
framework. Currently, NATO and the European Union may conduct parallel 
military and civilian operations with no established or formalized 
mechanisms for coordination and cooperation. Field commanders then 
resort to informal but pragmatic ad hoc arrangements to harmonize their 
missions. Although these arrangements are a means to an end, they 
cannot fully harness the true potential effects of NATO-European Union 
collaboration during all phases of crisis management. NATO and the 
European Union may offer capabilities that are complementary for 
addressing a given situation. The challenge is to find an appropriate 
mechanism for achieving unity of effort without unnecessary 
duplication.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    From a military perspective, we do our very best to collaborate 
both in terms of planning and execution. However, we will not be able 
to deliver a complementary, holistic effect without high level 
political agreement between NATO and the European Union. While I am 
confident that NATO's Secretary General and his European Union 
counterpart are doing their utmost to resolve the matter, it will take 
time and patience before we reach a meaningful and efficient level of 
cooperation.
    While paving the way to the future, NATO must balance the urgent 
with the important and commanding forces is my highest priority. Since 
its first military intervention in 1995, NATO has been engaged in an 
increasingly diverse array of operations. Today roughly 100,000 
military personnel are engaged in NATO missions around the world, 
successfully managing complex ground, air and naval operations in all 
types of environments.
Kosovo
    Today, approximately 10,000 troops from NATO's Kosovo Force are 
deployed in Kosovo to help maintain a safe and secure environment, 
preserving the peace that was imposed by NATO nearly a decade earlier. 
Following Kosovo's declaration of independence on 17 February 2008, the 
Alliance reaffirmed that Kosovo Force shall remain in Kosovo on the 
basis of UN Security Council Resolution 1244. NATO and Kosovo Force 
will continue to work with the authorities and will cooperate with and 
assist the UN, the EU, in particular Eulex, the EU Rule of Law mission 
in Kosovo, and other international actors, as appropriate, to support 
the further development of a stable, democratic, multi-ethnic and 
peaceful Kosovo.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
NATO and Iraq
    At the Istanbul Summit in June 2004, the Allies agreed to be part 
of the international effort to help Iraq establish effective and 
accountable security forces. The outcome was the creation of the NATO 
Training Mission in Iraq (NTM-I), which to date has trained over 14,000 
Iraqi security sector personnel. NTM-I is involved in police training, 
establishing and mentoring Iraq's military academies, and facilitating 
substantial equipment donations and regular out-of-country training 
hosted by NATO Allies. All NATO Allies contribute to the training 
effort through deployment of trainers, provision of equipment, or 
NATO's financial contribution. The Government of Iraq regularly praises 
NTM-I, and continues to request its continuation and expansion.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Active Endeavor
    Under Operation Active Endeavour, NATO ships are patrolling the 
Mediterranean and monitoring shipping to help detect, deter and protect 
against terrorist activity. The operation evolved out of NATO's 
immediate response to the terrorist attacks against the United States 
of 11 September 2001 and, in view of its success, is continuing. As the 
Alliance has refined its counterterrorism role in the intervening 
years, the experience that NATO has accrued in Active Endeavour has 
given the Alliance unparalleled expertise in the deterrence of maritime 
terrorist activity in the Mediterranean Sea. NATO forces have hailed 
over 100,000 merchant vessels and boarded 155 suspect ships.
    By conducting these maritime operations against terrorist activity, 
NATO's presence in these waters has benefited all shipping traveling 
through the Straits. Moreover, this operation is also enabling NATO to 
strengthen its relations with partner countries, especially those 
participating in the Alliance's Mediterranean Dialogue.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Supporting the African Union
    Well beyond the Euro-Atlantic region, the Alliance continues to 
support the African Union (AU) in its peacekeeping missions on the 
African continent. Since June 2007, NATO has assisted the African Union 
Mission in Somalia (AMISOM) by providing airlift support for African 
Union peacekeepers. Following renewed African Union requests, the North 
Atlantic Council has agreed to extend its support by periods of 6 
months on several occasions. NATO also continues to work with the 
African Union in identifying further areas where NATO could support the 
African Standby Force. NATO's continuing support to the African Union 
is a testament to the Alliance's commitment to building partnerships 
and supporting peacekeeping and humanitarian efforts beyond the Euro-
Atlantic region.
Operation Ocean Shield
    Building on previous counterpiracy missions conducted by NATO 
beginning in 2008 to protect World Food Program deliveries, Operation 
Ocean Shield is focusing on at-sea counterpiracy operations off the 
Horn of Africa. Approved on 17 August 2009 by the North Atlantic 
Council, the current operation continues to contribute to international 
efforts to combat piracy in the area. It is also offering, to regional 
states that request it, assistance in developing their own capacity to 
combat piracy activities.
    NATO Special Operations Forces
    The U.S.-led NATO Special Operations Forces Coordination Centre has 
continued to serve as a dynamic engine of transformation within the 
Alliance. As a result, in September 2009, the North Atlantic Council 
approved its reorganization into the NATO Special Operations 
Headquarters. The NATO Special Operations Headquarters, projected to be 
fully operational in 2012, will continue to provide coordination, 
support, training, and enabling functions for NATO SOF, but will also 
fill a void in the Alliance's crisis response options, establishing an 
assured, rapidly deployable SOF command and control capability, by 
providing the core elements of a deployed special operations 
headquarters. Evolving to a headquarters will better enable the 
synchronization of SOF across the Alliance, enhance NATO SOF unity of 
effort, and provide Allied SOF with a multinational out of area command 
and control capability.
    The NSHQ's SOF Communications Network underpins Allied and Partner 
SOF collaboration by providing an unprecedented vehicle for command, 
control, communications, and intelligence sharing for networked 
operations. The NSHQ's Special Operations Forces Fusion Cell (SOFFC) in 
Kabul, Afghanistan is demonstrative of the operational impact among 
Allied and Partner SOF. This stakeholder run enterprise, manned by some 
40 personnel from 11 nations and several agencies, focuses on garnering 
information from a multitude of Allied and Partner sources, fusing that 
information with operational requirements to produce and disseminate 
actionable intelligence to ISAF SOF Special Operations Task Groups 
(SOTGs) and our Afghan partners.
    The NSHQ is building enduring operational capabilities, 
collaborative policies and procedures, and networked command, control, 
and communications mechanisms among NATO SOF. Collaborative training 
and exercises reinforce this framework to ensure Allied and Partner SOF 
are interoperable in order to operate more effectively in designated 
combined operations well into the future.
    Afghanistan
    NATO's operation in Afghanistan currently constitutes the 
Alliance's most significant operational commitment to date. America's 
Allies in NATO have shared the risks, costs and burdens of this mission 
from the beginning. They have contributed to International Security 
Assistance Force and the Afghan National Security Forces, as well as 
significant non-military contributions.
    The situation in Afghanistan today is complicated and challenging. 
As the President has stated, Afghanistan is the epicenter of the 
violent extremism practiced by al Qaeda. For this reason, I strongly 
support the President's new strategy for Afghanistan and I will 
continue to work with our allies as we all contribute to this 
challenge. Our allies have already contributed a great deal to this 
war, fighting, bleeding, and dying side-by-side with our own troops. 
Many have committed further contributions following President Obama's 
announcement, strengthening their resolve and partnership.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    I believe there are four areas in which we must succeed in order to 
win in Afghanistan. First, we must strike the right balance between our 
civilian and military efforts. Success cannot be achieved solely by the 
military. In addition to strong military and police forces to ensure 
security, Afghanistan needs a credible government taking active, 
visible steps to show that it is stamping out corruption, improving 
efficiency and delivering necessary services to its people effectively. 
This is where concentrated civilian efforts are needed the most, for it 
is they who have the expertise and credibility on topics such as rule 
of law, economics, and agriculture--three areas that are critical to 
Afghanistan's reconstruction and development.
    Second, if Afghanistan is to become a secure and stable nation, the 
Afghans themselves must be at the center of this effort. Our allies 
must partner with Afghan security forces and civilian personnel to 
mentor and develop their own capabilities to conduct these critical 
activities on their own. The Afghan people must assume responsibility 
for the well-being of their country and they must feel confident in 
their own government's ability to provide basic security and services 
absent of corruption and tribal favoritism.
    Third, strategic communication will be a key method of ensuring 
that the Afghans, as well as our enemies, understand the United States 
and our allies are committed to a secure and stable Afghanistan.
    Finally, the most important role that the military can play in this 
strategy is to increase the size and capability of the Afghan National 
Security Forces (ANSF), through training and mentoring, to be able to 
take the lead responsibility for securing their country.
    Again, the challenges facing Afghanistan today are serious and 
complex. However, I am confident that the Afghan people will prevail. 
We have the right strategy and resources in place to partner 
successfully with the Afghans to develop their capacity to self-secure.
    A recent survey conducted in Afghanistan by the Afghan Center for 
Socio-Economic and Opinion Research underscores how our strategy is 
indeed bringing us closer to our goals in Afghanistan. That survey 
revealed that nearly three out of four Afghans interviewed expect 
things to be either somewhat better or much better in a year. That 
sentiment reflected a 51 percent improvement over the year prior and is 
indicative of a spreading feeling of hope, not hopelessness.
    The survey also revealed that 85 percent of Afghans interviewed 
rate the work of Afghanistan present government as either fair, good, 
or excellent, and nearly 90 percent also rated their provincial 
governments as fair, good or excellent. Both the Afghan National Police 
and the Afghan National Army received an 89 percent approval rating, 
indicative that our investments in training these security forces are 
paying off. 90 percent of Afghans interviewed also said they would 
rather have Afghanistan's current government in place than the Taliban 
or another government and 69 percent said they considered the Taliban 
the biggest danger to Afghanistan.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    These are all good news indicators that validate our effort to put 
the Afghan people at the center of the equation in Afghanistan. We need 
to continue giving the Afghan people hope that they are not destined to 
live under the yoke of tyranny and offering them every opportunity to 
live in an Afghanistan with a future worthy of their sacrifices.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               conclusion
    The soldiers, sailors, airmen, marines, and civilians at European 
Command and Allied Command Operations contribute to our national 
security everyday with their professional engagements with our allies 
and partners in the European theater. As we look forward to continued 
success, I ask for your continued support of these men and women and 
their families to ensure they receive the care and benefits they 
deserve.
    Operationally, we must continuously strive to find flexible 
authorities and funding mechanisms to build the capacity of those 
partner nations willing to fight side-by-side with us. This has become 
increasingly important because of the recent surge in activities in 
Afghanistan and the need to get our allies and partners more involved. 
Your continued support and expansion of authorities like the National 
Defense Authorization Act, section 1206, particularly allowing their 
use for partner nation forces deploying to Iraq and Afghanistan, has 
been absolutely pivotal in enabling our strategic efforts in the 
European theater. With these programs, we are able to provide our 
allies and partners with the training and equipment necessary to 
achieve interoperability with our own forces engaged in ongoing 
overseas contingency operations. They will be able to arrive in theater 
better prepared to assume the responsibilities they have committed 
their forces to undertake, further reducing the risk of injury and loss 
of life.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Furthermore, our efforts to fulfill this short-term task of 
building enduring capability are vital to ensuring the long-term 
stability and security of Europe. In addition to increasing the 
contributions of our allies and partners to operations outside Europe, 
building partner capacity allows us to make significant progress toward 
achieving strategic objectives within the AOR. For example, we have 
been able to conduct security sector reform assessments in Albania, an 
interagency effort critical to integrating Balkan countries in the 
European community. We also have numerous programs targeted at 
countering the proliferation of WMD throughout the theater such as the 
Proliferation Security Initiative and the Global Initiative to Combat 
Nuclear Terrorism. But we cannot stop there. With greater flexibility, 
these authorities can achieve greater strategic goals in support of our 
theater and national objectives.
    European Command and Allied Command Operations serve as important 
links between the United States and our friends in Europe, effectively 
``bridging'' the Atlantic. We are building and strengthening relations 
with our European partners that will help us ensure the security of the 
United States at home and abroad.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Thank you very much, Admiral.
    General Ward.

 STATEMENT OF GEN WILLIAM E. WARD, USA, COMMANDER, U.S. AFRICA 
                            COMMAND

    General Ward. Good morning, Chairman Levin, Senator McCain, 
and distinguished members of the committee. It's great for me 
to be here this morning as well alongside my two great friends, 
the Admiral and the General, who we've come to partner with 
over time, and I think our collaboration has been good for our 
men and women who serve with us as well as for our Nation.
    I am very happy to be here to address the points that 
you've raised as well as others, and I'd like to start off by 
just thanking this committee for the great support that has 
been provided to my command and its men and women as we have 
carried forth our mission on behalf of our Nation.
    We do what we do in AFRICOM to protect American lives and 
to promote American interests, and we do it by supporting 
security and stability programs in Africa and its island 
nations. We concentrate our efforts on helping African states 
build capable and professional militaries that respect human 
rights, adhere to the rule of law, and more effectively 
contribute to stability in Africa.
    We are assisting our African partners in building 
capacities to counter transnational threats from violent 
extremist organizations, to stem illicit trafficking, to 
support peacekeeping operations, and to address the 
consequences of natural disasters.
    Supporting the development of professional and capable 
militaries contributes to increased security and stability in 
Africa, and allows African nations and regional organizations 
to promote good governance, expand development, provide for 
their common defense, and better serve their people.
    The Africa Partnership Station, which includes our European 
and African partners as members of the staff, is now on its 
fifth deployment and has expanded from the initial focus in the 
Gulf of Guinea to other African coastal nations. Africa 
Endeavor, a continental-wide command and control (C2) exercise, 
has been seeing a steady increase in participation and will 
amount to 30 nations participating this year. Exercise Natural 
Fire, conducted by the Nations in East Africa, is a 
tremendously successful program that looks at how these nations 
respond collectively to a natural disaster.
    These programs reflect the willingness of our partners to 
work with us and with each other against common threats and 
reflect that our programs and activities are indeed producing 
tangible results. My focus is on activities, programs, and 
communications that support our national interests and also 
reinforce success in ways that assure progress toward the long-
term goals our African partners have established for themselves 
as they align with our national security objectives.
    We closely harmonize our activities with our colleagues at 
the Department of State (DOS), USAID, and other agencies. Our 
service components are in fact maturing. Our Office of Security 
Cooperation, defense attaches, the network of forward operating 
sites and cooperative security locations, including Camp 
Lemonnier in Djibouti, are tremendously valuable as we pursue 
our U.S. security interests.
    It's my honor to serve with the very distinguished 
uniformed and civilian members of DOD and our command who work 
every day alongside our interagency partners making a 
difference in this vitally important part of the world as we 
look to cause their work to lead to more effective global 
stability.
    Their dedicated efforts exemplify the spirit and 
determination of the American people, and they do contribute to 
the strength of our Nation and the security and stability on 
the African continent, directly supporting our interests there.
    I'm pleased to also say that, representing those men and 
women, I brought along today our Command Sergeant Major, the 
command's senior enlisted leader, Command Sergeant Major Mark 
Ripka as someone who just exemplifies the goodness of that 
great, great team.
    So again I thank you for your support. I thank you for what 
you do to cause our mission to be successful, and I stand ready 
to add any additional information that I can. Thank you very 
much.
    [The prepared statement of General Ward follows:]
             Prepared Statement by GEN William E. Ward, USA
                              introduction
    It is my privilege as Commander of U.S. Africa Command to present 
to Congress our Posture Statement for 2010. U.S. Africa Command's 
operations and programs protect American lives and interests, in Africa 
and in the homeland, by supporting security and stability in Africa and 
its island states. We concentrate our strategy and efforts on helping 
African states build capable and professional militaries that are 
subordinate to civilian authority, respect human rights, and adhere to 
the rule of law. We are assisting our African partners in building 
capacities to counter transnational threats from violent extremist 
organizations; to stem illicit trafficking in humans, narcotics, and 
weapons; to support peacekeeping operations; and to address the 
consequences of humanitarian disasters--whether man-made or natural--
that cause loss of life and displace populations.
    Supporting the development of professional and capable militaries 
contributes to increasing security and stability in Africa--allowing 
African states and regional organizations to promote democracy, to 
expand development, to provide for their common defense, and to better 
serve their people. In his address in Ghana last July, President Obama 
reaffirmed Africa's strategic importance to the United States and our 
national interests. He identified four priorities for the U.S. 
Government's (USG) engagement efforts:

    <bullet>  Supporting strong and sustainable democracies and good 
governance
    <bullet>  Fostering sustained economic growth and development
    <bullet>  Increasing access to quality health and education
    <bullet>  Helping to prevent, mitigate, and resolve armed conflict

    Through sustained security engagement with African militaries, U.S. 
Africa Command is supporting U.S. national interests and both the 
President's priorities and our African partners' objectives--now and in 
the long-term.
    In this report, I provide an overview of the strategic environment 
in Africa, explain our strategic approach, and show how our security 
cooperation efforts, designed and executed in close coordination with 
our interagency partners, are promoting stability in Africa in support 
of U.S. foreign policy and national security objectives.
                         strategic environment
    The challenges and opportunities in U.S. Africa Command's Area of 
Responsibility (AOR) are complex and dynamic. The application of only 
military means is insufficient to help our partners address them. U.S. 
Africa Command seeks to be part of a coordinated effort that integrates 
all tools available to our international and interagency partners.
    Our discussion of the strategic environment in Africa begins with 
the key Defense Department concerns noted by the President: the 
potential for conflict, transnational threats, and other threats to 
peace and security. It is followed by an overview of the important 
issues faced by our African partner militaries as they seek to confront 
these threats.
Nature of the Environment
    Africa is a large and diverse continent whose land mass is about 
three and a half times the size of the continental United States. The 
distance from Africa's northernmost tip to its southernmost tip is 
roughly equal to the distance from New York to Moscow. Its 53 countries 
each have unique histories.
    Africa is home to 1 billion people, divided among 800 ethnicities 
and speaking about 1,000 different languages. Ethnic ties are strong, 
and ethnic dynamics often influence national politics. Africa's 
population growth rate is the highest in the world. Of the 40 countries 
worldwide with the highest rates of growth, 34 are African.
    While an increasing number of African states are conducting 
elections, many of the requirements of enduring liberal democracies, 
such as the rule of law, protection of individual rights, and a vibrant 
civil society, are nascent or non-existent. Additionally, in some 
countries previously demonstrating liberalization and democratization, 
increasing examples of authoritarianism are emerging.
Areas of Potential Conflict and Impacts on Peace and Security
    Africa is still dealing with the effects of widespread conflict 
that engulfed the continent following the independence movements of the 
last half of the last century, with some still ongoing today. The 
effects of armed conflict in Africa are severe. The African Union (AU) 
estimates that Africa has the world's largest number of forcibly 
displaced individuals, with close to 3 million refugees and 
approximately 11.6 million internally displaced persons in 19 countries 
across the continent. According to a 2007 study by Oxfam International 
on the economic impact of armed conflict, 23 African countries lost an 
estimated $284 billion in revenue between 1990 and 2005 as a result of 
armed conflict. Oxfam estimated that an armed conflict in Africa 
contracts a country's economy on average by 15 percent. Conflict is a 
major obstacle to development and the delivery of basic services, such 
as health and education.
    Today, 8 of the 17 ongoing peacekeeping operations or political 
missions administered by the United Nations (UN) are on the African 
continent. The eight missions in Africa account for approximately 75 
percent of the UNs' military, police, and civilian peacekeepers 
deployed worldwide. The number and scale of peacekeeping missions 
increasingly strain donor states and regional organizations. Therefore, 
it is in our interests to help our African partners improve their 
capabilities and broaden their capacities. While the number of violent 
conflicts in Africa has decreased over the past 10 years, significant 
potential for new and continued conflict remains.

    <bullet>  In Sudan, Darfur remains insecure, violence has increased 
in Southern Sudan, and tensions continue in border areas.
    <bullet>  Somalia remains a country in armed conflict, as its 
Transitional Federal Government (TFG) battles violent Islamic 
extremists.
    <bullet>  Despite pressure by the Ugandan People's Defense Forces 
(UPDF), scattered elements of the Lord's Resistance Army continue to 
operate and commit atrocities against civilian populations in the 
Central African Republic, northern Democratic Republic of the Congo 
(DRC), and Southern Sudan.
    <bullet>  In the DRC, independent local militias, the insurgent 
Democratic Forces for the Liberation of Rwanda, and some ill-
disciplined Congolese armed forces remain destabilizing forces in the 
country's eastern region.
Transnational Challenges
    Threats to stability do not necessarily manifest themselves in 
conflict, but can nevertheless have a corrosive influence on the 
development of good governance, viable market economies, and effective 
security sectors. Weakly governed spaces provide favorable operating 
environments for violent extremism, piracy, and trafficking of humans, 
weapons, and drugs, posing direct threats to the U.S. homeland and our 
interests abroad.
    Violent Extremism
    Violent extremism by transnational terrorist organizations is a 
major source of regional instability. In the last year, al Qaeda and 
terrorist groups in Africa appear to have strengthened their 
collaboration. Al Qaeda operatives are active in East Africa, while al 
Qaeda in the Lands of the Islamic Maghreb (AQIM) operates across the 
trans-Sahara region of Northern and Western Africa. The leaders of 
Somalia-based Al-Shabaab have publicly aligned themselves with al 
Qaeda, having issued public statements praising Osama Bin Ladin and 
linking Somalia to al Qaeda's global operations. Al-Shabaab also 
announced its support to al Qaeda in the Arabian Peninsula (AQAP) at 
the same time that AQAP activities increased in Yemen, separated from 
Somalia by the 20-mile wide Bab-el-Mandab Strait. Al-Shabaab continues 
to operate multiple terrorist training camps in Somalia with al Qaeda 
participation.
    Al Qaeda and al Qaeda affiliates also target the United States and 
our European and African partners across North Africa and the Sahel. 
Terrorist activities, kidnapping, illicit trafficking of all types 
(humans, weapons, drugs), and the existence of undergoverned spaces in 
the Sahel contribute to the region's vulnerability and make it 
susceptible to extremist influences.
    Countries of the Maghreb, like Algeria and Morocco, partner with 
the United States to respond to terrorism and check the western 
extension of al Qaeda and its affiliates. Yet, enhancing security 
depends upon regional cooperation and the development of stable and 
growing economies to undercut the recruiting activities of violent 
extremist organizations.
    Illicit Trafficking
    Narcotics trafficking is a growing concern in Africa. West Africa 
is a node for Latin American drugs transiting to their primary 
destination in European markets. In addition, drugs originating in Asia 
are transported through South and East Africa on their way to Europe. 
The destabilizing and corrupting influence of narcotics trafficking 
threatens to turn Guinea-Bissau into a narco-state and helps to expand 
the Latin American cartel's network and influence throughout the 
region. Many African countries lack the capability to interdict the 
flow of narcotics--on land, air, or sea. While not as directly impacted 
by narcotics flows through Africa as our European allies, the United 
States has a vested interest in countering the destabilizing impacts of 
drug trafficking on security, stability, and development in Africa.
    Many Africans also remain vulnerable to human trafficking in the 
forms of forced labor, child labor, child soldiers, and slavery. While 
some countries are making strides to counter trafficking in persons, 
many lack the law enforcement capacity to address this problem.
    Piracy
    Incidents of piracy in the Horn of Africa and Gulf of Aden have 
continued to receive international attention. In 2009, pirate attacks 
continued to escalate in frequency and expanded their geographic range 
in the western Indian Ocean out to 1,000 nautical miles from the 
African coast. U.S. Africa Command continues to support counterpiracy 
operations through the employment of Unmanned Aerial Vehicles and 
Maritime Patrol Aircraft temporarily based in the Seychelles.
Public Health, Economic Development, and Democratization
    Public health, economic development, and democratization challenges 
continue to significantly impact the security environment in Africa.
    Public Health Sector
    African populations remain at great risk to a host of infectious 
diseases, including 2009 H1N1 Influenza. The Human Immunodeficiency 
Virus/Acquired Immune Deficiency Syndrome (HIV/AIDS), tuberculosis, and 
malaria are the leading causes of adult mortality in Africa. Most 
African countries lack adequate capacity and capability to contain or 
mitigate the threat of pandemic diseases.
    Pandemic disease is not only a human security issue, but also a 
military readiness challenge. For example, some of our African partners 
have professional and capable militaries that contribute thousands of 
soldiers to UN and AU missions in Somalia, Sudan, DRC, and elsewhere. 
However, they would have even greater peacekeeping capacities if it 
were not for the high rates of HIV/AIDS incidence found in their 
military forces.
    Economic Development
    Until the global economic crisis of late 2008, Africa as a whole 
experienced a 10-year trend of sustained economic growth, averaging 
over 5 percent growth in gross domestic product per year. High oil 
prices enabled some African oil-producing countries to achieve economic 
growth that rivaled the world's highest rates. However, countries 
solely dependent on oil and extractive commodities revenue were 
vulnerable to falling prices. In many cases, undiversified economies, 
high unemployment, and corruption, have prevented the wealth generated 
by Africa's natural resources from finding its way to the neediest 
segments of African societies. The UN identified Africa as the world's 
most impoverished continent, containing 25 of the world's poorest 
countries.
    Democratization
    Over the past 20 years, many African countries have moved toward 
democratic processes, good governance, and the rule of law. In January 
2009, Ghanaian voters conducted their fourth free and fair presidential 
election in 15 years. For the second time, the ruling party was 
peacefully replaced by the opposition. In April 2009, over 13 million 
South Africans went to the polls and elected Jacob Zuma, the country's 
fourth president since the end of apartheid, and Botswana, in October 
2009, held its 10th democratic presidential election since 
independence--the most of any post-colonial sub-Saharan African 
country. Since the 1990s, many African states have also moved from 
dictatorship toward democracy.
The African Security Sector
    Although African countries have consistently expressed a strong 
desire to provide for their security and address these various 
challenges themselves, many lack sufficient means to do so without 
foreign assistance. The challenges they face can be broadly described 
as:

        <bullet> Militaries have frequently been used as tools of 
        authoritarian regimes to protect their leaders and suppress the 
        opposition. This has led to corruption and distrust by the 
        populace.
        <bullet> Increased professionalization of many African 
        militaries remains a work in progress. Traditionally, the 
        development of maritime and air components has lagged that of 
        land components in most African militaries.
        <bullet> The legacy of Cold War politics flooded Africa with 
        competing streams of military equipment, tactics, and doctrine. 
        Much of what remains is poorly functioning and ill-suited for 
        confronting today's challenges.
        <bullet> Although regional cooperation has improved 
        tremendously, combined efforts to confront transnational 
        challenges are limited. Domestic politics can inhibit a 
        government's willingness to take strong action against a 
        violent extremist organization or other direct threats.
        <bullet> The AU's African Standby Force and its five Brigades 
        have shown continued development, but are not yet fully mission 
        capable. They lack sufficient enablers to become self-
        sustaining as a peacekeeping and crisis response force. 
        National peacekeeping capabilities are similarly lacking, 
        although some countries have made regular and substantial 
        contributions to international peacekeeping missions.
                     u.s. africa command's approach
    Our approach is founded in our overall national security interests 
on the continent as outlined by the President and Secretaries of State 
and Defense. The United States and our African partners have strong 
mutual interests in promoting security and stability on the continent 
of Africa, its island states, and maritime zones. Advancing these 
interests requires a unified approach that integrates our efforts with 
those of other USG departments, agencies, and our African and other 
international partners.
    Our programs and activities support U.S. national interests as well 
as pursue four defense-oriented goals expressed by our African 
partners:
    First, that they have capable and accountable military forces that 
perform professionally and with integrity;
    Second, that their forces are supported and sustained by effective, 
legitimate, and professional security institutions;
    Third, that they have the capability to exercise the means 
nationally and regionally to dissuade, deter, and defeat transnational 
threats;
    Fourth, that they have the capacity to increase their support to 
international peacekeeping efforts.
    Fostering stability supports the pursuit of these goals, and allows 
further opportunities to reinforce success.
    Our approach is subordinate to overall USG policy goals. We work in 
concert with our interagency partners, such as the U.S. Department of 
State (DOS) and U.S. Agency for International Development (USAID), to 
ensure our plans and activities directly support U.S. foreign policy 
objectives.
    Africa's challenges require a holistic view of security that 
includes defense, law enforcement, and customs and border security. 
Addressing defense-related challenges must be pursued in concert with 
other USG and partner security-related endeavors to sustain unity of 
effort.
    Our activities must provide immediate benefits and help our 
partners progress toward their long-term goals. Our mission is 
``sustained security engagement''; providing programs and activities 
that build for the future and reinforce success.
    Regional cooperation is critical, whether it be neighboring 
countries working together against mutual threats, or region-wide 
efforts to establish common security networks, such as the AU's 
cooperative security architecture. Our approach focuses on mutual 
interests, fostering interoperability and common situational awareness, 
regionally-oriented capacity building, and enhancing relationships 
built on trust and cooperation. The more the countries of Africa work 
together, the greater the likelihood that the continent will achieve 
lasting stability.
    These goals support our national security interests. Increasing 
African partner capability to identify and interdict threats emanating 
from the continent enhances the security of the U.S. homeland. 
Enhancing the capacity of African forces to respond to threats to peace 
and stability on the continent allows the United States to use its 
forces for other operations. The development of capable and 
professional military forces can support efforts to consolidate 
democratic principles and good governance by fostering transparency and 
accountability in the military, which historically has been one of the 
most important institutions in modern African societies.
              u.s. africa command programs and activities
    U.S. Africa Command's programs and activities support the 
development of capable, professional partner military forces, and are 
integrated and coordinated with the DOS, U.S. Chiefs of Mission, and 
our international partners. Africa Command conducts several categories 
of activities to support our four primary goals and address current 
security challenges that threaten stability. The primary purposes of 
our activities can be categorized as follows:

        <bullet> Building the capacity of partner conventional forces
        <bullet> Supporting capacity building of partner security 
        forces
        <bullet> Building the capacity of partner enabling forces
        <bullet> Fostering strong strategic relationships
        <bullet> Conducting defense sector reform
        <bullet> Fostering regional cooperation, situational awareness, 
        and interoperability
        <bullet> Countering transnational and extremist threats
        <bullet> Contributing to stability in current zones of conflict
        <bullet> Addressing conditions that contribute to instability
Building Capacity of Partner Conventional Forces
    U.S. soldiers, sailors, airmen, and marines are terrific trainers 
and exemplary examples of military professionalism and our core 
national values. The training and exercises they conduct encourage the 
development of partner security capabilities and the instilling of 
professional ethos among African military elements. Moreover, most of 
these activities can be performed with small numbers of U.S. forces. 
Some examples of our recent activities include:
    Natural Fire, Uganda
    In October 2009, U.S. Africa Command, with U.S. Army Africa 
(USARAF) as the lead component, brought together more than 1,200 
soldiers and civilians from 6 countries for Exercise Natural Fire 10 in 
Uganda. The exercise improved interoperability and helped build African 
partner capacity to respond to complex humanitarian emergencies. The 
region jointly exercised contingency plans designed to address a global 
health threat of pandemic influenza. Approximately 550 U.S. personnel 
and 650 soldiers from Burundi, Kenya, Rwanda, Tanzania, and Uganda 
participated.
    Africa Partnership Station
    Africa Partnership Station (APS) is U.S. Africa Command's primary 
maritime security engagement initiative and is now a program of record. 
In cooperation with partner states and nongovernmental organizations 
(NGOs), APS builds maritime security capabilities in our Africa 
partners using sea-based training platforms to provide predictable 
regional presence with a minimal footprint ashore. Our training and 
assistance focuses on strengthening four pillars of maritime sector 
development: a competent and professional maritime security force; 
secure infrastructure to sustain maritime operations; maritime domain 
awareness; and maritime response capability. Our African partners view 
APS as a successful maritime initiative and are enthusiastic 
participants.
    From January through May 2009, the Command employed the USS 
NASHVILLE to support APS. With representatives from 9 European allies, 
10 African countries, and Brazil, APS doubled the number of partners 
participating in the planning and execution compared to previous 
engagements. APS conducted 10 engagements in 7 countries--Senegal, 
Liberia, Ghana, Nigeria, Cameroon, Sao Tome and Principe, and Gabon. 
U.S. Marines and their counterparts from Spain and Portugal conducted 
security cooperation events with over 800 African military 
professionals in Senegal, Liberia, Ghana, Nigeria, Cameroon and Gabon. 
Over 1,750 African professionals were engaged in 64 workshops and 
seminars.
    The success and effectiveness of our engagements was demonstrated 
when the Benin Navy boarded and freed a pirated tanker without loss of 
life. APS in Benin was a principal enabler for that mission. Benin's 
Navy participated in APS instruction focused on Visit, Board, Search 
and Seizure, small boat operations, Anti-Terrorism/Force Protection, 
and use of the Automated Information System (AIS), which was installed 
during their training. The Benin Navy used maritime domain awareness 
tools provided by APS to guide one of its ships to assist the tanker, 
allowing its Navy to take action against a threat affecting the 
interests of Benin, the United States, and the international community.
    U.S. Naval Forces, Africa (NAVAF), is building on the success of 
the APS in West Africa by conducting similar activities in East Africa. 
APS-East will work to build our African partners' capabilities in small 
boat operations. Our partners include Kenya, Mozambique, the 
Seychelles, Mauritius, and Tanzania. The activities of the USS Bradley 
and the USS Arleigh Burke in 2009 served as a pilot deployment for APS-
East and made great inroads in South and East Africa. In addition, the 
Combined Joint Task Force-Horn of Africa (CJTF-HOA) established a 
maritime center of excellence in Mombasa, Kenya, to provide maritime 
training to African states. Both DOS and DOD approved a section 1206 
(National Defense Authorization Act for Fiscal Year 2006, as amended) 
program to provide small boats, AIS, and surface search radars to 
Djibouti, Mozambique, Kenya, Tanzania, the Seychelles, Mauritius, and 
Comoros. The latter effort will establish a basic surveillance 
capability along the entire East African coast. We plan to sustain and 
supplement this project through Foreign Military Financing (FMF).
    African Lion, Morocco
    African Lion is an annual exercise with Morocco, a key regional 
ally and active contributor to international peacekeeping operations. 
U.S. Marine Corps Forces, Africa (MARFORAF) is U.S. Africa Command's 
lead component for the exercise, which focuses on U.S.-Morocco 
interoperability, air and ground combined arms training, staff 
training, Peacekeeping Operations (PKO) training, medical and disaster 
response training, public affairs training, and humanitarian civic 
assistance operations. Last year, during African Lion 09, medical teams 
conducted humanitarian civic assistance in 5 villages, treating over 
17,000 Moroccans and over 9,500 livestock. Numerous fiscal year 2010-
2011 Exercise Related Construction projects are scheduled to improve 
training ranges, strategic access, and delivery of logistics support in 
support of African Lion. U.S Air Forces Africa (AFAFRICA) will 
spearhead its participation in African Lion through the State 
Partnership Program, with the Utah Air National Guard providing KC-135 
tankers and personnel.
    Building effective noncommissioned officer (NCO) corps
    Several African countries have underdeveloped NCO corps, which in 
some cases are vulnerable to corruptive influences. Our African 
partners recognize that effective NCO corps as essential to developing 
capable and sustainable units, which will contribute to overall 
stability and security. They have turned to us for assistance. By 
helping partners develop their NCO corps, we have an opportunity to 
instill the qualities and character that will allow them to train and 
guide their own development in this area.
    Foreign Military Financing (FMF) and Foreign Military Sales (FMS)
    A particular challenge many of our partners face is the lack of 
serviceable equipment--from individual military gear to vehicles to 
other major systems. FMF and FMS are two programs we are leveraging to 
help address these shortfalls. U.S. Africa Command is working with U.S. 
country teams to develop and implement FMF programs to procure systems 
that increase interoperability among African partners, international 
allies, and the United States. U.S. Africa Command is employing the 
Excess Defense Articles program under FMS to supply trucks, personal 
soldier equipment, and uniforms to support the deployment of 
peacekeeping battalions to Darfur, Somalia, and Liberia.
Supporting Capacity Building of Partner Security Forces
    Achieving security and stability in Africa requires more than the 
contributions of the military alone. Security is a holistic function 
that includes nonmilitary elements such as law enforcement, border 
patrol, customs, and judiciary. U.S. Africa Command works closely with 
USG departments and agencies to ensure that we plan and conduct our 
efforts as seamlessly as possible.
    African Maritime Law Enforcement Partnership (AMLEP)
    AMLEP is a cooperative maritime law enforcement program with the 
U.S. Department of Homeland Security. U.S. Coast Guard and host nation 
Law Enforcement Detachments (LEDET) embark on U.S. and host nation 
ships and law enforcement vessels to provide the vessel with the 
necessary authorities and capabilities to conduct boardings, search, 
seizure, and arrests within the participating African country's 
Exclusive Economic Zone (EEZ).
    AMLEP operations were conducted with Senegal, Morocco, Sierra 
Leone, and Cape Verde, with the support of DOS, French Maritime Air 
Forces, and the U.S. Coast Guard. Collectively, our operations 
accomplished the following: Maritime Law Enforcement and small boat 
training for LEDET personnel; the integration of French Maritime Patrol 
Aircraft capability; and vessel boardings led by the respective 
country's LEDET team.
    The highlight of our engagements occurred in August when the 
Republic of Sierra Leone's Armed Forces Maritime Wing detained the 750-
ton Taiwan F/V YU FENG 102 for fishing illegally in the Sierra Leone 
EEZ. The YU FENG's 11 crewmembers were deported to Taiwan and the Feng 
was impounded by the Government of Sierra Leone. The Sierra Leone 
forces again demonstrated their resolve and capability by seizing four 
vessels for violation of Sierra Leonean law during December AMLEP 
operations.
    Security Sector Assessments
    An integrated and harmonized assessment of a partner nations' 
requirements is helpful in developing effective and coordinated 
activities. This past year, U.S. Africa Command participated in DOS-led 
Security Sector Assessments in Senegal, Guinea-Bissau, Ghana, Togo, 
Sierra Leone, Liberia, Cape Verde, and Mozambique. The resulting 
interagency plans will ensure our military engagements with these 
countries are consistent with policy objectives and mutually reinforce 
the activities of other USG departments and agencies.
Building Capacity of Partner Enabling Forces
    Enablers such as logistics, intelligence, communications, and de-
mining capabilities play vital roles in the U.S. military, and 
facilitate our ability to sustain operations independently. Developing 
similar enablers or enabling capabilities among African countries can 
help reduce their dependence on foreign assistance when conducting 
military operations. Many of our capacity building activities in this 
area add tremendous value while requiring only a minimal commitment of 
U.S. personnel.
    Logistics Capacity Building
    Our African partners recognize the importance of logistics and have 
benefitted from several U.S. Africa Command training events and 
symposia in this area. For example, experts from U.S. MARFORAF provided 
vital logistics support and guidance to assist the Republic of Sierra 
Leone Armed Forces in packaging and loading a UN ship in preparation 
for their first United Nations-African Union Mission in Darfur (UNAMID) 
deployment.
    The Africa Deployment Assistance Partnership Team (ADAPT) develops 
African military logistics capacities to enable them to manage and 
support peacekeeping operations. ADAPT training provided by U.S. Africa 
Command's Army and Air Force components enabled the Rwandan Defense 
Force to load and deploy vehicles, equipment, and supplies to support 
UNAMID. ADAPT also allowed the Ugandan People's Defense Force to 
certify Ugandan soldiers to load equipment on U.S. military aircraft 
(C-130 and C-17), strengthening their ability to support peacekeeping 
operations and disaster response operations employing U.S. or UN cargo 
aircraft. These soldiers will also serve as co-trainers for future 
ADAPT activities. ADAPT activities are planned in Nigeria and Tanzania 
in 2010.
    In 2009, U.S. Africa Command conducted the first Partnership for 
Integrated Logistics, Operations, and Tactics (PILOT) symposium with 25 
African participants. PILOT is an operational-level seminar jointly 
designed and funded through partnership with the Canadian Ministry of 
Defense, Canadian Pearson Peacekeeping Center. PILOT focuses on 
familiarization with the legal and ethical aspects of peacekeeping; the 
roles, missions, and functions of the AU and the UN in peacekeeping; 
planning logistics staff estimates for PKO; planning Reception, 
Staging, Onward Movement and Integration operations; planning Force 
Deployment Planning and Execution; and an overview of the Joint 
Operational Planning Process.
    Intelligence Capacity Building
    Military intelligence is an essential capability for all 
professional militaries. The ability to collect, analyze, and 
synthesize information is key to developing effective military plans. 
U.S. Africa Command's Intelligence Security Cooperation and Engagement 
(ISCE) Program seeks to build sustainable military intelligence 
capacity in designated partner nations and regional organizations. ISCE 
develops and implements common military intelligence doctrine and 
procedures. It emphasizes the rule of law, respect for human rights, 
and civil authority in order to reverse the historical stigma 
associated with many African intelligence and security services. 
Program activities include familiarization seminars; senior 
intelligence officer visits; Director of Military Intelligence 
conferences; intelligence exchanges and analyst roundtables; and a 
series of officer and noncommissioned officer intelligence training 
courses.
    The Military Intelligence Basic Officer Course-Africa (MIBOC-A) is 
a course offered to junior military intelligence officers, primarily 
from north and west Africa. In addition to teaching professional 
intelligence skills, it promotes relationships among the intelligence 
communities that encourage greater cooperation in the future. U.S. 
Africa Command conducted two MIBOC-A courses in fiscal year 2009 and 
one so far in fiscal year 2010.
    Communications Systems Development
    One way to foster regional cooperation is to establish means by 
which partner militaries can reliably and effectively communicate with 
each other. However, because African communications infrastructure is 
underdeveloped, U.S. Africa Command is developing programs that improve 
the communications architecture among African military leaders.
    The AU Command, Control, Communications, and Information Systems 
initiative is an effort to enable the AU's command and control of its 
Standby Force. This initiative achieved its first milestone with the 
recent ribbon-cutting of the new AU Peace Support Operations Center, 
and will continue by establishing similar command and control nodes at 
the regional Standby Brigade Headquarters, planning cells, and 
logistics cells. This initiative is also pursuing connectivity with the 
AU Mission in Somalia (AMISOM).
    We are also supporting two other regional initiatives. The Economic 
Community of Western African States' (ECOWAS) Regional Information 
Exchange System provides workstations, internet access, and telephone 
services to senior defense leaders in 11 ECOWAS countries, and this 
will soon expand to 13. Meanwhile, the Multinational Information 
Sharing Initiative has just begun, and it will provide similar mobile 
capabilities to the Operation Enduring Freedom-Trans Sahara (OEF-TS) 
countries over the next 3 years.
    De-Mining Capacity Building
    U.S. Africa Command conducts ``Train-the-Trainer'' Humanitarian 
Mine Action missions to build our partners' anti-mine capacities and 
support broader U.S. and international efforts to eliminate landmines 
and other explosive remnants of war. We initiated programs in Kenya, 
Burundi, Mozambique, and Namibia in 2009, and will expand mine action 
programs to the Democratic Republic of Congo, Senegal, and Chad in 
2010. We are also working with Uganda to develop anti-mine capabilities 
in support of Ugandan peacekeeping deployments to AMISOM.
    Special Staff Programs
    Efforts to establish capable and accountable forces involve 
mechanisms that allow the partner military leadership to establish and 
enforce standards of conduct and readiness. These mechanisms should be 
transparent to ensure equal treatment, fairness, and common 
expectations. Through mentoring and information exchanges, our 
inspector general, chaplain, legal counsel, surgeon, public affairs, 
and other special staff elements work closely with partner countries to 
build capacity in these areas in support of improving the military's 
standing with its government and people.
Fostering Strong Strategic Relationships
    Strong strategic relationships are important enablers for 
sustaining the positive gains of our capacity building activities. They 
encourage our partners to assume greater ownership of their newfound 
capabilities. They provide ready opportunities to reinforce success 
through follow-on activities and open communication links that 
facilitate new or evolving requirements. They also encourage dialogue 
with other partners.
    The National Guard State Partnership Program
    The State Partnership Program is a superb tool that fosters a 
variety of military-to-military, military-to-civilian, and civilian-to-
civilian engagements using National Guard and U.S. States' 
capabilities. Eight African countries currently partner with U.S. 
states through this program: Tunisia-Wyoming; Morocco-Utah; Ghana-North 
Dakota; South Africa-New York; Nigeria-California; Senegal-Vermont; 
Liberia-Michigan; and Botswana-North Carolina.
    The benefits of this program from the past year are many and 
impressive. For example, in Tunisia, the Wyoming Guard is helping the 
Tunisian Government integrate Ground Surveillance Radar into border 
patrol operations. In West Africa, U.S. Africa Command's Air Force 
Component, U.S. Air Forces Africa (AFAFRICA), partnered with the Deputy 
Under Secretary of the Air Force for International Affairs, the 
Tennessee Air National Guard, and the Warner-Robins Air Logistics 
Center to coordinate military-to-military efforts to rebuild the first 
of four Nigerian C-130s. In Botswana, the North Carolina Air Guard 
demonstrated its Modular Airborne Firefighting System capability; an 
event of key importance to Botswana due to the annual range fires that 
destroy grazing land and the habitat for one of Botswana's most 
important national resources--its wildlife.
    The State Partnership Program delivers programs and activities that 
build broad capabilities with our African partners. The habitual 
relationships this builds adds tremendous value to our efforts. This 
program is very valuable to U.S. Africa Command, and we look forward to 
expanding it as our African partners request greater participation. I 
urge your continued support.
    International Military Education and Training (IMET) and Expanded 
        IMET (E-IMET)
    Professionalizing militaries and reinforcing the democratic value 
of elected civilian authority are among the benefits of the DOS-led 
IMET and E-IMET programs. These comprise the most widely-used military 
assistance programs in U.S. Africa Command's AOR. Approximately 900 
military and civilian students from 44 African countries received 
education and training in the United States or their own countries 
valued at $19.8 million. Many officers and enlisted IMET graduates go 
on to fill key positions in our African partners' militaries and 
governments, and the relationships built in the academic environment 
directly contribute to stronger bi-lateral military relationships 
between the United States and partner countries.
    IMET funded regional seminars with a Defense Institute for 
International Legal Studies Military Education Teams (MET) for Chad, 
Cameroon, DRC, Mauritius and Sierra Leone, and also supported a Center 
for Civil Military Relations MET for Cameroon, Comoros, DRC, Mauritius, 
and Guinea Bissau. Sustained support for robust IMET and E-IMET 
programs is an investment in our future, and directly supports long-
term U.S. interests and relationships in Africa. It is one of our most 
desired and productive programs.
    Military-to-Military Engagement Programs
    U.S. Africa Command uses military-to-military (mil-to-mil) programs 
to strengthen key relationships and familiarize partners with U.S. 
military techniques, tactics, and procedures they can employ to address 
a broad range of security challenges, including conducting peacekeeping 
operations and countering terrorism. Mil-to-mil also assists partners 
in improving deployment procedures, logistics systems, maintenance 
operations, force protection, and the conduct of their own training. In 
fiscal year 2004, the initial year of the program, less than $500,000 
was spent in Africa for mil-to-mil programs. Today the mil-to-mil 
program is the cornerstone of U.S. Africa Command's engagement 
activities, with $6.3 million allocated and 431 events planned in 40 
countries in fiscal year 2010. This is a relatively small investment 
with substantial dividends.
Conducting Defense Sector Reform
    U.S. Africa Command is a key contributor to the long-term 
development of professional defense forces as part of broader security 
sector reform efforts led by the Department of State.
    Liberia
    To solidify gains made under the DOS' Security Sector Reform 
program, U.S. Africa Command commenced a 5-year mentorship program with 
the Armed Forces of Liberia (AFL) Headquarters Staff and Liberia's 23rd 
Brigade. We have 56 military mentors in Liberia to continue the 
professional development of the AFL. Onward Liberty is one of three 
lines of effort in our overarching Defense Sector Reform program in 
Liberia. We are also working with the U.S. Coast Guard to help the AFL 
re-establish a Coast Guard-like capability, and with the Office of the 
Secretary of Defense to mentor the Liberian Ministry of Defense.
    Democratic Republic of Congo
    At the request of the Department of State and DRC, U.S. Africa 
Command is training and equipping a battalion of the Armed Forces of 
the Democratic Republic of the Congo (FARDC) in support of USG 
objectives and priorities established by Secretary of State Clinton 
during her visit to the DRC in August 2009. We will help the FARDC to: 
(1) improve its capacity to lead, manage, and sustain its force; (2) 
enhance its ability to investigate and prosecute its personnel accused 
of human rights violations and other crimes; and (3) reduce sexual and 
gender-based violence (SGBV) by the military.
    The third objective, mitigating SGBV, is important to helping heal 
the wounds of past conflicts in DRC. We are working closely with the 
country team and USAID to identify opportunities to provide support to 
survivors of SGBV. We are pursuing funding for the completion of a 
maternity hospital in the capital city of Kinshasa that will also 
provide counseling for SGBV survivors and perform fistula repairs. In 
South Kivu Province, we are seeking to secure funding for two projects: 
the construction of a primary school, whose pupils will consist of HIV 
orphans or survivors and children of SGBV; and a Reference Hospital in 
Wolungu serving a large, rural population that includes SGBV survivors.
Fostering Regional Cooperation, Situational Awareness, and 
        Interoperability
    The spirit of cooperation is growing very strong among African 
states. Over the past 2 years, participation by African countries has 
increased steadily in many of our regional activities. All of our 
activities seek to capitalize on this spirit by bringing partners 
together to develop collaborative solutions to shared security 
challenges. The following activities are noteworthy in their emphasis 
on interoperability.
    Exercise Africa Endeavor
    Africa Endeavor is our premier communications interoperability 
exercise that involves the greatest number of partner countries, and it 
continues to grow. Exercise Africa Endeavor 09 in Gabon brought 
together 25 countries and 3 regional organizations (the AU, ECOWAS, and 
the Economic Community of Central African States). Focusing on 
information sharing among African states via communication networks, 
the exercise developed communications links with the United States, 
NATO, and other countries with common stability, security, and 
sustainment goals for the region. Participation in this summer's Africa 
Endeavor 10 exercise in Ghana is expected to expand to 30 African 
states.
    Exercise Phoenix Express, North Africa
    Phoenix Express is a multinational maritime security exercise led 
by U.S. NAVAF and focused on maritime interdiction, communications, and 
information sharing. Algeria, Libya, Morocco, and Tunisia increased 
their participation in the exercise this past year.
    Working With Partners to Counter Transnational and Extremist 
        Threats
    Transnational challenges in Africa are a threat to the United 
States, our partners, and our allies. Transnational threats exacerbate 
difficult circumstances for local populations and complicate efforts to 
create a secure and stable environment conducive to development. We 
conduct operations and capacity building programs and activities to 
address the threat of terrorism, piracy, narcotics, and other illicit 
trafficking.
    Counter-terrorism Efforts in North Africa and the Sahel--Operation 
        Enduring Freedom-Trans Sahara (OEF-TS)
    Special Operations Command, Africa (SOCAFRICA) conducts OEF-TS to 
counter the terrorism threat in North and West Africa. OEF-TS supports 
the DOS-led Trans-Sahara Counter Terrorism Partnership (TSCTP) by 
increasing our partners' capabilities to deny safe havens to 
terrorists, improving border security, promoting democratic governance, 
and reinforcing regional as well as bilateral military ties. OEF-TS 
activities are designed to defeat violent extremist organizations 
throughout the region.
    U.S. Africa Command works closely with the DOS and U.S. embassies 
to ensure we provide the military support needed to meet the objectives 
of TSCTP, including the following major elements: information 
operations; train, advise and assist activities; intelligence capacity 
building; coalition development; military exercise programs; and 
development and establishment of a regional computer-based information 
network. All OEF-TS activities are closely coordinated with the State 
Department and our U.S. embassy country teams.
    SOCAFRICA remained very active last year with OEF-TS. Military 
Information Support Teams assisted DOS public diplomacy efforts in 
countering extremist ideology in Mauritania, Mali, Niger, Chad, and 
Nigeria. OEF-TS created High Frequency-Radio Tactical Communications 
Interoperability between Algeria and Niger, and Mobile Training Teams 
(MTTs) trained new Counter-Terrorism (CT) light infantry companies in 
Mali. The MTTs also trained existing CT units in Tunisia, Morocco, 
Nigeria, and Senegal. OEF-TS Military Intelligence courses trained 
students from 7 OEF-TS countries, and the Trans-Sahara Security 
Symposium civil-military course trained nearly 100 students from 4 OEF-
TS partner countries. Additionally, OEF-TS Civil-Military Support 
Elements have completed or are planning 79 humanitarian assistance 
projects.
    In the last year, political conditions have allowed us to resume 
engagement with Mauritania, to include our efforts to build a CT 
company. Mauritanian security forces lack the capability to 
logistically sustain themselves during operations. Helping Mauritania 
develop a logistics capacity will provide Mauritanian security forces 
with the capability to push supplies and personnel to its forward-
deployed CT companies, which operate hundreds of miles away in 
extremely austere territory. Through U.S. assistance, Mauritania will 
be able to sustain CT operations within its borders and in partnership 
with other regional forces.
    In West Africa, we are building on efforts in Mali, Nigeria, 
Senegal, and Burkina Faso. Our activities range from training and 
equipping specialized CT units to increasing intelligence capabilities 
and information sharing to supporting efforts that counter extremist 
ideology in the region. We are working with Mali to develop an 
intermediate level maintenance and vehicle repair capability, and to 
improve its air mobility, intelligence, and reconnaissance 
capabilities. These two programs will bolster the ability of Malian 
security forces to take direct action against AQIM.
    Counterterrorism Efforts in East Africa
    In East Africa, U.S. Africa Command's CJTF-HOA conducts operations 
to counter violent extremists throughout the region to protect U.S. and 
coalition interests. In cooperation with other USG departments and 
agencies, CJTF-HOA focuses its operations on building regional security 
capacity to combat terrorism, deny safe havens, and reduce support to 
violent extremist organizations. It accomplishes these objectives 
through the use of Civil Affairs Teams, Seabee construction teams, 
military advisors, and by importing security courses of instruction.
    U.S. Africa Command has focused the majority of its CT capacity 
building activities in East Africa on Kenya, Ethiopia, Djibouti, and 
Uganda, which--aside from Somalia--are the countries directly 
threatened by terrorists. For example, in Kenya, the Command is 
assisting in establishing a Ranger Strike Force and a Special Boat 
Unit, which will become the country's primary CT and border security 
forces. SOCAFRICA completed training two companies of the Kenyan Ranger 
Strike Force, and our Special Operations Forces (SOF) maritime efforts 
have created a nascent Kenyan Special Boat Unit capability to enhance 
Kenyan maritime security. When completed, Kenya will have a 
significantly improved capacity to counter the terrorist threat 
emanating from Somalia.
    In Djibouti, U.S. Africa Command is assisting with training of the 
Djiboutian counter-terrorism unit, the Groupe d'Intervention de la 
Gendarmerie Nationale. We are helping with the repair and transfer of 
12 vehicles from the AU to Djibouti. The vehicles are specifically for 
counter-terrorism and border security operations. The Uganda People's 
Defense Forces (UPDF) is one of the region's most professional 
militaries. It is a reliable partner in combating terrorism and, in 
collaboration with regional partners, is leading operations against the 
Lord's Resistance Army. Uganda's peacekeeping force in Somalia has 
played a critical role in providing the TFG an opportunity to establish 
itself. U.S. Africa Command and CJTF-HOA continue to work with the UPDF 
to enhance peacekeeping and CT capabilities through Africa Contingency 
Operations Training Assistance (ACOTA), IMET, and PKO funded training.
    Counter-Narcotics Programs
    Our counternarcotics programs train, equip, and support partner 
nation law enforcement, paramilitary, and military units that have a 
counternarcotics and narcoterrorism mission. They build partner 
capacity to conduct the full range of counter-drug activities, such as 
sharing information, detecting threats, and interdicting and seizing 
vessels.
    One success from the past year was the construction of a multi-
national and interagency fusion center in Cape Verde, funded by our 
Counternarcotics Division. The center incorporates U.S. law 
enforcement, International Police, and Cape Verde law enforcement 
agencies and maritime forces, and U.S. FMS projects will provide 
vessels. Our naval component, along with the U.S. Coast Guard, is 
providing maritime interdiction training and familiarization. The U.S. 
Drug Enforcement Agency, Department of Justice, and Department of State 
are also significant contributors. The goal is to develop a Cape Verde 
maritime force capable of detecting and interdicting illicit 
traffickers, and sharing critical law enforcement information with the 
United States and the international community.
    Operation Objective Voice (OOV)
    OOV is U.S. Africa Command's information operations effort to 
counter violent extremism by leveraging media capabilities in ways that 
encourage the public to repudiate extremist ideologies. OOV is closely 
coordinated with U.S. embassies, DOS, and USAID, and employs a variety 
of messaging platforms, such as the African Web Initiative, to 
challenge the views of terrorist groups and provide a forum for the 
expression of alternative points of view. OOV also supports local 
outreach efforts to foster peace, tolerance, and understanding. 
Examples included a `youth peace games' in Mali and a film project in 
northern Nigeria. Anecdotal evidence suggests that the enhanced 
dialogue has had a positive impact. We are currently collecting 
baseline data and developing assessments to quantify the overall 
effects.
Contributing to Stability in Current Zones of Conflict
    Long-term efforts to build security capacity can only succeed in an 
environment of sufficient stability. The United States is supporting 
African efforts to stabilize current and potential zones of conflict 
through peacekeeping missions and the growth of robust peacekeeping 
capacity that includes the AU's African Standby Force.
    Sudan
    U.S. Africa Command is closely working with USG stakeholders to 
support implementation of the comprehensive U.S. Strategy for Sudan. In 
Southern Sudan, the Command supports professional military education 
and non-commissioned officer development programs, HIV/AIDS courses and 
seminars, as well as familiarization events across professional 
military skills and functional areas. Additionally, we are examining 
ways in which our assets and resources can strengthen the UN missions 
operating in the country, and how we can continue to provide support to 
DOS-led Security Sector Reform efforts.
    Somalia
    The lack of an effective central governing authority in Somalia for 
nearly two decades has created a multitude of de-stabilizing 
conditions. It has left the country vulnerable to terrorist 
exploitation, and fosters a permissive environment for piracy and other 
illicit activities. It also exacerbates a severe humanitarian crisis. 
AMISOM, the multilateral AU Mission in Somalia, is severely under-
resourced, but is essential to securing key TFG locations. The USG's 
support to AMISOM includes training, equipping, and logistical support 
for Ugandan and Burundian forces. Additionally, U.S. Africa Command 
provides military mentors to ACOTA pre-deployment training for AMISOM 
forces. Before deploying, each battalion receives staff training and 
soldier skills training tailored to PKO and the operational environment 
in Somalia.
    We also provide support to U.S. Central Command operations to 
address the increase of piracy in the western Indian Ocean. Counter-
piracy training is also a part of our maritime capacity building 
efforts in east and southern Africa, such as Africa Partnership 
Station-East.
    Global Peace Operations Initiative (GPOI)
    GPOI is a DOS program that builds peacekeeping capacity in targeted 
partners and organizations. The GPOI-funded ACOTA program is regularly 
supported by U.S. Africa Command with officers and non-commissioned 
officers that serve as trainers and mentors. ACOTA has trained and 
provided equipment for Ugandan and Burundian forces for AMISOM, and 
trained Rwandan, South African, Zambian, and Tanzanian Forces for 
UNAMID.
    For fiscal year 2010, U.S. Africa Command has requested GPOI 
funding to support training programs to enhance the capabilities of the 
AU peacekeeping staff, the Economic Community of West African States, 
the Economic Community of Central African States, and the Southern 
African Development Community Standby Brigade Headquarters. We have 
also sought funding for designated member states' tactical units 
pledged to the respective Regional Standby Brigades.
Addressing Conditions that Contribute to Instability
    The U.S. military has a number of civil-military programs that 
promote good civil-military relations, provide military training 
benefits, and help develop the humanitarian capacity of African 
countries. They complement civilian development efforts and are closely 
coordinated with U.S. embassy country teams.
    Exercise MEDFLAG
    In August 2009, MEDFLAG 09 was conducted with the Umbutfo Swaziland 
Defense Force as a joint Medical/Dental/Veterinary Capabilities 
Exercise. U.S. Army Africa and U.S. Air Forces Africa designed a mass 
casualty scenario that exercised the Defense Force's response 
capabilities and its interoperability with civilian first-responders. 
The exercise assisted the Swazi ministries of Health and Defense in 
jointly examining their emergency response plans and procedures. 
MEDFLAG 09 helped improve Swaziland's capacity to support future 
regional AU or UN PKO missions, while highlighting our support for this 
region of the continent.
    Pandemic Response Program
    Because infectious disease outbreaks have the potential to rapidly 
become global crises, U.S. Africa Command works with African partner 
countries, the interagency, international organizations, and NGOs to 
build partner military capacity to mitigate the effects of a pandemic. 
Our efforts are reinforced with 3 years of funding from USAID, which 
cooperates with the International Federation of the Red Cross and Red 
Crescent Societies and other partner organizations in African 
countries.
    Human Immunodeficiency Virus/Acquired Immune Deficiency Syndrome 
        (HIV/AIDS) Program
    U.S. Africa Command's military HIV/AIDS program is aimed at 
mitigating the impacts of the disease on African military readiness. 
The program includes activities that help prevent the escalation of 
HIV/AIDS infection rates within African security forces, and provide 
care and treatment for the servicemembers and families infected or 
affected by the disease. DOD activities that support African 
militaries' fight against HIV/AIDS now reach 39 African countries. 
During the first half of fiscal year 2009, U.S. Africa Command's 
programs reached over 117,000 African troops and family members with 
prevention messages, and provided counseling and testing services for 
114,430 servicemembers and their families. In addition, 111 senior 
military leaders have been trained on HIV/AIDS policies, and 2,396 peer 
educators and 517 health care workers have received HIV/AIDs training. 
Over 19,000 individuals are on antiretroviral treatment as a result of 
these collaborative efforts. The fight against HIV/AIDs in Africa is 
having an impact. Recently, a leader of a southern African country 
remarked that, 3 years ago, he was conducting burials everyday for an 
HIV related death; however, today he conducts one burial every 8 to 10 
days.
    Shared Accord, Benin
    When possible, we integrate civil-military operations into our 
exercises. Shared Accord is one example. Conducted by U.S. MARFORAF, 
Shared Accord's primary purpose is to train for peacekeeping and peace 
support operations, and the exercise successfully integrated two 
Beninese Infantry Companies with two Marine Corps Infantry Companies. 
An additional component of the exercise was a Medical/Dental Civic 
Action Program, which treated 7,370 patients during visits to three 
villages over an 8 day period. A separate Veterinary Civic Action 
Program treated 92,410 animals while visiting 7 villages over the same 
period. An exercise-related construction project to increase the 
Beninese capacity to conduct peacekeeper training at the Bembereke 
Peace Keeping Training Center was also completed.
         u.s africa command component and subordinate commands
    U.S. Africa Command has four component commands, one sub-unified 
command, and the Combined Joint Task Force-Horn of Africa. Our 
components are newly established and have inherited legacy efforts that 
they must mold to fit the Command's strategy. U.S. Africa Command's 
components and subordinate commands are the primary implementers of our 
programs and activities on the continent. Since our components have no 
assigned forces, we rely on the DOD Request for Forces process for the 
resources necessary to support our engagements in Africa.
U.S. Army Africa (USARAF)
    On 1 October 2009, the Secretary of the Army designated U.S. Army 
Africa as the Army Service Component Command (ASCC) to U.S. Africa 
Command. USARAF will be fully operational capable (FOC) as an ASCC in 
fiscal year 2012, and has doubled in size during the last 15 months. 
USARAF is heavily involved in the professional development of African 
land forces, which remain the dominant military force in most African 
states. USARAF's goal is to help transform our partners' land forces 
into contributors to peace and stability, with the capabilities and 
capacities required to accomplish their missions in support of 
legitimate authority.
    USARAF continues to forge cooperative relationships and enduring 
partnerships that contribute to self-sustaining African security 
capacity. Key to USARAF's success is collaborating with both military 
and non-military partners. USARAF is fostering new partnerships and 
enhancing existing ones, to include partnerships with other USG 
agencies.
    USARAF sponsored NATURAL FIRE, the largest exercise on the 
continent last year. It brought together U.S. forces from Europe and 
the United States to join with forces from five African states in a 
Humanitarian Assistance/Disaster Relief exercise in Uganda.
U.S. Naval Forces, Africa (NAVAF)
    NAVAF's primary mission is to improve the maritime security 
capability and capacity of our African partners. Beyond APS, law 
enforcement operations, and Theater Security Cooperation activities, 
NAVAF is working to enhance maritime security by focusing on the 
development of maritime domain awareness, trained professionals, 
maritime infrastructure, response capabilities, regional integration, 
and a comprehensive approach for planning and execution. These 
capabilities will improve maritime security and contribute to 
development and stability by allowing our partners to take advantage of 
the resources in their exclusive economic zones.
    NAVAF, located in Naples, Italy, supports the creation of an 
environment where all African countries take a proactive interest in 
their own maritime security and in the overall security of the region. 
NAVAF utilizes maritime engagement activities to build trust, mutual 
cooperation, and respect in order to protect U.S. interests, reduce 
demand for U.S. resources, and ensure reliable and open access to 
ports, territorial waters, and other resources required for conducting 
sustained maritime operations.
U.S. Air Forces, Africa (AFAFRICA/17AF)
    The 17th Air Force is the Air Force component to U.S. Africa 
Command. AFAFRICA continues its growth in capacity to command and 
control air forces in Africa for the purpose of conducting security 
engagement and operations, and to promote development, air safety, and 
security.
    AFAFRICA is organized into an Air Force Forces (AFFOR) staff and 
the 617th Air and Space Operations Center (AOC). AFAFRICA's AFFOR staff 
reached FOC on 1 October 2009. The 617th AOC is expected to achieve FOC 
on 1 June 2010. The AOC provides continuous air command and control 
capability for all theater security cooperation exercise and engagement 
activities and crisis response operations such as foreign humanitarian 
assistance and non-combatant evacuation operations. Eventually, the AOC 
will provide a common operating picture of all air and space missions 
over the continent. Located at Ramstein Air Base, Germany, the 300-
person command is administratively assigned to the U.S. Air Forces 
Europe for DOD funding support. AFAFRICA answers directly to U.S. 
Africa Command for operational assignments and joint support.
    One of AFAFRICA's key programs is the Air Domain Safety and 
Security (ADSS) program, which is a long-term Air Force program of 
record with fiscal year 2010 funding of $2.6 million. Funding is 
projected to grow to $3.1 million in fiscal year 2011. AFAFRICA will 
expand ADSS significantly in 2010, by utilizing general purpose air 
forces and working together with USG departments and agencies and other 
partners to develop African capacity to provide regional air safety and 
security solutions to the civil and military air domains. Discussions 
with Rwanda, Uganda, Nigeria and Ghana are underway, and will lay the 
foundation for a common regional air picture.
U.S. Marine Corps Forces, Africa (MARFORAF)
    MARFORAF, located in Stuttgart, Germany, conducts operations, 
exercises, training, and security cooperation activities throughout the 
AOR. In 2009, MARFORAF participated in 15 ACOTA missions aimed at 
improving partners' capabilities to provide logistical support, employ 
military police, and exercise command and control over deployed forces. 
As the executive agent for the Non-Lethal Weapons program, MARFORAF 
conducted a very successful capabilities exercise attended by 11 
African countries. This exercise highlighted a wide range of weapons 
that can limit the escalation of force and increase a tactical 
commander's ability to control a situation short of lethal force.
    MARFORAF conducted mil-to-mil events in 2009 designed to 
familiarize our African partners with nearly every facet of military 
operations and procedures, including use of unmanned aerial vehicles, 
tactics, and medical skills. MARFORAF, as the lead component, continues 
to conduct Exercise African Lion in Morocco--the largest annual 
Combined Joint Chiefs of Staff (CJCS) exercise on the African 
continent--as well as Exercise Shared Accord 10, which will be the 
first CJCS exercise conducted in Mozambique.
U.S. Special Operations Command, Africa (SOCAFRICA)
    On 1 October 2008, SOCAFRICA was formed as a Special Operations 
Forces (SOF) Functional Sub-Unified Command for U.S. Africa Command. 
SOCAFRICA is colocated with U.S. Africa Command at Kelley Barracks, 
Stuttgart, Germany.
    Also on 1 October 2008, SOCAFRICA assumed responsibility for the 
Special Operations Command and Control Element-Horn of Africa, and on 
15 May 2009, SOCAFRICA assumed responsibility for Joint Special 
Operations Task Force Trans-Sahara (JSOTF-TS)--the SOF component of 
Operation Enduring Freedom--Trans-Sahara.
    SOCAFRICA's objectives are to build operational capacity, 
strengthen regional security and capacity initiatives, implement 
effective communication strategies in support of strategic objectives, 
and eradicate violent extremist organizations and their supporting 
networks. SOCAFRICA forces work closely with both U.S. Embassy country 
teams and African partners, maintaining a small but sustained presence 
throughout Africa, predominantly in the OEF-TS and CJTF-HOA regions. 
SOCAFRICA's persistent SOF presence provides an invaluable resource 
that furthers USG efforts to combat violent extremist groups and builds 
partner nation CT capacity.
Combined Joint Task Force-Horn of Africa (CJTF-HOA)
    In East and Central Africa, CJTF-HOA is critical to U.S. Africa 
Command's efforts to build partner capacity to counter violent 
extremists and address other regional security challenges. Its mission 
to counter violent extremism and its location at Camp Lemonnier remain 
of utmost importance given the rising regional threat from al Qaeda and 
al Shabaab in Somalia and al Qaeda in Yemen. To counter extremist 
influences, CJTF-HOA works along several lines of effort:
    Fostering Regional Security Cooperation: CJTF-HOA works in close 
coordination with coalition members, African partners, other USG 
departments and agencies, and NGOs operating in the Joint Operations 
Area. CJTF-HOA fosters regional security cooperation through support to 
the East African Standby Force, the International Peace Support 
Training Center, the Humanitarian Peace Support School, ACOTA, the East 
African Community, and the East African regional disaster preparedness 
exercises Natural Fire and Golden Spear.
    Strengthening Partner Nation Security Capacity: Civil-military 
Operations, activities, and development programs offer U.S Africa 
Command various pathways to strengthen partner security capacity. Civil 
Affairs (CA) teams help our partners promote the legitimacy of their 
governments and military forces. Coordinated with USAID and DOS, civil 
affairs activities help mitigate the underlying stresses that can 
contribute to regional instability. CJTF-HOA also strengthens partner 
security capacity by supporting APS; providing opportunities for our 
African partners' militaries to work closely with our CA Teams; 
developing Maritime Safety and Security/Counter-Piracy capability and 
capacity; and by providing opportunities for African military liaison 
officers to serve on the CJTF-HOA staff.
    CJTF-HOA's support for Djibouti's efforts to train Somali TFG 
soldiers and support to the East African Standby Force Field Training 
Exercise has improved Djibouti's capacity to assume a larger role in 
promoting peace in the Horn of Africa.
             command enablers: challenges and opportunities
    The breadth and scope of U.S. Africa Command's programs and 
activities in Africa are significant and growing. Our ability to 
sustain forward progress toward our long-term goals in Africa is 
dependent on several factors that enable our efforts. Some, such as 
limits on authorities, present us with challenges where we seek 
assistance. Others, such as interagency integration, present 
opportunities for growth and development of new or improved programs 
and activities that we wish to sustain.
Authorities
    Sustaining our long-term security cooperation programs and 
activities in Africa requires flexible, multi-year authorities. 
Existing authorities are designed to support the conduct of individual 
short-term activities or long-term programs, but do not support the 
transition from the former to the latter. They are also insufficiently 
responsive to changing conditions, such as when train and equip efforts 
initiated in response to emergent threats highlight the need for long-
term capacity building.
    The authorities and programs we currently use for building partner 
capacity are essential, and I ask for your continued support in the 
following areas:

        <bullet> Full support of the President's budget request for the 
        global train and equip program.
        <bullet> Support of the Department of State's request for 
        programs in Africa.
        <bullet> Support of the Combatant Commander's Initiative Fund, 
        with increased flexibility for foreign military education and 
        training activities.

    We encourage dialogue on ways to streamline or modify legislative 
authorities to enable sustained security engagement with our African 
partners, ranging from train and equip programs that respond quickly to 
changing conditions to long-term partner capacity-building, especially 
in countering violent extremism.
Theater Infrastructure and Posture Requirements
    U.S. Africa Command's theater posture was inherited from the three 
previous commands that formerly had DOD responsibility for Africa. U.S. 
Africa Command, in close cooperation with DOS, is evaluating and 
refining its access needs based on our theater-wide requirements. This 
centers primarily on gaining and maintaining the access and freedom of 
movement necessary to conduct both day-to-day security cooperation 
activities and, if required, crisis response operations. We are working 
with our components, the Office of the Secretary of Defense, and DOS to 
identify the network of Cooperative Security Locations (CSLs) and 
supporting agreements required to enable the Command to carry out these 
activities. Currently, 10 CSLs have been identified, 8 of which were 
previously established by U.S. European Command and U.S. Central 
Command. The Command's posture plan and facilities master plan are 
designed to address our emerging support requirements.
    Forward Operating Sites (FOS) and Cooperative Security Locations 
        (CSLs) in U.S. Africa Command's AOR
    Camp Lemonnier, Djibouti (CLDJ) is an enduring location essential 
to U.S. security interests in East Africa and the greater Indian Ocean 
basin. This facility supports efforts in the Gulf of Aden as well as 
U.S. Central Command's objectives for Yemen. Colocation with Djibouti 
Airport and proximity to Djibouti's seaport make CLDJ an ideal site for 
supporting U.S. Africa Command operations throughout the region, and of 
equal importance is the Camp's ability to support DOD's global 
transportation infrastructure network as a key node. Camp Lemonnier 
also supports our international partners as we work together to counter 
piracy in the region.
    We are transitioning CLDJ from its previous contingency footing to 
an enduring presence through the construction of permanent facilities 
funded through a military construction program of record. The first 
series of projects will improve security and safety. Subsequent 
projects will improve the capacity to sustain operations.
    The second of our two FOSs, Ascension Island, is also critical to 
the strategic transportation network supporting U.S. Africa Command--
extending our operational reach to the west and south Africa. U.S. 
Africa Command is working with U.S. Transportation Command to develop 
the infrastructure of this FOS so that it can provide broader support 
to the Command's mission.
    Enroute Infrastructure outside U.S. Africa Command's AOR
    In addition to the transportation infrastructure inside our AOR, 
U.S. Africa Command continues to depend on adjacent command 
infrastructure and main operating bases in Rota (Spain), Sigonella 
(Italy), Aruba (Lesser Antilles), Souda Bay (Greece), and Ramstein 
(Germany) for logistical support. Although these sites are located in 
other geographic combatant command AOR, they are critical intermediate 
nodes that support operations in Africa.
    Command, Control, Communications, and Computer System (C4S) 
        Infrastructure
    All the above leads to a requirement for significant investment in 
the development of its C4S capabilities for our enduring locations--
Camp Lemonnier, FOSs, CSLs, and enroute locations. The expanse of the 
African Continent and U.S. Africa Command's limited forces necessitate 
a steady-state C4S requirement met by limited commercial capability or 
deployed tactical networks. The migration and improvement of legacy 
C4S, as well as tactical networks, to a robust and sustainable 
infrastructure will continue to be an investment priority for U.S. 
Africa Command.
Resources
    The level of funding for programs under the authority of DOS that 
are available to Africa has increased since the creation of U.S. Africa 
Command, and we request continued funding to allow us to fully pursue 
the defense aspects of the President's stated priorities. The countries 
in our AOR are among the poorest in the world. Many of their militaries 
are inappropriately trained, equipped, and prepared for their primary 
missions--the defense of their state or participation in peacekeeping 
operations. Movement of U.S. and African military personnel and 
equipment to meet emergent threats, conduct capacity building 
activities, and respond to crises, is heavily dependent on U.S. 
military air and sealift.
    Fully funding DOS-led programs is necessary to assist our partners 
in maintaining stability that fosters development, while helping them 
transform their security sectors. The greatest needs include the 
following.
    Funding for the FMF Program
    Fiscal year 2011 FMF request totals for Africa are approximately 
$38 million, of which $14 million is allocated to Tunisia and Morocco. 
If we are to achieve our strategic objectives and avoid undesirable 
long-term consequences, we must fully fund our requested FMF commitment 
to the African continent. FMF is critical to accomplishing the U.S. 
mission in Africa and constitutes a long-term investment in critical 
relationships. Inadequate funding of our FMF request or inconsistent 
year-to-year distribution can compromise our efforts, turn our partners 
towards other sources, and inhibit peacekeeping operations. FMF is 
fundamental to our strategy of preventative rather than reactive 
response.
    Funding for Exercises
    A key component of our capacity building is our Joint and Combined 
Exercise program. This program is conducted under the auspices of the 
CJCS exercise program, and is dependent upon funding from the Combatant 
Commander's Exercise and Engagement and Training Transformation (CE2T2) 
Program. As the command continues to mature and our exercise program 
expands to meet the readiness needs of U.S. forces and partner 
militaries, U.S. Africa Command will place increasing demands for 
limited CE2T2 funds. We ask for your continued support of the 
Department's request for the Combatant Commander's Exercise and 
Engagement and Training Transformation Program.
    Funding for Counternarcotics Efforts
    Revenue from the sale of illegal narcotics trans-shipped through 
Africa directly benefits the same drug cartels who resolutely 
distribute narcotics on the streets of the United States. The influence 
of drug money in developing states breeds corruption and instability, 
which may threaten the availability of African natural resources 
critical to the U.S. and global economy. Countering the flow of 
narcotics through Africa has direct relevance to U.S. national 
security, and we urge you to consider giving this program your full 
support.
Interagency Integration and Contribution
    The construct of U.S. Africa Command is based on the premise that 
interagency partner integration leads to better planning and greater 
unity of effort by all USG stakeholders. As mentioned in this 
statement, our national interests have benefited from U.S. Africa 
Command's interagency collaboration. Our collective efforts have 
produced significant positive results in the areas of security sector 
reform, military professionalization, peacekeeping, humanitarian 
assistance, disaster preparedness, pandemic response programs, 
counternarcotics, and counterterrorism.
    U.S. Africa Command is working to improve and expand its 
interagency partner integration. Currently U.S. Africa Command has 
memoranda of agreement with 11 departments and agencies. Opportunities 
are expanding with the recent addition of the U.S. Geological Survey, 
the Department of Energy, the U.S. Department of Agriculture, the 
Department of the Interior, and the Transportation Security 
Administration.
    Challenges of successfully embedding interagency personnel in the 
Command have been identified recently through a comprehensive internal 
survey. As a result, initiatives are being implemented to address 
training issues, collaborative exercise planning, and the education of 
DOD personnel concerning interagency capabilities. We understand that 
other USG agencies have different obligations and objectives, and that 
interagency cooperation is a two-way street. In all we do, we seek to 
ensure that the programs and actions of this Command support overall 
U.S. policy in Africa. We continue to work diligently to ensure that 
interagency participation with U.S. Africa Command is beneficial to all 
participants and, particularly, to our national interests.
    Increases in funding for defense-related programs must be 
accompanied by adequate resourcing of parallel efforts in diplomacy and 
development programs. Adequate TSCTP funding enables civilian agency 
efforts to help our partners develop and sustain conditions to counter 
violent extremism. We encourage Congress to support USG efforts in 
their entirety when it comes to diplomacy, development, and defense.
Well-Being Programs
    Our Quality of Life (QoL) Office promotes accessibility, equity, 
and an increased quality of life through services and programs for the 
U.S. Africa Command family. To help us identify QoL focus areas, Africa 
Command Families on the African Continent conferences are held to 
address challenges faced by families living in Africa. To assist our 
team members and their families in solving problems resulting from 
deployments and other family changes, we have implemented the Military 
and Family Life Consultant Program. Concerning education, our 
partnership with the Department of Defense Education Activity and the 
Department of Defense Dependent Schools, Europe, ensures educational 
support to all U.S. Africa Command members. U.S. Africa Command will 
continue to support and expand these initiatives in fiscal year 2011.
    The Command will continuously assess the theater-wide environment 
in order to identify emerging and unusually sensitive QoL challenges. 
We will strengthen our strategic partnerships to leverage best business 
practices and collaborate on solutions to mitigate or resolve quality 
of life issues. We continue to focus our efforts on our members and 
their families, both on and off the African continent, to ensure their 
quality of life remains a priority and is funded properly.
                               conclusion
    U.S. Africa Command's priority is to conduct effective and 
sustained security cooperation programs and military operations to 
advance and protect U.S. interests in Africa. Our programs are helping 
our African partners assume an ever-increasing role in addressing the 
security concerns of the continent and its island states. By focusing 
on long-term capacity building, we are implementing a preventative 
strategy that serves the interests of the United States, our African 
partners, and our allies.
    The United States achieves its greatest effect when all U.S. 
Government agencies work collaboratively in applying the tools of 
diplomacy, development, and defense to meet our national security 
objectives. Congress can modernize our Nation's approach to emergent 
challenges made evident in the first decade of this new century by 
supporting funding and further development of the other USG departments 
and agencies with whom we partner and support. Revising security 
assistance authorities will allow all agencies that contribute to our 
foreign policy and national security effort to improve our unity of 
effort, and thus ensure we outpace transnational threats that know no 
lawful limits.
    I am grateful for the outstanding congressional support to U.S. 
Africa Command (AFRICOM). Your continued devotion to the men and women 
from DOD and other U.S. Government departments and agencies assigned to 
the Command will allow their good work to protect and advance the 
interests of the United States. I am proud to serve on the U.S. AFRICOM 
team with these dedicated Americans.

    Chairman Levin. Thank you so much, General.
    General Mattis.

STATEMENT OF GEN. JAMES N. MATTIS, USMC, COMMANDER, U.S. JOINT 
                         FORCES COMMAND

    General Mattis. Chairman Levin, Senator McCain, members of 
the committee, thank you for the opportunity to testify, and I 
request my written statement be placed in the record.
    Chairman Levin. It will be.
    General Mattis. Over the course of this past year, JFCOM 
has continued to provide combat-ready forces to combatant 
commanders to support the military operations and continue to 
prepare for future conflicts while looking ahead. After an 
historic change of command in NATO, which got handed over to 
the Supreme Commander, Allied Command Transformation, we 
continue to ensure JFCOM remains closely linked with our allies 
and partners in NATO.
    The character of this current conflict remains different 
or, better said, irregular. We have continued to adapt our 
forces in stride and become increasingly confident in irregular 
warfare. Across the board, JFCOM has significantly adapted to 
this new environment. Our watchword is balance. The Chairman of 
the Joint Chiefs and the Secretary of Defense have stated that 
we must not lose our conventional superiority in the process of 
adapting. Even as we continue to prepare and deploy forces in 
the irregular fights in Iraq and Afghanistan, we cannot permit 
dormancy of our conventional ability.
    Our forces are achieving balance and will continue to do so 
as dwell times build with the Iraqi drawdown. Through effective 
training and education across the force, we can strike the 
appropriate balance while ensuring our current and future 
combat readiness.
    I returned a week ago from Afghanistan and our field 
commanders there confirm that our troops are superbly trained 
for the fight, even as we use lessons learned to further 
improve our readiness and not fall back on complacency. Based 
on the reality of current active operations and future trends 
outlined in our work on the future, JFCOM's top priority 
continues to reflect this balance between support for the 
current fight and our constant assessment of the future to 
ensure we remain the most capable military in the world.
    Thank you, sir.
    [The prepared statement of General Mattis follows:]
            Prepared Statement by Gen. James N. Mattis, USMC
                              introduction
    Mr. Chairman, ranking member, and distinguished members of the 
committee, thank you for the opportunity to report on Joint Forces 
Command. Joint Forces Command is comprised of 1.16 million Active Duty, 
National Guard, and Reserve soldiers, sailors, airmen, and marines. Our 
command provides combat-ready forces to our Nation's geographic 
combatant commanders around the globe in support of today's fight, 
while we simultaneously prepare the joint force for future conflicts. 
Successful accomplishment of our mission ensures we field the most 
capable and ready joint force the world has ever known. At the same 
time we keep a weather eye on the future to ensure our Nation has the 
fewest regrets when future surprises occur, as they surely will if 
history is a guide.
 joint operating environment and capstone concept for joint operations
    Our thinking about how to prepare our forces for the future must be 
informed by the past. No one has a crystal ball to accurately predict 
the threats and challenges we could face. But if we're to reduce the 
potential for being caught flat-footed, we must explore the strategic 
and operational depths of the future to provide the most reasoned 
mental framework within which will come the challenges that our 
political and military leaders will confront in the future. Developed 
at Joint Forces Command for defense planners and decisionmakers, The 
Joint Operating Environment (JOE) provides a framework of trends, 
contexts, and strategic implications as a basis for thinking about the 
world over the next quarter century. Its purpose is not to predict, but 
to suggest ways leaders might think about the future.
    First published in 2008, the JOE was updated and will be re-
released later this month. This new edition of the JOE continues to be 
historically informed and forward looking, and this year the JOE 
includes a new section that looks at the world's tenuous financial 
stability, a growing U.S. national debt, and what this all might mean 
for future national security and defense planning. By considering how 
global trends will drive change, we draw general conclusions about the 
military implications. Those implications set the framework for our 
concept development.
    If the JOE is the ``problem statement'' for the future joint force, 
then the Capstone Concept for Joint Operations (CCJO) is the 
``solution.'' The CCJO is the Chairman of the Joint Chiefs of Staff's 
statement for how the joint force will operate in the future threat 
environment described in the JOE. As the Capstone Concept, it was 
drafted with active engagement of the Joint Chiefs and combatant 
commanders under the guidance of the Chairman. This past summer a 
series of war games tested the CCJO and found it conceptually 
sufficient. The games also highlighted several key areas that require 
focus and improvement for the joint force and informed the Quadrennial 
Defense Review (QDR).
    Throughout history every military organization that has 
successfully adapted has done so by clearly articulating the problem as 
we have in the JOE, and then resolving the problem as the Chairman has 
outlined in the CCJO. With the QDR, JOE and the CCJO providing our 
backdrop, Joint Forces Command remains focused this year on prevailing 
in the current conflict, preparing for a wide range of future 
contingencies, and preserving and enhancing the joint force, including 
its ability to work harmoniously with other elements of the U.S. 
Government and allies.
                      prevail in today's conflicts
    Supporting the current active operations overseas commands much of 
our effort. We are engaged in training and deploying forces, analyzing 
and applying lessons learned, and overseeing the development of joint 
capabilities in response to our warfighting commanders needs. These 
activities demand a sense of urgency. It is imperative that we adapt 
and evolve the force to confound our enemies, keeping our forces at 
their top effectiveness.
    As the joint force provider, Joint Forces Command is responsible 
for providing trained and ready forces to combatant commanders in 
support of current operations and global contingencies. This mission 
area has the most immediate and visible impact on current joint 
operations. During the past year, we responded to more than 390 
rotational and emergent requests for forces from combatant commanders 
resulting in the sourcing of more than 398,000 personnel supporting 
numerous global missions. Key among these is the troop increase in 
Afghanistan, while continuing to satisfy requirements in Iraq and other 
regions.
    In reserve, as a shock absorber for unpredictable events like the 
surprises outlined in the JOE, Joint Forces Command maintains the 
Global Response Force ready to respond to unforeseen crises at home or 
abroad. This force, most recently deployed in support of Haiti, 
provides the Commander in Chief with flexible options to respond to a 
variety of crises while we simultaneously fulfill our commitments in 
Iraq, Afghanistan, the Horn of Africa, and elsewhere around the world.
    The character of ongoing operations has resulted in unusual stress 
on ``high-demand, low density'' assets and requires accelerated force 
structure changes. In some cases the demand requires new capabilities 
be developed. The work associated with the QDR resulted in considerable 
gains in identifying shortfalls and validating the need to balance the 
force. Although the Services are continuing to increase these 
capabilities, persistent shortfalls exist in electronic warfare, civil 
affairs, engineering, military intelligence, military police, and 
intelligence, surveillance and reconnaissance capabilities.
    While we cannot accurately predict the type warfare in which we 
must be ready to engage in the future, we recognize that we cannot 
adopt a single, preclusive view of war. Balance is key. Our forces must 
be tailored to provide the maximum flexibility to deal with a wide 
range of conflicts and contingencies, because today's strategic and 
operational environment is characterized by the constants of rapid 
change and complexity. Today, we recognize that the force must be 
balanced to effectively meet various challenges to U.S. interests and 
an irregular threat, without compromising our nuclear deterrent or 
conventional capabilities and at a time when the distinctions between 
types of warfare are blurring. Our military leaders and our forces will 
need to be the most versatile in our Nation's history.
    In support of this line of thinking, in March of 2009 Joint Forces 
Command published a vision for Irregular Warfare (IW) and established a 
set of goals and objectives to advance counterinsurgency, 
counterterrorism, and stability operations capabilities as a core 
competency within the General Purpose Forces (GPF). Our Joint Irregular 
Warfare Center is the command's catalyst and driving force behind 
establishing IW as a core competency for the joint force. This team is 
building bridges across the Services, Service labs, industry, academia, 
civilian partners, and with allies to harvest the best ideas on how to 
address this challenging form of warfare and steal a march on our 
enemy.
    The non-state, insurgent and terrorist adversaries we face today in 
the Middle East and elsewhere have chosen approaches to warfare that 
avoids our conventional strengths. We have adapted to these changing 
approaches to war and will continue to do so across the joint force. 
The asymmetric approach of our enemy has in some cases negated our 
technologically superior, iconic weapon systems, putting the 
preponderance of enemy engagements in the hands of our ground troops in 
close quarters combat. In this unforgiving environment, our ground 
units are employed every day, and this is where over 80 percent of our 
casualties occur, often in the initial firefights.
    Across all warfighting communities, training advances have been 
significant, yet the use of advanced simulation technology has not yet 
achieved for infantry training what we take as routine for aviation, 
armor or maritime simulation training. While there are a host of 
reasons, and the different combat training regimes pose notably 
different simulation challenges, dramatic advances in immersive 
simulation, artificial intelligence, and gaming technology must now be 
harnessed to bring state-of-the-art simulation to small infantry units. 
Though the rudimentary simulation designed for close combat currently 
affords units some level of challenge, it does not yet approach the 
level of sophistication deemed essential in other disciplines.
    The Deputy Secretary of Defense has directed funding to the 
Services and Joint Forces Command to support the urgent development of 
infantry immersive training simulators as part of a broader national 
effort for small unit excellence. As our troops are engaged around the 
world and assigned a variety of missions confronting insurgents on the 
ground, the development of a close combat/infantry immersive training 
simulator is a national priority in terms of creating top-performing 
small units able to take advantage of joint surveillance and fire 
support. Our immediate task is to create prototype immersive training 
simulators as a means to enhance warfighter survivability, amplify 
exposure to joint and combined assets, improve the employment of our 
joint-asymmetric capabilities, and increase the overall effectiveness 
of our close combat/infantry small unit performance to defeat the enemy 
while protecting the innocent intentionally jeopardized by our enemies' 
tactics.
    Focusing efforts to enable small units to combine initiative, 
critical thinking, and joint warfighting experience will allow for 
brilliance in combat skill basics and agile responses to the enemies we 
face. Casualty reduction, fewer ethical missteps, psychological 
resilience and enhanced mission success rates are the goals. We will 
remain responsive and innovative to confront the challenges our close 
combat and small infantry units encounter today and tomorrow. Other 
communities have demonstrated that simulator training is an effective 
tool to increase operational effectiveness. America's close combat/
infantry forces will get our best effort to provide them every 
advantage and prepare them fully to achieve success in battle.
    In addition to improved simulation training capabilities, Joint 
Forces Command continues its efforts to enhance small unit 
effectiveness. We have brought together the trainers, coaches, 
educators, social and human scientists, academia, and technical and 
cognitive assessment experts to form a community of interest that will 
improve the combat effectiveness of our small units. Paramount to this 
effort is the development of leaders who are capable of operating 
against a broad spectrum of threats, while retaining and enhancing 
their ability to lead in a more conventional environment. The complex 
and dynamic security environment demands that we have small units and 
leaders that are able to take advantage of fleeting opportunities on 
the battlefield. These small units and leaders must be able to operate 
independently, possessing the full knowledge and ability to employ 
joint and combined capabilities, and subsequently be empowered to make 
critical decisions under stressful conditions--the same attributes we 
anticipate will be required on future battlefields, conventional or 
otherwise.
    Working with the Services, Joint Forces Command has developed a 
Concept for Joint Distributed Operations in support of experimentation 
to be conducted this summer. This concept describes how joint enabling 
capabilities can be made more effectively and efficiently available to 
smaller distributed units and that these joint capabilities can be 
pushed to lower echelons. Current operations demonstrate that 
distributed operations are becoming more the norm, and this experiment 
will draw on lessons learned and best practices from recent experience 
to determine what solutions should be incorporated into future joint 
force capabilities.
    In Afghanistan, U.S. airpower represents one of our joint force's 
greatest asymmetric advantages over the enemy. The employment of air-
based joint fires, used properly, will wreak havoc on enemy forces. In 
the fluid environment of a counter-insurgency fight, the decision to 
employ these joint air-based fires will come from leaders who 
understand that to be effective these fires must be employed rapidly 
and precisely against the enemy while avoiding civilian casualties. 
Effective employment often requires persistent observation, integrated 
intelligence, surveillance, and reconnaissance, and shortened approval 
procedures. Our airpower is unmatched in the world, however today's 
approach of loitering multi-million dollar aircraft and using a system-
of-systems procedure for the approval and employment of airpower is not 
the most effective use of aviation fires in this irregular fight. A 
Light Attack Armed Reconnaissance (LAAR) aircraft capability has the 
potential to shift air support from a reactive threat response, to a 
more proactive approach that reduces sensor-to-shooter timelines, with 
immediate and accurate fires, providing surveillance and reconnaissance 
throughout a mission, while providing communication and navigation 
support to troops on the ground. Additionally, a LAAR capability can 
provide a means to build partner capacity with effective, relevant air 
support. This year Joint Forces Command will closely follow a project 
called Imminent Fury where the Navy and Air Force will employ a LAAR 
capability to reinforce our asymmetric advantage over the enemy.
    Presently, one of the enemy's most effective weapons is the 
Improvised Explosive Device (IED). Joint Forces Command is 
collaborating closely with the Joint IED Defeat Organization to defeat 
this enemy capability, sharing lessons learned and adapting our 
operating concept and training efforts. Joint Forces Command continues 
to prepare the joint force to conduct operations in urban environments 
to defeat adversaries who are embedded and diffused within a population 
without causing catastrophic damage to the functioning society. In 
collaboration with the Services and international partners, we will 
strive to leverage relevant efforts that address gaps in our ability to 
effectively operate within cities and complex terrain.
    The joint force has learned and adapted to counterinsurgency, 
counterterrorism, and required stability operations conducted in a 
complex environment. Recently, the Services and Joint Forces Command 
completed an initial assessment of U.S. GPF readiness and proficiency 
for irregular warfare. This first effort provides a primarily 
qualitative assessment of proficiency and readiness, and will serve as 
a baseline for future work. As we incorporate IW--relevant tasks, 
skills, and experiences into our tracking mechanisms and further 
institutionalize the enduring lessons learned from Iraq and 
Afghanistan, subsequent assessments will provide a more quantitative 
and focused picture of the GPF's proficiency and readiness for IW.
    The complex series of coincident challenges continues to demand 
highly educated warriors and leaders. Joint Forces Command continues to 
provide a robust Mission Rehearsal Exercise (MRX) program to support 
the training of deploying headquarters elements to Afghanistan. These 
have included the 101st Airborne Division and the 1st Marine 
Expeditionary Force Forward. These exercises are continually improved 
to stress cultural awareness and the decisionmaking skills required in 
the irregular warfare environment, including interagency, coalition and 
Afghan Security Force representatives in attendance. During 2009, the 
exercise support to Central Command's Combined Transition Command-
Afghanistan helped prepare that staff to assist the Afghan National 
Army to assume national responsibilities. The exercises remained 
tightly linked to our joint and NATO lessons learned processes, and 
feedback from the field continues to shape the scenarios and 
operational problems within which we train and evaluate deploying 
commanders and their staffs.
    Through Joint Knowledge Development and Delivery Capability (JKDDC) 
and Joint Knowledge Online (JKO), Joint Forces Command continues to 
provide virtual classroom training to cover a wide array of training 
topics. The JKO Portal hosts more than 330 courses, including many 
developed by coalition partner nations to build partner capacity 
through sharing information and security related training. The portal 
also offers basic language training and tailored pre-deployment 
training for Individual Augmentees (IAs) and coalition partners 
participating in operations in Iraq and Afghanistan. Many resources 
found on the JKO Portal also are available to interagency, 
international and nongovernmental organizations. To date, JKO reports 
over 100,000 registered users and 230,000 course completions. In 2009 
JKDDC invested in research and development for advanced technology 
capabilities that targeted specific training gaps. These fielded and 
available applications include the Virtual Cultural Awareness Trainer 
and the Small Group Scenario Trainer, specifically addressing 
operations, tailored cultural awareness training, and small group 
training capability needs. These applications provide some rudimentary 
capabilities to satisfy basic warfighter training needs.
                           coalition efforts
    The United States will seldom choose to go it alone. Allies and 
coalition partners play a key role across the full range of military 
operations today and those anticipated in the future. The presence of 
allies and partners will likely exert a major influence on the military 
balance in future operations. Our friends can and do provide critical 
support. We must continue to broaden and deepen relationships with 
capable security partners. Joint Forces Command continues to strengthen 
partnerships through engagement with DOD and NATO, via Allied Command 
Transformation (ACT), and representatives from other nations assigned 
to the command. The command remains actively linked to ACT, not only 
because of its proximity, but also because of the productive working 
relationships fostered between the headquarters' staffs. As of December 
2009, Joint Forces Command routinely collaborates bilaterally with 
representatives from 48 nations. These relationships are critical to 
building the trust and interoperability necessary to build and sustain 
strong alliances and coalitions.
    The Joint Forces Command led Multi-National Experiment (MNE) 6 is a 
2-year, multinational and interagency effort to improve coalition 
capabilities against enemies employing a mix of irregular operational 
methods, adaptive technologies, and hybrid approaches to warfare 
through a whole-of-government approach. Participants include military 
and civilian sectors of 18 NATO and non-NATO nations, NATO's ACT, and 
U.S. Special Operations Command. MNE 6 produced draft products on the 
assessment of operational progress and cross-cultural awareness in the 
first year. The remainder of the experiment is focused on developing 
and implementing at national and international levels solutions for 
coordination of partner efforts to solve a crisis, assess campaign 
progress with valid metrics, and develop a strategy for information 
sharing and situational understanding.
    A common, often daunting, task for the geographic combatant 
commander is strengthening indigenous security forces. As articulated 
in the QDR report, Security Force Assistance (SFA) is a cornerstone for 
establishing regional security. Effective indigenous security forces 
can preclude or minimize conflict and thereby strengthen the collective 
security against threats and security challenges, reducing the 
potential demand for U.S forces. While Security Force Assistance 
expertise traditionally resides within Special Operations Forces (SOF), 
some aspects of SFA are well suited to GPF. Transitioning portions of 
these responsibilities will relieve pressure on our over-extended SOF. 
The GPF possesses robust capability that can be used more effectively 
to provide full spectrum SFA support. For example, a maritime SFA 
possesses the expertise to support everything from low-end 
opportunities such as small boat engine maintenance, to ballistic 
missile defense, one of the most complex aspects of modern warfare.
    Presently, the joint force is not optimally trained and organized 
to advise and assist with building partnerships, although real progress 
has been demonstrated. As the provider of the majority of the GPF to 
the combatant commanders, we remain fully engaged with Special 
Operations Command to expand these capabilities, particularly the 
emerging role of SFA. We envision selected SFA executed by GPF in small 
units, task organized for the mission, operating in a distributed 
manner and building partner security capability in support of theater 
campaign plans. This vision includes SFA support within the ground, air 
and maritime domains. Our maritime forces are uniquely positioned to 
support this mission, by providing SFA from the sea, thereby sustaining 
U.S. influence while minimizing the U.S. footprint ashore, and 
maintaining the security of the global commons. To support this vision 
of an expanded GPF role, we have adapted the global force management 
process to account for SFA, and are addressing this capability in joint 
concept development and experimentation like the Joint Distributed 
Operations experiment, ensuring the Services have a model for these 
operations and highlighting Service strengths, such as our asymmetric 
naval capabilities.
                                prepare
    Where deterrence fails and enemies threaten our national interests, 
the joint force must have the capacity and capability to apply force. 
It must be prepared to operate with success in a wide range of 
contingencies. Preparing the joint force for these future contingencies 
is the focus of Joint Forces Command's effort supporting the 
development of fully interoperable joint warfighting capabilities and 
concepts.
    Joint Professional Military Education (JPME) is the means to 
develop our future leaders for the complexity of the threat environment 
in which those leaders will find themselves. Viewed broadly, JPME is a 
strategic asset for our Nation that shapes the understanding of not 
just American officers, but also for preparing and building personal 
relationships and trust with our allied or partner nations whose 
officers also attend our schools. Today, JPME is essential to 
understanding the multiplicity of state and non-state actors, the 
nature of warfare, and building partner capacity to operate in an era 
of persistent engagement. The complexities of today's complex security 
environment demand the most innovative and versatile leaders to execute 
a strategy that demands melding military, civil and cultural factors. A 
trained warfighter must perform acceptably against a range of threats 
and in dynamic security environments, which demand highly-educated 
warriors who can adapt opportunistically in order to prevail. A 
critical thinker/warrior will know how to acquire knowledge, process 
information from multiple sources, and make timely, accurate decisions 
in complex, ethically challenging and ever-changing environments. We 
now place greater emphasis on the study of history, culture and 
language beyond their broad incorporation into training and exercise 
scenarios, including efforts employing the latest modeling and 
simulation technology.
    We are taking concrete steps to translate battlefield adaptations 
into rapid institutional change. Our maturing relationship with the 
National Defense University (NDU) is one effort to improve JPME and 
ensure it is aligned properly with the current realities and future 
challenges that we pick up in lessons learned, mission rehearsal 
exercises, and concept development. Results from the ongoing House 
Armed Services Committee Oversight and Investigations Subcommittee, 
National Defense University, and Service school evaluations of the 
entire JPME program can provide insights to transform JPME, making it 
more effective and relevant to meet the demands of both the present and 
future operating environments. In conjunction with Special Operations 
Command and NDU, we will stand-up an Irregular Warfare Academic Center 
of Excellence to provide a capability which harnesses the work of the 
many academic institutions studying counterinsurgency, 
counterterrorism, stability operations, unconventional operational 
methods, and hybrid approaches to warfare and to make their lessons 
relevant and available to the joint force. I strongly urge your 
continued support of our efforts to expand allied and partner access to 
our educational institutions to further build trust and 
interoperability among our forces, while broadly sharing our ethical 
grounding. We are also swiftly incorporating battlefield lessons 
learned into rehearsal exercises and senior leader education programs 
like the Pinnacle, Capstone and Keystone courses. Participants' surveys 
consistently note the relevance of both lessons learned and interaction 
with senior level warfighters who bring a wealth of experience to bear.
    As a means to promote the necessary cognitive approaches, the 
application of `operational design' will help leaders understand the 
problem, understand the environment, design an approach to solve the 
problem, and reframe the problem when circumstances change. Joint 
Forces Command has initiated a program to move operational design 
forward at the tactical, operational and strategic levels; focused on a 
cognitive approach vice procedural approach; built with the best of 
breed; developed in a joint context; and in collaboration with all the 
Services, while leveraging the Army's mature work along these lines.
    During the past year, Joint Forces Command examined the adequacy of 
the joint force to execute the precepts outlined in the Capstone 
Concept for Joint Operations. Through wargaming activity, and drawing 
on the extensive experience and broad perspective of participants who 
included seven ambassadors; four former combatant commanders; active 
flag and general officers from the United States, United Kingdom, and 
Australia; subject matter experts from all services and combatant 
commands; and representatives from relevant U.S. Government departments 
and the National Security Council, this examination identified risk 
areas where the joint force's ability to achieve its mission are most 
vulnerable, and evaluated potential mitigating actions.
    The CCJO wargame identified force development implications in order 
to address the changing nuclear landscape, gaining and maintaining 
access around the globe, interagency integration, situational 
understanding, and overcoming digital dependence. Detailed insights and 
recommendations from the experiment were provided to joint and Service 
policy and decisionmakers and helped inform the QDR. The CCJO and 
related experimentation are also shaping the development of supporting 
concepts focused on combat, security, engagement, and relief and 
reconstruction, which in turn will update our guiding doctrine.
    We have no sense of complacency. The enemy doesn't rest, nor will 
we as we move to check his capabilities. With the proliferation of 
inexpensive and capable technology, our enemies are gaining precision 
capability, and this is no longer an exclusive advantage of U.S./NATO 
forces. This precision capability will allow modestly funded states or 
non-state actors to acquire long-range precision munitions, project 
power from farther out, and with greater accuracy. We are just now 
scratching the surface on how best to defend against and defeat this 
threat and overcome the anti-access threat they constitute.
    During the 2006 Israeli-Hezbollah conflict, Hezbollah employed 
unmanned aerial vehicles on several occasions. This use of low cost, 
tactical unmanned aerial vehicles demonstrated that sophistication is 
not the sole realm of developed states. Again, the proliferation of 
relatively cheap and capable technology is creating threats we must be 
prepared to reckon with. Presently, our Joint Unmanned Aerial Vehicles 
Center of Excellence, in conjunction with the Joint Integrated Air and 
Missile Defense Office, is developing a concept of operations to 
address challenges and evaluate capabilities associated with countering 
adversary unmanned aerial systems.
    With almost a decade of fighting in Afghanistan and Iraq, it is 
inevitable that some currently unused capabilities may atrophy. In many 
cases, there are now joint warfighters who have never assaulted a beach 
or hit a drop-zone by parachute. Because of this, we are seeing a 
decline in our ability to conduct forcible entry operations, operations 
that can reassure our friends and temper our adversaries' designs. 
Additionally, the continued development and proliferation of longer 
range, precision guided munitions challenge our ability to perform 
these operations in the contested littorals around the globe. The 
battle for access may prove not only the most important, but the most 
difficult, requiring forcible entry capabilities and sustainment 
capabilities. Couple this readiness issue with aging ships, aerial 
tankers and strategic bombers, and our ability to gain access and 
influence actions over strategic distances needs to receive increased 
attention. Seabasing is a highly relevant supporting effort as we look 
toward our asymmetric strengths to create cost-imposing dilemmas on 
future enemies.
    Joint Force Commanders require robust command and control (C2) 
capabilities that enable agile decisionmaking and information flow from 
the operational to tactical level across today's global domain. This 
domain encompasses cyberspace, all wired and wireless communications, 
and fixed and mobile warfighting customers, to include the networks 
that support them down to the tactical edge. Robust C2 implies a degree 
of reliability, redundancy, and agility necessary to effectively 
operate, both independently and with our coalition partners and allies, 
in degraded and/or austere conditions. Developing enhanced, robust C2 
capabilities in the near-term requires adoption of an integrated C2 
triad network approach; specifically the blending of surface (including 
maritime), air and space systems into a resilient network. We are 
working to develop an operational context for objective joint analysis, 
assessment and training, and common standards to verify operational 
effectiveness of information exchanges and interoperability.
    As the C2 capability portfolio manager, Joint Forces Command is 
responsible for leading a number of efforts across the C2 Joint 
Capability Area which directly supports the establishment of an 
integrated C2 triad network. These integration efforts will enhance our 
wired and wireless cyberspace capabilities, while leveraging and 
creating cyberspace opportunities. To better enable our small units 
operating at the wireless tactical edge in austere and/or hostile 
environments, we are working in coordination with Special Operations 
Command, Strategic Command, the Joint Staff and the Office of the 
Secretary of Defense for Networks and Information Integration to 
develop C2 On-the-Move and Joint Aerial Layer Network capabilities. 
Central to this effort is the stand-up of the Joint Systems Integration 
and Interoperability Lab to conduct full-spectrum C2 capability 
analyses and up-front Joint Systems Engineering to improve joint 
interoperability and integration. Finally, we continue to advocate on 
behalf of the warfighter ensuring the sustainment and synchronization 
of our C2 legacy systems as we migrate to objective joint C2 
capabilities, including an Adaptive Planning and Execution capability 
that strives to reduce the time required for warfighter plan 
development to under a year, and accelerate plan execution to near real 
time.
    In Iraq and Afghanistan our opponents have displayed considerable 
capacity to learn and adapt in both the political and tactical arenas. 
We anticipate we will see more of this in the future; more 
sophisticated opponents of U.S. military forces will certainly attack 
perceived American vulnerabilities. It is highly likely that attacks on 
our computers, space and communications systems will severely degrade 
command and control of U.S. forces. Thus, those forces must possess the 
ability to operate effectively against denial operations and in 
degraded conditions.
    For this reason our leaders must understand that, first and 
foremost, C2 is a human endeavor. C2 must be leader-centric and 
network-enabled to facilitate initiative and decisionmaking at the 
lowest level possible. While materiel solutions, processes, and 
engineering can enable decisionmaking, command and control is not 
synonymous with network operations nor the employment of advanced 
technology. The joint force must have the flexibility to exploit both. 
Commanders must be skilled at crafting and articulating their intent, 
enabling junior leaders to exercise initiative and take advantage of 
fleeting opportunities in the decentralized operations we anticipate, 
vice centralizing decisionmaking at high levels. This is vital in both 
conventional force-on-force warfare and decentralized operations that 
we observe in the combat zone.
                          preserve /conclusion
    We must continue to seek ways to ensure the vitality and the 
quality of the All-Volunteer Force. As the joint force provider, I have 
a vested interest in the vitality and quality of the force. Our number 
one priority remains supporting the warfighters around the globe to 
prevail in today's wars. Essential to this effort is sustaining the 
All-Volunteer Force to maintain the combat effectiveness of our 
warfighting formations.
    Our guiding principle is balance as we craft our approach to 
countering any specific threat or scenario while protecting against the 
surprises that are sure to come. Our force must be designed with the 
aim of having the fewest regrets when surprises strike. From applying 
lessons learned to our current efforts, to guiding sound concept 
development and experimentation to build future combat power, with your 
support, Joint Forces Command will continue to press ahead in our 
efforts.
    On behalf of the men and women of U.S. Joint Forces Command, I 
thank you for the opportunity to report. I look forward to working with 
you to ensure the continued security of America.

    Chairman Levin. Thank you very much, General.
    Let's try an 8-minute first round of questioning.
    Admiral, there have been a number of reports about the 
performance of the Afghan Army during the recent operation to 
clear the Taliban from Central Helmand Valley. Marine Brigadier 
General Larry Nicholson said that Afghan forces are not 
cosmetic; they are in the fight. But at the same time, there 
have been anecdotal accounts of Afghan soldiers looting the 
bazaar in Marjah, smoking hashish, and failing to help our 
marines in fortifying their positions.
    Admiral, give us your assessment of the performance of 
Afghan soldiers that are partnered with coalition forces in the 
fighting in Helmand?
    Admiral Stavridis. Sir, as you can imagine, I discuss this 
frequently with General Stan McChrystal, my NATO subordinate, 
who is directing operations. I also receive reports on a daily 
basis. I am satisfied with the progress of the Afghan National 
Army and overall its performance I think has been effective in 
Marjah.
    As you recall, Senator, when we went south about a year ago 
the ratio of ISAF troops to Afghan troops was 10 of the ISAF 
for every 1 of the Afghan. In this particular operation, we are 
at one ISAF troop and about just less than one Afghan. So we're 
approaching that 1 to 1 ratio. The quantity piece has improved 
dramatically.
    As for the quality piece, I think General Nicholson is spot 
on. We're seeing them actually in the fight. We're also seeing 
instances where the Afghan troops are stepping ahead of the 
coalition forces and saying, let me go through that door first, 
let me go up that road first. We're seeing that kind of 
shoulder-to-shoulder effective combat fight out of our Afghan 
partners.
    In terms of individual instances or anecdotes, we follow up 
on every one of those. We report them. Action is taken by the 
Afghan chain of command. But overall, Senator, I am satisfied 
with the progress we've seen over the course of the year and I 
think the operation in Marjah shows that.
    Chairman Levin. Well, that's important news. I want to just 
focus for a minute on that ratio. When we were there the first 
time, maybe a year ago now, and got into this issue, it was a 
five to one ratio, five of our marines for one Afghan. We heard 
that in Marjah, for that effort it was about two of ours to one 
of theirs.
    Now you're telling us that it was actually a lot better 
than that, closer to 1 to 1, which is very significant and 
important news, because that's critically important, not just 
in terms of the turning over of responsibility for Afghan 
security to the Afghans, which is surely a major part of our 
mission, but also in terms of the credibility of what we're 
doing there to the people who live there, but also to the 
training of Afghan troops, so that we can have that close 
training relationship. The closer that ratio is, not just 1 to 
1, but two of theirs to one of ours, the closer we are to our 
own standard and our own goal.
    We read in the paper this morning that, however, when that 
effort was undertaken that Afghan troops, or perhaps it was 
some marines, left a nearby area without adequate protection at 
all and a number of the Taliban just simply moved next door. 
Can you tell us anything about that and, if that was happening, 
why was there not a plan, particularly given the size of the 
Afghan Army, to have Afghan forces secure places where other 
combat troops were leaving in order to succeed in the fight in 
Marjah?
    Admiral Stavridis. Senator, I'll have to take that one for 
the record and get back to you on that particular incident. I'm 
not familiar with it.
    Chairman Levin. You'll see a report in this morning's 
paper.
    Admiral Stavridis. Thank you.
    [The information referred to follows:]

    General McChrystal has implemented a population centric counter-
insurgency strategy that calls for focusing coalition and Afghan 
security forces in and around population centers; specifically those 
population centers most threatened by insurgents. Despite the build-up 
of U.S. and coalition forces and the increasing size and capability of 
the Afghan Army, we cannot focus our forces everywhere. I can assure 
you that Zabul Province has not been abandoned to the Taliban as the 
article suggests; however, our focus is on protecting the people of 
Afghanistan and not on attempting to track down individual Taliban 
members moving around the countryside.

    Chairman Levin. As I mentioned in the opening statement, 
NATO members are falling short once again. At the most recent 
force generation conference, they fell short in meeting the 
NATO mission requirements, in particular the 1,200 trainers 
that Lieutenant General Caldwell needs and NATO has committed 
to provide.
    Can you give us any kind of assurance as to whether the 
NATO countries that have fallen short of their commitments and 
obligations are going to be forthcoming?
    Admiral Stavridis. First of all, let me give you the exact 
numbers. We're looking for an additional 1,278 and we have 
pledges at this point for 541. So it is absolutely correct to 
say that NATO has fallen short in providing these vital 
trainers.
    What we are doing about it is taking further steps in terms 
of contacting each of the Nations individually and going one by 
one through the precise requirement for each of the Nations in 
terms of where they could most effectively fill in the trainer 
mix. That effort is going on in real time both from my 
headquarters and up in Brussels, where the Secretary General is 
very engaged at the political level. So we will continue to 
hammer away at this until we fulfil that commitment, and I will 
continue to place it, as I told you, Senator Levin, at the top 
of my priority list.
    Chairman Levin. We appreciate that. General Caldwell, at a 
press conference last week, said that Afghan Army recruitment 
is very, very strong. I think he said there was an 800 percent 
increase in army recruitment over the last 4 or 5 months. But 
they can't put them into basic training right away because of 
the shortage of trainers, and that is totally unacceptable. 
It's almost unbelievable to me that we can't get NATO allies to 
carry out that kind of commitment, which is not the most 
dangerous of the positions that they need to fill. It's 
training. There's obviously danger anywhere, but compared to 
being in combat, it falls well short of that. We need to do 
everything we can, and I'm not sure what more we can do, but if 
there is anything more we can do, Admiral, please let us know.
    In your judgment, can the recruiting trend, which is to a 
great extent due, according to General Caldwell, to the efforts 
of the Afghan leadership to stimulate recruiting, as well as an 
increase in pay, but he attributes the large increase more to 
the leadership of the Afghans than to the pay increase when we 
met with him. But will that recruiting trend in your judgment 
be maintained or is it maintainable right into the spring?
    Admiral Stavridis. I believe it will be maintained, 
Senator. I am also very focused on the other end of that 
equation, which is the retention piece, which is not going as 
well. We have to continue to focus on retaining, just as we do 
here in the United States, it's so important to have the 
retention along with the recruitment piece.
    I'm confident we will continue to be strong on the 
recruiting side. I'm working very hard with Stan McChrystal and 
Bill Caldwell to focus on the retention side as well.
    Chairman Levin. There's a new missile defense plan in 
Europe called Phased Adaptive Approach that the Obama 
administration has announced and begun to implement. Does NATO 
support that new missile defense plan?
    Admiral Stavridis. NATO is beginning that conversation. At 
the moment what we have is a ballistic missile defense C2 
nascent structure, which is being explored to decide where, 
when, and how NATO could connect into this if the alliance 
decides to do so. I anticipate there will be a significant 
discussion about that at the defense ministerial, which will be 
in the May timeframe, and I'm hoping to see a decision taken 
toward the time of the summit, which is in Lisbon in November. 
So it's very much an active conversation.
    I don't want to prejudge the political decisions of the 
Nations, but it's certainly on the agenda.
    Chairman Levin. From what you know, can you say that there 
seems to be a positive response to it?
    Admiral Stavridis. I think overall that would be fair to 
say.
    Chairman Levin. Thank you very much.
    Senator McCain.
    Senator McCain. Thank you very much, Mr. Chairman.
    Admiral, as I understand, the President's proposal was that 
we would be adding approximately 30,000 troops and our allies, 
including in and out of NATO, would be adding an additional 
10,000.
    Admiral Stavridis. Yes, sir.
    Senator McCain. How are we on track for that 10,000?
    Admiral Stavridis. Sir, we're in pretty good shape. We're 
at 9,500 troops. If I can get the additional 700 trainers that 
I just talked to the chairman about, then that would put us 
over the 10,000 mark overall.
    Senator McCain. Does that include the 2,000 Dutch troops 
that are scheduled to leave?
    Admiral Stavridis. No, sir, it does not.
    Senator McCain. So you're really talking about 7,500 
troops. You don't have any illusion about the Dutch troops 
remaining, do you?
    Admiral Stavridis. My sense is, listening to the political 
dialogue out of The Netherlands, that they will be leaving.
    Senator McCain. So we're really not on track, then. It's 
nice to say, but if you're going to lose 2,000 Dutch troops, 
who are, by the way, great fighters from my visits, it's not 
9,500; it's closer to 7,500. There are others of our allies 
whose commitments have certainly not been firmed up yet.
    The Afghan Army, as I understand, needs to be around 
300,000 troops and 100,000 police; is that the right numbers 
that we would like to see over time?
    Admiral Stavridis. I think over time, yes, sir.
    Senator McCain. How do we expect over time to pay for the 
Afghan Army?
    Admiral Stavridis. I think the international community will 
have to be in a position to continue to support it for a great 
deal of time to come.
    Senator McCain. Roughly how much would that cost be on an 
annual basis?
    Admiral Stavridis. I don't have that number at my 
fingertips, but it would certainly be in the billions, probably 
in the low billions.
    Senator McCain. We would expect our allies to foot the bill 
for that?
    Admiral Stavridis. I think it is fair to say that it's an 
international effort and we would hope that all in the 
international community would continue to support it moving 
forward.
    Senator McCain. Overall, the operation in Marjah was 
successful?
    Admiral Stavridis. I think it is going very successfully, 
certainly through the clearing phase. We're now in the build 
and hold phase, which I think will be challenging. But I am 
confident that the plans that we have in place will give us a 
very good chance at overall success as we go through clear, 
build, hold, and ultimately transition.
    Senator McCain. What presence did our NATO allies have in 
the Marjah operation?
    Admiral Stavridis. The Marjah operation, of the ISAF 
forces, was around 25 to 30 percent.
    Senator McCain. That was in direct combat roles?
    Admiral Stavridis. Largely, yes, sir.
    Senator McCain. So some of our allies are fighting very 
well. Some of them have very restrictive rules of engagement, 
right?
    Admiral Stavridis. We have 22 nations that have no caveats 
and we have about 20 nations that have caveats, yes, sir.
    Senator McCain. Some of these caveats are very disturbing.
    Admiral Stavridis. Some of them are very restrictive and we 
work very hard to try and reduce those wherever we can.
    Senator McCain. I thank you. There's a lot going on in NATO 
and in Europe and we appreciate the great work you're doing.
    General Ward, this sounds like perhaps a question that need 
not be asked, but should we be looking as part of AFRICOM at 
some headquarters located in Africa?
    General Ward. Senator, the work of the command is in its 
programs, its activities, and its exercises. The things that we 
do across the continent to help the nations of Africa increase 
their capacity. The headquarters location, quite candidly, 
doesn't affect that work, where we plan those activities, where 
we look to resource those activities. It's not something that 
the leaders in Africa are asking me about and at this time it 
is my estimation that any great efforts to locate an American-
size headquarters of that nature would probably be more 
counterproductive than productive.
    Senator McCain. Because?
    General Ward. Because of perceptions, because of the 
reactions to neighbors, and to parts of the continent where the 
headquarters might not be located. Many unintended consequences 
I think would fall out from that type of a move.
    Senator McCain. Could you tell us a couple of countries 
that are of your greatest concern, General Ward?
    General Ward. Senator, as we look at the continent, clearly 
the challenges are there. There are also opportunities. But 
when we talk about what's going on----
    Senator McCain. What countries are of your greatest 
concern, General?
    General Ward. There is what's going on in Somalia, what's 
going on in Sudan, what's going on in Nigeria, the 
extrajudicial means of changes of government that we saw in 
Niger, and in Guinea. Those activities are concerning.
    Senator McCain. Since it's not in the news, perhaps it's 
obvious we are making some progress on the piracy issue.
    General Ward. We are making progress from the standpoint of 
addressing the threat at sea. The weather lately also helped 
because of the high sea state and the inability of those small 
skiffs to go out and operate freely. The coalition that occurs 
at sea is an effective coalition. It is a big ocean, however, 
as you are aware, and so these skiffs do in fact go around and 
get through.
    That piracy threat is not just in the Gulf of Aden and the 
East Indian Ocean. It's also in the west coast of Africa. Our 
work to help these African nations increase their capacity to 
deal with their territorial waters is certainly making a 
difference. In addition to that, I would offer that the work 
that would need to occur on land, especially pertaining to good 
governance or governments that are more than less able to 
control their territories, will also contribute to increased 
stability and reducing the effects of piracy.
    Senator McCain. The main area of piracy operations is 
where?
    General Ward. Predominantly the Gulf of Aden.
    Senator McCain. What country?
    General Ward. Somalia.
    Senator McCain. Somalia, an incredibly unstable country.
    General Ward. Yes, sir.
    Senator McCain. Very little prospect for stability in the 
future.
    General Ward. It's a work in progress, to be sure. Small 
things are happening now, but much work needs to be done.
    Senator McCain. Could you just make a comment about 
Ethiopia and the situation there?
    General Ward. Ethiopia remains a friend and a partner in 
our efforts to help produce stability there in the region. The 
work that the Ethiopians do in the counterterror business, as 
well as in the work of their participation in peacekeeping 
operations, is important work, and I think our partnering with 
the Ethiopians as well as other East African nations is 
something that we would continue to look at in ways of helping 
to produce stability in that part of the world.
    Senator McCain. I thank you, General.
    Thank you, Admiral. Thank you very much, General Mattis.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks to the three of you for your extraordinary service. 
General Ward, let me just pick up where Senator McCain was, 
particularly in Somalia. We know from experience that where 
there's no government, trouble grows, either as piracy or the 
provision of space for terrorists, Islamist terrorists 
particularly, to operate.
    I gather that there is an attempt by the provisional 
government to retake the capital city of Mogadishu, and I 
wonder if you could give us both your estimate of how that's 
going and to what extent we're able to be supportive of that 
effort?
    General Ward. Senator, Somalia has been an ungoverned space 
for almost 20 years.
    Senator Lieberman. Right.
    General Ward. What we're facing today is clearly not new. 
What I will say is the current Transition Federal Government 
(TFG), being supported by the African Union's (AU) Mission in 
Somalia (AMISOM), and being supported by others of the 
international community, including the United States, is an 
effort that I would continue to endorse and think that it has 
for now our best potential for helping to turn around some of 
the instability and lack of governance that we've experienced 
there.
    What's going on in Mogadishu with respect to the desires of 
the transition government to reclaim parts of Mogadishu is a 
work in progress. I'm not aware of the specifics. I'll have to 
come back to you, sir, with the specifics on what that current 
operation looks like.
    [The information referred to follows:]

    Operations intended to relieve pressure on the Transitional Federal 
Government (TFG) and African Union Mission in Somalia (AMISOM) in 
Mogadishu are planned. The intent of these operations is to clear 
extremist-held areas.

        <bullet> On 10 and 11 March 2010, TFG and AMISOM forces clashed 
        with al-Shabaab militia in eastern Mogadishu. The TFG, 
        supported by AMISOM, ultimately lost that skirmish-probably due 
        to poor command and control, and insufficient logistics.
        <bullet> TFG operations, under constant Islamic insurgent 
        assault, remain hamstrung by weak command and control, supply, 
        and administrative systems, and clan and personality-based 
        governance dysfunction.

    General Ward. To the degree the TFG can, in fact, reexert 
control over Mogadishu with the help of AMISOM and others I 
think is something that we would look to do and support, as 
well as the other provisions of the Djibouti process that look 
to instilling governance, instilling developmental things that 
will serve the benefit of the Somali people to cause that 
situation to reverse itself.
    We look to participate with those who also support them, 
the other nations and the neighbors who contribute to the 
AMISOM mission, in particular Uganda and Burundi. We support 
their work and try to lend the hand that they lend to the TFG 
to increase stability. So those efforts are ongoing. It's an 
effort that I think we would certainly support and we would 
look to do it in ways that add to stability in that part of the 
continent.
    Senator Lieberman. Let me go to the Sudan. There's a lot of 
continuing concern here about the situation in Sudan. We're in 
a critical period in the coming year with national elections 
next month, which are the first in more than 2 decades. Then 
there's a referendum in the south in January 2011.
    I'd like to hear first what your command is doing to 
support the United Nations (U.N.)-AU force in Darfur, where 
unfortunately the human rights abuses are continuing; and then 
second, what AFRICOM can and is doing to support implementation 
of the comprehensive peace agreement of January 2005?
    General Ward. Senator, our support to the UN-AU Mission in 
Darfur (UNAMID) is in the form of training assistance, 
logistics assistance, and support to those forces who have been 
declared a part of that UNAMID mission. We provide logistics, 
lift support, as I've mentioned, and we continue to do that in 
support of the peacekeeping effort there in Darfur.
    We have no direct, on-the-ground involvement there. Those 
processes as a part of the comprehensive peace agreement are 
essentially political processes that we certainly support. We 
do support the formation of the Southern Liberation Army in 
southern Sudan, some of their professional development 
initiatives, some of their training initiatives, and we do that 
through and in conjunction with DOS, working with the Special 
Envoy and doing those things that help increase the 
professionalism of that southern Sudanese force.
    Senator Lieberman. Let me ask you how you would suggest 
that we interpret the statements that President Bashir has made 
that essentially the war is over? How should we interpret 
those?
    General Ward. Senator, the cooperation that we see emerging 
between Chad and Sudan, between President Debi and Bashir, I 
think we would look to that as an encouraging sign.
    Senator Lieberman. So it's real? Something is changing 
there?
    General Ward. Something is changing.
    Senator Lieberman. For the better?
    General Ward. It's for the better. It's still fragile. It's 
not irreversible, to be sure. But I think we should be 
encouraged by those signs and we look forward to more of that 
as this political dialogue continues.
    Senator Lieberman. Admiral Stavridis, let me ask you about 
Bosnia-Herzegovina. Senator McCain and I and a couple of 
colleagues visited there last month. I think we feel a sense of 
pride about what the United States was able to do in the 1990s 
to stop the aggression and genocide there. But as you indicate 
in your posture statement, the problems continue, particularly 
the ethnic divisions. It's not what it was in the 1990s, of 
course, but you have some really explosive situations and 
people there, particularly Mr. Dodek in the Republika Srpska.
    I will tell you that the one most encouraging experience 
that we had was visiting with the military of Bosnia-
Herzegovina, and I think EUCOM has had a lot to do with that. 
You have all the ethnic groups in there. They're functioning 
together. They're at a higher level.
    I want to quote from something which you said in your 
statement because it's really the question I want to ask after 
your evaluation. You warn that ``the programmed reduction of 
NATO and European Union forces in the Balkans may induce 
additional risk of instability in the region.'' I'd like to ask 
you to evaluate the situation, but then specifically would you 
counsel now that the programmed reduction of NATO and European 
Union forces in the Balkans should not go forward, that it 
involves too much risk?
    Admiral Stavridis. Thank you, Senator. The context of the 
reduction of U.S. troops in the Balkans is really quite 
remarkable; 20,000 in Bosnia alone. We're down to 20 there now. 
In Kosovo we had as many as almost 10,000. We're down to about 
1,200 troops there now.
    In Bosnia, you correctly hit on I believe a central 
element, which is the security force there, the armed forces. 
Moving them in a direction that is integrated I think will be 
very encouraging to the body politic in Bosnia-Herzegovina.
    In terms of Kosovo, we had 15,000 NATO troops there as 
recently as December. We've been able to draw down to about 
10,000 NATO troops there now, again about 1,200 U.S. troops. 
The next step in that process is for me to provide military 
advice to the Secretary General about whether to take the step 
to go from 10,000 down to 5,000. I'm evaluating that very 
carefully. There is still tension, understandably, between 
Serbia and what they perceive as a breakaway province of 
Serbia, but what the United States and 62 other nations have 
recognized as the independent country of Kosovo.
    So I think we need to move carefully in the Balkans so that 
we don't fall back. The progress has been extraordinary. We 
don't want to let it unravel. I will be looking very carefully 
in Kosovo. We'll continue our encouraging efforts in Bosnia. 
Overall, I'm confident we'll continue to move in a good 
direction, but it requires watchful approaches.
    Senator Lieberman. I appreciate that. I'm encouraged by it. 
I guess I'd encourage you to err on the side of caution.
    Admiral Stavridis. I agree.
    Senator Lieberman. I understand the pressure to reduce, but 
we may look back and really regret it.
    Admiral Stavridis. Yes, sir.
    Senator Lieberman. Just to end on a bright note, I remember 
one of the stories we were told by the commander of the 
military in Bosnia-Herzegovina was that at one point Dodek from 
Srpska called on all the Serbian members of the Bosnia-
Herzegovina armed forces to return home and no one came. That's 
a great comment and a tribute also, I think, to EUCOM's role in 
training that force.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Since Senator Lieberman ended on a bright note, I'll start 
on a bright note. Some of the things that are working--and 
we've talked about this before, in fact every time we have a 
hearing or a meeting in private, like the train and equip 
program, 1206, 1207, 1208, the International Military Education 
and Training (IMET) program, the Commander's Emergency Response 
Program (CERP), and the Combatant Commander Initiative Fund 
(CCIF), those programs are working well.
    Admiral Stavridis, I would ask you, with some of these 
things that have been changed recently, like in the 1207, the 
whole reason for structuring these programs the way they're 
structured with DOD is so that they can be activated quickly 
and get an immediate response. Now we're kind of going the 
other direction with the 1207. Do you want to comment on that?
    Admiral Stavridis. Senator, first of all, I completely 
agree that the 1206 and the IMET programs have been superb. I 
think each of the combatant commanders has testified to that 
over the last couple years, and I've benefited from them 
greatly in 3 years at U.S. Southern Command (SOUTHCOM) and 
continue to be a strong advocate here at EUCOM.
    The 1207 money is kind of dual-keyed between DOS and DOD. I 
think that any time there's a dual key it's going to take a 
little bit longer to work through the challenges. So some of 
that immediacy that is so valuable in the 1206 funding is not 
as readily available in the 1207. But we're committed to work 
with our partners in DOS to make it go as rapidly as possible.
    Senator Inhofe. Of course, I understand that's civilian-to-
civilian.
    Are you satisfied with the funding level of the CCIF 
program?
    Admiral Stavridis. Yes, sir.
    Senator Inhofe. All right. General Mattis, with all the 
great things that are happening in simulation and modeling now, 
yesterday we broke ground on the new building for the Joint 
Fires and Effects Trainer System (JFETS) program. By the way, I 
appreciate very much your personal attention, going down and 
watching that. We have people from all over the world there 
under our IMET program. I think some 250 coalition members are 
being trained by this JFETS program.
    So that's just another example of how IMET is working, and 
also an example of how the JFETS program is working. Why don't 
you just give us an update as to what you think is happening in 
terms of things with the JFETS program?
    General Mattis. Thanks, Senator. This is an issue near and 
dear to my heart. In preparing our troops, which is ultimately 
my responsibility, we cannot do it as efficiently or as 
effectively or as cheaply as we can in the real world as we 
could using simulation. One of the biggest challenges we face 
is breaking the old paradigm that somehow simulators are good 
for Navy submarines, good for aviation, good for ship drivers, 
good for ballistic missile defense preparations, but somehow we 
leave the people who take 80 percent of our casualties off the 
ledger.
    So we are going forward very strongly with this from the 
small unit level, to how we integrate joint intelligence, 
reconnaissance, and surveillance (ISR) and more importantly 
joint fires, because as we distribute our forces more broadly 
on the battlefield we need to reduce the risk to them. That 
means they can access joint ISR and know what's over the next 
hill. That means they can access and use joint fires.
    The installation out in your district I'll just tell you, 
sir, is absolutely critical to the maturation of this.
    Senator Inhofe. I think the best way to break that paradigm 
is to get the people out there to see it.
    General Mattis. Yes, sir.
    Senator Inhofe. Because it's one of these things that you 
can't explain to someone, the actual conditions that they 
experience out there. It's mind-boggling.
    General Mattis. Yes, sir. We have a couple of programs to 
do that right now, and we're getting a lot of interest. We've 
actually had significant support from this committee.
    Senator Inhofe. Good.
    General Ward, as you well know, I've been very interested 
in Africa. In fact, I've been criticized for the amount of time 
that I spend in Africa. Back when we had it, it was hard for me 
to understand why we would have Africa under three commands as 
we did. Now things I think are working.
    As I've told you before, I would have preferred to have the 
headquarters in Africa someplace down there. I know the 
political problems that come with that. I was recently in 
Djibouti. I talked to Admiral Fitzgerald and to Rear Admiral 
Kurta. It's heavy lifting over there. But everything is 
happening there. Briefly tell us what is happening in Djibouti 
and what are some of the successes there?
    General Ward. Thank you, Senator, and thank you for your 
support to the command and also to our security efforts on the 
continent. We feel that and we appreciate it.
    In Djibouti, the Combined Joint Task Force-Horn of Africa 
(CJTF-HOA), we assumed responsibility for C2 when we became a 
fully endorsed unified command a little over a year ago. 
Djibouti's programs, or the CJTF-HOA programs, that we 
undertake in the eastern part of the continent, but also in 
other places as I determine a skill set that they possess 
that's required, provide the type of training support, the type 
of mentoring, coaching, the type of programs that we are using, 
along with our civil affairs activities, to help the Nations in 
Africa concentrate their efforts in causing a degree of 
harmonization of the training, the professionalism, as well as 
the regionalization of security assistance and cooperation 
programs that I think are proving very, very beneficial insofar 
as moving to the next level the capacity of many of these 
African nations to increase their military and security 
capacity. Because of our long-term approach to doing business, 
doing it in ways that fully integrate the elements of 
diplomacy, development, as well as defense. Not that we do 
those things, Senator, but because we understand the importance 
of those activities being a part of this dynamic, the 
comprehensive approach, it is working.
    Senator Inhofe. I want to expand on that a little bit. But 
first, on the cuts that were there on your information 
operations program, are they going to hurt you? Is that 
serious?
    General Ward. It is serious. The information programs that 
we look to do, where we were cut by $3 million, that was about 
a third of what we wanted to do. The focus for those additional 
programs would have been in the East Africa region, to 
complement what we're doing in the Sahel and in North Africa.
    Senator Inhofe. It's a huge area. I think people just don't 
really comprehend that.
    How about in the other equipment? At first there were some 
problems there. Do you feel fairly comfortable with the 
resources that you have?
    General Ward. We are always looking for resources, Senator. 
What they have are sufficient to do the work that we want to 
do. We could enhance that with additional resources, but the 
work that we are able to do working with those nations, to 
include assisting them through the various programs, the 1206 
program, are very important and beneficial, as we have worked 
with the nations on their territorial security as well as their 
maritime security and capacity-building.
    Senator Inhofe. I'm running out of time here. But do this 
for me. The reason that our activity in Djibouti is acceptable 
with the rest of the continent is because we were already 
there. It's more difficult if you were to start anew. I have 
felt that, as large as that continent is, we ought to have 
something probably in Ghana. The Economic Community of West 
African States (ECOWAS) is there now.
    Lastly, I've been heartened a little bit by some of the new 
faces in Zimbabwe that have been on the other side of Mugabe. I 
feel for the first time in many years somewhat optimistic that 
these new faces that want to bring that country hopefully back 
to where it was at one time, the breadbasket of sub-Saharan 
Africa. Do you share that there is room for optimism now in 
Zimbabwe?
    General Ward. I do. I had a conversation with our new 
ambassador who's been posted there and he is going there, 
Senator, with that same sense of optimism to look to take 
advantage of what might be a changing political environment.
    Senator Inhofe. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Gentlemen, thank you for your distinguished service. 
Admiral Stavridis, not to be overly simplistic, but the last 
several years have forced us operationally, in our budgets and 
in acquisition, to become expeditionary. Has that same fever 
caught on in the NATO countries? Can you describe their budget 
acquisition and military policy?
    Admiral Stavridis. Senator, I think a little bit would be 
the answer. There's more of a sense of expeditionary, and this 
is part of what General Mattis tried to work so hard, and I 
think he successfully moved the Europeans somewhat in this 
direction when he was the Supreme Allied Commander for 
Transformation, and I think that work continues in that side of 
the NATO organization. It's had some salutary effect.
    Just the thought that we today have 100,000 NATO troops 
engaged on 3 continents speaks to a certain level of 
expeditionary, including counter-piracy, including the Balkans, 
which is enormously expeditionary, but somewhat of course in 
Afghanistan.
    So I think there's movement in that direction, and I really 
commend the work of JFCOM and Allied Command Transformation. We 
need to continue to encourage that and move it forward, because 
the nature of threats in this 21st century is going to demand 
more than just sitting behind our borders.
    Senator Reed. Has the military and political leadership got 
the idea and now is it a question of implementation? Or is it 
still something that's unresolved and under debate?
    Admiral Stavridis. I think it is under debate, but I think 
increasingly the forces of security, the demands of these non-
traditional threats, these trans-border threats, are moving the 
Europeans in this direction. I'm confident as the NATO 
strategic concept is unveiled in Lisbon in the fall we'll see 
further movement in that direction, sir.
    Senator Reed. General Mattis, if you want to comment on 
that.
    General Mattis. Yes, Senator, and I completely agree with 
where Admiral Stavridis assessed this effort. In an explanation 
to the Nations, I made the point that Italian troops going to 
Afghanistan or Italian troops going to the Baltics would have 
to deploy about the same distance, when you look at what the 
alliance is trying to do under Article 5. So it's not an 
either-or. If you want the alliance to defend more than its own 
home turf, each army in its own country, they must be 
expeditionary.
    I think that is becoming politically more acceptable, where 
at one time it was seen more along the lines of what Senator 
McCain brought up, that it was the Americans trying to get the 
Europeans to fight an American war. I don't think the 
expeditionary argument is any longer characterized like that. 
So I am optimistic, like Admiral Stavridis.
    Senator Reed. Let me turn to one aspect of the way forward 
in Iraq, and that's the advise and assist brigades. I wonder if 
JFCOM has had a chance to evaluate these brigades. They've been 
configured to retain combat power, but also, as the name 
implies, to essentially be a trainer, mentor, and integrator 
with Iraqi forces. Our success in drawing down our forces and 
stabilizing Iraq rests on their performance. I wonder if you at 
JFCOM have done any work?
    General Mattis. Senator, we leave that tactical training, 
of course, to the Chief of Staff of the Army. However, we have 
looked closely at it and it is the behavior of the troops as 
much as any significant shift in their capabilities that is 
important. What I mean to say is that when those troops go in 
they will focus on the train and assist, but it would be ill-
advised for the enemy to mess with them. They will still have 
their capability to fight and, should the Iraqis ask for it or 
should force protection demand it, these forces are quite 
capable of rocking the enemy back on their heels.
    But they are going in with the mission and the troops are 
trained and adjusted to a train, advise, and assist mission to 
the Iraqis. Right now, from our perspective these troops are 
exactly the right thing at the right time, and their 
preparation looks sound.
    Senator Reed. Just a follow-up question, because part of 
this is sustaining this effort with the best, highest quality 
forces we can. Is it your impression that within DOD, 
particularly the Department of the Army, that this mission is 
highest priority and they will organize these brigades in a way 
that we have the best possible component elements?
    General Mattis. Sir, obviously we're having to juggle a 
number of very high priorities. We also send combat troops in 
that can partner in Afghanistan. But the theme that we're 
seeing more and more now is that all of our troops going in 
must have this ability to fight in a coalition atmosphere and 
be able to partner, whether it be with Estonians, Afghans, or 
Iraqis. This is part of the shift that Secretary Gates and 
Chairman Mullen have directed, where the entire military force 
is becoming more attuned to this advise and assist effort, 
whether it be in Africa, Afghanistan, or Iraq.
    I believe because of that there will be no lowered priority 
on something that is now considered an inherent part of the 
primary mission.
    Senator Reed. Can we assume that this model will be adapted 
into Afghanistan also, that as we make progress in terms of 
reducing the capabilities of the Taliban that we'll be able to 
put more of these type of units on the ground?
    General Mattis. Sir, I'd go so far to say that the units 
we're sending over there now into the area that Admiral 
Stavridis spoke about in Marjah are completely capable on their 
own as combat units of partnering with the Afghans. We are 
learning. As a British prime minister put it, once we've 
exhausted all the alternatives we'll do the right thing. We 
have it right this time and we are using these lessons learned 
to change the very makeup of the unit training.
    Senator Reed. Thank you, sir.
    General Ward, can you describe the nature of the 
partnership between AFRICOM and the AU Standby Force of five 
brigades?
    General Ward. The command, Senator, has a relationship 
where we have a presidential determination being put in place 
that allows us to work with these five standby brigades. 
Currently that determination is in place for the Southern 
African Standby Force and the West African Standby Force. We're 
working on one for the East African Standby Force.
    We see that these regional alignments for peace are very 
critical, and where they don't exist we still work on a 
bilateral basis with the nations who would send forces to these 
standby brigades to increase their capacity as well. So it's a 
training relationship, in some instances it is an equipping 
relationship. In some instances it is a doctrinal relationship 
where we provide that type of assistance to these standby 
forces that are part of these regional economic communities.
    Senator Reed. Do we have an ongoing liaison with them in 
terms of personnel on the ground on a day-to-day basis?
    General Ward. We have a liaison officer with the AU, which 
is obviously the continental organization. We have a liaison 
with ECOWAS and their standby force. We do not have a permanent 
liaison with the Southern African Developmental, or with the 
East African. But we do have a day-to-day relationship in East 
Africa with those East African forces as well. We have 
supported each of them as they conducted training, exercises, 
and other things to help increase their capacity to bring these 
brigades together, yes, sir.
    Senator Reed. I want to thank you, General Ward. I also 
want to thank you for your service, because it's a long time 
since we taught together at West Point and I'm awfully proud of 
what you've accomplished for the military and for the Army. 
Thank you, sir.
    General Ward. Thank you for the support, Senator. Thank 
you.
    Chairman Levin. Thank you very much, Senator Reed.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    Thank you, General Ward. Admiral Stavridis, nice to see you 
again. General Mattis, thank you for your service to the 
country. Thank you for being here to answer our questions 
today.
    Admiral Stavridis, I want to talk to you about a report 
that came out, I guess it was last week, where a Spanish judge 
accused the Government of Venezuela of maintaining illicit ties 
with the Revolutionary Armed Forces of Colombia and ETA 
terrorists planning to kill senior government officials in 
Spain, including President Uribe. The reason I'm asking you, 
not only because of the Spanish connection, but your previous 
work at SOUTHCOM.
    Is there good cooperation between your command and SOUTHCOM 
to make sure that we're staying in front of these issues?
    Admiral Stavridis. Yes, sir, very much so. I'm in quite a 
bit of dialogue with General Fraser. Another example would be 
since the earthquake in Haiti, he and I have been in close 
coordination in terms of support from the many European nations 
who have pitched in and helped. There is a very strong 
relationship there, and also a strong relationship with 
AFRICOM. Those three combatant commands--EUCOM, AFRICOM, and 
SOUTHCOM--tend to work together very closely. It's partially 
the propinquity of geography, partially the personal 
friendships, and partially the geopolitical issues that you 
correctly highlight.
    Senator LeMieux. I have a concern that touches this issue 
that I just raised, with potentially an assassination plot 
against President Uribe running through Spain. It is also 
geopolitical, as you said, with the concern that Iran, with 
projecting its influence through Spain and also through Latin 
America, is becoming a destabilizing force. Certainly Europe is 
tremendously important for our security interests, and if we 
have a nuclear-armed Iran that's going to impact your AOR.
    Can you speak to that issue?
    Admiral Stavridis. Senator, I find Iran alarming in any 
number of dimensions, not the least of which is, as you 
mentioned, increasing Iranian influence throughout Latin 
America and the Caribbean, drawing on my previous experience, 
their very active sponsorship of terrorism, and their pursuit, 
not only of a nuclear weapon, but also of ballistic missiles 
which can deliver such weapons. It's one of the reasons I think 
missile defense is particularly important, and I think a 
concerned international effort to focus on the dangers of Iran 
is well warranted.
    Senator LeMieux. The administration recently made a 
decision about ground-based interceptors and not pursuing that 
in the Czech Republic and in Poland. Do you feel that the plan 
going forward to make sure that we have an adequate missile 
defense to protect Europe and the United States is adequate?
    Admiral Stavridis. Yes, sir, I do. I think the Phased 
Adaptive Approach is timely and flexible. It will provide the 
capability and be able to step up, hence the phased and 
adaptive aspects of the title, as the Iranian ability to use 
ballistic missiles goes forward.
    It is being well received in Europe. We're in dialogue with 
a variety of the potential partners for emplacement of it. 
Secretary Ellen Tauscher is in charge of that particular 
effort. She's doing a very good job working with the allies to 
move forward on it. So overall, yes, I am a supporter of it and 
I believe that it will be very effective in defending Europe 
over time, as well as the United States, of course.
    Senator LeMieux. Thank you, Admiral.
    General, can you give us an update of the status of al 
Qaeda in Africa?
    General Ward. We look at al Qaeda in Africa, Senator, in 
two locations essentially, although it is likely that they're 
in more, but predominantly East Africa al Qaeda and al Qaeda 
Islamic Maghreb. We see in the northern part of the continent 
al Qaeda Islamic Maghreb. They are operating, conducting 
kidnappings, and other sorts of activities that certainly 
threaten our interests and the interests of our partners in the 
region.
    In the eastern part of the continent, we see East Africa al 
Qaeda. Recently the claims of a merging between the Al Shabab 
in Somalia with East Africa al Qaeda are there, and linkages 
between East Africa al Qaeda and al Qaeda in the Arabian 
Peninsula. I would say that we certainly see indications of the 
presence of al Qaeda in Africa, predominantly in the East 
Africa region, as well as in the Sahel in the greater Sahara 
part of the continent as well, sir.
    Senator LeMieux. Is it a growing influence? Are they 
becoming more organized?
    General Ward. I would not characterize it there. I would 
like to come back with something for the record with more 
specific detail. But I would also offer that, based on what 
they are saying, they are seeking to expand their influence in 
the East Africa region as well as in the North Africa region.
    [The information referred to follows:]

    Al Qaeda's influence in Africa has grown in recent years, as 
demonstrated by its increased ties with extremist groups in both East 
and North Africa. As al Qaeda becomes less focused on operations in 
Iraq, the group's influence on the continent of Africa is likely to 
expand.

        <bullet> On 11 September 2006, the Algeria-based Salafist Group 
        for Preaching and Combat (GSPC) officially merged with al 
        Qaeda, becoming al Qaeda in the Lands of the Islamic Maghreb 
        (AQIM). Since the merger, AQIM has developed into al Qaeda's 
        regional arm, increasingly adopting al Qaeda-style tactics, 
        ideology, and propaganda. While primarily focused on North 
        Africa and the Sahel, AQIM is attempting to increase its reach 
        into West Africa and Europe, expanding al Qaeda's presence.
        <bullet> A limited number of al Qaeda operatives, notably Harun 
        Fazul, likely remain active in East Africa.
        <bullet> Over the past 18 months, al Qaeda leaders in 
        Afghanistan/Pakistan and al-Shabaab leaders in Somalia have 
        exchanged messages of mutual support.
        <bullet> A growing number of foreign fighters are entering 
        Somalia to train and fight with al-Shabaab against the African 
        Union Mission to Somalia and Somali Transitional Federal 
        Government forces. Al Shabaab and the foreign fighters 
        increasingly use tactics and methods typically associated with 
        al Qaeda.

    Senator LeMieux. General, this weekend we learned that 500 
people, including women and babies, were massacred in Nigeria. 
What's our current strategy to curtail human rights abuses in 
Africa?
    General Ward. As we conduct our military-to-military 
relations with the various nations of Africa, we encourage the 
promotion of human rights. We encourage the conduct of 
militaries in professional ways. Obviously, those activities 
that you described, I've seen nothing to point that they were 
committed by the military of Nigeria. Clearly the role that's 
been taken by the Nigerians to go in and stop that action is 
something that we applaud. We certainly, like all others, 
deplore that type of activity, the killing of any innocent 
people. We would certainly encourage the work that's being done 
by the Government of Nigeria to address those atrocities, those 
who are responsible, to arrest them, and do their very best to 
prevent that. But we clearly see that as something that is 
deplorable and we certainly regret the loss of innocent life to 
those means.
    Senator LeMieux. Thank you, General.
    General Mattis, there was a London Times article earlier 
this week which talked about our European allies and their 
vulnerability to a cyber attack and the rise of China as a 
hostile cyber combatant. What are we doing to strengthen our 
allies' defenses and safeguard the sensitive information that 
we share with them?
    General Mattis. Senator, I'd have to take that for the 
record to give you more data. U.S. Strategic Command (STRATCOM) 
is our main effort on the cyber effort, and we're in constant 
contact with them. We also work on the concepts. Frankly, we're 
scrambling to find a concept that takes into account how best 
to protect our networks, and obviously we must maintain an 
exploitation capability against the enemy. It is hard to come 
up with a theory that also includes the constitutional issues 
within our own country as far as how we do this protection.
    Our first step is to protect our DOD networks. We work 
closely with our NATO allies, but also some other allies in the 
world, who work with us on putting these concepts together. 
We're drawing a fair amount of traction with STRATCOM now that 
they've been assigned this and they're maturing it. I'd have to 
get back to you with more detail, which I can do. But I will do 
so by going to STRATCOM to make sure I'm current.
    [The information referred to follows:]

    Cyber defense is a critical warfighter challenge in today's joint 
and coalition operational environment. The recent Quadrennial Defense 
Review identified cyber as a priority area for the Department of 
Defense and we are working with our partners to mitigate cyber 
vulnerabilities, increase the resilience of key U.S. and coalition 
command and control infrastructures, and develop a shared cyber 
doctrine to facilitate the sharing of information and technology. In 
coordination with U.S. Strategic Command, the Joint Staff, the Office 
of the Secretary of Defense, and the North Atlantic Treaty Organization 
(NATO), we have incorporated cyber operations into the wargaming, 
limited objective experiments and training events that we conduct with 
our allies. Future interactions will take advantage of NATO's 
Cooperative Cyber Defence Centre of Excellence to advance cyber defense 
capabilities of U.S and other NATO nations and enhance our 
interoperability in the field of cooperative cyber defense.

    Admiral Stavridis. Senator, may I just add that in Europe 
NATO has established a center for cyber. It's in Estonia, which 
is appropriate since they suffered a severe cyber attack 2 
years ago. I think, as General Mattis says, it's indicative 
that all of these organizations are reaching to build the first 
nascent structures that can focus on this problem. But I 
believe it's vital, and it is something we think about a lot in 
EUCOM. I know all the combatant commanders do.
    Senator LeMieux. Thank you. I think it's vital, too, and I 
appreciate getting a follow-up on that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator LeMieux.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Admiral Stavridis, you recently discussed your concerns 
with me on cyber security and in the broader context how you 
view the vastness of this realm as a cyber sea. In a recent 
paper that you authored, I want to give a quote that really 
paints a picture of this sea for me. You wrote: ``The seas I 
refer to, however, are not of water and waves, but of zeros and 
ones, optic fibers and photons, routers and browsers, and 
satellites and servers. The cyber sea is the new global commons 
and it is untamed.''
    Two recent examples that I can think of for cyber security 
attacks is when the Iraqi insurgents recently intercepted video 
feeds from a Predator unmanned aerial vehicle using off-the-
shelf software, and then a second one concerning Google 
claiming that Chinese hackers stole some of its computer coding 
and attempted to break into Chinese dissidents' emails.
    Will you describe your principal concerns with cyber 
security and how you think we can best mitigate our exposure?
    Admiral Stavridis. Thank you, Senator. I completely agree 
with the thrust of Senator LeMieux's questions, as well as 
General Mattis's response. I think that today we have a billion 
devices that are accessing the Internet. Our economies are 
fundamentally intertwined in this cyber sea, and it is an 
outlaw sea. We do not have the norms, the buoy systems, the 
navigation, or the satellites. Nothing really exists to develop 
norms of behavior in the cyber world.
    So I think that there's a military component to this, but 
it's actually a much larger problem. This is a classic example 
of whole of society approach must really be taken into account 
here. It's not even whole of government. As you point out, 
Google and many other private companies are very engaged in 
this.
    From the military perspective, what we're trying to do in 
EUCOM and in NATO is to highlight the challenges ahead, put in 
place initial structures, do the kind of damage control that 
General Mattis is talking about to initially at least protect 
ourselves, and then I think what's necessary is to think our 
way forward through a process that can create these kind of 
global norms.
    That may be a process that brings a lot of nations together 
to have this conversation. Just as we gather to talk about the 
climate and have a global summit on the climate, I think at 
some point there needs to be a very global conversation on this 
challenge.
    Senator Hagan. Well, I understand that in the summer of 
2009 EUCOM held an exercise called the Combined Endeavor, which 
included a mix of international, interagency, and public-
private entities focused on computer network defense. I also 
understand that NATO recently established a cooperative cyber 
defense center of excellence in Estonia to enhance the 
capability, cooperation, and information-sharing among NATO 
nations and our partners in cyber defense.
    How can this endeavor serve as a model for the development 
of multi-national policies to ensure continued unimpeded and 
lawful access to cyber space?
    Admiral Stavridis. Thank you for highlighting those 
activities of EUCOM. I hasten to say that each of the combatant 
commanders is taking this on. I know General Ward is doing 
this. I know obviously STRATCOM is at the very heart of it, as 
General Mattis said. We're all grappling with this. I think 
that the more we cross-communicate and cross-level our efforts 
at this stage, the more effective we'll be in dealing with 
this.
    So I believe that exercises that bring international, 
inter-agency, and private-public actors together as we try to 
do a combined endeavor need to be elevated and taken to a 
higher level by the nations that want to connect on this. We're 
working that very hard, as you mentioned, on the NATO side 
through the center in Estonia.
    Senator Hagan. I'm very concerned about this because I see 
numerous examples going forward of where we will be subject to 
much more attack on the cyber sea.
    Admiral Stavridis. Yes, Senator.
    Senator Hagan. General Ward, the U.N. peacekeeping mission 
in the Democratic Republic of the Congo (DRC) is the largest 
and most expensive, and reportedly the U.N. could begin 
withdrawing its troops from the western portion of the country 
as early as June 2010. Additionally, the U.N. peacekeeping 
mission reportedly plans to begin withdrawing from the unstable 
eastern portion of the country in June 2011.
    Studies estimate that up to 1,200 people die each day from 
conflict-related causes as well as diseases and malnutrition. 
Rampant corruption and pervasive weak government allows members 
of the national army and members of armed groups alike to abuse 
civilians.
    Can you please describe the effects that a U.N. 
peacekeeping mission withdrawal from the DRC would have on the 
stability of the country and region, and what plans are in 
place to counter the Democratic Forces for the Liberation of 
Rwanda (FDLR) that's focused on destabilizing the eastern 
portion of the DRC? I'll be happy to repeat any of that.
    General Ward. Well, thank you, Senator. I am sure if I 
don't get to everything you'll remind me.
    First, as President Kabila talks to the U.N. on the 
withdrawal of those forces from the DRC, I too think it would 
not be a good idea for that to occur too quickly. The 
conditions that you described with respect to the corruption, 
the professionalism of the armed forces of the DRC, their 
activity, the lawlessness in the eastern part of the country to 
be sure, all contribute to abuses to the population and to 
instability.
    The U.N. force that's there has clearly been a force for 
good in addressing those conditions. Large as that contingent 
is, given the size of the DRC, it is still not covering that 
entire country. But any place where those forces are reduced 
would have I believe a negative effect. Right now the western 
part of the country is in fact the most stable, so it would 
probably be least affected with the withdrawal of U.N. forces. 
But clearly in the eastern part of the country, where the 
majority of the things occur against the people, either being 
committed by rebel groups who operate in that region or in some 
cases by the armed forces of the DRC itself, I think the 
removal of U.N. forces would have a detrimental effect on those 
overall conditions.
    As we work with DOS and others with the Congolese as they 
address in a comprehensive way the plethora of conditions that 
contribute to the instability and the lawlessness, our focus 
now is moving ahead with training of a battalion that hopefully 
can serve as a model for what professional behavior is and what 
it could lead to for other parts of the armed forces of the 
DRC.
    We have begun that program in earnest about 2 weeks ago. It 
will run about another 6 or 7 months, and should it prove 
successful there's potential that it could be expanded to other 
battalions as well to help a process of increasing 
professionalism and ability of the armed forces of the DRC to 
move ahead.
    The work being done by the FDLR in the east, the Congolese 
are addressing that through some of their activities, supported 
by the U.N., and I think that too is important work as a part 
of the overall comprehensive way that those rebel groups have 
to be addressed. As we've also seen, I might add, with the 
cooperation that has existed between Uganda, the Congo, Rwanda, 
as well as the Central African Republic in a regional way to 
address these common threats is something that we also will 
continue to encourage.
    Senator Hagan. Well, I'm extremely concerned about the 
number of people that are dying every day and certainly the 
abuse of their men and women is just reprehensible. But thank 
you for your testimony.
    Thank you.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman. I too want to add 
my thanks to these three distinguished Americans who've 
dedicated their lives to protecting us. So from me to you, 
thank you, gentlemen.
    I will submit, Mr. Chairman, some questions for the record, 
because I have a whole list of them here, and I'm going to 
start with General Ward. General, your command was designed to 
employ the whole-of-government approach to executing theater 
security cooperation and to facilitate counterterrorism efforts 
within the African nations. General, what is the future role of 
the JTF-HOA and the military base in Djibouti?
    General Ward. Sir, Camp Lemonnier is I believe a very 
critical part of our national structure in that part of the 
continent. It serves four combatant commands, not just mine. It 
also serves U.S. Central Command (CENTCOM), U.S. Special 
Operations Command, as well as U.S. Transportation Command as a 
logistics hub, as an infrastructure point, as well as a 
training platform.
    I think it is in the long-term interest of the United 
States to maintain that facility to the degree that we have and 
continue to improve upon it, that will allow our activities in 
support of our missions in that part of the world to be 
facilitated. It is very important to us. I think it has great 
long-term meaning for us and I will clearly endorse it over the 
long term.
    JTF-HOA, which is my force that's there right now, 
continues to do work in the region insofar as helping build the 
capacity of those nations in East Africa to counter the terror 
threat, as well as to be able to deal with the threat of terror 
by increasing their capacity. We are providing training 
assistance, equipping assistance, mentoring assistance, 
professionalization of their militaries, as well as helping to 
bring them together in a regional way as they continue to work 
together to address that common thread.
    So both activities and the platform itself, being Camp 
Lemonnier, are important. The work being done by the JTF-HOA as 
it executes its programs, fully aligned with the goals and 
objectives of AFRICOM are also very, very instrumental in 
promoting that degree of professionalism in East Africa and in 
other parts of the continent where we see those unique 
capabilities that could be applied, in particular the civil 
affairs work.
    Senator Burris. General, do you feel, since you're the last 
command to be stood up here, that you are fully operative and 
fully personnel-staffed correctly? Or do you really need 
additional staff personnel?
    General Ward. Senator, we always look for more. The Deputy 
Secretary of Defense has written to all of his colleagues 
asking for additional interagency support. Not that we would do 
the work of the interagency, but so that the interagency input 
to our work could be further assuring that what we do in fact 
is in keeping with supporting the overall comprehensive work 
being done by other parts of our Government.
    We don't have all that we would like to have, but there is 
a recognition on the part of our interagency partners that they 
should be and want to be a part of this command, and as we 
continue to move forward we see that occurring. That's why I 
endorse all that the Secretary of Defense and the Chairman says 
about increasing the capacities of our interagency partners as 
well, so that they can in fact participate.
    Senator Burris. Are you going to get Egypt into your 
AFRICOM? When do you anticipate that taking place?
    General Ward. Egypt, as you pointed out, Senator, is 
aligned with CENTCOM. But for matters of the continent of 
Africa, currently we can work with Egypt. In fact, I will be in 
Egypt in a matter of a couple weeks working with them on 
matters of the continent.
    Senator Burris. Also, General, the reason why we have not 
been able to locate AFRICOM in an African country is because of 
the politics of these countries and locating the right country 
would be a major undertaking. Is that the reason why we have 
not located it there and it's still in Stuttgart, or can we 
find a very friendly African country to headquarter AFRICOM on 
the continent of Africa?
    General Ward. Senator, that is very complex. The reasons 
that you cite are part of it. But it's more than that. At this 
point in time, I think if our work is to be about increasing 
the capacity of African nations, it's our programs and our 
activities that we do in about 38 different countries right 
now. That's the important part, and the effort to find a 
location with all the other associated issues would be 
distracting to the real work of the command, that is through 
our programs.
    Senator Burris. Admiral, theater engagement seems to be a 
major tool used by the command when partnering with the nations 
within your AOR. How is the National Guard's State partnership 
program integrated into your theater engagement strategy?
    Admiral Stavridis. Deeply, deeply engaged. This State 
partnership program, which brings the State Guard into 
individual nations to partner with their militaries, is 
fundamental to what we're doing. We have 26 of them around 
EUCOM, and I'd highlight just one among many, which is the 
Georgia Guard, which is partnered with the military of the 
Republic of Georgia. The two of them are working hand in hand 
to prepare a deployment of the Republic of Georgia's brave 
soldiers. They're going to send 750 to Afghanistan.
    So multiply that by 26 programs around the theater and you 
get a sense of how important this is, sir.
    Senator Burris. Thank you.
    General Mattis, you have a completed draft document, 
``Education and Employment Principles for Interagency 
Operations and Integration.'' One of your working concepts is 
to stand up an exploratory civilian force. What is the mission 
and employment of the expeditionary civilian force?
    General Mattis. Sir, there are two expeditionary civilian 
forces that we're looking at. One is inside DOD, and this is 
where you actually take DOD civilians who can fill certain jobs 
overseas on these joint coalition interagency staffs in these 
irregular wars.
    I think the one you're referring to there is the one where 
we work with Ambassador Herbst in Secretary Clinton's DOS, and 
that is where we are putting together, with their help, 
concepts that would integrate better the civilian-military 
interface when we enter into these kinds of wars that cannot be 
won by military means alone. There will be an immediate 
response force that's being built. These will be people who 
have been trained. It's their primary job. Their packs are 
packed. They have their shots. They've been through various 
exercises with the military, and are ready to go on short 
notice.
    Then there will be a response force of members of various 
agencies, and they will be ones who are basically trained. 
They're like the reserves. They go to some training every year. 
They're maintained as far as health records and deployment 
records, and they know what to do. But it would take us 
anywhere from 30 to 90 days to get them deployed.
    Then there's a larger force of people that we would 
endeavor to train as well, and that would be the sustainment 
force that would replace these others.
    Senator Burris. We are using contractors for some of this 
service, are we not, for these forces? The private contractors 
that you see in the theater.
    General Mattis. The ones we're looking at, that I just 
described, are under DOS, Ambassador Herbst's effort, and those 
are all Government employees. Contractors would be a separate 
issue, and we do that when we have to fill the gaps when we 
don't have the Active Duty or active government civilians that 
we can put in.
    Senator Burris. My time has expired, so I will yield, Mr. 
Chairman. Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Burris.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Gentlemen, thank you for your public service. Tomorrow in 
our Emerging Threats Subcommittee we're going to look at the 
comprehensive way that the military, integrating with the 
civilian agencies, can best project U.S. power and interests. 
This is particularly applicable to General Ward and Admiral 
Stavridis, not only with regard to your present interests in 
Afghanistan, Admiral, but also your previous command of 
SOUTHCOM. General Ward, clearly AFRICOM is taking this 
comprehensive approach.
    Mr. Chairman, I was not very satisfied when we had the 
Assistant Secretary of Defense, Ms. Flournoy, come to talk to 
us about the policy. It didn't seem to me that DOD had its act 
together on integrating, and it was like there were the same 
old answers about stovepipes that we're trying to break down.
    You give your commanders on the ground the opportunity that 
they have a certain amount of CERP funds that they can go out 
and dig a well or build a school. But above that, an integrated 
approach, which is key to Afghanistan, which is key to Africa, 
which is key to Latin America, things like wells, education, 
training for jobs, the position of women, medical, all of these 
things that for us to be successful in third world areas like 
we are projected, there has to be a holistic approach.
    The military has been so good as the one who leads it, and 
that of course is what is the thrust of AFRICOM and, Admiral 
Stavridis, your former command. I'd like to have you reflect, 
because I'm worried about Afghanistan that once we get beyond 
those CERP funds that these courageous young officers can go in 
and utilize, that then we get right back into the old 
stovepipes.
    I have the head of USAID coming in in the morning and I 
want to talk to that person about this. So can the two of you 
give me some advice, and also advice for our Emerging Threats 
Subcommittee, which it's the subject of our hearing tomorrow, 
Mr. Chairman.
    Admiral Stavridis. Senator, I fully share your 
prescription, which is that we have to put together a 
comprehensive approach. It's a whole of society approach. It 
really is interagency, international, private-public, and it 
all has to be connected in a way that we have not been 
terrifically effective at in any of these theaters.
    We will never deliver security in Afghanistan from the 
barrel of a gun. It has to be some as a result of all of these 
mechanisms working together. To that end, I just met with Dr. 
Shah, the Administrator of USAID. He's extremely impressive, 
highly energized and energetic, and he's coming out of the 
Gates Foundation, which gives him a very significant grounding 
in this private-public kind of connection.
    We're exploring with him how we can better partner. State 
Department, as General Mattis is talking about, is working very 
hard at this with Ambassador Herbst and his team. We have a 
long way to go, but I believe that this precise issue is the 
most important security issue for the United States moving 
forward in this 21st century.
    Back to the cyber piece, if you look at cyber as one of 
these emerging threats, it's a classic example of why this 
comprehensive approach is needed. It is fully validated. I 
believe all of the departments should continue to be pushed 
very hard to integrate their efforts at all levels, and that 
getting that balance of civilian, military, private, public, 
and interagency is crucial to our security going forward.
    Kip?
    General Ward. Senator, I clearly concur with what Admiral 
Stavridis just indicated. We know that it's something that's 
important to do. We have not broken the code on how to do it at 
each echelon. We do it fairly well on the ground. The country 
teams in the countries where DOS, USAID, and other members of 
the interagency who are there working with the military 
component, do a fairly good job of harmonizing the activities 
that occur on the ground. We need to do better at how we plan 
those endeavors. In my command, as we bring in members of the 
interagency to help us with our planning, it's a two-way street 
because through their understanding of us, their input back to 
their parent organization can help ensure a harmonization of 
the planning that occurs.
    As the Secretary has pointed out, we think that the 
capacity of some of the interagency partners to do that needs 
to be more robust. So we support those efforts that would in 
fact increase their capacity to participate in the planning as 
well as in the execution of these programs that bring the 
comprehensive effects to stability that you address.
    So we recognize it's an issue. It works more, better than 
not, at the lower echelon. We need to expand that through every 
echelon so that at the inception of our work we have done a 
better job of combining what we call this 3D approach, the 
issues of development--obviously, a public-private 
partnership--the issues of diplomacy, which includes obviously 
good governance and those things that address how a society is 
governed; and defense, those security aspects that need to be 
there so that those other things can in fact work.
    Senator Bill Nelson. Well, what advice should I give to the 
head of USAID tomorrow? What questions should I ask in our 
hearing tomorrow that would get around USAID, they go out and 
they contract with somebody to do this, let's say it's digging 
wells, but there's clearly need for education over here--let's 
take Afghanistan--and a medical clinic and training for jobs.
    How do we get the comprehensive approach? You have each of 
these nongovernmental organizations and they want to do their 
thing. How do we get it all combined in an approach?
    Admiral Stavridis. Two thoughts. One is the Quadrennial 
Diplomacy and Development Review (QDDR), which is what USAID 
and DOS are working together now; this is happening in real 
time. So I think that that's an opportunity to work on the 
integration, the alignment, and the partnering between USAID 
and DOS and how that marries up with the QDR, the DOD document, 
is a place where you could get the three main actors in this 
security mix coordinating their plans at the very highest 
level.
    If you click down one, General Ward has it exactly right, 
which is it's the planning. It's the planning that we ought to 
go after, because that's where our other agencies are off doing 
their plans and we're doing our plans, and then we meet in 
Afghanistan and the plans aren't particularly aligned.
    I think bringing together a layer of planning below that 
strategic layer represented by the QDR and the QDDR, I think in 
terms of how we can encourage the agencies to do plans 
together, to have transparency in planning, to show across the 
board what the big muscle movements are country by country, and 
integrate those plans, so there is not duplication.
    So as General Ward says, one level down, now we're at the 
tactical level, it's seamless. It proceeds from the strategic 
through the operational planning down to the tactical 
execution. I'd focus in on that planning piece, sir.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    General, Admiral, General, thank you very much for being 
here and thank you for your outstanding service to our country.
    General Mattis, I wanted to get your views on the 
development of the air-sea battle concept. The new QDR directs 
the Navy and the Air Force to develop a joint air-sea battle 
concept for defeating adversaries with sophisticated anti-
access and area denial capabilities, which in turn will help 
guide the development of future capabilities needed for 
effective power projection operations.
    Could you provide your views on the development of this new 
air-sea battle concept so far and where does JFCOM fit into the 
development, evaluation, and implementation of this concept?
    General Mattis. Yes, Senator. Thank you. The air-sea battle 
concept grew out of identification of a military problem, and 
that problem is how do we work together jointly in order to 
maintain control of one of the commons, the sea lanes. The 
situation is changing. It's always changing security-wise and 
adapting to that problem has brought these two Services 
together.
    JFCOM is part of this effort. We're monitoring it right 
now, but we're monitoring it to make sure that what we've done 
in past experiments and concept development guides this forward 
and also that we harvest from them the lessons that they're 
learning as they come to grips with this problem broken down 
into bite-sized pieces.
    What we're seeing is more and more this integration at 
every level of war. At one time we basically integrated at the 
strategic level and that was good. Then we got into the 
operational level of integration. You saw that in Operation 
Desert Storm and certainly in Operation Iraqi Freedom (OIF)-1. 
We're now integrating down at the tactical level. No longer can 
any service go into even one of its primary domains--the Army 
on the land, the Navy at sea, the Air Force in the air--and not 
integrate with others.
    It's the nature of warfare today, it's the nature of a lot 
of things, that you have to integrate more than ever in this 
age. So it's going forward well. I think the identification of 
the problems is maturing well. I would say we're in very good 
shape on that. The solutions are not completely clarified yet, 
and we will also uncover additional problems as we go forward.
    Ultimately we will see an increased reliance on naval 
forces as we look toward the future security situation. It must 
be that way for matters of limited access in certain areas for 
political or military reasons, and to bring the Air Force and 
the Navy together I think is a very healthy thing at this 
point, even though we have not completely got all the problems 
outlined. But we're getting there.
    Senator Thune. In your opinion how will long-range strike 
capabilities fit into this new air-sea battle concept?
    General Mattis. Sir, we look at these issues in phases. 
Certainly during phase zero, when we're engaging along the 
lines of what AFRICOM has been testifying to here today, what 
we're doing is we're trying to deter enemies and potential 
adversaries from ever doing something that we don't want them 
to do that would be disadvantageous to international stability.
    When you put together a strong capability like this, you 
temper our potential adversaries' designs. Should it go into a 
combat phase, the planning for this comes under something 
called campaign design. In that area, the strike capability 
that would be built would be fundamental to ensuring that we 
deter our enemies and reassure our friends that we can get 
through to them and support them.
    Senator Thune. Do you foresee in any future budget requests 
changes based on this new concept? For example, equipment 
requests with regard to this new concept?
    General Mattis. Sir, I'd like to take a pause on that one, 
because I think first we need to get the concept right before 
we come to you asking for money. Certainly the strike 
capabilities will have to be maintained at the cutting edge. 
But I can't really forecast until we get the concept right, 
which is based on a very clear problem statement of what we're 
trying to solve, whether or not that will mean new programs.
    Senator Thune. Admiral, advanced weapons systems designed 
for anti-access and area denial are being proliferated 
throughout the world, including in the EUCOM AOR. Russia's 
developing advanced surface-to-air missile systems, advanced 
fifth generation type fighter aircraft, and even hinting at 
plans to develop a new long-range bomber.
    While the likelihood of conflict with Russia is low, it 
seems more likely that we will be involved in a future conflict 
against adversaries who possess advanced anti-aircraft and area 
denial weapons systems sold to them by the Russians. What are 
your views on these activities by the Russians to develop and 
proliferate anti-access and area denial systems?
    Admiral Stavridis. Senator, we continuously evaluate 
globally all of the threat systems that are emerging, and 
indeed Russia is developing some very sophisticated ones that 
you mentioned, along with some, I would add, subsurface, 
submarine kinds of capabilities. So clearly we have to pace 
that. Clearly we have to maintain our superiority at all levels 
as we go forward, and I think that applies not solely to 
Russia, but really looking globally at all the threats that's a 
fundamental responsibility of the Department.
    Senator Thune. Do you view Russia's development of a fifth 
generation fighter aircraft as a cause for concern?
    Admiral Stavridis. I do.
    Senator Thune. How about their planned development of a new 
long-range bomber?
    Admiral Stavridis. Yes, I would put that again in the 
category of a wide variety of emerging global threats. But 
those would be among them.
    Senator Thune. I have one other question I wanted to ask. 
The Russians are seeking to link missile defense to a follow-on 
Strategic Arms Reduction Treaty (START) and negotiations, as we 
understand, have stalled over the Russian demand for the option 
to withdraw from the treaty unilaterally if they determine that 
our missile defenses would threaten its nuclear missile force.
    To the best of your knowledge, is there any effort to 
negotiate a side agreement with the Russians on this issue?
    Admiral Stavridis. Sir, I have no idea. That would be 
squarely in the purview of DOS.
    Senator Thune. All right.
    Thank you, Mr. Chairman.
    Thank you all very much.
    Chairman Levin. Thank you very much, Senator Thune.
    We expect votes just about now. There's four votes coming. 
So let's try to have a second round for everybody. Do you have 
additional questions, Senator Burris?
    Senator Burris. No, Mr. Chairman. I'm just trying to listen 
to these distinguished gentlemen.
    Chairman Levin. Okay, great. I just have a few and then we 
can turn it over to Senator Inhofe.
    You've spoken about your support, Admiral, of the new 
Phased Adaptive Approach for missile defense. One of the 
possibilities being considered is to ask Russia to cooperate in 
the European missile defense effort with their radar 
information as a way to enhance security against shared missile 
threats. Do you support that idea?
    Admiral Stavridis. I do, sir.
    Chairman Levin. If we were able to achieve it, what would 
it be?
    Admiral Stavridis. First, it would create a zone of 
cooperation with Russia, which I think is an important good as 
I look at the military-to-military responsibilities I have in 
EUCOM.
    Second, I think it could technically add to the early 
warning time because of the location of the system.
    Then third, I think it creates confidence-building measures 
between ourselves and the Russians.
    Chairman Levin. Does the Polish Government now support the 
missile defense approach?
    Admiral Stavridis. I think it's fair to say in general 
terms they do, yes, sir. I would not speak for the Polish 
Government.
    Chairman Levin. All right. Have they spoken on it yet?
    Admiral Stavridis. They have not. That's my intuition based 
on my conversations, sir.
    Chairman Levin. Is there discussions or agreements with the 
Polish Government relative to the deployment of a Patriot 
training battery in Poland?
    Admiral Stavridis. Yes, sir, there is.
    Chairman Levin. Has that been completed yet, those 
discussions?
    Admiral Stavridis. I think we are literally signing the 
final memorandum of understanding this week, and I anticipate 
that deployment going forward in the next 30 days.
    Chairman Levin. The AFRICOM manning issue has been raised, 
General, as to whether or not you have enough personnel. You've 
indicated you'd like some more if you can get them. But my 
question has to do with this. Apparently your Service 
components are not assigned to you as assigned forces; is that 
correct?
    General Ward. The Service components are assigned, sir. 
They have no assigned forces under them, but my components are 
assigned to me.
    Chairman Levin. Okay. But underneath them there are no 
forces; do I have that right now?
    General Ward. That's correct.
    Chairman Levin. Those forces are generally provided through 
a global force management and request for forces system. Have 
you applied for forces? Have you made that request through that 
system?
    General Ward. I have. I use the global force management 
process, as do the other combatant commands as well, for 
satisfying my requirements for forces to do our missions that 
we have to undertake on the continent.
    Chairman Levin. Finally, the Department is currently in the 
process of updating the guidance for employment of the force 
(GEF) which establishes the Department's strategic objectives 
for campaign planning and security cooperation and the 
priorities to be established. There's an ongoing rewrite of the 
GEF. It's the first, I think, since AFRICOM was established. Is 
AFRICOM receiving a fair hearing under that revision process?
    General Ward. Yes, Senator. I've been a part of that 
process and I'm fully aware that DOD, as it looks at its 
revision of the GEF, is looking at ensuring that the 
requirement that we have for resources to conduct the very 
essential building partner capacity is being treated at a level 
of priority different than the past, so that those forces that 
are required to do that mission will enjoy a higher priority 
than has been the case in the past. We are participating in 
that process.
    Chairman Levin. Thank you very much.
    Senator Inhofe.
    General Mattis. Can I just associate myself with General 
Ward on that particular issue. I think it is a bit of a sea 
change in the Department and it's a good one.
    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Admiral Stavridis, there's only one area where I disagree 
with you, and I've told you this before. But I'd like to have 
you tell me where I'm wrong on this. Our intelligence tells us 
that Iran would have the long-range ballistic capability 
somewhere between 2015 and 2020. I'd say 2015 then, as serious 
as that is. The SM-31B, which is short- and medium-range, that 
would be 2015, but it doesn't matter. That doesn't have the 
capability, nor does the 2A variety, which would get into 
intermediate, and that's supposed to be somewhere around 2018.
    The SM-32B, which is supposed to be comparable to what we 
would have had--at least I think this is the case--if we had 
had and kept the ground-based system or the ground-based 
interceptor in Poland, there is no date on that.
    I objected to that first budget of the President just for 
the terminating of all these programs, such as the F-22, the C-
17, and the Future Combat System. But the thing I found most 
objectionable was when he pulled the rug out from under Poland 
and the Czech Republic. I was with Vaclav Klaus this last 
Friday.
    I understand the argument that we have the ground-based 
system in Alaska and California. I don't have the confidence 
that that would have that coverage that far for the eastern 
United States. I guess I would just say, just briefly, what am 
I overlooking?
    Admiral Stavridis. Senator, I'm going to ask to take that 
one for the record and come back to you. I think it's a 
technical issue that I would like to provide you a little more 
data on. I will say that, as a naval officer who has commanded 
multiple Aegis ships at sea, I am extremely impressed, 
naturally given my background, with the Aegis system and its 
ability to adapt. So part of my confidence comes out of my 
grounding in my many years at sea operating with that system 
and my belief that it can be successfully transitioned ashore.
    Having said that, I want to provide you the hard data on 
this and I'd like to take that for the record to do that, sir.
    [The information referred to follows:]

    [Deleted.]

    Senator Inhofe. That's all right, and I don't disagree with 
you. I've been a strong supporter of the Aegis system. But 
we're talking about long-range intercontinental ballistic 
missiles (ICBMs). Okay, fine, we'll get that for the record.
    General Ward, I was appreciative of the fact that you said 
some good things about Ethiopia in the response to, I believe 
it was, the chairman's question. Specifically, I know that the 
one who has been under attack in Ethiopia more than anyone else 
is Prime Minister Meles. My personal feeling is he has a tough 
job, but he's a tough guy and he's been able to do it.
    Would you make the same comments about his leadership as 
you would just Ethiopia in general?
    General Ward. Senator, I meet with Prime Minister Meles 
quite regularly and I have a huge respect for his leadership 
and the work that he does, especially as it pertains to 
addressing the threat of terror and cooperating with those who 
also address that threat of terror in East Africa.
    Senator Inhofe. The fact that he was there with us when the 
Somalia thing happened--I think he's taking a bum rap is my 
position.
    You talked, when you were talking to Senator Hagan, about 
the cooperation between Rwanda, Uganda, and the DRC. I 
personally have talked to Museveni and Kagame and Kabila on 
their cooperation with each other, but in another area, and 
that is the area of the LRA in northern Uganda, or wherever 
they are right now. We made a point to go over to East Africa 
to Goma thinking that was about where he was last seen, and 
he's had another reign of terror since that time.
    We have legislation right now that is going to try to give 
more assistance to those presidents and those countries to try 
to end what I call one of the worst reigns of terror I've ever 
personally observed, and I've been there and have observed it. 
Do you think we should be helping with more resources to end 
that particular LRA problem? Would you support me on that?
    General Ward. Yes, sir. The work being done by that group 
of countries to combat the atrocities that the LRA has 
committed for over 25 years is work that's important and I 
think our support to those ongoing efforts is important 
support.
    Senator Inhofe. I think most of the members on this 
committee are actually co-sponsors of the legislation that we 
have that would be helpful to resolve that. One of the problems 
we have is that all three of these presidents came from a 
military background and there's always a little bit of a 
concern over, is this reflecting that I can't do it myself? But 
I think we're finally in a position to jointly work on this 
thing.
    Let's see. Is there anything else in terms of what is 
taking place right now in Africa? Maybe you can give us a 
couple of examples of the improvements you've made working with 
the African militaries, some of the successes there.
    General Ward. Thank you, Senator. There are several. As an 
example, as we work with the littoral nations on their maritime 
safety and security, our various programs, one we call the 
AFRICOM Maritime Law Enforcement Program, it's an interagency 
construct. We bring in members of Homeland Security and the 
Coast Guard working with African nations and their legal 
systems such that they have a better ability to provide for the 
territorial integrity of their waters. That is working.
    We conducted an exercise in East Africa whereby we had five 
participating nations, the first time ever. They came together 
jointly working to help address a natural disaster or 
humanitarian assistance scenario. But as was pointed out to me 
by a chief of defense of one of these nations, as convoys moved 
through that part of the continent 10 years ago you would not 
have thought that they would have come together to link up and 
then move to a common objective that was conducted in the north 
of Uganda, where the LRA had just 3 short years ago been 
running with abandon and devastating the populations there.
    Those are happening all over the place. We had a training 
operation in Mali. In the chairman's opening statement he 
mentioned what went on in Mali last summer. A member who 
received training this past January said had he had that 
training prior to that last July situation where the Malians 
encountered al Qaeda in the Islamic Maghreb forces, he said 
that would not have happened.
    So our work to train and assist these countries so that 
they can be in a better position to address these threats 
themselves is paying off.
    Senator Inhofe. Thank you, Mr. Chairman.
    I applaud all three of you for the great work you're doing.
    Chairman Levin. Thank you, Senator Inhofe.
    I'm going to have to leave now, so I'll turn the gavel over 
to Senator Lieberman.
    Thank you all very much for your service.
    Senator Lieberman [presiding]. Thanks, Mr. Chairman.
    General Ward, I just wanted to say to you first how 
impressed I am as I hear you answer the questions about what's 
happening within the African continent and your involvement in 
it, your knowledge of it, and how important it is, that we 
created AFRICOM, because I think we were paying too little 
attention to this critically important continent.
    I think you're bringing to it the same kind of critical 
relationship with the leaders there. In some of the regions of 
the world, the most important person in the region really is 
our regional commander. Now, as you said to me when I began 
this conversation before the hearing, it's only in a sense the 
door in and it hopefully leads to other relationships, 
diplomatic, political, economic, etcetera.
    Anyway, I wanted to thank you for the way in which you've 
done your job, and it's been very important.
    Admiral Stavridis, I know you've been asked already about 
missile defense. In your role, you are going to be responsible 
for operating the early stages of the Phased Adaptive Missile 
Defense System for Europe. I thought I'd ask you first for an 
analysis, if you will, or a report on what the state of 
European public opinion is about missile defense? In other 
words, do the Europeans feel vulnerable now? There have been 
times in the not so distant history where I think they haven't. 
Do they feel vulnerable, and if so who are they worried about 
firing missiles at them?
    Admiral Stavridis. Sir, I think there's a growing 
appreciation in Europe for the danger specifically from Iran. I 
think they look at the nature of that regime, clearly a state 
sponsor of terrorism, working hard to develop a nuclear device. 
Additionally, I think there's a great deal of understanding 
that the ballistic missile technology that the Iranians possess 
is moving apace. So that is having a salutary effect on the 
European proclivity to be engaged with us in missile defense.
    It varies from country to country, and there are a number 
of factors that range from geography to relationships with the 
United States to general world outlook that shape it. But I 
think in my opinion it's fair to say that we are seeing a 
growing appreciation of it. Again, I have to applaud assistant 
Secretary Ellen Tauscher, who is moving forward on the 
diplomatic side of this thing. She's an expert in all of this 
and she's doing, I think, a very credible job of forging the 
practical partnerships which I believe over time will grow into 
a fully integrated missile defense.
    Senator Lieberman. I appreciate that, and I appreciate the 
work that Ellen Tauscher has done, as you do.
    There was some concern here on Capitol Hill when the 
decision was made to pull back from the Polish-Czech plan. How 
are we doing? I know you've answered this in part, but how are 
we doing on the development of the alternative system? Are you 
confident that it will meet the target dates we've set so it 
will provide adequate defense?
    Admiral Stavridis. I'm certainly confident that the first 
stage will. It'll be sea-based and, as you heard me say to 
Senator Inhofe, I have a great deal of confidence in that part 
of it. Given the track record of that system and the technology 
embedded in it, I am reasonably confident that it will be 
adapted and will transition to a shore-based system within the 
targets that are set for it.
    Nobody can predict the delivery of defense technology. 
We've all been surprised on that occasionally. But given the 
track record of the system and given my understanding of where 
we are, I think it's very reasonable to expect that we will hit 
those bells as we move forward.
    Senator Lieberman. That's good to hear.
    There was a related article in the Washington Post this 
morning about the Medium Extended Air Defense System (MEADS). 
It says, ``After several failed attempts, the Army is trying 
again to cancel the $19 billion missile defense system that the 
United States is developing in partnership with Italy and 
Germany. Known as MEADS, it has been in the works for more than 
a decade and is designed to replace in part the Army's aging 
Patriot system.''
    I wanted to ask you whether you've been involved in 
discussions with your Army colleagues about this program and 
what your opinion of it is, and ultimately the unique feature 
of this is that we have a couple of our European allies, not 
only involved, but picking up a big chunk of the bill--whether 
you see the MEADS as part of the phased adaptive missile 
defense system that you're now helping to implement?
    Admiral Stavridis. I have not gone into detail on MEADS 
with my Army brethren who are developing that here in the 
United States. I will tell you in Europe there is a sense that 
the system can be a functioning part of a missile defense 
system. I recently spoke with several chiefs of defense from 
the participating nations who mentioned that.
    I think, Senator Lieberman, it's also indicative of the 
relationship between the United States and Israel, where we are 
working and looking at some of the Israeli capabilities that 
you're aware of, the Iron Dome System and the Arrow System. I 
think we in the United States do not have the market cornered 
on all the smart technology. We would be well served by 
reaching out to our allies and finding what can be integrated. 
I think MEADS potentially is in fact a player in that.
    So I will continue to follow the MEADS story as it unfolds. 
But I think it's more important as an example of how additional 
technologies can be adapted to the Phased Adaptive Approach, 
which is one reason it's an attractive system.
    Senator Lieberman. So at this point you're inclined to 
favor the continuation of the MEADS program?
    Admiral Stavridis. I don't know enough about MEADS to make 
that statement, sir.
    Senator Lieberman. Right, okay. But I agree with you. 
There's a growing appreciation among allies in Europe, in the 
Middle East, and in Asia of the missile threat, particularly 
from Iran and North Korea. It just makes a lot of sense for us 
to operate, as we have been, cooperatively.
    You're right, the last time I was in Israel I saw some 
video of testing of the Iron Dome System, which is a defense 
against short-range missiles or rockets. It was quite 
impressive. We're partners in that with the Israelis and we'll 
have full benefit, I think, from its technologies in terms, for 
instance, of protecting American personnel and bases in places 
like Europe or the Middle East from potential short-range 
missile rocket attack.
    Admiral Stavridis. Yes, sir.
    Senator Lieberman. That's it for me. I have to go over to 
vote. It's been a very informational and encouraging hearing. 
I'm sure the committee, as it normally does, will try our best 
to authorize to a level that will continue to allow the three 
of you and the many men and women in uniform who serve under 
you to do the job that we ask you to do in defense of our 
security and our freedom.
    Thank you very much. The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                      u.s. army posture in europe
    1. Senator Levin. Admiral Stavridis, pending the review of the 
North Atlantic Treaty Organization's (NATO) Strategic Concept and an 
accompanying U.S. assessment of our European defense posture network, 
the Quadrennial Defense Review (QDR) recommended maintaining four 
brigade combat teams (BCTs) and an Army Corps headquarters forward 
stationed on the European continent. In your written statement, you 
stated ``without the four BCTs and one tactical intermediate 
headquarters capability, European Command (EUCOM) assumes risk in its 
capability to conduct steady-state security cooperation, shaping, and 
contingency missions. Deterrence and reassurance are at increased 
risk.'' How important for your priority initiatives is it to retain 
four BCTs forward stationed on the European continent?
    Admiral Stavridis. EUCOM's forward stationed forces and bases are 
critical elements of U.S. national security and diplomatic strategy. 
They are important symbols of continued U.S. support for and leadership 
of NATO. Our forces provide essential elements of U.S. assurance, 
dissuasion, and deterrence across the entire European and Eurasian 
theater. They also provide superb power projection facilities for the 
support of coalition operations and contingencies in Europe, Eurasia 
and Africa.
    Taking into account the demands of a dynamic and complex security 
environment; directed tasks associated with U.S. defense strategy; 
requirements to sustain robust levels of engagement with allies and 
friends; the need for forces, bases, and access and treaty agreements 
to support global operations; and a recognition that posture decisions 
are more often than not, irreversible, it is my opinion that the four 
BCTs and a Corps Headquarters is the minimal forward stationed Army 
force requirements for the theater.

    2. Senator Levin. Admiral Stavridis, what would be the impact of 
redeploying two BCTs out of Europe on EUCOM's ability to engage with 
our European allies and maintain the transatlantic relationship?
    Admiral Stavridis. Should the two heavy brigades return to the 
continental United States (CONUS), the impact on EUCOM's ability to 
engage with our European allies and maintain the transatlantic 
relationship would be significant. Their physical presence in Europe 
serves to further assure our allies of the longstanding U.S. commitment 
to NATO and the region in general. U.S. Army forces located in Europe, 
in between their out-of-area deployments, are available for training 
and security cooperation events with our NATO allies and aspiring NATO 
members. These activities are part of the Building Partnership Capacity 
priority for EUCOM and encourage the development of partners to 
increase capability and capacity for expeditionary operations in 
support of global security strategies.
    Furthermore, in-theater forces can respond to short-fused 
opportunities that could not be performed by rotational forces. EUCOM 
realizes that both brigades have not yet converted to the modular BCT 
formation. Ideally, these two brigades can be converted such that EUCOM 
would have assigned each of the four types of Army BCTs to maximize our 
capability with respect to interoperability training with our allies 
and friends. These two BCTs do everything stateside forces do . . . 
plus they build relationships; assure, deter, and dissuade, provide 
operational flexibility, ensure global access, provide our forces 
multinational training opportunities, and build partner capacity at a 
marginal cost.
    Additionally, with Army force generation requirements and rotation 
goals, maintaining these additional BCTs in Europe reduces deployment 
stress on the Army's BCTs. Maintaining the four BCTs in theater ensures 
a BCT in ready status for contingency operations and security 
cooperation activities while another is in reset and the remaining two 
are deploying, redeploying and/or conducting out-of-area operations.

    3. Senator Levin. Admiral Stavridis, if these units remain on the 
continent, what is your assessment of the condition of the facilities 
that will house them and whether you have adequate facilities to 
conduct the necessary training to maintain these units?
    Admiral Stavridis. If retained, the 170th Infantry Brigade and 
172nd Infantry Brigade will remain stationed at their current 
locations. The 170th Infantry Brigade is at Baumholder, Germany, and 
the 172nd Infantry Brigade will complete consolidation at Grafenwohr, 
Germany, by the end of 2010. Facilities at both locations are generally 
in very good condition and suitable to meet unit requirements; however, 
a significant portion of the Military Family Housing at Baumholder is 
in need of recapitalization. Accordingly, U.S. Army Installation 
Management Command Europe began execution of a multi-year housing 
recapitalization program in fiscal year 2010. It is important to note 
that Baumholder will remain an enduring location even if the 170th 
Infantry Brigade returns to the CONUS.
    Training areas currently available to these units are world class. 
Both Baumholder and Grafenwohr have their own maneuver and training 
areas where the BCTs can conduct all required training. In addition, 
the Joint Maneuver Training Center (JMTC) at Hohenfels, Germany, 
provides the same fully instrumented training capability as the 
National Training Center in Fort Irwin. The Grafenwohr/JMTC training 
facilities were originally designed for a much larger number of forces 
than there will be with just four BCTs. Those four BCTs will have far 
more opportunity to conduct combined and collective training than CONUS 
units waiting their turn for National Training Center or Joint 
Readiness Training Center. Additionally, our European based U.S. forces 
train with their European partners utilizing both U.S. controlled and 
host nation facilities.

                       nuclear posture in europe
    4. Senator Levin. Admiral Stavridis, as NATO continues its work on 
a new Strategic Concept, do you see any consensus developing on the 
future role, if there is one, for nuclear weapons in NATO?
    Admiral Stavridis. The future role of nuclear weapons in NATO is 
being discussed as part of the Strategic Concept deliberations. We 
expect the new Strategic Concept to be released this Fall. Until its 
release, I cannot speculate on what the final document will state.

              al qaeda in the land of the islamic maghreb
    5. Senator Levin. General Ward, the failed Christmas Day airline 
bombing reminded the counterterrorism community that al Qaeda is not an 
organization limited to the rugged terrain of Afghanistan and Pakistan, 
but is a global terrorist organization with an insatiable desire to 
strike targets anywhere they can. In northwest Africa, U.S. Africa 
Command (AFRICOM) is dealing with one of al Qaeda's affiliate 
organizations, al Qaeda in the Lands of the Islamic Maghreb (AQIM). 
Governments in northwest Africa have not demonstrated a consistent 
commitment to work on a regional basis to combat this threat. This 
provides AQIM with a broader operational space. Would you say the 
ambitions of AQIM are different from those of al Qaeda in Pakistan or 
al Qaeda in the Arabian Peninsula?
    General Ward. There is no fundamental difference in the ambitions 
of AQIM and al Qaeda elements in Pakistan and the Arabian Peninsula. 
Both groups devote significant energy towards attempting to overthrow 
apostate governments in their respective regions. The distinction 
between the organizations is a difference in operational capability, 
focus, and tactics.

        <bullet> Since merging with al Qaeda on 11 September 2006, AQIM 
        has emerged as al Qaeda's regional arm in North Africa and the 
        Sahel. This transformation has been reflected in AQIM's 
        tactics, ideology, and propaganda, which now more closely align 
        with those of al Qaeda. Although AQIM remains intent on 
        targeting the Algerian Government and other regional 
        governments--especially Mauritania-AQIM is increasingly 
        targeting Western interests, as evidenced by recent kidnappings 
        in Mali.
        <bullet> AQIM aspires to conduct operations outside of Africa 
        but has yet to demonstrate a significant capacity to project 
        force beyond its traditional operating areas in North Africa 
        and the Sahel.
        <bullet> Over the next year, AQIM will likely concentrate on 
        expanding the group's operational reach in North Africa, the 
        Sahel, and West Africa.
        <bullet> AQIM has limited influence in Europe and no known 
        capability in the United States. However, AQIM is willing to 
        support operational planning in Europe and may be willing to 
        support operational planning in the United States if the 
        opportunity arises.

    6. Senator Levin. General Ward, what is your assessment of the 
prospects for regional counterterrorism cooperation in northwest 
Africa?
    General Ward. [Deleted.]

    7. Senator Levin. General Ward, what programs has AFRICOM initiated 
to address this burgeoning threat, and are they adequately resourced?
    General Ward. [Deleted.]

                                somalia
    8. Senator Levin. General Ward, much of the training assistance 
provided today is through the African Union Mission to the Transitional 
Federal Government in Somalia. Very little, if any, assistance is 
provided to Somaliland and Puntland forces. Do you see a role for 
AFRICOM in providing train-and-equip assistance either directly or via 
contractors to Somaliland or Puntland?
    General Ward. [Deleted.]

                   program for small unit excellence
    9. Senator Levin. General Mattis, last year U.S. Joint Forces 
Command (JFCOM) began the Program for Small Unit Excellence which 
focuses on specialized training for squad- and fire team-sized elements 
as well as developing better concepts and researching small unit 
training. How does the Program for Small Unit Excellence differ from 
what is already being conducted by the Services and to what extent are 
the Services already conducting squad- and fire-team level training?
    General Mattis. JFCOM did not institute a Small Unit Excellence 
program in 2010 because the programmed funding was not appropriated in 
the fiscal year 2010 Appropriations Bill. JFCOM acknowledges the 
outstanding work the Services are doing in preparing small units for 
ground combat, but also recognizes the Irregular Warfare (IW) 
environment places unique demands on the tactical, behavioral, and 
ethical decisionmaking capabilities of small units. While the Services 
continue to perform squad and fire-team level training, JFCOM seeks to 
complement Service training by providing a joint context, amplifying 
the exposure of small units and their leaders to joint command and 
control; joint intelligence, surveillance and reconnaissance (ISR); and 
joint fires. The goal is to develop small units who are knowledgeable 
of employment of the full array of joint capabilities to defeat the 
enemy, while also improving small unit cognitive competencies, 
increasing individual survivability, decreasing ethical missteps in 
combat, and bolstering psychological resilience.

    10. Senator Levin. General Mattis, how has JFCOM been able to 
rapidly field immersive infantry trainers and simulators with realistic 
environments and how can such trainers and simulators improve small-
team close combat effectiveness?
    General Mattis. Presently, JFCOM is working closely with the 
Services to support their efforts to field immersive infantry trainers 
and simulators that possess realistic environments that are fully 
integrated with joint enablers such as joint ISR and joint fires 
platforms. JFCOM has partnered with the USMC to integrate real-world 
Afghan terrain data into an immersive simulator, the USMC-developed 
Virtual Battlespace version 2 (VBS2). In turn JFCOM also fielded the 
terrain data capability to a Fort Bragg-based Army unit in preparation 
for their upcoming deployment to Afghanistan.
    As the combatant command sponsor for the Future Immersive Training 
Environment (FITE) Joint Capability Technology Demonstration (JCTD), 
JFCOM has initiated a program to holistically integrate technological 
advances across the DOD to create capabilities focused on immersive 
infantry trainers and close-combat simulators. These capabilities will 
enable resource efficient solutions that replicate the effects and 
conditions of the operational environment.
    On March 8, the Deputy Secretary of Defense signed out a letter 
directing the Department to immediately develop a state-of-the-art 
simulation capability for training of ground forces to meet the urgent 
requirements demanded by the current fight. This letter specifically 
directs JFCOM to contribute to the integration efforts in the 
development of this capability, while also providing the joint context 
(joint C2, joint ISR, joint fires) to the creation of the virtual 
environments. JFCOM will also work with the Joint Improvised Explosive 
Device Defeat Organization (JIEDDO) to focus on incorporation of the 
counter IED challenge.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                          supplemental request
    11. Senator Burris. Admiral Stavridis, there is a $20 billion 
supplemental request for fiscal year 2010 in addition to $102.2 billion 
Overseas Contingency Operations (OCO) request for fiscal year 2011. If 
the supplemental is being replaced by the OCO request, then why is 
there such a large disparity?
    Admiral Stavridis. The answer to this question is more 
appropriately answered by the Department of the Army or Office of 
Secretary of Defense (OSD) Comptroller.

                      theater engagement strategy
    12. Senator Burris. Admiral Stavridis and General Ward, theater 
engagement seems to be a major tool used by combatant commands when 
partnering with the Nations within each of your areas of responsibility 
(AORs). What assets do you have and where are they located?
    Admiral Stavridis and General Ward. U.S. Marine Corps Forces 
Europe, U.S. Naval Forces Europe, U.S. Air Forces in Europe, and U.S. 
Army Europe, as well as EUCOMs' functional subordinate unified command 
for special operations, Special Operations Command Europe, are 
responsible for supporting our Theater Campaign Plan and implementing 
our Theater Security Cooperation programs across the region. The 
Service Components provide the capabilities necessary to engage with 
and build military capacity among our partners and Allies. These forces 
are located on nineteen Main Operating Bases, twelve Forward Operating 
Sites and seven Cooperative Security Locations across the European 
continent. EUCOM's ability to operate from locations in Germany, Italy, 
England, Benelux, Spain, Greece, Cyprus, Greenland, Turkey, Portugal, 
Bulgaria, Romania, and Poland creates openings for the United States to 
work together with allies and partners on shared regional and global 
security opportunities and challenges.

    13. Senator Burris. Admiral Stavridis, how is the National Guard's 
State Partnership Program integrated into your theater engagement 
strategy?
    Admiral Stavridis. The National Guard State Partnership Program is 
completely integrated into EUCOM's theater engagement strategy. The 
National Guard is the force provider for the State Partnership Program 
and is critical for supporting and strengthening regional security and 
stability in 21 partner nations in EUCOM's area of focus. The State 
Partnership Program accounts for over 35 percent of all military-to-
military engagements in EUCOM's area of focus and is mightily engaged 
in civil security cooperation.

                       nato's role in afghanistan
    14. Senator Burris. Admiral Stavridis, in your predecessor's 2009 
posture statement, building partner capacity is a means for providing 
flexible response to this broad spectrum of threats. NATO continues to 
work with EUCOM to support partnership efforts with its member nations 
and former Warsaw pact nations. Will NATO play a greater role in the 
ongoing efforts in Afghanistan?
    Admiral Stavridis. NATO already plays a huge role in Afghanistan 
and our Allies continue to make additional contributions. Right now, 
there are almost 40,000 non-U.S. troops in AFG as part of the 
International Security Assistance Force (ISAF). We have also had a 
recent surge of commitments from our Allies following the President's 
announcement of the new strategy for Afghanistan. So far, the non-U.S. 
additional pledges total 9,500.
    NATO has also provided over a thousand trainers, which are critical 
to increasing Afghan capacity to lead their own efforts. European 
Allies and partners provide approximately 50 percent of the Operational 
Mentor and Liaison Teams required to train the Afghan National Army. 
Also, the United Kingdom, France, Germany, and Poland have already 
deployed Police Operational Mentor and Liaison Teams to train Afghan 
National Police.
    Our Allies also hold key leadership positions and carry significant 
regional authority throughout ISAF. For example, Germany leads RC-
North, Italy leads RC-West, and Turkey leads RC-Capital. The 
Netherlands, Canada, and the United Kingdom have rotational 
responsibility for RC-South.
    In addition to this direct support to combat and training, our 
Allies are also contributing to stability and development efforts in 
Afghanistan through participation in Provincial Reconstruction Teams 
and other civilian and private ventures throughout the country.

    15. Senator Burris. Admiral Stavridis, will NATO lessen their 
national level caveats for forces they deploy to Afghanistan to allow 
them to take a more active role in combat operations?
    Admiral Stavridis. Caveats are imposed and controlled by individual 
NATO member countries in response to their internal political 
situation. Overall, the trend is positive. We have 22 of 43 nations 
completely caveat-free. There are 56 total caveats, down from 83 since 
April 2008. The caveats are not a significant impediment to operations 
in AFG. That said, I am committed to engaging NATO members and partners 
to reduce or remove caveats on their forces. It is my expectation that 
the positive trends concerning caveats will continue and provide 
COMISAF with greater operational flexibility.

                providing services to africom personnel
    16. Senator Burris. Admiral Stavridis, are there any significant 
impacts of providing various military and family services to AFRICOM 
personnel by the various military communities that are currently under 
your control?
    Admiral Stavridis. U.S. EUCOM partners with our Stuttgart neighbor, 
U.S. AFRICOM, in a tenant support relationship which extends services 
to staff and families who call Germany their home away from home.
    We also collaborate with U.S. AFRICOM on an Executive Agency level 
through our naval component, U.S. Naval Forces Europe, who oversees 
previously brokered longstanding cross service agreements which support 
the infrastructure needs of Camp Lemonier in Djibouti from which 
Commander, Joint Task Force Horn of Africa (CJTF-HOA) operates.

                               personnel
    17. Senator Burris. General Ward, AFRICOM is the newest unified 
command and has been fully operational capable since October 2008. As 
of October 2009, you also have approximately 1,200 personnel in your 
headquarters. Do you have enough personnel in your headquarters to 
provide adequate staff and command oversight over the missions within 
your AOR?
    General Ward. U.S. AFRICOM is an economy of force operation. We 
have a relatively small staff in Stuttgart compared to the amount of 
activity the command is tasked to oversee on a daily basis. The 
personnel assigned to our headquarters on manpower documents include 
the sub-Unified Command Special Operations Command-Africa as well as 
all military assigned to support our ambassadors in our African 
embassies. As we build our programs and capabilities in support of 
engagement on the continent, we continue to assess our needs for 
manpower, anticipating additional personnel requirements.

    18. Senator Burris. General Ward, what personnel from other 
Government agencies are part of your permanent staff?
    General Ward.

        <bullet> There are 27 interagency personnel integrated across 
        the command in long-term assignments.
        <bullet> Five members are Senior Executive, or Senior Foreign 
        Service personnel with strategic decisionmaking roles.
        <bullet> The remaining 22 personnel are GS-15 equivalent or 
        junior personnel, and are embedded within the headquarters 
        planning staff.
        <bullet> They provide subject-matter expertise to the planning 
        process.
        <bullet> Currently, there are 15 interagency personnel 
        temporarily assigned to the command to support specific 
        planning events.
        <bullet> U.S. AFRICOM, through the Deputy Secretary of Defense, 
        has requested an additional 33 personnel from other U.S. 
        Government departments and agencies to support the command.

                                 egypt
    19. Senator Burris. General Ward, will Egypt eventually transition 
from U.S. Central Command (CENTCOM) to your AOR?
    General Ward. There are no immediate plans to transfer Egypt from 
CENTCOM to U.S. AFRICOM. The Unified Command Plan (UCP), which 
addresses the boundaries of Combatant Commands, is reviewed every 2 
years. This formal UCP review process affords us ample opportunity to 
review and modify the existing arrangement with regard to Egypt should 
we believe a change is necessary. Currently AFRICOM has a standing 
memorandum of understanding (MOU) with CENTCOM whereby AFRICOM goals 
and objectives on the continent vis-a-vis Egypt are addressed directly 
with Egypt in close coordination with the Office of Military 
Cooperation-Egypt. We have conducted senior leader visits, participated 
in the US-Egypt Military Cooperation Council, and have held action 
officer-level planning meetings to continue to develop our engagement 
with the Egyptians.

              risk involved in accomplishing mission sets
    20. Senator Burris. General Ward, AFRICOM's AOR encompasses 53 
countries and water space that equates to the over four times the size 
of the CONUS. How would you describe the risk involved in accomplishing 
your various mission sets?
    General Ward. [Deleted.]

                    partnership with african nations
    21. Senator Burris. General Ward, AFRICOM was designed to employ a 
whole-of-government approach to executing theater security cooperation, 
and to facilitate counterterrorism efforts with the African nations. 
How has the African Contingency Operations Training and Assistance 
program assisted in this effort?
    General Ward. Africa Contingency Operations Training and Assistance 
(ACOTA) is an extremely important engagement tool for building military 
capacity and professionalism-both of which are essential ingredients 
for executing theater security cooperation and in developing forces 
capable of successful counterterrorism efforts. Focused on developing 
self-sustaining peacekeeping training programs with African partner 
nations, ACOTA enables African partners to support UN and AU 
peacekeeping missions and, as a by-product, directly supports 
USAFRICOM's theater security cooperation goals and objectives.
    Through the development of peacekeeping units and partner capacity 
to train their own peacekeepers, ACOTA training directly supports DOD's 
Guidance for Employment of the Force theater strategic end states for 
Africa:

        <bullet> To enable African countries to provide their own 
        security and contribute to security on the continent;
        <bullet> To assist African countries maintain professional 
        militaries that respond to civilian authorities, respect the 
        rule of law and abide by international human rights norms.

    In addition to training with partners throughout Africa, ACOTA is 
being used to develop National Peace Mission Training Centers (PMTCs). 
This investment in training centers will allow our partners to develop 
the capacity to generate their own peacekeeping units, and eventually 
develop the ability to sustain those forces when deployed.
    AFRICOM coordinates closely with the Department of State (DOS) as 
ACOTA partners are identified and looks for ways to supplement ACOTA 
training with uniformed U.S. military servicemembers. Much of ACOTA's 
equipping programs are coordinated through AFRICOM's Offices of 
Security Cooperation.

    22. Senator Burris. General Ward, what countries are prime 
candidates for a successful Security Sector Reform (SSR) program?
    General Ward. DOS has the lead for SSR. A successful SSR requires a 
comprehensive analysis and approach. U.S. AFRICOM, in cooperation with 
the DOS, examines countries for the attributes that may lead to 
successful SSR and Defense Sector Reform (DSR) efforts.
    Those attributes include, but are not limited to: (1) the country 
is of strategic importance to the United States; (2) the country in 
question is committed to reform and is ready to take ownership of 
reform programs with which the U.S. and other partners will assist; (3) 
the level of resources required to conduct SSR/DSR can be met by the 
recipient and donor nations; (4) the recipient is also making 
improvements in other sectors of the government necessary for 
successful SSR/DSR such as the justice sector and interior ministry; 
(5) the potential recipient has the ability to sustain reforms in the 
future.
    We are pleased with the progress in Armed Forces of Liberia given 
the level of U.S. Government investment there, but remained concerned 
about other elements of the Liberia's security sector such as its 
police forces and its inability to secure its maritime domain. Our 
collaborative efforts, with the State Department may well be a model 
for SSR efforts of similar scale elsewhere on the continent. AFRICOM's 
Defense Sector Reform effort with Liberia, Operation Onward Liberty, 
provides experienced military mentors to the nascent Armed Forces of 
Liberia. We're also working to help develop a Liberian Coast Guard that 
will enhance maritime domain awareness to address illicit trafficking 
while providing maritime security and safety. The Secretary's Defense 
Institution Reform Initiative is assessing the requirement for 
ministerial-level reform efforts and is equipped to provide skilled 
mentors if necessary. Taken as a whole, the successes we've realized in 
Liberia is a result of a whole-of-government approach with a willing 
partner.
    However, in some cases we may be directed to initiate limited SSR 
activities in environments where our prospects of success may be less 
certain, such as Southern Sudan and Somalia. AFRICOM will continue to 
provide our best military advice and support to all SSR efforts in 
which we participate.

    23. Senator Burris. General Ward, what are some examples where the 
military-to-military engagement has led to enhancing the 
professionalism of any of the African partner nations?
    General Ward. Support to the Ethiopian Defense Command and Staff 
College (EDCSC) has been one of the U.S. Government's most successful 
security engagement programs in Ethiopia, allowing U.S. military daily 
access to and influence over future ENDF leaders. The U.S. provides 
three O-5 instructors to the EDCSC via the Foreign Military Financing 
program. In an attempt to increase Ethiopian ownership, these U.S. 
officers are assuming an advisory role to Ethiopian instructors and our 
presence will scale back to two senior assistants to the Commandant in 
fiscal year 2011 and one senior assistant to the Commandant in fiscal 
year 2012.
    U.S. AFRICOM supports efforts to improve the capabilities of the 
Sudan People's Liberation Army (SPLA) in accordance with the U.S. 
Strategy for Sudan. Through AFRICOM's Military Advisor to the SPLA and 
Security Assistance Program Manager in Juba, the Command conducts mil-
to-mil events, Counterterrorism Fellowship-funded seminars, 
International Military Education and Training (IMET) courses and 
mentor/advisor training. Cross-functional military familiarization 
events with the SPLA have been conducted on a variety of topics to 
include: border/riverine security; military intelligence; HIV/AIDS 
programs and stockpile management. Additionally, Noncommissioned 
Officer (NCO) development is one area of focus for the Command. CJTF-
HOA currently has eight NCOs deployed to the NCO Academy in Mapel, 
Southern Sudan for 1 year to assist in training and mentoring the SPLA 
instructors.
    In fiscal year 2009, U.S. AFRICOM engaged over 800 African military 
intelligence partners in a variety of seminars, familiarizations, and 
conferences designed to instill military intelligence professionalism 
and further enhance bilateral relationships. This investment in 
training and capacity building will pay dividends as these graduates 
begin to assume key positions in partner country military units. In 
fiscal year 2010, U.S. AFRICOM expects to reach approximately 1,500 
military intelligence participants in these events.

        <bullet> U.S. AFRICOM has trained 106 African partners in the 
        Military Intelligence Basic Officers Course and 42 in the 
        Military Intelligence Professionals Course.

    24. Senator Burris. General Ward, what is the future role of Joint 
Task Force-Horn of Africa (JTF-HOA) and the military base in Djibouti?
    General Ward. [Deleted.]

    25. Senator Burris. General Ward, are there any plans to have a 
greater presence in your AOR, beyond JTF-HOA?
    General Ward. [Deleted.]

                      role as joint force provider
    26. Senator Burris. General Mattis, your role as the Joint Force 
Provider makes you responsible for providing forces to all commands and 
agencies in the Department of Defense (DOD) and other Government 
agencies throughout the world. What are the challenges you face meeting 
the requests in a timely fashion?
    General Mattis. During fiscal year 2010, JFCOM identified and 
assigned over 480,000 personnel to fulfill Combatant Commander (CCDR) 
requirements. These 480,000 personnel represent over 90 percent of the 
overall CCDR requests. The main challenge is fulfilling the final 10 
percent of CCDR requirements.
    Shortfalls fall into one of four general areas: lack of capability, 
lack of inventory, policy restriction, or lack of process architecture. 
When JFCOM receives a request for a capability that does not exist, 
units may be temporarily converted from one core mission to fill 
another. An example might be tasking an artillery unit to fill a CCDR 
requirement for a security forces unit. Units temporarily converted 
along these lines are designated ``In-Lieu-Of ``(ILO) sourcing 
solutions. In some situations, JFCOM builds new units from the ground 
up by moving individual personnel from several standing units to form a 
new `unit' to meet CCDR requirements. These are designated ``Ad Hoc'' 
units. Sourcing CCDR requirements using either ILO or Ad Hoc units 
requires time and training to ensure the unit has the ability to 
accomplish the desired mission. JFCOM also participates in a force 
sufficiency process to address requirements for cases where a 
capability exists, but in insufficient numbers to satisfy overall CCDR 
demand.
    Department and personnel policy sometimes constrains force 
providing. DOD and Service personnel deployment policies exist to 
maintain the long-term morale, health, and welfare of the force, while 
others exist to ensure undue hardship is not placed on the force or 
that personnel or equipment are not unnecessarily placed at risk. 
Examples of policies impacting force-providing include: Boots on the 
Ground (BOG) limits (limitations on deployment duration) and dwell 
requirements (minimum time at home between deployments). These policies 
can constrain the force supply to meet CCDR demand for forces, but 
these policy restrictions also ensure that short term requirements do 
not supersede the maintenance and long term health of the force 
requirements.
    Though improvements have been made, the processes and technical 
capabilities required for force management continue to challenge the 
force providing mission. Since being assigned the mission, JFCOM has 
established a Force Management Integration Project (FMIP) Team to 
develop and execute a plan to integrate and synchronize policy, 
processes, authoritative databases and technology affecting Joint Force 
sourcing and Global Force Management (GFM). While challenges will 
inevitably continue to arise, the improving processes, policies and 
technical capabilities working together are producing a robust global 
force management capability for the Department.

    27. Senator Burris. General Mattis, what other Government agencies, 
other than the military, do you provide forces to?
    General Mattis. While JFCOM provides forces to Geographic Combatant 
Commanders, many of those forces support other Government agencies 
while under the operational control of a CCDR. As an example, JFCOM 
provides forces to USNORTHCOM for their use in direct support of the 
Federal Emergency Management Agency (FEMA) and the Department of 
Homeland Security (DHS). JFCOM provided forces to USSOUTHCOM for their 
use in direct support of USAID in Haiti following the earthquake. JFCOM 
does not provide forces directly to other Government agencies, but 
forces provided to CCDRs do perform missions in direct support of other 
agency missions.

                        joint qualified services
    28. Senator Burris. General Mattis, what percentage of the Military 
Services are joint qualified?
    General Mattis. USD P&R is responsible for the policy of Joint 
Officer Management and the Joint Staff J1 is involved in tracking joint 
qualified officers. JFCOM does not track the numbers of joint qualified 
members across the Services. I have passed your question to the Under 
Secretary of Defense for Personnel and Readiness. A copy of my letter 
to him is next under.

    29. Senator Burris. General Mattis, if there are disparities in the 
joint education opportunities between Active and Reserve component 
forces, what are they?
    General Mattis. The Chairman of the Joint Chiefs of Staff and the 
Services can probably provide a more thorough response as they control 
all phases of Joint Professional Military Education. Steps have been 
taken to increase the opportunities for members of the Reserve 
Component (RC) to receive joint education. Advanced Joint Professional 
Military Education (AJPME) is a RC course taught at Joint Forces Staff 
College (JFSC) that is similar in content to the in-residence JFSC JPME 
Phase II course. It is only offered to RC officers. As a pre-requisite 
AJPME students must have completed JPME Phase I. The subsequent AJPME 
course then builds upon the foundation established in JPME Phase I. It 
prepares RC officers (O-4 to O-6) for joint duty assignments. RC 
officers may complete AJPME in lieu of JPME Phase II. In addition to 
AJPME, RC officers are still provided quotas in the JPME Phase II 
course.

                      mission readiness exercises
    30. Senator Burris. General Mattis, how are mission readiness 
exercises value-added to deploying commanders and staffs?
    General Mattis. JFCOM's mission rehearsal exercise (MRX) program 
addresses the mission-essential training requirements for commanders 
and staffs deploying to Afghanistan, Iraq and the Horn of Africa. JFCOM 
is partnered with ISAF, USF-I and AFRICOM in designing, planning, and 
executing each MRX event to ensure MRX training reinforces existing 
theater policies and guidance. The formal and informal feedback from 
training audiences indicates a high level of satisfaction with the 
MRXs.
    JFCOM's forward deployed support elements, Joint Center for 
Operational Analysis (JCOA) teams, Joint Enabling Capability Command 
elements, and Deployable Training Teams all undergird the MRX program 
with timely training requirement feedback. When enemy tactics and 
techniques shift, or theater Commander policies or command and staff 
processes and procedures change, JFCOM captures these insights and 
lessons learned through persistent interfaces. For example, during the 
recent MRX at Fort Campbell for the 101st ABN (AASLT) Division, MRX 
planners dynamically introduced vignettes that drove the commander and 
staff to work through ISAF Commander's most recent night raid 
directive, which was published 2 days prior to start of the MRX.
    The Afghanistan training community of interest (COI) meets biweekly 
and is comprised of participants from across the Joint Training 
Enterprise. The COI provides the latest updates and training 
recommendations for troops deploying into theater during these 
sessions. COI issues such as reduction of civilian casualties, 
escalation/de-escalation of force and rules of engagement have been 
incorporated into the MRX program. JFCOM is currently working with ISAF 
planners to ensure the latest guidance regarding development and 
leverage of the Afghanistan Mission Network is being built into the MRX 
program. This will ensure commanders and staffs, and subordinate units 
and their equipment are properly set and aligned during pre-deployment 
training for theater specific C\4\I interoperability requirements.
    MRXs are conducted in partnership with DOD, U.S. Government, and 
multi-national partners to continuously exchange and incorporate 
theater lessons learned and training requirements. During the most 
recent MRX for the 101st Airborne Division (Air Assault), the commander 
and staff were able to work with the actual French and Polish Brigades 
who will be joining them in theater, and also with the Afghanistan Army 
Brigade Commanders and staffs who will operate in their sector. Also 
personnel from over 30 different agencies participated in the mission 
rehearsal.

                      multi-national collaboration
    31. Senator Burris. General Mattis, what is your role in providing 
multi-national collaboration to NATO and non-NATO nations?
    General Mattis. The multi-national program at JFCOM fulfills the 
command's Unified Command Plan responsibility to support multi-national 
integration of joint training, concept development and experimentation, 
and capability development. JFCOM provides a joint context for multi-
national collaboration. JFCOM's geographic co-location with NATO's 
Allied Command Transformation (ACT) in Norfolk, VA, continues to 
facilitate opportunities for JFCOM to be actively engaged with NATO's 
training, experimentation, and capability development efforts.
    In addition to NATO, JFCOM's current multi-national program 
consists of bilateral agreements with 19 partner nations represented by 
29 liaison and exchange officers. Another 14 nations have requested 
partnership with JFCOM. Their agreements are in various stages of 
review. These agreements forge military-to-military relationships that 
create greater opportunities for training, concept development and 
experimentation, and capability development, all within a joint context 
provided by JFCOM. These agreements also build operational 
interoperability with foreign militaries and trust.

                             joint training
    32. Senator Burris. General Mattis, I understand that in order to 
train a joint warrior, joint education and training has to be a core 
competency for the command. What technology and tools are you employing 
to better facilitate joint training?
    General Mattis. Primarily, communications technology enables JFCOM 
to conduct training in a distributed manner by moving data instead of 
people, thus saving cost and time. The Joint Training and 
Experimentation Network (JTEN) is a communications technology tool that 
provides persistent long-haul network connectivity for the following 
types of joint training information: scenario data, live-range data, 
Command, Control, Communications, Computers, Intelligence, 
Surveillance, and Reconnaissance data, exercise control information, 
voice communications (operational and exercise control), video 
teleconferencing (VTC), e-mail, and after-action reporting data. 
Opposing force technology ensures enemy forces are accurately 
replicated and portrayed in training. Modeling and Simulation (M&S) 
technology enables JFCOM to integrate joint enablers into joint 
training to overcome constraints of time, distance, and resource 
availability. JFCOM also relies on M&S to support the joint warfighter 
in the areas of testing, training, and experimentation.
    JFCOM fields, maintains and continuously enhances the Joint 
Knowledge Online (JKO) distance learning capability to provide online 
training for U.S. and multi-national command, interagency, and 
intergovernmental partner personnel preparing for joint operations. 
Online training courses and curriculums are tailored to areas of 
deployment including Afghanistan, Iraq, and the Horn of Africa. The 
combatant commands and other stakeholders are also actively engaged in 
shaping JKO to meet their ongoing operational training needs. Recently, 
JFCOM introduced a targeted culture awareness training application 
utilizing immersive, media-rich training technologies. Also in 
development is a cultural trainer for Afghanistan. This web-based, 
game-based system trains language translation in the context of 
specific mission scenarios, each of which were identified by subject 
matter experts with direct experience in the respective region.

    33. Senator Burris. General Mattis, is there a timeline for getting 
military personnel joint trained? If so, what is that timeline?
    General Mattis. The Under Secretary of Defense for Personnel and 
Readiness, the Services, and Joint Staff J1 maintain and monitor the 
Joint Officer Management Program. This program provides guidance on the 
timing of officers meeting gates and criteria to attain different 
levels of joint qualification, which includes training and education.
    For the past decade, JFCOM has supported senior leader education in 
the form of Operations Modules for the NDU-sponsored Capstone, 
Keystone, and Pinnacle programs. While these programs and other forms 
of Joint Professional Military Education address officer development, 
JFCOM sees a growing requirement for joint skills and competencies at 
ever lower tactical echelons, requiring Service personnel to receive 
joint training earlier in their careers and at lower ranks.
    There is no single, all encompassing timeline for getting joint 
training to all levels of military personnel, nor is there a mechanism 
to displace critical Service training requirements with joint training 
requirements. Any timelines for training are driven by deployment 
schedules as well as the throughput capacity of training centers and 
schools. JFCOM is working to identify that specific joint knowledge, 
and those skills and abilities that are required at lower Service 
echelons and are developing tailored methods to ensure that the 
appropriate personnel receive required joint training. Depending on the 
nature of the required skills and the specific audience that requires 
training, this individual training may be accomplished through 
distributed training employing our Joint Knowledge Online (JKO) 
courses, through support to Service training programs leveraging the 
Joint National Training capability, or through the mission rehearsal 
exercise program and support to the Combatant Command exercise program.

                      expeditionary civilian force
    34. Senator Burris. General Mattis, you have completed draft 
doctrine, education, and employment principles for interagency 
operations and integration. One of your working concepts is to stand up 
an Expeditionary Civilian Force. What is the mission and employment of 
the Expeditionary Civilian Force?
    General Mattis. The DOD Civilian Expeditionary Workforce (CEW) is a 
program implemented and administered by the OSD. The purpose/mission of 
the program is to establish a DOD civilian workforce that is organized, 
trained, and equipped to ensure their readiness to deploy in support of 
Department of Defense contingency operations including emergency 
operations, humanitarian missions, disaster relief, restoration of 
order, drug interdiction and stability operations. CEW has provided a 
useful pool of willing professionals to JFCOM force providers to 
satisfy some CCDR requirements.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                     building partnership capacity
    35. Senator McCain. General Ward, with respect to the interagency 
or legislation, what is the greatest obstacle your command faces in 
building partnership capacity on the continent?
    General Ward. Our greatest obstacle is, in a word, responsiveness. 
When our African partners request training, assistance or material from 
AFRICOM, with the exception of natural disaster and/or humanitarian 
crises, we are unable to respond in a timely manner.
    In many cases, our African partners' governmental institutions have 
not developed to the point where planning for an exercise or engagement 
at a relatively distant point in the future is a simple matter. Often, 
when we receive assistance requests from our partners, they desire to 
engage with us in the near term-in a matter of weeks, or only as far 
out as several months from the request. Planning a year or more in 
advance is generally not possible for many of our partners due to 
financial instability or other reasons. The U.S. Government mechanisms 
currently in place to provide funding and/or authority for security 
cooperation activities are not responsive or flexible enough to meet 
partner nation's time-lines. In addition, AFRICOM does not yet have 
immediate access to assigned or rotationally allocated forces, and is 
required to use DOD's global force management/request for forces 
system, which requires long lead times. As global demand for forces 
eases in the coming years, we believe the Command will see improvement 
in its ability to access responsive forces. For example, the U.S. 
Marine Corps is working to provide the command a special purpose task 
force to carry out the command's steady state activities on the 
continent. The U.S. Army is likewise seeking to identify BCTs to 
routinely make available for security force assistance.
    The Combatant Commander's Initiative Fund is our most responsive 
funding source; however, it is extremely limited in funding and overall 
flexibility. Other frequently used options are Section 1206 funding, 
which may require a full year from request to execution, and Title 22 
programs, such as Foreign Military Finance and International Military 
Education and Training (IMET), which may require 2 or more years from 
request to execution.
    AFRICOM's inability to respond quickly to partner needs may 
increase risk to enhance the capacity of our partner nations and 
organizations in Africa. We are working closely with the Joint Staff, 
OSD, and our partners in DOS to develop solutions to these challenges.

    36. Senator McCain. General Ward, over the past decade, the African 
Union has taken on several difficult missions (e.g. Sudan, Somalia, and 
the Democratic Republic of the Congo). Given the demands on U.S. 
troops, how will AFRICOM enhance its partnerships and build greater 
professionalism among the continent's militaries?
    General Ward. AFRICOM has several title 10- and 22-funded tools at 
its disposal to build professionalism and enhance partnerships.

        <bullet> The DOS funded Africa Contingency Operations Training 
        and Assistance (ACOTA) is an extremely important engagement 
        tool for building military capacity and professionalism and for 
        developing forces capable of conducting successful peacekeeping 
        efforts. We partner with DOS to the extent possible in 
        implementing ACOTA.
        <bullet> We will build partner capacity through the 
        International Military Education and Training (IMET) program, 
        which trains foreign military personnel at U.S. facilities. 
        Approximately 900 military and civilian students from 44 
        African countries received education and training in the United 
        States or their own countries valued at $19.8 million. It 
        remains the premier program in building professionalism over 
        the long term.
        <bullet> Additionally, we will select carefully and assist 
        African partners to train and mentor other African militaries.
        <bullet> We provide partner nations with the opportunity to 
        participate in the Africa Partnership Station (APS) and the 
        Africa Maritime Law Enforcement Partnership (AMLEP)-key 
        programs aimed at developing the capabilities of coastal 
        forces.
        <bullet> We have expanded the National Guard State Partnership 
        Program to eight African countries, a program that builds 
        habitual relationships over a sustained period while delivering 
        broad capacity building programs.
        <bullet> We also conduct a vigorous series of exercises that 
        have continued to grow in magnitude. These programs build the 
        capacity of the participants, improve our partnerships, and 
        enhance partner activities between participating African states 
        as well.
        <bullet> Additionally, our military-to-military engagement 
        program was funded at less than $500,000 in fiscal year 2004, 
        but has now expanded to $6.3 million for fiscal year 2010 with 
        431 events planned in 40 countries. This program assists 
        partners in improving deployment procedures, logistics systems, 
        maintenance operations, force protection, and the conduct of 
        their own training.
        <bullet> U.S. AFRICOM addresses African intelligence capability 
        challenges through bilateral and regional training, emphasizing 
        respect for the rule of law and civilian authority.

                          resources and forces
    37. Senator McCain. General Ward, with personnel primarily located 
in Germany and Djibouti, are you comfortable with AFRICOM's ability to 
execute a noncombatant evacuation operation anywhere on the continent?
    General Ward. A successful noncombatant evacuation operation (NEO) 
requires a well-trained combatant command staff, defined and rehearsed 
procedures that have been coordinated with U.S. embassies, and the 
forces necessary to carry out the actual operation on the ground. The 
Command has developed the staff skills required, and has developed a 
NEO plan. Two of the Command's Service components--Naval Forces Africa 
and U.S. Army Africa--are capable, with some augmentation, of 
successfully directing Noncombatant Evacuation Operations in our AOR. 
Finally, while U.S. AFRICOM has not been assigned dedicated forces, in 
the event of a NEO the Department of Defense would make the required 
forces immediately available to the Command.

    38. Senator McCain. General Ward, are your component commands 
adequately staffed and resourced to execute AFRICOM's mission?
    General Ward. The Services' efforts to staff our Service components 
appropriately continues. For example, the U.S. Army has designated U.S. 
Army Africa as an Army Service component and is working to round out 
the manning. Both the U.S. Marine Corps and the U.S. Army are seeking 
to have security force capacity building assets routinely identified in 
support of AFRICOM. The U.S. Navy's commitment in support of the Africa 
Partnership Station program remains firm. The U.S. Air Force has 
methodically supported U.S. Air Forces Africa requirements in 
resourcing the 17th Air Force and associated air operations 
requirements. Given global demands for forces, the Services are also 
doing their best to support requests for forces required to carry out 
our theater security cooperation activities and our named operations. 
Combined Joint Task Force Horn of Africa is adequately staffed to 
conduct its assigned missions.

                      u.s. army posture in europe
    39. Senator McCain. Admiral Stavridis, the 2009 QDR recommends 
keeping four U.S. Army BCTs in Europe, pending the review of NATO's 
Strategic Concept and an accompanying U.S. assessment of our European 
defense posture. This recommendation is a change from the 2003 
Integrated Global Posture Review, which called for most Europe-based 
BCTs return to the United States, leaving two BCTS in Europe--one in 
Germany and one in Italy. If a decision is made to keep two additional 
BCTs in Europe, where will they be stationed?
    Admiral Stavridis. The two brigades in question are the 170th 
Infantry Brigade, currently home stationed in Baumholder, Germany, and 
the 172nd Infantry Brigade which will be consolidated in Grafenwoehr, 
Germany, by the end of this year. If they are permanently retained, 
they will remain stationed at these locations. Both of these 
installations contain excellent training ranges and maneuver areas.

    40. Senator McCain. Admiral Stavridis, regarding the review of 
NATO's Strategic Concept, to what degree will Army BCTs in Europe 
support NATO missions and qualify for funding support under the NATO 
Security Investment Program?
    Admiral Stavridis. Ground forces in Europe will continue to support 
NATO as part of any Article V action. Additionally, forces assigned to 
EUCOM are part of the global force pool and will deploy as ordered to 
support any global requirement as determined by the department's global 
force management process, which includes such operations as those under 
the ISAF. Furthermore, U.S. Army Europe forces located in Europe in 
between their out-of-area deployments are available for training and 
security cooperation events with our NATO allies and aspiring NATO 
members; these activities are part of the Building Partner Capacity 
priority for EUCOM, and encourage the development of NATO partners to 
increase capability and capacity for expeditionary operations in 
support of global security strategies.
    To be eligible for funding support under the NATO Security 
Investment Program, requirements must be linked to an approved NATO 
capability package. Requirements supporting Army BCTs in Europe cannot 
be readily linked to any existing capability packages. NATO's evolving 
role in out of area operations and the ongoing review of the NATO 
Strategic Concept may present an opportunity for development of new or 
revised capability packages that open the door to NATO funding of Army 
BCT requirements.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                        european missile defense
    41. Senator Sessions. Admiral Stavridis, the Phased Adaptive 
Approach to missile defense in Europe calls for fielding land-based SM-
3 Block IB missiles in Europe starting in 2015. Is the IB missile on 
schedule, and have you identified the two countries that will host its 
deployment in 2015?
    Admiral Stavridis. Yes. The SM-3 Blk IB development and testing 
remain on schedule. The first flight test, Flight Test Maritime-16, is 
scheduled for the second quarter of fiscal year 2011.
    EUCOM is in full support of DOS-led efforts to conclude the 
negotiations and appropriate basing agreements with Host Nations. 
Romania and Poland are the initial intended host countries for European 
Aegis Ashore with land-based SM-3 capability.

    42. Senator Sessions. Admiral Stavridis, last year Secretary Gates 
testified that the two-stage Ground-Based Interceptor (GBI) will 
continue development as a hedge against technical difficulties with the 
SM-3 Block IIA and IIB missiles. Is this still the plan?
    Admiral Stavridis. Any decision to shift from or change the Phased 
Adaptive Approach strategy to include elements of the previous European 
missile defense strategy would be done through close consultation and 
coordination between the NSC, DOD, DOS, and DNI and executed by the 
Missile Defense Agency.
    EUCOM recommends that questions pertaining to two-stage GBI 
capabilities and the associated development schedule milestones be 
forwarded to the Missile Defense Agency.

    43. Senator Sessions. Admiral Stavridis, how and when would we know 
that it is necessary to substitute the two-stage GBI for the SM-3 Block 
II missile?
    Admiral Stavridis. Any decision to shift from or change the Phased 
Adaptive Approach strategy to include elements from the previous 
European missile defense strategy would be done through close 
consultation and coordination between the NSC, DOD, DOS, and DNI and 
executed by the Missile Defense Agency. Such a decision would only be 
precipitated due to a revised assessment of Iranian ICBM missile 
capability and development timeline.

    44. Senator Sessions. Admiral Stavridis, what has been Russia's 
reaction to the new missile defense plans for Europe?
    Admiral Stavridis. While initially somewhat better than the 
reactions to the previous plan, the current reaction from the Russian 
Government has been one of suspicion.
    Russian representatives have stated that in their view the threat 
that a rogue may attack is largely theoretical. In their analysis, 
therefore, the United States and Europe must have ulterior motives. 
This view, taken in conjunction with Russia's heavy reliance on its 
aging nuclear missile force, casts some light on their negative 
reactions.
    As an example, in Russia's new military doctrine, strategic missile 
defense will ``undermine global stability and destroy the balance of 
power in the nuclear missile sphere.''

    45. Senator Sessions. Admiral Stavridis, I've seen press reports 
that Russia may now be concerned that the SM-3 Block II missile may be 
a threat to their strategic forces and that Russia will seek to limit 
its deployment in the ongoing Strategic Arms Reduction Treaty (START) 
follow-on negotiations. What can you tell me?
    Admiral Stavridis. Boris Gryzlov, Speaker of Russia's Lower House 
of Parliament, has said that the new treaty would have to contain tough 
language linking the need to limit defensive weapons with any 
reductions of offensive missiles. ``Without that, there is no chance 
the treaty will be ratified in the Duma.''
    Keeping that in mind, EUCOM will act in accordance with President 
Obama's Ballistic Missile Defense Review (BMDR) (www.defense.gov/bmdr) 
which states the United States will:

          ``Conduct a substantive and sustained dialogue with Russia on 
        all dimensions of the missile defense issue. However, the 
        United States will not negotiate restraints on U.S. BMD 
        capabilities.''

    The BMDR also states that the Ground-based Midcourse Defense system 
does not have the capacity to cope with large scale Russian missile 
attacks and is not intended to affect the strategic balance with 
Russia.

    46. Senator Sessions. Admiral Stavridis, the administration's new 
approach to missile defense in Europe hopes to solicit allied 
participation. We are hearing, however, that NATO is facing a funding 
crisis due to the operational demands related to Afghanistan. How 
likely is it that we can expect European contributions to the defense 
of their territory against medium- and long-range ballistic missiles?
    Admiral Stavridis. The Alliance recognizes that ballistic missile 
proliferation poses a significant threat to the Allies. NATO believes 
that Missile Defense plays an important role for the Alliance as part 
of a broader response to counter this threat. NATO has welcomed the new 
Phased Adaptive Approach (PAA) introduced by the United States and is 
exploring the potential for linking its systems to those of the United 
States.
    EUCOM is cautiously optimistic that NATO will accept territorial 
BMD as a valid mission during the November NATO Summit in Lisbon, 
Portugal. Such a decision would represent the political will required 
by NATO militaries and the first step in gaining traction for NATO 
commitment. It should be noted however, that European contributions are 
already taking place outside of NATO. Poland and Romania have offered 
to host land-based SM-3 capabilities. EUCOM is in full support of the 
DOS-led efforts to negotiate the necessary agreements with these 
important allies.

               missile defense and freedom of navigation
    47. Senator Sessions. Admiral Stavridis, it was reported by the 
Information Telegraph Agency of Russia on February 15 that Under 
Secretary of State Ellen Tauscher told journalists that the United 
States has no plans to deploy missile defense elements in the Black 
Sea, to include Aegis ships and sea-based missile defense components. 
The Aegis ballistic missile defense (BMD) capability is currently 
installed on 4 cruisers and 16 destroyers. All Arleigh Burke class 
destroyers and nine of the Ticonderoga Class cruisers are planned to 
receive BMD capability--a significant portion of our cruiser and 
destroyer fleet.
    Aegis class ships have sailed into the Black Sea seven times over 
the past 5 years--the last such deployment occurring in July 2009. Ms. 
Tauscher's comments are disturbing because it would seem to indicate a 
new policy to restrict U.S. Aegis ship deployments into the Black Sea--
presumably in response to Russian missile defense concerns. Are there 
any restrictions in deploying U.S. Aegis class destroyers and cruisers 
into the Black Sea?
    Admiral Stavridis. EUCOM and the U.S. Embassy in Ankara, Turkey are 
unaware of any policy decision to `prevent' the deployment of Aegis 
equipped vessels from deploying to the Black Sea.

    48. Senator Sessions. Admiral Stavridis, are you aware of any plans 
to change this policy?
    Admiral Stavridis. EUCOM is not aware of any policy changes as to 
restricting Aegis BMD ships from the Black Sea in response to Russian 
missile defense concerns.

    49. Senator Sessions. Admiral Stavridis, is it important that the 
United States maintains the right to transit ships, including Aegis 
class ships, into the Black Sea?
    Admiral Stavridis. Freedom of Navigation is one of the pillars of 
U.S. maritime policy.
    The only statutory or policy limit on the deployment of U.S. naval 
forces to the Black Sea is the Montreux Convention, which has been in 
force since 1936. This Convention has played an essential role in 
maintaining stability in the Black Sea, particularly throughout the 
period of the Cold War. It is the policy of the United States to 
support the Montreux Convention. The Convention, while it assures the 
free transit of safe commercial shipping, sets some limits on the 
ability of non-Black Sea states to deploy naval forces in the Black 
Sea. These limits do not prevent the transit of Aegis-equipped vessels 
to the Black Sea, but they limit the maximum tonnage of warships which 
are part of the fleets of non-Black Sea states. None of the U.S. Navy 
ships equipped with Aegis exceed this tonnage limit.

                 afghanistan-local defense initiatives
    50. Senator Sessions. Admiral Stavridis, I think we would all agree 
that the Anbar Awakening during the Iraq war was a great success and 
signaled the beginning of stabilization in that troubled theater. A 
Washington Post article that appeared on January 22 highlights 
CENTCOM's use of local defense initiatives (LDIs) to similarly train 
local militias as security forces to bridge the gap until more Afghan 
army and police forces can be trained. Recent estimates imply that 
32,000 soldiers need to be added over the next 10 months in order to 
meet the stated goal of 134,000 troops by the end of the year. While 
not all lessons from the Iraq war can be applied to Afghanistan, former 
Pakistani President Pervez Musharraf recently wrote, ``Afghanistan for 
centuries has been governed loosely through a social covenant between 
all the ethnic groups, under a sovereign king. This structure is needed 
again to bring peace and harmony.'' Would you agree that this program 
will spread coalition influence into remote regions and bridge the gap 
until we can recruit and train adequate Afghan army and police forces?
    Admiral Stavridis. [Deleted.]

    51. Senator Sessions. Admiral Stavridis, do you think the Afghani 
Government can be persuaded to support this program or is this 
something that will have to be implemented independently?
    Admiral Stavridis. [Deleted.]

    52. Senator Sessions. Admiral Stavridis, what is your opinion on 
our ability to adequately screen militia candidates for this program to 
ensure that we are not training the wrong folks?
    Admiral Stavridis. [Deleted.]

    53. Senator Sessions. Admiral Stavridis, the Post article addressed 
differences between DOD and DOS concerning implementation timeline. 
General McChrystal has already implemented this program on a small 
scale using existing funding. In order to fully implement, Ambassador 
Eikenberry must release additional funds. How are existing Commander's 
Emergency Response Program funds being used to support this program and 
are these funds adequate to fully implement LDIs?
    Admiral Stavridis. [Deleted.]

    54. Senator Sessions. Admiral Stavridis, what support is needed 
from DOS and what is DOD doing to resolve these differences in a timely 
manner?
    Admiral Stavridis. [Deleted.]

                     afghanistan-close air support
    55. Senator Sessions. Admiral Stavridis, an article in the Atlanta 
Journal from last weekend talked about a change in policy concerning 
limiting night raids by coalition forces. This follows on the heels of 
a decision to also limit airstrikes in the Afghan theater. While I 
understand the sensitivities over collateral damage resulting from 
airstrikes and local population concerns over the use of night raids, I 
am concerned that policies that limit the use of force prevent us from 
supporting our troops in contact with the enemy. Will either of these 
policies prevent us from responding when our troops are in direct 
contact with the enemy?
    Admiral Stavridis. The new policies described above in no way 
prevent us from responding when our troops are in direct combat with 
the enemy. Under the rules of engagement troops retain their inherent 
right of self-defense at all times and may defend themselves against 
hostile acts and they may defend themselves from individuals or groups 
demonstrating hostile intent.
    The Tactical Directive does not completely prohibit the use of 
combined arms support for our troops. The restrictions on combined arms 
support only apply against residential compounds inhabited by civilians 
and only then under limited circumstances. The Night Raids Tactical 
Directive has no practical effect of limiting force in self-defense.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                                 angola
    56. Senator Wicker. General Ward, Angola's oil exports have been 
growing at a fast pace. The exports have grown so large that Angola has 
even overtaken Saudi Arabia and Iran to become China's biggest oil 
supplier. How is Angola's sporadic economic growth affecting the 
politics in sub-Sahara Africa?
    General Ward. [Deleted.]

    57. Senator Wicker. General Ward, with this growth tied so closely 
with Angola's debt to China, what are the political and security 
implications of China in Africa?
    General Ward. [Deleted.]

                            france and nato
    58. Senator Wicker. Admiral Stavridis, last year, France made the 
historic motion to rejoin NATO. France also has one of the largest 
military budgets in the world. In July 2008, France embarked on an in-
depth overhaul of its security and defense strategy. This strategy has 
it building up the force, with a more expeditionary strategy, and 
integrating more with Europe. Some advocate for the European Union to 
become an organization that is a major player in international security 
and is an organization not led by the United States. As France grows as 
a security leader in Europe, urging countries to be more involved in 
European security, does this come at the detriment to NATO's strength?
    Admiral Stavridis. No, European countries generally depend on the 
primacy of NATO for their security. Resources committed to European 
defense institutions do not necessarily have to come at a cost to NATO.
    A complementary capability on the part of the Europeans generally 
and the French specifically may allow for greater geopolitical burden-
sharing that does not cost the U.S. taxpayer although it benefits U.S. 
security. While NATO can offer high level force projection capability, 
the EU can fill gaps in areas of policy where the NATO and the U.S. may 
not be interested or willing to operate.
    As an example, France participates in European defense institutions 
that provide stability in areas of interest to NATO and the U.S. 
(Balkans) as well as in areas that may be less accessible to NATO or 
the U.S. (Democratic Republic of Congo). Operation Althea in Bosnia 
Herzegovina, launched December 2004, has seen the EU deploy 7,000 
personnel and still acts within its peace enforcement mandate 
supporting the Dayton/Paris Peace agreement today. When Europeans are 
able to provide their own security in their own backyard on their own 
terms, we all benefit. In Kosovo today, allies provide 8,800 of the 
10,000 troops there. A second large military operation, the first EU 
military mission outside of Europe, was Operation Artemis in the 
Democratic Republic of Congo, involving about 1,500 personnel and led 
by France. Certainly, the U.S. and NATO cannot provide coverage for all 
of Africa, but where Europeans are able to operate and provide 
coverage, the United States can benefit.

    59. Senator Wicker. Admiral Stavridis, will France's efforts to 
increase their own national defense challenge NATO's relevance?
    Admiral Stavridis. No. France is a full and active member of NATO. 
If France is successful in restructuring its national defense posture 
and increasing its expeditionary capabilities, it becomes a more 
effective and valuable member of the alliance. The United States should 
welcome all efforts of any member to meet the NATO national defense 
expenditure goals. A capable NATO is a relevant NATO.

    60. Senator Wicker. Admiral Stavridis, in your professional 
opinion, does France want to create a European Union-centric security 
force?
    Admiral Stavridis. France has been a driving force behind EUROCORPS 
and supports the Common Security and Defense Policy of the EU. It 
currently hosts the EUROCORPS headquarters in Strasbourg, France. 
EUROCORPS is not an EU Defense organization, but is the closest thing 
to it composed of five framework nations of France, Belgium, Germany, 
Spain, and Luxembourg.
    The important takeaway, though, is that an EU-centric security 
force can support U.S. and NATO security goals. EUROCORPS will deploy 
in 2012 to Afghanistan in support of ISAF. There have been no 
indications that France is forming military units and capabilities that 
can only support EUROCORPS and not NATO missions. In the future, 
EUROCORPS may be deployed to out-of-area operations where the United 
States might not have an abiding interest to contribute forces through 
a NATO mission, but where the United States would nonetheless benefit 
from and welcome security and stability.
                                 ______
                                 
               Question Submitted by Senator David Vitter
    61. Senator Vitter. General Ward, please provide me with an update 
on AFRICOM integration with non-defense U.S. actors such as DOS and the 
U.S. Agency for International Development (USAID). In this update, 
please provide an assessment of DOS and USAID capabilities in regards 
to their stability operations role in Africa.
    General Ward. Interagency personnel, DOS and USAID in particular, 
are integrated into U.S. AFRICOM's staff through multiple mechanisms--
in particular through having interagency personnel on the Command and 
their regular communication and coordination with their home agencies. 
We have developed strong relationships with these agencies, and we 
continue to seek ways to improve them. We coordinate our activities 
with DOS to ensure our actions are complementary to broader U.S. 
Government efforts. Our assigned interagency experts play a vital role 
in informing our activities and plans, and as a result, our planning 
efforts are better advised and more effective.

        <bullet> As of 15 January 2010, there were 27 interagency 
        personnel integrated across the command in long-term 
        assignments. Currently, the Deputy Secretary of Defense has 
        requested an additional 33 personnel from other U.S. Government 
        departments and agencies be assigned to the command.
        <bullet> Five members are Senior Executive, or Senior Foreign 
        Service personnel with strategic decisionmaking roles.
        <bullet> The remaining 22 personnel are GS15 equivalent or 
        junior personnel, and are embedded within the headquarters 
        planning staff.
        <bullet> Currently, there are 15 interagency personnel assigned 
        to the command for temporary assignments related to specific 
        planning events.
        <bullet> Additionally, we have had a significant number of 
        personnel on temporary duty from other agencies over the last 2 
        years. These personnel come by invitation or voluntarily to 
        determine how they can best work in the command.

    Concerning operations, our interagency partnerships have made 
significant contributions that otherwise would have not been possible:

        <bullet> The AMLEP Operation, employing a U.S. Coast Guard 
        cutter with members of Sierra Leone's armed forces, conducted 
        the first successful seizure by Sierra Leone of a vessel 
        operating illegally in the country's waters.
        <bullet> The command's U.S. Treasury Department Advisor from 
        the Office of Terrorism and Financial Intelligence coordinated 
        and developed counter-terrorist and illicit financing 
        collaborative initiatives between Treasury and USAFRICOM.
        <bullet> Through the efforts of our humanitarian assistance 
        team (led by a USAID employee,) USAFRICOM's humanitarian 
        efforts complement and support USAID's lead on development 
        initiatives.

    DOS and USAID capabilities and their partnership, advice, 
significantly contribute to everything that USAFRICOM does in support 
of our primary DOD mission, as well as our supporting role to U.S. 
Government activities where they are the lead agency. However, I will 
echo the Secretary of Defense's call for continued congressional 
support for DOS and USAID efforts to increase their capacity to carry 
out their missions, including conducting stability operations.

    [Whereupon, at 11:12 a.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                        THURSDAY, MARCH 11, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

            U.S. NORTHERN COMMAND AND U.S. SOUTHERN COMMAND

    The committee met, pursuant to notice, at 9:09 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Bill Nelson, Udall, Hagan, Begich, Burris, McCain, Inhofe, 
Chambliss, Thune, LeMieux, Burr, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Richard W. Fieldhouse, 
professional staff member; Creighton Greene, professional staff 
member; Jessica L. Kingston, research assistant; Michael J. 
Kuiken, professional staff member; Gerald J. Leeling, counsel; 
Peter K. Levine, general counsel; and William K. Sutey, 
professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, professional staff member; 
Daniel A. Lerner, professional staff member; David M. Morriss, 
minority counsel; and Dana W. White, professional staff member.
    Staff assistants present: Paul J. Hubbard, Christine G. 
Lang, Brian F. Sebold, and Breon N. Wells.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Christopher Griffin, assistant to 
Senator Lieberman; Carolyn A. Chuhta, assistant to Senator 
Reed; Jennifer Barrett, assistant to Senator Udall; Michael 
Harney, assistant to Senator Hagan; Lindsay Kavanaugh, 
assistant to Senator Begich; Roosevelt Barfield, assistant to 
Senator Burris; Anthony J. Lazarski, assistant to Senator 
Inhofe; Sandra Luff, assistant to Senator Sessions; Matthew R. 
Rimkunas, assistant to Senator Graham; Jason Van Beek, 
assistant to Senator Thune; Brian Walsh, assistant to Senator 
LeMieux; Kevin Kane, assistant to Senator Burr; and Chip 
Kennett, assistant to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets today for two hearings. The first 
hearing will be to receive testimony from the combatant 
commanders of the U.S. Northern Command (NORTHCOM) and the U.S. 
Southern Command (SOUTHCOM). Then, at the conclusion of that 
hearing, we'll take a very brief break and start a second 
hearing, with four senior Department of Defense (DOD) officials 
and a witness from the Government Accountability Office, to 
consider the Joint Strike Fighter aircraft program.
    Before we start this hearing, I just want to remind DOD 
that formal statements of witnesses before the committee are 
due 48 hours before the hearing. Now, we make this requirement 
very clear in our formal communications with the Department, 
and it's important that that rule be met. We understand that 
there are circumstances beyond the control of individual 
witnesses, that are the cause frequently, so we're not using 
this hearing to target or single out this panel, or any member 
of this panel. We've had this problem in a number of recent 
hearings, and I would just simply ask our witnesses and 
representatives of DOD to take this message back to the 
Department.
    We welcome General Gene Renuart, the Commander of NORTHCOM, 
and also of the North American Aerospace Defense Command 
(NORAD); and General Doug Fraser, the Commander of SOUTHCOM.
    General Renuart is nearing the completion of his tour of 
duty as commander, and he's planning to retire later this year. 
We understand that this could be his last appearance before 
this committee. We give him, therefore, a special welcome and a 
special thank you for his long service.
    General Fraser is appearing before us for the first time as 
the SOUTHCOM commander. We thank you, General, for your many 
years of dedicated service to the Nation.
    We, again, want to just offer you our best wishes, General 
Renuart, as you conclude your long and outstanding career.
    We also would ask both of you to convey our gratitude to 
the men and women who serve in your commands, and to their 
families for their commitment and their sacrifice in carrying 
out the missions of the commands, and the commands in which 
they now serve and have previously served.
    NORTHCOM was created following the terrorist attacks of 
September 11. It is charged with two primary missions: defense 
of the United States and providing defense support to civil 
authorities in circumstances where the U.S. military is needed 
to respond to natural or manmade disasters.
    The commander of NORTHCOM is also dual-hatted as the 
commander of NORAD, our binational command with Canada that 
provides aerospace warning and control, and maritime warning 
for North America. As indicated in our letter of invitation, we 
hope that General Renuart will describe the synergies between 
these two interrelated commands. In addition to Canada, Mexico 
is also in the NORTHCOM area of responsibility (AOR); and given 
the continuing high level of drug-related violence in Mexico 
and the attendant risks to our southern border region, we hope 
that General Renuart will update us on his view of the current 
situation, relative to Mexico.
    Finally, General Renuart is the combatant commander 
responsible for the operation of the Ground-Based Midcourse 
Defense (GMD) system that has interceptors deployed in Alaska 
and California to defend our Nation from long-range missile 
attack. That system has been of considerable interest to this 
committee, and we look forward to discussing it today.
    Turning to SOUTHCOM's AOR, General Fraser and Lieutenant 
General Keene, his deputy commander, and commander of the Joint 
Task Force (JTF) in Haiti, have spent much of the last 2 months 
responding to the devastating human tragedies in Haiti, and, 
more recently, to a lesser extent, in Chile. The scope and 
scale of these tragedies remains difficult to imagine, but the 
stories that have emerged have captured all of our hearts, have 
called our people to action, and have put the Haitian and the 
Chilean people in our thoughts and our prayers. We applaud the 
work of tens of thousands of soldiers, sailors, airmen, and 
marines who responded quickly and provided much-needed 
emergency relief to the people of Haiti.
    Beyond Haiti and Chile, General Fraser, the other 
challenges that we face in our hemisphere remain complex and 
interwoven. The drug trade in South and Central America 
continues to boom, and the illicit southward flow of guns and 
money continues to foster violence, corruption, and political 
instability. The region is not without its bad political 
actors, as well. President Chavez continues to work to 
undermine U.S. interests in the region, to do everything 
possible to maintain his own power and align himself more 
closely with countries of concern, like Iran. President 
Chavez's activities, coupled with the money, corruption, guns, 
and violence in the drug trade, are cause for great concern.
    The SOUTHCOM AOR does, however, have a good news story, as 
well. The Colombian Government continues to consolidate the 
gains of Plan Colombia by expanding security in government 
services to the farthest reaches of Colombia. Later this year, 
the Colombians will head to the polls to elect a new president, 
following a Constitutional Court decision that prevented 
President Uribe from running for a third term.
    So, gentlemen, again, we thank you. We look forward to your 
testimony.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you Mr. Chairman. I want to join you 
in welcoming our witnesses today.
    I know that executing two wars in the U.S. Central Command 
(CENTCOM) AOR has robbed other combatant commands of the 
sustained attention of Congress and the American people. 
However, I want to make it clear that the success of your 
commands' daily operations, and the fact that we don't hear 
about you every day in the news, is a credit to you. It means 
that Americans are safe along our northern and southern 
approaches. So, I thank you both for your long years of service 
and for the service of all the courageous soldiers, sailors, 
airmen, and marines under your command.
    General Renuart, as was mentioned, this is your last 
appearance before the committee. We thank you for your years of 
dedicated service to this Nation.
    There's no doubt that NORTHCOM and NORAD play a vital role 
in the defense of our Homeland. Whether it's dispatching jets 
to respond to unidentified intrusions into our airspace or 
providing support to civil authorities in the aftermath of a 
chemical, biological, nuclear, or radiological attack, the 
resources and capabilities that NORTHCOM brings to the table 
are invaluable. Since its creation, NORTHCOM has experienced 
growing pains common to a new combatant command.
    I'm interested, General, in hearing what steps you're 
taking to better operate in today's security environment, 
particularly those outlined in the recent Quadrennial Defense 
Review (QDR). I also look forward to hearing how the command is 
improving coordination and reliable communication 
interoperability between local, State, and Federal authorities 
so that we avoid the confusion of September 11th.
    Not only as ranking member of this committee, and a member 
of the Committee on Homeland Security and Governmental Affairs, 
but as representing the State of Arizona, I'm also particularly 
concerned about how NORTHCOM coordinates with the Department of 
Homeland Security (DHS) and the Government of Mexico to 
confront the growing scourge of violence along our southern 
border and the growing threat of the drug cartels to the very 
existence of the Government of Mexico.
    The increasingly capable and lethal drug cartels threaten 
not only our border States, like Arizona, but the entire 
country. I believe there's no more important mission than 
protection of the homeland, and I look forward to your 
testimony.
    General Fraser, it's been a trial by fire for you. The 
Senate confirmed you less than a year ago, and your AOR has 
experienced two of the worst earthquakes on record in the 
region, little more than a month apart. So, I want to 
congratulate you and your team for the exceptional work you 
have all done supporting the international relief effort in 
Haiti and providing needed communications and cargo airlift 
support to the Chilean Government as it rebuilds in the 
aftermath of its 8.8-magnitude earthquake last month.
    We have a number of interests in the Caribbean and Central 
and South America, but none so important than helping a 
neighbor in need. I'm proud of SOUTHCOM's efforts, and proud of 
the men and women serving on the USNS Comfort, whom I am sure 
take for granted how critical they are to the lives of not only 
our wounded warriors, but to the innocent victims of natural 
calamity around world.
    So, I look forward to hearing about how SOUTHCOM is coping 
with the unexpected costs associated with these efforts, a 
status report on our military-to-military relations in the 
region. I've long believed that consistent engagement is the 
key to enhancing security. By improving partner capacity, we 
can help the region decrease gang violence, drug trafficking, 
and human trafficking, all of which threatens both regional and 
global stability.
    I look forward to your testimony.
    Thank you Mr. Chairman.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Thank you, Mr. Chairman. I join you in welcoming our witnesses 
today. I know that executing two wars in the Central Command area of 
responsibility (AOR) has robbed other combatant commands of the 
sustained attention of Congress and the American people. However, I 
want to make clear that the success of your commands' daily operations 
and the fact that we don't hear about you every day in the news is a 
credit to you, because it means that Americans are safe from the air, 
the sea, and from our northern and southern approaches. So, I thank you 
both for your long years of service and for the service of all the 
courageous soldiers, sailors, airmen, and marines under your command.
    General Renaurt, there is no doubt that Northern Command (NORTHCOM) 
and NORAD play a vital role in the defense of our homeland. Whether it 
is dispatching jets to respond to unidentified intrusions into U.S. 
airspace, or providing support to civil authorities in the aftermath of 
a catastrophic chemical, biological, nuclear or radiological attack, 
the resources and capabilities that NORTHCOM brings to the table are 
invaluable. Since its creation, NORTHCOM has experienced the growing 
pains common to any new combatant command. I am interested in hearing 
what steps the command is taking to better operate in today's security 
environment, particularly those outlined in the recent Quadrennial 
Defense Review.
    I also look forward to hearing how the command is improving 
coordination and ensuring reliable communication interoperability 
between local, State, and Federal authorities so that we prevent 
similar mistakes of September 11. Not only as ranking member of this 
committee and as member of the Committee on Homeland Security and 
Governmental Affairs, but as the Senator from Arizona, I am also 
particularly concerned about how NORTHCOM coordinates with the 
Department of Homeland Security and the Government of Mexico to 
confront the growing scourge of violence along our southern border.
    The increasingly capable and lethal drug cartels operating to our 
south threaten not only Border States, like Arizona, but the entire 
country. There is no more important mission than the protection of the 
homeland and I look forward to your testimony.
    General Fraser, it's been trial by fire for you. The Senate 
confirmed you less than a year ago and your AOR has experienced two of 
the worse earthquakes on record in the region--little more than a month 
apart. So, I want to congratulate you and your team for the exceptional 
work you all have done supporting the international relief effort in 
Haiti and providing needed communications and cargo airlift support to 
the Chilean Government as it rebuilds in the aftermath of its 8.8 
magnitude earthquake last month.
    We have a number of interests in the Caribbean, and Central and 
South America, but none so important than helping a neighbor in need. I 
am proud of SOUTHCOM's efforts, proud of the men and women serving on 
the USNS Comfort, whom I am sure take for granted how critical they are 
to the lives of not only our wounded warriors but to the innocent 
victims of natural calamity around the world.
    I look forward to hearing about how SOUTHCOM is coping with the 
unexpected costs associated with these efforts as well as get a status 
report on our ongoing engagements in the region. I've long believed 
that continuing engagement in the region is the key to enhancing 
security. By improving partner capacity, we can help the region 
decrease gang violence, drug-trafficking, and human trafficking all of 
which threatens both regional and global stability. I look forward to 
your testimony.
    Thank you, Mr. Chairman.

    Chairman Levin. Thank you very much Senator McCain.
    Let me start with General Renuart.

STATEMENT OF GEN. VICTOR E. RENUART, JR., USAF, COMMANDER, U.S. 
   NORTHERN COMMAND, AND COMMANDER, NORTH AMERICAN AEROSPACE 
                        DEFENSE COMMAND

    General Renuart. Chairman Levin, Senator McCain, members of 
the committee----
    You'd think I'd have learned that by now.
    Chairman Levin, Senator McCain, members of the committee, 
good morning. As you are so kind to mention, this may be my 
last appearance before the committee, and I want to thank all 
of the members of the committee for the sustained support that 
you've provided to not only our commands, but, of course, the 
men and women serving in our military today.
    It is good to be back with you today and represent the men 
and women of both of our commands, and to talk about some of 
the developments that we've had over the last year, and to 
mention some areas where I think we can continue to grow and 
improve.
    Of course, we have to thank the men and women who serve, 
each day, who wear the uniform, the cloth of our Nation, as 
they defend our homeland, both here and abroad. It's also 
important that we recognize the contributions of our senior 
enlisted leaders. I'm pleased to have with me today my 
command's senior enlisted leader, Chief Master Sergeant Allen 
Usry, seated here behind me. Chief Usry is the first National 
Guard senior enlisted leader selected for NORTHCOM. I would say 
that was a competitive selection across Active, Reserve, and 
Guard, senior noncommissioned officers, and we're pleased to 
have Chief Usry as part of the team.
    I'm also very pleased to sit next to my good friend Doug 
Fraser. As you both mentioned, during the past months our 
commands have partnered substantially across a broad variety of 
areas. First, to fight the narcoterrorism in our region, the 
movement of drugs, to support law enforcement to ensure that 
illicit trade and trafficking is reduced in our region. But, 
we've also partnered together to support SOUTHCOM in their 
efforts to provide the military support to humanitarian relief 
efforts in the wake of the devastating earthquake in Haiti. 
We're pleased to be part of Doug's team.
    As Commander of both NORAD and NORTHCOM, I really have two 
principal missions. Chairman Levin, you mentioned those, so I 
won't repeat them. But, it's important to ensure that, across a 
broad spectrum of missions--from air sovereignty, to maritime 
homeland defense, to ballistic missile defense, to support the 
law enforcement along our borders, and to support Federal 
agencies, both in natural and manmade disasters, as well as 
large-scale events, like the Vancouver Olympics--our two 
commands have created a synergy between each other that is now 
inseparable. From warning to consequence management, that 
spectrum of activity is really the symbol of what these two 
commands have grown to be. I'm pleased to talk about those both 
today.
    It's important also to note that we're members of a 
combined national response in many of these areas. We don't do 
it alone. DOD should not be the lead in many of these areas, 
but is an integral and important partner. We've worked very 
hard with our teammates in both Federal and State agencies. 
We've spent a great deal of time on the ground talking to 
adjutants general in the States, to the Governors, and to their 
senior emergency managers to ensure that we create an 
integrated team for success.
    It's also important to note that we have excellent 
relations with our international partners. Both the chairman 
and Senator McCain mentioned Mexico; certainly Mexico is in a 
difficult struggle, continuing to work hard on countering the 
drug-trafficking organizations in their country. We work very 
closely with our Mexican military and their interagency 
partners to ensure that the lessons we've learned in other 
places around the world are shared so that we can create strong 
capacity within the Mexican military and within their 
governmental agencies to allow them to succeed. They face 
significant challenges. We'll continue to work with them 
aggressively. I look forward to discussing that with you here 
today.
    As for our Canadian teammates, they stand shoulder by 
shoulder with us on the battlefields of Afghanistan, but also 
here in this hemisphere. We work very closely with them in air 
sovereignty. They partner with us in the Joint Interagency Task 
Force (JIATF)-South to counter drug-trafficking. We've worked 
very closely to provide support to them in special events in 
their country. I mention the Vancouver Olympics one more time.
    Finally, I want to thank the committee for the support 
you've provided for the Western Hemisphere Institute for 
Security Cooperation (WHINSEC). WHINSEC is an important element 
to both of our commands. It allows us to establish 
relationships with senior military and civilian leaders from 
other countries, and it has allowed us, then, to bridge into 
some of these tough topics that we'll talk about maybe a little 
later in the hearing. So, we both feel that WHINSEC is critical 
to our ability to interoperate in our region.
    Thanks for your support also to keep the personal security, 
the individuals attending these schools, confidential. It 
allows them to speak openly, to understand and maintain that 
academic freedom that we value in our institutions.
    Our commands train hard to ensure our operational readiness 
and our mission effectiveness are always the best they can be. 
Protecting our families, our Nation, and our communities is the 
most important mission we have, and we take that very 
seriously.
    Mr. Chairman, as I complete my service to the Nation, I 
want to tell you that this past 3 years in these two commands 
has been an extraordinary experience, much more complex than I 
would have imagined, and it created challenges that we are 
meeting and successfully achieving every day.
    I have to close by saying thank you to my family. For 39 
plus years, my wife has quietly endured the moves, the changes, 
the challenges, from Operation Desert Storm to Operation 
Enduring Freedom and Operation Iraqi Freedom to here today in 
the homeland. So, I want to go on the record to say thank you 
to her for her support, and our two sons, who are both serving 
in their own way.
    Mr. Chairman, I look forward to answering your questions 
here today. Thank you very much.
    [The prepared statement of General Renuart follows:]
        Prepared Statement by Gen. Victor E. Renuart, Jr., USAF
    Chairman Levin, Senator McCain, distinguished members of the 
Committee, thank you for this opportunity to report on the posture, 
challenges, and future direction of North American Aerospace Defense 
Command (NORAD) and U.S. Northern Command (NORTHCOM). Every day, the 
Commands' soldiers, sailors, airmen, marines, coastguardsmen, National 
Guardsmen, reservists, and civilians defend the United States and 
Canada from external threats and aggression-protecting our citizens, 
national power, and freedom of action. Due to their efforts, North 
America enjoys continued security and freedom.
                homeland defense is our highest priority
    NORAD and NORTHCOM are inextricably linked Commands that have 
complementary missions and work closely together to protect our 
homelands. Incorporating an integrated headquarters staff, our Commands 
have forged an indispensible partnership operating within a common 
security environment, and together are dedicated to defending the 
United States and Canada. The synergies that exist between these two 
Commands enable us to conduct our missions with a sense of urgency in 
the face of very real threats.
    NORTHCOM is responsible for homeland defense, sustaining continuous 
situational awareness and readiness to protect the United States 
against a range of symmetric and asymmetric threats in all domains. 
NORTHCOM's area of responsibility (AOR) includes air, land, and sea 
approaches and encompasses the continental United States, Alaska, 
Canada, Mexico, Saint Pierre and Miquelon (French Territory off the 
northeast coast of Canada), The Bahamas, Puerto Rico, the U.S. Virgin 
Islands, and three British Overseas Territories: Bermuda, Turks and 
Caicos Islands, and British Virgin Islands, as well as the surrounding 
water out to approximately 500 nautical miles, the Gulf of Mexico and 
the Straits of Florida. NORTHCOM is also responsible for leading the 
Department of Defense's (DOD) efforts for theater security cooperation 
with Canada, Mexico, and Caribbean nations within the NORTHCOM AOR.
    Day to day, we are focused on deterring, preventing, and defeating 
attacks against the United States. We also stand ready to support 
primary agencies, when directed by the President or Secretary of 
Defense, in responding quickly to natural and man-made disasters. To 
accomplish our civil support mission, we stay close to our Federal 
partners to anticipate and plan for how and when the DOD can assist in 
preventing and minimizing loss of life, suffering, and property damage. 
We continually assess threats to our security, improve our homeland 
defense and civil support plans and capabilities, and strengthen 
relationships with our mission partners. We work diligently to ensure 
our Nation's military is ready and immediately accessible to support 
our fellow citizens when called upon.
    NORAD is the binational U.S. and Canadian command charged with the 
missions of aerospace warning, aerospace control, and maritime warning 
for North America. Aerospace warning includes the detection, 
validation, and warning of attack against North America--by aircraft, 
missiles, or space vehicles--through mutual support arrangements with 
other commands. Aerospace control includes ensuring air sovereignty and 
air defense of the airspace of the United States and Canada. The 
renewal of the NORAD Agreement in May 2006 added the maritime warning 
mission, which entails a shared awareness and understanding of the 
activities conducted in U.S. and Canadian maritime approaches, maritime 
areas, and internal waterways.
                        intelligence activities
    To perform our missions, we rely on the sharing of intelligence 
among Federal, State, and local agencies. NORTHCOM's Joint Intelligence 
Operations Center (JIOC-North) coordinates the acquisition, analysis, 
and fusion of intelligence, counterintelligence, and appropriate DOD-
related law enforcement information for the NORTHCOM AOR, and shares 
that information with organizations at the national, State, and local 
levels. JIOC-North maintains a dual focus on monitoring both non-state 
and nation-state threats to North America.
    In countering transnational terrorism, we continue to rely on our 
established connections within the intelligence and Federal law 
enforcement communities, seeking as much legally appropriate 
information as possible. NORTHCOM maintains liaison officers with the 
National Counterterrorism Center, the Federal Bureau of Investigation's 
(FBI) National Joint Terrorism Task Force, and the Department of 
Homeland Security's (DHS) Office of Intelligence and Analysis. 
Beginning in 2009, DHS's Office of Intelligence and Analysis placed a 
liaison officer with JIOC-North. In the wake of the Fort Hood shootings 
in November 2009, we established a daily terrorism and force protection 
information sharing group to improve the manner in which potential 
threats are identified, assessed, and acted upon. We perform our 
intelligence activities with a focus on safeguarding the civil rights 
and civil liberties of U.S. citizens and adhering to appropriate 
statutes and DOD regulations.
   homeland defense operations--protecting what americans value most
    NORTHCOM may be known best for leading the DOD response to 
disasters in our AOR; however, we remain vigilant in our number one 
responsibility, homeland defense, as we monitor an average of 12-20 
potentially dangerous events each day. Through our operational missile 
defense program and our maritime and air defense activities, NORTHCOM 
maintains a high state of readiness to respond as necessary against 
manmade threats.
Ballistic Missile Defense
    NORTHCOM is responsible for ballistic missile defense operations 
within our AOR and other areas as directed to protect the homeland, 
allies, friends, and other national interests from potentially hostile 
acts. Our ability to carry out this mission continues to mature. The 
Ballistic Missile Defense System has been in nearly continuous 
operations since 2006 against potential threats to the defended area. 
Although it is a Missile Defense Agency (MDA) asset, the Sea-Based X-
Band radar capability has also been included in our operational 
baseline during heightened threat periods since 2008.
    Our missile defense crews are trained and our procedures are 
continuously validated and exercised, so that we can meet the high 
standards required to defend the Nation. Furthermore, NORTHCOM is 
active in the ground and flight testing programs to ensure the tests 
are more operationally realistic. Our immediate challenge is balancing 
a real-time defensive capability with requirements of MDA's Research, 
Development, Test, and Evaluation activities.
    NORTHCOM is working closely with the other Combatant Commands to 
develop a Global Force Management Plan to address the Phased Adaptive 
Approach and improved capabilities to defend the homeland. This effort 
will assess operational planning, force structure, and budgetary 
implications to better meet global ballistic missile defense 
requirements. We are working with MDA to ensure that the Phased 
Adaptive Approach includes upgraded sensor systems with real-time 
discrimination capability; improved deployable and fixed-site 
interceptors; enhanced command and control systems that provide a 
common operating picture across the strategic, operational and tactical 
levels; and an additional Fire Control node at Fort Greely, AK. MDA's 
Concurrent Test, Training, and Operations and Simultaneous Test and 
Operations, with the additional Fort Greely equipment, will bridge the 
gap between operational capability and Research, Development, Test, and 
Evaluation activities.
Operation Noble Eagle
    Operation Noble Eagle began immediately after the September 11 
attacks and continues today to protect and defend the United States and 
Canada with airspace surveillance, ready alert forces, and the U.S. 
National Capital Region (NCR) Integrated Air Defense System. Air 
National Guardsmen and Air Force reservists have flown more than 80 
percent of the more than 55,000 Operation Noble Eagle missions.
    The security and defense of the NCR against terrorist air threats 
is one of our highest priorities. NORAD works closely with DHS, the 
Federal Aviation Administration (FAA), and the U.S. Coast Guard (USCG) 
to ensure the skies over the NCR are protected. We are prepared to 
provide a rapid, reliable response as incidents unfold. As part of the 
NCR Integrated Air Defense System, NORAD and the USCG provide air 
patrol and alert aircraft to counter fast- and slow-moving air threats 
that may penetrate the NCR Air Defense Identification Zone.
    NORAD also provides tailored air defense for National Special 
Security Events (NSSE) in the United States and similar events in 
Canada.
    We are implementing a ``risk assessment'' model as recommended in 
the GAO-09-184 report ``Actions Needed to Improve Management of Air 
Sovereignty Alert Operations to Protect U.S. Airspace.'' This risk 
assessment will enhance NORAD's ability to determine and apply 
appropriate requested levels and types of units, personnel, and 
aircraft.
Northern Sovereignty Operations
    During 2009, NORAD launched fighter aircraft on 14 occasions in 
response to TU-95 Bear and TU-160 Blackjack aircraft not on 
international flight plans that penetrated North America's Air Defense 
Identification Zone. Because these flights did not violate U.S. or 
Canadian airspace, they were not considered threats to national 
sovereignty. The response was a means of identifying unknown aircraft 
operating in relative proximity to U.S. and Canadian sovereign 
airspace. In 2009, for the first time, a NORAD representative was 
included at the annual U.S.-Russia Prevention of Incidents over the 
High Seas staff talks. We anticipate continued NORAD and Russian Long 
Range Aviation dialog in 2010 to reduce the ambiguity of Russian 
military flights near our borders and promote safe flight operations 
within international airspace. NORAD operations in Alaska will remain a 
key avenue for positive interaction with Russian military counterparts 
during the reset of relationships between our Nations; continued 
support for military-to-military engagement opportunities is essential 
to maintain this professional dialog.
Maritime Domain Awareness
    Maritime Domain Awareness is the comprehensive understanding of the 
global maritime domain as it relates to the security, safety, economy, 
and environment of the homeland.
    In the fall of 2008, a Russian Surface Action Group, led by a KIROV 
class cruiser, transited the NORTHCOM AOR en route to participate in a 
naval exercise with Venezuela and a port visit in Cuba. Additionally, 
in the summer of 2009, we were involved with monitoring the activity of 
a Russian support ship and a pair of nuclear-powered Russian submarines 
patrolling covertly off our Eastern seaboard. Although these vessels 
were not considered a threat to our homeland, their presence off the 
coast of the United States cannot be ignored and requires naval assets 
to be in a readiness posture to respond in any way necessary to defend 
the homeland, if required.
    NORTHCOM has aggressively pursued interagency and partner-nation 
cooperation for Maritime Domain Awareness. NORTHCOM has partnered with 
Mexico to better integrate regional efforts by initiating the 
development of an automated identification system architecture, which 
will contribute to increased information exchange and Maritime Domain 
Awareness. This will have a positive impact on our combined capability 
to combat illicit traffic.
    NORTHCOM is the Operational Manager for two Joint Capability 
Technology Demonstrations, which transitioned to Programs of Record in 
2009. These complementary programs--Maritime Automated Super Track 
Enhanced Reporting and Comprehensive Maritime Awareness--automatically 
fuse maritime-related intelligence to allow joint and interagency 
analysts to provide decisionmakers, planners, and operators the 
capability to rapidly evaluate and respond to potential maritime 
threats. These programs are fully operational and are employed in the 
NORAD and NORTHCOM Command Center, as well as the Navy's maritime 
operations centers.
    As the Arctic emerges as an area of increased activity, NORTHCOM 
has taken steps to evaluate DOD's ability to maintain Maritime Domain 
Awareness in the region. To establish this foundation, NORTHCOM has 
commissioned a surveillance study with the intent of identifying 
current capabilities to determine where gaps exist. The study will be 
completed in the fall of 2010.
NORAD Maritime Warning
    The NORAD maritime warning mission continues to evolve as NORAD 
planners work in close coordination with Canadian and interagency 
partners. Collaboration on several planning documents with these many 
organizations established and reaffirmed formal and informal 
relationships required for binational and bilateral maritime 
operations.
    The past year's accomplishments and ongoing efforts have resulted 
in enhanced bi-national information sharing and comprehensive 
understanding of the maritime domain among our mission partners. We 
worked aggressively to address gaps and seams documented in an internal 
Information Sharing Architecture study that identified barriers to 
achieving full mission capability status. The study further identified 
critical steps and processes necessary to close these gaps within the 
NORAD maritime warning mission. We have also moved forward in the 
development of a shared binational common operating picture of the 
maritime domain. We continue to be challenged in a constrained 
environment to match the Canadian manpower commitment to this important 
mission area.
Maritime Homeland Defense
    Commander, NORTHCOM (CDRNORTHCOM) is the operational commander 
responsible for Maritime Homeland Defense within the AOR. Commander, 
U.S. Fleet Forces Command is under the operational control of 
CDRNORTHCOM for Maritime Homeland Defense. Maritime threats, 
particularly asymmetric maritime threats in close proximity to the 
homeland, require defensive capabilities ready to respond on extremely 
short notice. NORTHCOM is developing a short-notice maritime response 
concept of operations that will provide an anti-ship defeat capability 
for short-range emergent threats leveraging U.S. interagency and 
partner-nation capabilities.
    NORTHCOM faces a wide spectrum of maritime vulnerabilities that 
warrant a comprehensive analytic study of ``Short-Notice Maritime 
Response'' to identify Maritime Homeland Defense capability gaps from a 
whole-of-government perspective. The nation's ability to respond to a 
maritime threat in the NORTHCOM AOR requires the full integration of 
DOD maritime operations with those of interagency partners and, where 
appropriate, international partners, anchored on the principle of unity 
of effort. To respond to a maritime threat within the NORTHCOM AOR, the 
Nation depends on synchronized security efforts at the operational 
level along the approaches to and within the United States. The 
capability to intercept vessels of interest beyond their ability to 
impact population centers, critical infrastructure, and key resources, 
and the ability to respond quickly to maritime indications and warning 
are essential to protecting the United States from external threats and 
aggression. In sum, a whole-of-government approach is required to 
leverage NORTHCOM maritime partner capabilities and resources.
Mine Countermeasure Contingency Operations
    The Maritime Operational Threat Response (MOTR) Plan outlines roles 
and responsibilities that enable the U.S. Government to respond quickly 
and decisively to threats against the United States and its interests 
in the maritime domain. In accordance with the MOTR Plan, NORTHCOM is 
responsible for Mine Countermeasure (MCM) operations in U.S. waters. In 
2009, in order to consolidate logistics and maintenance infrastructure, 
the Navy completed the homeport shift of all surface MCM forces 
(minesweeping vessels) to San Diego, CA, and all Aviation MCM forces 
(mine sweeping helicopter squadrons) to Norfolk, VA. In May 2009, an 
experiment conducted in the port of Corpus Christi, TX confirmed that 
surveys and port folders completed prior to a mining incident can 
significantly reduce the time required to mitigate the mining threat 
and restore port operations.
Anti-Terrorism and Force Protection (AT/FP)
    NORTHCOM protects DOD assets in our AOR by executing a 
comprehensive all-hazards approach to the AT/FP mission that provides 
DOD personnel (active duty, reservists, civilians, and family members), 
assets, facilities, installations and infrastructure protection from 
the full spectrum of threats in order to ensure mission accomplishment. 
NORTHCOM has established theater policy, standards, and training, and 
verifies program execution and compliance through an exercise program 
and AT Program Reviews. We also integrate operational protection 
efforts with DHS to create a synchronized defense strategy for the AOR.
    NORTHCOM supports new processes and technologies that sustain the 
force protection mission. During the past year, we participated in a 
pilot program, with the Office of the Assistant Secretary of Defense 
for Homeland Defense and Americas' Security Affairs, to identify a 
suspicious activity reporting and sharing capability for the DOD. The 
unclassified FBI eGuardian system is anticipated to be the DOD 
suspicious activity reporting system when designated by the Deputy 
Secretary of Defense. The eGuardian system will share potential 
terrorist threats, terrorist events, and suspicious activity 
information with State, Local, Tribal, Federal Law Enforcement 
Agencies, State Fusion Centers, and the FBI Joint Terrorism Task 
Forces. The eGuardian system will provide a continuous law enforcement 
force protection threat information sharing environment to identify 
emerging threats to DOD.
Critical Infrastructure Protection/Critical Resource Protection
    The Secretary of the DHS is responsible for coordinating the 
national effort to enhance the protection of critical infrastructure 
and key resources (CI/KR) in the United States. The DHS Secretary 
serves as the Principal Federal Official to lead, integrate, and 
coordinate implementation of CI/KR protection efforts among Federal 
departments and agencies, State and local governments, and private 
sector. NORTHCOM continues outreach with DHS and infrastructure sector 
partners to ensure effective critical infrastructure information 
sharing for the execution of its missions.
    As assigned by the Secretary of Defense, combatant commands act to 
prevent or mitigate the loss or degradation of DOD-owned critical 
assets within their AOR. For non-DOD owned critical assets, combatant 
commands act to prevent or mitigate the loss or degradation only at the 
direction of the Secretary of Defense, with the exception of responding 
to a time-critical event that requires specific actions by military 
forces to prevent significant damage to mission-critical 
infrastructure.
    NORTHCOM retains DOD Critical Infrastructure Protection (CIP) focus 
in three areas: (1) AOR or those DOD assets that are owned, leased, or 
managed by DOD; (2) Area of Influence to include the Defense Industrial 
Base; and (3) Area of Interest that is non-DOD assets that are critical 
to sustaining U.S. military operations.
                  civil support--helping those in need
    When directed by the President or Secretary of Defense, NORTHCOM 
supports the primary agency, typically DHS, in responding to natural 
and manmade disasters by conducting operations to save lives, reduce 
suffering, and protect the infrastructure of our Homeland. The 
Department of State may request DOD support in response to requests 
from other countries within and outside the NORTHCOM AOR. DOD is 
prepared to support primary agencies with military-unique capabilities 
such as fixed- and rotary-wing airlift, search and rescue teams, mobile 
medical facilities, communications infrastructure, and catastrophic 
planning expertise.
    A key component of NORTHCOM's support is Incident Awareness and 
Assessment to provided critical imagery for local responders. Military 
aircraft over disaster sites provide Full Motion Video and still 
imagery to give responders on the ground their first look at affected 
areas. At the request of the primary agency, NORTHCOM is prepared to 
provide a variety of aircraft and satellites to gather photos and video 
that allow Federal, State, and local response assets to quickly respond 
to situations. We conduct these Incident Awareness and Assessment 
activities while simultaneously safeguarding the civil liberties of 
American citizens and adhering to appropriate statutes and DOD 
regulations.
Chemical, Biological, Radiological, Nuclear, and High-Yield Explosives 
        Consequence Management.
    Chemical, Biological, Radiological, Nuclear, and High-Yield 
Explosives (CBRNE) incidents pose a great and foreseeable challenge to 
the security of the American people. A terrorist attack on U.S. soil or 
an accidental CBRNE incident could create catastrophic results that 
would likely exceed the response capabilities of civil authorities. As 
a result, DOD established a requirement for CBRNE Consequence 
Management Response Forces (CCMRF) to be trained and ready to respond 
to requests from civil authorities to save lives, help mitigate pain 
and suffering, and reduce property damage.
    A CCMRF is a brigade-sized task force that operates under the 
authority of Title 10 of the United States Code. CCMRFs are self-
sustaining and may be tailored to any CBRNE event. A CCMRF is composed 
of Army, Air Force, Marine, and Navy units with unique CBRNE training 
and equipment, as well as general purpose units trained to operate in a 
CBRNE environment. CCMRF capabilities include event assessment, robust 
command and control, comprehensive decontamination of personnel and 
equipment, hazardous material handling and disposal, medical support, 
air and land transportation, aerial evacuation, mortuary affairs, and 
general logistical support for extended operations. The CCMRF augments 
the consequence management efforts of State and local first responders, 
National Guard forces, and Federal agencies by providing complementary 
and unique capabilities when the effects of a CBRNE event exceed their 
capabilities.
    In November 2009, NORTHCOM and Army North (ARNORTH), NORTHCOM's 
Army Component Command, conducted the Vibrant Response 10.1 Field 
Training Exercise (VR 10.1 FTX), the first full-scale, full-deployment 
exercise for a CCMRF, confirming the CCMRF's capability to deploy to 
and support a catastrophic CBRNE Consequence Management event from a 
standing alert status. VR 10.1 FTX involved a simulated Improvised 
Nuclear Device detonation at Muscatatuck Center for Complex Operations 
near Camp Atterbury, IN. This challenging scenario is one of the 15 
National Planning Scenarios established as a common interagency 
baseline, and the exercise set the stage for CCMRF 10.1 to fulfill its 
assignment through the remainder of fiscal year 2010.
    Joint Task Force-Civil Support (JTF-CS), a NORTHCOM subordinate 
command, plans and integrates DOD support to the designated primary 
agency for domestic CBRNE consequence management operations. When 
approved by the Secretary of Defense and directed by CDRNORTHCOM, JTF-
CS deploys to the incident site and executes timely and effective 
command and control of designated DOD forces, providing support to 
civil authorities to save lives, prevent injury and provide temporary 
critical life support. Some typical JTF-CS tasks include incident site 
support, casualty medical assistance and treatment, displaced populace 
support, mortuary affairs support, logistics support, and air 
operations.
    The National Defense Authorization Act (NDAA) for Fiscal Year 2008, 
section 1082, as amended by the NDAA for Fiscal Year 2010, section 
1034, directed DOD to establish an advisory panel to carry out an 
assessment of the capabilities of DOD to provide support to U.S. civil 
authorities in the event of a CBRNE incident. This advisory panel was 
sworn in on 15 September 2009 and will submit their report with 
recommendations to Congress within 12 months. NORTHCOM hosted the 
Advisory Panel's second meeting at our Headquarters on 23 November 2009 
in closed session for classified command mission briefings and 
discussions. The Command will continue to engage with the Advisory 
Panel throughout its efforts and we look forward to assisting them in 
additional research and insight into the Department's CBRNE consequence 
management mission sets.
Response to Haiti Earthquake
    NORTHCOM is supporting U.S. Southern Command's (SOUTHCOM) response 
and support for Haiti Earthquake relief efforts. NORTHCOM and our 
components contributed more than 170 people. Air operations experts 
from Air Forces Northern (AFNORTH), assisted SOUTHCOM by transforming 
the 601st Air Mobility Division's Regional Air Movement Control Center 
into the Haiti Flight Operations Coordination Center to control the 
smooth flow of aircraft into Port-au-Prince Airport. AFNORTH's 
Emergency Preparedness Liaison Officers, Air Force Reserve officers 
assigned to respond to natural and man-made disasters in the United 
States, were onsite at facilities set up in the Southeast Region to 
support Haitian earthquake relief efforts. ARNORTH's Defense 
Coordinating Officer/Element worked closely with Federal, State, 
tribal, and local officials to determine which DOD capabilities can 
assist in mitigating the effects of the Haiti disaster.
Cyber Operations
    NORAD and NORTHCOM continue to rely on data systems, the Internet, 
and networked commercial and military infrastructure to accomplish our 
missions. Cyber threats to these infrastructures include nation-state 
actors, terrorists, and criminal organizations, and are increasing in 
sophistication and occurrence. These cyber threats pose potentially 
grave damage to the ability of NORAD and NORTHCOM to conduct aerospace, 
maritime, and homeland defense, as well as DSCA missions. Our 
dependence on critical information systems leaves us vulnerable to 
potentially pervasive and sustained cyber attacks from global actors.
    The Commands partner with U.S. Strategic Command (STRATCOM), the 
Military Services, DOD agencies, DHS, and other Federal agencies to 
share cyber threat and related information, reduce cyberspace 
vulnerabilities, and defend against information infrastructure attacks. 
Efforts such as the U.S. Government's plans to increase information 
sharing with the private sector, and its migration to trusted Internet 
connections for the government and military networks, will help promote 
situational awareness and reduce vulnerabilities.
    In 2009, NORTHCOM, along with DHS, STRATCOM, and other mission 
partners, developed a plan tailored to provide rapid assistance to DHS 
and other Federal agencies for cyber-related events. This DOD cyber 
support would fall under our DSCA mission area and be provided in a 
similar fashion as hurricane relief, wildfire support, and responses to 
other national disasters. NORTHCOM is also conducting an analysis of 
providing a cyber response under our homeland defense responsibilities.
H1N1 Operations
    NORTHCOM is executing Phase 1 of our Pandemic Influenza response 
plan. As part of our response, we identified five Regional Joint Task 
Force (RJTF) Headquarters. The RJTFs, along with NORTHCOM subordinate 
commands, continue to prepare to assist the primary agency. To date, 
NORTHCOM has not received any requests from the primary agency for DOD 
capabilities.
    In addition, NORTHCOM is the DOD lead for globally synchronizing 
military efforts to minimize contamination and prevent further spread 
of pandemic influenza. The DOD Global Synchronization Plan for Pandemic 
Influenza provides guidance to all the Geographic Combatant Commands, 
Functional Combatant Commands, Services, and DOD Agencies to assist in 
development of regional plans addressing operations in a pandemic 
influenza environment. Our efforts are focused on ensuring our military 
remains combat ready while taking care of interagency actions to keep 
military families safe at home.
Support to the 2010 Vancouver Olympics
    The 2010 Winter Olympics began on 12 February 2010 in Vancouver, 
British Columbia. The Canadian Minister of Public Safety and Emergency 
Preparedness was charged with overall security for the Games and 
delegated the Royal Canadian Mounted Police (RCMP) as the lead agency 
for this task. At the same time, the Minister formally requested 
Canadian Department of National Defence assistance for the RCMP. As a 
result of this request, the Canadian Chief of Defence Staff, General 
Walter Natynczyk, tasked CDRNORAD with the aerospace warning, aerospace 
control, and maritime warning for this event.
Inland Search and Rescue (SAR) Coordinator
    In addition to defending our freedom, our lives, and our territory, 
SAR is a priority mission for NORTHCOM. On 4 November 2009, the 
Secretary of Defense designated CDRNORTHCOM as the U.S. Inland SAR 
Coordinator, which made NORTHCOM responsible for civil SAR involving 
the inland portion of the 48 contiguous States. NORTHCOM stands ready 
to coordinate the full spectrum of SAR, from normal SAR, such as 
searching for a lost hiker, to responding to catastrophic incidents, 
such as a large-scale earthquake, through our Rescue Coordination 
Center (RCC). The RCC is our key node for inland SAR and is under the 
purview of NORTHCOM's Service Component Command, AFNORTH. In addition, 
our Joint Personnel Recovery Center at Tyndall AFB, FL, allows us to 
have experts in place for routine SAR missions and to have those same 
experts at AFNORTH lead the way for a catastrophic incident SAR 
mission. The fiscal year 2011 President's budget request for 
recapitalization of the Air Force's current rotary-wing SAR capability 
supports the continued viability of our SAR mission. Full funding of 
this fiscal year 2011 request keeps us on a path to continue providing 
SAR support to American citizens in those critical early hours of a 
crisis when aerial life support is a no-fail mission.
                  support to law enforcement agencies
Joint Task Force-North Operations
    Joint Task Force-North (JTF-North), a NORTHCOM subordinate command, 
provides military support to Federal law enforcement agencies to assist 
in the identification and interdiction of transnational threats within 
and along the approaches to the United States. During fiscal year 2009, 
JTF-North coordinated 61 missions in support of Federal law enforcement 
agencies. In accordance with DOD policy for supporting law enforcement 
counterdrug efforts, JTF-North employed joint air, ground, and maritime 
sensors along the Nation's Southern and Northern borders and coasts; 
conducted detection and monitoring of suspected trafficking threats; 
provided for information and intelligence sharing among law enforcement 
agencies; supported Customs and Border Protection's (CBP) request for 
enhanced tactical infrastructure along the Southwest border; assisted 
with building planning capability within CBP; and provided Federal law 
enforcement with other support such as transportation, tunnel detection 
capabilities, and basic military skills training.
    At the request of DHS Assistant Secretary Alan Bersin, JTF-North 
provided support to the Alliance to Combat Transnational Threats, a 
multi-agency operation, in the State of Arizona. JTF-North facilitated 
intelligence and operational planning, and provided sensor capabilities 
during execution of this intelligence-driven operation.
    Through JTF-North's missions and activities, NORTHCOM continues to 
sustain important relationships with Federal law enforcement agencies 
in securing our Nation's borders against drug traffickers and their 
associated activities. Robust collaboration exists today between JTF-
North and operational-level leaders in CBP, Immigration and Customs 
Enforcement, Drug Enforcement Administration, and the FBI.
Counternarcotics (CN) Programs
    NORTHCOM's CN Program is an integral part of the defense and 
security of our Nation. We continue to build NORTHCOM's capabilities 
and establish coordinated efforts supporting our partner agencies and 
partner nations to address the illicit narcotics trafficking threat to 
the homeland.
    NORTHCOM's CN efforts support Law Enforcement Agencies through 
information collection, analysis, fusion, and sharing, as well as 
theater security cooperation and partnership programs. These efforts 
are closely coordinated among the NORTHCOM staff and subordinate 
commands.
    In addition to our southwest border, there are ongoing efforts with 
our Canadian partners along our 5,000 mile long northern border. This 
U.S.-Canadian cooperation has uncovered and is addressing widespread 
illicit narcotics trafficking in our shared land, air, and sea domains 
that does not currently exhibit the level of violence as on our border 
with Mexico, but nevertheless remains a serious transnational threat to 
the United States. Illicit trafficking also poses a threat to The 
Bahamas, Virgin Islands, and Puerto Rico, which are now in the NORTHCOM 
AOR. Accordingly, we are exploring how to better coordinate CN efforts 
with SOUTHCOM in this region.
    NORTHCOM has also made tremendous strides in supporting national CN 
efforts by the Office of National Drug Control Policy (ONDCP) and the 
Interdiction Committee (TIC) as part of their coordination with DOD. 
TIC membership consists of 17 agencies and commands led by a chairman 
appointed by the ONDCP Director. TIC provides advice to ONDCP on 
activities and threats posed by all illicit drug trafficking that 
threatens the United States and its interests in the Western 
Hemisphere. NORTHCOM is now represented quarterly as a TIC participant 
with JTF-North.
Counter-Tunnel Initiative
    NORTHCOM is working with DHS, other combatant commands, and 
coalition partners to explore, map, and characterize illicit 
subterranean structures. Among these enhanced capabilities are seismic-
acoustic and linear fiber-optic sensors, robotics, and other 
technologies. The U.S. Army Corps of Engineers, Engineer Research and 
Development Center, is the technical lead for this initiative and 
continues to work in support of multiple combatant commands to solve 
this difficult problem. Within the past year, DOD support has resulted 
in the preemptive interdiction of two unfinished tunnels on the 
Southwest border. The Southwest border is a perfect test-bed for this 
capability. Results of this initiative benefit all combatant commands 
and help our interagency partners in their border security mission.
             the national guard and reserves--our partners
    National Guard and Reserve Forces are critical to NORTHCOM's 
ability to carry out our assigned homeland defense and civil support 
missions. As such, NORTHCOM advocates for National Guard and Reserve 
capabilities in support of the Command's mission. In each of our annual 
Integrated Priority List and Program Objective Memorandum submissions 
to the DOD, we advocate for and support resolution of National Guard 
and Reserve capability concerns. We further advocate for changes to DOD 
policies that allow for more collaborative planning to ensure proper 
resourcing for National Guard and Reserve units' equipment, personnel 
and training for civil support operations. We also advocate for and 
support key issues such as equipment modernization in the Weapons of 
Mass Destruction Civil Support Teams.
    We recognize the National Guard as a fundamental partner in the 
Total Force and essential to the security and defense of our Nation. 
The Air National Guard provides the bulk of NORAD's operational force 
for Air Sovereignty Alert missions, and is developing additional 
capabilities in support of domestic requirements. The Army National 
Guard provides all of the manning at our Ground-Based Interceptor sites 
in support of missile defense requirements. Additionally, the Army 
National Guard provides the bulk of personnel for ground-based air 
defense capabilities protecting the National Capital Region.
    The National Guard has made a significant investment in personnel 
assigned to NORTHCOM. In fact, NORTHCOM has the largest concentration 
of Title 10 National Guard officers in a joint organization outside of 
the National Guard Bureau. There are over 50 full-time National Guard 
authorizations in NORTHCOM HQ; however, only 39 of those positions are 
filled. In addition, Guard general officers serve in nominative 
positions as my NORTHCOM Deputy Commander, Director of Operations, and 
one Deputy Director of Plans and Policy. Our ongoing partnerships with 
the National Guard have increased our ability to coordinate and 
integrate joint and interagency operations. While we still have work to 
do, I am pleased to report our collaboration with the National Guard 
has never been better, and the experience gained by Guard members 
serving throughout NORTHCOM ensures we have a strong foundation for 
enhancing this relationship as these servicemembers progress through 
their careers.
                 plans--the cornerstone of our success
    NORTHCOM's homeland defense and civil support plans are vital to 
our Nation's ability to deter, detect and defeat threats to our 
security, and assist civil authorities when called upon by the 
President or Secretary of Defense. Our plans are modified as threats, 
observations, and lessons learned from exercises and real-world 
operations dictate.
    On 2 November 2009, the Secretary of Defense established a Civil 
Support Plan category of DOD plans that may be shared with State, 
local, tribal, and other Federal authorities that play a mission-
critical role in the development, review or execution of the plans. 
This Civil Support plan category of DOD plans contains seven NORTHCOM 
plans.
    The NORTHCOM Theater Campaign Plan provides the framework for all 
of our planning efforts and is the primary means by which we 
synchronize day-to-day operations for homeland defense, civil support, 
and theater security cooperation activities. The operations and 
activities outlined in the campaign plan place strong emphasis on 
anticipating threats, improving our homeland defense and civil support 
capabilities, and strengthening relationships with our mission 
partners, at home and in the North American region. We continually 
assess the campaign plan to evaluate our progress toward achieving the 
long-term goals and objectives outlined in national and DOD strategies.
                      theater security cooperation
    Our top theater security cooperation priority is to build the 
capacity of allies and partners to help create an environment in North 
America that is inhospitable to terrorism. NORTHCOM's long-range vision 
focuses on establishing a comprehensive defense architecture where the 
United States works with its international partners to deter, prevent, 
and if necessary, defeat mutual threats. To achieve this, we plan, 
execute, and assess theater security cooperation programs, events, and 
activities with The Bahamas, Canada, and Mexico to support national and 
Command goals and objectives. This requires us to direct theater 
security cooperation activities toward improving partner-nation defense 
capacities, using a capacities-based planning approach, to promote 
regional cooperation and enhanced interoperability.
    The focus for our efforts is on building partner capacities with 
The Bahamas and Mexico and on enhancing coordination and 
interoperability with Canada. Our goal is to strengthen homeland 
defense through mutually beneficial partnerships in the AOR that 
counter terrorism, trafficking of weapons of mass destruction and 
illicit narcotics and other transnational and irregular threats and 
their consequences, while contributing to national security objectives.
    We have worked over the past year with the Department of State, 
U.S. Agency for International Development, the U.S. Geological Survey, 
Federal Emergency Management Agency (FEMA), and the Environmental 
Protection Agency to strengthen those relationships to further North 
American security and prosperity. Recent, ongoing, and planned 
initiatives include building relationships and capabilities and 
creating enduring partnerships that result in enhanced safety and 
security along our common borders and within the region. Activities 
have focused on developing and improving procedures to prepare for and 
respond to potentially catastrophic events such as pandemic influenza 
outbreak, mass exposure to dangerous chemicals and/or materials, and 
natural and/or manmade disasters.
Canada
    The relationship among NORAD, NORTHCOM and Canada Command is a 
tremendous example of the strong and mutually beneficial military-to-
military ties between our Nations. I reported last year that we had 
signed the Canada-United States Civil Assistance Plan, which is the 
framework for forces from one nation providing support to forces of the 
other nation for timely, effective, and efficient support to their 
respective civil authorities. We used the Civil Assistance Plan in our 
deliberate planning process, as the U.S. Government responded to 
requests from the Government of Canada for NORTHCOM support to Canada 
Command when they supported Royal Canadian Mounted Police security 
efforts for the 2010 Olympic Games in Vancouver.
    NORAD and NORTHCOM continue to develop our relationships with 
Canada Command. This past year, we concluded a comprehensive Tri 
Command Study that examined future roles, missions and relationships to 
increase North American defense and security while enhancing the valued 
relationship between Canada and the United States. The Tri Command 
Study identified several initiatives to further integrate and 
synchronize our operations and created a Framework for Enhanced 
Military Cooperation among NORAD, NORTHCOM, and Canada Command that 
highlights fundamental relationships and underscores individual command 
responsibilities for mutual support and cooperation.
Mexico
    NORTHCOM leads Theater Security Cooperation and Building 
Partnership activities with Mexico to promote specific U.S. security 
interests and support the development of Mexican military capabilities 
for self-defense and coordinated operations. Our military-to-military 
relationship with Mexico is growing stronger, with full respect for 
Mexican sovereignty and a shared responsibility for countering the 
transnational illicit trafficking activity affecting our Nations.
    As one essential element of the U.S. whole-of-government approach, 
NORTHCOM's most significant contribution is in strengthening the 
operational capacity of the Mexican Army, Air Force, and Navy. Our 
engagement goes beyond providing hardware and the associated training; 
it also focuses on developing the ability to analyze and share the 
information that will allow the Mexican military to conduct operations 
against the drug trafficking organizations to systematically dismantle 
them. We are committed to a long-term military partnership with Mexico 
that is beneficial to both nations.
    NORTHCOM works in partnership with the Mexican military to support 
its efforts to increase capacities and execute its current strategy to 
counter Mexico's security threats. The level of communication, 
interchange, cooperation, and training exchanges between U.S. and 
Mexican armed forces has increased dramatically over the last 2 years 
and represents a historic opportunity for long-term strategic 
improvement of the U.S.-Mexico security partnership.
    Through our Theater Security Cooperation Plan and activities, 
NORTHCOM plays a significant role in supporting the Mexican military 
and improving the security situation in Mexico through the execution of 
the following programs:

        <bullet> The Merida Initiative: $415.5 million appropriated in 
        fiscal year 2008 and fiscal year 2009 Foreign Military 
        Financing funds to purchase aircraft (up to eight Bell 412 
        helicopters, up to five Sikorsky UH-60M helicopters and up to 
        four CASA aircraft) to improve the Mexican military's ability 
        to deploy rapid-reaction forces quickly in support of police 
        operations against drug cartels, and to conduct maritime 
        surveillance in an effort to deny the use of the eastern 
        Pacific and western Caribbean to transnational criminal 
        organizations, including drug traffickers and potential 
        terrorists. In addition, funding will procure ion scanners to 
        help detect illicit drugs. NORTHCOM's actions are in 
        coordination with efforts to build up the capabilities of 
        Mexico's civilian law enforcement entities by the U.S. 
        Department of State and other agencies.
        <bullet> Section 1206 assistance: $14.0 million for equipment 
        such as Night Vision Goggles, Rigid-Hull Inflatable Boats, 
        personal protective equipment, digital media forensics, 
        tactical communications equipment, and specialized training.
        <bullet> Section 1004 counterdrug support: $18.0 million for 
        pilot training, specialized skills training, and intelligence 
        training.
        <bullet> Overseas Humanitarian Disaster Assistance and Civic 
        Aid: $3.0 million in fiscal years 2008-2010 for hazardous 
        materials response, flood early warning and emergency 
        management training.
        <bullet> Facilitated training support in the areas of Night 
        Vision Goggle maintenance, Explosive Ordnance Disposal/
        Hazardous Material team training, and Aviation Training. 
        Additionally, our Service components are actively engaged with 
        their Mexican counterparts in subject matter exchanges and 
        sharing lessons learned from our experiences in the areas of 
        civil-military relations and urban operations.

    I have engaged with senior officers in the Mexican armed forces 
over the past few months who have expressed an interest in more 
detailed discussion and training in the areas of military justice and 
operational law (and inherent human rights issues) and administrative 
law. As a result, we are developing Subject Matter Expert Exchange and 
Mobile Training Team events (in conjunction with the Defense Institute 
for International Legal Studies) in order to enhance respect for the 
rule of law and human rights within the Mexican armed forces. For 
example, NORTHCOM attorneys and attorneys from the Mexican armed forces 
have already participated in conferences designed to develop curricula 
for the professional development of military attorneys. Additionally, 
senior attorneys from the Mexican armed forces have visited various 
U.S. military entities to get a first-hand view of how the U.S. 
military is organized and trained for the administration of military 
justice and for conducting operations in compliance with domestic and 
international law.
    NORTHCOM continues to support the Department of State's ``Beyond 
Merida Initiative.'' NORTHCOM has partnered with the Mexican military 
in support of disrupting the capacity of organized crime to operate and 
institutionalizing capacity to sustain the rule of law, thus helping to 
build strong and resilient communities on both sides of the border.
    We will continue to work proactively with our mission partners and 
with the Mexican military to achieve the joint goals of the United 
States and the Government of Mexico. It is important to recognize that 
while we are currently working with Mexico to develop and strengthen 
its military's capability to defeat the drug trafficking organizations, 
our long-term goal is to establish an enduring relationship--built upon 
trust and confidence--so that we can cooperate in the future on other 
mutual security issues.
The Bahamas
    On 17 December 2008, Theater Security Cooperation responsibility 
for The Bahamas was transferred from SOUTHCOM to NORTHCOM. This Unified 
Command Plan transfer enhances our homeland defense mission through our 
partnership with the Royal Bahamas Defence Force (RBDF), and 
strengthens our civil support missions with Puerto Rico and the U.S. 
Virgin Islands. This past year, my staff coordinated closely with 
SOUTHCOM and RBDF staffs to ensure smooth planning and execution of 
this shift in mission and responsibilities. We have developed a 
comprehensive Bahamas engagement plan as part of our Theater Campaign 
Plan that will enhance the U.S.-Bahamian relationship and integrate The 
Bahamas as a participant in the President's Caribbean Basin Security 
Initiative.
Western Hemisphere Institute for Security Cooperation
    NORTHCOM representatives participated in the WHINSEC Board of 
Visitors in June and December 2009. We worked closely with the WHINSEC 
staff to ensure their curriculum is fully compliant with U.S. Code and 
supportive of human rights. I have tasked WHINSEC to provide human 
rights training to the Mexican armed forces in the upcoming months; 
however, I continue to believe that open disclosure of the names of all 
WHINSEC graduates intrudes upon students' privacy and, more 
importantly, would assist drug trafficking organizations or terrorist 
groups to target the best and the brightest graduates from Latin 
America.
                      interoperable communications
    For mission success, our communications activities are focused on 
ensuring DOD interoperability with our DHS, State, and local partners 
to rapidly and effectively share information to ensure a prompt, 
coordinated response in the aftermath of a disaster.
    In partnership with the Defense Information Systems Agency, each 
year we sponsor the VITAL CONNECTION Communications Exercise (VCCE), 
which provides a realistic, controlled environment for DOD and its 
partners to train and collaborate on communications systems and 
capabilities that facilitate effective and efficient interoperability.
    In 2009, there were four venues where DOD, State, and local first 
responders developed and refined their techniques and procedures to 
improve interoperability in the event of a natural disaster or national 
emergency.
    NORTHCOM continues to partner with FEMA and the National Guard in 
the employment of Deployable Cellular-Based Suites, which include 
cellular towers, satellite communications connectivity, Land Mobile 
Radio interfaces, and ancillary devices to improve interoperability and 
service to emergency responders. NORTHCOM procured four additional 
Incident Awareness and Assessment/Full Motion Video communications 
suites through the Combatant Commander Initiative Program that are 
positioned within AFNORTH Headquarters and Air Combat Command 
Communication Squadrons to provide enhanced Incident Awareness and 
Assessment/Full Motion Video capabilities to incident commanders. These 
suites provide additional capability to enhance situational awareness 
during disasters and emergency events for both incident on-scene 
commanders and our national leadership.
                   exercises, training, and education
    NORAD and NORTHCOM continue to derive exceptional training value 
from our participation in the National Exercise Program (NEP). In 2009, 
we participated in each of the Tier I and Tier II NEP exercises, 
including the National Level Exercise in July that represented the 
capstone event for the first-ever New Administration Transition 
Training program.
    Our own two major exercises, Ardent Sentry 09 (AS 09) in June 2009 
and Vigilant Shield 10 (VS 10) in November 2009, represented 
extraordinary training opportunities with scores of Federal, State, 
local, tribal, non-government organizations, private sector, and multi-
national partners.
    In AS 09, we ran agro-terror and other asymmetric exercise 
incidents in Iowa and three surrounding States, a Deployable Homeland 
Air and Cruise Missile Defense scenario off the coast of Oregon, and a 
nuclear weapon accident/incident vignette in Wyoming, all while 
simulating loss of the use of our primary operations facility and 
having to move to an alternate location.
    In VS 10, we linked to the main Canadian exercises supporting 
preparation for the 2010 Vancouver Winter Olympics (including how we 
would provide civil support if requested), and simultaneously conducted 
an earthquake exercise in up-State New York. Each of these major 
exercises was linked to a Vigilant Guard exercise, the series we 
conduct in support of State National Guard Headquarters and Joint Task 
Forces.
    In 2010, we will again participate in the National Level Exercise, 
and Ardent Sentry 10 will further exercise our civil support mission. 
We will also practice our homeland defense missions in Vigilant Shield 
11, linked to STRATCOM's exercise Global Thunder 11. We are also 
continuing a series of Pandemic Influenza exercises in preparation for 
future DOD-wide and U.S. Government-wide Pandemic Influenza exercises.
    All in all, we annually conduct or participate in approximately 50 
exercises of varying type, length, and complexity, to maintain our 
readiness across diverse NORAD and NORTHCOM mission sets detailed in 
over 10 Concept Plans. We engage our training partners at every level 
of Federal, State, tribal, and local government to employ the most 
comprehensive and realistic scenarios.
    The newest complement of our civil support series of training 
courses is our DSCA Senior Executive Seminar. Hosted in our 
Headquarters, this 2-day seminar provides a great opportunity for me to 
meet with State Governors and The Adjutants General (TAGs) (ranging 
from one to five at a time), for them to receive capabilities briefs 
from various staff Directorates regarding DSCA operations, and orient 
themselves to NORTHCOM's missions.
                              partnerships
    Working with our mission partners is essential to ensuring the 
American people receive assistance during times of need, whether at the 
international, interagency, or State and local level. Our Nation's 
Governors take very seriously their role as Commanders in Chief of 
their State and we respect that authority. Our job is to support our 
Nation's Governors in responding to emergency situations and threats in 
their States.
States and Territories
    In an effort to understand each State's risks and capabilities and 
in order to anticipate the best response for DOD requested assets, I 
participated in the initial meeting of the congressionally-directed 
Council of Governors and have also separately engaged with Governors, 
Lieutenant Governors, various State Directors of Emergency Management 
and the TAGs. Since taking command, I have met with a total of 27 State 
Governors and/or Lieutenant Governors. I have also met individually 
with 37 different States' TAGs and have addressed all 54 TAGs at 
various National Guard senior leader conferences. The most recent 
conference was the 2010 National Guard Bureau/NORTHCOM Hurricane 
Planning Workshop, 18-22 January 2010, in Tampa, FL, where several 
hundred representatives from 30 States and for the first time senior 
officials from DHS and FEMA addressed hurricane emergency response 
preparedness. Next year, we plan to expand the scope of the planning 
conference to include all hazards. These engagements strengthen the 
relationships between the State and DOD, improve mutual understanding 
of the critical balance each State must maintain between its 
requirements and resources to ensure support of the State's civil 
authorities during a major disaster, crisis, or NSSE; enhance sharing 
of information and lessons learned from previous responses to disasters 
and events; and support the State's understanding of NORAD and NORTHCOM 
and our missions.
    NORAD and NORTHCOM provide a training and exercise program that 
actively engages the States and Territories. The Vigilant Guard Joint 
Regional Exercise Program is sponsored by NORTHCOM and executed in 
conjunction with the NGB. Four Vigilant Guard (VG) exercises are 
conducted each year, and when feasible, two are linked to NORAD and 
NORTHCOM-sponsored exercises (VG Iowa with Ardent Sentry 09 and VG New 
York with Vigilant Shield 10). All VG exercises include some degree of 
local/county government participation.
Interagency Community
    NORAD and NORTHCOM have strong relationships with many non-DOD 
Federal Agencies and Departments. Agency representatives and NORTHCOM 
liaison officers provide an established reach-back capability to their 
parent organizations. These relationships provide the essential 
interagency context during operations planning and execution, while 
also providing the DOD's perspective to external agencies.
Private Sector
    Our Private Sector Engagement Team has worked closely with DHS, 
particularly FEMA, to support a comprehensive outreach program to non-
profit and nongovernmental organizations (NGO), businesses, academia, 
faith-based organizations, and public-private partnerships throughout 
the country. The tremendous capabilities, resources, and willingness of 
the private sector and NGOs community are essential to successful 
disaster response. Achieving unity of effort is our goal.
                               challenges
    We are aggressively tackling impediments to our efforts to improve 
air and maritime domain awareness, interagency information sharing, and 
consequence management operations. As we move forward with these 
efforts and others this year, we solicit and appreciate your continued 
support.
Aircraft Recapitalization
    Legacy fighters, tankers, and airborne early warning aircraft in 
use today adequately meet all aspects of the Air Sovereignty Alert 
mission; however, recapitalization of these legacy aircraft is critical 
to the future success of the NORAD mission set.
    Legacy fighters are aging and will be stressed to maintain 
reliability and capability as we move into the 2015-2030 timeframe. 
Recapitalizing the fighter, tanker, and airborne early warning aircraft 
will remain a challenge, given the DOD's post-September 11 long-term 
mission requirements. NORAD's mission readiness will be affected if Air 
Sovereignty Alert aircraft are not recapitalized in accordance with the 
fiscal year 2011 President's budget request.
Unmanned Aircraft Systems in the National Airspace
    NORTHCOM is fully engaged with the Unmanned Aircraft Systems (UAS) 
community through our membership on the Joint UAS Center of Excellence 
Advisory Council; Office of the Secretary of Defense, Acquisition, 
Technology & Logistics-led UAS Task Force; and our participation on the 
Policy Board for the Federal Aviation UAS Subgroup. NORTHCOM is also an 
advisory member to the newly formed UAS Executive Committee, co-chaired 
by the FAA and DOD, which is addressing the numerous national airspace 
access issues for public users. We are eager to team with our partners 
in the interagency community as they expand their UAS operations to 
achieve synergy in our homeland defense and civil support efforts. We 
continue to work with the FAA on finding the best way forward on 
employing UAS in the National Airspace outside restricted airspace.
Deployable-Integrated Air Defense System
    One of the greatest challenges facing the Commands is the lack of 
an integrated air and cruise missile defense capability to counter 
threats from low-flying aircraft, UAS, and cruise missiles. As these 
threats grow, it becomes increasingly important to develop an 
integrated air and cruise missile defense system-of-systems to defend 
the homeland. In the past year, NORAD and NORTHCOM worked closely with 
the Joint Air Defense Operations-Homeland Joint Test Team as the 
operational sponsor in developing tactics, techniques, and procedures 
for a Deployable-Integrated Air Defense System capability, which could 
be employed to protect a particular venue or city which may be 
threatened or at risk.
    National Security Implications of Arctic Change. The 1982 
Convention on the Law of the Sea is a seminal agreement of the 
extensive international legal framework that applies to the Arctic 
Ocean. Global interest in the Arctic region shows no hint of ebbing, 
evidenced by the summer 2009 transit of two German-owned cargo vessels 
through the Northern Sea Route, westbound from the Atlantic to the 
Pacific Ocean. Increased activity necessitates that the United States 
become party to the Convention in order to protect and advance national 
interests in the Arctic by enhancing our national security (including 
the maritime mobility of our Armed Forces), securing U.S. sovereignty 
rights over extensive marine areas (including the valuable natural 
resources they contain), and giving the United States a seat at the 
table when rights vital to our interests are debated and interpreted.
    To bolster our efforts for the Arctic region, I support the stated 
desires of our respective U.S. and Canadian civilian defense leadership 
to reinvigorate the Permanent Joint Board on Defense as highlighted by 
Secretary of Defense Gates' and Minister McKay's November 2009 Halifax 
Security Talks.
                          future capabilities
    As we investigate existing technologies and capabilities for 
innovative uses, we are also focusing on emerging technologies to meet 
our requirements. We urge Congress to support the following 
initiatives.
Air Domain Awareness
    In March 2007, the National Strategy for Aviation Security (NSAS) 
was published to enhance public safety and economic growth by promoting 
global aviation security through reducing vulnerabilities. The NSAS 
states: ``Together, the Strategy and seven supporting plans present a 
comprehensive national effort to prevent hostile or illegal acts within 
the air domain, promote global economic stability, and protect 
legitimate aviation activities.''
    To achieve the objectives of the NSAS, the whole-of-government must 
be committed to the guidance provided within the NSAS and supporting 
plans to achieve global air domain awareness (ADA). ADA crosses many 
Departments and Agencies within the government, thus requiring a 
coordinated approach. Historically, the operational synergism and cost 
efficiencies associated with the principle of unity of effort have not 
been completely realized for ADA because neither an interagency 
governance mechanism nor an information sharing infrastructure has yet 
been established.
    To meet this challenge, NORAD and NORTHCOM have teamed with DHS and 
other organizations across the U.S. Government to collaboratively 
develop solutions and lay the foundation for ADA. The desired end-state 
is development and implementation of a work plan leading to a joint, 
interagency, intergovernmental, and multinational ADA governance 
mechanism, interdepartmental capabilities and resourcing roadmap, and 
information sharing infrastructure to synchronize the disparate efforts 
of ADA mission partners.
    DHS, NORAD, and NORTHCOM hosted an Interagency ADA Summit on 13-14 
January 2010 bringing together senior leaders from numerous Federal 
agencies. The summit leadership provided guidance to three working 
groups facilitating development of processes for governance, 
information sharing, and capabilities and resources. Additional summits 
are planned at 6-month intervals and will bring in participation from 
industry, State, local, tribal, and international partners.
NORAD and NORTHCOM Defense Surveillance Gap Filler Strategy
    Wide-area surveillance is a key component of Air Domain Awareness 
and is critical to air and missile defense of the homeland; however, 
NORAD and NORTHCOM lack adequate real-time, persistent, multi-domain 
surveillance. The NORAD and NORTHCOM Surveillance Gap Filler Strategy 
proposes to rectify this problem by providing the Commands with a 
foundation to develop a family of systems permitting persistent wide-
area air and maritime surveillance to enhance defense against threats 
in the interior of and in the approaches to North America.
    The C2 Gap Filler Joint Capability Technology Demonstration will 
demonstrate a capability that enables efficient, secure, timely and 
trusted exchange of information resulting in enhanced C2 capabilities 
for NORAD and NORTHCOM.
    A second effort is the Next Generation Over-the-Horizon Radar 
(OTHR) Technical Risk Reduction Initiative (TRRI) Phase 1 project. TRRI 
was developed to minimize the technical risks of building a next 
generation OTHR prototype while simultaneously raising technical 
readiness levels of advanced radar technologies. Over-the-horizon 
radars are proven, wide-area surveillance systems with the ability to 
detect and track thousands of air and maritime targets at ranges 
exceeding 1,500 miles from the radar site. When completed, these 
initiatives will improve wide-area surveillance around North America.
Radar Interference
    Comprehensive Air Domain Awareness will not be attained unless we 
can resolve the growing issue of radar interference. As such, NORAD and 
NORTHCOM support the establishment of an interagency process to allow 
the accurate assessment of existing and future plans for obstructions 
that potentially disrupt various radars within our area of operations. 
A formal vetting process is required with the necessary authorities to 
prevent projects from interfering with the defense of North America, 
while supporting the expansion of alternative energy sources, such as 
wind farms. To that end, NORAD has taken the initiative to form a radar 
obstruction evaluation team to quantify the impacts of proposed wind 
energy projects in close proximity to our radars.
Long-Range Radar Sustainment and Future Plans
    DHS, NORAD, and NORTHCOM use long-range radars to detect and 
monitor non-cooperative targets. Many of these radars are 1950s vintage 
technology and in some cases are well beyond their life expectancy. To 
help with the maintenance of these radars, the Service Life Extension 
Program (SLEP) was approved, has been funded since fiscal year 2006, 
and again requested in the fiscal year 2011 President's budget. 
Upgrades to the radars are currently being completed. The goal is to 
sustain the existing systems another 15-20 years and use modern 
technology to play an integral part in the SLEP.
                             final thoughts
    NORAD and NORTHCOM have demonstrated our ability to meet emerging 
threats to the homeland and support civil authorities in times of 
crisis. We are committed to remaining strong and reliable partners, 
working together to protect and defend our Nations, people, and way of 
life.
    Our Commands' success depends on the dedication, professionalism 
and sacrifice of our service men and women. We appreciate what the 
members of this committee have done to ensure the men and women of 
NORAD and NORTHCOM have the best possible resources to maintain world-
class capabilities.

    Chairman Levin. Thank you, General, for your testimony. 
Thank you for bringing Chief Master Sergeant Usry with you, as 
a matter of fact. We welcome him, as well.
    General Fraser.

  STATEMENT OF GEN. DOUGLAS M. FRASER, USAF, COMMANDER, U.S. 
                        SOUTHERN COMMAND

    General Fraser. Good morning, Chairman Levin, Senator 
McCain, distinguished members of the committee. I'm honored to 
have this opportunity to appear before you today and provide my 
assessment of SOUTHCOM and our assigned area of responsibility.
    I'm joined this morning by my wife, Rena. I just want to 
echo what General Renuart has said. Her dedication, her support 
has been immense throughout, so I just appreciate that 
continued support.
    It's also my privilege to share this table with my good 
friend and mentor, General Renuart, because our appearance 
together represents the close coordination, alignment, and 
relationship between our two combatant commands. I also want to 
thank the members of this committee for your continued strong 
support of SOUTHCOM and your outstanding soldiers, sailors, 
airmen, marines, and coastguardsmen, and the civilian 
personnel, whom I'm privilege to lead.
    I've personally seen what these outstanding men and women 
are capable of doing during the response to the earthquake that 
struck Haiti on January 12, 2010. The devastation was 
tremendous. Latest U.N. estimates indicate that over 222,000 
people were killed, 300,000 people injured, and 1.2 million 
people displaced by the earthquake. The U.S. response was 
swift, coordinated, and aggressive and comprised Federal, 
State, military and civilian agencies and units, exemplifying 
joint and interagency teamwork, all under the United States 
Agency for International Development (USAID) as the lead 
Federal agent.
    Fortunately, several DOD and U.S. Government assets were in 
the vicinity of Haiti when the earthquake happened. As you 
mentioned, Chairman Levin, Lieutenant General Keen, the Deputy 
Commander of SOUTHCOM, was visiting Haiti when the earthquake 
happened. He remains in place, commanding JTF-Haiti, providing 
superb leadership to the JTF-Haiti.
    Within the 24 hours of the earthquake, a U.S. Coast Guard 
cutter was off the coast of Port-au-Prince, and a U.S. Coast 
Guard C-130 was on the ground supporting relief efforts. Air 
Force elements began surveying the international airport. U.S. 
Navy P-3 aircraft, from our cooperative security location at 
Comalapa, El Salvador, conducted the first U.S. aerial 
reconnaissance of the area affected by the earthquake. Members 
of SOUTHCOM's Standing Joint Force Headquarters landed and 
began the initial assessments. The first U.S. Urban Search and 
Rescue (US&R) Team, a 72-member unit from Fairfax County, VA, 
arrived. U.S. Transportation Command (TRANSCOM) and Air 
Mobility Command had established an air bridge. Additionally, 
the aircraft carrier USS Carl Vinson and the USS Bataan 
Amphibious Ready Group with the 22nd Marine Expeditionary Unit 
(MEU) embarked were ordered to make best possible speed to 
Haiti. Joint, interagency, Federal, and State responders, all 
these agencies were working to support the people and 
Government of Haiti before the first 24 hours had elapsed.
    Over the span of the next 3 weeks, the size and scope of 
the military response grew to a peak of just over 22,000 
personnel involved in the relief effort, including an Airborne 
Brigade Combat Team, the hospital ship USNS Comfort, a second 
MEU, as well as engineer, planning, communications, and medical 
experts. They coordinated with the U.S. Embassy, USAID, the 
United Nations, and other international organizations to 
determine where the capabilities of the military could rapidly 
be brought to bear to support the Government of Haiti.
    Supported by TRANSCOM, U.S. Joint Forces Command, and every 
branch of our Armed Forces, our forces dramatically expanded 
the airport's capacity and opened the seaport to enable the 
vital flow of supplies. JTF-Haiti forces distributed 2.6 
million liters of water, 2.2 million meals, and 149,000 pounds 
of medical supplies, performing 1,025 surgeries, and assisting 
the World Food Programme in distributing 17 million pounds of 
bulk food.
    As the capabilities of the Government of Haiti, USAID, 
U.N., and nongovernmental organizations have increased, and as 
the relief needs have been met, we are transitioning many of 
our functions to capable partners, and are conducting a 
deliberate, conditions-based drawdown of our forces.
    The men and women who deployed to Haiti have performed 
magnificently and are the very embodiment of the teamwork and 
the jointness across DOD. They have been outstanding 
representatives of our military with their professionalism, 
sense of urgency, focus, and compassion. They continue to make 
us all extremely proud.
    I would not have been able to perform this mission to the 
level of success we achieved without the support of the other 
geographic commanders, and unified combatant commanders, the 
Services, Joint Staff, and the Office of Secretary of Defense. 
General Gene Renuart and NORTHCOM provided invaluable 
assistance. We could not have accomplished so much so quickly 
without the personnel his command and others sent to augment 
our staff, both in Miami and on the ground in Haiti.
    Less than 2 months after the catastrophe in Haiti, tragedy 
once again struck in the region, when an 8.8 magnitude 
earthquake shook Chile. Working through military liaison 
personnel assigned to the U.S. Embassy, SOUTHCOM offered to 
assist in whatever manner the Government of Chile needed. 
Within a day of the earthquake, we distributed imagery of the 
affected areas to the Chileans, and sent satellite phones. 
Additionally, we are supporting Chile with transport aircraft, 
a field hospital, and a port survey team. As the U.S. Embassy 
coordinates with the Government of Chile to determine what 
additional support is needed, we stand by to assist whenever 
possible.
    While the majority of our attention and resources recently 
has been focused on responding to natural disasters in Haiti 
and Chile, we continue to address other challenges in our 
region. Illicit trafficking, narcoterrorism, gangs, and 
potential for the spread of weapons of mass destruction pose 
the principal security threats in the region. The region 
remains very dynamic. Brazil continues its rapid emergence as a 
regional leader with global influence. Globalization of 
information, markets, resources, and financial transactions 
remain a force for change in the region, both positive and 
negative. Competing ideologies within the region are stressing 
democratic and human rights advances. The increasing engagement 
of international players from outside the region, such as 
China, Iran, and Russia, continues to broaden the regional 
outlooks and positions.
    Addressing the challenges of our region requires the truly 
whole-of-government approach in which DOD normally plays a 
supporting role. To that end, SOUTHCOM works not only to 
strengthen partner capability and capacity, but also to build 
important cooperative security relationships throughout the 
region with our partners, foreign and domestic, military and 
civilian, in the public and private sector. For the most part, 
our military-to-military relations throughout the region remain 
strong.
    Finally, I'd like to thank this committee for your 
continued strong support for the WHINSEC and for the hard work 
of my fellow board members who sit on this committee. As a 
customer of WHINSEC, I can attest to its critical role in our 
security cooperation, especially in its focus on human rights.
    Let me close by saying that the tragedy in Haiti is a stark 
reminder of the nature and potential severity of challenges we 
face in the region. The culture of cooperation, openness, and 
transparency we have developed, the relationships we have built 
through our enduring and consistent engagement throughout the 
region, and the emphasis SOUTHCOM has placed on partnering in 
the past few years have all paid a particularly high return on 
the investment in Operation Unified Response (OUR), the largest 
humanitarian assistance and disaster relief mission ever 
conducted in the region.
    I think also, Mr. Chairman, it's important to recognize 
that General Keen attended the Brazilian Staff College. One of 
his classmates was the commander of the Brazilian United 
Nations Stabilization Mission in Haiti (MINUSTAH)--or the U.N.-
led MINUSTA force on Haiti, so the relationship had started a 
long time ago, and paid huge dividends during OUR.
    Once again, thank you for your interest in our vital 
region, and your support of SOUTHCOM. I look forward to 
answering your questions.
    [The prepared statement of General Fraser follows:]
           Prepared Statement by Gen. Douglas M. Fraser, USAF
                              introduction
    Chairman Levin, Senator McCain, and distinguished members of the 
committee, thank you for the opportunity to appear before you today to 
discuss the U.S. Southern Command and our area of responsibility in 
Latin America and the Caribbean. It is my privilege to report to you on 
the successes and accomplishments of our men and women over the past 
year, and to share our appreciation for the outstanding support 
Congress has shown us. The devastating earthquake in Haiti has shown 
how suddenly the strategic environment can change; but it has also 
shown how your investments in U.S. Southern Command through the years 
enable us to respond to such challenges. With your continued support, 
we will build upon this foundation and strengthen the bonds of security 
cooperation throughout this region.
    The nations of the Americas are strongly linked together in ways 
beyond physical and sociological proximity: our hemisphere is linked 
demographically, economically, socially, politically, culturally, 
linguistically and militarily. These shared qualities and beliefs 
connect us and provide the basis for addressing the common challenges 
that affect the security and stability of all nations in the region, 
today. These common traits also enable strong partnerships and serve as 
the foundation for the enduring relationships we will need as we face 
the future together.
    As globalization trends continue, our security will depend upon 
expanding cooperative engagement with multinational, multiagency and 
public-private partners in our hemisphere. We will be better able to 
meet complex challenges of the 21st century security environment by 
building robust, enduring partnerships now. Together we are stronger 
and more effective than working as a single organization or nation 
operating individually. Our vision embodies this belief.
                   the region--enduring and evolving
    U.S. Southern Command is responsible for conducting military 
operations and promoting security cooperation in Central America, the 
Caribbean and South America in order to achieve U.S. strategic 
objectives. Successfully accomplishing this mission enhances the 
security and stability in the Western Hemisphere and ensures the 
forward defense of the United States.
    The Americas, a home we share, is a strategically vital, culturally 
rich, and widely diverse and vibrant region. Since taking command 9 
months ago, I have traveled extensively throughout the region and have 
witnessed the challenges facing regional leaders and their people. I 
have also learned that many of these challenges are shared by all of 
us. Although our Nations may at times disagree on political and 
economic matters, we are united by a common view that we can settle our 
problems through negotiated agreements. This view provides the key for 
security for our citizens and requires a steadfast dedication to 
protecting our fundamental liberties and defending our common 
commitment to maintaining democracy and the rule of law.
    International commerce and trade between the United States and 
Latin American and Caribbean countries is strong, and experts forecast 
this growth to continue. The Western Hemisphere is the United States' 
largest market with nearly 38 percent of U.S. trade travelling north 
and south, equating to $1.5 trillion.\1\ We obtain more crude oil 
imports--52 percent--from this region than from the Persian Gulf, which 
only provides 13 percent.\2\ The Panama Canal is paramount in strategic 
and economic importance as nearly two-thirds of ships transiting the 
Canal are going to or coming from a U.S. port, carrying 16 percent of 
U.S. trade; expansion of the Canal is expected to almost double the 
capacity to approximately 600 million tons a year.\3\ The Commerce 
Department reports the overall sum of U.S. foreign direct investment in 
the hemisphere (minus Canada) is 17.8 percent of our total foreign 
direct investment worldwide. Further, 10 of the 17 U.S. Free Trade 
Agreements are with countries in the Americas. In terms of percentage, 
our total foreign direct investment in the hemisphere (including 
Canada) equals our direct investment in Asia, the Middle East and 
Africa, combined. Additionally, Inter-American Development Bank (IADB) 
studies estimate $42.3 billion in remittances flowed from the U.S. to 
the region in 2009, slightly more than two-thirds of the IADB's 
estimated worldwide total of remittances.\4\ Economic partnerships are 
strong today, and according to Commerce Department and World Trade 
Organization data, by 2011, U.S. trade with Latin America is expected 
to exceed trade with Europe and Japan.
---------------------------------------------------------------------------
    \1\ Economic Interdependence 2008 Trade Figures (www.census.gov/
foreign-trade). 38 percent to Western Hemisphere versus 31 percent to 
PACRIM and 21 percent to Europe.
    \2\ Energy Information Administration (www.eia.doe.gov) Aug 2009 
Figures: More than 52 percent from Western Hemisphere (incl CAN and 
MEX), 30 percent from LATAM (incl MEX), 19 percent from AOR, versus 13 
percent from Persian Gulf.
    \3\ Panama Canal Authority (www.pancanal.com) 5 percent of world 
trade transits the canal/16 percent of U.S. trade transits the canal, 
two thirds ships transiting Panama Canal are going to/from U.S. ports.
    \4\ Inter-American Development Bank, Press Release, Migrant 
Remittances, October 18, 2009, December 7, 2009, http://www.iadb.org/
NEWS/articledetail.cfm?Language=En2&artType+ PR&artid=3348.
---------------------------------------------------------------------------
    In addition to demographic and economic ties with Latin America and 
the Caribbean, we share social and political views rooted in a common 
commitment to democracy, freedom, justice and respect for human rights. 
Compared to three decades ago when the form of government in the 
majority of these countries was nondemocratic, most nations in the 
region now subscribe to democracy and agree that free governments 
should be accountable to their people in order to govern effectively.
    We are fortunate to share similar main languages and interwoven 
cultures. Although there are many different dialects, people of the 
region use four primary languages: English, Spanish, Portuguese and 
French. While the United States is thought of as a primarily English-
speaking nation, we are also the fifth largest Spanish speaking country 
in the world. Our significant cultural ties will grow stronger in the 
decades ahead, as by 2050, the number of people in the United States 
citing Hispanic heritage will comprise approximately 30 percent of the 
total U.S. population.\5\
---------------------------------------------------------------------------
    \5\ Source: Pew Research Center, U.S. Population Projections: 2005-
2050: February 2008.
---------------------------------------------------------------------------
    Despite the constant ebb and flow of political tides in this 
hemisphere, U.S. Southern Command has been fortunate to maintain strong 
professional relationships with our military and security force 
counterparts in almost every nation in the region. We engage with these 
nations continuously during peacetime through numerous bilateral and 
multilateral exercises, conferences, and other training engagements 
designed to prepare for the host of challenges that may confront us. 
Regional partnerships with and among our partner forces directly 
enhance hemispheric security and stability, as evidenced by the 
outstanding professional teamwork and unity of effort displayed by the 
region's militaries as part of the United Nations Stabilization Mission 
in Haiti (MINUSTAH) and Operation Unified Response.
    In addition to our more than 20 large-scale joint and combined 
exercises annually, we host and sponsor hundreds of unit and individual 
exchanges, and assist with arrangements for approximately 5,000 
students from Latin America and the Caribbean who attend U.S. military 
schools and training sessions throughout the region. Future senior 
military leaders interact with U.S. military personnel at the Western 
Hemisphere Institute for Security Cooperation, Center for Hemispheric 
Defense Studies, the Inter-American Defense College, and the Inter-
American Air Forces Academy. The camaraderie developed and the school's 
strong emphasis on democratic values and respect for human rights 
contribute to the professionalization of military establishments who 
are subordinate to civilian control and capable of effective combined 
operations.
    Despite the number of enduring linkages we share with our neighbors 
in the region, we are also in a period of profound strategic change. 
Globalization has enabled nations, non-state actors, multilateral 
institutions and nongovernmental organizations to affect--both 
positively and negatively--the condition of millions throughout our 
region and across the globe. Our world is shrinking. The Atlantic and 
Pacific oceans are not the borders or barriers they once were. There 
are multiple approaches in several domains--including, increasingly, 
cyberspace--by which adversaries can enter the United States. At U.S. 
Southern Command, we remain committed to helping achieve hemispheric 
security by developing and maintaining strong partnerships to meet the 
dynamic and uncertain future.
                               challenges
    The nations within our area of responsibility are largely at peace 
with one another and have formally foresworn the development of weapons 
of mass destruction (WMD). Military spending on a per capita basis 
remains lower in Latin America and the Caribbean than anywhere else in 
the world. The likelihood of conventional 20th century military threats 
also remains low for the foreseeable future. However, we do face 
nontraditional challenges that threaten security and stability 
throughout the hemisphere.
    These challenges are multiple and complex and include a broad and 
growing spectrum of public security threats, the possibility of natural 
and manmade disasters, and an emerging class of issues, such as those 
relating to the environment. More specifically, illicit trafficking, 
transnational terrorism, crime, gangs and the potential spread of WMD 
pose the principal security challenges within the region, none of which 
fall to DOD to take the lead in confronting. Most of these issues, in 
turn, are fueled by the endemic and underlying conditions of poverty, 
income inequality and corruption. Thus, our primary focus is on doing 
what we can to support other agencies of our government and our partner 
nations as they confront these problems and try to prevent them from 
becoming issues that require the military to address.
Poverty and Income Inequality
    Perhaps the single factor contributing most to unrest, insecurity 
and instability in our region is the pervasive nature of poverty. 
According to the United Nations Economic Commission for Latin America 
and the Caribbean (ECLAC), in 2009, the number of people living in 
poverty in Latin America and the Caribbean--defined as living on less 
than $2 a day--rose for the first time in 6 years, increasing by 1.1 
percent over the previous year, from 180 million to 189 million people, 
or just over 34 percent of the population. The number of truly 
destitute--those living in extreme poverty, defined as living on less 
than $1 a day--increased from 71 to 76 million. That is an additional 9 
million people living in poverty and 5 million living in extreme 
poverty. These figures illustrate in very real terms the enormous 
challenges faced by our partner nations and neighbors in the region. 
Coupled with this poverty is a disparity in income levels that is, 
according to the World Bank, the most unequal subregion in the world. 
The richest 10 percent of the Latin American population earns 48 
percent of the region's income, 30 times the percentage of the poorest 
10 percent, which earns 1.6 percent.
    Areas with lower levels of economic investment, development, and 
growth can provide a breeding ground for illicit trafficking, other 
related criminal activities, and the full range of terrorism. 
Impoverished citizens, with little trust in their governments or hope 
for a better life, are easy prey for illicit traffickers, terrorist 
organizations and political demagogues. They provide fertile soil in 
which international criminals and terrorists can recruit, take root, 
and flourish, thus directly undermining State sovereignty, threatening 
public safety, and contributing to rising regional instability.
Illicit trafficking
    The confluence of money, power, and the ability to breach the 
integrity of national borders makes the illicit trafficking problem a 
significant security challenge for nations throughout the Americas. 
Border insecurity, increased violence, public fear, corruption, 
weakening support for democratic institutions, and heavily burdened 
local, county, and State agencies are the by-products of this 
illegitimate and criminal activity, which is estimated to cost 
legitimate economies more than $245 billion annually. Furthermore, the 
same routes and networks by which illicit traffickers smuggle 1,250-
1,500 metric tons of cocaine per year around the region, could be used 
wittingly or unwittingly to smuggle weapons, cash, fissile material or 
terrorists. As a threat to our homeland and the long-term stability of 
the region, illicit trafficking is of critical concern as it provides a 
possible nexus for transnational terrorism and the potential 
proliferation of WMD.
    Internal and cross-border--via air, land and/or sea--trafficking in 
drugs, weapons, human beings, money and terrorists poses a threat to 
every nation's security and stability. Revenue from illicit trafficking 
has weakened state structures throughout the region, subverted the rule 
of law, and ripped apart the fabric of social order. I am particularly 
troubled by the progressively negative impact of these activities on 
the Caribbean and Central America regions. As progress in Colombia 
continues, air and maritime interdiction efforts are increasingly 
effective, and the Government of Mexico continues to apply pressure to 
drug trafficking organizations, these traffickers are being 
progressively squeezed out of their previous operating locations. This 
resultant ``balloon effect'' causes the trafficking organizations to 
seek safe havens in ``undergoverned spaces'' like the Peten in 
Guatemala, the Miskito Coast in Honduras and Nicaragua, and the Darien 
regions in Panama. Similarly, our Caribbean neighbors are also seeing 
an increase and return of illicit trafficking organization presence in 
their territories, particularly the island of Hispaniola. The 
governments and institutions in these countries contend with the 
onslaught of violence, instability and insecurity associated with 
illicit trafficking as best they can, but they do not yet possess the 
capability or capacity to do so without help.
    Underlying all this is the illegal narcotics industry. According to 
the Drug Enforcement Administration, 31,000 deaths in the United States 
each year are attributed directly to drug-induced causes. The demand 
for drugs in the United States remains strong and creates incentives 
for illegal activities. The Andean Ridge produces nearly all of the 
world's cocaine and it and Central America are increasingly providers 
of heroin consumed in the United States. Of the approximately 1200 
metric tons of export quality cocaine that shipped from source 
countries in South America in 2009, approximately 60 percent of that 
was headed north, destined for the United States; in addition, we are 
seeing a growing amount (approximately 30 percent) heading to new and 
expanding markets in Europe and the Middle East, as evidenced by Spain 
becoming the world's largest per capita drug user.
    This is not simply an issue of supply and demand for illegal 
narcotics, however. Traffic is bidirectional and equally congested in 
both lanes with contraband. As traffickers exchange drugs for arms and 
services in the transit zones, transit nations become drug consumers as 
well. Brazil provides an illustration of how such an evolution can 
occur, as it is now the second largest consumer of cocaine in the world 
behind the U.S. While drugs and people tend to go out from the region, 
increasingly, we are seeing money, arms and technology/know-how (from 
communications gear to gangland tactics) flowing back into the region. 
This cycle has expanded to become more than a localized or even 
regional issue--it has become a global enterprise and thus requires a 
global strategy to countermand it. While partner nations are willing to 
work with us to develop regional approaches to counter the production 
and trafficking of illegal narcotics, effective and sustainable counter 
illicit trafficking operations severely test the capabilities and 
capacity of their thinly stretched forces. I see the illicit 
trafficking threat as a multi-faceted equation--demand, production, 
transit and finances--all supporting micro-markets of instability and 
violence.
    The Drug Enforcement Administration estimates the illegal worldwide 
trafficking industry to be a $394 billion per year industry. In 
addition to illegal narcotics, illicit human trafficking nets 
approximately $32 billion per year; illegal arms smuggling nets roughly 
$10 billion per year, and the exotic wildlife industry nets a 
surprising $80 billion a year. Traffickers are constantly developing 
new means of preventing interference with their illegal activities. As 
we modify our tactics, drug producers and traffickers find innovative 
methods to develop the drugs as well as alternative trafficking routes 
to transport them. The traffickers of yesterday have become much more 
lethal today, and this trend is expected to continue.
Terrorism
    The blurring of the lines that used to separate terrorists from 
narcotics traffickers can be seen in groups like the Revolutionary 
Armed Forces of Colombia (FARC) and Sendero Luminoso (Shining Path) in 
Peru. These entities define a category of ``narco-terrorists'' and they 
derive a majority of their funding and power from their involvement in 
the illicit drugs industry. These organizations and a number of 
extremely violent gangs have driven up the rates of homicide and 
kidnappings throughout the region and do not operate within traditional 
nation-state boundaries--they live among and terrorize the populace, 
and take advantage of ungoverned and undergoverned spaces without any 
regard or respect for national sovereignty.
    As these two threat vectors merge into one new hybrid, so must our 
efforts to counter it. We thank Congress for providing the dedicated 
resources necessary for this mission and for working with us in the 
specific case of Colombia to authorize flexible funding sources that 
allow us to adapt and stay ahead with a blending of counterterrorism 
(CT) and counternarcotics (CN). This expanded authority and flexibility 
is essential to helping us rapidly address emerging capability gaps 
with our partners as the strategic situation continues to evolve. We 
now need to ensure that we have this authority in other areas as 
appropriate where we see this nexus potentially occurring, such as 
Peru.
Crime and gangs
    A close corollary of the spread of illegal trafficking is the 
alarming growth of criminal violence in the region. Rising crime, 
coupled with corruption, exacerbates the conditions of poverty and 
inequality, hampering development efforts and reducing an already 
fragile economic growth environment. One out of every three homicides 
in the world takes place in our region, as does one out of every two 
kidnappings. According to United Nations data, Latin America and the 
Caribbean's annual homicide rate is one of the highest in the world, 
with more than 27 homicides per 100,000 people--murder now ranks as one 
of the five main causes of death in several Central American countries. 
Central America is the region with the highest levels of non-political 
crime worldwide, with an average murder rate of 33 per 100,000 
inhabitants last year, three times greater than the global average, 
according to the UN Development Program (UNDP) Report on Human 
Development in Central America 2009-2010. These reports all emphasize 
the toll--both human and economic--of insecurity, violence and crime on 
the day-to-day decisions of the population, making insecurity a clear 
impediment to development and a destabilizing element for many nations 
in the Western Hemisphere. For example, in recent surveys of the 
region, delinquency and lack of personal security rank as the top 
social ill for the majority of countries.\6\
---------------------------------------------------------------------------
    \6\ Latinobarometro.
---------------------------------------------------------------------------
    The growing presence and influence of gangs contributes to rising 
crime rates and severely challenges personal security in many areas. In 
Central America, Jamaica, and major cities in Brazil, gangs are 
infecting society's ability to provide basic functions and necessities, 
and are thus becoming a significant security priority. The overall gang 
population is estimated to reach into the hundreds of thousands, 
primarily filling their ranks with disenfranchised youth. According to 
a comprehensive study conducted by the National Public Security Council 
in El Salvador in 2008, violent crime cost the five countries examined 
a combined $6.5 billion, equivalent to 7.7 percent of Gross Domestic 
Product (GDP).\7\ The GDP losses to crime came at the expense of 
government investment in social services like spending on development, 
infrastructure, public safety and education. Increasingly, the threat 
posed by gangs reaches beyond Latin America and the Caribbean--the more 
sophisticated groups operate regionally and even globally with deep 
reach back into the United States from California to Washington, DC, 
and increasingly into Europe.
---------------------------------------------------------------------------
    \7\ Los Costos Economicos de la Violencia en Centroamerica (The 
Economic Cost of Violence in Central America), El Salvador, 2008, pp. 
13-14. In 2008, the National Public Security Council of the Salvadoran 
presidency's office commissioned a study compiling the excess direct 
spending and losses caused by violence in five Central American 
countries in four areas, namely: increased health care; increased 
government spending for crime prevention, law enforcement and justice; 
spending on private security; and, material losses from crime. This 
landmark analysis found that in 2006, violent crime cost the combined 
States $6.5 billion--equivalent to 7.7 percent of GDP. Though all 
nations suffered significant losses, the total cost of violence varied 
between countries: $2.9 billion in Guatemala (7.7 percent GDP); $2.01 
billion in El Salvador (10.8 percent GDP); $885 million in Honduras 
(9.6 percent GDP); $790 million in Costa Rica (3.6 percent GDP); and, 
$529 million in Nicaragua (10.0 percent GDP).
---------------------------------------------------------------------------
    The compounded effects of urban violence and transnational gangs 
are an undeniable threat to our national security and to the larger 
long-term security and stability of the region. The Departments of 
State, Justice, Homeland Security, and the U.S. Agency for 
International Development (USAID) each have programs that fit together 
to augment the efforts of the Nations most affected by youth violence. 
In each case, U.S. Southern Command closely coordinates with and 
supports the lead Federal agency and the U.S. Ambassador; at the same 
time, we continue working arm-in-arm with partner nation military and 
security forces in the region to build the necessary capabilities to 
enable them to provide their own national security and be able to 
provide responsible support to civilian authorities when required.
Competitive Marketplace
    Because of globalization and its inherent empowerment of new 
actors, the United States can no longer take for granted that our way 
of life is the sole ideology of choice in this region. We must now 
actively compete to ensure our message is accurately transmitted and 
received by the appropriate audience. Populism, socialism and democracy 
are all now prevalent ideas within the region. Money, trade, and other 
interaction from expanding players like China, Russia and Iran exist in 
Latin America and the Caribbean. We are also beginning to see a renewed 
polarization in the region. All of these factors combine to form a 
competitive marketplace of ideas, within which nontraditional actors 
have become very adept at operating.
    To compete in this venue, we engage proactively and counter anti-
U.S. messaging with persistent demonstrations of our goodwill, 
competence and professionalism. We convey the strength of our ideas in 
both words and deeds by training and working with our regional partners 
to improve security, provide humanitarian assistance, and respond to 
disasters. We remain engaged in this marketplace through dialogue and 
open discussion with partners within the region as well as players 
external to our AOR.
    China's evolving relationship with Latin America through a growing 
number of linkages and longer-term investments is impacting the 
strategic landscape in the region and further emphasizes the 
interconnectedness of the 21st century. According to the International 
Monetary Fund, total bilateral trade between China (excluding Hong 
Kong) and Latin America has risen from $39.3 billion in 2004 to almost 
$147 billion in 2008. China is already the second largest user of the 
Panama Canal. The rapid growth of China's trade with Latin America and 
the Caribbean shows the likelihood China could become an enduring part 
of the economic landscape of the Americas.
    We have also noticed a marked increase in military-to-military and 
technology-based relations between China, Russia, Iran, and the region. 
China is conducting more military training and educational exchanges, 
entering into a larger number of technology transfers agreements, and 
selling sophisticated defensive military items such as air surveillance 
radars and military aircraft. China is also finding new areas for 
cooperation in the commercial space sector as seen in the China-Brazil 
Earth Research Satellite program. Russia has followed suit, with arms 
sales and a naval tour of the Caribbean. Russia has publicly stated 
that improving relations with Latin America is a top priority, focused 
primarily on Cuba and then Venezuela. They have also increased their 
outreach to other countries in the region as evidenced by signing a 
military and scientific bilateral agreement with Peru, offering 
increased support to Bolivia's counter-narcotics operations, and 
seeking a Free Trade Agreement with Chile.
    Iran, too, is strengthening its ties to the region, focusing 
primarily on Venezuela, while developing relationships with other 
nations, as evidenced by opening 11 new embassies with a 12th expected 
to open in the Caribbean later this year. Iran's trade activities have 
thus far focused on infrastructure development, medical exchanges, 
agriculture, mining and the oil industry. Finally, a Trade Memoranda of 
Understanding between Iran, Cuba, and Venezuela since 2005 has now 
surpassed $7 billion.
    As we face this complex, dynamic and continually evolving security 
environment at Southern Command, we are constantly reminded that 
achieving our desired end state of secure stable, democratic and 
prosperous States throughout the Americas requires a wide variety of 
tool sets beyond pure military activity. We continue to look for 
creative ways to approach partnerships throughout the region. We seek 
innovative ways to organize, plan, train, and operate; to adapt new 
technology to ever-changing challenges; and to communicate, including 
how we describe and frame our challenges both with our partners and 
with the public in general.
       strategic framework: initiatives, exercises and operations
    Our strategic approach is balanced and prioritized--confronting the 
most pressing and probable threats to the Nation today, while at the 
same time, posturing the joint, combined and multinational force to 
prevent, and if necessary, defeat the most consequential threats to 
tomorrow. We take a regional, global, and long-term view of our 
strategic environment, our objectives, and the implications for 
strategic risk. It is imperative we remain capable of executing our 
plans, while still engaging throughout the region at the appropriate 
levels: building, complementing or enhancing, as appropriate, partner 
capability and capacity; improving international and interagency 
cooperation; and, fostering both security and stability.
    As we confront the considerable range of challenges before us in 
our AOR, we continually ensure coordination across multiple levels in 
more than one agency and in more than one nation. This is a 
prerequisite for any project, exercise, initiative or operation within 
our region: each issue needs to be assessed as part of an 
interconnected and unified strategy. For example, the illicit 
trafficking issue cannot be adequately addressed in isolation from 
issues of illegal narcotics, migration, arms trafficking, money-
laundering, and radical ideological terrorists. Furthermore, our 
strategic approach is based on the affirmation of common values held 
throughout the hemisphere: democracy, liberty, and human rights.
    In terms of military-to-military contact, Latin America and the 
Caribbean represent many opportunities of U.S. engagement. We have 
witnessed numerous positive results from nontraditional approaches to 
partnering that integrate talents and capabilities from foreign and 
domestic, military and civilian, public and private sector entities. 
These efforts may be relatively low visibility, but they have a huge 
impact on U.S. military and partner nation military and security force 
readiness, particularly when they are accomplished in a consistent and 
enduring manner. We pursue a host of programs in support of other lead 
agencies and government entities to include numerous training 
exercises, educational programs, technology sharing, intelligence 
sharing, security procurement assistance, humanitarian aid, among 
others. Our evolving engagement strategy commits us to build or enhance 
the security capability of our military counterparts and to expand the 
capacity for all of us to work together. Joint, international, 
interagency, and public-private is the essence of everything we do.
Joint Interagency Task Force-South
    At the tactical and operational level within U.S. Southern Command, 
a model for this regional engagement and international and interagency 
coordination is Joint Interagency Task Force-South (JIATF-South) 
located in Key West, FL. JIATF-South exists to spearhead the effort to 
fight one of the most pressing challenges facing the region--illicit 
trafficking--with an acknowledged potential nexus with narco-terrorism. 
This interagency task force, which celebrated 20 years of excellence 
last year, is led by a U.S. Coast Guard Rear Admiral and is comprised 
of truly amazing individuals from all 4 branches of the military, 14 
different agencies, and 13 partner nations. This group, beyond doubt, 
is a team: a joint, interagency, international, combined and allied 
team--a creative and innovative body that defines ``synergy'', the 
blending of experience, professionalism and knowledge being greater 
than the sum of its individual parts.
    JIATF-South continues to make incredible headway, producing 
extraordinary results every year. For example: JIATF-South's joint 
operating area (JOA) covers nearly 42 million square miles, almost 21 
percent of the Earth's surface; in the 20 years it has been conducting 
operations in this region, 2,500 metric tons of cocaine have been 
seized, 705,000 pounds of marijuana interdicted, 4,600 traffickers 
arrested, 1,100 vessels captured, and a grand total of approximately 
$195 billion taken out of the pockets of the drug cartels. They have 
accomplished these results while possessing zero assets of their own--
every aircraft and vessel involved with detection, monitoring, 
interdiction and apprehension is allocated through the Department of 
Defense Global Force Management process, Department of Homeland 
Security Statement of Intent, and International contributions that 
place the assets under tactical control (TACON) of JIATF-South, which 
can be recalled by their service provider or operational control 
(OPCON) authority if unexpected circumstances warrant, such as Haiti 
relief efforts, search and rescue (SAR), or other national interests. 
In 2009, JIATF-South had TACON of USCG, USN, and international ships 
for a total of 2,915 on-station days, equating to an approximately 8.0 
surface asset laydown on any given day within the JIATF-South JOA. 
Similarly, JIATF-South had TACON of Customs and Border Patrol (CBP), 
USCG, DOD and international long range maritime patrol aircraft (MPA) 
for a total of 9,446 on-station hours, equating to an approximately 3.0 
air asset laydown on any given day within the JIATF-South JOA. Based on 
JIATF-South's analysis, a 14.0 surface asset laydown and a 5.0 air 
asset laydown are required to meet the National Interdiction goal of 40 
percent.
    In addition to the need for organic surface and air assets, 
additional challenges that restrict JIATF-South from realizing their 
full effectiveness include: policy limitations on the amount and degree 
of intelligence and other data that can be shared with partner agencies 
and nations; structural and technological hurdles in situational 
awareness, particularly Maritime Domain Awareness (MDA); and, an 
unequal level of ``end game'' capabilities present in the military and 
security forces in the AOR. Still, in 2009, JIATF-South was responsible 
for greater than 61 percent of all global transit zone seizures and 
disruptions, and 45 percent of all cocaine seizures in the world; 
additionally, they were responsible for the interdiction of 226 metric 
tons of cocaine, equivalent to a net $4.5 billion loss for the cartels 
and traffickers. While doing all this, JIATF-South set the benchmark 
for workplace quality in a recent organizational study.\8\ This kind of 
success demands total commitment from the entire organization--
inspirational leadership, complete integration, collaboration and 
partnership which exists at every level throughout the command. JIATF-
South is the standard for integrating and synchronizing ``whole of 
government'', ``whole of nation'', and ``whole of many nations'' 
solutions in confronting challenges to our national and shared regional 
security.
---------------------------------------------------------------------------
    \8\ 2009 Defense Equal Opportunity Management Institute (DEOMI) 
Organizational Climate Survey: JIATF-South surpassed the national 
average in every category (13 of 13).
---------------------------------------------------------------------------
Exercises
    Southern Command is committed to being a good partner--more to the 
point, we want to be the enduring partner of choice throughout the 
region. Day in and day out, year after year, we dedicate the majority 
of our resources toward strengthening the security capabilities of our 
partners, while working to encourage an environment of cooperation 
among all the Nations in the region. We conduct frequent and wide-
ranging multinational exercises and international exchanges with our 
partners, send thousands of partner military and civilian experts to 
various leading academic institutions, and provide other critical 
security assistance to our friends in the region. All these activities 
focus on strengthening regional bonds and enhancing collective 
capabilities we believe are integral to U.S. national security and 
stability in the Western Hemisphere as a whole. These exercises focus 
on confronting regional threats such as maritime insecurity, terrorism, 
illicit trafficking, and illegal migration, while also increasing 
partner nation ability to support peacekeeping, disaster relief and 
humanitarian assistance operations. The fruit of these labors can be 
seen in the overwhelmingly positive and unified response in Haiti.
Panamax, Unitas, and Fuerzas Commando
    Building confidence, capability, and cooperation within our AOR is 
essential to confronting today's security challenges. Our exercise 
Fuerzas Aliadas (Allied Forces) Panamax has matured over the last 7 
years and has become one of our flagship programs as well as the 
world's largest multinational and multi-agency training exercise. 
Panamax focuses on improving the hemisphere's ability to provide air, 
sea and land forces to assist the government of Panama in its excellent 
work of securing the Panama Canal and defending it from traditional and 
non-traditional threats. The exercise began in 2003 as a limited naval 
exercise with just three participating nations: Panama, Chile, and the 
United States. Due to past successes and efforts to expand 
partnerships, the exercise has grown to include a roster of more than 
20 nations, several U.S. Government departments and agencies, 
international organizations, non-governmental organizations, and 
multiple military branches of Service.
    Another large-scale exercise we support that emphasizes such 
cooperation and integration is Unitas, which trains participating 
forces to ensure maximum interoperability in future coalition 
operations. We hosted the 50th iteration and celebration in 
Jacksonville in May 2009. Seven thousand international sailors and 
mariners participated, including personnel from Canada and Germany, 
making it the longest running multinational maritime training exercise 
in the world.
    Shortly afterward, U.S. Southern Command hosted Counter Terrorism 
Exercise Fuerzas Commando in Brazil in 2009. This unique exercise 
consisting of 21 partner nations involved a competition in 
counterterrorism (CT) skills by the elite CT units in the region as 
well as bringing together civilian counterterrorism leadership from 
each of the countries to exchange ideas on training and complementary 
evolutions. Exercises like Panamax, Unitas, and Fuerzas Comando provide 
excellent forums for military-to-military relationship building and I 
thank Congress for providing the flexibility in my Combatant Commander 
Exercise Engagement funds that allow us to execute these kinds of 
exercises, as well as the funds designed to assist the participation of 
the developing countries within our AOR.
Humanitarian Assistance and Disaster Relief
    While our programs and initiatives focus primarily on security, 
increasingly our approach has broadened to support stability efforts as 
part of a larger national path to true partnering and engagement in the 
Western Hemisphere. A key element of these efforts is a variety of 
humanitarian goodwill activities that directly help those in need while 
providing needed training to our team. These engagement missions range 
from planned events such as the construction and/or refurbishment of 
wells, schools, community centers and medical facilities to rapid 
response missions in the wake of disasters.
    In 2009, as part of our annual operation Continuing Promise, USNS 
Comfort returned to our waters with the mission to bring short-term 
modern medical care, provide preventive medicine engagement, and 
conduct long-term medical training and education. With over 100,000 
patient encounters, 1,600 surgeries performed, 135,000 pharmacies 
dispensed, 13,000 animals treated and 37,000 students trained, we were 
able to engage on a scale previously unimaginable just 4 years ago. In 
2010, through Continuing Promise in combination with our Medical 
Readiness and Dental Readiness Training Exercises (MEDRETEs and 
DENTRETEs, respectively), we hope to surpass the `1 million patient 
treatments' mark since the inception of this program.
    The impact of Continuing Promise on the Host Nations has been 
greater than just numbers, however; the types of procedures performed 
and training conducted speak to the long-term positive effects on 
society and citizen security as our joint, combined and integrated 
crews focused on hysterectomies, thyroids, cataract removals, and 
education on disease prevention. The impact has been more than just the 
USNS Comfort, as well. On the engineering side for example, 
Construction Battalions (SeaBees) personnel repaired and improved five 
hospitals and clinics; provided refurbishments to seven schools; and 
renovated one baseball field. Additionally, in direct support of 
existing USAID projects, USNS Comfort personnel assisted in a 
laboratory completion in the Dominican Republic and assisted in dock 
repairs in Panama that buttressed a USAID eco-tourism project.
    Access to health care is a critical component of security and 
stability and the Comfort's mission is only one of many medical 
outreach efforts. As mentioned previously, U.S. Southern Command also 
sponsors MEDRETEs and DENTRETEs, consisting of military medical teams 
that treat over a quarter of a million patients annually in the region, 
focusing primarily on needy rural, isolated populations. These unique 
training exercises have had tremendous impact inland throughout the AOR 
over 75 separate locations--changing lives, providing alternative 
perceptions, and spreading goodwill through quality donated medical 
assistance. In 2009, 89 MEDRETEs were conducted in 18 countries, 
treating over 220,000 patients, performing almost 1,200 surgeries and 
inoculating and treating more than 31,000 animals. More than just a 
medical deployment, these humanitarian assistance missions have also 
provided dental care to approximately 50,000 patients, conducted 
medical training for almost 60,000 host nation students and medical 
providers, and sponsored over 40 construction and restoration projects 
at local schools and health care facilities. These visits also extended 
veterinarian services throughout their journeys, treating and 
vaccinating thousands of animals, which constitute the livelihood of 
many families.
    Throughout the year, U.S. Southern Command's Humanitarian 
Assistance Program augments traditional military-to-civilian engagement 
activities in order to increase our partner nations' ability to respond 
independently to natural and man-made disasters. New Horizons (Andean 
Ridge) and Beyond the Horizons (Caribbean and Central Americas) are a 
series of joint and combined humanitarian assistance exercises that 
U.S. Southern Command conducts with Latin American and Caribbean 
nations to provide readiness training for U.S. Engineer, Medical, and 
Combat Service Support units, but also provide great benefit to the 
host nation. Each exercise lasts several months and usually takes place 
in remote areas. We strive to combine these efforts with those of host 
nation doctors and civic personnel. Our programs help local populations 
who can benefit from completed projects such as schools, clinics, 
community centers, orphanages, emergency operations centers, disaster 
response warehouses, wells, and potable water systems. In 2009, we 
conducted these exercises in 6 countries in the AOR, supporting the 
renovation, construction, and repair on 12 schools, 2 community 
centers, 4 health clinics, 3 water wells, 2 sports complexes, 2 road 
repairs, and 1 pedestrian bridge, in addition to providing critical 
training programs for first responders, disaster managers, 
firefighters, and disaster warehouse managers.
    These examples of our consistent and enduring engagement throughout 
the region further advance our strategic messaging and help build 
confidence, capability, and goodwill in numerous countries in the 
region, bring renewed hope to those enduring hardship and challenging 
conditions, and serve as a visible and lasting counterweight to anti-
U.S. messaging. The cumulative effects of our humanitarian assistance 
missions have directly and indirectly touched and bettered the lives of 
several hundred thousand throughout our shared home, as well as laying 
the foundation for relationships and experience that pays large 
dividends when the United States responds to a humanitarian crisis in 
the region . . . as we did and are still doing in Haiti.
                   haiti--operation unified response
    On January 12, the nation of Haiti experienced a 7.0 magnitude 
earthquake with an epicenter located approximately 10 miles WSW of its 
capital city, Port au Prince. The size and destructive capability of 
this temblor was made even worse by several contributing factors, 
namely: the earthquake was relatively shallow, making the shockwaves 
much more pronounced; the capital city was overcrowded and over-
developed with construction standards inconsistently applied and 
loosely enforced; and, much of Haiti was still recovering from a string 
of three hurricanes and one tropical storm that struck during a 23-day 
period in the summer of 2008. It had been almost 150 years since an 
earthquake of this magnitude had struck Haiti and the devastation was 
tremendous. Latest U.N. estimates indicate over 222,517 people were 
killed, 300,000 injured, and 1.2 million displaced by the earthquake 
and the 59 subsequent aftershocks. Thirteen of the 15 government 
ministry buildings were completely destroyed. Between 40-50 percent of 
all buildings sustained significant damage in Port au Prince and 
surrounding villages, with some suffering as much as 80 percent damage 
as in Leogane. The airport control tower was rendered inoperable and 
more than half the seaport was left in ruins. Later that night, the 
President of Haiti declared a national state of emergency and in doing 
so, requested the United States assist in providing humanitarian 
assistance and disaster relief aid. The U.S. Ambassador to Haiti 
responded by issuing a disaster declaration, confirming the situation 
warranted U.S. Government assistance.
    The U.S. response was swift and comprised of Federal, State, 
military, and civilian agencies and units. There were several DOD and 
U.S. Government assets already in the vicinity of Haiti. Just before 
dawn the next morning, 13 January, the USCG Cutter Forward arrived off 
the coast of Haiti, established a liaison with the Haitian Coast Guard 
facility at Killick to conduct damage assessments, set up critical 
command and control procedures, and began providing humanitarian 
assistance, helping the most seriously wounded, and evacuating injured 
American citizens. Shortly thereafter, two USCG C-130 aircraft also 
arrived to support U.S. relief efforts.
    At 10:20 that morning, President Obama expressed ``the deep 
condolences and declared the unwavering support of the American 
people'' and ordered a ``swift, coordinated and aggressive effort to 
save lives'' with USAID designated as the Lead Federal Agency. During 
the course of the day, an Air Forces Southern (AFSOUTH) assessment team 
landed in Port au Prince to survey the airport while elements of the 
First Special Operations Wing arrived to reopen Port au Prince 
International Airport. A U.S. Navy P-3 aircraft from the Cooperative 
Security Location of Comalapa, El Salvador, conducted the first U.S. 
aerial reconnaissance of the area affected by the earthquake. DOD 
officials ordered the aircraft carrier USS Carl Vinson and USS Bataan 
Amphibious Readiness Group (ARG) with the 22nd Marine Expeditionary 
Unit (22nd MEU) embarked to make best speed to Haiti. The first U.S. 
urban search and rescue team, a 72-member unit from Fairfax County, VA, 
arrived in Haiti before even 24 hours had elapsed.
    Later that day U.S. Southern Command deployed two planeloads of 
personnel from our Standing Joint Forces Headquarters (SJFHQ) element, 
an organic, free-standing, deployable joint military headquarters, 
which included experts in the field of engineering, operational 
planners, communications specialists, medicine, interagency 
coordination, and a command and control group. They arrived and began 
coordinating with the U.S. Embassy in Port au Prince, as well as United 
Nations and other international personnel who were leading the initial 
recovery efforts. In addition, this core team began conducting 
assessments of damage and determining areas where the unique 
capabilities of the military could rapidly be brought to bear in 
support of the Government of Haiti.
    On 14 January, the size and scope of DOD's response grew as more 
forces flowed to the assistance and relief effort. Four more USCG 
Cutters and the USS Higgins arrived off shore. Throughout the day, P-3s 
continued aerial reconnaissance. An engineering assessment team arrived 
and determined the pier and wharf at Port au Prince port were 
inoperable for movement of bulk stores. Later that night, the Secretary 
of Defense ordered the USS Nassau ARG with the 24th Marine 
Expeditionary Unit (24th MEU) embarked, the XVIII Airborne Corps, 2nd 
Brigade Combat Team 82nd Airborne Division, and the hospital ship USNS 
Comfort to deploy to Haiti. As elements of these assets and others 
arrived over the course of the next 4 days, they formed the core of 
DOD's overall contribution to the massive humanitarian assistance 
mission--providing unique capabilities and an initial surge capacity in 
what became our primary lines of operation: security, critical 
engineering, medical and logistics. To organize the response of the 
military forces, we established Joint Task Force-Haiti (JTF-H) under 
the command of my Deputy, Lieutenant General Keen, who was already on 
the ground in Haiti for previously scheduled meetings.
    The mission of JTF-H was to conduct Foreign Humanitarian Assistance 
and Disaster Relief (FHA/DR) in support of U.S. Government efforts in 
Haiti, in order to mitigate near-term human suffering and accelerate 
recovery. We would not have been able to perform this mission to the 
level of success we have achieved if not for the more than 500 
augmentees we requested and received from every other geographic 
combatant command, U.S. Special Operations Command, U.S. Transportation 
Command, the Services, the Joint Staff and the Office of the Secretary 
of Defense. The General and Flag Officers, Action Officers and civilian 
personnel we received were immediately value-added and were 
instrumental in helping us develop well-coordinated planning efforts 
that translated into unity of effort on the ground. These personnel 
were also distributed to JTF-H in the form of planning staffs, the 
Joint Information Center (JIC), assessment teams, Joint Center 
Operational Analysis (JCOA) teams, and many other teams. The men and 
women of these contributing units have performed magnificently and been 
the very embodiment of teamwork and jointness across the Department of 
Defense. They have been outstanding representatives of your military 
with their professionalism, sense of urgency, focus and compassion. 
They continue to make all of us extremely proud.
Security
    Apart from isolated looting incidents, small-scale crime and 
demonstrations which parallel the security environment prior to the 
earthquake, the situation in Haiti remains relatively calm. U.S. 
military personnel are engaged primarily with safeguarding humanitarian 
supplies and distribution networks in support of MINUSTAH, who has 
maintained a peacekeeping presence since 2004, comprised of primarily 
Latin American military forces under Brazilian leadership. They have 
been working with the Haitian government to provide security and build 
the capacity of the Haitian National Police (HNP). Our JTF Commander 
and the Brazilian MINUSTAH Commander have had an outstanding personal 
and professional relationship. This has permeated all levels of 
interaction and engagement between the two forces, alleviating many of 
the potential frictions that could arise from two parallel military 
command structures operating in the same vicinity. A division of labor 
was established whereby JTF-H military forces would provide local 
security for humanitarian assistance missions, while MINUSTAH and the 
HNP maintained overall responsibility for security in the country. To 
underscore the scope of responsibility, on 19 January, the U.N. 
Security Council authorized the expansion of MINUSTAH's force size by 
2,000 military and 1,500 police personnel.
Critical Engineering
    Initial assessment teams determined that although there was no 
physical damage to the airport runway, taxiway and field operations, 
the field was unusable because of no power and structural damage to the 
control tower. Similarly, a team of U.S. Army Corps of Engineers 
assessed the entire sea port at Port au Prince was unusable for large 
vessels, with buildings, cranes and piers damaged, and debris and 
containers in the water. The roads remained largely impassable except 
by motorcycle and foot traffic. Communication services in Haiti were 
severely degraded, with the power grid, radio, landline, and cellular 
telephone services working sporadically in pockets.
    Assessments and emergency repairs continued throughout Haiti, but 
the primary focus of initial effort was the seaport in Port Au Prince. 
Haiti has other port facilities throughout the country, but due to 
proximity to the most affected areas and the depth of water, Port au 
Prince was critical to the relief efforts. The North pier was 
completely destroyed and the South pier, missing 700 feet, was 
determined to be non-operational. To address this requirement, U.S. 
Transportation Command (TRANSCOM) immediately deployed Joint Task 
Force-Port Opening (JTF-PO), a unit capable of port command and control 
and operations, followed closely by service contributions in the form 
of Joint Logistics Over the Shore (JLOTS). The JLOTS capability 
consisted of boats, literage, cranes and crane ships allowing for rapid 
cargo offload at other locations within the harbor, thus overcoming the 
logistical hurdles caused by damage. TRANSCOM also contracted with 
marine engineering experts from Crowley Marine to begin installation of 
a combination of barges and cranes that would eventually restore 
operational capability to the port. Utilizing this combination of JLOTS 
and commercial capability, the seaport capacity exceeded pre-quake 
offload capacity by 22 January and steadily increased as additional 
over-the-shore assets arrived.
    The current container per day capacity, based only on the in-place 
commercial capability, exceeds demand, thus enabling the GOH, the U.N. 
Office for the Coordination of Humanitarian Affairs (OCHA) and USAID to 
manage flow based on the requirements on the ground while also enabling 
Haitian commercial capabilities to resume. Overseas Humanitarian, 
Disaster and Civic Aid Appropriation (OHDACA) funded repairs to the 
South Pier are underway, as are contracted removal of a gantry crane 
and other debris which had fouled the port during the earthquake. In 
addition, U.S. military engineer teams continue to assess critical 
infrastructure, including port facilities and piers, airfields, roads, 
bridges, water wells, and electrical grids to determine how best to 
assist repair and restore these essential needs. Future U.S. Southern 
Command-sponsored MEDRETEs, New Horizons and Beyond the Horizons 
medical, construction and engineering exercises will provide a 
consistent and continuing assistance to the Haitian people as part of 
our larger Theater Security Cooperation program.
Medical
    The magnitude of the catastrophe necessitated the rapid deployment 
of military assets with sufficient medical capability to help alleviate 
suffering and save lives in the wake of the disaster. U.S. Southern 
Command responded by requesting the deployment of needed medical 
capability to Haiti. The USS Carl Vinson arrived on 15 January; the USS 
Bataan and JTF-B Forward Surgical Team (FST) on 18 January; the USNS 
Comfort on 20 January; and, the 24th Medical Group Expeditionary 
Medical Support (EMEDS) on 24 January. USNS Comfort arrived on station 
just 6 days after the initial mobilization order; she and her nearly 
1000 medical personnel--including medical and surgical teams from 
Project Hope, Operation Smile, Red Cross translators and support 
personnel, and medical schools around the U.S.--joined other DOD assets 
already on station to provide an immediate surge triage capability and 
1400-plus bed capacity to help cope with the enormity of the task. We 
are fortunate to have worked with many of these professionals 
previously; they had come together to provide humanitarian assistance 
and preventative medical treatment and training as part of our annual 
Continuing Promise which visited Haiti in the summer of 2009 and will 
return to the many countries of the AOR during the summer of 2010. As 
of 28 February, DOD personnel were directly responsible for performing 
964 total surgeries and treating 9,985 patients.
    The GOH Ministry of Health initial priorities outlined to JTF-H 
were medical supplies and emergency/trauma medical care. Numerous field 
hospitals were established by international partners including 
Argentina, Canada, China, Colombia, France, Israel, Jordan, Mexico, 
Russia, Spain, and Turkey, in addition to the six Haitian hospitals 
that remained operational and another nine that were partially 
operational. Combined afloat and ashore medical professionals provided 
medical evacuation and care to thousands of injured Haitians daily and 
conducted hundreds of complex surgical procedures as part of the 
concerted international effort. The Program on Essential Medicine and 
Supplies (PROMESS) warehouse continues to be a key institution in post-
earthquake Haiti. U.S. military medical logistics experts assisted in 
the initial setup and organization of PROMESS, which has now become a 
nerve center for distribution of supplies to healthcare facilities 
throughout Port au prince.
    The Department of Health and Human Services (HHS) supported USAID 
in its coordination of the U.S. medical and public health response and 
later activated the National Disaster Medical System (NDMS) to 
facilitate the transfer of non-U.S. citizens to medical facilities in 
the United States. As of 28 February, 189 Haitian citizens in need of 
higher levels of care have been transferred via U.S. military aircraft 
to healthcare facilities within the United States. Despite initial 
fears, there was no indication of widespread communicable diseases and 
no report to indicate an imminent epidemic. Public health experts from 
the HHS Centers for Disease Control and Prevention continue to monitor 
health conditions related to water safety, food supply, shelter 
conditions and other health threats in order to prioritize immediate 
interventions aimed at preventing major health-related crises. The 
capability of off-shore medical treatment by our surface assets has 
largely been assumed by the GoH, U.N. and nongovernmental organization 
expertise on the ground and we anticipate being able to release these 
assets in the near future.
Logistics
    Joint Task Force-Haiti, in support of the lead Federal agency, 
USAID, focused on expanding and securing aid distribution networks to 
speed delivery of relief supplies to the Haitian people. With the port 
damaged, the only means of initially flowing relief supplies in--and 
evacuating U.S. citizens and eligible family members, orphans, and 
medical patients out--was through the Port au Prince airport. Although 
the control tower was destroyed, the runway was intact. We therefore 
immediately requested specialized capabilities to rapidly open the 
airport to receive relief supplies, equipment, personnel, and forces. 
This included the combat controllers of the 720th Special Operations 
Group who were on the ground within 26 hours of the earthquake, 
providing critical Air Traffic Control capabilities as well as 
directing ramp operations. From zero inbound traffic hours after the 
quake, these battlefield Airmen had the airport back operating at 60 
flights per day within 72 hours, approximately triple the normal 
capacity before the earthquake. These specialists worked all-day, all-
night, and in all weather conditions . . . and they did all this 
without any radar. The special operators were followed closely by 
aviation elements from TRANSCOM as part of their JTF-PO deployment. To 
meet the tremendous demand, we also worked with the government of the 
Dominican Republic and opened additional air and sea ports of entry 
within their territory and contracted commercial carriers to move 
supplies and equipment overland from these airfields into Haiti.
    Working with Haitian aviation administration officials, JTF-H 
personnel established the Haiti Flight Operations Coordination Center 
which constructed a phone, then web-based, system for flight slot 
allocation scheduling. This greatly increased our scheduling efficiency 
and tracking effectiveness, quickly bringing the airfield to a 120-140 
flights per day average. The total number of flights eventually began a 
steady decline at the airport as demand decreased and efforts to reopen 
the seaport steadily progressed to eventually exceeding pre-quake 
delivery capacity. Today the majority of flights are being controlled 
by Haitian air traffic controllers. On 18 February, we safely and 
successfully evacuated the last of 16,412 U.S. citizens and eligible 
family members, perhaps the largest ever peacetime single evacuation of 
U.S. citizens. Beginning 19 February, commercial air service from 
American Airlines resumed with 3 daily flights between Haiti and the 
United States and twice a week Air France flights between Paris and 
Haiti. The return of service is a positive indicator of stability and 
signals to the international community that the situation is 
normalizing.
    In addition to airlift assistance, elements of JTF-Haiti continue 
delivering supplies, equipment, and personnel. As of 26 February, DOD 
has distributed 2,292,431 meals and 2,615,888 bottles of water, in 
addition to assisting in expanding and securing aid distribution 
networks to speed delivery of relief supplies to the Haitian people. 
The demand for JTF assistance in the distribution of supplies has 
dropped significantly as the capacity of the U.N., USAID, and 
nongovernmental organizations has increased. Our personnel continue to 
coordinate with USAID and OCHA to define areas in which U.S. military 
support is required.
    Under the leadership of the GoH, the WFP began a targeted and 
systematic food distribution effort using predetermined distribution 
locations. In consultation with the GoH and interested stakeholders, 16 
different sites around the capital were identified to serve as fixed 
distribution points, instead of attempting to deliver to different 
settlements throughout the city. U.S. military forces from the 82nd 
Airborne Division and the 22nd and 24th MEUs worked closely with 
MINUSTAH forces and Haitian National Police personnel to ensure 
locations, routes and distribution of aid was calm, orderly and without 
incident. In total, the program provided humanitarian assistance (in 
quantities of 15-day rations) to approximately 9,000 families per site, 
per day. The initial 14-day operation was a large success in 
establishing a sustainable and predictable food distribution program 
that reached over 2.9 million Haitians, exceeding their original goal 
by almost 1 million people. WFP's Food Surge 7-day Phase 1B concluded 
on 20 February with an estimated 19,000 families reached. The WFP 
estimates that the Port-au-Prince area consumes 16-20 metric tons of 
rice per month. Through the combined efforts of the U.N., USAID, eight 
nongovernmental organizations, and U.S. forces, the surge was able to 
provide approximately two-thirds of the rice needed in the Port-au-
Prince area for the past 30 days. The WFP began their current phase of 
operations on 6 March and has stated no U.S. military presence or other 
support was needed, as MINUSTAH and HNP personnel would be utilized 
exclusively.
Overall Assessment
    It has been 2 months since the earthquake and signs of recovery are 
emerging. The massive outpouring of international relief efforts, with 
strong support from Latin America and Caribbean countries, has not only 
sped up the recovery but also enabled the building of a better Haiti. 
The overall security situation remains stable and continues to improve, 
with only sporadic incidents of small-scale violence occurring. 
MINUSTAH forces, in conjunction with a revitalized Haitian National 
Police force, have a presence throughout the country with specific 
emphasis on historical hot spots like Cite Soleil and other areas in 
and around Port au Prince.
    Consistent and predictive aid distribution remains the single-most 
important factor in maintaining the relatively calm security situation. 
The immediate needs of food and water have been replaced by the more 
enduring stability requirements of adequate shelter and proper 
sanitation, particularly as the rainy season approaches. Infrastructure 
repairs have begun and are primarily being carried out by civilian 
engineering experts under contract, like the arrangement between 
Crowley Marine and the National Port Authority (APN). Beginning 25 
February, Crowley brought their own temporary barge, placed it in the 
inner harbor, and then the following day the M/V Crowley Shipper 
delivered 50 foot sections to be used as ramps. On 27 February, APN 
Blue--the Crowley temporary next to the north pier of Port au Prince 
achieved initial operational capability (IOC) for the first time since 
the earthquake. As a result of such relief efforts, airport and seaport 
commerce are returning to pre-earthquake or higher levels of business. 
From all sources, there are no indications an external mass migration 
is imminent.
    Our original mission assigned to us was conduct Foreign 
Humanitarian Assistance and Disaster Relief (FHA/DR) in support of U.S. 
Government efforts in Haiti, in order to mitigate near term human 
suffering and accelerate recovery. As we near achievement of that 
mission, I am taking a broader look at how we will support the larger 
U.S. Government and U.N. through more traditional security cooperation 
means to sustain security and stability. Although we have made great 
strides, coordinated planning and on-going communications toward unity 
of effort remains a challenging task; these are critical enablers to 
ensuring the conditions are right for our transition. The Armed Forces 
will continue to execute the mission in support of USAID and the 
international community in providing humanitarian aid and disaster 
relief. We do not intend to leave a large military footprint, but we 
will continue to plan for and remain prepared to respond with a range 
of options to contingency situations, such as another natural disaster, 
which may necessitate a return to Haiti in the future.
    When the appropriate conditions are met, we will effectively 
transition our relief efforts to other U.S. Government agencies, the 
U.N., and nongovernmental organizations, thereby demonstrating the 
ability to conduct an effective transfer of responsibility to civilian 
authority. The culture of cooperation, openness and transparency we 
have developed; the relationships we have built; and, the emphasis U.S. 
Southern Command has placed on partnering in the past few years have 
all paid a particularly high return on investment in Operation Unified 
Response, the largest humanitarian assistance and disaster relief 
mission ever conducted in this region. Haiti may serve as a rare 
unifying event, not only for the agencies and departments of the U.S. 
Government, but also for the Nations of this region--at the end of the 
day, we are all here for one reason: the people of Haiti.
    Finally, I offer one personal observation: I have now made five 
different trips to Haiti--one before the earthquake and four since--and 
on each occasion, I continue to be amazed by the strength, courage and 
resiliency of the Haitian people. Their collective character is evident 
throughout this tragedy. This is a powerful display of stoic 
determination--accepting and enduring the reality of the present, while 
foreseeing, believing in and taking the first basic steps to ensure, 
the promise of a better future. The citizens of Haiti have shown 
themselves to be a proud, strong, and persevering people.
                              requirements
    Illegal trafficking, associated criminal activity, gangs, terrorist 
financing and recruitment, natural disasters--none of these recognize 
national sovereignty or stop at a nation's border. These challenges to 
collective security, stability and prosperity cannot be overcome by any 
one nation alone; they require transnational solutions. They cannot be 
overcome by the military alone; they require a truly integrated 
interagency, non-governmental organization and even private sector 
approach.
    To that end, U.S. Southern Command works not only to build partner 
capability and capacity, but also to build strategically important 
cooperative security relationships throughout the region. Among the 
military and security forces in the region, we focus on helping to 
build greater capability and capacity, as well as striving to improve 
our collective ability to plan, direct, and operate. Within the 
interagency community, we endeavor to enhance cooperation while 
advocating for our partner's greater capability and capacity at every 
opportunity. Finally, with the private sector, business community, and 
non-governmental organizations, we seek to leverage their skills and 
expertise to greatly improve our combined impact and effect.
Supporting Interagency Partners
    While remaining fully ready for combat operations, diplomacy 
dominates so much of what we do, and development is a mandatory 
requisite feature of true, long-term stability and prosperity. We 
support our interagency partners who have the lead in addressing the 
significant illicit trafficking and crime challenges in the region. To 
that end, we support initiatives to increase the pool of resources 
available to our partner agencies who are the leads and experts in 
these arenas. As we engage and support the lead efforts of the State 
Department, USAID, DHS, Justice, and others in the field, we also lend 
our advocacy for increased resources for these agencies to more 
effectively deal with the endemic problems in the region, improve the 
capabilities of partner nations' police and law enforcement agencies, 
and strengthen judicial systems and institutions.
Intelligence, Surveillance, and Reconnaissance
    U.S. Southern Command has a continuous requirement for persistent 
intelligence, surveillance, and reconnaissance (ISR), defined as having 
the right asset able to observe and understand what is going on, 
especially in denied areas. Whether conducting CN/CT operations or 
large-scale foreign humanitarian assistance and disaster relief 
missions, we need fast, flexible and properly vetted information that 
then becomes actionable intelligence and we pinpoint the locations 
where our forces and resources can do the most good--with sufficient 
time to get them there. However, this requires improved imagery 
intelligence, wide area coverage, sensor integration, signals 
intelligence, moving target indicators, layered ISR architecture and 
management tools, biometrics, counterintelligence and human collectors. 
The combined products create a common operating picture that can and 
needs to be shared with our partners and allies whenever possible. This 
requires, then, all-source synthesis-node sensor resource management. 
We continue to work with the Defense Advanced Research Projects Agency 
and industry for innovative solutions to address additional ISR sources 
to gain improved situational awareness.
    Throughout Operation Unified Response, ISR assets have been an 
invaluable resource. UAVs and other assets have provided outstanding 
situational awareness and early warning indicators in areas of 
potential violence, determining status of critical infrastructure, 
assessing gathering crowds, analyzing internally displaced person 
camps, determining traffic ability of lines of communication, and 
security at WFP distribution points. ISR assets have had a positive 
impact on decisionmaking by enabling the efficient use of scarce 
resources.
    In particular, the information provided has assisted in placing 
only the necessary number of USAID and nongovernmental organization 
workers at distribution sites, scheduling the movement of supplies and 
personnel along the most efficient routes, and when and where to deploy 
security forces.
    We conduct varied and diverse detection and monitoring operations 
that require a high state of readiness and a joint effort to link 
multi-intelligence collectors targeted against strategic, operational 
and tactical requirements. Expanding the melding of organic and 
national collection resources will improve operations and fulfill the 
ongoing requirement for continuous and persistent intelligence, 
surveillance and reconnaissance (ISR). This effort requires the 
appropriate awareness systems, namely: unmanned aerial craft with rapid 
response and good transit and loiter capability; remote light detection 
and ranging for foliage penetration; high-speed, unmanned surface 
vessels for detection and identification to support maritime domain 
awareness; commercial satellite sensors with the ability to detect `go-
fast' boats; next generation `over the horizon' radars; non-electro-
optical imagery that enables change detection; and, novel applications 
of existing technology to facilitate cross-domain awareness.
Continued Commitment to Colombia
    One of the most dramatic examples of U.S. Southern Command working 
to build partner nation capability and capacity in our AOR can be found 
in our enduring engagement through providing training, logistical, and 
technical support to the military and security forces of Colombia. 
Colombia is a strategic ally, an important friend, and a crucial anchor 
for security and stability in the region. Unfortunately, they are also 
the world's predominant source of cocaine and home to the narco-
terrorist group the FARC.
    Over the last 8 years, the Colombians have done a magnificent job 
of reclaiming their nation from both right-wing and left-wing illegal 
armed groups. Through its own military and whole-of-government efforts, 
and a steady stream of resources and support from the U.S., Colombia 
has made great strides towards building security and stability. Today, 
the approval rating of the democratically elected government led by 
President Uribe is just under 70 percent. The approval rating of the 
FARC, on the other hand, is less than 2 percent. Despite this dwindling 
public support, the FARC still maintains approximately 8,500 fighters 
in the field, down from approximately 18,000. They remain kidnappers, 
torturers, murderers, and drug dealers. This is essentially their 
`business model' and they are unfortunately and definitively still in 
business.
    The government's and military's efforts against the FARC have also 
significantly impacted drug cartels, as Colombia has extradited more 
than 900 drug traffickers to the United States. Although cocaine 
production is still a critical concern, interdiction and seizures of 
cocaine headed to the United States and to other destinations in the 
region and abroad, have more than doubled in the last 10 years. This 
increase indicates improved state control, successful government 
strategies, and overall better interagency and international 
coordination and collaboration. These efforts have helped contribute to 
the fastest sustained economic growth in a decade--greater than 5 
percent annually from 2006-2008, providing a sense of positive momentum 
for the entire country.
    We must now capitalize on the successes achieved thus far to ensure 
Colombia remains a long-term strategic regional and global partner. 
Continued U.S. commitment and support for the Colombian Armed Forces' 
campaign to defeat the FARC, as well as for Colombian interagency 
efforts to bring governance and economic opportunity to areas 
recaptured from the FARC, is essential. This support can come in many 
forms but should entail continued training and development of key 
capabilities we are seeing showcased in their cooperation with Mexico 
and deployment to Haiti, and human rights programs to continue the 
significant improvements in human rights by the Armed Forces in recent 
years. With U.S. help, a stable and secure Colombia is achievable in 
the near term as they emerge as a strategic partner, positive exporter 
of security and democratic model for the region, directly increasing 
the security of all citizens of the Americas.
Countering Illicit Trafficking
    The November 2009 Central American and Caribbean Chiefs of Mission 
Conference held at our headquarters in Miami highlighted the need for a 
regional, synergistic whole-of-many-governments approach to counter 
illicit trafficking. Just as the successes of the Governments of Peru 
and Bolivia in reducing coca cultivation in their countries during the 
1980s and early 1990s caused a shift in cultivation and production to 
Colombia, we are concerned that current eradication and interdiction 
successes in Colombia are causing a corresponding increase in Peruvian 
and Bolivian cultivation. For example, according to the most recent 
crop estimate from the U.S. Government, potential cocaine production in 
Columbia dropped 39 percent between 2007 and 2008. The potential 
production of pure cocaine fell from an estimated 485 metric tons in 
2007 to 295 metric tons in 2008. Further, the area under cultivation 
dropped 29 percent during the same timeframe while Peruvian cultivation 
increased by 14 percent and Bolivian cultivation by 8 percent in the 
same time period. Furthermore, from 2000-2008, Peru's total area under 
illicit coca cultivation increased by 30 percent, while Bolivia's has 
nearly doubled.
    Similarly, as President Calderon takes the fight to illicit 
trafficking organizations in Mexico, Central America is experiencing an 
increase in activity as traffickers are squeezed between Colombia and 
Mexico. This movement is exacerbated by successes of aerial and 
maritime interdiction efforts, which are pushing traffickers to favor 
land routes through the Central American isthmus. As traffickers and 
their support networks relocate to Central America, they also bring 
with them the associated ills of government corruption, crime, and gang 
activity which undermine good governance and threaten public security.
    As a result of the discussions during the Chiefs of Mission 
Conference, we are working with the Intelligence Community to produce 
an analysis of the larger, regional and global illicit trafficking 
enterprise, looking at networks, routes and organizations throughout 
the entire region, as opposed to just one or two countries. The 
construct we are using encompasses the production, acquisition, storage 
and/or transfer of illicit drugs; illegal arms trafficking; money 
laundering; human trafficking and smuggling of special interest aliens; 
WMD and WMD precursors; and, all of their supporting activities.
    This analysis will help the Department of State and the interagency 
community to coordinate an integrated approach to counter illicit 
trafficking and associated activities in the Western Hemisphere. The 
Department of State already has several excellent sub-regional 
strategies to address this challenge such as Beyond Merida, the Central 
American Regional Security Initiative, the Caribbean Basin Security 
Initiative, and the Colombia Strategic Development Initiative. U.S. 
Southern Command performs Theater Security Cooperation activities that 
are in support of Merida Initiative and Caribbean security initiative 
efforts, and help to build partner nation military capability and 
capacity in Central America and the Caribbean. Lessons learned from 
U.S. support to Colombia show the importance of an integrated and 
unified overarching strategy to address insecurity and instability 
caused by the combined ills of illicit trafficking.
                               conclusion
    During my 9 months of leading the outstanding men and women of U.S. 
Southern Command, I have been fortunate to work closely with our 
civilian and military leaders, as well as with our partners to the 
south, to improve the security and stability of our region. Together we 
are continuing the great work of those who have gone before us and 
building upon the foundation of their efforts in seeking multinational, 
``whole of government'' and in some cases ``whole of society'' 
approaches to create a secure and stable environment that set the 
conditions for long-term prosperity for the Americas.
    This region plays a critical role in the security and prosperity of 
the United States. Despite some challenges, I believe that through the 
sharing of ideas, economic interdependence, cultural understanding and 
harnessing innovation, we can strengthen existing ties of friendship to 
build an integrated approach to partnering that will ensure U.S. 
Southern Command is a welcomed military partner of choice in this 
hemisphere. There are many opportunities ahead to improve hemispheric 
security cooperation. We will continue to pursue multinational, multi-
agency and public-private partnerships to confront the challenges and 
embrace the opportunities of the Americas. We will continue to dedicate 
the majority of our resources to building and complementing the 
security capabilities of our partners while encouraging an environment 
of cooperation among the Nations in the region. We will continue to 
defend the United States, foster regional security, and be an enduring 
partner to help enhance regional hemispheric security and stability. 
The mutual benefits of these partnering efforts are profound.
    Ultimately, our success in pursuit of these objectives depends upon 
our military and civilian personnel and their families, as well as 
those men and women serving with us from our partner agencies. I thank 
you again for your continued interest in, dedication to and support of 
the men and women of U.S. Southern Command and their families--they are 
volunteers and patriots, and I am humbled to lead them and serve with 
them every day.

    Chairman Levin. Thank you very much, General Fraser.
    We welcome, also, your wife here, but she must be a little 
bit jealous when she hears General Renuart's wife is going to 
have her hubby back full-time.
    Let me ask you some questions, General Renuart. First, one 
of the major objectives in the creation of NORTHCOM was to 
create a dedicated command to support civil authorities. DOD is 
now standing up a subunified Cyber Command (CYBERCOM), under 
U.S. Strategic Command (STRATCOM), that--it appears that that 
command is going to provide direct support to civil authorities 
in cyberspace, both in defense of the government and in defense 
of commercial networks. Is there a role for NORTHCOM in 
cybersecurity? If so, what is it?
    General Renuart. Mr. Chairman, there absolutely is a role, 
and I think we have developed a very strong relationship with 
STRATCOM. As CYBERCOM fully stands up, we'll continue that 
relationship with them.
    Our role is, if you will, a consumer of the cybersecurity 
that STRATCOM and CYBERCOM have been designed to provide. We 
have a unique circumstance, in that many of our mission 
partners operate outside of the traditional so-called dot-mil 
[.mil] environment. So our partnership with DHS, as they 
provide protection to the dot-gov [.gov] domains, and then with 
the commercial private-sector partners, like Google and 
Microsoft and others, we are building a close relationship. We 
then determine the requirements that STRATCOM must meet in 
order to provide that security.
    Chairman Levin. Thank you.
    I forgot to mention, let's have an 8-minute first round of 
questioning.
    General Renuart, the administration has a policy of 
requiring operationally-realistic testing of missile defense 
systems, and there is a new Missile Defense Master Test Plan, 
that's designed to collect the data necessary to provide 
confidence in the operational effectiveness of all of our 
missile defense systems, including the GMD system. First, do 
you agree it is necessary to have operationally realistic 
testing? Do you agree with the Missile Defense Agency (MDA), 
that the new test plan will provide operationally realistic 
data and will provide the basis for having confidence in the 
capability and the reliability of the GMD system over its 
service life?
    General Renuart. Mr. Chairman, I do support that, and I do 
believe it will give us good data to support the systems, and 
we work closely with the MDA on this.
    Chairman Levin. Last year, Secretary Gates decided to cap 
deployment of the GMD system in Alaska and California at 30 
operational ground-based interceptors (GBIs), and to make 
significant improvements in their reliability. This committee 
and Congress approved that plan. Do you agree with Defense 
Secretary Gates that deploying 30 operationally effective and 
reliable GBIs would provide an effective defense against the 
Intercontinental Ballistic Missile threat from North Korea and 
Iran?
    General Renuart. Mr. Chairman I do believe it provides us 
that capability. I'm confident in the capabilities of the 
systems. I think the phased adaptive approach identified by the 
Secretary will allow us to grow a broader system of capability 
against potential growing Iranian threats.
    Chairman Levin. As you just mentioned, the President 
announced a new missile defense plan for Europe that had been 
unanimously recommended by Secretary Gates and the Joint Chiefs 
of Staff. That plan includes a number of elements that are 
intended to enhance defense of the United States against 
potential future long-range Iranian missiles: a forward-
deployed radar in southeastern Europe, and development of an 
improved version of the Standard Missile-3 Block II for 
deployment in Europe. Do you agree that this phased adaptive 
approach that's being planned for Europe will improve our 
capability to defend the homeland against potential future 
long-range missiles from Iran?
    General Renuart. Mr. Chairman, I absolutely do agree. I 
think there is, and we'll continue to see the testing and 
development of the systems as they mature, but initial 
information looks very promising.
    Chairman Levin. All right. Finally, on this subject, there 
was a recent GMD flight test--it was at the end of January, I 
believe--where the system failed to achieve an intercept. Can 
you tell us why it failed?
    General Renuart. Mr. Chairman, I'm not a true expert at 
this, but my understanding, as the operational commander, is 
that the integration between the sea-based X-band radar and the 
missile--the test intercept vehicle itself--had a software 
glitch in there which prevent information from reaching the 
interceptor in an important phase of that flight test. I know 
that General O'Reilly is working very carefully to correct the 
software issues there, and we look forward to the FTG-07, which 
will be the next test, coming up in the not too distant future.
    Chairman Levin. We understand there were two issues there, 
and if you would submit, for the record, whether that's 
accurate; and if so, what the second problem was.
    General Renuart. Chairman, if I could, can I take that 
for----
    Chairman Levin. Yes, for the record.
    General Renuart. Please, and we'll get that specific detail 
back to the committee.
    [The information referred to follows:]

    The recent Ground-Based Midcourse Defense flight test number -06, 
conducted on 31 January 2010, did not result in an intercept. There 
were two issues and early indications are that either issue could have 
led to a failed intercept. The two issues appear unrelated at this 
time.
    The first issue observed in the test was the Sea-based X-Band Radar 
stopped operating prior to providing adequate information needed by the 
interceptor in an important phase of the flight. The second issue 
observed in the test was the interceptor did not successfully complete 
the final phases of flight required for an intercept.
    The Missile Defense Agency has an extensive investigation ongoing 
to determine the causes of the failure to intercept.

    Chairman Levin. That would be fine.
    General Fraser, last month the Colombian Constitutional 
Court ruled that President Uribe would not be permitted to run 
for a third term. Has there been a fallout from that? Is there 
enough time to have an appropriate election? It's a fairly 
short period, apparently, before that election takes place. Are 
things calm? Are there any concerns?
    General Fraser. Chairman Levin, I do not have any concerns. 
I think there is adequate time to hold the election. The 
election process has been going on while their Supreme Court 
was deliberating on its decision, so I think there's adequate 
time. There's a number of candidates who are actively running, 
and so, I'm confident that Colombia will be able to run a fair 
and equitable election.
    Chairman Levin. General Fraser, the--relative to Cuba--as I 
understand it, we have almost no military contact with Cuba. 
The only ongoing contact is apparently this low-level, kind of, 
monthly fence talks, I guess they're called. But, there's also 
a case-by-case cooperation in the antidrug efforts, 
particularly at sea. Apparently, there's notice if there's fast 
boats going through Cuban waters. I'm wondering, assuming that 
there is no prohibition in law--and we don't think Helms-Burton 
does have a prohibition of that kind of contact with the 
Cubans--is there any value in increased U.S. military contact 
with the Cuban military?
    General Fraser. Chairman Levin, there is, as you mentioned, 
tactical-level interaction--fence-line talks--and the U.S. 
Coast Guard has a liaison in the U.S.-interest mission there in 
Havana. Our understanding--and I'll go back and check this--is 
that military-to-military relations are prohibited until the 
Government of Cuba elects a democratically-elected government, 
and does not include either Fidel Castro or President Raul 
Castro in as part of that government. So that's our 
understanding of it, from an engagement with militaries, we 
look to engage with every military organization within the 
region. We continue to do that with all our partners. So if the 
opportunity is presented for us to do that, we would welcome 
that opportunity.
    Chairman Levin. All right. Well, doublecheck Helms-Burton, 
if you would, because----
    General Fraser. Yes, sir.
    Chairman Levin.--we don't read it that way. We welcome your 
testimony.
    [The information referred to follows:]

    Senator, our understanding is Helms-Burton does not prohibit 
military-to-military contact with the Government of Cuba. Certainly, 
placing a U.S. servicemember at the Interest Section in Havana, could 
conceivably offer an opportunity to build rapport and trust. However, 
current Department of State and U.S. Government policy is that such 
military-to-military meetings and contact with the Government of Cuba 
are restricted as part of a U.S. Government effort to ensure 
consistency of message and to deny the Cuban regime the opportunity to 
mischaracterize contacts between U.S. and Cuban officials.

    General Fraser, there's a--in terms of the situation in 
Haiti, I believe you--you've mentioned that there's some 
redeployments now that are going on, and that will continue, 
but there's some enablers that SOUTHCOM apparently will leave, 
some capabilities that you're going to leave in Haiti. Can you 
just describe that briefly?
    General Fraser. Mr. Chairman, we're still early in the 
discussion and planning of that. It's an evolving situation. 
The focus right now on the ground is helping make sure shelter, 
sanitation, and security needs are met, especially for the 
numbers of displaced people. That is the evolving situation 
right now. So, we're looking to support USAID, the other 
international efforts, with the right types of capability. So, 
I don't have good definition for you right now of what that 
will be.
    Chairman Levin. All right.
    Let me ask both of you, on a subject which we've spent some 
time on, and obviously will be considering, and that's the 
possible repeal of ``Don't Ask, Don't Tell.'' Let me just ask 
you your personal views, essentially.
    General Renuart, let me start with you. What are your 
personal views as to whether we should continue that policy or 
whether we ought to repeal it?
    General Renuart. Mr. Chairman, I think--my personal view, I 
think, probably is very close to what you heard with General 
Petraeus, his testimony a short time ago. I believe that we 
have all served, through the course of our tenure, with 
individuals who were gay or lesbian, and who were not allowed 
to talk about that. I think those individuals served honorably. 
I think the importance of maintaining the standards of 
discipline is critical to our military. But, I believe that we 
should not hold, if you will, those individuals ``hostage'' 
because of the policy we have.
    So, I think it's appropriate that we conduct the detailed 
study the Secretary has asked us to conduct and--so that we 
understand the implications, and then we move forward.
    Chairman Levin. Okay.
    General Fraser, do you have a personal view?
    General Fraser. Chairman Levin, my views very much 
correspond to that of General Renuart, and that is that I think 
it's really appropriate that we do a very deliberate 
understanding of what the President's intent is in relation to 
``Don't Ask, Don't Tell.'' So I support what General Renuart 
said.
    Chairman Levin. Thank you very much.
    Senator McCain.
    Senator McCain. Well, thank you Mr. Chairman.
    Obviously all of us have served with people who are of that 
sexual orientation. They have served honorably. That's not the 
question. It's the question, which I think you have answered, 
and I guess I'd ask you to repeat, is that we have to 
understand the implications of repeal before we make a decision 
on repeal. Would that be an accurate reflection of your views?
    General Renuart. Senator McCain, it would be.
    Senator McCain. General Fraser?
    General Fraser. Senator McCain, I agree.
    Senator McCain. So, a moratorium would obviously be a de 
facto repeal of the policy before we have understood the 
implications for battle effectiveness on the men and women in 
the military. So, I'd--I appreciate your views, and I share 
them. For the Congress of the United States to take action 
before we have had a thorough review of the policy, not of the 
way to repeal the policy would be the best way to proceed, 
would you agree?
    General Renuart. Senator McCain, just to be clear, I guess. 
Is it my view that we should have a moratorium?
    Senator McCain. Yes.
    General Renuart. I think we ought not to have a moratorium 
while we conduct this. I think, as the Secretary and the 
Chairman and the Service Chiefs have all indicated, that would 
cause, I think, some confusion in that process. So I think, 
better to let the study go, and then make a decision.
    Senator McCain. Thank you very much. Unfortunately, there 
are efforts to impose a moratorium, which would be tantamount 
to repeal. But, I'd like to move on.
    General Renuart, could you describe to me, in--as short as 
possible, but terms that perhaps Americans can understand, how 
dangerous the situation is on our southern border vis-a-vis the 
drug cartels, the existential threat to the Government of 
Mexico--I'm asking you to make it short, but speak to the 
problems of corruption, and the possibility that that violence 
can spill over onto our side of the border. This is an issue 
that I--I don't know why we haven't--Americans haven't had the 
visibility of how great a threat and danger this is to the very 
existence of the Government of Mexico, and the effect that it's 
having on public opinion in Mexico.
    General Renuart. Senator McCain, thanks for that question. 
This is, as you mentioned, really the principal struggle that 
the Government of Mexico is undergoing. President Calderon has 
courageously put his military in the field to take this on, 
where local law enforcement officials have been corrupted or 
intimidated. That's not the traditional role of the Mexican 
military, and it does put some strain on them, but we are 
working very closely to share the lessons we've learned, in 
places like Afghanistan and others, to do that.
    The violence in places like Juarez has been substantial. I 
think we are close to 7,000 murders that occurred in 2009.
    Senator McCain. At 7,000 murders.
    General Renuart.--7,000, and I must say, drug-related 
murders that generally were cartel-on-cartel, but that spills 
over into the population. The Mexicans----
    Senator McCain. Murders of individuals who are part of the 
Mexican drug enforcement and military and others; they've 
singled them out for assassination, including those that have 
been trained by the United States.
    Is that true?
    General Renuart. Senator, I'm not sure about the last 
statement, ``including those trained.'' I know we've had some 
people that we have trained in the past that were involved and 
corrupted--
    Senator McCain. No, I meant who were assassinated.
    General Renuart. Senator, I believe there are a small 
number that were U.S.-trained Mexicans. But, certainly your 
other statement is absolutely correct. These are individuals 
who are competing for, if you will, market share in the drug 
business. Cartels are very aggressively taking each other on 
to, if you will, build the distribution process, the market 
share.
    So, that continues, and we are working aggressively with 
our Mexican partners to help build an interagency capacity for 
Mexico to deal with this. I'm cautious, when we talk about the 
level of threat to the Mexican Government, because I think 
President Calderon is strong, I think he enjoys support, and I 
think he's aggressively working this, and growing an 
interagency team that can be effective.
    Senator McCain. I don't mean to interrupt you, but isn't it 
also true, though, that Mexican public opinion, because of this 
level of violence, is beginning to turn, frankly, in the wrong 
direction? Is that----
    General Renuart. Yes.
    Senator McCain. Do you have----
    General Renuart. We have----
    Senator McCain.--indications of that?
    General Renuart.--seen that the public opinion polls have 
come down, on this regard. Although, I will say, in recent--in 
just the recent month, I've seen some numbers where the Mexican 
people have continued to express their support in Calderon's 
efforts. So, it's a little bit of a balance in that regard.
    Finally, Senator, just very quickly with respect to the 
border area, here----
    Senator McCain. Would you also mention the problem of 
corruption?
    General Renuart. Absolutely. Across--especially in the 
local police areas, the local governing officials, that element 
of corruption has become significant. It is the means by which 
the cartels, if you will, create their influence on government, 
essentially to leave them alone, to not interfere with the 
drug-trade business. There has been a substantial effort placed 
by the Mexican government to replace corrupt officials in the 
towns and communities; but it takes time to build those 
credible leaders back up, and that's still a work in progress.
    Senator McCain. Would you, for the record, provide the 
committee with recommendations of what more you think we need 
to do, including the success or failures of Plan Merida? I'd 
appreciate that.
    [The information referred to follows:]

    Senator, I believe the way ahead for Plan Merida is to focus a 
greater part of our effort on Central America via the Central American 
Region Security Initiative in an overall strategic framework to enhance 
our Central American partners' territorial control capabilities in the 
maritime, land, and air corridors. The end state would be to maximize 
our effectiveness to fight criminal organizations by assisting our 
regional partners in the disruption of illicit activities such as drug, 
weapons, and human trafficking that adversely impact the sovereign 
control of their territories and threaten the southern approaches to 
the United States. We have been successful by accelerating the 
expansion of the maritime interdiction capabilities of five of our 
Central American partners.

    Senator McCain. I understand we're spending about $400 
million in a year cooperating with the Mexican Government on 
this issue.
    General Renuart. Yes, sir. That's correct. Senator McCain, 
if I could, for the record, give you a much more detailed look, 
both in that area and our cooperation with law enforcement 
along the border, because I think there's a good news story 
there.
    [The information referred to follows:]

    Through the Merida Initiative, $415.5 million in Foreign Military 
Financing funds was appropriated in fiscal years 2008 and 2009 for the 
purchase of the following military equipment for Mexico:

        <bullet> $200 million for four CASA maritime surveillance 
        aircraft
        <bullet> $110 million for three UH-60M helicopters
        <bullet> $105 million for eight Bell 412 helicopters, seven of 
        which are funded.
        <bullet> Congress is withholding 15 percent of the fiscal year 
        2009 Omnibus appropriation ($5.85 million) due to their 
        concerns over the Mexican military's human rights record
        <bullet> $500,000 for 13 handheld ion scanners

    These deliverables will provide the Mexican military with urgently-
needed capabilities in the areas of tactical rapid troop transport, 
overwater surveillance, and drug detection to support Mexican law 
enforcement. I believe they will be valuable additions to the Mexican 
military's capabilities that will immediately be used to help tackle 
illicit narcotics trafficking operations. As long as the Mexican 
military has a leading role in Mexico's national campaign to disrupt 
the capacity of organized crime to operate and manage their land and 
maritime borders, my belief is that they will continue to need these 
kinds of assets. This is a national-level campaign that requires 
national-level capabilities.
    The Mexican Government has embarked on a long-term effort to 
rebuild their security institutions. Training is a major component of 
this initiative and focused equipment is necessary to building security 
capacity. Along these lines, they will need a large infusion of 
additional support to build the kinds of capacities needed to defend 
Mexican territorial sovereignty and counter transnational threats like 
illicit trafficking. Their most urgent needs are troop and equipment 
airlift; secure communications; information collection, analysis, 
sharing, and fusion with U.S. and Mexican law enforcement communities; 
riverine and littoral operations; border surveillance; and military 
justice reform (for dealing with an internal security situation for 
which they are not designed to handle). The Merida Initiative thus far 
has been an excellent injection of needed support under a shared U.S.-
Mexican agreement. But, it's not the final solution to Mexico's 
security requirements.
    The Mexican military is a transitional security force, working now 
in the cities and communities to make gains in combating the cartels 
until the Mexican law enforcement agencies are retooled and ready to 
rejoin the fight. When that happens, the deliverables provided by the 
Merida Initiative and related support should well position the Mexican 
military to focus their emphasis on defending Mexico's territorial 
sovereignty, their air and maritime approaches, having the all-domain 
awareness to detect threats at a distance and interdict them before 
they reach Mexican land. This creates a layered defense for the United 
States and enables a more effective security partnership. For that 
mission, assets such as those from the Merida Initiative will assist in 
developing national-level capacities for all domain awareness, command 
and control, interdiction of threats such as weapons of mass 
destruction and other illicit materials.
    [Deleted.]

    Senator McCain. Thank you very much.
    General Fraser, could I turn to Cuba, a second? They, just 
in the last week or so, a young man named Orlando Zapata died 
on a hunger strike, as a political prisoner in Cuba. After a 
brief experimentation with a small amount of free enterprise, 
the Cuban Government has cracked down. They have even been more 
brutal in their repression of human rights, and their prisons 
have a large number of political dissidents who have simply 
sought to exercise their rights as human beings. Is that true?
    General Fraser. Yes, Senator, that's true.
    Senator McCain. Isn't there also evidence that, from time 
to time, there has been the Cuban government and military 
facilitating the drug trade?
    General Fraser. Senator, I can't confirm that. I'll have to 
take that for the record.
    [The information referred to follows:]

    I have no evidence that the Cuban Government or military facilitate 
the drug trade.

    Senator McCain. Has there been any cooperation that you 
know of on the part of the Cuban government in trying to 
restrain the drug trade?
    General Fraser. Senator, we have had cooperation, as I 
mentioned--and I'm not the expert on this, because it's really 
within the U.S. Coast Guard--as we look at migration as well as 
the drug trade there within the straits around Cuba.
    Senator McCain. Is there any doubt that the--that Raul 
Castro and Fidel have been more repressive in the last year or 
2 than they were in the past?
    General Fraser. Senator, I think they have continued to 
remain fairly strict on the populace, but I can't quantify 
whether that has been more restrictive over the last couple of 
years than before. So, I need to also get back to you on that.
    [The information referred to follows:]

    Since Raul Castro replaced his brother Fidel Castro as chief of 
state, the government's human rights record has been essentially 
unchanged. When comparing the last two to three years of each Castro's 
rule, the frequency of government crackdowns under Fidel (2003 and 
2005) are consistent with Raul's directed crackdowns (2006, 2008, 
2010), averaging one government crackdown on dissent every 2 years. 
More than 200 political prisoners are currently detained in Cuba; most 
began their sentences under Fidel's reign. For example, in the ``Black 
Spring'' of March 2003, the government arrested 75 human rights 
activists on various charges, ranging from aiding a foreign power to 
violating national security laws. As of March 2010, 54 of the original 
75 prisoners remained incarcerated.

    Senator McCain. Well, then let me commend, for your 
reading, various human rights organizations who have written 
and testified that the Cuban Government is even more 
repressive. I strongly suggest you read that, General. It might 
be illuminating for you.
    Finally, how do you assess the threat of the cooperation 
between Iran and Venezuela? Last week Spain's high court said 
the Venezuelan Government facilitated contacts between the 
Revolutionary Armed Forces of Colombia (FARC) and ETA to plan 
the assassination of Colombian officials visiting Spain, 
including President Uribe. Do you have any information on that 
and other activities on the part of the Venezuelan Government?
    General Fraser. Senator, I do not have any direct 
information on that. We have continued to watch very closely 
for any connections between illicit and terrorist organization 
activity within the region. We have not seen any connections, 
specifically, that I can verify that there has been a direct 
government-to-terrorist connection. We are concerned about it. 
I'm skeptical. I continue to watch for it.
    Senator McCain. You have seen evidence of the relationship 
between FARC and the Venezuelan Government. I mean, that's been 
published many times.
    General Fraser. Senator, I know that there's evidence of 
FARC.
    Senator McCain. I mean, they have the hard drives. When 
they raided the FARC camp on the Venezuelan side of the border.
    General Fraser. Sir, the raid where that happened----
    Senator McCain. Excuse me. On the other side of the border.
    General Fraser. Yes, sir.
    Senator McCain. Yes.
    General Fraser. So, there has been some old evidence, but I 
don't see that evidence. I can't tell you, specifically, 
whether that continues or not.
    Senator McCain. My time is expired.
    I thank the witnesses.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks, to both of you, for your service and leadership.
    General Renuart, let me add my personal thank you to you 
for four decades of service to our country. You've done it with 
real honor and excellence, and personally, it's been a pleasure 
to get to know you. I wish you the best in your next chapter. I 
know your wife, as you said, will be happy with your 
retirement, but having watched others retire, I would say, on 
her behalf, that I hope you at least get a part-time job.
    General Renuart. Senator I'm going to work on that.
    Senator Lieberman. Okay. I wish you the best.
    Let me begin with you, General. I am, of course, as chair 
of the Homeland Security and Governmental Affairs Committee, 
very interested and appreciative of the way in which NORTHCOM 
has organized and consolidated the U.S. military's involvement 
in homeland defense. You bring unique and critically important 
skills together with DHS.
    DOD has been standing up three brigade-size Consequence 
Management Response Forces (CMRFs) to respond to a chemical, 
biological, radiological, or nuclear attack by terrorists or 
others on our Homeland. I've been very impressed by that, and 
appreciative of it.
    I was unsettled a bit when the recent QDR said that it 
would basically scrap the second and third of those, and 
replace them with 10 smaller Homeland Response Forces to be put 
in each of the 10, basically, Federal Emergency Management 
Agency (FEMA) regions around the country, under DHS. I mean, 
the regional forces have some appeal, but I'm troubled by the 
loss of those two brigade-sized Response Management Forces 
because of the tremendous skills and specialties that they 
would have brought wherever an attack on our country, of this 
serious nature, might occur. So, I wanted to ask you as you 
depart this command, how you feel about that change and whether 
you feel it--these regional forces can do a--as good a job of 
homeland defense as the three brigade-sized CMRFs.
    General Renuart. Senator, thanks. This is an issue that 
obviously went through a lot of discussion within the QDR. 
We've worked very hard to create those brigade-sized forces, 
over the last few years, and, with both the support of the 
committee and the Secretary, have crafted two of those. The 
third was to be made operational this year.
    The concern within the discussions of the QDR is that these 
forces may not be as responsive as a force that is, if you 
will, deployed and lives out in each of these FEMA regions. 
After much discussion, the Secretaries made a decision to 
adjust this format a bit.
    I think our role in this has been certainly involved in the 
discussions, but--to take the concept that was developed 
through the QDR discussions and turn it into an operational 
construct that is effective and executable. That work is 
ongoing today, Senator Lieberman. I think that there is some 
work to do, still, to ensure that, not only do you have trained 
and equipped forces in these regional areas, but they are 
accessible and agile and deployable enough to meet the 
expectations and the assumptions that were central to the QDR 
discussions.
    We still have a little work to do on that. Is it possible 
that they will be as effective? Yes, sir, I think it is. It 
really depends on the fact that we will make a commitment to 
train and fund and make these integratable, if you will, into a 
capable force when a large-scale event occurs. That's our role 
in NORTHCOM. We're working hard on that. We still have work to 
do before I can give you a definitive answer.
    Senator Lieberman. Okay. Well, we're going to keep in touch 
on that, because--and you phrased it exactly in terms of my 
concerns, which is whether these 10 regional forces will be 
able to quickly deploy with the range of skills to the site of 
an attack where we'll need something as large as a brigade, or 
two or three, to protect the people and stand up the region 
again.
    I want to understand--make, just, clear for the record--
will the one brigade-sized force remain in effect?
    General Renuart. Yes, Senator, it will. In fact, it will 
grow----
    Senator Lieberman. Yes.
    General Renuart.--by about 700 individuals of--with those 
same critical lifesaving skill sets.
    Senator Lieberman. Right.
    General Renuart. So, that will remain. It will be focused 
on an Active Duty brigade, so it gives you the most rapid 
access to that----
    Senator Lieberman. Right.
    General Renuart.--to that force. In addition, then, we will 
have two smaller forces that will be predominantly the command 
and control, the logistics, the joint reception, and some 
immediate lifesaving capability in those two smaller forces. 
But, they're really designed to receive so-called general-
purpose forces in a large-scale event.
    Senator Lieberman. Okay.
    Let me move on to the GMD system that has been mentioned. 
In the move to the phased adaptive system that we're going to 
now, the--there's some question about the future of the two-
stage GBI. I know there's supposed to still be some testing of 
it going on.
    I wanted to ask you, as you sort of prepare to retire, 
whether you believe we should continue to develop and test the 
two-stage GBI, for instance, as a hedge against a possible 
Iranian breakout, and whether--particularly in regard to the 
homeland defense, whether NORTHCOM has studied options for 
deploying a two-stage GBI in the United States to give another 
layer of defense to our homeland.
    General Renuart. Senator, the operational test program does 
continue to include both the two- and the three-stage test. We 
are fully supportive of that. As we have had discussions with 
both DOD and with the MDA, our support for the phased adaptive 
approach is strong. We're confident that it has real potential, 
but we've also asked the Secretary and received, I think, 
budgetary support to not foreclose the capabilities that might 
be resident in a two- or a three-stage interceptor. So, we do 
support that continued testing; and my information is, that 
continues to stay on track.
    With respect to the phased adaptive approach, I think that 
the--certainly the information, so far, looks very positive, a 
very capable system. So, we're supportive of that. We think it 
gives us great added depth to our homeland defense capability. 
Again, we don't want to foreclose any possibilities in the 
future, so continuing that testing is important to us.
    Senator Lieberman. Good. Good to hear. I agree with that 
totally.
    General Fraser, let me ask you a big-picture question, 
because I think we often find that the regional commanders have 
some of the best views of the regions in which they lead, 
because of the comprehensiveness of their context with the 
region. So, as you step back and look at SOUTHCOM, Latin 
America generally, plus, there seems to be, here, as in other 
parts of the world, an ongoing, sort of, conflict or 
competition between the forces of freedom, generally speaking, 
and the forces of dictatorship; the forces of socialist 
economies, and free economies; friends of the United States, 
and enemies of the United States. So, at this moment, where 
would you say the momentum is? Who's winning? How are we--and, 
in a more direct sense, how are we doing in the area of your 
responsibility?
    General Fraser. Senator, I think, overall, we are doing 
well. We continue to have positive relations with most of the 
Nations within the region, especially from military-to-military 
standpoint; we see that very directly. There's only a couple of 
instances where that has really been reduced. Our relations 
with the military in Venezuela is one of those; also, with the 
military in Bolivia, is another. But, overall, those relations 
remain good.
    I see a real competition, as you mentioned, within the 
region, for various ideologies, and they're coming from various 
different directions. That competition continues today.
    Really, I see the view of the United States growing. 
There's a 71-percent approval rating of the U.S. image within 
the general populace within Latin America. So, I see a positive 
trend from our relations within the region growing.
    Senator Lieberman. Thank you for that. That 71-percent 
appreciation of the United States in Latin America may be 
higher than the appreciation of the United States in America 
today. I hope we can catch up with them.
    Thank you.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, let me echo the comments everyone's made 
about your great service, and how much I appreciate both of 
you, your great wives, and all that stuff.
    General Fraser, let me tell you what I'm not going to ask 
you. I'm not going to ask you if we ought to close Gantanamo 
Bay (GTMO). But, I do want to get something in the record here, 
of my personal feelings. I've had a chance to really get into 
it. I've studied it. There's never been a case of water-
boarding, and the conditions, the treatment of the people, are 
good down there. It's a secure location. There are 
approximately 200 terrorists left. The low-hanging fruit is 
gone. Of that low-hanging fruit, about 20 percent have the--
have been back in the fight, according to reports that I have. 
Once the terrorists are physically in the United States, there 
should be no doubt to anyone in this room that these terrorists 
will gain additional constitutional rights and fall within the 
jurisdiction of the Federal courts.
    The attacks leading up to September 11 were not the result 
of holding detainees in GTMO. The attacks of September 11 were 
not the result of holding detainees. The repeated attempts to 
attack this country were not a result of holding detainees.
    Moving detainees held in GTMO to the United States would 
not stop future terrorist attacks to this country. Those guys 
hate us. They want to kill everyone in this room.
    The Americans across the country, they understand this. The 
polling is showing that 2-to-1 say that it shouldn't be closed. 
All these people who are coming up with these great ideas on 
what we can do to bring the terrorists to the United States for 
either incarceration or for trial go to all elaborate detail as 
to how we can do this, what it's going to cost, how we're going 
to build the courts. There's a simpler answer, just leave it 
open.
    Now, again, I'm not going to ask you that question. But, I 
would ask you this. You have had opportunity to go there, 
General Fraser. Just very briefly, in terms of your impression 
of the operations and of the treatment of detainees, do you 
have any comment to make?
    General Fraser. Thank you, Senator Inhofe.
    Our responsibility in SOUTHCOM is for the safe, legal, 
transparent, and humane treatment of the detainees at the 
facility in GTMO.
    Senator Inhofe. Are they being treated that way?
    General Fraser. Yes, sir, they are very much being treated 
that way. I'm very proud of the men and women from the military 
who come and provide that----
    Senator Inhofe. Okay, you don't need to elaborate. There's 
a Sergeant Major Carter from Fort Sill who had been stationed 
there several times. Her comment to me--she's in charge of the 
prison system we have at Fort Sill, and she said, ``I don't 
know what's wrong with those people in Washington. Go back and 
tell them, that is a jewel that's been run properly.'' She's 
the one who has actually been there. I don't want to belabor 
that, because that's a decision that was made by your Commander 
in Chief, and I don't want to put you in an awkward position.
    But, following up on something that has been said by 
Senator Lieberman, General Renuart, I--you and I talked about 
this in my office. It is true that I was very strongly in 
support of the third site in Poland. That's a site that would 
have given us the capability of knocking something down. At the 
time, by 2012--with slippage, maybe 2015--ironically, that's 
when we think that the Iranians are going to have the 
capability of sending something over. Now, I know, in response 
to the Chairman's question, that we have a lot of ground-based 
stuff out there. It's in California and Alaska. I'm not 
comfortable, when I look at these maps. So, I won't ask you how 
you would stand on going back to that position with the--with 
Poland and the Czech Republic, but I would say that, since 
we're looking at the SM-3 2B, out there someplace, to be 
determined--we don't have a date on that yet; we do have a date 
on the SM-3 2A, but that's for short and medium range--of 2018. 
I still believe that we should reconsider that. I would only 
ask you this question. Are you at all concerned that we're 
going to have the--well, it would have to be the 3M--SM-3 2B 
capability soon enough?
    General Renuart. Senator, the intelligence estimates on 
when the Iranians will field a real capability obviously have 
moved around a bunch. So, we want to make sure that we are 
providing sufficient capability to defend our own country. I 
believe, with the current Alaska-based and Vandenberg-based 
systems, we can meet that need. If we see proliferation of 
capabilities from Iran, we certainly need to consider expanding 
that capability.
    Senator Inhofe. All right, that's good enough. Now, since 
you're going to be bailing out of this--and we have talked 
about that. I certainly wish you luck. It's been 39 years, is 
that how long?
    General Renuart. That's correct, Senator.
    Senator Inhofe. Goodness. Well, that's great. It's been a 
great service. I would ask you, just in the remainder of the 
time that I have, now that you're going out and you can reflect 
back, and General Fraser knows, how strongly I feel about our 
partnership programs, our train-and-equip programs, my concern 
that I had, that perhaps the--some of these programs were not--
like the 1207, the civilian-to-civilian, maybe should have been 
left where it was. That's my own personal opinion.
    But, in terms of one-size-fits-all, we're talking about the 
train-and-equip programs, International Military Education 
Training (IMET), the Combatant Commander's Intiative Fund 
programs, the Foreign Military Financing (FMF), the Foreign 
Military Sales (FMS), and all of that. What's your thought 
about, between countries, the tailor-making of these things? 
Any thoughts you'd like to leave with us on that subject?
    General Renuart. Senator Inhofe----
    Senator Inhofe. It's a good program. We all agree with 
that, I think. But, can it be better if we could figure out a 
way to tailor it better?
    General Renuart. Yes, sir. This is key and essential to all 
of our operations around the world. I spent 13 years in the 
North Atlantic Treaty Organization (NATO), I've spent 5\1/2\ 
years in southeast--southwest Asia as part of the CENTCOM AOR, 
and, of course, in the Pacific, as well. In every case, those 
combatant commanders would tell you that the 1206, 1207, 1208, 
FMF, FMS, all of those building-partnership-capacity programs 
are critical to allow us to do just what General Fraser said, 
where Ken Keen and the Brazilian counterpart know each other 
because they've worked together, they've been to school 
together, we've created training relationships together. We 
have to absolutely keep those programs intact, and support 
them, and work through the department-to-department challenges 
between, primarily, State and Defense, on making them easier to 
take advantage of. They are critical to a combatant commander's 
success.
    Senator Inhofe. I've spent a disordinate amount of time in 
some of the African nations, and I've left--not just there, but 
in the Balkans, and everyplace else--with the idea that we made 
a mistake, at one time, on our IMET program. We had a--we're 
kind of treating it as if we're doing them a favor by allowing 
them to come here to our country to train, and train with our 
people. I became pretty convinced, after a period of time, that 
we should have lifted, which we did, the article of response--
requirement that we had before allowing them to come in, that 
it was really to our benefit more than it is to their benefit, 
that once these people come in, they train--whether it's a--it 
doesn't matter what facility it is, but train with our people, 
get that quality training--an allegiance is formed that never 
leaves. Do you think that's right?
    General Renuart. Senator, very shortly, absolutely. I--my 
youngest son spent 27 months in Senegal in the Peace Corps, and 
he will tell you, firsthand, that the relationships of American 
outreach to these countries are incredible.
    Senator Inhofe. Yes. Well, my time's expired, but, General 
Fraser, do you generally agree with our conversation here, and 
our opinions?
    General Fraser. Yes, Senator, I completely agree.
    Senator Inhofe. All right. Thank you very--thank you Mr. 
Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for your service and your dedication 
to not only the American military but to the Nation. So, thank 
you very much.
    General Renuart, a disturbing phenomena seems to be the 
increasing sophistication in armaments of the Mexican drug 
cartels--assault weapons, antitank weapons, sophisticated 
night-vision devices, sophisticated communication devices. 
Where are all these coming from?
    General Renuart. Senator, thanks. On the very first meeting 
that I had in Mexico, their senior military leadership outlined 
their concern over what they called ``U.S. trafficking of 
weapons into Mexico.'' Clearly, there is no doubt that there 
are weapons moving north to south into Mexico, and we partner 
very closely with our law enforcement friends to help provide 
information from the Mexican military, as they've collected the 
forensics of these, so that we can, in fact, prosecute. There 
have been over 40 prosecutions, over the last 2 years, of--I'll 
call them ``weapons dealers.'' But, certainly we see an 
involvement from here in this country with respect to illicit 
weapons trade. We're also seeing that move from other nations 
around the world, as well.
    So, I think this is a hemispheric problem--both General 
Fraser and I have talked about this--and something we need to 
continue to work.
    Senator Reed. But, do you think we're taking effective 
steps? Again, what seems to be very ironic is that, in some of 
these recorded incidents, the drug cartels outgun the military 
and the police. That's unfortunate.
    General Renuart. Yes, sir. In fact, we see 50-caliber 
weapons, we see rocket-propelled grenades, we see a variety of 
those things being used. That is increasingly of concern to the 
Mexican military. It has resulted, by the way, in them being 
much more forthcoming with serial numbers and that sort of 
thing, so it allows our law enforcement to really take some 
action.
    Senator Reed. Do we have to do much more on our side of the 
border to control?
    General Renuart. Yes sir, I believe we do. I think our law 
enforcement partners are very eager to do that. It's continuing 
that information-sharing between the two nations that will 
assist.
    Senator Reed. On the other side--we're supplying both 
sides, essentially, in this battle. Under the Department of 
State's Merida Initiative, we provided the helicopters and 
light attack aircraft, inflatable boats, et cetera. Can you 
tell us if that's being used effectively?
    General Renuart. Senator, I can, and it is. The Mexicans 
were very appreciative that we accelerated that process to help 
meet the Merida objectives. We delivered the first five of the 
Bell helicopters this past December. We'll deliver two or three 
more this year. Patrol aircraft, computer systems that will 
allow them to fuse information to do border security, to 
communicate better--all have been put in place--night-vision 
goggles. The Mexicans are also reaching out to us for the 
training associated with integrating these to be effective, and 
we've made great progress in that regard. We need to continue 
that effort. Merida shouldn't just be a 1- or 2-year event, but 
it's a relationship over time.
    Senator Reed. Is there a danger of some of the border 
States of Mexico becoming ungoverned spaces that would invite 
not just narco-gangs, but more sophisticated international 
terrorists to set up shop?
    General Renuart. Senator, I think there's--I would not 
characterize ``ungoverned spaces,'' because I think there's--
    Senator Reed. I don't want to--I don't want to suggest that 
the Government of Mexico isn't competent, capable down to every 
level, but it's just the turmoil there, I guess, which--
    General Renuart. There is significant turmoil, and 
certainly local governance is corrupted in some places, but 
that's very much on the focus of President Calderon and his 
senior--both attorney general, as well has his senior military 
leaders. That's allowed him to push--or it's enabled him to 
push forces out to try to help reduce that. We have a very good 
relationship with the Mexican border-state commanders, as well.
    Senator Reed. Thank you.
    General Fraser, your comments on, sort of, the flow of 
weapons and other items, not from the United States, but from 
other areas in the hemisphere.
    General Fraser. Senator, thank you.
    We find that there is a flow. A lot of the flow is headed 
towards Colombia right now, but it also is into Central 
America. A lot of the weapons that are flowing originating--are 
originating in Central America from weapons that were sold 
there in the 1980s, but we also see a flow that's coming out of 
the United States in that direction, also.
    Senator Reed. Thank you.
    Just--let me switch back to General Renuart, to the 
chemical, biological, radiological, high-yield explosive 
(CBRNE) teams that you've put together, and the CMRF. Can you 
give us an update of their deployment. There's two, I believe.
    General Renuart. There are, sir. Just very quickly, we 
actually exercised one of those forces this year from a 
standing start; we mobilized them, deployed them, and put them 
into action in a very realistic scenario in Indiana, earlier--
at the end of last year. Comments from the US&R Association, 
the professionals in this business, were that it was as good as 
any they've seen--the Fairfax unit, for example, that we've 
talked about--any they've seen in the world. So, I'm very happy 
with the quality and capability of these forces.
    As I mentioned to Senator Lieberman, as we continue to grow 
this concept that has come from the QDR, we want to maintain 
that standard of capability for the people of this country, and 
we'll work hard at that.
    Senator Reed. Let me ask you a general question, General 
Renuart, and that is the status of the equipment for National 
Guard. Since they're a major partner in your efforts in 
NORTHCOM, can you give just a general view of----
    General Renuart. Yes. Very quickly--and what I'll do is, if 
I may, provide some more data for the record.
    [The information referred to follows:]

    For the Army National Guard, dual-use equipment (items identified 
as critical to domestic missions) is currently at 83 percent. 
Approximately, 65 percent of the dual-use equipment is available to the 
Governors after accounting for items that are deployed in support of 
Federal missions.

    General Renuart. But, the National Guard, on the average 
across the country now, is up from 40- or 50-percent equipage, 
now, to 70, 70-plus. That's new equipment. The training quality 
is up. We're especially pleased that the equipment related to 
these homeland support missions is close to 100 percent in most 
of the States.
    Senator Reed. Thank you.
    General Fraser, you have many roles, both air, sea, and 
land, but, can you kind of brief us about SOUTHCOM's Naval 
Force's Southern Commmand, the naval forces and 
counternarcotics operations?
    General Fraser. Senator, the DOD mission within 
counternarcotics is to support the detection and monitoring of 
the transit of illicit goods, if you will, primarily through 
the maritime environments, the Caribbean and the Eastern 
Pacific. So, working through JIATF-South, an interagency group, 
we support the detection and monitoring in those areas. The 
U.S. Navy ships do that, as well as U.S. Coast Guard ships, as 
well as aircraft. Then, once those are detected, then hand them 
off for intercept and detention to the law enforcement 
organization.
    Senator Reed. Just a quick followup. We all read recently 
about the growing use of submersible vehicles and submarines to 
move drugs around. Is that a continuing upward trend?
    General Fraser. Actually, Senator, it's decreased. We saw 
68 movements primarily in the Eastern Pacific in 2008. Last 
year, we saw 46. So, we've seen a decline. Now, that's just a 
1-year sample size.
    Senator Reed. Right.
    General Fraser. But, that's the most recent data, and 
that's the first decline we've seen.
    Senator Reed. Thank you, sir.
    General, thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman. Mr. Chairman, I 
want to thank you for your opening comments that discussed the 
connections between Iran and Venezuela. I know Senator McCain 
spoke about that, too.
    General Fraser, you and I have had an opportunity to speak 
a lot about that. So, that's a topic that I want to explore 
today.
    Start off by saying, thank you both for your service.
    General Renuart thank you--39 years, that's incredible. 
Thank you, to both of your spouses. We put our spouses through 
a lot. So, I'm appreciative of them, as well.
    In speaking about the growing projection of influence of 
Iran in the region, I recently had an opportunity to visit 
Colombia and to visit with our military folks there who are 
assisting with the military leaders in Colombia in the fight 
against the FARC. There is this concern. Senator McCain spoke 
about the recent revelations of the judge in Spain, about the 
assassination attempt on President Uribe. We know that the 
drug-trafficking flights are flying over Venezuela to get to 
Central America to bring those drugs into the United States. Do 
you consider Venezuela to be the biggest stabilizing--
destabilizing factor in the region, in terms of our national 
security interests?
    General Fraser. Senator, I don't know if I would take it as 
far as the ``biggest destabilizing factor.'' They are 
continuing on a pursuit of reducing U.S. influence in the 
region. They are working with various countries and entities to 
try and enable that.
    Senator LeMieux. Let me try it this way. Is there a country 
in Latin America that is working against our interests as much 
as Venezuela?
    General Fraser. Senator, I would argue that, as we look at 
Cuba, they're also in that same vein.
    Senator LeMieux. We've seen some recent articles even 
calling it ``Venecuba,'' that there are Cuban military 
officials working within the Venezuelan Government. The concern 
I have--and I think this touches on both of your focuses, with 
you, General Renuart, having the focus on Mexico, as well--is 
that we have this whole Central American region that runs--we 
have Colombia, obviously, on the tip of South America, and then 
it runs up through the region into Mexico. We have these drug 
trafficking chains. Some have described it to me as, ``We 
squeeze the balloon in one place, they find another way to 
go.'' If we shut down the semisubmersibles, or we work against 
that, they take more air flights. If we stop them at sea--
which, you just had a recent success, General--then they come 
over land. I know our Ambassador in Panama is concerned about 
the increased traffic through the isthmus there.
    So what's your focus--and I assume that there's 
coordination between the two of you--what's the focus, and 
what's the plan, going forward, to combat this narco-drug 
trafficking? Do you have any concerns that, with the projection 
of influence of Iran in the region--the idea that we know that 
Hezbollah and Hamas are--have set up shop in the region--that 
there could be a combination between those groups and the 
narcotraffickers?
    General Fraser. Senator, if I could start with that. From a 
destabilizing standpoint, the biggest concern I have in the 
region is illicit trafficking. I think it's growing as a 
regional issue throughout, and spreading to other parts of the 
region. Brazil is now the second largest cocaine user in the 
world. So, it is--the criminal elements of that is the illicit 
trafficking that really is my biggest concern. What we are 
looking to do is the--our national Intelligence Community is 
taking an opportunity to look at illicit trafficking as a 
regional enterprise, not just what's affecting individual 
countries, so that we have the opportunity to understand that 
enterprise, as an enterprise, to try and push on all sides of 
the balloon, if you will, rather than just on one part of that 
balloon, to see if we can start squeezing that balloon effect 
down. So, that's really the efforts that were ongoing. That's 
in direct correlation and coordination with NORTHCOM, JIATF-
South, JTF-North. Everybody is working this--in addition, with 
law enforcement--to try to get a better understanding.
    Senator LeMieux. General Renuart?
    General Renuart. Senator, I'd first agree that--with 
General Fraser's comment, that this is an enterprise. We have 
to approach it as an enterprise. I'd add, that starts in our 
own cities; 230 cities in our country have seen increases in 
drug-related gang violence. We need to work that internally. 
But, in addition, coordination from the supply through the 
demand is critical if you're going to really make a difference. 
Our two commands work very closely, and have partnered with 
Mexico from the south and the north, for example, to try to 
arrest some of that flow. The Mexicans have been increasingly 
eager for that coordinated support from both of us.
    So, I think there's a real opportunity, and we're going 
to--we're both committed to continue working that. More 
importantly, we have support from our friends in Customs and 
Border and the Drug Enforcement Agency (DEA) and the other 
Federal agencies.
    Senator LeMieux. Well, I appreciate that. I appreciate your 
good work on that. I know, in traveling to Colombia, that now 
the Colombian military's going to be training some folks from 
Mexico on helicopter operations, so I think that's a good step.
    I want to just--and I--General Fraser, you and I have 
discussed this, in private--is that--I want you to stay 
focused, if you will, on Iran's projection of influence in the 
region, because I'm worried that those trafficking chains could 
be used for other purposes. We had an Emerging Threats and 
Capabilities Subcommittee hearing yesterday, chaired by my 
colleague Senator Nelson, and, to a person, everyone 
acknowledged that Iran is the world's number one State sponsor 
of terror. When I see Ahmadinejad traveling the world, 
including spending several stops in Latin America, whether it's 
Venezuela or even some of friendly nations down there, I'm 
concerned about it. So, I want you--if you would, please keep a 
focus on that.
    General Fraser. Senator, we're focused on that.
    Senator LeMieux. Right.
    Let me ask you a question, General Fraser, about Colombia, 
specifically. We've been trying to pass this Colombia Free 
Trade Agreement. I think it's an agreement that has 
implications beyond trade. I think it has implications to our 
alliances and our friendship with Colombia. Do you see that, in 
terms of our national security interests, as being a positive 
step forward, if we could get that agreement ratified?
    General Fraser. Senator, I think it would be a very 
positive step forward. One of the things that supports security 
within the region is the opportunity to have stable economies, 
and vibrant economies. Colombia has that. I think a Free Trade 
Agreement would enhance that capability and give an alternative 
to the illicit traffickers.
    Senator LeMieux. I would assume you would agree that a Free 
Trade Agreement with Panama would also be productive.
    General Fraser. Yes, Senator, I would.
    Senator LeMieux. Right.
    General Renuart, just to switch gears a little, you--in 
your opening statement that I reviewed, you refer to Russian 
Bear Tu-95 flights probing American and Canadian airspace. Can 
you comment on the activities of the--those Russian airplanes? 
I know they weren't--they were probing our airspace, maybe not 
specifically in it. You sent up some fighters, I guess, in 
response. Can you talk to that a little bit?
    General Renuart. Senator, just very quickly, we've seen an 
increase, in the last few years, of Russian--their words, 
``long-range training flights'' approaching our sovereign 
airspace. In our NORAD role, we have been conducting this 
surveillance and response mission for over 52 years. We have 
trained, well-equipped capabilities to monitor our airspace. 
Really, we attempt to identify any aircraft that is not on a 
flight plan, unidentified, not talking to people on the radio, 
so that we understand their intentions. We continue to do that. 
We've had a couple instances this year where the Russians have 
flown close to our airspace in the Aleutian Chain. Nothing is 
threatening us, their aviators act professionally. But, again, 
we want to make sure that we don't allow any aircraft from any 
source to enter our airspace without being identified.
    Senator LeMieux. Do you have an assessment of their 
intentions?
    General Renuart. I think the Russians have neglected their 
bomber force for many years. I think, because of financial 
concerns, they are--the influx of energy money has allowed them 
to refocus some of that, and we're seeing more of the training 
that they used to conduct, not at the levels of the Cold War 
days, but certainly enough to keep pilots proficient. That--I 
think it characterizes the most--the bulk of what they're 
doing.
    Senator LeMieux. Okay. Thank you both.
    Thank you Mr. Chairman.
    Chairman Levin. Thank you, Senator LeMieux.
    Let me just quickly mention, since we've talked about 
Chile, that there's a report that, right in the middle, 
apparently, of President Pinera's inauguration ceremonies, 
there was a magnitude-7.2 quake reported in Chile. So, it's not 
as bad as the earlier one, obviously, but it's still a 
significant-size earthquake.
    Senator Begich.
    Senator Begich. Thank you, Mr. Chairman.
    Actually, I thought I wouldn't have time, and I snuck 
around. I broke some rule, I'm sure. Doug, I gave your wife a 
hug. I hope--behind your back, I want you to know that, in all 
full disclosure. But, it's good to see you again, and Rena.
    General Renuart, I have a couple questions first, and then 
I'm going to have a couple for General Fraser.
    But, first with the Arctic and some of the work that's now 
going on, especially--on two fronts, one is the climate change 
that's occurring, and the Arctic ice melting, and that you have 
three commands, really, that kind of manage the Arctic. Is 
there discussion, or is there an opinion you have in regards to 
this, that--my personal view--and I leave it to the military to 
figure this out--that we probably have to unify this in--at 
some point, like we did--I think it was with--Africa Command 
was a similar situation, two or three commands.
    Is there discussions now about trying to figure this out, 
as we move more and more into understanding what opportunities, 
but also, really, challenges--and I think Senator LeMieux just 
mentioned one of those, but that's in the Aleutian. Some would 
think that's close to Alaska. It is, but it's hundreds of miles 
from the north. But, are you now, as an organization, starting 
to think about this, or can you give me some thoughts on that?
    General Renuart. Senator Begich, you bet. I was a former 
vice commander of Pacific Air Forces, in fact. Doug Fraser was 
the commander of 11th Air Force, and he wore four hats.
    Senator Begich. I know.
    General Renuart. I always felt that it was important for 
NORTHCOM and NORAD to try to help reduce the number of hats 
that we asked him to wear.
    We continue that effort. We will have some discussions this 
year with the Chairman and the Service Chiefs in the unified 
command plan discussion, to help streamline that process.
    Certainly, there is concern that we provide for an active 
defense capability for Alaska. During World War II, the 
Aleutian Chain were invaded and held by the Japanese. That's 
something we don't want to repeat. The missions of that 
homeland defense falls in NORTHCOM. So, we want to partner with 
Pacific Command and with the Chairman and the Joint Chiefs, to 
try to better streamline that process. So, maybe we can take 
one hat or two hats off, and get down to just a manageable 
amount.
    Senator Begich. Do you agree, as the Arctic continues its 
process--as we know, problem in 30 years, is the estimate, that 
all summer will be ice-free, that there's going to be a lot of 
other activity, civilian and military, by other countries, 
within that region, and thinking now about it is probably to 
our advantage, rather than thinking 10 years or 15 years down 
the line. Is that a fair statement?
    General Renuart. Senator, absolutely. The Arctic--none of 
us are expert enough to know how much open water, for how long. 
But, certainly we're going to see more navigable water in the 
Arctic. It's an area where we had not focused our attention--
national attention for quite a period of time. Before the last 
administration left, they published a paper indicating strategy 
for the Arctic. I think that's a great start. We need to 
continue that effort and, I think, partner with the Arctic 
Council nations on a common strategy for research and for 
development, to settle disputes.
    Then, finally--and I know the Senate will continue to 
consider this--the U.N. Law of the Sea Treaty is something that 
is critical to give us a seat at the table to be involved in 
these discussions.
    Senator Begich. The Law of the Sea.
    General Renuart. We very much support ratification of that 
treaty as soon as we can.
    Senator Begich. You have my next question, which was Law of 
the Sea. I guess one question that comes up--and tell me, if 
you can--very short answer--some are concerned that--by the 
United States being a part of that--the Law of the Sea--that we 
will give up some of our sovereignty. Do you believe that 
statement?
    General Renuart. No, sir, I don't. I think U.S. sovereignty 
is something we hold and protect very dearly, and I don't 
believe we would give that up.
    Senator Begich. Very good. Let me ask you, if I can, on the 
missile defense system in Alaska. Great debate last year, 
``Should it be 40-plus, or should it be 30?'' The decision was, 
through mutual discussions--and I think this committee did a 
lot of work to get to the agreement of 30--and do you still 
agree with that statement, that it should be 30 operational 
GBIs there?
    General Renuart. Yes, Senator, I think 30 is the right 
number. I would point out that the additional missiles that 
will be constructed are not restricted from being used, if we 
were to need them.
    Senator Begich. Correct.
    General Renuart. I think that gives us some capacity----
    Senator Begich. Right.
    General Renuart.--to plus, if that would be required.
    Senator Begich. Right, and I had wanted to comment on that. 
I want to thank you for that, because I think one of the things 
you have done, especially in the last 4 or 5 months, maybe 6 
months, is create that flexibility that, depending on the 
situation, you could plus-up and have a situation available, or 
infrastructure available, to handle that, is part of the plan. 
Is that a fair statement?
    General Renuart. That's a fair statement. Yes, sir.
    Senator Begich. In that regard, one of the things that I 
want to make sure--I know, in the 2010 budget, there's 
probably, I--I want to say--this might be close number--$13-, 
$14 million to continue to deal with Field 2 up there, to get 
it completed. We know, through our work and through your 
agencies--or agency of DOD, that it needs closer to about $100 
million to finish out all the work that's necessary to keep 
that flexibility as they close down Field 1, which is just--was 
kind of a test site of six. How do you think you'll be able to 
go about making sure those revenues, those resource are there 
to continue to make sure the base infrastructure is available 
to take care of the Field 1, which is in deplorable condition? 
Give me your----
    General Renuart. Senator----
    Senator Begich.--those are my words. I know those aren't 
the technical words, but--
    General Renuart. If I could--let me provide you some more 
detail for the record.
    Senator Begich. Okay.
    General Renuart. But, we work very closely with General 
O'Reilly. I believe his view is that he has sufficient 
flexibility to be able to ensure that we can keep Field 2 on 
track, and--but let us get back to you with some more specifics 
on that.
    Senator Begich. That'd be great. I just want to echo that, 
please, whatever he could do to keep that moving along, because 
the mobilization of the equipment and the people are working. 
When you demobe, it just is more costly, and this is a huge 
opportunity. So, I--I know he has a lot of flexibility, because 
the way we wrote that last year was to give him the 
flexibility, as he saw fit. So, if you could get us that that'd 
be great, and I'd encourage him to move forward.
    General Renuart. Yes, sir, will do.
    [The information referred to follows:]

    The fiscal year 2011 President's budget requested the funding 
needed to continue the operations, sustainment, and maintenance of 
Missile Field 1 and to complete Missile Field 2 in a 14-silo 
configuration. The request reflects funds required in addition to 
fiscal year 2009 funds previously appropriated for work on Missile 
Field 2 and fiscal year 2010 funds previously appropriated to suspend 
work on Missile Field 2. On February 17 2010, the Missile Defense 
Agency submitted a reprogramming request to the Department's 
Comptroller for the realignment of $72.8 million of fiscal year 2009 
research, development, test, and evaluation (RDT&E) funds and $16 
million of fiscal year 2010 RDT&E funds within the Ballistic Missile 
Defense System Midcourse Defense program element for the continuation 
of Missile Field 2.

    Senator Begich. Last question then. Doug--I don't want to 
leave you out--General Fraser. But, one--as more and more 
alternative renewable energy is being debated in Alaska, one of 
the big issues is wind turbines. General Renuart, this is the 
last question for you. Are you dealing with that and 
understanding--and I know it's a very small--but, I know we're 
starting to hear some concerns that it may interfere with the 
mission and airspace. Are you working with the civilian 
population to make sure we manage this correctly? Are there 
things we need to be looking out for as we deal, for example, 
with an energy bill and making sure that the military is not 
forgotten in this equation?
    General Renuart. Senator, that's a great question. Very 
quickly, there is a challenge, as we develop, particularly, 
wind farms, but we also see with new building construction, 
where those--that development has--interferes with the send/
receive capability of our ground-based radars. I sent a letter 
to Secretary Gates asking for a formal body to be formed, 
allowing us to review these, so that a developer has a place to 
come to ask these questions.
    Senator Begich. Oh, great.
    General Renuart. Secretary's committed--Assistant Secretary 
of Defense for Homeland Defense, Paul Stockton--to lead that 
effort for that Department. We're partnering with the Federal 
Aviation Administration and others. But, we are--we need to 
continue to make this process mature. We've had questions from 
Senator Webb and others on similar issues, and we know that's a 
real concern, and we're committed to work that aggressively.
    Senator Begich. Great. Please keep us informed on that. 
That'd be--that's great to hear that.
    General Renuart. Yes, sir.
    Senator Begich. General Fraser, I feel like I have to ask 
you a question, because I don't want to leave you there. You 
are a great addition to our Alaska team up there, and I know 
you're doing a great job in SOUTHCOM. We've had some great 
discussion in regards to that.
    One of the things I want to just ask--you and I have had a 
conversation about a special unit within your organization that 
deals with, kind of, the humanitarian component and the work 
you do. Do you--and we talked briefly about--about how it's 
appropriate for your command, it may not be as appropriate for 
other commands--but, have you found that component, that unit, 
of high value for your command, in assisting you with some of 
the unique situations you have in Central America in the 
SOUTHCOM section? Maybe you could just expand a little bit on 
that.
    General Fraser. Yes, Senator----
    Senator Begich. I found it very intriguing that you had 
this underneath your----
    General Fraser. You're talking human rights or----
    Senator Begich. Yes.
    General Fraser. Yes. We have a human rights office that 
was--has been in existence for quite a number of years now, has 
a human rights initiative in which 34 countries from around the 
region have all signed up to. A very active program. Has made 
and helped enable a lot of significant progress throughout the 
region. Colombia has come up fairly dramatically in their 
efforts and their focus on this. Guatemala has the same. 
They're very much connected within this. So, it's a very 
vibrant office, and is out actively pursuing and enabling and 
enriching human rights discussions throughout the region.
    Senator Begich. It's unique to SOUTHCOM, is that correct?
    General Fraser. SOUTHCOM is the only combatant command that 
has one of these, and it's a resource that's available to any 
of the combatant commanders.
    Senator Begich. Very good. I, again, want to thank you for 
our conversation, especially during the earthquake, and the 
work you have done there, and your troops have done, and all 
the affiliated services that, kind of, came to the call 
immediately. As--I had heard great descriptions of your 
capacity to stay up many long nights, and sleep on whatever's 
available, in order to continue to keep the command working. I 
just wanted to thank you and the troops for doing such a good 
job under a very unique situation, and how fast you mobilized.
    General Fraser. Senator, it's a great team effort. Thank 
you.
    Senator Begich. Very good.
    Good to see you both. General, thank you very much.
    Thank you Mr. Chairman.
    Chairman Levin. Thank you, Senator Begich.
    Let me just announce that, when we begin the second 
hearing, we will follow the same order of recognition that 
we've been following for the first hearing. We're not going to 
start a new or changed order, in terms of recognition of 
Senators, so that everybody can know where they stand.
    Senator Collins.
    Senator Collins. Thank you. Thank you Mr. Chairman.
    General, let me thank you for your 39 years of 
extraordinary service. I assume that, now that you're retiring, 
you will be able to get to Maine's Franco-American Festivals, 
that we've talked about before, to celebrate your heritage. I 
look forward to being your personal guide in any of those 
festivals.
    I want to bring up an issue that is an increasing problem 
in my State, and that is the problem of drug trafficking across 
the northern border. There's been a great deal of focus, and 
indeed discussion this morning, about the problem with the 
Mexican drug cartels. Fortunately, the violence level at the 
northern border isn't anything close to what we're seeing at 
the southern border, but that doesn't mean that drug 
trafficking is not a problem. Indeed, it's such a problem that, 
last December, Maine's Federal judges met with me to express 
their alarm about the enormous increase in drug trafficking, 
particularly of methamphetamine, across the Canadian border. 
They told me that Canada is now one of the world's top 
producers of meth, and that this dangerous drug is increasingly 
being smuggled across the border in Maine.
    I understand that the violence associated with the Mexican 
drug cartels demands that the majority of the resources be 
focused on that. But, I'm concerned about whether there is a 
sufficient focus on the smuggling of meth and other dangerous 
drugs into the State of Maine.
    Could you give me more information on what you're doing to 
counter what you call, in your testimony, ``a serious 
transnational threat to our country''?
    General Renuart. Senator, first, I look forward to having 
you host me at a great event in Maine in the coming days. That 
would be wonderful.
    I think you hit on a very important element. We do tend to 
focus on drug trafficking south to north, and if--as I talk to 
my Canadian counterparts, both in the military and in the Royal 
Canadian Mounted Police (RCMP), they also indicate an alarming 
increase in drug activity, drug-related violence, in Canada. We 
have our JTF-North, who is focused on DOD support along the 
borders, both north and south, as well as in the maritime. This 
year, we actually are increasing the number of small but 
effective operations that we will conduct along the northern 
border, in partnership with both our Federal law enforcement--
DEA and others--and our RCMP friends.
    Let me get that data with more specifics, and I'll take 
that question, if I may, for the record and get that back to 
you specifically as it looks to Maine.
    [The information referred to follows:]

    [Deleted.]

    Senator Collins. Thank you. I also noted that, in your 
testimony, you indicated that you had taken steps to identify 
threats similar to the threat posed by Major Hasan at Fort 
Hood. Have you specifically directed your personnel to do more 
training on the signs of violent radicalization, particularly 
Islamist radicalization within the ranks?
    General Renuart. Senator, Secretary Gates directed a fairly 
detailed study of the Hasan case. Out of that, there are a 
number of recommendations. They're primarily pushed to the 
Services, because they have the responsibility for organize, 
train, and equip.
    Our role is to ensure that, if you will, facilities are 
then provided the right kinds of information so that their 
local officials can focus on--focus their attention on specific 
events. To that degree, we have worked very closely with our 
friends in the law--in the Federal Bureau of Investigation 
(FBI) on information-sharing of a nature that would be 
important to our military facilities. We've increased that kind 
of activity over the last, really, couple years and certainly 
accelerated some of the programs after the Hasan case.
    So, I--our role is to look at how these Services all view 
these. We're comfortable that the recommendations out of the 
Secretary's investigation committee make a lot of sense, and 
we're continuing to support those.
    Senator Collins. General Fraser, do you have anything to 
add on that issue?
    General Fraser. No, ma'am. We're very much in the same 
position as General Renuart. So, it's really focused--the only 
other piece I would put in--those people who are assigned to 
our organizations, especially the headquarters, then we do have 
a specific focus on supporting their needs.
    Senator Collins. Thank you.
    Finally, I want to associate myself with the comments that 
Senator Lieberman made about the change and the new teams that 
are going to take the place of two of the three CBRNE CMRFs. 
I'm very concerned about whether adequate resources are going 
to be invested so that we can respond effectively to a weapon 
of mass destruction. My specific question is how the new 
Homeland Response Forces (HRFs) would coordinate, plan, train, 
and exercise with the regional FEMA offices. I worked very hard 
to create a regional FEMA response team that would be across 
agency lines in response to the failed response to Hurricane 
Katrina. So, that kind of coordination is very important if 
we're going in a different direction.
    General Renuart. Senator, again, just very quickly, we have 
been asked to create the concept of operations that ensures 
just that kind of coordination is done. I think there will be a 
resourcing element of that, that we have to focus on very 
clearly, because these HRFs are hosted by--under the command of 
a Governor. So on a day-to-day basis, we have to ensure that, 
across the enterprise of consequence management, all of those 
are talking. By the way, they are also connected to the Federal 
agencies, like FEMA. So, this is a bit of work in progress. We 
owe the Secretary back a concept brief at the end of this 
month, and I think we'll have identified some of those very 
issues that you mentioned.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Collins.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, Generals.
    General Renuart, thank you for taking the time to visit 
with me yesterday. As I thought more about your plans to retire 
in Colorado, I was struck by the old adage that a--at least for 
us elected officials, a statesman is a dead politician. We--
some wag said, ``We need more statesmen,'' but I'll leave that 
for another conversation. I don't know your long-term plans 
are, I don't know what the equivalent in the military is, but 
we're looking forward to the benefit of your advice and your 
senior retired status. Although you don't look senior to me; 
you're fit. I know we welcome you as a permanent resident in 
Colorado.
    General Renuart. Thanks, Senator.
    Senator Udall. I'm going to lean on you for further 
insights and advice.
    Would you talk about the National Guard commission 
recommendations, and specifically how you've increased 
guardsmen at the headquarters, and how they've been 
incorporated? I think you and I have talked about what a great 
opportunity this is to further enhance the role of the Guard, 
to better understand how we utilize and deploy the Guard. I 
want to tip my hat to you, in the Northern Command, for what 
you've done in that regard, but please elaborate.
    General Renuart. Senator, we've--we have 50 full-time 
National Guard positions in our headquarters; 45 of those are 
filled. We've grown that number over time. That's very 
effective. But, across my headquarters, a substantial 
percentage of the military--Active military have served in a 
position where they've been associated with either the Reserves 
or the Guard. A substantial percentage of my civilians have--
are former members of the National Guard or the Reserve. So, we 
have a very good flavor and footprint in that regard.
    In fact, the State of Colorado has been particularly 
supportive, as we have 25 Colorado guardsmen who are a part of 
that full-time support. I just hired a new military assistant 
for NORAD, and he will come from the Colorado Air National 
Guard. So, we've built a close relationship, and I'm very 
pleased with that.
    I think we need to continue to look for opportunities to 
bring our Reserve component in as active participants in our 
headquarters. We have over 130 positions that could be filled, 
and we're working closely with both the Reserves of our 
Services, as well as National Guard Bureau, to try to keep 
those all as full as is possible.
    So, we're very proud of our relationship. I think we've 
built a closer relationship with the National Guard Bureau 
itself than we've ever had before.
    Senator Udall. Kudos to you. I think you and I share a 
philosophy, and I think General Fraser does, as well, that the 
Reserves and the Guard in this era of the All-Volunteer Force, 
and as powerful and as sophisticated as it is, there's a 
tendency for it to become isolated from society. The Reserves 
and the Guard provide that pipeline, if you will, and that 
connection between civilians and those who serve us so ably in 
the military.
    Let me turn to educational opportunities. General Fraser, I 
want to ask you to comment, as well. I know General Renuart's 
really been interested in this, particularly in the area of 
homeland security. Do you think the Joint Command educational 
opportunities should be expanded, maybe to include Ph.D. 
programs? In your experience, are those advanced degrees truly 
effective at bringing back a level of expertise to the force? 
If so, could they be enhanced? Maybe, General Renuart, start 
with you, and then----
    General Renuart. Senator, I think----
    Senator Udall.--General Fraser, if you'd like to----
    General Renuart.--the--in our traditional paradigm, the 
Services, each of them, direct the education programs for their 
individual people. As we've seen the growth of joint commands, 
I think that there is an opportunity for joint combatant 
commands to focus educational opportunities on skill sets that 
are unique to them. In our case, with homeland defense, 
homeland security, civil support, many of those skills don't 
traditionally reside in our service-focused education programs. 
So I think there is an opportunity for us to relook this 
paradigm and look for opportunities to allow combatant 
commanders to target, a small number potentially, but a number 
of unique education programs that will then benefit their 
commands. Then, I think we have to work the personnel system to 
allow us to take advantage of that. We do that, currently, with 
Chairman Mullen's initiative on the AfPakans, where we're 
developing, if you will, area experts in Afghanistan and 
Pakistan.
    Senator Udall. General Fraser, do you care to comment?
    General Fraser. Yes, Senator, thank you.
    I agree with General Renuart, and I would probably add on 
another part to that, especially as we've just--working through 
our experience in Haiti--and that is to also include an 
interagency part to that. Because it's not only the joint 
piece, but it is understanding the other parts of our 
interagency, our counterparts there, that will have great 
benefit as we apply a whole-of-government approach in many of 
the situations that we face in the future.
    Senator Udall. Yes, that's helpful. General Renuart and I 
talked yesterday about DHS and the Mexican border situation and 
what's unfolding there.
    Final question, General Renuart--and I think, in a sense, 
this is--strikes right at your legacy. Talk just a little about 
the relationship between the two commands that you oversee, 
NORAD and NORTHCOM. Why is it important to have a common 
commander and staff, in the future?
    General Renuart. Well, I think, when the two commands were 
formed, there was clearly an opportunity there to create a 
transparent--or a transition from warning of threats, that 
NORAD has traditionally provided, to the real operational 
defense of the homeland, whether its missile or maritime 
homeland defense, into consequence management of a natural 
disaster or manmade event. Over the years, the relationships 
between those two commands have become truly interdependent. 
Today, you can't separate the functions of warning from the 
functions of defense actions from the functions of consequence 
management. The structure that it takes to operate in that 
spectrum is consistently tied at every level. While there is 
certainly a difference between the binational command, NORAD, 
and our--the operations there, and the U.S. national 
authorities for NORTHCOM, the opportunity to keep them 
connected, almost at every level, provides great synergy for 
the Nation.
    In terms of the commander, I believe that it would be 
difficult not to have the same person in command of both of 
those headquarters because it--because of that synergy. I think 
we've seen, in the last 3 years, a real move to operationalize 
that. I think the results speak for themselves. We are 
increasingly effective in that regard, and very proud of that.
    Senator Udall. Thank you for that--insights. Again, thank 
you for your service.
    Thank you, to both of you, for taking care of our 
hemisphere--the American Hemisphere and all the opportunities 
we have here, and in maintaining our leadership role.
    Finally, a shout out to the Canadians, who've been such 
great partners of ours, and we're so fortunate to have them on 
our northern border, and to share a common culture and values 
and outlook. General, you've maintained, enhanced, and nurtured 
that relationship. I know they're--I've talked to some of the 
Canadian general officers, and they are sorry to see you go, 
because you've had such a great relationship with them.
    General Renuart. Well, it's in my family blood, so I have 
to. Thank you.
    Senator Udall. That's right. That's right. Yes.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Udall.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Thanks to both of you for your great leadership, your 
service to our country.
    General Renuart, as you wind down these 37 years--I know 
it's been a long time since your commissioning in 1972, but 
what great leadership, what great selfless service you have 
provided to our country. You're certainly a model to that next 
generation of leaders in every branch of our Service. So, 
thanks for your commitment. Thanks for your service. 
Personally, thanks for your friendship over the years. You've 
been a great asset to me as we've traversed through any number 
of issues. So, we appreciate you very much.
    We're not going to let you retire yet, General Fraser. 
We're going to keep you around a while, so----[Laughter.]
    Senator Chambliss. General Fraser, in highlighting the 
importance of partnering in partnership with nations in 
SOUTHCOM area of operations, currently one of the best ways 
that we have to build and sustain those partnerships is through 
WHINSEC. I was pleased to see both of you comment on that in 
your opening statements, as well as your written statement.
    Senator Levin and I are pleased to serve on the board for 
WHINSEC, and I've seen, firsthand, the value of the training 
that WHINSEC conducts and the partnerships with our southern 
allies that it helps to create. What are your thoughts 
regarding WHINSEC? How does it help you carry out your mission? 
What does it provide to nations that choose to send personnel 
to WHINSEC?
    General Fraser. Senator, thank you for that question. It's 
a very important institution for us. It provides a lot of 
capability-building. It has a real focus on democratic values, 
on human rights instruction. In fact, 10 percent of the course 
load is specifically focused on human rights. But, as you 
mentioned, it's really that partnership-building. It's not only 
partnership-building with members of the U.S. military, but 
it's across all the militaries who attend those courses.
    So, much like we've experienced in Haiti, where I've had at 
least a couple of instances where the U.S. officers had gone to 
school and--with, one case, a Canadian counterpart, in another 
case, a Brazilian counterpart, and they understood one another 
right away, and it really facilitated the operations in the 
future. So, no matter where we go, in a partnership-building 
capacity throughout the region, or specifically in working 
each--in working together on crises, it makes a huge difference 
for us.
    Senator Chambliss. The current Defense authorization bill 
contains a provision requiring public disclosure of names and--
of students and instructors who attend WHINSEC, as well as 
their countries of origin. In your opinion, what effect will 
this provision have on foreign countries' willingness to send 
students, as well as instructors, to WHINSEC? What effect will 
it have on WHINSEC's ability to help SOUTHCOM carry out its 
mission?
    General Fraser. Senator, I'm concerned that it will have a 
negative impact on it, that we have gone out and at least 
looked, and discussed with some of our partners there; they 
would be concerned if those names were released. I'm concerned, 
even for the U.S. military personnel and their families who 
support WHINSEC, with the release of that. So, I personally do 
not support the release of names.
    Senator Chambliss. Thank you.
    General Renuart, as you complete your third year as the 
commander of NORAD and NORTHCOM, as we look forward, what do 
you think are the biggest challenges out there for these 
respective commands?
    General Renuart. Senator, I think, as we see in many of the 
Services, recapitalization of our infrastructure is important 
to us. The age of our Air Sovereignty Fighter Force obviously 
is growing, and we want to continue to monitor very closely the 
development, the fielding of new systems that can allow us to 
maintain the air sovereignty of our two nations. The radar 
sites also are aging, and we have initiatives in place. So 
continuing to support the modernization of those are the things 
that I think are very important for the NORAD role.
    For NORTHCOM, I think continuing to work more closely with 
our border security partners, our interagency partners, 
continue to work closely with Mexico, especially in this area 
of countering illicit trade and traffic, I think are some of 
the future challenges. As Senator Collins and Senator Lieberman 
mentioned, making sure that the CMRF is well-organized, 
trained, and equipped, and executable for the Nation. Because 
we don't know when one of those events will occur, we have to 
be ready at any moment.
    Senator Chambliss. In November 2007, over 450 F-15s were 
grounded due to structural concerns, a number of them under 
your command. As a result of that, in NORTHCOM we had to call 
on the Canadians, who flew CF-18s, to fill in for F-15s for a 
period of about 3 weeks. As our F-15 platforms continue to 
age--and they're a part of that aging fleet that you alluded 
to--and they make their way towards retirement, are you 
concerned about available assets and the level of acceptable 
risk in the conduct of your air sovereign mission?
    General Renuart. Senator, I'm very concerned that we 
maintain an acceptable force level so that we can keep that 
mission intact. The Air Force is conducting a--if you will, a 
fighter force review that will target, not only the assignment 
of its aircraft in places, but where we invest money, from the 
Air Force's perspective, in maintaining that fighter force, as 
new systems come aboard. I think you're going to have a hearing 
about one of those in just a few minutes. I do monitor that 
very carefully. I've said, often publicly, on the record, that 
the baseline force that we have has to be maintained. I'm very 
comfortable, so far, that DOD--and certainly Department of the 
Air Force--are committed to maintaining that. But, it's 
something we monitor as you see adjustments in delivery rates 
or in aging rates of each of our systems.
    Senator Chambliss. Well, you're right, we're going to be 
talking about the F-35 here a little later on this morning. You 
and I have had opportunity to visit, relative to the 
performance of the F-22. I'd like for you to comment on that, 
as you have seen it firsthand. Second, what effect or impact 
will a slippage in the initial operational capability on the F-
35 have on NORTHCOM?
    General Renuart. Senator, first, on the F-22, it has proven 
itself to be an excellent weapon system. We've used it in our 
air defense missions in Alaska and have found it to be a very 
capable system. I think the Department is committed to continue 
its spiral development into the modern versions of the airplane 
that were planned. So, I'm very comfortable that it give us a 
capability that's much needed in our Air Force.
    With respect to the F-35 timing, again, if we see that 
program delay, then it's--of--it will be of interest to me to 
ensure that we maintain the quality and capability of our 
existing F-16, F-15 fleet--again, to maintain that air defense. 
For right now, I am not--I don't feel there's an unacceptable 
level of risk, because I think the two match pretty well. But, 
obviously if something changes, we'll monitor that very 
carefully.
    Senator Chambliss. Okay. Thank you very much.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    We're ready to proceed, I believe, now, to our second 
hearing.
    Senator Collins, if you don't have an additional question.
    We thank you both. We are, again, very appreciative of the 
service that you have always provided this Nation; your 
families' great support, we thank them for that.
    Again, General Renuart, all the best to you on your 
upcoming retirement.
    General Renuart. Thank you Mr. Chairman.
    Chairman Levin. We're going to take a 3-minute recess.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Bill Nelson
                      haiti reconstruction relief
    1. Senator Bill Nelson. General Fraser, it is my understanding that 
the USNS Comfort has departed Haiti and we are in the process of 
drawing down our forces to approximately 8,000 over the next couple of 
days. What will be the biggest challenge as we draw down U.S. forces in 
Haiti and turn over responsibilities to the United Nations (U.N.) 
Peacekeeping Force?
    General Fraser. Our greatest challenge as we draw down U.S. forces 
in Haiti is to ensure, together with our U.S. Agency for International 
Development (USAID), U.N., and nongovernmental organization (NGO) 
partners, sufficient engineering improvement in Internally Displaced 
Person (IDP) camps to weather the upcoming rainy season. We also may 
need to assist in the movement of as many as 9,000 at-risk people prior 
to the rainy season in order to prevent potential loss of life due to 
flash flooding and mud slides. For this reason, our drawdown will be 
somewhat slower than originally contemplated and we intend to maintain 
some capacity in Haiti through the hurricane season.

    2. Senator Bill Nelson. General Fraser, what are your greatest 
security concerns in Haiti post-earthquake i.e. drug trafficking, 
gangs, general instability?
    General Fraser. First let me say that the security situation in 
Haiti remains stable; however, challenges persist.
    The most immediate security issue is the overcrowded camps due to 
the thousands of internally displaced Haitians living there, and in 
many cases, lacking adequate sanitation and internal camp security. 
Anecdotal reporting indicates crime within these camps, most prevalent 
after dark, ranges from petty theft to rape. I would note that the 
U.S., Government of Haiti, and the international community are taking 
steps to improve camp security, including additional police patrolling 
and physical improvement such as lighting.
    Finally, I would like to say the Haitian populace has demonstrated 
a remarkable level of patience since the January 12th earthquake. While 
it is possible that general instability could result from the rainy 
season or hurricane season, we believe this is unlikely.

    3. Senator Bill Nelson. General Fraser, a recent New York Times 
article on Haiti reports that, ``according to a U.N. map of greater 
Port-au-Prince circulating among recovery teams, 21 out of the 500 
makeshift settlements are considered high risk for flooding, 
landslides, or overcrowding. Seven--home to 150,000 to 200,000 people--
are deemed life-threatening.'' With the rainy season officially 
beginning on April 15, what are we doing to help internally displaced 
Haitians in and around Port-au-Prince with shelter and sanitation?
    General Fraser. Shelter and sanitation continue to be the top 
priorities for the Government of Haiti. Operation Unified Response 
personnel qualified in building damage assessment recently trained 
Haitian responders in damage assessment, enabling them to continue 
assessments of buildings and homes across Port au Prince with an eye 
towards urging Internally Displaced Persons (IDP) to return to those 
homes deemed structurally safe. The distribution of shelter material 
continues to be a high percentage of total relief supplies 
distribution.
    The International Organization for Migration (IOM) is working 
closely with the Haitian Government, U.N., and NGO partners, and camp 
populations to establish a real-time sanitation monitoring system. The 
system will track the sanitary situation in displacement sites and 
detect immediate and structural challenges. Over the coming weeks, 
IOM's environmental health and sanitation unit will train residents in 
several camps to report on crucial health issues such as water, 
sanitation and hygiene issues. The teams will also focus on fighting 
mosquitoes in order to prevent malaria and dengue fever, as well as 
environmental hazards, especially flood and mud-slide risks.
    Over the last several weeks, U.S. Southern Command (SOUTHCOM) and 
others have undertaken engineering projects at the most vulnerable 
camps to reduce the risk of flooding. At this point we believe that 
perhaps 9,000 IDP residents will need to be moved to safer sites.

    4. Senator Bill Nelson. General Fraser, are you satisfied that our 
civilian agencies will pick up the slack on the humanitarian 
operations--including the security of food distribution--when the U.S. 
military departs?
    General Fraser. Yes, I am satisfied that the Government of Haiti 
assisted by the U.N., USAID, and NGOs can and will successfully conduct 
the full range of needed humanitarian assistance as U.S. military 
forces continue to depart. I would stress that we have always linked 
any reduction of DOD forces to the clear capacity on the ground of 
other organizations to assume our activities.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                  defense support to civil authorities
    5. Senator Burris. General Renuart, I understand that you provide 
command and control for Defense Support to Civil Authorities (DSCA) as 
part of your mission to conduct civil support operations. How do you 
integrate the forces of the National Guard and the Reserves of all 
Services into DSCA operations?
    General Renuart. National Guard forces will normally respond to a 
catastrophic event in State Active Duty or Title 32 Status, under the 
command of a Governor. U.S. Northern Command (NORTHCOM) coordinates 
with the National Guard to synchronize and integrate Federal and State 
military operations to avoid duplication and achieve unity of effort.
    NORTHCOM integrates Title 10 Reserve units and individuals into 
DSCA operations when they are mobilized or activated. For example, the 
Emergency Preparedness Liaison Officer (EPLO) program consists of more 
than 400 Reserve officers who belong to the Services (Army, Navy, Air 
Force, and Marine Corps) and have volunteered to support DSCA 
operations. As reservists, EPLOs possess unique knowledge about their 
regions and States, including: capabilities, key infrastructure, 
transportation systems, and local geography. NORTHCOM will normally 
request EPLO activation before, during, or after an incident or event 
to assist the Defense Coordinating Officer and our components in 
coordinating DOD's response. Additionally, NORTHCOM sponsors an annual 
workshop to train and educate EPLOs on DOD and NORTHCOM policies, 
plans, and procedures.

    6. Senator Burris. General Renuart, are there any restrictions?
    General Renuart. Yes, in accordance with Title 10, Army, Navy, Air 
Force, and Marine Federal reservists are only available for civil 
emergencies while in voluntary inactive duty for training status. To 
eliminate this restriction, we support a statutory change to allow the 
Secretary of Defense to order Army, Navy, Air Force, and Marine 
reservists to active duty to provide assistance in large-scale, 
manmade, natural, and accidental disasters or catastrophes when the 
response capabilities of Federal, State, and local civilian agencies 
have been, or will be, exceeded. This authority will enable the nearest 
unit, which is often Reserve, to respond--saving time, money, and 
American lives.

    7. Senator Burris. General Renuart, what specific roles does the 
Coast Guard play in DSCA?
    General Renuart. DSCA is conducted by the Department of Defense 
(DOD). Though a military service, the U.S. Coast Guard (USCG) is a part 
of the Department of Homeland Security (DHS), and therefore does not 
conduct DSCA. However, NORTHCOM and the USCG are mission partners in 
responding to domestic contingency operations. Additionally, the USCG, 
due to its statutory responsibilities, is engaged daily in civil 
support well before DOD assistance is requested.
    NORTHCOM and the USCG coordinate routinely to ensure unity of 
effort in the area of civil support operations. Regular missions 
performed by the Coast Guard include maritime Search and Rescue, Port 
Waterways and Coastal Security, and waterways management, including 
prevention and response to natural and man-made disasters in the U.S. 
marine transportation system.
    There are 20 full-time USCG positions, including one flag officer 
(Deputy Director of Operations), within the NORTHCOM headquarters.

    8. Senator Burris. General Renuart, how many personnel from other 
government agencies are permanently assigned to your command?
    General Renuart. Thirty-one people from non-DOD government agencies 
are permanently assigned to North American Aerospace Defense Command 
(NORAD) and NORTHCOM. In addition, there are 20 agency representatives, 
who reside with their parent agency, but are permanently assigned as 
the primary liaison between NORAD and NORTHCOM and their agency.

    9. Senator Burris. General Renuart, what are the advantages of 
having these agencies assigned versus detailed to your command?
    General Renuart. Having agency representatives permanently assigned 
to NORTHCOM allows for a truly ``collaborative'' environment in which 
agencies jointly develop and execute integrated plans and operations, 
and processes which fuse our cultures together in a common purpose. 
Permanently assigned agency representatives throughout NORAD and 
NORTHCOM provide interagency synchronization. They assist and 
facilitate coordination of interagency issues, initiatives and 
operations between the NORAD and NORTHCOM Battle Staff, components, 
deployed assets and external agencies. Resident agency representatives 
also facilitate interagency information sharing.
    Interorganizational representatives are the primary enablers in 
coordinating additional or refined connectivity as required with key 
external partners to ensure NORTHCOM is connected correctly to support 
day-to-day exercise and contingency operations. These representatives 
are essential for providing interagency context to our decisionmaking 
process, providing the interagency perspective to the NORTHCOM staff 
and providing the DOD perspective back to their parent organizations. 
This level of action and insight is only realized when an agency is 
fully integrated into the Command.

    10. Senator Burris. General Renuart, what role does Joint Task 
Force-Civil Support (JTF-CS) play in DSCA?
    General Renuart. JTF-CS plans and integrates DOD support to the 
designated primary agency for domestic chemical, biological, 
radiological, nuclear, or high-yield explosive (CBRNE) consequence 
management operations. When approved by the Secretary of Defense and 
directed by the Commander of NORTHCOM, JTF-CS deploys to the incident 
site and executes timely and effective command and control of 
designated DOD forces, providing support to civil authorities to save 
lives, prevent injury and provide temporary critical life support.
    JTF-CS focuses on responding to the effects of a CBRNE incident 
after civilian resources have been utilized first and fully. Some 
typical JTF-CS tasks include incident site support, casualty medical 
assistance and treatment, displaced populace support, mortuary affairs 
support, logistics support, and air operations.
    JTF-CS accomplishes its consequence management mission in strict 
adherence to existing Federal law, which carefully balances the support 
capabilities within the U.S. military with the needs of civil 
authorities during emergencies. In most instances, JTF-CS and its 
designated forces are deployed only after a State or territorial 
Governor requests Federal assistance from the president. In any 
domestic setting, JTF-CS remains in support of the primary agency 
throughout the CBRNE consequence management operation.
    JTF-CS can also conduct non-CBRNE DSCA missions at the direction of 
NORTHCOM. However, due to the unique capabilities that JTF-CS affords 
the national-level CBRNE response, considerations will be made at all 
levels to select alternative capabilities to meet non-CBRNE mission 
requirements.

    11. Senator Burris. General Renuart, is there a plan to give the 
civil support teams the ability to provide mission support and advice 
to the combatant commanders, in addition to their role to support the 
governors?
    General Renuart. There is no plan to have Weapons of Mass 
Destruction Civil Support Teams (WMD-CSTs) provide direct mission 
support to combatant commanders. However, WMD-CST situation reports do 
currently flow from the States to NORTHCOM through the National Guard 
Bureau.

              laboratory personnel demonstration programs
    12. Senator Burris. General Renuart, the command has permanently 
assigned members of the National Guard and the Reserves. Do you feel 
the mix of Active and full-time Reserve component personnel is 
sufficient to carry out the mission of the command?
    General Renuart. There are over 50 full-time Reserve component 
authorizations in NORTHCOM headquarters; however, only 45 of those 
positions are filled. More work is needed to fund and fill these 
important positions. Our mix of Active Duty and Reserve component is 
about right, if we can get the current positions filled. We have a 
Reserve component presence in every staff directorate in my 
headquarters working alongside their Active Duty brethren with the 
heaviest concentration in the Operations Directorate. I'm confident the 
Reserve component is represented in everything we do in the 
headquarters. I would submit that any change would be driven by funding 
and availability. I need either Active Duty manpower to fill valid 
positions or the Reserve Component funding to compensate for active 
duty shortages. The mission will not suffer depending on the type of 
manpower, but a lack of manpower could increase risk. The National 
Guard has made a significant investment in personnel assigned to 
NORTHCOM. In fact, NORTHCOM has the largest concentration of Title 10 
National Guard officers in a joint organization outside of the National 
Guard Bureau.

    13. Senator Burris. General Renuart, how do you interface with the 
DHS and are you in support of their efforts?
    General Renuart. NORTHCOM routinely works with the DHS on 
operational planning, training and execution of homeland defense and 
civil support missions. For defense support of civil authorities 
missions, NORTHCOM supports requests from the DHS in accordance with 
direction from the President and the Secretary of Defense.

    14. Senator Burris. General Renuart, illegal drugs continue to be 
problematic in the Southwest Border (SWB) States. You have a role to 
play in providing support to that effort. How long do you anticipate 
that the SWB mission using National Guard troops will be required?
    General Renuart. In order to effectively counter the threat of 
transnational criminal organizations in the SWB region, the U.S. 
Government needs to leverage the potential synergies among many 
agencies with homeland security, law enforcement, and defense missions 
while deepening the U.S. strategic alliance with the Government of 
Mexico.
    The Joint Staff advised NORTHCOM in 2009 of a request for forces 
from the DHS for military support along the SWB. The request was in 
anticipation of potential spill over violence by Mexican Drug 
Trafficking Organizations attempting to solidify control of territorial 
smuggling corridors. The request for DOD support was patterned after 
Operation Jump Start (2005-2007) to bridge capabilities until U.S. 
Customs and Border Protection could train new personnel to cover the 
expansion of requirements along the northern and southern borders of 
the United States. NORTHCOM has not been tasked by the Secretary of 
Defense to fill those positions with Title 10 forces. The National 
Guard Bureau, through the Joint Staff, has been tasked with planning 
how to support DHS with Title 32 forces.

    15. Senator Burris. General Renuart, how effective is your joint 
intelligence fusion cell in providing actionable intelligence/
information to various law enforcement agencies?
    General Renuart. [Deleted].

    16. Senator Burris. General Renuart, within the mission to provide 
theater security cooperation, what specific training programs do you 
provide Mexico?
    General Renuart. NORTHCOM coordinates the following kinds of 
training for the Mexican military:

        <bullet> Professional development
        <bullet> Professional military education in U.S. War Colleges 
        and Staff Colleges
        <bullet> English language training
        <bullet> Anti-Terrorism/Force Protection
        <bullet> Combat medical training
        <bullet> Port Security training
        <bullet> Logistics, supply, and warehouse training
        <bullet> Combat strategic intelligence training
        <bullet> Human rights training
        <bullet> Military justice/Rule of Law training
        <bullet> Tactical intelligence training
        <bullet> Public Affairs training
        <bullet> Information Systems training
        <bullet> Naval operations training
        <bullet> Patrol craft operations training
        <bullet> Ship repair training
        <bullet> Initial helicopter pilot training
        <bullet> Helicopter maintenance training
        <bullet> Aircraft pilot upgrade training
        <bullet> Aircraft maintenance training (hydraulics, 
        electronics, pneumatics, corrosion control)
        <bullet> Maintenance supervisor training
        <bullet> Operational law training
        <bullet> Anti-corruption workshop/training
        <bullet> Aviation safety training
        <bullet> Joint training
        <bullet> Ship inspection and container security training
        <bullet> Ship power plant--maintenance training
        <bullet> Civil-Military operations training
        <bullet> Urban operations training
        <bullet> Riverine training
        <bullet> Counter Terrorism fellowship training
        <bullet> International Dynamics of Terrorism courses
        <bullet> Senior executive level courses on global security 
        threats
        <bullet> Aircrew weapons director training
        <bullet> Aircrew simulator training
        <bullet> Counter Narcotics Operations training
        <bullet> Aviation survival training
        <bullet> Pilot instrument procedures training
        <bullet> Army Ranger training
        <bullet> Jumpmaster training
        <bullet> Dive training
        <bullet> Search and rescue training
        <bullet> Hemispheric security and defense training
        <bullet> Psychological operations training

    17. Senator Burris. General Renuart, what specific programs and 
DSCA support do you cooperate with Canada along our northern border?
    General Renuart. Defense Support of Civil Authorities is not 
conducted outside of the United States and its territories. However, 
NORTHCOM has signed the Canada-U.S. Civil Assistance Plan (CANUS CAP) 
with Canada Command (CANADACOM) establishing the framework for the 
military of one nation to support the military of the other nation 
pursuant to an exchange of diplomatic notes. If support is provided to 
civil authorities, it is still under military-to-military support, that 
is, the military forces of one nation supports the military forces of 
the other nation that are providing military support of civil 
authorities. The CANUS CAP was used during crisis action planning in 
the 2008 hurricane season, and for deliberate planning in response to 
requests from the Government of Canada for support during the Vancouver 
2010 Winter Olympic Games. During the 2010 Olympic Games, NORTHCOM was 
prepared to provide support to CANADACOM as they supported Public 
Safety Canada.

                   disaster relief in haiti and chile
    18. Senator Burris. General Fraser, I want to commend your command 
for providing the initial support to the relief efforts in Haiti and 
your potential support to Chile. What impact will these operations have 
on your other efforts within your Area of Responsibility (AOR)?
    General Fraser. Due to the increased operational tempo required of 
the Southern Command (SOUTHCOM) staff and its components as a result of 
the Haitian and Chilean crisis, we canceled two of our Foreign Military 
Interaction exercises this year, Fuerzas Aliadas Humanitarias and the 
command post exercise portion of Peacekeeping Operations-Americas (PKO-
A). Although these training opportunities were lost for this year, we 
anticipate executing them as planned next year, so there will not be 
any long term impact to the region. Other exercises will require some 
modification.
    In order to support the U.S. effort in Haiti, 12 of the SOUTHCOM's 
Medical Readiness and Training Exercises (MEDRETEs) were refocused on 
Haiti (6 previously programmed in Haiti, 4 reprogrammed from other 
countries, and 2 were created). Although redirecting four MEDRETEs from 
their original countries impacted our original theater security 
cooperation priorities, the high level of need in Haiti demanded the 
change. More significantly, with the tremendous support of the 
Louisiana National Guard, we created an additional New Horizons 
exercise for Haiti. This Humanitarian Civic Assistance exercise 
includes engineering, construction, and medical projects, selected in 
consultation with USAID and the U.S. Embassy in Haiti that will 
complement the U.S. relief effort while providing U.S. troops realistic 
training.
    With regard to SOUTHCOM Humanitarian Assistance Program, our 
ability to engage with other partner nations in the region and to fund 
potential disaster response operations throughout the AOR has been 
diminished until the Overseas Humanitarian, Disaster, and Civic Aid 
baseline is restored by the pending Haiti supplemental request.

               joint capability technology demonstrations
    19. Senator Burris. General Fraser, I understand that you have been 
approved to conduct Joint Capability Technology Demonstrations (JCTD) 
to address a permanent solution for responding to foreign disasters. 
What are the objectives and expected outcomes of the JCTD?
    General Fraser. SOUTHCOM is the operational lead or co-lead for 
three Joint Capability Technology Demonstrations (JCTDs) pertaining to 
military support for humanitarian assistance and disaster relief (HA/
DR) activities. While it is not possible to field a permanent solution 
to the multitude of HA/DR challenges, we expect each of these JCTDs to 
improve our ability to support interagency and international efforts 
when disasters strike.
    Transnational Information Sharing and Cooperation (TISC) JCTD has 
an objective of adapting best-of-breed information sharing capabilities 
to facilitate collaboration with traditional and non-traditional 
partners in complex environments. It leverages Internet Web 2.0 
technologies, such as interactive forums, chats, blogs, wikis, etc., to 
facilitate timely information sharing among U.S. and partner nation 
militaries, government agencies, non-governmental and international 
organizations, and other interested stakeholders. Central to TISC is a 
customized implementation of the All Partners Access Network (APAN), 
based on the Asia-Pacific Area Network hosted by the U.S. Pacific 
Command. TISC is in operational use today and has already yielded great 
dividends in Haiti. Within hours of the January 12, 2010 earthquake, a 
dedicated Haiti HA/DR community of 1,900+ registered members began 
sharing situational information, and quickly transitioned to using 
TISCs tools to coordinate actions.
    The Cooperative Security (CS) JCTD goes beyond TISC/APAN 
information sharing, with an objective of providing harmonized activity 
planning, execution monitoring, and feedback between DOD and the many 
U.S. Government interagency organizations and cultures; and eventually 
provide interfaces to support other national and international 
stakeholders. Currently under development, the CS design is projected 
to incorporate further refinements to APAN, and integrate advanced 
knowledge management and decision support capabilities.
    The Pre-positioned Expeditionary Assistance Kits (PEAK) JCTD 
recently kicked off with an objective of developing a modular, easy to 
transport kit that provides deployable water purification, renewable 
energy, basic situational awareness, and essential communications 
capabilities. PEAK will support a full spectrum of operations, to 
include HA/DR, bare-base deployments, peacekeeping operations, and 
support to law enforcement and civil authorities. The first six 
prototype units are projected to be available on or about June 30, 
2010, less than 4 months from idea to fielded capability.

                        reserve component forces
    20. Senator Burris. General Fraser, are you taking advantage of the 
civilian acquired skill sets that the Reserve component forces have to 
offer?
    General Fraser. Yes, the Reserve components brings a wealth of 
experience and knowledge that SOUTHCOM uses every day. In Haiti, we 
leveraged this extensive pool of experience by filling critical hard-
to-fill positions with reservists trained as surgeons, pilots, 
logisticians, and, search and rescue experts.
    In addition, Reserve component civilian acquired skill sets are key 
to ensuring successful State Partnership Programs (SPPs) projects. For 
example this year events have been executed focusing on the following 
civilian skills:

        <bullet> Full time civilian teachers who are soldiers at the 
        New Hampshire National Guard and the Ministry of Education from 
        El Salvador conducted a training project focused on improving 
        the techniques of teachers of special education.
        <bullet> Soldiers who work as divers for the New Hampshire 
        police conducted exchanges on underwater search and rescue 
        operations with El Salvador Police department.

    Many projects are conducted in Latin America that are focused on 
developing the civilian capabilities of our partner nations in managing 
disaster response utilizing our National Guard members who work as 
civilians in U.S. government disaster management agencies.
    Throughout the years, Reserve Component forces have also 
participated in projects focused on agricultural development, city 
planning, well digging and many more civilian acquired skill sets that 
have been key for engaging with our partner nations throughout 
SOUTHCOM.

                     security sector reform program
    21. Senator Burris. General Fraser, what countries are prime 
candidates for a successful security sector reform program?
    General Fraser. SOUTHCOM participates in broader U.S. Government 
security sector reform (SSR) efforts through interagency review of U.S. 
Embassy requests for Section 1207 funds to support host nation SSR 
programs. Haiti, Colombia, Panama, and Paraguay received 1207 funding, 
and remain viable candidates for further security sector reform 
programs. In addition, Peru, Guatemala, El Salvador, Costa Rica, 
Honduras, and Jamaica are prime candidates for security sector reform 
programs. The security challenges posed by illicit trafficking in Peru, 
Central America, and Jamaica adversely affect the security of these 
States and their people. In addition, gangs in Central America and 
Jamaica contribute to serious security challenges. Integrating defense 
and police against illicit trafficking organizations and gangs, 
including measures to increase their effectiveness of their joint 
operations, is critical to the security of these countries and 
ultimately, the United States.
    As one aspect of security sector reform, SOUTHCOM has worked with 
the defense establishments of various partners in the region, including 
Colombia and Panama, at their request, to realize more efficient and 
streamlined structures to manage their defense efforts. Professional 
militaries are a touchstone of stable and secure societies and 
professionalization begins at the individual level. To that end, DOD 
hosts a number of foreign defense establishment students at educational 
facilities such as the Western Hemisphere Institute of Security 
Cooperation and the Center for Hemispheric Defense Studies, where DOD 
provides its best practices on a range of issues, including strategic 
planning, resource management, and human rights.

             counternarcotics and counterterrorism efforts
    22. Senator Burris. General Fraser, can you identify some examples 
where the military-to-military engagement has led to enhancing the U.S. 
counternarcotics and counterterrorism efforts?
    General Fraser. SOUTHCOM continues to coordinate and implement a 
focused Counter Narcotics (CN) program, a basic element of which 
supports the development of a more robust Partner Nation air/maritime 
interdiction capability. The intent of this effort is to enable Partner 
Nations to respond independently or in concert with other Partner 
Nations against the CN threat. When integrated into Joint Interagency 
Task Force-South's (JIATF-S) overarching CN architecture this 
capability provides needed synergy to a diminishing number of US air/
maritime interdiction assets. Examples where this effort is proving its 
worth include the following:
    Through the Enduring Friendship (EF) Program, SOUTHCOM has assisted 
Partner Nations in the Caribbean and Central America to enhance their 
maritime intercept and C2 capability to conduct counter illicit 
trafficking operations. In fiscal year 2009, SOUTHCOM delivered 
interceptor boats to the Bahamas (2), Belize (2), Dominican Republic 
(4), Honduras (4), Nicaragua (4), and Jamaica (2). Additionally, 
SOUTHCOM provided C2 capability: Harris HF/VHF radios (land based and 
shipboard), Over the Horizon Tactical Tracking System and Cooperating 
Nations Information Exchange System, a maintenance and spare parts 
package for boats and radios, and a training package consisting of 
command, control and communications (C3), tactical boat operations and 
equipment maintenance. Nicaragua is an excellent example of how this 
maritime interdiction capability is being used, as security forces from 
that nation consistently respond to JIATF-S cued intelligence to 
support Law Enforcement Agencies in the interdiction and apprehension 
of illicit traffickers.
    Colombia Maritime Interdiction Capability--DOD purchased Midnight 
Express interdiction boats were delivered beginning in 2006 concurrent 
with the development of multiple supporting infrastructure projects on 
both the Pacific and north coast of Colombia. The initial 12 DOD 
purchased boats all actively engaged in CN maritime interdiction 
missions responding to Colombian/JIATF-S cued intelligence. Colombian 
Navy has purchased an additional 14 boats with their own funds with 
delivery of the first 6 scheduled in July of this fiscal year. Long-
term sustainment for the capability has shifted to the Colombian Navy 
with minimal additional support from the Department of State Narcotics 
Affairs Section in Colombia. The boats have been active against the 
Self-Propelled Semi-Submersibles threat particularly on the Pacific 
Coast in/around Buenaventura. JIATF-S and the Colombian Navy work 
closely in coordinating operations that employ the Midnight Express 
boats as a force multiplier in the maritime interdiction environment.
    SOUTHCOM maintains military-to-military relationships and enhances 
Host Nation Military Counter Narcotics/Counterterrorism abilities with 
countries throughout the AOR by conducting a series of recurring 
engagements which include: Joint Combined Exchange Trainings, Combined 
Multinational Exercises, Counternarcotics Assistance Missions, 
Humanitarian Assistance Programs, Intelligence Sharing and Intelligence 
Cooperation, and Security Assistance Programs. These engagements serve 
as the foundation to the SOUTHCOM Commander's Theater Campaign Plan and 
directly enhance and assist these countries' Counter Terrorist Forces 
and Counternarcotics Forces' effectiveness while enhancing the U.S.'s 
own counternarcotics and counterterrorism efforts.

                       state partnership program
    23. Senator Burris. General Fraser, how is the National Guard's SPP 
integrated into your theater engagement strategy?
    General Fraser. The National Guard's SPP is integrated in the 
SOUTHCOM's Theater Security Cooperation Strategy through a balanced 
approach of military to military, military to civil, and civil to 
military activities that sustain positive trends, reinforce successes, 
and cooperatively meet shared transnational challenges. It creates 
opportunities to develop capabilities within partner countries that 
support conditions to advance democracy, promote regional security, 
support hemispheric cooperation, foster future economic opportunities, 
and build partner nation capacity.
    In addition through the office of the Governor, institutional and 
people-to-people relationships are developed that can be sustained over 
the long term. The State facilitates local government, academic, and 
economic contacts, as well as National Guard and civilian community 
involvement in people-to-people contacts with the Partner Nation. This 
involves linking the right people, with the right skills and 
qualifications, at the right time to accomplish the mission and support 
my SOUTHCOM Strategy 2020.
    At this time 20 nations in the region are partnering with the 
National Guard from 17 States. Over the past year Guard units have 
participated in engagement opportunities such as engineering and 
medical exercises. Most recently, I am pleased to note Louisiana and 
Haiti are about to finalize the details of an SPP relationship.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                     ground-based midcourse defense
    24. Senator Sessions. General Renuart, although the Missile Defense 
Agency (MDA) has established a Stockpile Reliability Program to ensure 
ground-based midcourse defense (GMD) reliability over its service life, 
there appears to be very little emphasis on actual flight testing. 
Instead, MDA believes it can utilize ground-tests and inspections, 
coupled with modeling and simulation, to assess the reliability of the 
ground-based interceptor (GBI). This obviates the need for flight 
testing, reducing the number of required GBIs, which in turn reduces 
costs. The GMD program manager and the MDA Executive Director have 
briefed staff that MDA plans to acquire only 52 GBIs: 30 will be 
deployed, while the remaining 22 will be used for testing. By fiscal 
year 2019, MDA assumes developmental testing will be complete and that 
three GBIs will remain for stockpile reliability testing through 2032. 
In other words, MDA concludes that only three GBI flight tests over 12 
years will be sufficient to maintain system reliability. As the 
combatant commander responsible for defending the Homeland against 
ballistic missile attack, have you been asked to concur on MDA's 
stockpile reliability plan for the GMD system?
    General Renuart. No, we are aware of the Missile Defense Agency's 
Stockpile Reliability Program, but have not been asked to formally 
review the plan.

    25. Senator Sessions. General Renuart, do you agree with MDA's 
position that only three GBIs are required between 2019 and 2032 to 
conduct flight testing to assure the reliability of the GBI and the GMD 
system as a whole?
    General Renuart. We believe that a reliability program does need to 
be based on a representative sample of empirical missile tests at the 
full up round and component level. In order for MDA to be able to do an 
increased number of tests, additional funding is required to procure an 
adequate number of new missiles. This empirical testing, coupled with a 
comprehensive modeling and simulation approach to assess system 
reliability, can be combined with the lessons we learn through the 
Integrated Master Test Plan (IMTP). The IMTP is not a replacement for a 
continued reliability assessment program. However, it is a useful tool 
for the warfighter, U.S. Strategic Command (STRATCOM) (as the 
Functional Manager and Synchronizer), and the combatant commands to 
work with MDA to develop a comprehensive long-term testing and 
reliability program.

    26. Senator Sessions. General Renuart, if three to four flight 
tests are required for intercontinental ballistic missiles and 
submarine-launched ballistic missiles every year to assure the 
Commander of STRATCOM and the Secretary of Defense that our nuclear 
deterrent remains reliable, why are only three GBI flight tests 
necessary over the course of a dozen years?
    General Renuart. We believe that an effective stockpile reliability 
program is contingent on a sufficient number of items for testing as 
demonstrated by the reliability programs used by the individual 
Services for missiles like our ICBMs, Patriot, or current fleet of 
Standard Missiles. If further evaluation indicates a need for 
additional quantities, my understanding is that MDA can make that buy 
as late as fiscal year 2013 without incurring a production line break.

    27. Senator Sessions. General Renuart, will you personally examine 
the MDA's plan for GMD stockpile reliability to ensure sufficient 
flight testing is built into the program to maintain system reliability 
over the life of the GMD system?
    General Renuart. Yes, I look forward to reviewing and provide 
comments to the GMD stockpile reliability plan. Additionally, in 
coordination with MDA, I will work with STRATCOM and Joint Forces 
Component Command, Integrated Missile Defense as the functional manager 
and synchronizer to ensure our homeland defense requirements continue 
to be addressed throughout the life of the GMD program.

    [Whereupon, at 11:06 a.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                        TUESDAY, MARCH 16, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

        U.S. SPECIAL OPERATIONS COMMAND AND U.S. CENTRAL COMMAND

    The committee met, pursuant to notice, at 9:34 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, Webb, McCaskill, Udall, 
Hagan, Begich, Burris, Kaufman, McCain, Inhofe, Sessions, 
Chambliss, Graham, Thune, Wicker, LeMieux, Brown, Burr, Vitter, 
and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Howard H. Hoege III, 
counsel; Jessica L. Kingston, research assistant; Michael J. 
Kuiken, professional staff member; Gerald J. Leeling, counsel; 
Jason W. Maroney, counsel; William G.P. Monahan, counsel; 
Michael J. Noblet, professional staff member; Roy F. Phillips, 
professional staff member; and William K. Sutey, professional 
staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, professional staff member; 
Christian D. Brose, professional staff member; David M. 
Morriss, minority counsel; Lucian L. Niemeyer, professional 
staff member, and Dana W. White, professional staff member.
    Staff assistants present: Paul J. Hubbard, Christine G. 
Lang, and Brian F. Sebold.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Vance Serchuk, assistant to Senator 
Lieberman; Carolyn A. Chuhta, assistant to Senator Reed; Nick 
Ikeda, assistant to Senator Akaka; Greta Lundeberg, assistant 
to Senator Bill Nelson; Ann Premer, assistant to Senator Ben 
Nelson; Gordon I. Peterson, assistant to Senator Webb; Jennifer 
Barrett, assistant to Senator Udall; Roger Pena, assistant to 
Senator Hagan; Brady King, assistant to Senator Burris; Halie 
Soifer, assistant to Senator Kaufman; Anthony J. Lazarski, 
assistant to Senator Inhofe, Sandra Luff, assistant to Senator 
Sessions, Clyde A. Taylor IV, assistant to Senator Chambliss; 
Jason Van Beek, assistant to Senator Thune; Erskine W. Wells 
III, assistant to Senator Wicker; Brian Walsh, assistant to 
Senator LeMieux; Kevin Kane, assistant to Senator Burr; Kyle 
Ruckert, assistant to Senator Vitter; and Chip Kennett, 
assistant to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Before we begin the hearing, I want to take this 
opportunity to welcome one of our three new members to the 
Armed Services Committee. Senator Kaufman is the first Senator 
from the First State, which is Delaware's famous name; he's the 
first one to serve on this committee, according to our Senate 
historian. We know Senator Kaufman for his long, valuable 
service to the Senate, both as a Senator and before that as a 
member of the Senate staff.
    A special welcome to you, Senator Kaufman. We'll welcome 
the others when they get here, but a special welcome to you. 
Delighted to have you.
    The committee receives testimony this morning from General 
David Petraeus, Commander, U.S. Central Command (CENTCOM), and 
Admiral Eric Olson, Commander, U.S. Special Operations Command 
(SOCOM). Today's hearing continues the committee's review of 
the missions and operational requirements of our combatant 
commanders, in light of the priorities that are set out in the 
President's fiscal year 20ll budget request.
    Nowhere will the President's budget priorities have a 
greater impact than with the soldiers, sailors, airmen, and 
marines in the CENTCOM area of responsibility (AOR), including 
a significant portion of our Special Operations Forces (SOF). 
The men and women of CENTCOM and SOCOM have been engaged in 
major military operations for nearly 8\1/2\ years, most having 
served multiple deployments. Our SOF are facing the highest 
operational tempo in their history. Yet, in Afghanistan and 
Iraq, our troops' morale is very high, they are dedicated to 
their mission, and they are serving with courage and 
distinction.
    General Petraeus and Admiral Olson, thank you for your 
leadership, and, on behalf of this committee, please pass along 
our gratitude to the troops that serve under your command.
    The next 12 months will be critical in both Afghanistan and 
Iraq. The challenges are significant. In Afghanistan, the 
military operations in the central Helmand River valley are 
just the opening salvo, as General Petraeus has said, of a long 
campaign, under General McChrystal's command, to implement the 
President's counterinsurgency strategy. As General Gates told 
Afghan soldiers in Kabul last week, this conflict is their 
fight to win, and Afghanistan's future is in their hands.
    Key to this effort is the partnering of Afghan soldiers 
with U.S. and coalition forces living and operating together in 
the planning and conduct of military operations. Last week, the 
North Atlantic Treaty Organization (NATO) Supreme Allied 
Commander Europe, Admiral James Stavridis, said that the 
partnering ratio in Helmand Province had improved to nearly 1 
to 1; close to one Afghan soldier for each coalition soldier in 
the fight.
    General Petraeus, I hope you're going to update us this 
morning on the progress of our partnering efforts in 
Afghanistan.
    I have been deeply concerned, however, that the effort to 
grow the Afghan National Army (ANA) and Police is being slowed 
by a lack of trainers. Earlier this month, Lieutenant General 
Bill Caldwell, the head of the NATO Training Mission in 
Afghanistan, reported an almost 900 percent increase in Afghan 
Army recruits in training, from 830 in September to 7,400 in 
January of this year. But, at the same time, he reported that 
the NATO Training Command remains at just over half of the 
number of instructors and advisers required. At a recent 
conference to generate forces, NATO members pledged fewer than 
half the approximately 1,200 additional NATO trainers that are 
needed. As a result of this shortfall, Afghan Army recruits are 
having to wait to receive their basic training course.
    General Petraeus, the committee would be interested in any 
recommendations that you might have for addressing these 
resource shortfalls.
    Our SOF in Afghanistan are also faced with resource 
challenges, particularly due to the lack of enabling 
capabilities, such as rotary wing aircraft support. We'd be 
interested in hearing from our witnesses as to what is being 
done to address this issue for our SOF in theater today.
    I believe there are reasons for cautious optimism. An ABC/
BBC public opinion survey in Afghanistan in January found that 
70 percent of the Afghans polled believed their country was 
headed in the right direction. In terms of governance, the 
Afghan Government is apparently now working better with local 
leaders in Helmand to deliver services, which surely improves 
the chances of building support in the country for the Afghan 
Government.
    With regard to Afghanistan's long-term economic future, 
President Karzai recently announced that a soon-to-be-released 
U.S. Geological survey report will show that Afghanistan has 
nearly a trillion dollars in petroleum reserves and mineral 
deposits, which are in great demand.
    The coming months will also be important for the 
President's strategy in Iraq. By September 1, the U.S. combat 
mission in Iraq will end and U.S. forces will transition to the 
role of advising and assisting the Iraqi Security Forces (ISF). 
According to General Odierno, our commander in Iraq, the ISF 
performed well during the recent parliamentary elections, and 
that only a catastrophic event, in his words, would prevent the 
drawdown of U.S. forces from 96,000, currently, to 50,000 by 
the end of August. The drawdown of those forces will be an 
important milestone on the way to withdrawing all U.S. forces 
from Iraq by the end of 2011, redefining the U.S.-Iraq 
strategic relationship, and transferring responsibility for 
Iraq's security to Iraqis, while keeping the pressure on Iraqi 
leaders to reach the political settlements and decisions so 
essential to achieving security in Iraq.
    While our conventional forces reduce their footprint in 
Iraq, the requirement for SOF and the unique skills they bring 
to the effort will continue. Special operators will have a 
continuing requirement for support from their general-purpose 
force counterparts, including for airlift, medical evacuation, 
and intelligence, surveillance, and reconnaissance (ISR), as 
those SOF continue throughout the U.S. drawdown to provide 
support to the ISF.
    The attempted Christmas Day airline bombing near Detroit 
reminded every American that al Qaeda is a global organization 
that continues to threaten harm to anyone that does not share 
its radical views. That nearly catastrophic incident also 
focused attention on Yemen, a country with an uneven record on 
counterterrorism and large ungoverned spaces that serve as 
attractive sanctuaries for al Qaeda and its recruits.
    General Petraeus, I hope that you will let us know this 
morning what, in your opinion, our Government is doing to 
support Yemen's capacity to respond to the al Qaeda threat and 
to stabilize its territory, and your recommendations for what 
more can be done.
    Because the threat of violent extremism is not confined to 
Yemen or the Afghanistan-Pakistan border region, SOCOM 
maintains a global focus. SOCOM personnel are deployed to 
dozens of countries around the world, working to address the 
underlying causes of violent extremism and helping to build the 
capacity of other nations to address the mutual threats that we 
face. Working with U.S. ambassadors in priority countries, 
these special operators engage in a variety of training, civil 
affairs, and information operations (IO) intended to counter 
the spread of violent ideology.
    Admiral Olson, we hope that you'll update the committee on 
the progress of those efforts to address violent extremism 
globally.
    Finally, Iran remains a major security challenge. Iran 
continues to work to undermine stability in the Middle East and 
to stoke fears across the region. The brutal tactics and human 
rights abuses of the Government of Iran in its efforts to 
silence the voices of the people of Iran are of deep concern. 
As the administration continues its push for more significant 
sanctions against Iran, it will be critical to continue to work 
with our partners in the CENTCOM AOR on robust sanctions 
enforcement. This is going to require intense coordination and 
collaboration with other nations in the region.
    General Petraeus, we look forward to hearing your 
assessment of the willingness of other nations in the region to 
cooperate in the robust enforcement of current sanctions 
against Iran and support even stronger sanctions against Iran 
until they comply with United Nations (U.N.) resolutions 
relative to the Iranian nuclear program. Nuclear arms in 
possession of Iran, in violation of those U.N. resolutions, 
will threaten the stability of the region and cannot be 
accepted by the world community.
    I understand, now, that another new member of our committee 
has joined us. We welcome Senator Brown; he's the newest member 
of the Senate. He brings a very valuable perspective of having 
served for more than 30 years in the Massachusetts Army 
National Guard, and that is a very, very important contribution 
to us. We all welcome you to a committee which is famous for 
working on a bipartisan basis. We all enjoy working here, for 
many reasons; obviously, the security of this country being our 
common mission, but it's also because we work so well together 
across party lines. So, we welcome you.
    We've already welcomed Senator Kaufman, and there's just 
one other Senator. If Senator Bingaman is not here yet, we will 
welcome him when he arrives.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I join you in welcoming an old and dear friend, Senator 
Kaufman of Delaware, who I've known for many, many years.
    I would also like to welcome Senator Brown, a member of the 
Massachusetts Guard for 30 years, and all of that is very good 
news. Unfortunately, he joins Senator Graham as a lawyer. 
[Laughter.]
    But, we welcome him to the committee. He brings knowledge 
and expertise of the challenges that our men and women serving 
in the military face on a day-to-day basis as we are engaged in 
two wars.
    I thank our witnesses today, Admiral Olson and General 
Petraeus, for joining us. Let me extend my thanks to the men 
and women serving under your command, especially the families, 
who endure so much for the security and betterment of our 
country.
    Amid the wars in Iraq and Afghanistan and the ongoing fight 
against violent Islamic extremism, the focus of the U.S. 
military, especially our lead forces, is the Middle East and 
South and Central Asia. Obviously, this is the responsibility 
of CENTCOM and the chief priority of SOCOM. So, it's fitting 
and important that both combatant commanders are here today 
together.
    I'll keep my remarks brief and to the point. I'm concerned 
at what appear to be dangerous and growing doubts about U.S. 
power and commitment on the part of both our friends and our 
enemies in the broader Middle East today. On the one hand, this 
perception is profoundly unjustified. America enjoys a position 
of extraordinary power and influence in this region. The United 
States did not abandon Iraq when the going got tough. Instead, 
we succeeded in turning it around, in large part, thanks to 
your leadership, General Petraeus.
    A moderate majority was empowered in Iraq to turn the tide 
against violent extremists, and today the emergence of a 
democratic Iraq that can defend and sustain itself is becoming 
a hopeful new presence in an unstable region. I might add, Iraq 
is the only country in the Middle East, outside of Israel, that 
has a contested election.
    In Afghanistan, thanks to President Obama's decision to 
increase our civil-military commitment, the United States and 
our allies are now in a position to break the momentum of the 
insurgency and help our Afghan friends to secure their own 
country.
    As you've noted before to this committee, Admiral Olson, 
our SOF are making major strides in targeting the Taliban's 
leadership and keeping the pressure on al Qaeda; not just in 
Afghanistan, but also in places like Pakistan and Yemen.
    At the same time, as you have noted before, General 
Petraeus, the United States is building an elaborate and robust 
security architecture in the broader Middle East, including 
shared early-warning systems, ballistic missile defenses (BMD), 
and major sales of defensive weapons that enhance the 
capabilities of our friends to defend themselves and to deter 
our enemies. Though we admittedly face many difficult 
challenges in the broader Middle East, the fact is, the U.S. 
capability and lead in this region is strong and enduring.
    Yet, military capability is not the only measure of 
leadership. There's also the perception of our political 
resolve, and this is what concerns me. I'm concerned that the 
Government of Iran has spurned the President's offer of 
engagement. Not only has it experienced no real consequences 
for doing so, our deadlines for actions have slipped from 
September of last year to the beginning of this year, and now 
it's mid-March, and still there have been no consequences.
    So, too, with the Syrian Government. There's been plenty of 
U.S. engagement since the beginning of last year, but seemingly 
few changes to Syria's destabilizing behavior in the region as 
a result. Instead, the Syrian President is openly mocking U.S. 
leaders while meeting with the President of Iran and the head 
of Hezbollah. Meanwhile, despite constant refrains about 
cutting off the supply of arms to Hezbollah, the fact remains 
that Hezbollah is better armed today than ever before. When our 
allies and friends in the Levant and the Gulf look at these 
events, I worry that it feeds a lack of confidence in America's 
commitment to regional security.
    In South Asia, meanwhile, the pledge to begin withdrawing 
our forces by July 2011 has injected unnecessary doubts about 
U.S. commitment in the minds of friends and foes alike, from 
Afghan fence-sitters to Pakistan's leaders to our strategic 
partners in India. Reports over the weekend that reconciliation 
with Taliban leaders is now being explored before the vast 
majority of the 30,000-troop surge has even arrived in the 
country only feed the perception in the region that the U.S. 
Government is more eager to leave Afghanistan than to succeed 
there.
    In short, I'm concerned that we are heading toward a 
situation in the broader Middle East where our friends don't 
trust us and our enemies don't fear us, because both doubt our 
staying power, our determination, and our resolve. We may be 
heading there, but we aren't there yet. Though this perceived 
lack of U.S. commitment may take a lot of time and effort to 
reverse, I'm confident that it can be reversed. As I said, the 
U.S. capacity to lead remains strong; what's more, our country 
is blessed with some truly first-rate civilian and military 
leaders, individuals like our two distinguished witnesses today 
and the brave men and women under their command. It's our job, 
here in Washington, to support their needs, including the 
resources they require to succeed in their missions on our 
behalf. I look forward to hearing from our witnesses how we 
will all work together to address the serious challenges we 
face, especially in this vital part of the world.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    We now have a quorum of our committee; and so, I would ask 
the committee to consider three civilian nominations and a list 
of 802 pending military nominations.
    First, the civilian nominations: I ask the committee to 
consider the nominations of Jessie Hill Roberson, Joseph F. 
Bader, and Peter Stanley Winokur to be members of the Defense 
Nuclear Facilities Safety Board. Is there a motion to favorably 
report these nominees?
    Senator McCain. So moved.
    Chairman Levin. Is there a second?
    Senator Reed. Second.
    Chairman Levin. All in favor, say aye? [Chorus of ayes.]
    Opposed, nay? [No response.]
    The ayes have it.
    Next, I ask the committee to consider a list of 802 pending 
military nominations. They've been before the committee the 
required length of time. Is there a motion to report these 
nominations?
    Senator McCain. So moved.
    Chairman Levin. Second?
    Senator Reed. Second.
    Chairman Levin. There's a second.
    All in favor, say aye? [Chorus of ayes.]
    Opposed, nay? [No response.]
    The motion carries.
    Admiral, I think we'll start with you this morning.
    Admiral Olson.

 STATEMENT OF ADM ERIC T. OLSON, USN, COMMANDER, U.S. SPECIAL 
                       OPERATIONS COMMAND

    Admiral Olson. Good morning, Chairman Levin, Senator 
McCain, and other distinguished members of the committee. Thank 
you for the opportunity to appear again before this body to 
highlight the posture of SOCOM.
    It's a pleasure to join General Petraeus here this morning.
    Your continued support and oversight of SOCOM and its 
assigned forces has ensured that our Nation has the broad 
special operations capabilities that it needs and expects.
    With your permission, Mr. Chairman, I'll submit my written 
posture statement for the record, and open with a briefer set 
of remarks.
    Chairman Levin. That'll be fine.
    Admiral Olson. SOCOM's Service Component Commands--those 
being the Army SOCOM, the Air Force SOCOM, the Naval Special 
Warfare Command, and the Marine Corps Forces SOCOM--through 
them, SOCOM organizes, equips, trains, and provides fully-
capable SOF to serve under the operational control of regional 
combatant commanders around the world, and, as you noted, by a 
wide margin, our forces are most heavily committed to 
supporting operations in the CENTCOM AOR under the operational 
command of General Petraeus.
    On an average day, though, over 12,000 members of the SOF 
are present in about 75 countries. They conduct a wide variety 
of activities. You listed several, Mr. Chairman. They range 
from civil-military operations, like local infrastructure 
development in relatively benign environments, to 
counterterrorist operations under extremely demanding 
conditions. These indirect and direct actions conducted by SOF 
are intended to support each other in contributing to 
environments where security and stability can be further 
developed and sustained by local organizations and forces. In 
fact, nearly every mission performed by SOF is in support of an 
indigenous partner force.
    SOF do what other military forces are not doctrinally 
organized, trained, or equipped to do. The powerful effects of 
SOF in the areas where they are properly employed are often 
recognized as game-changers. Our force operates very 
effectively in small numbers, in remote regions, often with a 
low profile, under austere conditions.
    The deployment rate of SOF is high. Although the demand is 
outpacing the supply, I remain firm in limiting our request for 
manpower growth to the range of 3 to 5 percent per year.
    If approved, the President's fiscal year 2011 budget would 
grow SOF personnel by 4.5 percent. The overall baseline budget 
for SOCOM would grow by about 5.7 percent, to just over $6.3 
billion, with most of that increase in the operations and 
maintenance (O&M) account.
    Significantly, the overseas contingency operations funds 
would increase by $464 million, compared to 2010, bringing that 
account to about $3.5 billion, for a total 2011 SOCOM budget of 
$9.8 billion. This is sufficient to support our current level 
of special operations-peculiar activities around the world, as 
long as we are able to depend on the Army, Navy, Air Force, and 
Marine Corps for service-common items and support.
    The budget and acquisition authorities held by the 
Commander of SOCOM are similar to the military departments, 
although not on the same scale. They are essential to meeting 
the emergent needs of an innovative force with a unique mission 
set, and this applies equally to SOCOM's research and 
development authorities, which enable rapid application of 
science and technology to meet urgent operational needs.
    In my role as the commander responsible for the readiness 
of the SOF, I give high priority to training and education 
programs and to influencing, where I can, the career 
development of special operations personnel. Along with the 
pure operational skills that enable success in very complex and 
demanding operational environments, language skills and 
subregional expertise remain primary focus areas.
    The special operations community, of course, includes the 
families of our service men and women, and caring for our 
injured and wounded, and for the families of those killed in 
action, is among our most solemn responsibilities. We are proud 
of our many successes in returning wounded warriors to their 
teams and of our lifelong commitment to those who are unable to 
do so.
    You, on this committee, and all Americans, can be fiercely 
proud of your SOF. They are fit, focused, supremely capable, 
and incredibly courageous. They have impact well beyond their 
relatively small numbers, and I'm deeply honored by this 
opportunity to represent them to you today.
    I stand ready for your questions, sir.
    [The prepared statement of Admiral Olson follows:]
              Prepared Statement by ADM Eric T. Olson, USN
                              introduction
    Mr. Chairman and distinguished members of the committee, thank you 
for this opportunity to update you on the U.S. Special Operations 
Command (SOCOM). It is an honor to do so for the third time as 
Commander.
    Over 2 decades ago, Congress directed the establishment of a 
headquarters dedicated to prepare Special Operations Forces (SOFs) to 
carry out assigned missions. in support of Geographic Combatant 
Commanders. Since then, the forces and the missions have expanded and 
changed in response to very dynamic global conditions and threats.
    In this `new normal` in which our forces operate, emerging security 
challenges to our Nation come evermore from agile and elusive adversary 
networks versus traditional, uniformed military formations. Therefore, 
the value of adaptive SOFs is at least as much in their mindset as in 
their skill set.
    U.S. SOF respond to the sound of guns with a combination of speed, 
discipline, and tenacity. They also apply their knowledge and 
experience well ahead of the sound of the guns to prevent violence from 
erupting whenever and wherever possible. These are warriors who can act 
swiftly with precision and lethality, yet remain simultaneously capable 
of building long-term relationships and trust with international 
partners.
                     resourcing: force and mission
    On an average day, in excess of 12,000 SOF and SOF support 
personnel are deployed in more than 75 countries across the globe. An 
invaluable ingredient is our Reserve element, about 14 percent of SOF`s 
total manpower.
    Currently, 86 percent of deployed SOF are in U.S. Central Command's 
(CENTCOM) area of responsibility under the operational control of 
General Petraeus. The rest of the deployed force--along with over 3,000 
members permanently stationed in Europe and the Pacific--are serving 
the other Geographic Combatant Commanders.
    To support special operators and their capabilities, the 
President`s proposed budget request for fiscal year 2011 is about $6.3 
billion in baseline and $3.5 billion in Overseas Contingency Operations 
funding. Managing these funds is my responsibility.
    Along with SOCOM`s Major Force Program (MFP)-11 funding--one 
intended to fund SOF-peculiar requirements--the Command is heavily 
dependent on each of the Military Services for key enablers to special 
operations. Within our organic structure--both to provide sufficient 
speed of response and a degree of reliable sustainability--SOCOM is 
growing organic combat service and service support assets for SOFs, to 
include: communications, information support specialists, forensic 
analysts, military working dog teams, intelligence experts, and more. 
The fiscal year 2011 budget proposes a total manpower increase of 2,700 
people across the Force, a 4.6 percent growth from the previous fiscal 
year.
    Working closely with Joint Force Commanders, senior Department of 
Defense (DOD) leaders, and Congress, SOCOM also develops SOF-specific 
doctrine, and advises on policy and legislation supporting these 
activities.
    SOCOM is tasked to synchronize planning for global operations 
against terrorist networks. The 7500 series of Concept Plans 
(CONPLANs), crafted at SOCOM and approved by the Secretary of Defense, 
continue to function as both the framework for planning within DOD and 
a supporting mechanism within the interagency environment for combating 
global terror networks. The plans are supported by regional plans 
formulated by each of the Geographic Combatant Commanders specific to 
threats within their areas of responsibility.
    In our role, SOCOM receives, analyzes, and prioritizes these 
regional plans, and makes recommendations to the Secretary of Defense 
and the Chairman, Joint Chiefs of Staff on force and resource 
allocations. We also serve as an extension of the Joint Staff in 
coordinating SOF programs and operations with our interagency partners.
    The authority most often referred to as `Section 1208'--unique to 
SOCOM since 2005--is a key tool for our widely dispersed and often 
isolated SOFs around the world. This authority enables SOF to train and 
equip indigenous forces, both regular and irregular, and to enable them 
to support ongoing counterterrorism operations. Indigenous forces--
while serving a leading role and supported by SOF--provide essential 
access to locations, populations, and information otherwise 
inaccessible. Support to indigenous forces through section 1208 
reprioritization of funding has resulted in many successful 
counterterrorist operations.
                strategy: direct and indirect approaches
    CONPLAN 7500 calls for the use of both a direct and indirect 
approach to fighting terrorist networks. The direct approach to violent 
extremists consists of SOF efforts that disrupt terrorist organizations 
by capturing, killing, and interdicting extremist networks and 
resources, thereby preventing them from harming us in the near term. 
These actions include denial of access and use of weapons of mass 
destruction.
    The direct approach is urgent, necessary, and largely kinetic. In 
the last year, SOF--deployed in support of geographic combatant 
commanders--inflicted substantial losses against the leadership and 
operational capacity of al Qaeda and its violent extremist affiliates. 
These effects--while significant in the short term--are not by 
themselves decisive.
    The enduring results come from indirect approaches--those in which 
we enable partners to combat extremist organizations themselves by 
contributing to their capabilities through advising, training, and--
when authorized and funded--equipping. This includes efforts to deter 
active and tacit support for violent extremist organizations in areas 
where the existing government is either unwilling or unable to remove 
terrorist sanctuaries.
    Central to SOCOM`s contribution are our career, multi-dimensional 
operators, individuals adept in defense, diplomacy, and development. 
SOF operators are often locally grounded in their areas of 
responsibility, diplomatically astute, and experts in specialized 
tactical skills. It is demanding work.
    The number of individuals both eager and qualified to serve as SOF 
operators is limited. Overall, SOF personnel growth continues to be 
managed at about 3 percent annually, a strategy intended to retain the 
best while adding additional manpower only as it can be recruited, 
trained, absorbed and deployed.
    Still, direct and indirect approaches must be carefully balanced. 
While the direct approach is often necessary and has immediate impact, 
it essentially creates time for the indirect approach to achieve 
lasting outcomes through other means.
    Security Force Assistance (SFA) remains a highlight of SOF indirect 
action. SFA is a collaboration engine for the Command to include: 
security cooperation, security assistance, foreign internal defense, 
internal defense and development, and security sector reform.
    SFA enhances the military capabilities and capacities of our allies 
and partners via training, advising, assistance, and--as authorized--
equipping and supporting foreign military and security forces. 
``Build[ing] the security capacity of partner states'' is directly 
referenced within the 2010 Quadrennial Defense Review (QDR) as one of 
six key missions.
    The paradigm of national sovereignty is challenged by the trends of 
crime, migration, extremism, and the competition for resources which 
drive populations and provoke conflict. Recognizing this, the Command`s 
engagement efforts through the `Sovereign Challenge` Program continue 
as a unique method of establishing relationships with senior military 
leaders from around the world. The program--in collaboration with the 
U.S. Department of State--aims to provide venues in which robust dialog 
about threats to sovereignty can take place. In this indirect and 
mutually beneficial approach to military relationships, long-term 
success is measured by other countries' actions in their own and the 
region`s security interests.
                         global synchronization
    As previously stated, SOCOM is designated as the command 
responsible for synchronizing planning for global operations against 
terrorist networks. In this ongoing Global Synchronization Process, 
SOCOM coordinates with other combatant commanders, the Services, and--
as directed--appropriate U.S. Government agencies and international 
partners to deter, disrupt, and defeat terrorism across the globe. 
Regular meetings, video teleconferences, and `community of interest` 
forums facilitate planning, promote situational awareness, and enhance 
synergy within the overall war on terror effort. The Command`s Global 
Synchronization Workshops--now 5 years old--unite hundreds of planners 
from across the Global Synchronization Process Community.
                           enablers: mobility
    While attention is first given to operators conducting missions 
around the globe, these individuals are supported by a set of essential 
mobility capabilities that allow SOF to move, influence the 
environment, share information, and strike when necessary. In 
challenging settings and situations, success can depend upon these 
capabilities. For example, in Haiti`s Operation Unified Response this 
mobility allowed SOF to open a closed and damaged airfield to enable 
relief efforts. This was accomplished within 26 hours of the 
earthquake, and 28 minutes of being on the ground. SOF personnel 
subsequently assisted with medical and humanitarian assistance to 
include rescue of trapped citizens, injury treatment, and continuous 
broadcasting of relief locations and protocols.
    I`ve paid particular attention to mobility enabling capabilities, 
making them a focal point of the SOCOM Strategic Plan. This importance 
is echoed by the Secretary of Defense in the 2010 QDR, calling to 
``increase key enabling assets for SOFs.''
    For the Special Operator, mobility enhancements mean a variety of 
improved strategic and tactical capabilities. These provide, for 
example, quick strike capabilities regardless of terrain. In 
cooperation with the Army, we will grow SOCOM`s helicopter fleet by 
eight MH-47 Chinooks by fiscal year 2015. We are also nearing fielding 
completion of upgraded MH-47G and new MH-60M helicopters, improvements 
that provide SOF with modernized helicopters specifically adapted to 
SOF-peculiar requirements like aerial refueling, advanced night 
operations, and terrain-hugging flight profiles.
    Growth is also evident in the Tilt/Hybrid Wing Aircraft Programs. 
The CV-22 Osprey offers high-speed, long-range insertion and extraction 
of SOF. SOCOM currently has 12 CV-22s, growing to 50 by fiscal year 
2016.
    In their first combat deployment, 6 CV-22s logged over 600 flight 
hours, performing 45 direct action assault force missions and 100+ 
combat service support missions in the process. A recent national 
contingency mission used three of these aircraft for combat search and 
rescue, personnel recovery, and quick reaction force support.
    Our goal is to accelerate delivery of CV-22s to better support the 
forces requiring them. We are looking to add five more CV-22s in the 
coming year.
    The C-130--in several variants--remains the workhorse of the SOF, 
fixed-wing mobility fleet. C-130s provide SOF with important tactical 
lift and precision fire for our ground and maritime forces. Ongoing 
efforts to recapitalize the oldest of these airframes are a current top 
priority for Air Force SOCOM, our air component.
    Finally, the Non-Standard Aviation Program supports Theater SOCOM 
mobility requirements worldwide. This program includes short takeoff 
and landing, light and medium, intra-theater aircraft. The fiscal year 
2011 budget request includes funds to procure nine additional light and 
medium aircraft plus associated spares and repair parts.
    On land, a new Mine Resistant Ambush Protected All Terrain Vehicle 
will increase ground mobility for SOF. The new model--funded through 
the Joint Program Office--provides improved safety, visibility, 
control, and storage.
    In the maritime environment, SOCOM remains committed to developing 
undersea submersible platforms that will provide assured, clandestine 
access to denied and politically sensitive areas while enabling 
persistent intelligence, surveillance, and reconnaissance (ISR) in 
support of high-priority SOF requirements. The Advanced SEAL Delivery 
System Program (ASDS)--one well-supported by Congress--delivered these 
operational capabilities until it suffered a significant lithium-ion 
battery fire.
    As noted in last year's National Defense Authorization Act for 
Fiscal Year 2010, the Office of the Secretary of Defense is 
coordinating with the Director of National Intelligence to assess the 
feasibility of establishing a cost-sharing agreement for ASDS follow-on 
capabilities. If approved, these capabilities are expected to 
capitalize on improved battery technologies, ones recommended to the 
Navy by the investigation panel reviewing the ASDS lithium-ion battery 
fire. The fiscal year 2011 budget request includes funds to conduct 
research and development on the Joint Multimission Submersible which 
will provide these capabilities.
        enablers: intelligence, surveillance, and reconnaissance
    These efforts are complemented by planned upgrades to SOF`s 
Intelligence, Surveillance, and Reconnaissance (ISR) portfolio. ISR 
remains an invaluable asset, most notably in the CENTCOM area of 
responsibility. The ISR program is not about platforms; it is about 
complete systems including the people who operate them.
    Proposed plans--contained within a Joint Staff-approved 
capabilities document and seconded by the Secretary of Defense within 
the 2010 QDR (``expanding manned and unmanned systems for intelligence, 
surveillance and reconnaissance'') entail expansion of the Program`s 
inventory to include both manned and unmanned systems. These systems 
will be supported by Processing, Exploitation and Dissemination 
capabilities, and robust communication architecture. Airborne ISR 
remains complemented by maritime capabilities.
                     enablers: information sharing
    Effective use of ISR, however, can only occur on communications 
systems and networks designed to handle the large amounts of 
information developed. Our evolving mission sets form a difficult and 
increasingly expensive information sharing reality, with data residing 
on, and transiting through, a variety of systems under varying security 
criteria.
    Recognizing this problem, SOCOM is moving toward a globally 
responsive network capable of cross-domain data sharing. SOCOM`s SOF 
Information Environment (SIE) is our portion of DOD`s Global 
Information Grid. The SIE is a SOF information technology enterprise 
that will offer permissions-based, single sign-on access to SOF 
resources from anywhere on the globe.
                    enablers: science and technology
    SOCOM`s modernization, research and development and acquisition 
enabling processes are interconnected to ensure needed technological 
agility. The Command`s Rapid Exploitation of Innovative Technology 
(REITS) Program provides SOCOM with the ability to identify, assess and 
exploit emerging technologies for SOF-peculiar applications.
    REITS funds are assisting in the development of next generation 
software and antenna design for ``on-the-move,'' mounted and dismounted 
geo-location technology. This new capability will conform to both 
current tactical vehicles and radio frequency systems, while providing 
organic, small unit find, fix, and finish capabilities within a single 
tactical ground asset.
                 enablers: agile acquisition processes
    Rapid fielding of the Dragon Spear Precision Strike Platform (PSP) 
is an example of the benefits of an acquisition process designed for 
flexibility and agility. This system benefits from the Combat Missions 
Needs Statement (C-MNS) process which quickly addresses critical 
capability gaps that put missions or lives at risk. Funding execution 
responsibilities for C-MNS reside with the Joint Acquisition Task 
Force, meaning faster operational implementation.
    By design, PSP is a modular, scalable weapons system, one flexible 
enough for many platforms and configurations. Four Dragon Spear systems 
are currently being fielded. Ongoing MC-130W Dragon Spear improvements 
include upgrades to its sensors, a Standoff Precision Guided Munitions 
system and supporting 30mm gun, a sensor operator console, and 
communication equipment and flight deck hardware.
    SOF MC-130 console reconfigurations enable aircrews to operate more 
efficiently and effectively. Improved infrared warning systems result 
in better threat detection. Updated line-of-sight antennae produce more 
communications capacity with improved reliability. All are 
modernization initiatives designed to cost-effectively optimize current 
SOF aircraft.
                          enablers: education
    The unique nature of special operations enables us to focus people 
on specific regions more so than other forces can. This ensures we are 
doing the best we can with what we have.
    SOCOM--partnered with the Services--is intensifying its efforts in 
training and personnel management to create opportunities for our 
personnel to truly build productive and enduring relationships with our 
partners. DOD Directive 5100.1 aims to address many of these issues by 
enhancing SOCOM`s ability to influence management of our assigned 
manpower.
    Our culture and language programs are supplemented with increased 
attention to interagency collaboration and information sharing, with 
specific emphasis on subregional and microregional knowledge.
    I`ve directed SOF schools to pay more attention to curricula 
dedicated to advanced language skills and regional expertise. 
Specifically, we will ensure better alignment of language skills, 
career management, and incentives within our force.
    To prepare SOF for the challenges ahead, we`re prioritizing career 
development toward areas best suited for irregular environments with 
emphasis on specialized versus generalized operator performance. This 
entails building creative, adaptive and flexible leaders at every level 
of the enlisted and officer ranks.
    SOCOM`s Lessons Learned Program supplements these efforts with 
vital, in the field knowledge. This program emphasizes analysis and 
information sharing relevant to the SOF Community, one that now 
includes research, development, technology and experimentation 
activities.
                             care coalition
    We cannot sustain combat effectiveness without the enduring support 
of our families. Our operators are asked to do a great many things to 
protect our Nation, and all of them place additional demands on those 
who are closest to us. Continuing care for our wounded or injured 
operators--and for the families of those who have been seriously 
injured or killed--is among our most solemn responsibilities. The 2010 
QDR highlights the importance of such programs: ``caring for our 
wounded warriors is our highest priority, and we will work to provide 
them top-quality care that reflects their service and sacrifice.''
    SOCOM`s Care Coalition currently supports over 2,800 wounded SOF 
operators by matching medical needs with available providers. The goal 
of this clearinghouse - via advocacy, education, treatment, recovery, 
and rehabilitation - is to increase the likelihood of returning to duty 
and/or succeeding in post-military service. Additional efforts include 
proactive programs by SOCOM to identify, treat and prevent mental 
health care problems before they arise.
    Along with its SOCOM headquarters-based staff, eleven hospital 
liaisons help extend Care Coalition`s reach across the country and 
globe. These efforts are also supplemented by support from over 70 
partner organizations.
    When supporting our wounded, ill and/or injured and their families, 
our job is never done. We still need to improve synchronization among 
the various government agencies supporting these individuals, also 
refine legislation to fund them.
    Your support is essential. Over the past couple of years alone, SOF 
operators benefited from legislation that introduced a cognitive 
rehabilitation pilot program, pay and allowance continuation for 
wounded operators, care giver training and compensation, expansion of 
invitational travel orders for families of wounded, traumatic 
serviceman group life insurance, and memorial service support to our 
surviving families.
                            looking forward
    The three priorities on which SOFs need to focus--mission, people, 
and equipment--are enduring. Through direct action, we deter, disrupt 
and defeat terrorist threats across the globe. In tandem, indirect 
action creates and sustains environments to empower longer-term 
success.
    As we remain prepared for urgent, bold and decisive action, we 
recognize that it is high-quality, low-profile, long-term engagement 
that fosters trust and enables essential partnerships. In this regard, 
we should measure success by how well we have prepared others to face 
their security challenges, not by what we do for them.
    We also recognize that as we look forward, success increasingly 
depends upon the larger combination of defense, diplomacy, and 
development activities. In relaying his sentiments on the Afghanistan 
conflict, Chairman of the Joint Chiefs of Staff ADM Mullen indicated 
that ``winning is not solely the responsibility of the U.S. Military.'' 
``Success,'' he said, ``will come by and only through a concerted 
effort by other agencies and partners.'' We applaud policy and funding 
that provide other agencies the capabilities to contribute to this 
effort.
    As always, SOCOM and SOF--with your continued support--will answer 
the needs of operational commanders. Technology areas seen as vital to 
short- and long-term intervention will continue as focus areas for 
SOCOM research and development. Key enabling mechanisms across all 
terrains will yield the most effective, strategic, and tactical 
implementation of our forces.
    SOCOM will emphasize even more precise methods for gathering, 
analyzing, processing and sharing of information and intelligence about 
these domains. We will continue to engender existing relationships with 
interagency partners while exploring opportunities to further improve 
them. Our technology investments will permit us to better locate, tag 
and track threats before they strike.
    Sufficient infrastructure is essential to supporting our operators, 
and many of our existing facilities are in need of expansion or 
upgrade. The military construction program proposed for fiscal year 
2011 will help to improve this situation. Much-needed construction and 
modernization on 19 different projects at 9 different installations 
will sustain SOF operations support, operational communications, 
aircraft maintenance and capabilities, and intelligence functions.
    The contributions of this force amaze me every day. While 
relatively small in number, their dramatic, positive impact is of the 
greatest magnitude. They remain the world`s most precise and lethal 
counterterrorism force, and the most effective special operations 
trainers, advisors and combat partners. It is a profound honor to be 
associated with this extraordinarily capable and uniquely innovative 
force and to represent them before this committee.
    Our successes are only possible because of this committee`s active 
advocacy for the Command and its mission. Speaking on behalf of the 
entire community, your visits to the theater and to troops in recovery 
are deeply appreciated. Your support of the President`s budget will 
enable special operations to continue to meet our great Nation`s 
highest expectations. Again, thank you.

    Chairman Levin. Admiral, thank you so much.
    General Petraeus, welcome.

   STATEMENT OF GEN DAVID H. PETRAEUS, USA, COMMANDER, U.S. 
                        CENTRAL COMMAND

    General Petraeus. Thank you. Mr. Chairman, Senator McCain, 
members of the committee, thank you for the opportunity to 
provide an update on the situation in the CENTCOM AOR, and an 
opportunity to discuss CENTCOM's strategy and priorities for 
the year ahead.
    It is a pleasure to be here with my colleague and good 
friend, Admiral Olson.
    I, too, have submitted a written statement for the record, 
and will summarize it here.
    CENTCOM is now in its ninth consecutive year of combat 
operations. It oversees the U.S. efforts in Afghanistan and 
Iraq and the assistance to Pakistan, as well as a theaterwide 
campaign against al Qaeda. We are also, of course, working on 
numerous contingency plans, and we continue the effort to build 
partnerships throughout the AOR, working in concert with our 
diplomatic colleagues as part of whole-of-government approaches 
to help increase the capabilities of partner-nation security 
forces.
    Meanwhile, the conditions and dynamics that shape the 
security environment continue to evolve. Today, I'll briefly 
discuss these developments and our ongoing missions, as well as 
some of the dynamics that shape activities in the CENTCOM AOR.
    First, Afghanistan. As President Obama observed in 
announcing his new policy, ``It is in our vital national 
interest to send an additional 30,000 U.S. troops to 
Afghanistan.'' As he noted, these forces will provide the 
resources that we need to seize the initiative while building 
the Afghan capacity that can allow for a responsible transition 
of our forces out of Afghanistan.
    Clearly, the challenges there are considerable, but success 
there is, as General McChrystal has observed, both important 
and achievable. Our goals in Afghanistan and in that region are 
clear. They are to disrupt, dismantle, and defeat al Qaeda and 
its extremist allies, and to set conditions in Afghanistan to 
prevent reestablishment of transnational extremist sanctuaries, 
like the ones al Qaeda enjoyed there prior to September 11.
    To accomplish this task, we are working with our 
International Security Assistance Force (ISAF) and Afghan 
partners to improve security for the Afghan people, to wrest 
the initiative from the Taliban and other insurgent elements, 
to develop the Afghan security forces, and to support 
establishment of Afghan governance that is seen as legitimate 
in the eyes of the people.
    We spent much of the past year working to get the inputs 
right in Afghanistan; establishing the structures and 
organizations needed to carry out a comprehensive civil-
military campaign plan; putting our best leaders in charge of 
those organizations; developing the right concepts to guide our 
operations--the comprehensive campaign plan, the ISAF 
counterinsurgency guidance, and the tactical directive issues 
by General McChrystal; and providing the authorities and 
deploying the resources needed to achieve unity of effort and 
to implement the concepts developed.
    These resources include the forces deployed in 2009 and the 
30,000 additional U.S. forces currently deploying, some 9,000 
more forces from partner nations, additional civilian experts, 
and funding to enable our operations in the training and 
equipping of 100,000 additional Afghan security force members 
over the next year and a half. I should note that the flow of 
additional forces and associated equipment would not have been 
possible without your continued support, in general, and your 
support of our expeditionary military construction program, in 
particular.
    With the inputs largely in place now in Afghanistan, we are 
starting to see the first of the outputs. Indeed, the recent 
offensive in central Helmand Province represented the first 
operation of the overall civil-military campaign plan developed 
by ISAF and its civilian partners, together with Afghan 
civilian and security force leaders.
    Central to progress in Afghanistan will be developing the 
Afghan National Security Forces (ANSF), an effort made possible 
by your sustained support of the Afghan Security Forces Fund. 
Expansion of Afghanistan's security forces is now underway in 
earnest in the wake of the Afghan and international community 
decision to authorize an additional 100,000 security force 
members between now and the fall of 2011.
    This effort is facilitated considerably by the recent 
establishment of the NATO Training Mission-Afghanistan, led by 
Lieutenant General Bill Caldwell. ISAF-member nations are now 
working hard to field the additional trainers, mentors, partner 
elements, and transition teams to enable the considerably 
augmented partnering, training, and recruiting that are 
essential to the way ahead in this important area.
    The civil-military campaign on which we have embarked in 
Afghanistan will unfold over the next 18 months, and as many of 
us have observed, the going is likely to get harder before it 
gets easier. As we seek to expand security for the people and 
to take from the Taliban control of key areas, the enemy will 
fight back. Moreover, we are not likely to see the kind of 
dramatic reduction in violence that we saw about 6 months into 
the surge in Iraq; in part, because the levels of violence in 
Afghanistan are nowhere near those of Iraq at the height of the 
sectarian violence, though they clearly are at levels that make 
progress in certain areas very difficult.
    In any event, 2010 will be a difficult year, a year that 
will see progress in a reversal of Taliban momentum in 
important areas, but also a year in which there will be tough 
fighting and periodic setbacks.
    We have seen important change in Pakistan over the past 
year. During that time, the Pakistani people, political 
leaders, and clerics united in recognizing that the most 
pressing threat to their country's very existence was that 
posed by certain internal extremist groups; in particular, the 
Pakistani Taliban. Pakistani citizens saw the Taliban's 
barbaric activities, indiscriminate violence, and repressive 
practices in the Northwest Frontier Province and Federally 
Administered Tribal Areas (FATAs), and even in some of 
Pakistan's so-called settled areas, and they realized that the 
Taliban wanted to take Pakistan backwards several centuries, 
not forward.
    With the support of Pakistan's people and leaders, the 
Pakistani military has carried out impressive counterinsurgency 
operations over the past 10 months. The Army and the Frontier 
Corps have, during that time, cleared the Taliban from Swat 
District, which I visited 3 weeks ago, and from other areas of 
the Northwest Frontier Province, as well. Now, they are 
holding, building, and beginning to transition in those areas.
    They have also carried out impressive operations in South 
Waziristan, home to the former Baitullah Mehsud, the leader of 
the extremist elements that assassinated Benazir Bhutto and 
blew up thousands of innocent Pakistanis and security force 
members in recent years. They have carried out good operations 
in some other areas of the FATA as well, including in Baijaur 
Agency most recently.
    These latter operations have been carefully coordinated 
with ISAF and Regional Command (RC)-East, and that coordination 
enabled RC-East elements to engage extremists who fled 
Pakistani operations and crossed the Durand Line into 
Afghanistan. In short, Pakistani forces have been carrying out 
an impressive campaign, and the Pakistani forces and people 
have suffered tough losses during the course of it.
    We recognize the need for considerable assistance to 
Pakistan as they continue their operations, and we will 
continue to work with Congress in seeking ways to support 
Pakistan's military.
    Our focus has been on supporting the Pakistani forces. They 
are doing the fighting. We are providing various forms of 
assistance. Our task, as Secretary Gates has observed, has to 
be to show that we are going to be a steadfast partner, that we 
are not going to do to Pakistan what we've done before, such as 
after Charlie Wilson's War, when we provided a substantial 
amount of assistance and then left precipitously, leaving 
Pakistan to deal with a situation we'd helped create.
    It is, therefore, important that we provide a sustained, 
substantial commitment, and that is what we are endeavoring to 
do, with your support. The Kerry-Lugar-Berman bill does that by 
providing $1.5 billion in economic assistance per year for 5 
years. The provision of coalition support funding, foreign 
military financing, the Pakistani Counterinsurgency Fund, and 
other forms of security assistance provide further critical 
assistance for Pakistan's security forces. Together, this 
funding and our assistance demonstrate America's desire to 
strengthen this important strategic partnership and help our 
Pakistani colleagues.
    In the 3 years since the conduct of the surge, security in 
Iraq has improved significantly. Numbers of attacks, violent 
civilian deaths, and high-profile attacks are all down by well 
over 90 percent from their highs in 2006 and 2007. With the 
improvements in security has also come progress in a variety of 
other areas: in the repair of infrastructure damaged during the 
violence; in the provision of basic services; in attracting 
international investment; and even in various social and 
political areas.
    The conduct of the elections on March 7, during which an 
impressive turnout of Iraqi voters defied al Qaeda attempts to 
intimidate them, provided the latest example of Iraq's progress 
since the sectarian violence of 2006 and 2007 ripped apart the 
very fabric of Iraqi society. As always, however, the progress 
in Iraq is still fragile, and it could still be reversed. Iraq 
still faces innumerable challenges, and they will be evident 
during what will likely be a difficult process as the newly-
elected Council of Representatives selects the next prime 
minister, president, and speaker of the council, and seeks 
agreement on other key decisions, as well.
    Our task in Iraq is to continue to help the ISF--in part, 
through the Iraqi Security Forces Fund--as we continue to draw 
down our forces in a responsible manner. This task has been 
guided by the policy announced by President Obama about a year 
ago. Since that announcement, we have reduced our forces in 
Iraq by well over 30,000, to some 97,000, and we are on track 
to reduce that number to 50,000 by the end of August, at which 
time we will also complete a change in mission that marks the 
transition of our forces from a combat role to one of advising 
and assisting Iraq Security Forces.
    As we draw down our forces in Iraq and increase our efforts 
in Afghanistan, we must not lose sight of other developments in 
the CENTCOM AOR. I want to highlight the developments in two 
countries in particular: Yemen and Iran.
    In Yemen, we have seen an increase in the prominence of al 
Qaeda as it exploits the country's security, economic, and 
social challenges. The threat to Yemen, to the region, and 
indeed to the U.S. Homeland, posed by what is now called al 
Qaeda in the Arabian Peninsula, has been demonstrated by 
suicide bombers trying to carry out operations in Yemen's 
capital, by the attempt to assassinate the assistant Minister 
of Interior in Saudi Arabia, and by the attempted bombing of a 
U.S. airliner on Christmas Day.
    In fact, a number of us have been increasingly concerned 
over the past 2\1/2\ years by the developments we have observed 
in Yemen. Last April, I approved a plan, developed in concert 
with our ambassador in Yemen, U.S. intelligence agencies, and 
the State Department, to expand our assistance to key security 
elements in Yemen. With Yemeni President Saleh's approval, we 
began executing that plan last summer, and this helped 
strengthen the capabilities demonstrated by the Yemeni 
operations that were carried out against al Qaeda in the 
Arabian Peninsula in mid-December, and that have been executed 
periodically since then, as well. With your support, we are 
working toward expanded, sustained levels of assistance in 
Yemen.
    In fact, our efforts in Yemen should not just be seen as 
part of our overall counterterrorist campaign, but also as part 
of what might be termed preventive counterinsurgency 
operations, for our efforts not only help develop key security 
forces in Yemen, they also contribute to the overall effort to 
help Yemen deal with challenges that could become much more 
significant if not dealt with early on.
    Iran poses the major state-level threat to regional 
stability in the CENTCOM AOR. Despite numerous U.N. Security 
Council resolutions and extensive diplomatic efforts by the P5-
plus-1 and the International Atomic Energy Agency, the Iranian 
regime continues its nuclear program. Indeed, Iran is assessed 
by many analysts to be engaged in pursuing a nuclear weapons 
capability, the advent of which would destabilize the region 
and likely spur a regional arms race.
    The Iranian regime also continues to arm, fund, train, 
equip, and direct proxy extremist elements in Iraq, Lebanon, 
Gaza, and, to a lesser degree, Afghanistan. It continues 
significant intervention in the domestic politics in each of 
those locations, as well.
    The Iranian regime's internal activities are also 
troubling, as its violent suppression of opposition groups and 
demonstrations in the wake of last years' highjacked elections 
has made a mockery of the human rights of the Iranian people 
and fomented further unrest. Those internal developments have 
also resulted in greater reliance than ever on Iran's security 
services to sustain the regime's grip on power.
    Having discussed the developments in these countries, I'd 
now like to explain the importance of two key enablers in our 
ongoing missions, and to raise one additional issue. The 
Commanders' Emergency Response Program (CERP) continues to be a 
vital tool for our commanders in Afghanistan and Iraq. Small 
CERP projects are often the most responsive and effective means 
to address a local community's needs. Where security is 
challenged, CERP often provides the only tool to address 
pressing requirements.
    In the past year, we have taken a number of actions to 
ensure that we observe the original intent for CERP, and also 
to ensure adequate oversight for use of this important tool. I 
have, for example, withheld approval for projects over $1 
million, at my level, and there has only been one such project 
since late last September. In the past year we've asked the 
Army Audit Agency to conduct audits of the CERPs in Iraq and 
Afghanistan. We've established guidelines for the number of 
projects each CERP team should oversee, and we have coordinated 
with the military Services to ensure adequate training and 
preparation of those who will perform functions connected with 
CERP in theater, while we have also established procedures to 
take cash off the battlefield.
    Beyond that, the Department of Defense (DOD) is currently 
performing an internal assessment and undertaking additional 
initiatives. With the force increases in Afghanistan, CERP 
funding priority has understandably shifted from Iraq to 
Afghanistan. We pledge to continue aggressive oversight of the 
CERP as this shift takes place. In addition, we will continue 
to seek innovative mechanisms and authorities to allow for 
greater cost-sharing and to spur the development of similar 
counterinsurgency tools by coalition and host-nation partners.
    In the past year, CENTCOM has pursued several initiatives 
to improve our capabilities in the information domain, and we 
have coordinated these actions closely with the State 
Department's Under Secretary for Public Diplomacy, Judith 
McHale. This past year, we made significant headway in 
improving our ability to counter adversary IO, including 
establishing a full-fledged Joint IO Task Force in Afghanistan. 
Nonetheless, we still have a long way to go, and we desperately 
need to build the capabilities of a regional IO task force to 
complement the operations of the task force that has done such 
impressive work in Iraq, and the one that is now beginning to 
do the same in Afghanistan.
    In the broader CENTCOM AOR, Operation Earnest Voice (OEV) 
is the critical program of record that resources our efforts to 
synchronize our IO activities, to counter extremist ideology 
and propaganda, and to ensure that credible voices in the 
region are heard. OEV provides CENTCOM with direct 
communication capabilities to reach regional audiences through 
traditional media, as well as via Web sites and regional public 
affairs blogging. In each of these efforts, we follow 
admonition we practiced in Iraq, that of being first with the 
truth. Full and enduring funding of OEV and other DOD IO 
efforts will, in coordination with State Department 
initiatives, enable us to do just that, and, in so doing, to 
communicate critical messages and to counter the propaganda of 
our adversaries.
    Cyberspace is becoming an extension of the battlefield, and 
we cannot allow it to be uncontested enemy territory. Indeed, 
in the years ahead, extremist activities in cyberspace will 
undoubtedly pose increasing threats to our military, and our 
Nation as a whole. DOD and other elements of our Government are 
working to come to grips with this emerging threat. Clearly, 
this is an area in which we need to develop additional 
policies, build capabilities, and ensure adequate resources. I 
suspect that legislation will be required over time, as well.
    Within DOD, the establishment of the U.S. Cyber Command, 
proposed by Secretary Gates, represents an essential step in 
the right direction. This initiative is very important, because 
extremist elements are very active in cyberspace. They recruit 
there, they prosthelytize there, they coordinate attacks there, 
and they share tactics and techniques there. We have to ask 
ourselves if this is something that we should allow to 
continue; and, if not, then we have to determine how to prevent 
or disrupt it without infringing on free speech.
    In conclusion, there are currently some 210,000 soldiers, 
sailors, airmen, marines, and coastguardsmen serving in the 
CENTCOM AOR. Day after day, on the ground, in the air, and at 
sea, these courageous and committed troopers perform difficult 
missions against tough enemies under the most challenging of 
conditions. Together with our many civilian and coalition 
partners, they have constituted the central element in our 
effort to promote security, stability, and prosperity in the 
region. These wonderful Americans and their fellow troopers 
stationed around the world constitute the most experienced, 
most capable military in our Nation's history. They and their 
families have made tremendous sacrifices, and nothing means 
more to these great Americans than the sense that those back 
home appreciate their service to our country.
    In view of that, and on behalf of all those serving in the 
CENTCOM AOR, I want to take this opportunity to thank the 
American people for their extraordinary support of our men and 
women in uniform. I also want to take this opportunity to thank 
the members of this committee and of Congress overall for their 
unwavering support and abiding concern for our troops and their 
families.
    Thank you very much.
    [The prepared statement of General Petraeus follows:]
            Prepared Statement by GEN David H. Petraeus, USA
                            i. introduction
    Chairman Levin, Senator McCain, and members of the committee, U.S. 
Central Command (CENTCOM) is now in its ninth consecutive year of major 
combat operations in an area of the world critical to the interests of 
the United States and our allies. With our national and international 
partners, CENTCOM promotes security cooperation among nations; responds 
to crises; deters or defeats state and non-state aggression; and 
supports development and, when necessary, reconstruction in order to 
establish the conditions for regional security, stability, and 
prosperity. Typically, executing this mission and achieving U.S. 
national goals and objectives in the CENTCOM Area of Responsibility 
(AOR) involves more than just the traditional application of military 
power. In many cases, a whole-of-government approach is required, one 
that integrates all the tools available to international and 
interagency partners to defeat transnational groups that pose a threat 
to the United States or our partners; to secure host-nation 
populations; to conduct comprehensive counterinsurgency and security 
operations; to counter the proliferation of weapons of mass destruction 
(WMD); to help reform, and in some cases build, governmental and 
institutional capacity; and to promote economic development.
    These are challenging missions, and the conditions and dynamics 
shaping the region's security environment are constantly evolving. In 
the past year, there have been several important developments in the 
AOR--some representing progress, others presenting challenges. These 
changes include increased operations by the Pakistani military against 
groups that threaten the writ of governance in Pakistan, as well as 
continued improvements in the capabilities and self-reliance of the 
Iraqi Security Forces coupled with the degradation of the capabilities 
of militant groups in Iraq. We have also seen increased insurgent 
violence in Afghanistan and Pakistan, a general diminution of al Qaeda 
in the region despite an increase in the prominence of al Qaeda in the 
Arabian Peninsula in Yemen (AQAP), the emergence of significant 
domestic unrest and opposition in Iran accompanied by the regime's 
continued intransigence over its nuclear program and its support to 
militant proxies, an increase in piracy in the Gulf of Aden and off the 
coast of Somalia, and the continuing fallout from the global financial 
crisis.
    The progress we have seen has not simply happened of its own 
accord. It is, to a great extent, the result of the work of U.S., 
partner, and coalition forces operating in the AOR over the past year. 
Since the delivery of last year's Posture Statement, CENTCOM has worked 
to implement national policies as well as the recommendations of the 
comprehensive strategic review we conducted last winter. We have begun 
the responsible drawdown of forces from Iraq, working to sustain the 
hard-won security gains achieved since the summer of 2007 and placing 
us on track to have 50,000 troops in Iraq after this August. We are 
implementing the President's strategy for Afghanistan and Pakistan, to 
include an increase in forces and non-military resources. Having put 
into place the proper organizations, people, and concepts for the 
civil-military campaign in Afghanistan, we are currently deploying 
additional resources to halt the downward spiral in security and expand 
the size and capabilities of the Afghan security forces. We have placed 
great pressure against al Qaeda's networks and senior leadership, and 
we have also made good strides in developing a Regional Security 
Architecture to address common security threats in the region. All the 
while, CENTCOM forces have continued to provide military support to 
major diplomatic initiatives in the region and to maintain a ready 
posture to respond to unforeseen crises.
    Building on our past successes and achievements and responding to 
the region's dynamics, CENTCOM will focus on the following priority 
tasks in the coming year:

        <bullet> Reversing the momentum of the insurgency in 
        Afghanistan and training Afghan security forces to regain the 
        initiative against militants and to increase public confidence 
        in the government;
        <bullet> Helping our Iraqi partners build on their progress 
        while sustaining hard-won security gains, reducing U.S. forces 
        in the country, and transitioning to a new mission of advising 
        and assisting the Iraqi security forces;
        <bullet> Maintaining persistent kinetic and non-kinetic 
        pressure to degrade and counter transnational terrorist and 
        militant organizations that threaten the security of the United 
        States and our allies;
        <bullet> Expanding our partnership with the Pakistani military, 
        supporting its operations against militant groups, and 
        assisting in the development of its counterinsurgency 
        capabilities;
        <bullet> Countering destabilizing Iranian activities and 
        policies;
        <bullet> Countering the proliferation of WMD and related 
        material, technology, and expertise, while building the 
        capacity and interoperability of our partners to prevent and, 
        if necessary, respond to the use of WMD;
        <bullet> Bolstering the military and security capabilities of 
        our partner nations' security forces;
        <bullet> Working with our partners to counter piracy, illegal 
        narcotics trafficking, and arms smuggling;
        <bullet> Bolstering oversight and ensuring responsible 
        expenditure of U.S. funding; and
        <bullet> Working with the U.S. military services to reduce the 
        strain on our forces and the cost of our operations.

    The intent of the remainder of this Posture Statement is to address 
these priorities and the broader, long term solutions they support by 
providing a more detailed overview of the AOR, a description of our 
strategic approach to defending and advancing our interests, 
assessments of the situation in each of the AOR's major sub-regions, 
and comments on the programs and systems that enable our operations.
                    ii. overview of the centcom aor
A. Nature of the AOR
    The lands and waters of the CENTCOM AOR span several critical and 
distinct regions. It stretches across more than 4.6 million square 
miles and 20 countries in the Middle East and South and Central Asia 
and contains vital transportation and trade routes, including the Red 
Sea, the Northern Indian Ocean, and the Arabian Gulf, as well as 
strategic maritime choke points at the Suez Canal, the Bab el Mandeb, 
and the Strait of Hormuz. The AOR encompasses the world's most energy-
rich region, with the Arabian Gulf region and Central Asia together 
accounting for at least 64 percent of the world's known petroleum 
reserves, 34 percent of its crude oil production, and 46 percent of its 
known natural gas reserves.
    Social, political, and economic conditions vary greatly throughout 
the region. The region is home to some of the world's wealthiest and 
poorest states, with annual per capita incomes ranging from $800 to 
over $100,000. Despite important pockets of affluence, many of the more 
than 530 million people living in the AOR suffer from inadequate 
governance, underdeveloped civil institutions, unsettling corruption, 
and high unemployment.
    As a result of these contrasts and the proliferation of global 
communications and mass media, many people in the AOR are struggling to 
balance modern influences with traditional social and cultural 
authorities and to manage change at a pace that reinforces stability 
rather than erodes it. For the past century, the sub-regions of the AOR 
have been torn by conflict as new states and old societies have 
struggled to erect a new order in the wake of the collapse of 
traditional empires. These conflicts have intensified in the past three 
decades with the emergence of al Qaeda and its Associated Movements, 
the specter of nuclear weapons, and enormous wealth derived from 
petroleum and illegal narcotics. Today we see stability in the AOR 
threatened by interstate tensions, the proliferation of ballistic 
missile and nuclear weapons technology and expertise, ethno-sectarian 
violence, insurgencies and sub-state militias, as well as horrific acts 
of terrorism.
B. U.S. Interests and the Most Significant Threats to Them
    Because of the CENTCOM AOR's geography, control of much of the 
world's energy reserves, and propensity for instability, the United 
States has substantial strategic interests in, and related to, the 
region. Chief among these are:

        <bullet> the security of U.S. citizens and the U.S. Homeland;
        <bullet> regional stability;
        <bullet> international access to strategic resources, critical 
        infrastructure, and markets; and
        <bullet> the promotion of human rights, the rule of law, 
        responsible and effective governance, and broad-based economic 
        growth and opportunity.

    The most serious threats to these interests lie at the nexus of 
militant groups, hostile states, and WMD. Across the AOR, al Qaeda and 
its Associated Movements are fueling insurgencies to reduce U.S. 
influence and to destabilize the existing political, social, and 
economic order. Meanwhile, some countries in the AOR play a dangerous 
game of allowing or accepting terrorist networks and facilitators to 
operate from or through their territory, believing that their own 
people and governments will be immune to their threat. Efforts to 
develop or acquire nuclear weapons and delivery systems magnify the 
potential dangers of the marriage between some states and their 
militant proxies. Indeed, the acquisition of nuclear arms by hostile 
states or terrorist organizations would constitute a grave threat to 
the United States, our allies, and the countries of the region and 
would likely spark a destabilizing arms race.
    In the near term, the greatest potential for such a threat to arise 
is found in the instability in South Asia, the activities and policies 
of the Iranian regime, the situation in Iraq, and the growth of AQAP in 
Yemen.

        <bullet> Instability in Afghanistan and Pakistan. The 
        insurgencies in Afghanistan and Pakistan constitute the most 
        urgent problem set in the CENTCOM AOR. Al Qaeda, the Taliban, 
        and the syndicate of militant groups operating in the border 
        region between Afghanistan and Pakistan are engaging in an 
        increasingly violent campaign against the people and 
        Governments of Afghanistan and Pakistan. Both states face a 
        serious threat from these groups, and though some of these 
        organizations perpetrate acts of terrorism against local 
        targets and others operate internationally, these groups have 
        increasingly cooperative, even symbiotic, relationships. As a 
        result, the control by any of these groups of major population 
        centers or significant economic or financial resources would 
        present an enormous challenge to security in the region and 
        across the globe.
        <bullet> Iran's Destabilizing Activities and Policies. The 
        activities and policies of the Iranian regime constitute the 
        major state-level threats to regional stability. Despite 
        repeated International Atomic Energy Agency findings of Iranian 
        violations of non-proliferation obligations, five United 
        Nations Security Council
        <bullet> Situation in Iraq. Security in Iraq has improved 
        significantly since the peak of the sectarian violence in mid-
        2007, but the gains there remain fragile and reversible, though 
        increasingly less so. In Iraq, a number of factors continue to 
        pose serious risks to U.S. interests and have the potential to 
        undermine regional stability, disrupt international access to 
        strategic resources, and frustrate efforts to deny terrorist 
        safe havens and support bases. Internally, fundamental issues 
        such as the distribution of political power and resources 
        remain to be settled. The Iraqi state is still developing, and 
        numerous challenges confront its leaders and people,
        <bullet> Instability in Yemen. The inability of the Yemeni 
        Government to effectively secure and exercise control over all 
        its territory offers AQAP a safe haven in which to plan, 
        organize, and support terrorist operations. This network poses 
        a direct threat to the U.S. Homeland, as evidenced by recent 
        plots, including the attempted bombing of a U.S. airliner on 
        Christmas Day 2009. At the same time, the Yemeni state faces 
        challenges from separatist movements in the South and a 6-year 
        conflict with Houthi rebels, which despite the cease-fire in 
        February could reignite and again spill over into Saudi Arabia. 
        Moreover, the influx of refugees from Africa, pervasive arms 
        smuggling, a deteriorating economic situation, and piracy 
        continue to challenge the capabilities of the Yemeni 
        Government.
C. Cross-cutting Challenges to Security and Stability
    While this statement will describe in greater detail the dynamics 
and challenges in the sub-regions of the AOR, there are a number of 
cross-cutting issues that serve as major drivers of instability, inter-
state tensions, and conflict. These factors can serve as root causes of 
instability or as obstacles to security.

        <bullet> Insufficient progress toward a comprehensive Middle 
        East peace. The enduring hostilities between Israel and some of 
        its neighbors present distinct challenges to our ability to 
        advance our interests in the AOR. Israeli-Palestinian tensions 
        often flare into violence and large-scale armed confrontations. 
        The conflict foments anti-American sentiment, due to a 
        perception of U.S. favoritism for Israel. Arab anger over the 
        Palestinian question limits the strength and depth of U.S. 
        partnerships with governments and peoples in the AOR and 
        weakens the legitimacy of moderate regimes in the Arab world. 
        Meanwhile, al Qaeda and other militant groups exploit that 
        anger to mobilize support. The conflict also gives Iran 
        influence in the Arab world through its clients, Lebanese 
        Hizballah and Hamas.
        <bullet> Militant Islamist movements. The CENTCOM AOR is home 
        to militant Islamist movements that threaten states in the 
        region, exploit local conflicts, and foster instability through 
        acts of terrorism. The most significant of these is al Qaeda, 
        which, along with its Associated Movements, seeks to impose its
        <bullet> Proliferation of WMD. The AOR contains states and 
        terrorist organizations that actively seek WMD capabilities and 
        have previously proliferated WMD-related material, technology, 
        and expertise outside established international monitoring 
        regimes. In addition, regional states are increasingly 
        interested in the development of nuclear programs, which, if 
        not properly managed, could lead to the proliferation of 
        illicit nuclear material or a regional arms race.
        <bullet> Ungoverned, poorly governed, and alternatively 
        governed spaces. Weak civil and security institutions and the 
        inability of certain governments in the region to exert full 
        control over their territories are conditions that insurgent 
        groups can exploit to create physical safe havens in which they 
        can plan, train for, and launch operations or pursue narco-
        criminal activities. We have seen these groups develop, or 
        attempt to develop, what might be termed sub-states, 
        particularly in Afghanistan, Pakistan, Lebanon, Iraq, Yemen, 
        and the Palestinian territories.
        <bullet> Significant sources of terrorist financing and 
        facilitation. The AOR remains a primary source of illicit 
        funding and facilitation for global terrorist organizations and 
        other militant groups. All this financing is transmitted 
        through a variety of formal and informal networks, which 
        include financial operatives and front companies throughout the 
        region.
        <bullet> Piracy. The lack of governance in Somalia has allowed 
        piracy to grow off the coast and in the Horn of Africa 
        threatening the flow of commerce through the region. Since the 
        spike in piracy in 2008, we have worked in close cooperation 
        with the international community to counter this trend by 
        focusing on increasing international presence, encouraging the 
        shipping industry to adopt best practices to defend against 
        piracy, and establishing a sound international legal framework 
        for resolving piracy cases. Despite some reduction in the 
        number of successful pirate attacks in the region, piracy 
        remains lucrative--increasingly so, as the ransom rates have 
        nearly doubled over the previous year's--and pirates continue 
        to modify their area of operations and techniques to avoid 
        coalition presence.
        <bullet> Ethnic, tribal, and sectarian rivalries. Within 
        certain countries, the politicization of ethnicity, tribal 
        affiliation, and religious sect serves to disrupt the 
        development of national civil institutions and social cohesion, 
        at times to the point of violence. Between countries in the 
        region, such rivalries can heighten political tension and serve 
        as catalysts for conflict and insurgency.
        <bullet> Disputed territories and access to vital resources. 
        Unresolved issues of disputed territorial boundaries and 
        disagreements over the sharing of vital resources, such as 
        water, oil, and natural gas, serve as sources of tension and 
        conflict between and within states in the region.
        <bullet> Criminal activities, such as weapons, narcotics, and 
        human trafficking. Weapons smuggling, narcotics trafficking, 
        and associated criminal activities undermine security, spur 
        corruption, and inhibit legitimate economic activity and good 
        governance throughout the AOR. In particular, state-sponsored 
        weapons trafficking in support of groups like Lebanese 
        Hizballah, Hamas, and the Palestinian Islamic Jihad undermines 
        regional security and the Middle East Peace Process.
        <bullet> Uneven economic development and lack of employment 
        opportunities. Despite substantial economic growth rates 
        throughout much of the region over the past few years, 
        significant segments of the population in the region remain 
        economically disenfranchised, under-educated, and without 
        sufficient opportunity. In addition many countries in the 
        region face growing ``youth bulges'' that will strain their 
        economies' abilities to produce sufficient employment 
        opportunities. The recent global economic downturn has 
        heightened these problems. Without sustained, broad-based 
        economic development, increased employment opportunities are 
        unlikely given the growing proportions of young people relative 
        to overall populations.
        <bullet> Lack of regional and global economic integration. The 
        AOR is characterized by low levels of trade and commerce among 
        countries, which diminish prospects for long term economic 
        growth, as well as opportunities to deepen interdependence 
        through increased political, commercial, social, and cultural 
        ties.
                         iii. regional strategy
    To help defend and advance our national interests, CENTCOM executes 
a strategy that promotes security and stability in our AOR. In 
cooperation with our partners and in concert with national policy, we 
work to deter aggression as well as eliminate the conditions that 
foment conflict. Given the complexities of the AOR and its many 
security challenges, we have adopted a strategy that consists of active 
engagement in the region as well as prudent preparation for 
contingencies. The following sections describe the highlights of this 
strategy by outlining the strategic vision we seek to achieve and the 
guiding principles and major activities that characterize our approach.
A. Strategic Vision.
    The conditions needed for security, stability, and prosperity in 
the region constitute the strategic vision we are working toward and 
the ultimate goals of our activities. They reflect our desire to 
strengthen the international system, while promoting effective and 
responsible governance and broad-based economic development throughout 
the region. Specifically, we seek a region

        <bullet> that is at peace with itself and its neighbors;
        <bullet> that is focused on common security and cooperation;
        <bullet> with stable governments that are responsive to the 
        needs of their people;
        <bullet> with patterns of economic development that advance 
        people's well-being;
        <bullet> where nuclear proliferation is not a threat and where 
        nuclear energy use is verifiable and for peaceful purposes;
        <bullet> with unhindered international access to strategic 
        resources, critical infrastructure, and markets; and
        <bullet> from which, and within which, groups such as al Qaeda 
        do not threaten the United States or our allies.

    Working towards these objectives, in concert with the Department of 
State, is the most feasible and acceptable strategy for addressing the 
threats to our interests. To be sure, these objectives are broad and 
far-reaching, but they are nonetheless attainable.
B. Strategic Approach.
    Achieving this vision and establishing these conditions necessarily 
requires changing--in some respects significantly changing--the 
security environment in the region, and as a result, our activities 
must be guided by the principle that our security solutions be 
comprehensive, cooperative, and enduring. This guidance recognizes that 
we must simultaneously address security, political, and economic 
challenges in the region; that we cannot do this through military means 
alone or without the cooperation of our partners in the region and the 
broader international community; and that these changes must be 
longlasting and, eventually, self-sustaining.

        <bullet> Comprehensive Solutions. Because instability and 
        insecurity in the AOR stem from a complex mix of security, 
        political, and economic challenges, we must pursue 
        comprehensive solutions to problems in the region. This 
        requires us to apply whole-of-government approaches that fully 
        integrate our military and non-military efforts and those of 
        our partners. For example, to address the threat posed by 
        insurgent groups we are dismantling their networks and 
        leadership, often through the use of security forces, while 
        also working to eliminate their sources of support by 
        protecting populations from these groups, disrupting their 
        financial networks and sources of financing, delegitimizing 
        their methods and ideologies, and addressing legitimate 
        grievances to win over reconcilable elements of the population. 
        We constantly strive to understand the complexities of these 
        challenges and tailor our approaches to the unique 
        circumstances on the ground.
        <bullet> Cooperative Solutions. Because the challenges in the 
        region are often transnational ones and because no nation can 
        protect itself from these threats without cooperation from 
        others, we must pursue cooperative, multilateral solutions. We 
        seek collective action and an atmosphere of broad inclusivity 
        and partnership to attract the needed pool of resources and to 
        leverage each country's
        <bullet> Enduring Solutions. Finally, because we want lasting 
        conditions of security and prosperity, we must seek long term, 
        enduring solutions to the challenges in the region. To this 
        end, we work to address the root causes of instability rather 
        than apply quick fixes to their symptoms. Also, to achieve the 
        cooperation described above, we pursue strategic partnerships 
        with the Nations of the region rather than short-term 
        transactional relationships. Lastly, we strive to increase 
        integration and interdependence in the region in many different 
        areas--diplomatic, commercial, social, and cultural--under the 
        belief that increased interaction is a positive-sum game that 
        benefits all parties and reduces the incentives for conflict. 
        All of our efforts require sustained commitments of our 
        attention, energy, and, in some cases, resources.

    Adhering to these principles in our strategic approach and in the 
execution of our operations places a premium on unity of effort at all 
levels and with all participants. At the combatant command level, this 
means working with our interagency and international partners to 
develop joint action or campaign plans that establish appropriate 
missions and objectives for our subordinate elements, from major 
commands such as U.S. Forces-Iraq and U.S. Forces-Afghanistan (USFOR-A) 
to our country-based offices of military cooperation. To effectively 
carry out these plans, we work carefully to coordinate our military 
elements with the corresponding State Department envoy or ambassador as 
well as our international and host nation partners.
C. Major Activities
    In addition to our ongoing operations in Iraq and Afghanistan, our 
forces are engaged in numerous, wide-ranging endeavors designed to 
establish the conditions described above for security, stability, and 
prosperity in the region. Chief among these major activities are our 
efforts designed to do the following:

        <bullet> Defeat al Qaeda and its Associated Movements
        <bullet> Deny sanctuaries and disrupt support for insurgent 
        groups
        <bullet> Counterproliferation of WMD and associated technology
        <bullet> Deter and counter state-based aggression and proxy 
        activities
        <bullet> Support the peaceful resolution of longstanding 
        interstate conflicts
        <bullet> Build bilateral and multilateral security partnerships
        <bullet> Develop partner nation security capacity
        <bullet> Help nations protect their critical infrastructure and 
        support infrastructure development
        <bullet> Bolster at-risk states
        <bullet> Respond to humanitarian crises, when called upon by 
        our Ambassadors
        <bullet> Counter arms smuggling
        <bullet> Protect freedom of navigation
               iv. critical subregions of the centcom aor
    The complexity and uniqueness of local conditions in the CENTCOM 
AOR defy attempts to formulate an aggregated estimate of the situation 
that can address, with complete satisfaction, all of the pertinent 
issues. Thus, the best way to approach the challenges in the AOR is 
through a disaggregation of the problem set into six sub-regions, 
described as follows:

        <bullet> Afghanistan, Pakistan, and India (though India does 
        not lie within the boundaries of the CENTCOM AOR)
        <bullet> Iran
        <bullet> Iraq
        <bullet> The Arabian Peninsula, comprised of Bahrain, Kuwait, 
        Oman, Qatar, Saudi Arabia, the United Arab Emirates (UAE), and 
        Yemen
        <bullet> Egypt and the Levant, comprised of Syria, Lebanon, and 
        Jordan (as well as Israel and the Palestinian territories, 
        which do not lie within the CENTCOM AOR)
        <bullet> Central Asia, comprised of Kazakhstan, Kyrgyzstan, 
        Tajikistan, Turkmenistan, and Uzbekistan
A. Afghanistan, Pakistan, and India
    Instability in Afghanistan and Pakistan poses the most urgent 
problem set in the CENTCOM AOR and requires complementary and 
integrated civil-military, whole-of-government approaches. The two 
countries are linked by tribal affiliations and a porous border that 
permits terrorists, insurgents, and criminals to move relatively freely 
to and from their safe havens. Indeed, al Qaeda, the Taliban, and other 
insurgent groups operating from the border region are engaged in an 
increasingly violent campaign against Afghan and coalition Forces and 
the developing Afghan state. However, while it is important to note 
that the problem sets are related, the United States must forge a 
unique partnership with each country.
    Afghanistan
    The past year was marked by a shift in strategic focus in 
Afghanistan. Over the course of the conflict, the Afghan insurgency had 
expanded its strength and influence--particularly in the South and 
East--and 2009 levels of violence were significantly higher than those 
of 2008. The Taliban have been resilient, with their activities fueled 
by revenues from outside the region as well as from narcotics-
trafficking, the freedom of movement they enjoy in the border region 
between Afghanistan and Pakistan, ineffective governance and services 
in parts of the country, as well as by contributions from other 
militant groups outside Afghanistan and Pakistan. To reverse this 
momentum and the downward spiral in security, we have embarked on a new 
12-to-18-month civil-military campaign plan, and coalition forces and 
their Afghan partners are fighting to retake the initiative from the 
insurgency. The main goals of our strategy, announced by President 
Obama last December, include the following:

        <bullet> reversing Taliban momentum through sustained military 
        action,
        <bullet> denying the Taliban access to and control of key 
        population and production centers and lines of communication,
        <bullet> disrupting the Taliban outside secured areas and 
        preventing al Qaeda from regaining sanctuary in Afghanistan,
        <bullet> degrading the Taliban to levels manageable by the 
        Afghanistan National Security Forces (ANSF),
        <bullet> increasing the size and capability of the ANSF and 
        employing other local forces selectively to begin a conditions-
        based transition of security responsibility to the Afghan 
        Government by July 2011, and
        <bullet> supporting U.S. Government efforts to build the 
        capacity of the Afghan Government, particularly in key 
        ministries.

    To implement this strategy, we and our North Atlantic Treaty 
Organization (NATO) partners have spent a great deal of effort putting 
into place the right organizations and command and control structures 
needed to carry out a comprehensive civil-military campaign. This 
includes the capabilities for targeting of insurgents' resources and 
finances, detention operations, ministerial capacity building, border 
coordination, strategic communications, and the conduct of 
reconciliation efforts. This began by ensuring the International 
Security Assistance Force (ISAF) Commander was dual-hatted as both a 
NATO Commander and the commander of U.S. forces, which helped to reduce 
many of the organizational firewalls between ISAF and Operation 
Enduring Freedom elements. We created the ISAF Intermediate Joint 
Command (IJC), a three-star headquarters to oversee operational 
execution of the counterinsurgency campaign. We established a Joint 
Task Force to address detainee operations and help develop rule of law 
capacity within the Afghan Government, from policing and incarceration 
to trials and convictions. We developed a Force Reintegration Cell 
within the ISAF headquarters to support the reintegration and 
reconciliation process at the national level. We established an 
interagency threat finance cell, an intelligence fusion cell, and a 
full-fledged Joint Information Operations Task Force to conduct 
strategic communications. We formed the NATO Training Mission-
Afghanistan and made several other command and control adjustments, 
such as the integration of mentoring teams under the IJC and its battle 
space commanders and the restructuring of Army brigades, to improve our 
ability to train, advise, and assist Afghan security forces. Lastly, we 
formed the Pakistan-Afghanistan Coordination Cell on the Joint Staff 
and inaugurated the Afghanistan-Pakistan Intelligence Center of 
Excellence at CENTCOM to better organize our resources here at home. 
All of these organizations tie together and support the numerous 
activities taking place at the unit level across the country as our 
operations move forward over time, and to run them we have hand-
selected some of nation's best civilian and military leaders, all of 
whom have been involved with counterinsurgency operations for quite 
some time.
    Just as critical, we have strengthened our counterinsurgency 
approach and established a wide-spread understanding of the critical 
concepts guiding and governing our operations. First and foremost in 
this approach is a commitment to protecting and serving the people. 
This focus is captured in Ambassador Karl Eikenberry and General 
Stanley McChrystal's Integrated Civil-Military Campaign Plan, which 
directs our military and civilian components to take a residential 
approach and, in a culturally acceptable way, live among the people, 
understand their neighborhoods, and invest in relationships. General 
McChrystal has also published counterinsurgency guidance, has pushed to 
achieve greater unity of effort, has aggressively pursued the mission 
of partnering with the Afghan security forces, and has issued 
appropriate guidance on detention, reintegration, joint night raids, 
and tactical driving. All of these concepts are designed to secure the 
Afghan people, to reduce civilian casualties, and to build their trust 
in ISAF forces and the national government.
    Critical to the organizations, leaders, and strategies we have put 
in place in Afghanistan are the resources needed to support them, in 
this case, 30,000 additional U.S. forces, additional civilians experts, 
and appropriate funding, each of which was announced by the President 
in December at West Point. Just as important are the additional 
commitments from other NATO and coalition partners totaling more than 
9,000 troops. These resources are starting to flow into the country, 
and they will allow us to better expand the security presence in 
population centers and along major lines of communication, to better 
hold areas cleared of insurgent groups, and to build a new level of 
Afghan governmental control.
    As a part of this approach, we will also invigorate efforts to 
develop the capabilities of the ANSF, including the Afghan National 
Army, the Afghan Uniform Police, the Afghan Gendarmerie Force, the 
Afghan Border Police, specialized counternarcotics units, and other 
security forces. We recognize the fact that international forces must 
eventually transfer security responsibility to Afghan security forces. 
In January 2009, the ANSF numbered 156,000; today, there are over 
206,000 assigned, but significant work remains in improving the quality 
of the Afghan force through enhanced partnering, training, and 
recruiting. General McChrystal has placed a premium on comprehensive 
partnering with the ANSF, an emphasis that is being demonstrated in the 
ongoing Operation Moshtarak, in which ISAF and ANSF operate at close to 
a 1-to-1 ratio. Of equal importance, ISAF and ANSF leaders worked 
together in partnership to plan all aspects of the operation, a signal 
of ANSF development that goes beyond the number of ANSF boots on the 
ground. A properly sized, trained, and equipped ANSF is a prerequisite 
for any eventual drawdown of international forces from Afghanistan, and 
through our support and the assistance of the Afghan Security Forces 
Fund, the ANSF will continue to expand so that they will be more able 
to meet their country's security needs.
    In addition, we, along with our civilian colleagues, will bolster 
the capabilities and the legitimacy of the other elements of the Afghan 
Government--an effort in which, in much of Afghanistan, we will be 
building, not rebuilding. We will do this through our support to local 
government at the provincial and district levels, utilizing the new 
structure of civilian representatives at each level of our deployed 
military. These, along with the efforts of Provincial Reconstruction 
Teams and national level civil-military and ministerial capacity 
building teams are empowering Afghans to solve Afghan problems and 
promoting local reintegration where possible. Most recently, we are 
supporting governance and development efforts as part of ongoing 
operations in Helmand Province.
    Another major component of our strategy is to disrupt narcotics 
trafficking, which provides significant funding to the Taliban 
insurgency. This drug money has been the ``oxygen'' in the air that 
allows these groups to operate. With the extension of authority granted 
to U.S. forces to conduct counter-narcotics operations, we are able to 
more closely work with the Afghan Government to disrupt the illicit 
narcotics industry though interdiction of the narco-trafficking 
network. To complement this effort, we support and promote viable 
agricultural and economic alternatives and the requisite infrastructure 
to help Afghans bring licit products to market for sale and 
distribution.
    Executing this strategy requires clear unity of effort at all 
levels and with all participants. Our senior commanders (and I) have 
worked with Ambassador Richard Holbrooke, the U.S. Special 
Representative for Afghanistan and Pakistan; Ambassador Eikenberry, the 
U.S. Ambassador to Afghanistan; Stefan di Mistura, the United Nations 
Special Representative of the Secretary General for Afghanistan; 
Ambassador Mark Sedwill, NATO's new Senior Civilian Representative in 
Afghanistan; and the Afghan leadership to improve and synchronize the 
whole-of-government approach. Our security efforts have been integrated 
into the broader plan to promote political and economic development. We 
have urged partner nations to continue the invaluable support they are 
providing and to seek additional support as required for mission 
accomplishment.
    The changes in approach launched in 2009 and 2010 (e.g., greater 
military and civilian resources, enhanced unity of effort and 
partnering) can help turn the tide over time, but we must manage 
expectations as we continue the buildup in our forces. Progress will be 
incremental and difficult. In 2010, the Taliban and other insurgent 
groups will attempt to build on their previous momentum and create 
further instability in the Afghan provinces, particularly in the South 
and East. We will endeavor not only to prevent that but to wrest the 
initiative from the Taliban.
    Pakistan
    The possibility of significant instability in Pakistan poses a 
serious threat to regional and global security, in large part, because 
Pakistan remains a critical strategic foothold for al Qaeda and is 
important to the organization's efforts to rally supporters worldwide. 
Although al Qaeda senior leaders are under considerably more pressure 
in Pakistan than in previous years, the Federally Administered Tribal 
Area (FATA) still serves as al Qaeda's principal sanctuary. More 
important, these leaders continue to plan and inspire regional and 
transnational operations from the FATA, while maintaining the ability 
to function as a structured organization, and foreign fighters continue 
to travel to Pakistan for training and to join al Qaeda. Additionally, 
Pakistan continues to face a serious insurgency fueled by militants 
operating from the country's tribal areas with casualties from violent 
incidents in Pakistan, particularly bombings and suicide attacks having 
increased dramatically over the past year.
    However, the people and leaders of Pakistan have increasingly grown 
to see these groups as serious threats, and the Pakistani security 
forces have stepped up operations against insurgents, showing 
impressive determination and skill. They have conducted operations in 
the Northwest Frontier Province (NWFP) and the FATA on an unprecedented 
scale, successfully re-taking territory from the insurgent groups. 
Pakistan has sustained very tough losses in this effort, and it is 
clear that the country's leaders are keenly aware of the severity of 
the threat posed by these groups to the people and government.
    We are working to forge a stronger partnership with Pakistan and to 
support its efforts in two ways. First, we aim to strengthen the 
military's capacity to target insurgent groups through the development 
of Pakistan's counterinsurgency capabilities. Second, we support 
Pakistan's governmental and economic development. Our efforts have 
helped as the Pakistani military has made progress in its 
counterinsurgency operations. The Pakistani Army and Frontier Corps 
have cleared many areas of militant groups. However, the hold and build 
phases of these operations and the subsequent transition to civil 
authority challenge the army and Pakistan's civil institutions. In 
fact, these institutions will be pressed by militant efforts to 
reassert control over the territory gained in 2009, risking a reversal 
of the past year's gains. The passage of the Kerry-Lugar-Berman Bill, 
the Pakistan Counterinsurgency Capability Fund, the $11.3 billion 
International Monetary Fund grant, and other key initiatives 
temporarily pulled Pakistan back from the brink of an impending 
economic collapse a year ago and helped increase Pakistan's capacity 
for counterinsurgency operations. Continued support for these 
initiatives is critical to enabling the Pakistan to continue its fight 
and to expand the writ of governance.
    Finally, we are working to reduce regional tensions to enable 
adequate focus on the existential threat of militant Islamist movements 
in Pakistan. Though Indo-Pakistani tensions have eased since 2008, they 
could easily reignite in 2010, particularly in the event of another 
significant terrorist attack in India. A major escalation in these 
tensions would almost certainly result in the immediate redeployment to 
the east of Pakistani forces currently deployed to confront militants 
in the West, risking forfeiture of gains in FATA and the NWFP. This 
suggests a need for India and Pakistan to continue discussions begun on 
February 25 in order to reduce the strategic tension and the risk of 
miscalculation between these nuclear states.
B. Iran
    The Iranian regime is the primary state-level threat to stability 
in the region. Throughout much of the region, the regime pursues a 
dual-track foreign policy. Overtly, the Iranian Government cooperates 
with regional states through bilateral arrangements to promote Iran as 
an economic, political, and military power. In parallel, the regime 
entrusts the Islamic Revolutionary Guards Corps (IRGC)-Qods Force to 
execute covert aspects of its foreign policy using political influence, 
covert businesses, lethal and non-lethal aid, and training to militants 
supportive of the regime's agenda. The Qods Force is active throughout 
the region, and, in fact, controls Iranian foreign policy in Iraq, 
Lebanon, Syria, and Gaza and influences heavily in Afghanistan and the 
Gulf Region. Through Qods Force soft power initiatives and 
destabilizing activities, such as coercion and direct attacks, Iran is 
subverting democratic processes and intimidating the nascent 
governments of our partners. The regime continues to intervene in the 
Israeli-Palestinian situation through its support to Hamas and Lebanese 
Hizballah, and it remains in violation of six United Nations Security 
Council Resolutions regarding its nuclear program and arms transfers.
    Iran's nuclear program is a serious, destabilizing factor in the 
region and is widely believed to be a part of the regime's broader 
effort to expand its influence. Although the regime has stated the 
purpose of its nuclear program is exclusively for peaceful, civilian 
use, Iranian officials have consistently failed to provide the 
assurances and transparency necessary for full international 
confidence. This includes failure to provide verification as required 
by the Nuclear Non-Proliferation Treaty, to which Iran is a signatory, 
and failure to implement the International Atomic Energy Agency's 
(IAEA) Additional Protocol, which would allow for more comprehensive 
inspections. The regime's obstinacy and obfuscation have forced Iran's 
neighbors and the international community to conclude the worst about 
the regime's intentions, as confirmed by the recent IAEA Board of 
Governors' near unanimous censure of Iran's recent disclosure of a 
secret nuclear facility near Qom. It appears that, at a minimum, Tehran 
is keeping open the option to develop nuclear weapons. Iran continues 
to develop and improve its uranium enrichment infrastructure and is 
likely to use its gas centrifuges to produce fissile material for a 
weapon, should it make the political decision to do so. This pattern of 
conduct coupled with its rejection of international responsibilities is 
troubling, especially when viewed in the context that other regional 
states have recently announced their intentions to develop nuclear 
power programs. This behavior poses a clear challenge to international 
nonproliferation goals due to the possibility of such technologies 
being transferred to terrorist groups and the potential for a regional 
arms race, as other regional states may seek nuclear parity.
    Domestically, the regime is taking dramatic steps to maintain power 
in reaction to the persistent civil unrest sparked by the apparent 
election manipulation leading to President Ahmadinejad's re-election in 
June 2009. The aftermath of the presidential election created a 
political rift among regime elites and further hardened certain 
leaders' views toward the U.S. and the West over alleged involvement in 
supporting a ``soft revolution'' in Iran. Tehran has deployed 
significant numbers of security forces, mainly comprised of Basij 
militia, to crack down on street protests and conduct mass arrests of 
protestors. The regime has also taken sweeping steps to control the 
information environment by slowing or shutting down the internet, 
telephone networks, and other forms of social media used by protestors 
to organize, execute, and publicize their efforts. The opposition 
movement, led by former regime insiders, poses the most serious 
political challenge to the regime since the advent of the Islamic 
Republic.
    The Iranian regime has also attempted to thwart U.S. and 
international efforts to bring stability to Iraq, Afghanistan, and the 
broader region. In Afghanistan, the Iranian regime appears to have 
hedged its longstanding public support for the Karzai Government by 
providing opportunistic support to the Taliban. In Iraq, however, the 
Iranian regime has embarked on a broad campaign led by the IRGC-Qods 
Force to influence Iraqi politics and support, through various means, 
parties loyal to Iran. The Qods Force also maintains its lethal support 
to Shia Iraqi militia groups, providing them with weapons, funding, and 
training. Additionally, al Qaeda continues to use Iran as a key 
facilitation hub, where facilitators connect al Qaeda's senior 
leadership to regional affiliates. Although Iranian authorities do 
periodically disrupt this network by detaining select al Qaeda 
facilitators and operational planners, Tehran's policy in this regard 
is often unpredictable.
    Pursuing our longstanding regional goals and improving key 
relationships within and outside the AOR help to limit the negative 
impact of Iran's policies. A credible U.S. effort on Arab-Israeli 
issues that provides regional governments and populations a way to 
achieve a comprehensive settlement of the disputes would undercut 
Iran's policy of militant ``resistance,'' which the Iranian regime and 
insurgent groups have been free to exploit. Additionally, progress on 
the Israel-Syria peace track could disrupt Iran's lines of support to 
Hamas and Hizballah. Moreover, our development of a cooperative 
Regional Security Architecture, which includes a regional network of 
air and missile defense systems as well as hardening and protecting our 
partners' critical infrastructure, can help dissuade aggressive Iranian 
behavior. In all of these initiatives, our military activities will 
continue to support our diplomatic efforts, and we will remain vigilant 
across a wide range of contingencies.
C. Iraq
    Iraq made steady progress throughout 2009, a year that brought 
significant change in the security situation and in Iraqi politics. A 
broad backlash against the Islamist parties that have dominated the 
Iraqi Government since 2005, along with the Iraqi people's increasing 
preference for emerging secular, nationalist parties and leaders, 
yielded a stunning result in January 2009's largely violence-free 
provincial elections and a peaceful transfer of power in every province 
that held an election. Various internal dynamics, however, have 
exacerbated the Arab-Kurd dispute over Kirkuk and other territories, 
and this issue now looms as the greatest potential Iraqi flashpoint.
    The security situation in Iraq remained stable during the 
implementation of the U.S.-Iraqi security agreement, the handover of 
lead responsibility to the Iraqi Security Forces, and the drawdown of 
U.S. forces from some 130,000 in March 2009 to 96,000 today. The level 
of violence generally remained at record lows following the withdrawal 
of U.S. forces from Iraqi cities in June, demonstrating the Iraqi 
Security Forces' growing capability to handle security responsibilities 
independently. November witnessed the lowest number of civilian deaths 
since spring 2003, and December was the first month since the March 
2003 invasion in which no U.S. forces died in combat in Iraq. A number 
of high-profile attacks in the second half of 2009 showed, nonetheless, 
that the Iraqis still have much work to do in developing 
counterterrorism capabilities. While al Qaeda in Iraq's (AQI) attempt 
to discredit and destabilize the government through massive bombings 
did not succeed, it did demonstrate AQI's resilience. At the same time, 
the Arab-Kurd dispute has lent new life to Ba'athist-related insurgent 
groups in northern Iraq, which have attempted to ignite a conflict 
along the Green Line. As we continue to draw down our forces in a 
responsible manner and comply with our commitments under the U.S.-Iraq 
Security Agreement, key to further improving the security situation and 
mitigating remaining risks will be continuing to help the Iraqi 
Security Forces and developing their capabilities through our advisory 
and security assistance programs and the Iraq Security Forces Fund.
    This year will bring far-reaching developments in Iraqi politics 
and the U.S.-Iraq relationship. Just this month, Iraqis took to the 
polls and expressed their political will in parliamentary elections 
made possible by the security provided by the ISF. The significance of 
the elections was clearly evidenced by the strong voter turnout across 
the country and the political maneuvering--including the campaign by 
some Shia Islamists officials to ban a number of former Baathists and 
secularists from running--leading up to election day. The formation of 
the new national government following the election will shape the 
resolution of outstanding fundamental issues about the nature of the 
Iraqi state, including the Arab-Kurd question and the balance between 
central and provincial authority. As such, we expect Iraq's internal 
political landscape to continue to face evolutionary challenges. We 
will continue to work with the new Iraqi Government to implement the 
Strategic Framework Agreement and strengthen our bilateral 
relationship.
D. The Arabian Peninsula
    The Arabian Peninsula commands significant U.S. attention and focus 
because of its importance to our interests and its potential for 
insecurity. These Arab states on the Peninsula are the Nations of the 
AOR most politically and commercially connected to the United States 
and Europe. They are more developed economically than any of their 
neighbors, collectively wield substantial defense forces, and are major 
providers of the world's energy resources. However, the Peninsula has, 
in the past, been a significant source of funding and manpower for 
terrorist groups and foreign fighters. Where governments face internal 
challenges, the situation is often aggravated and intensified by 
external factors, such as the Iranian regime's destabilizing behavior, 
instability in the Palestinian territories and southern Lebanon, 
political and security troubles in Iraq, and weapons proliferation.
    Over the past few years, we have worked with the countries of the 
Arabian Peninsula, as well as other partners in the region, to develop 
a Regional Security Architecture to address common security challenges. 
This architecture is made up of an array of major components including 
a Shared Early Warning system; an increasingly integrated air and 
missile defense network; and an extensive array of ground, maritime, 
aviation, and special operations exercises each designed to respond to 
different types of threats. All of these cooperative efforts are 
facilitated by the critical base, port, and training facilities 
provided by Bahrain, Kuwait, Qatar, the UAE, and others throughout the 
AOR.
    This emerging but, nonetheless, significantly developed collection 
of partnerships improves our interoperability and our overall 
effectiveness in ongoing multi-lateral operations and security 
initiatives. The mechanisms and capabilities put in place to coordinate 
efforts in one area, such as piracy, smuggling, and littoral security, 
can often be employed to respond rapidly to crises in other areas. 
Moreover, progress made in generating cooperation on one set of issues 
can serve as an opening for engagement on other issues, thereby 
promoting greater interdependence in the region. Contributions of 
funding and forces by regional partners to our operations in 
Afghanistan evidence some of these positive spillover effects. Now that 
our Gulf partners have begun working closely to address common threats, 
the logical next step is to expand the model and encourage the 
integration of Iraq with our Gulf partners. Such a step would benefit 
the entire region.
    Yemen stands out from its neighbors because of its underdeveloped 
governmental institutions and weak economy and because of its numerous 
security challenges, which include the Southern secessionist movement, 
the Houthi tribal rebellion, and the presence of AQAP. Yemen's 
strategic location facilitates AQAP's freedom of movement and allows it 
to threaten not only Yemen's neighbors but also the United States and 
Europe. In recent months we have seen several terrorist attacks 
attempted within and emanating from Yemen, the spillover of the Houthi 
rebellion into Saudi Arabia, the resurgence of Yemen's Southern 
secessionists, and the negative influence of al-Shabaab in Somalia. In 
view of these developments, we are working toward expanded, sustained, 
and predictable efforts to help build Yemen's security, 
counterinsurgency, and counterterrorist capabilities, and we seek to 
nearly double U.S. security assistance to the country in the coming 
year.
E. Egypt and the Levant
    The Levant and Egypt subregion is the traditional political, 
social, and intellectual heart of the Arab world and is vital to 
security and stability in the CENTCOM AOR. Because of its history as a 
primary battleground between rival ideologies, the dynamics of this 
sub-region, particularly with regard to Israel, influence the internal 
and external politics of states outside the region as well. In 
addition, U.S. policy and actions in the Levant affect the strength of 
our relationships with partners in the AOR. As such, progress toward 
resolving the political disputes in the Levant, particularly the Arab-
Israeli conflict, is a major concern for CENTCOM. Through a significant 
expansion of our engagement program, capacity building efforts, 
training exercises, deployment of Navy vessels to the Red Sea, and 
information sharing, we are working with our partners in Egypt and the 
Levant to build the capabilities of legitimate security forces, defeat 
transnational and sub-state militant groups, combat the spread of WMD 
and related materials, and disrupt illegal arms smuggling. In addition, 
we will work to develop the mechanisms of security and confidence 
building to support efforts to achieve a comprehensive Middle East 
peace.
    Egypt remains a leading Arab state, a staunch U.S. ally, and a key 
actor in the Middle East Peace Process. In recent years, however, the 
Egyptian Government has had to deal with serious economic challenges 
and an internal militant Islamist threat; as such, U.S. foreign aid has 
been a critical reinforcement to the Egyptian Government. At the same 
time, concern over the possibility of the spillover of instability in 
Gaza has led Egypt to play a pivotal role in international efforts to 
address the situation there, to improve border security, and to 
interdict illicit arms shipments to Palestinian militants. In 
partnership with U.S. Africa Command, we are working with Egypt to 
combat militancy and smuggling across the Red Sea, Horn of Africa, Nile 
basin, and northern Africa.
    Jordan continues to be a key partner in the region. The Kingdom's 
forces participate in many regional security initiatives and are at the 
forefront of police and military training for regional security forces. 
In addition to its regular participation in multilateral training 
exercises, Jordan promotes regional cooperation and builds our partner 
nations' security capacity through its recently opened King Abdullah 
Special Operations Training Center, Peace Operations Training Center, 
International Police Training Center, and Cooperative Management 
Center. We support these efforts, as they are critical to the continued 
development of legitimate security forces throughout the region, 
especially in Lebanon and the Palestinian territories and, as a 
consequence, will be important to the long term viability of the Middle 
East Peace Process.
    In Lebanon, Hizballah's rearmament following its conflict with 
Israel in 2006, particularly its rocket and missile stocks, portends 
continued instability in the region. Hizballah continues to undermine 
the authority of the legitimate Lebanese security forces, threaten 
Israel, and provide training and support to militant groups outside the 
country. Stabilizing Lebanon ultimately requires strengthening the 
capabilities of the Lebanese Armed Forces, fully implementing United 
Nations Security Council Resolutions, including 1559 and 1701, ending 
Iran's illegal support to Hizballah, and assisting the Lebanese 
Government in developing a comprehensive national defense strategy 
through which the government can exercise its sovereignty, free of 
external intervention.
    Last, despite continued support to Hizballah, interference in 
Lebanese internal politics, and accommodation of foreign fighter 
networks and facilitators operating from and through its territory, the 
Asad regime in Syria appears to be slowly seeking rapprochement with 
its neighbors and the United States.
F. Central Asia
    Central Asia is a pivotal region on the Eurasian continent between 
Russia, China, Iran, and South Asia, has extensive national resources, 
particularly hydrocarbons, and serves as a major transit route for 
regional and international commerce and for supplies supporting 
coalition efforts in Afghanistan. Ensuring stability in Central Asia 
requires abandoning the outdated, zero-sum paradigms of international 
politics associated with the so-called ``Great Game,'' replacing them 
with broad partnerships to address common challenges such as terrorism, 
WMD proliferation, and illegal narcotics trafficking. There are 
numerous opportunities in Central Asia for cooperation that can 
simultaneously advance the interests of the Central Asian States and 
their neighbors.
    However, public and civic institutions in Central Asia are still 
developing in the aftermath of decades of Soviet rule, and they present 
challenges to our efforts to promote security, development, and 
cooperation. Although there is interdependence across a broad range of 
social, economic, and security matters, these nations have not yet 
fully established a productive regional modus vivendi. Overcoming these 
challenges requires incremental approaches that focus on the 
alleviation of near term needs, the establishment of better governance, 
the integration of markets for energy and other commercial activity, 
and grass-roots economic development.
    Over the past 2 years, a primary focus of our engagement with the 
Central Asian States has been the development and expansion of our 
Northern Distribution Network (NDN), which supports coalition forces in 
Afghanistan. Through diligent work by the State Department and U.S. 
Transportation Command, we have improved the flexibility, efficiency, 
and reliability of our logistical support to our operations in 
Afghanistan by diversifying the routes, approaches, and contracts that 
comprise the logistical network. In 2010, we anticipate expanding our 
use of the NDN as additional routes and methods of delivery become 
available. In addition to improving our regional access and logistics 
capabilities, work on the NDN has significantly increased our contact 
with our regional partners and provided opportunities to engage on 
numerous common causes and to increase our commercial ties.
    In addition to increasing our engagement with the Central Asian 
States through the NDN, we continue to help build the capabilities of 
indigenous security forces, as well as the mechanisms for regional 
cooperation. We provide training, equipment, and facilities for various 
army, national guard, and border security forces through our Building 
Partnership Capacity programs. In addition, we continue to work with 
national level organizations to facilitate dialogue on security and 
emergency response issues through numerous bilateral training exercises 
and initiatives such as our annual Chiefs of Defense Conferences and 
the multilateral Exercise Regional Cooperation.
                      v. critical mission enablers
    Success in our ongoing missions and achieving comprehensive, 
cooperative, and enduring solutions to our challenges in the AOR, all 
the while maintaining a credible, responsive contingency capacity, 
requires the support of several key mission enablers. The effects of 
these capabilities range from the tactical to the strategic, and 
CENTCOM fully supports their continuation, expansion, and improvement.
    In requesting and employing these enablers, we recognize the 
critical importance of proper oversight to ensure their proper usage, 
particularly for funding authorities. In many cases, we have 
established control mechanisms that exceed those mandated by Congress, 
including numerous additional outside audits and command reviews. This 
oversight helps us know whether these programs are being properly 
implemented and, equally important, whether these programs are 
effective.
A. Building Partnership Capacity
    Our security cooperation and security assistance efforts are 
critical to improving security and stability in the region. They help 
strengthen our relationships and build the security and response 
capabilities of our partners in the AOR. Continued strong support for 
global train and equip resources; Coalition Support Funds; and the 
State Department's Foreign Military Financing (FMF), Foreign Military 
Sales (FMS), and counter-narcotics security assistance and 
reimbursement programs are essential to generating comprehensive and 
cooperative solutions to defeat insurgent groups. FMF and FMS remain 
our mainstay security assistance tools, but the International Military 
Education and Training program is also an important contributor to 
developing partner nation capabilities and enduring ties, particularly 
for the officers of nascent security forces and from Pakistan, with 
whom we must reestablish personal bonds and trust after years without 
substantive interaction. While these programs are reasonably successful 
in meeting needs in a peacetime environment, we support the reformation 
of the security assistance programs and processes described in this 
year's Quadrennial Defense Review to create new, more responsive, long 
term mechanisms for developing our partner nations' security capacity.
    Additionally, in the face of enduring conflict in the region, we 
look to expanded special authorities and multi-year appropriations to 
quickly meet the emerging needs of counterterrorism, counterinsurgency, 
and Foreign Internal Defense/Security Force Assistance activities. 
Multi-year programs-of-record that provide training, equipment, and 
infrastructure for our partner nations' security forces enabled our 
successes in Iraq and are of prime importance if we are to achieve 
comparable progress in Afghanistan and Pakistan. These critical 
programs include the Iraq Security Forces Fund, the Afghanistan 
Security Forces Fund, the Pakistan Counterinsurgency Fund, and the 
Cooperative Defense Program.
B. Commander's Emergency Response Program (CERP)
    CERP continues to be a vital counterinsurgency tool for our 
commanders in Afghanistan and Iraq. Small CERP projects can be the most 
efficient and effective means to address a local community's emergent 
needs, and where security is a challenge, it is often the only 
immediate means for addressing those needs. CERP spending is not 
intended to replace longer term development assistance administered by 
agencies such as the U.S. Agency for International Development (USAID) 
but rather to complement and potentially serve as a catalyst for these 
projects. In Iraq as the security situation has improved and allowed 
USAID full access, CERP funding has been reduced commensurately. 
However, we fully support ongoing efforts to enhance U.S. humanitarian 
assistance programs in other parts of the CENTCOM AOR, particularly in 
Pakistan. In concert with the State Department, we also seek innovative 
mechanisms and authorities to allow for greater cost-sharing and to 
create similar counterinsurgency tools for use by coalition and host 
nation partners. These tools should allow for a variety of funding 
sources, to include contributions from nongovernmental organizations, 
international governmental organizations, and partner governments.
    Critical to CERP is its proper oversight. We support the ongoing 
Department of Defense internal assessment of the program and its 
consideration of establishing a Department-wide CERP coordinator. We 
will continue to sponsor outside audits and to work with the Services 
to ensure proper pre-deployment training for CERP managers and 
contracting personnel.
C. Information Operations
    Operation Earnest Voice (OEV) is the critical program of record we 
use to synchronize and oversee our Information Operations activities, 
to counter our adversaries' ideology and propaganda in the AOR, and to 
amplify credible voices in the region, all in close coordination with 
the Under Secretary of State for Public Diplomacy. OEV provides CENTCOM 
direct communication capabilities to a regional audience through 
traditional media as well as trans-regional websites and public affairs 
regional blogging. Strategic, long term effects are achieved through 
our supporting Building Partnership Capacity programs, humanitarian 
relief efforts, demining activities, Cooperative Defense Initiatives, 
and counterterrorist operations. The audience analysis and assessment 
component of OEV provides critical cultural understanding required to 
connect with the region's population, tell us which techniques are 
effective over time and which are not, and gives us the long term 
ability to assess our success or failure in the war of ideas. Full and 
enduring funding of OEV and other Defense Department information 
operations efforts will best enable us to communicate our strategic 
messages and to counter those of our adversaries.
D. Force Protection and Countering Improvised Explosive Device (IEDs)
    Initiatives focused on countering the threat of IEDs are of 
paramount importance to our operations in the AOR. IEDs continue to be 
the primary threat to our ground forces in Iraq and Afghanistan, and 
efforts to expedite the acquisition and fielding of personal protective 
equipment, IED jammers, route clearance vehicles and equipment, and the 
Mine Resistant Ambush Protected (MRAP) family of vehicles, which 
includes the MRAP All Terrain Vehicle, have saved countless lives. An 
urgent priority for us is the rapid fielding of MRAPs to support the 
increase in U.S. and coalition forces in Afghanistan. Because we expect 
IEDs to remain a key weapon in the arsenals of militants and insurgents 
for years to come, we urge continued support for the Joint IED Defeat 
Organization; the Services' baseline sustainment for the MRAP family of 
vehicles, base defense initiatives, and Counter-IED efforts; and 
Research, Development, Test, and Evaluation funding and procurement of 
equipment to counter IED tactics and networks.
E. Intelligence
    Detailed and timely tactical, operational, and strategic level 
intelligence collection and analysis remain vital to all aspects of our 
operations. While we continue to balance the allocation of our 
Intelligence, Surveillance, and Reconnaissance (ISR) assets and to 
refine and optimize our procedures and existing architecture, changes 
in the operating environment and the expiration of old systems will 
require new, improved, or increased intelligence capabilities. We 
support the Department of Defense's planned growth in human 
intelligence and counterintelligence specialists, interrogators, and 
intelligence analysts, but we also have come to recognize the 
importance of non-traditional specialists such as threat finance 
analysts, human terrain teams, and document exploitation specialists. 
In addition, our requirements for signals intelligence geo-location 
capabilities, Ground Moving Target Indicator information, and aerial 
imagery from remotely piloted systems, including sea-based ISR, 
continue to grow. We also look to Operationally Responsive Space to 
temporarily fill the space-based reconnaissance gap to be created as 
several current systems reach the end of their operational lives. 
Finally, managing these capabilities and fully harvesting the 
information they provide requires innovative databases (such as the 
Combined Information Data Network Exchange system), applications, and 
communication systems.
F. Adaptable Command, Control, Communications, and Computer (C4) 
        Systems
    Continued operations across a dispersed AOR call for a robust, 
interoperable, high-volume theater C4 infrastructure. We are working to 
meet C4 requirements for current operations and to posture enduring 
theater C4 capabilities to meet post-conflict requirements as well as 
prepare for contingencies. Concurrently, we are working to expand our 
information sharing and to improve our partners' commercial and 
military C4 capabilities.
    We aggressively seek greater bandwidth capacity to improve the 
reliability and diversity of our C4 networks. CENTCOM currently 
utilizes all available bandwidth to full capacity, but theater fiber 
networks are vulnerable to single points of failure in the global 
information grid. Military Satellite Communications capabilities are 
critical to theater operations, and the acceleration of 
transformational upgrades to these systems would reduce our reliance on 
commercial providers.
    We are also pursuing the means to extend Joint Theater 
Expeditionary Command, Control, and Communications support and services 
to disadvantaged users throughout the AOR. Some of these means include 
our sponsorship of Joint Capability Technology Demonstrations (JCTDs). 
Under the JCTD Tactical Service Provider (TSP) program, we developed 
the capability to more effectively manage available bandwidth and 
provide coverage to frontline units. We continue to field and further 
develop the Distributed Tactical Communications System, which leverages 
new technologies to deliver reliable, critical communications 
capabilities to the most remote users. Additional fielding and 
technology efforts include the Radio over Internet Protocol Routed 
Network and the Joint Airborne Communications System. Despite 
tremendous actions by the Department of Defense to help us overcome our 
communication and network challenges, to be more effective and 
efficient, we require a fully integrated space and terrestrial 
communications infrastructure that supports all joint and potential 
partner nation users.
G. Cyberspace Capabilities and Authorities
    The openness of the global cyber commons exposes us to low risk, 
low cost threats from our adversaries. Our networks are constantly 
threatened by a range of actors from hackers to criminal organizations 
to state-sponsored saboteurs. This activity is aimed at retrieving 
sensitive information, exploiting our public domain information to gain 
an operational advantage, and disrupting our networks. In addition, our 
adversaries use the internet for command and control, recruiting, and 
fund raising.
    To help address these challenges, we welcome the development and 
institutionalization of cyberspace capabilities to help us protect and 
operate within these critical systems. The formation of U.S. Cyber 
Command and other Defense Department-wide cyberspace activities will 
facilitate the fusion of intelligence, operations, and communications 
essential to our computer network operations. At the combatant command 
level, we have created our own Cyberspace Warfare Cell composed of 
intelligence, operations, and communications personnel to synchronize 
our cyberspace activities and to integrate with national level efforts.
H. Joint and Multinational Logistics
    The primary focus of our logistics efforts is the timely 
deployment, equipping, and sustainment of units engaged in combat 
operations. With our multinational and strategic national logistics 
partners, we continue to work toward an efficient and effective 
logistics architecture that supports our forces and operations and 
minimizes costs. Our logistics posture consists of pre-positioned 
inventories, air and sealift capabilities, and access to bases with 
critical infrastructure, all of which are key logistics components that 
support operational flexibility. To maintain this posture and our 
readiness, we must quickly reconstitute our Army and Marine Corps pre-
positioned stocks and properly reset returning forces. Moreover, this 
logistics posture enables the increase in forces in Afghanistan while 
simultaneously supporting the drawdown of forces from Iraq, both of 
which remain on track to meet the President's timelines.
    The Joint Contracting Command for Iraq and Afghanistan continues to 
support CENTCOM, USF-I, and USFOR-A by providing responsive contracting 
of supplies, services, and construction, and lays the groundwork for 
the capacity building efforts within Iraqi and Afghan ministries. As a 
result, in fiscal year 2009, the Joint Contracting Command for Iraq and 
Afghanistan executed over 33,000 contract actions and obligated a total 
of $5.4 billion. Over 36 percent of this funding went to Iraqi and 
Afghan firms. CENTCOM is transitioning the Joint Contracting Command to 
a Joint Theater Support Contracting Command, an initiative that will 
enhance management and synchronize contracting across a greater portion 
of the AOR. We continue to improve contractor oversight through other 
initiatives such as increasing the in-theater presence of Contracting 
Officer Representatives and Quality Assurance Representatives, early 
identification and training of these representatives for deploying 
units, and mandating the use of automated Letters of Authorization for 
contractors.
    In an effort to lessen our reliance on the ground supply lines 
through Pakistan, we are moving an increasing amount of non-military 
supplies into Afghanistan via an air and surface intermodal NDN, which 
transits through the Central Asian States. We have also established 
routes to transport military equipment from Iraq through Turkey merging 
with the NDN for onward movement to Afghanistan. Continued expansion of 
the NDN and additional host nation access remain logistics priorities 
as we shift more sustainment from the routes through Pakistan to the 
NDN and optimize the Pakistan routes for units and equipment supporting 
the increase in forces in Afghanistan. Our relationships with the 
Central Asian States continue to improve as a result of our NDN 
efforts, and this is supported by legislation that allows us to expand 
our partnerships by locally purchasing supplies for forces in 
Afghanistan and elsewhere in the region.
I. Overseas Basing and Theater Posture
    CENTCOM's overseas basing strategy and its associated overseas 
Military Construction projects are developing the infrastructure 
necessary for the conduct of ongoing operations, as well as supporting 
global access, projection, sustainment, and protection of our combined 
forces in the AOR. Fully functional Forward Operating Sites and 
Cooperative Security Locations are essential to our ability to conduct 
the full spectrum of military operations, engage with and enable 
partner nations, and act promptly and decisively. Prepositioned stocks 
and reset equipment provide critical support to this strategy but 
require reconstitution and modernization after having been partially 
expended to support operations in Iraq and Afghanistan.
    Even with generous Overseas Contingency Operations budgets, 
military construction timelines are too slow to respond to changes in a 
combat environment. Major events such as the approval of the Strategic 
Partnership Agreement with Iraq and the recent decision to send 
additional forces to Afghanistan show how rapidly basing requirements 
can change. Expanded Contingency Construction Authorities made 
available across the entire CENTCOM AOR can serve as partial, interim 
solutions because they push construction decisionmaking authority to 
our engaged commanders in the field. Also, increasing the Operations 
and Maintenance construction threshold for minor construction in 
support of combat operations across the AOR would increase the ability 
of our commanders to quickly meet mission requirements and fully 
support and protect our deployed forces.
J. Adaptive Requirements, Acquisition, and Technology Processes
    The technical community writ-large has responded exceptionally well 
over the past few years to the needs of our warfighters in the CENTCOM 
AOR. While the Services, Joint Staff, and Office of the Secretary of 
Defense (OSD) have responded to our calls for assistance, the Joint IED 
Defeat Organization, the Rapid Equipping Force, and Army Material 
Command's Fielded Assistance in Science and Technology programs have 
been particularly helpful in ensuring that our troopers receive the 
best, most advanced equipment and tools to make them effective and to 
keep them safe during the execution of their missions. In addition, 
several organizations under OSD-Acquisition, Technology, and Logistics 
and OSD-Defense Research and Engineering, in cooperation with the 
Defense Advanced Research Projects Agency, have been instrumental in 
the discovery, rapid development, and early fielding of critical 
operational capabilities, such as more capable ISR systems, human 
terrain mapping and analytical tools, and improved ballistic protection 
for MRAPs. Last, the Quick Reaction Test Program has helped us use 
existing technologies in new and more efficient ways.
    The Joint Rapid Acquisition Cell (JRAC) has proven important to 
addressing non-counter-IED rapid acquisition needs for our operations, 
and we will continue to use the Joint Urgent Operational Needs (JUON) 
process to support our warfighters. However, because the JUON process 
requires execution year reprogramming by the Services, we found in the 
past that the Rapid Acquisition Fund (RAF) was a useful JRAC tool for 
supporting immediate needs. When the authority existed, the JRAC used 
the RAF to field capabilities such as radio systems used for 
Afghanistan-Pakistan cross-border communications, which were procured 
in less than 4 months from the initial identification of the need. The 
JRAC has also used RAF funding to initiate the fielding of critical 
biometrics equipment until the JUON process could further source the 
program, significantly reducing the time required to deploy the 
technology. Reinstating RAF funding and using it as a complement to the 
JUON process would allow CENTCOM to more quickly resolve warfighter 
needs.
K. Personnel
    Having appropriately trained personnel in sufficient quantities for 
our commands and Joint Task Forces (JTFs) is critical to accomplishing 
our assigned missions and achieving our theater objectives. The CENTCOM 
headquarters has been satisfactorily manned through temporary 
augmentation but may require additional permanent manpower for enduring 
mission sets as well as mechanisms for quickly generating temporary 
manpower for contingency operations. Within our JTFs and deployed 
units, there continue to be shortfalls in many low-density, high-demand 
occupational specialties and enabling force structures. Most notably, 
critical shortages of intelligence specialists, counterintelligence and 
human intelligence collectors, interrogators, document exploitation 
specialists, detainee operations specialists, engineers, and military 
police continue to degrade mission effectiveness. As operations 
continue in Afghanistan, we see a critical need for increased public 
affairs and information operations personnel to improve our strategic 
communications capabilities. Moreover, as we complete our combat 
mission in Iraq, we will require non-traditional enabling capabilities 
such as leaders to augment newly formed advisory assistance units, 
personnel to follow money trails in support of our threat finance 
cells, and an increased number of multi-functional logisticians to man 
critical logistics units. At the same time, we support a significant 
expansion of the U.S. Government's vital, deployable civilian capacity, 
particularly in the State Department and USAID.
    Quality of life, family support, and retention programs remain 
important to our operations in the AOR. The Rest and Recuperation 
program continues to be a success, having served over 875,000 since its 
inception in September 2003. We also continue to depend heavily on 
entitlement programs such as Combat Zone Tax Relief, Imminent Danger 
Pay, and Special Leave Accrual to support our deployed servicemembers.
                             vi. conclusion
    There are currently over 220,000 soldiers, sailors, airmen, 
marines, and coast guardsmen serving in the CENTCOM AOR and soldiering 
magnificently against tough enemies during challenging operations in 
punishing terrain and extreme weather. Together with our many civilian 
and coalition partners, they have been the central element to the 
security, stability, and prosperity we have increasingly promoted 
throughout the region. They will be the key to achieving further 
progress in Afghanistan, Iraq, and Pakistan and other locations where 
serious work is being done. These wonderful Americans and their fellow 
troopers around the world constitute the most experienced, most capable 
military in our Nation's history. They and their families have made 
great sacrifices since September 11, and nothing means more to these 
great Americans than the sense that those back home appreciate their 
service and sacrifice.
    All those in CENTCOM thank the American people for their 
extraordinary support of our military men and women and their families. 
We thank the Members of Congress for their unwavering support and 
abiding concern for our troopers and their families as well.

    Chairman Levin. Thank you very much, General Petraeus.
    We're going to try a 6-minute round of questions, given the 
large turnout this morning.
    General Petraeus, Iran's actions and lack of willingness to 
comply with U.N. resolutions regarding their nuclear program 
continues to undermine security in the region. I believe that 
stronger U.N. sanctions against Iran are not only essential, 
it's critically important that they be enforced.
    The President has--rightly, in my judgment--kept a military 
option to take against nuclear facilities in Iran on the table, 
should they be used for production of nuclear weapons in 
violation of U.N. resolutions. I also believe that the 
possibility of a blockade or quarantine of Iran's oil exports 
and refined petroleum product imports should also be on a list 
of possible options for action. Can you comment on what actions 
you think might be successful in terms of sanctions against 
Iran, should they continue to violate U.N. resolutions relative 
to their nuclear program, but also as to whether we ought to 
keep those other options on the table?
    General Petraeus. First of all, Senator, as you noted, the 
President has explicitly stated that he has not taken the 
military option off the table. As you noted in your statement 
earlier, we have worked hard in the region to build the so-
called regional security architecture, to build a network of 
shared early warning, of BMD, and of other security 
relationships and partnerships that have been brought about in 
large measure because of concern by those states with whom we 
are carrying out these activities, about the developments in 
Iran that I spoke of in my opening statement.
    With regard to specific contingency plans or activities, 
that would obviously be something that we would want to do in a 
closed session. But, clearly now, having given Iran every 
opportunity--not just the United States, but all of the 
countries engaged in this effort--the focus is shifting to what 
is termed the pressure track, and there is a variety of 
sanctions included that are now being discussed in the 
administration. I don't want to get ahead of them in discussing 
those particular items.
    Chairman Levin. We are going to have a full hearing on 
Iran, and we'll have both an open hearing, as I've mentioned to 
you in my office, as well as a closed hearing on that subject.
    General Caldwell, who's the head of our NATO training 
mission in Afghanistan, has reported a very large increase in 
the number of Afghan Army recruits that are awaiting training. 
There's a shortage of trainers. We've gone into that, and I 
think you would agree that, one way or another, we have to get 
those trainers present to increase the speed with which the 
size of that army is increased.
    What General Caldwell told us when we visited him is that 
there were a number of reasons for that significant increase in 
the number of recruits, that one of them was the increase in 
pay, but he also said that a very significant cause of that 
increase in the number of Afghan recruits was that the Afghan 
leaders are reaching out to the people in the provinces to 
increase, significantly, the number of recruits that are coming 
in. One of the things that focused the mind of the Afghan 
leaders to do that was the decision of the President to set 
that July 2011 date to begin to reduce the presence of American 
forces; not to pull our forces out, not to have a total exit in 
any sense, but simply to begin reductions as a way of focusing 
the minds of the Afghan leaders on their responsibility to 
provide for their own security and to transition more of that 
responsibility to them.
    Do you both support the 30,000 troop surge, and do you also 
support the setting of that July 2011 date by the President?
    General Petraeus. That is correct, Mr. Chairman. There is a 
shortage of trainers. Admiral Stavridis and the NATO Secretary 
General did a force-generation effort. They got about half of 
those pledged. As you noted, we have to figure out how to get 
the rest of those, and we are looking at various options for 
doing that, on the U.S. side, while still urging NATO to 
generate the remainder.
    The surge in recruits, I think, was a result of two 
factors: One, the increased pay, without question, but also a 
sense by Afghan leaders that they do have to get on with it. In 
the speech at West Point, the President sent two messages. One 
was additional commitment, the other was urgency. The urgency 
component of that was connected to the July 2011 date. It has 
concentrated the minds of Afghan leaders, to a degree, while we 
have also sought to reassure leaders in the region that that is 
not a date when we bolt for the exits, but it is, rather, a 
date on which we begin a conditions-based process of 
transitioning some tasks to Afghan forces and begin a 
responsible reduction of our forces.
    Chairman Levin. Do you personally support that?
    General Petraeus. I did. Yes, I have stated that on the 
record, many times.
    Chairman Levin. Thank you very much.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses.
    General Petraeus, I want to talk about the issue with you 
that has dominated the news in the last few days, and that is 
the increased tensions between the United States and Israel 
over the settlements issue, the timing of it, and the 
implications of it. I note there's been increased Palestinian 
demonstrations and violence in the last day or 2 in Gaza and 
West Bank. First of all, I understand that you have the 
greatest confidence in Senator Mitchell and his work to try to 
bring about progress in the Palestinian-Israeli peace process. 
Is that true?
    General Petraeus. That is absolutely true, Senator.
    Senator McCain. I just wanted to get that on the record.
    General Petraeus. That's why we've invited him to every 
single conference that we have hosted with CENTCOM, with 
ambassadors, with commanders, and so forth.
    Senator McCain. The present issue is over some increased 
construction of settlements in Jerusalem, which Israelis view 
within the State of Israel when the peace process is concluded; 
Palestinians view it as part of a new Palestinian state. Isn't 
the issue not the issue of settlements as much as it is the 
existence of the State of Israel? Its neighbors, with 
exceptions, have dedicated themselves to the extermination of 
the State of Israel. Ahmadinejad has said, time after time, 
they want to wipe Israel off the map. Isn't it true that the 
Israelis left Gaza on the presumption that then there would be 
progress, and instead they got rocket attacks? So, maybe you 
could put this in a larger context for us of what needs to be 
done to reduce the tensions between the United States and 
Israel, our closest ally and friend, in many respects. We'd 
like to hear a little bit about your views on that situation 
and what needs to be done to defuse it.
    General Petraeus. Thanks, Senator.
    First of all, just a reminder for all, neither Israel nor 
the Palestinian territories are in the CENTCOM AOR.
    Having said that, we keep a very close eye on what goes on 
there, because of the impact that it has on that part of 
CENTCOM that is the Arab world. In fact, we've urged, at 
various times, that this is a critical component. It's one 
reason we invite Senator Mitchell to brief all of the different 
conferences that we host, and seek to support him in any way 
that we can when he's in the CENTCOM part of the region, just 
as we support Lieutenant General Dayton, who is supporting the 
training of the Palestinian security forces from a location 
that is in the CENTCOM AOR, as well.
    Asking for the Palestinian territories to be added to the 
CENTCOM AOR, I have never made that a formal recommendation for 
the Unified Command Plan, and that was not in what I submitted 
this year, nor have I sent a memo to the White House on any of 
this. Some of this was in the press, so I welcome the 
opportunity to point that out.
    Clearly the tensions, the issues, and so forth, have an 
enormous effect. They set the strategic context within which we 
operate in the CENTCOM AOR. My thrust has generally been to 
encourage that process that can indeed get that recognition 
that you talked about, and indeed get a sense of progress in 
the overall peace process because of the effect that it has on 
what I think we would term the moderate governments in our 
area. That really is about the extent of our involvement in 
that, Senator.
    Senator McCain. Do you believe that a policy of containment 
would be an effective option for dealing with a nuclear-armed 
Iran?
    General Petraeus. Sir, I think that is a big policy 
hypothetical that I would like to go around, rather than into. 
I think the policy right now is very clear. The President has 
said that Iran cannot have nuclear weapons.
    Senator McCain. Are you concerned about the fact that the 
President's plan was 30,000 American troops, with 10,000 
additional ally contributions. We now have the Dutch obviously 
going to remove 2,000 troops. As Senator Levin pointed out, we 
don't have a sufficient number of trainers. Do we have any 
plans for the additional troops that are necessary? Can we 
accommodate for what is clearly a shortfall of the number of 
troops that was, in my view, a minimum of what was recommended 
by General McChrystal?
    General Petraeus. Senator, part of that is why we sought 
the additional 100,000 authorization for the ANSF, which came 
in the wake of the policy announcement.
    It is also why Secretary Gates asked for and received some 
flex factor that he has discussed. That is in the background 
there; if there came to be an emergent emergency need that is 
available, as well.
    Senator McCain. Finally, General and Admiral Olson, do you 
believe that Don't Ask, Don't Tell (DADT) needs a thorough 
review before action is taken?
    General Petraeus. Senator, can I give my statement on that?
    Senator McCain. We're short of time, but please, go ahead.
    Chairman Levin. How long is that statement?
    General Petraeus. About 8 minutes, sir.
    Chairman Levin. No, no.
    General Petraeus. Sir, this is not a sound-bite issue.
    Chairman Levin. I understand.
    Senator McCain. It's a pretty straightforward question, 
though.
    Chairman Levin. We respect, believe me, the thoughtfulness 
that you are applying to it. We've read your public statements. 
But, an 8-minute answer, unless someone else wants to use all 
of their time for it, I'm afraid would violate the spirit of 
our rules.
    I would suggest, however, that if nobody asks you that 
question and their time is used for that purpose, that you make 
that part of the record. But, someone may very well ask you. I 
just don't think it would be right, because of our time limit, 
to take 8 minutes out of someone else's time.
    General Petraeus. I understand.
    Senator McCain. I think you've just made it very unlikely 
that you'll be asked, if it's 8 minutes. [Laughter.]
    Admiral, do you want to make a comment? My question is 
pretty straightforward, to be honest with you. Do you believe 
that a thorough review of the policy and the legislation needs 
to be conducted before repeal?
    Admiral Olson. Yes, sir, I do.
    Senator McCain. Thank you.
    General Petraeus. Senator, let me just answer that. I 
believe the time has come to consider a change to DADT, but I 
think it should be done in a thoughtful and deliberative manner 
that should include the conduct of the review that Secretary 
Gates has directed; that would consider the views in the force 
on a change in the policy; that would include an assessment of 
the likely effects on recruiting, retention, morale, and 
cohesion; and would include an identification of what policies 
might be needed in the event of a change, and recommend those 
policies, as well.
    Senator McCain. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    As you've said, I believe, in my office, the likely effects 
could go in either direction, either negative or positive, the 
study could show.
    General Petraeus. It could, it could.
    Chairman Levin. Okay.
    General Petraeus. Yes, sir.
    Chairman Levin. Thank you very much.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks, to both of you, for your leadership.
    General Petraeus, I just want to ask you a couple of quick 
questions about Iran, first. I thought your prepared testimony 
was very strong and clear, here. You describe Iran as ``the 
primary state-level threat to stability in the region,'' add 
that its nuclear program is, to use your words, ``serious,'' 
and ``part of the regime's broader effort to expand its 
influence.'' I agree, of course.
    You also mentioned, just in response to questions, that 
President Obama has said that the military option remains on 
the table. It's not our first choice, obviously; that's why 
we're pursuing economic sanctions.
    I just want to reinforce the fact that previously you've 
said that in the exercise of your responsibility at CENTCOM, 
you are working on actual military plans with regard to Iran, 
which, we all hope, you never have to use, but as the military 
works on contingency plans for a host of scenarios around the 
world. Is that correct?
    General Petraeus. Sir, probably best for a closed session, 
but we get paid to prepare for contingencies; it would be 
irresponsible if we didn't do that.
    Senator Lieberman. Right.
    General Petraeus. We try not to be irresponsible.
    Senator Lieberman. Because I know how responsible you are, 
I assume you're working on plans. So, I'll leave it at that for 
now.
    Let me go to Iraq. We've watched the election that's going 
on there now with great satisfaction. It's not a perfect 
situation, but when you think about the fact that, a little 
more than 3 years ago, it looked like Iraq was going to descend 
into chaos, and now we have a government operating, an economy 
coming together, and increasing self-defense by ISF. I was 
struck by the success of the united parties, as it were, the 
nonsectarian parties, and I look forward to continued progress 
there.
    There was a time when we'd say gains in Iraq were fragile 
and reversible. Today, I note in your statement, you say, 
``Gains in Iraq remain fragile and reversible, but increasingly 
less so.'' I appreciate those four additional words.
    I wanted to ask you, in light of all that, but 
understanding that our gains in Iraq remain fragile and 
reversible, whether it is still going to be possible to draw 
down to 50,000 American troops in Iraq by September 1 of this 
year. It's a drawdown required by the Status-of-Forces 
Agreement with Iraq. It's a good goal, but I'm sure you'd be 
the first to say that we don't want to arbitrarily go to it if 
we think there's significant risk of reversal as a result. Give 
me your sense, at this moment, of whether we're going to be 
able to get down to the 50,000 by September 1.
    General Petraeus. I think we will be able to do that, 
Senator. I think that we may reconfigure the force a bit over 
what we originally were thinking it would look like 4 months 
ago or so. We're constantly tinkering with it. There's a 
possibility that we may want to keep an additional brigade 
headquarters, as an example, but then slim out some of its 
organic forces and some of the other organic forces elsewhere. 
Headquarters really matter because they're the element of 
engagement. If we think that there's a particularly fragile 
situation in a certain area in the north, then we might do 
that. That's something that we are looking at. But, we still 
believe that we will be able to stay on track to get down to 
that 50,000 figure.
    Senator Lieberman. Okay, that's encouraging. That would 
mean, I assume, that there'd potentially be a 7th Brigade 
headquarters.
    General Petraeus. That's correct. That is one option that 
we are looking at, but still within the broad 50,000.
    Senator Lieberman. I take it, from what you've said, that 
that probably would be in the areas of Kurdish-Arab conflict 
around Kirkuk, where I know that our forces, working with other 
forces there, have really helped to maintain stability.
    General Petraeus. That's correct, sir.
    Senator Lieberman. I appreciate that.
    Let me go to Afghanistan with this question. There's been a 
lot of public discussion recently about reconciliation with 
senior Taliban leaders. Some senior officials in our coalition 
seem to be pushing really aggressively on the idea that we 
should try to cut some sort of deal with the Taliban, perhaps 
with the help of historic allies of theirs in Pakistan. 
Personally, I worry that these ideas are ill-advised, although 
I'm sure we all look forward to the time when there can be 
reconciliation, particularly beginning with lower-level 
Taliban, or probably not zealots. In that regard, I agree with 
Secretary Gates, that we need to first make the Taliban 
understand that they are destined to lose this fight, before 
any serious consideration of reconciliation at the higher 
levels can take place. Therefore, I worry that the current 
public talk about reconciliation is counterproductive. I want 
to ask you what your view is on that.
    General Petraeus. I agree with Secretary Gates on that, 
Senator. Certainly, thinking ahead to that moment when perhaps 
senior-level Taliban can be integrated, because there has been 
what's called reintegration at low- and mid-levels. In fact, 
yesterday there were open reports about a couple of Taliban 
leaders coming in with their hands up. It is not an uncommon 
event over there; but there are many low- and mid-level 
leaders. That's part of the strategy, is reintegration with our 
Afghan partners to try to break off from the greater-Taliban 
movement, those who might become part of the solution instead 
of a continuing part of the problem.
    On the other hand, reconciliation at the senior levels, as 
Secretary Gates has observed, is probably a bit unlikely, at 
the conditions that the Afghan Government has established for 
it if they are not feeling a considerably greater amount of 
pressure than they probably are right now. That's what's behind 
Secretary Gates' view, and that happens to be my view, as well.
    Senator Lieberman. I appreciate that, and that's 
reassuring. Thank you very, very much.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I wasn't going to ask this question, but General Petraeus, 
you spent quite a bit of time talking about the CERP, and my 
favorite program is the partner programs that train and equip--
1206, 1207, 1208 and the Combatant Commander Initiative Fund 
(CCIF) and International Military Education and Training (IMET) 
and all that.
    General Petraeus. Right.
    Senator Inhofe. The whole reason for this, initially, was 
to get more authority to the commanders in the field to be able 
to do things, to respond. We've had some testimony that talks 
about how much more effective it is if you're able to do this 
without going through a lot of the bureaucratic time delays 
that would come otherwise. I'd like to know, since they're 
talking about 1207, which is the civilian-to-civilian portion 
of this, now kind of reverting more back to the way it was 
before, or at least having a greater State Department influence 
in it, do you see this creating any kind of a problem, number 
one? Number two, do you think, starting with this, that it may 
spread to some of the other elements of train-and-equip?
    General Petraeus. CERP is hugely important. We want to 
continue it. We want to make sure we have the oversight that 
can guarantee to you and to the other committees that we're 
responsibly overseeing the expenditure of taxpayer dollars. We 
are trying to work very closely with our partners in the U.S. 
Agency for International Development (USAID) and other civilian 
elements, to make sure that we do coordinate what we are doing 
in the field. One of the achievements in RC-East, in 
particular, of ISAF, has been to build a civilian chain that 
parallels the military chain all the way back to Kabul, and 
allows them to coordinate much more closely in their thresholds 
for various levels as you go up. I think that's working well. I 
think we have to continue it. We also want to make sure that it 
can be the responsive tool that it is; so, we're sensitive to a 
sense, if there's too much bureaucracy building up, then that 
would defeat the purpose of it in the first place. We're trying 
to find that balance between a sufficient amount of 
coordination and oversight and still allowing the free use of 
it in the way that it was intended.
    Senator Inhofe. If you see that the effectiveness is 
impaired at all, if you'd let us know, that would be very 
helpful.
    Would you agree with his comments, Admiral Olson, first of 
all, on all of these programs; and second, his comments about 
what changes might be coming, and what to look for?
    Admiral Olson. Absolutely, sir. I agree 100 percent. I 
think the 1206, 1207, 1208, and, as you mentioned, but which is 
often neglected in the conversation, the IMET funding, are 
absolutely key to success. I applaud the initiative for CERP. I 
think that combatant commanders responsible for military 
success in the region ought to have the kind of responsiveness 
that CERP funds provide.
    Senator Inhofe. You also agree, then, because you have a 
broader responsibility, that the CCIF in other areas is a good 
program.
    Admiral Olson. Yes, sir, I do.
    Senator Inhofe. Admiral Olson, I've always been very 
sensitive to the training process in Afghanistan, and one 
reason is that, way back, probably 5 or 6 years ago, our 
Oklahoma Guard over there was very active in the training of 
the trainers. Right now you have Special Forces and 
conventional forces that are involved in the training. How is 
that broken up?
    Admiral Olson. Sir, the cleanest way to divide it is that 
the Special Forces trainers are training their Afghan 
counterparts. They're in a program that originated as a 
commando training program, selecting battalions, kandaks, from 
the ANA and putting them through a 12-week training course that 
then created a commando program within the ANA. That's now been 
expanded recently to include a special forces counterpart 
within the ANA. Most of the training of the ANA--the raising of 
the army, if you will--is being done by our general-purpose 
force trainers.
    Senator Inhofe. Good.
    In terms of your responsibility in the special operations, 
the fact that you're not only dealing with an asymmetric 
threat, but also with the more conventional threats posed by 
North Korea and Iran; do you have the resources to be able to 
confront those threats, in your opinion?
    Admiral Olson. Yes, sir. Depending on Army, Navy, Air 
Force, and Marine Corps for service com and support, we are in 
the tracking and planning business. To go beyond that, I think 
we should go into closed session.
    Senator Inhofe. What's the ratio right now of special 
operations to conventional forces that are deployed in numbers 
of personnel?
    Admiral Olson. SOF number about plus or minus 10 percent.
    Senator Inhofe. Roughly 10 to 1.
    Admiral Olson. Roughly 6,000 troops each in Iraq and 
Afghanistan, relative to just about 100,000 conventional forces 
in Iraq now, as that draws down and as Afghanistan moves up 
again.
    Senator Inhofe. So, when the drawdown occurs, would you see 
somewhat of a proportional drawdown? Do you have any thoughts 
on that?
    Admiral Olson. No, sir. We don't expect to see that. In all 
my conversations with General Odierno and General Petraeus, 
it's my expectation that the level of Special Operations Forces 
will remain about constant in Iraq.
    Senator Inhofe. As we continue to fund Pakistan's efforts, 
a concern has resonated, at least with me, that we might be 
inadvertently getting those fundings to the wrong places, like 
the Pakistan-based jihadists, either through the madrassas or 
the Federal funds going to Pakistan. What kind of precautions 
are we taking to make sure they don't get to the wrong people?
    General Petraeus. The security force funding elements are 
going directly to the security forces. Any of the different 
categories of funding that we have for them--whether it's 
foreign military financing, IMET, Pakistani Counterinsurgency 
Capability Fund, 1206, whatever--these all buy either 
equipment, training, or education for members of the Pakistani 
military.
    Senator Inhofe. Okay.
    General Petraeus. I'm confident that money is going where 
it should.
    Senator Inhofe. That's good. There have been a few articles 
that have been written that have drawn some question to that, 
and I felt that was the case.
    Thank you very much.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much.
    Gentlemen, thank you for your service.
    General Petraeus, can you give us your initial evaluation 
of the election in Iraq? It appears that in terms of the 
sectarian lines, there has been a lot of discussion of these 
nonsectarian alliances, but the results of the votes appear to 
strengthen some of the sectarian positions.
    General Petraeus. Prime Minister Maliki's State of Law 
coalition is the leader, overall, and it will certainly not get 
a majority; it will get a plurality. Second, interestingly, 
although it's very close, is former Prime Minister Allawi's 
coalition. He is a Shia leader of a coalition that has 
substantial Sunni backing. His was the leading coalition in 
many of the Sunni-majority provinces. Very close to him is the 
coalition of the Supreme Council and Sadrists and Prime 
Minister Jaafari's party, Chalabi's party, so that is in there, 
as well. Then the overall number of Kurdish votes is in there, 
also.
    At the end of the day, clearly there will have to be, at 
the very least, cross-ethnic coalitions. There will certainly 
have to be Arab and Kurd, without question. I think what 
remains to be seen is how much cross-sectarian coalition-
building will take place. That will be the dynamic, I think.
    Senator Reed. You expect this process of selecting a new 
government to stretch for several months?
    General Petraeus. Yes, we do.
    Senator Reed. One of the interesting results is the 
apparent success of Sadr and his party, or at least his 
grouping.
    General Petraeus. I don't know if it would be a surprise, 
candidly. I think those who watch it would have predicted that. 
I think the fact that Maliki's coalition is higher, actually, 
is quite significant.
    The parties don't have to stay with their coalition. They 
can join other coalitions. That's going to be the interesting 
dynamic that plays out.
    Senator Reed. One final question about the elections. The 
Iranians were involved, at least in the sense of supporting, 
financially, some of the parties. What influence do you think 
they'll have, given what we know preliminarily?
    General Petraeus. I think Iran, in the past, has had 
influence when it comes to deal brokering. They're not alone in 
influencing those, certainly. Other actors in the region will 
have some degree of influence, as well. I'm sure that they will 
continue to try to exercise that. The fact, however, that they 
were not able to succeed in getting all of the Shi'a major 
parties to run as one coalition was quite significant, as that 
was a goal of theirs. The fact that, in the January 2009 
elections, the parties most associated with them did not do all 
that well, was significant. Frankly, the fact that there was a 
strategic agreement is quite significant in that regard, as 
well.
    You still have this dynamic that Ambassador Ryan Crocker 
used to talk about, that there is a certain degree of self-
limiting aspect to some of Iran's influence, given that Iraq 
does not want to be the 51st state, if you will, of Iran, in 
that it is very conscious of its Arab identity, versus the 
Persian identity.
    Senator Reed. Thank you.
    Admiral Olson, can you comment about Yemen? I know it's an 
area that you're concerned with. Then I'll ask General Petraeus 
afterwards. It is a country beset with huge problems. They're 
depleting their oil resources; they're depleting their water 
resources; they have demographic challenges; a youthful 
population; and they have a civil war, despite al Qaeda. With 
that good news, besides saving money on your car insurance, 
what can you tell us? [Laughter.]
    Admiral Olson. Sir, Yemen is clearly a place that's being 
challenged. I second what General Petraeus said about the 
rising presence of al Qaeda in the Arabian Peninsula and their 
focus on Yemen as a place where they are seeking some 
sanctuary.
    Our involvement, from the special operations community, is 
relatively low-level. We have a relatively small training 
engagement with certain Yemeni forces. But, beyond that, I 
think we'd have to go into closed discussion.
    Senator Reed. General Petraeus, you want to comment 
further?
    General Petraeus. I'd just second the motion.
    Senator Reed. Very good.
    Let me switch to Pakistan. The Quetta Shura appears to be 
dispersing to Karachi and elsewhere. Is that a result of what 
you talked about, the different orientation of the Pakistani 
Armed Forces and Security Services? Are they putting real 
pressure on the Quetta Shura?
    General Petraeus. I think there's a number of factors in 
play. That may be one of them. Certainly, pressure--just in 
Afghanistan--is yet another factor, and just perceptions or 
fears that have resulted from the campaign by the Pakistani 
Army and Frontier Corps targeted at the Pakistani Taliban, as 
distinguished from the Quetta Shura or Afghan Taliban. But 
several Afghan Taliban shadow governors, Mullah Baradar and 
others, are detained in Pakistan, just as there have been some 
also in Afghanistan. I think just feeling a bit more pressure, 
worried about what might be out there in the future, has 
resulted in some of this dispersal.
    Senator Reed. Thank you very much.
    Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Gentlemen, as we continue down this road of trying to make 
sure that we recruit and retain the finest men and women that 
America has to offer, it's the two of you guys that our junior 
officers, mid-level career folks continue to look to; you're 
providing the right kind of leadership that's going to allow us 
to retain those folks. So, thank you for the great work you do.
    General Petraeus, I want to go back to what Senator 
Lieberman was talking about, relative to meeting this goal of 
50,000 troops in Iraq by the end of August. General Odierno, as 
well as General Cucolo, has recently expressed some concern 
about the fact that we're going to need some probably buffer-
zone-type troops, maybe a brigade combat team, in the northern 
end, because of the Iraqi National Forces and the Kurdish 
Regional Forces issue up there. Is that going to be a part of 
this plan that you're talking about, from a disbursement 
standpoint, is this going to be additional troops we're going 
to need?
    General Petraeus. No. Our goal right now, and we think 
we're on track to achieve it, is to reach the 50,000 possibly 
with some rescoping. With possibly a 7th Brigade headquarters, 
not necessarily all of the brigade's elements; we don't need 
all of those. What we need are headquarters. Headquarters 
matter enormously when you're coming down, because they are the 
engagement element that is there, and particularly in an area 
where our contributions, as honest brokers and so forth, are 
important. That is seen as an option that we're looking at. No 
decision has been made on that yet. The intent would be to do 
that within the 50,000, so it would be a rescoping of the 
force, rather than an increase.
    Senator Chambliss. Okay.
    General, two of the issues that we've had ongoing in 
Afghanistan are the rule of law, or lack thereof, as well as a 
corruption issue in the government. Can you bring us up-to-date 
on both those issues, please?
    General Petraeus. For the rule of law, there are three 
elements of that. As always, much more emphasis on not only 
training police, but also on partnering with them and insisting 
that before they actually put the uniform on, they receive 
training. This is all part of getting the inputs right and the 
concepts right. Those are among those.
    The detention side of that, the corrections side, we're 
working hard to help them. The Bureau of International 
Narcotics and Law Enforcement Affairs (INL) does it with the 
Afghans directly. We're doing it with an element that will 
eventually be able to take over the detention facility that we 
have at Bagram, a goal that we have for early next year; and 
that is on track so far.
    Then, the judicial leg of the three-legged stool of rule of 
law is an area that I think everyone agrees there needs to be 
greater effort. There have been additional resources and 
partnering activities carried out, with a special element in 
Kabul that has been productive; supported by the Federal Bureau 
of Investigation (FBI) and the Department of Justice (DOJ), as 
well. We think that is an effort, overall, that is going to 
need to expand over time, just as we had to do in Iraq.
    With respect to corruption, President Karzai announced his 
anticorruption campaign. There have been some actions taken to 
remove corrupt individuals, and there is no question that there 
need to be more.
    Senator Chambliss. With respect to prisoners that we have 
arrested and are being detained at Bagram, the President looks 
like he's committed to moving down a path of closing 
Guantanamo. What are we going to do with all those battlefield 
combatants that we have picked up and are now being housed at 
Bagram?
    General Petraeus. What we're doing with respect to those 
that are at Bagram is preparing a plan to transition control of 
that to an Afghan corrections force that we are training, 
equipping, and will mentor and partner with. We won't just hand 
it to them and leave; we will provide continuing partnering 
with them for some period of time. That's the plan for what we 
want to do in Bagram.
    Senator Chambliss. At this point in time, are you confident 
that we're going to be able to take those prisoners who are 
comparable to the remaining prisoners that we have at 
Guantanamo, and that the Afghans are going to be able to deal 
with them a way that doesn't put them back on the battlefield, 
either in Afghanistan or potentially in some other country 
around the world, including maybe the United States?
    General Petraeus. That is certainly what we're endeavoring 
to do. That also includes rehabilitation efforts; it includes 
engaging tribal leaders and mullahs and families as we did in 
Iraq. I might note that, in Iraq yesterday, we transitioned the 
Taji detainee facility. We're now down somewhere in the 2,000 
to 2,500 number of detainees from some 27,000 that we had there 
during the height of the surge. That is quite an accomplishment 
for those of our elements that have been engaged in that, 
including at various times, Colonel Lindsey Graham, U.S. Air 
Force, but also very much the Iraqi security force elements 
that are in charge of that now. We don't just hand off to them; 
we train, we equip, we mentor, we monitor, and so forth.
    Senator Chambliss. I'm always concerned about the security 
of our country when Colonel Graham is in theater over there. 
[Laughter.]
    Chairman Levin. Let me give Senator Graham an extra minute 
on his time. [Laughter.]
    Senator Chambliss. He needs more than that to defend 
himself. [Laughter.]
    The glide path for troop strength in Afghanistan and the 
collateral issue of training the security forces in Iraq, are 
we on the right glide path? Are we going to be able to meet 
that goal of next year?
    General Petraeus. You're talking about Afghanistan?
    Senator Chambliss. Yes, Afghanistan.
    General Petraeus. Not in terms of the deployment of the 
additional forces, we made the commitment to the President to 
have them all there by the end of August, with the exception of 
a division headquarters that's not needed by that time, so it's 
about 99 percent of the 30,000. We are on track to do that. I 
can tell you that Transportation Command, the logisticians of 
the world, and others, have done absolutely magnificent work to 
enable that, and to also get their equipment into theater so 
that they have what they need shortly after they get there or 
beforehand. That's on track.
    We're somewhere close to the 10,000 mark of the 30,000. 
It's increased a good bit recently. That's on track.
    With respect to the ANSF, we are behind a bit on the ANA 
side, somewhere around 1,300 or so below the glide path that we 
need to be on to take us to that additional figure that we've 
talked about out in the future for them. As I mentioned, the 
combination of additional army and police will be somewhere 
around 100,000 over the next 18 months or so.
    Clearly there's going to have to be greater recruiting and 
better retention on the part of the ANA. That's the goal. It is 
an important reason that Afghan leaders have to grip this, and 
that's exactly what they have done, as I think Senator Levin 
mentioned. We also have to expand the training capacity there, 
and that's linked to the need for the additional trainers; 
there's no question about that. That is part of General 
Caldwell's plan with NATO Training Mission-Afghanistan.
    Senator Chambliss. Thank you very much.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to add my welcome to Admiral Olson and General 
Petraeus and thank you very much for your leadership and your 
distinguished service to our country. Also, thank you, the men 
and women that you lead, and also their families, for the 
support that they give our troops. We're really grateful.
    General Petraeus, Afghan forces are taking an important 
part in operations. Many times, leading and even making up the 
bulk of forces involved, Afghan soldiers and police forces must 
not only expand greatly in a short amount of time, but they 
must be trained to a higher standard in order for them to gain 
the trust and confidence of the people. I believe a well-
trained and properly-sized ANA and Afghan National Police (ANP) 
forces are a prerequisite to America leaving Afghanistan.
    My question to you, General, is, what are the most 
difficult obstacles to successfully building the ANA and ANP? 
How are we coping with these obstacles?
    General Petraeus. Senator, you're exactly right, this is a 
critical component of the overall strategy. Among the 
challenges is insufficient training capacity. Right now, with 
this authorization of the additional forces, we need to ramp up 
the capacity to train them. That's not just basic recruit 
training, but it's also branch training for the different 
elements of the military and the police, it is leader training, 
it's development of institutions, as well as just basic 
trainees.
    A challenge there, beyond needing more trainers and, in 
some cases, more facilities, is also the challenge of 
illiteracy. Illiteracy runs somewhere in the 70-or-so-percent 
range in Afghanistan, a bit less in the cities, a bit more in 
the rural areas; and obviously that's a challenge if you want 
the police to be able to read the laws that they should be 
enforcing. So, there is actually going to be a modest component 
of literacy training made part of the training plans. It will 
be brought in a bit at a time, and we'll work with this, but to 
see if that can help with the effort as we go forward, as well.
    I think that the facilities, the equipping, and the other 
components are generally surmountable. I think it comes back to 
the issues of having the numbers of trainers and then partner 
elements over time. Then dealing with a culture in which there 
is an acceptance of a degree of corruption in which tribal 
norms, and so forth, intrude as well.
    Senator Akaka. Admiral Olson and General Petraeus, since 
you mentioned the culture, I believe we must grow our foreign 
language capability. There seems to be an emphasis within DOD 
to improve these capabilities so that our servicemembers can 
better perform counterinsurgency and stability operations. 
Admiral and General, what are your impressions regarding DOD's 
efforts to develop servicemembers' cultural knowledge and 
foreign-language skills to better perform traditional and 
nontraditional warfighting activities?
    Admiral?
    Admiral Olson. Sir, I applaud the efforts of the Department 
and the Services to increase language skills, and regional and 
subregional and microregional expertise along with it. I think 
that they are progressing in that regard. I think that they are 
demonstrating much more effectiveness in projecting a 
relatively shallow level of language and regional skills across 
a very broad force. We're still challenged to steep people in 
the environments, develop true expertise, native-level language 
and native-born regional skills, if you will. But, the 
discussions are taking place, and I think the latest 
Quadrennial Defense Review (QDR) and the latest budget 
submission highlight those requirements.
    Senator Akaka. General Petraeus?
    General Petraeus. Senator, I also agree with the need. It's 
not just language, it's cultural awareness and appreciation, as 
well. There have been a number of initiatives pursued, some of 
them at a fairly shallow level but that is very, very helpful 
for our forces. Beyond that, there are other initiatives, 
including targeted recruiting, reenlistment bonuses, 
proficiency pays, and others, to try to demonstrate the 
Department's recognition of the importance of language 
proficiency.
    With respect to Afghanistan and Pakistan, there's a program 
called the Af-Pak Hands Program, led out of the Joint Staff, 
but with both of our headquarters involved in it, and the 
Services, as well, to develop individuals who have a real 
understanding of the culture, language, history, and so on of 
Afghanistan and Pakistan and then do repetitive tours, either 
out in the region or in assignments back in the States, that 
keep them working in that particular arena.
    Senator Akaka. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Akaka.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    The 96-hour rule, I understand that's under review, and 
we're getting some relief from that rule. Is that correct?
    General Petraeus. There is, Senator. The Secretary of 
Defense has approved, in a sense, a U.S. caveat that goes along 
with our transitioning of authority of U.S. Forces to NATO 
control, and it includes up to 14 days for interrogation, for 
analysis, and then, in some cases, for those who need longer 
detention, that is also available, as well.
    Senator Graham. I want to thank you for leading that 
charge, because I think our warfighters will appreciate that, 
particularly the marines down south. Has that been well-
received by the force?
    General Petraeus. It has, sir. If you want to live your 
values, you have to set conditions in which our troopers can do 
just that.
    Senator Graham. Thank you. Yes, I'm glad you've been given 
some relief, because the old rule just didn't make a whole lot 
of sense. I think the new way forward does make sense.
    We've talked a little bit about Iran. From your point of 
view, how much time is available to the world before Iran gets 
a nuclear weapon, given what they're doing today?
    General Petraeus. Again, probably best for a closed 
session.
    Senator Graham. Gotcha.
    General Petraeus. But it has, thankfully, slid to the right 
a bit, and it is not this calendar year, I don't think.
    Senator Graham. Okay. But, it's not forever, either.
    General Petraeus. It is not infinite.
    Senator Graham. Okay.
    Now, my favorite topic: detainees. I just want to let the 
committee know that you and Doug Stone and others involved with 
Camp Bucca is probably one of the great, great success stories 
of Iraq, maybe military history, really, turning a prison 
around that was a recruiting center for the enemy and becoming 
part of the counterinsurgency operations. I just want to put on 
the record how much I appreciate what you all were able to do 
with Camp Bucca, to turn it into a model military prison that 
would rehabilitate people. Those that were irreconcilable were 
segregated out, and it is a great success story.
    But, that takes us now to Afghanistan. Detention operations 
over there are part of this surge, I would think. Is that 
correct?
    General Petraeus. They are, Senator. In fact, your former 
wingman, Brigadier General Mark Martins, is a full-time 
resident of the area of Bagram at the detention facility there, 
now called the Parwan detention facility. He is spearheading 
the effort to ensure absolutely the same kinds of initiatives 
are pursued there that you saw firsthand in Iraq, and then to 
help develop the concepts, and then implement the concepts, for 
Afghan Forces to be trained, equipped, and then take on the 
tasks there, increasingly, so that we can step back in a number 
of areas in which over time we'll need to step back. That's the 
plan for there.
    His boss, Vice Admiral Harward, out of the SEAL community, 
is the overall Task Force 435 commander. General Martins is the 
deputy. Vice Admiral Harward is overseeing the overall effort, 
also working more with our State Department colleagues, INL and 
others, to ensure that the Afghan facilities outside Kabul and 
Kandahar and other places are also conducting their business 
appropriately. There are also partnerships of the future in 
some of the other rule-of-law areas, as well.
    Senator Graham. Thank you.
    Do we have people in the Bagram confinement facility that 
are non-Afghan foreign fighters?
    General Petraeus. We do. Yes, sir.
    Senator Graham. Is it fair to say, we need a closed 
session, eventually, about this, Mr. Chairman, but just put out 
for public consumption, the best I can, that we have a dilemma 
in this war; we're running out of jail space for certain 
people, and we need to find confinement facilities that work. 
Would you support sending Guantanamo Bay detainees to 
Afghanistan, to Bagram? Is that a good idea? Some have 
suggested that.
    General Petraeus. I think that, at the very least, over 
time, that's an idea that we need to go sit under a tree until 
it passes, I think.
    Senator Graham. I'll take that to be, ``That's not a good 
idea.''
    General Petraeus. If we transition this to Afghan control, 
as we should----
    Senator Graham. But, I'm talking about taking Guantanamo 
people here, and sending them to Afghanistan. Wouldn't that 
create great problems for the Afghan Government if you did 
that?
    General Petraeus. This is why I think that we need to think 
pretty hard about that. We're going to transition this facility 
to Afghan control.
    Senator Graham. Right.
    General Petraeus. We're going to do it in the relatively 
near term, in the course of a year.
    Senator Graham. These foreign fighters that we're talking 
about, are the Afghans willing to take them?
    General Petraeus. Sir, I'd defer to DOJ or others, because 
this is a big policy issue.
    Senator Graham. Isn't it fair to say, General, there are 
some prisoners in Afghanistan, that are non-Afghan, held by the 
American military, that it may be very difficult to convince 
the Afghans to take them, or it may not be wise to send them to 
the Afghans. Is that a fair summary?
    General Petraeus. Sir, you're the lawyer.
    Senator Graham. Just say yes, then. [Laughter.]
    General Petraeus. The fact is that those individuals broke 
the laws in Afghanistan.
    Senator Graham. Yes.
    General Petraeus. So, as we're transitioning to 
Afghanistan, that's an Afghan legal issue. But, I'll be happy 
to defer to the legal community.
    Senator Graham. Okay. Admiral Olson, we catch somebody in 
Yemen. Where do we send them?
    Admiral Olson. Sir, that's a question that, on so many 
levels, we would have to go into a closed session.
    Senator Graham. Okay, fair enough.
    Last question. General Petraeus, you've indicated in the 
past--and, I think, very eloquently--that Guantanamo is 
counterproductive to the war effort and, if possible, should be 
closed. Could you tell me why you believe that?
    General Petraeus. Rightly or wrongly, and probably wrongly, 
because I think that facility--and many of you have visited 
it--actually is conducted in an appropriate manner, but, at the 
very least, it has a symbol attached to it that is one that is 
used in our AOR against us. It, in some cases, is even lumped 
in with Abu Ghraib. Completely different case, there's no 
reason to do that, but again, it has become iconic in certain 
respects, and those are not helpful respects in the CENTCOM 
AOR.
    Senator Graham. One last, very simple question. Isn't it 
true that some of our allies refuse to turn prisoners over to 
us if they believe they could work their way to Guantanamo?
    General Petraeus. Sir, I don't know the answer to that 
question.
    Senator Graham. You've never had an ally tell you that, 
``We can't turn a prisoner over to the Americans if they're 
going to go to Guantanamo?''
    General Petraeus. I'm not sure we've sent anybody to 
Guantanamo on my watch as the CENTCOM Commander.
    Senator Graham. We haven't sent anybody to Guantanamo on 
your watch?
    General Petraeus. I don't think so.
    Senator Graham. I think you're right. I think you're right.
    Okay, thanks.
    Chairman Levin. Thank you, Senator Graham.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service and for being here 
with us today.
    General Petraeus, we've heard from all of the Services that 
combatant commanders have difficulty getting enough ISR. This 
budget starts to address that by adding more unmanned aerial 
vehicles (UAV), but the focus has primarily been on the number 
of aircraft and not on the personnel required to operate the 
aircraft and analyze the intelligence collected. In some 
respects, it seems to me that the easier part may be getting 
the UAVs, the tougher part may be in manning the UAV mission, 
in terms of staffing as well as intelligence. Can you give us 
your opinion on this overall picture of ISR personnel versus 
equipment?
    General Petraeus. I'd be happy to, sir. There's something 
called the F3EAD process; that is find, fix, finish, exploit, 
analyze--or assess--and disseminate (F3EAD). Of that, the 
hardware you've just talked about, what might be on a UAV, is a 
subset of that. It's a very, very critical subset.
    Senator Ben Nelson. Yes.
    General Petraeus. But without all the people that do the 
tasks associated with the F3EAD process, it is not fully 
exploited to the extent that we need to. We have actually spent 
quite a bit of time pulling back up to strategic level, when 
folks start talking procurement issues, and talking about the 
overall intelligence process that involves these various 
platforms, and a whole host of other platforms and 
capabilities. I think that the Air Force is to be commended for 
the enormous shifts that it has made, in particular, to man all 
of these different elements, and the same for the other 
Services, and the Intelligence Community (IC) more broadly.
    Senator Ben Nelson. Between the Army and the Air Force the 
fiscal year 2011 budget request includes about $1.6 billion to 
buy 77 Predator-class UAVs. By 2016, both Services project to 
have spent $10.2 billion on 499 of these UAVs. In looking at 
the unmanned platforms and the requirements for staffing to fit 
all of those requirements, is there adequate coordination 
between the Services to get that done so that we don't end up 
with a stovepiping of each branch having its own approach to 
dealing with this?
    General Petraeus. There is, sir. In the Office of the 
Secretary of Defense (OSD), there's an ISR task force that 
looks at this very broadly and analyzes it, together with the 
Services, all the way down to the tactical level and up to the 
strategic level. It is a hugely important element of what we 
need out there. Hardware without the people is not sufficient, 
and they're addressing that.
    Senator Ben Nelson. In achieving the goals, sometimes 
referred to as benchmarks, can you take two of the major 
benchmarks and give us your impression of how we're doing on 
achieving those goals--two of the most important ones?
    General Petraeus. I hate to go back to hardware, but 
hardware is one of them, because I think we've literally maxed 
out the production capacity. There's been intense scrutiny on 
where every one of these platforms are. Then there's been equal 
scrutiny on what is termed the back end. It's everything that 
allows it to stay in the sky, a line, as we call it, to stay in 
the sky for 24 hours a day, to provide the unblinking eye.
    In each of those areas, I think we've pushed industry about 
as far as it can go, is my understanding. The personnel 
pipeline has been expanded dramatically, not just in terms of 
those who pilot these unmanned systems, but also in terms of 
all of the others who are doing the exploit, analyze, 
disseminate piece.
    Fusion. Because the real breakthrough in intelligence in 
recent years has been fusion of imagery, human intelligence, 
signals intelligence, and measurement intelligence. It's been 
pulling all of that together. That's the real key.
    Senator Ben Nelson. We're in the midst of implementing a 
new missile defense plan in Europe, called Phased Adaptive 
Approach. One of the benefits of this is it allows for an 
immediate missile defense system against Iran. What impact does 
the approach have affecting regional stability in the AOR?
    General Petraeus. We're looking at the BMD in the AOR 
itself. We have made our requirements known to the Department, 
and also there's an effort to tie in what we do, because now 
it's all about shared early warning, and sharing across 
combatant commands. So, as the deployment sequences are sorted 
out, we will then tie in with our European Command brethren in 
making sure that what we see, they see, and vice versa.
    Senator Ben Nelson. An area that has more intrigue perhaps 
than others is piracy in the vicinity. How much of our time and 
our financial resources and personnel and equipment would be 
assigned to dealing with piracy in the vicinity that is within 
the AOR?
    General Petraeus. It's not a substantial portion of Naval 
Forces CENTCOM, but it is an important mission that the naval 
component of CENTCOM performs. But, it does so, together with a 
coalition maritime force, and also with European Union (EU), 
NATO, and even independent elements, including China; and 
Russia has been out there, as well. Ultimately, Senator, the 
key there is going to be maritime shipping companies taking 
more defensive measures, including up to, we think, at some 
point armed security elements.
    We have changed our tactics and so forth, as well. We've 
learned a lot about the networks that carry out the pirate 
attacks, which are really quite extraordinary; in some cases up 
to 600 nautical miles off the coast of Somalia, in very open 
boats with big, huge, 55-gallon drums of fuel throughout them, 
and their other paraphernalia.
    But, it's a very challenging mission, because we have the 
authorities relative to pirates only that police have relative 
to an alleged criminal. This is not the declared hostile enemy 
for a military force; it is a reduced set of authorities that 
we have in this arena. So, if you then detain a pirate, you are 
right back to the question of, who do you turn them over to? 
There are not authorities in Somalia that will deal with them. 
We've made arrangements with some neighboring countries in the 
region, but some of their facilities are starting to get fairly 
full.
    Senator Ben Nelson. With respect to those authorities--and 
my time is up--is that something we should be looking at, in 
terms of rules of engagement, if we're going to be patrolling 
and protecting those arenas? I realize it's very sensitive.
    General Petraeus. It is a sensitive one, sir. We've offered 
this to the policy arena. It becomes an international legal 
issue and so forth. I think the U.N. has given about the 
authorities that, generally, the international community is 
willing to provide.
    Senator Ben Nelson. Thank you.
    Thanks to both of you.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Admiral and General, thank you very much for your 
extraordinary service to our country during some very 
interesting and dangerous times.
    General Petraeus, the advanced weapons systems designed for 
anti-access and area-denial are being proliferated through the 
world, including in the CENTCOM AOR. Iran, for example, is 
seeking to purchase one of the latest, most advanced surface-
to-air-missile systems, the Russian S-300. I'm interested in 
what your views are with regard to the activities by the 
Iranians to pursue some of these anti-access and area-denial 
strategies.
    General Petraeus. With respect to the S-300, I think you 
know that has not been delivered. There's quite a bit of focus 
on that, whether it will be delivered, because it would 
represent a significant increase in the air and missile defense 
capability of the Iranian forces.
    There's no question that they are trying to increase their 
anti-access capabilities against maritime as well as air 
threats. It's something that we watch, and that regional 
partners and others in that area watch very closely, as well.
    Senator Thune. What's your view on this strategy by Iran, 
and how it would affect our ability to project power in the 
Middle East; specifically, in the Gulf of Iran and the Strait 
of Hormuz?
    General Petraeus. We have the most capable military in the 
world. We can deal with the threats that are there, but they 
make it more difficult. That's basically the short answer to 
that, without getting into the specifics of each type of system 
and what we have in return.
    We think, for example, that we could keep the Strait of 
Hormuz open, in the event of a crisis, if we are properly 
positioned, and so forth. But, that would be a challenging 
task. These are the kind of tasks that we have to be prepared 
to perform.
    Senator Thune. General, I wanted to get your views, too, on 
the development of the air-sea battle concept that's currently 
underway in the Pentagon. The new QDR directs the Navy and the 
Air Force to develop a joint air-sea battle concept for 
defeating adversaries with some of these anti-access and area-
denial capabilities that I just mentioned, which, in turn, will 
help guide the development of future capabilities that will be 
needed for effective power-projection operations. Some of these 
anti-access and area-denial weapons can be low-tech weapons, 
such as mines or small boats using swarm tactics, and sometimes 
can be just as effective in creating these denied areas. Could 
you give us your views on the development of this new air-sea 
battle concept so far? Where does CENTCOM fit into the overall 
concept and development and evaluation, and ultimately, the 
implementation of that concept?
    General Petraeus. We are being consulted on that, but I 
can't really give you all that much, because it is very much in 
the early conceptual stages at this point in time. The truth 
is, our focus, as a combatant command, is on dealing with what 
we know exists right now, and could exist in the near-term with 
what we have right now, and know we'll have in the near-term. 
That really is our focus, although we do get the opportunity to 
contribute to the Services developing these concepts.
    Senator Thune. Okay. I assume they're consulting and there 
are discussions that are occurring.
    General Petraeus. Absolutely.
    Senator Thune. Do you have a view about how long-range 
strike capabilities would fit into an air-sea battle concept?
    General Petraeus. Unless we get into real specifics, I'm 
not sure where I would head with that.
    Senator Thune. Okay.
    General Petraeus. We have a variety of long-range strike 
capabilities.
    Senator Thune. Right.
    General Petraeus. Some, quite impressive. We've used some 
of those in recent years, certainly.
    Senator Thune. Okay.
    Let me ask one other question, if I might, having to deal 
with Afghanistan. It has to do with the military intelligence 
operations there. I'd direct this both to you, General, and to 
you, Admiral. Major General Michael Flynn, who's the top 
military intelligence officer in Afghanistan, published what he 
titled, ``A Blueprint for Making Intelligence Relevant in 
Afghanistan.'' The report notes that, ``Our intelligence 
apparatus still finds itself unable to answer fundamental 
questions about the environment in which we operate and the 
people we're trying to protect and persuade.'' I would pose 
this question to both of you, do you agree with General Flynn's 
overall assessment in this report? What actions are you taking 
in response to that report, and have any of the initiatives 
that he directs in the report been carried out?
    General Petraeus. When we conducted the strategic 
assessment that's customary with a new commander coming in to a 
position like that of CENTCOM, one of the biggest of the big 
ideas was that our capacity and capability for Afghanistan and 
Pakistan was not adequate. I went to Admiral Blair early on and 
asked if he would appoint a mission manager for Af-Pak; he did 
one better, he appointed an associate deputy director of 
national intelligence for that. We then set about beefing up 
the capability and capacity there, including sending General 
Flynn there, among others to help build that. We formed a 
Center of Excellence for Af-Pak in the Joint Intelligence 
Center at CENTCOM. The Af-Pak cell has also done the same. So, 
what we've tried to do, as part of the overall effort, is just 
to build the capability that we had. This is not unlike what we 
did in Iraq, as well. In early 2007, one of the first requests 
I made, before even going to take command of Multi-National 
Force-Iraq was a substantial augmentation of our intelligence 
capability. We got that, and we've been working on providing 
that kind of augmentation in Afghanistan, as well.
    Senator Thune. Okay.
    Anything to add, Admiral?
    Admiral Olson. Sir, I think it's natural for the early 
energy of the IC to be focused on identifying the immediate 
threats to our force, but as the battlefield has evolved, the 
transition into using intelligence capabilities to better 
develop our understanding of the environment, and to seek 
opportunities for engagement, is a transition that I applaud.
    Senator Thune. Okay. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Thune.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Gentlemen, thank you for your continued service to our 
country. I'm especially proud that both of you reside in my 
State, in the wonderful area of Tampa.
    Gentlemen, last week I did a hearing for the chairman in 
our Emerging Threats and Capabilities Subcommittee on the 
increased radicalization of young men and the extremist 
elements that are so bedeviling the civilized world. The 
conclusion that came out of a lot of the testimony in this 
hearing was that we could continue to do everything that the 
military is doing, just exceptionally well, particularly in the 
responsibility that you give to these young officers with the 
CERP funds, that they can go in and help a village, a 
community, and it helps us, ultimately, from our military 
objectives. We talked about how all the other agencies of 
government, working with the military in a place like 
Afghanistan--agriculture, health, digging wells, education--all 
of these things are so important, but that if you don't get 
right to it, about the radicalization of young men by 
presenting Islam as something that is not taught in the Koran, 
you're still going to have these extremists that'll go out and 
blow themselves up and threaten stability. I'd love to have 
your comments on that conclusion.
    General Petraeus. Senator, I think this really gets at the 
heart of one of the big ideas out there, which is that it takes 
much more than just military security activities, it takes 
whole-of-government approaches. Not just our Government, but 
host-nation governments and all other partners. You have to get 
at the conditions that give rise to extremism, to the kind of 
discontent and unfulfilled expectations and all of the rest of 
that, that can give rise to extremism, and you have to get at 
the issues of actual education, which in some cases creates 
fertile ground for the planting of extremist seeds. That takes 
a very comprehensive approach; it is one that some of our 
partners in the region have actually done quite well in recent 
years, if you look at some of the countries in the Arabian 
Peninsula, in particular; some others have not. But, that is 
the kind of approach that is necessary to this overall 
challenge.
    Admiral Olson. Senator, I agree with that completely. I'd 
just add that the DOD plan for addressing a violent extremist 
threat does include actions led by the military, as you laid it 
out, to conduct the traditional military kinds of actions, but 
it also lends strong military support to the whole-of-
government, whole-of-nations approach to dealing with the 
environment.
    Senator Bill Nelson. If you are as successful as you have 
been, certainly in Iraq and, we hope, in Afghanistan, and now 
in our relations through the Pakistani Government, that they 
are successful, too--but if young men are led astray as to what 
the Koran teaches, and they're willing to go and commit 
suicide, that is going to continue to be a great hindrance to 
us. I think we have to look at this through our Northern 
Command as well, the radicalization of young men here, inside 
the United States. But, that means we have to be able to find 
clerics who know what true Islam is and are willing to go out 
and educate the ones that are being radicalized. How do we do 
that?
    General Petraeus. Sir, I think the answer has to lie, 
needless to say, in the Islamic world. It has to start there. 
It has to be Islamic leaders who identify the issue that you 
have just raised about the importance of religious leaders who 
have the courage to deny extremism as an aspect of Islam. Those 
leaders are out there; they are carrying out some of these 
initiatives. Some of their countries were threatened enormously 
by this extremism, correctly diagnosed the threat, and have 
then taken appropriate actions in the wake of that. That has to 
continue to spread to address this threat of extremism as 
you've laid it out.
    Senator Bill Nelson. All right, you take a country like 
Saudi Arabia, they can deal with the radicalization problems by 
going to the tribes, which is the family of the young fellow 
that's been radicalized, and work at it that way. They've had 
some measure of success in doing that. But, in other countries 
you can't do that, you can't work through the tribes.
    I want to lay the problem out. I want to continue to work 
with both of you and with the overall problem that's in this 
country, as well.
    General Petraeus. Senator, just a follow up. Saudi Arabia 
has not just worked it through the tribes. That's been an 
important component, but they've done a very whole-of-
government approach to this overall issue. It has been quite 
impressive for a country that, 5 years ago, was seriously 
threatened by extremists who blew up their Ministry of Interior 
building, so threatened foreign-oil workers that thousands of 
them departed, took over our consulate in Jeddah, and so forth. 
What they have done has been quite impressive.
    Senator Bill Nelson. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Sessions.
    Senator Sessions. Thank you.
    Thanks to both of you for your service to our country. The 
more, I think, the American people see our men and women in 
uniform perform, the prouder they are of them. I continue to 
talk to them in airports and places like that, and they're just 
an inspiration to me. But, good leadership is important, it 
does make a difference, and you're providing that. Thank you so 
much.
    With regard to the training of the Afghan military and 
police, General Petraeus, your second tour in Iraq was to come 
back and train there, and you spent a year or so training a 
force. I'm sure you developed some ideas about how that ought 
to be done. It seems to me that, if you have a local defense 
force that's willing to defend their community against Taliban 
or al Qaeda, perfect training, if it's going to delay 
dramatically the ability of those people to be effective is a 
danger. I recall the al Anbar model, where we quickly got Sunni 
tribal leaders to empower their local young men to turn on al 
Qaeda, and that was an effective part of that effort.
    My question to you is, I see there's some tension in the 
State Department, or other people within the military, about 
how much training by the central government they need before 
they can be allowed to defend their home territories, and with 
a little salary and support of a good tribal leader or mayor or 
a community leader, much good can be done. Do you understand? 
Where are we? Are we demanding too much centralized training 
before we join with friendly local leaders?
    General Petraeus. We are trying to take advantage of that 
in cases where that's appropriate, Senator, and to empower, in 
some cases, with good oversight and partnering some local 
elements. It's called the Community Defense Initiative. Now I 
think there's eight or nine or so that are ongoing, these great 
Special Forces elements that are typically the ones partnering 
with them, tied into the Afghan Ministry of Interior, because 
it's very important that we not just empower warlords to stand 
up their forces, given the effort that it took to disperse and 
disarm a number of those elements.
    Really, it is the same dynamic that we had in Iraq; 
different terrain, different culture, different social makeup 
and so forth. It's every valley, as opposed to larger tribal 
areas, say, in Anbar. But in Anbar over time--and we knew this 
in the beginning--the situation in Iraq was so desperate that 
we were willing to just take individuals who were willing to 
oppose al Qaeda, and then we would figure out afterwards how we 
were going to mesh them into the greater Iraqi structure. It 
has taken us quite some time to do that, but it has happened; 
and Iraq now pays the salaries of all of the remaining so-
called Sons of Iraq who still have not been provided jobs in 
various ministries, or what have you. A number of them have 
already transitioned in that form.
    So, that's what we have to be sensitive to here, as well; 
and recognizing that Afghanistan is a country that doesn't have 
the financial means that Iraq has. That's yet another dynamic 
that we're wrestling with.
    But, we are taking advantage of some of these opportunities 
in very careful ways in partnership with our Iraqi colleagues.
    Senator Sessions. This is a large country--25, 23 million 
people--we'll soon be drawing down our troop levels, many of 
them now are going to have to be concentrated in some of the 
more dangerous areas, and that leaves a lot of areas that we 
don't have any presence in, or very little presence, so it 
seems to me that we may be desperate enough, we may have to 
take some chances with leaders we believe are pretty good local 
leaders, and see if we can't support them. Do you agree?
    General Petraeus. Some of this is going on naturally. There 
are areas in which Afghans are the security forces, and have 
been for some time. These are areas in the north, for example, 
where we have virtually no other presence than perhaps the 
force protection elements that work with the Provincial 
Reconstruction Teams. So, there's a variety, as always; these 
endeavors are somewhat of a patchwork quilt. What you're trying 
to find is the right answer for that particular location, and 
then to try to figure out how to make it an enduring answer.
    Senator Sessions. General Petraeus, with regard to the 
shortage of trainers, perhaps our trainers can be a little less 
skilled as trainers or something? It seems to me that would be 
one area you really don't want to be short on. How long will it 
be before we can get to sufficient number of trainers there?
    General Petraeus. What we would like to see right now is 
for our NATO partners to generate the additional trainers that 
have been requested. In the theory of always having contingency 
plans, there are thoughts about how to fill that, if we have 
to, in other ways.
    Senator Sessions. Admiral Olson, with regard to the CERP 
and how you train our SOF, isn't it true that we believe the 
best policy of our Government is to have a seamless 
relationship between government aid and our SOF and that we use 
all of those factors--political, financial, as well as 
military--to achieve maximum progress toward our goals?
    Admiral Olson. Senator, I'd say it's certainly true that 
the more interagency cooperation there is, the better the 
outcome typically is.
    Senator Sessions. With regard to the aid that's going 
through USAID and State Department and other things, it seems 
to me that when you have a skilled SOF team in an area, and 
they really have little or no other U.S. Government presence 
there, aren't they sort of the representative of the United 
States? Do you feel like they're empowered sufficiently, 
financially, to make commitments with those leaders to say, 
``If you will do this, we'll do this''? If they're empowered 
greater, could they be more effective in reducing violence and 
protecting the lives of our own people?
    Admiral Olson. Sir, I'd leave the answer regarding 
sufficiency to General Petraeus, because the money flows 
through him, for the most part.
    It is true that SOF often are somewhat more remote and do 
become, if not diplomats, at least representatives of the U.S. 
presence. It is important that they be able to apply benefits 
in the regions where they live. So, within the special 
operations community resides the Active component of the civil 
affairs capability of the Army and strengthening a relationship 
between USAID and the special operations community in many of 
those regions.
    Senator Sessions. General Petraeus, do you feel like we've 
made progress in that area, and can we make more?
    General Petraeus. I think we've made progress, but I think 
we can make more. One of the important elements of General 
McChrystal's overall approach is to achieve greater unity of 
effort. That means conventional forces, special forces, 
civilian elements, and so forth, all working together to a 
common aim, trying not to duplicate efforts, and trying to do 
it in a way that is as little bureaucracy as necessary, but 
recognizing that some of that is necessary. There is a need to 
do more in this area, and that is one of General McChrystal's 
thrusts in his effort.
    Senator Sessions. I strongly support that.
    Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Admiral Olson and General Petraeus, as other members of the 
committee have already said, I thank you for your service to 
our country and for your testimony today.
    I am proud that North Carolina is home to the Joint Special 
Operations Medical Training Center at Fort Bragg. All special 
joint operations combat medics are trained at this facility to 
obtain the skills they need on the battlefield. Just several 
months ago, I had the opportunity to visit this facility and 
witness the great training that's taking place there. But, I 
understand that combat medics need to have the capability to 
perform complicated procedures, often in the dark, in the 
middle of the night, and under hostile live-fire conditions in 
remote locations. I also understand that DOD sees tremendous 
value in live-tissue training, especially since they're faced 
with the task of taking these young men and women, with no 
prior medical schooling, and transforming them into combat 
trauma specialists in 26 weeks.
    While simulators may hold promise, according to OSD, 
simulators currently lack the realism and the ability to 
replicate combat wounds and the emotional stress found on the 
battlefield. Also, moreover, all patients don't bleed the same 
or react to medical procedures in the same fashion.
    Admiral Olson, can you describe the operational and the 
institutional impact we would see if live-tissue training was 
stopped?
    Admiral Olson. Senator, there are many compelling examples 
of how live-tissue training has directly contributed to the 
preservation of human life on the battlefield. I have not been 
exposed to any simulation, any technology that adequately 
substitutes for live-tissue training.
    Senator Hagan. Thank you.
    I'm also pleased that the U.S. Army SOCOM and the Marine 
Corps SOCOM have developed a close relationship with the 
University of North Carolina (UNC). UNC recently signed a 
memorandum of understanding (MOU) with both Special Operations 
Commands. This MOU includes, but is not limited to, cultural 
awareness and linguistic training, business practices, degree-
completion opportunities, and a senior service college 
fellowship program.
    My question is, Admiral Olson, can you provide your view on 
the educational needs of our special forces and how public and 
private universities can assist, and are you interested in 
creating a fellowship in counterterrorism and public policy for 
members of the U.S. Special Operations community?
    Admiral Olson. The way you've highlighted it really is a 
good example of how the military and the academic communities 
are interacting. The kind of relationship that we've developed 
enables us in areas where we simply don't have the capacity 
within the military forces to perform that kind of training, 
that kind of education. I certainly would support an effort to 
create similar kinds of fellowships for specialized kinds of 
education, as you've described.
    Senator Hagan. Around the Fort Bragg area, the UNC system 
has 16 public universities, with Fayetteville State, NC State, 
and Chapel Hill all very close, and then we have some excellent 
private universities, too, such as Duke University and Wake 
Forest, that do excellent work. So, I think this MOU will go a 
long way to helping, from educational needs, especially from 
the linguistics and cultural, for our men and women in the 
special operations in these special forces.
    I also wanted to talk about the Iranian influence in Iraq. 
Despite the fact that the Iraqis are increasingly expressing 
their discontent with Iranian influence in Iraq, we need to 
keep in mind that Iran has people in Iraq that it uses to drive 
a wedge between the Sunnis and the Shi'ites in Iraq, and these 
actions ignite the ethnosectarian tensions. These Iranian 
actions can undermine Iraqi security in the delicate political 
situation. How do you foresee DOD using its future relationship 
with the ISF to steer Iraq's defense strategy and acquisition 
of weapon systems in order to avoid Iranian meddling that could 
jeopardize Iraq's stability?
    General Petraeus. Senator, I don't think we'll have to 
steer at all. Iraq's leaders and its security force leaders 
share a concern about neighbors who arm, train, fund, equip, 
and direct proxy elements on their soil. They have continued to 
carry out operations against these illegal elements, and I'm 
confident that they will continue to do that in the future, 
even as we draw down. They've conducted a number of unilateral 
operations against these elements, as well.
    Senator Hagan. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    General Petraeus, Chairman Levin began early on asking 
about Iran. He mentioned the U.N. resolutions and asked about 
being more explicit about the possibility of a blockade or 
quarantine. You said that the President was explicit not to 
take the military option off the table. You recently talked 
about combining engagement with Iranian leaders, backed up by 
the threat of further sanctions. I think this is a quote of 
yours: ``That puts us in a solid foundation now to go on what 
is termed the pressure track. That's the course on which we're 
embarked now.'' You alluded to that, but if you could explain a 
little more about what the pressure track will involve, and if 
you could tell us, has anything the international community 
done so far yielded positive results? Do we have any success 
stories at all, with regard to all of these sanctions and 
options and all of the talk that we've done about Iran? Then, 
after that, I want to ask you about the dissidents in Tehran. 
But, if you'd answer the first part of it, I would appreciate 
it.
    General Petraeus. Senator, first of all, over the course of 
last year, the effort has focused on the diplomatic track. All 
the countries of the world have given Iran ample opportunity to 
discuss the issues that are out there, and to try to resolve 
them. Of course, that has not happened.
    Senator Wicker. Then it's totally unsuccessful.
    General Petraeus. That has led to what the President and 
others have termed the pressure track. That is the effort now, 
with the U.N. Security Council, other countries, and other 
organizations, as well. The EU is involved in this, countries 
do it as single actors in a variety of different ways, 
everything from on the U.S. side, Treasury designations and a 
host of financial and trade restrictions, and so forth. That is 
now about to ramp up, needless to say; that's what the 
increased pressure will result from.
    With respect to what this has done in the past, indeed some 
of these actions have resulted in the interdiction of money, 
weapons, technology, and so forth. It has limited even the 
travel of some of the leaders of the key security elements. So, 
there have been.
    Now, has it dissuaded them from the path that some analysts 
believe they're on, in terms of developing the components of a 
nuclear weapon? There may have been some initiatives that have 
made that more difficult; a good bit more difficult perhaps; 
but, I think the assessment of all that continues to march on.
    Senator Wicker. Have we squandered precious time?
    General Petraeus. I don't think so. In fact, I think that 
this has given us a very firm foundation from which to work as 
we transition to the pressure track. No one can say that Iran 
has not had every opportunity made possible to them, including 
the reaching out of the open hand, and they have not grasped 
that. The response has been the opposite. Again, that provides 
that now no one can say that the United States and the other 
countries of the world have not given that every opportunity. 
Therefore, I think, that translates into the greater 
possibility that the pressure track could come up with 
meaningful actions.
    Senator Wicker. The actions on the pressure track will have 
to be agreed to by the United States and a number of our allies 
or would it be solely American action?
    General Petraeus. It depends which action you are talking 
about. If you're talking about U.N. Security Council 
resolutions, it obviously has to be the Perm-5 and then there 
have to be nine total members. So, either abstention or for, in 
the case of the Perm-5, and then nine total votes in the 
affirmative, as I understand it. But, I'd be happy to defer to 
the State Department on that.
    Senator Wicker. How public have we been about what form 
these actions might take?
    General Petraeus. Again, I'd defer to the State Department 
on that. A lot of this is understandably, I think, going on 
behind closed doors; that's how that is generally best pursued.
    Senator Wicker. Okay, well, you may want to defer to the 
State Department on this next question.
    General Petraeus. Okay.
    Senator Wicker. But, I do want to ask it. It's been said in 
this committee, and it's been said on the floor, we should be 
showing our moral support for the reformers in Iran, for the 
people who are willing to take to the street and stand up and 
risk their lives and safeties. If you were a reformer in 
Tehran, what you would be hoping the United States would do? Do 
we need to send some signals as to the limits of what can be 
expected of us, as we try to give some sort of moral support, 
but we also try to be realistic about what we can do to help 
these people who are striving for freedom and democracy?
    General Petraeus. As you suggested, Senator, with respect, 
I think that's one for the State Department and the folks who 
pull together all the different strands of this policy, because 
I think just talking about one element of this without talking 
about the others in a comprehensive approach could be 
misleading.
    Senator Wicker. All right.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Wicker.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Following up on some of the sanction stuff on Iran, the 
Iran Sanctions Act was passed 14 years ago, and we've never 
enforced it. Recently there has been some attention given to 
this. One example, of many examples, is a very large South 
Korean engineering firm that entered into a contract with Iran 
to upgrade oil fields in Iran, in 2007. It was a $700 million 
contract. In 2009, the U.S. Army gave the same company a 
contract for $100 million to build housing for our Army in 
South Korea. Then, just a few months after that, they entered 
into another contract with Iran.
    I understand that we have not enforced this law because our 
European allies squawked about it when it was first passed. 
Then, when we tried to enforce it with a company in Japan, 
Japan squawked and said, ``you didn't enforce it against the 
European countries.'' Brazil, we just gave a huge export/import 
loan to, in an effort to try to get some oil out of Brazil, as 
opposed to all of it being in the Middle East. Then, what do 
they do? They turn around and have Ahmadinejad come to town and 
kiss and hug.
    I'm a little worried that our talk of sanctions has been 
too much talk, and that we haven't even followed up within our 
military contracts to make sure we're not contracting with 
people who are doing business with Iran, especially in the oil 
and gas and the petroleum sector.
    Do you have any take on that, General Petraeus, and whether 
or not this is something that is being driven through the State 
Department, as opposed to whether or not the military is taking 
a look at their contractors and whether or not we're doing 
business with the wrong people?
    General Petraeus. I honestly don't. I'm not in the 
contracting business. I don't know what it takes to get someone 
on a blacklist, where they can't compete for a contract, and 
what that process is, and why, for example, a particular 
country that has done something in Iran is not on that list. 
It's not my area of expertise. My apologies.
    Senator McCaskill. I'll continue to follow up on it, but I 
think it's maybe one of the reasons Iran is not taking us as 
seriously as they should. Because we talk about the carrot and 
stick, and using the stick, and frankly, I don't think we've 
used the stick very effectively in a law that's been on our 
books for 14 years.
    Let me talk also a bit about the size of the military. You 
and I had a chance to talk after I got back from Afghanistan, 
but I want to put this on the record, Mr. Chairman, because I 
think it's important that this be talked about, the size of the 
army we're building and Afghanistan's ability to sustain that 
military. If you're over there, the Afghans say that they want 
400,000 troops. I think we're at the number 300,000 troops, and 
there has been no indication that we're going to build an army 
above 300,000. But, even if we keep it at 300,000, General 
Caldwell briefed me that that's going to be somewhere around 
$5.5 billion to sustain that level of military in Afghanistan. 
Their gross domestic product, depending on which number you 
look at, is somewhere between $10 and $12 billion. I'd like to 
put on the record your response to that problem and whether or 
not we have signed up for the American people to do the heavy 
lifting, in terms of sustaining the Afghanistan military for 
decades to come?
    General Petraeus. I'm not aware of anyone signing up to do 
that for decades to come, but clearly we are helping 
Afghanistan build a military force to which we can transition 
tasks so that our forces can go home. It's a lot more expensive 
to maintain our forces in Afghanistan than it is to maintain 
even the comparable number of Afghan forces that might be able 
to replace our forces in that country. In a business sense, I 
think there is some logic to continuing to support--although 
obviously no commitments have been made in that regard--but 
continuing to support, over time, a substantial ANSF, and 
indeed, one that they will not be able to pay all the expenses 
for over that time.
    Senator McCaskill. I did notice much more of an 
international presence there than I did in Iraq, and I guess we 
can continue to hope that our friends in NATO will step up, 
although so far while they're there and they're making a bigger 
commitment, in terms of monetary support, we are still 
shouldering the vast majority of that. Isn't that correct?
    General Petraeus. It is. You should note that there are 
some very important non-NATO nations, as well. Japan, I think, 
I would single out as providing quite substantial resources 
also.
    Senator McCaskill. Right.
    Lashkar-e-Taiba (LeT), the radical terrorist group in 
Pakistan--I know this is more of a priority for the Pacific 
Command than your command--but all indications are that one of 
the very destructive bombs that went off recently in Kabul was 
LeT. As we've made great progress against the Taliban in 
Afghanistan and the Taliban in Pakistan and the al Qaeda that 
we have successfully targeted and gone after, I'm worrying that 
this organization is growing in strength. I know it's tricky 
because of the historical connection between LeT and the 
Pakistani military and their government, because of the Kashmir 
area, but I do want to sound an alarm that I'm concerned about 
LeT and whether or not it is high enough on our priority list. 
Are we putting enough pressure on Pakistan? They've responded, 
I think, well in terms of their military going after terrorism 
in their country now, but I wonder if we're pushing hard enough 
on that front.
    General Petraeus. It certainly has been a source of 
dialogue. The real issue in this regard was the bombing in 
Mumbai, which by all accounts was carried out by LeT. I think 
different elements of our Government have had quite a bit of 
interaction with the Government of Pakistan over this. 
Obviously, India has expressed its concerns, as well.
    There's no question that there are elements in Pakistan 
that have not yet been the focus of the Pakistani 
counterinsurgency efforts, but there's also no disputing the 
fact that the Pakistani Army and Frontier Corps have a lot of 
short sticks and a lot of hornet nests right now in the 
Northwest Frontier Province and the FATA. They are continuing 
those campaigns. They are not just holding what they have; they 
do continue their efforts. I know what the plan is, and it is 
impressive. They've taken very tough losses in the course of 
this, as has their civilian population.
    Senator McCaskill. I know I'm out of time. Let me briefly 
say there's some good news. Premature to say how effective it's 
going to be. But, compared to when I went to Iraq on contract 
oversight, the systems that are in place in Afghanistan are 
much better. I want to compliment you and General McChrystal 
and everyone for realizing that we had the wild west of 
contracting in Iraq, in terms of logistical support and a lot 
of other contracting issues. I think we have the structures in 
place now. Now, it remains to be seen whether those structures 
are going to provide the oversight that we need, but at least 
we have the right people gathered in the right rooms.
    I have some significant questions about CERP, big projects 
and continuity, but I'm out of time. So, what I will do, Mr. 
Chairman, is I will make those questions for the record. I know 
67 percent of the CERP money is going to projects over 
$500,000.
    General Petraeus. Actually, Senator, I need to give you 
numbers on that, because the average project in fiscal year 
2010 is somewhere around $20,000 per project in Iraq, and 
$40,000 in the other country. Or is it vice versa? I'm looking 
at my J8. Anyway, the average is somewhere around $30,000 this 
year.
    Senator McCaskill. So we're pulling back down from----
    General Petraeus. We have pulled way down.
    Senator McCaskill. That's great.
    General Petraeus. I think I mentioned that in my opening 
statement, that I retain approval authority for the $1 million 
projects and above. I've only approved one of those in quite 
some time. That's right.
    Senator McCaskill. I knew that there was a bunch of them 
because some of the folks I talked to over there talked about 
the continuity and the problem as units would rotate out, the 
big CERP projects that started before, they didn't want to 
finish those, because they weren't going to get credit for 
them, they wanted to start ones that they thought they could 
finish on their watch and some stuff was sitting on the shelf, 
and so forth.
    General Petraeus. I think we have good oversight and a 
rational approach. We're trying to find that right balance 
between not too much bureaucracy, but enough, and not such high 
level that they're doing USAID's work instead of USAID. I'll 
pass on your comments to those who are in the contracting 
business. We do try to be a learning organization, and we've 
learned a great deal about contracting over the course of the 
last decade or so.
    Senator McCaskill. Over the course of the last 3 years.
    General Petraeus. That, too.
    Senator McCaskill. Thank you, General. I'll get my 
questions to the record.
    Chairman Levin. Thank you, General Petraeus, for that 
continuing effort at oversight. It's very important to this 
committee.
    We want to especially thank Senator McCaskill for her 
special efforts in this regard. They're very, very important to 
the citizenry of our country.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    I want to first thank you for your warm welcome. I 
appreciate your recognition of my service.
    Just to correct the record a little bit, General and 
Admiral, I started out as an enlisted man and was branch-
qualified as an infantry officer at Benning and then quarter 
master, now I'm a Judge Advocate General (JAG) and a head trial 
defense attorney in Massachusetts, so I have some knowledge 
that I don't think the average attorney understands, just being 
a traditional JAG.
    One of the things that Senator Graham was commenting on 
that I have great concern about, because when I hear about the 
guardsmen serving from Massachusetts and throughout New 
England, they are confused a little bit as to how they treat 
folks when they are captured. I also want to go on the same 
vein. I'm concerned about how we treat the detainees and where 
we send them. What rights are they actually given? Then, do we 
send them to Afghanistan, do we keep them where they're 
captured, do we bring them to U.S. soil, do we get them to 
Guantanamo? I know I'm new here, but, being in the military, 
these are the questions that my troops are passing on to me 
when I'm representing them. If there's any insight you can give 
as to where we're heading with that, or if it's an offline 
conversation, I'm all ears, because I think it's creating 
indecision with our soldiers as to what to do with the folks 
when they're captured.
    General Petraeus. Senator, let me talk about that, because 
I don't think there's indecision in Iraq or Afghanistan, and 
I'm not aware of us detaining people anywhere else in quite 
some time. When someone's detained in Iraq or Afghanistan, 
there are quite clear procedures that are done. By the way, we 
don't detain virtually any at all in any significant number in 
Iraq at this point. The operations are generally led by ISF, 
and they are now warrant-based there. We believe in the rule of 
law, and we are helping the Iraqis. They have taken the lead in 
terms of making arrests based on warrants, except in the cases 
where obviously someone has threatened our soldiers directly or 
you have a case of self-defense or an immediate threat 
response.
    In Afghanistan, as I explained to Senator Graham, we have 
clear rules. Now, they have recently been implemented for all 
of our forces that have transitioned to NATO, and we are able 
to hold them for 14 days, if necessary, and can send them to 
Bagram if they hit a certain category after that. Then, we're 
working hard at Bagram over time to transition that facility 
and the tasks of running it to our Afghan partners so that over 
time that transition can take place.
    But, we've worked very hard, because of the idea that you 
have to create conditions in which your soldiers can live our 
values. One of those values has to be, if someone puts his 
hands in the air, you detain him instead of shoot him. But, if 
you think he's going to be back on the street within 96 hours, 
or something like that, because of a catch-and-release policy, 
then it becomes much more difficult to live your values. We 
take that very seriously. We've worked this very hard. As 
Senator Graham highlighted, this policy has gone into place.
    Senator Brown. There's more in Afghanistan than Iraq. I 
know in Iraq that that's been settled somewhat. But, 
Afghanistan, I know there was a transition period, and there 
had been some concerns. I'll speak to Senator Graham about some 
additional questions that he and I were discussing, and maybe 
we can, offline, touch base.
    But, I am chairing a hearing on Afghan police training next 
week, and I'm concerned and wondering if the mission has lagged 
as it's been divided between the State Department and DOD.
    General Petraeus. I think, candidly, that there's a reason 
that we have, over time, transitioned tasks from traditional 
executive branch elements to the military, and that is because 
we have more capacity and capability. I stood up the Multi-
National Security Transition Command-Iraq, and, over time, we 
took on more and more responsibility because the capacity of 
our partners in some of these areas. There's a bunch of heroes 
in INL, but they are armies of one, in many cases.
    Now, we are going to transition the police task back to the 
State Department in Iraq, and we believe that that process can 
work. But, with respect to Afghanistan, we have taken on more 
and more of that, and we are now going to oversee the training 
aspect of that, as you probably know.
    Senator Brown. Great. Thank you, General.
    Thank you, Admiral.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Brown.
    We thank you both. We will have a hearing on Iran. With 
whoever our witnesses will be, and they're not yet determined, 
we will have an executive session at that time, taking up some 
of the questions that you left for the executive session. It's 
possible that some of our questions for the record to you may 
relate to Iran, that you could perhaps answer, even though you 
won't be there, in a classified way for that executive session.
    General Petraeus, you have spent a lot of time on the DADT 
issue, thinking about it, and we would welcome your statement 
for the record, but we leave it up to you. Usually we don't do 
that, we just simply ask people for a statement for the record, 
but in this case, I think I'll just simply say we would welcome 
that statement for the record, leaving it up to you as to 
whether you would prefer to do it that way, which means it 
would be immediately made public or whether you'd prefer to 
give your thoughts in a different form at a different time. We 
didn't give you that opportunity, because of our schedule here, 
to do that. So, that's something we would just leave up to your 
good judgment. But, we would very much welcome that statement, 
and if so, then it would be made public at that time.
    General Petraeus. Thank you.
    Chairman Levin. Just again, Admiral, thank you so much for 
your service. All of us feel very deeply about the men and 
women that you command and that you work with. We thank them 
through you.
    We will stand adjourned.
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jim Webb
                  contracting in iraq and afghanistan
    1. Senator Webb. General Petraeus, I have long been concerned with 
the systemic problems related to wartime-support contracting in Iraq 
and Afghanistan, including continued instances of waste, fraud, and 
abuse revealed by inspector general investigations and the Commission 
on Wartime Contracting. A March 13, 2010, New York Times article 
reported that investigators have opened more than 50 new reconstruction 
fraud cases in Iraq in the last 6 months. A March 17, 2010, Defense 
News article stated contractors still lack sufficient oversight by 
trained personnel.
    The Commission on Wartime Contracting's June 2009 report stated the 
effectiveness of contractor support of expanded U.S. operations in 
Afghanistan is compromised by the failure to apply lessons learned in 
Iraq. The Commission later reported in its September 2009 special 
report that weak control systems must be strengthened and defense 
agencies must improve their oversight of contractor business systems to 
reduce waste, fraud, and abuse.
    What specific actions has U.S. Central Command (CENTCOM) taken to 
address the Commission on Wartime Contracting's issues of immediate 
concern and other time-sensitive recommendations contained in its June 
2009 report?
    General Petraeus. CENTCOM has taken several actions to address the 
Commission's findings and recommendations from the June 2009 report. 
CENTCOM has transferred several lessons learned from Iraq to 
Afghanistan aimed at reducing fraud, waste, and abuse. We've formed the 
Armed Contractor Oversight Division (ACOD), which implements the 
Department of Defense's (DOD) ACOD policies and procedures, and 
oversees Private Security Contractors (PSCs). We're transitioning Joint 
Contracting Command-Iraq/Afghanistan (JCC-I/A) to a Joint Theater 
Support Contracting Command (JTSCC) for better synchronization and 
efficiency of contracting in the theater. We're applying acquisition 
strategies that have increased firm fixed-price competitive contract 
awards with reduced reliance on the Logistics Civil Augmentation 
Program (LOGCAP). JCC-I/A continues to refine its processes by 
leveraging Rock Island Arsenal on contracts that are complex, resource 
intense, and require a detailed Source Selection process.
    CENTCOM and DOD have improved Contracting Officer Representative 
(COR) resourcing and training. Defense Acquisition University (DAU) 
initiated online and resident courses to train our CORs, and the 
Department of Army directed deploying units to identify and train their 
CORs prior to deployment. The number of CORs in Afghanistan has 
dramatically increased with fill rates now of over 90 percent. The CORs 
are better trained not only in general contract management, but are 
specifically selected for their technical expertise to oversee 
contractors performing services such as food preparation, water 
purification, and fuels distribution.
    We are teaming with the Procurement Fraud Task Force to combat 
corruption, and we are consulting with Contracting/Procurement and 
Financial Management experts to strengthen the business environment 
within the area of responsibility (AOR) and enhance resource control.

    2. Senator Webb. General Petraeus, what assurances and examples of 
strengthened contracting oversight can you provide that demonstrate the 
lessons learned in contracting in Iraq are being applied in Afghanistan 
to reduce the incidence of waste, fraud, and abuse?
    General Petraeus. CENTCOM transferred lessons learned from Iraq to 
Afghanistan specifically aimed at reducing fraud, waste, and abuse. 
We've formed the ACOD, which implements DOD's ACOD policies and 
procedures and oversees PSCs. We're transitioning JCC-I/A to a JTSCC 
for better synchronization and efficiency of contracting in theater. 
We're applying acquisition strategies that have increased firm fixed-
price competitive contract awards with reduced reliance on LOGCAP. JCC-
I/A continues to refine its processes by leveraging Rock Island Arsenal 
on contracts that are complex, resource intense, and require a detailed 
Source Selection process. This allows the contracting officer on the 
ground to pay attention to more tactical contractor oversight.
    CENTCOM and DOD have improved COR resourcing and training. DAU 
initiated online and resident courses to better train our CORs, and the 
Department of Army directed deploying units to identify and train their 
CORs prior to deployment. The number of CORs in Afghanistan has 
dramatically increased with fill rates now over 90 percent. The CORs 
are trained not only in general contract management, but are 
specifically selected for their technical expertise to oversee 
contractors performing services such as food preparation, water 
purification, and fuels distribution. Defense Contract Management 
Agency (DCMA) and Defense Contract Audit Agency (DCAA) have also 
increased the number of personnel in Afghanistan to improve contract 
oversight.
    CENTCOM has ordered the use of the Synchronized Predeployment and 
Operational Tracker (SPOT) reporting for contractors performing valid 
work in the CENTCOM AOR. This system will increase the quality and 
reliability of contractor data thereby avoiding instances such as 
fraudulent duplication of numbers on task order contracts and over-
provisioning of DOD food and supplies based on ineligible contracting 
personnel.
    To facilitate the integration of contractors when defining the 
strategic plan for future CENTCOM operations, documents such as the 
National Defense Strategy (NDS) and the Quadrennial Defense Review 
(QDR) will feature a greater emphasis on contractor requirements. Other 
Field Manuals, DOD Instructions, and new Joint Doctrine support the 
growing importance of integrating contract support into operational 
planning.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
                 commanders' emergency response program
    3. Senator McCaskill. General Petraeus, while the Commanders' 
Emergency Response Program (CERP) is considered an essential tool for 
General McChrystal and other senior commanders on the ground in 
Afghanistan, there have been problems with the program. Since 2004, 
Congress has provided $1.6 billion to DOD for CERP in Afghanistan for 
programs primarily designed to fund small-scale projects to meet urgent 
humanitarian and reconstruction needs at the community and provincial 
levels. For fiscal year 2011, DOD has requested $1.3 billion in CERP 
funds DOD-wide, but about $1 billion of that money will go to 
Afghanistan. A May 2009 Government Accountability Office (GAO) report 
recommended that the Secretary of Defense direct CENTCOM to evaluate 
workforce requirements and ensure adequate staff to administer CERP and 
establish training requirements for CERP personnel administering the 
program. GAO further recommended that the Secretary of Defense and the 
Administrator of the U.S. Agency for International Development (USAID) 
collaborate to create a centralized project-development database for 
use by U.S. Government agencies in Afghanistan, including establishing 
specific milestones for its development and implementation. What is 
CENTCOM doing to train CERP managers in the types and scale of projects 
that they will handle in Afghanistan?
    General Petraeus. The entire CERP community has worked diligently 
to strengthen the oversight and training of personnel who administer 
CERP in theater. Commanders in theater, working with Army CENTCOM, have 
improved in-theater training. In September 2009, I wrote to the Chief 
of Staff of the Army and to the Commandant of the Marine Corps, and 
requested that they develop and implement pre-deployment training for 
all who will have CERP responsibilities. General Casey directed that 
units must identify and train all key CERP personnel prior to 
deployment. The Army and Marine Corps have coordinated on training 
materials and they have made the CERP curriculum available for 
individuals to access world wide.

    4. Senator McCaskill. General Petraeus, which of GAO's 
recommendations from the May 2009 report have been implemented?
    General Petraeus. The May 2009 GAO Audit of CERP in Afghanistan 
contained three broad recommendations for the Department to consider. 
Two of the recommendations address sufficient staffing and training for 
administering CERP. The Army and CENTCOM have worked to implement both 
recommendations and will continue to evaluate progress. The third 
recommendation requested the Department and Administrator of USAID 
collaborate on a centralized project development CERP database. DOD's 
Business Transformation Agency is working to develop an unclassified 
interface that will allow USAID to access CERP data via the World Wide 
Web.

    5. Senator McCaskill. General Petraeus, what is the status of the 
creation of the common USAID/DOD database to track projects?
    General Petraeus. DOD's Business Transformation Agency is working 
to develop an unclassified interface that will allow USAID to access 
CERP data via the World Wide Web. The most recent process improvements 
can be obtained from the Business Transformation Agency.

    6. Senator McCaskill. General Petraeus, how will DOD's current 
review of CERP affect the timeline of the implementation of the GAO 
recommendations?
    General Petraeus. I do not see the current DOD review of CERP 
affecting the implementation timeline for recommendations contained in 
the May 2009 GAO audit report. The Department has focused on 
strengthening the oversight and management of CERP. All recognize a 
need for continued program assessment and the potential of additional 
process improvements.

    7. Senator McCaskill. General Petraeus, how many CERP projects does 
CENTCOM currently have that are over $500,000 and how many are under 
$5,000?
    General Petraeus. For the first quarter of fiscal year 2010, Iraq 
and Afghanistan reported a total of 13 projects over $500,000 and 1,432 
projects under $5,000.

    8. Senator McCaskill. General Petraeus, how are those figures 
affected by micro-loans and what is the average project size when the 
micro-loans are subtracted?
    General Petraeus. USAID oversees the micro-loans program. DOD CERP 
does not allow micro-loans, but it does allow micro-grants. The desired 
goal of micro-grants is to stimulate economic activity that supports 
stability operations with a focus on areas underserved by other micro-
credit and assistance programs. The average project size, after 
subtracting micro-grants, in fiscal year 2010 (first quarter) CERP 
Report from Iraq and Afghanistan is $47,200. During the same timeframe, 
there were 280 micro-grants issued out of 1,445 CERP projects.

    9. Senator McCaskill. General Petraeus, how are large-scale CERP 
projects vetted within the greater framework of reconstruction in 
Afghanistan to ensure their utility and prevent duplication or unneeded 
projects?
    General Petraeus. CERP projects greater than $1 million are vetted 
through review boards at several levels within the chain of command 
before a recommendation for approval is forwarded to CENTCOM. The 
review board includes members from interagency groups (USAID, 
Department of Agriculture) and U.S. Embassy personnel to prevent 
duplication and to ensure projects are inline with the strategic goals 
for Afghanistan. Sustainment of projects is coordinated through 
Memoranda of Agreement with donor nations, nongovernmental 
organizations, or Government of the Islamic Republic of Afghanistan 
(GIRoA) officials.

    10. Senator McCaskill. General Petraeus, what is the largest CERP 
project being conducted in Afghanistan, who is overseeing it, and how 
long will it take to implement?
    General Petraeus. As of 16 Mar 10, the largest fiscal year 2010 
CERP project being conducted in Afghanistan is the $9.5 million Spin 
Boldak road project. The U.S. Army Corps of Engineers-Afghanistan 
Engineering District is providing the program management and oversight 
for this project. It is estimated the project will take 8 months to 
complete.
                                 ______
                                 
               Questions Submitted by Senator Mark Begich
                              afghanistan
    11. Senator Begich. General Petraeus, some experts have suggested 
increasing the size of the Afghan National Army (ANA) to as large as 
250,000 and the Afghan National Police (ANP) to 150,000, respectively. 
What is the planned number of Afghan National Security Forces (ANSF), 
and is it sufficient for a country the size of Afghanistan?
    General Petraeus. The planned numbers for the ANSF are listed in 
the following table:

----------------------------------------------------------------------------------------------------------------
                                                               10 FEB 10    31 OCT 10      JUL 11       OCT 11
----------------------------------------------------------------------------------------------------------------
Afghan National Army........................................     104,296      134,000      159,000      171,600
Afghan National Police......................................      98,256      109,000      123,000      134,000
                                                             ---------------------------------------------------
  Total Afghan National Security Forces.....................     202,561      243,000      282,000      305,600
----------------------------------------------------------------------------------------------------------------

    We will conduct an assessment in 2011 to determine if these planned 
numbers are sufficient to protect the population, which is essential in 
conducting counterinsurgency operations.

    12. Senator Begich. General Petraeus, Afghanistan cannot 
financially support its security forces. Raising additional security 
forces or increasing the pay of the security forces will require the 
United States or other international donors to absorb this cost. What 
are your best estimates on the cost and for how long the ANSF will have 
to be financially supported by the United States, the North Atlantic 
Treaty Organization (NATO), or other international partners?
    General Petraeus. The annual programmed cost to maintain the ANSF 
at 305,600 personnel is projected to cost $6.2 billion. Our ultimate 
goal of the ANSF at a combined strength (ANA/ANP) of 400,000 personnel 
has an estimated annual cost of $10.3 billion. The need for the ANSF to 
be supported by the international community will continue into the 
foreseeable future. The growth of Afghanistan's economy is the key to 
self-sustainment of the ANSF.

    13. Senator Begich. General Petraeus, what attempts are being made 
to enable the government in Afghanistan to bring in revenue?
    General Petraeus. This question is best answered by my colleagues 
within the State Department. I respectfully refer you to the 
``Afghanistan and Pakistan Regional Stabilization Strategy'' which is a 
comprehensive and collaborative document updated in late February 2010, 
authored by the State Department. According to the International 
Monetary Fund (IMF), World Bank, and other authorities, internally-
derived revenues from Afghanistan have steadily increased since 2005. 
Looking only at 2008 and 2009, revenues from taxes increased from $317 
million to $414 million; customs revenues from $270 million to $347 
million; and non-tax revenues $199 million to $227 million.

    14. Senator Begich. General Petraeus, helping to rebuild the Afghan 
Government, economy, and security forces, while helping the Pakistan 
people improve their economy, government, and security, is likely to be 
a significant effort over many years. How long do you expect the United 
States to have significant levels of troops in Afghanistan and be 
providing significant amounts of funding for Afghanistan and Pakistan, 
and how much do you expect this to cost?
    General Petraeus. I expect the United States to have significant 
troop levels in Afghanistan for the next few years. Beginning in July 
2011, as the President stated in his 1 December 2009 speech, we will 
begin a withdrawal of our forces. This will be a conditions-based 
withdrawal, and the rate at which we will withdraw will be determined 
by the readiness of the ANSF to protect their population, and by the 
level of governance established by the Afghan Government. While we have 
significant troop levels, we must continue to provide funding to enable 
our allies and partners to support our efforts in Afghanistan and 
Pakistan. Due to our conditions-based withdrawal, we are unable to 
estimate the cost because there are too many unknowns.

    15. Senator Begich. General Petraeus, what should we expect in 
terms of NATO's and international partners' contributions and length of 
commitment to the region?
    General Petraeus. NATO and our international partners are currently 
providing significant levels of support for the war in Afghanistan, 
with total troop strength totaling approximately 44,500. Almost all of 
the troop contributing nations have expressed their commitment to stay 
in Afghanistan until our objectives have been attained. Of the 43 troop 
contributing nations, each sets its own timeline for troop rotations, 
and force increases or decreases. The Netherlands has announced the 
withdrawal of combat forces no later than the end of 2010, and Canada 
has announced its withdrawal in 2011. All of the other nations remain 
committed for the foreseeable future.

    16. Senator Begich. General Petraeus, initially, there was a 400 
civilian personnel requirement to assist with efforts in Afghanistan. 
What is the requirement now?
    General Petraeus. This might be more appropriately addressed by the 
Department of State (DOS), but as far as the reports I have seen, the 
requirement, currently in staffing now, is over 1,000 U.S. Government 
civilians.

    17. Senator Begich. General Petraeus, please provide an update on 
the status of civilians supporting the efforts in Afghanistan.
    General Petraeus. While I respectfully defer to our partners at DOS 
and USAID as the leads, let me share what I know from reports I see 
from the department and agency. As of 1 April, approximately 1,000 U.S. 
Government civilians are in Afghanistan, more than triple the level 
from a year ago. They are assigned both at the U.S. Embassy and out in 
the field and are integrated at every level with the International 
Security Assistance Forces (ISAF) and U.S. Forces, Afghanistan (USFOR-
A) to include at the Regional Commands, Brigade Task Forces, Provincial 
Reconstruction Teams (PRT) and Agricultural Development Teams (ADT), 
District Support Teams (DST), and numerous interagency organizations 
such as the Border Management Task Force. Within that overall figure, 
we count some 350 civilians in the field, up from 67 a year ago. They 
live and work along side their military counterparts in the same field 
conditions and level of danger. I would expect civilians to deploy in 
growing numbers to Afghanistan in the coming year as a critical 
component of the President's Afghanistan strategy. According to the 
requests we have seen from Embassy Kabul, staffing would increase by an 
additional 20 to 30 percent by the end of 2010 and 40 to 50 percent by 
the end of 2011.

    18. Senator Begich. General Petraeus, what are the plans to enhance 
coordination of civilian, military, and international efforts in 
Afghanistan?
    General Petraeus. The strategy for enhanced coordination in 
Afghanistan is detailed in the U.S. Government Integrated Civilian-
Military Campaign Plan for Support to Afghanistan (August 2009). The 
Plan represents the collaborative efforts of all the U.S. Government 
departments and agencies operating in Afghanistan and the range of 
different equities, resources, and approaches. It is based on close 
collaboration with the ISAF as well as the United Nations Assistance 
Mission in Afghanistan (UNAMA) and partner nations to build effective 
civilian and military mechanisms for integrated assistance. The Plan's 
most important component is a strong partnership with the GIRoA to 
build the capacity needed to provide Afghanistan with a stable future.
    In April 2010, we completed a civilian-military coordination 
conference in Kabul, Afghanistan. Participants came from across the 
interagency and the international communities including USFOR-A, ISAF, 
the U.S. and partner nation embassies, and key GIRoA ministries. The 
primary objectives of the civilian-military coordination conference 
were program integration between US Embassy and USFOR-A/ISAF, and 
improved coordination between GIRoA, U.S. Embassy, ISAF, UNAMA, and the 
rest of the international community. The interagency civilan-military 
working groups established to support the civilan-military coordination 
conference will endure to ensure continuing coordination and 
integration of our civilan-military efforts.

    19. Senator Begich. General Petraeus, to your knowledge, have there 
been any civilian assistance requests made to other allied nations?
    General Petraeus. I do not know of any civilian assistance requests 
made to other allied nations. These requests would normally be handled 
by NATO and submitted to allied nations. Since U.S. forces are 
operating in support of ISAF, these requests are not usually routed 
through CENTCOM.

                                  iraq
    20. Senator Begich. General Petraeus, the Iraqi Security Forces 
(ISF) are not yet fully capable of protecting themselves from external 
threats. What steps are you taking to enable Iraq to defend itself from 
external threats?
    General Petraeus. Our U.S. forces in Iraq continue work on 
improving the ISF capabilities through increased training and 
equipping. The ISF continue to make progress towards attaining the 
Minimum Essential Capability (MEC) necessary to defend Iraq's 
sovereignty on land, at sea, and in the air.
    The Iraqi Army continues progress toward MEC but will not achieve a 
foundation for defense against external threats before December 2011 
due to equipment procurement timelines and subsequent training 
requirements. Specifically, equipping, training, and combined arms 
integration of the M1A1 fleet, artillery units, and key mechanized 
enablers will not be complete prior to December 2011.
    The Iraqi Navy is on track to achieve MEC by December 2011, 
although there are risks if shortfalls in manning, C4ISR, maintenance, 
and infrastructure are not adequately addressed in coming months. The 
Iraqi Navy will assume responsibility for protection of the oil 
platforms in 2011; however, the importance of these oil terminals to 
the Iraqi economy requires an even higher level of capability. A 
requirement for a regional presence that can respond to emergencies in 
support of the Iraqi Navy as it matures from MEC to a fully capable 
force is anticipated.
    The Iraqi Air Force is on the path to achieving MEC by the end of 
2011 in all mission categories except airspace control and fixed-wing 
airlift. Specifically, multi-role fighter, long-range radar, and C-130J 
delivery and fielding will not be complete prior to December 2011. The 
Iraqi Air Force's December 2011 goal is the development of a capability 
to support ISF counterinsurgency (COIN) operations and have an initial 
air sovereignty capability in place. Delayed execution of the Iraqi Air 
Force Service Plan and lack of funding for acquisitions, accessions, 
contract logistics support, and sustainment of current fleet all 
present obstacles to achieving the capability to conduct minimal air 
sovereignty operations by December 2011.
    Although the ISF are not on track to achieve full MEC for external 
security by the end of 2011, the Office of Security Cooperation-Iraq 
will continue to support Iraqi efforts toward achieving that goal 
through training and equipping.

    21. Senator Begich. General Petraeus, will there be additional 
military cooperation after January 1, 2012, to support the ISF?
    General Petraeus. We anticipate additional military cooperation 
will continue after January 1, 2012, through an Office of Security 
Cooperation-Iraq under Title 22 authorities. Support provided to the 
ISF will continue with training and equipping programs that contribute 
to a mutually beneficial bilateral security relationship with the 
Government of Iraq from 2012 and beyond.

    22. Senator Begich. General Petraeus, how are those efforts to 
support the ISF reflected?
    General Petraeus. Efforts to support the ISF after January 1, 2012, 
will be provided through an Office of Security Cooperation-Iraq under 
Title 22 authorities. The Office of Security Cooperation-Iraq will 
directly support DOS efforts with continued security training and 
equipping programs for the ISF. Planning efforts are still ongoing to 
adequately define the size and composition necessary to fully accept 
the responsibilities essential to continued ISF development.

    23. Senator Begich. General Petraeus, what type of equipment is the 
United States transferring to the Iraqis and what impact will the 
transfer of that equipment have on the availability of equipment for 
our forces?
    General Petraeus. Equipment being transferred is generally 
categorized as either excess or non-excess. Excess equipment is that 
which has been determined to have no required use by U.S. forces, as 
such, its transfer has no impact on equipping U.S. forces. Excess 
equipment comprises a wide range from office equipment to machinery. 
Non-excess equipment comprises major end items which have been 
identified as essential to Iraq's MEC. The Services have determined 
that transferring the non-excess equipment identified in Iraq's MEC 
presents no adverse impact to equipping U.S. forces.

    24. Senator Begich. General Petraeus, how much revenue does oil 
bring to Iraq?
    General Petraeus. The Government of Iraq relies on oil exports for 
approximately 91 percent of its revenue. Of the total revenues planned 
for fiscal year 2010, approximately $49 billion is attributed to oil 
exports. This is based on 2.1 million barrels/day at an average market 
price of $62.50/barrel. Additional revenue of approximately $4.9 
billion in revenue is expected to come from a combination of public 
service fees, personal and corporate taxes, customs duties, interest, 
and profit from state-owned enterprises.

    25. Senator Begich. General Petraeus, with billions of dollars in 
oil revenue, how much longer will the United States provide financial 
assistance to Iraq?
    General Petraeus. The length of time the United States will provide 
financial support to Iraq is uncertain because it depends on numerous 
factors such as, but not limited to, oil production, oil prices, and 
budgetary outlays. Iraq is dependent on oil revenue for 85 percent of 
government funding and annual budgets are vulnerable to significant oil 
price fluctuations. In 2009, Iraq's budget contained a 34 percent 
deficit and relied on bond financing, World Bank loans, and an IMF 
Stand-By Loan Arrangement. Iraq's Ministry of Defense requested $8 
billion in the Government of Iraq 2009 budget request, but only 
received $4.1 billion (50 percent) of funding requested. Budget 
shortfalls left critical budget gaps in logistic support units and 
sustainment areas of Iraqi Army and Air Force fleets. In an effort to 
close existing gaps, DOD requested $1 billion in the fiscal year 2010 
supplemental and $2 billion in fiscal year 2011. DOS controlled Foreign 
Military Financing should address fiscal requirements beyond 2011.

    26. Senator Begich. General Petraeus, has the distribution of 
revenues issue been addressed and has progress been made?
    General Petraeus. Iraq's Council of Representatives has yet to 
approve the Iraq Hydrocarbon Law. Nevertheless, progress has been made 
in the absence of new legislation to address distribution of revenues 
through interim sharing mechanisms and agreements established between 
the central government and the regions. Additionally, new interim 
measures are routinely offered. For example, we are aware of a proposal 
submitted to the parliament to approve a $1/barrel return to each local 
region for the oil exported. These types of provisional arrangements 
demonstrate the practical aspects to address revenue sharing while the 
final laws are codified and adopted.
    However, in the absence of new hydrocarbons legislation, both the 
Kurdistan Regional Government and the Government of Iraq have 
separately pursued development contracts with international oil 
companies. Fundamental differences remain in Iraq over Federal and 
regional authority to contract and manage the oil and gas sector. 
Therefore, in the long term, it is essential that the Government of 
Iraq enact laws governing hydrocarbons and revenue sharing to 
permanently codify future control of resources and allocation of 
revenues.
    For further revenue questions, I respectfully recommend you refer 
to DOS which follows Iraq's economy closely.

                               terrorism
    27. Senator Begich. Admiral Olson, what additional authorities 
might you need to combat terrorism and manage your command?
    Admiral Olson. I have a need for greater involvement in the 
preparedness, promotions, assignments, retention, training, and 
professional military education of Special Operations Forces (SOF) 
personnel; the Department is currently taking actions to provide me 
with such authorities.
    Title 10 assigns the responsibility for the combat readiness of SOF 
to the Commander, U.S. Special Operations Command (SOCOM), and the 2009 
National Defense Authorization Act (section 901) directed me to develop 
a SOF personnel management plan to improve SOF readiness. In response 
to this requirement, I submitted a report to the Secretary of Defense 
on 09 May 2009, wherein, I proposed that Title 10 language be modified 
to give Commander, SOCOM ``coordinating'' rather than ``monitoring'' 
responsibilities for the readiness of SOF. There is a subtle yet 
important difference between these two terms. The former term implies 
my active involvement in significant SOF personnel decisions; whereas 
the later term implies that I am merely an observer to the process.
    The Deputy Secretary of Defense and Chairman of the Joint Chiefs of 
Staff proposed, rather than modifying legislation, that the same effect 
would be achieved by modifying DOD Policy. The Service Chiefs concurred 
with this proposal, as have I.
    A revised DOD Directive 5100.01, Functions of DOD and its 
components, is currently in staffing and includes a requirement for the 
Services to ``coordinate'' with SOCOM on issues affecting the personnel 
readiness of SOF. Once approved, it will be sufficient to implement 
much of the substance of the SOCOM plan for the personnel management of 
SOF.

                      afghanistan-pakistan border
    28. Senator Begich. Admiral Olson, what can you tell me about the 
Afghanistan-Pakistan border region and the cooperation of the 
respective Pakistani defense and intelligence communities?
    Admiral Olson. The Afghanistan-Pakistan border region remains as a 
sanctuary for Taliban, local militants, and foreign fighters. Al Qaeda 
senior leaders likely remain in the region despite operations being 
conducted against numerous militant compounds. Having said that, 
however, credit must be given to Pakistan for aggressively moving 
against extremist elements on the Pakistan side of the border. Pakistan 
has conducted military operations on an unprecedented scale within its 
tribal region over the past 2 years disrupting critical strongholds of 
the Pakistani Taliban and foreign terrorist elements. U.S. military 
cooperation with Pakistan has expanded and the Pakistani military have 
embraced training efforts by the U.S. SOF community. Recent attention 
has been placed on the arrests of senior Afghan Taliban officials 
within Pakistan. While the full impact of this is yet to be determined, 
it does indicate a more flexible response from Pakistan, its military, 
and its intelligence service to work in cooperation with the United 
States. This border region will remain problematic for the foreseeable 
future with regard to efforts to expand good governance on both sides 
of the Durand line.

             intelligence, surveillance, and reconnaissance
    29. Senator Begich. Admiral Olson, what are SOCOM's intelligence, 
surveillance, and reconnaissance (ISR) needs for prosecuting its 
mission?
    Admiral Olson. SOCOM requires the support of a robust mix of 
persistent ISR capabilities: air, ground and maritime-based collection, 
accompanying processing, exploitation, and dissemination (PED) 
capabilities, and supporting integrated ISR architecture.
    SOF requires the ability to sense and exploit, to detect/identify/
track through cover and weather in high-clutter environments, and the 
ability to track high value individuals (HVIs) over global distances. 
SOF requires collection platforms which have long on-station loiter 
times, support multiple sensors, have sufficient room for expansion for 
future sensors, have suppressed visual and acoustic signatures, and are 
all-weather/day/night capable.
    SOF at all echelons, from JSOTF down to team level, has a high 
demand for readily exploitable data, from numerous data sources to 
include finished products, partially exploited data, and raw feeds. SOF 
requires the support of a highly scalable, worldwide integrated ISR 
architecture, interoperable with service, Intelligence Community (IC) 
and coalition/partner systems. This ISR architecture must enable 
seamless dataflow, efficient workflow and effective decisionmaking, 
starting from collection at each individual sensor, through all phases 
of PED and mission execution. SOF partner nation/host nation train, 
equip, and advise activities increase the requirement for ISR 
architecture (collection, PED and communications) which seamlessly 
enables information sharing.

    30. Senator Begich. Admiral Olson, what is the SOCOM ISR 
requirement beyond the CENTCOM AOR?
    Admiral Olson. The CENTCOM AOR is ideally suited to Full Motion 
Video (FMV) collection and Remotely Piloted Aircraft (RPA) operations--
more diverse operational environments outside the CENTCOM AOR, i.e. 
weather and heavy foliage will drive sensor and PED requirements beyond 
FMV. Basing, airspace, and host-nation limitations will also drive an 
increased reliance on both manned and maritime-based ISR platforms.
    SOCOM requires the support of a robust mix of persistent ISR 
capabilities: air, ground and maritime based collection, accompanying 
PED capabilities, and supporting integrated ISR architecture.
    SOF requires the ability to sense and exploit, to detect/identify/
track through cover and weather in high-clutter environments, and the 
ability to track HVIs over global distances. SOF requires collection 
platforms which have long on-station loiter times, support multiple 
sensors, have sufficient room for expansion for future sensors, have 
suppressed visual and acoustic signatures, and are all weather/day/
night capable.
    SOF at all echelons, from JSOTF down to team level, has a high 
demand for readily-exploitable data, from numerous data sources to 
include finished products, partially exploited data, and raw feeds. SOF 
requires the support of a highly scalable, worldwide integrated ISR 
architecture, interoperable with service, IC and coalition/partner 
systems. This ISR architecture must enable seamless dataflow, efficient 
workflow and effective decisionmaking, starting from collection at each 
individual sensor, through all phases of PED and mission execution. SOF 
partner nation/host nation train, equip, and advise activities increase 
the requirement for ISR architecture (collection, PED and 
communications) which seamlessly enables information sharing.

               iraq, afghanistan, and the horn of africa
    31. Senator Begich. Admiral Olson, please discuss the nature of the 
conflicts in Iraq, Afghanistan, and the Horn of Africa. How are they 
similar, how are they different, and what challenges are unique to each 
location?
    Admiral Olson. The ongoing conflicts in Iraq, Afghanistan, and the 
Horn of Africa are difficult problems that will continue to challenge 
the United States and our regional allies for some time to come. In 
each case, there is a confluence of challenges including limited or 
non-existence governance combined with the introduction of a largely 
foreign ideology of Islamic extremism. In each case, we face a 
challenge from local extremists with their own grievances, and in each 
case, this challenge is exacerbated by Islamic extremists inspired by, 
and with varying connections to, the al Qaeda network. The greatest 
difference we face in each area is the ability and commitment of our 
local partners to address these challenges. The Iraqi Government 
continues to expand and improve its ability to address its security 
challenges, and as that happens, it is requiring less assistance from 
U.S. forces. In Afghanistan, the Afghan Government, army, and police 
force have not progressed as far as their Iraqi counterparts, but they 
are improving and enhancing their ability to address Afghanistan's 
problems is an instrumental element of our role there. We face the 
greatest challenge in this area in the Horn of Africa. The Transitional 
Federal Government in Somalia only controls a very limited section of 
territory inside Somalia and they are heavily dependent on assistance 
from other African nations to achieve that. In the long run, enhancing 
the ability of our local allies to address their unique challenges will 
be the most important element to address the challenges in each of 
these areas.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                                 piracy
    32. Senator Burris. Admiral Olson, how is SOCOM integrated in the 
anti-piracy strategy?
    Admiral Olson. SOCOM is a force provider, responsible for 
organizing, training, and equipping personnel who may be called upon by 
the geographic combatant commands to conduct anti-piracy operations. 
This would most likely be done in conjunction with geographically-
oriented naval forces under NAVCENT control in the CENTCOM AOR. 
Otherwise, SOCOM has no direct involvement with these operations unless 
the line between piracy and terrorism begins to blur.

    33. Senator Burris. General Petraeus, what is the current policy 
for captured pirates with regard to detention and prosecution?
    General Petraeus. Once a U.S. Navy vessel captures a suspected 
pirate, the individual is held onboard and given due care. To ensure 
safe and humane treatment is provided to suspects temporarily held 
aboard U.S. Navy vessels, crews undertake training such as in-depth 
guidance on use-of-force and responding to the religious needs of 
suspects.
    In terms of due process, while a suspected pirate is held onboard, 
evidence is compiled and the case examined for validity. Concurrently, 
the State Department determines where to send the individual for 
prosecution should the evidence support a likely conviction. In 
determining location, the State Department looks to an affected state 
to both favorably consider and make appropriate effort to prosecute a 
suspect. Affected states include the following: the state whose flag is 
flown by the attacked ship; the state(s) from which the ship's owners 
originate; and the state(s) from which the crew or passengers 
originate. In certain cases, where all affected states are unable or 
unwilling to prosecute, the case could be prosecuted in a national 
court in the region where the act of piracy occurred, with appropriate 
enabling support.
    If there is subsequently no interest by any of the affected states, 
the U.S. Government has the option to use the Memorandum of 
Understanding with the Government of Kenya (signed 16 January 2009) 
concerning the transfer of suspected pirates. Upon reasonable request 
by the United States, the Republic of Kenya will accept custody of any 
person suspected of committing (or attempting to commit) an act of 
piracy or armed robbery against ships.
    Under these circumstances, Kenya will review the case and indeed 
may opt not to prosecute based on the evidence provided and the 
strength of possible conviction. If Kenya chooses not to prosecute, the 
suspect will then be released by the warship in which he or she is 
being held.

                          illegal trafficking
    34. Senator Burris. General Petraeus, what are the concerns with 
regard to the trafficking of weapons of mass destruction (WMD) in your 
AOR?
    General Petraeus. State-sponsored WMD programs and extremists 
seeking to acquire such weapons pose a grave threat to our allies and 
interests in the U.S. CENTCOM AOR. We must understand the motivations 
of those who pursue or stockpile these weapons and team with our 
partners to stop such activity. Where appropriate, we must implement 
incentives to encourage states to change their attitudes toward WMD and 
offer other security alternatives. Several regional countries maintain 
WMD stockpiles. When coupled with advanced delivery means, such as 
long-range rockets or ballistic missiles, these weapons pose 
significant offensive threats and serve as strategic deterrents. Such 
programs affect current and future behavior of regional leaders, create 
tensions, and undermine regional stability. Countries such as Iran and 
Syria continue to import dual-use, WMD-related technologies to remain 
relevant and exert influence in the region, while non-state actors 
desire these weapons to inflict mass casualties. We remain at a cross-
road with Iran and Syria regarding their WMD programs and their 
relationship with surrogates. To counter the increasing threat of WMD 
proliferation and related technology, we must leverage all-domain 
interdiction processes and capabilities to identify proliferation 
networks and then track and interdict suspected shipments. To aid in 
these efforts, we must seek regional support or participate in counter-
proliferation agreements, activities, and exercises. We recognize that 
U.S. counter-proliferation efforts will be significantly enhanced by 
the increased awareness of partner nations and their willingness to 
take action with respect to interdiction and border security. To this 
end, CENTCOM, through its Cooperative Defense Program, continues to 
conduct numerous engagement activities with select partner nations 
along the lines of interdiction, border security, consequence 
management, and chemical, biological, radiological and nuclear defense 
to assist in increasing their counter-proliferation capabilities.

    35. Senator Burris. Admiral Olson, how is SOCOM supporting the 
combatant commands in their counter-trafficking efforts?
    Admiral Olson. SOCOM supports the combatant commands in their 
counter-trafficking efforts with the allocation of resources and SOF. 
These forces routinely train partner nation personnel or enhance 
combatant commands capabilities to address the unique challenges of 
trafficking networks operating in their AOR. Specially trained and 
equipped to deal with irregular warfare, SOF brings unique expertise 
and operational know-how to properly train or support efforts against 
the shadowy elements involved in illegal trafficking.
    Because the trafficking of weapons, drugs, or people routinely 
follows a path that crosses multiple international borders or combatant 
commands' boundaries, SOCOM studies these networks from a global 
perspective. SOCOM looks at gaps and seams between the commands and 
makes combatant commands aware of opportunities and trafficking 
networks' vulnerabilities. Major trafficking networks could not be 
significantly dismantled or destroyed if addressed only with isolated 
regional actions.

                       special operations command
    36. Senator Burris. Admiral Olson, how have things developed or 
changed since you took command of SOCOM?
    Admiral Olson. During my tenure as its commander, arguably the most 
significant evolution for our command and force was a strategic one, 
reorienting approaches to address more fluid environments and 
adversaries. We have referred to this shift as the reality of a new 
normal, where the greatest security challenges to our Nation reside in 
agile and elusive enemy networks versus traditional, uniformed military 
formations of the past.
    In this shift, however, we did not forget our origins. To be 
successful in this ``new normal'' requires consistent pressure to kill 
and capture our adversaries with even greater precision and potency 
while simultaneously addressing indirect approaches and building 
capacity in our partners. Conflicts in Iraq and Afghanistan currently 
necessitate an increased manpower commitment to this region to 
accomplish assigned tasks and missions. This commitment has placed 
unprecedented demands on SOF, where maintaining an enduring presence 
and global footprint across the remaining combatant commands is a 
constant challenge.
    More than ever, the command has maximized Security Force Assistance 
(SFA) as a vital element to enhance the military capabilities and 
capacities of our allies and partners via training, advising, 
assistance, and--as authorized--equipping and supporting foreign 
military and security forces. As we move forward, we should measure our 
success by how well we have prepared others to face their security 
challenges, not by what we do for them.
    In this environment of increasing partnership, we have emphasized 
the command's role in synchronization, improving the sharing of 
information across various government, DOD, intelligence, and partner 
nation organizations to increase expediency and effectiveness. This 
includes the direct embedding of SOF personnel in these organizations 
to provide subject matter expertise and planning support.
    Fiscally, we have carefully maximized our unique funding 
authorities, such as Section 1208 and Combat Mission Needs Statements 
(CMNS), to produce enabling SOF-specific capabilities required by the 
combatant commanders--we've recently upgraded and/or replaced critical 
mobility, intelligence, surveillance and reconnaissance, and precision 
strike platform capabilities.
    Last and perhaps most importantly, the command continues to improve 
in the execution of one of its most solemn duties: the care of our 
wounded warriors and their families. With the reality of nearly a 
decade of continuous combat, the increases in strain and debilitating 
injuries such as post-traumatic stress disorder and traumatic brain 
injuries have required increased emphasis in both policy and practice 
to ensure the mental and physical well-being of our operators.

    37. Senator Burris. Admiral Olson, what are the biggest challenges 
facing the command in the near future?
    Admiral Olson. The challenges that we foresee over the short- to 
mid-term are presented in three areas: the enemy in our current wars, 
how SOF are employed, and how we will prepare the force for future 
operations. These challenges manifest themselves in our 
responsibilities as a force provider, our traditional Title 10 
responsibilities (Organize, Train, and Equip Special Operations 
Forces), and as the synchronizer of plans and planning in the war 
against al Qaeda and other violent extremist organizations (VEOs).
Enemy challenges--countering the adaptive, asymmetric, and increasingly 
        networked enemy.
        <bullet> We must ensure we have a comprehensive strategy 
        addressing the root causes of the irregular threat, while fully 
        developing indirect approaches that mobilize friendly networks 
        to counter the enemy's network. We must diligently work to 
        integrate all elements of national power while continuing to 
        apply direct lines of operations to ensure disruptive pressure 
        is brought to bear.
        <bullet> The scope of the enemy challenge dictates partnering 
        with others that have shared interests against violent 
        extremists. We must also act to build the capacity of nation 
        states so they are capable of containing the violence while 
        long-term actions have time to show effect.
Force Employment
        <bullet> ``Prevail in today's wars'' using the correct 
        application of conventional forces and SOF skills is the 
        county's highest priority. This priority cannot be separated 
        from another priority of ``prevent and deter future conflict'' 
        (both detailed in the Chairman's Risk Assessment)--we must work 
        to reemphasize the unique nature of SOF in preventing future 
        conflict in fragile regions that are currently under-resourced. 
        In SOF terms, this means persistent engagement to the places 
        where we can influence or have effect on the upstream factors 
        that lead to violent extremism. Building of these enduring 
        relationships is the key to our success in building partner 
        capacity to minimize the threats to U.S. interests and 
        protecting our Homeland.
        <bullet> SOCOM must work with the geographic combatant 
        commanders, the Joint Staff, DOS, and other U.S. governmental 
        agencies to identify, synchronize, and properly resource united 
        efforts against both current and future challenges. This is 
        particularly important in the areas of interagency cooperation, 
        planning, authorities, and strategies.
Force Development and Preparation
        <bullet> We must enhance our understanding of the strategic 
        environment and develop sound human capital, force development, 
        and agile acquisition strategy that get ahead of resourcing 
        issues in an environment likely to include increasing budget 
        pressures. We must anticipate the activities, mission areas, 
        and geographic regions most likely to present problems, and 
        strive for the agility to respond effectively.
        <bullet> We must provide for the proper enabling of SOF to 
        assure mission success. SOF must be enabled by inherent organic 
        enablers, but we cannot succeed without service partner support 
        and enablers as well.
        <bullet> We must remain committed to caring for our wounded 
        warriors and their families. As casualties rise through the 
        years of combat so too must our funding of programs that help 
        our operators restore their lives or assist family members to 
        cope and endure with loss.

    To meet these challenges SOCOM must present the force to the 
geographic combatant commanders with the proper structure and skills to 
fulfill an array of strategic options against a variety of missions.
Organize:
        <bullet> While meeting today's enemy and employment challenges 
        we are aware of the increasing appetite for the use of SOF in 
        an irregular environment. Our special skills often make us the 
        force of choice. We must ensure rapid growth does not dilute 
        the very skills that are required to accomplish our mission. As 
        stated in my testimony, we must manage our growth, ``only as it 
        can be recruited, trained, absorbed, and deployed.''
        <bullet> A potential retention challenge for the near future 
        may arise as we move from many of the kinetic activities to the 
        more commonplace skills of presence, engagement, and capacity 
        building. We must also be mindful of the ``SOF for life'' 
        skills our operators possess and can be used after they remove 
        the uniform.
Train:
        <bullet> The Chairman indicated, ``winning is not solely the 
        responsibility of the U.S. Military.'' With this in mind, SOF 
        must be prepared to operate in a synchronized ``Diplomacy, 
        Development, Defense'' environment, possessing the advanced 
        education and maturity to deal with complexity and ambiguity. 
        We must train our operators in this multi-dimensional 
        application of national power to have greatest effect.
        <bullet> The infrastructure and institutional requirements are 
        essential to supporting the operators who must meet the 
        challenging demands. My testimony points to many construction 
        and modernization programs focused on sustaining SOF operations 
        support.
Equip:
        <bullet> I spent considerable time in my testimony discussing 
        the essential enabling aspects to SOF. Many of these are my 
        responsibility in the allocated MFP-11 budget process. As SOF 
        is not a separate service, we also rely on service provided 
        enablers that are just as essential for mission success. 
        Increasingly, my expenditures are beginning to cover shortfalls 
        in enablers that the Services have difficulty funding. This 
        equipping issue may become more acute if overseas contingency 
        operations funding falls short of helping the military meet its 
        commitments.
        <bullet> Our enemies, as I stated at the outset, are adaptive 
        and increasingly use available technologies against us. Our 
        acquisition processes must become more agile to meet the enemy, 
        force employment, and force development challenges. Our ability 
        to field, adapt, and out maneuver the enemy can be hamstrung by 
        the acquisition process.
Synchronizer:
        <bullet> Addressing the enemy challenges from a DOD perspective 
        is difficult enough. To fully realize a synchronized whole-of-
        government effort against our enemies requires continued 
        emphasis on understanding and cooperation from all elements of 
        our national power structure. From strategies, through the 
        operational art to the tactical level our strategic messaging 
        must have a more consistent voice/deed alignment. Along with 
        budgeting issues this is where Congress and our national 
        leadership can have the greatest effect.

    Certainly, these are not the only challenges facing SOCOM and SOF 
for the near future. These issues identified will give us the agility 
and unity of effort to help confront these challenges and respond to 
unexpected challenges as well.

                                 africa
    38. Senator Burris. Admiral Olson, please describe how SOCOM is 
supporting U.S. Africa Command's (AFRICOM) efforts in Operation 
Enduring Freedom (OEF) Trans Sahara and the Joint Task Force Horn of 
Africa?
    Admiral Olson. SOCOM provides forces to execute activities as 
directed by Commander, AFRICOM. SOF elements support OEF Trans Sahara, 
JTF Horn of Africa, and other efforts totaling 55 activities in 16 
countries across the African continent; this equates to approximately 4 
percent of the globally deployed SOF. The focus of SOF operations in 
AFRICOM is to build partner nation capacity and regional stability 
through both persistent engagement and episodic training; we provide 
persistent elements such as Civil Military Support Teams and Military 
Information Support Teams in nine countries while Army Special Forces, 
Marine Special Operations teams, and Naval Special Warfare elements 
provide training to build the capacity of partner nations in the 
region.

                          contractor oversight
    39. Senator Burris. General Petraeus, private contractor support 
continues to receive increased scrutiny in light of recent abuses in 
both Iraq and Afghanistan. Contractor fraud, waste, and abuse are not 
only financially damaging, but our strategic efforts are undermined as 
well. How will CENTCOM provide better oversight of private contractors' 
efforts?
    General Petraeus. CENTCOM has taken several actions to provide 
better oversight of private contractor efforts. We've formed the ACOD, 
which implements DOD's Armed Contractor policies and procedures and 
oversees PSCs. We're transitioning JCC-I/A to a JTSCC for better 
synchronization and efficiency of contracting in the theater. We're 
leveraging Rock Island Arsenal on contracts that are complex, resource 
intense, and require a detailed Source Selection process. This allows 
the contracting officer on the ground to pay attention to more 
tactical, day-to-day issues affecting the warfighter.
    CENTCOM and DOD have improved COR resource and training. DAU 
initiated online resident courses to train our CORs, and the Department 
of Army directed deploying units to identify and train their CORs prior 
to deployment. The number of CORs in Afghanistan has dramatically 
increased with fill rates now over 90 percent. The CORs are trained not 
only in general contract management, but are specifically selected for 
their technical expertise to oversee contractors performing services 
such as food preparation, water purification, and fuels distribution. 
DCMA and DCAA have also increased the number of personnel in 
Afghanistan to improve contract oversight.
    CENTCOM has ordered the use of the SPOT reporting for contractors 
performing valid work in the CENTCOM AOR. This system will increase the 
quality and reliability of contractor data thereby avoiding fraudulent 
duplication of numbers on task order contracts and over-provisioning of 
DOD food and supplies based on ineligible contracting personnel.
    To facilitate the integration of contractors when defining the 
strategic plan for future CENTCOM operations, documents such as the NDS 
and QDR will feature a greater emphasis on contractor requirements. 
Other Field Manuals, DOD Instructions, and new Joint Doctrine support 
the growing importance of integrating contractors.

    40. Senator Burris. General Petraeus, could the missions being 
fulfilled by private contractors be better handled by military 
personnel?
    General Petraeus. While our military forces are exceptionally well-
trained and capable, a contract work force allows us to increase and 
decrease capacity very quickly. It takes years to build military 
personnel capacity with the requisite experience level. Contractors 
bring to the table the required experience at the required time without 
the commitment to growing end strength.

    41. Senator Burris. General Petraeus, could reservists and 
guardsmen provide this type of support?
    General Petraeus. Reservists and guardsmen are already contributing 
essential skill sets to the operations in Iraq and Afghanistan. While 
our Guard and Reserve forces are exceptionally well-trained and 
capable, a contract work force allows us to increase and decrease 
capacity very quickly. It takes years to build military personnel 
capacity with the requisite experience level. Contractors bring to the 
table the required experience at the required time without the 
commitment to growing end strength.
                                 ______
                                 
              Questions Submitted by Senator Jeff Bingaman
                  air force special operations command
    42. Senator Bingaman. Admiral Olson, your testimony describes the 
rapid prototyping that took place to convert the Air Force Special 
Operations Command's (AFSOC) C-130W aircraft to gunships. Does SOCOM 
need any additional authorities to help its rapid prototyping efforts?
    Admiral Olson. The Dragon Spear project was successful due, in 
part, to strong congressional support and authorities afforded SOCOM to 
rapidly field technology to the SOF warfighter. The specific 
authorities that benefitted the Dragon Spear project included the 
ability to execute a CMNS and congressional support for Above-Threshold 
Reprogramming (ATR) requests to fund pulling available technology into 
the Precision Strike Package (PSP) and to fund modification of the 
entire MC-130W fleet. SOCOM appreciates the continued congressional 
support through authorities such as CMNS, ATR support, and capital 
leasing to rapidly acquire new technology and field capability to 
respond to emergent mission requirements.
    A slight modification to the existing Below Threshold Reprogramming 
(BTR) language would further help SOCOM rapidly acquire and field 
innovative technology. Reverting back to the (pre-2004) BTR language 
which provided the command the authority to reprogram funds to the RDTE 
threshold of $10 million, the procurement threshold of $20 million, or 
20 percent of the item, whichever is greater will allow SOCOM to 
reprogram MFP-11 funds to support emergent SOF requirements and quickly 
react to meet Secretary of Defense priorities. The 2004 change in 
language to read ``whichever is less'' is restrictive as the SOCOM 
budget is smaller than traditional service budgets.
    The command continues to succeed in rapidly fielding capability in 
support of SOF emergent requirements. The support provided by Congress 
has been a critical enabler to SOCOM's mission success. The enhanced 
reprogramming authority described in this response would provide SOCOM 
the flexibility to redirect already approved MFP-11 funding to rapidly 
acquire new technology to adjust to changing mission requirements.

    43. Senator Bingaman. Admiral Olson, your testimony describes 
SOCOM's efforts in the area of ISR. I am particularly interested in 
AFSOC's use of the MQ-1 Reaper aircraft given that it will eventually 
be phased out of the inventory--are there plans to replace it?
    Admiral Olson. SOCOM continues to monitor USAF MQ-1 Predator to the 
MQ-9 Reaper transition plans. SOCOM currently has 26 MQ-1 Predators and 
four MQ-9 Reapers. We expect to receive three additional MQ-9 aircraft 
in 2010, nine in 2011, four in 2012, two in 2013, and three in 2016. 
SOCOM's inventory end state is 26 MQ-1s and 25 MQ-9s by fourth quarter 
2016.

    44. Senator Bingaman. Admiral Olson, in your testimony you describe 
the acquisition of nonstandard aircraft so that SOF can be inserted 
without attention. Does AFSOC plan to acquire or lease these aircraft 
and can you tell me the trade-offs in each case?
    Admiral Olson. SOCOM's Non-Standard Aviation (NSAV) inventory 
comprises both light and medium category mobility platforms for intra-
theater cargo airlift. Since the beginning of SOCOM's NSAV program in 
fiscal year 2008, nine NSAV Lights (eight PC-12s and one M-28) were 
procured and delivered to the AFSOC. NSAV Medium procurement funding 
did not begin until fiscal year 2010; as such, SOCOM leased four 
Bombardier Q200s to meet the interim medium mobility mission 
requirement. Although the Q200s do not fully meet the NSAV Medium 
requirements, this specific lease allows SOCOM to partially meet the 
capability gap until the procured NSAV Mediums are delivered beginning 
in fiscal year 2011.
    Regarding the acquire versus lease trade-off, SOCOM has an enduring 
requirement for intra-theater mobility to remote locations that makes 
procurement of aircraft more cost effective and advantageous over 
leasing.

    45. Senator Bingaman. Admiral Olson, my understanding is that 
General Stanley McChrystal is emphasizing daylight operations as part 
of a counter-insurgency strategy in Afghanistan. What do you need to 
better equip and train your SOF for daylight operations given that 
night time operations have been a hallmark of SOF and AFSOC, in 
particular?
    Admiral Olson. Irregular warfare activities such as Key Leader 
Engagement, SFA, and Foreign Internal Defense are typically conducted 
during daylight hours and should not be significantly affected by an 
emphasis on daylight operations.
    Some SOF operations, however, such as direct action missions to 
capture key enemy leadership and disrupt enemy networks, are normally 
conducted at night; this allows SOF to take advantage of the natural 
concealment of darkness and optimize circadian rhythm relative to the 
enemy. Through the use of specialized equipment, SOF is able to 
overcome low/no-light situations which provide a further advantage. 
Daylight operations offset these tactical advantages, placing SOF at 
increased risk.
    Changes to the tactics, techniques, and procedures (TTPs) employed 
in such missions are being implemented to mitigate the risks associated 
with daylight execution. With appropriate changes to TTPs, the overall 
operational risk is manageable in most cases and daylight execution 
does not appear to have a significant impact.
    SOCOM has efforts underway to expand ISR capabilities and increase 
human intelligence capacity; such efforts will provide deployed SOF 
with increased situational awareness of geographic objectives, enemy 
capabilities, and intentions, and further mitigate operational risk in 
daylight operations. Additionally, the command is exploring equipment 
that can reduce the warning time at the point of action, and turn 
``day'' into ``night'' for the other senses; examples of such equipment 
include: advanced phone/radio/noise jammers, directed energy (sound) 
equipment, and low-signature (noise) packages for air or ground 
mobility assets.
    SOF aviation has engaged in limited operations during daylight 
hours. SOF aviation typically flies during darkness due to the risk to 
the aircraft at the objective during daylight. Current programs to 
field Hostile Fire Indication Systems, Lightweight Ballistic Protection 
Systems, fire and forget missiles, missile warning receiver and 
countermeasures, digital-aided close air support technologies and laser 
designation systems will help mitigate the riskier daylight operations.

                      weapons of mass destruction
    46. Senator Bingaman. Admiral Olson, a critical area of SOCOM 
pertains to countering WMD. Do you feel with the demands of the ongoing 
operations overseas that this area could use more support?
    Admiral Olson. Yes. The Nation must prepare for the evolving WMD 
threats of tomorrow. The continuing progress of science and technology 
can be expected to present opportunities to develop new and even more 
troublesome means of perpetrating mass destruction. The Nation will 
need to invest in anticipating and preparing to preempt or counter such 
developments as it strives to ensure that our worst fears about the 
proliferation and use of WMD remain unfulfilled.
    Counterproliferation is one of SOCOM's core mission areas. Due to 
the high tempo of ongoing overseas operations, SOCOM has had to balance 
counterproliferation training and equipping with the more immediate 
demands of the current fight. SOCOM continues to evolve to meet these 
emerging threats and strives to achieve the appropriate balance between 
the current fight and the ability to get out in front of future 
threats.
    Currently, SOCOM has the capability to conduct counterproliferation 
activities but the capacity is limited. Ongoing global contingency 
operations have SOCOM counterproliferation forces conducting 
counterterrorism missions. The result is a reduction in the number of 
forces available for counterproliferation and reduced 
counterproliferation expertise due to decreased level of training.
    The threat of proliferation and use of WMD by an extremist 
organization is greater now than at any other time in history. As U.S. 
efforts in Iraq and Afghanistan wind down, SOCOM's role with regard to 
counterproliferation needs to be redoubled. In order to do this, we 
need to redeploy, reconstitute, and retrain forces returning from 
overseas. In the interim, SOCOM needs to train and equip additional 
forces to accomplish some portions of the counterproliferation mission 
in order to increase capacity.
                                 ______
                                 
               Questions Submitted by Senator John McCain
             afghanistan/pakistan---taliban reconciliation
    47. Senator McCain. General Petraeus, last week while in 
Afghanistan, Secretary Gates said this about the prospects of 
reconciliation with Taliban leaders: ``I do believe that the senior 
Taliban are only going to be interested in reconciling in terms that 
are acceptable to the Afghan Government, and those of us supporting it, 
when they see that the likelihood of their being successful has been 
cast into serious doubt. My guess is they're not at that point yet.'' 
Do you believe we are now at a point where the Taliban doubt their 
likelihood of success and would be willing to reconcile on acceptable 
terms?
    General Petraeus. [Deleted.]

    48. Senator McCain. General Petraeus, what would be the minimally 
required changes to the security conditions on the ground in 
Afghanistan before the United States would enter into or support 
substantive reconciliation talks with senior Taliban leaders?
    General Petraeus. [Deleted.]

    49. Senator McCain. General Petraeus, how do you interpret 
Pakistan's recent successes in capturing senior Afghan Taliban leaders 
in Pakistan?
    General Petraeus. The arrests of Afghan Taliban Senior Leadership 
(TBSL) figures most likely represent an effort to capitalize on the 
positive developments following the London Conference. Islamabad seeks 
to minimize Indian influence in Afghanistan, establish Pakistan's role 
in shaping Afghan Reintegration and Reconciliation (R2), and enhance 
their strategic relationship with the United States. Pakistan has used 
the arrests to demonstrate its unique capability to influence 
reconciliation (due to proximity and access to TBSL), something India 
cannot offer Afghanistan. Further, Islamabad has demonstrated to TBSL 
that Pakistan at present plays reluctant host, not a strategic partner 
or sponsor to the Afghan Taliban. Pakistan's concerns--as expressed in 
their recent visit to Washington, DC, for strategic dialogue--remain 
firmly centered on countering Indian regional ambitions. Although the 
United States and Pakistan have agreed to a framework of working group 
discussions to mitigate a number of lesser concerns, Pakistan 
ultimately seeks a lasting strategic partnership with the United 
States. With respect to Afghanistan and the eventual U.S. withdrawal, 
Pakistan's desired end-state remains unchanged: a friendly Afghanistan 
Government independent of Indian influence--fully integrated with 
ethnic Pashtun representation--and recognizing the Durand line as the 
national border.

                     afghanistan/pakistan--kandahar
    50. Senator McCain. General Petraeus, in the aftermath of the 
recent operation in Marjah, the Chairman of the Joint Chiefs recently 
said: ``Kandahar will be next.'' Other senior leaders have said the 
same. Can you tell me what to expect in the coming months in Kandahar?
    General Petraeus. Operations in Kandahar will build on the momentum 
created in Central Helmand. Unlike Central Helmand, Kandahar is urban, 
densely populated and has some, albeit weak, Afghan Government ANSF 
structures. One of the requirements for securing the population and 
delivering governance is the correct force density, both ANSF and 
coalition, in order to secure the population. The key to this will be 
to ensure that the U.S. Marine Corps, together with Afghan and United 
Kingdom forces, continue comprehensive COIN operations in Marjah and 
Nad `Ali in order to strengthen the authority of the Afghan Government 
in Central Helmand. In parallel, we have started deliberate COIN 
operations to set conditions in Kandahar province during the coming 
months.
    Our intention is to expand the security zones in Kandahar and the 
surrounding districts, thereby bringing a significant portion of 
southern Afghanistan's population under Afghan Government control, as 
well as denying the insurgents vital terrain, limiting their freedom of 
movement and access to key population centers.
    Progress in Kandahar is the next step in convincing Afghans of 
their government's capacity and resolve to succeed. The insurgents 
recognize the threat of a more credible Afghan Government and the 
ISAF's COIN approach and will likely react aggressively to prevent 
coalition success in Kandahar. Kandahar underpins the Taliban power 
base and holds significant importance as the Taliban's former capital; 
they still have a disproportionate effect on the population and 
continue to exert control through intimidation and shadow governance 
structures.

    51. Senator McCain. General Petraeus, how would you describe the 
objective and the strategy to achieve that objective?
    General Petraeus. The objective of Hamkari Baraye Kandahar 
(Cooperation for Kandahar) is to provide credible, transparent, 
inclusive, and representative governance connected to the population, 
enabled by steady, incremental improvements to overall security, 
providing space for governance to develop. To achieve this objective, 
the ISAF strategy is focused on improving governance and political 
engagement, addressing inequality and corruption, facilitating 
stabilization and reconstruction, and providing security. To improve 
governance and political engagement, ISAF is conducting multi-layered 
political engagement and outreach to obtain Government of Islamic 
Republic of Afghanistan (GIRoA) commitment, to strengthen government 
capacity, to reduce parallel influences, and to build representative 
structures. ISAF is also working with GIRoA to visibly demonstrate the 
government's intent to distribute wealth more evenly, to regulate 
parallel governance structures, and to counter corruption.

    52. Senator McCain. General Petraeus, do you believe the current 
Marine Corps operations in Helmand are constraining our forces from 
conducting the necessary operations in Kandahar?
    General Petraeus. Operations in Helmand are not constraining the 
effort in Kandahar but, in fact, will provide necessary momentum upon 
which to build. Unlike Central Helmand, Kandahar is urban, densely 
populated and has some, albeit weak, Afghan Government structures. One 
of the requirements for securing the population and delivering 
governance is the correct force density, both ANSF and coalition, in 
order to secure the population. The key to this will be to ensure that 
the U.S. Marine Corps, together with Afghan and United Kingdom forces, 
continue comprehensive COIN operations in Marjah and Nad `Ali in order 
to strengthen the authority of the Afghan Government in Central 
Helmand. In parallel, we have started deliberate COIN operations to set 
conditions in Kandahar province during the coming months. Far from 
constraining operations in Kandahar, Marine Corps operations in Helmand 
are a critical precursor and enabler to success there.

    53. Senator McCain. General Petraeus, do you believe we can be 
successful in Kandahar without committing significant numbers of U.S. 
and NATO troops into Kandahar City?
    General Petraeus. A significant portion of the anticipated U.S. and 
NATO force uplift will be allocated to Kandahar. Currently, there are 
6,900 ISAF personnel and 5,300 ANSF personnel in Kandahar. By August, 
there will be 11,850 ISAF personnel and 8,500 ANSF in the region. 
Kandahar is a very different situation than the GIRoA and ISAF faced in 
Marjah. While there are clearly security challenges, Kandahar is not a 
city that must be ``taken back'' with major clearing operations, but 
rather an area where a thickening of existing forces and more robust 
partnering with ISAF forces will contribute to security gains over 
time. However, more important than the number of forces flowing into 
the area is what they will be doing. The campaign for Kandahar is 
designed to leverage existing security structures, incoming ISAF 
forces, and ANSF to improve security to bring stability and improved 
governance. Over the next 9 months, ISAF will continue to partner with 
GIRoA and the international community to assist in improving governance 
and political engagement; addressing inequality and corruption; 
facilitating stabilization and reconstruction; and providing security. 
To develop governance and political engagement, ISAF is conducting 
multi-layered political engagement and outreach to obtain GIRoA 
commitment, strengthen government capacity, reduce parallel influences, 
and build representative structures.
    ISAF is also working with GIRoA to visibly demonstrate the 
government's intent to distribute wealth more evenly, regulate parallel 
governance structures, and counter corruption. Security within Kandahar 
City will be layered to control movement in and around the city. The 
core and inner layers are being built upon the existing police 
substation structure that delivers security through community policing, 
supported through more effective surveillance and information sharing 
among ISAF, National Directorate of Security, ANP, and ANA. The outer 
ring is composed of an increased ANSF footprint on the periphery of 
Kandahar City, partnered with ISAF elements, that controls movement 
into and out of the city, establishing quick reaction forces to address 
more significant threats inside the city. There are some police 
districts inside Kandahar City contested by either insurgents or a mix 
of insurgents and criminal elements; Provincial Governor Wesa's plan is 
to clear these areas of insurgents and, over time, remove criminal 
elements through ANP-led security operations.

                  military construction in afghanistan
    54. Senator McCain. General Petraeus, why is over $1.2 billion 
requested in the fiscal year 2011 budget for military construction 
projects to support current operations in Afghanistan when many of 
these projects won't be completed until the summer of 2012, a full year 
beyond the date set by the President to initiate a drawdown of forces?
    General Petraeus. The military construction projects are needed to 
support deployment, sustainment, and redeployment of U.S. forces 
throughout the drawdown of U.S. forces from Afghanistan. The projects 
will also enhance our transition of forward operating bases from U.S. 
forces to Afghan forces.

                                  iran
    55. Senator McCain. General Petraeus, what effect would a nuclear-
armed Iran have on the broader Middle East?
    General Petraeus. A nuclear-armed Iran would dramatically shift the 
balance of power between Iran and key regional nations. A nuclear-armed 
Iran would likely spark a regional arms race as Iran's neighbors seek 
to redress the imbalance.

    56. Senator McCain. General Petraeus, do you believe that a policy 
of containment would be an effective option for dealing with a nuclear-
armed Iran? Please explain why or why not.
    General Petraeus. As Secretary Clinton has said, U.S. interests are 
inextricably linked to the future of the Middle East. Preserving 
stability, human rights, preventing proliferation of WMD, maintaining 
security and availability of energy and energy transport routes, 
protecting critical infrastructure, supporting democratic ideals, and 
the rule of law are key U.S. interests in the Middle East. In agreement 
with international non-proliferation goals, the President clearly has 
said he is committed to preventing a nuclear-armed Iran. A containment 
policy is currently outside the framework of the stated U.S. policy 
toward Iran's nuclear intentions and makes the very idea of a 
containment policy hypothetical. In support of ongoing U.S. Government 
efforts, CENTCOM's military activities will continue to support the 
diplomatic efforts to prevent nuclear proliferation in Iran. We will 
also remain vigilant across a wide range of contingencies to support 
U.S. and regional security objectives.

    57. General Petraeus, how do you assess the stability of the 
Iranian Government in the aftermath of the June 12, 2009, election and 
the popular uprising that followed?
    General Petraeus. The Iranian Government remains stable despite 
ongoing political rifts among regime elites, namely the conservatives 
and ultraconservatives, and regime legitimacy issues created by the 
June 2009 presidential elections and the opposition movement. Although 
public dissent centered on the reelection of President Mahmud Ahmadi-
Nejad, the behind-the-scenes wrangling was believed to have also 
focused on the political and religious legitimacy of Supreme Leader 
Khamenei for openly supporting Ahmadi-Nejad. Reformists could not 
muster enough support among regime elites to challenge the Supreme 
Leader, eventually causing reformist leaders, such as Ayatollah 
Rafsanjani, to back down and at least publicly reconcile with the 
regime. Concurrently, Supreme Leader Khamenei appears to have 
consolidated his circle of advisors, consulting only with those 
conservatives who share his views of clerical rule. Despite having 
fewer people involved in decisionmaking, the process remains divided, 
as ideological differences and personality conflicts arise more 
frequently. Following the initially large protests, Iranian security 
forces, led by the Islamic Revolutionary Guard Corps (IRGC), prevented 
the opposition from coalescing into a viable near-term threat to the 
regime and inhibited the opposition's ability to communicate and 
organize anti-regime protests. Supreme Leader Khamenei used the post-
election political dynamics and the IRGC to consolidate his power and 
suppress what he believed was a Western-backed ``soft-power 
revolution'' against the Islamic Republic. Khamenei's handling of 
election unrest demonstrated his dominance over the security apparatus 
and his dependence on the IRGC to maintain regime survivability and his 
own political position. The regime realized lessons from the 1979 
Islamic Revolution and prevented the IRGC from overreacting to 
opposition protests and creating a continual cycle of violence, as 
occurred between the Iranian population and the Shah's security 
services in 1978 to 1979.

    58. Senator McCain. General Petraeus, the focus of U.S. policy 
toward Iran is now shifting to sanctions. Should we be preparing to 
deploy every sanction at our disposal against the Iranian regime or 
should we be holding back some in reserve for the future?
    General Petraeus. Although Iran is in our AOR, questions concerning 
our national policy toward Iran and how we use the various tools 
available are better posed to the administration and the State 
Department. Regarding security concerns, Iran continues to present a 
profound and complicated challenge. I would note that Ambassador Burns 
eloquently addressed our efforts regarding Iran in his April 14, 2010, 
Senate Armed Services Committee testimony. President Obama has sought 
to strengthen our diplomatic options for dealing with the challenges 
posed by Iran, and has made it clear the United States is prepared to 
deal with the Islamic Republic on the basis of mutual respect and 
interest. As Iran remains recalcitrant, we now see a broader 
international consensus about the urgency of the Iranian threat and new 
frustration among even some of Iran's friends and trade partners. As 
the President said in Prague recently, we must insist that Iran face 
consequences because it has continually failed to meet its obligations. 
Ambassador Burns recounted that the United States is moving with a 
sense of urgency toward a new U.N. Security Council Resolution. 
Meanwhile, the United States continues to work with our regional 
partners as they develop mechanisms to better manage the political, 
diplomatic, and security challenges Iran poses. We have launched 
intensive diplomatic outreach efforts to other key states to discuss 
the need for additional pressure to bring Iran back to the negotiating 
table. Equally important to Iran are the informal expressions of 
international censure, including the voluntary departure of 
longstanding foreign investors and trade partners, and growing 
isolation. Neither formal penalties nor increasing international 
ostracism will alter Iran's agenda overnight, but the mounting weight 
of political and financial pressures can persuade Iran's leadership to 
reassess their approach to the world.

                                  iraq
    59. Senator McCain. General Petraeus, in a recent interview, your 
former partner in Baghdad, Ambassador Ryan Crocker, voiced concern with 
the President's plan to have U.S. forces down to 50,000 by August of 
this year. He said this: ``The [Status of Forces Agreement] I helped 
negotiate had an intermediate timeline to have forces out of cities and 
towns by mid-2009, which was accomplished, and full withdrawal by 2011. 
The August 2010 date was not part of that agreement. I would have 
preferred to see us keep maximum flexibility with the Iraqis between 
now and 2011.'' Are you confident that we are on track to meet this 
50,000-troop benchmark in light of the recent election? If so, please 
explain why.
    General Petraeus. I am confident we are on track to meet this 
50,000-troop benchmark. The Iraqis are increasingly providing for their 
own security and are achieving the security and governance goals that 
were established. This will allow the United States to continue to 
decrease troop levels to 50,000 in August 2010. Although the overall 
troop strength goal is 50,000, the mix of forces in that number is 
still capable of performing missions throughout Iraq. This provides the 
flexibility needed to adjust to any new developments or unexpected 
circumstances.

    60. Senator McCain. General Petraeus, when I was in Baghdad in 
January, General Raymond Odierno said he had drawn up a contingency 
plan to keep an extra brigade in Iraq, which would leave more than 
50,000 U.S. forces in Iraq beyond the President's August 2010 deadline. 
Has this request been made? If not, do you expect it to be?
    General Petraeus. We are on target to meet the 50,000 forces 
requirement in Iraq by August 31, 2010. The USF-I request has been made 
to retain an Advise and Assist Task Force (AATF). This force will be 
comprised of 962 personnel, much smaller than a brigade, but with 
inherent force protection and engagement elements. The AATF provides 
the essential capabilities we need and keeps us on track to meet the 
50,000-troop benchmark.

                       iraq counterterrorism law
    61. Senator McCain. General Petraeus, what is the status of the 
counterterrorism law pending in the Iraqi parliament?
    General Petraeus. A counterterrorism law was read once in the 
Council of Representatives but was not voted upon. At the end of last 
year, we observed some Iraqi politicians pushing for a more 
comprehensive national security law in which a counterterrorism law was 
merely one subcomponent. However, until the newly-elected Council of 
Representatives is seated, it is unlikely there will be any progress in 
this area.

    62. Senator McCain. General Petraeus, do you expect any action to 
be taken on this legislation in the near term?
    General Petraeus. Until the newly elected Council of 
Representatives is seated, it is unlikely there will be any progress in 
this area.

    63. Senator McCain. General Petraeus, what are the implications of 
this legislation not being enacted?
    General Petraeus. Without passage of a counterterrorism law, there 
remains the possibility that Iraq's population will perceive the 
Counterterrorism Service as overly aggressive, or worse, a ``secret 
police'' under the direct control of the Prime Minister. Further, this 
could heighten sectarian tensions within Iraq. Additionally, the lack 
of clear organizational structures and specific legal guidelines for 
decisionmaking may negatively impact the budgetary and administrative 
processes necessary for an effective, transparent, and legally-
compliant force. Notwithstanding Iraqi's historical sensitivities to 
human rights abuses by previous regimes, the Counterterrorism Service 
appears to act upon internal threats based on fact and impartiality. 
This is evidenced by operations in heavily-populated Shia provinces as 
well as targeting Shia extremist networks. Fortunately, the Government 
of Iraq, as a whole, recognizes the need for an effective 
Counterterrorism Service and supports the agency's requirements.

                            lashkar-e-taiba
    64. Senator McCain. Admiral Olson, Lashkar-e-Taiba (LeT) has 
demonstrated its ability to plan and execute large-scale attacks with 
the potential to upset the already tenuous balance between Pakistan and 
India. During a recent visit to New Delhi, Secretary of Defense Gates 
assessed the threat posed by such groups as one that could 
``destabilize not just Afghanistan, not just Pakistan, but potentially 
the whole region.'' What is your assessment of LeT's capability and 
intent?
    Admiral Olson. LeT remains the most capable and dangerous terrorist 
organization in South Asia and retains the capability to conduct 
attacks against targets across India with little to no notice. LeT 
remains focused on its goals to liberate Kashmir, and establish Islamic 
states in Afghanistan, Bangladesh, and India. LeT has demonstrated 
their ability by conducting numerous attacks against Indian Government, 
military, commercial, and transportation infrastructure targets through 
bombings and small unit assaults in Kashmir and major cities across 
India. LeT has demonstrated their ability to infiltrate by both ground 
and sea. LeT utilizes criminal smuggling networks and legitimate 
businesses to move funds, supplies, and personnel. Although several 
high-value members have been detained since the 2008 Mumbai attacks, 
including LeT's operations chief, LeT remains capable of destabilizing 
the region in order to attain their goals.

    65. Senator McCain. Admiral Olson, what level of support does LeT 
receive from the Pakistani Government?
    Admiral Olson. There is no evidence that LeT receives active overt 
organizational support from the Government of Pakistan. Although the 
Government of Pakistan has detained several members in the wake of the 
2008 Mumbai attacks and temporarily closed some businesses and 
facilities associated with LeT, LeT continues to operate. LeT is a 
large and adaptive organization that has the capability to operate 
independently due to its public service and commercial enterprises, 
such as Jamaat ud-Dawa (JUD), LeT's Humanitarian Service Organization 
and its public face. JUD operates schools, reading rooms, mosques, 
medical clinics, and ambulance services across Pakistan. JUD, through 
their humanitarian efforts, have become an integral part of Pakistani 
society and they operate openly throughout Pakistan. LeT also receives 
donations from foreign donors and income from businesses, public and 
private, criminal and legitimate, that its members and sympathizers 
operate throughout South Asia, South East Asia, the Arabian Peninsula, 
the Far East, Europe, and North and South America. LeT also receives 
donations from members of the Pakistani Diaspora from all over the 
world. This has apparently made the Government of Pakistan reluctant 
and unable to eliminate support to LeT and has allowed LeT to survive. 
Although the Pakistani Government may not actively support LeT, it 
passively supports it by not being able to control it.

    66. Senator McCain. Admiral Olson, have we, in coordination with 
partners in the region such as Bangladesh, been effective in 
constraining LeT's freedom of movement and sphere of influence in the 
region?
    Admiral Olson. Yes, cooperation between regional partners, in 
particular India and Bangladesh, have been instrumental in constraining 
LeT's ability to plan and conduct attacks. Building the capacity to 
counter threats posed by groups like LeT promotes regional stability 
and builds trust. We must continue to build the capacity of all nations 
in South Asia to enable them to counter the threats posed by groups 
like LeT. Building the counterterrorism capabilities in our regional 
partners is a long term effort and requires long-term commitment. We 
must continue this effort to build and develop capacity in other 
partners in the region such as Nepal, Sri Lanka, and the Maldives. SOF 
continue to lead this effort through recurring training events and 
persistent engagement. However, building military capabilities is only 
one aspect in building regional stability. Law enforcement and 
information sharing are also crucial issues that will enable our 
regional partners to mitigate the threats posed by terrorist 
organizations like LeT.

                             force enablers
    67. Senator McCain. Admiral Olson, concerns have been raised about 
the availability of enabling forces to support SOF in both Iraq and 
Afghanistan, such as transportation, ISR, and logistics. You have 
stated, `` . . . the non-availability of these force enablers has 
become our most vexing issue in the operational environment.'' What 
steps are you taking to mitigate the lack of these force enablers in 
Iraq and Afghanistan?
    Admiral Olson. U.S. Forces-Iraq (USF-I) commanders have stated that 
they will continue to provide existing enabler support to SOF without 
degradation. Logistics support, ISR, and mobility assets will continue 
to be backfilled to support SOF remaining in Iraq. Other enabling 
support will be mitigated through the use of ISF or additional local 
contracting.

    68. Senator McCain. Admiral Olson, are you confident that there 
will be sufficient support forces remaining in Iraq to support 
essential SOF following the drawdown of conventional forces later this 
year?
    Admiral Olson. Yes, we continue to work very closely with CENTCOM 
to ensure sufficient support remains in Iraq to support those SOF who 
will continue to train, advise, and assist ISF units. USF-I plans to 
provide existing enabler support to SOF without degradation. USF-I will 
provide logistical, medical, and basing support as well as sustainment 
to any remote areas which SOF may operate in. Drawdown planning is 
fluid based on Iraqi elections and we will continue to monitor its 
impacts to ensure adequate support for SOF exists as it is currently 
planned.

    69. Senator McCain. Admiral Olson, where do you envision the 
largest strain on enabling forces?
    Admiral Olson. Our greatest strain on enabling forces continues to 
be ISR platform support, and enhanced mobility capability. ISR remains 
an invaluable asset in low or limited-access battle spaces, most 
notably in the CENTCOM AOR. Enhanced mobility, for instance, results in 
quick strike capabilities regardless of terrain. Significant 
enhancements are underway for SOCOM's helicopter, CV-22 Tilt Rotor 
aircraft, and light/medium nonstandard aviation fleets. Additional 
enhancements are also needed in mine resistant ambush protected (MRAP) 
vehicles. These assets are in high demand and are rarely available in 
sufficient numbers. SOCOM will continue to rely on support by 
conventional forces which possess the majority of these assets.

    70. Senator McCain. Admiral Olson, do you plan to use contractors 
to provide any enabling support to SOF in Iraq once the bulk of 
conventional forces depart?
    Admiral Olson. Yes, some enabling support is already contracted. 
For example, interpreters and security forces are currently provided 
through a combination of contracted support and military forces. Any 
further reduction in U.S. military forces will require enabling support 
from Iraqi military forces or local contracting.

                capability of indigenous security forces
    71. Senator McCain. Admiral Olson, SOF plays a large role in the 
training of indigenous security forces, particularly elite 
counterterrorism units. What is your assessment of the capabilities and 
professionalism of Iraqi Special Operations Forces (ISOF)?
    Admiral Olson. The ISOF have shown remarkable progress in a 
relatively short period of time. Since ISOF have trained with both U.S. 
and coalition forces to acquire the needed skill sets to provide 
security, their learning curve has been tremendously steep. Undaunted, 
ISOF have overcome many obstacles and surpassed expectations. They have 
shown great potential and have demonstrated a high degree of 
professionalism while supporting combat operations. These results are 
directly attributable to the confidence they have in their mission, 
their men, and their country.

    72. Senator McCain. Admiral Olson, how is ISOF affected by the 
counterterrorism law not being enacted?
    Admiral Olson. The effect on ISOF of the counterterrorism law not 
being enacted is detrimental. Without clear guidance from legislation, 
ISOF's ability to support the government will undoubtedly turn into an 
ebb and flow scenario with many fits and starts. Unfortunately, the 
real casualty will be the Iraqi people, and their security, as ISOF 
employment becomes more of a political issue for debate rather than a 
dedicated security force.

    73. Senator McCain. Admiral Olson, what is your assessment of the 
capabilities and professionalism of the Afghan Kandak commando units?
    Admiral Olson. Since the conception of the Afghan Kandak Commandos, 
enormous strides have been made to build operationally effective units. 
Afghan Commandos are now typically in the lead in the operations that 
they conduct with U.S. support, compared to years past where U.S. 
forces led all operations with Afghan Commando support. Afghan 
Commandos play a critical role in capturing or killing insurgent 
leaders and bomb makers. There have been operations in which civilian 
deaths have been blamed on Afghan Commandos, but these cases are 
typically unfounded. The Afghan Commandos are a very professional 
fighting force that receives recurring and extensive training from U.S. 
instructors who encourage discipline and attention to detail.

    74. Senator McCain. Admiral Olson, how are the Afghan Kandak 
Commando units perceived by the Afghan population?
    Admiral Olson. The Afghan Kandak Commando units are perceived by 
the locals as elite fighters compared to the ANA and the ANP. While a 
majority of the Afghan population believes that the ANA are not a fully 
professionalized force and the ANP are corrupt and provide little in 
the way of protection to the population, the Afghan Commandos are seen 
as incorruptible and as a source of pride for the Afghan population. 
Additionally, the population views the Commandos as a more cohesive 
force, uniting members from different ethnic groups.

     requested increase in combat mission needs statement authority
    75. Senator McCain. Admiral Olson, SOCOM is requesting an increase 
in its Combat Mission Needs Statement (CMNS) authority to $50 million, 
a $30 million, or 150 percent, increase over its currently authorized 
level. In what ways is the currently authorized level of $20 million 
inadequate to address the needs of SOCOM to meet emerging requirements 
in theater?
    Admiral Olson. The $50 million request is based on the command's 
historical experience with CMNS requirements, as well as projected 
requirements based on recent Request for Forces to support ongoing and 
surge operations.

    a.  Historically, SOCOM has received and approved CMNS over and 
above the $20 million appropriated in the baseline for use in overseas 
contingencies. In fiscal year 2006 and fiscal year 2007, this line item 
was substantially increased by reprogrammings and supplemental 
appropriations--an increase of $66 million and $158 million, 
respectively. The majority of the CMNS were submitted on behalf of 
Joint Special Operations Task Forces working in the CENTCOM AOR. 
Examples include sensors and tracking devices, signals intelligence 
equipment, MRAP vehicles, nonstandard commercial vehicles, vehicle and 
body armor, weapons and munitions, aircraft, and jammers.
    b.  In fiscal year 2009, I approved the MC-130W PSP modification 
CMNS (Dragon Spear). The estimated cost to modify the MC-130W fleet (12 
aircraft) was $415 million. Because the PSP requirement was urgently 
needed for current operations, I used the fiscal year 2009 Combat 
Mission Requirements funds ($20 million) and $1 million of other 
baseline procurement to immediately initiate this urgent combat 
capability. The Department provided the sources for the remaining 
aircraft modifications, to include over $63 million of fiscal year 2007 
supplemental funds for ammunition.
    c.  In the past year, SOCOM has received several short-notice 
requests for additional forces and equipment to support surge 
operations in the CENTCOM AOR. The command reprogrammed over $8 million 
of procurement funds from other baseline priorities in fiscal year 2009 
to ensure deploying forces were properly equipped with items identified 
through the CMNS process.

    The additional $30 million in the fiscal year 2011 OCO request will 
provide the command with the resourcing flexibility needed to quickly 
address future surge requirements approved via the CMNS process, which 
will result in providing deploying forces with equipment needed to 
prevent loss of life or mission failure. If appropriated, the command 
will provide Congress the specific equipment purchased with these funds 
in the Quarterly CMNS Report.

    76. Senator McCain. Admiral Olson, what circumstances have arisen 
to necessitate a 150 percent increase in CMNS authority?
    Admiral Olson. See answer to question #75.

                  countering violent extremism efforts
    77. Senator McCain. Admiral Olson, following the attacks on 
September 11, 2001, SOCOM was designated as the lead synchronizer for 
countering violent extremism (CVE) efforts for DOD. These efforts 
encompass both kinetic and nonkinetic efforts. Concerns have been 
raised about the ineffective coordination internally and between the 
relevant interagency stakeholders. What is SOCOM doing to ensure that 
our efforts both on the ground and in the strategic communication arena 
are synchronized?
    Admiral Olson. I see SOCOM's role in CVE as two-fold: as a force 
provider, we leverage SOF's persistent presence in over 75 countries to 
conduct high quality, low profile, long-term engagements in SFA. These 
actions foster trust, and enable partners to directly combat extremist 
organizations through advising, training, and--when authorized and 
funded--equipping of forces. Functionally, this is executed by 
providing SOF to GCCs, and in some cases, authorized via a funding 
mechanism commonly referred to as section 1208. This mechanism affords 
the training and equipping of indigenous forces, both regular and 
irregular, in support of ongoing U.S. counterterrorism operations.
    Second, we work as a synchronizer for DOD for the global campaign 
against terrorist networks, and so we look across the spectrum of what 
our partners do in CVE. SOCOM plays a large role in synchronization 
through the crafting of DOD strategy that ensures all GCCs are 
executing regional/country plans within the architecture of the larger 
global plan, and that are applying similar and consistent metrics 
across regions to determine the best application of SOF resources. The 
current version of DOD CONPLAN 7500 recognizes that to achieve success 
requires a broader focus, one which addresses the underlying causes of 
extremism. The strategy reflects the primacy of indirect approaches, 
both to deter active and tacit support for VEOs and to erode extremist 
support for VEO ideology. Specifically, the focus must include indirect 
and ideologically-based activities CVE, while building organic 
capacities toward this end among our allies and partners. This plan in 
turn supports the National Implementation Plan for the War and Terror 
(NIP), sponsored by the National Counterterrorism Center (NCTC). The 
NIP is comprised of four pillars, one of which CVE underpins the other 
three: protection and defense of the homeland, preventing terrorist 
acquisition of WMD, and attacking terrorists and their capacity to 
operate.
    In our role as synchronizer, we conduct semi-annual forums where we 
bring together our partners in DOD, in the interagency, and our 
partners in certain international countries to begin to work together 
to apply the strategy and translate that into operational actions. From 
these work groups come specific tasks that various communities of 
interest accept, and strive through a variety of venues to provide an 
acceptable resolution for all involved.
    The command believes in cultivating credible influence to build the 
foundation for change, one which promotes ideologies that reject 
extremist affiliation and action. In tandem, we undercut the resources 
and recruitment efforts of VEOs to limit both their sustainment and 
freedom of action.
    The Expanded Trans-Regional Psychological Operations Program (ETRP) 
is the mortar in this ideological foundation, one providing a uniform 
set of objectives available to all GCCs to conduct CVE-centric, 
psychological operations (PSYOP) activities in support of CONPLAN 7500. 
Within ETRP is a system of checks and balances, an approval process to 
ensure DOD-conducted PSYOP activities are executed with full awareness 
and approval of the appropriate DOS representative. This includes U.S. 
ambassadors within countries where these capabilities are employed.
    SOCOM's program of record, ETRP-MIST (Military Information Support 
Team), provides the resourcing and deployment mechanism for the forces 
executing these operations. ETRP-MIST is currently supporting 25 SOCOM 
MISTs, units deployed at the specific request of U.S. ambassadors 
around the globe. Working closely with and authorized by embassy public 
affairs and diplomacy staffs, MISTs--usually small in number--conduct 
local information programs via local media in service to ETRP and DOS 
Mission Strategic Plan CVE goals.
    SOCOM's Joint Military Information Support Command (JMISC) provides 
operational planning, analytic research and production support for all 
of the GCCs. JMISC produces six military-to-military journals, one for 
each GCC, with particular topical emphasis on CVE and regional 
security. In tandem, the JMISC's four regional influence web sites 
counter Internet-based misinformation supporting extremism, while 
synchronizing DOD's web-based messages on CVE topics.
    As a point of distinction, SOCOM remains steadfast in 
distinguishing between DOS diplomacy efforts and DOD-led influence 
campaigns. While both directly address CVE, our efforts are 
specifically designed to deter, prevent, and disrupt violent 
extremists. Still, we recognize and appreciate the logic of 
coordinating and synchronizing these endeavors toward a common 
objective of reducing the appeal of violent extremism.
    While the military is not the lead in this effort, SOF Civil 
Affairs teams conduct a diverse set of activities promoting development 
and goodwill through building of infrastructure, job skill training, 
and the provision of medical, dental, and veterinary care in areas 
where existing governance structures are unable or unwilling to provide 
these services. Again, as with SFA, the focus of SOF Civil Affairs is 
on long-term capacity building within local and national structures.
    The paradigm of national sovereignty is challenged by the trends of 
crime, migration, and extremism, and the competition of resources which 
drive populations and provoke conflict. Recognizing this, SOCOM's 
engagement efforts through the Sovereign Challenge Program continue as 
a unique method of establishing relationships with senior military 
leaders from around the world. The program, in collaboration with the 
DOS, aims to provide venues in which robust dialogue about threats to 
sovereignty can take place. In this indirect and mutually beneficial 
approach to military relationships, long-term success is measured by 
other countries' actions in their own and the region's security 
interests.
    Finally, the command simultaneously strikes at the financial center 
of VEOs, serving as the DOD lead in Counter Threat Finance. In close 
partnership with other combatant commanders, the Services, and--as 
directed--appropriate U.S. Government agencies and international 
partners, we spearhead DOD efforts to identify, track, and dry up this 
flow of capital in the interest of national security.

    78. Senator McCain. Admiral Olson, what is your assessment of the 
effectiveness of current U.S. efforts to CVE?
    Admiral Olson. Current U.S. efforts to CVE have had some successes 
but they still have a way to go in combating the multi-pronged 
ideological appeal of our enemies. By highlighting the violence against 
Muslim civilians and the oppression associated with violent extremist 
in Iraq and Afghanistan, our efforts have helped undercut the appeal of 
VEOs and al Qaeda. Despite these successes, our enemies have 
demonstrated a great deal of effectiveness by appealing to regional 
frustration over the continued delays in the Middle East peace process, 
and by raising questions over the legitimacy of other regional 
governments. Those issues have been endemic to the region for decades, 
and will continue to pose a challenge to U.S. efforts to undermine the 
appeal of VEOs.

    79. Senator McCain. Admiral Olson, where can DOD and its civilian 
counterparts improve coordination and eliminate redundant efforts?
    Admiral Olson. I can only speak to this issue from my perspective 
as Commander, SOCOM; however, our working arrangement with most of DOD 
provides me with some unique insight on this central question.
    We have a number of activities at HQ SOCOM that address this matter 
daily to include our Interagency Task Force (IATF). Interagency 
coordination is one of the responsibilities assigned to SOCOM in DOD's 
CONPLAN 7500. This CONPLAN outlines the Department's campaign to deter, 
disrupt, and defeat al Qaeda and transnational terrorist organizations 
and it directs SOCOM to serve as the global synchronizer for such 
efforts within the U.S. Government.
    Our interagency relationships are further enhanced by the Special 
Operations Support Teams, a network of IATF-managed liaison and 
advisory experts with deep Special Operations backgrounds, posted at 
the headquarters and activities of key interagency organizations and 
command partners across the whole of government.
    We believe the coordination mechanisms and processes are robust and 
working well, and that we can typically collaborate across the 
interagency spectrum in a timely and effective manner. SOCOM has an 
excellent track record over the past 5 years of coordinating and 
resolving contentious issues and new requirements by leveraging senior 
leader-to-action officer engagements such as: combatant command and 
interagency planning conferences, working groups, the SOCOM Global 
Synchronization Conference for counterterrorism, strategic planning 
forums, and JCS OSD plans reviews. What we have less ability to do is 
influence matters of redundancy in policy, planning, and implementation 
matters beyond our statutory and post-September 11 policy authorities. 
There are routine issues involving SOF that are clearly both functional 
(our job for force preparation, posturing, delivery/replacement, and 
support) and geographic (the primary purview of the GCCs). Here, where 
these domains intersect at the operational level, we collaborate with 
the GCCs and with the Theater Special Operations Commands (TSOCs); 
examples of this collaboration include reviews of the theater 
operational plans, analytical and assessment support to theater and 
TSOC activities employing SOF, and SOF support to the Provisional 
Reconstruction Teams (PRT). We see much less redundancy in these areas 
than in more macro-level, national policy generated initiatives.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                               cerp funds
    80. Senator Sessions. Admiral Olson and General Petraeus, when you 
compare the effectiveness of DOD in implementing CERP funds versus DOS/
USAID in implementing the same type of funding, which agency is the 
most effective?
    Admiral Olson. I am not in a position to provide you with an 
informed answer as SOCOM does not manage CERP funds. CENTCOM is better 
positioned to compare the effectiveness of the DOD and DOS/USAID 
programs.
    General Petraeus. CERP and DOS/USAID programs are complementary in 
nature and we work together to ensure the most effective application of 
resources. Metrics to determine which agency is more effective in 
implementing the same type of funding do not exist.

    81. Senator Sessions. Admiral Olson and General Petraeus, compared 
to CERP funding, does DOS/USAID get a disproportional percentage of DOD 
Section 1207-type funds than they should based on value added in the 
field?
    Admiral Olson. SOCOM does not execute funding provided under the 
1207 program. Additionally, beginning with the fiscal year 2011 
President's budget request, all funding for the 1207 program was 
transferred to DOS.
    General Petraeus. Given a lack of formal metrics for a comparison 
basis, it would be difficult to determine if DOS/USAID receives a 
disproportionate percentage of DOD Section 1207 type funds. Any formal 
assessment as to the sufficiency of 1207 type funds for DOS/USAID 
should be provided by that agency.

    82. Senator Sessions. Admiral Olson and General Petraeus, are the 
policy objectives of DOS and DOD tied closely enough when executing 
foreign and security assistance programs?
    Admiral Olson. At the strategic level, the policy objectives of DOD 
and DOS are nested in support of the National Security Strategy. We 
have achieved good results in the building of ISF and are moving toward 
a sustainable program in Afghanistan. The difficulty is between policy 
goals and program execution. While policy objectives are aligned in 
areas outside of Operation Iraqi Freedom and OEF, the execution of 
foreign and security assistance programs are not achieving enduring 
results. Geographic combatant commands and U.S. embassies are 
challenged with Cold War-era security assistance programs that, while 
sufficient for the threat at that time, are not responsive or broad 
enough to adequately address current threats.
    General Petraeus. Yes, DOD and DOS policies on foreign and security 
assistance programs are closely integrated at every level. The DOD 
personnel within the country team assist in the development of the 
Mission Strategic Resources Plan and DOS personnel assist DOD in 
security cooperation planning. For grant recipient countries, DOS and 
DOD personnel jointly develop the foreign military financing budget. 
Both departments closely coordinate on Foreign Military Sales and 
International Military Education and Training Programs. DOS and DOD 
cooperate on the Global Peacekeeping Operations Initiative programs to 
improve partner capacity in responding to U.N.-brokered peacekeeping 
missions and additionally, programs planned for partner nations under 
the Global Train and Equip authority are developed in synchronization 
with, and are approved only after, concurrence from DOS. A particularly 
notable example of the strong cooperation between DOS and DOD is the 
execution of section 1206 projects which receive dual Departments of 
Defense and State vetting with the country teams, then continued dual 
vetting from the action officers to the Secretary level within the 
departments.
    During the Theater Strategy and Campaign plan development, CENTCOM 
uses DOS policy guidance and Mission Strategic Resources Plans in order 
to synchronize our efforts with DOS elements within our AOR. Finally, 
we routinely invite leaders in the State Regional Bureaus and Chiefs of 
Mission to participate in conferences and strategic discussions in 
order to integrate our efforts and benefit from the full range of 
political-military perspectives and insight.

                              afghanistan
    83. Senator Sessions. General Petraeus, is there enough emphasis on 
stabilization progress in remote locations as compared to heavy 
population areas?
    General Petraeus. The stabilization/reconstruction efforts of the 
coalition and nongovernmental organizations (NGOs) in Afghanistan 
consist of building physical infrastructure, fostering economic 
development, and promoting good governance. Showcasing CENTCOM's 
involvement are the 27 U.S. and Coalition PRTs and 9 U.S. Agribusiness 
Development Teams (ADT) operating in 31 of Afghanistan's 34 provinces.
    While it is true that these are headquartered in the most populated 
areas, that is by design. As General McChrystal, Commander of the ISAF 
stated in his Initial Assessment of August 2009, our COIN efforts are 
concentrated in high-population areas because they're the most highly 
contested with the insurgency. Similarly, stabilization activities are 
focused in those locations because their existing infrastructure can be 
leveraged for maximum gains.
    We would always like to do more; and, as opportunities arise, we're 
expanding our efforts. In March, a 13th U.S. PRT began operation in 
Kapisa province. In July, the Republic of South Korea is establishing a 
PRT in Parwan. Turkey is working to assume PRT duties in Jowzjan and 
Sar-I Pul, freeing Sweden to concentrate its focus on Balkh and 
Samangan. In March a ninth ADT moved into Zabul. In addition, a 
concerted civilian uplift effort has tripled the number of governance 
and development experts in theater from roughly 300 to 1,000 since 
January 2009, with an additional 20 to 30 percent increase anticipated 
by the end of this year.
    In order to ensure we have a balanced perspective on apportioning 
efforts between rural and developed areas, the coalition is 
increasingly relying on the Government of Afghanistan to decide where 
those activities are focused. Across the board, implementing partners 
are working with 26,000 Afghans to institute stabilization activities, 
including the USAID's Office of Transition Initiatives, which is 
establishing links with 264 local representatives at districts/village 
level. In addition, DOS's Afghanistan and Pakistan Regional 
Stabilization Strategy has set goals of: authorizing six Afghanistan 
ministries to receive direct U.S. assistance by December 2010; 
channeling at least 40 percent of U.S. Government development 
assistance through the Afghanistan Government and local Afghanistan 
NGOs by December 2010; increasing local procurement of supplies to 20 
percent by July 2011; ensuring 200,000 farmers and entrepreneurs have 
access to credit; establishing District Development Working Groups in 6 
pilot districts in Regional Commands East and South; providing block 
grants to mayors in 42 municipalities to improve delivery of services; 
expanding the ability of Afghanistan's core ministries to oversee and 
implement programs; implementing and monitoring new flexible funding 
strategies, such as the Performance Based Governors Fund, in 2010; and 
developing a plan to mitigate indirect effects of corruption resulting 
from increased military and civilian presence.
    Partnering between national, provincial, district, and community 
officials will best address each level's needs. This won't maximize 
achievements at any given level, but it will optimize gains across the 
whole of Afghanistan.

    84. Senator Sessions. General Petraeus, to what degree does success 
in the remote locations affect our overall objectives?
    General Petraeus. In line with the COIN doctrine, the main effort 
will be directed to the centers of population and expanding the 
security zones in these areas and the surrounding districts. This will 
bring a significant portion of the population under the GIRoA control, 
as well as denying insurgents vital terrain, limiting their freedom of 
movement and access to key population centers. However, as a result, 
insurgents are likely to move to the less populated and more remote 
areas. In doing so, they are separated from the population and have 
less ability to negatively influence them. Moreover, in remote areas, 
the insurgent is easier to identify, he is separated from the majority 
of his arms caches, and he can be tracked as he moves into the 
populated areas to undertake his attacks.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                     rights of women in afghanistan
    85. Senator Wicker. General Petraeus, I recently traveled to 
Afghanistan, and during that travel I visited Garmsir, the Helmand 
provincial capital just weeks before the start of the recent Helmand 
offensive. One particular thing that struck me as I walked freely 
around, without a flak jacket, was the absence of women. I was in an 
open marketplace, yet there were no women to be found. Knowing that a 
key component of the COIN model is the reintegrating of the Taliban 
into Afghanistan society, do you see the future rights of women as a 
cause for concern?
    General Petraeus. CENTCOM supports the current efforts of the DOS 
as they work with the GIRoA to develop effective governance that 
includes and respects the rights of women. This is consistent within 
the greater COIN context focused on protecting the entire population.
    The Women's Action Plan which Secretary Clinton announced at the 
London Conference is comprehensive and signals our sustained commitment 
to improving women's rights. This is a key component of our efforts to 
strengthen Afghan communities against the effects of extremist 
ideologies. The ISAF is working with Embassy Kabul to ensure 
reintegration efforts incorporate elements of these programs and 
continue to advance women's rights. More broadly, as the President 
emphasized in his State of the Union Address, our policies in 
Afghanistan will also reflect our national values, including support 
for universally recognized human rights.
    The prevailing imperative remains to provide security so 
development can occur. Violence against women and girls is endemic and 
much remains to be done including increased access for women to 
institutions of justice, civic education, and prosecution of crimes. 
Further, we must work with DOS and USAID to implement programs as soon 
as the security situation will allow in all regions. The women of 
Afghanistan are critical to progress and stability in their war torn 
country.
    Of important note, we have seen some success toward Afghan women's 
rights over the last 8 years. These gains include businesses' 
ownership, voting, positions in government and professions such as 
medicine, law, and academia, but are mostly limited to the urban areas. 
Embassy Kabul is intensifying their efforts to help women. One example 
is a new $27 million fund of small, flexible, rapid response grants 
targeted to empower Afghan women-led NGOs at the local level to serve 
their fellow citizens. The grants provide technical assistance and 
support for programs ranging from economic development, literacy, 
training, and health care.

                                 syria
    86. Senator Wicker. General Petraeus, recently Ambassador Robert 
Ford was nominated to be the next Ambassador to Syria. We withdrew the 
U.S. Ambassador from Damascus in 2005 because of terrorism issues. As 
early as last year you discussed that Syria was allowing or accepting 
terrorism facilitators to operate from and through Syrian territory. In 
your opinion, is this the right time to send an ambassador to Syria?
    General Petraeus. I believe it is the right time. The U.S. 
Government seeks to improve engagement with Syria in the international 
arena and the essential element to restarting a relationship is an in-
country ambassador to coordinating U.S. Government policy. We need to 
reestablish our ambassadorial presence to permit access and recurring 
state-to-state engagement between Syria and the United States.

    87. Senator Wicker. General Petraeus, how does engagement with a 
nation aiding terrorists help your position in the region?
    General Petraeus. Engagement with Syria demonstrates to our Arab 
partners in the region that we are committed to regional stability and 
our engagement enables increased opportunities to explore mutual 
interests with Syria. Only through direct engagement can we build the 
foundation for a stable partnership that challenges violent extremism, 
contributes to stability in the Middle East, and encourages Syria to 
broaden its national objectives and become a cooperative nation that 
pursues policies to enhance stability and economic opportunity in the 
region.

                                 yemen
    88. Senator Wicker. General Petraeus, despite internal challenges 
that include a rebellion in the north and a secessionist movement in 
the south, you have mentioned in the past that Yemen has made security 
improvements with regard to combating terrorism. However, as is well 
known, Yemen has long been a refuge for terrorists. Despite U.S. 
funding for counterterrorism, I see little progress in that country to 
fight terrorism. Just last month you mentioned that Saudi Arabia and 
the other Middle East peninsula countries have continued to make gains 
with the obvious exception of Yemen. What is really needed to help 
Yemen make substantial security gains?
    General Petraeus. Yemen faces internal threats with a rebellion in 
the north and a secessionist movement in the south. The conditions in 
Yemen must improve to deny al Qaeda in the Arabian Peninsula (AQAP) 
access to sanctuary and training camps--like the one used by the 
Christmas bomber. Since December 2009, Yemen has had some success in 
counter-terrorist operations against AQAP. Currently, the Republic of 
Yemen, under President Saleh, is maintaining a cease-fire with the 
rebels in the north who are adhering to the conditions set forth by the 
government. This cease-fire brings some stability and now permits the 
Government of Yemen to increase its focus on combating terrorism.
    In the past year, U.S. counterterrorism funding for Yemen has more 
than doubled from $67.2 million in fiscal year 2009 to $137.2 million 
in fiscal year 2010. This increase aligns with CENTCOM's plan to 
enhance the capability and capacity of the Yemeni security and 
counterterrorism forces. However, the challenges associated with 
Yemen's counterterror operations capability and capacity require a 
long-term, sustained commitment to a whole-of-government approach that 
addresses governance, security, and economic development. This program 
must include persistent U.S. Government engagement and security 
assistance to address these challenges. We must also continue to 
encourage other nations, both regionally and around the world, to 
assist Yemen with its security challenges and provide increased 
economic opportunities which address the conditions necessary for 
improved security.

                               tajikistan
    89. Senator Wicker. General Petraeus, Tajikistan recently held 
parliamentary elections in which the ruling party won almost 72 percent 
of the vote. Most outside observers, including the Office for 
Democratic Institutions and Human Rights, described the election as 
``failing on many basic democratic standards.'' The results also reveal 
some of the problems within this country. From what I have read, over 
70 percent of the population in Tajikistan live in abject poverty and 
over half of the labor force actually works in Russia or Kazakhstan. 
Some have predicted it is on its way to becoming a failed state. Since 
it shares over 800 miles of border with Northern Afghanistan, what 
occurs in Tajikistan is important to our efforts in Afghanistan. What 
is your assessment of the situation in Tajikistan?
    General Petraeus. Tajikistan is considered the poorest country from 
the former Soviet Union. Economic growth is limited due to extremely 
harsh environmental conditions, extremely limited sources of income, 
and rampant corruption. It is the second-most mountainous country in 
the world, and is routinely plagued by earthquakes, blizzards, floods, 
droughts, locust infestations, and extreme weather. Parts of the 
country are frequently cut off by snow, landslides, and avalanches. 
Floods in May 2009 caused an estimated $100 million in damage and 
required large amounts of immediate international assistance. 
Tajikistan remains heavily reliant on the Tajik Aluminum Company plant 
as its major source of foreign income, despite a one-third reduction in 
aluminum prices world wide. Its second-most important income source, 
remittances from citizens working in Russia, Kazakhstan, and other 
countries, has also been affected by the worldwide economic slowdown, 
which had some effect on the Russian and Kazakhstani economies. 
Furthermore, policies in Russia are forcing some Tajikistanis to return 
to Tajikistan or pay more in costs to live in Russia. Corruption at all 
levels causes international investors to view Tajikistan as a 
remarkably difficult place to do business. Tajikistan is also a major 
processing and transportation hub for narcotics emanating from 
Afghanistan. Tajikistan requires international assistance to meet its 
development and humanitarian needs.
    In addition to its economic and environmental plight, Tajikistan's 
government struggles to advance political reforms or improve governance 
to a level acceptable by western standards. There is little in the way 
of an organized opposition in the country. The upper military 
leadership is hand-picked and loyal to President Rahmon. Although the 
Tajiks are the best news is that Tajikistan remains mindful of the 
damage caused to its society by the civil war in the 1990s and there is 
a broad consensus that all want to avoid a relapse into such violence. 
The power-sharing arrangement that ended the civil war has gradually 
eroded over time.
    Tajik elections routinely fail to meet basic democratic standards, 
situation in Central Asia. Tajikistan does have a government-authorized 
political party formed specifically around an Islamic identity, the 
Islamic Renaissance Party of Tajikistan led by Muhiddin Kabiri. 
Recently, the government appeared to be increasing pressure on foreign 
religious organizations. Political parties in Tajikistan will require 
international assistance to reach effective political mobilization, and 
Tajikistan's laws have made rendering this assistance problematic.
    Internationally, the Government of Tajikistan is most enthusiastic 
about cooperation with the United States on counterterrorism, border 
security, and counternarcotics. Tajikistan joined the Global 
Peacekeeping Operations Initiative, and is committed to fielding a 
peacekeeping company by 2010. Tajikistan agreed to our request to allow 
transit of non-lethal supplies to our forces in Afghanistan. Continued 
security cooperation and improved economic assistance to Tajikistan not 
only contributes to regional stability by helping one of Afghanistan's 
neighbors, but also builds opportunity for other international 
assistance to address socio-economic and political freedom issues in 
Tajikistan.

    90. Senator Wicker. General Petraeus, are you concerned that 
Tajikistan could be a possible refuge for Taliban fighters and possibly 
other terrorist elements?
    General Petraeus. Tajikistan is an unlikely refuge for Taliban 
fighters and would not provide a sanctuary similar to the Federally 
Administered Tribal Areas in Pakistan. Although historical precedent 
indicates some Central Asian terrorist groups, such as the Islamic 
Movement of Uzbekistan, have used Tajikistan for refuge, current 
terrorist elements in Tajikistan are limited and small in number. The 
primary concern regarding Tajikistan is its use as a trafficking route 
for narcotics, weapons, and other illicit items that can be used to 
support and facilitate the insurgency in Afghanistan. Tajikistan has 
become a key route for smugglers due to a lack of resources to apply to 
border security; however, the Government of Tajikistan actively combats 
concentrations of suspected militants within its borders as evidenced 
by several operations against alleged extremists in the past year.

                                 israel
    91. Senator Wicker. General Petraeus, the Israeli-Palestinian 
conflict is obviously a central issue in the Middle East. Yet, Israel 
is the one Middle Eastern country not within your AOR. In some cases, 
like India and Pakistan, it can be very helpful to divide the AORs 
along political lines. Why should Israel be a part of U.S. European 
Command (EUCOM) and not CENTCOM?
    General Petraeus. Historically, Israel has been part of EUCOM. They 
have an established relationship that goes back many years that 
includes a long period of continuous contact enabling effective 
engagement with Israel on military-to-military activities. While some 
could argue the value of moving Israel into the CENTCOM AOR based on 
geography and the important role Israel plays in Middle Eastern 
events--I believe that the present arrangement best serves U.S. 
interests. The current theater boundaries allow CENTCOM to interact 
effectively with the current countries in our AOR. Any adjustments in 
the boundary now could have significant consequences and might 
negatively impact our access to key areas that support military 
operations in Iraq, Afghanistan, and the effort to counter piracy.

    92. Senator Wicker. General Petraeus, do you support moving Israel 
into CENTCOM?
    General Petraeus. I support the current COCOM boundary with Israel 
remaining assigned to EUCOM. CENTCOM has developed new relationships 
and strengthened partnerships across our region without the inclusion 
of Israel and believe there is no compelling reason to change the 
current arrangement. We coordinate very closely with EUCOM on 
significant events and issues that affect both our AORs, including 
those issues that center on Israel.
                                 ______
                                 
            Questions Submitted by Senator George S. LeMieux
                               venezuela
    93. Senator LeMieux. Admiral Olson, President Chavez has 
considerably deepened his country's cooperation with state sponsors of 
terror. Since 2007, there have been weekly Tehran-Damascus-Caracas 
flights that are not subject to appropriate checks. In January 2009 he 
called for, and the Venezuelan National Assembly obediently approved, a 
resolution calling for international recognition of the Revolutionary 
Armed Forces of Colombia (FARC) and the National Liberation Army as 
belligerent forces, rather than terrorist groups. In July 2009, the 
Colombian Government seized several sophisticated Swedish-made antitank 
rockets that had been originally sold to the Venezuelan army. The 
Venezuelan Government has yet to fully explain how these sophisticated 
weapons ended up in the hands of a terrorist organization for which 
President Chavez has ideological sympathies. On March 1, 2010, a 
Spanish judge accused the Basque separatist group ETA and Colombia's 
FARC of plotting to kill Colombian politicians in Spain with Venezuelan 
Government cooperation. Is Venezuela behaving like a state sponsor of 
terrorism?
    Admiral Olson. Since 1999, Venezuela, under President Hugo Chavez, 
has increasingly demonstrated domestic and international behavior 
patterns which mirror similar past behavior patterns of the four 
current state sponsors of terrorism which include Iran, Syria, Sudan, 
and Cuba. President Chavez's main international mission is to challenge 
U.S. interests in the Americas and around the globe. This mission is 
accomplished through the provisions of ``passive'' support to regional 
terrorist groups and paramilitary forces which presents an attractive 
safe haven or way-station for terrorists due to Venezuela's 
unwillingness to deny terrorists use of its territory. Corruption 
within the Venezuelan Government and military, ideological ties with 
the FARC and ELN, maturing relationships with the other state sponsors 
of terrorism, easily obtainable travel documents, and weak 
international counternarcotics cooperation are all factors that have 
helped to fuel a permissive operating environment for terrorists and 
drug traffickers. These factors may also lead to the potential increase 
in transit to the United States and Europe of illicit goods and 
activities.
    Under President Chavez's direction, Venezuela has provided 
political and logistical support to the FARC. Specifically, he has 
permitted senior FARC officials, such as Rodrigo Granda, Marin Arango 
(aka Ivan Marquez), and Rodrigo London Echeverry (aka Timochenko or 
Timoleon Jiminez) to move freely within Venezuela and across its 
international borders. Arango/Marquez currently plays an important role 
as an intermediary in developing international connections and support 
for FARC.
    On March 1, 2008, after a Colombian military strike against a FARC 
camp on Ecuador's side of the shared border resulted in the death of 
FARC's chief of staff, Luis Edgar Devia Silva (aka Raul Reyes) and 24 
FARC members and sympathizers, computers belonging to the FARC 
commander were retrieved. These computers yielded an intelligence 
bonanza for Colombia, including evidence from Reyes' computers that 
Chavez and his lieutenants were in frequent contact with FARC leaders 
and regularly discussing ways to assist the group with money, arms, 
logistical support, and strategic advice. Particularly worrisome was 
the readiness of Chavez's agents to propose up to $300 million in aid 
to FARC and to act as facilitators for FARC to acquire sophisticated 
weaponry, particularly surface-to-air missiles or manportable air 
defense systems.
    In September 2008, after a review of the intelligence collected 
from the Reyes laptops, the U.S. Treasury Department's Office of 
Foreign Asset Controls (OFAC) identified two senior Venezuelan 
officials--General Hugo Armando Carvajal Barrios, Director of 
Venezuela's Military Intelligence (DGIM); and Henry de Jesus Rangel 
Silva, Head of the Directorate of Intelligence and Prevention Service 
(DISIP), Venezuela's FBI; as well as former Justice and Interior 
Minister Ramon Rodriguez Chacin--as materially assisting FARC narcotics 
trafficking under the Kingpin Act. Carvajal, in particular, has long 
figured as a primary intermediary between the FARC and the Chavez 
Government.
    In July 2009, Colombian officials disclosed that their Army had 
recovered three anti-tank weapons from FARC. These weapons, AT-4 anti-
tank rockets, were swiftly traced back to their Swedish manufacturer, 
which reported the weapons were sold to the Venezuelan army in the 
1980s. President Chavez at first called the entire report false. Later 
he reversed this position, claiming the weapons were stolen in 1995 
during a FARC raid into Venezuela. Chavez could not explain why 
communications exchanges between FARC leaders in early 2007 that are 
documented in the Reyes laptops spoke of a recent transfer of ``85mm 
antitank rockets'' from Venezuela to FARC, precisely the weapons 
recovered by the Colombians.

    94. Senator LeMieux. Admiral Olson, in your opinion, should the 
United States designate Venezuela a state sponsor of terrorism?
    Admiral Olson. According to the DOS, there are currently four 
countries officially designated as state sponsors of terrorism--Iran, 
Syria, Sudan, and Cuba. Venezuela is not on the official list but their 
cooperation in the international campaign against terrorism has 
steadily declined over the past several years. President Chavez has 
been vocal in his public criticism of U.S. counterterrorism efforts, 
championing Iraqi terrorists, and deepening ties with state sponsors of 
terrorism such as Iran, Syria, and Cuba through increased military, 
and/or commercial cooperation.
    In addition, President Chavez's ideological sympathy for the FARC 
and the National Liberation Army (ELN) limits Venezuelan cooperation 
with the United States and Colombia in combating regional terrorism. 
The FARC, ELN, and other paramilitary groups often use the Venezuelan 
border region to secure logistical supplies, as well as support the 
transshipment of arms and drugs.
    At this time, Venezuela does not represent a direct military or 
terrorist threat to the United States, but Venezuela's ``passive'' 
support to regional terrorist groups and paramilitary forces, maturing 
relationship with state sponsors of terrorism and permissive operating 
environment for terrorists and drug traffickers suggest increased 
scrutiny by the United States is warranted.

    95. Senator LeMieux. General Petraeus, do you believe Iran is a 
growing threat to stability in our hemisphere based on their increased 
cooperation with Venezuela and other states hostile to the United 
States?
    General Petraeus. This assessment would be better answered by our 
intelligence agencies in conjunction with the Commander, U.S. Southern 
Command (SOUTHCOM).

                         information operations
    96. Senator LeMieux. General Petraeus, the insurgents seem to have 
a better network to get their messages out after an attack. To win the 
hearts and minds of the populace, we need to have a robust information 
environment that provides an accurate account of military operations; 
additionally, we need to be the first to admit to mistakes that lead to 
civilian casualties. What are we doing to counter the inaccurate and 
negative accounts of military operations in your AOR?
    General Petraeus. Unlike our adversaries, our mission is to be 
``first with the truth.'' Often times, getting to the truth takes time, 
but we're working hard to decrease the time it takes us to get our word 
out. We are currently adding a team of communicators, including 
language specialists, to the ISAF Joint Headquarters Joint Operations 
Center in Afghanistan to provide a rapid response capability, similar 
to the capability we had in Baghdad. By positioning professional 
communicators in the Joint Operations Center, they can monitor 
operations unfolding and plan in advance for events that require 
messaging and responses. These personnel also monitor media reporting, 
and work to correct factual errors as appropriate, while also providing 
accurate information quickly to news organizations in the language of 
the medium.
    A major investment is also being made in our information operations 
capability in Afghanistan with the recent stand up of the Information 
Operations Task Force, or IOTF, operating in the realms of PSYOPS, 
electronic warfare, computer network operations, operations security, 
and military deception. We formed this Task Force based on the lessons 
we learned in Iraq with the IOTF we had there, but the Afghanistan 
version has been considerably adapted to better operate in the vastly 
different information environment of that country, where literacy is a 
significant challenge and traditional communication and radio dominate 
as means of dissemination.
    Since the establishment of USFOR-A's IOTF, that organization is 
combating the insurgency's narrative daily, attacking not only the 
adversary's message but also attacking, both kinetically and 
nonkinetically, the adversary's messengers and their networks. Since 
achieving full operational capacity shortly after the turn of this 
year, the IOTF has established three major efforts with seven 
subordinate operations that serve to counter the adversary's 
propaganda, encourage the reintegration of low- to mid-level fighters 
back into Afghan society, target individual bad actors, and amplify the 
growing capacity and will of our uniformed partners in the ANA, the 
ANP, and Afghan Border Police as they assume more of the fight from 
U.S. and coalition forces.
    At CENTCOM headquarters, there are several communication activities 
we are currently engaged in to counter inaccuracies and negative 
reporting. We have implemented a headquarter-led Communication 
Integration Working Group that helps synchronize communication efforts 
across the AOR. This weekly collaboration and cross-purpose command 
function is a cornerstone activity that helps us effectively address 
communication issues and ensure more accurate reporting in the media 
and in social networks. We also have media watch personnel in the 
CENTCOM headquarters who monitor the press constantly while assessing 
press reporting. These analysts work hand-in-hand with senior military 
public affairs officers. A 24/7 operation, these media monitors also 
help to develop time sensitive press guidance and analysis on various 
issues. With all our communication activities, we continually strive to 
align our words, actions, and images to achieve desired outcomes.

    97. Senator LeMieux. General Petraeus, one of the tenets of SOF is 
the use of leverage to get results disproportionate to level of effort. 
Radio-in-a-box (RIAB) devices are currently being used to put out news 
and information including messages from U.S. forces. The last update I 
had on this program was over 1,500 of these sets had been distributed 
throughout Afghanistan. Has this been an effective strategy?
    General Petraeus. Use of RIAB is an effective strategy. Radio 
programming is the most common method of mass media in Afghanistan and 
reaches the largest audiences. This is due to high illiteracy rates (72 
percent of the population), lack of infrastructure in rural areas to 
provide terrestrial TV, cost of TVs, low satellite TV installation and 
reception, and very low internet penetration.
    The estimate of 1,500 RIAB systems distributed across Afghanistan 
appears to be too high. According to ISAF Joint Command (IJC) there are 
currently 123 RIAB systems operating in Afghanistan. There are an 
additional 50 RIABs in various states of repair.
    The majority of the RIAB systems belong to battle space owners and 
are operated by their information operations personnel. Most systems 
are run by contracted local nationals who provide information in the 
local dialect making the content more acceptable to the local 
population.
    The RIAB is an effective tool used to disseminate news, public 
service announcements, and command information to the local population. 
Improvements are planned in training, maintenance, and message 
synchronization to improve RIABs' usefulness to battle space 
commanders.

    98. Senator LeMieux. General Petraeus, have we put enough out or do 
we need more and are there other information operations (IO) we should 
be exploiting, but are not?
    General Petraeus. We must expand our capability to contest 
extremist groups and adversaries in the IO battle space, in particular, 
fourth generation communications (4G) will play a critical role in the 
years to come. 4G provides a secure and comprehensive all-IP-based 
solution where services (gaming, multi-media, ultra broad band 
internet, and IP telephony) can be streamlined instantly to the end 
user. Many countries within our area of operations skip a generation of 
communication infrastructure and move towards faster, real-time 
information platforms. Our ability to stay competitive with our 
enemies' dissemination of information is crucial to long-term success 
in the fight. Our adversaries understand the nature of this fight, and 
they use every method of influence available to them. The information 
space in which this war is fought has become increasingly complex with 
violent extremist groups displaying the ability to use emerging media 
conduits, including the expanded use of the Internet and Web 2.0 
technologies (mobile communications devices, blogs, social networking 
sites, et cetera) to recruit forces, solicit funding, share tradecraft, 
and spread their ideology. Extremist groups realize they cannot 
effectively defeat us or overthrow governments in the region through 
conventional military operations. Thus, they use the information 
environment as a key line of effort for their campaigns, and they use 
kinetic attacks to enable their IO and to kill and injure our forces, 
our partners, and innocent civilians.

    99. Senator LeMieux. General Petraeus, what is the training 
pipeline for soldiers who conduct IO?
    General Petraeus. The Services have the mission of providing 
trained IO personnel to the combatant commanders. Each Service has a 
different method of accomplishing this task, based on its institutional 
history, mission, and organization.
    The Army has several Military Occupational Specialties (MOS) 
involved in IO for both officers and enlisted. Functional Areas (FA) 
within the IO construct include FA 30 Information Operations Officer, 
FA 29 Electronic Warfare, FA 37A PSYOP Officer, and FA 59 Strategic 
Planner. There are school houses at various installations, such as Fort 
Leavenworth's Combined Arms Center, that function as educational 
establishments and functional proponents.
    The Air Force, in contrast, does not have a dedicated IO Specialty 
Code. The Air Force IO Career Field is managed via Special Experience 
Identifiers (SEIs) and an Air Force Specialty Code (AFSC). These 
identifiers and codes are awarded for attending training, on the job 
experience, and based on a commander's recommendation.
    The Navy has established the Information Dominance Corps to lead 
and manage a cadre of officers, enlisted and civilian IO professionals. 
IO personnel are given functional training, and acquire advanced 
education and significant experience. Officers are given an IO 
designation and enlisted personnel get Navy Enlisted Codes (NECs) upon 
accomplishing established prerequisites.
    The Marine Corps IO Force does not have a primary MOS, but does 
have four additional MOSs to designate IO specialists. Like the Air 
Force and Navy, the Marine Corps requires their IO specialists to meet 
educational goals, on the job training, and successful completion of 
Active Duty tours to be awarded specific MOSs.
    The combatant command has the responsibility to provide correct 
demand signals to the Services so they provide the right numbers of 
people, with the right skills, at the right time. This is done through 
the Joint Manning Document and Joint Lessons Learned.

    100. Senator LeMieux. General Petraeus, how is the private sector 
being utilized to help the military adopt the best practices for IO?
    General Petraeus. We place heavy emphasis on the best commercial 
solutions to achieve our military information objectives. Specifically, 
we have sought the largest and most successful global firms, and the 
most cutting edge technologies to provide the scope, breadth, and reach 
needed to effectively counter our adversaries.
    Some areas to which we have applied commercial best practices 
include a true `integrated,' open source Web 2.0 (applications that 
facilitate interactive information sharing, interoperability, and 
collaboration, such as Facebook) multimedia platform and accompanying 
social networking platform with Consumer Generated Content Monitors to 
engage online social networks. This effort has provided the capability 
to counter rapid dissemination of extremist influence, reduce support 
for extremist ideology, methodology, and leadership.
    We continue to apply best industry practices and seek out 
commercial off-the-shelf solutions in the marketing realm to bridge the 
technological gap, and we will continue to invest in research and 
development capacity to seek out and exploit emerging technology to 
stay ahead of our adversaries.

    101. Senator LeMieux. General Petraeus, how are we empowering the 
Afghans to spread news more rapidly to local populations?
    General Petraeus. There are three current IO programs that are 
designed to enhance communication throughout Afghan local populations. 
One program is conducted by Task Force 41 (TF41). Two programs are 
conducted by the Military Information Support Team (MIST), which is a 
seven-man team assigned to the U.S. Embassy in Afghanistan to provide 
military support to public diplomacy for the country team.
    Within the MIST, a program called ``The Voices of a Nation'' has 
been established to empower the Afghan population to spread news more 
rapidly. This program educates the Afghan population on principles of 
democracy, and provides students with the means to develop and 
disseminate moderate messages throughout Afghanistan. Voices of a 
Nation trains and equips Afghanistan university students to provide a 
native message to counter extremists and insurgent messaging.
    Another MIST initiative includes University Media Infrastructure 
Upgrades. These upgrades at Kabul University, Jalalabad University, 
Mazar-e Sharif University, Herat University, Kandahar University, and 
Khost University include structural construction and renovation, 
digital equipment upgrade, radio production and broadcast capability, 
television production capability, print production, and publication 
capability. Like Voices of a Nation, this initiative supports 
university students' ability to counter insurgent messaging. DOD is 
providing only technical support to this effort which is led by DOS.

    102. Senator LeMieux. General Petraeus, I thought DOS was the 
agency in charge of public diplomacy; however, it seems like DOD is 
encroaching into public diplomacy through IO. Please explain how IO is 
not another form of the public diplomacy role that has always been 
associated with DOS.
    General Petraeus. It would not be accurate to characterize Military 
Information Operations as another form of Public Diplomacy, primarily 
because they have clearly different objectives. DOD, and particularly 
CENTCOM, focus our Military Information Operations toward fighting the 
enemy in the information domain. We see Public Diplomacy efforts 
focused primarily toward promoting U.S. polices and values abroad. 
Frankly, DOS has been under-resourced in this area. Clearly, there is 
overlap of domains, but not overlap of purpose.
    Our extremist adversaries are engaged in an information war for the 
hearts and minds of men and women throughout the CENTCOM AOR. To 
counter this threat, we must use IO to attack the enemy along four 
critical lines of operation: command and control, funding, recruiting, 
and training. We must also counter the violent extremist ideology that 
permeates and enables these four areas.
    To do this, IO exploit as many information conduits as possible to 
achieve desired effects against our enemy.

    103. Senator LeMieux. General Petraeus, I understand that you are 
requesting funding for IO--what is this funding for?
    General Petraeus. The funding is for Operation Earnest Voice (OEV), 
which is CENTCOM's primary nonkinetic information operation tool to 
degrade enemy recruiting and fund raising support. Our adversaries are 
adept at exploiting misinformation and cultural differences to recruit 
and raise funds for their operations. OEV provides us the ability to 
degrade the enemy's recruiting and funding efforts by directly 
countering their narrative and by amplifying the message of those who 
stand against violent extremist ideologies.
    Currently, we have two major ongoing operations: the Regional Web 
Interaction Program (RWIP) and Credible Voices Program (CVP). RWIP 
requires an additional $6.1 million for continued capability and 
expansion. RWIP focuses on informing and influencing foreign target 
audiences to counter violent extremist ideology and enemy propaganda, 
and amplify messages of credible voices to reduce VEO effectiveness in 
soliciting recruits and financial support for their operations.
    CVP line of operation requires an additional $38.5 million to 
effectively use web-based operations to link disparate credible 
networks and organizations to counter our adversaries' messages of 
violence. The program's objective is to expand and amplify moderate 
messages within the contested information space to reduce extremists' 
effectiveness in soliciting recruits and gaining financial support.
    IO requires robust recurring funding in order to stop the enemies' 
recruiting, training, and their financial support. Full funding for 
RWIP and CVP will put us a step ahead of our enemies' efforts and allow 
us many opportunities to stop terrorist activities before they happen.

    104. Senator LeMieux. General Petraeus, in fiscal year 2010, the 
Appropriations Committees of Congress cut your IO budget approximately 
in half. What operations were affected by a budget cut of this 
magnitude?
    General Petraeus. The areas affected by the budget cut are the two 
critical operational activities conducted at CENTCOM to interdict VEO 
recruiting and funding raising efforts. These activities are the RWIP 
and CVP.
    RWIP focuses on informing and influencing foreign target audiences 
to reduce VEO effectiveness in soliciting recruits and funding by 
countering violent extremist ideology and enemy propaganda, and amplify 
messages of CVP.
    To date, monthly assessments of the RWIP show the positive effects 
the program has on the tone of discussion threads by shifting sentiment 
away from support of VEO. We strongly believe this leads to decreases 
in recruits, funding support, and save havens, all of which are 
critical enablers to the enemy's fighting capability.
    The budget decrement has impeded our ability to reach full 
operational capacity, and has delayed our ability to counter the 
violent extremist ideology that sustains their ability to fight, 
recruit, train, and gain funding.
    The CVP uses web-based operations to link disparate credible 
networks and organizations to counter our adversaries' messages of 
violence. The program's objective is to expand and amplify moderate 
messages within the contested information space to reduce extremists' 
effectiveness in soliciting recruits and funding.
    The themes of CVP products directly counter VEO narratives to 
interdict their ability to seek recruits, funding, and additional 
support for their military objectives.
    PSYOPS doctrine requires long-term and repetitive messaging to 
change attitudes, perceptions, and ultimately behaviors. However, the 
current budget allocation prevents our ability to deliver a persistent 
capability to amplify CVP throughout our area of operation.

new headquarters for special operations command south at homestead air 
                               force base
    105. Senator LeMieux. Admiral Olson, I understand the President's 
budget includes $41 million in the Army military construction account 
to construct a new headquarters for Special Operations Command South 
(SOCSOUTH) at Homestead Air Force Base (AFB). Could you please explain 
the need for this new facility?
    Admiral Olson. SOCSOUTH requires permanent facilities. They have 
been occupying temporary, hurricane-susceptible modular facilities on 
Homestead Air Reserve Base (ARB) ever since their relocation from 
Puerto Rico in 2004.

    106. Senator LeMieux. Admiral Olson, would you please explain why 
Homestead AFB was chosen as the preferred site?
    Admiral Olson. It is ultimately the GCC's decision where their TSOC 
headquarters will be located. Operationally and logistically, it makes 
the most sense for TSOCs to be located as close as possible to the 
GCC's headquarters in order to facilitate command and control. SOCSOUTH 
has been occupying temporary modular facilities on Homestead ARB ever 
since its relocation from Puerto Rico in 2004. Homestead ARB provides 
SOCSOUTH the benefit of close proximity to the SOUTHCOM headquarters, 
while also effecting rapid and efficient access to the SOUTHCOM region. 
The proximity to the military airfield on Homestead ARB provides ample 
staging capability to facilitate rapid deployment of SOF into the 
SOUTHCOM AOR, as was demonstrated by the recent Haiti earthquake 
disaster response.
                                 ______
                                 
               Question Submitted by Senator David Vitter
                       non-military stakeholders
    107. Senator Vitter. Admiral Olson and General Petraeus, as CENTCOM 
and SOCOM commanders, please provide your assessment of the evolving 
and growing relationship between DOD and non-military stakeholders such 
as the DOS and USAID. The efforts of these non-military entities are 
crucial to the overall success of virtually every major military effort 
we are engaged in today. In your assessment, please include an 
evaluation of the ability of DOS to execute its role as lead agency in 
stability operations.
    Admiral Olson. The relationship between SOCOM and non-military 
stakeholders, such as DOS and USAID, has been evolving and deepening 
over the past years. The level of success we have achieved thus far is 
a result of three main efforts: developing long-term relationships, 
creating and participating in predictable collaborative events, and 
education. Specific examples of success to date include the high level 
of coordination that was achieved between SOCOM and USAID during the 
recent Haiti earthquake disaster. Due to the fact that SOCOM and USAID 
had a developed and mature partnership program prior to the crisis, the 
two organizations were able to quickly and effectively respond. Other 
examples include SOCOM's ongoing collaboration with Ambassador 
Benjamin's office (DOS S/CT), NCTC, and other agencies in the 
development of deradicalization programs to counter violent extremists. 
Regardless of which organization has lead, operations--to include 
stability operations--are best executed when all organizations involved 
establish transparent collaborative events that seek to develop a 
common understanding of the problem-set, inform leadership of issues 
and impediments, and develop synchronized actions that leverage the 
full capabilities and authorities of the whole-of-government.
    General Petraeus. The interagency, whole-of-government approach has 
greatly improved since the start of OEF. In fact, it is now nearly 
impossible to believe that only one government agency has the ability 
to conduct successful stability operations by itself. Success requires 
the full strength and capabilities that only a whole-of-government 
approach can provide. DOS has made significant progress in improving 
their expertise available on the ground in Afghanistan. As of April 1, 
2010, there are over 1,000 civilians in country. U.S. civilians have 
established DSTs in 32 of ISAF's focus districts with an additional 8 
DSTs scheduled for activation in 2010.
    CENTCOM is in constant contact with Ambassador Holbrooke and we 
hold weekly meetings to address critical civilian-military 
effectiveness issues. In fact, I believe that the partnership between 
the government agencies and departments working in Afghanistan is the 
strongest seen to date. To enhance our ability to work as a strong 
reliable partner, CENTCOM has embedded members of other U.S. Government 
agencies in our headquarters. These interagency experts provide key 
links into their parent organizations and are full members of the 
command that work closely to shape strategic-level planning on 
counterterrorism, counternarcotics, and humanitarian assistance.
    DOS is more than capable of taking over the lead role for stability 
operations in Afghanistan. As was proven after clearing operations for 
Operation Moshtarak, DOS along with USAID deployed several staff 
members, contractors, and coalition partners to initiate stability 
operations that included infrastructure repairs, agricultural 
initiatives, emergency humanitarian assistance, civil administration 
development, and political outreach.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
                              afghanistan
    108. Senator Collins. General Petraeus, last August when I traveled 
to Afghanistan with Senators McCain, Lieberman, and Graham, we received 
a bleak report from General McChrystal. In essence, he told us that the 
Taliban had the momentum and that the situation was serious and 
deteriorating. What is your current assessment of the situation in 
Afghanistan compared to the August assessment of General McChrystal?
    General Petraeus. The security situation in Afghanistan remains 
serious but is no longer deteriorating. We have made progress in 
Afghanistan since last August 2009 in strategy, manning, and the 
overall situation on the ground. We have the right strategy that 
addresses building the ANSF and creates the security structure needed 
for good governance and development to take place. We have the troops 
ready to take the initiative and momentum away from the insurgency as 
we get close to having most of the 30,000 additional troops in place. 
The organizational, leadership, strategy, and resource initiatives we 
have worked this past year have already begun to change the dynamics in 
important ways. The loss of innocent life, for example, has been 
dramatically reduced in the past year.
    No doubt, 2010 will be a tough year and I expect that the endeavor 
in Afghanistan will, as was the case when we conducted the surge in 
Iraq, become harder before it gets easier. However, I believe we will 
soon begin to see the positive results of our planning and operational 
efforts.

                                  iraq
    109. Senator Collins. General Petraeus, following last week's Iraqi 
election, General Odierno said that the United States is sticking with 
its plan to draw down troops to 50,000 by the summer and that the ISF 
will be ready by the end of next year to take complete responsibility 
for security in Iraq. However, there have been some recent reports that 
the Iraqis are hedging as to their commitment to ending U.S. military 
involvement in 2011 and Prime Minister Maliki raised the possibility of 
asking U.S. forces to remain beyond the 2011 deadline. In your opinion, 
will the Iraqis be ready to assume control when U.S. forces draw down 
to 50,000 troops?
    General Petraeus. The ISF are on track to achieve the MEC to assume 
full control of internal security on December 31, 2011; however, the 
ISF will require continued assistance as they progress towards the MEC 
necessary for external security. Through General Odierno and our U.S. 
forces in Iraq, we continue to work on improving their external 
security capabilities with increased training and equipping.
    The Iraqi Army continues to make steady progress toward MEC but 
will not achieve the necessary foundation for defense against external 
threats before December 2011 due to equipment procurement timelines and 
subsequent training requirements. Specifically, equipping, training, 
and combined arms integration of the M1A1 fleet, artillery units, and 
key mechanized enablers will not be complete prior to December 2011.
    The Iraqi Navy is on track to achieve MEC by December 2011, 
although there are risks if shortfalls in manning, C4ISR, maintenance, 
and infrastructure are not adequately addressed. The Iraqi Navy will 
assume responsibility for protection of the oil platforms in 2011. Due 
to the importance of these oil terminals to the Iraqi economy, a higher 
level of capability is required.
    The Iraqi Air Force is on the path to achieving MEC by the end of 
2011 in all mission categories except airspace control and fixed-wing 
airlift. Specifically, multi-role fighter, long-range radar, and C-130J 
delivery and fielding will not be complete prior to December 2011. The 
Iraqi Air Force's December 2011 goal is the development of a capability 
to support ISF COIN operations and have an initial air sovereignty 
capability in place. Delayed execution of the Iraqi Air Force Service 
Plan and lack of funding for acquisitions, accessions, contract 
logistics support, and sustainment of current fleet all present 
obstacles to achieving the capability to conduct minimal air 
sovereignty operations by December 2011.
    Although the ISF are not on track to achieve MEC for external 
security by the end of 2011, the Office of Security Cooperation-Iraq 
will continue the training and equipping process post December 2011 to 
attain MEC for external security.

    110. Senator Collins. General Petraeus, according to the Pentagon's 
most recent quarterly report to Congress on Iraq, ``Iran continues to 
fund, train, equip, and give some direction to residual Shia militias 
and extremist elements in Iraq.'' How much influence does Iran have in 
Iraq?
    General Petraeus. Iran still has a significant amount of influence 
in Iraq which it exerts via the primary Shia militias it supports, such 
as Asa'ib al Haqq (AAH) and Kata'ib Hizballah (KH), as well as 
political influence through a variety of different Iraqi interlocutors 
within the Government of Iraq. However, Iran has experienced setbacks 
to its influence campaign, such as Prime Minister Maliki's March 2008 
``Operation Charge of the Knights'' where Iranian-backed Shia militias 
were forced out of key terrain in Iraq, and the passage of the U.S.-
Iraq Security Agreement, which Iran vehemently opposed.
    The Iraqi election is a more recent case study on Iranian influence 
in Iraq and may illustrate Iran's current ability to exert influence. 
Iran desires a weak Shia-dominated central government in Iraq, amenable 
to Iranian influence. Iran would like the two rival Shia parties, Iraqi 
National Alliance (INA) and Prime Minister Maliki's State of Law (SoL), 
to unite following the 7 March 2010 elections. Though it is still too 
early to tell whether Iran will be able to successfully mediate the 
disputes between INA and SoL, Iran's ability to do so may produce an 
Iraqi Government willing to seek counsel and support from Iran. 
Regardless of whether such a union emerges, Iran will retain some 
degree of influence over the Iraqi Government through individual Iraqis 
with longstanding cultural, religious, political, and financial ties to 
Iran.
    There continues to be evidence of Iran's support to multiple Shia 
militias in Iraq via the Islamic Revolutionary Guards Corps-Qods Force 
(IRGC-QF). The Government of Iraq's willingness to confront Tehran, 
coupled with an aggressive U.S. force protection posture, did have an 
impact on IRGC-QF's support to these militias. It appears the impact 
was temporary as both AAH and KH continue to receive training, funding, 
safe-haven, and guidance from the IRGC-QF. While we assess the quantity 
of IRGC-QF's provision of lethal aid has decreased, the sophistication 
of the weaponry IRGC-QF provides has increased over the same period.

    111. Senator Collins. General Petraeus, you testified that no 
captured terrorists in your AOR have been sent for detention in 
Guantanamo during the last 18 months. Where are captured terrorists 
being held?
    General Petraeus. Captured enemy combatants who are not released or 
turned over to the host nation are held by U.S. forces in one of two 
theater internment facilities (TIFs). The U.S. TIF in Iraq, Camp 
Cropper, is located in Baghdad. The U.S. TIF in Afghanistan, also known 
as the Detention Facility in Parwan, is located on Bagram Air Field.

    [Whereupon, at 12:20 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                         FRIDAY, MARCH 26, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

  U.S. PACIFIC COMMAND, U.S. STRATEGIC COMMAND, AND U.S. FORCES KOREA

    The committee met, pursuant to notice, at 9:04 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Akaka, Ben Nelson, Kaufman, LeMieux, and Burr.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; 
Jessica L. Kingston, research assistant; Jason W. Maroney, 
counsel; Roy F. Phillips, professional staff member; and 
Russell L. Shaffer, counsel.
    Minority staff members present: Michael V. Kostiw, 
professional staff member; Daniel A. Lerner, professional staff 
member; and Dana W. White, professional staff member.
    Staff assistants present: Jennifer R. Knowles, Brian F. 
Sebold, and Breon N. Wells.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Christopher Griffin and Vance 
Serchuk, assistants to Senator Lieberman; Nick Ikeda, assistant 
to Senator Akaka; Ann Premer, assistant to Senator Ben Nelson; 
Halie Soifer, assistant to Senator Kaufman; Lenwood Landrum, 
assistant to Senator Sessions; Clyde A. Taylor IV, assistant to 
Senator Chambliss; Victor Cervino and Brian Walsh, assistants 
to Senator LeMieux; and Kevin Kane, assistant to Senator Burr.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Today, we're going to be hearing from three of our 
combatant commanders to receive testimony regarding the issues 
and the challenges that they face in their respective mission 
areas.
    On behalf of the committee, let me welcome back General 
Chilton, Commander of our U.S. Strategic Command (STRATCOM); 
Admiral Willard, Commander of the U.S. Pacific Command (PACOM); 
and General Sharp, Commander of the United Nations Command 
(UNC), Combined Forces Command (CFC), and U.S. Forces Korea 
(USFK).
    This committee appreciates your many years of faithful 
service to this country and the many sacrifices that you and 
your families make in that cause. We would appreciate your 
thanking, on behalf of our committee, the men and women that 
you lead, both military and civilian, for their service, their 
patriotism, and their dedication.
    We also want to thank you for rearranging your schedules to 
be here this morning. We know these hours that you have here 
are precious, and we thought it would be better to go ahead 
today, even though our attendance is going to be less, rather 
than to bring you back at some future time, which would really 
disrupt your schedules. The rather arcane rule of the Senate 
that was used to prevent us from meeting on Wednesday is still 
a rule of the Senate, and as long as it's there, somebody can 
exercise that right. It was exercised, and, as a result, 
inconvenienced you and many members of this committee, as well. 
But, that's where we are, so thank you for your flexibility in 
this matter.
    Today's hearing, we're going to hear the views and 
assessments of senior U.S. Commanders in the Asia Pacific 
region, together with the global perspectives of STRATCOM for 
those issues that pertain across the combatant commands.
    First, on PACOM: U.S. PACOM's geographic area of 
responsibility (AOR) is home to over half of the world's 
population and to five of the world's six largest militaries. 
Stability and security in this vast region is vital to our 
interests, as well as to the interests of our allies and our 
partners. While the region as a whole remains relatively 
stable, we cannot afford to take this stability for granted. We 
must remain vigilant in the region and reassure our allies that 
we will continue to work with them to further our mutual 
interests.
    The situation on the Korean Peninsula remains tense, 
although relatively quiet compared to a year ago, when North 
Korea's aggressive rhetoric, multiple ballistic missile test 
launches, and nuclear detonation heightened regional concerns 
and resulted in a tightening of U.N. sanctions.
    In recent months, the United States and North Korea have 
had modest bilateral discussions in a effort to regain traction 
in the Six-Party process, but there's been no meaningful 
progress so far.
    Since nuclear inspectors left North Korea last year, the 
status of North Korea's nuclear program has been largely 
unknown. While the nuclear issue garners much of the 
international attention, also of concern is the apparent 
unstable nature of the North Korean regime, coupled with a 
conventional military capability that represents a significant 
threat to security on the peninsula.
    China's influence continues to grow regionally and 
globally, and, at the same time, China continues to grow its 
military. It is important to anticipate and understand the 
intended and unintended consequences of these developments on 
the region at large. As China's influence and military grow, 
traditional alliances and partnerships in the region may come 
under pressure from a perception that the balance of power is 
shifting, and other countries in the region may deem it 
necessary to grow their militaries, as well. Such developments 
need to be understood and inform our decisionmaking.
    China's growing involvement with Iran, including investment 
in the Iranian energy sector, is an example of China's global 
influence expansion efforts. China is the primary obstacle to 
more stringent United Nations Security Council sanctions 
against Iran.
    In Japan, the installation of a new government last summer 
represented new challenges and opportunities in the 
longstanding defense relationship between our countries. For 
instance, the Defense Policy Review Initiative (DPRI), 
negotiated between our two countries over a number of years, 
and agreed to in 2006, has been the subject of renewed 
consideration by the Japanese, particularly as it relates to 
the movement of U.S. marines on Okinawa and the relocation of 
some of those marines to Guam. This matter needs to be 
resolved, as does the impact of the associated military buildup 
on Guam, and the details of the plan to ensure that the influx 
of military personnel and their families is done with due 
regard to the effects on the Island of Guam and their 
population.
    The committee is also interested in U.S. efforts in the 
Asia Pacific region to provide humanitarian assistance and 
disaster relief, to expand the already strong partnerships with 
friends like Australia and India and others, and to combat 
violent extremism, particularly in Southeast Asia.
    STRATCOM has global responsibilities that require it to 
work with all the combatant and regional commands. STRATCOM's 
broad mission includes both operational and coordinating 
responsibilities. The Command has operational responsibility 
for strategic deterrence in space and cyberspace operations. It 
coordinates actions across the Commands in areas of missile 
defense, combating weapons of mass destruction (WMD), 
allocation of high-demand/low-density intelligence, 
surveillance, and reconnaissance (ISR) assets, such as unmanned 
aerial vehicles, and helps integrate information operations. 
Also, with the growing threat to cyberoperations, the new Cyber 
Command (CYBERCOM) is being established as a subunified command 
of STRATCOM.
    Very shortly, we expect to have a new treaty, which will be 
the successor to the Strategic Arms Reduction Treaty (START), 
and a new Nuclear Posture Review (NPR). Both of these are 
expected to bring about new and carefully considered changes to 
the role of nuclear weapons and national strategy, and the size 
of the stockpile to support that role. We hope to hold hearings 
on the NPR when both are submitted to Congress. General 
Chilton, as Commander of STRATCOM, will play an important role 
in the ratification process, and we look forward to working 
closely together in that process.
    A second domain over which STRATCOM has responsibility is 
space. As the leading spacefaring nation, the United States 
must sustain and protect its space assets. On the other hand, 
how these space assets actually contribute to military 
operations is not always well understood. Today we have an 
opportunity, with Admiral Willard and General Sharp here, to 
explore the importance of space systems and what would happen 
to our military capabilities if these assets were lost or 
degraded.
    Finally, the role of the military and combating WMD, and 
how these capabilities are integrated with other elements of 
the U.S. Government and the international community, is an 
additional challenge confronting both STRATCOM and PACOM.
    The Asia Pacific region continues to be one of the hotbeds 
of proliferation for both nuclear and missile technologies. 
There is continuing evidence of nuclear smuggling in the region 
and around the world that each regional commander must address 
in a coordinated fashion. We look forward to hearing from our 
witnesses about that.
    It's a pleasure to have each of you with us this morning. 
We look forward to your testimony and to the questions. I 
don't--I know that General--that Senator McCain was unable to 
make it here this morning.
    Senator Burr.

               STATEMENT OF SENATOR RICHARD BURR

    Senator Burr. Mr. Chairman, thank you for the recognition.
    Before I ask that Senator McCain's remarks be put in the 
record, since I feel somewhat personally responsible for this 
Friday hearing, I would like to say to the Chair and to my 
colleagues what I have said to our panel of witnesses 
privately, that I certainly do apologize for the delay in the 
hearing and causing this Friday hearing. Sometimes things are 
out of our control as it relates to the functions of the 
Senate.
    I would ask, at this time, that Senator McCain's entire 
opening statement be included in the record.
    Chairman Levin. Thank you. It will be included in the 
record.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Thank you, Mr. Chairman. I join you in welcoming our witnesses 
today. I am grateful to each of you for your long and distinguished 
service to our country, and I hope that you will convey my sincere 
appreciation to all the courageous men and women under your command.
    Our Nation faces significant challenges around the world--and in 
few places are those challenges more complicated than in the Asia-
Pacific region. Asia's economies and militaries are growing in strength 
and influence. Our Nation has long relied on our strong alliances with 
Japan, South Korea and Australia to promote security in the region--and 
increasingly, beyond it as well. Today, more than 2,000 troops from the 
Asia-Pacific region are serving and sacrificing alongside our men and 
women in uniform in Afghanistan.
    In addition, allies like the Philippines and partner nations like 
Indonesia are working with us to counter violent extremists in their 
own countries. The Filipino military has made great strides in 
combating Abu Sayyaf, an al Qaeda affiliate, in the southern 
Philippines. Despite a hiatus in our military relationship with 
Indonesia, the U.S.-Indonesia partnership has proven to be invaluable 
in the fight against violent extremists in the region. We should work 
to build our relationship with Indonesia into a genuine strategic 
partnership to tackle today's global threats.
    Beyond combating terrorism, the United States must forge deeper and 
more comprehensive partnerships with other emerging powers in Asia--
with Vietnam, Malaysia, and especially India, among others. Our 
relationship with New Delhi has never been simple, and it never will 
be, but the fact is, we are now expanding our strategic partnership 
with India to address issues not only of regional, but of global, 
importance: from nonproliferation and cyber security, to humanitarian 
assistance and the promotion of freedom. Our Nation has vital interests 
in the Asia-Pacific region, and it is imperative that we expand the 
circle of capable friends and allies who can help us share the burden 
of long-term security.
    General Sharp: I am encouraged by the progress that U.S. Forces-
Korea has made in transitioning the U.S. Headquarters Command into a 
Combined Forces Command. I am also pleased to hear that South Korea 
will deploy 350 troops to support a Provincial Readiness Team in 
Afghanistan in July. I look forward to hearing your assessment of the 
current readiness of South Korean forces and your thoughts about the 
recent claim that North Korea has increased its missile arsenal by 25 
percent in the last 2 years, a total of some 1,000 missiles, including 
intermediate range missiles that can hit all of Japan and threaten 
Guam.
    Admiral Willard, our relationship with China is complicated. I 
believe that a U.S. partnership with a strong and successful China--a 
China that shares the responsibilities, not just the benefits, open 
regional and international order--can be an important force for 
stability in the 21st century. But many of China's actions at present 
are very worrisome.
    I am concerned by Beijing's ongoing and largely opaque military 
build-up, including anti-satellite and anti-access capabilities, as 
well as other new and significant tools of power projection. I am 
concerned about China's irregular engagement with U.S. vessels and 
their aggressive sovereign aspirations in international waters--further 
exacerbating existing regional maritime disputes. I am deeply concerned 
by China's increasing willingness to use its rising power to shield and 
support some of the worst behavior by some of the world's most 
destabilizing actors, especially the Government of Iran. Admiral 
Willard, I look forward to your assessment of China's growing 
capabilities, its strategic intentions, and its conduct in common 
global spaces--air, sea, land, and space.
    Finally, General Chilton, as Commander of U.S. Strategic Command, 
you are responsible for the health and readiness of our strategic 
deterrent. While we have yet to see the President's delayed Nuclear 
Posture Review, the current condition of the nuclear complex is not 
sustainable. In order to responsibly reduce the size of our arsenal, we 
must provide the resources necessary to recapitalize and modernize the 
long-neglected infrastructure responsible for ensuring the safety, 
security, reliability, and credibility of our national deterrent. While 
the fiscal year 2011 budget request is a step forward in making the 
necessary investments for modernization, a sustained long-term 
commitment is essential. I look forward to hearing from you how well 
the proposed fiscal year 2011 funding addresses the vital needs of our 
stockpile.
    While our troops face many formidable challenges in the world, 
especially in Iraq and Afghanistan, we cannot lose sight of the need to 
enhance our global capacity to deter threats, defend friends, defeat 
enemies, and provide needed humanitarian assistance. All three of you 
are a credit to your service and to our Nation. I thank you all, and I 
look forward to your testimony.
    Thank you, Mr. Chairman.

    Chairman Levin. Senator, it is very clear that the delay 
here was not your doing whatsoever. You had nothing to do with 
it, except you happened to be on the floor at the moment when 
someone else wanted to raise an objection, and you did what you 
are, I think, dutybound to do as a member of your caucus, which 
is to reflect that objection. But, it's clear that you had 
nothing to do with it, except being at the wrong place at the 
wrong time, basically.
    So, we will now--I think we're going to be calling on our 
witnesses in the order--going from our left to your right, I 
believe.
    So, General Chilton, we're going to start with you and then 
we're going to move down the table.

   STATEMENT OF GEN. KEVIN P. CHILTON, USAF, COMMANDER, U.S. 
                       STRATEGIC COMMAND

    General Chilton. Very good. Thank you, Senator.
    Chairman Levin, Senator Burr, and members of the committee, 
thank you for the opportunity to testify today. I assure you, 
sir, it's no burden for us to reschedule and appear before this 
committee.
    It's a great honor to represent the extraordinary men and 
women of STRATCOM. I'm privileged to showcase this joint team's 
achievements, discuss our requirements, and highlight future 
national security challenges across our diverse and global 
mission areas.
    STRATCOM's Active Duty, Reserve military members, 
civilians, and contractors form a superb joint team, whose 
dedicated planning, advocacy, and operational execution efforts 
advance our warfighting priorities. We continue to strengthen 
and sharpen our focus on deterrence, while at the same time 
focusing on preserving our freedom of action in space and 
cyberspace.
    In all of these efforts, we greatly appreciate the support 
of Members of Congress, and particularly this committee and 
your staff, whose legislative investments across our mission 
areas enable us to deliver global security for America.
    Over the past year, we have actively supported the 
administration's four major defense policy reviews, which 
uniquely impacted STRATCOM: the Quadrennial Defense Review, the 
NPR, the Ballistic Missile Defense Review, and the Space 
Posture Review, which is still in work. We also provided 
analytical and intellectual capital to the New START treaty 
negotiations. While not all yet completed, these reviews will 
shape the role of our strategic capabilities and define the 
investments necessary to recapitalize and sustain them.
    Their focus areas also highlight STRATCOM's place at the 
nexus of today's national security challenges. Global security 
in general, and the United States specifically, face a myriad 
of challenges today, from economic and political turmoil, 
nontraditional threats, terrorism, and continuing oversea 
contingency operations. Actors continue to seek ways to 
challenge the United States and our allies and the conventional 
and asymmetric means by which to do so.
    STRATCOM remains committed to conducting deterrence, space, 
and cyberspace operations, and advocating for the capabilities 
our national leadership and geographic commanders need each and 
every day in the areas of missile defense, information 
operations, ISR, and combating WMD.
    In the deterrence arena, our energetic exercise program 
conducted Exercise Global Lightning 2009 this past year, the 
most extensive nuclear command and control and communications 
field exercise in over a decade. Our forces' success proved 
America's well-placed confidence in our Nation's strategic 
deterrent and our--and demonstrated the success of this 
Command's effort to reemphasize a culture of excellence across 
the nuclear enterprise.
    In space, our acceptance of the Space Situational Awareness 
Sharing Mission expanded the Command's relationships with 
international and commercial partners toward ensuring a safe 
and responsibly managed space domain. Future space surveillance 
and situational awareness efforts and space investments must 
continue to build on recent advances, including greater 
collision avoidance analysis to ensure the availability of 
essential space-based capabilities for, not only the United 
States, but for our warfighters.
    Moreover, the Department of Defense (DOD) sustained its 
progress in defending DOD information networks by unifying 
STRATCOM's components for network warfare and global network 
operations, by increasing the training of cyberprofessionals, 
and by welcoming the standup of service cybercomponents. We 
carefully planned for the standup of CYBERCOM and look forward 
to the confirmation of its first commander. Additionally, in 
the past year, we dramatically expanded our military-to-
military outreach program to promote open dialogue and examine 
the possibility of new partnerships in space and cyberspace.
    Although not contained within the DOD budget, I would like 
to mention my support for the administration's fiscal year 2011 
request for the National Nuclear Security Administration 
(NNSA). The budget seeks nearly a 13-percent increase for NNSA 
to provide much-needed infrastructure, human capital, and 
stockpile management investments. I have long advocated for 
such critical investments, which help keep our stockpile safe, 
secure, and effective. Our deterrence credibility rests on such 
confidence, and I appreciate this committee's support for the 
request.
    In the year ahead, STRATCOM will address the challenges I 
have mentioned above as we focus on further developing our 
workforce, sustaining a culture of excellence in the nuclear 
enterprise, and integrating our global missions. STRATCOM's 
uniquely global missions support national objectives, whole-of-
government solutions, and enhanced international cooperation. 
Our future success requires investments in deterrence, the 
standup of CYBERCOM, and expanding our awareness of, and 
sustaining our capability investments within, the space domain.
    As we move forward, I look forward to continuing to partner 
with this committee and your staff. Thank you again for the 
opportunity to testify before this committee today. I look 
forward to your questions. I would ask that my posture 
statement be accepted for the record.
    Thank you, Chairman.
    Chairman Levin. Thank you very much, General. Your entire 
statement will be made part of the record.
    [The prepared statement of General Chilton follows:]
           Prepared Statement by Gen. Kevin P. Chilton, USAF
    Chairman Levin, Ranking Member McCain, distinguished members of the 
Committee on Armed Services, thank you for the opportunity to testify 
today, representing the extraordinary men and women of U.S. Strategic 
Command (STRATCOM). I'm privileged to showcase this joint team's 
achievements, discuss our requirements, and highlight future national 
security challenges across our mission areas. STRATCOM's Active Duty 
and Reserve military members, civilians, and contractors form a superb 
joint team, whose dedicated planning, advocacy, and operational 
execution efforts advance our warfighting priorities. We continue to 
strengthen and sharpen our focus on deterrence while at the same time 
preserving our freedom of action in space and cyberspace. Before 
continuing, I must say that we appreciate your support, because 
legislative investments across our mission areas are essential to our 
providing global security for America.
    Admiral Mullen's memorandum Chairman of the Joint Chiefs of Staff 
Guidance for 2009-2010 detailed the Joint Force's strategic objectives 
through 2010. These objectives include defending our national interests 
in the broader Middle East and South Central Asia, considering ways and 
means to improve the force's health, and balancing global strategic 
risks through deterrence. The uninformed observer might expect STRATCOM 
to aid the Joint Force only with deterrence, but this globally 
operational command does much more. In fact, the Quadrennial Defense 
Review (QDR) identified six key missions for the Department of Defense 
(DOD),\1\ and STRATCOM plays a role in each of these missions, whether 
by conducting operations, supporting and advocating for global 
warfighter needs, closing gaps in geographic seams, or building 
relationships across a growing range of partners.
---------------------------------------------------------------------------
    \1\ The six mission areas are: (1) defend the United States and 
support civil authorities at home, (2) succeed in counterinsurgency, 
stability, and counterterrorism operations, (3) build the security 
capacity of partner states, (4) deter and defeat aggression in anti-
access environments, (5) prevent proliferation and counter weapons of 
mass destruction, and (6) operate effectively in cyberspace.
---------------------------------------------------------------------------
    STRATCOM continues to support actively the DOD work on the QDR, 
Space Posture Review, Nuclear Posture Review (NPR), Ballistic Missile 
Defense Review (BMDR), and the new Strategic Arms Reduction Treaty 
(START) negotiations. These reviews and START will shape the role of 
our strategic capabilities and define the investments necessary to 
recapitalize and sustain them, while highlighting STRATCOM's place at 
the nexus of today's primary national security challenges. We are now 
helping to translate these reports into the strategy and plans that our 
components and the joint force need. This year we will continue to 
focus on further developing our workforce, sustaining the highest 
possible standards in the nuclear enterprise, and integrating our 
global capabilities to support national and theater objectives. These 
efforts will require investing in the deterrent enterprise, identifying 
mechanisms to better integrate operations, plans, requirements, and 
activities among our components, standing up U.S. Cyber Command 
(CYBERCOM) to better execute our cyber mission, and sustaining the 
critical national security capabilities provided by on-orbit satellite 
constellations.
                         u.s. strategic command
    As we address today's challenges, STRATCOM has already devoted 
significant effort to align our priorities, plans, and investments 
across our components while simultaneously executing deterrence, space, 
and cyberspace operations. We have initiated and sustained several 
successful engagement efforts. STRATCOM's reinvigorated military-to-
military outreach programs, which included senior-leader discussions 
with key friends and allies, including the United Kingdom, France, 
Japan, South Korea, Australia, and Israel on such topics as deterrence, 
space, cyberspace, and missile defense. STRATCOM was honored to host 
the United Kingdom's First Sea Lord, Admiral Sir Mark Stanhope; 
Australia's Vice Chief of Defence Force, Lieutenant General David 
Hurley; France's Chief of the Defense Staff, General Jean-Louis 
Georgelin; and China's Vice Chairman of the Central Military 
Commission, Gen Xu Caihou. Gen Xu's request to visit STRATCOM during 
his U.S. tour highlighted China's recognition of STRATCOM's global 
role, and our very positive exchange showcased the tremendous potential 
of military-to-military relationships to build confidence and 
understanding between our countries. These dialogues are important and 
must continue.
    Over the past year, we welcomed the stand-up of Air Force Global 
Strike Command and our components' increased focus on the deterrence 
mission. In addition to maturing the adjustments we made in our 
headquarters staff, STRATCOM's Global Thunder 2009 deterrence exercise 
constituted the most extensive nuclear command, control, and 
communications (NC3) field exercise in over a decade. It demonstrated 
the full range of nuclear deterrence capabilities by integrating 
submarine strategic deterrent patrols, more than 90 aircraft sorties, 
an ICBM test launch, and 5 days of continuous airborne command-and-
control operations. Global Thunder's success demonstrated the readiness 
of America's strategic forces. Continued support for the joint training 
requirements and the established Combatant Commander Exercise 
Engagement (CE2) Defense-wide account is essential to ensuring future 
STRATCOM mission readiness.
    Today's strategic mission requirements also demand the finest in 
command, control, and communications capabilities. Our 1950s-era 
headquarters falls short of providing the capabilities we need. We 
appreciate congressional support for the planning and design funds 
appropriated in fiscal years 2009 and 2010 and requested for 2011. 
These investments move us closer to a 21st century headquarters and 
command center for deterrence, space, and cyberspace operations.
    In the cyber domain, the Secretary of Defense directed STRATCOM to 
establish CYBERCOM as a sub-unified command. This effort continued the 
reorganization of cyber forces that began with the Secretary's 
direction in October 2008 to place STRATCOM's Joint Task Force for 
Global Network Operations (JTF GNO) under the operational control of 
Joint Functional Component Command for Network Warfare (JFCC NW). From 
their inception, JFCC NW and JTF GNO had segregated offensive and 
defensive military cyber operations. This segregation detracts from 
natural synergies and ignores our experience in organizing to operate 
in the air, land, sea, and space domains. The establishment of CYBERCOM 
will remedy this problem in the cyber domain and create a robust sub-
unified command to address the growing importance of the cyber domain 
to national security. We have already begun consolidating JTF GNO and 
JFCC NW in preparation for the formal establishment of CYBERCOM, which 
awaits confirmation of the nominated commander. We look forward to 
continuing to work with Congress and our Agency partners as we move 
forward to establish CYBERCOM.
    The Services are also reorganizing their cyber forces in order to 
present trained and equipped cyber operators to the Joint Force. Over 
the past year, each Service reshaped the alignment of its cyber forces 
into a more unified organization, and we welcome the stand-up of Army 
Forces CYBERCOM, Marine Corps Forces CYBERCOM, Fleet CYBERCOM, and the 
24th Air Force. These forces will enhance our ability to operate and 
defend DOD information networks and provide the President with response 
options in cyberspace.
    To enhance the level of global strategic dialogue and STRATCOM's 
support to other combatant commands, we are more broadly engaging our 
military and non-military partners. In 2009, STRATCOM launched new or 
renewed annual symposia for each of our three lines of operation. More 
than 5,000 attendees, representing multiple commands, universities, 
industry, and at least 10 other countries (including His Excellency 
Sergey Kislyak, Ambassador of the Russian Federation to the United 
States) held substantive discussions on challenges facing our 
deterrence, space, and cyberspace professionals. STRATCOM teams also 
deployed across the globe to provide in-theater subject-matter 
expertise. Our teams facilitated more effective employment of our 
capabilities in intelligence, surveillance, and reconnaissance (ISR), 
space, operational security, electronic warfare (EW), and cyber. These 
accomplishments, along with development of integrated missile defense 
(IMD) capabilities and increases in space situational awareness (SSA), 
represent just a small part of STRATCOM's accomplishments.
                           strategic context
    Last spring, President Obama stated that as the world ``has become 
more interconnected . . . we've seen events move faster than our 
ability to control them.'' Global economic and political turmoil, 
rapidly evolving information technology, nontraditional threats, 
continuing overseas contingency operations, and terrorism represent 
just some of the factors influencing global and regional security 
challenges. Moreover, state and non-state actors pursue traditional and 
asymmetric means to challenge the United States and our allies. With 
the exception of the United States, all nuclear weapon states continue 
to modernize their nuclear weapon stockpiles and in some cases grow 
them further. Although the United States and Russia are reducing their 
strategic arsenals, North Korea and Iran remain on a dangerous nuclear 
path. Additionally, we find increasing threats to our freedom of action 
in the global commons of space and cyberspace, even as the importance 
of these domains to our national security continues to grow. For 
example, Iran's successful February 2009 satellite launch and North 
Korea's attempt a few months later illustrate the spread of space 
launch technology. However, successful space-launch vehicles can also 
represent progress toward an effective intercontinental ballistic 
missile capability. If perfected, such long-range ballistic missiles 
would place a larger area of the world at risk.
    Cyber networks weave through every facet of our lives and enable 
extraordinary communication, intelligence, and command and control 
capabilities. However, an adversary acting in cyberspace can steal 
critical information, thwart vital data transmissions, or create 
devastating effects beyond the cyber domain. Governments, militaries, 
corporations, universities, and the individual computer user must guard 
against vulnerabilities that are open to criminals, organized 
hacktivists, state actors, and insider threats. Addressing these 
challenges while capitalizing on the dramatic enabling capabilities of 
cyberspace requires an unwavering watchfulness, a dynamic defense-in-
depth construct, a workforce that is carefully recruited, trained, and 
properly retained, strong partnerships, an infrastructure that supports 
global employment of DOD forces, and a realization that DOD's cyber 
culture, conduct, and capabilities must change.
                          strategic deterrence
    In an environment of such rapid economic, political, military, and 
technological changes, many wonder if ``deterrence'' is still possible. 
Today's multi-polar and increasingly complex strategic environment, 
which includes threats posed by proliferation and terrorism, requires 
that we increase our focus on deterrence because effectively deterring 
threats to our Nation and our allies is not only possible, it is 
essential.
    Since the end of the Cold War, however, the serious study of 
deterrence theory and strategy has been inadequate. Much like our 
changing global context, modern deterrence challenges necessitate more 
complex approaches. The modern era of smart power requires a commitment 
to a whole-of-government deterrence effort that capitalizes on the full 
range of diplomatic, information, military, and economic activities. 
Despite this complex environment, we have skipped an entire generation 
of future policy makers, strategists, academics, and military 
professionals in terms of training and developing them in the field of 
deterrence. Preliminary work on the NPR and New START treaty revealed 
this shortage of human capital. STRATCOM's first annual Deterrence 
Symposium, held this past summer in Omaha, was our initial public 
effort to revitalize attention to deterrence theory, thought, and 
practice.
    Speaking in Prague last year, President Obama articulated his goal 
of moving toward a world without nuclear weapons, including a desire to 
reduce global nuclear dangers and the role of nuclear weapons in our 
national security strategy, while urging other nations to do the same. 
The President also asserted that ``as long as these weapons exist, the 
United States will maintain a safe, secure, and effective arsenal to 
deter any adversary, and guarantee that defense to our allies.'' Just 
days before the President's remarks, the Strategic Posture Commission 
concluded that ``nuclear weapons are both the greatest potential threat 
to our way of life and important guarantors of U.S. security.'' The 
commissioners agreed on two parallel paths forward: ``one path which 
reduces nuclear dangers by maintaining our deterrence, and the other 
which reduces nuclear dangers through arms control and international 
programs to prevent proliferation.'' As the command uniquely 
responsible for our nuclear deterrent and for synchronizing DOD 
combating weapons of mass destruction (CWMD) planning, STRATCOM finds 
itself actively engaged in all of these endeavors.
    Throughout the 65-year history of nuclear weapons, no nuclear power 
has been conquered or even put at risk of conquest, nor has the world 
witnessed the globe-consuming conflicts of earlier history. More than 
180 state parties to the Treaty on the Non-Proliferation of Nuclear 
Weapons (NPT) have either foresworn the pursuit of nuclear weapons (in 
many cases because of the promise of America's extended deterrent 
umbrella) or pledged in good faith to move toward eventual disarmament. 
The United States and Russia have made steep reductions in their 
nuclear arsenals since the end of the Cold War (a seldom recognized but 
important demonstration of U.S. commitment) while joining together to 
pursue the goals of the Cooperative Threat Reduction Program. We have 
invested considerable intellectual effort toward a stable world order, 
where nuclear weapons seem at once dangerous, undesirable, expensive, a 
tempting source of power and prestige, and yet also essential to 
continued peace and stability.
    Today, our nuclear weapons and triad of delivery systems remain 
essential to our national security. Nonetheless, in light of the global 
security environment, we should continually consider to what degree 
nuclear weapons remain relevant, whether ours measurably encourage or 
discourage proliferation, and to what extent reductions and/or force 
size and posture changes enhance peace and strategic stability. At the 
end of the day, all of our actions must enhance the security of the 
United States, our most solemn responsibility.
    The role of our Nation's nuclear weapons in maintaining peace and 
stability, and therefore the security of the United States, is 
deterrence. Our deterrence strategy is predicated on the effectiveness 
of six distinct facets that in the aggregate make our strategy 
credible. These six facets are weapons, delivery systems, threat 
warning, nuclear command and control (NC2), weapon production, and 
industrial base. I will briefly discuss each of these.
Weapons
    Nuclear weapons remain fundamental to our deterrent capability. 
Increasing the safety, security, and long-term confidence in the U.S. 
nuclear arsenal remains a top priority. However, the weapons we rely on 
today for deterrence were designed for short operating lives in a 
different era with different safety and security requirements. While 
individual components may last for years, combining the components in a 
radioactive environment has effects that we cannot fully predict. As 
recently noted in government review of the stockpile assessment, our 
current approaches to delivery system sustainment are not tenable over 
the long term and, for the weapons themselves, they are also not 
tenable if we desire to implement improvements to safety and security 
features.
    As we ramp up to full-rate W76-1 production, we must also address 
promptly the B61 warhead life extension. By doing the B61 nuclear life 
extension now along with the funded non-nuclear life extension, we have 
an opportunity to save cost by avoiding a second life extension in the 
2020s while increasing confidence in the safety, security, and 
effectiveness of the stockpile consistent with the President's vision. 
We must act now to fit the life extension within the narrow window of 
opportunity in the production complex.
    We must also begin exploring sustainment options for the W78 
intercontinental ballistic missile (ICBM) and W88 SLBM warheads. The 
Strategic Posture Commission noted that any options would require some 
combination of refurbishment, reuse, and replacement, with decisions 
best made on a case-by-case basis. The Nuclear Posture Review is 
examining the appropriate policy guidance for considering future 
choices between refurbishment, reuse, and replacement. A recent study 
by the JASON Defense Advisory Group concluded that only reuse or 
replacement options allow for the inclusion of intrinsic surety 
features that would be the last line of defense against unauthorized 
use. I urge you to support life extension studies requested this year 
to best inform the administration and Congress for future decisions.
    The National Defense Authorization Act for Fiscal Year 2010 created 
the Stockpile Management Program to increase safety, security, and 
long-term effectiveness of the U.S. stockpile without nuclear testing. 
I believe we can meet the goals of this program without seeking new 
military capabilities or resorting to nuclear testing. Reductions in 
the number of warhead types and in the size of the hedge stockpile are 
also possible.
Delivery Systems
    The triad of diverse and complementary strategic delivery systems 
has supported our national security objectives in the past and will 
continue to do so well into the future. STRATCOM is actively working 
with the Services to validate proposals to recapitalize and modernize 
our forces. Our ICBM force celebrated its 50th birthday in 2009 and 
remains the most responsive and cost-effective leg of the triad. The 
Air Force is concluding a decade-long modernization effort to sustain 
the Minuteman III through 2020 and is continuing the necessary steps to 
meet the congressional mandate to sustain the system through 2030. 
STRATCOM actively supports current life-extension programs and is 
working closely with the Air Force to determine the requirements of our 
next land-based strategic deterrent system. The Navy's SLBMs constitute 
the triad's most survivable and assured response element. A stealthy 
delivery platform and a highly reliable weapon system have proven an 
effective strategic deterrent combination, and STRATCOM supports the 
Navy's efforts to design a replacement for the Ohio-class ballistic 
missile submarine and sustain the Trident II D5 ballistic missile to 
meet future deterrent requirements. Finally, our Nation will continue 
to require a nuclear-capable bomber's inherent flexibility to address a 
variety of possible adversaries and contingencies. STRATCOM supports 
the Air Force's efforts to sustain and modernize mission-critical B-2 
and B-52 systems. We are also working with the Air Force to identify 
requirements for the next manned, nuclear-capable, long-range strike 
platform and air-delivered standoff weapon.
Threat Warning
    Another key element of credible deterrence is threat warning that 
provides attribution. For decades, the Defense Support Program (DSP) 
and our early warning radars have provided the essential data necessary 
to ensure timely and informed decisions. They provide prompt and 
accurate data to the President and combatant commanders for detection, 
identification, and predicted impact point of ballistic missiles. 
Sustainment of our early warning radars and fielding of the Space Based 
Infrared Satellite (SBIRS) geosynchronous constellation are essential 
to maintaining timely threat warning and attribution. However, though 
SBIRS was originally programmed to launch in 2002 as a replacement for 
DSP, we have not yet launched a single SBIRS satellite, and current 
schedules forecast that the first will not be ready before December 
2010. I encourage your continued support to ensure the successful 
deployment of this system.
NC2
    For deterrence to be effective, potential adversaries must know 
that the President can direct our nuclear forces under all 
circumstances. This requires a reliable and secure NC2 architecture. 
Our NC2 systems deliver warning and attribution information, provide 
for positive control of nuclear forces, and ensure our ability to 
employ nuclear weapons per Presidential direction. To remain effective 
in the most hostile nuclear environment, our NC2 relies on resilient 
satellite communication constellations (MILSTAR and its replacement, 
the Advanced Extremely High Frequency (AEHF)), cryptographic 
protection, and hardening. Many of our current NC2 systems were built 
during the Cold War and therefore require new investment for upgrades 
or replacement. Additionally, continued delays in procurement of AEHF-
related equipment are a concern. The vital task of fielding modern and 
survivable NC2 systems is worthy of your full support.
Weapons Production
    The Strategic Posture Commission and JASON noted that regardless of 
which life-extension options we choose for existing warheads, success 
relies on maintaining and renewing expertise and capabilities in 
science, technology, engineering, and production techniques unique to 
the nuclear weapons program. The National Nuclear Security 
Administration's (NNSA) aging infrastructure limits its sustainment 
capacity, forcing all life extension activities into a tight, 
sequential, and delicately balanced timeline that incurs undue risk. 
Moreover, our nuclear weapons design and manufacturing workforce is 
both aging and shrinking due to a lack of meaningful work, unstable 
funding, and the perception that nuclear weapons work is not important. 
The custodians of America's nuclear deterrent--NNSA and its National 
Laboratories--have long labored in deteriorating plutonium and uranium 
facilities that date to the Manhattan Project and that the Strategic 
Posture Commission termed ``decrepit.'' Decrepit is unacceptable. We 
owe our people at NNSA and the National Laboratories better. We owe our 
Nation better.
    To sustain the nuclear deterrent and successfully execute the 
Stockpile Management and Stewardship Programs, we must invest in new 
plutonium and uranium facilities, strengthen the science, technology, 
and engineering base needed to sustain and certify the stockpile, and 
seek out and develop our very best scientists and engineers. The 
President's 13 percent increase in requested NNSA funding represents a 
long-overdue investment in the nuclear complex and its people. I 
strongly urge you to support this request.
Industrial Base
    Industrial base challenges complicate the sustainment of current 
and the development of future delivery systems. An inability to produce 
items such as solid rocket motors and advanced navigation and control 
systems would threaten our ability to maintain strategic platforms. 
Perishable skills and technologies are required to sustain current 
systems beyond their expected life span and to develop the systems 
required for the future. The NDAA for Fiscal Year 2010 requirement to 
develop a SRM industrial base plan is an important step toward ensuring 
essential skills and capabilities in that portion of the deterrent 
industrial base, and we look forward to the results of the Office of 
the Secretary of Defense led task force chartered to fulfill this 
direction. Sufficient funding to sustain a responsive industrial base 
is a critical element of maintaining the credibility of deterrence, and 
we ask for continued congressional support.
                             global strike
    A limited, credible conventional prompt global strike capability 
would provide the President a broader range of non-nuclear options to 
address emerging threats rapidly. However, we continue to lack the 
ability to promptly deliver conventional effects against targets in 
denied or geographically isolated areas. As we continue to make 
progress through research, development, test, and evaluation 
subprojects, I ask for your continued support for a PGS capability that 
will be carefully sized to avoid perturbing our strategic relationships 
with Russia and China.
                                 space
    Operations in the space domain continue to enable an increasing 
number of capabilities that are essential to military operations, as 
well as the U.S. and global economy. At the same time, events during 
the past few years have reminded the world that space is no longer a 
pristine or unchallenged domain, but one that is subject to 
consequential mishaps, whether malicious or unintended. This was 
apparent in the aftermath of last year's Iridium/Cosmos satellite 
collision, which removed any uncertainty about the destructive threat 
of space objects. We need sustained investment to provide comprehensive 
SSA, actionable collision avoidance (conjunction) analysis, robust on-
orbit space constellations, and modeling and simulation capabilities.
    The importance of SSA to effective and sustained space operations 
grows each day. Trackable space debris grows each time existing debris 
collides or breaks apart, new objects enter orbit, or our sensors 
improve to reveal increasingly smaller objects. Despite significant SSA 
investments and advances to ensure our freedom of action in space, 
debris growth (4,600 objects in 1980; more than 21,000 today) continues 
to outpace SSA upgrades. This places a new urgency on improving SSA 
sensors and the technical and human capital resources performing 
collision avoidance analysis. In addition to maintaining critical 
legacy capabilities, new investments must focus on sensors, data 
fusion, network linkages, and our human capital base.
    Most of today's sensors reside on legacy missile-warning platforms 
in the northern hemisphere. This coverage remains important but is 
inadequate for today. We must continue to work with international 
partners to expand the few sensors that make up our current capability. 
Further, we must provide space operators the same situational awareness 
we expect in every other domain, along with the tools and information 
to operate and protect national assets. The next generation of SSA 
sensors will provide coverage from space itself--a new vantage point. 
The Space Based Surveillance System will provide such coverage, and we 
continue to support this important step forward.
    A noteworthy SSA advancement began when Congress authorized the Air 
Force's pilot program on the desirability and feasibility of providing 
collision avoidance data to commercial and non-U.S. Government 
partners. After the successful development of the Commercial and 
Foreign Entities (CFE) program, DOD transitioned operational 
responsibility for CFE from the Air Force to STRATCOM's Joint 
Functional Component Command for Space (JFCC Space) in 2009. JFCC 
Space's Joint Space Operations Center at Vandenberg Air Force Base now 
provides important data to prevent collisions between satellites, 
manned space craft, and debris. In this effort, cooperative 
relationships between DOD and owner-operators are essential to 
developing behavioral norms for responsible space-faring nations. 
STRATCOM will continue to refine collision-avoidance measures, sponsor 
agreements with space-faring nations and commercial entities, and 
foster greater mutual support through allied and partner engagements.
    Another consequential area of space interest lies in how we manage 
the sustainment of our current constellations. The past decade's strong 
focus on improving efficiency and cost effectiveness now threatens the 
uninterrupted delivery of several essential capabilities, as 
requirements for increasingly complex and efficient systems push 
delivery timelines to the future, exhaust our stock of replacement 
vehicles, increase costs, and leave capabilities at risk. We worked 
closely in the last year with a variety of independent commissions, 
studies mandated by Congress, and DOD examinations that revealed 
shortfalls in capacity and capabilities in the next 5 to 7 years. 
Program schedule delays, cost overruns, dwindling inventories, and over 
confidence derived from our highly successful launch record could 
create the circumstance where just a single launch failure creates a 
capability gap.
    Lastly, effective 21st century space operations will depend on our 
ability to accurately model the environment and employ simulators for 
training our operators. Modeling and simulation capabilities provide 
operators the ability to experiment, fail, adjust, and try again with a 
mere fraction of the resources. Once a robust simulation capability 
exists, new and increasingly complex exercises can demonstrate 
successes and vulnerabilities, facilitate new tactics, techniques, and 
procedures, and dramatically expand our understanding of, and ability 
to operate within, the space domain. The ability to experiment with new 
platforms and capabilities will enhance U.S. freedom of action and 
further improve U.S. space operations in a way that further aligns 
space and space-based capability requirements with those in every other 
domain.
                               cyberspace
    Interest in the cyber domain grows daily. Most of this is positive, 
as technology connects the world and enables commerce, communication, 
transit, and research in ways never before imagined. The practical 
reality of Moore's Law \2\ is a world where many technological 
platforms seem obsolete just as they are widely fielded. Unfortunately, 
as Secretary of State Clinton noted in January, ``these technologies 
are not an unmitigated blessing.'' We can anticipate that adversarial 
actors will make cyberspace a battle front in future warfare. Even 
today, intrusions and espionage into our networks, as well as cyber 
incidents abroad, highlight the unprecedented and diverse challenges we 
face in the battle for information.
---------------------------------------------------------------------------
    \2\ Moore's Law, named for Intel co-founder Gordon E. Moore, is the 
observation that processing speed and memory capacity for commercially 
available computers tend to double about every 2 years.
---------------------------------------------------------------------------
    In May 2009, the administration finished a detailed Cyberspace 
Policy Review. It concluded that ``the architecture of the Nation's 
digital infrastructure . . . is not secure or resilient'' and ``without 
major advances in the security of these systems or significant change 
in how they are constructed or operated, it is doubtful that the United 
States can protect itself.'' Both the White House's Cyberspace Policy 
Review and the Center for Strategic and International Studies (CSIS) 
Commission on Cybersecurity for the 44th Presidency concluded that 
national cyber security requires dramatically enhanced policy and 
operational coordination. These reports highlighted the need for a 
uniform, rapid, dynamic, and machine-speed approach. Such an approach 
demands a culture of responsibility and an ``always-on'' enterprise 
infrastructure to support global employment of our military forces.
    STRATCOM is responsible for operating DOD information networks, 
planning against cyber threats, advocating for new capabilities, and 
coordinating with other commands and Agencies. I noted last year that 
cyberspace is our least mature line of operation, and it is likely to 
remain so for some time, as cyberspace presents new and unique 
challenges and opportunities. Cyber operations revolutionize the way we 
move information, conduct commerce, and fight wars. We have had 
technological revolutions before, most notably a century ago when 
people first took to the skies. Some wondered why we would ever need to 
fly, but no one today can imagine life without air travel or national 
security without air forces. In the 1970s, few people felt they would 
ever need a personal computer, but a network outage today is a serious 
concern for the largest corporations, the smallest businesses, and most 
American households. Just as the United States mastered the air domain, 
we will continue to strive to preserve our freedom of action in 
cyberspace.
    Significant change seldom comes without a seminal event. In the 
strategic and space arenas, we have experienced nuclear procedure 
issues, the Iridium-Cosmos satellite collision, and China's Anti-
Satellite weapon tests. Last year, the cyberspace domain had just such 
an event as DOD information networks experienced a serious intrusion, 
resulting in a ban on removable media and other corrective actions. The 
event identified best practices and shortcomings in network security 
procedures and hardware accountability, causing us to ask not just what 
we knew about network health but how we knew it--and whether that 
information was reliable. Our forces developed new network monitoring 
and evaluation systems and grappled with the security needs of 
sprawling networks where low cost and efficiency have often taken 
priority over security. Cyberspace weaves through our lives in ways 
that make network problems a concern for everyone. Each and every 
individual user is a critical element of cyber defense.
    Our national defense capabilities are now underpinned by the 
assured availability of the enterprise IT infrastructure and our 
command-and-control and information-sharing systems. These constitute 
the DOD information networks. STRATCOM must continue to defend while 
actively improving DOD information networks--interdependent 
imperatives--with new and expanded cyber capabilities. The networks 
requires improved defense-in-depth measures from the perimeter down to 
individual users, like the Host-Based Security System (HBSS), and a 
shareable, common operating picture that allows for the free flow of 
information among the combatant commanders, Services, and Agencies.
    Additionally, we require continued congressional support for 
critical DOD programs and initiatives through which we build, operate, 
harden, and assure robust and resilient command-and-control and 
information-sharing systems. These programs and initiatives include 
globally diverse terrestrial and satellite communications networks, 
emerging commercial satellite communication capabilities, and the 
globally available enterprise IT services that reside on them.
                global synergy--joint enabling missions
Integrated Missile Defense
    Many rogue actors consider terror, blackmail, and weapons of mass 
destruction to be increasingly attractive capabilities. The recently 
completed BMDR notes the growing threat of ballistic missiles as they 
become more flexible, mobile, survivable, reliable, and accurate from 
greater ranges. Countering the growing desire among many states for 
such cost-effective weapons and symbols of national power requires 
sustained and carefully designed missile defense investments.
    As the lead combatant command for missile-defense advocacy, 
STRATCOM continues to work closely with the Services, Missile Defense 
Agency, and the Missile Defense Executive Board (MDEB) to shape 
investments. Improvements in sensor and shooter platforms, including 
upgrades to the Aegis weapon system and Standard Missile-3 (SM-3), 
production of the Terminal High Altitude Area Defense system, and 
fielding of the AN/TPY-2 forward-based X-band radar provide more 
effective capabilities for our geographic combatant commanders. 
However, these advances have required an increased focus at STRATCOM 
and within the MDEB and Global Force Management processes on how best 
to satisfy the requirements of multiple geographic combatant commanders 
while appropriately balancing theater and homeland defense efforts. 
Strong congressional support is enabling the rapid fielding of regional 
systems.
    One of the most significant recent missile defense developments is 
the administration's Phased Adaptive Approach (PAA) to missile defense. 
Given necessary funding and timely fielding, PAA offers an effective 
and flexible way to address the growing Iranian threat. PAA also 
addresses the most urgent threats first with proven, cost-effective 
platforms as we continue to defend our forward-deployed forces and 
allies. It also requires that missile defense becomes an increasing 
part of our international cooperation efforts. The total effect of PAA 
will provide significantly more capability to counter today's regional 
threats and improve our ability to defend the United States against any 
future Iranian ICBM.
    A defensive system, however, will be ineffective if not supported 
by accurate and timely warning and intelligence. Ballistic missiles and 
space launch vehicles share significant similarities, making launch 
characterization--the ability to rapidly determine a vehicle's 
ballistic or orbital trajectory and therefore its intent--essential to 
recommending appropriate pre-launch postures and post-launch actions. 
STRATCOM's ongoing efforts to refine this capability include sensor and 
communications upgrades and analytical expansion. As noted above, we 
face ongoing challenges to sustaining our missile warning 
constellation's long-term health. The SBIRS geostationary orbit 
satellite constellation is critical to any missile defense 
architecture. Additionally, the two Space Tracking and Surveillance 
System (STSS) demonstrator satellites launched in late 2009 will 
validate key concepts for a future missile defense satellite 
constellation. The STSS has the potential to greatly improve our 
ability to detect, track, and defeat ballistic missiles.
Combating Weapons of Mass Destruction
    The specter of weapons of mass destruction (WMD) in the hands of 
terrorists poses a threat to the United States, our allies, and global 
security at large. STRATCOM is responsible to synchronize DOD-wide 
planning for counter-WMD (CWMD). Our CWMD campaign plan framework, 
detailing linkages between military strategic objectives and desired 
effects, has become the CWMD planning standard for geographic combatant 
commands.
    To further enhance regional combatant commander and interagency 
planning, STRATCOM has developed a Joint Elimination Coordination 
Element in order to support WMD elimination efforts. This unit will 
also support DOD efforts to establish a Joint Task Force-Elimination 
headquarters to provide specialized command and control for WMD 
elimination operations. Additionally, STRATCOM has advanced the 
development of the Interagency CWMD Database of Responsibilities, 
Authorities, and Capabilities (INDRAC) system to inform planning, 
training, advocacy, and other partnerships across the government. 
Further, we lead semiannual Global Synchronization Conferences to 
enhance CWMD planning across other commands, the broader whole of 
government, and our key allies and partners.
    To improve the Nation's existing capabilities for nuclear forensics 
and attribution, we are sponsoring a Joint Capabilities Technology 
Demonstration for National Technical Nuclear Forensics (NTNF). It is 
designed to improve existing air- and ground-sample collection 
capabilities. In coordination with U.S. Joint Forces Command, we have 
conducted a series of experiments to determine the best uses of active 
interrogation technology to extend the detection ranges of our nuclear 
and radiological passive detectors. DOD has proposed additional CWMD 
funding in its fiscal year 2011 budget for DOD nonproliferation, 
counterproliferation, and consequence management programs to accelerate 
the closure of capability gaps. This additional funding would be 
applied to nuclear and biological threat reduction; combating nuclear 
terrorism; nuclear search, detection, and forensics; technical 
reachback and planning support for the combatant commanders; and 
integration of CWMD technical, operational, and intelligence expertise 
for improved WMD threat anticipation and response. We fully support 
these investments and the efforts of the Defense Threat Reduction 
Agency (DTRA).
    Finally, the STRATCOM Center for Combating WMD (SCC WMD) plays a 
key role in the Proliferation Security Initiative (PSI), a proven 
counterproliferation architecture. This past year SCC WMD supported the 
embedding of PSI activities into a number of combatant commands' 
exercise programs, developed international PSI training scenarios, and 
published the first PSI exercise planning handbook. We look forward to 
accelerating exercise engagements and increasing our focus on potential 
sources of proliferation.
                         information operations
    With the exception of psychological operations (PSYOP), STRATCOM 
plans, coordinates, supports, and advocates for information operations 
(IO) across geographic combatant commands' areas of responsibility. We 
execute these responsibilities through our joint components: JFCC NW 
and JTF GNO for cyber operations; and the Joint Information Operations 
Warfare Center (JIOWC) for electronic warfare (EW), military deception 
(MILDEC), and operational security (OPSEC).
    This year, we will participate in reviews of joint and Service 
doctrine to evaluate and assess how we conduct warfare in the 
information environment. Additionally, we are conducting a Strategic 
Communication Capabilities Based Assessment (CBA), as tasked by the 
JROC. This CBA will identify requirements and capability gaps among the 
combatant commands and Joint Staff, including perspectives from the 
intelligence community, in order to standardize terminology and to 
resource appropriate DOD strategic communication capabilities.
    A wide range of military operations depend on unfettered access to 
the electromagnetic spectrum. For several decades, forces have taken 
advantage of relatively uncontested access to the electromagnetic 
spectrum, but spectrum requirements are growing not only for DOD 
missions but across Federal agencies, state, and local governments and 
commercial industry. Further, rapidly expanding spectrum usage and 
technology evolution now threaten to impede our ability to conduct 
successful military operations. As regions of the spectrum continue to 
be crowded by commercial and scientific entities and other nations, the 
warfighter's electromagnetic maneuver space will become more 
restricted. Future spectrum policy and use must carefully consider and 
balance national and economic security interests to enable commercial 
growth while protecting the equities of DOD and Federal agencies.
    To address these accessibility concerns and to preserve essential 
information transfer capabilities, the JROC approved the STRATCOM EW 
CBA. STRATCOM also produced a follow-on Initial Capabilities Document 
(ICD) that identified capability gaps and potential solutions. The ICD 
also emphasized the need for focused leadership in the EW area and a 
comprehensive joint investment strategy. In the coming year, and in 
conjunction with federally funded research and development centers, 
STRATCOM and U.S. Joint Forces Command will study approaches to 
responding to emerging electromagnetic threats. This review is intended 
to identify organizational and management approaches that will enable 
timely, prioritized, and effective EW resourcing decisions.
             intelligence, surveillance, and reconnaissance
    Over the past decade, geographic combatant commanders' requirements 
have increased ISR demand, as highlighted in Iraq and Afghanistan. New 
and irregular threats reshaped the battlefield and the information 
required to operate successfully. Today, rapidly increasing 
capabilities to support the warfighter remain a key geographic 
combatant commander priority. Determining the appropriate ISR force 
size is important, given limited resources and dynamic theater needs. 
STRATCOM is leading efforts to develop an ISR force-sizing construct 
for the Department. This initiative will develop a sound analytical 
foundation for future ISR allocation and procurement decisions.
    To date, DOD has rapidly expanded ISR platform acquisition and 
fielding, thereby broadening theater access to intelligence. To 
complement this initiative and as a key facet to meeting the rising 
demand for ISR products, DOD is also expanding our processing, 
exploitation, and dissemination (PED) capabilities. Rapid collection-
capability growth challenges our ability to transform raw data into 
information of intelligence value and to disseminate it to combat 
forces in a timely fashion. STRATCOM continues to advocate for needed 
PED capabilities with the Services and combat-support agencies and is 
also developing methods to align ISR allocation with PED capacity to 
ensure collection effectiveness and to better integrate existing 
resources. Finally, new assets and new challenges require bases from 
which to access many regions, such as USAFRICOM's Camp Lemonnier, 
Djibouti. This important facility deserves sustained support because it 
provides access to multiple countries and the Horn of Africa while 
enabling the employment of air and naval assets supporting DOD 
operations in the region.
    As new ISR capabilities come on line, we must transition legacy 
capabilities to new systems. The Air Force has fielded the first Global 
Hawk in theater, but challenges remain before it could replace today's 
U-2 capability. Chief among these is sufficient wideband satellite 
communications to permit necessary throughput in the Global Hawk 
communications architecture. STRATCOM is working to make sure that a 
comprehensive communications capability is capable of providing 
worldwide support prior to the U-2 retirement.
    Whether making carefully nuanced deterrence recommendations, 
evaluating space capabilities, understanding the new and dynamic 
cyberspace domain, or sustaining our superior strategic capability 
knowledge base, intelligence provides operational context fundamental 
to every commander's decision calculus. Since I assumed command of 
STRATCOM in the fall of 2007, my intelligence directorate has done 
tremendous work using limited resources to support our three lines of 
operations and our enabling missions. Recently, we received a modest 
but essential increase in intelligence billet authorizations to 
establish the STRATCOM Joint Intelligence Operations Center. This 
important investment will increase our headquarters capabilities to 
provide the level of strategic intelligence we require and to 
distribute appropriate capabilities to several of our components. We 
are also working with the Office of the Under Secretary of Defense for 
Intelligence to establish a second Joint Intelligence Operations Center 
to support CYBERCOM. We appreciate continued congressional support for 
these initiatives.
                               conclusion
    STRATCOM continues to enhance our ability to deliver global 
security for America each and every day. We have re-emphasized the 
importance of our nuclear deterrence mission and proven America's long 
held confidence in our nuclear forces, while also expanding 
capabilities crucial to operating in the space and cyberspace domain. 
We enable many space-based and cyberspace capabilities essential to 
military operations and daily life by sustaining our freedom of action 
in these domains. STRATCOM's uniquely global missions support national 
objectives, whole-of-government solutions, regional requirements, and 
enhanced cooperation with our international partners. While many 
challenges remain in our increasingly interconnected and rapidly 
changing world, STRATCOM is fully engaged to address them. We greatly 
appreciate the support of Congress.

    Chairman Levin. Before I call on Admiral Willard, let me 
just say a word to my colleagues about a situation which has 
existed for far too long, which I'm going to do my best to 
correct this morning. I go to the floor at about 10:30, and if 
we're still in session here at that time, Senator Lieberman was 
kind enough to say that he would be able to take over.
    We've had a general, who's been nominated for a second 
star, who's been on the Senate calendar since October. His name 
is General Michael J. Walsh. He was unanimously approved by 
this committee. But, there's been a hold on his nomination, for 
a totally unrelated issue. Senator Vitter has been the one--he 
admitted--he acknowledges it, so I'm not disclosing anything 
which isn't out there. But, it's unconscionable. This is a 
military officer whose nomination--excuse me--whose approval of 
a second star is being held up by one Senator, for unrelated 
purposes. In about an hour, I'm going to go down and try and 
get unanimous consent that that nomination come off the 
calendar--that approval come off the calendar and be approved 
by the Senate.
    So, any of you who have some feelings on that subject, you 
may want to say something to Senator Vitter, or to his office. 
It would be appreciated.
    But, I believe that the committee should be, and I think 
is, united on this, by the way. I've talked to Senator McCain. 
Senator McCain agrees with me. He will be joining me in my 
unanimous consent request. But, I would ask any other members 
of the committee who feel strongly enough about this to get 
hold of Senator Vitter's office, please do so. Because, again, 
I think that this committee's jurisdiction and our obligation 
and responsibility to our men and women in uniform is really at 
issue here if we can't get approval of a second star for a 
fully qualified brigadier general to be a major general.
    Admiral Willard.

   STATEMENT OF ADM ROBERT F. WILLARD, USN, COMMANDER, U.S. 
                        PACIFIC COMMAND

    Admiral Willard. Thank you, Chairman.
    So, that we can get to the committee's questions, I'll keep 
my remarks brief, but I also ask that my full statement be 
included for the record.
    Chairman Levin. It will be.
    Admiral Willard. Chairman Levin, Senator Burr, and 
distinguished members of the committee, thank you for the 
opportunity to appear before you today and to discuss PACOM and 
the Asia Pacific region.
    Seated behind me is my wife, Donna, who's been at my side 
for 36 years. She's an outstanding ambassador of our Nation, 
and a tireless advocate for the men and women of our military 
and their families.
    Chairman Levin. Special welcome to her.
    Admiral Willard. Thank you.
    I also would like to thank you for your interest in our 
AOR. I've either met many of you en route to the region or 
followed your travels with great interest. Your presence and 
interest sends a strong message throughout the Asia Pacific, 
and I invite all of you to stop by Hawaii either on your way 
into the region, so my staff and I may brief you on the 
security situation, or on your return trip, in order that I may 
gain from your insights from your engagements.
    Additionally, when in Hawaii, I'd be honored to entertain 
you in the quarters of a former Commander in Chief, U.S. 
Pacific Command, Admiral John S. McCain, Jr.
    Today is my first posture hearing as the Commander of 
PACOM. Since taking command last October, I've had the chance 
to meet with many of my counterparts, travel throughout the 
region, and exercise a few of our contingency plans.
    When combined with my previous years of service in the Asia 
Pacific, these experiences have led me to the following 
conclusions, which I would hope we can expand on during today's 
hearing.
    The Asia Pacific region is vital to our Nation, and it's 
quickly becoming the strategic nexus of the globe, due to its 
economic expansion and great potential. Key to our commitment 
in the region is our forward-deployed and postured forces. We 
face challenges in building partner capacity under the current 
patchwork of authorities and programs designed to support our 
security assistance efforts. The United States remains the 
preeminent power in the Asia Pacific. Modernizing and expanding 
our relationships with our allies and security partners is also 
vital to maintaining stability and enhancing security in the 
region.
    China's growing presence and influence in the region create 
both challenges and opportunities for the United States and for 
the regional countries. China's rapid and comprehensive 
transformation of its armed forces is affecting regional 
military balances and holds implications beyond the Asia 
Pacific region. Of particular concern is that elements of 
China's military modernization appear designed to challenge our 
freedom of action in the region.
    Finally, India's strategic location, shared democratic 
values, growing economy, and evolution as a regional partner 
and power combine to make them the partner with whom we need to 
work much more closely.
    Mr. Chairman and members of this committee, the Asia 
Pacific is a region of great potential and is vital to the 
interests of the United States. Every day, the soldiers, 
sailors, airmen, marines, and civilians of PACOM are working 
with our allies, partners, and friends to maintain this 
region's security. Our success has been enabled by this 
committee's longstanding support. You've provided us with the 
most technically advanced systems in the world and with a 
military quality of life worthy of the contributions of our 
All-Volunteer Force. On behalf of more than 300,000 men and 
women of PACOM, thank you for your support and for this 
opportunity to testify on the defense posture of this Command.
    Thank you, and I look forward to your questions.
    [The prepared statement of Admiral Willard follows:]
            Prepared Statement by ADM Robert F. Willard, USN
                              introduction
    Chairman Levin, Senator McCain, and members of the committee,
    Thank you for the opportunity to appear before you today to discuss 
the United States Pacific Command and our area of responsibility (AOR) 
in the Asia-Pacific. I am pleased to report that 2009 was a very 
productive year for us and, through your continued support, we 
anticipate 2010 to be the same. I also would like to thank you for your 
interest in the AOR. I have either met many of you en route to the 
region or followed your travels with great interest. Your presence and 
interest send a strong message, and I invite all of you to stop by 
Hawaii either on your way into the region so my staff and I may brief 
you on the security environment or on the return trip to share your 
impressions from your engagements.
    Today is my first posture hearing as the Pacific Command Commander. 
Since taking command last October, I have had the chance to meet with 
many of my counterparts, travel throughout the region and exercise a 
few of our contingency plans. Based on that experience, I would hope 
that we could expand our discussion on the following areas during my 
testimony:

        <bullet> The Asia-Pacific region is vital to our Nation; it is 
        quickly becoming the strategic nexus of the globe due to its 
        economic expansion and potential.
        <bullet> Key to our commitment to the region is our forward-
        deployed/postured forces.
        <bullet> We face challenges in building partner capacity under 
        the current patchwork of authorities and programs designed to 
        support our Security assistant efforts.
        <bullet> The United States remains the preeminent power in the 
        Asia-Pacific. Modernizing and expanding our relationships with 
        our allies and security partners is vital to maintaining 
        stability and enhancing security in the region.
        <bullet> China's growing presence and influence in the region 
        create both challenges and opportunities for the United States 
        and regional countries.
        <bullet> China's rapid and comprehensive transformation of its 
        armed forces is affecting regional military balances and holds 
        implications beyond the Asia-Pacific region. Of particular 
        concern is that elements of China's military modernization 
        appear designed to challenge our freedom of action in the 
        region.
        <bullet> India's strategic location, shared democratic values, 
        growing economy and evolution as a regional power combine to 
        make them a partner with whom we need to work much more 
        closely.

    For over 60 years U.S. Pacific Command has helped provide a secure 
environment within the AOR that has allowed the regional countries to 
focus on developing their economies and building strong government 
institutions. Today we see the benefits of these efforts as the global 
economic center of gravity shifts into the region in alignment with our 
own nation's interests. Consider the following achievements over the 
past year:

        <bullet> On a combined basis, the Nations in the AOR had an 
        estimated GDP (on an exchange rate basis) of $15.1 trillion; 
        compared to total U.S. GDP of $14.3 trillion.
        <bullet> U.S. two-way trade in goods and services with 
        countries in the AOR totaled nearly $1.3 trillion.
        <bullet> In 2009, China surpassed Germany as the world's third 
        largest economy behind the United States and Japan.
        <bullet> Five of our ``Top Ten'' trading partners are now Asia-
        Pacific countries.
        <bullet> The Strait of Malacca remains one of the world's most 
        strategic waterways with over 60,000 ships transiting annually, 
        carrying half of the world's oil and 90 percent of the oil 
        imported by China, Japan and South Korea--our second, fourth 
        and seventh largest trading partners, respectively. Due to the 
        cooperative efforts of the Nations bordering this waterway, 
        piracy has dropped from a high of 38 incidents a year in 2004 
        to just 2 in 2009.

    In my travels and discussions with leaders in the region both as 
the Commander, U.S. Pacific Fleet and now as the Commander, U.S. 
Pacific Command, I have found that our continuous regional presence is 
not only welcomed, but strongly desired. Maintaining such a posture is 
not a simple task given size and diversity of our AOR. For example, 
sitting in my headquarters in Honolulu, I am closer to New York City 
than Sydney, Australia. A soldier at Fort Lewis in Washington State is 
closer to Kuwait City than he is to Bangkok, Thailand. These vast 
distances make our forward-deployed and forward-stationed forces all 
the more important if we desire to remain a highly effective influence 
in the region. The abilities of the more than 140,000 men and women--
who represent our forward-stationed/deployed joint forces--to project 
credible combat power serves as an effective deterrent to those who 
would disrupt the Asia-Pacific security environment or threaten our 
friends and allies. In no other region of the world is the requirement 
for a properly postured, ready force with dominant high-end 
capabilities more vital than in the Asia-Pacific. The forward forces 
are the strongest statement of U.S. commitment to the region and any 
reduction in their posture, readiness or capability is regarded as 
waning interest and diminished U.S. influence.
    The military and government leaders that I have spoken with have 
also made it clear that we should not take our level of influence 
within the region for granted. Many countries, most notably China, see 
the same strategic opportunities that we do and are seeking to increase 
their level of access and influence throughout the Asia-Pacific by 
building and expanding economic, diplomatic and security relationships. 
While we remain the current ``partner of choice,'' leaders consistently 
tell me it's growing more difficult to be a U.S. partner given the 
``constraints,'' such as limitations of our security assistance 
programs that often accompany that partnership.
    Among our most powerful programs for the region are the security 
assistance programs that focus on building partner capacity in 
security-related areas. These programs expose future leaders of other 
countries to our values and culture through education and training; 
present opportunities for nations to purchase U.S. military equipment 
that enables greater interoperability in our combined operations; and 
provide engagement opportunities for our best ambassadors, our young 
servicemen and women, to develop relationships with the region's 
military personnel and general populations. Unfortunately, these 
programs have not evolved much since the end of the Cold War. As 
reported by the Quadrennial Defense Review (QDR), these security 
assistance programs are constrained by a ``patchwork of authorities, 
persistent shortfalls in the resources, unwieldy processes and a 
limited ability to sustain such undertakings beyond a short period of 
time.'' I agree with this description and fully support the 
administration's efforts to reform and enhance these important programs 
as essential to maintaining, and, in some cases, regaining our 
competitive edge. I hope you will support the administration efforts in 
this regard.
    I would like to discuss in detail some of my priorities for the 
region which include: allies and partners, China, India, North Korea, 
and transnational threats.
                          allies and partners
    Five of our Nation's seven mutual defense treaties are with nations 
in the Asia-Pacific region. We continue to work closely with these 
regional treaty allies--Australia, Japan, Republic of Korea, Republic 
of the Philippines and Thailand--to strengthen and leverage our 
relationships to enhance security within the region.
Australia
    Australia remains a steadfast ally that is firmly committed to 
enhancing global and regional security and to providing institutional 
assistance throughout the Pacific. Australia is particularly active 
leading the International Stabilization Force in Timor-Leste and the 
Regional Assistance Mission to the Solomon Islands. Their contributions 
to global security are evident by their recently increased force 
presence in Afghanistan. As the largest non-NATO force provider, 
Australia has committed to contribute to our effort to stabilize 
Afghanistan.
    Australia highly values advancing interoperability and enhanced 
defense cooperation with the United States, particularly through 
training events and acquisition programs. Last year, Talisman Saber 
2009, a large scale biennial, bilateral combined arms exercise that 
focuses on strengthening the U.S.-Australian military-to-military 
relationship, enjoyed unprecedented participation (of 24,000 U.S. and 
Australian military personnel). The exercise enhanced interoperability 
and our collective ability to provide security in the region by 
focusing heavily on combined command and control, amphibious 
operations, close combat and combined arms, and joint and coalition 
logistics. The U.S. and Australian militaries also collaborate 
extensively in many other areas including Intelligence, Surveillance, 
and Reconnaissance (ISR), and Humanitarian Assistance and Disaster 
Relief (HA/DR).
Japan
    Our alliance with Japan is the cornerstone of our security strategy 
in Northeast Asia. Despite some recent challenges related to U.S. 
basing in Japan, the military relationship, as well as the overall 
alliance, remain strong, as evidenced by Prime Minister Hatoyama's 
recent pledge of support. That being said, we must make every effort--
particularly as we celebrate the 50th anniversary of the alliance--to 
remind the citizens of both the United States and Japan of the 
importance of our alliance to enduring regional security and 
prosperity.
    U.S. Pacific Command remains committed to the implementation of the 
Defense Policy Review Initiative (DPRI). Initiated by the U.S. 
Secretaries of State and Defense with their Japanese counterparts in 
2002, progress on Alliance Transformation and Realignment through the 
execution of the 2006 Roadmap for Realignment are critical next steps. 
Major elements of the Realignment Roadmap with Japan include: 
relocating a Marine Corps Air Station and a portion of a carrier 
airwing from urbanized to rural areas; co-locating U.S. and Japanese 
command and control capabilities; deploying U.S. missile defense 
capabilities to Japan in conjunction with their own deployments; 
improving operational coordination between U.S. and Japanese forces; 
and adjusting the burden-sharing arrangement through the relocation of 
ground forces.
    The rebasing of 8,000 marines and their dependents from Okinawa to 
Guam remains a key element of the Realignment Roadmap. Guam-based 
marines, in addition to those Marine Forces that remain in Okinawa, 
will sustain the advantages of having forward-based ground forces in 
the Pacific Command AOR. Currently the Government of Japan (GOJ) is 
reviewing one of the realignment elements that addresses the Futenma 
Replacement Facility (FRF) and related movement of Marine Corps 
aviation assets in Okinawa; an action which is directly linked to the 
relocation of marines to Guam and a plan to return significant land 
area to Japan. The GOJ has indicated it expects to complete its review 
by May of this year. The United States remains committed to the 2006 
DPRI Roadmap as agreed to by both countries.
    The Japan Self Defense Force is advancing its regional and global 
influence. In the spring and early summer of 2009, Japan deployed two 
JMSDF ships and two patrol aircraft to the Gulf of Aden region for 
counter-piracy operations. Although their Indian Ocean-based refueling 
mission recently ended, Japan remains engaged in the region by 
providing civil and financial support for reconstruction and 
humanitarian efforts in Afghanistan and Pakistan for the foreseeable 
future.
    Although the Japanese defense budget has decreased each year since 
2002, the Japan Self Defense Forces continue their regular bilateral 
interactions with the United States, and in some multi-lateral 
engagements with the United States and our other allies, such as the 
Republic of Korea and Australia. Last year witnessed the completion of 
several successful milestones in our bilateral relationship, including 
the completion of a year-long study of contingency command and control 
relationships and Ballistic Missile Defense (BMD) testing of a third 
Japan Maritime Self Defense Force Aegis destroyer. Japan continues to 
maintain over $4 billion in annual Host Nation Support (HNS) to our 
Japan-based force. Japan HNS contribution remains a vital strategic 
pillar of respective U.S. and Japanese alliance commitments.
Republic of Korea (ROK)
    The U.S.-ROK alliance remains strong and critical to our regional 
strategy in Northeast Asia. General Sharp and I are aligned in our 
efforts to do what is right for the United States and the ROK as this 
alliance undergoes a major transformation. I will defer to General 
Sharp's testimony to provide the details of our relationship on the 
Peninsula, but note that General Sharp's progress in handling the 
transition of wartime Operational Control (OPCON) to the ROK military 
has been exceptional as has his leadership of U.S. Forces Korea.
    The transformation of the U.S.-ROK alliance will ultimately assist 
the ROK to better meet security challenges both on and off the 
peninsula. The ROK currently maintains a warship in the Gulf of Aden in 
support of counter-piracy and maritime security operations, and has 
provided direct assistance to Operation Enduring Freedom, including 
demonstrating strong leadership in its decision to deploy a Provincial 
Reconstruction Team to Afghanistan this year. Of particular note is the 
evolving trilateral security cooperation between the United States, 
ROK, and Japan. Although there are still policy issues to be addressed 
in realizing its full potential, the shared values, financial 
resources, logistical capability, and the planning ability to address 
complex contingencies throughout the region make this tri-lateral 
partnership a goal worth pursuing.
Republic of the Philippines
    The Republic of the Philippines (RP) is simultaneously conducting a 
force-wide defense reform, transforming internal security operations, 
and developing a maritime security capability. These efforts in turn 
support important U.S. regional initiatives and contribute to a 
stronger Philippine Government capable of assuming a greater role in 
providing for its own regional security.
    In close partnership with the Armed Forces of the Philippines 
(AFP), U.S. Pacific Command continues to support Philippine Defense 
Reform (PDR). Most significantly, the Philippines is actively working 
to transition their forces from a focus on internal security operations 
to territorial defense by 2016.
    Lastly, USPACOM continues to support the AFP in their counter-
insurgency and counter-terror efforts in the south. 2009 marked some 
notable AFP successes and we have seen that its momentum has carried 
over to 2010.
Thailand
    Thailand remains a critical Southeast Asian ally and engagement 
partner. In addition, we appreciate Thailand's important global 
security contributions to overseas contingency operations, counter-
narcotics efforts, humanitarian assistance and peacekeeping operations 
(such as their upcoming deployment to Darfur).
    In Thailand, U.S. PACOM forces enjoy unmatched access and support. 
We recently completed the 29th Exercise Cobra Gold which we co-host 
with/and in Thailand. Cobra Gold remains the premier U.S. Pacific 
Command multilateral exercise which this year had 6 participants and 
observers from more than 15 nations.
    The United States and Thailand share important mutual goals on 
democracy, regional stability, counterterrorism, and 
counterproliferation. Thailand is a positive contributor to the 
regional security environment and I am committed to strengthening and 
broadening our alliance even further.
                              partnerships
    Successfully managing the many security challenges in the region 
depends upon a collaborative approach between like-minded nations who 
appreciate the fundamental relationship between security and enduring 
prosperity. U.S. Pacific Command expends significant time and resources 
developing relationships with non-ally nations who understand the role 
common cause partnerships play in the establishment of regional 
security. While these relationships often begin or focus on narrow or 
specific areas of shared interest, as trust grows and common values are 
realigned, broader regional security contributions often result. U.S. 
Pacific Command appreciates that strong bilateral relationships advance 
in complexity and effectiveness on the basis of individual engagements 
and according to capacities, capabilities, and a partner-nation's 
desire and national interest. That being said, there is regional 
security benefit provided by all of the partnerships we enjoy among the 
36 Asia-Pacific nations.
    An example of such a partnership--one that has matured 
significantly in the past several years and one that contributes in 
many ways to enhanced regional security--is the one we share with 
Singapore. Initially a relationship focused on trade, maritime 
security, and a modest U.S. logistics presence, it has since expanded 
into other areas. In 2005, the relationship was formalized with the 
signing of a security agreement which identified Singapore and the 
United States as ``Major Security Cooperation Partners.'' Today 
Singapore is one of our strongest security partners in the region, 
hosting many of our transiting ships and deploying personnel, working 
with U.S. forces in Afghanistan, and commanding the multi-national, 
counter-piracy, Combined Task Force in the Gulf of Aden.
    Our rapidly developing relationship with Indonesia--the largest 
Muslim-majority democracy in the world--provides another excellent 
example of a partnership of great importance to enduring regional 
security. After years of limited engagement with the Indonesian armed 
forces (TNI), the significant level of transparency and extent of 
institutional reforms initiated by President Yudhoyono has provided 
impetus to renew and advance our military relationship. Based on a 
desire to contribute more to the regional security effort, the TNI now 
plays a larger leading role in multilateral events and exercises that 
focus on capabilities such as HA/DR and peace keeping. We are looking 
forward to supporting Indonesia's developing security role in the 
region, particularly as the administration builds towards a new 
``comprehensive partnership.''
                                 china
    One cannot engage within the region without having a discussion 
about the Peoples Republic of China (PRC). Beijing's national strategy 
remains primarily focused on economic development which emphasizes 
domestic stability and maintaining an international security 
environment conducive to continued economic growth. This new found 
economic wealth is funding a military modernization program that has 
raised concerns in the region over the lack of transparency into 
Beijing's emerging military capabilities and the intentions that 
motivate them--a concern shared by the United States. China's interest 
in a peaceful and stable environment that will support the country's 
developmental goals is difficult to reconcile with the evolving 
military capabilities that appear designed to challenge U.S. freedom of 
action in the region or exercise aggression or coercion of its 
neighbors, including U.S. treaty allies and partners. Reconciling the 
apparent gap between the PRC's statements and its observed military 
capabilities serves to underscore the importance of maintaining open 
channels of communication and of building toward a continuous dialogue 
with China's armed forces based on open and substantive discussion of 
strategic issues. However, that type of frank and candid discussion 
requires a stable and reliable U.S.-China military-to-military 
relationship--a relationship that does not yet exist with the Peoples' 
Liberation Army (PLA).
People's Liberation Army (PLA) Modernization
    China has continued a rapid, comprehensive program of military 
modernization with supporting doctrine and a professionalization of the 
officer and enlisted ranks. This program of modernization has been 
supported by a military budget that has grown annually by double digits 
over the last decade. Beijing publicly asserts that China's military 
modernization is ``purely defensive in nature,'' and aimed solely at 
protecting China's security and interests. Over the past several years, 
China has begun a new phase of military development by beginning to 
articulate roles and missions for the PLA that go beyond China's 
immediate territorial concerns, but has left unclear to the 
international community the purposes and objectives of the PLA's 
evolving doctrine and capabilities.
    The PLA has placed increasing emphasis on attracting and retaining 
a professional cadre of officers and noncommissioned officers. 
Incentives include advanced training and education, as well as housing 
and post-service employment preferences that should lead to a more 
motivated, better trained and professional military capable of a 
broader range of combined arms missions.
    China continues to develop weapons systems, technologies and 
concepts of operation that support anti-access and area denial 
strategies in the Western Pacific by holding air and maritime forces at 
risk at extended distances from the PRC coastline. The PLA Navy is 
continuing to develop a ``Blue Water'' capability that includes the 
ability to surge surface combatants and submarines at extended 
distances from the PRC mainland. Modernization programs have included 
development of sophisticated shipboard air defense systems as well as 
supersonic sea-skimming anti-ship cruise missiles.
    China's leaders are pursuing an aircraft carrier capability. In 
1998 China purchased an incomplete former Soviet Kuznetsov class 
aircraft carrier, which began renovations in 2002 at its shipyard in 
Dalian. I expect this carrier to become operational around 2012 and 
likely be used to develop basic carrier skills.
    China continues to field the largest conventional submarine force 
in the world totaling more than 60 boats; while the quality of China's 
submarine fleet is mixed the percentage of modern, quiet submarines in 
the fleet is growing. This fleet also includes a number of nuclear 
powered fast attack and ballistic missile submarines. China is also 
developing a new submarine launched nuclear ballistic missile, the JL-
2, capable of ranging the western United States.
    China fields a growing number of sophisticated multi-role fighter 
aircraft, including the SU-27 and SU-30 purchased from Russia and 
indigenously produced 4th generation aircraft. The PLA Air Force and 
naval air forces have continued to focus on improving pilot and 
controller proficiencies in complex, multi-plane combat scenarios, 
including operations over water. The PLA has focused considerable 
effort on building up its integrated air defense capabilities and has 
deployed an increasing number of upgraded Russian SA-20 PMU 2 long 
range surface-to-air missile systems along the Taiwan Strait. China is 
also developing and testing a conventional anti-ship ballistic missile 
based on the DF-21/CSS-5 MRBM designed specifically to target aircraft 
carriers.
    Until recently, ``jointness'' in the PLA meant that different 
services operated toward a common goal in a joint or combined campaign 
with operations separated by time and distance. However, years of 
observing U.S. military operations and modern warfare campaigns have 
convinced PLA leadership of the need for greater integration between 
services to include enhanced joint operations at the tactical level. 
The PLA has adopted the concept of ``Integrated Joint Operations'' as a 
goal for the Chinese military to allow it to conduct integrated 
operations on a campaign level. Additionally, the PLA has placed 
increased emphasis on training in more demanding conditions, such as 
complex electromagnetic environments.
China's Strategic Capabilities
    China maintains a nuclear force capable of ranging most of the 
world, including the continental United States. This capability has 
been enhanced through the development of increasingly sophisticated 
road mobile delivery systems as well as the development of the Type 094 
nuclear-powered ballistic missile submarine (JIN-class SSBN). Despite 
assertions that China opposes the ``weaponization'' of space, the PLA 
is developing a multi-dimensional program to deny potential adversaries 
the use of space, an element of which was demonstrated in January 2007 
when China intentionally destroyed one of its own weather satellites 
with a direct ascent anti-satellite weapon.
    U.S. military and government networks and computer systems continue 
to be the target of intrusions that appear to have originated from 
within the PRC. Although most intrusions focus on exfiltrating data, 
the skills being demonstrated would also apply to network attacks.
China's Ongoing ``Sovereignty'' Campaigns
    Beijing remains committed to eventual unification with Taiwan, and 
has not ruled out the use of force to achieve that goal. The PLA's 
continued military advancements sustain a trend of shifting the cross-
Strait military balance in Beijing's favor. The Taiwan Relations Act 
provides that it is U.S. policy ``to provide Taiwan with arms of a 
defensive character and to maintain the capacity of the United States 
to resist any resort to force or other forms of coercion that would 
jeopardize the security, or the social or economic system, of the 
people on Taiwan.'' At the U.S. Pacific Command, we fulfill these 
obligations on a daily basis.
    Motivated by a need for indigenous natural resources and 
consolidation of self-proclaimed sovereignty limits, the PRC has re-
asserted its claims to most of the South China Sea and reinforced its 
position in the region, including the contested Spratly and Paracel 
Islands. The PLA Navy has increased its patrols throughout the region 
and has shown an increased willingness to confront regional nations on 
the high seas and within the contested island chains. Additionally, 
China lays claim to the Senkakus, administered by Japan, and contests 
areas on its border with India.
    As an integral part of its strategy, the PRC has interpreted 
certain international laws in ways contrary to international norms, 
such as the U.N. Convention for Law of the Sea (UNCLOS), and has passed 
domestic laws that further reinforce its sovereignty claims.
U.S./China Military Relationship and Security Cooperation
    U.S. Pacific Command is committed to the development of a stable 
and reliable military-to-military relationship with the PRC, which is 
critical to avoiding misperception and miscalculation and, ultimately, 
building the type of partnership that leaders in both countries aspire 
to. Although we are currently in a period of reduced engagement 
activity due to the PRC's reaction to the notification of arms sales to 
Taiwan, last year's military-to-military activities were highlighted by 
exchange visits by senior leaders from both sides. During his visit to 
Washington, DC in November 2009, General XU Caihou, Vice Chairman of 
the Central Military Commission, agreed with Defense Secretary Gates to 
further develop the military aspect of the U.S.-People's Republic of 
China (PRC) relationship. U.S. Pacific Command looks forward to working 
with the PLA on concrete and practical measures to strengthen our 
military relationship in order to improve the security interests of 
both the United States and China. These measures include senior leader 
visits, humanitarian assistance and disaster relief exercise observer 
exchanges, a naval passing exercise, and a military medical exchange. 
The PLA leadership has also shown a willingness to expand military 
engagement to areas such as counterterrorism, counter-piracy, maritime 
safety, and non-proliferation.
    As the Executive Agent for the U.S.-PRC Military Maritime 
Consultative Agreement (MMCA), U.S. Pacific Command co-led senior 
leader bilateral MMCA discussions last summer in Beijing. The MMCA 
forum was initiated in 1998 and is intended to improve safety for 
airmen and sailors when our Nations' vessels and aircraft operate in 
proximity to one another. During the December 2009 Defense Policy 
Coordination Talks held in Honolulu, both sides agreed to reinvigorate 
the MMCA as a viable diplomatic mechanism through which we can manage 
issues related to maritime and air safety.
                                 india
    The complexity, unique significance, and growing importance of the 
U.S.-India Strategic Partnership warrant considering this nation apart 
from the broader Allies and Partners focus previously discussed. Our 
Nation's partnership with India is especially important to long term 
South and Central Asia regional security and to U.S. national interests 
in this vital sub-region. India's leadership as the largest democracy, 
its rising economic power, and its influence across South Asia as well 
as its global influence attest to its pivotal role in shaping the 
regional security environment. We must continue to strengthen this 
relationship and, while our near-term challenges in Central Command are 
of great strategic importance, we must ensure the U.S.-India 
relationship remains rooted in our extensive common interests of which 
the Afghanistan-Pakistan issue is only one. U.S. Pacific Command is 
working hard to develop bonds that are trust-based, leverage our shared 
values, and endure beyond current conflicts. Such an approach is 
critical to taking advantage of the full potential of our relationship; 
and to effectively collaborating on the wide range opportunities 
available in an area of the world that is not only home to some of the 
most contentious geo-political and transnational challenges, but also 
to some of the most vital sea, air, and land lines of communication.
    Our relationship has grown significantly over the past 5 years as 
both countries work to overcome apprehensions formed during the Cold 
War era, particularly with respect to defense cooperation. Resolution 
of the long-standing End User Monitoring (EUM) issue removed a major 
obstacle to a more robust and sophisticated defense sales program. To 
date, for example, the Government of India has purchased Lockheed 
Martin C-130Js and Boeing P-8I aircraft; expressed their interest to 
acquire C-17s; and conducted flight tests of F-16s and F/A-18s (under 
consideration in the medium multi-mission role combat aircraft 
competition). The recent increase in defense sales, which exceeded $2 
billion in 2009, not only enhances U.S. access to one of the largest 
defense markets in the world, but more importantly enables greater 
cooperation between our armed forces.
    The complexity of our exercises and training events is increasing 
and we are expanding our cooperation in the Indian Ocean and beyond. We 
currently engage together combating piracy in Gulf of Aden, countering 
terrorism, enhancing maritime security, expanding POW/MIA recovery 
missions, and conducting HA/DR events. One of our most notable 
accomplishments was last year's bi-lateral Exercise Yudh Abhyas. 
Located in India, it included the largest deployment of U.S. Stryker 
vehicles outside of the Middle East. Such events offer unique training 
opportunities, allow for increased personal and professional 
interaction and relationship building, and improve our ability to work 
together across a sophisticated range of operations.
    We continue to search for new areas to cooperate as our 
relationship develops. One area that has been prominently mentioned in 
the QDR is managing the global commons. Threats in the maritime, air, 
space, and cyberspace domains will be of increasing concern to both our 
Nations; and we see many opportunities for U.S.-India cooperation to 
address broad threats to the region's and the world's common areas.
    As our relationship develops, U.S. Pacific Command remains mindful 
of the significance of India-Pakistan tensions, particularly as they 
relate to the broader security discussion and the management of geo-
political challenges that span Combatant Commands (Pakistan resides 
within Central Command's AOR and India resides in the Pacific AOR). We 
are keenly aware of the importance of a peaceful co-existence between 
these two nuclear-armed nations and stand ready to assist with this 
goal in conjunction with interagency partners.
                              north korea
    As President Obama has said, ``the path for North Korea to realize 
its future is clear: a return to the Six-Party Talks; upholding 
previous commitments, including a return to the Nuclear Non-
Proliferation Treaty; and the complete, verifiable, and irreversible 
denuclearization of the Korean Peninsula.'' We remain convinced that 
our strong bilateral alliances with Japan and the ROK, as well as our 
growing trilateral cooperation, are critical to deterring the DPRK and 
to achieving the denuclearization of the Korean Peninsula. We continue 
to work with our interagency partners to ensure military involvement in 
relevant areas such as PSI, operations to enforce UNSC resolutions, and 
multilateral non-proliferation exercises are synchronized with 
diplomatic approaches and that they contribute to the transmission of a 
clear and consistent message to the DPRK.
                         transnational threats
CounterTerrorism
    U.S. Pacific Command has long employed a strategy of working ``by, 
with, and through'' regional partners to combat terrorism in the 
region. Our main effort, the Joint Special Operations Task Force-
Philippines (JSOTF-P), operates in support of the Armed Forces of the 
Philippines (AFP) in Southern Mindanao and the Sulu Archipelago Region. 
The work of U.S. forces--advising, training, exercising, and 
informing--in conjunction with the resolute commitment and impressive 
abilities of AFP personnel, has resulted in great success. Over the 
past year the AFP has captured or killed more than a dozen Abu Sayyaf 
Group (ASG) and Jemaah Islamiya (JI) leaders. Perhaps more importantly, 
the effort has resulted in enhanced quality of life and denial of safe 
haven to extremists in the area.
    Leveraging the lessons learned in Southeast Asia, and in concert 
with our interagency and regional partners, we are developing plans to 
combat extremism in South Asia. Our efforts there will undoubtedly 
require a whole-of-government approach and a coordinated multi-national 
effort given the extent of the problem and the variety of regional CT 
organizations, responsibilities, authorities, and policies.
Weapons of Mass Destruction (WMD)
    Our main effort to counter the spread of WMD is through support for 
the State Department's Proliferation Security Initiative (PSI). Fifteen 
nations in the AOR have endorsed the PSI. Of particular note is the 
success by Thailand to enforce U.N. Security Council Resolution 1874 
last December when they intercepted 35 tons of illicit weaponry that 
had originated from North Korea.
    In October 2009, Singapore hosted the 38th PSI Exercise, Deep Sabre 
II, in which U.S. Navy and Coast Guard personnel participated--with the 
armed forces of 18 other nations--in maritime interdiction exercises 
designed to enhance the capabilities and improve the coordination of 
participating nations. We are looking forward to supporting future 
regional PSI Exercises. Additionally, and in support of the Office of 
the Under Secretary of Defense for Policy, we conducted Chemical, 
Biological, Radiological, Nuclear (CBRN) Defense and Consequence 
Management bilateral working groups with Japan and the Republic of 
Korea with the intent of improving interoperability and growing 
regional capability and capacity.
                             northeast asia
Mongolia
    A strong partner, Mongolia continues to demonstrate support for 
U.S. regional and global policy objectives, while managing positive 
relations with its two neighbors, China and Russia. The Mongolia 
Defense Reform (MDR) assists the Mongolian Armed Forces with their 
transformation into a self-sustaining, international peacekeeping force 
capable of contributing to UN, international, and coalition missions. 
In support of the Defense Security Cooperation Agency (DSCA), which 
serves as the Executive Agent for MDR, U.S. Pacific Command implements 
bilaterally agreed-to initiatives and priorities further the defense 
relationship between the United States and Mongolia.
    Members of the Mongolia Armed Forces regularly participate in 
bilateral and multilateral for a such as the Pacific Army Management 
Seminar, Pacific Rim Air Chiefs Conference, Chief of Defense 
Conference, and NCO subject matter expert exchanges.
    Mongolia continues to support peacekeeping and coalition operations 
and, with assistance from the Global Peace Operations Initiative 
(GPOI), continues to develop the Five Hills Training Center into a 
national, and eventually, a regional peacekeeping training center which 
hosts U.N.-certified training and component-level peacekeeping 
exercises for regional participants. Every year, the Mongolian Armed 
Forces partner with either U.S. Army Pacific or U.S. Marine Forces 
Pacific to host KHAAN QUEST. Following 2 years as the GPOI capstone 
peacekeeping exercise in 2006 and 2007, KHAAN QUEST remains an 
important multi-lateral peacekeeping exercise.
    Finally, I would like to add that Mongolia committed to deploying 
800 personnel to Chad in late-2009 in support of the U.N., while 
continuing to support the U.N. in Sierra Leone and other UN missions in 
Africa. A strong supporter in U.S. overseas contingency operations, in 
the fall of 2009, Mongolia deployed 200 troops in Afghanistan, with a 
security company and a mobile training team under Operation Enduring 
Freedom and a 40 soldier security detachment under the Germans as part 
of the International Security Assistance Force.
Russia
    U.S. Pacific Command coordinates all Russian security cooperation 
activities with U.S. European Command to ensure the efforts of both 
geographic combatant commands are mutually supportive. We seek 
engagement with Russia in areas of mutual interest such as counter-
terrorism, peacekeeping, and search-and-rescue operations. U.S. Pacific 
Command contacts were re-established in 2009 when the USS Cowpens and 
USS Stethem conducted port visits to Vladivostok. These port visits 
were symbolic of the historic and positive relationship that has 
existed in recent years between U.S. Pacific Command and Russia's Far 
East Command, particularly between our two navies. We plan to build on 
the success of these port visits by continuing to engage Russia in 
areas of mutual interest in accordance with the Military Cooperation 
Work Plan.
                             southeast asia
Malaysia
    Our military-to-military ties with Malaysia remain solid amidst a 
warming bilateral political relationship and enhanced ties between the 
U.S. and ASEAN nations. In 2009, U.S. Pacific Command developed closer 
ties to the Malaysian Joint Forces Command by participating in major 
command post exercises and by supporting their forces to enhance their 
capacity in maritime security operations. Malaysia maintains a strong 
leadership role in the region by being tough on terrorism, serious 
about maritime security, and committed to global peace and stability. 
We will continue to expand our cooperation with Malaysia and address 
our common security challenges.
    Cambodia is emerging as a strong supporter of U.S. policy in the 
region. The Cambodia Ministry of National Defense and Royal Cambodian 
Armed Forces are seeking U.S. engagement opportunities. In 2009, U.S. 
Pacific Command supported Cambodia's major initiatives of counter-
terrorism, maritime security, defense reform, HA/DR, and peacekeeping 
operations. In 2010, we will continue to assist Cambodia on its Defense 
Reform initiative; augment its counter-terrorism efforts with 1206 
funding; and, together with Australia and Japan, work with their 
defense establishment and interagency to achieve their maritime 
security goals.
Laos
    With the U.S. Defense Attache now in place, U.S.-Laos military-to-
military engagement is expanding. The Joint Task Force Full Accounting 
recovery mission, led by the Joint POW/MIA Accounting Command (JPAC), 
continues to be an important focus in developing U.S.-Laos military 
relations. Laos has placed a priority on English language training to 
enable greater training opportunities and participation in bilateral or 
multilateral operations. In our bilateral defense discussions with the 
Ministry of National Defense, both sides agreed to explore greater 
engagement opportunities associated with military medical cooperation, 
civil military operations, training and education, and counter-
narcotics cooperation.
Vietnam
    As we prepare to mark the 15th anniversary of the normalization of 
U.S.-Vietnam relations, our military-to-military relationship with 
Vietnam continues to improve. Vietnam hosted several ship visits this 
year including the Seventh Fleet Flag Ship, the USS Blue Ridge, and its 
escort, the USS Lassen, whose commanding officer was born in Vietnam. 
In support of JPAC, USNS Bruce Heezen, with embarked Vietnamese 
scientists and personnel, conducted the first combined hydrographic 
survey in Vietnamese waters, successfully identifying potential crash 
sites. During his visit to Pacific Command last December, Vietnam's 
Minister of Defense indicated a desire for activities that foster 
greater understanding and cooperation in various areas such as disaster 
management, conflict resolution, trafficking in persons, and improving 
relations with its neighbors. We look forward to Vietnam's chairmanship 
of ASEAN this year and its desire to take a more responsible role in 
promoting peace and security in the region.
Timor-Leste
    U.S. Pacific Command remains optimistic about the future of this 
young democracy. The Government of Timor-Leste managed to maintain 
control of the country and return home more than 10 percent of its 
population who were living in IDP camps. Timor-Leste is working with 
several other countries to begin critical institutional development 
which includes the Timor-Leste Defense Force (F-FDTL). Although its 
soldiers lack many basic capabilities, the F-FDTL leadership is 
developing a recruiting and training program to establish a legitimate, 
professional military.
    U.S. Pacific Command's interaction with Timor-Leste increased 
significantly in 2009, highlighted by our first military-to-military 
bilateral discussions. The F-FDTL participated in the Marine Exercise 
Marex 09, a multilateral exercise with Timorese and Australian Defense 
Forces that concentrated on basic infantry skills and medical and 
dental readiness. Although current engagement with Timor-Leste is 
mostly in the form of medical and dental readiness exercises and 
engineer assistance by U.S. Navy Seabees, we are hopeful that 
engagements such as Marex 09 will form the basis of our relationship as 
the F-FDTL develops into a professional military.
Burma
    Beyond the significant issues associated with their human rights 
record, Burma presents challenges to regional stability in a number of 
other areas, including a maritime border dispute with Bangladesh, 
narcotics trafficking, trafficking-in-persons, and potential for rapid 
spread of pandemic disease. The recently completed U.S. Government 
policy review and subsequent high level visits to Burma by senior-level 
members of the U.S. Government have not altered our military engagement 
with Burma. It remains essentially non-existent as a matter of policy 
and public law. That said, U.S. Pacific Command is prepared to re-
engage in a military-to-military dialogue with the Burmese whenever 
U.S. policy allows.
                               south asia
Democratic Socialist Republic of Sri Lanka
    The conclusion of the Government of Sri Lanka's war against the 
Liberation Tigers of Tamil Eelam (LTTE) terrorist group in May 2009 
brought about an uneasy peace to Sri Lanka. Concerns over the welfare 
of nearly 300,000 Internally Displaced Persons (IDPs) initially caused 
the international community to pressure the Government of Sri Lanka to 
better provide for the IDPs while expediting the return to their homes. 
To its credit, the Government of Sri Lanka has taken steps to lower the 
number of IDPs in camps to a current estimate of around 100,000.
    As a consequence of allegations of human rights violations, all 
U.S. military-to-military engagement with Sri Lanka was halted in 
August 2009, with the exception of humanitarian assistance. In the 
meantime, we await development of a U.S. Government strategy that may 
include enhanced military-to-military.
Republic of Maldives
    Since President Nasheed took office in November 2008, we have seen 
a marked increase with Maldives' desire to interact with U.S. Pacific 
Command. Maldives strategic location astride key shipping lanes in 
addition to its archipelagic geography make it a key region for 
maritime security in the Indian Ocean. Maldives requested U.S. 
assistance in helping the Maldives National Defense Force transform 
itself into a force more capable of defending against the threats of 
terrorism, piracy, and illegal drug trafficking. In response to the 
Government of Maldives' concerns that international terrorist 
organizations were actively recruiting Maldivian citizens, we provided 
assistance in development of a national intelligence capability 
enabling quicker responses across various agencies of their government.
Nepal
    The resignation by the Maoist Government in May 2009 resulted in a 
political stalemate that continues to cast serious doubts as to whether 
Nepal's Constituent Assembly can ratify a constitution by the May 2010 
deadline. The Maoists, who still control a plurality of seats in the 
Assembly, have staged numerous walkouts and demonstrations, effectively 
impeding the Constituent Assembly and the constitution drafting 
process.
    Due to the potential for the current peace to unravel, U.S. Pacific 
Command's focus is on humanitarian assistance and efforts to support 
the peaceful integration of members of the Maoist People's Liberation 
Army into the Nepalese security forces. Senior level dialogue and 
defense sector reform events are the primary means to assist this 
change. Additionally, U.S. Pacific Command continues to assist Nepal in 
the development of its peacekeeping operations and training 
capabilities through GPOI. While PACOM is focused on humanitarian 
assistance and peacekeeping activities, we are also noting an increase 
in violence in the southern Terai region. These poorly governed areas 
are susceptible to exploitation by terrorist groups in South Asia. 
PACOM will continue to closely monitor this issue and stands ready to 
assist Nepal in building its CT capacity.
People's Republic of Bangladesh
    The return to democracy in Bangladesh, while a positive step, has 
also resulted in occasional civilian-military tension that could 
potentially destabilize this moderate nation of 150 million people. 
U.S. Pacific Command has initiated several programs and events to 
assist in promoting civilian-military trust, transparency and 
cooperation.
    Despite their political issues, Bangladesh continues to be a strong 
partner who works closely with the United States to enhance regional 
security. The establishment of a naval counter-terrorism force and 
their hosting of a regional forum to counter violent extremist 
organizations are examples of Bangladesh's commitment to improve their 
counter-terrorism capacity. We also continue to work closely with 
Bangladesh to expand and improve their peacekeeping, HA/DR and maritime 
security capabilities.
                                oceania
New Zealand
    New Zealand shares many U.S. security concerns such as terrorism, 
maritime security, transnational crime, and the proliferation of 
weapons of mass destruction. New Zealand is supportive of our overseas 
contingency operations, deployed for the fourth round its Special Air 
Service (SAS) special operations troops to Afghanistan and has extended 
their commitment to lead the Provincial Reconstruction Team in Bamyan 
Province, Afghanistan until September 2010.
    While the New Zealand nuclear-free zone legislation and resultant 
U.S. defense policy guidelines constrain some bilateral military-to-
military engagement, the New Zealand Defense Force participates in many 
multilateral events that advance our common security interests. In 
2010, New Zealand will be an observer in ``Rim of the Pacific'' 
(RIMPAC)--the Pacific AOR premier multinational naval exercise. Our 
Marines continue to assist in New Zealand's efforts to integrate their 
multi-role maritime patrol vessel into regional HA/DR operations.
    New Zealand remains active in global security initiatives, from 
stabilization efforts in Timor-Leste and the Solomon Islands, to 
operations in Korea, Sudan, and throughout the Middle East. 
Additionally, the New Zealand Defense Force supports our National 
Science Foundation efforts in Antarctica by serving as the primary 
staging area for the multinational Operation Deep Freeze.
Compact Nations
    U.S. Pacific Command values our partnership with the three Compact 
Nations--the Federated States of Micronesia, the Republic of the 
Marshall Islands and the Republic of Palau. We meet our defense 
obligations to these nations under the Compacts of Free Association 
through implementation of our Homeland Defense planning and 
preparation. Additionally, we commend the professional Pacific Patrol 
Boat crews and fully support each nation's initiatives to expand 
operations to protect their valuable EEZ resources. We also recognize 
the significant contributions of the proud citizens of these nations as 
they serve in the U.S. Armed Forces and Coast Guard in Operations such 
as Iraqi Freedom and Enduring Freedom.
Guam
    As a U.S. territory in a strategically important location, Guam is 
host to a variety of U.S. Joint Forces, critically important Navy and 
Air Force installations and the headquarters for Commander U.S. Forces 
Marianas. Efforts are ongoing to simultaneously prepare for increased 
Marine Corps presence on Guam, improve Navy and Air Force 
infrastructure, and improve the quality of life for servicemembers and 
their families stationed there.
                   u.s. pacific command organizations
Asia-Pacific Center for Security Studies
    While Asia-Pacific Center for Security Studies (APCSS) is not 
subordinate to U.S. Pacific Command, it is a Department of Defense 
academic institute that supports U.S. Pacific Command by developing 
professional and personal ties among national security establishments 
throughout the region. The Center's focus is on multilateral approaches 
to security cooperation and capacity-building through its three 
academic components: executive education, conferences, and research and 
publications. In fiscal year 2009, 628 students joined the more than 
4,000 fellows from nations in the Asia-Pacific region and beyond. The 
success of APCSS programs is regularly demonstrated through the courses 
and seminars that the center offers, and its extensive networking 
efforts (there are currently 45 alumni associations in as many 
nations). APCSS builds its programs to address areas of mutual interest 
and concern held by the United States and the countries in the Asia-
Pacific region.
Joint POW/MIA Accounting Command
    Joint POW/MIA Accounting Command (JPAC) has the important mission 
of achieving the fullest possible accounting of Americans missing from 
our Nation's conflicts. Last year, JPAC successfully completed 69 
missions globally and, in cooperation with 16 nations on 4 continents, 
identified 93 Americans missing from the Vietnam War, Korean War, and 
World Wars I and II. We expect another successful year in 2010 and are 
projected to execute 75 missions. Of note, engagement with North Korea 
remains suspended, but we are prepared to resume discussions and 
operations as soon as conditions permit.
Joint Interagency Task Force West
    Joint Interagency Task Force West's (JIATF-West) mission is to 
conduct activities to detect, disrupt, and dismantle drug-related 
transnational threats in Asia and the Pacific by providing interagency 
intelligence fusion, supporting U.S. law enforcement, and developing 
partner nation capacity. The command was essential to several 
significant victories this past year that included JIATF-West Tactical 
Analysis Team support to law enforcement operations which dismantled 
several transnational criminal organizations. JIATF-West also worked 
directly with the Drug Enforcement Agency in the multi-ton seizure 
operation of Asian precursor chemicals destined to methamphetamine 
laboratories in Mexico and Guatemala.
    With respect to capacity building successes in 2009, JIATF-West 
supported the establishment of Vehicle Control Checkpoint (VCC) 
facilities in Sikhiu and Chumphon, Thailand. These VCCs were 
specifically set up to enhance border security and interdiction 
capacity in a region known for illicit trafficking. Also this year, 
JIATF-West executed 17 counter-narco-terrorism training missions which 
trained 1,578 partner nation law enforcement officials from Malaysia, 
Philippines, Thailand, Cambodia, and Vietnam in ground and maritime 
interdiction skills.
    Although JIATF-West's authorities allow us to act against 
transnational criminal organizations, inclusion of Indonesia and the 
Republic of the Philippines under 1033 authority would allow us to 
better support U.S. and partner-nation Law Enforcement Agencies. This 
authority would allow JIATF-West to provide tools and training to 
maintain operational maritime assets, and automated data processing and 
information technology networking equipment for JIATF-West--constructed 
interagency fusion centers.
                                programs
Security Assistance
    Foreign Military Financing (FMF) and International Military 
Education and Training (IMET), executed in partnership with the 
Department of State and our embassy country teams, are powerful 
engagement tools for building security partnerships with developing 
countries. FMF--the program for financing the acquisition of U.S. 
military articles, service, and training that support U.S. regional 
stability goals--continues to demonstrate its worth. It has been 
particularly important to supporting partners engaged in combating 
violent extremism, especially the Philippines and Indonesia. The IMET 
program--which provides education and training to students from allied 
and friendly nations--also continued to provide lasting value to all 
participants. The program is a modest but highly effective investment 
that yields the professional and personal relationships that are so 
important to regional security.
Science and Technology
    The U.S. Pacific Command Science and Technology (S&T) Advisor 
actively engages with Service and Defense S&T organizations to identify 
potential solutions to operational problems that have a critical impact 
on combat readiness. This advisor is also responsible for executing the 
S&T Strategy in support of the lines of operation in our Theater 
Campaign Plan. That strategy focuses on improving partnership 
opportunities throughout the AOR and encourages cooperative S&T efforts 
through the extensive use of OSD's Joint Capability Technology 
Demonstration (JCTD) and Coalition Warfare Program (CWP).
Pacific Partnership
    One of the U.S. Navy's newest cargo ships, USNS Richard E. Byrd (T-
AKE 4), successfully deployed to Oceania on a five-country, 3-month 
humanitarian and civic assistance mission from June to September 2009. 
The mission travelled, for the first time to Samoa, Tonga, and Kiribati 
and returned for a second visit to Solomon Islands and the Republic of 
the Marshall Islands. This annual deployment is designed to build 
partner capacity and multilateral capability in medical, dental, 
veterinary and engineering disciplines to enhance regional security and 
better prepare participating organizations to respond to regional 
crises. It is a remarkable multinational and multi-organizational 
evolution that, this year, involved personnel from 14 nations and 
countless international and host-nation Nongovernmental Organizations 
(NGOs). In all, the mission treated more than 22,000 medical and dental 
patients, conducted 116 community relations projects, and completed 17 
engineering and infrastructure projects. This summer Pacific 
Partnership will return to the region aboard USNS Mercy, the Navy's 
West Coast hospital ship, to deliver help and hope to the people of 
Indonesia, Timor Leste, Cambodia, and Vietnam.
Pacific Angel
    Pacific Angel employs the exceptional capabilities of the Pacific 
Air Forces International Health Services to conduct humanitarian 
assistance and public diplomacy in less accessible areas of South East 
Asia. This unique C-17, C-130, and KC-135-based operation is designed 
to increase public health capacity as well as cooperation and 
understanding among the armed forces, NGOs, regional partners, and 
peoples of Vietnam, Indonesia, Timor-Leste, and the United States. 
Assisted by partner-nation and NGO medical personnel, Pacific Angel 
conducted six Medical Civic Action programs, cared for 14,978 medical 
and 1,010 dental patients, and completed 6 engineering civic-actions 
projects.
NDAA Section 1206
    Congressional 1206 authority is the only partner capability/
capacity building tool that we have to address urgent or emergent needs 
in the region. Last year U.S. Pacific Command contributed more than $31 
million to the maritime security capabilities of Bangladesh and the 
Philippines. In fiscal year 2010, we intend to build upon the 
initiatives funded in 2009 and to expand counterterrorism capability/
capacity in South and Southeast Asia. Given the success of these 
efforts to date, we very much support the President's request.
Overseas Humanitarian, Disaster, and Civic Aid
    In the Asia-Pacific, we respond to natural disasters about every 60 
days. Overseas Humanitarian, Disaster, and Civic Aid (OHDACA) funds 
enable Pacific Command forces to respond quickly to those in need when 
these inevitable disasters occur. Additionally, OHDACA-supported 
activities promote interoperability and coalition-building with foreign 
military and civilian counterparts, and improve basic living conditions 
for populations in countries and regions that are particularly 
susceptible to violent extremism. OHDACA projects offer a significant 
and sometimes unique opportunity in the region; and have been 
particularly helpful to decreasing the operating space of terrorists 
and violent extremists. OHDACA is a critical element in PACOM's 
comprehensive approach to counter-terrorism in South Asia; specifically 
in Bangladesh and Sri Lanka.
Global Peace Operations Initiative
    Global Peace Operations Initiative (GPOI) is rooted in a G-8 
commitment to address major gaps in peace operations around the world. 
The global initiative aims to build and maintain the capability, 
capacity, effectiveness of professional peacekeeping forces. Within the 
Asia-Pacific region, U.S. Pacific Command's GPOI program leverages 
existing host-nation programs, institutions, policies, and exercises. 
We encourage long-term sustainment of qualified forces through a 
``train-the-trainer'' approach, which enables standardization and 
interoperability, and works within the framework of United Nations 
guidelines. The GPOI program has been fully implemented by U.S. Pacific 
Command in Bangladesh, Cambodia, Indonesia, Malaysia, Mongolia, Nepal, 
Thailand, and Tonga; and this year we will begin implementation in the 
Philippines. Also in 2010, U.S. Pacific Command will co-host with 
Cambodia the largest multinational peacekeeping capstone exercise 
conducted in the Asia-Pacific region. We expect participation in this 
exercise, Angkor Sentinel, more than 20 of our regional GPOI partners.
Multinational Planning Augmentation Team
    The Multinational Planning Augmentation Team (MPAT) program is a 
cooperative, multi-national effort to facilitate the rapid and 
effective establishment of a multinational headquarters in response to 
an HA/DR event in the Asia-Pacific region. The vision of the program is 
to develop a cadre of multinational military planners from regional 
nations. The MPAT effort--which currently involves more than 30 
nations--works to provide coalition and combined expertise in crisis 
action planning and seeks to develop procedures that promote 
multinational partnerships and cooperation in response to military 
operations other than war and small scale contingencies. Recent MPAT 
events have focused on building capacity for response to humanitarian 
crises and on developing standardized operating procedures.
                               challenges
Multi-National Information Sharing
    The ability to exchange information among DOD components, all 
levels of U.S. Government, coalition partners, and the private sector 
is becoming increasingly important to regional operations; and 
increasingly dependent on Multi-National Information Sharing (MNIS) 
efforts such as the Combined Enterprise Regional Informational Exchange 
Cross Enclave Requirement Program and the Improved Connectivity 
Initiative.
Joint Information Environment
    Within DOD, Services IT architectures are often redundant or 
incompatible. In an attempt to address this issue, U.S. Pacific Command 
is partnering with the DOD Chief Information Officer, the Joint Staff, 
all Services, and Industry to develop a Joint Information Environment 
(JIE) that moves to a unified and integrated net-centric environment. 
When realized, this environment will eliminate the need for Joint Force 
Commanders to integrate networks; further, it will enable personnel 
access to the information with a single log-on from anywhere on a DOD 
network.
Cyberspace
    U.S. Pacific Command faces increasingly active and sophisticated 
threats to our information and computer infrastructure. These threats 
challenge our ability to operate freely in the cyber commons, which in 
turn challenges our ability to conduct operations during peacetime and 
in times of crisis. U.S. Pacific Command, in conjunction with the newly 
established U.S. Cyber Command and other Service and Agencies, is 
working on solutions to detecting these attacks on our networks and to 
responding to them in near real-time.
Intelligence, Surveillance, and Reconnaissance
    Given the size and nature of the Asia-Pacific region, effective 
Intelligence, Surveillance, and Reconnaissance (ISR) is essential to 
obtaining critical insights into the plans, capabilities, and intent of 
our current and potential adversaries. We continue to work with the 
National Intelligence Community, the Undersecretary of Defense for 
Intelligence, and the Joint Staff to effectively address our 
intelligence collection priorities, capability gaps, deployments of 
assets, and processing, exploitation, and dissemination of information 
to maximize situational awareness and warning.
Missile Defense
    To defend U.S. forces, interests, allies and friends from short-, 
medium-, and intermediate-range ballistic missiles, U.S. Pacific 
Command seeks a forward-deployed, layered, and integrated air and 
missile defense system capable of intercepting threat missiles 
throughout their entire time of flight. Additionally, we are 
coordinating with the Government of Japan to leverage the newest 
Japanese systems--such as PATRIOT PAC-3, AEGIS SM-3 capable ships and 
their associated radars.
Piracy
    The U.S. Pacific Command continues to facilitate multilateral 
efforts to improve regional and global maritime security, especially in 
the Strait of Malacca, the archipelagic regions of South East Asia, and 
in the Gulf of Aden. In Southeast Asia, U.S. Pacific Fleet conducted 
the annual Southeast Asia Cooperation Against Terrorism exercise, which 
is designed to highlight the value of information sharing and multi-
national coordination (participants included Brunei, Malaysia, the 
Philippines, Singapore, and Thailand; Indonesia participated this past 
year as an observer). Also of note is the cooperation between 
Indonesia, Malaysia, Singapore, and most recently, Thailand, to patrol 
the Malacca Straits, an effort which has contributed significantly to 
reduced incidents of piracy in that vital choke point. Lastly, in the 
tri-border area where Malaysia, the Philippines and Indonesia share 
common maritime boundaries, terrorist freedom of action has been 
curtailed as a consequence of improved maritime surveillance and 
response capabilities procured using 1206 authorities.
Pandemic Influenza
    U.S. Pacific Command maintains a robust pandemic influenza (PI) 
response plan that supports force health protection, Defense Support of 
Civil Authorities, and Foreign Humanitarian Assistance. Advise, and 
Assess teams are available to provide assistance and to coordinate 
additional support for U.S. States and Territories. Additionally, we 
are postured to deploy teams to advise U.S. Country Teams and partner 
nations on PI response and to assess infectious disease control and 
surveillance programs, laboratories and response team capabilities.
    This past year, we conducted more than a dozen PI-related events 
that included bi-and multi-lateral exercises and subject matter 
exchanges within our AOR. Highlights from the past year include the 
Joint Task Force-Homeland Defense exercise Lightning Rescue 2009, which 
tested the State of Hawaii's PI response and validated domestic 
relationships and linkages to the U.S. Pacific Command PI plan.
                                closing
    U.S. Pacific Command must be recognized as both an extension of 
U.S. military power as well as a committed and trusted partner in the 
Asia-Pacific. Our every endeavor must promote a region whose nations 
are secure and prosperous. Throughout the AOR, we are fortunate to have 
allies, partners and friends who willingly and effectively contribute 
to regional security and who seek to advance their partnerships with 
the United States on behalf of the 36 nations and 3.4 billion people 
who reside in the Asia-Pacific region.
    In closing, I would like to express my appreciation to the 
Committee for the long-standing support you have provided our military. 
Your efforts have provided our members with the most technically 
advanced systems and with a quality of life that recognizes the 
contributions our young men and women make to our Nation every day. On 
behalf of the more than 300,000 men and women of the Pacific Command, 
thank you for your support and for this opportunity to testify on the 
defense posture in the U.S. Pacific Command.

    Chairman Levin. Admiral, we thank you so much. Thank you 
for those comments, as well, about the work of this committee.
    General Sharp.

   STATEMENT OF GEN WALTER L. SHARP, USA, COMMANDER, UNITED 
  NATIONS COMMAND, COMBINED FORCES COMMAND, U.S. FORCES-KOREA

    General Sharp. Chairman Levin, Senator Burr, and 
distinguished members of this committee, I really appreciate 
the opportunity to report to you today on the state of the UNC, 
CFC, and USFK.
    This year marks the 60th anniversary of the Korean war. 
Since 1950, Congress and the American people have made an 
enormous investment in blood and treasure to first defeat and 
then deter North Korean aggression. The alliance continues to 
reap the returns of that investment. The Republic of Korea 
(ROK) bears the majority of the burden of defending itself, and 
in 2012, wartime operational control (OPCON) transitions from 
CFC to the ROK Joint Chiefs of Staff (JCS).
    Beyond its borders, the ROK has become an important part of 
the international efforts to keep peace and respond to 
disasters. With significant forces deployed to Lebanon, Haiti, 
the Horn of Africa, and on other missions, the ROK is fast 
becoming a global strategic ally envisioned by the 2009 Joint 
Vision Statement signed by Presidents Lee and Obama. With our 
long-term commitment of 28,500 troops, we will continue to 
deter aggression and maintain peace, not only on the Korean 
Peninsula, but throughout Northeast Asia.
    Last year, I spoke about my three command priorities. 
Thanks to your support and funding, I am able to share with you 
the progress that we have made since then.
    First, the U.S. forces in the ROK-U.S. Alliance are 
prepared to fight and win. I flew here directly from our annual 
Key Resolve/Foal Eagle combined exercise. This exercise 
demonstrated that the U.S. and ROK forces and staffs are 
trained and ready to fight, tonight, on the Korean Peninsula.
    Second, the ROK-U.S. Alliance continues to grow and 
strengthen. Militarily, we will be prepared to transition 
wartime OPCON to the ROK JCS on 17 April 2012. In last year's 
Ulchi Freedom Guardian exercise, we successfully stood up and 
tested many post-OPCON transition command-and-control 
structures. Through our Strategic Transition Plan, future Ulchi 
Freedom Guardian exercises, and the final certification 
exercise, we will ensure the readiness of the ROK JCS to accept 
wartime OPCON in 2012 and the ability for the U.S. Korea 
Command to become the supporting command.
    My third priority is improving quality of life for the 
command personnel. We are making substantial progress here, 
and, with Congress's support, we will be able to achieve all of 
our goals. We are improving the quality of life through two 
main key initiatives. The first is the relocation of U.S. 
forces. By consolidating U.S. forces from 105 facilities that 
we maintained in 2002 to 48 sites in 2 hubs, we will make 
better use of limited resources and be better positioned to 
support our servicemembers and families.
    The second initiative toward normalization goes hand-in-
hand with the relocation. As we consolidate bases, we are 
building the world-class facilities and housing that are 
transforming USFK from a command where 1-year tours are the 
norm to one where single servicemembers serve for 2 years and 
those with families stay for 3. In the last 2 years, the number 
of families in the Korean Peninsula has increased from 
approximately 1,600 to 3,900. By keeping trained personnel in 
Korea for normal lengths, we retain institutional knowledge, 
create a more capable force, and are better able to support the 
Alliance and deter aggression, and we demonstrate our 
commitment to Northeast Asia. At the same time, we are 
eliminating an unneeded unaccompanied tour and building the 
strong families that are key to retention and effectiveness in 
this time of ongoing conflict.
    To close, the ROK-U.S. Alliance has never been stronger. 
The Alliance has successfully deterred aggression on the Korean 
Peninsula for 57 years. In doing so, it has helped make 
Northeast Asia a remarkable--remarkably peaceful and prosperous 
place. With the ROK contributing a substantial portion of the 
Alliance's cost, we are maintaining the combat readiness and 
improving the quality of life of our military personnel.
    I thank you for supporting our soldiers, sailors, airmen, 
marines, and DOD civilians, and their families, serving in the 
great nation of Korea.
    This concludes my remarks, and I look forward to the 
committee's questions.
    Thank you, Mr. Chairman.
    [The prepared statement of General Sharp follows:]
             Prepared Statement by GEN Walter L. Sharp, USA
                            i. introduction
    Mr. Chairman and distinguished members of the committee, I am 
honored to provide my statement to you. As the Commander, United 
Nations Command (UNC); Commander, Republic of Korea-U.S. Combined 
Forces Command (CFC); and Commander, United States Forces Korea (USFK), 
it is a privilege to represent the soldiers, sailors, airmen, marines, 
Department of Defense (DOD) civilians, and their families who serve our 
great Nation in the Republic of Korea (ROK). On behalf of these 
outstanding men and women, thank you for your support of American 
forces stationed in the ROK and your commitment to improving the 
quality of life for Command personnel and their families. Your 
sustained support allows us to deter aggression against the ROK and 
promote peace and stability on the Korean Peninsula, which in turn 
promotes peace and stability in the region of Northeast Asia and helps 
protect the national interests we share with regional partners. I 
appreciate this opportunity to report on the state of affairs on the 
Korean Peninsula, my Command priorities, the plans in place for 
organizational transformation of the commands I lead, and how this 
change will strengthen the ROK-U.S. Alliance.
    This year we mark the 60th anniversary of the start of the Korean 
War, a 3-year conflict that resulted in millions of military and 
civilian casualties and has yet to be concluded by a formal peace 
agreement. This year my commands will support a host of ROK led events 
to honor those who played a role in repelling North Korea's aggression 
of six decades ago. Also this year we recognize the 57th anniversary of 
signing the ROK-U.S. Mutual Defense Treaty. Serving as a cornerstone 
for the broader ROK-U.S. Alliance, mutual commitments under the treaty 
have allowed the Alliance to deter aggression against the ROK and 
promote peace and stability on the Korean Peninsula and in Northeast 
Asia.
    The Korean Peninsula sits at the center of Northeast Asia--a 
dynamic region that has significant national interests for the United 
States. \1\ Northeast Asia is home to four of the world's six largest 
militaries in terms of personnel and two nuclear powers (China and 
Russia).\2\ The region contains 25 percent of the world's population 
and is an economic powerhouse.\3\ In 2009, Northeast Asia housed 5 of 
the world's 19 largest economies that collectively accounted for 24.8 
percent of global gross domestic product during that year.\4\ Countries 
in the region also accounted for 25.8 percent of U.S. trade in goods 
during 2009.\5\ At the end of 2008, the U.S. direct investment position 
in Northeast Asia was valued at $220.7 billion.\6\
---------------------------------------------------------------------------
    \1\ The region of Northeast Asia is defined to include the 
following countries and special administrative regions: China, North 
Korea, Hong Kong, Japan, Macau, Mongolia, ROK, Russia, and Taiwan.
    \2\ In terms of number of personnel in the armed forces, the 
world's six largest militaries during 2009 were: China (2.1 million 
personnel); United States (1.54 million); India (1.28 million); North 
Korea (1.2 million); Russia (1.02 million); and the ROK (687,000). 
Personnel data obtained from The Military Balance 2009, produced by the 
International Institute for Strategic Studies.
    \3\ Population percentage calculated with data obtained from the 
Central Intelligence Agency (CIA) World Factbook. Percentage is as of 
July 2009.
    \4\ Gross Domestic Product (GDP) at purchasing power parity in 2009 
for the economies of Northeast Asia were: China-$8.7 trillion; Japan-
$4.1 trillion; Russia-$2.1 trillion; ROK-$1.3 trillion; Taiwan-$693 
billion; Hong Kong-$301 billion; North Korea-$40 billion (2008); Macau-
$18 billion; and Mongolia-$10 billion. GDP data obtained from the CIA 
World Factbook.
    \5\ U.S. trade in goods during 2009 was valued at $366 billion with 
China, $147 billion with Japan, $67 billion with the ROK, $46 billion 
with Taiwan, $23 billion with Russia, $55 million with Mongolia, $24 
billion with Hong Kong, $446 million with Macau, and $900,000 with 
North Korea. Trade data was obtained from the U.S. Census Bureau.
    \6\ The direct investment figure is on a historical cost basis and 
was obtained from data published by the U.S. Bureau of Economic 
Analysis. Countries/special administrative region included in the 
valuation are China, Hong Kong, Japan, Taiwan, and the ROK.
---------------------------------------------------------------------------
    While Northeast Asia has grown into a major economic region, it is 
also characterized by uncertainty, complexity, and rapid change. 
Historical animosities, territorial disputes, competition over access 
to resources, and struggles for regional hegemony have combined to pose 
difficult and long-term security challenges not only for regional 
states but also for the international community. U.S. force presence in 
the ROK is a long-term investment in regional peace and stability and 
both maintains security commitments to the ROK established under the 
Mutual Defense Treaty and reinforces American engagement with actors 
throughout Northeast Asia. U.S. force presence in the ROK also helps 
set the conditions for denuclearization of the Korean Peninsula and 
eventual reunification of the two Koreas in a peaceful manner. A strong 
ROK-U.S. Alliance, with a meaningful U.S. force presence on the Korean 
Peninsula, is essential to meet the security challenges posed in the 
dynamic and economically growing region of Northeast Asia. As observed 
in the 2010 Quadrennial Defense Review, achieving core missions of 
American armed forces requires strong security relationships with 
allies and partners that are best enabled and maintained through long-
term presence and sustained interaction.
                     ii. state of affairs in korea
Assessment of the ROK
    Last month ROK President Lee Myung-bak marked the start of the 
third year of his 5-year term in office.\7\ President Lee Myung-bak has 
committed the ROK to taking on a more global orientation in its 
policies and to assume a greater role in the international community. 
Indeed, President Lee has made the development of a ``Global Korea'' 
one of five national goals for the ROK.\8\ Later this year the city of 
Seoul will host a Group of 20 (G20) summit and at the end of 2009 the 
ROK officially joined the Organization for Economic Cooperation and 
Development's Development Assistance Committee, pledging to nearly 
triple its current level of official development assistance to a value 
that will equal 0.25 percent of gross national income in 2015. The 
ROK's commitment to assume a greater role in the international 
community is evidenced by its participation in about a dozen 
peacekeeping operations around the world, its plans to form a 3,000 
person military unit that can be rapidly deployed in support of such 
operations, and a general willingness to support international 
stability and reconstruction operations such as in Haiti and 
Afghanistan (where in Afghanistan the ROK will deploy a Provincial 
Reconstruction Team later this year).\9\
---------------------------------------------------------------------------
    \7\ In the ROK, Presidents serve a single, 5-year term of office 
without the possibility of re-election.
    \8\ The other four national goals are to develop a government 
serving the people, a lively market economy, active welfare, and a 
country rich in talent. See the ROK Office of the President (Blue 
House) Web site.
    \9\ Peacekeeping operations include UNIFIL (Lebanon), UNOMIL 
(Liberia), UNAMA (Afghanistan), UNMIS (Sudan), UNAMID (Darfur), UNMIN 
(Nepal), UNOCI (Ivory Coast), MINURSO (Western Sahara), UNMOGIP (India/
Pakistan), Somalia, Haiti, and Afghanistan.
---------------------------------------------------------------------------
    In June 2009 the ROK Government released a revision to its National 
Defense Reform 2020 plan. First written in 2005, the defense reform 
plan aims to modernize and restructure the ROK military through 2020 so 
that it is ready to address the future security environment and 
challenges. The revised plan focuses on developing capabilities to 
address North Korea's asymmetric threats (identified as its nuclear and 
missile programs), successful transition of wartime operational control 
(OPCON) to the ROK military, enhancing jointness, developing network 
centric warfare capabilities, increasing managerial efficiencies to 
include the extensive use of civil resources, enhancing the ability to 
participate in operations sponsored by the international community, and 
contributing to development of the national economy. The objective is 
to develop an information and technology-intensive military force that 
can cope well with a comprehensive set of security threats. As stated 
by President Lee during his 1 October 2009 Armed Forces Day speech, the 
ROK military must transform into a highly efficient multi-purpose 
professional elite force that can support Korea's bid to carry out 
roles commensurate with its growing international stature. Through 2020 
the ROK plans on spending an accumulative 599.3 trillion won ($466 
billion) on defense to include expenditures on this reform initiative. 
I fully support the ROK's Defense Reform 2020 initiative and hope the 
plan is fully resourced throughout the life of the program.
Assessment of North Korea
    North Korea continues to be a threat to regional as well as global 
security and prosperity. Over the past year, Pyongyang's foreign policy 
alternated from provocative actions to a willingness to engage in some 
forms of dialogue. North Korea tested its nuclear and missile 
capabilities and continued attempts to proliferate conventional arms 
and other materials in violation of United Nations Security Council 
resolutions. Pyongyang has also maintained its aging but massive 
forward deployed conventional military force. North Korea will remain a 
serious security threat in the region and a significant concern for the 
U.S and the international community for the foreseeable future.
    Strategy, Goals, and Internal Dynamics
    Kim Jong-il's strategic goal is the survival and continuance of his 
regime. North Korea's efforts to build a nuclear arms program have 
become the key component of its strategy to guarantee regime survival. 
This program is now assessed to have enough plutonium for several 
nuclear weapons. Nearly 16 years after the signing of the 1994 Agreed 
Framework, Pyongyang continues to try to develop nuclear capabilities. 
In 2009, it announced a second nuclear test, made public statements 
about its plutonium reprocessing and weaponization activities, and 
announced progress in uranium enrichment. These efforts, along with the 
sustained development of a complementary missile delivery system, will 
likely continue into the foreseeable future. North Korea appears to 
desire international recognition as a nuclear weapons state, which the 
United States, the ROK, and many members of the international community 
(including five members of the Six-Party Talks) have made clear is 
unacceptable.
    On the domestic front, Kim Jong-il appears to have recovered from 
an apparent stroke in the summer of 2008 and remains in full control of 
North Korea. Over the past year Kim has systematically introduced his 
third and youngest son--Kim Jong-eun--as the heir apparent. Meanwhile, 
North Korea's ruling elite, whose privileged position apparently rests 
upon continuance of the status quo, appears unwavering in its loyalty 
to Kim Jong-il. The role of the military in Pyongyang's decisionmaking 
apparatus appears to be more prominent, as highlighted by last year's 
expansion of the National Defense Commission authorities. North Korea's 
conventional and asymmetric military forces remain the guarantor of 
Kim's power. The regime manufactures the perception of an external 
threat--primarily from the United States--to maintain internal control 
and justify its ``military first'' policy.
    A Year of Pyongyang Provocations and Posturing
    Last year, North Korea initiated a series of provocative actions 
against the ROK, including announcing its unilateral nullification of 
the 1991 South-North Basic Agreement, restrictions of ROK activity at 
the Kaesong Industrial Complex (KIC), and threats against ROK naval 
forces off the western coast of the Peninsula. Pyongyang in April 
launched a Taepo Dong-2 and in May announced that it conducted a second 
nuclear test in defiance of United Nations Security Council 
resolutions. North Korea also launched multiple shorter range missiles 
off its eastern coast, reversed disablement procedures at its Yongbyon 
nuclear facility, announced the reprocessing of spent nuclear fuel to 
obtain additional fissile material, announced its withdrawal from the 
Six-Party Talks, and stated its intent not to abide by the 1953 
Armistice Agreement.
    In August, Pyongyang released two detained American journalists, a 
detained South Korean KIC employee, and four detained ROK fisherman. 
Pyongyang also lifted its earlier imposed KIC border restrictions and 
allowed inter-Korean family reunions at Mount Kumgang. But in October, 
North Korea launched more missiles, announced that its uranium 
enrichment development program was in its final stages and that all 
plutonium had been harvested and would be weaponized, and provoked an 
inter-Korean naval skirmish.
    North Korea's provocations during the first half of 2009 may have 
been intended to test the resolve of the new administration in 
Washington, create tension in ROK domestic politics, or set conditions 
internally for the introduction of a regime successor. Of North Korea's 
true intentions, we know little. But what is clear is that these 
actions resulted in the North's further isolation--highlighted by 
unanimous passage of additional United Nations Security Council 
sanctions--and pressure to return to denuclearization talks from all 
five parties, including China and Russia. After these events, North 
Korea launched a ``charm offensive'' in the second half of 2009, 
inviting foreign visitors and business interests to visit the country. 
This has not yet led to any measurable progress towards the complete 
and verifiable denuclearization of North Korea.
    Last year, North Korea's annual domestic food production remained 
dismal, with the country dependent upon international assistance to 
meet its basic subsistence requirements. Despite its serious economic 
problems, Pyongyang reportedly continued to divert precious national 
resources to its conventional and asymmetric military forces. At year's 
end, North Korea announced a currency redenomination which appears to 
have confiscated what little wealth might have been accumulated by 
private farmers and traders and which many now regard as a failure.
    Though aging and technologically inferior, North Korea's massive 
army and vast artillery forces continue to represent a substantial 
threat capable of initiating limited offensives against the ROK that 
could potentially cost thousands of lives and billions of dollars in 
damage. North Korea also continued to develop its missile forces by 
attempting a multi-stage space launch vehicle, as well as multiple 
theater ballistic missile launches. Pyongyang continued to focus 
resources on its conventional and asymmetric military forces despite 
food shortages and a faltering economy. North Korea's missile 
capabilities remain a significant regional and global threat.
    North Korea Threat Outlook
    My number one concern will remain Pyongyang's continuing attempts 
to develop its nuclear and missile capabilities. The full potential of 
these capabilities would threaten the United States, our regional 
allies, and the international community. We must also be mindful of the 
potential for instability in North Korea. Combined with the country's 
disastrous centralized economy, dilapidated industrial sector, 
insufficient agricultural base, malnourished military and populace, and 
developing nuclear programs, the possibility of a sudden leadership 
change in the North could be destabilizing and unpredictable.
    In the future, Pyongyang may continue its strategy of periodically 
heightening tensions. We must never be complacent about the possibility 
that North Korea might take additional provocative steps or even launch 
an attack on the ROK. To address this threat, UNC/CFC/USFK must 
maintain the highest level of readiness.
                        iii. command priorities
    I have established three priorities for the commands. These 
priorities have remained constant and serve as the guiding principles 
for all key initiatives pursued. The three priorities are: (1) be 
prepared to fight and win; (2) strengthen the ROK-U.S. Alliance; and 
(3) improve the quality of life for all servicemembers, DOD civilians, 
and their families. I will address each of these priorities and the key 
initiatives within each below.
Prepared to Fight and Win
    My first priority as Commander of UNC, CFC, and USFK is to maintain 
trained, ready, and disciplined combined and joint commands that are 
prepared to fight and win. This has been the focus of U.S. forces 
stationed in Korea for more than 50 years and for the CFC since it was 
established in 1978. Maintaining ``fight tonight'' readiness is the 
primary reason U.S. forces are stationed in the ROK, supporting the 
alliance between the American and Korean people in defense of the ROK. 
The Alliance stands ready to address the full spectrum of conflict that 
could emerge with little warning on the Korean Peninsula. This spectrum 
of conflict ranges from major combat operations under conditions of 
general war or provocation, to multiple possibilities of destabilizing 
conditions on the Peninsula, to humanitarian assistance operations, and 
even the elimination of weapons of mass destruction. Given these varied 
potential security challenges, it is imperative that our forces 
maintain the highest possible level of training and readiness.
    In order to address the full spectrum of conflict that could emerge 
on the Korean Peninsula, the Command has developed and constantly 
refines plans to deter aggression against the ROK, defeat aggression 
should deterrence fail, and respond to other destabilizing conditions 
that could affect the ROK. U.S. and ROK military personnel develop and 
maintain their warfighting skills through tough, realistic training to 
include theater-level exercises that leverage a variety of facilities 
and ranges located in the ROK.
    The Command conducts two annual exercises: Key Resolve/Foal Eagle 
and Ulchi Freedom Guardian. Key Resolve, a Command Post Exercise 
focused on crisis management, trains and sharpens skills on how we will 
fight today using existing organizational structures where CFC executes 
command and control over the combined force. Foal Eagle is a large-
scale combined field training exercise that includes the strategic 
deployment of American forces from bases in the United States as well 
as the participation of thousands of ROK troops. Key Resolve and Foal 
Eagle ensure that CFC remains ready today to decisively defeat any 
aggression that is directed against the ROK. The second annual 
exercise--Ulchi Freedom Guardian--is a computer-simulated warfighting 
exercise that focuses on the development of Alliance command and 
control structures that will exist after the transition of wartime 
OPCON of ROK forces in April 2012.
    Maintaining ``fight tonight'' readiness can only occur when 
training is conducted that prepares forces to address the full spectrum 
of operations that characterizes today's complex operational 
environment. It is vital that Command training facilities and events 
support the full transformation of U.S. military forces stationed in 
the ROK. The U.S. Army and U.S. Marine Corps possess adequate training 
resources in the ROK to maintain unit combat readiness to include the 
rehearsal of robust amphibious operations. But USFK still faces 
challenges with respect to the training of air forces located in the 
ROK. We have made progress with our ROK hosts in scheduling and 
maximizing use of limited ranges. However, there is still insufficient 
training range capability and capacity. A continued shortfall in 
electronic warfare training capability and restrictions placed on 
precision guided munitions training pose deficiencies that must be 
addressed. Deployments of U.S. air forces to training events outside 
the Korean Peninsula mitigate current training shortfalls and ensure 
the same standard of training and readiness as American combat air 
forces not located in the ROK. This is not a long-term solution, 
however, and I continue to work with the ROK Government to find a 
solution to this key training and readiness issue.
Strengthen the ROK-U.S. Alliance
    My second priority is to strengthen the ROK-U.S. Alliance. This 
supports the June 2009 ROK-U.S. Joint Vision statement that commits 
both nations to build an Alliance that ensures a peaceful, secure, and 
prosperous future for the Korean Peninsula, the Asia-Pacific region, 
and the world as a whole.
    The most significant Alliance strengthening initiative is the 
transition to ROK-led defense on the Korean Peninsula. That is, the 
transition of wartime OPCON. Following the transition of peacetime 
OPCON in 1994, this initiative to transition wartime OPCON resumed in 
October 2005, when the ROK President stated that the time had come for 
Seoul to be responsible for its own defense. In early 2007, it was 
determined that the ROK would assume wartime OPCON of its forces by 
April 2012. Under OPCON transition, the ROK and United States will 
disestablish CFC and stand up separate, but complementary, national 
commands consistent with the Mutual Defense Treaty to focus on combined 
defense of the ROK. After OPCON transition the ROK Joint Chiefs of 
Staff (JCS) will become the supported--or lead--command and the newly 
created U.S. Korea Command (KORCOM) will be the supporting command. 
OPCON transition will not result in independent OPCON nor require 
independent, self-reliant ROK forces. It also will not lead to a 
reduction in USFK forces or weaken the U.S. commitment to provide 
reinforcement to the Korean Peninsula. Rather, the Alliance will 
continue close strategic coordination and consultation to ensure the 
appropriate capabilities are in place to meet future threats. The 
United States will have the same commitment to the Alliance after OPCON 
transition that it does now--to include the provision of extended 
deterrence using the full range of military capabilities.
    The combined roadmap toward OPCON transition is laid out in the 
Strategic Transition Plan (STP). The STP summarizes 20 high level tasks 
and associated sub-tasks and milestones needed to develop appropriate 
ROK and U.S. organizations, plans, processes, and systems for the 
future Alliance military structure. It is a methodical approach that 
ensures the new command and control relationship between ROK and U.S. 
forces will be even more effective than the current CFC construct. To 
ensure that all tasks are completed to standard, a detailed 
certification process has been established. Both American and Korean 
external senior observers are being used to help evaluate the new 
commands. These advisors use a detailed checklist to report to the ROK 
JCS Chairman and U.S. KORCOM commander as well as to the U.S. Secretary 
of Defense and ROK Minister of National Defense during the annual 
Security Consultative Meeting.
    Additional evaluation and further development is conducted through 
the Command theater exercise program. The Ulchi Freedom Guardian (UFG) 
computer simulated warfighting exercise is the Command's preeminent 
combined exercise to test, develop, and refine post-OPCON transition 
command and control arrangements. Two UFG exercises have already been 
conducted and two more will be held prior to a final OPCON transition 
certification exercise in 2012. These exercises help ensure that the 
new combined command structure will be trained and ready to fight and 
win on the day of OPCON transition. The STP is on track as planned and 
we are working hard to ensure that all conditions will be met for a 
smooth OPCON transition on 17 April 2012.
    The rationale for OPCON transition emanates from the tremendous 
changes that have occurred in the ROK since the Mutual Defense Treaty 
was signed in 1953. The ROK today is a secure democracy and a global 
economic leader. By assuming the lead for its own defense, the ROK will 
send a strong message not only to North Korea but to the rest of the 
world that it has a strong, competent, and capable military that can 
take the lead role in securing peace and stability on the Korean 
Peninsula. South Korean leaders have proven their ability to lead 
forces in a changing regional and global environment. They are members 
of a combined task force and are participating in United Nations 
peacekeeping operations. Officers of the ROK military, who have grown 
up in the Korean culture and are well versed with relevant operations 
plans while also being familiar with the Korean Peninsula's terrain, 
are best equipped to protect the Korean people. After OPCON transition 
occurs, the ROK military will be fully capable of leading the combined 
warfight in defense of its people and the United States will remain 
committed to ROK defense through its supporting role.
    Another key Alliance strengthening initiative was the conclusion of 
a 5-year (2009-2013) cost sharing agreement in January 2009. Known as 
the Special Measures Agreement (SMA), this cost sharing arrangement has 
the ROK provide USFK with valuable labor and logistics services as well 
as the design (paid for in cash) and in-kind construction of facilities 
and infrastructure needed for daily operation of the Command. Under the 
SMA, ROK support for the maintenance of USFK ensures that the Command 
maintains its ``fight tonight'' readiness, a factor that helps deter 
aggression against the ROK and preserves peace and stability on the 
Korean Peninsula. SMA contributions also help build the infrastructure 
needed for a long-term U.S. force presence in the ROK. SMA funds help 
stimulate the ROK economy through the payment of Korean national 
employee wages, Korean service contracts, and Korean construction 
contracts, serving as a source of economic growth for communities that 
host USFK facilities. During calendar year 2010 the ROK will provide 
USFK with 790.4 billion won ($664 million) in cost sharing support.\10\ 
Future increases in the ROK cost sharing contribution through 2013 are 
tied to changes in the ROK consumer price index.
---------------------------------------------------------------------------
    \10\ U.S. dollar figure calculated by using a forecasted average 
2010 won-$U.S. exchange rate of 1,191. This forecasted exchange rate 
was obtained from the U.S. DOD.
---------------------------------------------------------------------------
    Finally, the Command's Good Neighbor Program continues to make 
great progress in strengthening the ROK-U.S. Alliance. The purpose of 
the program is to conduct community outreach events that engage and 
connect the Command with the Korean community. Good Neighbor Program 
events educate, inform, and familiarize Koreans with the mission and 
purpose of USFK. This direct engagement allows Americans and Koreans to 
develop mutual understanding of one another's cultures, customs, and 
lifestyles, often leading to the formation of lifelong friendships 
between members of the two communities. Examples of events conducted by 
the Good Neighbor Program include English-language camps, speaking 
engagements by U.S. military personnel, and tours of the Joint Security 
Area/Demilitarized Zone and USFK installations. The program promotes 
two-way exchange between USFK personnel and people of our host country. 
The program helps foster exchange, understanding, and cooperation 
between members of my Command and the Korean communities that exist 
alongside USFK facilities. In 2009 alone, 2,043 events were conducted 
with the participation of over 139,000 local nationals. The ROK 
Ministry of National Defense operates similar programs called Friends 
Forever and the Experience Korean Culture Program. Under these two 
programs, USFK personnel are given the opportunity to experience Korean 
culture by participating in various host-nation sponsored events and 
tours. These programs strengthen the Alliance at both the professional 
and personal levels.
Improve Quality of Life for Command Personnel
    Improving the quality of life for servicemembers, DOD civilians, 
and their families is my third priority. My overall objective is to 
establish the infrastructure and operational climate that makes Korea 
the assignment of choice for DOD personnel. In order to achieve this 
objective and support this priority, the Command is currently 
implementing two key initiatives: the relocation of U.S. forces 
stationed in the ROK and tour normalization.
    Relocation of U.S. Forces in the ROK
    The Command is implementing two separate relocation plans. Once 
completed, American forces will be stationed in the ROK on two primary 
``hubs'' of five enduring sites.\11\ The first plan--named the Yongsan 
Relocation Plan (YRP)--will move forces currently stationed in and 
around the capital city of Seoul to U.S. Army Garrison (USAG) 
Humphreys, which is located near the city of Pyeongtaek some 40 miles 
south of Seoul. The majority of costs associated with this relocation 
plan will be paid by the ROK. The second plan, called the Land 
Partnership Plan (LPP), moves the 2nd Infantry Division from locations 
north of Seoul to areas south of the Han River and expands 
infrastructure at Osan Air Base and Camp Mujuk. Costs associated with 
the LPP will be shared between the ROK and United States. While the YRP 
and LPP programs are being executed, actions will be taken to maintain 
our current facilities at an acceptable standard in order to support 
current operations.
---------------------------------------------------------------------------
    \11\ The two primary hubs are centered on Osan Air Base/United 
States Army Garrison (USAG) Humphreys and USAG Daegu. The five enduring 
sites are Osan Air Base, USAG Humphreys, USAG Daegu, Chinhae Naval 
Base, and Kunsan Air Base.
---------------------------------------------------------------------------
    The relocation of U.S. forces in Korea will occur in two distinct 
phases: consolidation and relocation. Phase I--consolidation--is 
currently underway. The current U.S. troop level of 28,500 personnel 
will remain on the Peninsula. The Command has returned 37 installations 
to the ROK so far, in the process giving thousands of acres of land 
back to the Korean people. In turn, the ROK has purchased land that is 
needed to accommodate USFK relocation. The ROK government has granted 
land at USAG Humphreys, an action that has enabled the ROK-U.S. 
Alliance to begin designing, planning, and construction of what will 
become one of the best Army installations in the world. The major 
facilities that will be constructed include medical facilities, 
headquarters buildings, family housing, schools, a communications 
center, and other operational and support infrastructure needed to 
accommodate the relocation of 2nd Infantry Division.
    Phase II of USFK relocation will involve the movement of Army 
forces to one of the two enduring hubs that will be located south of 
Seoul. Once this phase is completed, USFK forces will utilize 48 
separate sites, well below the 104 facilities USFK maintained in 2002. 
The success of the relocation initiative will sustain USFK's ``fight 
tonight'' readiness. Unit moves in the relocation plan will be packaged 
and executed in manageable components, which will allow units to 
maintain their full spectrum of operational and support capabilities. 
Completion of the relocation initiative will be a great boon for the 
ROK-U.S. Alliance because it improves readiness and soldier quality of 
life, realizes stationing efficiencies, signals continued U.S. 
commitment to the region, improves the combined capability to deter and 
defend against aggression directed at the ROK, and optimizes use of 
Korean land by creating a less intrusive military footprint, thus 
enhancing force protection for USFK.
    Tour Normalization
    DOD approved plans to normalize the tours of all servicemembers in 
the ROK on December 1, 2008.\12\ As noted in the 2010 Quadrennial 
Defense Review, DOD's long-term goal is to phase out all unaccompanied 
tours in Korea. This goal will mean all servicemembers stationed in the 
ROK will be on 36-month accompanied or 24-month unaccompanied tours. 
Single troops will serve 24-months. Prior to this policy change, the 
majority of U.S. military personnel serving in the ROK were on 1-year 
unaccompanied assignments. For military personnel with dependents, tour 
normalization means that they can be accompanied by their family 
members while serving our Nation in the ROK, something that has been 
done in Europe for decades. Once complete, there will be approximately 
14,500 families in Korea.
---------------------------------------------------------------------------
    \12\ It should be noted that in August 2009 the standard length of 
tour for USFK civilian personnel was increased from 24-months to 36-
months.
---------------------------------------------------------------------------
    Phase I is currently underway and will run through fiscal year 
2011. During this phase, the number of command sponsored families in 
the ROK will almost triple from the start of this phase, to 4,932. The 
length of accompanied tours offered in five locations--Seoul, Osan, 
Pyeongtaek, Daegu, and Chinhae--are now 36 months and for areas north 
of Seoul (Dongducheon and Uijeongbu, referred to as Area I) are 24 
months. Single soldiers serve a 12-month tour.
    The tour normalization process will synchronize increases in the 
number of command sponsored (accompanied tour) servicemembers and their 
families with the expansion of necessary infrastructure such as 
housing, schools, medical facilities, and other infrastructure needed 
to accommodate this growth. Throughout the phased tour normalization 
process, the funding for needed infrastructure could come from three 
key sources: public and private ventures, appropriated military 
construction funds, and ROK cost sharing contributions where 
appropriate.
    The tour normalization initiative benefits the Command, DOD 
personnel serving in the ROK, military families, the ROK-U.S. Alliance, 
and U.S. national interests. Full implementation of this initiative 
improves force readiness and combat capability by keeping trained 
military personnel in place for longer periods of time, thus enhancing 
continuity, stability, and the retention of institutional, regional, 
and cultural knowledge. It will also reduce the stress placed on troops 
and units by frequent rotations and supports the 2010 Quadrennial 
Defense Review's ``preserve and enhance'' objective by establishing a 
sustainable rotation rate that helps protect the force's long-term 
health. Quality of life for our servicemembers will be greatly improved 
through the elimination of needless separation from their families and 
the use of modern DOD standard design facilities. The ROK-U.S. Alliance 
will be enhanced by the more meaningful and deeper interaction between 
Americans and Koreans that can occur during a tour of longer duration. 
Finally, U.S. national interests are supported through the signal tour 
normalization sends on U.S. commitment to the long-term security and 
stability of the ROK as well as Northeast Asia as a whole.
                  iv. future of the rok-u.s. alliance
    A key part of U.S. security policy in Asia is the construction of a 
comprehensive strategic alliance with the ROK as specified in the June 
2009 Joint Vision statement. This comprehensive strategic alliance will 
be bilateral, regional, and global in scope and will be based on common 
values and mutual trust. We will maintain a robust defense posture 
backed by allied capabilities which support both nations' security 
interests. Just as today, in the future the ROK-U.S. Alliance will 
remain vital to securing peace and stability on the Korean Peninsula 
and in Northeast Asia as a whole. The United States will maintain its 
commitment to the defense of the ROK through the employment of 
capabilities postured both on and off the Korean Peninsula. Similarly, 
the United States welcomes recent moves by the ROK to expand its role 
in the international community at a level that is commensurate with its 
growing international stature. The United States will continue to 
provide extended deterrence for the ROK using the full range of 
military capabilities to include the nuclear umbrella, conventional 
strike, and missile defense capabilities. As the ROK-U.S. Alliance 
evolves in the future, we will cooperate on a wide-ranging set of 
global security challenges that are of mutual interest to include 
peacekeeping activities, stabilization and reconstruction efforts, 
humanitarian assistance, and disaster relief.
    Over the next decade or so the security component of the Alliance 
will experience some of the most profound changes since the Mutual 
Defense Treaty was signed in 1953. Three of these key changes are the 
transition of wartime OPCON, relocation of U.S. forces stationed in the 
ROK onto two enduring hubs, and tour normalization. These 
transformational changes will strengthen the Alliance and enhance its 
stabilizing role on the Korean Peninsula and in the wider area of 
Northeast Asia. The process of change will also be supported by 
implementation of the ROK Defense Reform 2020 initiative. As the 
Alliance transforms, United Nations Command will continue to provide a 
coalition of 15 nations ready to provide support for defense of the ROK 
as well as conduct its armistice maintenance functions through the 
Military Armistice Commission.
    Through Alliance transformation we seek to build a better future 
for Koreans and Americans by establishing a durable peace on the Korean 
Peninsula and Northeast Asia and setting the conditions for peaceful 
reunification of the two Koreas. As Alliance partners, the ROK and 
United States will work together toward achieving complete and 
verifiable elimination of North Korea's nuclear and ballistic missile 
programs. In the Asia-Pacific region the Alliance will work jointly 
with regional institutions and partners to foster prosperity, maintain 
peace, and improve the daily lives of people. To enhance security in 
the Asia-Pacific area the ROK and U.S. Governments will advocate for--
and take part in--effective cooperative regional efforts to promote 
mutual understanding, confidence, and transparency regarding security 
issues among nations of this region. The two governments will also work 
closely to address the global challenges of the North Korean threat, 
terrorism, weapons of mass destruction proliferation, and piracy. The 
ROK and United States will also enhance coordination on peacekeeping 
operations and post-conflict stabilization and development assistance. 
In the end, the two countries will work toward achieving Alliance goals 
through strategic cooperation at every level.
                               v. summary
    This year marks the 60th anniversary of the start of the Korean 
War. Thanks to the sacrifice and selfless service of a countless number 
of Koreans, Americans, and people of other nationalities, North Korea's 
aggression was repelled. This year also marks the 57th anniversary of 
signing the ROK-U.S. Mutual Defense Treaty. Thanks to the peace and 
stability created by the Alliance structures that emanated from this 
mutual defense pact, the ROK has been able to develop into a democratic 
industrialized state with a high standard of living and a growing role 
in the international community. By promoting peace and stability on the 
Korean Peninsula, the ROK-U.S. Alliance has not only set the conditions 
for successful development of the ROK over the last six decades, but 
also promoted peace and stability in the broader region of Northeast 
Asia--a region of key national interest to the United States.
    The ROK-U.S. Joint Vision statement of June 2009 looks to the 
future and sets out a path for taking the next step in Alliance 
development--building a comprehensive strategic alliance. My three 
command priorities of being prepared to fight and win, strengthening 
the Alliance, and improving the quality of life for Command personnel 
support this next step in Alliance evolution. In particular, the 
transition of wartime OPCON recognizes the substantial growth and 
development that has occurred in the ROK over the last 60 years, and 
rightly places the ROK in the lead position for its own defense. The 
relocation of U.S. forces in the ROK improves readiness and soldier 
quality of life. Finally, tour normalization greatly increases our 
capability and demonstrates long-term U.S. commitment to the Alliance, 
an Alliance that has served the Korean and American people so well for 
over half a century.
    I am extremely proud of the soldiers, sailors, airmen, marines, DOD 
civilians, and their families serving our great Nation in the ROK. 
Their selfless service promotes peace and stability on the Korean 
Peninsula as well as in the broader region of Northeast Asia. Your 
support for them and the ROK-U.S. Alliance is greatly appreciated. I am 
certain you will agree that our men and women in uniform deserve the 
very best working, living, and training environment that can be 
provided, and that we should do everything in our power to provide it. 
Thank you.

    Chairman Levin. Thank you very much, General Sharp.
    We'll have an 8-minute first round of questioning.
    General Chilton, let me start with you. STRATCOM is going 
to play an important role in the Senate's consideration of a 
new START follow-on, the successor to START. Have you been 
involved in developing the force-structure positions in support 
of the force structure and the warhead discussions?
    General Chilton. Senator, STRATCOM has been involved in 
supporting DOD in developing their positions with regard to the 
negotiating positions on START from the perspective of--we 
looked at what it would take to support the current strategy 
that's in existence today, and then, from that, what force 
structure and weapons would be required to support that 
strategy, and then provided analysis for options that were 
being considered throughout the process. So, we were always 
consulted as those negotiations were going forward, and I think 
that was a healthy relationship we had through the Under 
Secretary of Defense for Policy.
    Chairman Levin. Are you satisfied with the extent of those 
consultations?
    General Chilton. Certainly with the extent of them, 
Senator, I'm satisfied with those. We don't ever want to say we 
agreed on everything.
    Chairman Levin. Of course.
    General Chilton. That's, of course, appropriate, that we 
have areas of disagreement and discussions on those. But, I 
couldn't be more satisfied with the level of participation that 
was offered to STRATCOM throughout the negotiating period.
    Chairman Levin. When the treaty is finally entered into and 
presented to the Senate, I presume, then, that you will be 
asked for your reaction; we can get into it at that time.
    General Chilton. Yes, sir.
    Chairman Levin. On the CYBERCOM issue, what is the plan for 
managing and dealing with the lines of authority and command 
between the intelligence operations and military operations? 
How's that going to be handled?
    General Chilton. I would see them as no different than 
today, Senator, for intelligence operations and military 
operations in any regional combatant command or any military 
area. Those monies that are appropriated for intelligence need 
to stay and be accounted for, and spent in the intelligence 
area; the same with those that are appropriated for other force 
structure and mission areas.
    We will rely, in the cyberspace domain, on intelligence; 
not just, I should say, from all-source intelligence, so from 
human intelligence to reconnaissance to signals intelligence to 
support, our--the development of our plans and operations for 
operating the networks, defending the networks, and, in crisis, 
utilizing them as part of the platform to support other 
operations.
    Chairman Levin. Are there going to be two separate approval 
and review processes through the two different chains of 
command? Will that remain? For approval of action from higher 
up----
    General Chilton. Right.
    Chairman Levin.--or for review and oversight of action from 
either higher-up or from Congress. Is that going to remain the 
same for those two chains of command, intelligence--
    General Chilton. I see no change in that, Senator. I mean, 
what I will be asked to do, as the combatant commander, will 
stay in the typical Title 10 lanes and under the Title 50 
authorities that are normally afforded to combatant commanders, 
and flow down through the subunified command for that mission 
area. Those intelligence-area investments and decisions that 
are made would still flow down through the intelligence chain 
to the various intelligence committees and communities.
    Chairman Levin. You think those lanes are going to be 
clearly defined.
    General Chilton. Yes, sir.
    Chairman Levin. General Chilton, there's a new approach, 
called phase adaptive approach (PAA), relative to the missile 
defense plan for Europe. I think your prepared testimony, and 
maybe your oral testimony, covered this; but, if so, I missed 
it. In your judgment, does the PAA give us an effective way to 
address the Iranian missile threat, which is a growing threat?
    General Chilton. I do believe it does, Senator. I think it 
shifted our focus more toward addressing the shorter- and mid-
range threats first, and last year, when we looked at the JCM-2 
study, it recommended that we increase our investments in 
addressing those threats, with increased investments in Theatre 
High Altitude Area Defense and Standard Missile-3, which have 
been brought forward in this budget. But taking a look at the 
Iranian threat, it puts us in a position to address what is a 
growing short- and medium-range palpable threat--that's 
measurable--sooner, and yet preserves the opportunity to 
address the longer-range threat, which we do have some 
capability against today, already.
    Chairman Levin. All right. I believe, in your written 
statement, you conclude by saying, ``The total effect of the 
PAA will provide significantly more capability to counter 
today's regional threats''--I emphasize the word ``today's 
regional threats''--``and to improve our ability''--and I'm 
quoting you, here--``to defend the United States against any 
future Iranian intercontinental ballistic missile (ICBM).'' Is 
that a capsule----
    General Chilton. Yes, sir.
    Chairman Levin.--of your----
    General Chilton. I think so. As you look to the future, 
we'll have, I believe, more capability, in this plan, in the 
2020 timeframe than we otherwise would have had with this 
approach, for both of those threats, both to the region and to 
the United States.
    Chairman Levin. So, is it fair to say that this plan, then, 
in your judgment, will provide a better defense of Europe, 
especially against those short- and medium-range missiles than 
the previous missile defense plan?
    General Chilton. I think it will, Senator, because there 
will be more capability deployed, and also, I think it gives us 
an opportunity to do some further burden-sharing with our 
allies in the region, which--of course, they're eminently 
interested in the defense of that region, as well.
    Chairman Levin. A possible spinoff--still only 
``possible''--of the plan might be the inclusion of information 
from radars--from Russian radars as part of a missile defense 
capability. That's not yet a fact, but it, I gather, is still a 
possibility. My question to you is then, that if that occurred, 
if that cooperation with Russia took place, would that be in 
our interest? Do you think that it could send a powerful 
message to Iran that we are united, the world is united, in 
opposition to Iran's threats to the region?
    General Chilton. Senator, sensors are a key element of any 
missile defense system, and having additional sensor capability 
that would augment the defense of Europe from any potential 
aggression by Iran, I think, would be welcome.
    Chairman Levin. Is that additional sensor capability that 
you're referring to the possible Russian additional sensor?
    General Chilton. I think there's opportunity to examine 
that.
    Chairman Levin. But, the sensors that you were referring to 
are the Russian sensors that we--that I referred to in my 
question?
    General Chilton. Yes, and so, I would say that 
opportunities for additional sensors, to include Russians', 
could be beneficial. But, I would also emphasize that the 
sensors that we provide are an essential element of this. Too 
often we get focused on just counting missiles. The sensors are 
very key.
    Chairman Levin. That's an important----
    General Chilton. Part of the Missile Defense Agency's (MDA) 
architecture.
    Chairman Levin.--an important point. Thank you.
    General Sharp----
    Okay, my time's up.
    Senator Burr.
    Senator Burr. Mr. Chairman.
    Again, welcome, to all three of our panelists today.
    General Chilton, as you continue your preparation for 
standing up CYBERCOM, to the degree that you can elaborate, 
what are some of the steps that are being taken in the short 
term to ensure the safety and security of our Nation's computer 
networks?
    General Chilton. Senator, we've done a lot of work to 
prepare for the standup of CYBERCOM, to include completing an 
implementation plan. Also, as part of our normal plan, 
independent of the standup of CYBERCOM, we took steps, this 
past year, to combine the Global Network Operations Team with 
the Network Warfare Team into a single entity so that we could 
bring together closer sharing of information and teamwork 
between those two entities that are responsible for operating 
and defending the networks, as well as preparing for 
contingency operations.
    I would remind this committee that what we are chartered to 
do at STRATCOM is to operate and defend military networks only. 
So, we do not have the responsibility for defending other U.S. 
networks that--those fall under the responsibility of the 
Department of Homeland Security.
    But, it will be essential, in any contingency in the 
future, that we preserve our military network so that we can 
conduct operations, should this--military operations--should 
our Nation come under attack. So, we have a laser-beam focus on 
doing that. I think we've made significant strides in three 
areas:
    One, changing the culture of the military with regard to 
how we look at our systems. They are no longer systems used for 
convenience; they are systems that we require and are a 
necessity in warfare. So, changing that mindset, making it a 
commander's business, not just the technicians' business, to 
assure that our networks are ready and available to the 
warfighter, is absolute an important change.
    The way we conduct ourselves on the networks, improve 
training for our people, to make sure we tighten security for 
them, and teach them how to behave properly on the networks to 
minimize vulnerabilities, is the conduct part, as well as 
inspecting our units, globally, to make sure that they're 
following instructions and directions put out to ensure Web 
security.
    Finally, increased investments in capabilities, which we 
greatly appreciate the support of this committee on, and 
technologies that allows us to get out in front of threats 
coming into the military networks, are absolutely essential.
    Senator Burr. Just very quickly, do you see the threat, 
specifically to the military infrastructure, from 
cybercapabilities as great as other threats that are more 
physical?
    General Chilton. I do--
    Senator Burr. Specifically as it relates to our 
capabilities.
    General Chilton. Well, I look at it just like I do the 
space domain. I don't think we can imagine operations today--
and I'll defer to my colleagues to the left on this--but, I 
don't think we can imagine military operations today without 
the advantages we have obtained from missile warning in space, 
global communications, GPS position navigation and tracking--
or, timing. The same thing in cyberspace. The way we conduct 
our planning today, the way we issue orders, the way we assess 
our operations, so much rely on our military networks. So that 
is a capability that we depend on, and we must anticipate we 
will be challenged in these domains of space and cyberspace, in 
any military operation in the future.
    Senator Burr. Thank you, General.
    Admiral, we have approximately 49,000 military personnel, 
mostly marines, at Futenma Airbase in Japan, with an 
uncertainty about their future. According to a Reuters article 
posted yesterday, the Prime Minister has not made a final 
decision on his commitment to the 2006 Accord, in providing a 
location for the airbase at Okinawa to move. What's the latest 
information that you can share on the matter? If you can, 
what's the road ahead for us?
    Admiral Willard. Thank you, Senator. The first point I 
think I'd make is just to reaffirm the importance of the U.S.-
Japan alliance as it exists today. It remains a cornerstone for 
security in Northeast Asia, and I think both nations recognize 
that. Prime Minster Hatoyama has come out reaffirming the 
importance in--that he places on the alliance, and certainly we 
do; and I state that frequently.
    With regard to this relatively tactical-level issue in 
Okinawa, which is the replacement of the Futenma Airbase, as 
you suggest, the Japanese have been deliberating on this now 
for several months. We have a commitment from the Japanese 
Government that they'll disclose their options and decision 
regarding the review of whether the existing Futenma 
replacement facility (FRF) is agreeable to them, by May of this 
year. We don't know whether we'll have disclosures of various 
options to consider before that, so I'm awaiting, with some 
interest, what the Japanese have to say.
    I would offer that we've been discussing Futenma 
replacement on Okinawa now for the better part of 17 years with 
the Japanese, so this is not a new issue for us. The agreement 
that was discussed and come to in 2006 on the FRF was very much 
an agreement where the Japanese had a majority vote--the people 
of Okinawa and the Government of Japan, both--and we continue 
to believe that the FRF in the current plan is the best 
locating option for that airfield in Okinawa.
    Senator Burr. But, you are confident that, in the next 
several months, there'll be additional direction on how we move 
forward.
    Admiral Willard. Yes, I'm confident that the Government of 
Japan will meet their commitment to come forward with their 
assessment of this particular item and their options, or 
agreement, that the existing FRF is what they will advocate 
for.
    Senator Burr. Thank you, Admiral.
    General Sharp, I think I understand your goal of increasing 
the number of command-sponsored families and the tour-length 
increase of up to 3 years. I also understand that there are 
considerable limitations in funds and resources to support 
families; specifically, healthcare, schools, jobs for spouses, 
all of the things that we all look at to try to accommodate the 
service of our servicemembers.
    You talked a little bit about the process and how we've 
moved forward. Anything more you want to elaborate on that 
process? But, also, can you share with us any projected 
shortfalls that we're going to have?
    General Sharp. Thank you, Senator. The process is--that is 
now ongoing is--as I've said, we have gone from about 1,600 
families in the June 2008 time period to about 3,900 now. By 
this time--by next summer, by the end of next summer, we'll be 
up to 4,900 families. Those are the families that I can handle 
with the infrastructure I have in place right now on the 
peninsula; infrastructure, meaning housing, schools, and 
hospital, primarily.
    What--the goal--to be able to go from that 4,900 to when 
all servicemembers can bring their families for 3 years, which 
will get us up to about 14,000 families, is really the process 
that's going on right now in the deliberations in DOD for the 
program objective memorandum (POM) 12-17 submission.
    I tell my people, ``I can't get ahead of my own 
headlights.'' I want to make sure that we have the proper 
infrastructure in place in order to be able to handle those 
families. That's what you will see when the Department comes 
forward with the budget in January as we look out over the POM 
years.
    But, tour normalization is really making a huge difference 
in Korea, not only for the families, in eliminating another 
unaccompanied tour, but--and it greatly increases our 
capability there, and I think it really shows our long-term 
commitment to, not only the ROK, but all to--to all of 
Northeast Asia, which I think is important, not just looking at 
the Korean Peninsula, but how we are viewed for our long-term 
commitment in that very important part of the world.
    Senator Burr. Great. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks, to the three of you, for your service.
    I must say that Chairman Levin and I were just agreeing 
that the three of you, and the combatant commanders we see in 
this series of hearings, are really most impressive, and we 
thank you for your service.
    Now I'll go on to ask critical questions, of course. 
[Laughter.]
    But no really Admiral, I thank you--Admiral Willard, I 
thank you for your overview, a quick overview of the region. I 
thought your prepared statement was really excellent, that you 
entered into the record. It reminds us, even though we're 
focused, because of combat going on in Afghanistan and Iraq, on 
other parts of the world in Central Command (CENTCOM), that the 
Asia Pacific is really critical to us. You have some numbers in 
here that--it's very important to remember that 5 of our top 10 
trading partners are now Asia Pacific countries. China, Japan, 
and South Korea are the second-, fourth-, and seventh-largest 
trading partners. Obviously, an enormous number of people. We 
have, really, an excellent group of allies in the region. 
Japan, as you mentioned, foundation for a long time. South 
Korea, very important. Australia. Now, India really rising as a 
critically important ally. I want to thank you for your 
statement, and I repeat it, ``India's strategic location, 
shared democratic values, growing economy, and evolution as a 
regional power combine to make them a partner with whom we need 
to work much more closely.'' I think the military-to-military 
relationship that--there can be critical.
    I wanted to focus, first, in questioning, on another of our 
great allies there, which is South Korea. Continuing--though 
we've been, as you say in your prepared statement, General 
Sharp, ``North Korea undertook a charm offensive''--``charm,'' 
of course, like most other human activities, is a relative 
concept, relatively--``charming during the second half of 
2009,'' although, as you say, ``it's not yet led to any 
measurable progress towards the complete and verifiable 
denuclearization of North Korea,'' end of quote. So, the North 
Korean threat remains.
    Here's what I want to focus on. As you all know, in 2007, 
President Roh, of South Korea, and President Bush entered into 
an agreement, whereby transfer of wartime OPCON in the U.S.-ROK 
CFC will go to South Korea in 2012. I want to express to you my 
concern about that. I share what you've expressed, which is 
your faith, both Admiral Willard and General Sharp, in the 
professionalism skill of our South Korean allies, but I worry 
about the timing, because 2012 is a year in which both the 
United States and South Korea will hold presidential elections. 
We know, in our last presidential year, North Korea acted up. 
May have been coincidental; I don't think so. I was struck--and 
North Korea has already said that they intend to make 2012 a 
special year. I believe it's the 100th birthday--100th 
anniversary of the birth of the previous great leader. Then I 
saw, recently, Minister of Defense Tae-young Kim, of South 
Korea, said, and I quote, late February, ``The military must 
always prepare for the worst, and the worst scenario is the 
transfer of wartime OPCON in 2012,'' end quote.
    I wanted to ask both Admiral Willard and General Sharp 
whether this is inevitably going to happen, this OPCON 
transfer, whether we're reviewing it. I worry about it, both in 
terms of the Korean Peninsula, but, frankly, also its impact on 
other areas of the world, including, particularly, Afghanistan 
and Pakistan, where they worry about whether we're going to 
leave before the job is done, as it were.
    So, Admiral Willard, would you take a first stab at that?
    Admiral Willard. I will, Senator Lieberman.
    First, this alliance between the ROK and United States, as 
General Sharp indicated in his remarks, is as strong as I've 
ever witnessed it----
    Senator Lieberman. Right.
    Admiral Willard.--bar none. We've been continually 
impressed by the ROK armed forces capabilities in the field and 
capabilities in leadership throughout the exercise series that 
General Sharp oversees. So, we're convinced that operational 
transition--OPCON transition could clearly occur in 2012.
    As you suggest, this is a Government of Korea decision, or 
certainly OPCON transition will be considered by the Government 
of Korea for its import and its impact on the region. We think 
that it strengthens the ROK's armed forces position on the 
peninsula to take overall OPCON of their own defense; and we 
think they're ready for it.
    To the extent that the government would question that, I 
think, then, it becomes a government-to-government decision 
between the United States and the ROK. Our role in this--and 
General Sharp can be very specific regarding the many actions 
that he's taken to help prepare for this transition to occur--
has been to conduct a series of exercises and take all of the 
actions necessary to bring the moving parts together to make 
OPCON transition a reality, April 12, 2012.
    Senator Lieberman. Right. So, the transfer is not of OPCON 
to the South Korean military--is not inevitable. In other 
words, it--that is, for the 2012 timeframe. I appreciate what 
you've said, that if the Government of Korea has second 
thoughts about it--and, incidentally, I appreciate what you've 
said. Our relations with South Korea are probably better than 
they've ever been, today. This agreement, in 2007, was signed 
at a time when the relations weren't as good as they are today.
    But, anyway, I hear you say that if the Government of the 
ROK has second thoughts about assuming OPCON in 2012, then that 
essentially gets bounced up to the political leadership of both 
countries. Is that correct?
    Admiral Willard. I think so, yes.
    Senator Lieberman. General Sharp, do you want to add to 
that?
    General Sharp. Senator, a couple of things. First off, from 
a military perspective, I'm absolutely confident we will be 
ready to do OPCON transition on 17 April 2012. We are on the 
second version of the plan, the bilateral plan that both 
countries will agree to, that will determine what is the 
supporting/supported relationship that mission and forces of 
ours in the ROK would do in the defense of the ROK. We are 
already starting to stand up the organizations that need to be 
in place in order for that to happen, both on the ROK side and 
on the U.S. side.
    We have exercised this several times in our Ulchi Freedom 
Guardian exercises. We have people that are working on this--
the plans, organizations, processes, and systems--literally on 
a daily basis. I am confident in the ROK military leadership in 
the processes that need to be in place for an effective 
command-and-control relationship for us to be able to defend 
the ROK.
    Having said that, I also believe that it is the right thing 
to do. The number-one responsibility of any nation is to defend 
their own country. In a country that is advanced as Korea is, 
the 13th richest country in the world, a country that has a 
military that's as strong as it is, it's their responsibility 
to take the lead role in defending the ROK.
    I think it also sends a very strong message to North Korea 
and to other people in the region that the Korean military is 
so strong that the United States is willing to go in a 
supported-to-supported relationship, and willing to do it in 
2012. To delay that time, I think, sends exactly the opposite 
signal, which I think is not the right thing to do, against 
North Korea or other parts of the--parts of Northeast Asia.
    Again, as Admiral Willard said, if North--if the ROK comes 
and asks for a delay, I'm sure that will be a discussion at the 
highest levels of both governments, because both governments 
agree to this timeline of 17 April 2012. To change that 
timeline, both governments will have to agree to change that.
    Senator Lieberman. I appreciate your answer. Look, I agree 
that the transfer of OPCON is the right thing to do. The 
question I'm raising is whether 2012 is the right time to do 
it, and also, of course, to make clear, as I think you have, 
that if OPCON occurs then, or a year later or 2 years later, it 
doesn't mean that the United States is exiting South Korea, or 
that part of the world.
    General Sharp. Exactly, sir. The commitment of 28,500 
troops to the Korean Peninsula for the foreseeable future--the 
words Secretary Gates and the President have used--and I think 
it's a great investment, and it has been for the last 60 years, 
to be able to maintain peace and security there. As we move 
forward in OPCON transition--one of the things that I think is 
misunderstood, especially on the Korean Peninsula, is, there is 
a belief that, after OPCON transition, the total responsibility 
for defending the ROK lies with the Korean military. That can't 
be further from the truth. I've heard words of ``independent, 
self-reliant forces'' in South Korea. The fight--and the 
commitment--that we have to the ROK does not change. It will be 
a combined warfight, just like it is today, after OPCON 
transition.
    As Admiral Willard said, I'm very confident it will make 
the ROK military even stronger, just as it has been since 1994, 
when they took armistice OPCON of their military, and all the 
progress that has been made along those lines.
    Senator Lieberman. Thank you both.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    I just want to let you know, General Sharp, how much I 
welcome your comments about the importance of that transition 
date being sustained, and the reasons that you give for it.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    Good morning, gentlemen. Thank you for your service. Thank 
you for being here this morning.
    The first question I have is to Admiral Willard, but, 
General Chilton, you may also want to respond to this.
    Last week, the Washington Times cited a 2009 Central 
Intelligence Agency report to Congress stating that assistance 
from Chinese and Russian entities had helped Iran move toward 
self-sufficiency in the production of ballistic missiles. What 
is your assessment of China's support to Iran's ballistic 
missile program?
    Admiral?
    Admiral Willard. I would probably defer to General Chilton 
to get his assessment of this. I would offer that, in the 
military-to-military relations that China has across the 
region, there are always oversight by us and concerns with 
regard to proliferation that might occur to accompany that. So, 
this is the issue of who is selling ballistic missile 
capability to whom. In the case of North Korea, that we've been 
discussing over the past few minutes, who might proliferate, 
worse than that.
    So, proliferation concerns, I would offer, certainly exist. 
In terms of specifics between China and Iran, I'm not prepared 
to discuss it.
    Senator LeMieux. General?
    General Chilton. Senator, nor am I prepared to discuss 
specifics--and this would be out of ignorance--between China, 
specifically, and Iran. I share--agree completely with Admiral 
Willard's comments, that proliferation, in general, is a 
concern. Certainly we have seen North Korea proliferating 
missile technology, and that has been a focus and an area of 
concern for us all.
    Senator LeMieux. Just as a followup to that, have you seen 
any evidence of Iran trying to project influence into your 
region?
    Admiral?
    Admiral Willard. Iran has military partnerships within our 
region. In that sense, yes. Iran's influence in the region, by 
and large, has to do with Iran's energy resources and the 
dependence by Asia Pacific countries on those resources. So, to 
a great extent, the economic relationship of a great many 
countries in the Asia Pacific with Iran has to do with oil. At 
the same time, there are, yes, military-to-military 
relationships that we monitor between Iran and some Asia 
Pacific countries.
    Senator LeMieux. Admiral, in terms of Islamic extremist 
groups, what gives you the most concern within your region?
    Admiral Willard. For the past half a dozen years, we've 
been working with the armed forces of the Philippines--in the 
Southern Philippines, against a variety of groups--Abu Sayyef 
group being predominant.
    With Indonesia, we work with the Indonesians with regard to 
their Jemaah Islamiyah concerns. In both these countries, we 
have been successful in our work with their respective armed 
forces and police forces in the conduct of counterterrorism. 
Right now our concern is the movement of Lashkar-e-Taiba (LeT), 
the terrorist group that emanates from Pakistan that was 
responsible for the Mumbai attacks in India, and specifically 
their positioning in Bangladesh, Nepal, the Maldives, and Sri 
Lanka. We're working very closely with the Indians, and we're 
working within our own community to develop the necessary plans 
to counter that particular terror group as they migrate into 
the Asia Pacific region.
    Senator LeMieux. Are they a regional threat, or just a 
threat to India?
    Admiral Willard. We're attempting to develop a further 
understanding of the extent to which they're a regional threat. 
If you'll recall, LeT was evidenced in Chicago, with the arrest 
of Headley, and we have, certainly, knowledge of their 
influence within the region, beyond the countries that I just 
mentioned. The extent of that influence is what we're taking 
under study. They are predominantly a threat to India.
    Senator LeMieux. General Chilton, I want to talk to you 
about the importance of manned spaceflight and the work of the 
National Aeronautics and Space Administration (NASA), and how 
it impacts STRATCOM, and the relationship thereto. I know this 
is something you're uniquely capable to speak about.
    The administration has proposed to abandon the 
Constellation program and abandon our short-term lower Earth 
orbit capabilities, rely instead upon the Russians to get us to 
the International Space Station. Does this have any concern to 
you as the combatant commander for STRATCOM?
    General Chilton. There's just one second-order effect of 
that, that I think we need to study, but, I'll speak about it 
in a more broad sense, and that has to do with industrial-base 
issues. So, NASA was, in their plan for Constellation, going to 
use a large solid rocket motor as part of that architecture. 
Now I have to take that into context with--moving away from 
that--in the context of requirements for sustainment of the D-5 
for our submarine-launched ballistic missiles and for the 
Minuteman III, for the ICBM. So, I think it warrants us to then 
evaluate the impacts on the industrial base. I can't say that 
there are clear impacts that would affect STRATCOM, but it 
warrants us to take a look at industrial--potential industrial-
base issues with regard to that critical industrial base, which 
allows us to build large solid rocket motors for the strategic 
deterrent.
    Senator LeMieux. Beyond the industrial-base capabilities 
and the requirements that you need for your missiles, is 
there--it would occur to me that NASA's innovation and the way 
that they bring new innovations to--not just space exploration, 
but to missile technology and other aerospace technologies, 
that that would have some impact upon what you do if they were 
no longer pushing the envelope in that regard.
    General Chilton. Well, sir, I guess I can't comment on 
whether NASA will continue to push the envelope or not. I 
suspect they will. They certainly--as we look through our 
history, we have benefited, not only in space, but in 
aeronautics, from the great research and development and 
technology that has been developed by NASA over the years. I 
look forward to them continuing to push the envelope in both 
domains, because we have benefited from that in the past.
    Senator LeMieux. Admiral Willard, there was some discussion 
earlier about our relationships with China. We have China 
reacting to our military exchange with Taiwan, and they reacted 
previously, in 2008, when there was a similar exchange. Do you 
think there's--this is business as usual for them, or are there 
any additional long-term ramifications to their response to our 
agreements with Taiwan?
    Admiral Willard. Well, certainly the suspension of 
military-to-military relationships is consistent with what 
we've seen in the past from China when they've had a 
disagreement with our Nation; in this case, with regard to an 
announcement of Taiwan arms sales. We've been in dialogue with 
China, prior to this particular suspension taking place, 
offering that the military-to-military relationship is worth 
continuing, worth sustaining, regardless of disagreements 
between our two nations. We believe that strongly. We think 
that across all of the engagement with China that's currently 
occurring with the Departments of the United States, that the 
military-to-military relationship tends to lag behind the other 
forms of engagement, and that that shouldn't be the case, so 
that we can, number one, find areas of common interest, where 
we can begin to advance our relationship into the future, and, 
second, so that we can have frank discussions about areas of 
disagreement, which, clearly, when we suspend military-to-
military relationships, that dialogue stops. So, we think that 
it's certainly in both countries' interest. They get a vote, 
and they must see the value in it, as we do, I think, to see 
anything other than this predictable behavior occurring in the 
future.
    Senator LeMieux. Thank you very much, Admiral.
    Mr. Chairman, thank you. My time is up, but I would like to 
submit some questions for the record that I would have asked 
concerning cybersecurity. We know, recently, that Google has 
experienced attacks, and I was at a China Commission--bicameral 
commission meeting this week. It was not articulated directly 
by the folks from Google, but there certainly seems to be the 
indication that those attacks came from the--sponsored by the 
Chinese Government.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator LeMieux, for 
those questions, which I think will be important--the answers 
will be important to all the members of this committee and 
Congress, because you've pointed to an extremely important 
issue that is ongoing.
    Now, I understand that Senator Akaka has been happy to 
yield to Senator Nelson.
    Senator Nelson.
    Senator Ben Nelson. Well, thank you very much.
    Thank you, Senator Akaka, for your courtesies, extending me 
this opportunity to ask a question, because I have an airplane 
to catch here shortly.
    General Chilton, it's a military construction question. For 
some time, you and I and others have talked about the need for 
a new STRATCOM headquarters building. So I've been very pleased 
with the progress that we've made towards addressing this vital 
need. The facility's shortcomings and problems are well known. 
They've put STRATCOM's mission and its personnel at some risk. 
The existing headquarters was built in 1957; it's weathered the 
five decades with little renovation. In recent years, the 
building's experienced failures in electrical service, as well 
as some fires and flooding. The Air Force and the President 
have addressed these shortcomings so that, in fiscal year 2011, 
there'll be money to complete the plan and design of the 
headquarters facility, with construction beginning in fiscal 
year 2012. When we talked last, I think you probably said it 
the best I've ever heard it, that STRATCOM headquarters is the 
nuclear command-and-control node for the United States, and we 
must make the appropriate investments.
    Can you speak to why this facility has been a priority for 
you, as combatant commander, and what you foresee as the value 
of a new headquarters, in terms of our capabilities?
    General Chilton. Thank you, Senator. I'm happy to talk to 
it.
    When I got to the Command, of course, you first reviewed 
the working conditions and--for your people. I've walked the 
halls and the tunnels of the headquarters extensively. I think 
the context is, this headquarters was built with a large 
underground facility that extends seven floors below the 
surface, to our Global Operations Center, in a time--at the 
height of the cold war, when it was felt necessary to bury 
things as such.
    Since then, technology has evolved and we started using 
computers, bringing a lot of computer capability into this 
infrastructure that was absolutely not designed to handle that, 
so heat loads, working-space conditions are intolerable in some 
areas, for some of our people; and we are actually constrained 
in the capabilities that we would like to deploy in the 
building, both on how we would organize and implement the 
critical functions that we have, to include nuclear command and 
control, and add on to that the new mission sets that we've 
had. So, we've had mission growth in space and cyberspace, 
which also demands better support and integration.
    So, this is about not only the fact that we live in a 
building that was designed to--and occupied early on--over 50 
years ago, for a different era and a different sole mission 
set, with different technologies. It's about mission growth and 
it's about doing what we need to do for the country, both as a 
nuclear command-and-control node, but as a cyberspace node and 
a space node for this Nation.
    Senator Ben Nelson. Now, would you--would it be safe to say 
that it's a fairly large multistory bomb shelter?
    General Chilton. There's quite a bit underground, Senator. 
I don't believe we need that anymore today.
    Senator Ben Nelson. Right.
    General Chilton. I don't believe we need the deep 
underground capability. We do need protections for our people 
in our command centers to withstand weather phenomenon in the 
area, and to ensure that it's always there for America. So I 
think we have a--we've worked very hard on the design of a new 
infrastructure and facility to take us into the 21st century 
and what this command needs to do its missions in the future. 
I'm satisfied we're on track. We appreciate your support and 
the support of this committee.
    Senator Ben Nelson. I want to thank you and the many 
personnel, both civilian and military, who make STRATCOM such 
an important part of our national security and help keep us as 
safe as possible.
    I thank you, Admiral and General, for your commitment and 
your very diligent and impressive work, as well.
    Thank you, Senator Akaka. I appreciate that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to say aloha and welcome to Admiral Willard and 
General Chilton and General Sharp. I want to thank you very 
much for your distinguished service to our country, and also 
all the military personnel that serve under you to assure that 
the security is there.
    The posture of PACOM and also USFK is of particular 
interest to me because of the strategic location of Hawaii in 
the Pacific. The growing economies, also, of the Pacific 
region, and particularly China, India, and South Korea, present 
both opportunities and challenges. But, I continue to be 
interested in the readiness of our forces in the Pacific as 
challenges in other parts of the world continue to compete for 
military resources. Of course, we're always looking at 
resources for our military and to be certain that we have it 
ready for our forces.
    Admiral Willard, India is becoming a growing economic and 
military power in the region. Last year, the United States and 
India reached agreements in military cooperation, space issues, 
and peaceful nuclear energy generation, during the visit of 
Secretary Clinton. Admiral, can you tell us how we are working 
with India's military and about any future developments? Of 
course, I ask this for information that you can reveal in this 
forum.
    Admiral Willard. Aloha, Senator Akaka.
    Senator Akaka. Aloha.
    Admiral Willard. Thank you very much for the question.
    Senator Akaka. Also let me say welcome to Donna.
    Admiral Willard. Thank you very much, Senator, and happy to 
answer the question.
    The military-to-military relationship with India has been 
evolving now for most of the last decade, and really started at 
the tactical level, service-to-service-type interaction, some 
of which I experienced while I was the Seventh Fleet Commander 
in hosting executive steering groups with my counterparts in 
the Indian Navy. At the same time, we've had, in the past, 
modest exercise series with the Indians that have grown over 
the years to become, now, complex exercise series with the 
Indians.
    And as our military-to-military relationship has advanced, 
it's also elevated itself such that we're now holding 
strategic-level discussions with the Indians, and very complex 
military discussions regarding our respective advancements and 
our future, in terms of exercising together. Then there is a 
growing foreign military sales relationship with the Indians as 
they've expressed interest in acquiring United States-produced 
military hardware. So, in my engagement with India--and I just 
returned, about 3 weeks ago, from a military-to-military 
exchange with them--we discuss in great detail their interest 
in acquiring U.S. systems.
    So, I would offer that not only is India now an economic 
and regional power, certainly in the Indian Ocean region, but 
it has global implications, as well, in the relationship 
between the United States and India has been evolving, through 
my experience, to a point where it's very strong, at the 
moment.
    Senator Akaka. Admiral, I want to commend you and our 
military for continuing to keep, as you were mentioning, the 
relationships between the military and our friendly countries, 
and also to try to continue to work with them in their 
exercises, as well.
    General Chilton, the establishment of U.S. CYBERCOM 
recognizes the growing importance of the cyberdomain to 
national security. This growing importance will require forces 
that are able to operate and defend DOD information networks 
and provide the President with response options in cyberspace.
    General, can you tell us how your organization is giving 
your personnel the knowledge and tools they require to operate 
effectively in this environment?
    General Chilton. Thank you, Senator. You've hit on a very 
key point, and that is growing and sustaining cyber-expertise 
in the military. We have a couple of things that have happened 
over the past year, that have been very encouraging. One, all 
of the Services are now organizing in such a fashion as to 
present cyberforces to STRATCOM to do those critical missions 
of operating and defending the networks and responding, when 
required. I would point out the Navy's new fleet organization, 
as well as the Air Force's new Numbered Air Force, as two 
examples of this. What that means is, the individual Services 
who are responsible for organizing, training, and equipping 
forces for the combatant commanders are organizing in such a 
fashion to put focus on the training of those personnel. So, we 
will see the Services increase the tension on accessions and 
training and growing the expertise of individuals in the 
various Services, and making them available to STRATCOM to 
conduct our operations.
    Internal to the headquarters and STRATCOM, we are taking 
seriously educational opportunities and growth opportunities 
for the people, particularly our civil servants that work in 
the headquarters, who will be there for the long haul, for 
these very critical mission areas of space, cyberspace, and 
deterrence. So we're paying attention to that.
    Lastly, Senator, I would say DOD, under the leadership of 
Secretary Gates, has increased the capacity of the joint 
school, down in Pensacola, that is run by the U.S. Navy, to 
provide increased educational opportunities for the personnel 
we will need, from all the Services, in CYBERCOM to execute our 
mission.
    Senator Akaka. Thank you very much for that information. If 
I have time, I'll come back with further questions on 
cyberspace.
    General Chilton. Thank you, Senator.
    Senator Akaka. Admiral Willard, it is my understanding that 
China is investing heavily in fourth-generation fighters and 
advanced surface-to-air missiles. Admiral, F-22s are being 
phased into PACOM. They are in Alaska, and are scheduled to be 
in Hawaii in the near future. Can you discuss the importance of 
having these assets in the Pacific, and provide an update of 
the Hickam basing schedule?
    Admiral Willard. Thank you, Senator. I think the statement 
that you made regarding China's advancements in capability and 
capacities in some very high-tech areas, and their--
particularly their investment in the People's Liberation Army 
(PLA) air force assets, fourth-generation fighter capabilities, 
combined with their integrated air defense systems, which are, 
as well, very sophisticated, are illustrative of why the F-22 
is particularly well suited to the Pacific, given its very 
unique capabilities.
    So, as the PACOM commander--and I know that General North, 
my Pacific Air Force commander, would attest, as well--we're 
very pleased that the F-22 forces in Alaska, and eventually in 
Hawaii, will be made available to us. Again, a very unique 
capability that is particularly well suited to some of the 
potential contingencies in our AOR; and, as well, contributing 
to extended deterrence throughout the Pacific. So, we look 
forward to those assets. They have served in the Pacific, often 
a squadron in Guam, at Anderson Air Force Base, and they will 
play a key role, I'm sure, in our various Air Force operations 
in the Pacific.
    In terms of the timing for the Hawaii Air National Guard to 
acquire F-22s, without being definitive about a very specific 
date, I would offer that both in the Alaskan Command, as well 
as at Hickam Air Force Base, as you're well aware, we're 
currently expending the military construction funds, over the 
next several years, to equip both of these sites to accommodate 
the F-22. Provided those military construction funds are timely 
and we're able to complete the advancements in ramp space, 
hangar space, and the necessary support facilities for that 
unique aircraft, then I'm hopeful that their laydown, both in 
Alaska, as well as Hawaii, will occur on time.
    Senator Akaka. Thank you very much, Admiral.
    Thank you, Mr. Chairman.
    Senator Lieberman [presiding]. Thanks, Senator Akaka.
    Senator Burr, it's my inclination to go a couple of more 
questions, if that's okay. Obviously, give you the opportunity, 
as well.
    Senator Burr. That's fine, Mr. Chairman. I have no 
additional questions at this time.
    Senator Lieberman. Thank you.
    Admiral, I wanted to go back to China, and I appreciate the 
statements that you made in your opening statement, I quote 
again here, ``China's rapid and comprehensive transformation of 
its armed forces is affecting regional military balances and 
holds implications beyond the Asia Pacific region. Of 
particular concern is that elements of China's military 
modernization appear designed to challenge our freedom of 
action in the region,'' end of quote from your opening 
statement.
    So, it's certainly my impression that, over the last year 
or so, there seems to have been a move up in the assertiveness 
of China, economically, diplomatically, and militarily. I take 
it, from that statement that I read from your opening 
statement, that you agree. If I'm right, why do you think this 
is happening now?
    Admiral Willard. Thank you for the question, Senator. I 
think that we have seen a change in tenor from the People's 
Republic of China (PRC) in the last year or so, such that the 
exchanges that occur--in my instance, military-to-military, and 
often in other fora with our Government and with regional 
partners--is a changed tone that, as you suggest, demonstrates 
more assertiveness on the part of the Chinese.
    It would be hard to speculate as to why that has occurred 
at this particular time. But, when you consider the very rapid 
growth of capability in the PLA armed forces over the past 
decade, combined with the economic growth of China and its 
growing global influence, there is a level of confidence, I 
believe, that comes with that pronounced assertiveness, that 
we're all experiencing.
    I think it will be very important for the PRC to regard 
that level of influence and their responsibilities now as a 
very influential global partner, to dialogue with the 
international community and with the United States in a very 
responsible manner, and take their place at the table, to 
ensure that, rather than shrill exchanges, that we're on common 
ground with regard to meeting our global responsibilities. I 
think they certainly have them.
    Senator Lieberman. Well, I agree with what you said, all 
parts of your statement, including, obviously, the fact that we 
acknowledge and respect the growth in China's economy, its 
importance in the world. We seek a constructive, obviously a 
peaceful, relationship with them, but we also have both 
historic presence in the Asia Pacific region, and we have 
national security interests in the region, and very important 
allies that depend on us in the region. So, we have to both 
maintain the peacefulness of the relationship, but a clarity 
and an honesty in our relations with the Chinese.
    Tell me what you meant when you said that elements of 
China's military modernization appear designed to challenge our 
freedom of action in the region.
    Admiral Willard. China has made a number of investments in 
a variety of anti-access-capability areas; area denial, perhaps 
another way to think about it. This ranges from integrated air 
defense systems off their coastline which stand off well beyond 
their territorial waters and airspace, to their investments in 
submarines, which is pretty profound, and that particular 
capability, now, that is ranging throughout the South China 
Sea, East China Sea, and Yellow Sea, and beyond, and other 
capabilities that, together, provide sizable area-denial 
capability.
    Over time, they have very much appeared to zero in on U.S. 
capabilities and the potential ability to counter those, as a 
framework for these investments. But, I would offer that they 
not only concern the United States, but our regional allies as 
well.
    Senator Lieberman. Right.
    Admiral Willard. As you suggest, Japan, the ROK, our allies 
in Southeast Asia, the Philippines, and Thailand, and our 
partners in Vietnam and elsewhere in the region, all have to 
deal, now, with capabilities that could potentially infringe on 
their freedom of action throughout this very important part of 
the world.
    I would just remind that we've been present in these 
waters, and in this airspace, for the past 150 years.
    Senator Lieberman. Right.
    Admiral Willard. We've been providing security for sea 
lines of communication that are moving over a trillion dollars 
of commerce per year, both back and forth to the United States 
and to our important allies and partners in the region, which 
has also provided for the economic growth of China.
    Senator Lieberman. Correct.
    Admiral Willard. We don't intend to cede any of that space, 
but, rather, continue to protect those sea lines of 
communication that are so vital to the United States and the 
Asia Pacific region as a whole.
    Senator Lieberman. I appreciate that statement very much, 
and also the fact that China's growth and assertiveness is not 
just a concern of ours, parochially, it is very much a concern 
of most of the rest of the countries in the region who are 
allies. I gather, unfortunately, that the kind of military-to-
military relationships that have otherwise been quite useful in 
diminishing tension between countries has actually not done 
very well, yet, with the PRC. Now, if I'm not mistaken, the 
military-to-military contacts are suspended as a result of 
Chinese reaction to our recent arms sales to Taiwan. I wonder 
if you have anything to say about the state of our military-to-
military relationship with China.
    Admiral Willard. You describe it accurately, Senator 
Lieberman, when you refer to the suspension and also the fact 
that our military-to-military relationship tends to lag behind 
the other engagements that we enjoy with the PRC. We believed 
that we were making progress last year, when General Xu, one of 
the very high-ranking members of the Central Military 
Commission, visited Washington, to include Secretary Gates, and 
agreed upon a method to advance our military-to-military 
relationship, and mature it. He stopped in Hawaii on his way 
back to Beijing, and he and I spent a day or so together, again 
revisiting the areas of common interest that we thought we 
could advance discussions and relations with, and also the 
opportunity that military-to-military dialogue provides, in 
terms of dealing with our differences.
    Regretfully, those engagements that had been agreed upon 
with the PRC are part of this suspension, to include the high-
level visits--invitations extended to the Chairman of the Joint 
Chiefs, Secretary Gates, and, lastly, myself--were part of this 
demarche. So, we believe strongly that China needs to revisit 
the value of a continuum of military-to-military relationship 
and dialogue with the United States and determine its value in 
their self-interest, which we believe strongly in, and we--
we're hopeful that they'll have that internal discussion and 
ultimately we'll be able to depart on a more continuous 
relationship.
    Senator Lieberman. Well said, thanks.
    General Chilton, one quick question. This morning, as I'm 
sure you know, President Obama and, I presume, President 
Medvedev will be announcing the successful conclusion of START 
negotiations, and that they'll be submitting, in this case, the 
treaty to the Senate for consideration. Many of us here have 
been concerned that the Russians might try to bring into the 
treaty some limitations on our freedom of action with regard to 
defensive systems, missile defense systems, particularly. I 
gather that there's a reference to defensive systems in the 
preamble, but nothing in the heart of the treaty, that the 
Russians are apparently going to say, publicly, in a separate 
statement, that they reserve the right to leave the treaty if 
they think our defensive missile systems are, in some sense, 
threatening them.
    Do you agree that START should be a separate matter for 
consideration, which is basically the reduction of our nuclear 
weapons inventories, on both great powers, and leave the 
question of defenses separate from that?
    General Chilton. Senator, I do. That's the short answer.
    Senator Lieberman. It's a good one.
    General Chilton. Missile defense--in spite of our--all our 
efforts--and we need to continue these efforts--the U.S. 
Missile Defense System has been fielded for two purposes; one, 
to counter a Korean capability----
    Senator Lieberman. Right.
    General Chilton.--that, in some future date, should we not 
have a missile defense, might put them in a position to deter 
the United States from meeting our responsibilities and our 
commitments to the people of South Korea.
    Senator Lieberman. Right.
    General Chilton. Likewise, to prevent Iran from fielding a 
system that they could blindly blackmail, or use to blackmail 
or threaten, our friends and allies, both in the CENTCOM 
region, but also in the European Command region.
    Senator Lieberman. Yes.
    General Chilton. That is our focus. If you put on a pair of 
Russian shoes and look at it from their perspective, their 
concern is that there's more to this than that, perhaps. So we 
need to continue dialogue with the Russians to assure them that 
is not the case, not only through dialogue, but through our 
actions. I think our actions to date have shown that we're 
fielding a limited system, with focused capabilities, to 
address those two focused threats--those two specific threat 
areas.
    Again, this kind of circles back to the point on military-
to-military discussions. Military-to-military discussions with 
Russia, as well as China, are important.
    Senator Lieberman. Right.
    General Chilton. Russia, on this particular topic, China, 
on this particular topic, as well as, certainly, others when we 
start talking about strategic deterrence and posturing for 
strategic deterrence between those three countries--the United 
States, China, and Russia.
    Senator Lieberman. Thank you.
    Senator Burr.
    Senator Akaka, do you want to ask another question?
    Senator Akaka. Mr. Chairman, may I?
    Senator Lieberman. Please, go ahead.
    Senator Akaka. Yes.
    Admiral Willard and General Sharp, I believe we must expand 
our foreign language capability, and also our cultural 
knowledge. There seems to be an emphasis within DOD to improve 
these capabilities within our forces. Admiral and General, what 
are your thinking of the Department's efforts to develop 
servicemembers' cultural knowledge and foreign language skills 
in order to better perform their roles in counterinsurgency and 
stability operations?
    Admiral Willard. Yes, thank you, Senator Akaka. It's an 
important question. In my previous assignment as the Vice Chief 
of Navy, I was a party to many of the discussions inside the 
Pentagon regarding the need to increase our investments in 
foreign language skills and cultural awareness, which was 
fundamentally an increase in the number of foreign area trained 
officers for very specific areas of the world, that each of the 
Services were making. We have made sizable investments within 
DOD to support those increases in language training and the 
increases in foreign area officers. As a PACOM commander, I'm 
enjoying the benefits of that, such that now a sizable number 
of my headquarters' staff members--I know it's true in the 
components, as well, having previously served as the Pacific 
Fleet commander--we're enjoying greater language skills among 
our junior officers and senior enlisted personnel, such that, 
when they conduct their engagements and capacity-building 
around the Asia Pacific region, they're much better able to 
converse across the wide number of languages and dialects that 
you're more than familiar with exist in our part of the world.
    So, this has been a great investment, and I am assured the 
Services all will continue to make this investment, as I think 
we've learned some lessons regarding its importance to the work 
that we do out there.
    Senator Akaka. General Sharp?
    General Sharp. I agree completely with Admiral Willard. I 
think the initiative that the Department has undertaken toward 
normalization of longer tours in Korea also greatly contributes 
to the cultural understanding and the capabilities that we 
have, specifically in the ROK. I was in the building at the 
same time as Admiral Willard, working on this same initiative, 
and agree with him that it is critically important for our 
Services to step up to this and make more language and cultural 
awareness among all of our forces. I think they're doing very 
well at that. It's critically important.
    Senator Akaka. Well, thank you very much for those 
responses. I'm happy to hear that.
    Mr. Chairman, I asked the question because it goes back to 
World War II, when the Military Intelligence Services (MIS)--
Japanese from our country--made a huge difference with General 
MacArthur in Japan and believed that they helped to build a 
base that has become what Japan has succeeded to be through 
their efforts and through the language and cultural skills that 
our military had at that time, and was able to deal with Japan. 
I look upon that as an important part of our future strategies 
as we work with other countries.
    Thank you very much, Mr. Chairman.
    Senator Lieberman. Thank you very much, Senator Akaka.
    General Chilton, Admiral Willard, General Sharp, thanks for 
your service, thanks for your testimony today, thanks for your 
patience with Senate procedure during the week. It's been a 
really helpful and informative discussion this morning. I know 
I can say, on behalf of Chairman Levin, Senator McCain, Senator 
Burr, and everybody else here on this committee, that we 
appreciate very much what you're doing for us in very important 
aspects of our security around the world, and we'll try our 
best, in our authorization responsibility, to give you the 
support that you, and all those men and women in uniform 
serving under you, deserve.
    So, thank you very much.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
           Questions submitted by Senator E. Benjamin Nelson
             intelligence, surveillance, and reconnaissance
    1. Senator Ben Nelson. General Chilton, Secretary Gates testified 
that the combatant commanders have an insatiable appetite for 
intelligence, surveillance, and reconnaissance (ISR). This year's 
budget request seems to address that need. Collectively, the Services 
are planning on spending $6.1 billion in fiscal year 2011 for new 
unmanned aerial vehicle (UAV) capabilities.
    From my vantage point, it seems the focus has been on how many UAVs 
are in the field and how quickly we can get more, and, in doing so, we 
overlook critical aspects of expanding ISR- like how the Services plan 
to train the analysts that will be required to process the expanding 
volumes of data, and what infrastructure will be required to move data 
and share it with those that need it. The easy part is buying the next 
Predator--the hard part is exploiting and using the intelligence.
    A Governmental Accountability Office (GAO) report issued last week 
states that within U.S. Central Command (CENTCOM), less than half of 
the electronic signals collected by Predator are exploited. The report 
identifies a shortage in analytical staff to process ISR data and 
limited bandwidth to disseminate intelligence as principle challenges. 
At the Air Force posture hearing this month, I asked General Schwartz 
about manning the ISR mission and he stated that the current manning 
structure to support UAV operations was unsustainable in light of 
projected growth. It doesn't appear that the Department's capacity to 
process, exploit, and disseminate intelligence has kept pace with its 
ability to collect it.
    Last week I addressed ISR shortfalls with General Petraeus, and he 
testified that the Office of Secretary of Defense (OSD) ISR Task Force 
is coordinating the activities among the Services to support operations 
in the CENTCOM area of responsibility (AOR). Could you comment on your 
role in these coordinating activities with the OSD ISR Task Force?
    General Chilton. U.S. Strategic Command (STRATCOM) is the DOD Joint 
Functional Manager (JFM) for ISR and associated processing, 
exploitation, and dissemination (PED). STRATCOM executes its command 
responsibilities through its Joint Functional Component Command for ISR 
(JFCC-ISR). As a point of reference, STRATCOM personnel were primary 
sources of information for the GAO report, ISR: Overarching Guidance is 
Needed to Advance Information Sharing, noted by Senator Nelson. As the 
JFM for ISR, STRATCOM works closely with the OSD ISR Task Force to 
identify current PED gaps and shortfalls, as well as forecast future 
PED issues with the acquisition of new platforms and sensors. This 
coordination helps to ensure any additional capabilities fielded look 
beyond the platform and take into account all aspects of collection, 
PED.
    To address the PED adequacy concerns raised by Senator Nelson, 
STRATCOM is developing a comprehensive plan to align PED with the 
allocation of ISR platforms to the combatant commands, ensuring PED 
capacity with an ultimate goal of better aligning with ISR collection. 
To this end, STRATCOM is working to formalize PED relationships with 
the Military Services and Combat Support Agencies in an attempt to 
maximize and target use of PED capacity as a DOD Intelligence 
Enterprise.
    STRATCOM is also conducting a assessment to determine overall PED 
capability and capacity across the DOD based upon a detailed analysis 
of the ISR/PED architecture. This assessment will help STRATCOM 
highlight gaps, shortfalls, or possible redundancies within the current 
system to the Services and Combat Support Agencies. The desired outcome 
is the ability to specifically identify bottlenecks and logjams to 
include any aspect from lack of bandwidth to types of linguist to 
proficiency of imagery analysts.

    2. Senator Ben Nelson. General Chilton, beyond the needs of 
CENTCOM, can you further speak to any shortfalls that you are seeing 
generally in ISR personnel and bandwidth?
    General Chilton. Recognizing that the preponderance of available 
ISR capability and capacity are engaged in the CENTCOM AOR, the recent 
earthquake in Haiti highlighted challenges the Department faces in 
satisfying ISR and PED requirements in other geographic combatant 
commands. During the Department's initial response to the humanitarian 
crisis in Haiti, Operation Unified Response (OUR), STRATCOM noted 
shortfalls related to processing, exploitation, and dissemination.
    Following the initial ISR deployments to support OUR, analysis 
revealed some limitations in our ability to establish an expeditionary 
ISR architecture during the early stages of the operation. Specific 
bandwidth and equipment issues prevented direct communication between 
ground-based personnel and airborne platforms, hampering the JTF-
Haiti's ability to respond to problem areas. STRATCOM in coordination 
with U.S. Southern Command (SOUTHCOM) developed an in-theater and 
beyond line of sight dissemination architecture for the full motion 
video capability, ensuring all collection was available to forward 
commanders. The challenges noted during this experience are not unique 
to SOUTHCOM and are applicable across multiple combatant commands.
    Airborne ISR requests for forces submitted by geographic combatant 
commands also show shortages in intelligence personnel with requisite 
language skills. As new collection systems are brought on line, 
fielding of the PED expertise to support their full employment lags 
behind. STRATCOM is partnered with the Defense Intelligence Operations 
Coordination Center to identify and where feasible mitigate 
intelligence personnel shortfalls and identify efficiencies within the 
DOD Intelligence Enterprise. STRATCOM is also working with the Under 
Secretary of Defense for Intelligence to help the combatant commands 
identify their key signals intelligence language requirements and help 
the military departments source the required manpower.

    3. Senator Ben Nelson. General Chilton, are these issues being 
addressed and do you have any recommendations as to how they should be 
addressed?
    General Chilton. STRATCOM and its ISR component JFCC-ISR, continues 
to take a leading role within the Department in advocating for ISR 
capabilities to address current and future warfighting requirements. As 
the military co-lead for the Battlespace Awareness Portfolio, the 
Command conducts an annual ISR-related Senior Warfighter Forum (SWarF) 
to develop and prioritize needed ISR and PED attributes along with 
combatant command shortfalls and gaps for all ISR to include overhead 
systems. As an example, STRATCOM recently conducted a SWarF to develop 
a combatant command statement of urgent need for space-based ISR 
capabilities. The Command takes a global perspective and coordinates 
with the military departments, the combat support agencies, and the 
combatant commands in developing courses of action to address these 
issues. In essence, STRATCOM is the combatant commands ``voice'' to 
ensure the warfighters ISR shortfalls and gaps are addressed.
    To help to address the gap between growth in ISR requirements and 
projected ISR capabilities, STRATCOM is developing an ISR Force Sizing 
Construct to inform future ISR allocation and procurement. The 
combatant command focused ISR assessments construct and resulting ISR 
Measure of Merit is intended to give decisionmakers an analytical basis 
for a relative comparison of force mixes. The Force Sizing Construct 
will provide a scalable, tailorable, and repeatable process to 
determine regional combatant commander demands and expectations in 
order to better inform future acquisition decisions.

    4. Senator Ben Nelson. Admiral Willard and General Sharp, with 
regard to ISR personnel, can you discuss whether you are seeing 
shortfalls in ISR personnel and what is being done to address personnel 
shortfalls for analysts to process, exploit and disseminate 
intelligence?
    Admiral Willard. [Deleted.]
    General Sharp. [Deleted.]

    5. Senator Ben Nelson. Admiral Willard and General Sharp, what are 
your recommendations?
    Admiral Willard. Numbers are only part of the solution. Realizing 
the potential of our ability to process information requires changes in 
culture, policy, procedure, governance, and information technology. We 
continue to actively engage with the Under Secretary of Defense for 
Intelligence (USD(I)) and other Intelligence Community leaders to 
ensure they understand our requirements, capabilities and shortfalls. 
Additionally, we continue to work with the Services and the broader 
Intelligence Community to provide the right-sized, right-qualified, 
right-equipped ISR force.
    General Sharp. In order to compensate for military department 
intelligence billet shortfalls, United States Forces Korea is 
considering converting many more of these positions to Defense 
Intelligence Agency (DIA) civilian billets. If DIA is unable to hire 
and fill civilian billets for the Combatant Command, that payroll 
should become available to the Joint Intelligence Operations Center to 
pay for contractors or temporary duty assistance. Increase the priority 
fill for intelligence personnel working the North Korea problem at the 
operational, theater and strategic level. We ask for the committee's 
support in this effort.
    Another challenge we face is the short tour lengths for both 
civilian and military personnel assigned to the Republic of Korea 
(ROK). One and 2 year tours have a negative effect on the continuity of 
our workforce. Standard tour normalization of 3 years for personnel 
assigned to Korea will help to mitigate this problem. We ask that the 
committee support this effort as well.

              interagency coordination cyber/intelligence
    6. Senator Ben Nelson. General Chilton, one thing that I commonly 
look for are stovepipes and whether the Services are duplicating 
efforts or truly enhancing overall mission effectiveness. Last year at 
the STRATCOM hearing, you highlighted the importance of sharing 
information among agencies, including the Department of Homeland 
Security, the Intelligence Community, and the Department of Defense 
(DOD), in addressing security risks in cyberspace. I want to ensure 
proper coordination is taking place between agencies to ensure that 
each agency is not creating its own unique defenses. If each agency 
builds their own protective walls, they will ultimately stifle 
collaboration and the ability to disseminate intelligence information 
among agencies, which has been our Achilles heel--an inability to share 
intelligence, connect the dots, and prevent future attacks. How are we 
doing at interagency coordination of cyber security and information 
exchange protocols?
    General Chilton. I believe we are making progress in improving 
interagency coordination of cyber security and information exchange 
protocols.
    Efforts to improve our interagency coordination begin with our 
continued participation in Joint Interagency Task Force-Cyber (JIATF-
Cyber). Current member organizations of the JIATF-Cyber include the 
National Security Agency/Central Security Service, DIA, Central 
Intelligence Agency (CIA), Federal Bureau of Investigation (FBI), Joint 
Warfare Analysis Center, Office of the Secretary of Defense/Joint 
Staff, Army, Navy, Air Force, Marine Corps, Joint Functional Component 
Command-Network Warfare (JFCC-NW), Joint Task Force-Global Network 
Operations (JTF-GNO), Joint Functional Component Command for Global 
Strike, Joint Information Operations Warfare Center (JIOWC), 
Departments of Treasury (DOT), State (DOS), and Homeland Security and 
the combatant commands.
    As U.S. Cyber Command stands up, it will look to improve our 
coordination by transitioning JIATF-Cyber to a Joint Interagency 
Coordination Group--Cyber, a multi-functional, advisory element that 
represents civilian departments and agencies at U.S. Cyber Command and 
facilitates information sharing across the interagency and key partner 
nations.
    We intend to further coordination with the placement of liaison 
officers with the following organizations in coming year: FBI, CIA, 
DoT, DoS, the National Counter Terrorism Center (NCTC), and the 
combatant commands. Additionally, plans are developing to place LNOs 
with the United Kingdom, Australia, and Canada.
    U.S. Cyber Command will also leverage JTF-GNO's full-time Law 
Enforcement/Counter-intelligence (LE/CI) Center for coordinating LE/CI 
activities in support of defensive cyberspace operations. Today, DOD 
LE/CI agencies have assigned agents that support our efforts to improve 
cyber security, including Naval Criminal Investigative Service, Defense 
Criminal Investigative Service, Air Force Office of Special 
Investigations, Army Criminal Investigations Command, and Army 
Intelligence and Security Command.
    Finally, we continue to work hard at sharing information on cyber 
threats among a variety of DOD and interagency partners everyday. 
Establishing the connective tissue among our partners is a significant 
challenge, but one we see as essential to deter our adversaries and 
prevent future attacks.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                   active and reserve duty components
    7. Senator Burris. Admiral Willard, General Chilton, and General 
Sharp, do you believe you have the right mix of Active Duty and Reserve 
component presence within your command? If not, what are your 
shortfalls in capabilities or skill sets?
    Admiral Willard. Yes, we have the right mix of Active Duty and 
Reserve component presence within the PACOM command. However, as an 
Active-Duty Force we see shortfalls in Foreign Area Officers, 
intelligence professionals and those with skills sets in the areas of 
Security Cooperation, POW/MIA identification and accounting, and cyber 
active and passive defense.
    General Chilton. U.S. Strategic Command's global, operational 
missions demand several unique (often high-demand, low-density) skill 
sets. The Command continually balances mission and workforce 
requirement growth across our team through a robust and carefully 
managed total force approach. We are also dedicated to pursuing and 
advocating for expanded deterrence, space, and cyberspace professional 
development opportunities, to ensure we remain as fully capable of 
executing our missions as we are today.
    There always exists unsatisfied demands which stretch the limits of 
active duty resources, and reservists can provide the ability to 
quickly respond to address expertise or manning shortfalls until the 
operational requirement has passed. Our reserve utilization is aligned 
to STRATCOM's global mission set that draws on highly specialized 
skills encompassing subsurface, land/sea, nuclear, space, and cyber 
warfare areas.
    Since the end of the Cold War and particularly since September 11, 
2001, we have increasingly relied on the Reserve component as an 
``operational reserve.'' In fact, STRATCOM's reserve utilization rate 
has increased substantially in the last 3 years from 48,000 man days 
per year in 2008 to a projected 85,000 in 2010. The level of Active/
Reserve integration within this command is such that there is no 
discernable difference operationally in the workplace.
    General Sharp. National Guard and Reserve component forces provide 
greater than 60 percent of the Combat Support/Combat Service Support 
units in support of our operations plan. Successful accomplishment of 
our objectives is not possible without them. Tour normalization for our 
Active component forces should reduce ramp-up time for maneuver and 
fires units while reducing risk to training and proficiency. At the 
same time, tour normalization provides continuity, ensures theater-
specific experience, and enhances interoperability with forces from the 
ROK.
    In spite of the steps we have taken, Combined Forces Command 
struggles with a number of personnel-related capability gaps. For 
example, the Korean Theater of Operations has endured a chronic 
shortage of trained Tactical Air Control Party and Joint Terminal 
Attack Controller (JTAC) personnel. The intense, complex training 
requirements, language skill requirements, and deployment operations 
tempo for that career field result in a capability void which we labor 
to bridge. The impact to the operations plan is a reduced ability to 
direct close air support for our forces on the forward line of our own 
troops and our forces in the rear area countering the threat posed by 
North Korean special operations forces.

                pacific command disaster relief efforts
    8. Senator Burris. Admiral Willard, Pacific Command (PACOM) played 
a tremendous role in the humanitarian operations following the 2004 
Indian Ocean tsunami. How are you working with the other combatant 
commands, such as U.S. SOUTHCOM following the earthquakes in Haiti and 
Chile, to better prepare for natural disaster response efforts?
    Admiral Willard. It is important to note that PACOM forces respond 
to a natural disaster on the average of every 60 days. That said, PACOM 
sent a five man planning team to assist SOUTHCOM for Operation Unified 
Response within days of the event. The team became the core planning 
element and assisted in the preparation of SOUTHCOMs Strategic 
Framework and Transition Strategy, as well as performing as the conduit 
for United Nations and interagency planning. The augmentation support 
mission also provided an opportunity for PACOM and SOUTHCOM to share 
their HA/DR response plans which further prompted a greater level of 
collaboration with European Command and Africa Command.

                illegal narcotics and human trafficking
    9. Senator Burris. Admiral Willard, the trafficking of illegal 
narcotics, humans, and arms continues to be a priority for your 
command. What is your current strategy for countering these threats?
    Admiral Willard. These kinds of transnational threats are indeed a 
priority for the PACOM. Our strategy is to work through the Interagency 
to develop ``whole-of-government'' approaches to build in the capacity 
of our regional allies and partners to counter these threats.
    The Joint Interagency Task Force West (JIATF-W) is the PACOM 
Executive Agent (EA) for DOD support to counterdrug initiatives in the 
PACOM AOR. As EA, JIATF-W uses delegated authorities and funding to 
combat drug-related transnational organized crime in the Asia-Pacific 
region. JIATF-W sources capabilities from all five U.S. Military 
Services as well as the entire U.S. Intelligence Community.
    Strategic Goals:

        <bullet> Support ongoing and developing LE operations to 
        disrupt and dismantle drug-related transnational criminal 
        organizations.
        <bullet> Build partner nation capacity to combat drug-related 
        transnational crime.
        <bullet> Enhance and support a cooperative network of 
        partnerships across Asia-Pacific to combat transnational crime.

    10. Senator Burris. Admiral Willard, how are you working with other 
combatant commands to address this concern?
    Admiral Willard. The Joint Interagency Task Force West (JIATF-W) 
participates in planning conferences hosted by other combatant commands 
counterdrug (CD) executive agents (EA). Each year we participate in the 
counterdrug and border security planning efforts of Joint Interagency 
Task Force South (JIATF-S), the CD EA for Southern Command, and Joint 
Task Force North (JTF-N), the CD EA for Northern Command.
    JIATF-W attends the DOD Combatant Command Counter-Narcoterrorism 
Conference hosted by OSD SO/LIC&IC&CN&GT. This is a Director level 
conference to discuss regional and national CD policy, strategy and 
programs.
    JIATF-W also coordinates and exchanges intelligence on a regular 
basis CD EA in Northern Command and Southern Command on the global 
movement of illegal drugs and drug precursors.

                          private contractors
    11. Senator Burris. General Chilton, private contractor support 
continues to receive increased scrutiny due to abuses in both Iraq and 
Afghanistan. Most recently, there were allegations of unauthorized 
intelligence gathering operations by contractors. Abuses by contractors 
continue to undermine our strategic efforts and bilk the taxpayers out 
of millions of dollars. How will STRATCOM provide better oversight of 
private contractors?
    General Chilton. STRATCOM/J8 has a contracts branch within its 
headquarters which monitors STRATCOM contracts and will provide better 
oversight of private contracting as outlined below. They will ensure 
contract personnel are trained to oversee their respective contracts. 
As a result of recent allegations pertaining to contracts in 
Afghanistan, J8 has implemented a process in which all intelligence 
related requirements for new contracts and modifications to existing 
contracts must be reviewed by J8 and STRATCOM's legal office. J8 has 
also implemented a second level of control by requiring a division 
chief or deputy division chief as an additional level of contract 
oversight above the trained personnel. A rigorous funding review 
process is also conducted before STRATCOM funding is approved. 
Organizations must submit a spend plan based upon an approved financial 
review by the STRATCOM Deputy Commander. Once the spend plan is 
approved by J8, funding documents are prepared and reviewed within the 
user's office and by at least two other personnel within J8. The 
contracting and funding processes work hand in hand to ensure no 
``abuses'' occur.
    Presently, there are three ongoing investigations looking into 
allegations relating to unauthorized intelligence gathering by 
contractors. None of these investigations are complete, so it would be 
premature to form conclusions as to the facts or findings these 
investigations will reveal. However, none of these are funded with 
STRATCOM funding.

    12. Senator Burris. General Chilton, could the missions being 
fulfilled by private contractors be better handled by military 
personnel?
    General Chilton. The Deputy Secretary of Defense has implemented 
guidelines for managing functional and geographic combatant command's 
manpower baselines. He has also established business rules to govern 
the management of manpower resource relationships among the Services, 
combatant commanders, and the combatant command support agents. These 
guidelines state that once the baseline is established, permanent 
military billets will only be adjusted based on approved programmed 
changes. In light of this STRATCOM is working hard with DOD to convert 
contractor positions into civilian billets based on in-sourcing 
guidance provided by the Secretary of Defense. Wherever possible, we 
are converting contractor positions to civilian billets based on cost 
effectiveness and whether the work is inherently governmental. However, 
there are certain functions that should continue to be contracted 
because of specialized expertise which are not reasonably available 
within the military or civilian communities and which are not an 
inherently governmental function.

                             cyber command
    13. Senator Burris. General Chilton, the President has stated that 
cyber security is ``one of the most serious economic and national 
security challenges we face as a Nation.'' As the new U.S. Cyber 
Command (CYBERCOM) continues to take form, what is your strategy for 
addressing the threat?
    General Chilton. As CYBERCOM stands up it will need to continue to 
change our DOD cyber culture, build capacity; increase capability; and 
strengthen partnerships to effectively address the growing threats we 
face within cyberspace.
    With respect to changing culture, CYBERCOM will work with the 
combatant commands, Services, and DOD agencies to refine the way in 
which we execute our responsibilities and grow our cyber expertise. 
Through education and training, CYBERCOM will improve understanding 
among all DOD personnel that every networked computer is on the front 
line. Everyone who logs on is a cyber defender first. There are no 
`protected zones' or `rear areas'; all are equally vulnerable.
    CYBERCOM will work with the Services and their designated cyber 
components to ensure we are able to build capacity through the 
recruitment and retention of a world-class cadre of military cyber 
forces. The skills required include operators, planners, analysts and 
engineers. These cyber forces will require focused training, just like 
other forces required to operate our most sophisticated and complex 
weapons systems. Fundamental to this effort will be an ability to 
manage this diverse but vital talent, and also to promote a culture of 
creativity and innovation that will allow us to maintain our 
technological edge in the cyberspace domain.
    CYBERCOM will also increase our capability to deliver integrated 
effects in cyberspace. These effects include building a shared 
situational awareness of DOD networks; developing faster and more 
comprehensive early warning; and improving our ability to plan and 
execute dynamic defense operations. These effects will enable a 
paradigm shift in the way we defend our networks--a move from a 
reactive and passive posture to a proactive, prepared one.
    Finally, CYBERCOM will focus on strengthening critical 
partnerships. While the primary mission of U.S. Cyber Command will be 
to secure our military's classified and unclassified networks, the 
interconnected nature of these networks and the free flow of 
information across them will necessitate an active partnership between 
CYBERCOM and the other combatant commands, the Intelligence Community, 
departments and agencies across the U.S. Government, and our allies, to 
ensure that we work together to eliminate our collective 
vulnerabilities. In addition, given that the private sector controls 
the vast majority of our Nation's cyber infrastructure, a strong and 
transparent partnership between U.S. Cyber Command and private industry 
will be critical to allow for the exchange and development of new 
technologies.

    14. Senator Burris. General Chilton, how will CYBERCOM work with 
other Federal and State agencies?
    General Chilton. CYBERCOM Implementation Plan guidance directs the 
establishment of two interagency coordination bodies. One body will be 
focused on day-to-day operational planning, deconfliction and 
execution. The second body, comprised of senior leadership from the 
participating agencies, will meet periodically and review interagency 
posture, operations and plans, and offer a forum for issue resolution, 
communication facilitation, and the elevation of issues to senior U.S. 
Government leadership.
    CYBERCOM will also provide liaison officers (LNOs) to key 
interagency partners in order to facilitate information sharing and 
improve CYBERCOM's understanding of their partners' missions, 
operations, and staffs. While at their host organization, these LNOs 
will maintain routine contact with the CYBERCOM staff. Upon 
establishment, CYBERCOM will maintain the existing LNO relationships 
that are held by JFCC NW and JTF-GNO and will establish LNOs at other 
key organizations as additional resources become available.
    A Reserve component (RC) Joint Reserve Unit including elements from 
each Service component, the Army National Guard, and the Air National 
Guard, will be created at CYBERCOM. These elements will provide 
CYBERCOM staff support, coordinate and provide situational awareness, 
and ensure an understanding of unique roles and capabilities of the RC.

    15. Senator Burris. General Chilton, how will you integrate the 
National Guard and Reserve Forces into CYBERCOM?
    General Chilton. CYBERCOM will communicate and coordinate through 
the National Guard Bureau Joint Operations Coordination Center (JoCC) 
to leverage National Guard Title 32/State Active Duty cyber forces of 
the States and territories. The Army National Guard and Air National 
Guard maintain units that provide full spectrum information operations 
and cyberspace operations capabilities, including computer network 
defense, computer network exploitation, and computer network attack. 
These capabilities meet Service and combatant commander requirements 
and can be leveraged under state authorities to assist civil 
authorities in the National Guard's Homeland Security and Defense 
Support of Civil Authorities role.
    A Reserve Component Joint Reserve Unit including elements from each 
Service component, the Army National Guard, and the Air National Guard, 
will be created at CYBERCOM. These elements will provide CYBERCOM staff 
support, coordinate and provide situational awareness, and ensure an 
understanding of unique roles and capabilities of the Reserve 
component. The need for additional CYBERCOM Reserve requirements and 
structure will continue to be analyzed as the Department's 
understanding of the domain matures.

                  the strategic arms reduction treaty
    16. Senator Burris. General Chilton, Secretary of State Clinton 
said last week that the United States and Russia are on the brink of 
completing a new nonproliferation treaty. What are your biggest 
concerns with regard to nuclear security and the adoption of a new 
Strategic Arms Reduction Treaty (START) agreement?
    General Chilton. My biggest concern is the modernization of our 
nuclear weapons infrastructure, and approval of the administration's 
request for funding that modernization. The proposed investment in the 
infrastructure will enable improved security and reliability of our 
nuclear weapons while at the same time enabling further reductions in 
our hedge requirements, once the infrastructure improvements are 
achieved.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                            missile defense
    17. Senator Inhofe. General Chilton, while I am most concerned 
about Iran and North Korea and generally wary of China and Russia, 
rogue nation states and non-state actors continue to pursue nuclear 
weapons and other weapons of mass destruction (WMD) capabilities. It is 
critical that the Nuclear Triad, as well as Missile Defense, remain a 
viable and effective mechanism for preventing those that mean this 
country harm from doing so. Our Trident submarines have an average age 
of 20 years old, with replacement build not starting until 2019 and 
tentatively completed by 2028. The associated D5 missiles will undergo 
modernization as well. Our nuclear stockpile will undergo life 
extension programs for the W-76 warhead and the B-61 bomb. Both pre-
date the 1960s with variants as late as the mid-1990s. Our strategic 
bomber fleet of B52s, B1s and B2s vary in age from 10-30 years. The 
Secretary of Defense recently stated that 2020 may be the first time we 
see a new bomber. $200 million has been requested for research and 
development (R&D) of a new strategic bomber, but it is unclear what the 
administration intends to do about a replacement for the 30 year-old 
nuclear Air Launched Cruise Missile (ALCM), a follow-on to the 
Minuteman Intercontinental Ballistic Missile (ICBM), and the F-35 
``dual-capable'' aircraft. Are we assuming too much risk by only 
modernizing our fleets and limiting the R&D necessary to keep our 
qualitative edge over current and future adversaries?
    General Chilton. Efforts are underway with participation by 
STRATCOM to modernize the SSBN, Bomber, Cruise Missile, ICBM, and 
nuclear weapons. As part of our support to the NPR we developed and 
laid out our recommended capabilities in the triad. Specifically, our 
recommendations included to extend the Minuteman III ICBM through 2030 
and conduct studies now to inform decisions on a follow-on ICBM; to 
replace the Ohio-class SSBN at the existing ships' end of life; and to 
study future long-range bomber capabilities and also support moving 
forward with full-rate production for the W76-1 warhead for our 
submarine leg of the triad; full-scope (nuclear and non-nuclear) life 
extension of the B-61 bomb to sustain its strategic deterrence and 
extended deterrence role; and initiating studies to develop life 
extension options for the W78 ICBM warhead. In this latter effort, we 
should include the possibility of adapting the resulting warhead for 
sea launched ballistic missiles and thereby reducing the number of 
warhead types. This blueprint would allow us to be adequately postured 
to deter strategic threats throughout the next 20-30 years.

    18. Senator Inhofe. General Chilton, do you believe that the fiscal 
year 2011 budget request adequately funds what is needed to maintain 
our deterrent and global strike capabilities?
    General Chilton. Yes, the President's budget provides adequate 
funding to address our Nation's most critical needs to maintain our 
deterrent and global strike capabilities. Specific significant budget 
decisions included $561 million transferred from DOD to the Department 
of Energy ($160 million addition for B-61 life-extension) to ensure we 
maintain a safe, secure, and reliable nuclear stockpile, $493 million 
for the Ohio-class replacement SSBN, $130 million for ICBM mods and 
upgrades and a UH-1 helicopter replacement start, $240 million for 
required bomber upgrades and industrial base sustainment, and $33 
million for joint ballistic missile advanced fuze technologies.

    19. Senator Inhofe. General Chilton, what impacts will the START 
follow-on agreement have on our deterrent and global strike 
capabilities?
    General Chilton. We were involved and consulted in the development 
of the central limits of the New START treaty. I assess this Nation and 
our allies will continue to be safe and our forces sufficiently robust. 
New START retains U.S. global strike capabilities-necessary to meet our 
strategic deterrence requirements.

    20. Senator Inhofe. General Chilton, what is the plan for our 
stockpile of ALCM?
    General Chilton. The current plan is to sustain our ALCM fleet 
(warhead and missile) until 2030 or until a replacement capability can 
be fielded. The Future Strategic Standoff Weapon Initial Capabilities 
Document is scheduled to complete in fiscal year 2010. Starting in 
fiscal year 2011, the Air Force will determine the need and 
capabilities for a follow-on cruise missile through an Analysis of 
Alternatives.

                   republic of korea missile defense
    21. Senator Inhofe. General Sharp, North Korea is a threat and 
their pursuit of nuclear and ballistic missile capabilities should not 
be misinterpreted. Not only is North Korea pursuing their own 
capabilities but they are also selling missiles, material, and 
technology to other countries to include Iran. From the information I 
have been provided, I understand that North Korea can produce up to 
five nuclear bombs and are working on a two-stage missile that can 
range Alaska and Hawaii and a three-stage missile that could range the 
continental United States. As General Sharp outlined in his comments, a 
transition to a ROK-led defense on the Korean Peninsula, relocation and 
consolidation of U.S. forces into two areas, and the normalization of 
servicemember tours, will strengthen U.S.-ROK relations while still 
providing a strong deterrence against North Korean threats.
    With the changes you highlighted, as well as the U.S. military 
personnel cap of 28,500, is the ROK adequately supported and/or 
prepared to defend itself against a North Korean ground, air, or 
missile attack?
    General Sharp. The short answer is ``yes,'' with our ROK allies, 
our prepared defenses, and considering the U.S. forces planned to flow 
into theater, Combined Forces Command is ready to repel a North Korean 
ground, air, or maritime incursion into ROK territory. However, there 
are notable capability gaps for which we either accept or must attempt 
to further mitigate risk.
    Specifically, North Korean ballistic missiles with chemical 
warheads remain the single greatest threat to our bases and the ROK 
civilian population in general. As you pointed out, the North Korean 
missile threat continues to grow in number and capability. It demands a 
combined and joint effort to provide a robust, active, layered theater 
missile defense.
    We need the capability to engage North Korean missiles at various 
stages of flight. Theatre High Altitude Area Defense (THAAD) could 
provide the Korean Theater of Operations with a midcourse interceptor 
for SCUD and NoDong threats. As an area defense weapon, THAAD is 
capable of providing a layered defense as well as coverage to assets 
currently on the CAL but not the CAL. PATRIOTS contribute a terminal 
low-altitude layer of defense against short and medium range ballistic 
missiles.
    Currently, the Korean Theater of Operations only has PATRIOT for 
on-peninsula TBM threats and AEGIS/SM-3s for shots against targets 
outside the theater (Japan, Guam, Hawaii, and Alaska). North Korea has 
more missiles than we have counter-measures. We have the technology to 
counter the threat; we need to take the steps to field a layered 
ballistic missile defense in Korea which mitigates the risk to our 
assets and personnel.

                    defense policy review initiative
    22. Senator Inhofe. General Sharp, what, if any, response will we 
see from the North Koreans with the potential realignment of U.S. 
Marine forces from Okinawa to Guam and the deployment of U.S. missile 
defense capabilities to Japan, as part of the Defense Policy Review 
Initiative?
    General Sharp. North Korea likely has already begun to respond to 
the potential realignment of U.S. Marine Corps forces from Okinawa to 
Guam primarily by editorials denouncing the United States.
    The Korean People's Army (KPA) likely will not perceive a 
realignment of U.S. Marine Corps (USMC) forces from Okinawa to Guam as 
a significant change to the U.S. posture or threats facing it. The 
added distance will somewhat increase USMC response times to a 
potential Korean Peninsula crisis, but added response time is of little 
benefit to the KPA since ROK forces are already responsible for and 
capable of halting an initial North Korean attack. The USMC realignment 
removes some U.S. forces from North Korean TBM range--thereby reducing 
the number of strategic targets available for Pyongyang to threaten. 
Guam likely remains within range of North Korea's new long range 
theater ballistic missile. Additionally, North Korean intelligence 
operations will likely shift from Okinawa to Guam.
    North Korea has already attempted to score propaganda points about 
the USMC move from Okinawa to Guam although it has been unable to 
attract much attention to the issue. A recent Pyongyang editorial 
alleged that the U.S. is using global realignment to gain hegemony, and 
``respond rapidly to a `contingency' on the Korean peninsula . . . '' 
\1\ North Korea will continue to protest U.S. forces' maneuvering and 
expansion of overseas bases as proof of hostile and malignant 
imperialistic intent. We expect to see editorials and pronouncements 
denouncing realignment that are read mostly by Pyongyang elites and 
international analysts--and believed by no one.
---------------------------------------------------------------------------
    \1\ Nam CH`o'n-ung: ``What is the U.S. Forces Relocation Aimed 
At?'' DPRK Cabinet Paper on U.S. Strategy Behind Planned Relocation of 
U.S. Marines to Guam (U). Open Source Center. KPP20090324045005 
Pyongyang Minju Joson (Electronic Edition) in Korean 24 Mar 09.
---------------------------------------------------------------------------
    North Korea will likely also portray the USMC as an unwelcome 
`Occupying Force' that was finally expelled from Asia by the indigenous 
population (Pyongyang will likely avoid congratulating Japan or the 
Japanese directly). North Korea will attempt to use the USMC 
`expulsion' as an example to encourage `Anti-Colonialist' forces to 
expel Westerners and imperialist influence throughout Asia and 
worldwide. Pyongyang will also likely declare that the United States 
and USMC were cowed by the resolute KPA deterrence--thereby claiming 
the realignment as a North Korean victory to bolster its internal 
popular legitimacy. This particular line of propaganda reinforces North 
Korea's self-portrayal as the defender of the true ethnic/cultural 
Korean Nation from imperialist Westerners. Pyongyang will attempt to 
rebut all U.S. military statements about force posture; U.S. statements 
that it remains ready to defend allies and interests will be portrayed 
as belligerence against North Korea; and U.S. statements that it is not 
threatening the North will be dismissed as lies intended to deceive the 
KPA.

    22a. Senator Inhofe. General Sharp, what, if any, response will we 
see from the North Koreans with the deployment of U.S. Missile Defense 
to Japan?
    General Sharp. North Korea will likely respond to further 
development of U.S. missile defense capabilities in Japan (which 
significantly impacts Pyongyang's strategic capabilities) by attempting 
to negate missile defense capabilities and by vociferously complaining 
about the U.S. military buildup.
    North Korea will correctly perceive regional missile defense 
capabilities as negating hard-won North Korean strategic deterrence 
(TBM, IRBM) and rendering it vulnerable to strategic coercion without 
significant recourse. Most critically, North Korea might fear the U.S.-
ROK-Japan alliance will be emboldened to attempt a 'Regime Change' 
offensive campaign if Pyongyang loses its strategic deterrence,\2\ 
particularly since the KPA conventional capabilities have atrophied 
relative to the ROK.
---------------------------------------------------------------------------
    \2\ Ri Hyo'n-to; ``Missile Madness that Brings Fiery Clouds of 
War'' DPRK Party Organ: U.S. Missile Defense in Asia, ROK Aims at 
'Preemptive' Attack (U). Open Source Center. KPP20091007106001 
Pyongyang Rodong Sinmun (Electronic Edition) in Korean 07 Oct 09.
---------------------------------------------------------------------------
    North Korea will likely strive to develop countermeasures such as 
increasing numbers of missiles, changing strategic theater targets, 
developing missile defense countermeasures and asymmetric means, in 
order to circumvent, overwhelm, or defeat any missile defense system. 
Pyongyang has poured massive resources into developing its strategic 
strike capability to guarantee the regime and cannot allow that 
capability to be neutralized without adequate replacement. It is also 
likely that further development of strategic strike capability will add 
significant additional stress to the North Korean economy. Conversely, 
North Korea might view its TBMs as minimally sufficient to deter 
`Regime Change' despite a Japanese-based missile defense and continue 
to rely on its developing a nuclear ICBM rather than expend resources 
on increasing its TBM capability. In the same manner, North Korea has 
declined to modernize the aging KPA and instead shifted its defense 
responsibility to a strategic nuclear deterrent.
    North Korea will criticize the U.S. and Japan for developing/
fielding missile defense systems that threaten the `peace' of Northeast 
Asia. Pyongyang will protest the expansion of regional U.S. 
capabilities and influence as further evidence of imperialism, and 
might attempt to mis-characterize U.S. defensive missile systems as 
having offensive strike capabilities. North Korea will likely criticize 
Japan for increasing its perceived offensive capabilities and for its 
complicity in U.S. efforts to expand its imperial influence in Asia.

                      pacific regional influencers
    23. Senator Inhofe. General Sharp, are there any other viable 
influencers within the region besides China? If so, what level of 
influence do they have?
    General Sharp. As the U.S. Forces Korea Commander, I will focus on 
the part of this question as it applies to the area of Northeast Asia. 
The region of Northeast Asia is defined to include the following 
countries and special administrative regions: China, Hong Kong, Japan, 
Macau, Mongolia, North Korea, ROK, Russia, and Taiwan. As noted in my 
Posture Statement, Northeast Asia is home to 4 of the world's 6 largest 
militaries in terms of personnel, 25 percent of the world's population, 
and 5 of the world's 19 largest economies (that collectively accounted 
for 24.8 percent of global gross domestic product in 2009). Thus, when 
viewed collectively, the military, demographic, and economic power of 
the entities in Northeast Asia makes this area a major influencer in 
the Pacific region as a whole. This influence in the Pacific region is 
expected to grow over time as the countries in Northeast expand their 
economies, military power, and presence in regional diplomatic and 
political affairs as well as assume a growing role in regional 
multilateral organizations such as the Asia Development Bank.
    Within Northeast Asia, the ability of individual states--excluding 
China and its special administrative regions as specified in your 
question--to influence the Pacific region varies. As the world's third 
largest economy in 2009 when gross domestic product is measured on a 
purchasing power parity basis, Japan exerts influence in the Pacific 
region due to its trade and foreign direct investment relationships 
with nations of the area. Tokyo's political influence is moderated by 
20th century historical issues that have yet to be resolved with many 
Pacific area states. Russia has the ability to exert influence in the 
Pacific through military sales and its large stock of natural resources 
which the growing economies of Asia are eager to purchase. Due to its 
relatively small economy and military, Mongolia's ability to influence 
affairs in the Pacific is limited, although it has provided support to 
international peacekeeping operations.
    I expect that the ROK's influence in Pacific affairs will grow over 
time. The current ROK President, Lee Myung-bak, has committed his 
country to taking on a more regional and global orientation in its 
policies and actions. Indeed, creating a ``Global Korea'' is now a 
national goal. Later this year the city of Seoul will host a Group of 
20 (G20) Summit and the ROK has pledged to triple its level of official 
development assistance to a value that will equal 0.25 percent of gross 
national income in 2015. Additionally, the country has increased its 
participation in international peacekeeping operations and plans to 
form a 3,000 person military unit that can be rapidly deployed in 
support of such operations. The ROK is also a major trading partner for 
many countries in the Pacific area and a source of foreign direct 
investment as well as a provider of developmental assistance/advice for 
regional states. Seoul has also increased its role and activity in 
regional multilateral organizations and groupings. Thus, in terms of 
diplomacy, security, and the economy, I believe that the ROK is already 
exerting a degree of influence in the Pacific region and this influence 
will grow over time.
    On the flip side, North Korea exerts a negative influence in the 
Pacific region through its provocations, nuclear, missile, and 
proliferation activities. These activities inject instability and 
uncertainty into the Pacific area and create a security concern for 
regional states. Additionally, threats to security caused by North 
Korea's behavior have a dampening effect on regional economic 
development.

                        china's defense spending
    24. Senator Inhofe. Admiral Willard, Taiwan, along with Japan and 
South Korea, continues to be one of the strongest democratic partners 
of the United States in the Asia-Pacific region and serves as a model 
of freedom and democracy. I continue to be concerned about the friction 
over Taiwan's status as a sovereign nation in the context of the 
People's Republic of China (PRC). The 2010 Ballistic Missile Defense 
Review highlight of the continued concern over China's missile buildup 
and increasingly advanced capabilities in the Pacific region, in 
particular the Taiwan Strait, reinforces my concerns. You have stated, 
``it is difficult to reconcile China's developmental goals with its 
evolving military capabilities that appear designed to challenge U.S. 
freedom of action in the region or exercise aggression or coercion of 
its neighbors, including U.S. treaty allies and partners.'' I fully 
support the recent decision to sell U.S. military weapon systems to 
Taiwan, even with the concerns voiced by China. However, I do not agree 
with the decision to not sell F-16s as part of this package. What 
effects are China's significant increases in defense spending, foreign 
military sales (FMS), and use of soft power having in the PACOM region?
    Admiral Willard. China's significant increases in defense spending, 
FMS, and use of soft power have challenged parts of the status quo and 
have the potential to challenge the relative stability at a time when 
the economic locus is shifting east. China's rapid increases in defense 
spending have focused in large measure on developing China's 
capabilities to deter Taiwan independence and eventually compel 
unification of Taiwan and mainland China. This increase in Chinese 
military capability vis-a-vis Taiwan poses a continued military threat 
to Taiwan and remains a significant obstacle to improved cross-Strait 
relations.
    China's increasing military budget and capabilities have also 
focused on power projection and area denial, both of which are of some 
concern to me at the U.S. Pacific Command. China is pursuing a variety 
of air, sea, space, and counter-space, and information warfare systems 
and operational concepts to deny other countries' military forces--most 
notably those of the U.S. access to the air and sea space near China's 
periphery. This capability could pose an increasing challenge to the 
U.S. military's ability to operate in the Western Pacific during a 
crisis. The Chinese military's focus on operating at greater distances 
from China is allowing Beijing to focus greater attention on perceived 
security issues in the East and South China Seas, and potentially in 
the Indian Ocean as well. This creates both opportunities for 
cooperation--as in the Gulf of Aden--and potential emerging challenges 
to the United States and its allies and partners as the Chinese 
military--the navy in particular--expands its area of operations.
    China's military modernization is occurring alongside a broader 
Chinese effort to build its global influence and soft power, with a 
particular focus on countries within the PACOM AOR. China's deepening 
economic relationships within the region remain its most potent levers 
of influence with its regional neighbors. One recent and salient 
example is the China-ASEAN Free Trade Agreement (FTA), which went into 
effect in January 2010. This FTA will allow China to further deepen 
economic ties to Southeast Asia--a region of considerable and growing 
importance to PACOM. This expansion of Southeast Asia trade 
relationships is occurring alongside increasing Chinese trade ties with 
the region's other major economic powers. China's economic influence is 
not limited to trade ties; China regularly uses grants, low-interest 
loans, and Chinese-financed infrastructure projects as influence-
building tools--particularly among the developing nations of Oceania, 
Southeast Asia, and South Asia.
    China's military is a growing part of China's influence-building 
effort. China conducted several first-ever bilateral exercises in 
region over the past 3 years--including exercises with India, Mongolia, 
Thailand, and Singapore. China continues to use FMS to developing 
countries of South and Southeast Asia as means to build influence. 
While China's FMS in the PACOM AOR has been modest when compared to its 
sales to Pakistan, parts of the Middle East, and parts of sub-Saharan 
Africa, they nevertheless are significant to developing countries with 
modest defense budgets.
    China's expanding military power and growing influence in the 
region are having important effects on how countries in the region are 
viewing their own security situations as well as their relationships 
with the United States and their regional neighbors. China's neighbors 
are uneasy about China's military rise. Many have openly questioned 
China's long-term strategic intentions and called on Beijing to be more 
transparent in explaining to the region for what purpose is China so 
rapidly developing its military capabilities. Some regional countries 
are rethinking their defense strategies and procurements to hedge 
against a more assertive China. While China's neighbors are seeking 
greater diplomatic, economic, and military engagement with Beijing, 
these same countries are also continuing--for the most part--to call 
for a strong U.S. military presence in the region as a stabilizing 
force.

                       1979 taiwan relations act
    25. Senator Inhofe. General Sharp, do you have any concerns 
regarding our ability to comply with the 1979 Taiwan Relations Act and 
how it impacts relations with China and stability in the region?
    Admiral Willard. No. For more than 30 years the United States has 
fulfilled its obligations under the Taiwan Relations Act. By doing so, 
we are helping to ensure stability in the Taiwan Strait, and throughout 
the region.
    General Sharp. Issues such as this related to Taiwan fall outside 
my AOR and under the purview of PACOM. Thus, I will defer to Admiral 
Willard on this question.

    26. Senator Inhofe. General Sharp, where do we stand with respect 
to selling more advanced F-16 fighters to Taiwan?
    Admiral Willard. [Deleted.]
    General Sharp. Issues such as this related to Taiwan fall outside 
my AOR and under the purview of PACOM. Thus, I will defer to Admiral 
Willard on this question.

                    u.s. foreign engagement programs
    27. Senator Inhofe. Admiral Willard, your comments that ``we cannot 
take our influence in the region for granted and that our status as the 
partner of choice is difficult to maintain given the constraints such 
as limitation of our security assistance programs'' is quite telling 
and cannot be disregarded. Our military-to-military (1206), civilian-
to-civilian (1207), small-scale special forces (1208), Commander's 
Emergency Response Program (CERP), and Combatant Commander's Initiative 
Fund (CCIF) have been incredibly successful in aiding developing 
nations, fighting terrorism, and providing resources for emergency 
situations. I was pleased to see an increase in 1206 funding in the 
fiscal year 2011 budget . . . increasing funding from $350 million to 
$500 million. I have voiced my concern about the level of funding of 
CCIF and movement of 1207 funds to the Department of State in the 
fiscal year 2011 DOD request. It is evident in your comments that you 
believe these programs are truly beneficial, yet suffer from being Cold 
War era programs subjected to a multitude of influencers; what 
constraints or concerns would you like to emphasize to ensure we do not 
lose our influence in the region?
    Admiral Willard. I would refer you to Secretary Gates' speech to 
the Nixon Center in February where he laid out the following key 
principles that should be included in any security assistance reform 
effort:

        <bullet> The programs must be flexible, and able to respond to 
        emergent crisis
        <bullet> There must be provisions for appropriate congressional 
        oversight
        <bullet> Security Assistance programs must take the long view 
        toward the political crisis of the day
        <bullet> The State Department's leading role in crafting U.S. 
        foreign policy must be reinforced
        <bullet> Capacity building programs must acknowledge that 
        partnerships will always mean relinquishing some degree of 
        control.

    28. Senator Inhofe. Admiral Willard, do you have concerns over the 
fiscal year 2011 funding breakout for your engagement programs?
    Admiral Willard. Although we could always use more, I am generally 
pleased with the breakout of funding allocated to the Pacific Command 
in fiscal year 2010, and that projected for 2011. These are very 
important programs that provide an incredible return on our investment.

    29. Senator Inhofe. Admiral Willard and General Sharp, can each of 
you give me an update on how these programs are doing in PACOM and in 
the ROK?
    Admiral Willard. Foreign engagement programs are the backbone of 
PACOM's success in the region. Together with other U.S. Government 
agencies, PACOM has successfully protected our territory and interests. 
Showing countries their relevance to the AOR and building their 
capacity to protect their own interests, essentially helps the United 
States in solidifying trust and protecting shared interests with 
partner nations. Additionally, utilizing the whole-of-government 
approach, in concert with the interagency, gives us the ability to 
affect all sides of the Diplomatic, Information, Military, and Economic 
(DIME) construct. The result is that the Asia Pacific region is stable 
and secure.
    General Sharp. The Foreign Military Financing (FMF) and 
International Military Education and Training (IMET) programs are 
powerful engagement tools for building security partnerships with 
nations in the Asia-Pacific region. Since purview over these programs 
in Northeast Asia lies with United States Pacific Command, I will defer 
to Admiral Willard for an update on how these programs are progressing. 
I can, however, provide a brief update on the status of FMS to the ROK. 
Administered through the Joint United States Military Affairs Group 
Korea, the ROK has been a major purchaser of U.S. defense articles. 
During the years 2002 thru 2008 the ROK spent over $5.6 billion on FMS 
defense articles and another $9.6 billion on direct commercial sales of 
U.S. defense products. From 2005-2008, the ROK spent over $47 million 
on military training in the United States via the FMS program. In 2009, 
the ROK sent 648 personnel to the United States for training in 987 
different courses. Currently, the ROK has an active FMS program of 
nearly 600 active cases valued at over $12 billion. Some of the major 
items purchased through the FMS program include the F-4, F-5, F-15, and 
F-16 fighters, AWACS, P-3 patrol planes, MLRS, Patriot, SM-2, and AEGIS 
combat system. The robust FMS program with the ROK as described above 
maintains a high degree of interoperability between U.S. and ROK 
military forces and in turn enhances the deterrent and warfighting 
capabilities of Combined Forces Command.
    Separate from the programs discussed above, my Command is 
conducting a wide array of engagement events with the ROK. Contained 
within our Good Neighbor Program, a host of activities are conducted 
that engage and connect the Command with the Korean community. Good 
Neighbor Program events educate, inform, and familiarize Koreans with 
the mission and purpose of USFK. This direct engagement allows 
Americans and Koreans to develop mutual understanding of one another's 
cultures, customs, and lifestyles, often leading to the formation of 
lifelong friendships between members of the two communities. Examples 
of events conducted by the Good Neighbor Program include English-
language camps, speaking engagements by U.S. military personnel, and 
tours of the Joint Security Area/Demilitarized Zone and USFK 
installations. The program promotes two-way exchange between USFK 
personnel and people of our host nation. The program helps foster 
exchange, understanding, and cooperation between members of my Command 
and the Korean communities that exist along USFK facilities. In 2009 
alone, 2,043 events were conducted with the participation of over 
139,000 local nationals. All of these events strengthen the ROK-U.S. 
Alliance at both the professional and personal levels.

    30. Senator Inhofe. Admiral Willard and General Sharp, with the 
movement of 1207 funding to State, do you have concerns that the State 
Department will not be able to execute 1207 as rapidly as DOD has and 
how will you ensure all these programs continue to be synchronized 
between Defense and State?
    Admiral Willard. Turning over 1207 to State should not impact the 
speed of execution. State already had the lead on the 1207 process, 
with Defense coordinating at the Country Team level. Defense 
representatives at each Embassy will continue coordination with State 
at the local level and provide feedback to the Pacific Command to 
ensure overall synchronization with broader security assistance 
engagement activities.
    General Sharp. In the Department of Defense, offices that play a 
role in management and execution of the section 1207 program are the 
Office of the Secretary Defense, Joint Staff, and Combatant Commands. 
Thus, as a sub-unified commander, I do not participate in the operation 
of this program. Additionally, to date no projects have been conducted 
with the ROK nor do I know of any 1207 project proposals that involve 
the ROK. Thus, I will defer to Admiral Willard of U.S. Pacific Command 
on this question, where several 1207 projects have been conducted with 
countries in his AOR.

                             cyber command
    31. Senator Inhofe. General Chilton, you have made significant 
gains since our last discussion over cyberspace. I am specifically 
pleased to see that you have consolidated both the JTF-GNO and the 
Joint Functional Component Command for Network Warfare, which I know 
was an issue. I understand that Lieutenant General Keith Alexander, the 
current Director of the National Security Agency, is still pending 
nomination approval for Commander, CYBERCOM. What issues are you facing 
with the stand up of CYBERCOM?
    General Chilton. Our primary concern is hiring the skilled 
workforce required for the cyberspace mission. The Department has 
placed a very high emphasis on training programs and we are working 
with the Services to ensure that standardized curriculums are in place. 
These programs are intense and require some of the greatest time 
commitments of any in the Department. We have increased the throughput 
of students at the school house to help solve this problem, but it will 
take some time to generate the capacity required. We continue to work 
on technical solutions to take advantage of the speed of maneuver 
required for cyberspace operations. Additionally, we need to improve 
the defensibility of our military networks as they exist today, to 
include building a shared situational awareness of DOD networks; 
developing faster and more comprehensive early warning on impending 
intrusions into our networks; and improving our ability to implement, 
plan and execute dynamic network defense operations.
    Moreover, we will need to focus on increasing our capability to 
deliver integrated cyber effects in support of combatant commander, to 
include developing an agile, transparent, and responsive cyberspace 
requirements process.
    Simultaneously, we must mature the command, building the staff, 
while working closely with the military departments and their 
designated cyber components to ensure that we are able to retain a 
world-class cadre of military cyber forces that we have trained and 
developed.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                     chinese military modernization
    32. Senator Chambliss. Admiral Willard, you comment in your written 
statement that ``China continues to develop weapons systems, 
technologies and concepts of operation that support anti-access and 
area denial strategies in the Western Pacific by holding air and 
maritime forces at risk at extended distances from the PRC coastline.'' 
From a tactical air and long-range bomber perspective, how confident 
are you that, if required, you will have the assets you need as a 
combatant commander to prevail in the event of a conflict?
    Admiral Willard. In the short term, I believe that U.S. forces have 
the ability to prevail in the event of a conflict in the PACOM AOR. 
However, we need to monitor carefully China's developing ability to 
execute anti-access and area denial strategies and develop mitigating 
approaches. The developing Air-Sea Battle Concept is one such 
mitigation, and will need to be evaluated and, when mature, 
implemented. In the longer run, other mitigations for such strategies 
may need to be developed and acquired, including a new generation of 
aerial refueling aircraft and long-range strike systems.

    33. Senator Chambliss. Admiral Willard, where do you see risks for 
the United States in this area?
    Admiral Willard. I think we see some risk in the development of 
anti-access and area denial capabilities that may come from China's 
military modernization. Additionally, there may be some risk for the 
United States in the potential shift in the regional balance of power 
and increased competition over energy resources that could result from 
a rapid increase in Chinese military strength. I also think that the 
development of mitigating strategies and capabilities along with 
continued cooperation with regional allies and partners and engagement 
with China are vital to approaching these risks.

    34. Senator Chambliss. Admiral Willard, thinking 5 to 10 years down 
the road and based on the trajectories of currently planned U.S. force 
development and projected Chinese force development, what is your 
assessment of the risks for the United States in that timeframe.
    Admiral Willard. Given the current rate of China's military 
modernization in the areas of naval, air, missile, and space, China 
will develop a substantial power projection capability out to 300 
nautical miles from its shores by 2015. They will have the ability to 
rival U.S. military force presence in the Western Pacific. By 2020, 
Chinese capabilities will likely expand to directly challenge U.S. 
military force presence in the Western Pacific and the South China Sea. 
U.S. military forces have been in the Western Pacific since the end of 
the Second World War. Through the decades those forces have acted as a 
guarantor of security not only for U.S. interests, but for the entire 
region. A shift in the balance of power in East Asia due to the growth 
of Chinese military strength could risk a loss of confidence in U.S. 
security from regional U.S. partners and allies. This could result in 
regional powers hedging against China by building their own domestic 
military capabilities, making compromises with China over a range of 
issues, and potentially engaging in regional conflicts over vital 
energy resources.

                     pacific regional relationships
    35. Senator Chambliss. Admiral Willard, your AOR is huge both in 
terms of area and population. As you look 20 and 30 years down the 
road, are there places within the PACOM AOR where the U.S. needs to be 
thinking about establishing closer relationships, perhaps to include 
basing rights, to ensure we can provide the kind of security and 
stability in the coming decades as we provide today?
    Admiral Willard. As you look out 20-30 years in the future, U.S. 
interests in South Asia will only increase. In fact, the importance of 
the Indian Ocean Region to global stability and economic revitalization 
has increased considerably over the past decade. India is crucial to 
maintaining stability and growth in the region. Our relationship with 
India continues to mature and it is important we work to sustain this. 
Working with India, there is an opportunity for the U.S. to play a 
vital role in establishing more robust and proactive regional 
cooperation with other South Asia partners, like Bangladesh, Nepal, the 
Maldives, and Sri Lanka, to root out violent extremism and their safe 
havens and to establish the infrastructure that provides the capability 
and capacity for these partners to respond effectively to provide 
humanitarian assistance and disaster relief in response to the many 
natural disasters that plague this region. In concert with CENTCOM, 
this regional cooperation needs to extend to Pakistan in order to 
foster the economic stability and then growth that will benefit all the 
countries in the region. The situation in each country is unique and 
pursuing basing rights will not necessarily facilitate closer 
relationships. But it will be necessary to assess what infrastructure 
and support is necessary for the capabilities and cooperation required 
to achieve true regional cooperation in which the U.S. is viewed as a 
viable partner.
    Southeast Asia is another critical region. Leaders in Association 
of Southeast Asian Nations (ASEAN) states have expressed a general 
agreement that a U.S. forward presence is essential to regional 
stability in view of a myriad of transnational security threats and the 
rise of China. In this context major Southeast Asia states--Indonesia, 
Malaysia, the Philippines, Singapore, and Vietnam--are seeking 
opportunities to expand bilateral, as well as multilateral engagement 
with the U.S. in the areas of humanitarian assistance and disaster 
relief, maritime security and countering violent extremism. Long-term 
stability in the Asia-Pacific region will be directly dependent on the 
near-term success of the United States in building the needed 
relationships with major ASEAN states to become the enduring partner-
of-choice.

    36. Senator Chambliss. Admiral Willard, what do we need to be doing 
as a Nation now to lay the ground work for those relationships?
    Admiral Willard. The situation in each country is unique, but 
utilizing consistent messaging across the spectrum of civilian and 
military leadership, the media, and think tanks, we want to emphasize 
direct benefits to the individual country, vice stressing mutual 
benefits. This approach, along with continued patient and persistent 
engagement, will help the Nation lay the ground work for expanding and 
strengthening relationships.
    Vital tools for U.S. efforts in building allied and partner nation 
capacity include Exercise Related Construction, the Asia-Pacific 
Regional Initiative, the Combating Terrorism Fellowship Program, IMET, 
and the National Defense Authorization Acts (NDAA) 1206 and 1207. 
Increasing the funding and reliability of these programs will 
facilitate whole-of-government and multilateral relationships for U.S. 
access for needed training and operations. As a Nation, 
institutionalizing these key programs, and others like it, will be 
viewed as a commitment to U.S. presence in the region.

                          u.s. missile defense
    37. Senator Chambliss. General Chilton, in your written statement 
you comment that ``with the exception of the U.S., all nuclear weapon 
states continue to modernize their nuclear weapon stockpiles and in 
some cases grow them further.'' In your view, what risks is the United 
States accepting by not modernizing our nuclear weapon stockpiles and 
what specific actions do you recommend in this regard?
    General Chilton. The Nuclear Posture Review calls for sustained 
interagency and bipartisan efforts to address the risks associated with 
an aging stockpile and changes in the international security 
environment. PB11 begins the process to reduce these risks, as it 
supports: (1) Recapitalizing the nuclear weapons enterprise 
infrastructure--physical and human capital, (2) Timely warhead life 
extension programs that explore the full range of life extension 
options, and (3) Robust stockpile assessment and surveillance programs. 
These actions will ensure the United States sustains a safe, secure, 
and effective nuclear arsenal.

    38. Senator Chambliss. General Chilton, regarding prompt global 
strike, what are the specific barriers to pursuing this non-nuclear 
strike capability and, in your view, what is a feasible timeline for 
developing this capability that will--as you say--``provide the 
President a broader range of non-nuclear options to address emerging 
threats rapidly''?
    General Chilton. There are no specific barriers in the pursuit of 
this capability; however the Department is utilizing an event based 
acquisitions approach that focuses on maturing critical technologies 
before executing Service-led Conventional Prompt Global Strike 
acquisition programs. Under USD AT&L leadership, the Department is 
making progress in efforts to mature important hypersonic strike 
technologies, which include: thermal protection structures, advanced 
materials, communications, flight controls, navigation and guidance and 
autonomous flight safety system.
    Planned flight experiments in fiscal year 2011 will provide the 
Department quantitative data regarding the maturity of technologies 
which will inform future potential timelines.

    39. Senator Chambliss. General Chilton, in your written statement 
you refer to the Administration's Phased Adaptive Approach to missile 
defense which seeks to address what are judged to be the most urgent 
threats first with proven, cost-effective platforms. There has not been 
universal acceptance in Congress of this approach. Any approach accepts 
a certain amount of risk. Could you offer your assessment of what risks 
the current Phased Adaptive Approach to missile defense may accept and 
the extent to which you believe accepting risk in these areas is wise 
and warranted?
    General Chilton. As stated in the Ballistic Missile Defense Review, 
it is inherently difficult to predict the nature of the threat our 
Nation will face in the years to come; however, it is a fact that the 
threat from ballistic missiles--of all ranges--will continue to grow. 
The Phased Adaptive Approach should allow us to tailor our capabilities 
and associated architectures in response to the threat, and as such, 
allow us to manage technological challenges we may encounter during 
development, deployment or in operations. The National Intelligence 
Estimate has characterized short-range ballistic missiles as the most 
immediate threat to our deployed forces, Allies and friends. To 
adequately equip our missile defense forces to meet this threat, Joint 
Staff J8 has initiated a Joint Capability Mix (JCM) study to examine 
sufficiency needed to counter the threat. Additionally, STRATCOM and 
MDA conduct an annual review of capabilities being fielded versus the 
assessed threats. These reviews ensure the warfighter view of the 
threat and missile defense capabilities are presented to the OSD staff 
and OSD leadership. As the Phased Adaptive Approach is fielded missile 
defense will be flexible to meet the threat. To enhance regional 
defense of our deployed forces, Allies and friends, PB11 requests 
funding for MDA and Navy to add 10 AEGIS BMD ships between fiscal year 
2010-2012 and funds the purchase of 436 SM-3 interceptors by fiscal 
year 2015. Additionally, PB11 funds 9 THAAD batteries and 431 THAAD 
interceptors by fiscal year 2015.
                                 ______
                                 
               Questions Submitted by Senator John Thune
                     long-range strike capabilities
    40. Senator Thune. Admiral Willard, you note in your prepared 
testimony that ``elements of China's military modernization appear 
designed to challenge our freedom of action in the region'' and that 
``China continues to develop weapons systems, technologies and concepts 
of operation that support anti-access and area denial strategies in the 
Western Pacific by holding air and maritime forces at risk at extended 
distances from the PRC coastline.'' As the combatant commander 
responsible for the Pacific theater, how important is it to you that 
the Air Force develops a new long-range bomber that is capable of 
penetrating these anti-access and area denial systems and technologies?
    Admiral Willard. My primary interest is ensuring that U.S. forces 
in PACOM have adequate freedom of action to ensure their ability to 
accomplish assigned missions, including in anti-access and area denial 
environments. Long-range strike capabilities are an important part of 
ensuring U.S. freedom of action. In addition to penetrating bombers, 
there are several other approaches to conducting long-range strike. A 
family-of-systems approach may be the most cost-effective to attaining 
the capabilities that are needed.

    41. Senator Thune. General Chilton, how important is it to you as 
the head of STRATCOM that the Air Force develops a new long range 
bomber that is capable of penetrating these anti-access and area denial 
systems and technologies?
    General Chilton. As we sustain and modernize the nuclear triad, our 
Nation will continue to require a nuclear-capable bomber leg's inherent 
flexibility to address a variety of possible adversaries and 
threatening contingencies. We are working with the Office of Secretary 
of Defense's Long-Range Strike study to identify requirements for the 
next long-range bomber that will meet combatant commander's needs and 
ensure no gap in capabilities.

    42. Senator Thune. General Chilton, you note in your prepared 
testimony that you are working with the Air Force to ``identify 
requirements for the next manned, nuclear-capable long range strike 
platform.'' My understanding had been that no decision had been made 
yet as to whether the next long range strike platform would be manned 
and whether it would be nuclear capable. Is it now set in stone that 
the new bomber will be manned and nuclear capable?
    General Chilton. No decision on the platform characteristics has 
been made. STRATCOM is participating in the Secretary of Defense's Long 
Range Strike Study, to identify and assess necessary capabilities and 
attributes for the new bomber. We anticipate the new study will be 
completed in time to inform decisions for the upcoming fiscal year 2012 
budget submission.

    43. Senator Thune. General Chilton, when was that decision made?
    General Chilton. No decision on the platform characteristics has 
been made. STRATCOM is participating in the Secretary of Defense's Long 
Range Strike Study, to identify and assess necessary capabilities and 
attributes for the new bomber. We anticipate the new study will be 
completed in time to inform decisions for the upcoming fiscal year 2012 
budget submission.

    44. Senator Thune. General Chilton, the new Quadrennial Defense 
Review (QDR) report states that Secretary Gates has ordered a follow-on 
study with regard to expanding long range strike capabilities. Have you 
been involved at all with this new study, and if so, can you provide an 
update on the progress of this study to date?
    General Chilton. STRATCOM has been involved from the very beginning 
of this study. I am a member of the Senior Working Group providing 
oversight and my staff is directly integrated into the study effort. We 
are working to fully understand how potential long-range strike options 
and supporting capabilities contribute to our Nation's security goals. 
We anticipate the new study will be completed in time to inform 
decisions for the upcoming fiscal year 2012 budget submission.

    45. Senator Thune. General Chilton, when do you expect this study 
to be completed?
    General Chilton. We anticipate the new study will be completed in 
time to inform decisions for the upcoming fiscal year 2012 budget 
submission

    46. Senator Thune. General Chilton, to the best of your knowledge, 
how many studies have been conducted by the Pentagon with regard to 
developing a follow-on long range strike platform?
    General Chilton. During my tenure at STRATCOM since the fall of 
2007, there have been a number of Service and OSD(AT&L)-led studies of 
required capabilities for long-range air-delivered strike. Significant 
studies include: The Air Force Bomber Force Structure study (May 2008), 
QDR Tiger Team (November 2009), and the ongoing Secretary of Defense 
directed Long Range Strike study.

                         air-sea battle concept
    47. Senator Thune. Admiral Willard, I wanted to get your views on 
the development of an Air-Sea Battle concept that is currently under 
way in the Pentagon. The new QDR directs the Navy and the Air Force to 
develop a new joint Air-Sea Battle concept for defeating adversaries 
with anti-access and area denial capabilities, which in turn will help 
guide the development of future capabilities needed for effective power 
projection operations. As you know, anti-access and area denial systems 
are being aggressively pursued by nations in your AOR. Could you 
provide your views on how this new concept will affect the way you 
currently operate and the way you will operate in the future?
    Admiral Willard. I am very interested in any concept that helps 
preserve and extend freedom of action in the PACOM AOR, especially in a 
contested environment, should that occur. The Air-Sea Battle concept is 
one of those. My staff continues to monitor the work of the joint Navy-
Air Force Air-Sea Battle study group. This work will help the PACOM 
staff identify where unaddressed capability gaps exist, especially in 
countering anti-access/area denial strategies. These gaps may require 
development and acquisition of additional capabilities.

    48. Senator Thune. Admiral Willard, where does PACOM fit into the 
overall development, evaluation, and implementation of this concept?
    Admiral Willard. Development of the Air-Sea battle concept is being 
performed by a joint Navy-Air Force study team. The PACOM Staff is 
monitoring its development with great interest, and we look forward to 
the study team's report. Along with the other combatant commands, we 
expect to be active in evaluation of the study team's recommendations 
and in its implementation when it achieves an appropriate level of 
maturity.

    49. Senator Thune. Admiral Willard, in your view, how will long-
range strike capabilities fit into this new Air-Sea battle concept?
    Admiral Willard. Long-range strike capabilities contribute to the 
Air-Sea battle concept by helping to eliminate or limit the 
effectiveness of adversary anti-access and area denial capabilities, 
whether they are land- or sea-based.

    50. Senator Thune. General Chilton, have you been involved at all 
with the development of this new Air-Sea battle concept? If so, could 
you provide your views and activities in developing this new concept?
    General Chilton. I and my staff are aware of this effort but to 
date have not materially participated.

                            follow-on start
    51. Senator Thune. General Chilton, the START follow-on agreement 
will include a ceiling on operationally deployed nuclear delivery 
vehicles of 700. What are the implications for each leg of the nuclear 
triad under these limitations?
    General Chilton. While decisions on the planned force have yet to 
be finalized, the force structure flexibility within New START ensures 
the continued viability of all legs of the triad to meet strategic 
deterrent requirements. We are progressing as quickly as possible to 
provide the New START Treaty Framework and Nuclear Force Structure 
Plans as directed by Section 1251 of the NDAA of 2010 to Congress.

    52. Senator Thune. General Chilton, according to the testimony of 
Admiral Mullen before this committee earlier this year, there is 
currently consideration for a reduction in the number of overall 
bombers in relation to the START follow-on treaty. I assume this means 
that the START follow-on treaty is likely to result in a reduction of 
deployed strategic bombers. How do you believe these reductions would 
be apportioned between the B-52 and B-2, and at what level of reduction 
do you become nervous about the viability of the bomber leg of the 
triad?
    General Chilton. The START follow-on treaty did not require a 
specific reduction to either the B-2 or B-52. NPR guidance was to 
retain both bombers and convert some B-52H, to a conventional only 
role. The conversion of a portion of the B-52 force to conventional 
only will allow the Air Force to retain sufficient dual-capable B-52s 
to support conventional requirements, and provide extended deterrence 
to our allies, deter our adversaries, and maintain a hedge against 
future uncertainty. Force structure flexibility within New START 
enables the enduring viability of all legs of the triad and will 
preserve our current global strike capabilities. We are progressing as 
quickly as possible to provide the New START Treaty Framework and 
Nuclear Force Structure Plans as directed by section 1251 of the NDAA 
of 2010 to Congress.

                             airborne laser
    53. Senator Thune. General Chilton, on February 11 of this year, 
the MDA completed a successful destruction of a threat representative 
missile in its boost phase using a high energy laser beam from the 
Airborne Laser aircraft. This is a remarkable accomplishment. What are 
your views of this successful test of the Airborne Laser program, and 
do you think it marks the beginning of a revolution in military 
affairs?
    General Chilton. The recent feasibility tests of the Airborne Laser 
Test Bed--that being, successful detection, tracking, and engagement of 
boosting threat-representative missiles--highlight the important work 
accomplished by MDA in the directed energy arena to this point. These 
tests are also illustrative of potential new capabilities that further 
development of this technology could provide to combatant commanders.
    Directed energy technology holds promise for boost-phase intercept 
and handling increasing raid sizes, and could contribute to an 
offsetting strategy for missile vs. missile which is cost imposing on 
adversaries. STRATCOM supports the continued research and development 
of directed energy projects, although the actual technology development 
is not a combatant command responsibility.
    U.S. Strategic Command fully supports the Missile Defense Agency 
(MDA) and Director of Defense Research and Engineering as they begin 
over the Future Years Defense Program (FYDP) to build on Airborne Laser 
Test Bed lessons and research and test operationally viable and 
affordable directed energy concepts and platforms.

    54. Senator Thune. General Chilton, what are your views about how 
this program should move forward?
    General Chilton. STRATCOM supports the continued research and 
development of directed energy projects, although the actual technology 
development is not a combatant command responsibility.
    STRATCOM fully supports the MDA and Director of Defense Research 
and Engineering as they begin over the FYDP to build on Airborne Laser 
Test Bed lessons and research and test operationally viable and 
affordable directed energy concepts and platforms.

    55. Senator Thune. General Chilton, should we be aggressively 
leveraging this new technology?
    General Chilton. Yes. The recent feasibility tests of the Airborne 
Laser Test Bed--that being, successful detection, tracking, and 
engagement of boosting threat-representative missiles--highlight the 
incredible work accomplished in the directed energy arena to this 
point, and portend the revolutionary capabilities further development 
of this technology could provide.
    Directed energy technology holds promise for boost-phase intercept 
and for handling of increased raid size, and offers an offsetting 
strategy for missile vs. missile which is cost imposing. STRATCOM 
supports the continued research and development of directed energy 
projects, although the actual technology development is not a combatant 
command responsibility.

    56. Senator Thune. General Sharp, in light of the successful test 
of the Airborne Laser in shooting down a boosting missile, do you view 
its continued development as important to our future ability to defend 
the Korean theater?
    General Sharp. I believe key technological advances such as the 
Airborne Laser's ability to defeat Theater Ballistic Missiles are 
uniquely suited for our Area of Operation. With the tremendous 
accomplishments the Airborne Laser has enjoyed in the last year, I feel 
that we need to continue to build upon this capability so that it is 
more reliable, less operationally constrictive and more responsive in 
nature based on conditions of limited warning.

    [Whereupon, at 10:43 a.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                        TUESDAY, APRIL 20, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

            BALLISTIC MISSILE DEFENSE POLICIES AND PROGRAMS

    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Bill Nelson, E. Benjamin Nelson, Udall, Hagan, Begich, McCain, 
Inhofe, Sessions, Chambliss, Thune, Wicker, and LeMieux.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff member present: Richard W. Fieldhouse, 
professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Christian D. Brose, professional staff member; 
and Daniel A. Lerner, professional staff member.
    Staff assistants present: Kevin A. Cronin, Jennifer R. 
Knowles, and Breon N. Wells.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Christopher Griffin, assistant to 
Senator Lieberman; Carolyn Chuhta, assistant to Senator Reed; 
Nick Ikeda, assistant to Senator Akaka; Ann Premer, assistant 
to Senator Ben Nelson; Patrick Hayes, assistant to Senator 
Bayh; Marta McLellan Ross and Gordon I. Peterson, assistants to 
Senator Webb; Tressa Guenov, assistant to Senator McCaskill; 
Jennifer Barrett, assistant to Senator Udall; Roger Pena, 
assistant to Senator Hagan; Lindsay Kavanaugh, assistant to 
Senator Begich; Anthony J. Lazarski and Rob Soofer, assistants 
to Senator Inhofe; Lenwood Landrum and Sandra Luff, assistants 
to Senator Sessions; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Jason Van Beek, assistant to Senator Thune; Erskine 
Wells III, assistant to Senator Wicker; Brian Walsh, assistant 
to Senator LeMieux; and Kevin Kane, assistant to Senator Burr.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to consider the ballistic missile defense (BMD) 
policies and programs accompanying the President's budget 
request for fiscal year 2011. We're pleased to have four 
distinguished witnesses with us today to consider these 
matters. Dr. Jim Miller, Principal Deputy Under Secretary of 
Defense for Policy, has been deeply involved in all facets of 
the administration's missile defense policy consideration and 
their efforts. This includes the Phased Adaptive Approach (PAA) 
to missile defense in Europe announced by the President last 
September, as well as the Quadrennial Defense Review (QDR), the 
Ballistic Missile Defense Review (BMDR), and the recently 
released Nuclear Posture Review (NPR).
    Dr. Michael Gilmore is the Director of Operational Test and 
Evaluation (DOT&E) at the Department of Defense (DOD). His 
office plays a crucial role in the Nation's ability to have 
confidence that our weapons systems work as intended, and this 
committee has sponsored many improvements in the DOT&E ability 
to assess the capabilities and testing of our missile defense 
systems. He has recently submitted to Congress a number of 
reports related to missile defense and his organization has 
been instrumental in the development of the new missile defense 
integrated master test plan (IMTP).
    Lieutenant General Patrick O'Reilly is the Director of the 
Missile Defense Agency (MDA), which is charged with designing, 
developing, and producing all the elements of the BMD system 
and ensuring that they work together effectively in an 
integrated fashion to defend our Homeland and our forward-
deployed forces, our allies, and our partners. We will be 
interested to hear how the $8.4 billion budget request for the 
MDA supports the policies and strategies presented in the BMDR.
    Rear Admiral Archer Macy is the Director of the Joint 
Integrated Air and Missile Defense Organization (JIAMDO) of the 
Joint Staff. His organization works with the combatant 
commanders to ensure that our missile defense programs are 
meeting their needs and to consider future needs for our 
missile defense capabilities. For example, several years ago 
his organization conducted an important analysis of our 
combatant commanders' upper tier missile defense needs as 
compared to the threats facing them. This study, called the 
Joint Capabilities Mix Study, concluded that we needed to buy 
at least twice as many Standard Missile 3 and Terminal High 
Altitude Area Defense (THAAD) interceptors as planned to meet 
the warfighters' needs and that is what this administration 
plans on doing.
    We thank our witnesses for their service, their numerous 
contributions to the security of our Nation, including 
improving our missile defense policy and programs.
    The past year has been a busy one for missile defense. Last 
April, Secretary Gates announced a number of significant 
changes to our missile defense approach and programs, including 
the termination of a number of troubled programs and an 
increased focus on our regional missile defense. In September 
President Obama announced a new PAA to missile defense in 
Europe, which was unanimously recommended by Secretary Gates 
and the Joint Chiefs of Staff.
    This February, along with the budget request, the 
administration submitted the QDR and the BMDR. The latter was 
born in this committee. Just a few weeks ago, the 
administration submitted the NPR, which was also initiated by 
this committee.
    I want to commend the administration and our witnesses 
today for their thoughtful and thorough approach to these 
missile defense matters. I think there are a number of 
significant improvements in missile defense that are consistent 
with this committee's recommendations and they deserve strong 
bipartisan support. First, much greater emphasis on meeting the 
needs of the combatant commanders and in providing the 
capabilities to defend our forward-deployed forces, our allies, 
and partners against existing short- and medium-range missile 
threats from nations like North Korea and Iran. This focus is 
embodied in the PAA that is being used for Europe and other 
regions. In this regard, the good news, which sometimes seems 
overlooked, is that we are ahead of the threat in defending our 
Homeland. We already have a missile defense system in place for 
the United States, whereas those nations have not deployed 
long-range missiles that could reach our shores, and our system 
is being improved and will be supplemented by elements of the 
PAA in Europe.
    Second, the administration has adopted a policy of 
requiring realistic testing and operational testing to 
demonstrate that our missile defense systems work before we 
deploy them. This ``fly-before-you-buy'' approach is long 
overdue and brings missile defense into line with all of our 
other major defense acquisition programs. The new missile 
defense test plan reflects and supports this new policy and is 
a significant improvement.
    Third, the management and oversight of the MDA's programs 
has been strengthened through the Missile Defense Executive 
Board and by making the MDA programs consistent with the 
Weapons Systems Acquisition Reform Act (WSARA) of 2009. The 
administration's focus on fiscally sustainable missile defense 
is both realistic and essential.
    Fourth, the emphasis on international efforts and 
cooperation should help strengthen regional security against 
missile threats from nations like Iran and North Korea. This 
includes our work with the North Atlantic Treaty Organization 
(NATO) on missile defense in Europe and with regional allies 
and partners in the Middle East and East Asia. In this context, 
I would highlight the possibility of missile defense 
cooperation with Russia. U.S.-Russia cooperation against Iran 
would send a powerful signal to Iran of the unity of the world 
against their threatening policies and programs. We have an 
important opportunity to improve our security through 
cooperation and I look forward to hearing about that potential 
from our witnesses.
    On a final note concerning the New Strategic Arms Reduction 
Treaty (START), the administration said from the beginning of 
the negotiations that the treaty does not limit missile 
defenses, the treaty is about reductions of strategic nuclear 
arms, and I hope our witnesses will comment on that.
    Before recognizing our witnesses, let me call on Senator 
McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I join you in 
welcoming our witnesses.
    Over the past year our national policy on missile defense 
has been substantially revised. I believed, and said so at the 
time, that this administration got off on the wrong foot with 
its plans for missile defense, undermining two NATO allies who 
had much at stake in our previous deployment of these 
capabilities in Europe. But with the BMDR and with an increased 
level of funding for missile defense in the fiscal year 2011 
budget request, the administration appears to have embraced 
missile defense. Their proposal to establish a layered global 
missile defense architecture seems to be scaleable and flexible 
enough to address the threats of today and prepare for those of 
tomorrow. By rapidly pursuing the PAA, while also providing 
much-needed modernization, sustainment, and development funding 
for legacy systems, such as our Ground-based Midcourse Defense 
(GMD) System, this budget represents a seriousness on missile 
defense from this administration.
    Nonetheless, given their abrupt actions in the past, the 
administration must make a long-term commitment to missile 
defense and honor all of the long-term goals established within 
their BMDR, especially the development of the SM-3 Block II-B 
interceptor, which will provide additional defense to the 
Homeland.
    In the event that the proposed development and deployment 
of later generations of the SM-3 interceptor are not achieved 
within the planned 2018-to-2020 timeframe, it's imperative that 
the administration fully support and fund the development of 
the two-stage ground-based interceptor (GBI) as a technological 
hedge.
    The management of the MDA appears to be turning a corner, 
as recently highlighted by the Government Accountability 
Office. Still, there's more to be done, including the 
establishment of key baselines across all programs and 
addressing both inadequate quality control and substandard 
contractor performance. Poor contractor performance has long 
plagued many of the Department's multi-billion dollar 
acquisition programs, and I'm encouraged by the steps the MDA 
is undertaking to withhold profits from contractors responsible 
for unacceptable, poor, or substandard performance.
    To illustrate this point, the failed THAAD test in December 
is indicative of the financial and operational consequences 
that can result from one contractor's carelessness. This 
critical test, one of the last necessary to certify the 
operational capability of this important missile defense 
system, required hundreds of hours to coordinate and over $50 
million to field. However, the test was rendered useless when 
the air-launched target, as a result of blatant contractor 
error, failed to ignite, fell from the back of a C-17, and sank 
to the bottom of the Pacific Ocean.
    For far too long, contractors have attempted to cut corners 
on quality control at an increased cost to the taxpayer. This 
is simply unacceptable, and I look forward to hearing what more 
you are doing to ensure that all future contracts are 
structured to demand both accountability and performance.
    Missile defense is a key national security priority and its 
importance will only grow as we take responsible steps to 
reduce our nuclear arsenal. While the New START has not 
officially been transmitted to the Senate, Secretary Gates has 
affirmed that this treaty will not ``limit plans to protect the 
United States and our allies by improving and deploying missile 
defense systems.'' Nonetheless, I'm concerned that the treaty 
may establish a low threshold for Russia to withdraw, citing 
future U.S. missile defense deployments as the rationale. 
Unilateral Russian statements to this effect are troubling. 
Missile defense is not and should not be viewed in Moscow as 
some new form of post-Cold War aggression. It is, rather, a 
reasonable and prudent response to the very real threats that 
the Iranian and North Korean regimes pose to the United States, 
our friends, and our allies.
    In the coming months we will have the opportunity to assess 
the treaty and confirm that nothing inhibits our ability to 
deploy defensive weapons to counter the missile threats of 
rogue states. Russia must not have veto power over U.S. 
decisions on our missile defense architecture and I will reject 
any attempts by this administration, or any future 
administration, to do so.
    Thank you, Mr. Chairman, and I thank the witnesses for 
their hard work.
    Chairman Levin. Thank you very much, Senator McCain.
    Let us start with Secretary Miller.

   STATEMENT OF HON. JAMES N. MILLER, PRINCIPAL DEPUTY UNDER 
                SECRETARY OF DEFENSE FOR POLICY

    Dr. Miller. Chairman Levin, Senator McCain, distinguished 
members of the committee, thank you for the opportunity to 
testify today. It is a pleasure to join my colleagues here on 
the panel.
    In February, as the chairman noted, DOD published the 
report of the first-ever BMDR. In requiring that DOD conduct 
this review, Congress stipulated that we started with an 
updated threat assessment. The ballistic missile threat today 
is increasing both quantitatively and qualitatively and is 
likely to continue to do so over the next decade. Several 
states are also developing nuclear, chemical, and-or biological 
warheads for their missiles.
    The threat to the U.S. Homeland from states like North 
Korea and Iran continues to develop. Neither has yet acquired 
intercontinental ballistic missiles (ICBM) that could reach the 
United States, but both are working to acquire and/or develop 
long-range ballistic missile capabilities, including space 
launch vehicles which include many of the necessary 
technologies.
    The threat from short- and medium-range missiles has 
developed rapidly over the past decade. Both Iran and North 
Korea present a significant regional missile threat. These 
conclusions of the BMDR have been reinforced by a report 
submitted recently by DOD on the military power of Iran. This 
report notes that Iran is continuing to improve its missile 
capabilities and it is also ``at a minimum, keeping open the 
option to develop nuclear weapons if it chooses to do so.''
    Based on this threat assessment, the BMDR set six policy 
priorities for U.S. missile defense: First, the United States 
will continue to defend the Homeland against the threat of 
limited ballistic missile attack. The top priority for U.S. 
missile defense efforts is to defend the United States from the 
threat of missile attack by regional actors such as North Korea 
or Iran. The United States does not intend for missile defenses 
to affect the strategic balance with Russia or China. Through 
our missile defense programs, the United States seeks to 
dissuade states such as North Korea or Iran from developing an 
ICBM and, failing this, to deter them from using it or, if 
necessary, to defeat their attacks.
    The second policy priority is that the United States will 
defend against regional missile threats to U.S. forces while 
protecting our allies and partners and helping to enable them 
to protect themselves. As was noted in September 2009, based on 
the unanimous advice of the civilian and military leadership of 
DOD, the President endorsed a new PAA for missile defense in 
Europe. Since then we have concluded agreements with Romania 
and Poland to host the two planned land-based sites for BMD 
interceptors in 2015 and 2018 respectively and, more broadly, 
we have worked closely with our NATO allies on the way ahead 
for the alliance on missile defense.
    The BMDR concluded that the United States should pursue a 
PAA not only in Europe, but also in other regions, particularly 
Northeast Asia and the Middle East, and that this approach will 
be tailored to the threats appropriate to those regions.
    The third policy priority stipulated by the BMDR was that 
before new capabilities are developed they must undergo testing 
that enables assessment under realistic operational conditions. 
As the chairman noted, we believe in ``fly before you buy.'' 
Flight testing under realistic operational conditions is needed 
to provide proven capabilities for the defense of the Nation 
and of our warfighters, and our other witnesses, including Dr. 
Gilmore, will have more to say about that.
    The fourth policy priority was that the commitment to new 
capabilities must be fiscally sustainable over the long term. 
Our investments in BMD, as in other areas, must be managed to 
ensure that there are sound capability improvements at 
reasonable cost and in overall balance with other defense 
priorities.
    The fifth policy priority is that the U.S. BMD capabilities 
must be flexible enough to adapt as the threat changes. Our BMD 
program is building systems that are mobile and modular to 
ensure that we can quickly reinforce capabilities in a given 
region and also so that we can successfully adapt capabilities 
as the threat evolves. We're also taking a number of steps to 
hedge against potential increases in the threat, including, for 
example, completing Missile Field 2 at Fort Greely, AK. This 
will provide the ability to rapidly deploy eight additional 
GBIs if needed.
    Sixth and finally, the United States will lead expanded 
international efforts for missile defense. We are working with 
allies and partners to strengthen deterrence and build regional 
security architectures through improved missile defenses and 
through other measures, and my full statement includes many 
relevant details. These cooperative efforts are essential to 
the credibility of extended deterrence and reassurance of our 
allies and partners.
    In sum, the BMDR comprehensively considered U.S. missile 
defense policies, strategies, plans, and programs in the 
context of current and emerging ballistic missile threats to 
the U.S. Homeland, to our deployed forces, and to our allies 
and partners. It resulted in a $700 million increase in our BMD 
funding request for fiscal year 2011 over 2010, and we believe 
that it provides a clear and sensible path forward for U.S. 
missile defenses.
    Before closing, I'd like to offer brief comments on the New 
START and U.S. missile defenses. As General O'Reilly's 
statement makes clear, the New START does not constrain the 
United States from deploying the most effective missile 
defenses possible, nor does it increase cost or add 
inconvenience. Senator McCain commented on the Russian 
unilateral statement on missile defense associated with the New 
START and I ask to submit it for the record along with the 
related U.S. unilateral statement.
    Chairman Levin. It will be made part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Dr. Miller. Thank you.
    I want to note here that these statements are not part of 
the treaty, obviously. That's why they're called ``unilateral 
statements.'' They're not unilaterally binding. But they do 
provide some insight into Russian and U.S. thinking. I'll take 
just a moment to speak to that.
    The Russian unilateral statement suggests that Russia would 
consider withdrawing from the New START if there is ``a buildup 
in the missile defense system capabilities of the United States 
of America such that it would give rise to a threat to the 
strategic nuclear force potential of the Russian Federation.'' 
That is not the case today, nor do we expect it to be the case 
in the future.
    In fact, both sides would have the right to withdraw from a 
New START if they deemed it necessary for their supreme 
national interest. The previous START and most other arms 
control agreements have similar provisions.
    The U.S. unilateral statement notes that, as we stated in 
the BMDR, U.S. missile defenses are not intended to affect the 
strategic balance with Russia. It then says quite directly and 
quite accurately that ``the United States intends to continue 
improving and deploying its missile defense systems in order to 
defend itself against limited attack and as part of our 
collaborative approach to strengthen stability in key 
regions.''
    As this U.S. unilateral statement, the BMDR, and our budget 
proposals all make clear, this administration is committed to 
continuing to improve our missile defenses as needed to defend 
the U.S. Homeland, our deployed forces, and our allies and 
partners.
    I ask that my full written statement be entered into the 
record and I look forward to your questions.
    Chairman Levin. It will be made part of the record, as will 
all of the statements. Thank you very much.
    [The prepared statement of Dr. Miller follows:]
               Prepared Statement by Dr. James N. Miller
    Chairman Levin, Senator McCain, distinguished members of the 
committee, thank you for inviting me here today to testify on the 
Department's Ballistic Missile Defense (BMD) program. BMD is a key 
strategic issue for the United States and I look forward to testifying 
and answering your questions about our policies and plans.
    In February, the Department of Defense published the report of the 
first-ever Ballistic Missile Defense Review (BMDR). The review 
comprehensively considered U.S. BMD policies, strategies, plans, and 
programs in the context of current and emerging ballistic missile 
threats to the Homeland, our deployed forces, and our allies and 
partners. It provides a clear and sensible path forward for U.S. 
missile defenses.
    We are here today to testify on the President's fiscal year 2011 
request for BMD and how it is aligned with the policies and strategies 
reported in the BMDR. We have taken many steps to ensure a close 
alignment of budgets with the Defense Department's strategic reviews--
not just BMDR but also the Quadrennial Defense Review and the Nuclear 
Posture Review, as it was being developed.
    I will first review the key recommendations of the BMDR, and then 
describe our actions to implement it. The committee has also asked that 
I address the European Phased Adaptive Approach (EPAA) in some detail.
                        ballistic missile threat
    In charging the Defense Department with the responsibility to 
conduct a BMDR, last year's legislation clearly specified the starting 
point: an updated threat assessment. Accordingly, the review began with 
a review of the ballistic missile threat and key trends.
    The ballistic missile threat is increasing both quantitatively and 
qualitatively, and is likely to continue to do so over the next decade. 
Current global trends indicate that ballistic missile systems are 
becoming more flexible, mobile, survivable, reliable, and accurate, 
while also increasing in range. A number of states are also working to 
increase the protection of their ballistic missiles from pre-launch 
attack and to increase their effectiveness in penetrating missile 
defenses. Several states are also developing nuclear, chemical, and/or 
biological warheads for their missiles.
    The threat to the Homeland from states like North Korea and Iran 
continues to develop. Although neither has yet acquired or deployed 
intercontinental ballistic missiles (ICBMs), both are working to 
acquire and/or develop long-range ballistic missile capabilities, a 
threat that has proven to be inherently difficult to predict.
    Of particular concern, North Korea has demonstrated its nuclear 
ambitions, and it appears that Iran is determined to continue its 
longstanding defiance of its international obligations on its nuclear 
program.
    The threat from short- and medium-range ballistic missiles has 
developed rapidly over the past decade. Both Iran and North Korea 
present a significant regional missile threat.
    Iran has developed and acquired ballistic missiles capable of 
striking deployed forces, allies, and partners in the Middle East and 
Southern Europe. It is fielding increased numbers of mobile regional 
ballistic missiles and has claimed that it has incorporated anti-
missile-defense tactics and capabilities into its ballistic missile 
forces. Iran has flight-tested a new solid-propellant medium-range 
ballistic missile (MRBM) with a claimed range of 2,000 kilometers. Iran 
is also likely working to improve the accuracy of its short-range 
ballistic missiles (SRBMs).
    North Korea has developed a solid-propellant SRBM, and is 
developing a mobile intermediate-range ballistic missile (IRBM). It has 
also conducted test launches of multiple theater ballistic missiles, 
demonstrating a capability to threaten U.S. and allied forces.
                     strategy and policy framework
    The BMDR set the following policy priorities based on Presidential 
guidance:

    1.  The United States will continue to defend the Homeland against 
the threat of limited ballistic missile attack.

    This remains the top priority for U.S. missile defenses, with a 
focus on the threat from limited ballistic missile attack by regional 
actors such as North Korea or Iran. The United States does not intend 
to affect the strategic balance with Russia or to undermine strategic 
stability with China. The United States seeks to dissuade states such 
as North Korea and Iran from developing an ICBM and, failing this, to 
deter them from using it or to defeat their attacks should deterrence 
fail.

    2.  The United States will defend against regional missile threats 
to U.S. forces, while protecting our allies and partners and enabling 
them to defend themselves.

    This policy has guided the development of U.S. capabilities since 
the emergence of the missile proliferation problem in the 1980s. The 
security of our deployed troops, and our allies and partners, requires 
this.

    3.  Before new capabilities are deployed, they must undergo testing 
that enables assessment under realistic operational conditions.

    We believe in ``fly before you buy.'' Flight testing under 
realistic operational conditions is needed and cannot be conducted from 
facilities not equipped or properly located for this purpose. This will 
result in a posture based on proven technology with improved 
reliability, confidence, and cost control.

    4.  The commitment to new capabilities must be fiscally sustainable 
over the long term.

    Our investments in this area must be managed to ensure that there 
are sound capability improvements at reasonable cost and in overall 
balance with other defense priorities.

    5.  U.S. BMD capabilities must be flexible enough to adapt as 
threats change.

    Building capabilities that are mobile and modular ensures we can 
successfully adapt as the threat evolves, and our own technology 
advances. Hedging against potential changes in the threat is essential 
given the uncertainty associated with the ballistic missile 
capabilities of potential adversaries.

    6.  The United States will lead expanded international efforts for 
missile defense.

    We will work with allies and partners to strengthen regional 
security architectures. This theme cuts across all of the Department's 
policy and posture reviews. Cooperative efforts are essential to the 
credibility of extended deterrence and assurance of U.S. allies and 
partners. Our commitment to seeking strategic stability with Russia and 
China means that engagement with them is also needed.
                         defending the homeland
    The U.S. Homeland is currently protected against the threat of 
limited ICBM attack, as a result of investments made over the past 
decade in the system based on Ground-based Midcourse Defense (GMD). By 
the end of this fiscal year, the United States will deploy a total of 
30 Ground-Based Interceptors (GBIs), at Fort Greely, AK, and Vandenberg 
Air Force Base, CA, along with a global architecture of sensors and 
command and control systems. The United States now possesses a capacity 
to counter the projected threats from North Korea and Iran for the 
foreseeable future.
    At the same time, because the threat is unpredictable, the United 
States must be well hedged against the possibility of rapid threat 
developments. The focus now must be on maintaining the current level of 
capability while developing future capabilities that will enhance 
Homeland defense if and as new threats emerge. We are taking the 
following steps to strengthen our hedging posture:

    1.  Continue the development and assessment of a two-stage GBI. The 
two-stage GBI is only a development program and no decision has been 
made to acquire or deploy operational interceptors at this time.
    2.  Complete construction of Missile Field 2 at Fort Greely, AK, to 
the originally planned configuration of 14 operationally-capable silos. 
Finishing Missile Field 2 will allow us to replace older, inadequate 
silos from Missile Field 1, provide the most reliable and effective 
silo configurations to the warfighter, and establish a Reserve 
capability to rapidly deploy up to 8 additional interceptors if needed.
    3.  Pursue advanced sensors to strengthen existing networks. MDA is 
currently developing air- and space-based sensors that will bring new 
capabilities to the fight by allowing us to detect enemy launches, 
handle larger raid sizes, and track them earlier and longer through all 
phases of their flight.
    4.  Invest in advanced technologies such as directed energy and its 
potential use for missile defense, early-intercept capabilities that 
allow us to engage threats earlier in their flight, and the ability to 
launch interceptors and engage ballistic missiles based on information 
from external, forward-deployed sensors.
    5.  Implement Phase 4 of the Phased Adaptive Approach in Europe 
which will provide supplemental capabilities for the protection of 
Europe and the Homeland from Middle East threats.
                   defending against regional threats
    Over the past decade, significant progress has been made in 
developing capabilities for protection against attack from short- and 
medium-range ballistic missiles. Critical new systems have begun to be 
deployed. But these deployments remain modest in number in comparison 
to the rapidly expanding regional threat. The BMDR reflects the 
commitment to significantly accelerate the acquisition and deployment 
of these mature systems and to invest in follow-on capabilities.
    The benefits of improving capabilities are best ensured by 
tailoring regional deterrence and defense architectures to the unique 
requirements of each region. The effort to develop tailored approaches 
will be guided by the following key principles:

    1.  Regional deterrence must be built on a solid foundation of 
strong cooperative relationships and appropriate burden sharing between 
the United States and our allies. While missile defenses play an 
important role in regional deterrence, other components will also be 
significant. As the Nuclear Posture Review has made clear, the U.S. 
nuclear umbrella will remain in place so long as nuclear threats to our 
allies remain.
    2.  The United States will pursue a phased adaptive approach within 
each region that is tailored to the threats unique to that region, 
including their scale, the scope and pace of their development, and the 
capabilities available and most suited for deployment.
    3.  Because the potential global demand for missile defense assets 
over the next decade may exceed supply, the United States will develop 
capabilities that are mobile and re-locatable.

    Let me further explain what we mean by ``phased'' and ``adaptive.'' 
The phases are designed to implement the best available technology to 
meet existing and potential threats. As more capable interceptor 
technology is tested, proven, and available, we will phase that 
technology in to counter the increasing range and complexity of missile 
threats we face.
    The approach is adaptive in that it relies largely on sea-based and 
other mobile capabilities that can be surged into troubled regions in 
times of political-military crisis. We must plan to surge for the 
simple reason that the potential demand for regional missile defense 
assets will exceed supply for years to come. Although the missile 
threat is developing at different rates in different regions, overall 
it is developing rapidly--both in quality and quantity. Today there are 
thousands of ballistic missiles and hundreds of launchers; roughly 90 
percent of those missiles have ranges less than 1,000 kilometers. 
Against this threat, the United States currently has only a few hundred 
defensive interceptors deployed in multiple regions. To manage the 
supply/demand challenge, the military utilizes the Global Force 
Management process. This will help to ensure that our missile defenses 
can face the most pressing regional threats, and that we have 
capabilities that are responsive to changes in the threat environment.
                        the bmdr and the budget
    The Department's budget request aligns with the policies identified 
in the BMDR and reflects an increased emphasis on strengthening our 
Homeland and regional missile defense capabilities. The fiscal year 
2011 President's budget requests approximately $500 million more than 
was appropriated in fiscal year 2010. Furthermore, our plan for fiscal 
years 2011-2015 is $3.2 billion above what was planned for last year. 
MDA Director O'Reilly will provide a more detailed overview of the 
programmatic investments in fiscal year 2011 and beyond.
    The legislation mandating the BMDR specifically posed a question 
about the needed balance between investments in Homeland and regional 
defenses. Clearly, we need strong investments in both areas. We also 
need to be well hedged in both against potential developments in the 
threat. We also need to accelerate the fielding and further development 
of capabilities to deal with regional threats because of the dramatic 
growth in that dimension.
    We have emphasized the following key investment priorities for 
fiscal year 2011 and the 5 year defense plan:

        <bullet> To increase the inventory of near-term, mature 
        systems, including interceptors, sensor networks, and command 
        and control capabilities, in order to provide our military 
        forces with what they need now.
        <bullet> To rigorously test our missile defense systems as they 
        are developed to ensure we are investing in operationally-
        effective and reliable sensors and shooters.
        <bullet> To invest in advanced technologies and follow-on 
        capabilities so that we continue to outpace new developments in 
        our adversaries' ballistic missile capabilities.
        <bullet> To maintain and improve existing capabilities.

    We believe these increased investments are essential, and 
consistent with a key principle of the BMDR, fiscally sustainable.
                       missile defense in europe
    In conducting the BMDR, we were also specifically directed to 
assess the pathway forward for missile defense in Europe. Having 
reviewed the threat and set out our policy priorities, that pathway 
forward emerged clearly.

        <bullet> The accelerating threat from short-, medium-, and 
        intermediate-range ballistic missiles in the Middle East 
        pointed to the need to accelerate missile defense protection of 
        U.S. forces and allies in Europe.
        <bullet> The inherently unpredictable nature of the threat 
        pointed to the need for a missile defense approach with 
        flexibility to adapt to developments in the threat.
        <bullet> The need to hedge against future threats, whether to 
        U.S. deployed forces, allies, or the Homeland, pointed to the 
        need for an approach in Europe that could be adaptive to this 
        purpose as required.
        <bullet> The commitment to lead expanded international efforts 
        pointed to the value of a broader alliance approach that would 
        enable effective sharing of burdens and risks.

    The previous ``Third Site'' approach scored poorly against these 
objectives. The small number (10) of interceptors meant that the system 
could be overwhelmed by the launch of as few as five missiles. The high 
expense of the interceptors limited future capability growth. The Third 
Site approach did not include any specific components for defending our 
allies and forces from the threat posed by short- and medium-range 
ballistic missiles.
    The BMDR developed a more adaptive approach, which utilizes proven 
technologies that are flexible and responsive to current and future 
threat developments. Based on the unanimous advice of the civilian and 
military leadership in the Department of Defense, the President 
endorsed the Phased Adaptive Approach to missile defense in Europe.
    It is useful to recall here the four phases described in the BMDR:

        <bullet> In Phase 1, out through the 2011 timeframe, existing 
        missile defenses to defend against short- and medium-range 
        ballistic missiles will be deployed. Phase 1 will be 
        accomplished by deploying a forward-based sensor and utilizing 
        BMD-capable Aegis ships carrying SM-3 Block IA interceptors.
        <bullet> In Phase 2, in the 2015 timeframe, improved 
        interceptors and sensors to defend against SRBMs and MRBMs will 
        be deployed. The architecture will be expanded with a land-
        based SM-3 site in Southern Europe and the deployment of SM-3 
        Block IB interceptors.
        <bullet> In Phase 3, in the 2018 timeframe, to improve coverage 
        against medium- and intermediate-range ballistic missiles, a 
        second land-based SM-3 site will be deployed in Northern 
        Europe. This will include use of the more capable SM-3 Block 
        IIA interceptors on land and at sea to cover all NATO Europe 
        countries.
        <bullet> In Phase 4, a decade from now, to address the threat 
        of potential ICBM attack from the Middle East, the next 
        generation SM-3 interceptor, the Block IIB, will be available 
        for land-based sites. This interceptor, with its higher 
        velocity, is intended to provide the ability to engage longer-
        range ballistic missiles and to intercept threats in their 
        ascent phase.
                       implementing paa in europe
    Since the announcement of the new approach to missile defense in 
Europe in September 2009, the administration has worked to engage 
allies, both bilaterally and multilaterally, to begin to bring together 
the needed building blocks for this approach. Key milestones in this 
process to implement the EPAA are summarized below:

        <bullet> In September 2009, the Czech Republic expressed its 
        continued strong support for missile defenses and stated its 
        interest in being involved with the EPAA. As we consider ways 
        to cooperate on areas related to the PAA over the longer term, 
        including through research and development activities, we are 
        already in the process of working with the Czechs to establish 
        a near-term arrangement for sharing information on ballistic 
        missile launches.
        <bullet> In October 2009, Poland agreed to host a land-based 
        SM-3 interceptor site on its territory, as called for in the 
        Phase 3 of the EPAA (2018 timeframe). This site will be located 
        at the same former military installation in northwestern Poland 
        that would have housed the GBIs under the ``Third Site'' plan. 
        The U.S.-Poland Ballistic Missile Defense Basing Agreement was 
        signed in August 2008. In February 2010, the U.S. and Poland 
        concluded negotiations on an amendment to that agreement to 
        allow the deployment of a land-based SM-3 site in Poland. 
        Additionally, in 2010, the Polish parliament ratified the U.S.-
        Poland supplemental Status of Forces Agreement required for the 
        deployment of U.S. forces in Poland, including personnel 
        associated with missile defense.
        <bullet> In February 2010, Romania agreed in principle to host 
        the Phase 2 Southern Europe land-based SM-3 interceptor site in 
        the 2015 timeframe. The U.S. is preparing for negotiations with 
        the Romanian Government concerning the details of hosting the 
        site.
        <bullet> We are currently in discussions regarding the 
        potential location of the forward-based AN/TPY-2 radar, which 
        we would like to deploy in Southern Europe in the 2011 
        timeframe. As these discussions mature, we will be able to 
        provide more information.
        <bullet> We are also working to coordinate our EPAA missile 
        defense efforts with those of our NATO Allies that are seeking 
        to counter shorter-range ballistic missile threats to deployed 
        forces. Several NATO countries already possess or are acquiring 
        such missile defense capabilities. For example, several have 
        Patriot systems (Netherlands, Germany, and Greece). Some are 
        working cooperatively with the United States to develop the 
        MEADS system (i.e., Italy and Germany). Others have expressed 
        interest in acquiring systems like Patriot, SM-3, and sensor 
        technology.

    These bilateral efforts have been paralleled by multilateral 
efforts within NATO. The administration is working to ensure the EPAA 
is implemented in a strong NATO context--meaning it has NATO's 
political support, complements current and future NATO efforts, and 
offers enhanced opportunities for cooperation.

        <bullet> The EPAA closely aligns with NATO political guidance 
        on missile defense, issued unanimously in April 2009 by allied 
        heads of State and Government, which states that ``missile 
        threats should be addressed in a prioritized manner that 
        includes consideration of the level of imminence of the threat 
        and the level of acceptable risk.'' Accordingly, our NATO 
        allies have responded positively to EPAA. NATO unanimously 
        welcomed the PAA at its December 2009 Foreign Ministerial, a 
        key first step in cooperation with NATO on European missile 
        defense.
        <bullet> NATO is also developing a command and control network 
        that will allow Allies to link their missile defense assets 
        together, called the Active Layered Theater Ballistic Missile 
        Defense (ALTBMD) program, creating a more efficient 
        architecture. The United States is working to ensure U.S. 
        assets will be interoperable with NATO's ALTBMD program. NATO 
        is also examining the implications and costs of potentially 
        expanding ALTBMD to include command and control for territorial 
        missile defense. ALTBMD and potential expansions for it would 
        facilitate greater interoperability and shared situational 
        awareness among Allied missile defense assets.

    In combination, these efforts have helped to generate a significant 
new level of alliance commitment to missile defense. As a result, there 
is greater potential for cooperation with NATO on a potential Alliance-
wide initiative to protect NATO territory from ballistic missiles.
    It is important to understand that working to ensure protection of 
all NATO Allies does not give NATO a ``veto'' over the protection of 
the United States and our deployed forces. Interoperability with NATO 
command and control systems will not diminish our ability to defend 
U.S. deployed forces, our allies, and our partners.
    All of these efforts represent significant progress towards 
implementing the BMDR and PAA in Europe--in just over 6 months since 
the announcement of the new approach.
                  the paa in asia and the middle east
    The European PAA is representative of our new approach to regional 
missile defense. It shows how we plan to apply in practice those policy 
priorities that we established in the BMDR.
    However, it is important to note that the regions differ in the 
range, scale, and technical sophistication of the existing and 
potential threat. This variation has important implications for how 
phased adaptive approaches to missile defense are applied in each 
regional context. The regions also differ in terms of the U.S. role. In 
Europe, the United States engages as a party to a multilateral 
alliance; in East Asia, the United States cooperates through bilateral 
alliances and with key partners; in the Middle East, the United States 
has a number of key partners. The United States has deployed forces 
across the globe. Regional differences have important implications for 
the authorities under which the United States is able to operationally 
employ defenses in protection of local partners.
    We are also working in East Asia and the Middle East to implement 
the phased adaptive approach to missile defense in these regions. As I 
mentioned earlier, these approaches must be tailored to the specific 
threat and geopolitical characteristics of each region.

        <bullet> The United States and Japan have made considerable 
        strides in BMD cooperation and interoperability in support of 
        bilateral missile defense operations. Japan has acquired a 
        layered integrated missile defense system that includes Aegis 
        BMD ships with Standard Missile 3 interceptors, Patriot 
        Advanced Capability 3 (PAC-3) fire units, early warning radars, 
        and a command and control system. The United States and Japan 
        regularly train together, and our forces have successfully 
        executed cooperative BMD operations. One of our most 
        significant cooperative efforts is the co-development of a 
        next-generation SM-3 interceptor, called the Block IIA. This 
        codevelopment program represents not only an area of 
        significant technical cooperation but also the basis for 
        enhanced operational cooperation to strengthen regional 
        security. The U.S.-Japan partnership is an outstanding example 
        of the kind of cooperation the United States seeks in order to 
        tailor a phased adaptive approach to the unique threats and 
        capabilities in a region.
        <bullet> The United States also has ongoing discussions with 
        South Korea and Australia related to missile defense and we 
        look forward to further cooperation should either country make 
        the decision to acquire missile defense capabilities.
        <bullet> In the Middle East, we have a longstanding 
        relationship with Israel on BMD. In addition to conducting a 
        major missile defense exercise with Israel in November 2009, 
        the United States and Israel continue to meet regularly and 
        coordinate extensively on a wide range of missile defense 
        issues. During a recent bilateral discussion in Tel Aviv in 
        March 2010, ways in which elements of the BMDR would help our 
        cooperative efforts to defend Israel were analyzed. This set of 
        bilateral discussions on missile defense will be continued 
        later this year in the United States. In addition to 
        cooperating on plans and operations, our extensive support for 
        Israeli missile defense programs continues to include the 
        existing Arrow Weapons System and a new program for defeating 
        short range ballistic missiles known as David's Sling. 
        Improvements in the U.S. missile defense posture as a result of 
        the BMDR benefits regional stability and benefits Israel's 
        security.
        <bullet> The United States currently has a robust mix of BMD 
        assets forward deployed to provide BMD for our troops and 
        facilities in the Persian Gulf Region. This includes the 
        command and control equipment, and personnel necessary to 
        direct BMD engagements. Currently, a series of bilateral MD 
        agreements between the United States and host GCC nations 
        exist. Central Command continues to work on establishing a 
        Regional Integrated Air and Missile Defense architecture for 
        the GCC nations.
                        cooperation with russia
    As noted in the BMDR, the administration has given a special 
emphasis to renewing cooperation with Russia on missile defense. From 
discussions at the most senior levels, when Presidents Obama and 
Medvedev met at the July 2009 Moscow Summit, to technical discussions, 
we are making a concerted effort to identify areas where the United 
States and Russia can pursue meaningful cooperation. We are open to a 
wide-range of cooperative activities.
    Some examples of cooperation that we have recently examined with 
the Russians include sharing data gathered by existing U.S. and Russian 
radar installations; conducting collaborative missile defense flight-
tests; and undertaking experiments that would combine data from U.S. 
ground- and space-based sensors with data from Russian sensors such as 
the radars at Qabala, Azerbaijan and at Armavir, in southern Russia. 
Pursuant to President Obama's and President Medvedev's agreement at 
their July 2009 summit in Moscow, the United States and Russia are 
conducting a joint assessment of ballistic missile threats and 
challenges. Also, we are attempting to work with Russia to implement 
the 2000 Joint Data Exchange Center (JDEC) agreement. The JDEC 
agreement would establish a joint ballistic missile early warning 
center in Moscow.
                               conclusion
    In the BMDR we have a new policy document outlining the 
administration's approach to missile defense. We have accordingly 
shifted budgetary requests, increasing investments in missile defenses 
in the fiscal year 2011 budget. We have already begun to execute those 
policies as demonstrated by our progress on the implementation of the 
PAA in Europe, and we are working closely with other allies and 
partners.
    The threat posed by ballistic missiles is real, and it is growing. 
After years of development, our missile defenses today are also very 
real, and vital to coping with this growing threat. We look forward to 
working with Congress in ensuring continued progress.
    Thank you and I look forward to your questions.

    Chairman Levin. Dr. Gilmore.

  STATEMENT OF HON. J. MICHAEL GILMORE, DIRECTOR, OPERATIONAL 
           TEST AND EVALUATION, DEPARTMENT OF DEFENSE

    Dr. Gilmore. Mr. Chairman, Senator McCain, members of the 
committee, I'll very briefly summarize my written statement.
    First, my characterization of demonstrated performance in 
BMD is contained in the report that I submitted to Congress 
this past February, which is required by law as part of the 
oversight regime that Congress and particularly this committee 
has created and the role that my office plays in overseeing 
testing progress in BMD.
    In that report I characterize the demonstrated performance 
of the elements of the BMD system using a one to six rating 
scale, with one being the lowest demonstrated capability and 
six being the highest. Generally, Aegis, THAAD, and Patriot--
against short-range ballistic missiles--are rated at the 
highest levels, from four to six. There has been relatively 
extensive testing against short-range threats. Aegis, ground-
based missile defense and THAAD against medium-range ballistic 
missiles (MRBM), intermediate-range ballistic missiles, and 
intercontinental-range ballistic missiles generally have 
demonstrated less capability, and the less capability is 
demonstrated as the range of the missiles increases.
    With regard to major events over the last year, of course, 
there was the successful shootdown of a threat-representative 
missile by the Airborne Laser. With regard to developments in 
test planning, as you noted, Mr. Chairman, there was the 
development of the IMTP, an exercise in which my office played 
a substantial role. The IMTP is, in my view, a rigorous plan 
for conducting the tests and collecting the information that 
will be needed to verify, validate, and accredit all of the 
models that will be absolutely essential to demonstrating 
confidence in the performance of the missile defense system, 
because we will never be able to test in live flight tests, the 
system throughout the entire battle space that will be 
relevant.
    With regard to challenges in the future, missile defense 
testing is some of the most complex testing that DOD conducts. 
It's very difficult to execute these tests successfully. There 
have been failures in the past, both with regard to 
interceptors and to targets, and targets in particular are a 
real challenge, as I'm sure General O'Reilly will discuss. The 
realism and reliability of the targets is something that needs 
work and General O'Reilly has a plan to work on that and to 
procure a new family of targets that we hope will be more 
reliable than the ones in the past.
    Thank you and I'll be happy to respond to your questions.
    Chairman Levin. Thank you very much, Dr. Gilmore.
    [The prepared statement of Dr. Gilmore follows:]
              Prepared Statement by Dr. J. Michael Gilmore
    Chairman Levin, Senator McCain, distinguished members of the 
committee, thank you for the opportunity to discuss the Ballistic 
Missile Defense System, or BMDS, its test program, recent results, and 
challenges. I will focus my remarks in three areas:
    First, my assessment of current missile defense programs, the 
details of which are in my annual report submitted to you on February 
12;
    Second, the major events from last year that will shape the course 
of future BMDS testing; and
    Finally, the challenges to BMDS test and evaluation.
                    current missile defense programs
    Ground-based Midcourse Defense (GMD) has not yet attempted an 
intercept of an intercontinental ballistic missile target. The 
intercept flight tests it has conducted on intermediate range missiles 
have been conducted under a limited set of operationally-realistic 
engagement parameters.
    GMD flight test FTG-05, conducted in the first quarter of fiscal 
year 2009, was the third successful intercept using the currently 
fielded operational capability. It was the first flight test requiring 
the GMD fire control to correlate multiple sensor inputs and supply a 
weapons task plan to the exo-atmospheric kill vehicle. FTG-06 was 
conducted in January 2010; it was the first flight test of an 
interceptor equipped with the Capability Enhancement II Exo-atmospheric 
Kill Vehicle and was meant to demonstrate the use of the sea-based X-
band radar to perform tracking and discrimination. The intercept 
attempt failed for reasons that the MDA continues to investigate.
    Aegis Ballistic Missile Defense, or Aegis BMD, has demonstrated 
that it can detect, track, and engage simple non-separating and 
separating short-range ballistic missiles (those with ranges below 
about 1,000 kilometers). Using Aegis BMD 3.6 hardware and software and 
SM-3 Block IA hit-to-kill interceptors, Aegis BMD has demonstrated it 
is operationally effective for performing midcourse intercept of short-
range ballistic missiles. Additionally, follow-on operational testing 
of Aegis BMD 3.6.1 hardware and software demonstrated Aegis BMD's 
capability to engage simple short range ballistic missiles in the 
terminal phase with modified SM-2 Block IV warhead interceptors.
    During 2009, Aegis BMD completed two U.S. flight tests, Stellar 
Daggers and FTM-17. The two tests addressed midcourse-phase and 
terminal-phase engagement capabilities for Aegis BMD 3.6.1. Stellar 
Daggers performed a simultaneous engagement of a short range ballistic 
missile in the terminal phase of flight with a modified SM-2 Block IV 
interceptor, and a cruise missile target with a SM-2 Block IIIA 
interceptor. FTM-17 completed the planned follow-on operational test 
and evaluation flight testing phase for Aegis BMD 3.6.1. It also 
provided a venue for regression testing of midcourse-phase engagement 
capability following the upgrade from Aegis BMD 3.6 to Aegis BMD 3.6.1. 
The latter introduced the capability for terminal intercepts and merged 
anti-submarine warfare functionality into the system software.
    The Terminal High Altitude Area Defense (THAAD) has demonstrated 
the ability to detect, track, and engage unitary and simple separating 
short-range ballistic missiles. In six flight tests, THAAD intercepted 
four of four unitary short-range ballistic missiles, and two of two 
simple separating short range ballistic missiles. One flight test 
demonstrated a salvo engagement of two THAAD interceptors against a 
single threat, consistent with plans for actual tactical operations. 
THAAD has also demonstrated a capability to intercept threat missiles 
both inside and outside the atmosphere, the only BMDS element 
specifically designed with this capability. Although THAAD has 
demonstrated the ability to detect, track, and successfully engage a 
target exhibiting medium-range, ballistic missile characteristics, it 
has not yet been tested against a true medium-range ballistic missile.
    During 2009, THAAD conducted flight tests FTT-10a and FTT-11. In 
March, THAAD successfully completed FTT-10a, a salvo of two THAAD 
interceptors against a single separating short-range ballistic missile. 
The MDA ``cold conditioned'' the first THAAD interceptor before the 
test to simulate operations in a cold environment. The test was a 
combined developmental and operational test, with minimal contractor 
involvement. FTT-10a was also a BMDS-level test, with Aegis BMD 
providing a cue to THAAD as part of the engagement. In December, THAAD 
attempted FTT-11, an exo-atmospheric intercept of a complex separating 
short-range ballistic missile. The target, planned as an air launch 
from a C-17 cargo aircraft, had a relatively low infrared signature and 
radar cross section. This was the first flight test to include all 
major tactical software builds planned for initial deployment, 
including radar advanced discrimination algorithms. Unfortunately, 
after the target was released from the C-17, it failed to deploy 
properly and was lost. DOT&E is assessing the extent to which the data 
that would have been collected during this test can be collected during 
subsequent testing.
    Command, Control, Battle Management, and Communications (C2BMC) has 
demonstrated the ability to command and control the AN/TPY-2 X-band 
radar in its forward-based mode, and provide track data to other BMDS 
elements for engagement support (GMD) and simulated launch-on 
engagements (Aegis BMD). C2BMC has provided situational awareness 
information to military command authorities during all three GMD flight 
tests. During the past 2 years, C2BMC has demonstrated Aegis BMD launch 
on Aegis BMD cueing in three ground tests, and simulated Aegis BMD 
launch on AN/TPY-2 cueing in four ground tests and two flight tests. 
THAAD does not currently have a launch-on-remote capability which will 
require modifications to the THAAD fire control software to achieve.
                              major events
    In the first quarter of fiscal year 2009, the MDA implemented an 
evaluation-based strategy for testing the BMDS, an approach that DOT&E 
has been advocating for the past several years. This approach 
emphasizes testing under so-called Critical Engagement Conditions 
(CECs), and collecting the data on system performance under those 
conditions necessary to verify, validate, and accredit (VV&A), the BMDS 
models and simulations to be used to assess overall BMDS capability. 
The MDA codified this approach in an Integrated Master Test Plan (IMTP) 
that documents their planned testing through the period spanning the 
Future Years Defense Program. The MDA staff, staff from the combatant 
commands and the BMDS Operational Test Agency participated in 
developing the IMTP, as did staff from DOT&E.
    DOT&E has been involved in the evolution of the evaluation-based 
strategy and the revised IMTP since General O'Reilly initiated its 
development in December 2008. For example, DOT&E provided the MDA with 
critical operational issues the new test program must resolve. Over the 
next 6 months, the DOT&E staff reviewed with MDA staff the details 
underpinning all the CECs associated with resolving the critical 
operational issues, the ground and flight testing needed to collect the 
associated data, and the development of the final integrated test 
schedule. This effort culminated in an IMTP approved jointly by MDA and 
DOT&E in July 2009.
    In August 2009, when the President announced the phased, adaptive 
approach (PAA) for the defense of Europe, MDA initiated a revision of 
the IMTP to incorporate the testing needed to support the PAA. DOT&E 
participated in this effort in a manner analogous to its participation 
in the development of the previous IMTP. My office provided the MDA 
with a detailed test concept for Phase 1 of the PAA as well as a test 
concept outline for the remaining phases. That concept included the 
need for a test of Aegis Block 3.6.1 and SM-3 Block IA against longer-
range threats than had previously been tested, as well as the need to 
test the use of launch-on-remote capability.
    In particular, when the President announced the PAA for the defense 
of Europe, a revision of the new IMTP became necessary. The PAA uses 
Aegis BMD and forward-based  sensors  to  defend  Europe  and  the  
United  States  from  short-,  medium-, intermediate-, and 
intercontinental-range ballistic missiles as Aegis BMD evolves with 
increasing capability. While the MDA has adequately demonstrated 
current Aegis BMD capability to defeat short range ballistic missiles, 
the MDA test program has not yet demonstrated current Aegis BMD 
capability to defeat medium or intermediate range ballistic missiles. 
The MDA must successfully complete flight tests against these longer-
range threats to demonstrate ballistic missile defense of Europe.
    The revised IMTP, approved jointly by DOT&E and the MDA this past 
February, incorporates such tests. Phase 1 of the IMTP is the most 
detailed, as it concentrates on testing and fielding near term defenses 
by the end of 2011. Both Aegis BMD and THAAD will conduct flight tests 
to demonstrate capability against intermediate and medium range 
ballistic missiles respectively. The MDA will also conduct ground 
testing of the command, control, and communications required to support 
Phase 1 implementation. U.S. European Command is working to develop the 
operations concept and the tactics, techniques, and procedures that 
will be used during these ground tests.
    One other noteworthy event occurred recently. The Airborne Laser, 
now designated the Airborne Laser Test Bed, successfully engaged a 
boosting, threat-representative short range ballistic missile. This 
accomplishment demonstrates that it is technologically possible to 
``shoot down'' a boosting, ballistic missile using a laser carried on a 
large aircraft. The program had to overcome difficult technological 
challenges, such as the effects of the atmosphere on the laser beam and 
the difficulty of holding the laser on the desired aim-point 
sufficiently long to cause the threat missile to fail. However, the 
engagement was not an operational test conducted under operationally-
realistic conditions using an aircraft that is fully ready to conduct 
combat operations. For example, the Active Ranging System (ARS), a 
precision laser ranging system that is a key component of the detection 
and tracking system, was not available for the test. To compensate, the 
aircrew utilized the aircraft's Wide Area Surveillance System as well 
as a priori knowledge of the threat missile launch location, timing, 
and aim point; this approach generally could not be used during combat. 
The incorporation of the ARS and numerous other capabilities would be 
necessary before the Airborne Laser (ABL) could be evaluated for 
operational effectiveness, operational suitability, and survivability 
when performing missile defense. The ABL would need to incorporate a 
laser with sufficient power to successfully engage, at operationally 
realistic standoff ranges and without a priori knowledge, a variety of 
threat missile types using countermeasures designed to defeat laser 
effectiveness. It must demonstrate reliability, availability, and 
maintainability, particularly during missions performed from deployed 
locations. It must also implement basic survivability features, 
including self-protection systems and airframe modifications to reduce 
the effects of damage caused by anti-aircraft weapons. If the 
Department should determine at a future time that it is appropriate to 
develop and field an Airborne Laser system, an extensive program of 
additional developmental testing culminating in realistic operational 
testing would be needed.
                   challenges to future bmds testing.
Targets
    THAAD flight testing has experienced target failures. The one 
flight test completed in 2009 was a successful repeat of a flight test 
first attempted in September 2008 that suffered a target failure. The 
second flight test attempted in 2009 also ended with a target failure. 
When the targets have flown successfully, THAAD has successfully 
intercepted and destroyed them. These target failures have prevented 
THAAD from progressing to flight testing against threat-representative 
medium range ballistic missiles.
    GMD also has experienced target failures. Flight test FTG-03a was a 
repeat of FTG-03 that suffered a target failure. The target used for 
flight test FTG-05 did not deploy the associated objects needed to 
accomplish important test objectives. The MDA delayed flight test FTG-
06 due primarily to readiness issues associated with the first-time 
flight of a new longer-range target. This new target flew nominally and 
correctly deployed its associated objects when FTG-06 was flown this 
past January.
    The MDA recognizes that its targets are very complex. This 
complexity is a key factor contributing to the failures that have 
occurred. Such failures may well be a fact of life for several more 
years until the MDA can transition from using its legacy targets and 
field a new set of more reliable targets.
Executing the IMTP
    The IMTP is a rigorous plan for obtaining the test information 
needed to assess BMDS performance quantitatively. However, I am 
concerned that it is success-oriented with limited schedule flexibility 
and no incorporation of repeat, or backup, tests to compensate for test 
failures. The ripple effects of a test failure, such as the recent GMD 
flight test FTG-06, can be significant. An Aegis BMD test failure in 
the next year could affect the full implementation and assessment of 
Phase 1 of the phased, adaptive approach for the defense of Europe, as 
Aegis BMD would not have demonstrated capability against the longer-
range threats that might need to be countered in that timeframe.
Test Complexity
    Realistic BMDS testing is difficult. Assessing the capability of 
each phase of the PAA will require some of the most complex testing 
ever attempted by the Department of Defense. The majority of the 
testing is planned to be conducted on the Pacific test ranges. The MDA 
will be challenged to replicate realistic radar acquisition and 
intercept geometries in the Pacific. In addition, testing of the 
command and control linkages and systems to be used for the first phase 
of European missile defense will have to be conducted using ground 
testing in the theater and surrogate testing elsewhere concurrent with 
development and implementation. Executing the first operationally-
realistic combined test of Aegis BMD, THAAD, and Patriot in 2012 will 
tax MDA's capabilities for test planning and execution. In particular, 
performing the planning and marshalling the resources necessary to 
handle the safety requirements associated with what could be as many as 
10 missiles--both targets and interceptors--in flight nearly 
simultaneously will be a substantial challenge, as will executing the 
actual test.
                               conclusion
    The ability to conduct comprehensive and objective assessments of 
BMDS capability is still a number of years away. If the MDA can execute 
the revised IMTP, the data needed to validate models and perform 
quantitative assessments of BMDS performance will become available. 
However, it will take as many as 5 to 7 years to collect those data.
    This concludes my remarks and I welcome your questions.

    Chairman Levin. General O'Reilly.

 STATEMENT OF LTG PATRICK J. O'REILLY, USA, DIRECTOR, MISSILE 
                         DEFENSE AGENCY

    General O'Reilly. Good morning, Mr. Chairman, Senator 
McCain, and other distinguished members of the committee. It is 
an honor to testify before you today on the MDA's activities to 
continue developing and fielding an integrated layered BMD 
system to defend the United States, its deployed forces, 
allies, and friends.
    Under the oversight and direction of the DOD Missile 
Defense Executive Board, MDA proposes an $8.4 billion fiscal 
year 2011 program that is balanced to achieve six policy goals 
of the BMDR's report and the combatant commanders' and the 
Services' missile defense needs stated in the latest U.S. 
Strategic Command's (STRATCOM) prioritized missile defense 
capabilities list.
    First, defense of the Homeland against limited attack. We 
continue to upgrade the GMD system to increase reliability, 
survivability, ability to leverage a new generation of missile 
defense sensors and testing to accredit our simulations. 
Missile fields in Alaska are in an optimum location to 
intercept missiles from either North Korea or Iran. The 
purchase of five additional GBIs and the production of 
components to support extensive reliability testing and missile 
refurbishment will sustain our production capability until 2016 
and critical component manufacturing beyond 2020.
    Second, defense against regional threats. By 2015, we plan 
to buy 436 SM-3 I-A and I-B interceptors, 431 THAAD 
interceptors, 14 AN-TPY-2 radars, 9 THAAD batteries, and have 
38 BMD-capable ships available. Our regional missile defenses 
are adaptable to the unique circumstances of each combatant 
command. For example, we determined, based on updated 
intelligence estimates, that our previous plan for the defense 
of Europe could be rapidly overwhelmed and thus made 
ineffective by the large number of Iranian medium-range 
ballistic missiles today. Additionally, the previous program 
did not cover most of Southeastern Europe exposed to the 
ballistic missile threats today, would not have been available 
until 2017, and was not adaptable to changes in future threats 
to Europe. Therefore we plan to deploy a larger number of 
interceptors in Europe in four phases as missile threats from 
the Middle East evolve.
    Two phases in 2011 and 2015, respectively, provide 
protection against short- and medium-range ballistic missiles. 
The third phase in 2018 provides protection against 
intermediate-range ballistic missiles, and the fourth phase in 
2020 provides capability to intercept ICBMs from the region in 
which they are launched.
    Third, prove the BMD system works. We have submitted a 
comprehensive IMTP signed by Dr. Gilmore, the Services' 
operational test agencies, and the Commander of STRATCOM, to 
ensure we fly our missiles before we buy them.
    However, the two greatest challenges that we face in 
developing missile defense are acquiring cost-effective, 
reliable targets and improving quality control of all products. 
Over the past year, we have initiated a new target acquisition 
strategy to increase competition, improve quality control, 
reduce costs, and provide backup targets starting in 2012.
    However, the precision of missile defense systems requires 
stringent manufacturing standards. Until we complete planned 
competitions including the greater use of firm fixed-price 
contracts and defect clauses, we will have to motivate some 
senior industry management through intensive inspections, low 
award fees, issuing cure notices, stopping the funding of new 
contract scope, and documenting inadequate quality control 
performance to influence future contract awards.
    Fourth, hedging against uncertainty. In accordance with 
warfighter priorities, we are focusing our future technologies 
to develop more accurate and faster tracking sensors on 
platforms to enable early intercepts, enhanced command and 
control networks to rapidly fuse sensor data to handle large 
raid sizes, a more agile version of our SM-3 interceptor to 
destroy long-range missiles, reentry vehicles discrimination, 
and the development of high-energy lasers.
    Fifth, deploy new fiscally sustainable capabilities over 
the long term. MDA is complying with the WSARA of 2009 by 
establishing and managing six baselines, cost, schedule, 
technical, test, contract, and operational baselines, 
increasing service and combatant commander participation, and 
increasing emphasis on competition at all phases of a program's 
acquisition life cycle. We are reviewing over $37 billion in 
new contracts for competition over the next 2 years.
    Sixth, expand international missile cooperation. We are 
currently engaged in missile defense projects, studies, and 
analysis with many countries, including Japan, Poland, the 
Czech Republic, Israel, Australia, the United Kingdom, Germany, 
South Korea, NATO, the United Arab Emirates, Bahrain, Saudi 
Arabia, and Kuwait. Additionally, Poland and Romania have 
agreed to host our Aegis Ashore sites and we are cooperatively 
developing the SM-3 II-A interceptor with Japan, in which they 
are investing over $1 billion.
    We also continue to support expert dialogue on cooperative 
efforts with the Russian Federation, whose location of 
surveillance radars would significantly enhance our ability to 
monitor ballistic missile development and flight testing in 
Southwest Asia.
    Relative to the recently expired START, the New START 
actually reduces constraints on the development of the missile 
defense program. Unless they have New START-accountable first 
stages, which we do not plan to use, our targets will no longer 
be subject to START constraints, which previously limited our 
use of air-to-surface and waterborne launches of targets, which 
are essential for the cost-effective testing of missile defense 
interceptors against medium and intermediate-range ballistic 
missile targets in the Pacific area. In addition, under New 
START we no longer will be limited to five space launch 
facilities for launching targets.
    The New START also has no constraints on BMD system 
deployment. Article 5, section 3, of the treaty prohibits the 
conversion of ICBM or sea-launched ballistic missile launchers 
to missile defense launchers, and vice versa, while 
grandfathering five former ICBM silos at Vandenberg Air Force 
Base already converted for GBIs. MDA never had a plan to 
convert additional ICBM silos at Vandenberg. Moreover, we've 
determined that if more interceptors are added to Vandenberg 
Air Force Base it would be less expensive to build a new GBI 
missile field, which is not prohibited by the treaty.
    Regarding sea-launched ballistic missile launchers, some 
time ago we examined the concept of launching BMD interceptors 
from submarines and found it an unattractive and extremely 
expensive option. As the committee knows, we have a very good 
and significantly growing capability for sea-based missile 
defense on Aegis-capable ships.
    In conclusion, MDA is teamed with the combatant commanders, 
services, other DOD agencies, academia, industry, and 
international partners to address the challenges of managing, 
developing, testing, and fielding capabilities to deter the use 
of ballistic missiles and effectively destroy them once 
launched.
    Thank you, Mr. Chairman. I look forward to answering your 
questions.
    [The prepared statement of General O'Reilly follows:]
           Prepared Statement by LTG Patrick J. O'Reilly, USA
    Good morning, Chairman Levin, Senator McCain, other distinguished 
members of the committee. It is an honor to testify before you today on 
the Missile Defense Agency's support to the Ballistic Missile Defense 
Review (BMDR) and our $8.4 billion fiscal year 2011 budget request to 
continue our mission to develop and field an integrated, layered, 
Ballistic Missile Defense System (BMDS) to defend the United States, 
its deployed forces, allies, and friends against ballistic missiles of 
all ranges and in all phases of flight. This budget request reflects 
the strategy and policy stated in the BMDR report and the prioritized 
missile defense needs of our combatant commanders and the Services as 
stated in the latest U.S. Strategic Command's (STRATCOM) Prioritized 
Capabilities List (PCL).
    The Missile Defense Agency has been operating in accordance with 
the principles outlined in last year's Weapons System Acquisition 
Reform Act. This includes establishment of formal baselines for the 
system component managers, Service participation through the STRATCOM-
led Warfighter Involvement Process, and increased emphasis on 
competition at all phases of a program's acquisition life cycle. All of 
these steps, I believe, will maximize the return on the taxpayer's 
investment dollar.
    Under the oversight and direction of the Missile Defense Executive 
Board (MDEB), chaired by the Under Secretary of Defense for 
Acquisition, Technology, and Logistics (USD(AT&L)), MDA proposes a 
fiscal year 2011 program that is balanced to achieve the six strategy 
and policy goals documented in the BMDR report:

        <bullet> Defend the Homeland against a limited ballistic 
        missile attack
        <bullet> Defend U.S. forces, allies, and partners against 
        regional threats
        <bullet> Deploy new systems only after effectiveness and 
        reliability have been determined through testing under 
        realistic conditions
        <bullet> Develop new capabilities that are fiscally sustainable 
        over the long term
        <bullet> Develop flexible capabilities that can be adapted as 
        threats change
        <bullet> Expand international cooperation

             defense of the homeland against limited attack
    The Ground-based Midcourse Defense (GMD) system forms the 
foundation of our Homeland missile defense against limited ICBM attack 
today. We continue to upgrade GMD to increase reliability and 
survivability and expand the ability to leverage new BMDS sensors as 
well as test GMD to accredit our simulations. Since the beginning of 
fiscal year 2009, MDA has delivered five new GBIs, upgraded Fire 
Control and Command Launch Equipment software, completed construction 
of a second GBI missile field at Fort Greely, AK, and delivered a new 
silo and an additional In-Flight Interceptor Communication System Data 
Terminal at Vandenberg Air Force Base (VAFB), CA. Additionally, we are 
completing the missile defense upgrades to the Upgraded Early Warning 
Radar (UEWR) in Thule, Greenland, and we have transferred operation of 
the Cobra Dane Early Warning Radar and the Beale and Fylingdales UEWRs 
to the Air Force. We are continuing planning and design work to upgrade 
the Clear, AK Early Warning Radar.
    We are requesting $1.3 billion in fiscal year 2011 for GMD to 
continue our GBI refurbishment and reliability sustainment programs to: 
help sustain the fleet to 2032 and support a service life extension 
decision around 2027; procure an additional 5 GBIs; complete Missile 
Field 2 in a 14-silo configuration to accommodate a contingency 
deployment of 8 additional GBIs; upgrade GMD Fire Control ground system 
software to ensure GMD leverages BMDS increased discrimination and 
tracking capability as sensor, data fusion and battle management 
network matures; and complete the installation of a second GMD command 
and control node at Fort Greely, AK. Additionally, we will continue 
operations and sustainment of the Sea-Based X-band radar (SBX) platform 
to prepare for transfer of the SBX operations to the U.S. Navy in 2012. 
Finally, we will continue development of technologies to enhance 
Standard Missile 3 (SM-3) variants to protect our Homeland in the 
future by having the capability to intercept long-range ballistic 
missiles early in flight in the regions from which they were launched. 
To validate this concept, the Under Secretary of Defense (AT&L) 
requested the Defense Science Board independently assess the viability 
of developing capability for early intercept of ICBMs. Our GMD 
sustainment, refurbishment, and test strategy gives us the flexibility 
to adjust to the uncertainty in the future ICBM threat. Although, we 
experienced a GBI vendor production break after the last procurement of 
GBIs in 2006, the purchase of five additional GBIs, and supplying 
``limited life'' GBI components for refurbishments will sustain our 
production capacity until 2016 and beyond. We will conduct stockpile 
surveillance of GBIs by testing all limited life components as GBIs are 
refurbished through 2032. Data collected from future GMD flight tests, 
results from the aging surveillance program, and future intelligence 
estimates regarding the pace of ICBM growth will inform decisions on 
the need to procure additional GBIs.
                    defense against regional threats
    Our fiscal year 2011 budget request balances the warfighter's needs 
to develop new capabilities and grow our missile defense capacity. An 
integrated deployment of Aegis BMD and Terminal High Altitude Area 
Defense (THAAD) forms an effective, layered, regional missile defense. 
The Aegis BMD is a mobile system, designed to defeat short- to 
intermediate-range missiles above the earth's atmosphere, and the THAAD 
is a rapidly deployable system, designed to engage short- to medium-
range missiles both above and within the Earth's atmosphere. Aegis has 
more than twice the engagement range of THAAD. Additionally, Patriot 
Advanced Capability 3 can add an additional layer and point defense 
against Short-Range Ballistic Missiles (SRBMs).
    We are developing regional missile defense elements that can be 
adapted to the unique circumstances of each Combatant Command region. 
For example, we plan to deploy missile defenses in Europe in four 
phases as missile threats from the Middle East evolve over time. The 
Phase 1 capability (planned to begin deployment in 2011) will provide 
initial protection for southern Europe from existing short- and medium-
range threats using sea-based interceptors and forward-based sensors. 
Phase 2 (2015) deploys the SM-3 IB interceptor at sea and at an Aegis 
Ashore/land-based SM-3 site. In collaboration with OSD Policy, 
STRATCOM, the Department of State, and U.S. European Command (EUCOM), 
we are preparing to begin negotiations with Romania to locate an Aegis 
Ashore/land-based SM-3 site on its territory in 2015. Phase 3 (2018) 
employs SM-3 IIA on land and at sea to protect NATO from SRBM, MRBM, 
and IRBM threats. Poland has agreed to host this Aegis Ashore/land-
based SM-3 site. The Phase 4 architecture (2020 timeframe) features 
the higher velocity land-based SM-3 IIB, a persistent sensor network, 
and enhanced command and control system to intercept large raids of 
medium- to long-range missiles from the Middle East early in flight.
    Since the beginning of fiscal year 2009, MDA has delivered 27 SM-3 
Block IA interceptors and upgraded 3 additional ships (for a total 
today of 20 Aegis BMD ships); upgraded the USS Lake Erie with the next 
generation BMD fire control software that increases the number of 
threat missiles that can be simultaneously engaged and more effectively 
uses data from missile defense sensors external to the ship. We have 
also delivered two THAAD batteries (the first unit is planned to be 
operationally accepted by the Army by the end of this year). We have 
separately deployed one U.S.-operated X-band AN/TPY-2 radar to Israel 
on a contingency basis. We have also installed C2BMC hardware and 
software upgrades at command and control nodes at U.S. Pacific Command, 
STRATCOM, U.S. Northern Command, and EUCOM and began C2BMC installation 
in the U.S. Central Command.
    We are requesting $1.6 billion for Aegis in fiscal year 2011. We 
will continue the design, qualification, and testing of the SM-3 IB 
interceptor; manufacture 30 SM-3 IB test and production verification 
interceptors (we plan to procure a total of 436 Aegis SM-3 IA and IB 
interceptors by 2015), and upgrade 3 additional Aegis BMD engagement 
ships (2 Aegis BMD 3.6.1 destroyers and 1 4.0.1 destroyer) for a total 
of 23 BMD capable ships by the end of fiscal year 2011 and 38 BMD 
capable ships by 2015. We will continue development and testing of the 
Aegis BMD 4.0.1 and 5.0 fire control system to launch SM-3 IB and IA 
interceptors against threat missiles when they are beyond the range of 
the ship's own radar. We also will continue the co-development of the 
SM-3 IIA interceptor with the Government of Japan to increase 
significantly the area defended by the Aegis BMD system with its 21-
inch diameter rocket motors, two-color seeker, and increased kinetic 
warhead divert capability. We also will continue to design the first 
Aegis Ashore battery that will be installed for testing at the Pacific 
Missile Range Facility in 2012.
    We are requesting $1.3 billion for THAAD in fiscal year 2011. We 
plan to deliver the second THAAD battery (we plan to procure 6 
batteries by 2015), add a second launcher platoon to each battery to 
double the firepower to 48 interceptors, procure 67 interceptors (we 
plan to procure a total of 431 interceptors by 2015), and complete 
hardware and software upgrades to the communications suite to enable 
THAAD to use fused data from all BMDS sensors.
    We are requesting $455 million for sensors in fiscal year 2011. We 
plan to upgrade the AN/TPY-2 radar software to facilitate its use as a 
surveillance radar or as a THAAD battery fire-control radar, optimize 
the radar's ability to leverage assistance by external sensors, and 
support the contingency operations of AN/TPY-2 radars deployed in Japan 
and Israel. We will continue to develop a Concurrent Test, Training and 
Operations capability to provide operational BMDS sensors (including 
the UEWRs, Cobra Dane and Sea-Based X-band radars) the capability to 
conduct training and testing while continuing to provide on-line 
missile defense, upgrade AN/TPY-2 and Sea-Based X-band radar 
discrimination and dense track management software, and conduct ground 
and flight testing to support accreditation of sensor models and 
simulations.
    We are requesting $343 million for Command and Control, Battle 
Management and Communications (C2BMC) in fiscal year 2011. We plan to 
provide automated planners to aid a Combatant Command's deployment of 
BMD assets according to its concept of operations and conduct ballistic 
missile defense battles according to its tactics, techniques, and 
procedures. Furthermore, we will develop and deploy an upgraded version 
of our C2BMC hardware and software to provide new battle management 
functions that enable shoot-look-shoot tactics between layers of U.S. 
and international partners' missile defense assets, control multiple 
BMDS radars, correlate and combine sensor data from multiple sensors 
tracking the same threat into one system track, provide real-time 
awareness of the battle as it develops in accordance with a Combatant 
Command's concept of operations, and enable engagement coordination 
among BMDS elements in accordance with regional Area Air Defense Plans. 
Additionally, C2BMC will participate in and analyze results of ground 
and flight tests to support accreditation of models and simulations and 
support war games and exercises.
    MDA played a significant role in the conduct of the Ballistic 
Missile Defense Review. The agency provided technical analysis and data 
as required by the leaders of the review to support their effort to 
answer the questions posed by Congress. Preliminary analytical results 
were then presented to the departmental leaders, including the 
Secretary and Chairman, who then made recommendations to the President. 
Although MDA provided these architecture assessments, it is important 
to recognize the decision to deploy the recommended European PAA 
architecture was not based solely on detailed performance predictions. 
Rather, the decision to deploy an Aegis SM-3-based architecture to 
Europe was based on the need for a flexible defense against an evolving 
threat from the Middle East. First, the previously proposed European 
missile defense architecture lacked a sufficient number of interceptors 
to defend against the current and emerging numbers of medium-range 
ballistic missiles (MRBMs) being fielded by Iran. Simply put, with a 
notional 2 interceptor shot doctrine, the 10 GBI interceptors proposed 
for Poland would easily be overwhelmed by a raid size of 6 threat 
missiles launched towards European targets. Second, with the European 
PAA, we can deploy a missile defense capability to Europe earlier than 
the previous Program of Record, with GBIs in Poland and an X-Band Radar 
in the Czech Republic. NATO Europe is threatened by a short-range and 
medium-range ballistic missile threat now, so this was an important 
variable in the decision. Upon the completion of testing in 2011, we 
could begin the deployment of proven capabilities to defend against the 
MRBM threat. Third, by creating a re-locatable, land-based version of 
our most capable regional missile defense system, the Aegis Ballistic 
Missile Defense (BMD) system, Combatant Commanders could have the 
capability to adjust their missile defense architectures to address the 
uncertainty of future missile threats without the need to develop a new 
missile defense system. These systems can be deployed in any theater in 
a reasonably short period of time. Fourth, the increased defended areas 
and larger raid size capacity resulting from planned enhancements to 
the Aegis BMD system are expected to increase the cost-effectiveness of 
a European missile defense against the growing missile threat over this 
decade. Finally, while we currently have a limited defense system 
against potential Intercontinental Ballistic Missile (ICBM) threats 
originating in the Middle East or Northeast Asia, there is no technical 
reason to indicate that this system would not be further enhanced by 
the deployments envisioned in Phase 4 of the PAA. It is important to 
note that the missile defense capability needs identified in the BMDR 
are consistent with capability needs listed in the recently approved, 
independently developed, classified STRATCOM missile defense 
Prioritized Capability List.
           proving the ballistic missile defense system works
    A key tenet of the BMDR is to sufficiently test the capabilities 
and limitations of a missile defense system before we begin 
procurement, or we will ``fly before we buy.'' As such, missile defense 
projects are subject to production decisions by USD(AT&L). 
Additionally, we use the Services' standard material release and 
operational certification processes that also rely on developmental and 
operational test data prior to formally fielding initial capability. 
Both THAAD and AN/TPY-2 have production decisions by USD(AT&L) and Army 
Material Review Boards planned for this year. We are requesting $1.1 
billion in fiscal year 2011 to provide targets and support to missile 
defense projects to test new capabilities under developmental and 
operational conditions, including the use of actual threat missiles, to 
support accrediting our models and simulations and production decisions 
by USD(AT&L). In collaboration with the Services' Operational Test 
Agencies, STRATCOM, and the Director, Operational Test and Evaluation, 
we submitted a comprehensive Integrated Master Test Plan (IMTP) in 
March that describes our plan through fiscal year 2015 to conduct over 
150 test events to obtain specific data necessary to accredit our 
models and simulations and support operational assessments. The IMTP 
also describes our testing to support European PAA deployment 
decisions. To support a Phase 1 decision in 2011, we have completed 10 
Aegis BMD intercept tests of short range targets. We will conduct an 
Aegis BMD test against an intermediate-range ballistic missile target 
prior to the Phase 1 deployment. Likewise, there are system level 
ground tests, exercises, and simulations to test system effectiveness 
and interoperability. The IMTP also describes our testing of the two-
stage GBI and several GMD intercept tests against long-range targets. I 
concur with the January 2010 DOT&E January assessment that ``if MDA can 
execute the IMTP as planned, successful VV&A of BMDS models and 
simulations should result, enabling quantitative and objective rather 
than subjective assessments of the BMDS capability in the future.'' I 
further agree with the DOT&E conclusion that ``objective assessments of 
the BMDS capability are still a number of years in the future.''
    Our recent flight test results have been mixed. From October 2008 
through today MDA achieved 5 of 7 successful hit-to-kill intercepts and 
a number of ``firsts'' in BMDS testing. In December 2008, the GMD 
system engaged an IRBM target launched from Kodiak Island, AK, using a 
GBI launched from VAFB in the most operationally realistic test to date 
that demonstrated our ability to fuse sensor data from five on-line 
sensors. Unfortunately, the target in that flight test failed to 
release countermeasures. In March 2009, with soldiers operating the 
system using tactics, techniques, and procedures developed by the U.S. 
Army, we conducted THAAD's first dual salvo endo-atmospheric engagement 
of a threat-representative separating ballistic target. The Navy 
conducted an intercept using an Aegis SM-2 Block IV (terminal defense) 
in February 2009, and we conducted an SM-3 IA intercept in July 2009. 
In October 2009, we supported Japan's intercept test of an SRBM using 
the Japanese destroyer JS MYOKO.
    Although we have had three intercepts out of three previous 
attempts using the GMD system, our newest variant of the kill vehicle, 
relying on data from the Sea-Based X-band (SBX) radar, failed to 
intercept a target in January 2010 during a flight test to measure 
GMD's performance at its maximum operational intercept range. The GBI 
launched successfully from VAFB and the newly designed LV-2 long-range 
target successfully flew for the first time out of the Reagan Test Site 
in the Kwajalein Atoll 7,500 km away. It was a very valuable test 
because we collected extensive data on the performance of the SBX and 
GBI, the advanced exo-atmospheric kill vehicle (EKV), and the target. 
We discovered new failure modes for the SBX, the EKV flew more than 
twice the distance it had flown in previous tests, and we collected 
significant new data on the EKV's ability to acquire, track, and 
discriminate the target. The failure investigation is expected to 
continue for several more months before root-cause is determined and 
verified. It is my intent to immediately correct any deficiency and 
repeat the test as soon as feasible. In contrast, the most recent 
attempt to conduct a THAAD test last December was of no value because 
of a target missile failure. The THAAD interceptor was not launched and 
the system was not exercised. Despite the cost of more than $40 million 
for that test and subsequent program delays, we gained no new 
information on the performance of the THAAD system.
    The two largest challenges to executing the U.S. missile defense 
program is acquiring a cost effective set of reliable targets and 
improving quality control. Over the past year we have initiated steps 
to acquire a new set of targets of all ranges, including Foreign 
Material Acquisitions, to verify the performance of the BMDS. Our new 
target acquisition strategy, initiated in fiscal year 2009, procures 
targets in production lots to increase competition, quality control, 
reduce costs, and ensures the availability of backup targets starting 
in 2012. For the next 3 years, we must continue to rely on an intensive 
inspection and oversight process to motivate mission assurance.
    Due to the precise nature of the operation of missile defense 
systems, very high standards of quality control and an enduring culture 
of disciplined mission assurance by the industry workforce is 
essential. We have had many successes in improving our prime contractor 
and supplier quality assurance. In each case, companies have been 
willing to identify shortfalls, invest in new capital assets and attain 
experienced leadership in changing cultures to establish the enduring 
discipline required to consistently deliver precision missile defense 
products. However, not all companies have sufficiently improved. Until 
we complete planned competitions, including the greater use of firm 
fixed price contracts, we will have to motivate greater attention by 
senior industry management through intensive government inspections, 
low award fees, the issuance of cure notices, stopping the funding of 
new contract scope, and documenting inadequate quality control 
performance to influence future contract awards by DOD.
                   hedging against threat uncertainty
    Missile defense technologies must be developed to adapt and upgrade 
our systems to counter future changing threats. In accordance with the 
PCL, we are focusing our future technologies in four areas: (1) 
developing more accurate and faster tracking sensors on platforms to 
enable early fire control solutions and intercepts; (2) developing 
enhanced command and control networks to link and rapidly fuse sensor 
data to handle large raid sizes of missile threats; (3) developing a 
faster, more agile version of our SM-3 interceptor to destroy long-
range missiles early in flight; and (4) developing discrimination 
techniques to rapidly resolve Reentry Vehicles from other nearby 
objects. Additionally, we continue to research technologies for 
destroying boosting missiles with directed energy. We are developing 
more mature technologies for mid-term deployment decisions around 2015 
and conducting science and technology experiments for far-term (around 
2020) advanced capability deployment decisions.
    One of the highest priority capabilities requested by the 
warfighter community is a persistent and precise missile tracking 
capability. We are requesting $113 million in fiscal year 2011 for the 
Space Tracking and Surveillance System (STSS) and Near Field Infra-Red 
Experiment satellite operations. This space operations work will 
demonstrate the utility of remote missile tracking from space and 
reduce the risk of integrating the remote tracking data of future 
satellites into missile defense fire control systems. MDA launched two 
STSS demonstration satellites on 25 September 2009. We continue testing 
and operating the two demonstration satellites, including cooperative 
tests with other BMDS elements, and demonstrating these satellites 
against targets of opportunity and scheduled tests involving targets. 
We are also requesting $67 million in fiscal year 2011 for a new 
program start, the Precision Tracking Space System (PTSS), comprised of 
a network of remote tracking satellites, communications, and ground 
stations. Key attributes of the PTSS are its limited mission, 
uncomplicated design, lower costs, use of mature technologies, and 
integration with legacy data management and control systems to provide 
a persistent remote missile tracking capability of the areas of the 
earth that are of most concern for missile defense. Lessons learned 
from the two STSS demonstration satellites currently on orbit will 
inform decisions on the development of a prototype PTSS capability by 
the end of 2014. After validating the prototype design in ground 
testing in 2014, we plan to fly the first prototypes while we have 
industry teams compete to produce the remaining satellite constellation 
for initial constellation operations by 2018.
    We are also requesting $112 million for fiscal year 2011 for the 
development and testing of a remotely piloted vehicle (RPV) based 
missile tracking sensor system, or Airborne Infrared (ABIR) sensor 
system, to track large raids of ballistic missiles early in flight. We 
are completing an analysis of the optimum RPV platform and sensors to 
integrate into an effective early missile tracking system.
    For fiscal year 2011, we are requesting $52 million for C2BMC 
enhancements to develop a net-centric, Service-oriented architecture, 
to rapidly fuse sensor data and provide data to distributed fire 
control systems to intercept enemy reentry vehicles early, optimize 
shoot-look-shoot opportunities, and economize the number of 
interceptors required to defeat a raid of threat missiles. We are 
pursuing enhanced C2BMC capabilities and experiments to integrate 
interceptor fire control systems with ABIR, STSS, and other new sensor 
technologies. We work closely with STRATCOM and the COCOMs to develop 
and deliver the optimum C2BMC architectures in their regions.
    We are requesting $41 million in fiscal year 2011 to develop 
components that increase the speed of our SM-3 family of interceptors 
with advanced divert capability, faster boosters, and lighter kill 
vehicles. We are studying the use of a derivative SM-3 IB kill vehicle 
and derivatives of the first and second stages of the SM-3 IIA 
interceptor as part of the development of the SM-3 IIB long-range 
missile interceptor.
    We are requesting $99 million for fiscal year 2011 to conduct 
continued research on high energy lasers. This past year we saw the 
significant accomplishments of the Airborne Laser Test Bed (ALTB) as it 
completed preparatory tests which ultimately led to two successful and 
historic experimental shoot-downs of a solid rocket on February 3, 
2010, and a boosting, liquid-fueled, Foreign Material Acquisition (FMA) 
target on February 11, 2010. We are preparing for another test against 
an FMA, at nearly twice the distance, later this spring. We will 
continue to investigate multiple high energy laser technologies to 
characterize their performance while validating the modeling and 
simulation of long range directed energy beam propagation and beam 
control. Additionally, we are currently supporting the USD(AT&L)/
Director for Development, Research, and Engineering (DDR&E) 
comprehensive review of all DOD high energy laser programs to establish 
a department wide program for developing and applying high energy laser 
capabilities. We anticipate this review will define the ALTB's role in 
the future development of high energy lasers.
   develop new, fiscally sustainable capabilities over the long term
    MDA's preferred approach to developing new missile defense 
capabilities is to evolve and upgrade existing capabilities to leverage 
the cost-effectiveness of utilizing existing Service training, 
personnel and logistics infrastructures. The fiscal sustainability of 
missile defense systems is largely determined by the cost of operations 
and sustainment. Therefore, MDA executes ``hybrid management'' of 
projects with the designated lead Services by embedding ``Service 
cells'' in MDA joint project offices to make design and development 
decisions associated with Doctrine, Organization, Training, Leadership, 
Personnel, and Facilities to assure MDA products efficiently align with 
Service processes and operational concepts.
    MDA has established six baselines (cost, schedule, technical, test, 
contract, and operational baselines) to plan and manage the execution 
of missile defense projects. I approve the baselines of technology 
programs, but jointly approve with lead Service Acquisition Executives 
the baselines of MDA projects in product development. These baselines 
not only assist in our cost-effective management of MDA projects, but 
also provide visibility to the MDEB and Congress on the progress of our 
execution. The baselines of all of our projects are established in 
spring and will be submitted to Congress in a Baseline Acquisition 
Report (BAR) in June. Finally, these baselines will form the basis for 
USD(AT&L) production decisions.
            expand international missile defense cooperation
    As stated in the BMDR and Quadrennial Defense Review, a key 
strategic goal is to develop the missile defense capacity of our 
international partners. We are currently engaged in missile defense 
projects, studies and analysis with over 20 countries. Our largest 
international partnership is with Japan. We are co-developing the SM-3 
IIA missile, studying future architectures, and supporting their SM-3 
IA flight test program. In Europe, we are participating in the NATO 
Active Layer Theater Ballistic Missile Defense command and control 
program and war games, continuing technology research projects with the 
Czech Republic, and planning for the European PAA deployments, which 
include the installation of Aegis Ashore sites, one each in Romania and 
Poland. Collaboration with Israel has grown to involve the development 
and deployment of the Arrow Weapon System, which is interoperable with 
the U.S. missile defense system. MDA has completed and the United 
States is now in the final negotiation of an Upper Tier Project 
Agreement with Israel for cooperative development of an exo-atmospheric 
interceptor and amending the U.S.-Israel Arrow Weapon System 
Improvement Program agreement to extend the system's battle space and 
enhance its ability to defeat long-range ballistic missiles and 
countermeasures. MDA and Israel are also jointly developing the David's 
Sling Weapon System to defend against shorter-range threats, to include 
some ranges that the PAC-3 system cannot engage. Additionally, MDA is 
active in supporting the Combatant Commands through international 
symposiums, bilateral and multi-lateral dialogs, planning, and analysis 
with Allies and international partners to help them understand the 
benefits of integrated missile defense in their regions.
                               conclusion
    Missile defense is a key part of our national security strategy 
described in the BMDR to counter the growing threat of ballistic 
missile proliferation. The New START treaty has no constraints on 
current and future components of the BMDS development or deployment. 
Article V, Section 3 of the treaty prohibits the conversion of ICBM or 
Submarine Launched Ballistic Missile (SLBM) launchers to missile 
defense launchers, and vice versa, while ``grandfathering'' the five 
former ICBM silos at Vandenberg AFB already converted for Ground Based 
Interceptors. MDA never had a plan to convert additional ICBM silos at 
Vandenberg and intends to hedge against increased BMDS requirements by 
completing construction of Missile Field 2 at Fort Greely. Moreover, we 
determined that if more interceptors were to be added at Vandenberg 
AFB, it would be less expensive to build a new GBI missile field (which 
is not prohibited by the treaty). Regarding SLBM launchers, some time 
ago we examined the concept of launching missile defense interceptors 
from submarines and found it an unattractive and extremely expensive 
option. As the committee knows, we have a very good and significantly 
growing capability for sea-based missile defense on Aegis-capable 
ships.
    Relative to the recently expired START Treaty, the New START treaty 
actually reduces constraints on the development of the missile defense 
program. Unless they have New-START accountable first stages (which we 
do not plan to use), our targets will no longer be subject to START 
constraints, which limited our use of air-to-surface and waterborne 
launches of targets which are essential for the cost-effective testing 
of missile defense interceptors against MRBM and IRBM targets in the 
Pacific area. In addition, under New START, we will no longer be 
limited to five space launch facilities for target launches.
    MDA is working with the combatant commanders, Services, other DOD 
agencies, academia, industry and international partners to address the 
challenges and difficulties of managing, developing, testing and 
fielding new military capabilities to deter use of ballistic missiles 
and effectively destroy them once launched. Implementing these 
warfighter priorities takes time, since the production time for a 
missile and radar is over 2 years and establishing and training a unit 
to create and deploy a military capability takes an additional year. 
Our fiscal year 2011 budget funds the warfighters' near-term priorities 
while building the foundation of a layered defense system with our 
partners and friends that can provide an adaptive, cost-effective 
strategy to counter ballistic missile proliferation in the future.
    Thank you, Mr. Chairman. I look forward to answering your 
questions.

    Chairman Levin. Thank you very much, General.
    Admiral Macy.

  STATEMENT OF RADM ARCHER M. MACY, JR., USN, DIRECTOR, JOINT 
  INTEGRATED AIR AND MISSILE DEFENSE ORGANIZATION, AND DEPUTY 
      DIRECTOR FOR FORCE PROTECTION, J-8, THE JOINT STAFF

    Admiral Macy. Thank you, Chairman Levin, Senator McCain, 
distinguished members of this committee. I appreciate the 
opportunity to discuss missile defense and the roles and 
functions of the JIAMDO with you. I have submitted written 
testimony for the committee and I would like to take a few 
minutes to summarize the key points.
    The JIAMDO is a small group of military and government 
civilian personnel that supports the Chairman of the Joint 
Chiefs of Staff (CJCS), the Joint Staff, and the combatant 
commanders. Our mission is to identify and coordinate joint 
requirements for air defense, cruise missile defense, and BMD 
to support development of solutions for the warfighter.
    Key tasks for my organization include: advocating for the 
warfighter's desired air and missile defense capabilities; 
providing air and missile defense subject matter expertise and 
advice to the CJCS, and to the Commander of STRATCOM; 
facilitating combatant command and service collaborative 
efforts to identify and develop operational concepts, joint 
requirements, system interoperability, and operational 
architectures; developing and maintaining an air and missile 
defense road map; and finally, assessing and validating 
integrated air and missile defense capabilities.
    Our manning is tailored to provide current operational 
expertise in air and missile defense and is drawn from across 
the services. Our staff officers include Air Force E-3 AWACS 
air battle management specialists, Army Patriot surface-to-air 
missile officers, Navy Aegis surface warfare officers, and 
Marine Corps fighter pilots. The background and experience of 
these military personnel provide them operational credibility 
and standing when discussing requirements with the warfighter 
and enables them to translate operational needs into 
requirements documents, analysis and study activities, and 
demonstrations. It also provides a pool of experts to support 
the CJCS in the development of policies and programs for the 
warfighter.
    JIAMDO provides the CJCS with direct input and assessment 
on combatant command air and missile defense needs and options 
on how to meet those needs. JIAMDO is very focused on ensuring 
DOD is delivering capabilities that support combatant command 
operational plans and that address their air and missile 
defense gaps. We are an important conduit for the combatant 
commanders to get their air and missile defense needs into DOD. 
We have liaison personnel at Central Command, European Command, 
STRATCOM, Joint Forces Command, Pacific Command, Northern 
Command, NORAD, U.S. Forces Korea, and U.S. Forces Japan, and 
we support the STRATCOM in their role as the air and missile 
defense integrating authority.
    JIAMDO applies its extensive air and missile defense 
expertise, operational analysis capabilities, and Pentagon 
process knowledge to serve as a link between the combatant 
commands and the joint and Service staffs.
    JIAMDO has been positioned by the CJCS to be at the 
intersection of the requirements processes for air defense and 
BMD and to act as an integration mechanism for harmonizing both 
common and differing needs across multiple services, platforms, 
and systems. Some recent and upcoming activities highlight 
this. During the BMDR, I was one of the three directors of the 
review and two of my senior officers served as co-chairs of the 
programmatic, process, and execution working groups, and 
requirements teams.
    JIAMDO also recently completed a BMD inventory analysis, 
the Joint Capability Mix (JCM) Study, as alluded to by the 
chairman. This was a STRATCOM requested study to determine the 
warfighter's requirement for upper tier interceptors. Working 
with the combatant commands, the Services, and MDA, JIAMDO was 
able to quantify how many interceptors were needed and the 
effect those numbers had on warfighting capability. It is 
important to emphasize that this was not a unilateral effort by 
JIAMDO and in fact would not have been possible without the 
support, input, and participation of the MDA and the combatant 
commands.
    With the advent of the PAA for missile defense, we are 
embarking on a new round of analysis to understand the 
implications of that decision on our needs for sensors, 
weapons, and systems. The PAA concept will affect each 
combatant commander differently and each will have their own 
requirements for accomplishing their BMD responsibilities. In 
order to integrate these needs, we are undertaking a new round 
of analysis, the JCM-3 study. This is in its initial stages and 
we are targeting completion for about this time next year.
    Finally, as the Director of JIAMDO, I am the U.S. 
representative to the NATO Air Defense Committee and am 
responsible for addressing air and missile defense-related 
issues in NATO and for drafting and coordinating U.S. 
positions. In this role I recently had the privilege of working 
with the NATO staff and member countries to discuss the 
application of the PAA in Europe and the potential for regional 
missile defense capability in the NATO context.
    I should also note that I had the opportunity to observe 
yesterday when the North Atlantic Council was briefed on the 
PAA in Europe by the Vice CJCS, General Cartwright.
    In conclusion, developing the right capability for the 
warfighter is a challenging task. JIAMDO is a unique 
organization positioned and manned to meet this challenge and 
to support joint and coalition air and missile defense.
    Thank you for your time and I look forward to answering 
your questions.
    [The prepared statement of Admiral Macy follows:]
             Prepared Statement by RADM Archer M. Macy, USN
    Thank you, Chairman Levin, Senator McCain, and distinguished 
members of the committee. I appreciate the opportunity to testify. It 
is an honor and pleasure to join Dr. Miller, Mr. Gilmore, and 
Lieutenant General O'Reilly to discuss missile defense and the roles 
and functions of the Joint Integrated Air and Missile Defense 
Organization.
    The Joint Integrated Air and Missile Defense Organization is a 
small group of 30 military and government civilian personnel with 
support staff that supports the Chairman of the Joint Chiefs of Staff, 
the Joint Staff, and the combatant commanders. Our mission is to 
identify and coordinate joint requirements to support efforts to 
develop air defense, cruise missile defense, and ballistic missile 
defense solutions for the warfighter. Key tasks for the organization 
are:
    Advocating for warfighter's desired air and missile defense 
capabilities within the requirements and budgeting processes.
    Providing air and missile defense subject matter expertise and 
advice to the Chairman, Joint Chiefs of Staff and Commander U.S. 
Strategic Command (STRATCOM).
    Facilitating combatant command and Service collaborative efforts to 
identify and develop operational concepts, joint requirements, system 
interoperability, and operational architectures.
    Developing and maintaining an air and missile defense roadmap to 
correlate capabilities to weapons systems and track progress towards 
delivering those capabilities to the warfighter.
    Assessing and validating integrated air and missile defense 
capabilities by means of simulations, technology demonstrations, and 
wargames.
         joint integrated air and missile defense organization
    These are challenging activities that will be discussed in more 
detail, but I want to provide some background on how Joint Integrated 
Air and Missile Defense Organization (JIAMDO) is structured. We are a 
Chairman Controlled Activity that functions within the Joint Staff. 
Chairman Controlled Activities are specialized organizations designed 
to address unique, overarching areas that are of joint interest. 
JIAMDO's manning is tailored to provide current operational expertise 
in air and missile defense and is drawn from across the Services, and 
in our case is primarily from air and missile defense specialties. 
Some, examples are: Air Force E-3 AWACS air battle management 
specialist, Army Patriot surface-to-air missile officers, Navy Aegis 
Surface Warfare Officers, Marine Corps F/A-18 fighter pilot. The 
background and experience of these military experts allows them to 
relate at an operational level with the warfighter and enables them to 
translate operational needs into requirements documents, analysis and 
study activities, and demonstrations. It also provides an unequaled 
pool of experts to support the Chairman, Joint Chiefs of Staff in the 
development of policies and programs for the warfighter. JIAMDO reports 
to the Chairman through the Joint Staff Director for Force Structure, 
Resources, and Assessment (Joint Staff J-8).
    Originally the organization was focused on addressing air and 
missile defense within a single theater of operations. However, the 
theater ballistic missile threat is evolving and one of its principal 
characteristics is increasing range, which enables a threat country to 
attack targets thousands of miles away. This attack could be crossing 
through one or more combatant commanders' area of operations or 
Theaters, which has made the term ``Theater'' missile defense obsolete. 
Because of this, the decision was made to change the name of the 
organization to the Joint ``Integrated'' Air and Missile Defense 
Organization. This reflected several factors. First, was the 
Department's overall shift to address the emergence of longer range 
ballistic missile threats. Second, it recognized the desire to more 
closely integrate air defense capabilities with ballistic missile 
defense capabilities. Third, it helped align the organization to 
support STRATCOM, which as a result of the changing air and missile 
defense environment had been assigned the task to synchronize planning 
for global missile defense.
                joint integrated air and missile defense
    Before continuing, I want to take a moment to provide a brief 
summary of what we mean by the air and missile defense concept that we 
support. Joint Integrated Air and Missile Defense is defined as the 
integration of capabilities and overlapping operations to defend the 
Homeland and U.S. national interests, protect the Joint Force, and 
enable freedom of action by negating an adversary's ability to achieve 
adverse effects from their air and missile capabilities. This 
capability provides full spectrum dominance against aerial threats--
space-based, and ballistic missile reentry vehicles; intercontinental 
through short-range ballistic missiles; cruise missiles; manned and 
unmanned aircraft; rockets, artillery, and mortars (RAM). The 
Protection extends from the Homeland, through friendly nations and 
coalition partners in a region, and within areas of military 
operations.
    The key enabling factors for integrated air and missile defense 
include the abilities to provide a battle space picture in which the 
commander is confident of it's accuracy and completeness; that key 
intercept systems and shooters have the same high quality picture; that 
we can defend a broader area through mutually supporting, joint, 
interoperable forces; that we can increase the commander's confidence 
of successful engagement; and, that the commander has the flexibility 
to rapidly shift resources to best focus their effects on the 
adversary.
                   jiamdo as part of the joint staff
    JIAMDO is the Chairman, Joint Chiefs of Staff cadre of experts on 
air and missile defense. One of the duties of the Director, JIAMDO is 
to serve as the Deputy Director for Force Protection on the Joint 
Staff. In this function, the Director is responsible for overseeing the 
full scope of force protection activities in the capabilities 
development processes including those for air and missile defense. 
JIAMDO provides the Chairman direct input and assessments on combatant 
command air and missile defense needs that are put forward in their 
Integrated Priority Lists. Options on how to address those needs are 
developed in conjunction with the Services, and JIAMDO tracks the 
recommended courses of action from approval through the budgeting 
process to fielding.
    Weapon system fielding is another area where JIAMDO works critical 
issues in support of the Chairman. The fielding plan for new missile 
defense systems developed by MDA identified a need for the department 
to develop a process to transition and transfer those systems from MDA 
to the Services. JIAMDO worked closely with Service staffs and MDA to 
develop business rules and processes to handle this, and was the lead 
to take the new process to the JROC for approval.
    The most recent example of support to the Chairman was during the 
Ballistic Missile Defense Review (BMDR). JIAMDO had four key roles in 
the BMDR. The Director, JIAMDO, was one of the directors of the review; 
other JIAMDO personnel served as co-chair of the Programmatic Process & 
Execution Working Group, led the Requirements issue team, and served in 
the directorate of activities. In short, JIAMDO played a central role 
in the development of the BMDR.
           the air and missile defense integrating authority
    In July 2008, STRATCOM was designated the Air and Missile Defense 
Integrating Authority (AMD IA) and directed to serve as the combatant 
commands' representative for air and missile defense. This was an 
outgrowth of STRATCOM's ballistic missile defense role where they are 
the warfighter voice to MDA. JIAMDO's role was also expanded at this 
time to include support to STRATCOM in the AMD IA capacity. This is a 
natural synergy where JIAMDO is able to apply its more extensive air 
and missile defense expertise and capabilities process knowledge to 
support the AMD IA. In addition to serving as a link between STRATCOM 
and the Joint and Service staffs, and facilitating meetings, document 
staffing, and briefings, JIAMDO also provides operational expertise and 
analytic support. This will be critical as the Department evolves the 
Prioritized Capabilities List, currently how ballistic missile 
requirements are documented for MDA, to encompass the full scope of air 
and missile defense. The expanded Prioritized Capability List will 
provide transparency and insight for developers in the Services for air 
defense, and in MDA for missile defense. It will also provide a common 
requirements view for senior decision makers.
                   jiamdo and the combatant commands
    A key part of our contribution is advocacy for combatant commands. 
JIAMDO is very focused on ensuring the Department is delivering 
capabilities that support combatant command Operational Plans and that 
address their air and missile defense gaps. The principal avenues used 
to coordinate the warfighters needs are the capability gap assessments 
and through a liaison program.
    The capability gap assessment is an annual Department process to 
address the combatant commands' critical warfighting capability gaps in 
their Integrated Priority Lists or IPLs that identify risk in 
accomplishing their specific Unified Command Plan missions. Integration 
and assessment of air and missile defense inputs from the IPLs are the 
responsibility of JIAMDO. Through direct action officer level 
discussions with combatant command staffs we coalesce similar inputs 
from multiple combatant commands into what we call synthesized gaps. At 
this point JIAMDO begins a detailed cross-walk of gaps to current and 
planned programs, assesses the ongoing efforts to close or mitigate 
those gaps, and provides a balanced approach to recommend programmatic 
and/or non-programmatic solutions to close or mitigate remaining gaps 
against available resources.
    Again, through discussions with combatant command staffs we query 
them as to whether the plan fully meets their needs, partially 
satisfies it, or does not meet it at all, and carry that position 
forward in Department discussions and reviews. We also use our 
relationship with the combatant commands to gain insight into how to 
quantify the risk for those gaps that are not fully satisfied. JIAMDO 
then prepares a formal briefing for the JROC that addresses how the 
gaps are being met, or recommendations on how to address them, which in 
some cases means accepting risk. As is true throughout this process, 
JIAMDO coordinates directly with the combatant command staffs on all 
recommendations.
    From this point forward the coordination becomes more formal. The 
Director of JIAMDO will accompany members of the Joint Staff, Services, 
and OSD on several trips to the combatant command headquarters. The 
first trip occurs after the JROC is briefed to ensure combatant 
commands understand and agree with the plan to address their gaps. For 
this trip JIAMDO will brief the consolidated gaps and recommended 
mitigation for the combatant command's gaps from the synthesized group 
and specifically match it to planned actions. On a follow-on trip, the 
Vice Chairman of the Joint Chiefs of Staff and the Director of JIAMDO 
will go to individual Combatant Commanders and provide a forum to more 
closely examine plans to mitigate that command's gaps and provide an 
opportunity to address other pressing concerns. This close coordination 
and contact from the action office level up to the Flag level is the 
way we meet our advocacy responsibilities and in my opinion the key to 
successful capabilities development. This direct and repeated contact 
with the combatant commands enables the Department to understand the 
full impact of its decisions on the warfighter.
    In addition to JIAMDO's role in the joint staff capabilities 
processes, we have liaison personnel at CENTCOM, EUCOM, STRATCOM, 
JFCOM, PACOM, NORTHCOM, NORAD, USFK, and USFJ. The liaison provides a 
direct link between JIAMDO and the combatant commands. The liaisons are 
located within the combatant command headquarters staffs, and work air 
and missile defense day-to-day issues for both the hosting command and 
JIAMDO. In many cases they serve as both liaison and as the command's 
expert on joint air and missile defense. The ability to leverage direct 
combatant command input on key issues, as well as analysis and 
wargaming inputs, enables all of our activities to maintain a 
warfighting focus. This relationship has served both the combatant 
commands and JIAMDO well, and provides a responsive and accurate avenue 
to gain answers to immediate inquiries within the Department of 
Defense.
                   jiamdo in the requirements process
    With that background, I would like to move on to discussing what 
JIAMDO's role is in the Department requirements processes. Meeting the 
challenges of countering air and missile threats is inherently a joint 
activity that requires not just the participation of assets from all 
our Services, but coherently integrated employment of those assets. 
Similarly, the proper development of requirements and weapon systems 
depends on the participation of all our Services, combatant commanders, 
and key Agencies. JIAMDO serves at the intersection of the requirements 
processes for air defense and for ballistic missile defense, and acts 
to integrate and harmonize both their common and differing needs across 
multiple services, platforms, and systems.
    The Joint Capabilities Integrated Development System (JCIDS) is the 
Department process used for air defense requirements and JIAMDO is at 
the hub of this process. I chair the first level of formal review and 
approval in JCIDS, and my deputy runs the joint working group that 
directs and vets analysis and requirements. As I mentioned earlier, 
JIAMDO also supports STRATCOM as AMD IA in their development of the 
Prioritized Capability List, which is MDA's equivalent of JCIDS. 
JIAMDO's alignment with the AMD IA positions us to fully examine 
employment and development interdependencies between ballistic missile 
defense and air defense, and explore the potential for innovative 
cross-utilization of technologies. In effect, JIAMDO serves as a bridge 
between the Department's capabilities development process and the PCL 
process and enables the warfighter's needs to remain as the focus of 
both those activities
    This is why JIAMDO is manned with air and missile defense 
operational personnel and positioned within the joint staff. These 
unique attributes, and the growing linkage between JCIDS and the PCL 
allows us to understand what is needed for the joint fight, and 
recognize opportunities to leverage capabilities across the air and 
missile defense mission area.
    the integrated air and missile defense roadmap and operational 
                              architecture
    One of the techniques central to achieving the vision of integrated 
air and missile defense (IAMD), in the practical landscape of budgets, 
technology and time, is the Integrated Air and Missile Defense Roadmap, 
which supports the IAMD Operational Architecture. JIAMDO works with 
STRATCOM, the Combatant Commands, and the Services, to develop the 
roadmap as a culmination activity where the hardware needed to meet 
operational concepts, architectures, and requirements is brought 
together to provide a moving snapshot of progress toward meeting 
warfighter needs. Getting to this point requires significant effort in 
many areas. It begins by bringing the Services and combatant commands 
to agreement at the macro level on what the air and missile defense 
problems are, now and in the future, and what the desired end state is. 
An Operational Concept does that. Through a process of joint meetings 
and discussions, and iterative written drafts, a document is developed 
that describes the end state of joint air and missile defense 
employment and shortfalls that must be overcome to reach it. That 
concept forms the basis for developing an operational architecture 
which in essence is a hierarchical listing of mission tasks that must 
be accomplished to execute air and missile defense. The Operational 
Architecture provides a common lexicon and conceptual structure that 
can be used across the Services to delineate what tasks a specific 
weapon systems must be capable of based on its role in the air and 
missile defense mission. The architecture does not specify what 
equipment should be used to conduct a task, only what tasks must be 
completed to enable joint employment. It is a necessary first step in 
order to develop the systems architecture which does specify the 
hardware and software that will be used for each task. This assortment 
of documents provides the necessary framework and structure the 
Services need to be able to build joint systems that enable the 
warfighter to have a plug and fight capability across the Services.
    The following example may help explain this process. Today's 
surface-to-air missiles (SAMs) have very long fly-out ranges. In order 
to engage a target the SAM needs a radar to detect and track that 
target and provide tracking information to the missile. Historically, 
SAMs have their own organic radar positioned side by side with it, like 
the Patriot and Aegis weapon systems. Unfortunately, that means that in 
many cases, and especially for low altitude targets, the SAM's fly-out 
range is well beyond where its organic radar can see. To regain that 
lost range, another radar that is closer to the target can be used as a 
surrogate for the SAM's organic radar. The closer radar, which can be 
airborne and from another Service, digitally replaces the SAM's organic 
radar track. The SAM is now able to fly-out to its maximum range. One 
of the desired end states in the current operational concept is to be 
able to have an Army radar provide the target tracking data to a Navy 
SAM to engage low altitude cruise missiles beyond the Navy radar's line 
of sight. However, before that happens there must be agreement that 
there is a need (Requirement) for this capability against low altitude 
threats; the idea of jointly engaging needs to be described in 
operational terms (Operational Concept); a list of tasks to be executed 
must be determined and documented (Operational Architecture); and 
identification of what hardware and software is needed must be compiled 
(Systems Architecture). The lynchpin in the process is developing it 
all jointly so that regardless of which Service the SAM or radar is 
from the capability is there to complete the engagement.
    We have found that using a roadmap is the best method to bring 
these disparate but related pieces of information together. In close 
coordination with the Services and combatant commands, we have built an 
IAMD Roadmap which identifies a way forward for developing, and 
ultimately fielding, joint capabilities described in the operational 
concept/architecture. The purpose of IAMD Roadmaps is to enhance senior 
leader abilities to make better-informed and timely decisions. The 
Roadmap examines capabilities of the Service's individual systems 
within a Family-of-Systems context and projects how these systems will 
contribute to achieving desired Joint capabilities. Specifically, the 
JROC-approved IAMD Roadmap Version 3 defined Air and Cruise Missile 
Defense (ACMD) capabilities that will enable the warfighter to employ 
Service specific and Joint IAMD capabilities within an integrated Joint 
Engagement Zone. Additionally, Version 3 addresses the Wide Area Air 
Surveillance (WAAS) challenges for the defense of the Homeland against 
air and cruise missile threats and includes a Ballistic Missile Defense 
(BMD) Appendix. Further, IAMD Roadmap Version 3 made recommendations 
which influenced Program Review (PR)-11 studies and will inform Program 
Objective Memorandum (POM)-12 budget planning. The JROC accepted the 
Roadmap recommendations for action and requested that JIAMDO return to 
the JROC to provide an update on the status of those recommendations, 
an assessment of kill chains that cross Service lines, and Service 
implementation of IAMD Roadmap in POM-12. Future IAMD Roadmaps will be 
developed in time to support budget decisions and influence guidance 
for developing the force.
    The Department has documented the operational needs for air defense 
in Joint Capability Documents and in the Prioritized Capabilities List 
for ballistic missile defense, and JIAMDO has published the Operational 
Concept and Operational Architecture. A System Architecture as well as 
the next version of the Integrated Air and Missile Defense Roadmap is 
in development.
       assessing operational architectures and operating concepts
    A concurrent responsibility for the Joint Integrated Air and 
Missile Defense Organization is assessing and validating operational 
concepts and architectures, and helping combatant commands and Services 
define and refine requirements. This is performed primarily through 
studies and analyses and modeling and simulation. Study activities vary 
from inventory analysis to examinations of surveillance coverage and 
options for various mixes of surveillance sensors. A ballistic missile 
defense study is illustrative of this area. JIAMDO recently completed 
an inventory analysis, Joint Capability Mix (JCM) Study, in support of 
STRATCOM. They had requested a study to determine what the warfighter 
requirement was for upper tier interceptors for ballistic missile 
defense. The information was needed to support production and budget 
decisions. Working with the combatant commands, the Services, and the 
Missile Defense Agency (MDA), JIAMDO was able to quantify how many 
interceptors were needed and the affect on warfighter capability. The 
results were used to support recent programming decisions on missile 
defense. It is important to emphasize that this was not a unilateral 
effort by JIAMDO, and in fact would not have been possible without the 
support, input, and participation of the MDA and all the combatant 
commands.
    With the advent of the Phased Adaptive Approach (PAA) for missile 
defense, we are embarking on a new round of analysis to understand the 
implications of that decision on our needs for sensors, weapons and 
systems. The PAA concept will be applied in the different areas of 
responsibility of the combatant commanders, and each will have their 
own needs for how to accomplish their ballistic missile defense 
responsibilities. In order to integrate these needs across the 
Department, we are the initial stages of conducting the next round of 
analysis in this area with JCM-3, which we are targeting for completion 
about this time next year. I have included a graphic on the Senior 
Review Group of the study to illustrate the inclusive approach we use 
for our analysis.
    Modeling, simulation, and wargames are also used for analysis. A 
centerpiece of JIAMDO's analysis is the Nimble Fire modeling and 
simulation activity. Nimble Fire is a U.S. classified operator-in-the-
loop simulation where Air Force, Navy, Marine Corps, and Army 
operational personnel come together to execute joint air and missile 
defense missions. The events are structured to allow operational 
personnel to employ as they deem appropriate and the data we obtain is 
used to define and refine capability gaps, requirements, concepts, and 
in some instances employment techniques. It is a fully functional joint 
architecture capable of executing current and future concepts with 
operationally representative positions for Aegis, Patriot, AWACS, E-2, 
F/A-18, F-15, F-22, and JLENS among others. The simulation can conduct 
distributed operations to U.S. and overseas military locations and 
annually executes a combined air, cruise missile, ballistic missile 
defense event in conjunction with MDA's Missile Defense Integrated 
Operations Center simulation at Colorado Springs. Analysis events are 
based on combatant command war plans and routinely have participants 
from the commands in the operational positions. Results are out-briefed 
to the combatant command as well as the Services and agencies. Nimble 
Fire is a one of a kind capability that has proven to be invaluable in 
analyzing concepts and requirements.
    Two of the premier ballistic missile defense wargames, Nimble 
Titan, and the Ballistic Missile Defense System (BMDS) Wargame, are not 
conducted by JIAMDO, but JIAMDO provides analytical support and 
coordinates combatant command participation and input. Nimble Titan is 
sponsored by STRATCOM and led by the Joint Force Component Command, 
Integrated Missile Defense (JFCC IMD). It is a policy and military 
wargame designed to assess and evaluate coalition and allied 
participation in missile defense. U.S. and international missile 
defense experts from both ministries of foreign affairs and ministries 
of defense take part in the events. Eight nations currently participate 
with more countries to be added in 2012. Insights from these wargames 
allow the U.S. and its partners to identify potential policy and 
military issues such as command and control, information sharing, and 
coalition decision making.
    The BMDS Wargame, sponsored by the MDA, is a U.S. only classified 
tactical level simulation that brings together warfighters and 
developers to work collaboratively to examine how to fight the future 
ballistic missile defense system. This wargame explores areas such as 
shot doctrine, sensor control, interceptor inventory management, and 
force employment. JIAMDO provides development, planning, execution, and 
analytic support for these wargames. We also leverage findings from 
these events to support other analyses, and used the shot doctrine 
developed during the BMDS wargame in the models for the JCM studies.
        jiamdo and the north atlantic treaty organization (nato)
    Closely associated with combatant command relationships are the 
NATO responsibilities of JIAMDO. The Director, JIAMDO is the U.S. 
Representative to the NATO Air Defense Committee. In this role the 
Director is responsible for addressing air and missile defense related 
issues in NATO. The Director drafts U.S. positions for NATO, and 
coordinates them with other U.S. stakeholders. The Director's unique 
position allows insight into policy and military issues from both a 
U.S. and coalition point of view, and enables JIAMDO to understand and 
address tactical level integration of coalition partners in analysis 
and studies, and during the development of employment concepts. In this 
regard I have had the privilege of working with the NATO staff and 
appearing before the North Atlantic Council to discuss the application 
of the Phased Adaptive Approach in Europe and the potential for 
regional missile defense capability in a NATO context.
                               conclusion
    In my opinion JIAMDO is uniquely and correctly positioned and 
manned to provide the kind of support the Department needs to meet the 
President's air and missile defense objectives. The Department has 
recognized that air and missile defense is a complex mission area and 
has committed to joint warfighting. JIAMDO is part of that commitment 
and we are working hard to ensure that warfighter needs are met. Thank 
you for your time, and I look forward to answering your questions.

    Chairman Levin. Admiral, thank you very much.
    Let's have an 8-minute first round for questioning.
    Secretary Miller, you outlined the four phases over the 
next decade for the PAA, so I'm not going to go into that in 
more detail. But I am going to be asking you, General O'Reilly, 
to go through some of the reasons why the military uniformly 
supported it. I'm going to just tell you what I understand the 
advantages of the new system are and then see if you agree. You 
outlined some of them, but I don't think it was as 
comprehensive as it could be, so let me go through them.
    First, does the new plan, the PAA, provide protection 5 
years sooner than the old plan? In other words, the old plan 
would have been deployed around 2017, I understand, while the 
new system will be deployed starting in 2011. Is that true?
    Dr. Miller. Yes, Senator. We would estimate 5 to 6 years 
earlier.
    Chairman Levin. Okay, doctor, you can chime in. If either 
of you have a different answer on this let me know.
    Second, the new plan protects the most vulnerable areas 
first. The old system would not have provided any protection 
for Southeastern NATO Europe, the portions that are currently 
within range of Iranian missiles. The new plan starts by 
protecting the areas that are currently within range of 
existing Iranian missiles. Is that true?
    Dr. Miller. That's correct.
    Chairman Levin. Third, the new plan protects all of NATO 
Europe by 2018, and will provide additional protection to the 
United States with phase four in the 2020 timeframe, unlike the 
old system, which never would have covered more than 70 to 75 
percent of NATO Europe. Is that true?
    Dr. Miller. That's right.
    Chairman Levin. General?
    General O'Reilly. Yes, sir.
    Chairman Levin. Fourth, the old plan, with 10 interceptors 
in Poland, could have been overwhelmed with just 5 Iranian 
missiles or more. The new system, with many SM-3 interceptors 
at sea and on land and the potential for adding more with a 
naval surge, could handle many more Iranian missiles of all 
ranges.
    Dr. Miller. Yes, sir, that's correct.
    Chairman Levin. General?
    General O'Reilly. Yes, sir.
    Chairman Levin. Next, the old system only defended against 
longer-range Iranian missile threats, which Iran does not yet 
have. The new system starts with capability against existing 
threats, but then adds capability against future threats. Is 
that true, doctor?
    Dr. Miller. Yes, sir.
    Chairman Levin. General?
    General O'Reilly. Sir, the old system could be used to 
defend against medium-range ballistic missiles, and that was 
part of our concern. It was a mismatch of our capability versus 
that medium-range threat.
    Dr. Miller. Excuse me, just to amplify on the General's 
statement. The old system would not have covered the shorter-
range systems of 500 kilometers or 1,000 kilometers or under.
    General O'Reilly. Yes.
    Chairman Levin. The PAA is a plus in that regard as well?
    General O'Reilly. Yes, sir.
    Chairman Levin. Dr. Miller, do you agree? You're shaking 
your head.
    Dr. Miller. Yes, sir.
    Chairman Levin. Finally, the old system was a fixed-site 
system that could not be moved to adapt to a changing threat. 
The new system is inherently flexible and adaptable. The Aegis 
BMD ships can move quickly. The land-based SM-3 sites can be 
relocated within about 4 months if a changed threat warranted 
it. Is that correct?
    General O'Reilly. Yes, sir.
    Dr. Miller. Yes, sir.
    Chairman Levin. Now, the baselines. General, you talked 
about I think six baselines for acquisition, including cost, 
schedule, performance, testing. One of the issues here, which 
Senator McCain raised, has to do with some of the problems that 
we have because of the cost-plus contracts that have been given 
in this area and some of the losses that we've suffered as a 
result of not being able to go after a contractor for defects. 
He listed one of the major defects which has recently been 
clear.
    You mentioned, General, that you used the figure $37 
billion. You're looking through that number of potential 
contract awards to see where competition can be used more 
often. That, of course, is one way to keep costs down. But 
we're going to need to have some kind of warranties against 
defects, it seems to me. Right now, we've lost tens of millions 
of dollars, more than that, hundreds of millions of dollars, 
based on small defects, which means that systems were presented 
to us that did not do the job that they were supposed to do.
    I'm just wondering whether or not, in addition to looking 
for greater opportunities for competition to reduce the cost, 
you're also going to be looking for a system which is not as 
much based on cost-plus, but is based on warranties and defects 
that would have to be paid for by the contractors?
    General O'Reilly. Yes, sir. As I review the acquisition 
strategy for the value of $37 billion of contracts in the next 
2 years, that is one of the criteria that I review for, is 
where can we apply both fixed-price contracts, which puts the 
penalty of not delivering a fully operational, functional end 
item on the producer, not only that, but also look for defect 
clauses.
    The problem that I have right now is with a lot of these 
contracts on the developmental side. There was an intent for 
the government and industry to share risk, but that risk we 
were talking about was a developmental risk and risk of 
technology and new manufacturing processes. Unfortunately, that 
cost-plus coverage to handle those risks limits our ability to 
enforce the fact when defects occur and the contractor is still 
not liable for those defects because of the way the contracts 
were constructed.
    So yes, sir, we are reviewing the actual construct of each 
one of those contracts.
    Chairman Levin. That's very important to us. We just had 
the reform acquisition law which this committee initiated and 
promoted, and it was signed by the President. I understand 
sharing risks in the developmental stage. That is clear. You're 
not going to get too many contractors who are going to be 
willing to take the risk of a new system which is under 
development.
    That's very different, however, from producing something 
with a defect in it which is not supposed to be there. It's a 
manufacturing defect. Something is left out which is supposed 
to be there. Something is put in the wrong place. That's not 
supposed to be a shared risk. That's a failure of 
manufacturing.
    I'm glad, and I know that Senator McCain raised this point 
very strongly and feels very strongly, and I think all the 
members of this committee do because we've been so actively 
involved in the reform effort here in terms of acquisition. 
Your determination in this area is very important to us.
    Dr. Gilmore, you have some skin in that game as well, and 
I'm sure that this effort that has been described and was part 
of your testimony is also good news for you as well. Is that 
accurate?
    Dr. Gilmore. That's correct. The pace of testing now is 
largely limited by the availability of targets. So the sooner 
that we can get reliable targets, the more testing can be done.
    Chairman Levin. Dr. Miller, do you want to add anything to 
that issue in terms of cost-plus versus fixed price and getting 
guarantees, warranties against defective manufacturing?
    Dr. Miller. Senator, I'll just say that I agree with the 
statements of both General O'Reilly and Dr. Gilmore.
    Chairman Levin. All right, thank you.
    My time is up. Senator Inhofe is next.
    Senator Inhofe. Thank you, Mr. Chairman.
    I'm going to cover three things pretty quick here. First of 
all, the chairman spent a long time talking about the old 
system, the new system. We're talking about the third site in 
Poland, which is one that I very strongly supported during that 
time. Do you agree that initially we were talking about having 
that capability of knocking down an ICBM from Iran in the third 
site originally by 2013? That slipped probably to about 2015. 
Am I generally right there? Actually, originally I think it was 
2012, but then it started slipping.
    General O'Reilly. Yes, sir. Then the requirements for 
ratification of the treaties before we could begin work--to 
build the missile field is 5\1/2\ years, another year and a 
half to integrate it and complete the operational certification 
by the combatant command in Europe. So it was 2017 we reached 
the point before we could have the first operational site.
    Senator Inhofe. Okay. Now, I disagree with that, and I will 
submit for the record evidence that it would have been 2015. 
It's not that big a deal, but that's an opinion that I'm 
expressing.
    [The information referred to, submitted by Senator Inhofe, 
follows:]

    The 2007 report by the Department of Defense and the Department of 
State, Proposed U.S. Missile Defense Assets in Europe, stated that, the 
proposed European interceptor site would include ``up to 10 silo-based 
long-range interceptors located in central Europe (2011-2013).''

    [The information referred to, submitted by the Department 
of Defense, follows:]

    Missile field construction was estimated at 5\1/2\ years plus 1 
year operational integration. The starting date slipped due to 
Ballistic Missile Defense Agreement ratification requirements, which 
moved the operational capability from 2014 to 2017.

    Senator Inhofe. The second thing I want to get out is how 
this treaty affects our ability to protect America, our 
national missile defense system. Dr. Miller, I looked in your 
written testimony after you made a statement and I couldn't 
find it, but you said something to the effect that there is no 
restriction by Russia in terms of our ability for a national 
missile defense system.
    I did find, however, in General O'Reilly's statement it 
says that ``the New START has no constraints on current and 
future components of the BMD's development or deployment.'' Let 
me just suggest to you that there are a lot of people who 
disagree with that. How do you respond, very briefly, and just 
take one of you--perhaps, General O'Reilly, you'd be the right 
one--when you have the Russian Defense Minister, Sergei Lavrov, 
who stated that linkage to missile defense is clearly spelled 
out in the accord and legally binding and the Russians will 
have the right to exit the accord if the U.S. is building up a 
missile defense strategy.
    I also have actually from the unilateral statement by 
Russia where they say the same thing, that yes, they do have 
that restriction on the United States and it is legally 
binding.
    Any response to that?
    General O'Reilly. Sir, the DOD General Counsel, the State 
Department General Counsel, and the National Security Council 
General Counsel have all advised me that it is not legally 
binding.
    Senator Inhofe. So that's us. We're saying it's not legally 
binding, although the Russians say it is legally binding. Does 
that bother you?
    General O'Reilly. No, sir.
    Senator Inhofe. It bothers me.
    Dr. Miller. Sir, it's clear that the Russian unilateral 
statement is not unilaterally binding. But it's also clear that 
they have the right to withdraw from New START, once ratified 
and implemented, should they see it in their national security 
interests. We don't expect that to be the case.
    I would also note that the Russians made a similar 
statement with respect to New START I and concerns about BMD 
development.
    Senator Inhofe. Yes, I know that.
    Dr. Miller. The United States then withdrew from the Anti-
Ballistic Missile Treaty. The Russians stayed in START I at 
that time. We can expect them to make decisions that are based 
on their national interest.
    Senator Inhofe. The third thing that I want to get into the 
record--and there's not going to be a lot of time to do all 
this--would be the issue that comes out as to when Iran is 
going to have the capability, and we spent a long time looking 
at this. We know that we have GBIs in California. We know we 
have them in Alaska. We've seen the map showing the footprint. 
Yes, it does reach the east coast of the United States barely, 
and a lot of people have said, well, that's assuming we're 
lucky with one shot, and then there's a percentage that's 
attached to that.
    I think the previous administration, in talking about the 
third site, felt the same as I do. That that is not a comfort 
level that I feel that I'm enjoying.
    Would anyone like to volunteer as to when you think that 
the Iranians are going to have the capability of sending an 
ICBM to the continental United States?
    Dr. Miller. Sir, that's an inherently uncertain question. 
The current estimates, as included in a recent unclassified 
report submitted by DOD, say that it could potentially be as 
soon as 2015.
    Senator Inhofe. Okay. I agree with that, and that's the 
first thing we agree on.
    That being 2015 and the capability as I look at this--and 
we've been talking about the old system and the new system. I'm 
familiar with the SM-3 Block I-A, what its capabilities are. 
That's 2010, that's now. The Block 1-B, 2015; Block II-Alpha, 
that would be 2018, but really to have the capability of a 
ground-based system that would have been in this case in 
Poland--at one time we were talking about doing that in Florida 
and decided that we wanted to have something that would also be 
defensive for Western Europe, and I agreed with that at the 
time.
    But to get to that you have to have an SM-3 Block II-B, 
Bravo. Does anyone want to venture a guess as to when that II-
Bravo would be effective, deployable?
    Dr. Miller. Sir, we estimate that for 2020. If I could 
briefly add, the current planned deployment for the PAA 
includes the placement of a forward-based radar in Europe in 
the 2011 timeframe. That radar will not only help the defense 
of Europe. It will also help the defense of the United States, 
and it was indeed the most important contribution of the 
previous architecture. That's a common element from the past 
architecture. We moved it forward from what we estimated to be 
2017 deployment to a 2011 deployment to provide that capability 
for improved national missile defenses earlier.
    Senator Inhofe. It's my understanding that this 2020 date 
on the phase four is one--do you all stand behind that date? 
Because I don't. I've read a lot of things to the contrary, 
that there's not any level of certainty to that. Does anyone 
feel very confident?
    General O'Reilly. Yes, sir. I've developed four missile 
systems. This is very feasible. We used very conservative 
timelines. We've looked at the technology. I've had two 
independent estimates. I've asked the Defense Science Board and 
the Secretary of Defense has supported me in an independent 
assessment of that this year to verify----
    Senator Inhofe. I want you to send me something that is 
convincing that we would have that by 2020. Now, even if that's 
true--and I would question that; I do want to see what you have 
and I want to give you the benefit of that doubt, General. But 
even if that's true, we still have that timeframe between 2015 
and 2020 that is very disturbing to me.
    [The information referred to follows:]

    The 2010 Ballistic Missile Defense Review (BMDR) established the 
goals and timelines for the Phased Adaptive Approach (PAA) in Europe. 
The PAA will build on already fielded Ballistic Missile Defense System 
assets to deploy capability in four phases, delivering missile defenses 
earlier than prior plans for defense of Europe, and will complement the 
North Atlantic Treaty Organization missile defense activities. The BMDR 
states that, ``under this approach, in Phase 4 (2020 timeframe), an 
additional capability against a potential ICBM launched from the Middle 
East against the United States will be available. This phase will take 
advantage of an upgrade to the Standard Missile-3 (SM-3), the Block 
IIB.''
    The Missile Defense Agency's (MDA) program and budget documentation 
supports and reflects a 2020 deployment of Phase 4. For example, MDA's 
fiscal year 2011 budget justification documentation states that, ``in 
the 2020 timeframe, we intend to field in Phase 4 more advanced land-
based capabilities in Europe using a more capable SM-3 Block IIB 
missile and space sensors to handle large raid sizes.'' MDA requested 
$40 million in fiscal year 2011 to initiate this effort.
    Additionally, MDA has base-lined the schedule, technical, resource, 
and contract plans that will lead up to a 2020 deployment of the SM-3 
Block IIB missile and other Phase 4 activities. These plans will be 
included in the congressionally-mandated Ballistic Missile Defense 
Accountability Report, which will be completed and delivered to the 
Congressional Defense Committees in June 2010.

    Senator Inhofe. This whole idea on the estimates that we 
have had in the past is a great deal of concern. You've heard 
me say this before, because I was there in 1998, in August 
1998, when we asked the question, when will North Korea have 
the multiple-stage capability. At that time the intelligence 
estimate, and it came out of the White House also, somewhere 
between 5 and 10 years. That was August 24, 1998. Seven days 
later, August 31, they fired one.
    I'd rather be conservative in our estimates. I have to at 
least express the opinion of one member of this panel who's 
very much disturbed over what could happen to the United States 
with this change in policy.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Let me first thank all of you for the extraordinary work 
that you've done. I've said this before in previous years, but 
it's not so long ago that there were a lot of people around 
here and elsewhere who thought that the whole idea of a BMD was 
really pie in the sky, no pun intended, I mean that it just was 
a ridiculous waste of money. I remember people saying, how are 
you ever going to have a bullet that could hit another bullet? 
Well, you have done it. It's a remarkable technological and 
management breakthrough, and I just don't think we can thank 
you enough for it, because it has direct relevance to the 
security of the American people.
    My God, you've actually even done a successful test of the 
Airborne Laser, General O'Reilly. That was thought to be the 
biggest mind trip and waste of money, and yet it holds 
tremendous potential for giving us a number of capabilities, 
including hitting missiles in the launch phase, which is 
probably the best time we'd want to hit them.
    So the first thing I wanted to do is thank you for the work 
you're doing.
    Second, last year in this committee we had a really 
vigorous debate in light of what many of us thought were 
excessive cuts in the MDA's budget. I'm really glad that the 
President has proposed in the budget for the coming fiscal year 
restoring well over $500 million in funding to the MDA. I think 
that's a very constructive step forward.
    I want to get into some of the discussion that both Senator 
Levin and Senator Inhofe had about the PAA and the two-stage 
GBI. If it's possible, I find myself agreeing with what 
Chairman Levin has argued are the positive results of the PAA 
in terms of the defense of Europe and the Middle East, our NATO 
allies, and our allies in the Middle East in terms of short- 
and medium-range missiles which Iran has now.
    But I also agree with Senator Inhofe and I share his 
concerns about what we lost when we stopped the change from so-
called ``old'' to the new approach in terms of the GBI. Last 
week, General Burgess, the head of the Defense Intelligence 
Agency, was before this committee and echoing or paralleling 
what you said, Dr. Miller. He told us that their estimate was 
that Iran could have an ICBM that could hit the United States 
by 2015 with foreign assistance.
    When we pressed him on that, he said he was thinking about 
North Korea, and of course it's quite plausible that North 
Korea would sell Iran such foreign assistance. The problem here 
is that the two-stage GBI was supposed to be done by 2015, 
maybe 2017, as time went on. It's pretty clear in the exchange 
between Senator Inhofe and yourself that the SM-3 Phase II-B 
that will be capable of hitting a missile fired from Iran to 
the United States won't be ready until 2020 at best.
    There is a gap there. It's not a total vulnerability 
because of course we have the missiles in California and Alaska 
if, God forbid, the Iranian missile came over. General 
O'Reilly, I was pleased that the BMDR describes the 
administration's commitment to ``continued development and 
assessment of the two-stage GBI'' as a hedge against the risks 
that either a threat to the American Homeland will develop 
sooner than expected or the SM-3 program will run into 
currently unanticipated technical challenges.
    I think that's a very important statement to make because I 
think, as you would I guess agree, the two-stage GBI was a very 
good program, moving in the right direction.
    But here's my concern. In your testimony you highlighted 
the upcoming two tests for the two-stage GBI as laid out in 
MDA's IMTP. But if I'm reading things correctly, I'm concerned 
that, although that pair of tests is scheduled through 2012, no 
other tests are planned until 2016. So quite directly, I'm 
asking how can the two-stage GBI serve as an adequate hedge in 
the way that I described for defense of the Homeland, shoot, 
look, shoot--shoot from Europe, if we miss look, California, 
Alaska, pick it up? How can the two-stage GBI serve as an 
adequate hedge if it will not be sufficiently tested until 
later in the decade?
    General O'Reilly. Sir, first of all, the two-stage GBI has 
the same components as the three-stage, except the third stage 
is removed and we have an adapter in there. The actual 
appearance of them, the length, everything, is identical.
    We will test the two-stage GBI in June and that will verify 
any differences between the two-stage and the three-stage GBI. 
The important part of this interceptor is the kill vehicle 
itself, and the kill vehicle is identical between the two- and 
three-stage GBI. So our choice of when we were testing the two-
stage GBI was basically driven on what type of environments we 
wanted to test the kill vehicle in, because we believe after 
this test in June we will have satisfied any differences 
between the two and three-stage and literally at that point on 
the performance of a two-stage is directly correlated and 
identical to the performance of a three-stage, because the 
front end after the first few minutes of flight is identical 
between the two.
    Senator Lieberman. So you're saying that the program to 
develop the SM-3 systems will also facilitate or bring about 
the realization of the two-stage GBI as a hedge?
    General O'Reilly. The two-stage GBI, as we said, in June we 
believe will verify any distinctive differences. At that point 
it'll be a very mature missile, because of the part that's so 
key. The development of the SM-3 II-B is a separate, 
independent activity. If we did have a problem with that, 
another way of achieving a hedge against a launch from either 
North Korea or Iran is to have another shot opportunity from 
our current missile fields, and that's what a two-stage GBI 
would provide you.
    Senator Lieberman. Current missile fields in Alaska.
    General O'Reilly. Yes, in Alaska.
    Senator Lieberman. Yes, I wanted to get to that.
    Let me just come back to the strategy of this. I assume 
that you would agree that the sooner we can have the capability 
to shoot, look, and shoot--that is, shoot at an Iranian or 
North Korean missile, Iranian particularly, from Europe and 
then look and see if we hit it, and if we don't, shoot again 
from California and Alaska--the sooner we have that capability, 
the better?
    General O'Reilly. Yes, sir.
    Dr. Miller. May I briefly----
    Senator Lieberman. Yes, go ahead, Dr. Miller. I'd invite 
you into the conversation.
    Dr. Miller. Thank you very much. I just want to add that if 
we were 100 percent sure that a GBI interceptor would work 
effectively against this Iranian threat, we wouldn't have been 
talking about the possibility of a third site. So you're right 
that the idea of multiple shots is an important element.
    Senator Lieberman. Right.
    Dr. Miller. What the SM-3 II-B provides is a different 
phenomenology, because it would have an ascent phase intercept. 
If there's a problem with the sensor of the GBI, which is 
common to both the two-stage and three-stage, the SM-3 II-B 
will provide a different way to get after that future threat 
that's independent and in our view a much greater contribution 
to the overall defense of the United States against that 
threat.
    Senator Lieberman. I think you're going to increasingly be 
asked about the potential gap here between when Iran has an 
ICBM and when we have the shoot, look, the two opportunities 
here. So I urge you to please be as direct as you need to be 
with us about what you need financially to really develop the 
two-stage GBI as a hedge, including, as you said, General 
O'Reilly, the potential for basing some of those two-stage GBIs 
in the United States for defense of our Homeland.
    I thank you. My time is up.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service and for all of your 
work on these important subjects.
    I want to come back, if I can, briefly to some questions 
that Senator Inhofe had asked with regard to New START. I'm 
concerned that the administration may not fully implement its 
Phased Adaptive plans for missile defense in Europe or that it 
may seek to slow down that implementation to avoid Russian 
withdrawal from the New START. What types of missile defense 
activities will the administration avoid to diminish the 
chances that the Russians will withdraw from the New START?
    Dr. Miller. Senator Thune, this administration has 
attempted to make as clear as possible in the Missile Defense 
Review and in other statements that it will do everything 
necessary to defend the U.S. Homeland, our troops overseas, and 
to work with our allies and partners to defend them as well--
full stop.
    Senator Thune. I know your argument has been that these 
unilateral agreements, either side can walk away from this 
thing. But there's certainly an implication that the Russians I 
think believe that there is more to this than what we're being 
led to believe. I think it's an important element as we look at 
this treaty, because missile defense plays so heavily in the 
defense not only of the United States, but our allies.
    So that's something my guess is we'll continue to pursue.
    Dr. Miller. Sir, could I add just a brief note on the 
mathematics here? Currently we have 30 GBIs, by the end of this 
fiscal year, that will be deployed. Even with the potential 
growth in that, consider the difference in that scale relative 
to the 1550 warheads that are allowed under the New START. 
Whatever the concerns that the Russian Federation may have 
about the future of U.S. missile defense, the scale of the 
defensive capabilities that we have is nowhere near the 
potential of affecting the stability of the strategic 
deterrence relationship.
    Senator Thune. I appreciate that. I think sometimes too, 
though, that it gives them an out, a convenient out, an excuse 
at some point in the future.
    But let me ask you, Secretary Miller, if I might. In 2007, 
I should say, the Director of National Assessment--I want to 
quote for you what they said here: ``The individual Russian 
entities continue to provide assistance to Iran's ballistic 
missile programs. We judge that Russian entity assistance, 
along with assistance from entities in China and North Korea, 
has helped Iran move towards self-sufficiency in the production 
of ballistic missiles. The Russian Government has taken steps 
to improve controls on ballistic missile technology and its 
record of enforcement, though still mixed, has improved over 
the decade.''
    What level of assistance do you see from Russia today in 
helping Iran develop its ballistic missile capabilities or 
capacities?
    Dr. Miller. Sir, I believe that the 2000 assessment still 
stands, but I'd like to take that question for the record and 
provide a detailed response if I could.
    [The information referred to follows:]

    Moscow is not providing state-to-state assistance to Tehran to 
further its ballistic missile and space launch vehicle research and 
development efforts. However, Russia's advanced ballistic missile 
production infrastructure has technologies that could further current 
and future Iranian goals. Russian-based Iranian defense officials and 
intermediaries have access to Russian academics, companies, and 
research organizations, and some of these individuals and entities 
likely assist Iran with technologies that could assist in its ballistic 
missile programs. Iran is likely attempting to obtain Russian expertise 
in missile guidance systems to improve accuracy, composite structural 
materials to save weight and increase range, high temperature materials 
for reentry vehicles, and possibly with more energetic propellants.

    Senator Thune. This is a follow-up to that one, so I don't 
know if you want to maybe take this one for the record, too. On 
Thursday, April 15, there was a Washington Times newspaper 
article that reported that the Central Intelligence Agency's 
Weapons Intelligence Nonproliferation Arms Control Center this 
year linked Chinese companies to missile programs in Iran. Do 
your missile defense plans take into account longstanding and 
possible present day cooperation and support by Russia and 
China for Iran's ballistic missile program?
    Dr. Miller. Sir, yes, they do, and I will provide more 
details with respect to the Chinese side of that equation as 
well for the record.
    [The information referred to follows:]

    Beijing is not providing state-to-state assistance to Tehran to 
further its ballistic missile and space launch vehicle research and 
development efforts, but Chinese individuals and entities provide Iran 
with controlled and dual-use technologies needed to advance in these 
areas. China-based Iranian defense officials and intermediaries have 
access to Chinese academics, companies, and research organizations, 
some of which continue to provide support despite being sanctioned. 
Iran is receiving materiel and technological assistance with missile 
guidance systems, raw materials, production machinery, and propellants.

    Senator Thune. Thank you.
    This I would direct to you, Secretary Miller, as well as to 
General O'Reilly. As part of the PAA to European missile 
defense, my understanding is the administration is now seeking 
to establish a ground-based SM-3 missile defense site in 
Romania by 2015. What countries do you envision will be 
protected by that site? How do you envision that the command 
and control process will work? What policies and procedures 
would likely be at work in the event that a launch would be 
detected?
    Dr. Miller. The capabilities of the PAA in terms of 
coverage of Europe will grow over time. By the time of phase 
three, which is 2018, it will have complete coverage of Europe, 
and that will be a combined contribution of the site in 
Romania, the site in Poland, and any additional sea-based sites 
as well.
    With respect to command and control, this is a conversation 
that we are having now with our NATO allies and we expect that 
the command and control for the PAA, which is intended to be 
the U.S. contribution to NATO missile defense, would be through 
the European Command, and then we are having discussions with 
our European allies with respect to NATO command and control 
arrangements.
    There's an important program there called Active-Layered 
Theatre Ballistic Missile Defense (ALT-BMD), a NATO program 
that's currently funded for study and that provides the command 
and control architecture to integrate countries' contributions 
to missile defense as well. I think General O'Reilly will 
probably want to add something, perhaps Admiral Macy as well.
    General O'Reilly. Sir, the ALT-BMD program is focused on a 
lower tier and, as we've said, the most effective missile 
defense has both an upper and a lower tier. So you have 
multiple shot opportunities using different systems. They are 
reviewing, going through studies, as we speak in order to 
determine what their contribution would be from a lower tier 
and then how to integrate it with our systems that we're 
proposing.
    This obviously will need the decision made at the Lisbon 
summit later this year with NATO to determine whether or not 
territorial defense in Europe is going to be a policy and a 
priority for them. If it is, the ALT-BMD system then would 
readily be available to integrate with the PAA.
    Senator Thune. I want to ask one question that Senator 
Lieberman alluded to earlier. On February 11 of this year, MDA 
completed a successful destruction of a threat-representative 
missile in its boost phase using the high-energy laser beam 
from the Airborne Laser aircraft, which I think is a pretty 
remarkable accomplishment and in my view could lead to a 
revolution in military affairs.
    I'm interested in knowing what your views are regarding the 
successful test of the Airborne Laser program. Do you think it 
marks the beginning of sort of a revolution, and what are your 
views about this program as we move forward and how should we 
be leveraging the new technology that it represents?
    Dr. Miller. I'll speak very briefly, then ask my colleagues 
to come in.
    The test represented an important milestone in showing that 
directed energy technologies can play an important role in the 
future in missile defense. As the Secretary of Defense had 
noted in the decision to terminate the program just about a 
year ago, the concern was not about the technological 
capabilities of the system, but about the operational concept 
for applying it and the reality that there would have to be 
large numbers of aircraft relatively close to the threats and 
there are serious concerns about the survivability of that 
platform and the lack of a concept of operations that would 
make it effective in an actual theater warfighting scenario.
    General O'Reilly. Sir, that intercept and destruction of 
the missile a few seconds after liftoff on 11 February 
demonstrated many scientific breakthroughs. There was a 
hierarchy of first-time accomplishments, and it went a long way 
with moving us from theory to empirical data that we're 
collecting on these systems.
    That design was largely designed during the 90s that you 
saw on that platform. The platform demonstrated the beam 
control and the ability to propagate in the earth's atmosphere. 
Since then, we have also been developing other technologies 
which produce more power in smaller packages, and our budget 
requests continue development of those so that we are readily 
available, or we have a platform readily available, in order to 
take these newer technologies and gain the standoff distances 
that we've been referring to that make them very operationally 
capable.
    Senator Thune. I appreciate the doubts that have been 
expressed by some about the concept of operations in an actual 
conflict. But there are others who I think have great 
confidence in the aircraft. It seems to me at least that these 
directed energy type weapons have great potential to transform 
our future deterrence capability. So I hope that we can 
continue dialogue about how to use those technologies as we go 
forward.
    General O'Reilly. Yes, sir.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Let me thank you, gentlemen, for your service as well. I 
want to go a little more into the PAA. In his testimony before 
this committee last month, General Chilton, the Commander in 
Chief at STRATCOM, talked about STRATCOM being the ``lead 
combatant command for missile defense advocacy'' and indicated 
he was working to shape missile defense investments that 
``provide more effective capabilities for our geographic 
combatant commanders.''
    This goes to you, Admiral Macy. Have geographic combatant 
commanders requested increased regional missile defense 
capabilities?
    Admiral Macy. Yes, sir, they have, if by ``increased'' you 
mean additional assets. Following the generation of the PAA and 
the concept of having different abilities which could be 
tailored to regional needs, all of the combatant commanders 
with current significant issues in missile defense have been 
looking specifically at the PAA and how to adapt it to their 
region.
    I should take the opportunity to say that the PAA is not a 
system, but a concept of how you provide a regional missile 
defense. The systems, if you will, are the toolkit provided by 
General O'Reilly, which includes your interceptors, sensor 
packages, and command and control. There are differences in the 
regions between the Pacific, the Central region, and the 
European region, of politics, of threat, of geography, both 
technical and operational issues. So each of the combatant 
commanders are looking at that, and have come forward with 
their initial estimates, and we are in the process now within 
the Joint Staff and with STRATCOM of looking at how to balance 
those assets and to meet their needs in the different regions.
    Senator Ben Nelson. There are obviously going to be 
different needs depending on the location of the combatant 
commander. So you're requesting their input to determine how 
best to meet those needs, because there may be multiple needs 
and there may be some overlay of needs depending on the 
geographic location?
    Admiral Macy. Yes, sir. We have two primary means in which 
we can ascertain and address the COCOMs' needs. The first is, 
if you will, through their systemic and technical capabilities 
desires, which are expressed in the prioritized capabilities 
list for missile defense, which has inputs from all of the 
COCOMs and is collated and signed forward by General Chilton to 
General O'Reilly as what he sees as the need for General 
O'Reilly to provide.
    Separately, on the operational end we have, as we do for 
all our forces, a global force management process with a series 
of steps and boards that meet to figure out how to divvy up, if 
you will, all of our assets around the globe. We have, over the 
last 6 months, been engaged in an effort to understand how to 
put the missile defense issues into that same process, because 
the process works. The trick here, if you will, is getting the 
business rules for missile defense to provide to the global 
force managers. That is coming to a conclusion here in the next 
few months, and incorporates those things such as I mentioned 
that the combatant commanders have been looking at: What would 
be the laydown for PAA in their area?
    Senator Ben Nelson. Different warheads, different delivery 
systems, different capabilities, different needs, but 
coordination of them and the integration of that total arsenal; 
is that what we're attempting to do here?
    Admiral Macy. Yes, sir, exactly that, if you will, the 
toolkit of interceptors is fixed with the different types as 
sensors, and how do you apply those in the different regions. 
The other is recognizing that right now we don't have enough, 
so how do you prioritize and how do you manage the risk between 
regions, which is what we do on a daily basis with all of our 
forces, whether it's armor or ships or bombers or whatever. But 
the same thing applies to missile defense, yes, sir.
    Senator Ben Nelson. Thank you.
    Secretary Miller, do you support the PAA for missile 
defense in Europe, and is this a template for a regional 
missile defense in, let's say, the Middle East or Asia as well?
    Dr. Miller. Yes, sir, I do, and it is. As Admiral Macy 
noted, its instantiation will be different in each region, and 
we are working with our partners and allies to define those 
various architectures at this time, and also to do our own 
internal analysis of what makes most sense.
    Senator Ben Nelson. Secretary Miller, you heard the 
questions regarding the unique unilateral statements regarding 
the implications of our missile defense programs on the New 
START agreement. Is this a 'tis and 'taint situation, where 
they're saying one thing and we're saying another thing? 
Because unilateral statements that are contradictory are 
problematic in and of themselves. The question is what's the 
impact of the differences in understanding or different 
agreement about what the treaty says?
    If Russia decides to get out in the future at some point, 
is that a problem? Will we have achieved sufficient results 
being in the treaty for having gotten into the treaty in the 
first place? In other words, what is the impact if we end up in 
the situation where we part ways on the treaty, either we 
decide it's not in our national interests or they decide it's 
not in their national interests? What are the implications, 
positive and negative?
    Dr. Miller. Senator Nelson, let me say at the outset that I 
do not expect that that is a likely outcome at all. This treaty 
is in the national security interests of both the United States 
and the Russian Federation, and that is true taking account of 
the verification provisions in the treaty, of the reduction of 
delivery vehicles and warheads, and of the data exchanges and 
other steps that will take place to make it so that both sides 
have a better understanding of each other's capabilities.
    Senator Ben Nelson. So that's the essence of the treaty 
from the standpoint of Russia and from the standpoint of the 
United States. Are they just stating for their own political 
purposes back home about the missile defense system or do they 
truly believe that they have some control or some limitation on 
what we do with missile defense, recognizing the consequences 
if they get out, if they disagree?
    Dr. Miller. Senator Nelson, I think that the history of our 
discussions and of the choices of this administration and of 
past administrations make it clear that we will continue to 
invest in missile defenses and deploy missile defenses in order 
to protect the Homeland and to protect our forces overseas and 
our allies and partners.
    We've also made clear in the Missile Defense Review, and in 
the BMDR, that it is not our intention to change the strategic 
balance with respect to Russia, and the relatively small 
numbers of interceptors that we have today and the relatively 
small numbers we would have even if we increased that, compared 
to the 1,550 accountable strategic nuclear warheads under the 
New START, make it clear to me at least that we are a very long 
distance away from our defenses having any impact on strategic 
stability.
    We would like to continue discussions with Russia on 
missile defense cooperation. As Senator Levin noted, we believe 
we have a common interest in that area and would like to go 
forward from the current work on a common threat assessment to 
looking to include their radar, one at Armavir, and potentially 
other elements, to help improve our PAA in Europe. We think we 
have a lot of common interests, both in moving forward in 
missile defense and in reducing our nuclear weapons.
    Senator Ben Nelson. I agree with you, and this afternoon 
I'll be discussing that area of cooperation between Russia and 
the United States with Senator Margelov, who is the chairman of 
the Russian Federation Council's equivalent of their Foreign 
Relations Committee. There are areas where I think cooperation 
is possible. It appears that both sides are posturing to keep 
their own position open with respect to national defense and 
it's not necessarily the threat of a divorce before the 
prenuptual agreement is entered into. Is that fair?
    Dr. Miller. Yes, sir. I'd go further to say I expect 
throughout the duration of the treaty--it's a 7-year 
implementation period and it would be a 10-year period of 
implementation, with the possibility of a 5-year extension. 
Within that period, and I believe further, it's in the interest 
of the United States and Russia to continue to reduce our 
nuclear weapons and to exchange information and to conduct the 
type of verification that we will under the New START.
    Senator Ben Nelson. So even if one side or the other side 
decides to get out, there's still value in getting into the 
agreement?
    Dr. Miller. Yes, sir. As I said, I don't expect that that 
would be an outcome.
    Senator Ben Nelson. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Wicker.
    Senator Wicker. Thank you very much.
    Admiral Macy, let me begin with you and ask you to explore 
with us the effect that this PAA will have on Aegis 
shipbuilding and deployment. Perhaps others will want to 
contribute to this discussion. There are worries that valuable 
Aegis ships might be locked into the BMD mission. These ships 
carry out a wide range of other warfighting tasks and are very 
much in high demand. Was there collaboration between the Navy 
and the other agencies represented at the table on the creation 
of this plan, and does the Navy's shipbuilding plan take into 
account the increased need for BMD-capable ships under this 
approach?
    Admiral Macy. Senator, thank you. To answer a couple of 
different pieces here: Yes, we had participation during the 
discussions last year and this year as part of the BMDR, which 
engendered the concept of the PAA as part of our analysis, with 
the other Services and with the COCOMs.
    We are certainly conscious of the impact of that on Aegis 
shipbuilding and ship tasking. I can't tell you right now that 
there's a plan to increase the shipbuilding as a result 
strictly of this tasking, because partly for the reason that 
you noted, that these are multi-mission ships, and they will be 
doing very many different missions at different times.
    As I mentioned earlier in my discussion with Senator 
Nelson, that is part of the global force management process, 
which is where you send ships and what you use them for. We do 
not anticipate at this time, nor have we to date, taken a ship 
and permanently assigned it to doing nothing but missile 
defense, whether it was part of the efforts that we have in the 
Seventh Fleet with potential risks from North Korea or in other 
parts of the world.
    I will note that in an earlier time in my life I served on 
a Tomahawk-capable ship and we performed a number of different 
missions. From time to time, depending on the needs of that 
combatant commander, we would be assigned to be the Tomahawk 
shooter, in which case we were geographically constrained 
within a certain area to be prepared to launch on a moment's 
notice. That certainly could be a possibility in the future, 
depending on a BMD risk.
    But that doesn't mean that that is all that ship would ever 
do. Part of what you do in global force management on an annual 
basis, what you do in operational management, command and 
control on a day-to-day and a week-to-week basis, is to move 
your assets around.
    Now, we do need more Aegis BMD-capability, which is not 
necessarily the same thing as more Aegis BMD ships, because we 
are looking to convert certain numbers of our current Aegis 
ships to BMD capability.
    Senator Wicker. How many?
    Admiral Macy. I believe it's a total of 38 across the 
Future Years Defense Program. I'd have to defer to General 
O'Reilly for the specific number.
    General O'Reilly. Yes, it will be 38 by 2015.
    Senator Wicker. How long ago was that decision made? Did 
that decision predate the decision to move toward this phased 
approach?
    Admiral Macy. I would say it was done in consonance with it 
and the discussions over the last year to 2 years as we 
developed this idea. The PAA did not spring full-blown on a 
day, and there were a lot of discussions looking at that. The 
chairman alluded earlier to the Joint Capabilities Mix Study.
    Senator Wicker. I hate to interject, but when was the PAA 
announced?
    Admiral Macy. The PAA was announced on September 17 of last 
year.
    Senator Wicker. Of 2009?
    Admiral Macy. Yes, sir.
    Senator Wicker. The decision with regard to the number of 
ships predated that?
    General O'Reilly. Sir, last year's budget request was for 
27 ships by the end of this time, and we have increased that, 
working with the Navy, 11 more since the PAA has been decided 
and announced.
    Senator Wicker. Largely as a result of the PAA?
    General O'Reilly. Yes--well----
    Admiral Macy. No, sir. A combination. The original----
    Senator Wicker. General O'Reilly says yes and Admiral Macy 
says no.
    Admiral Macy. I would submit, sir, that the original 
increase up to 27 was as a result partly of the studies we had 
done saying that we need more. Then when the PAA came into 
being, the General was asked what more will it take, and that 
resulted in a further increase in the number of ships.
    Senator Wicker. For the two of you at that end of the 
table, are you telling the Senate that under the present plan 
we're going to have enough Aegis ships to carry out this new 
PAA and all the other missions that are going to be required? 
Are you comfortable with that number?
    Admiral Macy. Based on the information we have now, we 
think that is a good number. It is a step in the right 
direction. Whether it is the total number will be part of the 
analysis I alluded to earlier, that will be conducted over the 
next year, the JCM-3 study. The last study just looked at 
interceptors. This new study will look at interceptors, launch 
systems, and sensors.
    Dr. Miller. Senator, could I very briefly? Prior to the PAA 
decision, the plan was for 27 Aegis-capable ships. After the 
decision, the plan was changed to 38 Aegis-capable ships, and 
we will continue to look at that question, I'm sure not just 
with the current study but over the years, as we see how the 
threat changes and how our capabilities develop. That's a 
fundamental element of the adaptive part of that PAA.
    Senator Wicker. Let me move on to one other thing. Dr. 
Gilmore, in your testimony you talk about the ripple effects of 
a test failure, such as the recent GMD flight test FTG-06, and 
say that the ripple effect can be significant. I think our 
chairman and ranking member alluded to this in their 
statements. Can you give us, in a nutshell, why we had this 
failure?
    Dr. Gilmore. General O'Reilly can talk about it as well as 
I can and perhaps better. But the failure investigation is 
under way. I'm not sure exactly what we can say about the 
failure.
    Senator Wicker. Is it classified or is it just premature to 
answer that?
    General O'Reilly. It's classified, sir. But I can say, sir, 
that there were two failure modes. The first was the sea-based 
X-band radar stopped transmitting at a certain point in time, 
and we understand why now. Second of all, we had a new version 
of the GMD kill vehicle. It was the first time being flown, the 
longest any kill vehicle's been flown. We also encountered a 
problem that we've been able to identify on that design, and 
our intent is to make those corrections and test again this 
year.
    Senator Wicker. Dr. Gilmore, I guess my question is, 
according to your testimony the testing is very complex and 
fraught with potential for other failures. Can technology 
realistically meet the goals of this PAA? What are we to draw 
from your testimony that says an Aegis BMD test failure in the 
next year could impact the full implementation and assessment 
of phase one in the PAA for the defense of Europe?
    The test that you spoke of in your testimony, what did it 
do to our timeline, and what effect might one of these very 
possible failures have on the timeline?
    Dr. Gilmore. When there is a test failure, there is less 
knowledge gained and it will take longer to gain the amount of 
knowledge that we wanted to gain. So in the case of the failure 
of FTG-06, I think that General O'Reilly is still assessing 
what changes will have to be implemented in the IMTP, and that 
will be something that you would decide within the next 6 
months or so, I think.
    But there's a potential for tests to get bumped down the 
road in order to collect in the next test the information that 
would have been collected in this test. So the implication is 
that there would be less knowledge known in any given point in 
time.
    With regard to the PAA and whether it's technologically 
feasible, yes, in my view it's certainly technologically 
feasible. It will take time to test it, just like it takes time 
to test all of these complex systems. These are particularly 
complex systems, but all defense systems are complex, and we 
have a history of learning as we go along and some of the 
programs taking longer to test and pan out than we had 
originally hoped.
    But I have no reason to expect that testing of the PAA 
through the various versions of the SM-3 interceptor will be 
particularly unique in the testing history of this program or 
other programs.
    Senator Wicker. Thank you.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Bill Nelson, with thanks to Senator Hagan.
    Senator Bill Nelson. Secretary Miller, with the Czech 
Republic we're going to have some form of shared missile launch 
information. You mentioned this in your prepared statement. You 
indicate it's a near-term effort. Do we need to provide for 
some funds or authority to conduct such information-sharing?
    Dr. Miller. Senator, we've begun discussions with the Czech 
Republic on shared early warning. The required funds are 
relatively quite small. We are currently assessing whether the 
MDA and/or the Army have the authority to expend those funds. 
Sir, if we are unable to resolve that in the very near term, we 
may come back and ask for specific legislative authority. This 
would be in the single digits of millions of dollars.
    Senator Bill Nelson. Let me ask Dr. Gilmore. In your 
prepared testimony, you stated, talking about the Airborne 
Laser: ``The engagement was not an operational test conducted 
under operationally realistic conditions.'' Then why don't you 
give us more detail why this was not an operationally realistic 
test and why it's not a basis for using this aircraft as an 
operational weapons system.
    Dr. Gilmore. I'd be happy to do that. I can summarize some 
of those reasons immediately and then I can also refer you to 
the report on the Airborne Laser that I submitted to Congress 
this past January, which will spell out in greater detail, a 
lot greater detail, what I'm about to say.
    The range at which the intercept was conducted is not 
operationally realistic because modern air defenses would 
preclude the aircraft from penetrating into the air space of 
any country, even a small country like North Korea, to a 
position such that the range at which this particular foreign 
military asset was engaged was realistic. So you would have to 
demonstrate the capability to engage threats successfully at 
several times the range that was recently demonstrated.
    The next test will be at about twice the range of the 
initial test, but even that would not be an operationally 
realistic range for an engagement. In the case of larger 
countries like Korea, unless the power of the laser was 
substantially larger than the laser power in the current system 
or even the objective power that was originally sought, which 
was I think about three times the amount of power that's in the 
current system, even with a much larger power laser. In a 
larger country like Iran there would probably always be 
locations from which a launch could occur that an airborne 
laser that had to stand off outside the Iranian borders could 
engage.
    In addition, there are other things that some people may 
regard as more mundane, but which are very important for a 
system to be operationally effective in combat. For example, 
you have to have a logistics system that will support the 
operations of the aircraft when it's deployed. We don't have 
that for this aircraft. It could be gotten, but we don't have 
it currently.
    There would have to be a relatively large fleet of 
aircraft. You would probably need one or two orbits of aircraft 
even to defend launches against a country like North Korea. 
Each orbit would have to have two aircraft in it to assure that 
one aircraft at any given time could engage. If you want two 
aircraft up, and they would have to be up continuously because 
you can't give the enemy an opportunity to shoot when the 
aircraft land, then you would have to have another three to 
five aircraft to support those two up continuously. That's a 
fleet of 10 or more aircraft would be needed in order to have 
an operationally effective system.
    Those are the highlights, and there are more details in the 
report I submitted.
    Senator Bill Nelson. What about the difference between 
chemical lasers and solid state?
    Dr. Gilmore. As General O'Reilly can discuss probably in 
greater detail than I can, there are concepts, some of which 
are being worked on at some of the national laboratories, for 
solid state lasers which would have higher power than the 
current sort of hybrid solid state-chemical lasers, but in a 
much smaller package. That means that you could put it on an 
aircraft that's smaller than the large 747 on which the COIL, 
which stands for Chemical Oxygen Iodine Laser, is emplaced.
    MDA is pursuing those kinds of technologies, so they do 
offer promise. General O'Reilly could probably say more about 
that.
    Senator Bill Nelson. Mr. Chairman, I want the record to 
reflect that several predecessors ago of General O'Reilly, 
General Kadish testified to this committee--and this is years 
ago--that the chemical Airborne Laser by the time that he 
testified was going to be ready within 10 months. Of course, 
we've heard the testimony today that it's nowhere near it. I 
thought that strange at the time and have made some remarks 
since about that kind of information coming to this committee, 
which was wildly optimistic, indeed a fantasy, is not the kind 
of testimony that this committee should be receiving.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you for the recollection. You have 
the memory here, institutional memory on this subject, but a 
lot of other subjects as well, which is invaluable to us.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    I want to thank all of you for your service and for the 
important work that you're doing on missile defense. It's 
really essential for the emerging threats we have in the world 
that we're facing.
    I want to go back to something, Dr. Miller, that you talked 
about and see if everybody's in agreement with this. I believe 
that you testified that you believe that Iran could possibly 
have an ICBM by 2015?
    Dr. Miller. That's correct. As was noted, that would assume 
foreign assistance.
    Senator LeMieux. Is that everyone on the panel's opinion as 
well? Any differing opinion?
    General O'Reilly. Sir, I don't have a differing opinion.
    Senator LeMieux. We heard from General Cartwright, I 
believe it was, a couple of hearings ago in terms of 
development of a nuclear weapon by Iran, that he thought that 
that would be, at its earliest, maybe a 3- to 5-year period, 
which would also bring us to about 2015. Is that your 
understanding as well?
    Dr. Miller. Sir, there's a tremendous amount of uncertainty 
associated with both of those estimates. With respect to a 
nuclear weapon, I think one can have confidence that it's well 
beyond a year and it is more likely in that 3-plus time, 
timeframe.
    Senator LeMieux. I want to focus you on a topic, if I can, 
in another potential area of threat that's not talked about a 
lot, but it's being talked about more and more in this 
committee. The chairman and ranking member and myself have 
raised this issue when we've talked to our friends from 
SOUTHCOM. I want to set the table for you on this topic because 
I think it has an impact on missile defense.
    More and more we're seeing Venezuela as an emerging threat, 
I believe, to the United States. We have evidence from a 
Spanish judge that Venezuela was collaborating with a group in 
Spain to potentially assassinate President Uribe. I had the 
opportunity this past weekend to go to our joint interagency 
task force in Key West, which does tremendous work on 
interdicting narcoterrorism, and we know that Venezuela is 
allowing for airplanes to fly over its space to bring drugs and 
other contraband up Central America towards Mexico to the 
United States, and that they're a willing collaborator with the 
Revolutionary Armed Forces of Columbia.
    We know that Hezbollah and Hamas now have a presence in 
Latin America, and we know that Tehran and Venezuela through 
Chavez and Caracas have more and more connections.
    I want to pose to you and put on your radar screen for 
thought and contemplation that we should not be just concerned 
about a threat from Iran from the east, but we should be 
concerned about a threat from Iran from the south. I'm worried 
that in the next 10 years we're going to be talking about 
Venezuela trying to obtain a nuclear weapon. With this 
dangerous alliance that's growing between Iraq and Venezuela, I 
want to pose to you the question of whether or not our missile 
defense system would be capable of intercepting a weapon that 
was launched from South America?
    General O'Reilly. Sir, the PAA that we're using for missile 
defense applies, of course, to other areas other than Europe, 
especially in the United States. The PAA applied here to our 
territory would provide that defense.
    Senator LeMieux. Would that be through Aegis ships or what 
would be the mechanism for that defense?
    General O'Reilly. For the type of ranges you're referring 
to, you would need to use Aegis, either Aegis Ashore or Aegis 
on ships, which we can surge into the area.
    Senator LeMieux. Right now am I correct, Admiral, that 
there are two Aegis ships that are on the east coast of the 
United States, or BMD-capable ships?
    Admiral Macy. At any given moment, it could be anywhere 
from two to five, and there are more as time goes on, because 
we are increasing the number of East Coast Aegis ships with BMD 
capability, not necessarily for that reason, even though, as 
the General pointed out, you would apply it in that direction 
should you feel the threat develop, but as a matter of, if you 
will, just practical fleet management. It's closer to the 
Mediterranean and parts of the Middle East from Norfolk than it 
is from San Diego. So the Navy is looking to more evenly 
distribute the number of BMD ships they have, if you will, in 
the two major fleets, Atlantic and Pacific.
    Senator LeMieux. In terms of the Atlantic, that would 
obviously provide for those ships to be in the south around 
Florida and the Gulf of Mexico?
    General O'Reilly. Yes, sir. Again, as you adapt in phases 
to what you believe Venezuela may be doing, it would be exactly 
that, and do you have ships, would there be Aegis Ashore sites 
placed in various locations, and then you would build up the 
architecture appropriate to that region.
    Senator LeMieux. In terms of a missile, you would not, I 
assume, need an ICBM to launch from South America to hit the 
United States? It would be a mid-range missile, is that 
correct?
    General O'Reilly. Mid-range to intermediate-range, and then 
we can talk about who thinks how many thousand kilometers is 
which. But yes, sir.
    Dr. Miller. Sir, if I could interject very briefly, I just 
want to clarify that we have no plans to deploy Aegis Ashore 
within the United States. One of the advantages of the PAA is 
that that option would always be available in the future. But 
as was suggested, should the threat you posited arise, a sea-
based capability should be able to cope with it.
    Senator LeMieux. Does Iran now possess medium-range 
missiles or short-range missiles?
    Dr. Miller. Sir, the answer is yes to both of those 
questions.
    Senator LeMieux. I ask that you, as I have asked our 
leaders in CENTCOM and SOUTHCOM and others, to put this in your 
analysis if you've not already done so, going forward, because 
I believe that there is a gathering storm in this alliance 
between Iraq and Venezuela. I was also concerned to see that 
China has decided to give billions of dollars in aid to 
Venezuela. I ask that you focus on this topic because I think 
it's something that we're going to be dealing with in the years 
to come.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator LeMieux.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Thanks for your testimony today. I do support the 
administration's PAA to BMD because it incorporates the 
relevant technologies in an accelerated time fashion to respond 
to the evolving threats that are out there. This approach 
augments our current technologies in place to protect the U.S. 
Homeland against long-range and ICBM threats. It also provides 
an enhanced capability to defend against short- and medium-
range ballistic missile threats to our personnel that are 
deployed in the regional forward operating bases and 
headquarters, and obviously as well our allies in Europe, the 
Middle East, and Southwest Asia.
    The Navy's mission of protecting Europe from ballistic 
missile attacks has widespread implications for the surface 
fleet, potential deployment schedules, crewing arrangements, 
and command and control procedures for cruisers and destroyers. 
Admiral Macy, what will be the command and control procedures 
regarding the use of sea-based SM-3s for the purpose of 
intercepting ballistic missiles fired toward Europe from Iran 
or some other rogue country in the Middle East or Southwest 
Asia, and will the authority to fire the missile rest with the 
regional combatant commanders?
    Admiral Macy. To answer the last one first, yes, ma'am.
    Senator Hagan. Okay.
    Admiral Macy. If I may take a moment, in BMD command and 
control can be thought of as encompassing two areas of effort: 
the command area, which is where you do your planning, you 
determine your preplanned responses, your rules of engagement, 
those assets you're most particularly going to focus on 
protecting, and so forth. You can think of the control area as 
being the execution part.
    Once the missiles are flying, the timelines are such that 
the interaction and control is very limited, and you find that 
in order to be successful the operational commanders down to 
the level of the commanding officer of that destroyer needs to 
have the authority to carry out the plan that was developed 
earlier in order to succeed in the intercept.
    So we talk about the arrangements in the control area. It 
would follow if we were conducting this in a U.S. context, it 
would be in a line of command that comes down from European 
Command, through an area air defense commander, notionally 
possibly down to a regional defense commander, to the 
commanding officer of that ship, but who would be carrying out 
the plans he was given until told to stop, because that's where 
command interaction in BMD most often comes in, is to tell you 
to stop, not to go.
    We like to tell people that to be effective the first phone 
call you're going to get from that young commander is not what 
he wants to do, but what he just did. So the issue is on the 
command side. That's where your planning and your 
decisionmaking occurs.
    In a U.S. context, that would be under, in the case of 
Europe, the command of European Command, Admiral Stavrides in 
his U.S. hat. General Brady is the U.S. Air Force Europe 
Commander, and would also have the responsibility for missile 
defense efforts under Admiral Stavrides. So that would be that 
organization.
    As I mentioned in my opening comments, I did have the 
opportunity yesterday to participate with the Vice Chairman on 
briefing the North Atlantic Council and that was a part of the 
discussion in a NATO context. It is our belief that should NATO 
take this as a mission we would then develop the missile 
defense command and control within a NATO context, in which you 
would have a missile defense adaptation of the military 
procedures that we follow now. NATO would be involved in the 
command part developing the plans, understanding what the rules 
of engagement would be, under what circumstances you would 
start to commence active missile defense launching 
interceptors. The NATO command and control, once they had the 
capability, the physical capability to participate, through 
adaptation of the ALT-BMD system or others--we believe the ALT-
BMD system is the proper approach to take that up to an upper 
tier and to a territorial capability--would have more and more 
hands-on involvement in the command of it and it would fall 
under the NATO military procedures, where the Supreme Allied 
Command Europe (SACEUR) and Admiral Stavrides in his role as 
SACEUR, with Supreme Headquarters Allied Powers Europe 
underneath him.
    As it happens, the U.S. air defense command focus is at 
Ramstein and that is also where the NATO air defense command 
focus, the buildings, are located. So it would be done in that 
context.
    Senator Hagan. Thank you.
    Admiral Macy. Yes, ma'am.
    Senator Hagan. As you've indicated, the administration's 
PAA for BMD involves building two land-based Aegis BMD systems 
in Europe. Some observers suggest that the establishment of two 
Aegis Ashore sites would allow a reduction in the number of 
BMD-capable Aegis ships needed for European BMD operations. 
General O'Reilly, what modifications are needed to make the SM-
3 suitable for use as a land-based missile and what are the 
technical risks associated with these modifications?
    General O'Reilly. Senator, one of the advantages of the 
land-based SM-3 is that we would not change the missile 
configuration used at sea or at land. It gives the Navy and the 
combatant commanders a greater pool of missiles to manage from, 
more operational flexibility. Each site can maintain between 80 
to 120 missiles, so there's a tremendous amount of firepower at 
each location.
    We literally are taking the Aegis system so that it is 
duplicated on the land. We have no special logistics 
requirements or training requirements or manning or command and 
control. So that in fact it is very adaptable to the Navy. 
Again, it can be moved within 4 months, if we see the threat 
has diminished in one location or moved to another. It is very 
readily adaptable to remote sites or large protection.
    We don't plan on making any unique changes of the Aegis 
system to be adapted to the land.
    Senator Hagan. Thank you.
    I know, General O'Reilly, when you were in my office 
recently I was asking you the question on where you get the 
highly capable, trained individuals who do the technology, the 
individuals, the scientists. I do want to thank you for 
recruiting also at the universities and schools within North 
Carolina, because I know we have a lot of very capable 
individuals in our State, too.
    Following the official signing of the New START, the 
Russian Government announced that it reserves the right to 
withdraw from the treaty if its national interests are 
threatened. The Russian Government also announced that New 
START will only be effective if there's no buildup in 
capabilities to the U.S. missile defense system.
    Dr. Miller, how is the administration reconciling Russia's 
caveats under the New START treaty with Central Europe's 
demands for a role in U.S. missile defense plans?
    Dr. Miller. Senator, the United States made a unilateral 
statement as well with respect to New START, and I'll just give 
you the relevant element of it. I had asked earlier that it be 
submitted for the record. That is that the statement says very 
directly that ``The United States intends to continue improving 
and deploying its missile defense systems in order to defend 
itself against limited attack and as part of our collaborative 
approach to strengthening stability in key regions.''
    What that means is that, both with respect to any necessary 
improvements for our Homeland defense and for the PAA in Europe 
and in other regions, we intend to make what improvements are 
necessary to continue to protect our Homeland, our forces 
deployed overseas, and our partners and allies.
    Senator Hagan. Thank you.
    My time is up. Thank you.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    General O'Reilly, I'm concerned about whether or not we're 
going to adequately continue to complete the deployment of our 
missile defense system, the GMD system that we spent decades 
perfecting, and it's really exceeded most people's, almost 
everybody's expectations in technology, its proven 
effectiveness, and that sort of thing.
    There are some that have opposed it and as a result it 
seems this administration to me is penny wise, pound foolish, 
in the sense that once we have done all this let's complete it. 
I'm concerned about whether or not we are deploying enough of 
these missiles, number one, and number two, whether we have 
enough to maintain the kind of testing that we need.
    The GMD program manager and the executive director briefed 
staff that the MDA, your agency, plans to acquire only 52 GBIs. 
Thirty will be deployed and put in the ground, while the 
remaining 22 will be used for testing. By fiscal year 2019, 
based on the plans that are ongoing, MDA assumes that the 
initial developmental testing will be complete, but that will 
leave only three GBIs for stockpile reliability testing through 
2032.
    So from 2019 to 2032 we have only three missiles, according 
to our present plans, 12 years, to do testing. By contrast, the 
Air Force conducts three flight tests each year on the 
Minuteman III ICBM and the Navy conducts four on the Trident 
Submarine-Launched Ballistic Missile (SLBM).
    So is this enough? Don't we need to, while the assembly 
process is still available to us, produce enough of these 
missiles so that we can maintain testing in the years to come?
    General O'Reilly. Sir, working with the test community, 
represented by Dr. Gilmore and the operational test 
communities, we did work together and determine that by 2019 if 
the tests are successful, we do believe that we will have the 
data necessary to confirm the performance of the GMD system in 
all anticipated flight regimes.
    We also have designed a missile which has an incredible 
capability of maintaining its health and status. Not only do we 
constantly maintain the health and status of these missiles, we 
also run periodic checks thoroughly to verify its performance 
and the proper functioning of all of the systems. We will 
conduct 4.3 million checks of these 30 missiles over a 20-year 
period, plus 600 other tests where we remove the missiles, 
remove components from them, test those components, and 
refurbish the missiles with brand new components.
    Senator Sessions. I think this idea came from on high 
somewhere, to cut the number back. But are you confident that 
enough analysis has been done to conclude that through that 12 
years there's going to be enough missiles to do actual testing? 
Will you let us know if you conclude there's a problem? Don't 
we need to do it soon; otherwise we'll have to restart an 
entire assembly process?
    General O'Reilly. Sir, we do today have to restart an 
entire assembly process. I'm faced with that right now. What we 
currently are building will take us through 2016 with the full 
production line. But yes, sir, I do have monitoring 
responsibilities to ensure that we have a production base that 
will take our refurbishments all the way to 2026, and we do 
need an industrial base to do that.
    So yes, sir, and I will report back if I determine that we 
need more missiles based on our estimation.
    Senator Sessions. I firmly believe that we're cutting the 
number too close and I hope that it's not too late to 
reevaluate that now. It would be a lot less costly.
    General O'Reilly and Dr. Gilmore, the industrial base 
supporting the production of solid rocket motors necessary for 
the ICBMs, SLBMs, and evolved expendable launch vehicles 
(EELVs) is under strain. The recent decision to cancel NASA's 
Constellation program will likely reduce the customer base for 
solid rocket motors substantially, raising costs and perhaps 
leading to a loss of industry proficiency. It's estimated that 
costs for solid rocket motors programs could rise as much as 
150 to 200 percent for DOD.
    This is because, as I understand it, NASA has been 
consuming about 70 percent of these solid rocket motors and 
keeping the system moving forward. General O'Reilly, I 
understand that you or DOD were not consulted about the NASA 
decision on cancelling the Constellation program. This is our 
manned spaceflight plan for the future. What impact does that 
decision have on MDA?
    General O'Reilly. Sir, for GMD we were not consulted. Our 
solid rocket motor usage for large solid rocket motors was 
about 8 percent of the total production done in the United 
States every year. So we had a very small part to play. As you 
said, it was dominated by NASA's use of the solid rocket 
motors.
    We have an increase in the small solid rocket motors based 
on the proposed budget that we have submitted to Congress, 
where we will consume over 550 tons of solid rocket motors in 
the next 5 years. So we actually have the reverse process or 
challenge of having that production capability for small solid 
rocket motors. Yet at the same time, as you said, we have had a 
severe reduction in the industrial capacity to produce the 
large solid rocket motors.
    We are procuring five additional booster sets for our GBIs. 
One reason is they are economical to buy now to use them at a 
later date if we need to for testing or other purposes.
    Senator Sessions. I'm worried about it.
    Dr. Gilmore, is the Secretary of Defense concerned about 
the shrinking solid rocket motor industrial base and the issues 
that General O'Reilly mentioned?
    Dr. Gilmore. Senator, with all due respect, I think that 
General O'Reilly tracks the industrial base issues more than I 
do. I focus on the testing issues, not on the industrial base 
issues. So he would be the best one to answer that question.
    Dr. Miller. Senator, if I could interject very quickly, I 
do know that the Under Secretary for Acquisition, Technology, 
and Logistics, Dr. Carter, is currently undertaking a study of 
the industrial base for solid rocket motors.
    Senator Sessions. The President has already indicated that 
he's rethinking some of the NASA issues, which I appreciate him 
doing, and I really think that he should do that, because I 
strongly believe we don't need to abandon our leadership in 
space; and second, there may be ways in which we can recognize 
this symbiotic relationship between NASA and DOD that could be 
a basis for being able to continue that program.
    Mr. Chairman, I would just say I won't ask the question at 
this point, but I may submit for the record my concern over the 
fact that we were ready to test the two-stage GBI, which was 
going to be deployed in Europe and will be deployed in the 
United States, and it's ready to go forward. But our plan to 
create an interceptor in Europe capable of knocking down an 
ICBM that would hit the United States, appears to be delayed as 
late as 2020. I think that's a mistake and we'll want to pursue 
that as we go forward.
    Chairman Levin. Thank you, Senator Sessions. If that's 
submitted for the record, the answer will be forthcoming 
promptly, we hope.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, gentlemen. General O'Reilly, in your opening 
comments you made the point that missile fields in Alaska were 
positioned to engage both Korea and Iran. Just a point of 
clarification. Does that affect the launchers or the radars and 
the launchers? Can the radar as it was configured in Alaska 
pick up a target coming from Iran?
    General O'Reilly. From a polar projection, the closest 
point to the United States from Iran is actually Alaska, and 
the same with North Korea. For our radars, we have the 
Fylingdales radar in England and coming on line next month will 
be the Thule radar in Greenland. They provide our northern 
observation and tracking of missiles launched from that part of 
the globe.
    Senator Reed. So that both in terms of acquisition of the 
target and launching to intercept, Alaska is well positioned 
vis-a-vis Iran and North Korea?
    General O'Reilly. Yes, sir. As Secretary Miller said 
earlier, the contribution of a forward-based radar in Southern 
Europe adds tremendously to that capability also because we 
could track even sooner.
    Senator Reed. One other aspect of this is not only the 
forward-based radar, but also space satellite observation and 
integration. Does that enhance our ability to acquire the 
target and engage it?
    General O'Reilly. Yes, sir. We currently have a satellite 
system that tracks booster launches. But we have put into space 
last year two demonstrator satellites that not only demonstrate 
tracking a missile in launch, but the entire flight of the 
missile. Yes, sir, we have a proposal for the Precision 
Tracking Space System (PTSS), which then would be established 
by the middle of this decade, that would also track hundreds of 
missiles being launched over their entire flight and would 
provide information to both GMD and the Aegis system for 
intercepting.
    Senator Reed. The plan now would be--or I'll ask you the 
question. I don't presume the answer. The Aegis would engage 
first, and then the ground-based missile would engage later in 
the flight?
    General O'Reilly. In the 2020 time, sir, in the timeline, 
we believe it's very feasible to have a high acceleration 
interceptor in an Aegis system; yes, sir, the plan would be to 
have an early intercept soon after boost and destroy the 
missiles early in flight; and if not, then we have the GMD 
system for the second attempt.
    Senator Reed. Relatively speaking, the reconfiguration of 
the system, has that advanced our ability to engage Iranian 
targets or delayed it?
    General O'Reilly. Sir, it has greatly advanced it, because 
we now have the capability to utilize sensors, not only on 
ships, for example, but they also have the ability to use 
sensors at any location, of any frequency, of any bandwidth. 
That significantly helps us launch interceptors sooner, so we 
don't have to wait for the missile to get close enough to a 
ship in order to launch. The ship actually uses all sensors 
available to it.
    Senator Reed. Let me ask another question about Aegis, and 
that is the shore sites. You talked to Senator Hagan about 
this, but one of the constraints, obviously, is vessels at sea 
and operational. The shore-based Aegis will, in fact, relieve 
some of that pressure. Admiral Macy, do you want to respond?
    General O'Reilly. Sir, I'll just say yes, sir. That was the 
discussion last year and it was highly discussed with the Joint 
Staff and the Navy, and I'll defer to Admiral Macy.
    Admiral Macy. One other point, sir. I'm in violent 
agreement with the General. It is also attractive financially. 
In simplistic terms, we're taking the top third of the 
destroyer and putting it on a concrete pad. Therefore I don't 
have to buy or operate the bottom two-thirds. This is not going 
to redo the U.S. budget, but we do expect to see some savings 
from being able to station the capability that way without all 
the attendant things that come with the ship.
    Senator Reed. Are you planning just for the contingency to 
scale up, to have multiple further sites?
    Admiral Macy. As the need, yes, sir, that would be the 
point. Right now the plan is for two. As I mentioned earlier, I 
believe in my conversation with Senator Hagan, the other 
combatant commanders are also looking at it. None has as yet 
expressed the need, but they are certainly looking at it. In a 
number of ways it's just as attractive to that commander 
because he also has to buy fuel and take care of that ship when 
it's in his area of responsibility. So one of the big things 
about this is we could put one in other areas, including the 
SOUTHCOM region, though, as Dr. Miller said, right now we don't 
have a plan.
    But yes, sir, we could buy more and do that.
    Senator Reed. The launching system is relocatable, so you 
could move these. You wouldn't have to buy another set. You 
could, if the need arose, just move it to another location.
    Admiral Macy. Yes, sir, that is our concept for how this 
would go. We have asked the MDA to include as part of their 
engineering assessment the ability to move this in 4 months as 
a starting point, and then we'll understand from them the costs 
and difficulties of doing it. But definitely we would like to 
be able to pick it up and move it somewhere else.
    Senator Reed. Let me just ask the question and someone can 
decide who should answer it. That is that we've cancelled the 
cruiser CGX and we're going to essentially replace that with 
the Flight 3 DDG-51s. The radar on the Flight 3 is a scaled-
down version of the AMDR which was going to go on the cruiser. 
Are you losing anything in that scaling down, any capabilities? 
What are the implications, essentially, of cancelling CGX to 
the BMD program?
    Admiral Macy. We believe that within the BMD program the 
implications can be handled by a different architecture. Though 
you have notionally a scaled-down radar--and I want to be 
careful how I say that. As I'm sure you're aware, sir, if we 
get too much farther into that discussion we'll have to have it 
in a separate room.
    But the other thing I want to go back to is what the 
General brought up. We are looking to the future to create an 
architecture which takes advantage of all of the sensors that 
are available in the particular battle space, such that you are 
not limited to the instrumented range of a SPY-1 or a THAAD or 
any other sensor, that by using what we call the engage-on-
remote technique you will have one launching system launching 
one or more interceptors, which are being guided by data coming 
from separate sensors, not necessarily part of their generic 
system, and quite likely controlled by a battle management 
system in a third area and a third capability, to get beyond 
the limitations of such things as the curvature of the earth 
that just gets in the way of your radar. So we'd like to get 
beyond that.
    So the goal here is to not be focusing on an architecture 
which is a closed system fire control system, but an expanded 
engage-on-remote capability.
    Senator Reed. Thank you.
    One final quick question, Dr. Miller. New START has been 
discussed and one of the conditions is that we would not, 
except for grandfathered silos, convert silos to be BMD 
capable. My understanding is that we have no intention to do 
that, that it's actually cheaper to build new silos.
    Dr. Miller. Senator Reed, that's absolutely correct. The 
existing silos at Vandenberg were grandfathered by the treaty 
and we have no plans to do additional conversions. As I believe 
General O'Reilly's statement included, in fact, if we were to 
go forward with additional silos it would be cheaper to build 
new ones than to convert.
    Senator Reed. So if that was a key negotiating point, we 
gave something away that we weren't going to use anyway. That 
would be my comment, not yours. Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, gentlemen. I want to thank the chairman too 
for his patience and for staying here and giving me an 
opportunity to ask some questions as well this morning.
    Dr. Miller, thank you for your commonsense explanations of 
New START. There are certainly voices that I think have in some 
cases, whether intentionally or not, muddied the waters. I for 
one look forward to the treaty coming to the floor of the 
Senate. I can't imagine we wouldn't find the votes to ratify 
it, in part because of your incisive and helpful explanations 
of what is included.
    If I might, I'd like to follow on and talk a little bit 
about NATO-izing European missile defense. I know that there 
have been some positive statements issued on the PAA, but there 
has been no collective endorsement by the NATO heads. I 
understand the administration is hoping to secure such an 
endorsement at the Lisbon summit later.
    Can you discuss any progress that's been made within the 
alliance on this subject?
    Dr. Miller. Senator Udall, we began conversations with our 
NATO allies about the PAA as we were conducting the BMDR, so 
they were not surprised as we went forward with this approach, 
and in fact very shortly thereafter issued a statement of 
support as an alliance for PAA for Europe.
    Since then we've continued discussions as we've moved 
forward with first agreement by Poland to host a land-based 
site, then agreement by Romania to do the same. As we discussed 
earlier, we're moving forward with the Czech Republic in 
developing a shared early warning capability as well.
    With respect to command and control, we will continue to 
work within a NATO context. We see the PAA as being the U.S. 
contribution to a NATO territorial missile defense. Sir, you're 
correct, we hope that at Lisbon the alliance will in fact 
approve that as a NATO mission.
    Senator Udall. Doctor, I understand part of the focus is on 
protecting civilian populations, not that military assets 
should not be protected as well, but there is a focus on 
civilian populations, is there not?
    Dr. Miller. As the system develops through its phases, by 
phase three we have the capability for territorial defense of 
NATO Europe, which would include defense of populations.
    Senator Udall. Thank you.
    Dr. Miller. Earlier phases would, of course, have the same 
capability, but just not over the same breadth of geographic 
area.
    Senator Udall. Thank you for that.
    General O'Reilly, good to see you. We're proud, in 
Colorado, to host the Missile Defense Integration and 
Operations Center at Schriever. I always look forward to going 
down there and at least understanding a bit of what's going on 
down there, because we have such smart people there on the 
ground.
    I understand you've created a new program this year, the 
PTSS and it would enhance the effectiveness of all missile 
defense systems and reduce reliance on land- and sea-based 
sensors. Given the ongoing challenges in space acquisition, 
which we have talked about in other ways this morning, can you 
assure the committee that this program can be delivered in a 
timely way, at a reasonable cost? As a follow-on, can you 
explain why the MDA is planning on acquiring a satellite 
capability when the Air Force has primary expertise for space 
systems?
    General O'Reilly. Sir, the PTSS, the strategy to develop it 
was based on many studies in the past of what were the 
challenges and problems with previous satellite development 
programs. Two of them were the requirements being quite large 
on a small package; and second was to use technology that 
wasn't mature at the time the program started.
    So the PTSS was designed to be a very simple satellite 
system, and that's a key hallmark of it, is the size of it. It 
is designed to stare at certain parts of the Earth and do just 
that and transmit down what it sees for fusing with our battle 
management control systems on the ground. So we believe the 
strategy that was laid out and the cost estimates--we've had 
several independent cost estimates and we've been very 
conservative to ensure that this can be developed on the 
timeline stated and in fact endure setbacks and still be 
developed on the timeline stated, and the costs are very 
conservative for this. The approach is very simple and we did 
that intentionally in order to ensure we don't have problems in 
executing this.
    The MDA actually will not manage the satellite aspect of 
this program. It is a system, though, that involves the command 
and control, the whole fire control system, the information 
transmitting and so forth. So the entire network needs to be 
integrated into our Aegis system especially and our GMD system. 
That's the expertise and the integration that MDA brings.
    We are utilizing the Navy research lab and Johns Hopkins 
University, which have a history of successful launches of 
these size of satellites, in order for us to verify we 
understand the requirements, again going back, looking at the 
history of satellite programs and where they've had trouble. We 
want to assure we know what we're going to ask industry to 
build.
    At that point we will compete the satellite system for 
development. Ultimately, sir, you're correct, the Air Force 
will be managing this and therefore they have an Air Force cell 
that's embedded in our team, so that we ensure that everything 
we're developing follows their data management and their ground 
control systems out at Schriever, which will be operating the 
system.
    We believe we've built a team together, capitalizing on the 
core competencies, and then the MDA has to be the one that is 
ultimately responsible of delivering a missile defense 
capability with all our fire control systems and utilizing the 
benefits of those space-based sensors.
    Senator Udall. Thank you for walking me through that 
process and that construct.
    Dr. Miller, Admiral Macy, let me turn to East Asia and the 
Middle East, the BMDR. Incidentally, I think the SECDEF put 
together a very comprehensive and helpful approach to missile 
defense in general. But according to the BMDR, the 
administration plans to tailor the PAA to East Asia and the 
Middle East. I understand that these regional missile defense 
architecture plans are still in development, so the inventory 
and resources requirements for Aegis and SM-3 and Patriots and 
THAAD are not certain.
    The BMDR says the Joint Staff and STRATCOM are developing a 
comprehensive force management process, recognizing that the 
regional demand for U.S. BMD assets is likely to exceed supply 
for some years to come. The new PAA to missile defense is 
likely to have significant force structure implications. Have 
these requirements been quantified yet and, given the fact that 
regional demand is likely to exceed supply for years to come, 
when do you think the comprehensive force management process 
will be completed to allocate what seemingly are scarce 
resources? Admiral Macy, let's start with you.
    Admiral Macy. Senator, we are close to finishing up the 
initial estimate on the global force management issues and 
processes. We've been doing a study since last fall when it 
became apparent that this was going to be an issue when you 
apply a PAA to all three major regions with the current missile 
defense issues. That effort has been led by STRATCOM and by my 
organization, JIAMDO, on the Joint Staff. We are bringing that 
to a close in the next few months and we'll be briefing it up 
to the Secretary, hopefully by June, if not before, to address 
the current near-term needs of allocating the available ships, 
interceptors, THAAD units, et cetera.
    In the longer term, we will be shortly starting the Joint 
Capability Mix-3 (JCM-3) study. This is a follow-on from JCM-2 
that was done a couple of years ago, looking at the sufficiency 
of interceptors. This one will be, if you will, a repeat where 
we look at scenarios across the three regions, compare them 
against the COCOMs' warfighting plans, and understand the 
implications. We don't expect to be fighting in all three 
places at one time, but how much overlap do you assess or 
believe? Then this JCM-3 study, as it's going to be called, 
will be starting soon, and expects to finish about this time 
next year.
    The big difference between it and the previous study is it 
will look not only at interceptors, but it will also look at 
launch systems, such as ships and THAAD batteries, and it will 
look at independent sensors such as airborne sensors, TPY-2 
radars, and so forth.
    Senator Udall. Thank you.
    Dr. Miller?
    Dr. Miller. Senator Udall, I'd just add very briefly that 
DOD has an existing global force management process and over 
the last year we've worked to integrate missile defense assets 
into that process. I expect that, even with the accelerated 
purchases of missile defense assets, including THAAD missiles 
and including SM-3 capabilities, that we'll continue to have to 
manage that process for some years to come.
    Senator Udall. I see my time has expired, but, Dr. Miller, 
I assume that in the process of developing these plans we're 
also working with the nations in those various theaters that 
are inclined to be supportive of our efforts and would like to 
be a part of the process of developing further missile defense 
capabilities?
    Dr. Miller. Yes, sir, we are.
    Senator Udall. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Udall.
    Let me just summarize some of the points that have been 
made on the Phased Adaptive System. There has been a reference 
made to a gap and the reference is to the following: that if, 
in fact, Iran gets foreign assistance, they could have a long-
range missile by 2015 or 2017. Our second missile defense 
system that would be able to defend against a long-range 
Iranian missile would not be deployed until about 2020. That is 
characterized as a gap of 3 years or so, having one system 
instead of two.
    Now let's look at the other side of the equation, where the 
Phased Adaptive System will have far superior radars. They will 
be able to use sensors from many sources, including satellite 
sensors and airborne sensors. So on the sensor side and the 
radar side, the Phased Adaptive System will be far more 
capable.
    On the interceptor side, the third site or the old system 
would be limited to ten missiles, which means you could maybe 
deal with five Iranian missiles, and the new system will have 
many, many more interceptors that will be available to it.
    You really have a double gap with the old system. You have 
a radar gap, the old system having far less capable radars, and 
you have a numerical missile or interceptor gap as well with 
the old system.
    Would you agree with that, Dr. Miller?
    Dr. Miller. Senator, yes, I would agree. I would add that 
the PAA, because we place the forward-based radar in Europe in 
2011, that will improve our national missile defense 
capabilities significantly. So, if you will, that's an implicit 
gap that was closed by the change in approach. We'll have 
greater capability, sooner than we would have, for the defense 
of the United States.
    Chairman Levin. Greater capability for the ground-based 
system?
    Dr. Miller. That's right. It will tie into the ground-based 
system.
    Chairman Levin. So we'll have a greater, more capable 
system than we have now in Alaska and California?
    Dr. Miller. It will augment that system and improve its 
capabilities.
    Chairman Levin. The first defense will be more capable, the 
second defense will be far more capable than the third site 
would have been, although it will not be available for perhaps 
3 to 5 years later if Iran gets foreign assistance and comes up 
with an ICBM. So from my perspective, you have at least a 
double gap if you go to the old system compared to at best a 
very short-term, or at worst, a very short-term 3-year gap in 
having a second system in place. General, do you agree with 
that? Since you're a General, will you generally agree with me 
on that?
    General O'Reilly. Yes, sir, I would. On top of that, there 
was some discussion about the ability of the GMD system to 
intercept one time. When we have the forward-based sensors, 
that also gives us the ability for GMD itself to intercept more 
than once, have more than one opportunity in the defense from a 
launch from the Middle East.
    Chairman Levin. In addition, the more capable radars on the 
new system are moveable; is that correct?
    General O'Reilly. Yes, sir.
    Chairman Levin. The old radar was fixed at the third site. 
So there are other advantages as well. But I think if people 
want to talk about a gap, the number of gaps are much greater 
with the old system than with the new, at least a double gap 
with the old system, maybe a triple gap, compared to that very 
short-term so-called gap where you just have one system in 
place, even though it's more capable than having two systems.
    Senator Udall, do you want to ask anything else?
    Senator Udall. No, thank you.
    Chairman Levin. Thank you all. It's been a very, very 
useful morning. We appreciate your being here. We'll stand 
adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                 advantages of phased adaptive approach
    1. Senator Levin. Secretary Miller, General O'Reilly, and Admiral 
Macy, please list and explain all of the advantages and benefits, as 
well as the drawbacks, if any, of the Phased Adaptive Approach (PAA) 
for missile defense in Europe, compared to the previously proposed 
third Site missile defense system in Europe.
    Secretary Miller. A key factor in any comparison between the 
European PAA and the former ``Third Site'' plan is the updated U.S. 
ballistic missile threat assessment. The threat from short- and medium-
range missiles has developed very quickly. In the face of the growing 
regional threat, protection for U.S. forces, allies, and partners is 
provided sooner under the PAA than the previous plan. The PAA will 
allow us to field capabilities in the 2011 timeframe; the former Third 
Site plan would have added capabilities in 2017 or 2018.
    The European PAA provides coverage to the area that is most 
threatened first, and expands to cover all of our European North 
Atlantic Treaty Organization (NATO) Allies in the 2018 timeframe. Under 
the former approach, we did not provide full protection of our NATO 
Allies, and the areas left unprotected were those that were closest to 
the threat.
    With the PAA, we are able to deploy systems that are capable 
against larger numbers of missiles than the previous plan. With a 
``shot doctrine'' of two shots per missile, only five threat missiles 
would be needed to overwhelm the previous architecture.
    The European PAA will improve the capabilities for defense of the 
United States in 2011 with the forward-based radar; which will increase 
the capabilities of the Ground-Based Interceptors (GBI) based in the 
United States. This improvement in defense of the Homeland will be 
available 6 to 7 years earlier than the previous architecture.
    The new approach is also more cost-effective. We expect 
requirements to increase as the threat grows; thus, it is more cost-
effective to use the PAA's Standard Missile-3 (SM-3), which is less 
than one-fifth the price of one GBI.
    The new approach also allows for greater cooperation with our 
allies. NATO's views of missile defense have evolved in recent years. 
We are seeking a NATO decision to take on territorial defense as a NATO 
mission. We see positive indicators that NATO is interested in doing 
so, including the unanimous Foreign Ministerial statement in December 
2009 that the Alliance welcomes the U.S. European PAA.
    The European PAA is also much more flexible than the Third Site 
approach: The SM-3 and other PAA systems are mobile, while the Third 
Site would have required large missiles at fixed locations.
    General O'Reilly. The PAA offers several advantages over the 
previous approach: increased number of interceptors, lower cost, 
increased coverage, earlier availability, increased adaptability, 
reduced deployment time and wider applicability.
    The previously proposed European missile defense architecture 
lacked a sufficient number of sensors and interceptors to defend 
against the current and emerging ballistic missile threat from by Iran. 
Simply put, with a notional two interceptor shot doctrine, the 10 GBI 
interceptors proposed for Poland would easily be overwhelmed by a raid 
size of 6 long-range threat missiles launched towards European targets. 
Furthermore, the GBIs would have been unable to defend against shorter-
range ballistic missiles that threaten U.S. deployed forces and allies 
in the region.
    The Department of Defense (DOD) now plans to deploy missile 
defenses in Europe through a PAA that will combine stronger sensor 
networks with an Aegis SM-3-based architecture to provide a flexible 
defense against an uncertain and growing missile threat. Each of the 
four phases that comprise the European PAA (EPAA) will leverage more 
capable variants of the SM-3 missiles as they become available. The SM-
3 is more affordable than GBIs and increases the cost-effectiveness of 
a European missile defense (you can buy four to seven production 
variants of the SM-3s (IA or IB) for the cost of one GBI).
    The previous program did not cover most of Southeastern Europe, 
which today is exposed to Medium-Range Ballistic Missile (MRBM) 
threats. The previous program would not have been available until 2017 
and was not adaptable to changes in future threats to Europe. Under the 
EPAA, however, we will begin deployment of missile defense capabilities 
in 2011 (Phase I). Additionally, by fielding mobile capabilities in 
phases, combatant commanders can adapt their missile defense 
architectures to address the uncertainty of future missile threats. 
These systems can be deployed in any theater in a reasonably short 
period of time.
    Finally, efforts over the next several years to develop, test, and 
procure the sensor, command and control, and interceptor upgrades for 
deployment of the EPAA architecture have application in theaters other 
than Europe.
    Admiral Macy. The PAA offers several advantages over the previous 
approach: increased number of interceptors, lower cost, increased 
coverage, earlier availability, increased adaptability, reduced 
deployment time and wider applicability.
    The previously proposed European missile defense architecture 
lacked a sufficient number of sensors and interceptors to defend 
against the current and emerging ballistic missile threat from by Iran. 
Simply put, with a notional 2 interceptor shot doctrine, the 10 GBI 
interceptors proposed for Poland would easily be overwhelmed by a raid 
size of 6 long-range threat missiles launched towards European targets. 
Furthermore, the GBIs would have been unable to defend against shorter-
range ballistic missiles that threaten U.S. deployed forces and allies 
in the region.
    DOD now plans to deploy missile defenses in Europe through a PAA 
that will combine stronger sensor networks with an Aegis SM-3-based 
architecture to provide a flexible defense against an uncertain and 
growing missile threat. Each of the four phases that comprise the 
European PAA (EPAA) will leverage more capable variants of the SM-3 
missiles as they become available. The SM-3 is more affordable than 
GBIs and increases the cost-effectiveness of a European missile defense 
(you can buy four to seven production variants of the SM-3s (IA or IB) 
for the cost of one GBI).
    The previous program did not cover most of Southeastern Europe, 
which today is exposed to MRBM threats. The previous program would not 
have been available until 2017 and was not adaptable to changes in 
future threats to Europe. Under the EPAA, however, we will begin 
deployment of missile defense capabilities in 2011 (Phase I). 
Additionally, by fielding mobile capabilities in phases, combatant 
commanders can adapt their missile defense architectures to address the 
uncertainty of future missile threats. These systems can be deployed in 
any theater in a reasonably short period of time.
    Finally, efforts over the next several years to develop, test, and 
procure the sensor, command and control, and interceptor upgrades for 
deployment of the EPAA architecture have application in theaters other 
than Europe.

    2. Senator Levin. Secretary Miller, General O'Reilly, and Admiral 
Macy, Phase 4 of the PAA to missile defense in Europe is planned to 
have the capability, using the SM-3, Block IIB variant interceptor, to 
defeat potential future long-range Iranian missiles in the 2020 
timeframe. There has been a suggestion that, since Iran might, with 
sufficient foreign assistance, be able to develop a long-range missile 
by 2015, there is a 5-year gap between our missile defense capability 
and Iran's potential for an intercontinental ballistic missile (ICBM) 
capability. Please provide your views on whether such a gap would 
exist.
    Secretary Miller. No, there would not be a gap in our capability. 
The United States is currently protected against any attacks from North 
Korea or Iran if they were able to develop an effective ICBM capability 
today. This protection is a result of investments made over the past 
decade in a system based on ground-based midcourse defense (GMD). 
Because of continuing improvements in the GMD system and the number of 
GBIs now deployed compared to potential North Korean and Iranian long-
range ballistic missile capabilities, the United States possesses a 
capability to counter the projected threat from North Korea and Iran 
for the foreseeable future.
    Given uncertainty about the future ICBM threat, including the rate 
at which it will mature, it is important that the United States 
maintain this advantageous position. In order to maintain this position 
we will: continue to develop existing capabilities for our GMD system, 
complete the second field of 14 silos at Fort Greely, deploy new 
sensors in Europe to improve cueing for missiles launched at the United 
States, invest in further development of the SM-3 for future land-based 
deployment in Europe, increase investments in sensors and early 
intercept kill systems to help defeat missile defense countermeasures, 
and advance other hedging strategies including continued development 
and assessment of a two-stage GBI and directed energy technologies.
    General O'Reilly. There is no ``gap'' in which the United States 
would be unprotected from potential Iranian long-range ballistic 
missile threats. The United States is already protected against limited 
long-range ballistic missile attacks, including against current and 
projected future threats from Iran. As part of the Ballistic Missile 
Defense System (BMDS), the GMD element, with missile fields at Fort 
Greely, AK, and Vandenberg Air Force Base, CA, provides continuous 
operational capability to protect the Homeland against ICBMs. Given the 
uncertainties of future ICBM threats, including the rate at which they 
will mature, we plan to preserve our position of advantage by 
maintaining and enhancing our current midcourse defense capabilities.
    To that end, we will continue development of technologies to 
enhance SM-3 variants to defeat longer-range ballistic missiles. With 
deployments of the SM-3 IIA (2018) and SM-3 IIB (2020) in Europe, we 
will augment Homeland defenses by intercepting long-range ballistic 
missiles earlier in their flight.
    Admiral Macy. There is no ``gap'' in which the United States would 
be unprotected from potential Iranian long-range ballistic missile 
threats. The United States is already protected against limited long-
range ballistic missile attacks, including against current and 
projected future threats from Iran. As part of the BMDS, the GMD 
element, with missile fields at Fort Greely, AK, and Vandenberg Air 
Force Base, CA, provides continuous operational capability to protect 
the Homeland against ICBMs. Given the uncertainties of future ICBM 
threats, including the rate at which they will mature, we plan to 
preserve our position of advantage by maintaining and enhancing our 
current midcourse defense capabilities.
    To that end, we will continue development of technologies to 
enhance SM-3 variants to defeat longer-range ballistic missiles. With 
deployments of the SM-3 IIA (2018) and SM-3 IIB (2020) in Europe, we 
will augment Homeland defenses by intercepting long-range ballistic 
missiles earlier in their flight.

    3. Senator Levin. Secretary Miller, General O'Reilly, and Admiral 
Macy, isn't it true that the currently deployed GMD system has the 
ability to defend the United States from a potential future Iranian 
long-range missile threat?
    Secretary Miller. Yes, the current GMD system is designed to 
protect the United States against limited ICBM attacks. This capability 
is a result of investments made over the past decade. Because of 
continuing improvements in the GMD system and the number of GBIs now 
deployed compared to potential North Korean and Iranian long-range 
ballistic missile capabilities, the United States possesses a 
capability to counter the projected threat from North Korea and Iran 
for the foreseeable future.
    General O'Reilly. Yes. The United States is already protected 
against limited long-range ballistic missile attacks, including 
projected future threats from Iran. By the end of fiscal year 2010, 30 
GBIs will be deployed as part of the BMDS. This capability will defend 
the Homeland for the foreseeable future from the potential ballistic 
missile threats from Iran.
    Admiral Macy. Yes. The United States is already protected against 
limited long-range ballistic missile attacks, including projected 
future threats from Iran. By the end of fiscal year 2010, 30 GBIs will 
be deployed as part of the BMDS. This capability will defend the 
Homeland for the foreseeable future from the potential ballistic 
missile threats from Iran.

    4. Senator Levin. Secretary Miller, General O'Reilly, and Admiral 
Macy, please describe the capability of our current GMD system and the 
capability planned with future GMD upgrades.
    Secretary Miller. By the end of fiscal year 2010, a total of 30 
GBIs will be deployed as part of the BMDS. Given the continuing 
improvements planned for the GMD element, 30 operational GBIs will 
defend the Homeland for the foreseeable future against the projected 
threat from North Korea and Iran. Eight additional empty silos, and 
storage of test and spare GBIs, will provide a hedge against any 
unanticipated ICBM threat growth. We will conduct stockpile 
surveillance of GBIs by testing all limited life components as GBIs are 
refurbished through 2032. Data collected from future GMD flight tests, 
results from the age surveillance program, and future intelligence 
estimates regarding the pace of ICBM growth will inform decisions on 
the need to procure additional GBIs. We continue to upgrade GMD to 
increase reliability and survivability and expand the ability to 
leverage new BMDS sensors as well as test GMD to accredit our 
simulations.
    The President's fiscal year 2011 budget request provides a 
substantial investment in the GMD element, a total of $5.9 billion 
across the Future Years Defense Plan (FYDP) intended to ensure the GMD 
element remains viable over the long term. We are requesting $1.3 
billion in fiscal year 2011 for GMD to continue our GBI refurbishment 
and reliability sustainment programs to: help sustain the fleet to 2032 
and support a service life extension decision around 2027; procure an 
additional 5 GBIs; complete Missile Field 2 in a 14-silo configuration 
to accommodate a contingency deployment of eight additional GBIs; 
upgrade GMD Fire Control ground system software to ensure GMD leverages 
BMDS increased discrimination and tracking capability as sensor, data 
fusion, and battle management network matures; and complete the 
installation of a second GMD command and control node at Fort Greely, 
AK. Additionally, we will continue operations and sustainment of the 
Sea-Based X-band radar (SBX) platform to prepare for transfer of the 
SBX operations to the U.S. Navy in 2012.
    General O'Reilly. The GMD system forms the foundation of our 
Homeland missile defense against limited ICBM attack today. By the end 
of fiscal year 2010, a total of 30 GBIs will be deployed as part of the 
BMDS with 26 at Fort Greely, AK and 4 at Vandenberg Air Force Base, CA. 
Given the continuing improvements planned for the GMD element, 30 
operational GBIs will defend the Homeland for the foreseeable future 
against the projected threat from North Korea and Iran. Eight 
additional empty silos and storage of test and spare GBIs will provide 
a hedge against unanticipated ICBM threat growth. We will conduct 
stockpile surveillance of GBIs by testing all limited life components 
as GBIs are refurbished through 2032. Data collected from future GMD 
flight tests, results from the aging and surveillance program, and 
future intelligence estimates regarding the pace of ICBM growth will 
inform decisions on the need to procure additional GBIs.
    We continue to upgrade GMD to increase reliability and 
survivability, expand the ability to leverage new BMDS sensors, and 
test GMD to accredit our models and simulations. Since the beginning of 
fiscal year 2009, MDA has delivered five new GBIs, upgraded Fire 
Control and Command Launch Equipment software, completed construction 
of a second GBI missile field at Fort Greely, AK, and delivered a new 
silo and an additional In-Flight Interceptor Communication System Data 
Terminal at Vandenberg Air Force Base, CA. Additionally, we are 
completing the missile defense upgrades to the Upgraded Early Warning 
Radar (UEWR) in Thule, Greenland, and we have transferred operation of 
the Cobra Dane Early Warning Radar and the Beale and Fylingdales UEWRs 
to the Air Force. We are continuing planning and design work to upgrade 
the Clear, AK Early Warning Radar.
    The President's fiscal year 2011 budget request provides a 
substantial investment in the GMD element, a total of $5.9 billion 
across the FYDP ensuring the GMD element remains effective and viable 
over the long term by funding element and system improvements. We are 
requesting $1.3 billion in fiscal year 2011 for GMD to continue our GBI 
refurbishment and reliability sustainment programs to help sustain the 
fleet to 2032 and support a service life extension decision around 
2027; procure an additional 5 GBIs; complete Missile Field 2 in a 14-
silo configuration to accommodate a contingency deployment of 8 
additional GBIs; upgrade GMD Fire Control ground system software to 
ensure GMD leverages BMDS increased discrimination and tracking 
capability as sensor, data fusion and battle management network 
matures; and complete the installation of a second GMD command and 
control node at Fort Greely, AK. Additionally, we will continue 
operations and sustainment of the SBX radar platform to prepare for 
transfer of the SBX operations to the U.S. Navy in 2012.
    Admiral Macy. The GMD system forms the foundation of our Homeland 
missile defense against limited ICBM attack today. By the end of fiscal 
year 2010, a total of 30 GBIs will be deployed as part of the BMDS with 
26 at Fort Greely, AK, and 4 at Vandenberg Air Force Base, CA. Given 
the continuing improvements planned for the GMD element, 30 operational 
GBIs will defend the Homeland for the foreseeable future against the 
projected threat from North Korea and Iran. Eight additional empty 
silos and storage of test and spare GBIs will provide a hedge against 
unanticipated ICBM threat growth. We will conduct stockpile 
surveillance of GBIs by testing all limited life components as GBIs are 
refurbished through 2032. Data collected from future GMD flight tests, 
results from the aging and surveillance program, and future 
intelligence estimates regarding the pace of ICBM growth will inform 
decisions on the need to procure additional GBIs.
    We continue to upgrade GMD to increase reliability and 
survivability, expand the ability to leverage new BMDS sensors, and 
test GMD to accredit our models and simulations. Since the beginning of 
fiscal year 2009, MDA has delivered five new GBIs, upgraded Fire 
Control and Command Launch Equipment software, completed construction 
of a second GBI missile field at Fort Greely, AK, and delivered a new 
silo and an additional In-Flight Interceptor Communication System Data 
Terminal at Vandenberg Air Force Base, CA. Additionally, we are 
completing the missile defense upgrades to the UEWR in Thule, 
Greenland, and we have transferred operation of the Cobra Dane Early 
Warning Radar and the Beale and Fylingdales UEWRs to the Air Force. We 
are continuing planning and design work to upgrade the Clear, AK Early 
Warning Radar.
    The President's fiscal year 2011 budget request provides a 
substantial investment in the GMD element, a total of $5.9 billion 
across the FYDP ensuring the GMD element remains effective and viable 
over the long term by funding element and system improvements. We are 
requesting $1.3 billion in fiscal year 2011 for GMD to continue our GBI 
refurbishment and reliability sustainment programs to help sustain the 
fleet to 2032 and support a service life extension decision around 
2027; procure an additional 5 GBIs; complete Missile Field 2 in a 14-
silo configuration to accommodate a contingency deployment of 8 
additional GBIs; upgrade GMD Fire Control ground system software to 
ensure GMD leverages BMDS increased discrimination and tracking 
capability as sensor, data fusion and battle management network 
matures; and complete the installation of a second GMD command and 
control node at Fort Greely, AK. Additionally, we will continue 
operations and sustainment of the SBX radar platform to prepare for 
transfer of the SBX operations to the U.S. Navy in 2012.

                            gmd enhancement
    5. Senator Levin. General O'Reilly, Phase 1 of the European PAA 
includes the planned deployment in the 2011 timeframe of a forward-
deployed AN/TPY-2 radar in southeastern Europe. You have indicated that 
this deployment will enhance the capability of the GMD system to defend 
against a potential future threat from Iran. Please describe the GMD 
capability enhancement that will come from such a deployment. For 
example, will the deployment of the AN/TPY-2 allow a more efficient use 
of GBIs against a potential future Iranian ICBM threat, or even permit 
a ``shoot-look-shoot'' firing doctrine?
    General O'Reilly. The United States plans to deploy missile 
defenses to counter more immediate regional ballistic missile threats 
to our forward-deployed troops and to our Allies in Europe. These plans 
involve a forward-deployed radar in Europe that will improve Homeland 
defense by detecting and tracking threat missiles launched out of the 
Middle East much earlier in the threat trajectory and provide high 
quality tracking information to the GMD element. This will increase the 
U.S. defended area performance and provide increased shoot-look-shoot 
capability across a greater portion of the United States.

                    commitment to fly-before-you-buy
    6. Senator Levin. Secretary Miller, one of the key points of the 
Ballistic Missile Defense Review (BMDR) is the policy that missile 
defense systems must be tested realistically and successfully to permit 
deployment. According to the BMDR, ``Before new capabilities are 
deployed, they must undergo testing that enables assessment under 
realistic operational conditions.'' Are DOD and the administration 
fully committed to operationally realistic testing and demonstrating 
capability before deploying new missile defense capabilities?
    Secretary Miller. The administration is committed to deploying 
capabilities that have been proven under extensive testing and 
assessment and are affordable over the long term. To strengthen the 
testing program, a number of steps are being taken. Working in close 
partnership with the Director of Operational Test and Evaluation, as 
requested by Congress, the Missile Defense Agency (MDA) announced a new 
approach to testing in June 2009.
    This program projects necessary test activities over the full 
course of each system's development, not just 2 years into the future 
as under the former program. These activities include a comprehensive 
set of ground and flight tests designed to demonstrate operational 
performance and validate models used to support an evaluation of system 
effectiveness. The new master plan is to be reviewed and updated 
semiannually. This new approach will be evaluated after 1 year of 
experience (June 2010), and any necessary adjustments will be made at 
that time.

    7. Senator Levin. Dr. Gilmore, General O'Reilly, and Admiral Macy, 
do you agree that this fly-before-you-buy approach is the right 
approach to take?
    Dr. Gilmore. Senator Levin's opening statement noted DOD has 
adopted a policy of requiring realistic and operational testing to 
demonstrate that our missile defense systems work before we deploy 
them. I agree that this ``fly-before-you-buy'' approach is correct. The 
MDA's Integrated Master Test Plan (IMTP), if successfully executed, 
should put into practice this approach and, over time, provide the data 
needed to evaluate quantitatively levels of confidence in the system's 
performance. My office will continue to work closely with the MDA, the 
BMDS Operational Test Agency, and the Combatant Commands to assure that 
system capabilities are adequately demonstrated by realistic testing 
prior to transitioning those systems to the acquiring services.
    General O'Reilly. A key tenet of the BMDR is to sufficiently test 
the capabilities and limitations of a missile defense system before we 
begin procurement, or ``fly before we buy.'' As such, missile defense 
projects are subject to production decisions by USD(AT&L). 
Additionally, we use the Services' standard material release and 
operational certification processes that also rely on developmental and 
operational test data prior to formally fielding initial capability.
    Admiral Macy. Absolutely. Testing new systems under operationally 
realistic conditions before committing to full-scale procurement is a 
key factor in ensuring the reliability of fielded assets.

                    operational testing now planned
    8. Senator Levin. Dr. Gilmore, for years I have been asking if the 
missile defense test plan included dedicated operational tests, and the 
answer has always been: No. This has been a disappointment, especially 
since some of the systems were deployed operationally. Does the current 
IMTP include plans for dedicated operational tests? If so, how soon 
would they begin?
    Dr. Gilmore. The current IMTP does include plans for dedicated 
operational testing. Operational testing, both ground and flight 
testing, is planned for each phase of the PAA. In fiscal year 2012 
(post Phase 1), the MDA intends to conduct a system-level operational 
test, FTO-1, featuring three ballistic missile targets to be 
intercepted by Aegis Ballistic Missile Defense (Aegis BMD) (version 
3.6.1), Terminal High Altitude Area Defense (THAAD), and Patriot. FTO-2 
is planned for fiscal year 2015 (Phase 2) and is a BMDS operational 
system-level flight test against five ballistic missile targets to be 
intercepted by GMD, Aegis BMD, THAAD, Aegis Ashore, and Patriot. FTO-3 
is planned for fiscal year 2018 (Phase 3) and is a BMDS operational 
system-level flight test against five ballistic missile targets 
employing the same elements as FTO-2 but in their upgraded 
configurations. The IMTP does not currently address Phase 4 testing 
that would be conducted in fiscal year 2020.
    Additionally, Aegis BMD will conduct flight test FTM-15 in third 
quarter fiscal year 2011 and THAAD will conduct flight test FTT-13 in 
second quarter fiscal year 2011. Both of these operationally realistic 
flight tests are planned to demonstrate capability against intermediate 
and medium range ballistic missiles, respectively, and to support my 
assessment of the PAA Phase 1 capability prior to the planned fiscal 
year 2011 deployments of these systems to the European theater. The MDA 
also plans to conduct ground testing of the command, control, battle 
management, and communications system in fiscal year 2011 to support 
the Phase 1 implementation.

    9. Senator Levin. Dr. Gilmore, has your organization reviewed and 
approved the plans for any such operational tests?
    Dr. Gilmore. My staff, along with the MDA, the combatant commands, 
and the BMDS Operational Test Agency participated in the development of 
the IMTP. Director, Operational Test and Evaluation (DOT&E) has been 
involved in the evaluation-based strategy underpinning the IMTP since 
General O'Reilly initiated its development in December 2008. In 
addition to detailed and day-to-day staff involvement in the 
formulation of the IMTP, I personally participated in a number of 
executive-level reviews and provided comments and guidance to the MDA. 
I approved the IMTP, which includes plans for operational testing. I 
expect that as the IMTP is executed, I will continue to review and 
approve the detailed operational test plans that support all 
significant BMDS operational testing, and that the realism of the 
testing conducted will increase over time.

                           no icbm tests yet
    10. Senator Levin. Dr. Gilmore, in your prepared testimony, you 
note that the GMD system ``has not yet attempted an intercept of an 
ICBM target.'' Since the purpose of the GMD system is to defend the 
United States against ICBMs, and it has not demonstrated such a 
capability, does this fact affect your assessment of the operational 
capability of GMD to defeat ICBM threats?
    Dr. Gilmore. As discussed in my February 2010 report to Congress 
assessing ballistic missile defense, GMD Flight tests FTG-02, FTG-03a, 
and FTG-05 demonstrated that the GMD has a limited capability to 
intercept a simple ballistic missile threat. Although the MDA used 
target missiles for these flight tests that did not duplicate the 
ranges that define ICBMs, re-entry vehicles that exhibited 
characteristics of ICBM re-entry vehicles were used. These tests 
provided data for a small portion of the substantial GMD performance 
envelope. The MDA is developing an ICBM class target. The current IMTP 
includes six GMD flight tests using these ICBM targets beginning in the 
third quarter of fiscal year 2015. Data obtained from these flight 
tests will inform future assessments.

    11. Senator Levin. Dr. Gilmore, if the GMD system demonstrates a 
capability to intercept ICBM targets, will that increase your 
confidence in the capability of the system?
    Dr. Gilmore. Test data from intercepts of ICBM targets are only 
some of the data I will need to determine a quantitative assessment of 
confidence in the capability provided by GMD. I will also need 
verified, validated, and accredited models and simulations that 
accurately replicate GMD performance. All the GMD flight tests and 
ground tests will be used to accomplish this task. These accredited 
models and simulations would then allow evaluation in the areas of the 
GMD performance envelope that are necessary for assessment but may be 
impossible to test due to safety or environmental reasons. The newly 
revised IMTP lays out a plan to obtain the data needed to rigorously 
accredit these models.

 no objective ballistic missile defense system assessment possible yet
    12. Senator Levin. Dr. Gilmore, in your prepared testimony, you 
state that ``the ability to conduct comprehensive and objective 
assessments of BMDS capability is still a number of years away,'' and 
that ``it will take as many as 5 to 7 years'' to collect the test data 
needed to validate models for missile defense capability. Does that 
mean that the ``comprehensive and objective assessments'' of our 
missile defense capability are at least 5 to 7 years away?
    Dr. Gilmore. Based upon the testing described in the most recent 
IMTP, my assessment is that it will take 5 to 7 years to collect the 
data needed to support rigorous, comprehensive, quantitative 
assessments of BMDS performance. During this time, however, there will 
be opportunities to complete limited verification, validation, and 
accreditation (VV&A) of some models and simulations. This should allow 
for some similarly limited quantitative assessments of the performance 
of selected BMDS elements.

    13. Senator Levin. Dr. Gilmore, since you note that there has been 
a history of missile defense test failures and delays, what affect 
would such delays in the future have on the schedule for collecting the 
necessary data and conducting the ``comprehensive and objective 
assessments'' you mentioned?
    Dr. Gilmore. In the IMTP, each test is designed to collect data for 
VV&A of the models and simulations. These data elements are defined as 
either Critical Engagement Conditions (CECs) or Empirical Measurement 
Events (EMEs). The IMTP is revised every 6 months. When a test failure 
occurs, preventing collection of planned CECs/EMEs, the IMTP revision 
process, in which my office participates, reviews the current test 
program for opportunities to collect the CECs/EMEs using other tests or 
to add new tests, as necessary. This is the case with the recent 
failure during FTG-06. FTG-06a is being planned and will be 
incorporated in a revised IMTP.
    No test plan as complex as the IMTP has ever been executed exactly 
as planned. There are always unforeseen system responses and failures 
that occur and require adjustments to the test plan. If such problems 
do not arise, it likely means that the testing being conducted is not 
robust. The delays in collecting data caused by test failures could 
vary from several months to more than 1 year depending upon many 
details including the BMDS element involved in the test and the targets 
used in the test.

    14. Senator Levin. General O'Reilly, do you agree with Dr. Gilmore 
that only subjective assessments of the missile defense system 
capability are possible to date, and not objective assessments, because 
of the lack of test data?
    General O'Reilly. I concur with the January 2010 DOT&E assessment 
that ``if MDA can execute the IMTP as planned, successful VV&A of BMDS 
models and simulations should result, enabling quantitative and 
objective rather than subjective assessments of the BMDS capability in 
the future.'' I further agree with the DOT&E conclusion that 
``objective assessments of the BMDS capability are still a number of 
years in the future.''

                       ftg-06 flight test problem
    15. Senator Levin. General O'Reilly, what went wrong with the most 
recent GMD flight test at the end of January, FTG-06?
    General O'Reilly. Although we have had three intercepts out of 
three previous attempts (FTG-02, FTG-03a, FTG-05) using the GMD system, 
our newest variant of the kill vehicle, relying on data from the Sea-
Based X-band (SBX) radar, failed to intercept a target in January 2010 
during FTG-06, a flight test to measure GMD's performance closer to its 
maximum operational intercept range. The GBI launched successfully from 
Vandenberg Air Force Base (VAFB) and the newly designed LV-2 long-range 
target successfully flew for the first time out of the Reagan Test Site 
in the Kwajalein Atoll 7,500 km away.
    The target complex was acquired and initially tracked by the SBX in 
the Pacific and track data was provided to GMD Fire Control (GFC). A 
Weapons Task Plan was generated and transmitted to the Command Launch 
Equipment located at VAFB. A GBI was then launched from an 
operationally-configured GMD silo, at VAFB. After the GBI launched, the 
SBX ceased providing data to the GFC earlier than planned.
    Even without target position updates from the SBX, the 
Exoatmospheric Kill Vehicle (EKV) transitioned to target acquisition 
mode, but, due to an on-board failure, the EKV was unable to intercept 
the target. The SBX and EKV failures are under investigation by the 
FTG-06 Failure Investigation Team.
    Despite the failure to intercept, we collected extensive system and 
component performance data on the SBX, the GBI, the EKV, and the 
target. We discovered new failure modes for the SBX, the EKV flew more 
than twice the distance it had flown in previous tests, and we 
collected significant new data on its ability to acquire and track the 
target.
    During FTG-06, we obtained model validation data on CECs related to 
long interceptor time-of-flight. We collected EME data on EKV 
performance against a complex ballistic missile threat scene and a 
medium closing velocity intercept. As a result, current deployed 
systems will benefit from FTG-06 because it advanced simulation 
development and confirmed BMDS performance metrics.

    16. Senator Levin. General O'Reilly, when do you expect the Failure 
Review Board to complete its assessment?
    General O'Reilly. A Failure Investigation Team was chartered on 
February 4, 2010 to investigate and determine the precise root cause of 
failure. The failure investigation is expected to continue for several 
more months before root-cause is determined and verified. The expected 
date for completion of a final report including an assessment of the 
failure is August 2010.

    17. Senator Levin. General O'Reilly, what do you plan to do about 
fixing the problems?
    General O'Reilly. I intend to implement corrective actions once the 
root cause of the failure is confirmed.

    18. Senator Levin. General O'Reilly, will you repeat the test after 
you think you have fixed the problem?
    General O'Reilly. Yes, I intend to repeat the test as soon as 
feasible after the root cause of the failure is confirmed and we have 
implemented corrective actions.

    19. Senator Levin. General O'Reilly, what implications are there, 
if any, for currently deployed systems?
    General O'Reilly. After a final report and assessment of the 
failure is provided, we will examine any implications to the deployed 
BMDS.

                     new start and missile defense
    20. Senator Levin. Secretary Miller, General O'Reilly, and Admiral 
Macy, there have been some concerns expressed by critics that the New 
Strategic Arms Reduction Treaty (START) constrains our BMD program. 
Does the treaty constrain U.S. missile defense capabilities or 
programs?
    Secretary Miller. The New START treaty does not constrain the 
United States from deploying the most effective missile defenses 
possible, nor does the New START treaty add any additional cost or 
inconvenience to our missile defense plans. As the BMDR, our budget 
submission and projections, and the U.S. unilateral statement made in 
connection with the New START treaty all make clear, the United States 
will continue to improve its missile defenses throughout the next 
decade.
    The New START treaty touches on missile defense in three parts: in 
the Preamble, in Article V, and in the unilateral statements made by 
both Russia and the United States.
    The Preamble of the Treaty contains a statement acknowledging the 
interrelationship of strategic offensive and strategic defensive arms. 
President Obama and President Medvedev recognized in their Joint 
Understanding of July 2009 that this relationship will become more 
important as strategic offensive arms are reduced; they note current 
strategic defensive forces do not threaten to undermine the 
effectiveness of the Parties' strategic offensive arms.
    Regarding the treaty's ban in Article V, paragraph 3, on the 
conversion of ICBM or SLBM launchers to missile defense interceptor 
launchers and vice versa, MDA Director Lieutenant General O'Reilly has 
made clear that this ban does not constrain MDA's plans. Should 
additional missile defense launchers be needed, we would build the 
smaller, much less expensive, tailor-made GBI silos rather than convert 
costly ICBM silos. Moreover, use of SLBM launchers for missile defense 
interceptors is an unattractive option and would be unreasonably 
expensive.
    Russia's unilateral statement made in connection with the treaty 
raises the possibility of Russian withdrawal from the treaty if 
qualitative and quantitative improvements in U.S. missile defense were 
to threaten the viability of the Russian strategic nuclear deterrent. 
In fact, both sides have the right to withdraw from the treaty under 
Article XIV if they deem it necessary due to extraordinary developments 
which threaten supreme national interests. Such withdrawal clauses are 
common in treaties, especially in the case of arms control agreements. 
The U.S. unilateral statement takes note of the Russian statement but 
makes clear that U.S. missile defense systems do not threaten Russia 
and that the United States intends to continue to deploy improved 
missile defense systems to defend the U.S. Homeland from limited 
attacks and to defend collaboratively its deployed forces, allies, and 
partners against regional threats.
    General O'Reilly. The New START treaty does not impede the 
development and fielding of U.S. missile defenses, and it eliminates 
START constraints on development and testing. The New START treaty does 
not contain limitations that impact the U.S. plan to develop and field 
missile interceptor systems.
    Specifically, missile defense targets will no longer be subject to 
START constraints which limited and complicated MDA use of air-launched 
and waterborne launches of target missiles. Use of these targets is 
essential for the cost-effective testing of missile defense 
interceptors against medium- and intermediate-range ballistic missiles 
in the Pacific region.
    Admiral Macy. The New START treaty does not place constraints on 
missile defense testing programs as did START, which banned production, 
testing, or deployment of ballistic missiles or their launchers on 
waterborne vehicles other than submarines. This same ban also applied 
to air-to-surface ballistic missiles. New START has done away with 
these prohibitions and provides MDA with more flexibility in its 
testing capabilities. New START also has no constraints on MDA to 
conduct missile launches from any number of space launch facilities as 
the previous START had limited.

    21. Senator Levin. General O'Reilly, there were suggestions that, 
rather than negotiating a New START, we should simply extend the 
previous START I agreement. You have expressed the view that the 
previous START constrained our missile defense testing options. If we 
had extended the previous START I agreement, would that have 
perpetuated the constraints on our missile defense testing options?
    General O'Reilly. Yes. MDA's intermediate-range LV-2 target missile 
system, used in key tests to demonstrate Homeland defense capabilities 
and the first phase of the new PAA to missile defense, was accountable 
under the START because it employs the first stage of the now-retired 
long-range Trident I SLBM. Due to the LV-2's accountability under START 
it was subject to START movement reporting, launch location 
restrictions and telemetry collection and sharing requirements. These 
constraints limited the value the of LV-2 target system in BMDS testing 
by, among other things, restricting the number of locations from which 
the LV-2 could be launched.

    22. Senator Levin. General O'Reilly, from your perspective, is the 
New START better than the old START from a missile defense testing and 
development standpoint?
    General O'Reilly. The New START treaty does not impede the 
development and fielding of U.S. missile defenses, and it eliminates 
START constraints on development and testing. The New START treaty does 
not contain limitations that impact the U.S. plan to develop and field 
missile interceptor systems.
    Specifically, because the Trident I is not included in the New 
START treaty the LV-2 is no longer subject to START constraints. This 
will allow MDA to examine alternative LV-2 target launch sites for more 
efficient test architectures and geometries by exploring other ways to 
make use of this target that is now free from START constraints. The 
result is that MDA will be able to improve BMDS performance for defense 
of the Homeland and examine efficiencies and enhancements to the BMDS 
testing program by taking advantage of new flexibilities, as well as 
opportunities to reduce cost.

                missile defense cooperation with russia
    23. Senator Levin. Secretary Miller, in your prepared testimony, 
you state that ``the administration has given special emphasis to 
renewing cooperation with Russia on missile defense,'' and that ``we 
are making a concerted effort to identify areas where the United States 
and Russia can pursue meaningful cooperation'' on missile defense. You 
then describe a number of options being considered, including ``sharing 
data gathered by existing U.S. and Russian radar installations; 
conducting collaborative missile defense flight tests; and undertaking 
experiments that would combine data from U.S. ground- and space-based 
sensors with data from Russian sensors such as the radars at Qabala, 
Azerbaijan and at Armavir, in southern Russia.'' Do you agree that such 
cooperation with Russia would send a powerful signal to Iran that we 
are united against their threatening policies and programs?
    Secretary Miller. Yes. Cooperation with Russia on missile defense 
would send a powerful signal to Iran that Russia and the United States 
are working together to counter the threat posed by Iran's 
proliferating of ballistic missiles and pursuit of nuclear capability.

    24. Senator Levin. General O'Reilly and Admiral Macy, do you 
believe such cooperation, particularly sharing radar data on missile 
launches, and cooperative flight tests, would be beneficial to our 
missile defense capabilities?
    General O'Reilly. Yes, we continue to support expert dialogue on 
cooperative efforts with the Russian Federation, whose surveillance 
radars would enhance our ability to monitor ballistic missile 
development and flight testing in Southwest Asia. There are 
opportunities for us to cooperate in sharing our sensor data, our 
future research and development, and our command and control activities 
and exercises in order to build confidence between both sides that 
we're not threatening each other, but we are building ourselves a 
defense against the proliferation of these missiles.
    Admiral Macy. Yes, we continue to support expert dialogue on 
cooperative efforts with the Russian Federation, whose surveillance 
radars would enhance our ability to monitor ballistic missile 
development and flight testing in Southwest Asia. There are 
opportunities for us to cooperate in the areas of shared sensor data, 
research and development, and command and control activities and 
exercises in order to build confidence between both sides that we're 
not threatening each other, but we are building ourselves a defense 
against the proliferation of these missiles.

    25. Senator Levin. Admiral Macy and General O'Reilly, do you think 
it is technically possible that the PAA to missile defense could 
provide defensive coverage of parts of western Russia against Iranian 
missiles?
    Admiral Macy. Yes, it is technically possible.
    General O'Reilly. Yes, it is technically possible.

                         contractor performance
    26. Senator Levin. General O'Reilly, you have expressed 
disappointment with the poor quality of some contractors' performance, 
including the failure of an air-launched target in an important THAAD 
flight test. Please describe your quality concerns, using specific 
examples.
    General O'Reilly. After the failure of a target missile in a THAAD 
test last December we convened a Failure Review Board. This board 
determined that a contractor had unacceptably low standards of 
engineering rigor, quality control and mission assurance which led to 
the root cause failure. Subsequently, we suspended the use of air-
launched targets and prohibited the use of ballistic targets contracted 
or subcontracted from that contractor. MDA is awaiting evidence of 
improvement at the contractor before we continue funding.

    27. Senator Levin. General O'Reilly, what steps are you taking to 
rectify the poor performance of the contractors and to ensure sustained 
quality improvements in the future?
    General O'Reilly. The precision of missile defense systems requires 
stringent manufacturing standards and quality control of all products. 
We have had many successes in improving our prime contractor and 
supplier quality assurance. In each case, companies were willing to 
identify shortfalls, invest in new capital assets and attain 
experienced leadership in changing cultures to establish the enduring 
discipline required to consistently deliver precision missile defense 
products. However, not all companies have sufficiently improved.
    Until we complete planned competitions with updated contract 
incentive types appropriate for the particular phase of development 
(e.g., firm fixed price, cost plus award fee, etc.) and defect clauses, 
we will continue to motivate senior industry management to improve 
through intensive inspections, low award fees, issuance of cure 
notices, stopping the funding of new contract scope, and documentation 
of inadequate quality control performance to influence future contract 
awards. We are increasing emphasis on competition at all phases of a 
program's acquisition life cycle to ensure the highest performance and 
quality standards are sustained throughout development.
    Additionally, over the past year, we have initiated a new target 
acquisition strategy to increase competition, improve quality control, 
and reduce costs.

                aegis ashore test facility authorization
    28. Senator Levin. General O'Reilly, last year Congress 
appropriated $68.5 million for construction of an Aegis Ashore Test 
Facility at the Pacific Missile Range Facility in Hawaii to permit 
testing of the planned land-based SM-3 interceptor system for Europe. 
However, the request came after the Defense Authorization process was 
complete, and there was not enough information available for us to 
authorize the project separately. Senator McCain and I filed a separate 
bill to authorize the project as soon as the project information was 
complete, but we understand that DOD is seeking to have Congress 
authorize the project, as an amendment to the National Defense 
Authorization Act for Fiscal Year 2010. Is it correct that DOD needs 
this Aegis Ashore Test Facility authorized now, in order to permit the 
testing that is needed to maintain the President's schedule for Phase 
II of the PAA to missile defense in Europe in the 2015 timeframe?
    General O'Reilly. Yes, authorization of the $68.5 million of fiscal 
year 2010 Military Construction (MILCON) funding for the Aegis Ashore 
Missile Defense Test Complex (AAMDTC) at the Pacific Missile Range 
Facility in Hawaii is needed before we can carry out the project. The 
funds must be placed on contract in the first half of fiscal year 2011 
to meet Aegis Ashore development and test schedules.
    In Phase II of the PAA, the first operational Aegis Ashore system 
will be installed in Romania in fiscal year 2015. The AAMDTC provides 
an operationally realistic environment to prove the effectiveness and 
suitability of Aegis Ashore prior to deployment in a host nation and is 
consistent with the Department's fly-before-you-buy approach.
    If the Department does not receive authorization of the $68.5 
million of MILCON in fiscal year 2011, the availability of the land-
based SM-3 Block IB to be fielded in Phase II will be delayed a year, 
to the end of 2016. Therefore, fiscal year 2011 authorization of the 
fiscal year 2010 MILCON funding of $68.5 million for the AAMDTC is 
crucial.

    29. Senator Levin. Secretary Miller, is DOD still planning to meet 
the President's 2015 schedule for Phase II?
    Secretary Miller. Yes.

                     acquisition oversight process
    30. Senator Levin. General O'Reilly, the MDA has a unique high-
level acquisition oversight process through an organization called the 
Missile Defense Executive Board (MDEB). The BMDR stated that this 
process is adequate, and there is no need to place MDA under the 
Defense Acquisition Board (DAB) process. Can you explain why you and 
DOD believe the MDEB process is sufficiently rigorous, and why you 
believe it is a better mechanism than the DAB would be?
    General O'Reilly. The characteristics of the MDEB acquisition 
oversight process are uniquely suited to managing the BMDS. For 
example:

        - MDEB meets more frequently on the BMDS than similar boards 
        (e.g., Defense Acquisition Board) that govern a broader mission 
        area across the DOD.
        - The MDEB leadership and decisionmakers (USD(AT&L) and VCJCS) 
        have more BMDS-specific information available to them 
        concerning the focused BMD mission area.
        - The MDEB as well as the Deputy Secretary of Defense-directed 
        Life Cycle Management Process, enables collaboration between 
        the acquisition and requirements decision authorities.

    The Government Accountability Office (GAO) recently reported (GAO 
10-311) on the MDA acquisition process stating ``importantly, the 
Director has begun new initiatives and in accordance with guiding 
principles of DOD's acquisition policies, which already embrace 
knowledge-based practices and sound management controls.''

                   establishing acquisition baselines
    31. Senator Levin. General O'Reilly, you have stated your plan to 
establish acquisition baselines for a number of components of your 
program, including cost, schedule, performance, and testing. This is 
something that GAO has been recommending for many years, and something 
this committee has encouraged also. Previous MDA directors have said 
they would establish such baselines, but it did not happen. 
Specifically what baselines are you planning to establish, and how will 
they be used to help manage and evaluate your acquisition programs?
    General O'Reilly. MDA has established six baselines (resource, 
schedule, technical, test, contract, and operational baselines) to plan 
and manage the execution of missile defense projects. I approve the 
baselines of technology development programs, and jointly sign with 
lead Service Acquisition Executives the baselines of MDA projects in 
product development. These six baselines not only assist in our cost-
effective management of MDA projects, but also provide transparency and 
accountability to the MDEB and Congress on the progress of our 
execution. The cost (resource), schedule, performance (technical), and 
test baselines being established this spring will be submitted to 
Congress in a BMDS Accountability Report in June. We will update the 
baselines, as required, through the MDA Program Change Board process. 
Finally, the baselines for the Product Development projects will form 
the basis for USD(AT&L) production decisions.

    32. Senator Levin. General O'Reilly, are you committed to 
establishing these baselines and providing them to Congress, as well as 
to the MDEB and to GAO?
    General O'Reilly. Yes. The baselines will provide the basis for our 
annual report to Congress (BMDS Accountability Report), which is also 
provided to USD(AT&L) and GAO.

                     patriot deployments to poland
    33. Senator Levin. Secretary Miller, your prepared testimony 
indicates that Poland has ratified the supplemental Status of Forces 
Agreement (SOFA) with the United States, which covers the stationing of 
U.S. military personnel in Poland in association with missile defense. 
I understood that at some point after that ratification, the United 
States would begin rotational deployments of a U.S. Army Patriot 
battery for training purposes in Poland. Is that rotational deployment 
of a Patriot training battery still on track, and if so, when will it 
begin?
    Secretary Miller. The rotational deployment of a Patriot training 
battery is still on track. The Polish ratification of the Status of 
Forces Supplemental Agreement took place on February 26, 2010, and the 
deployment will begin within 90 days of Poland's ratification.

    34. Senator Levin. Admiral Macy, does this rotational deployment to 
Poland have an impact on our planning and force management for possible 
contingency deployment of Patriot capabilities elsewhere?
    Admiral Macy. There is an impact but it is manageable. Planning and 
force management for possible contingencies elsewhere is a normal part 
of all deployments and operations. When any unit is engaged in a 
mission for a finite amount of time--such as a 30-day rotational 
deployment to Poland--the combatant command will assess how it will 
meet directed contingency missions elsewhere and plan accordingly.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
                 nato and the phased adaptive approach
    35. Senator McCaskill. Secretary Miller, I think everyone in NATO 
can agree that Iran is a clear and dangerous threat. But I know our 
allies have many questions about the new European PAA. France, for 
example, has publicly expressed concerns. Like me, they want to know 
about cost, implementation, and effectiveness of this program. In 
particular, in these economically strained times, I am wondering how 
NATO allies are looking to the future on funding this program. You have 
Greece in financial crisis and our smaller allies, such as the Baltic 
States, really straining to contribute to missions in Afghanistan, 
address their important economic needs, and keep their publics in 
support of broader NATO missions. Please explain what kind of cost 
implication the new PAA strategy has for NATO allies and whether they 
are enthusiastic about participating or not.
    Secretary Miller. At the NATO Foreign Ministerial in December 2009, 
Allies unanimously stated, ``We welcome the new PAA of the United 
States to missile defence, which further reinforces NATO's central role 
in missile defence in Europe.'' In addition, Romania and Poland have 
agreed to host land-based sites in of the European PAA in 2015 and 2018 
respectively. Thus, even amidst financial challenges, NATO members have 
embraced the collective importance of missile defense in recognition of 
the evolving threat.
    The United States will fund the European PAA. This U.S.-funded 
European PAA will be the U.S. contribution to NATO's missile defense 
efforts. NATO and Allies including the French, Germans, Dutch, Greeks, 
Italians, and Spanish have focused their missile defense efforts in 
recent years on missile defense systems to protect deployed forces from 
shorter-range ballistic missile threats. These NATO countries already 
possess, or are acquiring, missile defense capabilities.
    NATO is also developing a command and control network called the 
Active Layered Theater Ballistic Missile Defense (ALTBMD) program that 
will allow Allies to link their missile defense assets together. ALTBMD 
could allow current and future NATO national systems-including those of 
the United States-to be able to ``plug-and-play'' with the overall NATO 
effort and the PAA assets.
    NATO is currently funding the component of ALTBMD that will provide 
command and control for defense of deployed forces only. Allies' costs 
for territorial missile defense in Europe would come from the potential 
expansion of ALTBMD, including command and control linkages for Allies' 
territorial missile defense efforts. NATO has funded a study to examine 
the implications and costs of expanding ALTBMD's mission to include 
command and control (C2) for defense of territory.

    36. Senator McCaskill. Secretary Miller, if the United States is 
going to burden the lion's share of the cost, which I expect it will, 
how are those costs factored into the new cost of the system?
    Secretary Miller. The President's budget request for fiscal year 
2011 includes $2.7 billion for regional missile defense. If 
appropriated, this will begin funding the conversion of additional 
Aegis ships to be BMD capable, and the purchase of additional SM-3 
interceptors, THAAD batteries, and AN/TPY-2 radars, along with covering 
other costs associated with the PAA for Europe. The FYDP will also 
reflect the longer-term cost associated with European PAA.

                               new start
    37. Senator McCaskill. Secretary Miller, I applaud you all for your 
efforts in getting New START signed. That is a great step with Russia 
and an important step related to nuclear arms reductions. But in my 
experience, there is usually a tradeoff for most advances with the 
Russians. Where are you in dissuading Russia from delivering to Iran 
the S-300 anti-aircraft system?
    Secretary Miller. We have continued to make clear to the Russian 
government that we oppose the delivery of the S-300 and believe it 
would be a destabilizing and counterproductive step given Iran's 
refusal to live up to its international obligations and that Russia and 
the United States are currently discussing possible new U.N. sanctions 
on Iran. We are pleased that, to date, Russia has not delivered the 
system. However, to date Russia has declined to cancel the sale.

    38. Senator McCaskill. Secretary Miller, if Iran were to get the 
system, would it be a setback to our missile defense deterrent, as Iran 
has recently boasted?
    Secretary Miller. If Iran were to acquire the S-300 air defense 
system, it would not affect the deterrent and defensive value of our 
missile defenses. However, we have continued to make clear to the 
Russian Government that we oppose the delivery of the S-300 and believe 
it would be a destabilizing and counterproductive step given Iran's 
refusal to live up to its international obligations.

                        israeli missile defense
    39. Senator McCaskill. Secretary Miller, when Under Secretary 
Flournoy discussed missile defense before this committee last 
September, she said that Israel had not explicitly consulted on the new 
PAA but that the system would be compatible with Israel's ongoing 
missile defense programs. Are you confident that our new PAA is able to 
be integrated with Israel's missile defense system?
    Secretary Miller. Israel was not explicitly consulted about our 
change in missile defense approach for Europe. However, the United 
States and Israel coordinate extensively on missile defense issues. We 
have a long history of cooperative research and development, which has 
borne fruit in the deployment of Israel's Arrow missile defense system. 
Arrow is interoperable with U.S. systems. The United States and Israel 
also cooperate on missile defense operational issues through a program 
of joint exercises. The PAA--particularly its emphasis on advanced 
mobile BMD systems--is an advantageous framework when applied to 
ballistic missile defense cooperation with Israel. The applicability of 
this approach was successfully examined at recent exercises, such as 
the U.S.-Israel Juniper Cobra exercise.

    40. Senator McCaskill. Secretary Miller, please explain what value 
added Israel will get from the new PAA in terms of protection and 
strategic advantage. Is Israel more protected by the new system?
    Secretary Miller. The increase in investments in regional missile 
defense assets and flexible capabilities associated with a PAA to 
regional missile defense, which can surge into the region in times of a 
political-military crisis, would benefit Israel. Our missile defense 
cooperation with Israel is already advanced and will continue.
    In addition to conducting major missile defense exercises with 
Israel, the most recent of which occurred in November 2009, the United 
States and Israel continue to meet regularly and coordinate extensively 
on a wide range of missile defense plans and operations. Moreover, our 
extensive support for Israel includes deployment of a US forward based 
AN/TPY-2 X-band radar to Israel, and support for Israeli missile 
defense programs such as the existing Arrow Weapons System, Arrow-2 
production, Arrow-3 development, and the development of a new program, 
David's Sling, for defeating short-range ballistic missiles.

    41. Senator McCaskill. Secretary Miller, how will the new PAA 
approach provide added protection to our friends in the Gulf?
    Secretary Miller. The United States will pursue a PAA within each 
region that is tailored to the threats unique to that region, including 
their scale, the scope and pace of their development, and the 
capabilities available and most suited for deployment.
    In the Persian Gulf, the United States has a continuous missile 
defense presence and seeks to build on the Bilateral Air Defense 
Initiative to strengthen cooperation. The United States is also working 
with a number of partners in the region on purchases of missile defense 
capabilities under the auspices of the foreign military sales program.

    42. Senator McCaskill. Secretary Miller, is this system integrated 
with our efforts in Israel?
    Secretary Miller. Israel's missile defense assets are designed to 
be interoperable with U.S. systems.

                           pakistan and india
    43. Senator McCaskill. Secretary Miller, I'd like to push more on 
how the new PAA approach affects countries to the north and east of 
Iran, which the Pentagon has not addressed much. Can you explain how, 
if at all, Pakistan (which borders Iran) fits into the new PAA 
calculus?
    Secretary Miller. While Pakistan is an important security partner, 
we are not engaged in missile defense cooperation activities at this 
time.

    44. Senator McCaskill. Secretary Miller, what missile defense 
protection do the Pakistanis currently receive from U.S. assets in the 
region?
    Secretary Miller. While Pakistan is an important security partner, 
we are not engaged in missile defense cooperation activities with 
Pakistan at this time.

    45. Senator McCaskill. Secretary Miller, will the Aegis ship 
approach provide them with any additional protection?
    Secretary Miller. While Pakistan is an important security partner, 
we are not engaged in missile defense cooperation activities with 
Pakistan at this time.

    46. Senator McCaskill. Secretary Miller, I know India has recently 
done testing for its own missile defense systems, including its 
interceptors. Where are we in terms of integrating our own missile 
defense strategy with India, and how is Iran factored into our mutual 
calculus, if at all?
    Secretary Miller. In the 2005 ``New Framework for the U.S.-India 
Defense Relationship,'' the governments of the United States and India 
agreed to expand collaboration relating to missile defense. This 
resulted in three successful U.S.-India missile defense table-top 
exercises and a bilateral meeting in 2008 to discuss ideas for further 
cooperation. We look forward to continued cooperation with India.

    47. Senator McCaskill. Secretary Miller, how will the new PAA (and 
sea-based approach) help India, if at all?
    Secretary Miller. India is an important security partner, but we do 
not have operational missile defense cooperation activities with India 
at this time.

                       missile defense capability
    48. Senator McCaskill. Admiral Macy and General O'Reilly, section 
125 of the National Defense Authorization Act for Fiscal Year 2010 
requires the Secretary of the Navy to submit a joint review with the 
head of the MDA to set forth requirements for investment in Aegis BMD-
capable cruisers and destroyers. Please provide the status of where 
this review is headed with respect to determining the final number of 
Aegis ships that will be equipped with missile defense capabilities.
    Admiral Macy and General O'Reilly. Navy and the MDA completed the 
requested report and forwarded to Congress on April 19, 2010. The 
conclusions of the report state:
    ``Navy and MDA have jointly concluded that the plan for 38 funded 
surface combatants with Aegis BMD (by fiscal year 2015) contained in 
PB11 reflects an achievable balance of capacity and capability, while 
sustaining the requisite number of multi-mission Aegis cruisers and 
destroyers deployed worldwide to meet concurrent surface combatant 
requirements. The plan is consistent with QDR force-sizing guidance. 
Further increases to BMD capacity through additional new construction 
Aegis ships beyond those contained in Navy's 30-Year Shipbuilding Plan 
are not considered necessary.''

    49. Senator McCaskill. Admiral Macy, what percentage of your future 
cruisers and destroyers (not the current fleet) are planned to be 
missile-defense capable?
    Admiral Macy. Under the program of record, 33 of the Navy's 88 
Aegis ships will be BMD capable by the end of the FYDP (2015), for a 
total of 43 percent. Under the current modernization plan, this 
percentage is expected to increase to 75 percent by 2025 and approach 
100 percent by 2030.

    50. Senator McCaskill. Secretary Miller, I recently returned from a 
trip to Afghanistan that also included time at NATO headquarters in 
Brussels, where I received briefings on missile defense and met with 
key NATO allies on the implications of the new PAA to missile defense. 
Many of the allies I spoke with were interested in how we plan to 
resource and distribute our missile defense--capable Aegis assets and 
how they will be included in that calculus. Where are U.S. European 
Command (EUCOM) and U.S. Central Command in the planning process for 
testing of Aegis systems in the EUCOM area of responsibility (AOR)?
    Secretary Miller. The Department will rely on the Global Force 
Management (GFM) process to assist in decisions on the allocation of 
missile defense forces among the geographical combatant commands.
    The GFM process is designed to adjudicate competing requirements 
from the various combatant commands. This approach underscores the 
value of developing capabilities that are flexible and adaptive and 
also relocatable, so that they can be surged into regions, as 
necessary.
    The United States will test PAA assets including Aegis systems 
prior to their deployment. Most of our operational testing takes place 
in the Pacific using our test range and the missile defense test 
monitoring equipment there. Our missile defense assets are or will be 
tested before they are deployed to the combatant commanders' AORs.

    51. Senator McCaskill. Secretary Miller, are we on track for tests 
to begin in 2011?
    Secretary Miller. Our missile defense assets are or will be tested 
before they are deployed to the Combatant Commanders' areas of 
responsibility. For example, those Aegis BMD ships that are currently 
deployed have already been tested and are fully operational.

    52. Senator McCaskill. Secretary Miller, which allies will be 
included in that process and to what extent?
    Secretary Miller. As part of our Phase 1 architecture, we plan to 
deploy a forward-based radar in Southeastern Europe. The other assets 
that are to be deployed as part of Phase 1 of the European PAA are sea-
based and will not require any formal bilateral cooperation other than 
that which already exists for such activities as port calls, refueling, 
etc.
    In addition, the United States will continue its cooperative 
efforts with NATO Allies. The PAA aligns U.S. missile defense plans in 
Europe more closely with Allies' existing missile defense efforts. NATO 
missile defense efforts in recent years have focused on missile defense 
systems to protect deployed forces from shorter range ballistic missile 
threats. Several NATO countries already possess or are acquiring 
missile defense capabilities. For example, several have PATRIOT systems 
(Netherlands, Germany, and Greece). Italy, Germany, and the United 
States are cooperatively developing the Medium Extended Air Defense 
System (MEADS). Others have expressed interest in acquiring systems 
like Patriot and the SM-3. NATO is also developing a command and 
control network that will allow Allies to link their missile defense 
assets together, called the ALTBMD program. ALTBMD could allow current 
and future national systems--including those of the United States--to 
``plug-and-play'' with the overall NATO effort and the PAA assets.

    53. Senator McCaskill. Secretary Miller, I know that some allies 
have a greater comfort level than others with Russian involvement in 
building the missile defense ``roof,'' so to speak, over Europe. Are 
you considering including Russia in any Aegis-related exercises or 
activities, either bilaterally or through the NATO forum?
    Secretary Miller. We are continuing bilateral discussions with 
Russia on missile defense cooperation focusing on a broad agenda that 
includes shared early warning of missile launches, possible technical 
cooperation, and even eventual operational cooperation with Russia. We 
believe we share common interests in missile defense cooperation, and 
are undertaking a common threat assessment as an initial cooperative 
step.
    We are also exploring NATO-Russia missile defense cooperation. As 
Secretary Clinton said in April 2010, ``Following the restart of the 
NATO-Russia Council last December and the recent signing of the New 
START treaty, there is considerable momentum within the alliance for 
moving ahead with Russia on areas of common concern and shared 
responsibility. We are exploring how best to work within the NATO-
Russia Council itself and we are committed to obtaining greater 
transparency and practical cooperation on issues like missile 
defense.''
                                 ______
                                 
               Questions Submitted by Senator Mark Udall
                    precision tracking space system
    54. Senator Udall. General O'Reilly, I'd like to follow up on my 
questions about MDA's acquisition of the Precision Tracking Space 
System (PTSS) program. As I understand this program, it will grow on 
the lessons learned in the Space Tracking Space System (STSS) program, 
eventually fielding 9 to 12 satellites and associated ground stations. 
You indicated that the PTSS program is being managed by Johns Hopkins 
University and the Naval Research Lab (NRL), as they have a proven 
track record for launching satellites of this size. It is my 
understanding that these organizations have a history of providing 
experimental satellites, but I am not aware that they have experience 
with the acquisition of an operational satellite constellation. What 
operational space programs has the NRL or Johns Hopkins fielded?
    General O'Reilly. The Johns Hopkins University Applied Physics 
Laboratory (APL) and the NRL have a long history of developing 
prototype space systems and transitioning them to Government 
operational elements with industry suppliers. The PTSS plan is for APL 
and NRL, in collaboration with laboratory partners such as Sandia 
National Labs, Massachusetts Institute of Technology Lincoln Labs, and 
Utah State University's Space Dynamics Lab, to conduct a prototyping 
effort for PTSS and transition the production effort to industry. MDA 
does not intend for APL or NRL to field the operational PTSS.
    MDA is implementing Service Cells within the PTSS project office--a 
lesson learned from the experience transferring Cobra Dane Upgrade from 
MDA to the Air Force in early 2009. Specifically, Service 
representatives embedded in BMDS program offices during development 
improve MDA-Service interaction, transparency and program efficiency.
    In April and May 2010, the Air Force and MDA conducted discussions 
for an Air Force Space Command cell in the PTSS project office in 
anticipation that the Air Force will be designated as Lead Service of 
PTSS. The final arrangements are being worked with the envisioned 
objective for the Air Force to have overall authorities for PTSS 
doctrine, organization, training, leadership and education, personnel 
and facilities. In June 2010 the Navy and MDA will discuss a similar, 
embedded cell arrangement for the Navy to leverage PTSS capability from 
an overall architecture aspect in support of missile defense with the 
next generation radar suite aboard Navy surface combatants.

    55. Senator Udall. General O'Reilly, what operational space 
programs of this scale has MDA fielded?
    General O'Reilly. None. However, MDA fielded several space programs 
of similar scale as the PTSS prototype program. On September 25, 2009, 
MDA launched the STSS. While PTSS will be less complex than STSS, we 
are similarly pursuing the simultaneous development, test, and launch 
of two spacecraft. Another example includes the successful Near Field 
Infrared Experiment, launched in April 2007.
    A more complex space program undertaken by MDA is the Mid-Course 
Space Experiment launched in April 1996. Although not a dual spacecraft 
manifest, this system compares similarly to PTSS in several areas, most 
notably in the optical telescope and multi-band tracking payload.
    MDA has not fielded a constellation of operational spacecraft of 
the scale proposed for the PTSS.

    56. Senator Udall. General O'Reilly, you also mentioned an Air 
Force cell within MDA working on the PTSS program. Please respond with 
their roles, responsibilities, and authorities.
    General O'Reilly. In anticipation of Air Force's designation as 
Lead Service for PTSS, MDA and the Air Force have begun preliminary 
discussions on an Air Force cell in the PTSS Project Office. We 
envision the Air Force will have overall authorities for PTSS doctrine, 
organization, training, leadership and education, personnel, and 
facilities. Final roles, responsibilities, and authorities are still 
pending.

    57. Senator Udall. General O'Reilly, please discuss the planned 
interoperability of this satellite system with other Air Force systems.
    General O'Reilly. PTSS will be an element within the BMDS and 
interface within the broader U.S. National Security Space enterprise. 
We plan for PTSS to connect with the Air Force Satellite Control 
Network and other U.S. communication system assets, and the system will 
interface with Air Force and government overhead persistent infrared 
systems (OPIR). That interface will provide real time coordinated 
tasking between the PTSS, the BMDS, and the external OPIR systems as 
well as real time data dissemination of OPIR data necessary to develop 
state vector cues to the PTSS. The MDA is working with the joint OPIR 
community to develop a plan for posting PTSS data to the real time data 
service to make it accessible to other mission areas such as missile 
warning, technical intelligence, and space situational awareness.
                                 ______
                                 
               Questions Submitted by Senator John McCain
               new start and missile defense restrictions
    58. Senator McCain. Dr. Miller, I appreciate the administration's 
persistence against the numerous attempts by Russia to link missile 
defense to START. Nonetheless, in a recent interview, Russian President 
Dmitry Medvedev stated that he would consider withdrawing from the New 
START should the U.S. missile defense program in Europe create an 
imbalance. How do you perceive what the Russians mean by imbalance?
    Dr. Miller. We view Russia's concern about imbalance as a 
hypothetical situation where our missile defense capabilities might be 
able to undermine the credibility of Russia's strategic deterrent.
    Various American interlocutors repeatedly told their Russian 
counterparts that the PAA in Europe will not pose a threat to Russia 
because the United States does not view Russia as an adversary and the 
capabilities to be deployed during each phase will not pose a threat to 
Russian offensive missile forces.
    The missile defense interceptors we are planning to deploy as part 
of the European PAA will not have the speed necessary to intercept 
Russian ICBMs heading to the United States.
    In addition, the relatively small numbers of GBIs deployed at Fort 
Greely, AK, and Vandenberg Air Force Base, CA, designed to defeat first 
generation North Korean and Iranian ICBMs will not have significant 
capability against Russia's strategic deterrent, which, under the New 
START treaty will include well over 1,000 warheads deployed on several 
hundreds of advanced ICBMs and SLBMs.
    For these reasons, we do not believe that U.S. missile defenses 
will threaten Russia's strategic deterrent, nor that Russia will have a 
legitimate missile defense-related reason to withdraw from the New 
START treaty.

    59. Senator McCain. Dr. Miller, can you assure me that Russia will 
not have veto power within this administration going forward on the 
design, development, and deployment of our missile defenses?
    Dr. Miller. Yes. During the course of the New START treaty 
negotiations, U.S. officials, including President Obama, repeatedly 
told their Russian counterparts that the United States would not accept 
any constraints on its ability to develop and deploy ballistic missile 
defenses to protect the U.S. Homeland and to defend our deployed 
forces, allies, and partners from regional missile threats. And, true 
to our declarations, we did not agree to any provision under New START 
that would constrain our missile defense programs.
    As the U.S. unilateral statement regarding missile defense, the 
BMDR, and our budgetary plans all make clear, the United States will 
continue to improve our missile defenses, as needed, to defend the U.S. 
Homeland, our deployed forces, and our allies and partners.

    60. Senator McCain. Dr. Miller, are DOD and the administration 
fully committed to the development and procurement of the SM-3 block 
IIA and block IIB, irrespective of Russian concerns?
    Dr. Miller. DOD and administration are committed to developing and 
deploying the missile defense assets needed to protect ourselves and 
our allies from the threat of ballistic missiles from defiant states, 
such as Iran and North Korea. Our plans include the SM-3 Block IIA and 
the IIB.
    The United States will continue to address stated Russian concerns 
over our future BMD capabilities, and we plan to continue to engage 
Russia on a broad range of cooperative initiatives, as well as on 
transparency and confidence-building measures. However, this will not 
limit the U.S. ability to develop and procure the capabilities we need.

    61. Senator McCain. Dr. Miller, given this administration's 
eagerness towards pursuing arms control, why should we not believe the 
Russians will hold future missile defense endeavors hostage by 
threatening to back out of New START?
    Dr. Miller. The United States made clear to Russia that it would 
reject any restraints on our ability to provide protection from 
ballistic missile threats to the U.S. Homeland, our deployed forces, 
allies, and partners. As the U.S. unilateral statement regarding 
missile defense, the BMDR, and our budgetary plans all make clear, the 
United States will continue to improve our missile defenses, as needed, 
to defend the U.S. Homeland, our deployed forces, and our allies and 
partners.

                    north korean and iranian threat
    62. Senator McCain. Dr. Miller and General O'Reilly, according to 
an unclassified DOD report on Iran sent to Congress on April 19, 2010, 
Iran with ``sufficient foreign assistance . . . could probably develop 
and test an ICBM capable of reaching the United States by 2015.'' If 
the Iranian or North Korean threat were to evolve faster than 
predicted, is the MDA ready and poised to expedite development, 
testing, and fielding of the PAA?
    Dr. Miller. The United States is currently protected against the 
attacks that North Korea or Iran would be able to launch if they were 
able to develop an ICBM capability. This protection is a result of 
investments made over the past decade in a system based on GMD. 
Continuing improvements in the GMD system and the number of GBIs now 
deployed gives us confidence that we can meet a potential North Korean 
and Iranian long-range ballistic missile threat.
    In addition to improving the GMD system, the United States is also 
pursuing several other hedging strategies for defense of the Homeland 
against a ballistic missile attack. For example, the United States will 
continue development and assessment of a two-stage GBI. We will also 
pursue multiple paths to develop and deploy ballistic missile sensors, 
including both airborne and space-based detection and tracking systems.
    The Department also plans to complete the construction of Missile 
Field 2 in Fort Greely, AK, by emplacing the full 14 GBI silos and 
making those silos operationally ready. This will both replace older, 
inadequate silos from Missile Field 1 and provide a Reserve capability 
to deploy rapidly up to eight additional GBIs from the pool of 
interceptors currently designated for testing. Although the Department 
does not currently foresee a need for more than 30 deployed GBIs, these 
extra operational silos will provide an additional hedge against future 
threat uncertainty.
    General O'Reilly. The United States is already protected against 
limited long-range ballistic missile attacks, including projected 
future threats from Iran. As part of the BMDS, the GMD element provides 
continuous operational capability to protect the Homeland against 
ICBMs.
    By the end of fiscal year 2010, 30 operational GBIs will be 
deployed as part of the BMDS. We plan to preserve our position of 
advantage by maintaining and enhancing our current midcourse defense 
capabilities and given continuing improvements planned for the GMD 
element, 30 operational GBIs will defend the Homeland for the 
foreseeable future against the projected threat from North Korea and 
Iran. Eight additional empty silos and storage of test and spare GBIs 
will provide a hedge against unanticipated ICBM threat growth.
    The United States plans to deploy missile defenses to counter more 
immediate regional ballistic missile threats to our forward deployed 
troops and to our Allies in Europe. These plans involve a forward-
deployed radar in Europe that will provide data earlier in the 
engagement and augment Homeland defense capabilities already in place 
at Fort Greely, AK, and Vandenberg Air Force Base, CA.
    Additionally, we will continue development of technologies to 
enhance SM-3 variants to add additional protection to our Homeland in 
the future. Deployments of the SM-3 IIB (2020) in Europe will augment 
the GMD system with a capability to intercept Iranian long-range 
ballistic missiles early in flight in the regions from which they were 
launched.
    The BMDS IMTP, Version 10.1, lays out the current plan for testing 
the PAA capabilities. We review and update the IMTP semi-annually to 
ensure our test program is consistent with MDA priorities, capability 
development schedules, and funding.

    63. Senator McCain. Dr. Miller and General O'Reilly, what about the 
testing and fielding of the two-stage GBIs?
    Dr. Miller. The fiscal year 2011 budget request funds continued 
development and testing of the two-stage GBI. The two-stage GBI is 
scheduled for one booster verification flight test in fiscal year 2010 
and two intercept flight tests, the first in fiscal year 2012 and the 
second in fiscal year 2016. Any potential operational use of the two-
stage GBI is yet to be determined.
    General O'Reilly. The schedule for testing the two-stage GBI is 
part of our overall IMTP objective to collect the data needed to anchor 
our models and simulation. The two-stage GBI test dates are driven by 
the types of engagements in which we need to test the GBI kill vehicle. 
We will test the two-stage GBI for the first time in June 2010 to 
verify differences between the performance of two-stage and the three-
stage GBIs. After this test and the subsequent intercept events we 
believe we will have characterized differences between the two and will 
be able to evaluate the performance of a two-stage GBI using data 
collected from three-stage testing.
    This is possible because the two-stage GBI builds upon the success 
of the three-stage GBI and has many of the same components, except the 
third stage is removed. The two-stage reuses existing flight-qualified 
components from its three-stage counterpart. Key common components are 
the Exo-atmospheric Kill Vehicle, BAM electronics, stage 2/3 
interstage, and first and second stage motors. As part of the three-
stage development effort, these common components have undergone 
ground, flight, and qualification testing. Changes from the three-stage 
GBI are limited to the removal of the third stage motor, relocation of 
the BAM, and minor modifications to navigation and guidance software 
for the two-stage flight.
    The most specialized and critical technology in a GBI is the kill 
vehicle itself and the kill vehicle for both the two- and three-stage 
interceptors is identical.

              north korean and iranian missile development
    64. Senator McCain. General O'Reilly, the notion of collaboration 
between North Korea and Iran is not new. Earlier this month, press 
reports cited that Iran is building a new short-range missile launch 
site from an existing complex and appears to be working with North 
Korea. Do you currently see any evidence of technology transfer between 
Iran and North Korea?
    General O'Reilly. [Deleted.]

    65. Senator McCain. General O'Reilly, do you agree that estimates 
on Iran's timeline for ICBM development should take into account North 
Korean space launch and ICBM development?
    General O'Reilly. MDA relies on the Intelligence Community 
assessments of Iranian long-range missile developments, and defers to 
the IC. The current DIA assessment is that Iran could develop and test 
an ICBM capable of reaching the United States by 2015 with sufficient, 
continued foreign support.\1\
---------------------------------------------------------------------------
    \1\ DIA, Unclassified Report on the Military Power of Iran, April 
2010.

                            quality control
    66. Senator McCain. General O'Reilly, as I mentioned earlier, 
contractor performance and a lack of contractor quality control is 
unacceptable and the description of the failed test in December is 
indicative of the significant impact just one contractor can have. 
While you have ceased to conduct any business with L-3/Coleman, the 
company responsible for the target in that test, I get the impression 
that L-3/Coleman is just the most recent example, certainly not the 
only one. During the press conference for the fiscal year 2011 budget 
release, the MDA Executive Director was quoted with the following 
statement: ``I'm not going to name names today, but I'm going to tell 
you we continue to be disappointed in the quality that we are receiving 
from our prime contractors and their subs--very, very disappointed; 
quality-design issues, but more in quality of products delivered, which 
then results in rework and which reserved--because most of these 
contracts are cost contracts, it costs the taxpayer more.'' Given the 
cost-plus nature of many of these contracts and the allegation that 
reckless failures by contractors are resulting in unnecessary cost 
increases, how do you intend to address these concerns, both 
proactively within MDA and across the DOD?
    General O'Reilly. MDA is committed to improving missile defense 
acquisition to overcome significant flight test delays, target and 
interceptor failures, cost growth, quality control, and program delays 
we have encountered in the past.
    Moving forward, MDA is implementing the Weapon Systems Acquisition 
Reform Act of 2009, including provisions related to contract 
competition, and it is our intent to use greater firm fixed price 
contracts and defect clauses as we complete planned competitions. We 
are increasing emphasis on competition at all phases of a program's 
acquisition life cycle to ensure the highest performance and quality 
standards are sustained throughout development.
    However, until we complete planned competitions we will have to 
motivate some senior industry management through intensive inspections, 
low award fees, issuing cure notices, consideration of pending quality 
concerns during funding decisions for new contract scope, and 
documenting inadequate quality control performance to influence future 
contract awards by DOD.

    67. Senator McCain. General O'Reilly, what steps can be taken to 
ensure that contractors are held responsible to provide quality 
products without unnecessary increases in cost?
    General O'Reilly. As the Acquisition Executive Agent responsible 
for Missile Defense, I continue to pursue knowledge-based program 
performance practices and sound management controls in accordance with 
guiding principles of DOD's acquisition policies, to include 
competition-based acquisition. Historical experience has demonstrated 
that competition-based acquisition results in contractors delivering 
reliable, high-quality products that meet performance specification 
thresholds within the cost and schedule parameters.
    The use of competition-based acquisition is an effective strategy 
to ensure quality control and contain costs for programs. As contracted 
activities come up for renewal or to adjust the scope of work, vigorous 
competition is pursued and knowledge points are established within 
contracts so progress can be assessed and alternatives evaluated. 
Competition ensures we have viable, multiple sources to motivate high 
reliability and quality at the lowest cost. Industry reacts to 
incentives from competition and is motivated to sustain and gain 
business by providing quality products on time and within cost. Vendors 
whose cost controls or products do not meet required metrics are faced 
with lost business opportunities. Companies must deliver cost-
effective, high-quality, reliable products and services to be awarded 
contracts and win competitions, as well as retain contract performance 
history. Contract performance histories re-enforce this approach by 
informing future contract awards from MDA.

    68. Senator McCain. General O'Reilly, what incentives does a cost-
plus contract have to have to prevent unnecessary increases in cost 
resulting from carelessness?
    General O'Reilly. In order to prevent increases in cost, a cost-
plus contract must have quality and mission assurance incentives. MDA 
development and sustainment cost-plus contracts have incentives that 
address, at a minimum, a mission success performance element. These 
incentives measure the timeliness and effectiveness of contractor 
performance on events that are key to successful BMDS performance. This 
ensures contractor focus on quality and mission assurance in addition 
to strict adherence of their corporate best practices. In order to 
prevent or minimize unnecessary cost increases and ensure quality 
products, cost-plus contracts reward a contractor for achieving 
performance at or below the set limit of the contract cost. A fee 
structure is also included that appropriately rewards a contractor for 
delivering required products that demonstrate performance.
    Should a contractor fail to achieve cost control and/or 
performance, award fees are appropriately reduced. Consistently poor 
work or a significant failure may result in the contract and/or work 
scope being restructured or the contract terminated, impacting the 
current work and award level of the contractor and opening the door for 
competitors to complete remaining work. The contractor's performance 
assessment ratings may also be negatively affected, reducing the 
contractor's ability to secure future contracts from MDA. FAR Part 46--
Quality Assurance requires that clause 52.246-3 Inspection of 
Supplies--Cost Reimbursement be included in cost reimbursement 
contracts to ensure that no additional fee will be paid to the 
contractor for the correction of defects.
    MDA takes full advantage of cost-plus incentive contracts within a 
competition-based acquisition strategy to ensure quality control and 
contain costs. As contracted activities come up for renewal or to 
adjust the scope of work, vigorous competition is pursued and knowledge 
points are established within the contracts so progress can be assessed 
and alternatives evaluated. Competition ensures we have viable, 
multiple sources to motivate high reliability and quality at the lowest 
cost. Industry reacts to incentives from competition and is motivated 
to sustain and gain business by providing quality products on time and 
within cost. Vendors whose cost controls or products do not meet 
required metrics are faced with lost business opportunities. Companies 
must deliver cost-effective, high-quality, reliable products and 
services to be awarded contracts and win competitions, as well as 
retain contract performance history. Contract performance histories re-
enforce this approach by informing future contract awards from MDA.

                            schedule delays
    69. Senator McCain. General O'Reilly, in GAO's recently released 
Assessment of Major Weapons Programs, they boldly asserted that ``the 
Aegis BMD program is putting the SM-3 Block 1B at risk for cost growth 
and schedule delays by planning to begin manufacturing in 2010 before 
its critical technologies have been demonstrated in a realistic 
environment.'' Is it true that technologies will not be fully mature 
until after the decision to produce the first 18 SM-3 Block 1Bs?
    General O'Reilly. The MDA disagrees with the GAO's assertion that 
the program is putting the SM-3 Block IB missile at risk for cost 
growth and schedule delays by beginning manufacturing in 2010 before 
its critical technologies have been demonstrated in a realistic 
environment.
    For the SM-3 Block IB technologies to be fully mature, they must 
function properly during a flight test in the expected environment. 
These 18 SM-3 Block IB Research, Development, Test and Evaluation 
(RDT&E) rounds are being built to support flight testing that will 
demonstrate the maturity of the critical technologies and to prove-out 
manufacturing processes.

    70. Senator McCain. General O'Reilly, as concluded by GAO, do you 
agree that such an approach increases the risk of costly design changes 
in the event unexpected issues arise during testing?
    General O'Reilly. The MDA disagrees with the GAO's assertion that 
the program is putting the SM-3 Block IB missile at risk for cost 
growth and schedule delays by beginning manufacturing in 2010 before 
its critical technologies have been demonstrated in a realistic 
environment. The procurement that is mentioned by the GAO in their 
report is for SM-3 Block 1B developmental test rounds to conduct flight 
testing of the second generation Aegis BMD/SM-3 weapon system. These 
rounds will also be used to validate production line processes. During 
fiscal year's 2010 and 2011, all critical technologies will have 
completed developmental testing, a successful flight test will have 
been conducted and the manufacturing readiness review would have been 
concluded. Only after the successful testing of these RDT&E missiles 
will an initial production decision be made by the USD(AT&L).

    71. Senator McCain. General O'Reilly, given the key role the SM-3 
Block 1B and future variants will play within our global missile 
defense architecture, are you concerned cost growth and schedule delay 
could greatly impede our ability to field the 1Bs on schedule and in 
the quantities budgeted?
    General O'Reilly. The SM-3 Block IB RDT&E rounds purchased in 
fiscal year 2010 are necessary to conduct flight test for the second 
generation Aegis BMD/SM-3 weapon system. In addition to providing 
assets to support test, these rounds will also be used to validate 
production line processes prior to a full rate production decision in 
2012.

                   medium extended air defense system
    72. Senator McCain. Dr. Miller and General O'Reilly, in their most 
recent assessment of the Patriot follow-on, MEADS program, GAO assessed 
that while critical technologies are finally becoming mature, the 
program will likely face an 18-month delay and require at least an 
additional $1 billion to address issues that arose during the program's 
preliminary design review (PDR) in 2008. GAO cites progress; however, I 
remain concerned especially in light of recent press reports stating 
the Army ``MEADS is taking too long to develop and has become too 
expensive.'' The Army is rumored to be in preliminary program transfer 
discussions with MDA; is this true?
    Dr. Miller. The Department of the Army currently has program 
support and budgetary responsibility for the MEADS program. Discussions 
regarding a possible transfer to the MDA have occurred; however, no 
decision has been made to date. We will consult with Congress regarding 
any plans to realign this important program.
    General O'Reilly. The Army currently has program support and 
budgetary responsibility for the MEADS program. Discussions regarding a 
possible transfer to the MDA have occurred; however, no decision has 
been made to date.

    73. Senator McCain. Dr. Miller and General O'Reilly, is it true 
that the program will need an additional $1 billion and are any 
additional increases expected?
    Dr. Miller. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(AT&L)), along with the Department of the 
Army, has responsibility for this program. According to AT&L, cost, 
schedule, and performance issues emerged during the MEADS PDR, which 
led to a tri-national Independent Review Team (IRT) assessment. The IRT 
review found that radar development had been delayed (leading to cost 
overruns), the program development and testing were high-risk due to 
tight schedules and engineering concurrency leading to the Critical 
Design Review (CDR), and the overall management and governance of the 
program were inefficient and needed to be improved. The IRT determined 
that the planned MEADS Design & Development (D&D) Program of Record 
(POR) would likely not produce the required performance within the 
original cost and schedule and estimated approximately $1 billion cost 
growth and a 12-24 months schedule slip in order to correct the 
identified deficiencies and reduce program risk going forward.
    In late 2008, the National Armaments Directors of the MEADS partner 
nations agreed in principle to proceed with the program to CDR, and 
agreed to delay the CDR by 1 year until August 2010 to mitigate program 
risks. Concurrently, the partner nations began work on an amendment to 
the program Memorandum of Understanding to revise the D&D POR and to 
re-evaluate the expected cost and schedule based on the IRT findings. 
The DOD Cost Assessment and Program Evaluation Office is in the final 
stages of updating an independent cost estimate that will be available 
in time to inform the System Program Review, following the CDR later 
this year. At that time, the partner nations will have a full 
understanding of the cost, schedule, and technical maturity of the 
MEADS program.
    General O'Reilly. The Army currently has program support and 
budgetary responsibility for the MEADS program. I defer to the Army's 
senior leadership on questions pertaining to the program's cost.

    74. Senator McCain. Dr. Miller and General O'Reilly, is 18 months 
the full extent of the schedule delay?
    Dr. Miller. Please see response to Question #73.
    General O'Reilly. The Army currently has program support and 
budgetary responsibility for the MEADS program. I defer to the Army's 
senior leadership on questions pertaining to the program's schedule.

    75. Senator McCain. Dr. Miller and General O'Reilly, given the 
international collaboration associated with MEADS, is it true that this 
program is exempt from traditional DOD acquisition regulations? If so, 
was or is MEADS in risk of breaching Nunn-McCurdy?
    Dr. Miller. The MEADS program, under co-development in a 
partnership among the United States, Germany, and Italy, is the only 
active missile defense development program the United States currently 
has with NATO partners. We believe that honoring the U.S. commitments 
to cooperative program partners is critical.
    According to the USD(AT&L), who along with the Department of the 
Army has responsibility for this program; the MEADS program was 
designed to adopt many of the DOD 5000-series procedures and program 
documentation standards, but the MEADS program is managed by a NATO-
chartered Agency. The NATO MEADS Management Agency administers the 
MEADS prime contract and is overseen by a tri-national Board of 
Directors who report to their respective acquisition authorities. DOD 
evaluates program performance in accordance with traditional 
acquisition practices and standards. Although an independent review of 
MEADS did identify significant cost and schedule growth, it is our 
understanding that MEADS has not breached the Nunn-McCurdy thresholds. 
The DOD Cost Assessment and Program Evaluation office is in the final 
stages of updating an independent cost estimate, and the NATO MEADS 
Management Agency is awaiting a restructure proposal from industry that 
will better define the actual magnitude of cost and schedule growth.
    General O'Reilly. The Army currently has program support and 
budgetary responsibility for the MEADS program. I defer to the Army's 
senior leadership and the USD(AT&L) on whether the program is at risk 
for breaching Nunn-McCurdy restrictions.

    76. Senator McCain. Dr. Miller and General O'Reilly, what steps are 
being taken to ensure that the program stays within budget and 
schedule?
    Dr. Miller. According to the USD(AT&L), who along with the 
Department of the Army has responsibility for this program, the 
National Armaments Directors of the MEADS partner nations agreed in 
principle in late 2008 to proceed with the program to Critical Design 
Review (CDR), but agreed to delay the CDR by 1 year until August 2010 
to allow time to correct technical issues and mitigate program risks. 
The partner nations agreed to revise the government oversight construct 
for MEADS and approved structural changes proposed within industry 
systems engineering and management. The NATO MEADS Management Agency 
and industry implemented a number of management and technical 
recommendations provided by an Independent Review Team of the MEADS 
program.
    The partner nations are working on an amendment to the program 
Memorandum of Understanding to revise further the remainder of the 
Design and Development program to reduce overall risk. The NATO MEADS 
Management Agency and the partner nations involved are re-evaluating 
the expected cost, schedule, and technical maturity of the program 
through the run-up to the CDR. The DOD Cost Assessment and Program 
Evaluation office is in the final stages of updating an independent 
cost estimate. The Army and OSD are jointly conducting a comprehensive 
U.S. System Program Review, which will be complete following the CDR 
later this year. At that time, each partner nation will have a full 
understanding of the cost, schedule, and technical maturity of the 
MEADS program.
    General O'Reilly. The Army currently has program support and 
budgetary responsibility for the MEADS program. I defer to the Army's 
senior leadership on actions being taken to ensure the program stays 
within its budget and remains on schedule.

    77. Senator McCain. Dr. Miller and General O'Reilly, is the Army, 
the Office of the Secretary of Defense (OSD), or MDA looking at any 
alternatives to a Patriot follow-on system in the event it is 
determined that MEADS technologies will not materialize on time and 
within budget?
    Dr. Miller. The MEADS program, under co-development in a 
partnership among the United States, Germany, and Italy, is the only 
active missile defense development program the United States currently 
has with NATO partners.
    Although there have been numerous schedule delays and cost growth 
in the MEADS program, the program is being restructured so that it can 
better meet its cost, schedule, and performance goals.
    When ready, MEADS will offer a replacement for the Patriot system 
that is more capable, more easily sustained, and more mobile. It could 
be an important part of a NATO missile defense effort. At this time, we 
are not considering alternatives to MEADS.
    General O'Reilly. The MDA has not been directed to examine 
alternatives to the MEADS program. MDA is also not aware of any Army or 
OSD initiatives pertaining to a Patriot follow-on system should MEADS 
not be available.

    78. Senator McCain. Dr. Miller and General O'Reilly, how concerned 
is DOD with the affordability of this program?
    Dr. Miller. Although there have been numerous schedule delays and 
cost growth in the MEADS program, the program is being restructured so 
that it can better meet its cost, schedule, and performance goals.
    General O'Reilly. Army currently has program support and budgetary 
responsibility for the MEADS programs. I defer to the Army's senior 
leadership and the USD(AT&L) on questions pertaining to the 
affordability of the program.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                        phased adaptive approach
    79. Senator Sessions. General O'Reilly, the central difference 
between the previous plan for missile defense in Europe and the PAA is 
the substitution of SM-3 missiles in Romania and Poland for the 10 
long-range GBIs intended for Poland. Current, if somewhat vague, plans 
call for land-based SM-3 Block IB missiles in Romania by 2015 to 
address the medium range threat from Iran, and then land-based SM-3 
Block IIA missiles in Poland by 2018 to address the intermediate range 
threat. By 2020, phase IV of the PAA is supposed to deliver the new SM-
3 Block IIB missile, which will be capable against ICBM-class Iranian 
missiles, providing the United States an additional layer of 
protection. There are scant details, even in the BMDR, about the PAA. 
How many ships, interceptors, and radars are required for each phase of 
the PAA and how much this will cost?
    General O'Reilly. The PAA is not a defined system or capability, 
but rather a policy approach that guides the fielding of ballistic 
missile defense architectures tailored to an individual region. The 
interceptors, sensors, and command and control system are part of the 
tool kit MDA provides to the COCOMs to deploy the right mix of BMD 
capabilities in their Areas of Responsibility. For the European region, 
the Joint Staff and U.S. Strategic Command (STRATCOM) must consider 
force structure requirements and allocate missile defenses to meet 
EUCOM's needs. There is a GFM process to figure out how to allocate 
assets around the globe. At this point in time, a determination of how 
many ships, interceptors, and sensors are required for each phase of 
the PAA has not been made, but will be determined through the GFM 
process. While the exact force structure and inventory numbers for each 
of the Phases are still being determined, Phase I will leverage 
existing and maturing systems to counter the short- and medium-range 
ballistic missile (S/MRBM) threat from the Middle East, while improving 
Homeland defense. Phase II will build upon Phase I by using existing 
and new capabilities to enhance our defense against the SRBM/MRBM 
threat from the Middle East. Phases III and IV will employ follow-on 
variants of the interceptors used in Phases I and II to expand 
defensive coverage of Europe against longer-range ballistic missile 
threats.

    80. Senator Sessions. General O'Reilly, does your testing and 
procurement plan support your fielding goals that I just laid out?
    General O'Reilly. Yes, MDA has developed and documented the test 
and procurement plans required to field the PAA. In February 2010, we 
finalized version 10.1 of our IMTP that outlines the first three phases 
of the PAA test program and have provided it to the four congressional 
defense committees. The IMTP is a collaborative effort in which we 
partnered with the DOT&E, STRATCOM, and the Service's Operational Test 
Agencies to define the test data required to support both procurement 
and fielding decisions. The PAA procurement plan for the first three 
phases is outlined in the Ballistic Missile Defense congressional 
oversight documents (R-docs, P-docs) and the details of the phase IV 
procurement are still in development.

              two-stage gbi development and flight testing
    81. Senator Sessions. General O'Reilly, according to the February 
2010 BMDR, the United States ``will continue development and assessment 
of a two-stage GBI'' as a hedging strategy for defense of the Homeland. 
Yet the testing schedule for the two-stage GBI is such that it may not 
be available in time should the SM-3 Block II missile encounter 
technical difficulties. Under the current schedule, which appears to be 
slipping, the SM-3 Block IIA may be available for deployment in 2018, 
while the IIB missile might be available no earlier than 2020. First 
flight test (non-intercept) of the two-stage GBI is scheduled for 
fiscal year 2010; first intercept is scheduled for end of fiscal year 
2012; the next intercept test might occur in fiscal year 2016. What 
will be the role of the two-stage GBI in the BMD arsenal?
    General O'Reilly. DOD is investing in new missile defense capacity 
and capabilities to hedge against future uncertainties in both the 
ballistic missile threat and the technical risk inherent to our own 
development plans. One such hedge effort is the development and testing 
of a two-stage GBI. While there are no plans to field this interceptor 
at this time, maintaining a two-stage GBI development and testing 
program preserves national policy options to field missile defenses in 
a timely and effective manner. Accordingly, we will be flight testing 
the two-stage GBI for the first time in June.
    A two-stage interceptor has less burn time than the three-stage 
version, which allows it to operate within a shorter engagement 
timeline. Deployment of two-stage GBIs at Fort Greely, Alaska would 
provide additional time and additional opportunities to defend the 
United States from threat missiles launched from locations such as 
Iran. MDA has conducted studies to support two-stage GBI basing options 
for both the United States and Europe. At this time, however, there is 
currently no request from the combatant commanders to deploy a two-
stage GBI.

    82. Senator Sessions. General O'Reilly, is the current development 
and testing schedule adequate to preserve the two-stage GBI option?
    General O'Reilly. Yes. The schedule for testing the two-stage GBI 
is part of our overall IMTP objective to collect the data needed to 
anchor our models and simulation. The two-stage GBI test dates are 
driven by the types of engagements in which we need to test the GBI 
kill vehicle. We will test the two-stage GBI for the first time in June 
2010 to verify differences between the performance of two-stage and the 
three-stage GBIs. After this test and the subsequent intercept events 
we believe we will have characterized differences between the two and 
will be able to evaluate the performance of a two-stage GBI using data 
collected from three-stage testing.
    This is possible because the two-stage GBI builds upon the success 
of the three-stage GBI and has many of the same components, except the 
third stage is removed. The two-stage reuses existing flight-qualified 
components from its three-stage counterpart. Key common components are 
the Exo-atmospheric Kill Vehicle, Booster Avionics Module (BAM) 
electronics, stage 2/3 interstage, and 1st and 2nd stage motors. As 
part of the three-stage development effort, these common components 
have undergone ground, flight, and qualification testing. Changes from 
the three-stage GBI are limited to the removal of the 3rd stage motor, 
relocation of the BAM, and minor modifications to navigation and 
guidance software for the two-stage flight.
    The most specialized and critical technology in a GBI is the kill 
vehicle itself and the kill vehicle for both the 2- and 3- stage 
interceptors is identical.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                               aegis bmd
    83. Senator Chambliss. Secretary Miller, while I'm confident that 
the Aegis/SM-3 system may succeed, I'm concerned about future policy-
related and programmatic challenges. What additional funding and assets 
might DOD need to implement the PAA, particularly as it relates to 
additional SM-3 interceptors and Aegis ships?
    Secretary Miller. The President's fiscal year 2011 budget request 
includes $2.7 billion for regional missile defense. This investment 
will be used to convert additional Aegis ships to BMD-capable, adding 8 
Aegis BMD ships between fiscal year 2010-2012 and a total of 292 SM-3 
interceptors by fiscal year 2015, field additional THAAD batteries and 
launchers for a total of 6 batteries and 281 Terminal High-Altitude 
Area Defense (THAAD) interceptors by fiscal year 2015, and to field 
additional AN/TPY-2 radars for a total of 14 by fiscal year 2015.
    Continued investments in regional missile defense will be necessary 
to meet these production goals, and to field the necessary capabilities 
to protect deployed U.S. forces, allies, and partners from regional 
ballistic missile threats.

    84. Senator Chambliss. Secretary Miller, with regards to the 
proposed Aegis-Ashore BMD site in Romania that was announced in 
February, have there been any offers of assistance from NATO or our 
other European friends in the form of financial support for this 
effort?
    Secretary Miller. The land-based SM-3 site in Romania will be 
deployed based on a bilateral agreement. Our NATO Allies are not 
directly involved in funding that or other elements of the European 
PAA. The United States will fund the European PAA, and the European PAA 
will represent the U.S. contribution to NATO's missile defense efforts.
    Regarding NATO and Allied efforts, NATO is also developing a 
command and control network called the ALTBMD program that will allow 
Allies to link their missile defense assets together, creating a more 
efficient architecture. In addition, NATO countries already possess or 
are acquiring national missile defense capabilities. Several countries 
have Patriot systems (Netherlands, Germany, Greece). Italy, Germany, 
and the United States are cooperatively developing the MEADS. Others 
have expressed interest in acquiring systems like Patriot and SM-3. 
ALTBMD could allow current and future NATO systems--including those of 
the United States--to be able to ``plug-and-play'' with the overall 
NATO effort and the Europan PAA assets.
    Currently NATO is funding the component of ALTBMD that will provide 
command and control for defense of deployed forces only, rather than 
territorial missile defense. The United States strongly supports 
continued funding for ALTBMD and its expansion because it will allow 
Allies' missile defense systems to be interoperable and more efficient.

    85. Senator Chambliss. Secretary Miller, will the Aegis-Ashore 
system in Romania be able to defend against Iran's Shahab-3 missile?
    Secretary Miller. Yes. The SM-3 interceptors and planned follow-on 
versions are designed to intercept MRBMs, including the Shahab-3.

    86. Senator Chambliss. Secretary Miller and General O'Reilly, DOD's 
BMDR discusses the expansion of countermeasures other nations are using 
to confuse and overwhelm BMDs. What can you tell me about how the U.S. 
BMD program is or is not responsive to these developments in 
countermeasures?
    Secretary Miller. We see an increased desire on the part of 
potential adversaries to increase the numbers of ballistic missile 
systems and their operational performance. Some states aim to defeat 
missile defenses through operational countermeasures, such as large 
raid sizes and salvo launches, and technical countermeasures to enable 
penetration of missile defenses. The MDA has completed several external 
``red team'' studies to provide insight into the possible future 
changes of the threat in these areas.
    Significant technical countermeasures are not expected to be 
deployed by potential adversaries within the near to midterm. However, 
adversary countermeasure capabilities may mature and deploy more 
rapidly than predicted. Ballistic missile defense capabilities and 
development must be agile so as to adjust to unexpected evolutions of 
the threat.
    MDA's budget includes a portfolio of investments in capabilities to 
hedge against the possibility of more rapid than projected developments 
of the threat, including the use of countermeasures. These hedge 
capabilities include improvements in sensors to support our ability to 
intercept missiles before they can completely deploy countermeasures 
and to counter larger raid sizes. The Aegis BMD SM-3 Block IB system, 
available in the midterm, will have improved on-board discrimination 
and greater area coverage. The PAA provides an inherent hedge against 
threat uncertainties by deploying scalable, relocatable missile 
defenses. Moveable assets enable more rapid increases in capability 
against larger threat sizes. Scalable systems allow flexible 
integration of new technologies into the existing architecture to deal 
with uncertainty in the performance of threat systems. These approaches 
provide the United States with flexible responses to new threats and 
capabilities as they materialize.
    General O'Reilly. We see an increased desire on the part of threat 
states to increase the numbers of ballistic missile systems and their 
operational performance. Some states aim to defeat missile defenses 
through operational countermeasures, such as large raids and salvo 
launches, and technical countermeasures to enable penetration of 
missile defenses. MDA has completed several external red team studies 
to provide insight into the possible future changes of the threat in 
these areas.
    Capabilities in the area of technical countermeasures are not 
expected to be deployed by adversaries of concern within the near to 
midterm. However, adversary countermeasure capabilities may mature and 
deploy more rapidly than predicted. Ballistic Missile Defense 
capabilities and development must be agile so as to adjust to 
unexpected evolutions of the threat.
    MDA's budget includes a portfolio of investments in capabilities to 
hedge against the possibility of more rapid than projected qualitative 
developments of the threat, including their use of countermeasures. 
These hedge capabilities include improvements in sensors to support our 
ability to intercept threat missiles before they can completely deploy 
countermeasures and to counter larger raid sizes. The Aegis BMD SM-3 
Block IB system, available in the midterm, will have improved on-board 
discrimination and greater area coverage. Research into the utility of 
directed energy systems for missile defenses is being funded by MDA. 
The PAA provides an inherent hedge against threat uncertainties by 
deploying scalable, relocatable missile defenses. Moveable assets 
enable more rapid increases in capability against larger threat sizes. 
Scalable systems allow flexible integration of new technologies into 
the existing architecture to deal with uncertainty in the performance 
of threat systems. These approaches provide the United States with 
flexible responses to new threats and capabilities as they materialize.

    87. Senator Chambliss. Admiral Macy, I have some general concerns 
about the ability of the Navy to accommodate what appears to be a 
significant amount of growth over the next few years in the realm of 
missile defense. Given the multi-mission role of our Aegis-equipped 
ships, are you confident that the Navy can both refit their cruiser-
destroyer force with Aegis technology while simultaneously meeting the 
maritime demands of our regional combatant commanders, all the while 
operating with a total of 88 cruisers and destroyers?
    Admiral Macy. The anticipated force requirements, as informed by 
the decision on the PAA, were taken into consideration in the Navy's 
scheduling decisions on Aegis BMD refits. The GFM process is completely 
capable of managing our available forces to balance combatant commander 
requirements and U.S. commitments.

    88. Senator Chambliss. Admiral Macy, as far as equipment and 
technology, what modifications are required for the sea-based Aegis 
system to be converted to the land-based Aegis Ashore system?
    Admiral Macy. With regard to the Aegis weapons system itself, 
little to no changes are required to convert it to Aegis Ashore. 
Certain mechanical, electrical, and structural modifications will be 
required to house the weapons system in the shore based structures. 
These details will be worked out during MDA's system development 
efforts.

    89. Senator Chambliss. Admiral Macy, do you foresee any challenges 
to meeting the fiscal year 2015-fiscal year 2018 timeline?
    Admiral Macy. While any technology development effort entails a 
certain amount of risk, I foresee no significant challenges to meeting 
the fiscal year 2015-fiscal year 2018 timeline. The challenges normally 
found in a new program are being mitigated through the use of the same 
Aegis BMD configuration and functionality found on Aegis BMD ships, as 
well as the existing Navy infrastructure to meet training and personnel 
requirements.

    90. Senator Chambliss. Admiral Macy, considering that a significant 
amount of the Navy's resources will be dedicated to refitting its ships 
with Aegis BMD capabilities, how will we train, man, and equip the two 
planned Aegis Ashore sites (Romania and Poland) in this timeframe?
    Admiral Macy. Many of the manning requirements for the Aegis Ashore 
sites in Romania and Poland will be determined as we negotiate the 
basing agreements with the host-nations, including manning for site 
security, support facilities, etc. With respect to the manning required 
specifically to operate the weapons system, it will be significantly 
less than that of a ship. This is estimated to be 1/4 to 1/3 or less of 
an equivalent ship's complement. As part of the duties of lead service, 
the Navy will assess the manning requirements for these systems and 
incorporate them into the Navy's overall manning plan. The training 
requirements for Aegis Ashore will be common to that for Aegis 
operators afloat, as will the majority of the system parts support. 
Parts support for Aegis Ashore specific components will be addressed 
during system development, but will leverage existing Navy logistics 
and logistics infrastructures.

    91. Senator Chambliss. Secretary Miller and General O'Reilly, 
regarding the issue of testing, the administration's policy emphasizes 
the need for operationally relevant testing and a fly-before-you-buy 
approach to BMD development and fielding. In my view, BMD testing is 
qualitatively different from testing for other types of weapon systems. 
If 99 percent of the time an airplane took off it was able to land 
successfully, but 1 percent of the time it crashed, that would be 
unacceptable and we would never tolerate it. However, if 99 percent of 
the time we launched a ballistic missile interceptor it hit its target, 
but 1 percent of the time it missed, in my view that is a great track 
record and is infinitely better than having no missile defense system 
at all. I am in favor of operationally realistic testing and flying 
before we buy, but I do not think we should demand the same level of 
reliability as we do for other systems. We need effective systems, but 
we shouldn't require perfect systems. What are your comments on this 
issue?
    Secretary Miller. We agree that it is important to balance 
reliability against availability regarding our missile defense systems.
    A key tenet of the BMDR is to test sufficiently the capabilities 
and limitations of a missile defense system before we begin 
procurement. Missile defense systems are subject to production 
decisions by USD(AT&L). Additionally, we use the military departments' 
standard material release and operational certification processes that 
also rely on developmental and operational test data prior to formally 
fielding, initial capability.
    A related effort is the execution of the IMTP. In collaboration 
with the military departments Operational Test Agencies, STRATCOM, and 
the DOT&E, the MDA submitted a comprehensive IMTP in March 2010 that 
describes the test program through fiscal year 2015 to conduct more 
than 150 test events to obtain specific data necessary to accredit our 
models and simulations and support operational assessments.
    General O'Reilly. MDA is enforcing rigorous developmental testing 
to mitigate risk prior to operational assessments, consistent with the 
Acquisition Reform Act of 2009 which directs enhanced focus on solid 
developmental testing. There is a clear benefit of early operational 
input to the development of missile defense systems. However, premature 
entry into operational development and testing (i.e., before the design 
and configuration has been stabilized and basic technical concepts have 
been validated) risks expensive repetition of non-recurring engineering 
and operational development.
    A key tenet of the BMDR is to sufficiently test the capabilities 
and limitations of a missile defense system before we begin 
procurement, or ``fly before we buy.'' As such, missile defense 
projects are subject to production decisions by USD(AT&L). 
Additionally, we use the Services' standard material release and 
operational certification processes that also rely on developmental and 
operational test data prior to formally fielding initial capability.
    Another critical Department effort is the execution of the IMTP. In 
collaboration with the Services' Operational Test Agencies, STRATCOM, 
and the DOT&E, MDA submitted a comprehensive IMTP in March that 
describes our plan through fiscal year 2015 to conduct over 150 test 
events to obtain specific data necessary to accredit our models and 
simulations and support operational assessments.
                                 ______
                                 
               Questions Submitted by Senator John Thune
                  russian and chinese support for iran
    92. Senator Thune. Secretary Miller, in 2007, the Director of 
National Intelligence assessed that ``individual Russian entities 
continue to provide assistance to Iran's ballistic missile programs. We 
judge that Russian-entity assistance, along with assistance from 
entities in China and North Korea, has helped Iran move toward self-
sufficiency in the production of ballistic missiles. The Russian 
Government has taken steps to improve controls on ballistic-missile 
technology, and its record of enforcement--though still mixed--has 
improved over the last decade.'' What level of assistance do you see 
from Russia today, in helping Iran develop its ballistic missile 
capabilities or capacities?
    Secretary Miller. Moscow is not providing state-to-state assistance 
to Tehran to further its ballistic missile and space launch vehicle 
research and development efforts. However, Russia's advanced ballistic 
missile production infrastructure has technologies that could further 
current and future Iranian goals. Russian-based Iranian defense 
officials and intermediaries have access to Russian academics, 
companies, and research organizations, and some of these individuals 
and entities likely assist Iran with technologies that could assist in 
its ballistic missile programs. Iran is likely attempting to obtain 
Russian expertise in missile guidance systems to improve accuracy, 
composite structural materials to save weight and increase range, in 
high temperature materials for reentry vehicles, and possibly in more 
energetic propellants.

    93. Senator Thune. Secretary Miller, a Thursday, April 15, 2010, 
Washington Times newspaper article reported that CIA's Weapons 
Intelligence, Nonproliferation and Arms Control Center this year linked 
Chinese companies to missile programs in Iran. Do your missile defense 
plans take into account longstanding and possibly present day 
cooperation and support by Russia and China for Iran's ballistic 
missile program?
    Secretary Miller. Beijing is not providing state-to-state 
assistance to Tehran to further its ballistic missile and space launch 
vehicle research and development efforts, but Chinese individuals and 
entities provide Iran with controlled and dual-use technologies needed 
to advance in these areas. China-based Iranian defense officials and 
intermediaries have access to Chinese academics, companies, and 
research organizations, some of which continue to provide support 
despite being sanctioned. Iran is receiving materiel and technological 
assistance with missile guidance systems, raw materials, production 
machinery, and propellants.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                           long-range threats
    94. Senator Vitter. Secretary Miller, Dr. Gilmore, General 
O'Reilly, and Admiral Macy, do you think that an additional missile 
field on the U.S. east coast would provide more protection from long-
range threats to address a coverage gap?
    Secretary Miller. [Deleted.]
    Dr. Gilmore. The additional area of defense provided by a missile 
field on the East Coast of the United States would depend upon the 
types of interceptors emplaced, as well as the radars and other sensors 
available. Whether such a field is needed is a question that should be 
answered by those in the Department responsible for determining 
military requirements.
    General O'Reilly. [Deleted.]
    Admiral Macy. An additional missile field on the U.S. east coast 
would provide some redundant coverage against long-range threats, but 
would provide no additional coverage. The west coast missile fields 
already provide coverage for 100 percent of the Homeland.

    95. Senator Vitter. Secretary Miller, Dr. Gilmore, General 
O'Reilly, and Admiral Macy, do you think such a site would be 
beneficial to further hedge against long-range threats?
    Secretary Miller. Given continuing improvements in the GMD system 
and the number of GBIs currently deployed, the United States possesses 
a capacity to counter the projected threats of North Korea and Iran. 
Therefore, based on current threat projections, deployment of 
interceptors at an east coast site is not warranted.
    Dr. Gilmore. The additional area of defense provided by a missile 
field on the east coast of the United States would depend upon the 
types of interceptors emplaced, as well as the radars and other sensors 
available. Whether such a field is needed is a question that should be 
answered by those in the Department responsible for determining 
military requirements.
    General O'Reilly. [Deleted.]
    Admiral Macy. In the current budget climate, the redundancy 
afforded by a U.S. east coast missile field would provide less 
additional capability than would be lost as a result of the budget 
restructuring required to establish the new field.

    96. Senator Vitter. Secretary Miller, Dr. Gilmore, General 
O'Reilly, and Admiral Macy, how quickly could the United States have an 
operational east coast missile field?
    Secretary Miller. Establishing a fully operational east coast 
missile field would require a minimum of 5 years from receiving funding 
and authority to proceed. This estimate factors in considerations such 
as site selection, environmental survey/approval, site clearing and 
construction, and equipment production.
    Dr. Gilmore. I believe the answer to this question is best left to 
the MDA and the operational user. If a decision is made to deploy a 
missile field to the U.S. East Coast, I will ensure that appropriate 
operational testing is accomplished in a timely fashion.
    General O'Reilly. From authority to proceed and assuming funding is 
provided, fielding of a fully operational East Coast Missile Field (MF) 
would require a minimum 5 years of construction and check out plus a 
year for operational integration based on the following assumptions:

    (1)  Located on a military base and within a single contiguous area 
similar to the GMD Missile Defense Complex (MDC) located at Fort 
Greely, AK.
    (2)  Consisting of a 10-Silo configuration
    (3)  Support facilities and equipment would include:

        a.  Controlled entry point/force protection, security boundary/
fencing, roads, local power and associated facilities support structure
        b.  Missile Field - Mechanical Electrical Building (MEB)
        c.  Command Launch Equipment/Readiness and Control Building
        d.  Two In-Flight Interceptor Communication System Data 
Terminals
        e.  Missile Assembly Building (MAB)
        f.  Satellite Communications
        g.  Self Sustaining Power Source

    (4)  Approximately 2 years required for site selection, 
preconstruction and design, approval and environmental survey/approval.
    (5)  Minimum of 3 years required for construction (initial site 
clearing to facilities with system equipment installed).
    (6)  Minimum of 1 year for establishing initial operations and 
deployment, training, exercises, and verification of integration into 
GMD operational baseline.

    The time required to field a fully operational east coast MF could 
increase if the requirements for the site and capability exceeded these 
basic assumptions.
    Admiral Macy. Establishing a fully operational east coast missile 
field would require a minimum of 5 years from receiving funding and 
authority to proceed. This estimate factors in considerations such as 
site selection, environmental survey/approval, site clearing and 
construction, and equipment production.

                     missile defense and new start
    97. Senator Vitter. Secretary Miller, there seems to be conflicting 
reports and conflicting interpretation on limitations on missile 
defense in the START follow-on agreement. I find this troubling because 
it seems that Russia is adamant that this concession was provided in 
the negotiations, despite promises from the administration that such a 
concession would not be made. Was any promise made by the United States 
to Russia regarding missile defense during the negotiations or in the 
treaty?
    Secretary Miller. No ``promise'' to or ``side deal'' with Russia 
has been made regarding missile defenses. The legally-binding documents 
connected to the New START treaty represent the only U.S. obligations.
    Specifically, Article V, section 3 of the treaty prohibits the 
conversion of ICBM or SLBM launchers to missile defense launchers and 
vice versa; that is, the conversion of missile defense launchers to 
launch ICBMs or SLBMs. This section also ``grandfathers'' the five 
former ICBM silos at Vandenberg AFB that were converted for the 
placement of GBIs within them over the past several years. If more 
interceptors were to be added at Vandenberg AFB, it would be less 
expensive to build a new field of GBI silos, which is not prohibited by 
the treaty, than to convert additional ICBM test launchers. Regarding 
SLBM launchers, the MDA examined the concept of launching missile 
defense interceptors from submarines and found it an unattractive and 
unreasonably expensive option.
    The Preamble of the Treaty contains a statement acknowledging the 
interrelationship of strategic offensive and strategic defensive arms 
and recognizing that this relationship will become more important as 
strategic offensive arms are reduced. This statement also notes that 
current strategic defensive forces do not threaten to undermine the 
effectiveness of either Parties' strategic offensive arms. The Preamble 
does not limit the United States.
    Both the United States and the Russian Federation made unilateral 
statements concerning ballistic missile defense just prior to signing 
the New START treaty.
    Russia asserted in its unilateral statement that any build-up in 
U.S. missile defenses that would ``give rise to a threat to the 
strategic nuclear force potential of the Russian Federation'' would 
justify Russia's withdrawal from the treaty. This statement is not 
legally binding and does not constrain U.S. missile defense programs. 
In fact, both sides have the right to withdraw from the treaty under 
Article XIV, if they deem it necessary due to a threat to their supreme 
national interests. Such withdrawal clauses are common to treaties, 
especially in the case of arms control agreements.
    The United States also issued a unilateral statement concerning 
missile defense in connection with the New START treaty, stating that 
``the United States intends to continue improving and deploying its 
missile defense systems in order to defend against limited attack and 
as part of our collaborative approach to strengthening stability in key 
regions.'' The statement takes note of Russia's views expressed in its 
unilateral statement and makes clear that U.S. missile defenses ``are 
not intended to affect the strategic balance with Russia,'' but instead 
are intended to defend the United States against limited missile 
launches and to protect U.S. deployed forces, our allies and partners 
from regional threats.
    As the U.S. unilateral statement, the BMDR, and our budgetary plans 
all make clear, the United States will continue to improve our missile 
defenses as needed to defend the U.S. Homeland, our deployed forces, 
and our allies and partners. Nothing in the New START treaty, or in any 
other statements, limits our ability to do this.

    [Whereupon, at 12:02 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                       TUESDAY, DECEMBER 14, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                    LITTORAL COMBAT SHIP ACQUISITION

    The committee met, pursuant to notice, at 2:32 p.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Bill 
Nelson, Hagan, Coons, McCain, Sessions, LeMieux, Brown, and 
Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Creighton Greene, 
professional staff member; and Michael J. Noblet, professional 
staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Pablo E. Carrillo, minority investigative 
counsel; and Christopher J. Paul, professional staff member.
    Staff assistants present: Christine G. Lang, Brian F. 
Sebold, and Breon N. Wells.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Neal Higgins, assistant to Senator 
Bill Nelson; Gordon I. Peterson, assistant to Senator Webb; 
Roger Pena, assistant to Senator Hagan; Lindsay Kavanaugh, 
assistant to Senator Begich; Joanne McLaughlin, assistant to 
Senator Manchin; Lenwood Landrum and Sandra Luff, assistants to 
Senator Sessions; Jason Van Beek, assistant to Senator Thune; 
Erskine Wells III, assistant to Senator Wicker; Brian Walsh, 
assistant to Senator LeMieux; and Scott Schrage, assistant to 
Senator Brown.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good afternoon, everybody. I want to 
welcome our witnesses today: from the Navy, Secretary Mabus, 
Secretary Stackley, Admiral Roughead, and Rear Admiral 
Pandolfe; from the Government Accountability Office (GAO), Paul 
Francis; from the Congressional Budget Office (CBO), Dr. Eric 
Labs; and from the Congressional Research Service (CRS), Ron 
O'Rourke.
    The Navy continues to be faced with a number of critical 
issues as it tries to balance its modernization needs and 
procurement needs against the costs of current operations. The 
shipbuilding budget remains at a level where it will be 
difficult at best to field the Navy that we must have. 
Therefore, we need to be looking for ways to make the 
shipbuilding program more affordable.
    The original Littoral Combat Ship (LCS) acquisition plan 
would have had the Navy buying both types of LCS vehicles for 
some time while the Navy evaluated the capabilities of each 
vessel. At some time in the future, the Navy would have had the 
option to down-select to building one type of vessel, but in 
any case the Navy would have been operating some number of each 
type of LCS vessels in the fleet, which means that the Navy 
would have been dealing with two shipyards, two supply chains, 
two training pipelines, et cetera.
    Last year, the Navy decided upon a winner-take-all 
acquisition strategy to procure the fiscal year 2010 vessels 
under a fixed-price contract, with fixed-price options for two 
ships per year for the next 4 years. This revised strategy 
included obtaining the data rights for the winning ship design 
and competing for a second source for the winning design among 
other shipyards, starting in fiscal year 2012. The Navy did 
this after determining that the original acquisition strategy, 
an approach of buying at least one ship from each shipyard in 
fiscal year 2010 under a noncompetitive solicitation, was 
unaffordable. Earlier this year, the Navy released the 
solicitation under the revised strategy and has been in 
discussions with the two contractor teams and evaluating those 
proposals since that time.
    The Navy has decided, upon reviewing the bids from the two 
contractor teams, to modify its strategy for the following 
reasons: First, both teams have made offers that are much more 
attractive than had been expected and both are priced well 
below the original noncompetitive offers; and second, 
continuing the winner-take-all down-select would save roughly 
$1.9 billion compared with what had been budgeted for the LCS 
program in the Future Years Defense Program (FYDP).
    But the Navy has also determined that accepting the offers 
from both LCS contractor teams, rather than down-selecting to 
one design and starting a second source building the winning 
design, would save $2.9 billion, or $1 billion more than the 
program of record, and would allow the Navy to purchase an 
additional LCS vessel during this same period of the FYDP, 20 
ships rather than 19 ships.
    The Navy has also determined that, using net present value 
calculations, additional operation and support costs for 
maintaining two separate designs in the fleet for their service 
life over 40 to 50 years would be much less than the additional 
savings that could be achieved through buying both the ships 
during the FYDP period.
    The Navy first conveyed to Congress its interest in 
modifying the LCS acquisition strategy in early November and 
said that they needed to act before the bid prices were set to 
expire on December 14, 2010. Since then, the Navy has requested 
and the contractors have agreed that the LCS teams extend these 
bid prices until the end of this month.
    I understand that the Navy has been briefing members and 
staffs in the Senate and House of Representatives since 
announcing its revised plan.
    From a broad policy perspective, I believe the Navy 
approach of a competitive dual-source alternative could help 
ensure maximum competition throughout the life cycle of the 
program, meeting the spirit and intent of the Weapon Systems 
Acquisition Reform Act (WSARA) of 2009. Specifically, it calls 
for two shipbuilders in continuous competition to build the 
ships for the life of the program. The Navy plans to build a 
total of 55 of these ships, so that competition would be going 
on for a number of years.
    The Navy has been prevented from sharing specific bid 
information that would violate the competitive source selection 
process by revealing proprietary information about the two 
contractors' bids. This has led some to ask whether these bids 
can be independently verified. We should hear in detail from 
the Navy witnesses today about that issue and also why they 
believe that these bids are realistic bids.
    In that regard, I take some comfort from knowing that these 
bids are for fixed-price contracts and not for cost-type 
contracts, where a contractor has little to lose from 
underbidding a contract.
    As far as the capability of the two vessels, we will hear 
from Admiral Roughead today on whether each of the two vessels 
would meet the Navy's requirements for the LCS program and why 
he favors the modified approach.
    Reports by CRS and other individuals have raised a number 
of questions about the strategy change. This hearing, that was 
called at the request of Senator McCain, by the way, will give 
us an opportunity to get answers about the Navy's proposal.
    The CBO analysis also estimates that continuing competition 
between the two teams, as envisioned by the revised Navy 
strategy, would cost more than going ahead with the winner-
take-all option. CBO, however, was unable to factor into their 
analysis the actual fixed-price bid data to which the 
contractors are willing to agree, because of the information-
sharing constraints surrounding an ongoing competition.
    The GAO has raised concerns about potential cost growth 
from design changes, additional operation and support costs, 
and mission package development. We will need to hear from the 
Navy witnesses whether design changes are a significant threat 
to realizing the price reductions and why the Navy has 
confidence in its estimate that the operating and support cost 
increases are far less than the expected acquisition savings.
    As far as the progress in development of the mission 
packages is concerned, I believe the Navy's fundamental 
architecture of the LCS program divorces changes in the mission 
package from changes that perturb the ship design and ship 
construction. In the past when there were problems with 
developing the right combat capability on a ship, this almost 
inevitably caused problems in the construction program. In the 
case of the LCS, I understand that the combat capability 
largely resides in the mission packages that connect to either 
LCS vessel through defined interfaces. Now, what that means, I 
believe, is that changes inside the mission packages should not 
translate into changes during the ship construction schedule, 
that they're interchangeable, and whatever is happening in the 
mission package development program would apparently apply 
equally to either the down-select strategy or the dual-source 
strategy. We'll need to hear from Navy witnesses today to 
describe that relationship in greater detail.
    In terms of the proposal's effects on the industrial base 
and therefore on the future of competition, I would think that 
there would be a net positive. The Navy would have the 
opportunity to compete throughout the life of the program and 
any erosion in contractor performance could be corrected by 
competitive pressures. For the industrial base, there would be 
more stability in the shipbuilding program, and a number of 
Navy witnesses have previously testified that one of the 
important things that we could do for the Navy is to help the 
shipbuilders achieve stability in our shipbuilding programs.
    To me, the Navy's proposal seems to promote that goal while 
effectively continuing competition throughout the program and 
at the same time reducing acquisition costs and buying an 
additional ship over the FYDP.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I want to thank 
you for holding this hearing. This is a very important issue 
that is upon us in the final days of a lame duck session.
    I want to thank GAO, CRS, and CBO for raising important 
questions that should have answers before I believe we should 
consider approving this proposal.
    Mr. Chairman, we can't consider this LCS in a vacuum. The 
story of this ship is one that makes me ashamed and embarrassed 
as a former Navy person and as a person who's responsible to 
the taxpayers of my State. I'd like to just review with you a 
little background and one of the reasons why I remain 
incredibly skeptical about this latest rush proposal that we 
have to approve in a lame duck session.
    The background is that in November 2001, the LCS program 
was started. In 2004, the Navy awarded contracts to two teams 
led by Lockheed Martin and General Dynamics. The initial 
contract price was $188 million per ship.
    In the 2006 National Defense Authorization Act (NDAA), 
Congress set a cost cap of $220 million per ship. In the 2008 
NDAA, Congress increased the cost cap to $460 million per ship. 
In the 2009 NDAA, Congress amended the cost cap again by 
deferring its implementation by 2 years, as the Navy requested. 
In the 2010 NDAA, Congress increased the cost cap to $480 
million per ship.
    In 2007, the LCS unit procurement cost tripled to over $700 
million. Later, outside the congressional budget review 
process, the Navy proposed to substantially restructure the LCS 
program. So 6 years later, after expenditure of roughly $8 
billion, the Navy decided to restructure the program.
    Then, of course, we went through the strategy of the down-
select and the competition of 10 LCSs, that one contractor 
would build 10 LCSs over a 5-year period, and the Navy decided 
to make a down-select decision and award the contract to build 
the 10 LCSs some time this summer. It delayed its decision 
twice. The award decision would not be made in December 2010. 
Then in November they came up with a great idea.
    I'd remind the witnesses and the taxpayers, the cost of the 
LCS from 2005 to 2010 has been $8 billion of the taxpayers' 
dollars. What do we have to show for it? The first LCS was 
funded in 2005 and it was commissioned in November 2008 at a 
cost of $637 million. The second LCS, funded in 2006, was 
commissioned in January 2010 at a cost of $704 million.
    Then numbers 3, 4, 5, 6, and 7 funded and cancelled by the 
Navy; the third one, funded in 2006, cancelled in 2007; the 
fourth one, funded in 2006, canceled in 2007. The list goes on.
    Then we get to the eighth LCS, funded in 2009, christened 
in 2010, and now is about 80 percent complete. The ninth LCS, 
funded in 2009, is under construction and is about 40 percent 
complete.
    So we've spent $8 billion. We have two ships commissioned, 
another one 80 percent complete and the other 40 percent 
complete. If my figures are wrong, which we got from the Navy, 
I will be glad to stand corrected.
    So here we are now with a brand-new idea as to how we 
should apportion the funding for the LCSs. Somehow, 
miraculously, a month or so ago the two shipbuilders came in 
with very low estimates. Now, we are told by the Navy those are 
very low estimates, but we don't know what those numbers are 
because it's proprietary information.
    I have to tell you, Mr. Chairman, I have never in the 20-
some years that I've been a member of this committee approved 
of a program that I don't know what the cost is. At least I owe 
it to the taxpayers of Arizona to know what the cost is. But 
with a record like this of $8 billion for four ships and an 
estimated cost of about $11 billion from 2010 to 2015, I'm 
supposed to say: Hey, this is a good deal.
    GAO has said they have concerns that decisionmakers need 
more information, cost savings are uncertain, future 
performance is an open question, the Navy's assessment of 
design stability may be too optimistic, and the proposal is 
fundamentally inconsistent with an important GAO 
recommendation.
    CRS's concerns are: How the proposal was presented raises 
issues; potential relative costs and risks of the two 
strategies is unclear; the proposal could hinder competition; 
the industrial base implications are uncertain; how the mission 
packages would be procured is unclear; and CBO's concerns about 
costs and savings remain unclear, certainly, and the cost of 
operating and maintaining the LCS are probably more than the 
Navy's estimate.
    The Navy may have overstated the costs of the current plan, 
and using two different combat systems for each LCS version may 
drive costs up. If you build two different ships, then you have 
two different supply lines, you have two different training 
regimens for the crew, and you have, obviously, dramatically 
increased costs, plus a problem with cross-training and safety 
concerns.
    Mr. Chairman, I understand that the two very generous 
offers have now been extended to December 30. I see no reason 
why those offers could not be extended to January or February 
or March, so that this committee could at least address the 
concerns that GAO, CBO, and CRS have raised. They're important 
questions.
    When you look at the history of this ship, and now we're 
supposed to buy an additional 15 ships based on costs we 
haven't been told, with the incredible and disgraceful waste of 
the taxpayers' money that has characterized this whole program, 
Mr. Chairman, I have greater responsibilities to the taxpayers 
of my State.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, Senator McCain.
    Let me start with Secretary Mabus.

 STATEMENT OF HON. RAYMOND E. MABUS, JR., SECRETARY OF THE NAVY

    Mr. Mabus. Mr. Chairman, Senator McCain, distinguished 
members of this committee: Thank you for this opportunity to 
appear before you to discuss the LCS program. Following my 
comments, Admiral Roughead will have a short opening statement. 
Our Assistant Secretary for Research, Development, and 
Acquisition, Sean Stackley, is also here and is prepared, with 
your permission, to briefly offer some more specifics on the 
numbers involved in this proposal.
    The LCS brings critically needed capabilities and numbers 
to our Nation's fleet which are necessary to give the Navy the 
force structure to meet the missions we've been given. For the 
future strength of our Navy, it's vitally important that we 
succeed in delivering this 55-ship class affordably, 
effectively, and quickly, while at the same time exercising 
sound judgment and solid oversight.
    As Secretary, I take this process extraordinarily seriously 
and I would not have made this recommendation if I did not 
firmly believe that giving us the authority to move forward 
with a dual award of 10 ships to each of 2 shipbuilders, as we 
are requesting, is in the best interests of the taxpayers, our 
Navy, and our Nation.
    This authority, which I emphasize requires no additional 
funding, will enable us to purchase more high-quality ships for 
less money and get them into service in less time. It will help 
preserve jobs in our industrial shipbuilding base and will 
create new employment opportunities in an economic sector that 
is critical to our Nation's military and economic security.
    We recognize that this proposal comes outside the normal 
budget process. However, a key focus of this Department for the 
last 2 years has been to build as many ships for the Navy as 
possible, as affordably as we can. As a result, I believe it 
was my duty to present Congress with this opportunity.
    The timing of this request is the result of a very thorough 
analysis. Once we received the bids, we conducted two rounds of 
discussion with industry to assure ourselves that the bids were 
realistic and sustainable. That examination demonstrated that 
we achieved our goal, one we share with this committee, of 
driving down the cost of these ships.
    We next needed to examine the proposal from the standpoint 
of naval operations, which was done by the Chief of Naval 
Operations (CNO) and the Navy staff. As the CNO will explain in 
a moment, they concluded that a dual award created important 
operational flexibility. Finally, we met with Pentagon 
leadership for their review and concurrence with this proposal.
    This process took some time, but I believe it was critical 
to ensuring that we were making an operationally sound and 
fiscally responsible proposal that meets congressional 
guidelines, as well as the intent and the spirit of the WSARA 
of 2009.
    As you're aware, both the lead LCSs fully meet performance 
requirements. Both the lead ships of each variant are currently 
in service and already performing well, while also conducting a 
comprehensive test and evaluation program. LCS-1, the Freedom, 
demonstrated some of the things we can expect during her maiden 
deployment earlier this year, a deployment done 2 years ahead 
of schedule. In less than 3 weeks of counternarcotics operation 
in the Caribbean, she made three major drug seizures and 
recovered more than three tons of cocaine. It was because of 
her capabilities that she was able to run down fast drug boats 
that otherwise would have escaped.
    I recognize that this program has historically had 
problems. The program's early shortfalls and initially 
unrealistic cost expectations, stretching back nearly a decade, 
have been pointed out by members of this committee and 
oversight organizations. It was precisely because of this poor 
performance record that last year, with the concurrence of 
Congress, we made very significant changes to our LCS 
procurement strategy. The message from this committee and 
Congress was unmistakably clear: The Navy needs more ships, but 
they have to be more affordable. We heard that message and 
established and enforced a strict policy to limit design 
changes and their debilitating impact on cost and schedule. We 
worked with industry to ensure the lessons learned building the 
lead ships were put in place for efficient construction of 
successive ships. We put a talented, highly capable team in 
charge of this process.
    In 2009, when bids for follow-on ships of both variants 
came in unacceptably high, we made the two industry teams 
compete against each other to get costs down. In this, we 
structured a highly competitive, fixed-price procurement 
strategy to award 10 ships of a single design over 5 years to a 
single builder, with an additional 5 ships to be built by a 
second builder after another round of competition, with the 
Navy owning the technical data package for construction of all 
ships.
    In response to this down-select, industry competitors 
restructured their respective teaming agreements to eliminate 
excess overhead and unnecessary costs. They leveraged the 10-
ship plan to drive down material costs with their vendors and 
they used the long-term nature of the contract to plan facility 
improvements to further reduce labor costs.
    These bids and the cost reductions we have seen 
demonstrated on LCS-3 and -4 will save the taxpayer 
approximately $1.9 billion in fiscal years 2011 through 2016. 
More importantly, the fact that prices were so dramatically 
reduced presented an opportunity to save an additional $1 
billion, for a total of $2.9 billion, through a dual award of a 
10-ship contract to each bidder.
    Each of the variants included in the two contracts will 
fall significantly below the cost cap established by Congress 
in 2010. If our request is approved, it would also enable 
purchase of an additional ship through the realized savings. In 
short, we'll get 20 ships for the price of 19.
    It's important to note that these will be block buys and 
not multi-year contracts. We will not be contractually required 
to buy any ships after the first year and there are no 
termination or cancellation costs. Therefore, both Congress and 
the Navy will have continuing supervision and the ability to 
ensure this program stays on track.
    Senator Levin, Senator McCain, members of this committee: 
You have worked for years on behalf of our service men and 
women to provide them with what they need to protect our 
Nation, while also ensuring proper oversight to protect the 
interests of taxpayers. The LCS proposal you have before you is 
the fruit of those efforts. It delivers better value to the 
taxpayer and greater capability to our fleet.
    I believe we have arrived at an opportunity to realize 
significant real savings within our shipbuilding program, and 
we have done so by following congressional guidance. This is 
good for the Navy, good for the taxpayers, good for industry, 
good for workers, and good for our Nation.
    Thank you.
    Chairman Levin. Thank you, Secretary Mabus.
    Now, I believe you wished our CNO, Admiral Roughead, to 
follow? Okay, Admiral Roughead.

 STATEMENT OF ADM GARY ROUGHEAD, USN, CHIEF OF NAVAL OPERATIONS

    Admiral Roughead. Thank you, sir. Chairman Levin, Senator 
McCain, distinguished members of the committee: Thank you for 
the opportunity to appear before you today to discuss the LCS 
and the dual-award proposal that I believe is good for the 
Navy, for our critical shipbuilding base, and for the taxpayer. 
The LCS will bring new and needed capabilities to our fleet. It 
fills critical current and future warfighting needs in anti-
submarine warfare, mine warfare, and surface warfare, close to 
shore, in areas of strategic interest, areas where we need 
shallow draft, speed, onboard capacity, and the flexibility to 
reconfigure our ships to optimize those missions. These same 
characteristics also allow the LCS to take part in blue water 
operations. Having commanded the Atlantic and Pacific Fleets, I 
know the value of such a ship.
    Accordingly, getting LCS into the fleet quickly, 
affordably, and in sufficient numbers became one of my highest 
priorities as CNO. The first step to get there, ironically and 
as was mentioned by Senator McCain, was to cancel LCSs we had 
planned for in 2007 because of unacceptable costs. What 
followed was extraordinary cooperation among my staff, the 
acquisition community, and the fleet. With the support of 
Congress, an acquisition strategy was developed and executed 
with discipline that gave us the opportunity to acquire LCSs at 
great savings.
    We have taken firm control of the program. Requirements 
have been controlled and we have held the line on changes to 
LCSs under construction today. I deployed the LCS earlier than 
any other ship class to assure we were on the right path 
operationally. It is clear to me that we are.
    The dual award will bring important stability to the 
industrial base and is a major step in getting to the floor of 
313 ships in our fleet. It enables more rapid production by 
involving two shipyards with two designs that fulfill LCS 
mission requirements and that have complementary features. It 
allows us to take advantage of the solid progress and 
infrastructure investments made by both builders. It will 
sustain competition.
    The dual award also allows us to reduce costs by further 
locking in a price for 20 ships, enabling us to acquire the LCS 
at significant savings to American taxpayers and permitting the 
use of shipbuilding funds for other shipbuilding programs.
    What we have proposed is outside the normal process, but it 
is an opportunity that, when it became apparent, was one that 
was to be seized. While it locks the price in, it does not lock 
out control by Navy or Congress, as it is not a multi-year 
procurement. Our ship construction budget, of which these ships 
are a part, will be authorized annually.
    These are good ships. The LCS concept is a sound systems 
approach and we have brought the program under control.
    I respectfully request your support of the Navy's LCS dual-
award proposal. It is good for the Navy, for the Nation's 
industrial base, and for our taxpayers. I look forward to your 
questions.
    Chairman Levin. Thank you very much, Admiral.
    Secretary Stackley, you will be next, and then we'll call 
on Admiral Pandolfe if he has testimony.

STATEMENT OF HON. SEAN J. STACKLEY, ASSISTANT SECRETARY OF THE 
        NAVY FOR RESEARCH, DEVELOPMENT, AND ACQUISITION

    Mr. Stackley. Yes, sir. Senator Levin, Senator McCain, 
members of the committee: I'd like to provide amplifying 
information regarding cost numbers to better inform the 
committee members where we are today and why we believe that 
the numbers that we're looking at inside the bids are both 
credible and are very affordable.
    To provide baseline information, as Senator McCain pointed 
out, the lead ships' construction costs to the taxpayer, the 
Navy, and the government are between $600 million and $700 
million each. Those numbers reflect the shipbuilders' costs as 
well as government-furnished equipment and any changes that 
were brought to bear on those ships. We will refer to that as 
the baseline cost when we talk about cost cap information.
    The follow ships, which are currently under construction at 
both Marinette and Austal, were negotiated ships inside of 
fixed-price contracts. Those are negotiated at target prices of 
about $500 million each, which includes the shipbuilder's cost 
plus government-furnished equipment. Now, we also have budgeted 
above those targets change orders at 5 percent, as well as a 
share line that runs to a ceiling on the contract. So inside of 
the fixed-price construct, we're sitting at targets for ship 
construction of about $500 million, with a range that could go 
as high as about $585 million for those ships if they don't 
perform in accordance with the contract.
    Today, LCS-3, which launched at Marinette at about 81 
percent complete, is on schedule and on budget. So she is 
hitting her numbers in accordance with the target on the 
contract.
    When we look at change order activity, which crippled the 
lead ships, the change order activity on LCS-3 is below 3 
percent. So at 80 percent complete, change orders are 
performing at below 3 percent, which is also well below the 5 
percent budgeted. So we see construction and performance to a 
contract that is demonstrating stability and capturing lessons 
learned from the lead ship.
    For LCS-4 at Austal, she is 9 to 12 months behind LCS-3 by 
the natural progression of the contracts, she's about 42 
percent complete and on track for her launch at about 80 
percent complete. While it's still early in that ship's overall 
construction, she is performing in accordance with her target. 
Also, change orders on that ship are minimal, less than 1 
percent thus far. So we're seeing demonstrated performance on 
the first follow ship, lessons learned and change order 
activity throttled to the extent necessary to ensure these 
ships hit their cost and schedule targets.
    Now we move to the solicitation that was cancelled in the 
summer of 2009. In 2009 we went out for bids for the 2010 
ships. Proposals that came in were going in the wrong 
direction. So where we saw progression from the first to the 
second ship targets, we were seeing a reversal of that trend in 
these proposals, which reflected to a great extent the 
introduction of new shipyards inside the teaming agreements 
held by industry, and also risk that they viewed since they 
were very early on in construction of the follow ships at the 
time and had not demonstrated the learning that we are in fact 
seeing today.
    We cancelled that solicitation, as you're well aware, and 
went out with the down-select, the solicitation for 10 ships, 2 
ships per year over a 5-year period. So inside of the fiscal 
year 2010 through fiscal year 2015 period, where we have a 
total of 19 LCSs programmed, 10 of those ships were to be down-
selected and the remaining ships were to be opened up for 
competition for a second source, and then between the first and 
second source they would be competed in 2015. So there's 19 
ships in fiscal years 2010 through 2015, 10 bid in the down-
select.
    At the same time, as Senator McCain pointed out, the cost 
cap was established at $480 million, with an escalation 
provided for the cost cap. So over those ships the cost cap is 
averaged to about $538 million. So we have a cost cap of $538 
million and then we get bids in hand. We evaluate the bids and, 
while we can't provide specific details on individual bids or 
individual ships to avoid violating the competition 
sensitivity, I'm going to provide averages per the 20-ship bid 
numbers.
    For 20 ships from the 2 competitors, average, including the 
shipbuilder's cost for construction plus the government 5 
percent budget for change orders, plus a margin for potential 
cost growth for unknowns or other performance considerations, 
the Navy is holding in its budget of $440 million per ship--
that's inside of a fixed-price contract--bid numbers, our 
government-furnished equipment, our budget for change orders, 
plus a management reserve budget for any cost performance or 
other issues that would impinge on the contract.
    In the worst case, which we do not anticipate and have no 
cause to believe, but within the fixed-price contract at 
ceiling, plus government-furnished equipment, plus the budget 
for change orders, the price to the government is on the order 
of $460 million average over the 20 ships. So under all 
circumstances, the pricing for these ships fall well below the 
cost cap and well below the budgeted amount, which is how we 
derive the savings that we've calculated.
    Chairman Levin. Thank you very much, Mr. Secretary.
    Admiral Pandolfe.

  STATEMENT OF RADM FRANK C. PANDOLFE, USN, DIRECTOR, SURFACE 
                   WARFARE DIVISION OPNAV N86

    Admiral Pandolfe. Sir, very briefly, this program was 
founded in validated requirements arising from growing threats 
in the littorals from submarines, mines, and surface crafts, 
that we have to counter. In response to our request, both 
builders have produced highly capable ships that exemplify 
speed and maneuverability and adaptability.
    As mentioned, due to competition we now have favorable 
pricing, which allows us, with your permission, sir, to move 
forward with this program.
    Senator, we need these ships and we ask for your support.
    Chairman Levin. Thank you, Admiral.
    I think, Dr. Labs, you're next on our list, so we'll start 
with you.
    Thank you all for being here, by the way. I think I 
mentioned that at the beginning, but this is very short notice. 
We very much appreciate your all being here.
    Dr. Labs.

  STATEMENT OF ERIC J. LABS, Ph.D., SENIOR ANALYST FOR NAVAL 
        FORCES AND WEAPONS, CONGRESSIONAL BUDGET OFFICE

    Dr. Labs. Thank you, Mr. Chairman. Mr. Chairman, Senator 
McCain, members of the committee, I appreciate the opportunity 
to discuss the Navy's LCS program with you today.
    Director Elmendorf sent a letter to Senator McCain on 
Friday in response to his request that CBO conduct an 
evaluation of the cost implications of the Navy's proposal to 
change its LCS acquisition strategy. I ask that the full text 
of the CBO's letter to Senator McCain be entered into the 
record.
    Chairman Levin. It will be.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Dr. Labs. CBO's analysis suggests the following five 
conclusions: First, under either plan, costs for the first 19 
ships are likely to be less than the amounts included in the 
Navy's 2011 budget and FYDP;
    Second, CBO's estimates show per-ship construction costs 
that are about the same for the two plans, but those estimates 
do not take into account the bids the Navy received;
    Third, adopting the dual-award plan might yield savings in 
construction costs, both from the possibility that the bids are 
lower than they would be in a subsequent competition when the 
economic environment could be different and from avoiding the 
need for a new contract to develop the infrastructure and 
expertise to build a new kind of ship;
    Fourth, operating and maintaining two types of ships would 
probably be more expensive than operating just one; and
    Fifth, if the Navy later decides to use a common combat 
system for all LCSs, the cost for developing, procuring, and 
installing that system could be significant.
    Let me first address the Navy's estimates. In the 2011 
FYDP, the Navy proposed spending almost $12 billion in current 
dollars to procure 19 LCSs under the down-select plan. The Navy 
now estimates the cost for that plan to be $10.4 billion, or 
about $1.5 billion less than its earlier estimate. Now, with 
the 2 bids in hand, the Navy proposes to purchase 20 ships, 10 
from each contractor, for about $9.8 billion through 2015, or 
$600 million less than it currently estimates for the down-
select plan and $2.1 billion less than its 2011 FYDP.
    The Navy briefed CBO on those estimates, but did not 
provide the detailed contractor data or the Navy's detailed 
analysis of those data. If the contractors' proposals for the 
10-ship award are robust and do not change, the Navy's 
estimates would be plausible. In fact, in today's dollars and 
on a per-ton basis the cost of the LCSs under each strategy 
align well with the historical costs of the Oliver Perry-class 
frigate, the ship in the Navy's inventory that is most similar 
to the LCS. But CBO has no independent data to verify the 
Navy's savings estimate and total costs could grow by several 
hundred million dollars if the shipbuilders experience 
overruns.
    In contrast, CBO's own estimates of costs are higher and 
indicate little difference in the per-ship cost of the two 
plans. But CBO's estimates do not incorporate any benefits of 
competition that may have arisen as a result of the Navy's 
existing down-select strategy. The Navy argues that benefits 
would be locked in by the fixed-price plus incentive contracts. 
CBO estimates that the down-select plan would cost the Navy 
about $583 million per ship, compared with an estimated cost of 
$591 million per ship under the dual-award plan. Given the 
uncertainties that surround such estimate, that difference, 
less than 2 percent, is not significant.
    Overall, CBO's estimates of the costs for the down-select 
and the dual-award strategies are higher than the Navy's by 
$680 million and $2 billion, respectively. However, in light of 
the contract bids, it is not clear that CBO's cost estimating 
model is a better predictor of LCS costs through 2015 than the 
Navy's estimates. Still, changes in design to address technical 
problems, changes in the number of ships purchased, inflation, 
or other escalation clauses could add to costs.
    The Navy decision to buy both types of ships through 2015 
would have cost implications after 2015, but whether those 
costs will be higher or lower depends on at least three aspects 
of the Navy's decision: First, which of the two ship designs 
the Navy would have selected under its original down-select 
plan; second, whether the Navy will buy one or both types of 
ship after 2015; and third, whether the Navy decides to develop 
a common combat system for both LCSs or keep the two separate 
combat systems under the dual-award approach.
    CBO cannot estimate those costs beyond 2015 because it does 
not know what the Navy is likely to decide in those areas. 
However, I would like to highlight the issue of the common 
combat system for the LCS. If the Navy were to decide that it 
wanted all LCSs to share the same system, it would be 
considerably more expensive to backfit the 12 LCSs under the 
dual-award strategy than the 2 orphan LCSs under the down-
select strategy.
    The combat system of an LCS today costs about $70 million. 
Thus, if future Navy leaders decided that a common combat 
system were desirable, developing, purchasing, and installing 
new combat systems in 12 LCSs would cost more than the savings 
that the Navy is asserting that the dual award offers over the 
next 5 years.
    Thank you and I'm happy to answer any questions you might 
have.
    Chairman Levin. Thank you very much, Dr. Labs.
    Mr. O'Rourke.

  STATEMENT OF RONALD O'ROURKE, SPECIALIST IN NAVAL AFFAIRS, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mr. O'Rourke. Chairman Levin, Senator McCain, distinguished 
members of the committee: Thank you for the opportunity to 
testify today. With your permission, I'd like to submit my 
written statement for the record and summarize it here briefly.
    Chairman Levin. Thank you. They will all be made part of 
the record.
    Mr. O'Rourke. The Navy's proposed dual-award strategy is 
the third time in the history of the LCS program that the Navy 
has presented Congress with an important choice about the 
future of the LCS program late in the congressional budget 
review cycle, after Congress has completed its spring budget 
review hearings and some of its committee markups. The first 
instance was in mid-2002 when the Navy submitted an amended 
request to Congress for fiscal year 2003 funding to get the LCS 
program started using a rapid acquisition strategy. The second 
instance was in September 2009 when the Navy announced its 
proposed down-select strategy.
    The timing of the Navy's new proposal for using a dual-
award strategy provides relatively little time for Congress to 
collect cost or other information from the Navy, to solicit 
cost and other information from independent sources such as CBO 
and GAO, for CBO and GAO to develop such information and 
provide it to Congress, and for Congress to then evaluate all 
this information.
    This situation raises a potential issue for Congress 
concerning the possible implications for the LCS program and 
for congressional oversight of defense acquisition programs in 
general of proceeding with the LCS program in part on the basis 
of policies originally presented to Congress late in the 
congressional budget review cycle.
    There are a number of issues to consider in evaluating the 
relative merits of the down-select and dual-award strategies, 
including their potential relative costs, and on this key 
question the available information is fragmentary and not well 
vetted. Although the Navy's statements in recent weeks about 
the cost implications of the dual-award strategy have tended to 
focus on ship acquisition costs, this is only one of at least 
three significant cost elements that can be examined in 
comparing potential costs of the down-select and dual-award 
strategies.
    Regarding ship procurement costs, there's a notable 
difference between the Navy's estimate and CBO's estimate. The 
Navy estimates that, compared to the down-select strategy, the 
dual-award strategy would reduce ship procurement costs by $1 
billion through fiscal year 2016. CBO in contrast estimates 
that, compared to the down-select strategy, the dual-award 
strategy would increase ship procurement costs by $740 million 
through fiscal year 2015. That's quite a difference in 
estimates.
    The second cost element to factor in are potential 
additional costs under the dual-award strategy for possibly 
developing, procuring, and installing a common combat system 
for LCSs. Depending on what the Navy now or years from now 
decides to do regarding LCS combat system commonality, these 
additional costs can either be negligible or significant. 
Neither the Navy nor CBO has released estimates of these costs 
as of yesterday, but at the potential high end they could be 
enough to cancel out or even exceed any savings in ship 
procurement costs that might be realized through the dual-award 
strategy. The Navy's intentions regarding LCS combat systems 
are not clear.
    The third cost element to factor in are the potential 
additional costs under the dual-award strategy for operating 
and supporting significant numbers of two LCS designs over 
their live cycles. GAO has reported a Navy estimate of $295 
million in net present value terms for this additional cost, 
but this figure does not appear to have been vetted yet by an 
independent entity outside DOD. Both CBO and GAO have 
highlighted uncertainties regarding estimates of relative life 
cycle operation and support (O&S) costs under the down-select 
and dual-award strategies.
    When I put together the information on these three cost 
elements that was available as of yesterday, I get a range of 
possibilities. At one end of the range, the dual-award strategy 
might cost about $700 million less than the down-select 
strategy. Toward the other end of the range, the dual-award 
strategy might cost hundreds of millions dollars more than the 
down-select strategy. The wide degree of uncertainty from one 
end of the range to the other can be viewed as an expression of 
how imperfectly understood the potential relative costs of the 
down-select and dual-award strategies are at this point.
    Mr. Chairman, distinguished members of the committee, this 
concludes my testimony. Thank you again for the opportunity to 
testify and I'll be pleased to respond to any questions you 
might have.
    [The prepared statement of Mr. O'Rourke follows:]
                 Prepared Statement by Ronald O'Rourke
    Chairman Levin, Senator McCain, distinguished members of the 
committee, thank you for the opportunity to appear before you today to 
discuss acquisition strategies for the Littoral Combat Ship (LCS) 
program.
                              introduction
Down-Select Strategy Proposed In September 2009
    On September 16, 2009, the Navy announced a proposed LCS 
acquisition strategy under which the Navy would hold a competition to 
pick a single design to which all LCSs procured in fiscal year 2010 and 
subsequent years would be built. (The process of selecting the single 
design for all future production is called a down select.) The winner 
of the down select would be awarded a contract to build 10 LCSs over 
the 5-year period fiscal years 2010-2014, at a rate of two ships per 
year. The Navy would then hold a second competition--open to all 
bidders other than the shipyard building the 10 LCSs in fiscal years 
2010-2014--to select a second shipyard to build up to five additional 
LCSs to the same design in fiscal years 2012-2014 (one ship in fiscal 
year 2012, and two ships per year in fiscal year 2013-2014). These two 
shipyards would then compete for contracts to build LCSs procured in 
fiscal year 2015 and subsequent years.
    Section 121 (a) and (b) of the National Defense Authorization Act 
for Fiscal Year 2010 (H.R. 2647/P.L. 111-84 of October 28, 2009) grant 
the Navy contracting and other authority needed to implement this LCS 
acquisition strategy.
    The Navy had planned to make the down-select decision and award the 
contract to build the 10 LCSs sometime this past summer, but the 
decision was delayed to as late as December 14. (The final bids 
submitted by the two LCS contractors were submitted on about September 
15, and were valid for another 90 days, or until December 14.)
             dual-award strategy proposed in november 2010
    On November 3, 2010, the Navy notified congressional offices that 
it was prepared to implement an alternative LCS acquisition strategy 
that would involve awarding 10-ship contracts to both LCS bidders. The 
Navy would need additional legislative authority from Congress to 
implement this dual-award strategy. The Navy stated on November 3 that 
if the additional authority were not granted by December 14, the Navy 
would proceed to announce its down-select decision under the 
acquisition strategy announced on September 16, 2009. On December 13, 
it was reported that the two LCS bidders, at the Navy's request, had 
extended the prices in their bids to December 30.\1\
---------------------------------------------------------------------------
    \1\ Anthony Capaccio, ``Lockheed, Austal Extend Prices on Littoral 
Ship Bids,'' Bloomberg.com, December 13, 2010; Christopher P. Cavas, 
``Deadline Looms For U.S. Navy's LCS,'' Defense News, December 13, 
2010: 1.
---------------------------------------------------------------------------
    The Navy's proposed dual-award strategy poses a near-term issue for 
Congress of whether this strategy would be preferable to the down-
select strategy, and whether Congress should grant the Navy, by 
December 30, the additional legislative authority the Navy would need 
to implement the dual-award strategy.
    On December 8, 2010, the House passed H.R. 3082, a full-year 
continuing appropriations bill for fiscal year 2011.\2\ Section 2314 of 
H.R. 3082 would provide the legislative authority the Navy needs to 
implement its proposed dual-award acquisition strategy for the LCS 
program.
---------------------------------------------------------------------------
    \2\ H.R. 3082 was originally the fiscal year 2010 military 
construction, the Department of Veterans Affairs, and related agencies 
appropriations bill.
---------------------------------------------------------------------------
   observations regarding information on potential comparative costs
    The potential comparative costs of the down-select and dual-award 
strategies are not clear. Observations that might be made about these 
costs as of December 13 include but are not limited to the following:

        <bullet> There is a significant difference between the Navy and 
        the Congressional Budget Office (CBO) regarding relative LCS 
        procurement costs under the down-select and dual-award 
        strategies. The Navy estimates that, compared to the down-
        select strategy, the dual-award strategy could reduce LCS 
        procurement costs by $1 billion through fiscal year 2016. CBO, 
        in contrast, estimates that compared to the down-select 
        strategy, the dual-award strategy could increase LCS 
        procurement costs by $740 million through fiscal year 2015.
        <bullet> As of December 13, there were no available estimates 
        from the Navy or CBO regarding potential additional costs under 
        the dual-award strategy for developing and installing a common 
        combat system on some or all of the first 24 LCSs.\3\ Depending 
        on what the Navy decides to do regarding LCS combat systems, 
        these additional costs could be negligible or significant. The 
        Navy's intentions regarding the LCS combat systems are not 
        clear.
---------------------------------------------------------------------------
    \3\ The LCS combat system referred to in this discussion is the 
ship's built-in collection of sensors, weapons, displays, and software, 
and not the LCS mission modules that can be placed on or taken off the 
ship.
---------------------------------------------------------------------------
        <bullet> According to the Government Accountability Office 
        (GAO), the Navy estimates that, compared to the down-select 
        strategy, the dual-award strategy would increase LCS life-cycle 
        operating and support (O&S) costs by $295 million (net present 
        value). Both GAO's December 8 report on the LCS program \4\ and 
        CBO's December 10 letter report on the LCS program \5\ express 
        uncertainty regarding estimates of relative life-cycle O&S 
        costs under the down-select and dual-award strategies.
---------------------------------------------------------------------------
    \4\ Government Accountability Office, Navy's Proposed Dual Award 
Acquisition Strategy for the Littoral Combat Ship Program, GAO-11-249R, 
December 8, 2010, 14 pp.
    \5\ Congressional Budget Office, letter report to Senator John 
McCain on LCS acquisition strategies dated December 10, 2010, 7 pp.
---------------------------------------------------------------------------
        <bullet> CBO's letter report included several cautionary 
        statements about its estimates relating to limits on the 
        information available to CBO in developing its estimates.
                         general discussion \6\
---------------------------------------------------------------------------
    \6\ This section is adapted from the December 13 update of CRS 
Report RL33741, Navy Littoral Combat Ship (LCS) Program: Background, 
Issues, and Options for Congress, by Ronald O'Rourke.
---------------------------------------------------------------------------
November 4 Navy Point Paper on Dual-Award Strategy
    A November 4, 2010, Navy point paper on the dual-award strategy 
stated the following (this is the full text of the point paper): \7\
---------------------------------------------------------------------------
    \7\ Source: Navy point paper on proposed alternative LCS 
acquisition strategy dated November 4, 2010.
---------------------------------------------------------------------------
    Littoral Combat Ship Proposed Revised Acquisition--Dual 10 Ship 
        Awards
        <bullet> In summer 2009 Navy received bids for three fiscal 
        year 2010 ships from Lockheed Martin/Marinette Marine/Bollinger 
        and General Dynamics Bath Iron Works/Austal USA industry teams. 
        These bids did not reflect competitive pricing and well 
        exceeded the Congressional Cost Cap. In order to reverse cost 
        trends on the program, the acquisition strategy was revised to 
        the current down-select strategy.
        <bullet> The Navy's Littoral Combat Ship acquisition strategy 
        to down select to a single design has resulted in a highly 
        effective competition between the industry bidders. Navy is on 
        the path to down select in accordance with the terms of the 
        current solicitation.
        <bullet> The industry response to the competitive acquisition 
        strategy has resulted in reduction in cost for the LCSs 
        relative to the previous bids. These competitive bids, coupled 
        with Navy's desires to increase ship procurement rates to 
        support operational requirements, has created an opportunity to 
        award each bidder a fixed-price 10-ship block buy--a total of 
        20 ships from fiscal year 2010 to fiscal year 2015. A 
        comparison between the two strategies of which ships are 
        included in a down select/second source versus dual 10 ship 
        block buy appears in the table below.
        <bullet> The current National Defense Authorization Act (NDAA) 
        anguage permits the Navy to procure up to 10 ships in a block 
        buy. In order to execute a dual 10 ship award, Navy believes 
        congressional authorization is required.
        <bullet> If congressional support for this approach is granted, 
        Navy will work with industry to revise the ship procurement 
        schedules within current proposal pricing (fiscals year 2010-
        2015 vice fiscal years 2010-2014).
        <bullet> Navy is continuing on the path to down select and 
        absent authorization, we will proceed to down select by mid-
        December 2010.
        <bullet> There are numerous benefits to this approach including 
        stabilizing the LCS program and the industrial base with award 
        of 20 ships; increasing ship procurement rate to support 
        operational requirements; sustaining competition through the 
        program; and enhancing Foreign Military Sales opportunities.
        <bullet> The Navy intends to procure the Technical Data Package 
        for both designs and if necessary a second source for either or 
        both designs could be brought into the program.
        <bullet> Either approach will ensure the Navy procures 
        affordably priced ships.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Some General Observations About the Dual-Award Strategy
    General observations that can be made on the Navy's proposed dual-
award strategy include but are not limited to the following:

        <bullet> The dual-award strategy would avoid, at least for now, 
        the possibility of a contract protest being filed against a 
        Navy down-select decision.
        <bullet> Although the dual-award strategy includes the 
        possibility of the Navy at some point bringing a second source 
        into the program for either or both LCS designs, the dual-award 
        strategy does not include the guaranteed opportunity present in 
        the down-select strategy for shipyards not currently involved 
        in building LCSs to compete for the right to become the second 
        LCS builder.
        <bullet> The Navy's November 4, 2010, point paper on the dual-
        award strategy does not outline the Navy's intentions regarding 
        the currently different combat systems on the two LCS designs.
        <bullet> The dual-award strategy would require each LCS 
        contractor to build 10 ships over a period of 6 years (fiscal 
        years 2010-2015) rather than 5 years (fiscal years 2010-2014), 
        but at the same price that was bid for the 5-year schedule. In 
        addition, LCSs built under the dual-award strategy would 
        incorporate combat systems that would be built by combat system 
        manufacturers in smaller annual quantities than would be the 
        case under the down-select strategy, possibly increasing the 
        costs of these combat systems. Factors such as these could, at 
        the margin, alter the profitability for each contractor of 
        building its respective group of 10 ships.
Potential Oversight Questions for Congress
    Potential oversight questions for Congress in assessing whether the 
proposed dual-award strategy would be preferable to the down-select 
strategy announced by the Navy on September 16, 2009, and whether to 
grant the Navy, by December 30, the additional legislative authority 
the Navy would need to implement the dual-award strategy, include but 
are not limited to the following:

        <bullet> Does the timing of the Navy's proposal provide 
        Congress with enough time to adequately assess the relative 
        merits of the down-select strategy and the dual-award strategy? 
        Given that the contractors submitted their bids by about 
        September 15, could the Navy have notified Congress of the 
        proposed dual-award strategy sooner than November 3, giving 
        Congress more time to seek information on and evaluate the 
        proposal? Should the Navy ask the contractors to extend their 
        bid prices for another, say, 30 or 60 or 90 days beyond the 
        original December 14 expiration date, so as to provide more 
        time for congressional review of the Navy's proposal? \8\ (As 
        mentioned earlier, on December 13, it was reported that the two 
        LCS bidders, at the Navy's request, had extended the prices in 
        their bids for 16 days, to December 30.)
---------------------------------------------------------------------------
    \8\ A December 6, 2010, press report states: ``Lockheed officials 
have indicated that they could extend the pricing in their proposal for 
a short while beyond December 14, to allow time for Congress to approve 
the change. Lockheed Chief Financial Officer Bruce Tanner told an 
investment conference last week that Lockheed could extend the prices 
it offered for a day or 2, but not indefinitely . . . . Analysts said 
they expected both companies to show some flexibility on the expiration 
of their pricing, given that each firm stood to win a contract valued 
at around $5 billion.'' (Andrea Shalal-Esa, ``U.S. Navy Hopeful 
Congress Will Approve Ship Buys,'' Reuters.com, December 6, 2010.) 
Another December 6, 2010, press report that was posted online on 
December 3, 2010, stated: ``Theoretically, Lockheed Martin and Austal 
could likely agree to extend the price deadline, but the Navy has not 
asked them to do so yet, [Navy spokeswoman Captain Cate] Mueller 
said.'' (Cid Standifer, ``Stand-Alone Bill May Be Needed To Approve LCS 
Dual Block Buy Plan,'' Inside the Navy, December 6, 2010.)
---------------------------------------------------------------------------
        <bullet> What role, if any, did a desire by the Navy to avoid a 
        potential contract protest against the Navy's down-select 
        decision play in the Navy's decision to propose the alternate 
        dual-award strategy? For example, how concerned, if at all, was 
        the Navy that the announcement of an LCS down-select decision 
        might lead to a contract protest and controversy somewhat like 
        what has been experienced in the Air Force's KC-X aerial 
        refueling tanker acquisition program? \9\ A December 13, 2010, 
        press report on the LCS program stated: ``One high-level Navy 
        source recently said that without the dual-ship approach, 
        `there is 100 percent chance of a protest.' '' \10\
---------------------------------------------------------------------------
    \9\ For more on the KC-X program, see CRS Report RL34398, Air Force 
KC-X Tanker Aircraft Program: Background and Issues for Congress, by 
Jeremiah Gertler.
    \10\ Christopher P. Cavas, ``Deadline Looms For U.S. Navy's LCS,'' 
Defense News, December 13, 2010: 1.
---------------------------------------------------------------------------
        <bullet> What are the potential relative costs of the down-
        select and dual-award acquisition strategies, including 
        development costs, procurement costs, and life-cycle operation 
        and support (O&S) costs? Has the Navy fully and accurately 
        estimated these costs--including potential costs for 
        developing, procuring, and installing a common combat system 
        for both LCS designs--and reported all these potential costs to 
        Congress?
        <bullet> What are the potential relative risks of the down-
        select and dual-award acquisition strategies, including 
        development risks, production cost risks, production schedule 
        risks, and life-cycle O&S risks? Has the Navy fully and 
        accurately estimated these risks, and reported all these 
        potential risks to Congress?
        <bullet> What are the Navy's intentions, under the proposed 
        dual-award acquisition strategy, regarding the currently 
        different combat systems on the two LCS designs? Does the Navy 
        intend to leave them unchanged, adopt one of the combat systems 
        as the common system for both designs, or develop a new combat 
        system for both designs? If the Navy intends to pursue the 
        second or third of these paths, what is the Navy's plan 
        (including schedule) for doing so? If the Navy does not have a 
        definite plan regarding the combat systems for the ships, how 
        well can the potential costs and risks of the dual-award 
        strategy be estimated and compared to those of the down-select 
        strategy?
        <bullet> What are the potential industrial-base impacts of the 
        dual-award strategy, including impacts on the two LCS 
        contractors, on shipyards that could, under the down-select 
        strategy, bid for the right to become the second LCS builder, 
        and on combat system manufacturers?
        <bullet> What impact, if any, might the Navy's proposal to 
        shift from its down-select strategy to the dual-award strategy 
        have on the ability of the Department of Defense (DOD) to 
        implement down-select strategies for other acquisition 
        programs? For example, will the Navy's proposal to shift to the 
        dual-award strategy cause contractors bidding for other 
        acquisition programs to treat with increased skepticism stated 
        DOD intentions to carry out down selects? If so, could that 
        reduce the benefits of competition that DOD might hope to 
        achieve through the use of down-select strategies?
Enough Time for Adequate Congressional Review of Navy Proposal?
    Regarding whether the timing of the Navy's proposal provides 
Congress with enough time to adequately assess the relative merits of 
the down-select strategy and the dual-award strategy, it can be noted 
that this is the third time in the history of the LCS program that the 
Navy has presented Congress with an important choice about the future 
of the LCS program late in the congressional budget-review cycle, after 
Congress had completed its spring budget-review hearings and some of 
its committee markups. The first instance was in mid-2002, when the 
Navy submitted an amended request to Congress for fiscal year 2003 
funding to get the LCS program started using a rapid acquisition 
strategy.\11\ The second was in September 2009, when the Navy announced 
its proposed down-select strategy for the LCS program.
---------------------------------------------------------------------------
    \11\ The Navy's original fiscal year 2003 budget request, submitted 
to Congress in February 2002, contained no apparent funding for 
development of the LCS. In addition, the Navy in early 2002 had not yet 
announced that it intended to employ a rapid acquisition strategy for 
the LCS program. As a result, in the early months of 2002, there may 
have been little reason within Congress to view the LCS program as a 
significant fiscal year 2003 budget-review issue. In the middle of 
2002, the Navy submitted an amended request asking for $33 million in 
fiscal year 2003 development funding for the LCS program. Navy 
officials explained that they did not decide until the middle of 2002 
that they wanted to pursue a rapid acquisition strategy for the LCS 
program, and consequently did not realize until then that there was a 
need to request $33 million in fiscal year 2003 funding for the 
program. By the middle of 2002, however, the House and Senate Armed 
Services committees had already held their spring fiscal year 2003 
budget-review hearings and marked up their respective versions of the 
fiscal year 2003 defense authorization bill. These two committees thus 
did not have an opportunity to use the spring 2002 budget-review season 
to review in detail the Navy's accelerated acquisition plan for the LCS 
program or the supporting request for $33 million in funding.
---------------------------------------------------------------------------
    In light of the third instance--the Navy's proposal of November 3, 
2010, for using a dual-award strategy rather than a down-select 
strategy--a potential issue for Congress are the implications for the 
LCS program and congressional oversight of defense acquisition programs 
in general of proceeding with the LCS program in part on the basis of 
policies originally presented as proposals to Congress late in the 
congressional budget-review cycle, after Congress had completed its 
spring budget-review hearings and some of its committee markups. The 
Navy's November 3, 2010, notification to Congress of the proposed dual-
award strategy, combined with a request by the Navy that Congress act 
on that proposal by December 30, provides relatively little time for 
Congress to collect cost and other information from the Navy (including 
information that Navy might not offer in initial briefings to 
individual congressional offices), for Congress to solicit cost and 
other information from independent sources such as the Congressional 
Budget Office (CBO) and GAO, for CBO and GAO to develop such 
information and provide it to Congress, for Congress to hold hearings 
at which all this information might be discussed in a group setting, 
with multiple parties present, and for congressional offices to then 
form their evaluations of the Navy's proposal.
Potential Relative Ship Procurement Costs
    Regarding potential relative costs of the down-select and dual-
award acquisition strategies, the Navy has stated that it estimates 
that procuring LCSs under the dual-award strategy would cost $1 billion 
less through fiscal year 2016 than procuring them under the down-select 
strategy.\12\ According to CBO, the Navy's estimated savings through 
fiscal year 2015--the final year covered in the table shown in the 
Navy's November 4 point paper--is $600 million.
---------------------------------------------------------------------------
    \12\ Source: DOD letter to GAO dated December 6, 2010, p. 2, as 
reprinted in Government Accountability Office, Navy's Proposed Dual 
Award Acquisition Strategy for the Littoral Combat Ship Program, GAO-
11-249R, December 8, 2010, p. 12. The GAO report states on page 2: 
``According to the Navy, $1.9 billion in savings resulted from the 
competition between the two offerors and is common to both strategies. 
However, the Navy estimates that approximately $1.0 billion in 
additional cost savings would be realized under the proposed dual award 
strategy because of the avoidance of higher start-up costs and risks 
associated with the second source planned for fiscal year 2012, among 
other factors. According to the Navy, these additional savings would be 
offset, in part, by increased total ownership costs.''
---------------------------------------------------------------------------
    CBO in its December 10 letter report provided its own estimate of 
the relative ship procurement costs of the down-select and dual-award 
strategies through fiscal year 2015. As shown in Table 1, CBO estimates 
that the dual-award strategy would cost $740 million more in ship 
procurement costs than the down-select strategy through fiscal year 
2015.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    CBO's letter report included several cautionary statements about 
its estimates relating to limits on the information available to CBO in 
developing its estimates.
    Under the down-select strategy, shipyards competing to become the 
second LCS builder could include yards that currently build other ships 
for the Navy, such as, possibly, General Dynamics' Bath Iron Works (GD/
BIW) of Bath, ME, Northrop Grumman's Ingalls shipyard of Pascagoula, 
MS, or General Dynamics' National Steel and Shipbuilding Company 
(NASSCO) of San Diego, CA. If such a yard were to be selected under the 
down-select strategy to become the second LCS builder, it could reduce 
the cost of other Navy ships being built at that yard by more fully 
spreading the fixed overhead costs of that yard. It is not clear 
whether the Navy estimate in Table 1 accounts for a possible reduction 
in the cost of other Navy ships that might be realized under the down-
select strategy through more full spreading of shipyard fixed overhead 
costs. The CBO estimate does not account for this possible 
reduction.\13\
---------------------------------------------------------------------------
    \13\ Source: Telephone conversation with CBO, December 10, 2010.
---------------------------------------------------------------------------
Potential Combat System-Related Investment Costs
    Any savings the dual-award strategy might realize relative to the 
down-select strategy in terms of costs for procuring LCSs could be 
offset by potential additional costs under the dual-award strategy for 
developing, procuring, and installing a common combat system for the 
two LCS designs. Developing a new common combat system for the two LCS 
designs might cost tens of millions of dollars. Procuring replacement 
combat systems for LCSs could cost tens of millions or dollars per 
ship. Removing an LCS's existing combat system and installing a 
replacement system could cost several millions of dollars per ship. 
CBO's letter report states that ``if the Navy later decided to use a 
common combat system for all LCSs (rather than the different ones that 
would initially be installed on the two different types of vessels), 
the costs for developing, procuring, and installing that system could 
be significant.'' \14\
---------------------------------------------------------------------------
    \14\ Congressional Budget Office, letter report to Senator John 
McCain on LCS acquisition strategies dated December 10, 2010, p. 3.
---------------------------------------------------------------------------
    If, for example, the Navy decided to develop a new common combat 
system for both LCS designs, developed that new system at a one-time 
cost of, say, $30 million, procured 24 copies of that system at a 
recurring cost of, say, $50 million per copy, and installed them on the 
first 24 LCSs (i.e., LCSs 1 through 4, plus the 20 ships to be awarded 
under the dual-award strategy's two 10-ship block-buy contracts) at a 
recurring installation cost of, say, $5 million per ship, the total 
cost would be $1,350 million.
    If, as another example, the Navy decided to adopt one of the two 
existing LCS combat systems as the common combat system for both 
designs, adapted that existing system for the other LCS design at a 
one-time cost of, say, $10 million, procured 12 copies of that system 
at a recurring cost of, say, $50 million per copy, and installed them 
on 12 of the first 24 LCSs (i.e., the LCSs originally built or to be 
built with the other combat system ) at a recurring installation cost 
of, say, $5 million per ship, the total cost would be $670 million.
    CBO's December 10 letter report states that the existing combat 
systems on the two LCS designs cost about $70 million per ship.\15\ 
Using this figure (instead of $50 million) as the basis for estimating 
the cost of a replacement combat system, the estimates of $1,350 
million and $670 million in the preceding two paragraphs would become 
$1,830 million and $910 million, respectively.
---------------------------------------------------------------------------
    \15\ Congressional Budget Office, letter report to Senator John 
McCain on LCS acquisition strategies dated December 10, 2010, p. 7.
---------------------------------------------------------------------------
    Regarding the Navy's intentions for the combat systems on the two 
LCS designs, a November 29, 2010, press report states that ``the Navy 
intends to keep separate the combat systems of the Lockheed and Austal 
USA versions of the Littoral Combat Ships for its dual buy strategy, 
but will `procure the tech data package to allow for consideration of 
[a] common combat system in the future,' according to Navy spokeswoman 
Capt. Cate Mueller.'' The report also quoted an industry official as 
saying that the Navy is likely ``still strategizing as to how they're 
going to single up on a combat system.'' \16\ A December 13, 2010, 
press report described as an ``analysis'' article stated:
---------------------------------------------------------------------------
    \16\ Andrew Burt, ``Navy Open To Combining Combat Systems On Both 
Littoral Combat Ships,'' Inside the Navy, November 29, 2010. Material 
in brackets as in original. The Austal USA version of the LCS is the 
version developed by the General Dynamics-led LCS industry team.

          To speed development [of the LCS], each [LCS industry] design 
        team was allowed to develop its own system. [For the Lockheed 
        team's LCS design,] Lockheed came up with COMBATSS-21, in some 
        ways a lightweight derivative of the Aegis combat system built 
        by the company and fielded on nearly 80 U.S. Navy cruisers and 
        destroyers. General Dynamics' Advanced Information Systems 
        (AIS) developed an entirely new system for [the General 
        Dynamics team's LCS] design, a system the company claims more 
        closely embodies the open architecture concept espoused by the 
        Navy for virtually all its new computer systems.
          Each combat system requires its own support pipeline: 
        maintenance and parts chains, training programs, operational 
        characteristics. Even if the Navy had simply picked one, it 
        would still have been unique in a fleet that has striven for 
        homogeneity and relative simplicity.
          Navy officials downplay the impact of fielding separate 
        systems, and claim competition will hold prices in check. But 
        sooner or later, whether today's management team supports both 
        combat systems or not, an official will come into office who 
        sees the dual-system setup as wasteful and unsupportable. When 
        that happens, the ships with one of the systems will likely be 
        taken out of service--years before they're used up--and 
        probably made available for foreign military sales.
          The Navy reportedly has a plan to deal with the dual combat 
        systems, but it's not saying what it is, possibly because 
        officials lack the authority to discuss details of a dual-ship 
        buy. While a number of congressional staffers and analysts have 
        been briefed on the plan, they've been sworn to secrecy. Even 
        among those who have been briefed, there are concerns that this 
        is an issue the Navy needs to address publicly before the buy-
        bothdesigns plan can be approved.
          What's the Plan?
          So what is the Navy's plan for the combat systems? Sean 
        Stackley, the service's top weapons buyer, gave some clues in 
        September 2009 when he announced the service would have a 
        competition to buy only one of the designs. As a key factor in 
        the strategy to keep a lid on cost growth and perhaps drive 
        prices down, the Navy would compete multiple elements of each 
        LCS design, including the combat systems, weapons and engines. 
        Eventually, the service wants to purchase the technical package 
        both for the design and for the combat system, thus allowing 
        other companies to bid for construction.
          After sailors have a chance to put each LCS combat system 
        through its paces, the service will begin to pick and choose 
        among the various elements of each system. Those elements will 
        be incorporated into what would become, in essence, a third 
        combat system. Another competition would then be held for that, 
        allowing companies such as Northrop Grumman, Raytheon or even 
        Saab to bid as the combat system integrator.
          Under this scenario, a third system might be developed in 
        time to begin incorporating the new, one-size-fits-both combat 
        system into the later ships of each company's 10-ship buy. Even 
        if the new system isn't ready by then, it could become a key 
        element in follow-on LCSs, beginning with the 25th LCS in 2016.

    What would become of the earlier ships featuring individual combat 
systems is not yet clear.\17\
---------------------------------------------------------------------------
    \17\ Christopher P. Cavas, ``Two LCS Designs, One Big Dilemma,'' 
Defense News, December 13, 2010: 22.
---------------------------------------------------------------------------
Potential Relative Life-Cycle Operation and Support (O&S) Costs
    Any savings the dual-award strategy might realize relative to the 
down-select strategy in terms of costs for procuring LCSs could also be 
offset by potential additional life-cycle operation and support (O&S) 
costs of operating significant numbers of two different LCS designs. 
GAO's December 8 report states: ``According to the Navy, [estimated 
savings in LCS procurement costs under the dual-award strategy] would 
be offset, in part, by an additional $842 million in total ownership 
costs, which the Navy equates to a net present value of $295 million.'' 
\18\ The GAO report also states:
---------------------------------------------------------------------------
    \18\ Government Accountability Office, Navy's Proposed Dual Award 
Acquisition Strategy for the Littoral Combat Ship

          Navy officials expressed confidence that their cost estimate 
        supporting the dual award provides details on the costs to 
        operate and support both designs. However, since little actual 
        LCS operating and support data are available to date, the 
        Navy's estimates for these costs are currently based on data 
        from other ships and could change as actual cost data become 
        more available. These estimates are also based on new 
        operational concepts for personnel, training, and maintenance 
        that have not been fully developed, tested, and implemented. 
        For example, the Navy has not yet implemented a comprehensive 
        training plan, and it is possible that the plan could cost more 
        or less than the training costs currently accounted for by the 
        Navy.\19\
---------------------------------------------------------------------------
    \19\ Government Accountability Office, Navy's Proposed Dual Award 
Acquisition Strategy for the Littoral Combat Ship Program, GAO-11-249R, 
December 8, 2010, p. 6.

---------------------------------------------------------------------------
    CBO's December 10 letter report stated:

          Operating and maintaining two types of ships would probably 
        be more expensive, however. The Navy has stated that the 
        differences in costs are small (and more than offset by 
        procurement savings), but there is considerable uncertainty 
        about how to estimate those differences because the Navy does 
        not yet have much experience in operating such ships.\20\
---------------------------------------------------------------------------
    \20\ Congressional Budget Office, letter report to Senator John 
McCain on LCS acquisition strategies dated December 10, 2010, p. 3.
---------------------------------------------------------------------------
Potential Resulting Relative Net Costs
    Using information available as of December 13, potential relative 
costs of the down-select and dual-award strategies might be bounded as 
follows:

          On the one hand, compared to the down-select strategy, the 
        dual award strategy might cost a net total of $705 million 
        less. This net figure includes $1 billion in Navy-estimated 
        ship procurement cost savings through fiscal year 2016, no 
        additional combat system-related investment costs (i.e., the 
        Navy decides not to pursue a common combat system for the two 
        LCS designs), and $295 million in additional life-cycle O&S 
        costs (net present value) for operating significant numbers of 
        both LCS designs.
          On the other hand, compared to the down-select strategy, the 
        dual award strategy might cost a net total of as much as $2,865 
        million more. This net figure includes $740 million in CBO-
        estimated higher ship procurement costs through fiscal year 
        2015, as much as $1,830 million in additional combat system 
        related costs (i.e., the Navy decides to develop, procure, and 
        install on 24 LCSs a new common combat system with a 
        procurement cost of as much as $70 million per ship), and $295 
        million in additional life-cycle O&S costs (net present value) 
        for operating significant numbers of both LCS designs.
                        potential relative risks
    Regarding the potential relative risks of the down-select and dual-
award acquisition strategies, the GAO report states that ``a second 
ship design and source provided under the dual award strategy could 
provide the Navy an additional hedge against risk, should one design 
prove problematic.'' \21\ A converse argument might be that managing 
the construction of two very different LCS designs could place 
increased demands on overall Navy program management capacities and on 
the Program, GAO-11-249R, December 8, 2010, Table 1 on page 3.
---------------------------------------------------------------------------
    \21\ Government Accountability Office, Navy's Proposed Dual Award 
Acquisition Strategy for the Littoral Combat Ship Program, GAO-11-249R, 
December 8, 2010, p. 4.
---------------------------------------------------------------------------
    Navy's Supervisor of Shipbuilding (SUPSHIP) capabilities for on-
site monitoring of the construction of Navy ships--factors that might 
increase the chances of program-management challenges in the LCS 
program or of the Navy not detecting in a timely manner construction-
quality problems that might occur in one or both LCS designs.\22\
---------------------------------------------------------------------------
    \22\ Limits on Navy SUPSHIP capacities may have been a factor in 
the delayed discovery by the Navy of construction quality problems on 
Navy San Antonio (LPD-17) class amphibious ships. For a discussion of 
LPD-17 class construction quality problems, CRS Report RL34476, Navy 
LPD-17 Amphibious Ship Procurement: Background, Issues, and Options for 
Congress, by Ronald O'Rourke.
---------------------------------------------------------------------------
    Mr. Chairman, distinguished members of the committee, this 
concludes my testimony. Thank you again for the opportunity to appear 
before you to discuss these issues. I will be pleased to respond to any 
questions you might have.

    Chairman Levin. Thank you very much, Mr. O'Rourke.
    Mr. Francis.

 STATEMENT OF PAUL L. FRANCIS, MANAGING DIRECTOR, ACQUISITION 
   AND SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Francis. Good afternoon, Mr. Chairman, Senator McCain, 
and members of the committee, thank you for the opportunity to 
talk about the LCS today.
    We've been involved in the program on or off for about the 
past 5 years and I would say I think the Navy's done quite a 
bit of work, particularly in the last year, to get the program 
on track, but in our view the program is not out of the woods 
yet. We see risks in three areas.
    First would be the seaframes. The third and fourth 
seaframes are undergoing construction right now. There are 
design changes. Some design changes are being postponed to post 
delivery. I believe the Navy feels that they have adequately 
provided for these changes financially and managerially, but 
time will tell whether that's sufficient.
    The second area is the mission equipment packages. The 
mission equipment packages have had difficulty in development 
and testing over the years. To illustrate, in 2007 the Navy had 
anticipated having delivered 16 mission equipment packages 
through fiscal year 2012. Right now the estimate is at about 
eight and those mission equipment packages will be less capable 
than envisioned.
    The third area is integrated testing, that is bringing the 
mission equipment packages and the seaframes together. At this 
point, no operational testing of either the seaframes or the 
mission equipment packages has been done yet. Right now I 
believe the schedule is the first operational testing of the 
seaframes and two mission equipment packages, will be finished 
on the third quarter of fiscal year 2013. The third mission 
equipment package will be operationally tested in fiscal year 
2015. There's potential for discovery there when those systems 
are brought together and operationally tested.
    In August 2010, we raised the concern that the ships and 
the seaframes may be proceeding too quickly before the 
operational testing was done, and we made a recommendation to 
the Navy that they reconsider sequencing the mission equipment 
packages and the seaframes so that one didn't get ahead of the 
other. The Navy and the Department of Defense (DOD) agreed with 
that recommendation, but we haven't seen that followed up in 
the new dual strategy proposal.
    In closing, I'd say the risks that I cite in the programs 
are not materially different in either strategy. So for 
example, if the dual strategy were not followed and the 
existing down-select to 10 ships were followed, we'd have many 
of the same risks. I think by the Navy saying they're willing 
to back 20 ships it does signal that the Navy is more confident 
in the ships and could create some expectations on the part of 
industry downstream. On the other hand, I think that having a 
second source could provide an additional hedge against risk 
should one seaframe develop some problems.
    Mr. Chairman, that concludes my statement and I'd be glad 
to answer any questions.
    [The prepared statement of Mr. Francis follows:]
                 Prepared Statement by Paul L. Francis
    Mr. Chairman and members of the committee: I am pleased to be here 
today to discuss the Department of the Navy's proposed dual ship 
acquisition strategy for the Littoral Combat Ship (LCS) program. LCS is 
envisioned as a vessel able to be reconfigured to meet three different 
mission areas: mine countermeasures, surface warfare, and antisubmarine 
warfare. Its design concept consists of two distinct parts--the ship 
itself (seaframe) and the mission package it carries and deploys. The 
Navy is procuring the first four ships in two different designs from 
shipbuilding teams led by Lockheed Martin and General Dynamics, which 
currently build their designs at Marinette Marine and Austal USA 
shipyards, respectively.
    The Navy's strategy for procuring LCS has evolved over the years. 
Prior to September 2009, the Navy planned to continue building the 
class using both ship designs. This strategy changed following 
unsuccessful contract negotiations that same year for fiscal year 2010 
funded seaframes--an outcome attributable to industry proposals priced 
significantly above Navy expectations. In September 2009, the Navy 
announced that in an effort to improve affordability, it was revising 
the LCS program's acquisition strategy and would select one seaframe 
design before awarding contracts for any additional ships.\1\ Following 
approval of this strategy in January 2010, the Navy issued a new 
solicitation--intended to lead to a downselect--for fiscal year 2010 
seaframes. In support of this strategy, Congress authorized the Navy to 
procure up to 10 seaframes and 15 LCS control and weapon systems. The 
Navy planned to have a second competition in 2012 and provide five of 
the ship control and weapon systems to the winning contractor, who 
would construct up to 5 ships of the same design and install the 
systems. However, in November 2010, following receipt of new industry 
proposals for the fiscal year 2010 seaframes, the Navy proposed to 
change its acquisition strategy back to awarding new construction 
contracts to both industry teams.\2\
---------------------------------------------------------------------------
    \1\ The decision to select a single ship design is referred to as 
the ``downselect.''
    \2\ In response to the Navy's September 2009 LCS acquisition 
strategy change, General Dynamics and Austal USA revoked their teaming 
arrangement for future seaframes, in turn allowing the General Dynamics 
Bath Iron Works shipyard to compete for selection as the planned 
potential second source of the winning design. Austal USA and Lockheed 
Martin are the prime contractors competing for the current 10-ship 
program.
---------------------------------------------------------------------------
    In August 2010, we issued a report evaluating LCS planning and 
implementation efforts that identified technical, design, and 
construction challenges that could impact the Navy's ability to deliver 
promised LCS capabilities.\3\ This statement highlights findings from 
that report and a subsequent report issued on December 8, 2010, which 
assessed risks that could affect the Navy's ability to execute the LCS 
program.\4\ As detailed in our most recent report, we found that 
regardless of the strategy selected, the Navy continues to face design 
and construction risks in executing the LCS program, given its stage of 
maturity and its unique mission, design, and operational concept. These 
risks threaten the Navy's ability to achieve the cost savings it 
estimates under either of its acquisition strategies.
---------------------------------------------------------------------------
    \3\ See GAO, Defense Acquisitions: Navy's Ability to Overcome 
Challenges Facing the Littoral Combat Ship Will Determine Eventual 
Capabilities, GAO-10-523 (Washington, DC: Aug. 31, 2010).
    \4\ See GAO, Navy's Proposed Dual Award Acquisition Strategy for 
the Littoral Combat Ship Program, GAO-11-249R (Washington, DC: Dec. 8, 
2010).
---------------------------------------------------------------------------
    In preparing this testimony, we relied primarily on work supporting 
our most recent LCS report. That report contains a detailed overview of 
our scope and methodology. All of our work for this report was 
performed in accordance with generally accepted government auditing 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We believe that the evidence obtained provides a reasonable basis for 
our findings and conclusions based on our audit objectives.
                                summary
    Successful business cases for shipbuilding programs require balance 
between the concept selected to satisfy warfighter needs and the 
resources--technologies, design knowledge, funding, time, and 
management capacity--needed to transform that concept into a product. 
Without a sound business case, program execution will be hampered, 
regardless of the contracting strategy. The LCS, given its stage of 
maturity and its unique mission, design, and operational concept, still 
faces design and construction risks. Most of these risks appear to be 
inherent to the program, regardless of which acquisition strategy is 
followed. Navy officials believe that experience to date on the 
program, coupled with fixed-price contracts and a sufficient budget for 
ship changes, mitigates this risk. However, much work and demonstration 
remains for LCS, and other shipbuilding programs have had difficulty at 
this stage. On the other hand, a second ship design and source provided 
under the dual award strategy could provide the Navy an additional 
hedge against risk, should one design prove problematic. Mission 
equipment packages are common to both ships and would pose the same 
execution risks, apart from integration.
      key features of the downselect and the dual-award strategies
    The Navy estimates that both its existing and proposed acquisition 
strategies will generate significant cost savings to the government. 
According to the Navy, $1.9 billion in savings resulted from the 
competition between the two offerors and is common to both strategies. 
However, the Navy estimates that approximately $1.0 billion in 
additional cost savings would be realized under the proposed dual award 
strategy because of the avoidance of higher start-up costs and risks 
associated with the second source planned for fiscal year 2012, among 
other factors. According to the Navy, these additional savings would be 
offset, in part, by increased total ownership costs. The Navy plans to 
use some of the remaining savings, if realized, to fund construction of 
an additional LCS seaframe in fiscal year 2012. Table 1 compares the 
key tenets of each strategy.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The quantities planned under both of the Navy's strategies are 
similar through fiscal year 2015. These similarities are outlined in 
table 2, which details the Navy's procurement plans for seaframes under 
both the existing downselect strategy and the proposed dual award 
strategy.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Under the dual award strategy, the government will be authorized to 
contract for up to 20 ships. In contrast, the existing downselect 
strategy limits this authorization to up to 10 ships until fiscal year 
2012, when the Navy planned to solicit a second source for additional 
ships.
 design changes could increase near-term costs above current estimates
    Under both the existing downselect strategy and the proposed dual 
award strategy, the Navy plans to award fixed-price incentive contracts 
for new seaframes. This type of contract provides for adjusting profit 
and establishing the final contract price by application of a formula 
based on the relationship of total final negotiated cost to total 
target cost. The final price is subject to a price ceiling, negotiated 
at the outset. In the case of LCS, the solicitation stated that the 
government would share 50 percent of costs above the target cost, up to 
the price ceiling. Navy officials also stated that they have budgeted 
management reserve funds to accommodate potential impacts to cost 
performance during program execution. In other programs, the Navy has 
returned to Congress to request funding for costs exceeding the target 
costs. In the near term, cost increases are likely but it is unknown 
whether increases will exceed what the Navy has budgeted for fiscal 
years 2010 and beyond. The likely source of these cost increases is 
design changes, which result in out-of-sequence work, potentially 
limiting the shipbuilders' ability to achieve the benefits they 
anticipate from construction process improvements and shipyard capital 
investments.
    Our August 2010 report on LCS discussed issues with the performance 
of particular ship systems at the time of lead ship deliveries and as a 
result of subsequent operating experience.\5\ In an effort to address 
technical issues on the first two ships, the Navy has implemented 
design changes for the third and fourth LCS seaframes (LCS-3 and LCS-
4), several of which are not yet complete. These changes are 
significant and have affected the configuration of several major ship 
systems including propulsion, communications, electrical, and 
navigation. In addition, launch, handling, and recovery systems for 
both designs are still being refined, although the Navy reports recent 
progress related to each of these systems.\6\ To the extent that these 
design changes necessitate modifications in the ship specifications on 
which the contractors based their proposals for future ships, contract 
modifications will need to be negotiated and priced. According to the 
Navy, it estimates funding requirements for these change orders to 
total 5 percent for all future follow-on ships produced, regardless of 
whether it proceeds with a downselect strategy or the proposed dual 
award strategy. In addition, Navy officials stated that the seaframe 
solicitation includes a provision that agreed to design changes are 
``not to exceed'' $12 million--a feature that Navy officials state will 
bound government cost risk due to design changes. Pending full 
identification and resolution of deficiencies affecting the lead ships, 
the Navy's ability to stay within its budgeted limits remains to be 
seen.
---------------------------------------------------------------------------
    \5\ GAO-10-523.
    \6\ According to Navy officials, the most recent progress related 
to LCS launch, handling, and recovery systems consists of: (1) 
successful operation and movement of an embarked 11-meter rigid-hull 
inflatable boat onboard LCS-1 in March 2010; (2) synthetic lift lines 
on LCS-2 successfully completing a 200 percent lift test; and (3) 
routine usage of a straddle carrier to move an 11-meter rigid-hull 
inflatable boat (with stowage cradle) and berthing modules around the 
LCS-2 mission bay. In addition, Navy officials state that LCS-1's 
system is scheduled to begin testing with the mine countermeasures 
mission package in fiscal year 2011 and testing of LCS-2's twin-boom 
extensible crane is progressing.
---------------------------------------------------------------------------
    As we reported earlier this year, the LCS shipbuilding teams have 
implemented process and capacity improvements based on lessons learned 
from constructing lead ships and have made capital investments in their 
yards in an effort to increase efficiency.\7\ Fully realizing these 
improvements may be challenging given the design changes still 
occurring in the program. To the extent that addressing technical 
issues disrupts the optimal construction sequence for follow-on ships, 
additional labor hours could be required beyond current forecasts. 
Introducing such inefficiencies could offset initial benefits obtained 
from the process improvements and new facilities the shipbuilders have 
put into place, increasing the risk of out-of-sequence work and rework. 
Some level of design changes can be reasonably expected given the 
testing that remains. To date, however, Navy officials report that LCS-
3 and LCS-4 changes are being managed efficiently--citing improved cost 
and schedule performance by both shipbuilders. The Navy also believes 
that the LCS seaframe may be less affected by mission equipment changes 
than other ships given the equipment's modular design. Maintaining a 
high level of performance will depend on avoiding significant design 
changes to seaframes under construction.
---------------------------------------------------------------------------
    \7\ See GAO, Defense Acquisitions: Guidance Needed on Navy's Use of 
Investment Incentives at Private Shipyards, GAO-10-686 (Washington, DC: 
July 26, 2010) and GAO-10-523.
---------------------------------------------------------------------------
           operations and support costs difficult to estimate
    Navy officials expressed confidence that their cost estimate 
supporting the dual award provides details on the costs to operate and 
support both designs. However, since little actual LCS operating and 
support data are available to date, the Navy's estimates for these 
costs are currently based on data from other ships and could change as 
actual cost data become more available. These estimates are also based 
on new operational concepts for personnel, training, and maintenance 
that have not been fully developed, tested, and implemented. For 
example, the Navy has not yet implemented a comprehensive training 
plan, and it is possible that the plan could cost more or less than the 
training costs currently accounted for by the Navy.
    In addition, the Navy has not studied--within the context of the 
downselect strategy--the potential savings associated with early 
retirement of the two nonselected design ships. As such, decision 
makers do not have a complete picture of the various options available 
to them related to choosing between the downselect and dual award 
strategies. Under the existing downselect strategy, the Navy's 
intention is to keep in service--at least initially--the other two 
ships of the design not selected for long-term production. The Navy 
acknowledged that operating and supporting two different designs 
carries increased costs as compared to the costs of employing only one 
design. As we previously reported, these costs include separate 
training facilities because each design has unique equipment and 
therefore different operating and maintenance requirements.\8\ In 
February 2010, we recommended that the Navy conduct a cost-benefit 
analysis of options for these two ships, including the possibility of 
retiring them from service--a recommendation with which the Department 
of Defense agreed. As we point out in the February report, it is 
important that estimates of long-term operating and support costs are 
available to assess alternatives before a decision is made, 
particularly since these costs constitute over 70 percent of a system's 
life cycle costs. However, in discussions with Navy officials in 
November 2010, they told us that their latest assessment of the long-
term costs of maintaining two ship designs does not consider the option 
of retiring the two nonselected ships.
---------------------------------------------------------------------------
    \8\ See GAO, Littoral Combat Ship: Actions Needed to Improve 
Operating Cost Estimates and Mitigate Risks in Implementing New 
Concepts, GAO-10-257 (Washington, DC: Feb. 2, 2010).
---------------------------------------------------------------------------
                mission package uncertainties and delays
    The Navy's request to double its current 10-ship authorization to 
20 ships--at a time when the mine countermeasures, surface warfare, and 
antisubmarine warfare mission packages continue to face significant 
developmental challenges--highlights the Navy's risk of investing in a 
fleet of ships that has not yet demonstrated its promised capability. 
Absent significant capability within its mission packages, seaframe 
functionality is largely constrained to self-defense as opposed to 
mission-related tasks.
    Navy officials acknowledged that mission package systems have taken 
significantly longer to develop and field than anticipated. 
Underscoring this situation is the fact that development efforts for 
most of these systems predate the LCS program--in some cases by 10 
years or more. However, Navy officials expressed confidence that their 
latest testing and production plans for mission package systems are 
executable.
    Recent testing of mission package systems has yielded mixed 
results. The Navy reports that two systems within the mine 
countermeasures mission package recently completed developmental 
testing, but another system is undergoing reliability improvements 
following production of several units that did not meet performance 
requirements.\9\ Further, test failures contributed to the cancellation 
of a key surface warfare mission package system, and the future 
composition of the package remains undetermined.\10\
---------------------------------------------------------------------------
    \9\ According to Navy officials, the AN/AQS-20A sonar and Airborne 
Laser Mine Detection System recently completed developmental testing in 
August and October 2010, respectively. Alternatively, the Remote 
Minehunting System--produced since 2005--continues to struggle with 
reliability shortfalls. This has prompted the Navy to implement a 
series of design changes to the vehicle component and evaluate reducing 
the system's performance requirements.
    \10\ Development of the Non-Line-of-Sight Launch System--an 
anticipated key system within the surface warfare package--was canceled 
in 2010 following test failures and higher than expected cost 
estimates. The Navy continues to evaluate alternatives to replace this 
capability onboard LCS.
---------------------------------------------------------------------------
    Developmental challenges facing individual systems have led to 
procurement delays for all three mission packages and have disrupted 
program test schedules. Most notably, the Navy reports the first 
operational testing event involving a seaframe and partial mission 
package is now scheduled for late second quarter of fiscal year 2012, 
and the Navy expects individual mission package systems to remain in 
development through 2017.\11\
---------------------------------------------------------------------------
    \11\ According to Navy officials, the planned fiscal year 2012 
operational test will employ the first LCS (LCS-1) seaframe and a 
(partial) surface warfare mission package. This date represents a 
recent update to the program's testing plan as the Navy's fiscal year 
2011 budget estimates showed this event occurring in the third quarter 
of fiscal year 2013.
---------------------------------------------------------------------------
    To safeguard against excess quantities of ships and mission 
packages being purchased before their combined capabilities are 
demonstrated, we recommended in our August 2010 report that the 
Secretary of Defense update the LCS acquisition strategy to account for 
operational testing delays in the program and resequence planned 
purchases of ships and mission packages, as appropriate.\12\ The 
Department of Defense agreed with this recommendation, stating that an 
updated schedule was under development to better align seaframe and 
mission module production milestones. However, it is unclear how the 
department's concurrence with our recommendation can be reconciled 
against the Navy's current request to increase the planned seaframe 
commitment, particularly since no operational testing involving mission 
packages--or any of their individual systems--has since taken place. 
Until mission package and operational testing progresses--and key mine 
countermeasures, surface warfare, and antisubmarine warfare systems are 
proven effective and suitable onboard seaframes--the Navy cannot be 
certain that the LCS will deliver the full capability desired. This 
risk would increase with a commitment to higher quantities. The Navy 
believes this increased commitment is appropriately balanced against 
competing risks in the program.
---------------------------------------------------------------------------
    \12\ GAO-10-523.
---------------------------------------------------------------------------
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions.
                   contact and staff acknowledgments
    For future questions about this statement, please contact me at 
(202) 512-4841 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="87e1f5e6e9e4eef4f7c7e0e6e8a9e0e8f1a9">[email&#160;protected]</a> Individuals making key 
contributions to this report were Belva Martin, Acting Director; Diana 
Moldafsky, assistant Director; Christopher R. Durbin; Jeremy Hawk; 
Kristine Hassinger; Simon Hirschfeld; and Karen Zuckerstein.

    Chairman Levin. Thank you very much, Mr. Francis.
    Let's try a first round of 8 minutes.
    First let me ask you, Secretary Stackley. You've heard now 
the testimony of CBO, GAO, and CRS. Do you want to comment or 
react to any of the testimony that you've heard, before I ask 
specific questions?
    Mr. Stackley. Let me make a few comments. First, I believe 
Dr. Labs pointed out in his assessment that he basically 
estimated what the ships would cost in accordance with his cost 
model, but his information is uninformed by the bids. What we 
are bringing to the table is information inside of the bids 
that would take CBO's cost estimates, which are within I would 
say 5 percent of the Navy's budget and the Navy's estimate of a 
year plus ago, and then bring against that demonstrated 
performance in the course of the past year on the first follow 
ships and fixed-price proposals inside the bids we have.
    So his estimate balanced against the fixed-price bids that 
we have are consistent in terms of the determination of the 
savings that we have here. I believe that CBO's estimate and 
the Navy's estimate and the Navy's proposal for a dual award to 
provide savings are all consistent.
    Chairman Levin. The reason that they're uninformed is that 
he did not have that information available to him, for 
proprietary reasons, is that correct?
    Mr. Stackley. Yes, sir.
    Chairman Levin. Nonetheless, looking at ranges, is that 
what you're saying, they are consistent with your estimates?
    Mr. Stackley. His estimate is within a few percent of the 
Navy's estimate and the Navy's budget in 2011. When you bring 
the bids against that and you factor in, as I have described, 
the fixed price and the margins that we're including for both 
change and any cost excursions, then we have a solid number to 
go against an estimate, and the difference is the savings that 
we're bringing to the table.
    The second comment has to deal with, there's a common theme 
between CBO, CRS, and GAO regarding risk; it's risk and 
unknowns. I will describe that this program, as I mentioned in 
my opening remarks on the numbers has done a complete turn-
around in terms of stabilizing design, stabilizing production 
processes, and driving lessons learned on the part of industry 
into their processes.
    So what that has resulted in is performance far improved, 
not just on this program, but also compared to other historical 
performance on shipbuilding programs at this stage in their 
respective contracts. The key indicators I would tell you are 
what we're seeing in terms of cost performance on the first 
ships, the first follow ships, and control of changes on the 
first follow ships, and then what we're seeing in terms of 
remaining risk on the test program.
    So we have very much controlled change, controlled the risk 
that the program is staring at in the future. Then the mission 
package discussion has isolated any risk associated with the 
mission packages from the seaframes themselves. So we have a 
different view on risk, that yes, there is risk, but it is very 
well-controlled and contained within the estimates that we have 
on the program, which supports our assessment of the savings 
that we're bringing to the table.
    Chairman Levin. Let me pick up where you just left off.
    Admiral Roughead, one ship of each design has been 
delivered. They've gained some operating experience. Do both of 
these vessels in their current configuration meet the Navy's 
requirements?
    Admiral Roughead. Yes, Senator, both ships do.
    Chairman Levin. The CRS report lists some cost risks of 
pursuing a down-source strategy. As we've heard, the largest of 
these appears to be related to replacing the ship's combat 
systems. If we were to do that as part of the plan, it would 
seem to eliminate some of the additional savings of the dual-
source strategy.
    But I would note that the CRS report says that we might 
want to replace the combat system on all LCSs bought to date 
with a new common combat system. Admiral Roughead or Admiral 
Pandolfe, is the current combat system on each type of vessel 
adequate to meet your requirements?
    Admiral Roughead. Yes, sir, they are.
    Chairman Levin. If the combat systems fail in the future to 
meet requirements, then we would have to replace or upgrade 
those. But would that not be a decision unrelated to current 
acquisition strategy? Secretary Stackley, let me ask you that 
question.
    Mr. Stackley. Yes, sir. The current acquisition strategy 
does not call for the changeout of the combat system.
    Let me describe some characteristics of the combat system. 
As it was mentioned earlier, the total cost for the combat 
system is on the order of about $70 million. When we think of 
the combat system, we break it down into a couple key 
components, weapons, sensors, and command and control system. 
We have, in fact, on the weapons side of the combat system, 
commonality. Both ships have 57-millimeter Bofors guns, both 
ships we're looking at Counter Rocket, Artillery, and Mortor 
(CRAM) weapons systems. So the weapon system is already common 
both between them and also with other ships in the inventory.
    On the sensor side, we have contemplated moving towards a 
common sensor, and inside of this solicitation the Navy asked 
for priced bids for a new sensor to consider for the future. In 
total, the cost for bringing a new sensor--that's both common 
for LCS and with the rest of the fleet--is about $20 million 
nonrecurring and about $2 million a ship difference.
    So weapons are common. If the Navy chose to go to a common 
system for performance reasons, the cost impact would be about 
$20 million nonrecurring and a couple million dollars a ship.
    Then on the C and D side, which is largely the software 
system and displays and processors, the Navy does not have a 
drive right now to go towards common C and D for this class 
either in the down-select or dual-award. It is something that 
we could consider in the future.
    Chairman Levin. Another concern which has been raised by 
Mr. Francis is that if the Navy has to make changes in the 
mission package that would result in cost growth. As I 
understand the LCS architecture specifying how the mission 
packages plug into and operate on the ship through defined 
interfaces, the LCS program divorces mission package changes 
from the ship construction program and ship construction 
changes from the mission package program.
    Let me ask you, Secretary Stackley: Do I have that right so 
far or am I off, and if so, correct me?
    Mr. Stackley. No, sir, you have that correct. There is a 
strict interface control document that serves both the seaframe 
and the mission packages. So the seaframe is designed in 
accordance with the interface control document, the mission 
packages are designed in accordance with the interface control 
document, so that when you bring them together, form, fit, 
function, space, weight, power, and cooling support the mission 
packages as well as the seaframe design.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. I want to thank the witnesses.
    Dr. Labs, we've seen this movie before, haven't we? Isn't 
this the third time that the Navy has come in late in the game 
with proposals for a LCS?
    Dr. Labs. This has not been the first time where the Navy 
has come in, as you say, to change a major aspect of the 
program in a very short period of time. Mr. O'Rourke's report 
certainly goes into that history in some detail.
    Senator McCain. The third time after the NDAA was done, the 
Navy has come in and said, ``Gee, we have it solved now and we 
need significant changes.'' Obviously, I read off the results 
of those significant changes twice before.
    Mr. O'Rourke, you've been following this kind of business 
for about 30 years, is that right?
    Mr. O'Rourke. Twenty-seven years in January.
    Senator McCain. Have you ever seen one quite like this?
    Mr. O'Rourke. I cannot think of another shipbuilding 
program that has had this many changes proposed over the years 
within that program at such a late stage in the congressional 
review process.
    Senator McCain. Mr. Francis, did you have a chance to look 
at one of the concerns that's been raised about the combat 
systems, the different combat systems in the different ships?
    Mr. Francis. Senator McCain, we have not had a chance to 
look at the issue of the combat systems. I have read what Dr. 
Labs and Mr. O'Rourke have written, but we have not covered 
that ourselves.
    Senator McCain. Dr. Labs, do you agree with Secretary 
Stackley's remarks about the relative ease on the whole issue 
of combat systems on the different ships?
    Dr. Labs. Senator McCain, I honestly do not have enough 
information to comment intelligently on what Secretary Stackley 
offered up in response to those comments.
    Senator McCain. Do you agree with Mr. O'Rourke's statement 
that the costs of this new proposal could be $700 million less 
and in some cases could also be as much as over $2 billion 
more?
    Dr. Labs. I would say that, since a large part of the $2 
billion more is being driven by the CBO estimate of what the 
dual-award strategy would be, it would depend very much on 
detailed examination of the contract bids, because the CBO 
model is just that, it's a model. It takes what the Navy has 
been paying for the ship so far, it runs it down a learning 
curve, it applies rate factors and things like that.
    It did not take into consideration any benefits of 
competition, what the actual contract bids might be. If I were 
to have more access to that kind of data in a detailed way, 
it's possible that the CBO estimate could change in response to 
that.
    There is certainly a potential range here because there's 
still potential for cost growth within the context of those 
contracts. There is potential for cost growth even outside of 
those contracts if other decisions are made to address 
technical problems that arise on the ship, as Mr. Francis has 
stated. So there is certainly a possible range there, but 
without knowing more detailed information I can't comment on 
whether I think the high end of the range is more likely than 
the lower end of the range or vice versa.
    Senator McCain. But you agree there is a range?
    Dr. Labs. There is a range, yes, sir.
    Senator McCain. Mr. Francis, do you agree that Mr. O'Rourke 
states on the one hand, compared with the down-select strategy, 
the dual-award might cost a net total of $705 million less. On 
the other hand, compared to the down-select strategy, the dual-
award strategy might cost a net total of as much as $2.8 
billion more?
    Mr. Francis. Senator McCain, I would agree that there is a 
range. I'm not sure what the numbers are. As Dr. Labs 
explained, his numbers are not based on the current bid 
proposals. But we do think there is potential for risk. The 
Navy could be exactly right on what it's estimating, but we 
will have to see whether they've adequately provided for that 
risk.
    Senator McCain. But the three witnesses, Dr. Labs, Mr. 
O'Rourke, and Mr. Francis, are operating at a certain 
disadvantage because you don't, as I don't, know the exact cost 
that's bid; is that correct?
    Mr. O'Rourke. That's correct.
    Dr. Labs. Yes, sir.
    Mr. O'Rourke. There's one more factor I think that needs to 
be considered, which is the unknown of what the bid prices 
would be under the second-stage competition that would be held 
under the down-select strategy. The Navy is saying in essence 
that they were pleasantly surprised by the bid prices they 
received on this solicitation, but might not they be also 
pleasantly surprised by the bid prices that would be submitted 
under the second-stage competition that would be held under the 
down-select strategy? What are the Navy's assumptions regarding 
the kind of bid prices they might receive under that second-
stage competition and are they as optimistic or as pleasantly 
surprising as what they have realized here?
    It's also possible that if you were to implement the down-
select strategy and hold the second-stage competition, the bid 
prices in that second-stage competition could be even better 
than the bid prices under this first one, because the number of 
bidders involved and the various talents they would bring to 
bear in putting their bids together could be as great or 
greater than what was available among the universe of bidders 
in this solicitation.
    So when the Navy says that they think they will get a 
billion dollars savings more under dual-award than under down-
select, they are comparing known bid prices for this down-
select to an unknown bid price for a down-select that would 
take place 2 or 3 years from now and one which might also be 
pleasantly surprising to the Navy. That is one dimension of how 
we cannot be all that certain about what the comparative prices 
are if we were to move forward with the down-select versus 
dual-award strategies.
    Dr. Labs. That's a point, Senator McCain, that I raise in 
my report as well.
    Senator McCain. Obviously, you would agree with the 
obvious. It takes a lot of training and a lot of skill to man 
one of these ships efficiently, with the latest technology and 
equipment. Yet now we are asking the men and women in the Navy 
to be trained in two separate ships, two separate systems, two 
separate supply chains, two separate maintenance regimens, and 
we have obviously a very large number of questions that remain 
unresolved, not because you three aren't doing your job. You 
just don't have the information, and those questions are the 
difference in costs, deficiencies affecting the lead ships have 
not been identified and fully resolved. Has the combined 
capability of the LCS seaframes with their mission modules been 
sufficiently demonstrated, so that increasing the Navy's 
commitment to seaframes at this time would be appropriate? Why 
would operating and maintaining two different combat systems, 
that is sensors, weapons, and software, that are unique to each 
LCS version not offset the Navy's savings estimates or 
ultimately prove to be wasteful and unsupportable; and how 
consistent is the Navy's plan with GAO's recommendations for 
the program?
    What is the down side to delaying this decision? The 
bidders have already agreed to one extension to December 30. 
What's the down side to waiting, say 2 months, while we can get 
the complete information and for the people that Congress 
relies on for objective opinions and views and information, to 
give you a couple of extra months to look at and get the 
specifics that you don't have now in order to make the kind of 
informed judgment and recommendations to Congress which, 
frankly, are your duties?
    Could I ask, maybe beginning with you, Dr. Labs? In other 
words, what's the rush?
    Dr. Labs. It seems to me that the down side that I can 
imagine to this would depend very much on the type of 
negotiations the Navy has been having with the contractors and 
the process by which those contractors are involved in building 
LCS-3 and -4. If, for example, delaying the contracts, the 
letting of the 10-ship contract under the down-select strategy, 
by a few months leads to layoffs at the shipyard, if it leads 
to a loss of learning because there isn't work for people to do 
because they were expecting the fiscal year 2010 ships, which 
have not even been awarded yet. That could lead to increased 
costs for that down-select strategy compared to what the Navy 
is presenting today.
    I have no idea as to what the range of that potential 
increased cost could be. It could be very small. It could be 
something significant. But that seems to me what would be the 
potential down side to it.
    On the positive side of the equation are many of the things 
that you've mentioned, that we'd have much more time to look at 
the details of the proposals and the details of the operating 
cost issues, which we have very little information to go on, 
and to make a more informed decision. That to me are the two 
sides of the equation as I see it.
    Senator McCain. Mr. O'Rourke.
    Mr. O'Rourke. I think the premise of your question included 
if the bids could be extended by another month or 2 or 3, and I 
don't know whether that's possible. But if the bids could be 
extended, it would provide more time to get at questions of, 
for example, the potential investment costs of moving toward 
commonality on the combat systems. That's not something you 
would do because of any inadequacy of the current combat 
systems. It's because you're trying to streamline the number of 
combat systems that the Navy would be supporting across its 
surface fleet at any one time.
    So it would provide more time for that. It would provide 
more time to vet the number on life cycle operation and support 
costs and what the interaction between that number is, and also 
the interaction between that number and investments that you 
make in combat system commonality, because the more common you 
make the combat system, it could actually bring down whatever 
the premium is for life cycle O&S costs.
    In general, it's better to get ships under contract sooner 
rather than later. I think as a general practice people in most 
cases would prefer to get the ships under contract. But if we 
were to wait more time and not have these ships under contract 
for 1 or 2 or 3 more months, it would not be the only 
shipbuilding program that has experienced that kind of a delay 
while we were waiting for issues to be sorted out. The contract 
award on the DDG-1000 destroyers was held, on the second and 
third ships in the program, in abeyance all through this year 
while we put the DDG-1000 back through the Nunn-McCurdy 
recertification process. The Navy had to do that. More 
generally, those two ships, the second and third ship in the 
DDG-1000 program, have not been awarded, even though the second 
ship was funded in the 2007-2008 timeframe and the third ship 
was funded in the 2009 timeframe.
    So there are other examples of ships that have waited for 
some time after they were funded until the contracts were 
awarded. It's not a preferable practice, but if you can get 
value out of it in terms of developing firmer information on 
which to base a decision, then observers might judge that value 
to be worth it.
    Mr. Francis. Senator McCain, if the bid prices can be 
extended I think a down side would potentially be work in the 
yard, particularly for LCS-3, which was recently launched and 
is 80 percent complete. There'd be fabrication shops and so 
forth earlier in the process that might be looking for work.
    But apart from that, I think there are up sides 
programmatically to have more time to go through and analyze 
what we're getting ourselves into and what the downstream 
effects are. I'll give you one example. In the current 
estimate, the net present value of O&S costs to operate a 
second ship is put at $295 million. But last year when the 
strategy was changed to a down-select strategy the Navy cited 
substantial O&S cost savings by going down to one design. So a 
good analytical question would be, how does that $295 million 
cost in this strategy compare with what savings were estimated 
in the last strategy?
    Senator McCain. I thank you. I thank the witnesses.
    I thank you, Mr. Chairman. I think it's obvious that this 
is a rush to judgment on a program that has been plagued with 
billions and billions of cost overruns and waste of taxpayers' 
dollars. I obviously am deeply concerned about that from the 
taxpayers' standpoint.
    Chairman Levin. Thank you, Senator McCain.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    I believe Senator McCain has asked the right question and I 
think the Navy should respond. So, Secretary Mabus, Secretary 
Stackley, and Admiral Roughead, can you respond? What is lost 
or what do you gain by waiting?
    Mr. Stackley. Yes, sir. Let me start with the time line 
that we've been on. This is a 2010 solicitation for the 2010 
ships. We, in fact, received the bids back in May. The 
competing industry teams who put together these fixed-price 
bids have gone out through their vendor base to secure long-
term vendor agreements, looking for 10-ship buys with their 
vendors over a 5-year period. So they have agreements with 
their vendor base for that piece of their proposals to lock in 
those fixed prices.
    The other key components of their bids are their own labor 
learning and the overhead rates that come with that. Those were 
in the proposals received in May. We went through the 
evaluation, two series of discussions, and that brought us to 
the fall. The pricing was extended to expire in mid-December, 
and we have pushed that back to the end of the month.
    When we have discussions with industry about the impacts of 
further delay to the award, that's where their proposals start 
to come apart. We have both hiring freezes and layoffs in 
effect at the competing shipyards, and we have vendor 
agreements that have been extended far beyond what was 
anticipated when they went out with their first go-arounds with 
the vendors.
    So their comeback to the Navy has been: We are at the point 
where we have to press on. The workforce is leaving, hiring 
freezes are in effect, and vendors are stressed in terms of 
their ability to keep faith with the fixed-price proposals that 
they have put in place. They will need to go back with any 
further delay and reprice their proposals.
    Today we have very affordable fixed-price proposals in 
hand, which is why we are here, and we do not propose to give 
those up for further delay.
    Senator Reed. If I can follow up with just one question in 
this area. In order to make a decision, you would have to at 
least implicitly assume the additional cost to the Navy for the 
2- or 3-month delay, given what the vendors and the contractors 
are saying. I would assume in your comments you assume it would 
be a significant increase, not something that could be 
acceptable to the Navy; is that correct?
    Mr. Stackley. I think that they have gotten very hard 
commitments from their vendors. This program has been very 
troubled. It started, stopped, started, and stopped. With this 
solicitation we are looking for stability. That has been the 
forcing function, to get costs under control and to get the 
competitive pressure that we've brought to bear.
    If we have another start-stop with the vendors, I just 
don't have confidence that we'd be seeing the same type of 
pricing coming back in a repricing drill.
    Senator Reed. Let me ask you another question. You've 
talked about average cost of ships, but we don't do things on 
the average. We do things year-by-year, ship-by-ship. Can you 
plot out the graph of the year-by-year, ship-by-ship? Is it 
going to start off at a point and go up, up, up, and then peak?
    Mr. Stackley. No, sir. This is the stability issue and 
industry responding to the issues that we have driven in terms 
of performance. We are looking at going from ship 1 to ship 2, 
in terms of production labor, which is a big component of your 
cost. We're seeing on average about a one-third reduction in 
labor hours between the first and second ship, which is 
phenomenal. This is rooting out the issues that plagued us on 
the lead ships.
    Then inside of the proposals across the 5 years, what we 
are seeing is very steady, aggressive learning proposed based 
on what we're seeing for demonstrated performance to date, what 
they have locked in in terms of fixed prices with their 
vendors, a reasonable expectation of control of overhead rates 
based on this business base.
    So we continue down a learning curve nominally in the mid-
80s, which is very good but not unreasonable in terms of 
comparison with other shipbuilding programs. The 51 program, 
for example, experienced learning in the 85 to 90 percent 
range. We're seeing the Virginia-class in about the 90 percent 
range.
    They've made a significant drop in their costs from the 
first to the second ship and then they're extending continued 
good learning throughout the period of this contract, and then 
backing it up with, as I described, locking in the material 
costs. Then you have escalation effects. In fact, the learning 
that we're seeing dominates over any escalation effects in the 
period of this contract.
    Senator Reed. Let me turn to another subject that's been 
discussed. That is life cycle costs. Points have been raised by 
the oversight organizations that suggest that one of the 
motivating elements for a single contract was saving on life 
cycle costs, the points that Senator McCain made so eloquently 
about crew training and standardization. Now we have two ships 
and the life cycle costs are very vague, to say the least. 
They're influenced by systems--anti-submarine systems, anti-
mine systems--that are still being developed.
    Can you give us a notion of how you're estimating life 
cycle costs, and how confident you are of that estimate?
    Mr. Stackley. Yes, sir. Let me start with the elements of 
the life cycle, the total ownership cost. We have what's 
referred to as a program life cycle cost estimate, which was 
completed in the June-July timeframe. Independent of the 
design, whether it's design A or design B, the program life 
cycle cost estimate is on the order of $83 billion. The two 
different designs are pretty much on top of each other in that 
estimate.
    When we look at a dual design versus a single design in the 
life cycle, what we focus on are those elements of the life 
cycle cost that are affected by the design characteristics. So 
when it comes to manpower, for example, manpower is equal for 
the two because they're both 40-man crews, and so you can 
remove that as a determinant in O&S costs. When you look at 
repair parts, whether it's a diesel on the Austal version of 
the ship or the diesel on the LCS version of the ship, the 
repair part is about the same. So repair part costs get pushed 
off to the side in the assessment.
    Then you have maintenance and fuel costs. Those are pulled 
off to the side in the dual versus single design. The 
determining characteristics in placing the premium on dual 
design have to do with things like configuration management, 
in-service engineering support, software maintenance, and then 
nonrecurring associated with modernization. Then there's the 
piece associated with training for the crew that Senator McCain 
highlighted. When you look at that portion of the life cycle 
and you estimate what the premium is for dual design versus 
single design, and take into account the fact that we have 
already paid for a lot of the nonrecurring cost, so by 
delivering two ships we have already absorbed those costs, and 
we also are going to continue to support the two ships that we 
have for either of the non-selected class in a down-select 
mode, that's where you arrive at a fairly manageable premium 
associated with O&S for dual design, which in net present value 
is about $300 million.
    That's the estimate. Today we went back to the 2006 
business case analysis that was done at that point in time, 
because this same question was being viewed, and on a percent 
basis it is consistent with the 2006 assessment, it's 
consistent with the program life cycle cost estimate done this 
year and then when we looked at it again in the fall.
    Senator Reed. Thank you, Mr. Secretary.
    My time has expired, but I think these questions should be 
posed, and I will follow up, either in writing or if I get back 
for a second round, to the oversight, because this is a 
critical issue. I think it's such a highly complex and 
technical nature that it deserves a discussion from both 
perspectives.
    Thank you very much, Mr. Secretary. Thank you, gentlemen.
    Chairman Levin. Thank you, Senator Reed.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman, and thank you 
for having this hearing. I think it's good to air these 
questions. I appreciate Senator McCain's commitment to 
containing costs and I think some of his criticisms early on of 
this program have been exactly correct. I think all of us 
recognize the program had an inauspicious beginning.
    I would just ask Admiral Roughead and Admiral Pandolfe, how 
many years do you two have working with building ships?
    Admiral Roughead. I've been involved with ships for going 
on 38 years now, Senator. I've had the opportunity to put the 
second ship of a class in commission, and I understand what the 
challenges are associated with that. As I said in my statement, 
these ships are needed, but what we're seeing as we get on to 
building the second ship of the class or the second ship of 
each design is some pretty remarkable improvements that in my 
experience not only are encouraging, but they give me the 
confidence to go forward.
    Senator Sessions. The drop in price as the new ships come 
on, does that exceed what you have seen normally in your 
previous history?
    Admiral Roughead. Mr. Stackley can talk more about the 
pricing of ships, but what I have seen in the way of the 
learning curve as we go forward on these ships I think is 
really quite good.
    Senator Sessions. Admiral Pandolfe, how many years have you 
had?
    Admiral Pandolfe. Sir, I've just gone over 30 years of 
operating and maintaining war ships. To the CNO's point, I 
think the team has worked extraordinarily hard over the last 
year to bring this program to where it needs to be, to put 
rigor into the requirements and to work with our shipbuilders, 
and to get some affordable pricing that can lead to program 
stability. That's what this program needs, sir.
    Senator Sessions. Secretary Stackley, how many years have 
you been working in this area?
    Mr. Stackley. About 30 years, sir.
    Senator Sessions. I think you have almost 100 years here of 
experience. You've been living with this a lot closer than any 
of us in the Senate have been living with it. The House has 
approved this plan that you've asked them to approve, and I'm 
inclined to agree, based on what I know.
    I think we ought to examine it, but I think we should have 
an open mind. Mr. Stackley, regarding to additional delays, 
you've mentioned a number of points. One of our reviewers in 
analyzing this talked about uncertainty in programs. We've 
already had a lot of uncertainty and a lot of delays in this 
program. Could this cause a bad reputation for DOD, in general, 
to a bidder thinking, no matter what I do, it's going to be put 
off and delayed and costs are going to run up? Is that a 
concern we should have?
    Mr. Stackley. Sir, I think one of the most critical aspects 
of cost control on any major defense program is stability; 
stability of requirements, stability of design, stability in 
budgeting, stability in scheduling and contracting. Delaying 
the program tends to destabilize what we're trying to 
accomplish here.
    Senator Sessions. Admiral Roughead, you've heard from CBO, 
GAO, and CRS. But the Navy has its own plan. It's your ship, 
it's your money that's getting spent. Do you believe that your 
analysis of these bids and the decision you've reached is based 
on intense evaluation that is more in depth than the three that 
have been proposed here? Not that they're not valuable, not 
that a fresh look at this isn't very valuable. But tell me how 
you evaluate your own plan? It's not as if you haven't analyzed 
these factors yourself.
    Admiral Roughead. Yes, sir. I think as the other witnesses 
mentioned, they're working from models and from estimates. 
We're working from known figures. We can get into why it is 
that way. I think even a delay may not even solve that problem, 
simply because of the restrictions that we have on making that 
information available.
    So a delay doesn't get us any farther down the road. But 
we're working from known figures; they're at the disadvantage 
of not having those figures.
    The other point that I would make and one of the reasons 
why I have confidence in the ships is that we've had these to 
sea. There is no other ship class that I'm aware of that 2 
years ahead of schedule I directed Admiral Pandolfe and his 
team to deploy the ship within a matter of months and the ship 
deployed, not only to the Caribbean in real operations, but 
then we pushed it out to Hawaii, where it participated in the 
largest maritime exercise in the world with other countries and 
with our high-end capabilities, an aircraft carrier. The ship 
has performed well.
    The mission modules are plug-and-play, so the complexity of 
the mission capabilities of the ship allows us to change those 
as we go along. I think there are so many attributes to this. 
I'm confident with the way we've seen both designs work at sea, 
and I'm comfortable with where we are.
    Senator Sessions. Secretary Mabus, I know that when you 
came on board there was a lot of criticism of this program. It 
seems to me I have to say you've done what Congress asked. 
You've confronted the cost. My criticism to you and Mr. 
Stackley was you emphasized cost so much that maybe you weren't 
evaluating which ship had the greatest capabilities. But we had 
a cost problem. Congress told you to deal with the cost 
problem.
    I'm actually quite surprised and pleased that you've 
brought this under the cost cap and to a point where you can, 
as I understand it, add an additional ship and still have money 
left over, according to your estimates.
    Would you comment on that?
    Mr. Mabus. Yes, sir. Thank you. I sat in this room at my 
confirmation hearings, listened to the concerns raised, 
particularly on acquisition, on cost control of certain 
programs. I watched as this committee passed the WSARA of 2009 
almost immediately after I was confirmed. In this we set about 
to use that Act as almost a checklist to go down, to put 
competition in the programs, to do firm fixed-price contracts 
whenever possible, to demand improvement as programs went 
along, to demand a learning curve, and that prices, time, and 
schedule should improve as programs mature, to make sure that 
designs did not change to any significant degree during 
construction, that designs be mature, and that technology be 
mature.
    To the CNO's point, because these are modular ships, 
because you can remove and replace weapons systems, you have a 
very stable hull, a very stable platform for these weapons 
systems, so that you don't have to redesign an entire ship as 
technology improves or as weapons systems change.
    I think, as I said in my statement, that this is a great 
example of the WSARA of 2009 working, that we have taken a 
program that had problems, particularly in cost, but also in 
stability, and have stabilized the program, have driven costs 
down by using the intent, the spirit, and the specifications of 
that Act.
    Senator Sessions. Mr. Stackley, I believe one of our 
witnesses testified that the follow-on contract bid if we use 
the original proposal, the single source proposal, could be 
lower than you've estimated as you evaluated the viability of 
this dual award. Isn't it possible that they could also be 
higher than you presently estimate?
    Mr. Stackley. I read CBO's report and understand the 
information that's in their table and the differences in terms 
of the way the Naval Sea Systems Command and CBO estimate. In 
terms of the baseline for the down-select, we are within 5 
percent of each other relative to the estimate. But again, CBO 
does not have the insight into the specific bid information 
that we have that gives us far greater confidence in terms of 
the numbers that we're bringing forward.
    Senator Sessions. You're getting a fixed-price contract and 
I believe it's CBO's numbers using inflation of 1.0 in 2011, 
edging up to 2.3 in 2015. If it goes above that, are the 
bidders required to eat that cost?
    Mr. Stackley. The proposals that we received are what's 
referred to as forward-priced, which means that they have 
included escalation inside of their bids.
    Senator Sessions. So if it goes higher than that, they eat 
that cost?
    Mr. Stackley. It's all in accordance with the terms and 
conditions of that fixed-price contract, yes, sir.
    Senator Sessions. Even though it's a fixed-price contract, 
you're not contractually obligated to even buy them. If 
Congress decides not to fund the ship in the future, there will 
be no penalty if the government fails to purchase another ship?
    Mr. Stackley. Yes, sir. When we award these contracts, 
we're funding the first ships on the contract, but the ships 
that are in the out-years are subject to the annual 
appropriations. So if either the Navy or Congress determine not 
to fund the out-year ships, there is no termination liability 
or cancellation ceiling.
    Senator Sessions. I think it's a pretty tough negotiation, 
Mr. Chairman. I think they've done a pretty good job.
    Chairman Levin. It's the first bit of daylight in this 
program, actually.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    Before I start on my questions, I wanted to take a moment 
of personal privilege. I think this will be my last Senate 
Armed Services Committee meeting. I'm not sure, but I think so.
    Chairman Levin. You never know around here.
    Senator LeMieux. You never know. There could be one 
tomorrow.
    Chairman Levin. It's been our privilege to have you be with 
us.
    Senator LeMieux. Thank you for the good work that you've 
done, thank you to Senator McCain, it is especially important 
work as we're fighting two wars. So I just wanted to make a 
note of that.
    Admiral Roughead, in listening to this it occurs to me that 
we've had a competition here with two ships and we're in the 
situation now where the proposal is on the table to not pick 
one or the other, but to pick both. Why is it in the best 
interest of the Navy and why does it serve the requirements of 
the Navy to have both of these ships, as opposed to just have 
one?
    Admiral Roughead. Thank you, Senator. I think there are a 
couple of reasons. One, it is clearly going to allow us to 
begin introduction of the ships at a more rapid rate, simply 
because we'll have two shipyards building, so we'll have two 
production lines moving.
    There is no question that both of these designs meet the 
LCS requirement. That said, there are attributes in each design 
that I believe in the future will prove to be operationally 
advantageous. Operating the ships in tandem, a particular ship 
with another collection of ships, I think will give us 
capabilities that we would not have had before.
    Then coupled with that are the savings that are realized by 
going down this path. So from what I would call the speed to 
the fleet, the flexibility that we get, and then the advantage 
to the taxpayer in the cost of the program, I think those are 
the advantages that are apparent to me.
    Senator LeMieux. Operationally, would you potentially 
deploy one ship or the other depending upon the mission based 
upon the unique capabilities of those ships if you had both in 
your arsenal?
    Admiral Roughead. I think that each ship has some 
attributes that favor one over the other. What is the mission, 
what is the environment, what are the other ships that are in 
company? I think all those are factors that will allow us to 
put together better mixes of capability simply because of the 
attributes of each design.
    They both fit the bill, and I think it's going to give our 
Navy increased flexibility.
    Senator LeMieux. I don't have a problem with that and 
that's a compelling argument to me. I want the Navy to have all 
of the tools it needs to be able to accomplish whatever mission 
there is. If they both fit the bill but there's one that has a 
unique advantage in a specific situation, I think that makes a 
lot of sense, for you to have that.
    I am concerned, however, with the point that Senator McCain 
brought up, is that it's hard for us to do our oversight 
function if we're not able to rely upon CBO to look inside the 
numbers. I trust you, but I adhere to the old Reagan 
expression, ``trust, but verify.'' Our job is to know.
    Maybe the chairman and the ranking member have been privy 
to this information. We don't have the privy of this 
information. On its face, the idea that we have two ships, we 
had a competition and we're supposed to get to one, and now 
we're going to take both and that's going to save us money, 
doesn't make intuitive sense. It doesn't make sense to have two 
ships which require two maintenance programs, which require two 
training regimens, which are going to require different 
attributes for the Navy to be able to deal with these two ships 
over time. That doesn't make intuitive sense.
    If it is true that you can save $600 million, or even $1 
billion, which is another number I heard, as opposed to the 
number that our friends at GAO, CBO, and CRS suggest, which 
will cost more, that's fine. But we need to have that 
information.
    Mr. Chairman, this may not be something that happens when 
I'm here, but it seems to me that in the future we need to make 
sure that the folks who do this evaluation for us have this 
information and then we, whether it's in executive session or 
not, can have that information. We can't do our job without it.
    I feel a little bit hamstrung without knowing exactly what 
the numbers are and what the attributes of the particular ship 
are. If we could have a candid conversation about why you like 
this ship better than that one, I think we could do a better 
job.
    It's hard for me to come to a final conclusion. I am 
appreciative of your comments and I certainly want you to have 
all the tools you need, but I also have to look out for the 
taxpayer, and it's hard for me to make that evaluation.
    I appreciate what you've done. I appreciate Secretary 
Mabus' work on this, because I know cost-cutting, as my 
colleague from Alabama said, has been something that you've 
been focused on. So I appreciate that.
    I don't have any additional questions, Mr. Chairman, 
because I feel at a loss if we don't have that information. I 
hope going forward that this committee will have the ability to 
be able to truly evaluate the pros and the cons with the 
information before it.
    Thank you, Mr. Chairman.
    Chairman Levin. There's no doubt that there's a 
disadvantage in that regard in terms of oversight. I don't know 
myself how to get around the proprietary protection.
    By the way, we don't have that information, either. We're 
relying on the Navy and then our oversight folks to the extent 
they're able to do it, and they tell us what they can do and 
what they can't do, and give us the range of their limitations. 
It is a disadvantage, it seems to me, and we will look into how 
we can possibly in the future deal with that. I'm not sure that 
they've solved that in the past that we can, but it's an 
important point.
    Senator LeMieux. If I could just suggest, in the 
procurement process going forward, I know that these companies 
have proprietary information. There's going to have to be some 
ability to have a limited waiver of that, because we can't do 
our job under the Constitution if we can't know what the 
information is.
    Chairman Levin. Yes, it definitely is a problem for us, and 
we have to weigh the limitations in our judgment as to what 
we're operating under.
    In terms of the attributes, though, I don't know that that 
is privileged information. The CNO has given us the statement 
that each ship has certain attributes. I think that part of it 
probably is available to us. Is that right?
    Admiral Roughead. Yes, sir, I would say it is. A lot of it 
is simply in the configurations of the ship, the volume that is 
available in one, boat-handling capability that's available in 
another. The first time I walked aboard the LCS was back in 
2007 as the first two were being built, I was struck at the 
potential that was in the ship, the volume, the aviation 
capability, the ability to move boats on and off.
    Each one is different, as a fleet commander both in the 
Atlantic and Pacific and having operated globally, I could 
envision each one of those ships bringing great versatility, 
agility, and capability to our Navy. One thing our commanders 
will do is they'll mix and match this capability for the 
mission, for the environment, to get the best effect. I think 
it really gives us some incredible capability, not just in what 
we've been talking about, in cost and stability to program and 
to the industrial base, but I think it gives us great 
operational flexibility.
    Chairman Levin. Thank you, Senator LeMieux, and thank you 
for your great service to this committee and to our State and 
to our country. We really appreciate your being with us. You've 
been a very, very active participant in the work of this 
committee and we deeply appreciate it.
    Senator LeMieux. Thank you, Mr. Chairman. I appreciate it.
    Senator Sessions. Mr. Chairman, I'd like to join you in 
that. Senator LeMieux's been a great member of the Senate and 
this committee. Thank you.
    Chairman Levin. Senator Collins.
    Senator Collins. Mr. Chairman, before Senator LeMieux 
leaves, I just want to point out to my colleagues that, who 
knows, he may be back on this committee some day.
    Chairman Levin. I can't say exactly with a straight face 
that I would look forward to that, as much as I look forward to 
the service that you've given to us. [Laughter.]
    But I think Senator LeMieux understands I'm an honest 
person and you put me in a very difficult position.
    Senator Collins. I apologize, Mr. Chairman.
    Chairman Levin. That's all right.
    Senator Collins. I just couldn't quite resist the 
opportunity there.
    Chairman Levin. I do repeat my strong feeling that you've 
been a major contributor to this committee. That is sincere and 
I would want to keep that sincerity in my response in reaction 
to Senator Collins' comment.
    Senator Collins. Thank you, Mr. Chairman.
    On a more serious note--though that was a serious note--I 
want to thank the chairman and the ranking member for holding 
this hearing today on what is a very important issue. I must 
say that the Navy's latest decision on this program took me by 
surprise. I've had a very helpful opportunity to talk to some 
of the members of this panel as well as to other experts. But, 
like many of my colleagues, I've not yet reached a final 
decision on the Navy's proposal.
    Since that decision is upon us, since language is included 
in the omnibus, I very much welcome this opportunity today to 
better understand the Navy's rationale for this change in its 
strategy. Both the Secretary and Admiral Roughead have said 
that this plan is good for our shipbuilding industrial base. As 
all the members of this panel as well as my colleagues on this 
committee know, preserving the industrial base is a major 
concern of mine and a major concern of the Navy's.
    Let me start by first exploring that issue with you, and 
I'll start with you, Admiral Roughead. When the Navy announced 
last year that it was going to hold an LCS down-select 
competition and cease to build the two different designs, it 
stated that the winning shipbuilder would build 10 ships in the 
near term and then there would be a second competition that 
would be held by the Navy to introduce the second source 
shipbuilder.
    A number of Navy shipbuilders, including Bath Iron Works 
(BIW) in my home State, relied on the Navy's announced plan and 
thought that they might well end up competing to be that second 
source for the ship that was produced as a result of the down-
select. The reason that this is important to our shipbuilders 
is many of them, including BIW, are looking out and seeing gaps 
in their workload, and the potential of being able to build 
some of the LCSs would help fill in some of those gaps.
    Under the Navy's new proposal, however, the Navy will 
continue to build both designs with the two current 
shipbuilders and there's no longer a definitive plan or 
commitment by the Navy to introduce competition by other 
shipbuilders in fiscal year 2012, which had been the original 
plan.
    I understand the case that you're making for the new plan 
and I understand the advantages that it could have, including 
certain cost advantages. But I'm concerned that you're removing 
an opportunity for more volume to help fill in those gaps for 
other shipbuilders that had hoped to build LCSs in the future 
and now are unlikely to have the opportunity to do so.
    I realize that's a long introduction to my concern. But 
given your new proposed strategies, what specific actions will 
the Navy's leaders take to preserve shipbuilding volume and 
stability at critical shipyards like BIW if it now appears that 
they're not going to be involved in building the LCS? I ask 
this in particular because of my concern that we still don't 
have the DDG-1000, the second and third ship, under 
construction contracts, even though they've been fully 
authorized and appropriated, and in view of my concern about 
the low level of procurement on the DDG-51, a concern that I 
know you share.
    Admiral, if you could address that concern on how you plan 
to preserve shipbuilding volume and stability necessary for our 
shipyards if you go this new route.
    Admiral Roughead. Yes, Senator. Thank you for the question. 
In fact, even if we go with the 20-ship option that we're 
talking about here, that's only about half the ship class. So 
our commitment is to continue to build the LCS, to get to the 
target of 55 that we need. So there is more shipbuilding that 
will go on as a result of the LCS.
    This is not an operational factor for me, but I also 
believe that the designs of the ships, the flexibility in the 
ships, and also the cost of these ships open up potential for 
foreign military sales that would otherwise not be there. Then 
on top of that, is the savings that we derive, because we look 
at our shipbuilding account in its entirety. These savings also 
enable us to look at how we can shift around other procurements 
that we may need because we've realized these savings.
    Senator Collins. I guess my concern is if you have the two 
current shipbuilders each building 10 ships--and I understand 
the advantage if you can get 20 ships for the cost of 19, that 
that is powerful--but it seems very unlikely to me that other 
shipbuilders are going to be able to come in at that point. 
That's very different from a down-select that produced 1 ship 
design, the first shipbuilder would build 10, and then it's a 
tossup or an open competition. It's very different if you're 
going with 20 ships, 10 at each shipyard, and it seems to me 
that does make it unlikely for others to bid in the future.
    Let me go to your second point about cost and ask the 
Secretary and you both this question. The Navy has asserted 
that the dual-award strategy not only adds stability to the LCS 
program, but will produce savings that could benefit 
shipbuilding programs as a whole. Earlier this year, as you're 
all aware, both the Senate Armed Services Committee and the 
House Armed Services Committee expressed concern in our 
committee reports that the procurement rate for destroyers is 
insufficient.
    If the Navy's large surface combatants continue their 
historical average service lives of 25 to 30 years, we are 
never going to reach the Navy's goal of 88 large surface 
combatants. Furthermore, if you look at the independent Perry 
and Hadley panel which reviewed the Quadrennial Defense Review, 
that panel recommended a fleet of 346 Navy ships. Admiral 
Roughead, every time we've talked you've always been careful to 
say 313 is the floor, and so I suspect that higher number is 
not really a surprise to you. These are actual requirements. 
This isn't pie in the sky. These are to meet our military 
presence requirements.
    Secretary Mabus, we'll start with you: Do you believe that 
the change that you're proposing for the LCS program will make 
it easier for you to address the budget shortfalls facing the 
shipbuilding budget?
    Mr. Mabus. Thank you, Senator. Yes, as Secretary Stackley 
said earlier, we would propose taking the savings that we get 
from the proposed dual buy and keeping it in shipbuilding, so 
that we can procure more ships, for the same amount of money 
over the next 5 years.
    Admiral Roughead and I share your concern that we keep 
these critical skills in our shipyards, because shipbuilding 
skills tend to be unique and if you lose those skills they are 
very hard, if not impossible, to regain. Second, as this 
committee has authorized, the DDG-51 line has been restarted, 
because it is one of our crucial platforms. It's one of the 
most flexible platforms that we have, and that's particularly 
true since the President has given the Navy the mission of 
being the first antiballistic missile defense in the Phased 
Adaptive Approach. We're the first phase, the Aegis system that 
goes on the DDG-51.
    So it would certainly be our hope and our recommendation 
that any savings we get from the LCS program go back into 
building more of other classes of ships.
    Senator Collins. Admiral Roughead, do you want to add to 
that or give me a similar commitment that the savings would be 
not diverted for other purposes, but help meet the shortfall 
that is so clear in the shipbuilding budget?
    Admiral Roughead. Yes, Senator. I am committed to the force 
structure. I think I've been consistent with that during my 
time as CNO. I'm also very focused on the need for 
recapitalizing the combatant fleet when we get to the 20s. That 
is an issue that I would submit is bigger than the Navy, 
because it is about our ability to field that type of force as 
part of our national interest. It's also significantly 
important to our industrial base and what we will be doing as 
the ships that we built in numbers in the 80s age out. Key to 
that, one of those large number-drivers, are our combatants, 
the DDG-51s, and so that is the strategy that we as a Navy and 
we as a Nation have to take forward into the 2020s.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Starting round two, I just have really one additional 
question. There's been the question of the additional O&S costs 
of operating two different ships here. I think you told us, 
Secretary Stackley, that we're going to be operating ships in 
each class in any event since we will have at least two in each 
class. So the question is how confident are you that you have 
adequately estimated the marginal costs of operating a larger 
number of the ship class that might have only included two 
ships?
    Mr. Stackley. Yes, sir. We have broken down the different 
categories of costs and to the extent that we can at this stage 
in what will be about a 40-year life cycle for the program, 
have tried to discretely cost out the research and development 
(R&D), the procurement, and the operations and maintenance 
(O&M) bills associated with the dual design. We start on the 
R&D side on the upfront. We have a good understanding today of 
things like training systems required for the two different 
ship types, and in fact we have training systems that we've 
already procured for the two different ship types, so we have 
high fidelity in the remaining costs in that category.
    We're sustaining two different design efforts today inside 
of the procurement. We look at the premium associated in plans 
and engineering in a down select versus the dual-award inside 
of the budget, and then we are able to extrapolate that outside 
of the FYDP carrying that on into the life cycle for the class. 
So we believe we have good fidelity there.
    When you get into software maintenance and modernization, 
that's subjective and it's subjective by way of there are 
future decisions that we're going to make on the class that 
will impact that. So while we have what I'll call a plug number 
in there in our estimate, throughout the life cycle we're going 
to be continually reevaluating what modernization at what 
cycle, what point in the program, do we insert new capabilities 
or do baseline upgrades. That's a little bit more subjective. 
It doesn't have the fidelity as compared to the other 
categories that I've described.
    Chairman Levin. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you.
    I appreciate all of you. I know that the Navy has worked 
hard to bring this program under control. I think earlier when 
our independent evaluators were criticizing the program I think 
the Navy's defense was not so good. But I do believe you've 
gotten this program under control and I thank you for that. I 
think that criticism and objective view helped get us to the 
position we are today.
    But ultimately it is the Navy who handles this weapons 
system, who's working with it daily, who's had people in the 
shipyards monitoring every step of the construction. I value 
your opinion and you've seen both the ships and you say both 
would be helpful to you. I think that's something that we 
should consider.
    It does seem to me, Admiral Roughead, that if a decade from 
now a new anti-mine warfare system, a new surveillance system, 
a new weapons system, came about and you decided to put it on 
15, 20, or 30 of the ships, might not one of those ships be 
better able to handle it, and could that be an advantage from 
having ships with slightly different capabilities?
    Admiral Roughead. Yes, sir, I think the two different types 
give us a certain amount of flexibility and versatility, as I 
talked earlier about this ability to mix the capabilities of a 
force that we put in there.
    The other thing I would say that the LCS gives us that 
other ships do not is that if we are upgrading a mine warfare 
capability in the LCS that seaframe can be off doing something 
in anti-submarine warfare. Today, if we want to take it in and 
upgrade a capability, that ship comes off line. In the case of 
the LCS, we can upgrade the mine countermeasure package while 
the ship is doing anti-submarine warfare or surface warfare.
    The ability to increase capability on these ships on both 
designs is really quite extraordinary. That's why the system 
that we're putting together is for more than a ship. It really 
is a capability that we've not had before.
    Senator Sessions. I think you could argue that there could 
be a minor extra cost because one ship is presumably slightly 
less expensive than the other, but apparently they're pretty 
close, from what I understand from your testimony. So I think 
that the additional advantage is helpful.
    One thing about our industrial capacity, Secretary Mabus. 
We often sell ships to our allies and it's both good for our 
shipbuilding capacity and for those countries.
    Having two ships, might that be somewhat of an advantage 
for our ability to export weapons systems to our allies?
    Mr. Mabus. I think it would, Senator. I think, like 
operationally, in terms of foreign military sales, having both 
versions gives us more flexibility. Some countries may want one 
version for specific reasons. Others may want the other. I 
think it gives us a better opportunity to make those sales and 
make more of them than with one version.
    Senator Sessions. I just don't think there's any doubt, Mr. 
Chairman. If these shipyards are preparing to go forward, 
they're at a point where the delays do impact them. I see one 
Navy source in a recent article said there's a 100 percent 
chance of a contest or a protest. I don't know whether that's 
accurate or not. But certainly we would be in a position to 
move forward with a lot less potential delays in this 
recommendation of the Navy. I'm inclined to think it's well 
thought out.
    Thank you for having this hearing.
    Chairman Levin. Thank you very much, Senator Sessions.
    I'll just close with one request and then one comment. The 
request is that the agencies that help us to oversee these kind 
of issues--we've run into this proprietary issue before. It's 
not the first time. So we would ask you to give some thought as 
to how we can in the future address that issue. You have the 
same issue. You're unable to be more specific because you don't 
have the information. It's proprietary and these contractors 
are not going to disclose it.
    We have the Navy, on the other hand, that has seen it, and 
has given us the assurances. These are fixed-price contracts. 
If these weren't fixed-price contracts, let me tell you, I'd 
have plenty of problems with these contracts. They're fixed-
price contracts, so we have a pretty fair handle on that. But 
still, if we can solve that proprietary information issue in 
the future, I think it would be helpful to you and it would be 
helpful to us as well.
    In terms of my comment, this has been a troubled program, 
obviously. The Senate has been deeply involved in trying to get 
this back on track. It seems like it is on track. This is the 
first daylight in this program that I think we've seen, and 
it's very welcome. We are grateful that all of you would come 
here today again on short notice; it was important that you be 
available to answer these questions. I think you've done a 
very, very good job of doing that.
    Thank you all. With that very positive comment, we now 
stand adjourned.
    [Whereupon, at 4:36 p.m., the committee adjourned.]

                                <all>&&

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
